<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-731]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-731

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


Department of the Interior, 
Environment, and 
Related Agencies 
Appropriations 


                                                       Fiscal Year 2013


                                         112th CONGRESS, SECOND SESSION


                                                              H.R. 6091


DEPARTMENT OF AGRICULTURE

DEPARTMENT OF THE INTERIOR

ENVIRONMENTAL PROTECTION AGENCY

NONDEPARTMENTAL WITNESSES


     Department of the Interior, Environment, and Related Agencies 
                          Appropriations, 2013
                         (H.R. 6091)--Part 1




                                                        S. Hrg. 112-731

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 6091

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2013, AND FOR OTHER PURPOSES

                               __________


                       Department of Agriculture
                       Department of the Interior
                    Environmental Protection Agency
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-332PDF                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  

  
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio
                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                   JACK REED, Rhode Island, Chairman
DIANNE FEINSTEIN, California         LISA MURKOWSKI, Alaska
PATRICK J. LEAHY, Vermont            LAMAR ALEXANDER, Tennessee
BARBARA A. MIKULSKI, Maryland        THAD COCHRAN, Mississippi
HERB KOHL, Wisconsin                 SUSAN COLLINS, Maine
TIM JOHNSON, South Dakota            RON JOHNSON, Wisconsin
BEN NELSON, Nebraska                 ROY BLUNT, Missouri
JON TESTER, Montana                  JOHN HOEVEN, North Dakota
MARY L. LANDRIEU, Louisiana
DANIEL K. INOUYE, Hawaii (ex 
    officio)
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                               Ryan Hunt
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                         Brent Wiles (Minority)

                         Administrative Support

                              Teri Curtin
                      Courtney Stevens (Minority)


                            C O N T E N T S

                              ----------                              

                      Wednesday, February 29, 2012

                                                                   Page

Department of the Interior: Office of the Secretary..............     1

                       Wednesday, March 14, 2012

Department of the Interior: Bureau of Land Management............    77
Department of the Interior: Bureau of Ocean Energy Management....    86
Department of the Interior: Bureau of Safety and Environmental 
  Enforcement....................................................    91

                       Wednesday, April 18, 2012

Department of Agriculture: United States Forest Service..........   125

                        Wednesday, May 16, 2012

Environmental Protection Agency..................................   175
Nondepartmental Witnesses........................................   235


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Leahy, Tim Johnson, Tester, 
Landrieu, Murkowski, Alexander, Cochran, Collins, and Hoeven.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. KEN SALAZAR, SECRETARY
ACCOMPANIED BY:
        DAVID J. HAYES, DEPUTY SECRETARY
        PAMELA K. HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET, FINANCE, 
            PERFORMANCE, AND ACQUISITION


                 opening statement of senator jack reed


    Senator Reed. Let me call the hearing to order and on 
behalf of the members of the subcommittee I'd like to welcome 
the Secretary of the Interior. Mr. Secretary, thank you very 
much for taking time to be with us this morning and to talk 
about the fiscal year 2013 budget for the Department of the 
Interior.
    I would also like to take a moment to thank you for all the 
time that you spent in our States during the past year visiting 
our shared priorities. I very much appreciated your trip to 
Rhode Island last summer and your support to create the John H. 
Chafee Blackstone River Valley National Historic Park.
    I am also grateful for your participation, you and your 
staff, along with Senator Murkowski, for our very interesting 
and informative trip to Alaska. And I would also like to thank 
Senator Murkowski not only for her gracious hospitality in 
Alaska, but for her extraordinary efforts last year on a 
bipartisan basis to bring forward an Interior bill which I 
think was a good one. Thank you very much, Senator Murkowski, 
for your great work and for the work of your staff.
    Mr. Secretary, I also want to thank you for your intense 
interest in all these issues and for your accessibility and 
collaboration with us throughout the process last year, and we 
look forward to the same collaboration going forward this year.
    Turning to the budget, it appears that the administration 
is seeking $10.4 billion for Interior programs under the 
jurisdiction of this subcommittee. That is an increase of $139 
million, or about 1 percent more than the equivalent fiscal 
year 2012 enacted level.
    Within that amount, funding for the operations of our 
national parks, refuges, and other public lands is essentially 
flat at $4.56 billion. Tribal programs are also flat-funded at 
approximately $2.53 billion.
    The budget request does include a few new investments, 
including a $115 million increase for the Interior Department's 
Land and Water Conservation (LWCF) programs, for a total of 
$332 million. That amount is a 53-percent increase more than 
the fiscal year 2012 level and includes a new emphasis on 
landscape-scale projects in Montana, Wyoming, and Florida.
    I look forward to discussing how this proposal fits in with 
other land acquisition priorities particularly since I notice 
that there are no projects in some of our States, Rhode Island 
included, with respect to land acquisition. And it is very 
important, I think you recognize this, for urban parks and 
refuges and also for the whole country that we have an active 
acquisition process going forward.
    The budget request also includes $222 million for the 
Bureau of Safety and Environmental Enforcement (BSEE), a 13-
percent increase for inspections and enforcement. I understand 
the Department intends this funding increase to continue the 
transformation of its offshore energy program.
    The request also proposes substantial increases in science, 
including a 3-percent increase in the U.S. Geological Survey's 
(USGS) budget for a total of $1.102 billion. Within that amount 
is $18.5 million for hydraulic fracturing research to support a 
multi-agency research effort to address environmental questions 
related to energy development.
    Of course, as is often the case during these fiscally 
difficult times, the administration's budget request also 
contains reductions to other important programs, including a 
19-percent cut to land management agency construction programs 
and an additional 14-percent cut to the construction of tribal 
schools. And finally, it requires yet another round of belt-
tightening by the Department's Bureaus to produce $80 million 
in administrative savings.
    As we discuss the details of this request, it is very 
important to note that, for decades, resources provided to the 
Department through the Interior, Environment, and Related 
Agencies appropriations bill have created jobs by enabling oil 
and gas development, supporting outdoor recreation, and 
building facilities, roads, and trails on our public lands.
    The Department now has the opportunity to spur economic 
growth through new sectors like renewable energy, and that fact 
makes it even more important that the right resources and 
policies are in place to permit these projects to proceed 
quickly and responsibly.
    In particular, I would like to have a conversation about 
the role of the Bureau of Ocean Energy Management (BOEM) in 
permitting new offshore wind projects, which have the ability 
to create hundreds of new assembly and manufacturing jobs all 
across our coastal areas, but in particular at Quonset Point, 
Rhode Island. I think some of my colleagues also have some 
interest in those projects.
    We have worked in Rhode Island and in adjacent States, but 
particularly Rhode Island, to develop an ocean special area 
management plan (SAMP), first in the Nation effort to 
streamline the planning process for the siting of these 
facilities. And despite all this work, I am concerned that 
BOEM's environmental assessment and planning process for Rhode 
Island is falling behind schedule, that we are not keeping pace 
with other areas of development.
    And finally, I would also expect to discuss how the 
Department's budget request will support and expand other types 
of energy development. The subcommittee has been very involved 
in the reorganization of offshore oil and gas programs, and I 
am anxious to hear a progress report from the Secretary 
regarding how the Department's three new Bureaus are addressing 
their management challenges.
    I anticipate that we will also discuss the changes the 
Department is proposing to its onshore energy development 
budget, including a proposal for a new inspection fee for oil 
and gas development on Bureau of Land Management (BLM) lands, 
and I look forward to a good conversation on all of these 
important issues.
    And now, Mr. Secretary and colleagues, I would like to turn 
to the ranking member for any of her comments.
    Senator Murkowski.


                  STATEMENT OF SENATOR LISA MURKOWSKI


    Senator Murkowski. Thank you, Mr. Chairman, and welcome to 
the panel.
    We had the opportunity yesterday to have Secretary Salazar, 
Assistant Secretary Hayes, and Ms. Haze before the Energy 
Committee. So I had a chance to do some warm-up questions then, 
but it is good to welcome you back to this subcommittee.
    And Mr. Chairman, you mentioned the trip that we took to 
Alaska this summer. I, too, want to thank the Secretary and 
thank you and your staff. Peter Kiefhaber, who is no longer 
with the subcommittee, but did a great job with us as we worked 
that Interior package last year. So thank you not only for the 
time that you took to look at some issues that are very 
important to my State and to the country, but also for the good 
work of your staff as we built that bill last year.
    This morning, Mr. Chairman, I think we recognize that this 
is just the first of several of our subcommittee hearings that 
we will engage in an oversight role we exercise during these 
hearings. It is especially critical in this challenging fiscal 
climate where we are forced to make some very difficult 
decisions, difficult choices between many worthy programs that 
are funded by this bill and by others.
    It is imperative that we work with the executive branch to 
improve the efficiency and the quality of the programs that are 
administered by all of the agencies that are under our 
jurisdiction. I think we all recognize that in this time we are 
all having to figure out how we do more with less.
    As you have indicated, Mr. Chairman, the Department's 
budget request is essentially flat at $10.4 billion. But before 
I describe some of the concerns that I might have, I want to 
applaud you, Mr. Secretary, for including the full amount of 
contract support costs for the Bureau of Indian Affairs (BIA) 
request.
    These funds are absolutely, absolutely critical for the 
delivery of so many programs to Native Alaskans. As you know, 
this is a top priority for me, and I hope that we can encourage 
Indian Health Services to adopt your approach in future 
requests. So I thank you for that.
    There are a number of concerns that I have with the 
Department's budget proposal for fiscal year 2013. Similar to 
last year, it does propose to increase by 39 percent the amount 
for LWCF programs while at the same time we are cutting the 
construction accounts for all of the land management agencies 
and BIA.
    I think it is somewhat shortsighted to continue 
underfunding essential construction and maintenance programs 
while at the same time we are increasing the operational 
demands on the Department by expanding the amount of land under 
its jurisdiction. That was something that I had noted 
yesterday.
    I do find it curious that at the same time that the budget 
proposes to dramatically expand Federal land acquisition that 
it eliminates the National Wildlife Refuge Fund, which 
compensates States and localities for the loss of tax revenue 
due to Federal ownership.
    And while the budget proposes to extend mandatory Payments 
in Lieu of Taxes (PILT) that expire this fiscal year by just 1 
additional year, it doesn't provide for offsets. I think that 
before we commit funds to additional land acquisitions that we 
should make sure that we have got a definitive way to honor our 
existing commitments to States and counties that already have a 
large Federal land base which is not subject to property taxes.
    I was in Ketchikan on Friday. It is the southernmost 
community in southeastern Alaska, sits in the middle of the 
Tongass National Forest. I was reminded that in Ketchikan, only 
1/30th of 1 percent of the Ketchikan borough is taxable, is 
subject to any taxation, 1/30th of 1 percent.
    So when we cut back on PILT, when we cut back on Secure 
Rural Schools program funding, there is no way to expand their 
tax base. They are sitting in the middle of a national forest. 
So it was a good reminder to me of the importance of some of 
these mandatory payments.
    Also, a number of troubling proposals in the request for 
new fees that would raise the cost of domestic energy 
production, mining, and livestock grazing. I am concerned with 
what I would describe as a budget gimmick, and this relates to 
the Coastal Impact Assistance Program (CIAP).
    There is an offset of current discretionary programs by 
rescinding the $200 million within CIAP. This was established 
by the Energy Policy Act of 2005 in recognition of the direct 
impacts that are caused by Federal offshore Outer Continental 
Shelf (OCS) development on our OCS-producing States.
    Alaska, for instance, would lose $16 million of the 
remaining $45 million that it is entitled to under the program 
for environmental mitigation and infrastructure improvements. 
This is an unacceptable situation in my opinion, particularly 
in light of the fact that we have yet to enact legislation that 
would provide for State revenue sharing for OCS-producing 
States so that the projects that are currently supported by 
CIAP would continue to have a funding source.
    On a positive note, and as I said yesterday, you can't have 
conversations like this without--and being critical in areas 
without recognizing where we truly have made significant gains, 
and I thanked you for the contract support. But I would also 
like to thank you, Mr. Secretary, and the Department for the 
approval of Shell's Arctic spill prevention plan on the 17th of 
this month. I am very, very hopeful that after a number of 
false starts on this exploration of both the Beaufort and the 
Chukchi Seas that we can actually begin this summer.
    And again, Mr. Hayes, I thank you for your very personal 
efforts. You have been engaged at a level at the Secretary's 
request that I think has helped to facilitate this process.
    I am also very optimistic that language that was included 
in last year's Interior, Environment, and Related Agencies 
appropriation bill that transfers the authority over air 
quality issues in Arctic OCS from the Environmental Protection 
Agency to the Department of the Interior will finally provide 
some much-needed regulatory certainty for the environmentally 
safe and timely development of our resource.
    So I thank you for your assistance in many of these areas. 
Look forward to furthering our conversation today.
    And I thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski.
    Mr. Secretary, while we anticipate your testimony, I would 
like to give my colleagues present here an opportunity to make 
a brief statement before you begin.
    Senator Collins.


                   STATEMENT OF SENATOR SUSAN COLLINS


    Senator Collins. Thank you, Mr. Chairman.
    First, Mr. Chairman, let me say how much I look forward to 
working with you and the ranking member this year in crafting 
this important appropriations bill. And of course, it is always 
a pleasure to welcome back to the subcommittee our former 
colleague Secretary Salazar. I told Secretary Salazar this 
morning that he was my favorite Cabinet member, to which my 
colleague Senator Alexander quickly replied that I tell all the 
Cabinet members that.
    Senator Collins. But truly, we do have a special 
relationship from having served together. I also want to thank 
the Secretary for traveling to Maine last August to see the 
exciting new deepwater offshore wind technology that is being 
developed there.
    While I have looked forward to learning more about the 
broad range of activities included in the Department's budget 
request, I am particularly interested in discussing the BOEM's 
efforts with regard to leasing and permitting deepwater 
offshore wind, an issue that I know is of great interest to the 
chairman of this subcommittee as well. Specifically, I look 
forward to discussing BOEM's efforts in Maine, including the 
Renewable Energy Task Force and Statoil's unsolicited lease 
application.
    I know that you share my interest in streamlining the 
development of our offshore wind resources permitting so that 
we do not lose the global race in the development of this 
abundant, renewable energy source.
    In addition to advancing our goal to responsibly develop 
our energy resources, partnerships are paramount for striking 
the right balance in meeting our shared conservation goals. On 
that foundation, our open spaces, recreation, and working lands 
can continue to coexist for the benefit of future generations.
    One of the most important Federal programs to assist in the 
preservation of recreational and environmental resources is the 
LWCF. Secretary Salazar, you have been such a leader in this 
area, and I know you well recall how hard we worked together in 
this area to increase funding during your time in the Senate. I 
appreciate the administration's continued commitment to LWCF, 
which has funded the acquisition of key parcels within Maine's 
treasured Acadia National Park and strategic forest legacy 
projects.
    In addition, I am pleased to see partnerships highlighted 
in the America's Great Outdoors Initiative, including two 
community-led signature projects in Maine, the Keeping Maine's 
Forests and the Penobscot River Restoration Project. The 
Penobscot River Restoration Project is the largest river 
restoration project ever undertaken in the eastern part of the 
United States. It has been a true private-public partnership.
    I look forward to working together, particularly 
considering the challenging budget constraints, to ensure that 
the Department continues to provide technical assistance and 
seed money to help match the considerable private funding that 
has been raised to complete these flagship projects.
    These are just some of the issues I hope to touch on today, 
and I thank you, Mr. Chairman, for the opportunity to give an 
opening statement.
    Senator Reed. Thank you, Senator Collins.
    Are there any other colleagues that wish to give an opening 
statement? Senator Tester.


                    STATEMENT OF SENATOR JON TESTER


    Senator Tester. I will be brief. I want to thank you, 
Chairman Reed and Ranking Member Murkowski, for holding this 
hearing.
    And I want to thank Secretary Salazar, flanked by the two 
``Hay-zes'' here today. I appreciate the work you have done.
    I just want to look back. I think we had an incredibly 
successful year last year with wolf delisting, with the Cobell  
settlement, with the Crow water settlement. And I think that 
the ground-up strategy that you folks have used for land 
management, I think, is critically, critically important, and I 
applaud you on that.
    As we flesh out this budget, I think we need to continue to 
work to make things as good as we can for your Department and 
for the Federal lands around the country.
    So thank you very, very much.
    Senator Reed. Thank you very much, Senator Tester.
    And I am going to try to abide by the early bird rule with 
one exception. Senator Leahy has asked that he be recognized in 
the proper democratic order when he arrives, and I will do that 
and wanted to let my democratic colleagues know that.
    And with no----
    Senator Alexander. Wait. Could I make a brief statement?
    Senator Reed. Absolutely. Senator Alexander, please.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Mr. Chairman, I want to join in the 
welcome of Secretary Salazar, who is well known and well loved 
here in our--in the Senate and thank him for his travels, 
including to the Great Smoky Mountain National Park, where he 
appeared with, among others, Dolly Parton, rendering everybody 
else who was present unimportant.
    But, one, I want to remind the Secretary and this 
subcommittee of the disparity in funding of our great national 
parks. The Great Smokies is the only park, only big park, that 
was actually given to the United States. It wasn't carved out 
of Federal land. And as a result of that, we don't collect a 
fee on people who come into the Great Smoky Mountain Park. So 
we have about one-half as much money to spend and two or three 
times as many visitors as even the big western parks in the 
Great Smokies.
    Last year, $35 million for Yellowstone National Park, $29 
million for Yosemite National Park, 19 million Federal dollars 
for the Smokies. And the people in the area have worked hard 
to--and of course, at Yellowstone National Park and Yosemite 
National Park, you have the fees on top of that. And at 
Smokies, you don't.
    Now we make up for that with a lot of volunteer work on the 
trails and efficient management. But I would hope, Mr. 
Secretary, you would look for ways to recognize the Smokies 
doing so much for itself, and you and I have talked about the 
joint curatorial collection facility there that would benefit 
five national park properties, which is competing for 
construction funds, which I know are diminishing, but a place 
to put important papers from the area, including President 
Andrew Johnson's papers.
    And we hope it has a priority and maybe a little equity 
since the park is not as well funded as others, even though it 
has two or three times as many visitors as other parks.
    The second thing I will be asking you about are fish 
hatcheries, which supply--one of which supplies the whole 
country. And I learned a long time ago that there are probably 
more people with hunting and fishing licenses in Tennessee than 
who vote. And so, this is serious business for us, and I will 
be asking you if you will give me some assurance you will not 
close the two fish hatcheries in Tennessee until we find a 
funding solution.
    We are working with the Corps of Engineers (COE), the 
Tennessee Valley Authority (TVA), to try to find a solution to 
this. We understand you will have to reduce some Federal 
funding. But if they close before we find a solution, that will 
be very, very disappointing.
    So I welcome you, and I look forward to my opportunity to 
ask questions at a later time.
    Senator Reed. Thank you very much, Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Reed. Mr. Secretary before you begin, I want to 
again recognize Deputy Secretary Hayes and Deputy Assistant 
Secretary Haze.


                    SUMMARY STATEMENT OF KEN SALAZAR


    Secretary Salazar. Thank you very much, Chairman Reed, and 
thank you for the recognition of my colleagues, members of the 
subcommittee, Deputy Secretary David J. Hayes and Pamela K. 
Haze, Deputy Assistant Secretary for Budget, Finance, 
Performance, and Acquisition.
    Ranking Member Murkowski, Senator Susan Collins, Senator 
Alexander, Senator Johnson, and Senator Tester, as I appear 
before you this morning--and I hope I am your favorite 
Secretary, Senator Collins--I can only tell you that when I 
look at the five of you, six of you, you are some of my 
favorite Senators.
    Secretary Salazar. I think if the rest of the U.S. Senate 
were like the six of you who are here today, I think we could 
solve every problem in the world. So I just wish there were 
more of you, both Democrats and Republicans.
    Let me also just acknowledge the great work of your staff. 
Rachael, congratulations on your appointment. We will miss 
Peter, but we know you will carry on and do a great job, and 
the great bipartisan relationship that you also have on the 
subcommittee reflects back on the staff. It has been great 
working with you as well and the staff on both sides.
    Let me say in this position as Secretary, I am very, very 
honored to be able to be the custodian of America's natural 
resources and the custodian of America's heritage. From the 
Crown of the Continent in Montana to the Great Smoky Mountains, 
to Mount Rushmore and the Dakota Grasslands to Acadia and the 
Penobscot River, to Mount Denali and the North Slope down to 
the Blackstone National Heritage Area, you reflect much of my 
job in the work you all do on behalf of your States. I very 
much have enjoyed visits to your States and spending time with 
you, working on solving problems because I think all of you and 
I are committed to doing that.


                        FISCAL YEAR 2013 BUDGET


    Let me just spend a few minutes talking about the budget 
proposed for fiscal year 2013. It is a squeeze budget. It is a 
tough choices and painful cuts budget. Senator Reed made the 
statement that it is a basically a flat budget, but there are 
also some very significant cuts to make the budget balance.
    It is a budget that cuts Government and asks us to do more 
with less. That is what the President has directed us, and as 
we all deal with these tough fiscal times, that is just a 
reality we have to face. It is a budget that supports huge job 
creation in energy, both in conventional energy, oil and gas, 
as well as renewable energy, where we have all made some major 
strides.
    It is a budget that supports conservation and tourism and 
the major dollars that are brought into each of your States 
from the conservation and outdoor recreation program, including 
all those hunters and anglers, bikers and hikers, and wildlife 
watchers. It is a budget that also does as much as we possibly 
can to honor the principle of our responsibility on the trust 
relationship with Native Americans.
    Now look at this budget in context. It is 3-percent less 
than where we were in fiscal year 2011. That is 3-percent less 
than. As Senator Reed remarked, it is about flat with where we 
were in fiscal year 2012. I want to spend a few minutes on some 
of the key points of this budget.


                         CUTS AND EFFICIENCIES


    The first are cuts and efficiencies in Government. This 
budget, as it has been presented, will result in a reduction of 
the Federal workforce at Interior by 591 full-time equivalents 
(FTE). We continue to look at how we do the job assigned to us 
by this Congress over the years and to do it in the right way 
with, frankly, fewer people. We are asking a lot of our people.
    We also move forward with some program terminations and 
downsizing. Some of these cuts are painful cuts and they end up 
reflecting a $517 million cut.
    In administrative efficiencies, we have taken a hard look 
at how we are doing information technology, procurement, and 
other functions of the Department, and there is a total of $207 
million of administrative efficiencies that are also set forth 
in this budget. Cuts and efficiency in Government, we are going 
to be doing more. We are going to be doing it with less.


                         OIL AND GAS PRODUCTION


    On jobs, with respect to energy, it is one of the hottest 
issues here in the Capitol these days. We continue to move 
forward with onshore oil and gas production, as well as 
offshore oil and gas production. The President has directed us 
and we are implementing the program to move forward with the 
program that produces America's domestic energy.


                                 ENERGY


    The budget reflects $662 million for conventional energy 
resources. We are moving forward with a number of initiatives 
in the Gulf of Mexico. As Senator Murkowski said, we may be 
moving forward with some programs also in the Beaufort and the 
Chukchi Seas in Alaska and onshore in Alaska in places like the 
National Petroleum Reserve-Alaska, which had basically not been 
developed, and we are moving forward there as well. We have an 
aggressive program for oil and gas development, both onshore as 
well as offshore.


                            RENEWABLE ENERGY


    The renewable energy effort contemplates $86 million, which 
is really only about 1/10th of what we are putting in the 
conventional energy area, but still there. Our high priorities 
are to move forward with both offshore wind energy, as well as 
onshore solar, geothermal, and wind energy. By the end of this 
year, we expect to be at more than 10,000 megawatts permitted 
onshore in the United States of America. The 2005 energy bill 
that I worked with you all on had a goal of less than that, and 
we actually will be surpassing the goals that were set forth in 
the act.


                                TOURISM


    Let me finally just say outdoor recreation and tourism, it 
is important for all of you to note that wherever I have gone 
around the country, including with Senator Collins as we stood 
there at L.L. Bean, we spoke about the importance of tourism 
and conservation and job creation. Independent studies have 
indicated tourism and conservation, outdoor recreation, and 
historic preservation bring in about 8 million jobs to this 
country every year.
    A report from McKinsey International indicates we can grow 
the economy from where it is today with an additional 2.1 to 
3.3 million jobs over the next 10 years by investments in 
conservation and outdoor recreation. Hence, the request we have 
for LWCF and other investments in conservation.


                             INDIAN COUNTRY


    Let me finally just say on tribal homelands, I am proud of 
the work we have done there. I think Assistant Secretary Larry 
Echo Hawk and his team have led the effort to make some of the 
most dramatic changes. Senator Tester spoke about some of the 
achievements just in the State of Montana. That has swept the 
country, and the Deputy Secretary, David Hayes, has been 
involved in many of those initiatives.
    It is a new beginning in our relationship with Indian 
country. The 566 tribes of the United States recognize that. We 
recognize we have a lot more work to do. But when you look at 
programs like the beginning of the Navajo water supply pipeline 
that will bring for the first time potable water to the 70,000 
Navajos on the reservation, we are making significant progress 
there. I am very proud of the work that we have done there.


                           PREPARED STATEMENT


    In conclusion, Mr. Chairman, and distinguished friends and 
members of this subcommittee, this is a tight budget. It is a 
squeeze budget. There are painful cuts included.
    I don't like many of them, frankly. I would rather be doing 
a lot more if we had that luxury. But it is a budget that is 
balanced, and it invests in job creation through energy, 
conservation--not just in this subcommittee, but also in other 
committees on the water side. We are doing a lot with water, 
tribal homelands, and I appreciate all the great work that all 
of you did in getting a fiscal year 2012 budget that allowed us 
to move forward with the plans for 2012.
    So thank you all very much.
    [The statement follows:]

                   Prepared Statement of Ken Salazar

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to present the details of the fiscal year 2013 budget 
request for the Department of the Interior. I want to thank the members 
of this subcommittee for your efforts to enact a fiscal year 2012 
appropriation. The fiscal year 2012 appropriations process was 
challenging for the Congress and the agencies--it required a coming 
together of diverse philosophies and views. We appreciate the support 
of this subcommittee for our priorities including the America's Great 
Outdoors Initiative, which enhances our efforts to be responsible 
stewards of the Nation's lands and resources, expanded responsible 
development of domestic energy sources with reforms in the oil and gas 
programs, high levels of youth hiring and education in all of our 
programs, and support for improved living and economic conditions for 
American Indians and Alaska Natives. Last, I appreciate the ongoing 
support of this subcommittee and your strong interest in our programs. 
Although we may not always share the same views, we have been able to 
accomplish a lot in these last 3 years.
    The fiscal year 2013 budget builds on this strong foundation with 
$11.5 billion requested in the President's budget for the Department of 
the Interior. This includes $10.5 billion for programs under the 
jurisdiction of the Interior, Environment, and Related Agencies 
Subcommittee and included in the Interior bill. The budget for current 
appropriations is $140.3 million or 1 percent more than the fiscal year 
2012 level. The request includes reductions and savings of $516.8 
million. We made difficult choices in this budget, sacrificing in many 
areas, deferring projects, and programming savings for efficiencies in 
order to maintain funding for key priorities and investments that will 
contribute to strengthening the economic vitality and well-being of the 
Nation.
    As the President has detailed in his ``Blueprint for an America 
Built to Last'', the budget proposes investments in an economy that 
works for everyone. Our budget request supports responsible domestic 
energy development, advances an America's Great Outdoors Initiative to 
maintain our legacy and stimulate new opportunities, applies science to 
address the most formidable natural resource challenges, and invests in 
self-determination and economic development to strengthen tribal 
nations. This subcommittee has been an active partner in advancing 
these priorities. I look forward to our continued collaboration during 
the fiscal year 2013 appropriations process.

                              INTRODUCTION

    The mission of the Department of the Interior is to protect and 
manage the responsible use of America's natural resources, support our 
cultural heritage, and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives.
    Interior's people and programs impact all Americans. According to a 
Department study, in 2010, Interior programs and activities supported 
more than 2 million jobs and approximately $363 billion in economic 
activity. The Department is the steward of 20 percent of the Nation's 
lands. Interior manages the resources of the national parks, national 
wildlife refuges, and public lands and assists States, tribes, and 
others in the management of natural and cultural resources.
    Interior manages many of the Nation's natural resources, including 
those that are essential for America's industry--oil and gas, coal, and 
minerals such as gold and uranium. On public lands and the Outer 
Continental Shelf (OCS), Interior provides access for renewable and 
conventional energy development and manages the protection and 
restoration of surface mined lands. The Department of the Interior 
oversees the responsible development of 24 percent of America's 
domestic oil and gas supplies, while striving to ensure safety and 
environmental protection and the effective collection of revenue from 
this development. We estimate that energy and minerals development on 
Federal lands supported 1.3 million jobs and $246 billion in economic 
activity in 2010.
    The Department is also the largest supplier and manager of water in 
the 17 Western States, promotes and assists others to conserve water 
and extend water supplies, and provides hydropower resources used to 
power much of the Country. The Department estimates that the use of 
water, timber, and other resources produced from Federal lands 
supported about 370,000 jobs and $48 billion in economic activity.
    Interior works to ensure that America's spectacular landscapes, 
unique natural life, and cultural resources and icons endure for future 
generations, tells and preserves the American story, and maintains the 
special places that enable the shared American experience. In 2012, 
visitors made 476 million visits to Interior-managed lands and 
supported an estimated $47 billion in economic activity.
    Interior manages and delivers water, arbitrates long-standing 
conflicts in water allocation and use, and actively promotes water 
conservation. As one of the Nation's primary natural and cultural 
resource stewards, the Department makes decisions regarding potential 
development on the public lands and offshore coastal areas that can 
greatly impact the Nation's energy future and economic strength. 
Factored into this balance is the Department's unique responsibility to 
American Indians and Alaska Natives. The Department supports cutting-
edge research in the earth sciences--geology, hydrology, and biology--
to inform resource management decisions at Interior and organizations 
across the world and in earthquake, volcano, and other hazards to 
protect communities across the Nation. Maintaining and building the 
capacity to carry out these responsibilities on behalf of the American 
people is Interior's primary focus.

                       POWERING AMERICA'S ECONOMY

    Stewardship of America's lands and natural resources is at the 
heart of the national spirit and the economy--from the responsible 
management and development of natural resources and increasingly, the 
economic power of outdoor recreation.
    In 2011, the Department of the Interior generated a total of $13.2 
billion in receipts benefiting the U.S. Treasury--from a combination of 
fees, royalties, rents and bonuses from mineral, timber, and other 
natural resource development. The Department estimates that 
conventional and renewable energy produced on Interior lands and waters 
results in about $230 billion in economic benefits each year. In 2011, 
of the total receipts generated by the Interior, $11.3 billion was 
collected from energy production on public lands, tribal lands, and 
Federal offshore areas--a $2 billion increase more than the previous 
year--with receipts disbursed and revenues shared among Federal, State, 
and tribal governments.
    Since 2008, oil production from the Federal OCS has increased by 30 
percent, from 450 million barrels to more than 589 million barrels in 
2010. Balancing the need for safety and environmental enforcement, 
Interior currently manages 35 million acres of the OCS under active 
lease. A recently proposed 5-year oil and gas leasing program would 
make more than 75 percent of undiscovered technically recoverable oil 
and gas estimated on the OCS available for development.
    Onshore, the Bureau of Land Management (BLM) held 32 onshore oil 
and gas lease sales in 2011. BLM offered 1,755 parcels of land covering 
nearly 4.4 million acres. Nearly three-quarters or 1,296 of those 
parcels of land offered were leased, generating about $256 million in 
revenue for American taxpayers. This was a 20-percent increase in lease 
sale revenue more than 2010, following a strong year in which leasing 
reform helped to lower protests and increase revenue from onshore oil 
and gas lease sales on public lands. BLM recently has seen a 50-percent 
jump in industry proposals to lease for oil and gas exploration. Oil 
and gas companies nominated nearly 4.5 million acres of public minerals 
for leasing in 2011, up from just under 3 million acres the year 
before. Industry nominations are the first step in the BLM leasing 
process. After evaluating the parcels, BLM may offer them at auction. 
Successful bidders can then apply to drill for oil and gas.
    Interior is moving aggressively to put the President's energy 
strategy, ``Blueprint for a Secure Energy Future'', into action and 
expand secure energy supplies for the Nation--a strategy that includes 
the responsible development of renewable energy sources on the public 
lands. At the start of this administration, there were no solar energy 
facilities sited on the public lands, and wind energy development was 
relatively limited compared to development on private lands. Since 
March 2009, 29 onshore projects that increased approved capacity for 
production and transmission of power have been approved including the 
first ever utility-scale solar project, five wind projects, and eight 
geothermal projects. The Cape Wind Energy Project, approved for 
construction and operation, is the first ever offshore commercial wind 
operation. The 2013 budget reflects an expansion of these 
accomplishments with the goal of permitting 11,000 megawatts by the end 
of 2013.
    The President's ``Blueprint for a Secure Energy Future'' recognizes 
the economic potential of renewable energy development. The economic 
benefits could be particularly significant in America's remote and 
rural places near public lands. The Department's 2010 estimates 
identified nearly $5.5 billion in economic impacts associated with 
renewable energy activities, a growing economic sector that supports 
high-paying jobs.

                      GROWING THE ECONOMY OUTDOORS

    Interior is at the forefront of the administration's comprehensive 
effort to spur job creation by making the United States the world's top 
travel and tourism destination. In a recent statement, President Obama 
cited Department of Commerce figures showing that in 2010, 
international travel resulted in $134 billion in U.S. exports. 
International travel to the United States is the Nation's largest 
service export industry, with 7 percent of total exports and 24 percent 
of service exports. The Bureau of Economic Analysis (BEA) estimates 
that every additional 65 international visitors to the United States 
can generate enough exports to support an additional travel and 
tourism-related job. According to the travel industry and BEA, 
international travel is particularly important as overseas or ``long-
haul'' travelers spend on average $4,000 on each visit.
    President Obama has asked me to co-chair an interagency task force 
with Commerce Secretary John Bryson to develop a National Travel and 
Tourism Strategy to expand job creation by promoting domestic and 
international travel opportunities throughout the United States. A 
particular focus of the task force will be on strategies for increasing 
tourism and recreation jobs by promoting visits to the Nation's 
national treasures. The Department of the Interior manages iconic 
destinations in the national parks, wildlife refuges, cultural and 
historic sites, monuments, and other public lands that attract 
travelers from around the country and the globe. According to a 
Departmental study, in 2010, 437 million visits were made by American 
and international travelers to these lands, contributing $47.9 billion 
in economic activity and 388,000 jobs. Eco-tourism and outdoor 
recreation also have an impact on rural economies, particularly in 
Arizona, California, Colorado, Florida, Nevada, North Carolina, Oregon, 
Utah, and Wyoming.
    Interior is working to maximize the benefit of the outdoors for the 
millions of Americans at home. Hunting, fishing, and outdoor recreation 
contribute an estimated $730 billion to the U.S. economy each year. 
More than 12 million Americans hunt; more than 30 million Americans 
fish; and 3 out of 4 Americans engage in some kind of healthy outdoor 
activity. One in 20 U.S. jobs is in the recreation economy.
    Through the America's Great Outdoors Initiative, the administration 
continues to expand opportunities for recreation--through partnerships 
with States and others and the promotion of America's parks, refuges, 
and public lands. The fiscal year 2013 budget requests $5.1 billion in 
support of this initiative, a $145.6 million increase compared to 
fiscal year 2012. Funding is focused on programs supported through the 
Land and Water Conservation Fund (LWCF) land management operations, and 
other grant and technical assistance programs that promote conservation 
and improve recreational access.
    By encouraging innovative partnerships in communities across the 
Nation, the administration is expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. As part of the America's Great Outdoors Initiative, Interior 
is supporting 101 signature projects in all States across the Country 
to make parks accessible for children, create great urban parks and 
community green spaces, restore rivers, and create recreational 
blueways to power economic revitalization. Projects were selected in 
concert with Governors, tribal leaders, private landowners, and other 
stakeholders, and were evaluated based on the level of local support, 
the ability of States and communities to leverage resources, and the 
potential to conserve important lands and promote recreation.
    An example of a multi-State partnership project is the Blackstone 
River Valley Greenway. This project, completed in partnership with 
Rhode Island and Massachusetts, will create a 50-mile blueway and 
greenway trail along the Blackstone River and the historic Blackstone 
Canal, connecting Providence, Rhode Island and Worcester, 
Massachusetts, and 12 cities and towns in between. Visitors and 
residents will experience the history of the American industrial 
revolution, enjoy nature and take advantage of numerous outdoor 
recreation options, including bicycling, walking, and canoeing. The 
project will celebrate and preserve what makes the Blackstone River 
Valley National Heritage Corridor a special place to live, work, and 
visit.
    A key component of nearly all of the 101 projects is to increase 
access to the outdoors for the public. In Alaska, the Kachemak Bay 
Water Trail is proposed as a 125-mile designated water route, a key 
component of which is to maintain access to the bay. For the 
communities near Kachemak Bay, the water trail is envisioned as a new 
and sustainable economic driver. The trail would provide a logical 
route for boaters to explore the bay, promoting outdoor recreation, 
connecting people along the Bay, and expanding a culture of marine 
stewardship.
    The America's Great Outdoors Initiative is being implemented in 
partnership with communities and stakeholders across the Country. In 
January of this year, I accepted the first donation of land in south-
central Florida to officially establish the Everglades Headwaters 
National Wildlife Refuge and Conservation Area--conserving one of the 
last remaining grassland and longleaf pine savannah landscapes in 
Eastern North America. The new refuge and conservation area--the 556th 
unit of the National Wildlife Refuge System--was established with the 
support of local ranchers, farmers, and landowners who are working 
cooperatively with Interior and the Fish and Wildlife Service (FWS) to 
conserve the wildlife values on their lands while retaining their right 
to raise livestock or crops, an approach championed by the Obama 
administration.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area is one example of the new parks and refuges Interior has recently 
established to protect key natural and cultural resources for future 
generations. In addition to 650 miles of new national trails, 
designation of several national natural and historic landmarks, 
Interior welcomes the Martin Luther King, Jr. Memorial in Washington, 
DC; the Paterson Great Falls National Historical Park in New Jersey; 
the Fort Monroe National Monument in Virginia; the Dakota Grassland 
Conservation Area in North and South Dakota; New Mexico's first urban 
national wildlife refuge, the Middle Rio Grande National Wildlife 
Refuge in Albuquerque; and a signature America's Great Outdoors project 
in the Crown of the Continent Conservation Area in Montana. Interior 
launched significant efforts to protect America's enduring icons 
including upgrading the Statue of Liberty, initiating repairs to 
earthquake damage at the Washington Monument, and withdrawal of more 
than 1 million acres in the vicinity of the Grand Canyon from 
additional uranium and hardrock mining, to protect and preserve the 
natural beauty of the Grand Canyon.
    Interior's fiscal year 2013 budget request for appropriations from 
the LWCF includes a total of $450 million for Interior and United 
States Forest Service (USFS) program. The budget requests $212 million 
for Federal land acquisition within national parks, national wildlife 
refuges, and BLM public land boundaries, including $83.6 million for a 
collaborative program to support landscape-scale conservation projects 
developed in a collaborative process conducted by the USFS and Interior 
land management bureaus. Investments in ecologically important 
landscapes will be coordinated with State and local efforts to maximize 
ecosystem benefits, support at-risk species, and create wildlife 
corridors. The request includes $128.4 million for acquisition to 
facilitate protection of parks, refuges, and BLM designated areas based 
on bureau mission-specific priorities.
    The 2013 Federal land acquisition budget for BLM includes funding 
to will improve access for hunters and anglers to the public lands. 
Often these sportsmen and women are frustrated by complicated 
``checkerboard'' land ownership and are unable to access BLM lands that 
provide recreation opportunities. The budget includes $2.5 million that 
will be used to purchase easements to alleviate these challenges and 
provide improved access for public recreation.
    An additional $120 million is proposed for key grant programs 
supported by the LWCF, including $60 million each for the Cooperative 
Endangered Species Conservation Fund program and State LWCF grants.

             SPURRING GROWTH AND INNOVATION THROUGH SCIENCE

    Investments in research and development promote economic growth and 
innovation, ensure American competitiveness in a global market, and are 
critical to achieving the mission of the Department of the Interior. 
Investments in Interior's research and development will improve 
management of U.S. strategic energy and mineral supplies, water use and 
availability, and natural hazard preparedness. Sustainable stewardship 
of natural resources requires strong investments in research and 
development in the natural sciences.
    Research and development funding is increased by nearly $60 million 
in the fiscal year 2013 budget, with research and development funding 
increases among all of the Interior bureaus, and particularly the 
United States Geological Survey, FWS, Bureau of Safety and 
Environmental Enforcement (BSEE), BLM, and Bureau of Reclamation (BOR). 
With these investments, Interior will support research that addresses 
critical challenges in energy production and the management of 
ecosystems, invasive species, public lands, and water.
    Recent technology and operational improvements have led to 
increased use of hydraulic fracturing in developing natural gas 
resources. To ensure the prudent and sustainable development of this 
important source of domestic energy, economic development, and job 
creation, the fiscal year 2013 budget invests in research and 
development that proactively addresses concerns about the potential 
impacts of hydraulic fracturing on air, water, ecosystems, and 
earthquakes. The fiscal year 2013 budget supports a $45 million 
interagency research and development initiative by the USGS, the 
Department of Energy, and the Environmental Protection Agency (EPA) 
aimed at understanding and minimizing potential environmental, health, 
and safety impacts of shale gas development and production through 
hydraulic fracturing.
    The Bureau of Ocean Energy Management (BOEM) is working with the 
University of Texas and a team of arctic researchers on a 5-year 
comprehensive study of the Hanna Shoal ecosystem in the Chukchi Sea off 
Alaska's northwest coast. Past studies have identified this area as an 
important biological ecosystem, which supports a high concentration of 
marine life. Valuable data on physical and biological processes in the 
area obtained from this research effort will be combined with the 
results of previously conducted studies. The resulting information will 
be used by industry, as well as by BOEM in decisions regarding energy 
development in this region, and will be included in future National 
Environmental Policy Act analyses.
    In 2011, USGS used cutting-edge technology to complete the genome 
sequencing of the fungus that causes the skin infection that is a 
hallmark of the white-nose syndrome, which is decimating bat 
populations across the country. This sequencing will support further 
research that is necessary to develop management strategies to mitigate 
the spread of the syndrome among bats. Recognizing the impact of this 
is not limited to wildlife health, USGS and university partners 
produced a study which determined that bats contribute $3.7 billion to 
the agricultural economy by eating pests that are harmful to 
agricultural and forest commodities. The fiscal year 2013 budget 
provides $1.8 million for USGS to conduct further research and 
development to address this critical issue.
    In fiscal year 2013, the budget requests a $2 million increase in 
the BLM wild horse and burro program to fund research on contraception/
population control. Research may include topics such as studies on herd 
genetics, animal behavior, and overall rangeland use as it relates to 
sterilization and other population growth suppression techniques. The 
goal of the research will be to develop additional methods to minimize 
wild horse population growth and maintain herd health.

              DELIVERING SUSTAINABLE GROWTH THROUGH WATER

    Although BOR is within the jurisdiction of the Energy and Water 
Development Subcommittee, it plays a critical role in addressing the 
Nation's water challenges which are of interest to the subcommittee. 
BOR maintains 476 dams and 348 reservoirs with the capacity to store 
245 million acre-feet of water. BOR manages water for agricultural, 
municipal and industrial use, and provides flood control and recreation 
for millions of people. BOR's activities, including recreation, 
generate estimated economic benefits of more than $55 billion and 
support nearly 416,000 jobs.
    These facilities deliver water to 1 in every 5 western farmers to 
irrigate about 10 million acres of land, and provide water to more than 
31 million people for municipal and industrial uses and other 
nonagricultural uses. The water managed by Interior irrigates an 
estimated 60 percent of the Nation's vegetables each year. BOR 
facilities also reduce flood damages in communities where they are 
located and thereby create an economic benefit by sparing these 
communities the cost of rebuilding or replacing property damaged or 
destroyed by flood events.
    WaterSMART, established in 2010, has assisted communities in 
improving conservation, increasing water availability, restoring 
watersheds, resolving long-standing water conflicts, addressing the 
challenges of climate change, and implementing water rights 
settlements. The program has provided more than $85 million in funding 
to non-Federal partners, including tribes, water districts, and 
universities, including $33 million in 2011 for 82 WaterSMART grant 
projects. In December, Interior released a report on the effectiveness 
of the WaterSMART program, which demonstrates the importance of this 
work to the sustainability of resources in the Colorado River Basin.
    Another example of Interior's efforts to stretch water resources is 
the Yuma Desalting Plant in Arizona. BOR recently completed a year-long 
pilot operation of the plant in collaboration with California, Arizona, 
and Nevada water agencies. The pilot demonstrated the capability of the 
plant to augment Lower Colorado River supplies and produced sufficient 
water for use by about 116,000 people in a year. BOR and the regional 
water agencies are reviewing the results of this effort to evaluate the 
potential for long-term and sustained operation of the desalting plant.

 ENCOURAGING ECONOMIC DEVELOPMENT IN INDIAN COUNTRY AND HONORING TRUST 
                            RESPONSIBILITIES

    The Department has a unique responsibility to American Indians and 
Alaska Natives, which is upheld by Interior's support for a robust 
Government-to-government relationship as demonstrated by a new 
comprehensive and transparent consultation policy that ensures there is 
a strong, meaningful role for tribal governments. The Department and 
the President hosted the third White House Tribal Nations Conference in 
December 2011, bringing together tribal leaders from across the United 
States and enabling tribal leaders to interact directly with 
administration representatives and identify priority actions for 
American Indians and Alaska Natives.
    In 2011, Interior began planning to implement the landmark $3.4 
billion settlement of the Cobell v. Salazar lawsuit, and appointed a 
Secretarial Commission on Trust Administration and Reform to oversee 
implementation of the settlement agreement. The commission is 
undertaking a forward looking, comprehensive evaluation of Interior's 
management of nearly $4 billion in American Indian and tribal trust 
funds--with the goal of making trust administration more transparent, 
responsive, customer focused, and accountable.
    The Department held regional consultations across the Country to 
set the framework for the Cobell land consolidation program. The 
settlement establishes a $1.9 billion fund for the voluntary buy-back 
and consolidation of fractionated land interests to provide individual 
American Indians with an opportunity to obtain cash payments for 
divided land interests and consolidate holdings for economic and other 
uses, a significant benefit for tribal communities. Almost 4 million 
individually owned interests involving nearly 9 million acres have been 
identified as part of this effort.
    To further encourage and speed up economic development in Indian 
country, the Department took a significant step forward announcing the 
sweeping reform of antiquated, ``one-size-fits-all'' Federal leasing 
regulations for the 56 million surface acres the Federal Government 
holds in trust for tribes and individual Indians. The proposed rule 
identifies specific processes--with enforceable timelines--through 
which the Bureau of Indian Affairs (BIA) must review leases. The 
regulation establishes separate, simplified processes for residential, 
business, and renewable energy development, so that, for example, a 
lease for a single family home is distinguished from a large solar 
energy project. The proposed regulation incorporates many changes 
requested by tribal leaders during extensive consultations this past 
year to better meet the goals of facilitating and expediting the 
leasing process for trust lands. During the initial consultation period 
more than 2,300 comments were received from more than 70 tribes as well 
as several Federal agencies, including the Departments of Housing and 
Urban Development, and Agriculture, and the Internal Revenue Service. 
The BIA regulatory drafting workgroup is expected to review the 
comments and publish the final rule in 2012.
    The Claims Resolution Act of 2010 settled the Cobell lawsuit and 
four settlements that will provide permanent water supplies and 
economic security for the five New Mexico Pueblos of Taos, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona. The 
agreements will enable construction and improvement of reservation 
water systems, irrigation projects, a regional multi-pueblo water 
system, and codify water-sharing arrangements between Indian and 
neighboring communities. The primary responsibility for constructing 
water systems associated with the settlements was given to the BOR and 
BIA is responsible for the majority of the trust funds.
    BOR is requesting $21.5 million in fiscal year 2013 for the 
continued implementation of these four settlements and $25 million for 
the Navajo-Gallup Water Supply project. In total, the BIA budget 
includes $36.3 million for ongoing Indian land and water settlements, 
which includes $9.5 million for the seventh and final payment for the 
Nez Perce/Snake River Water Rights Settlement.
    A key responsibility for BIA is ensuring and improving the safety 
of Indian communities. Some Indian reservations experience violent 
crime rates that are twice the national average. The high crime rates 
are a key issue for tribal leaders as they degrade the quality of life 
for residents, attract organized crime, and are a real disincentive for 
businesses to consider these communities for economic development. 
Fiscal year 2011 was the second year of a 2-year pilot at four 
reservations to conduct expanded community policing, equip and train 
the law enforcement cadre, partner with the communities to organize 
youth groups and after school programs, and closely monitor results. 
The results exceeded expectations with a 35-percent overall decrease in 
violent crime in the four communities. Information about the four 
reservations is being analyzed and the program will be expanded in 2013 
to an additional two communities. The fiscal year 2013 budget includes 
$353.9 million for public safety and justice programs, a program 
increase of $8.5 million to support this expansion and other public 
safety activities.

                      INTERIOR'S BUDGET IN CONTEXT

    President Obama has challenged agencies to encourage American 
innovation, employ and educate young people, rebuild America, and 
promote economic development. Interior's fiscal year 2013 budget 
invests in areas that are responsive to these challenges and more. This 
budget continues funding for important programs that will protect the 
Nation's significant natural resources and cultural heritage, makes 
strategic investments in energy development, advances partnerships to 
leverage resources, and seeks improved outcomes for Indian communities. 
At the same time, this budget recognizes the need for fiscal 
responsibility. The priority programs that are level funded with fiscal 
year 2012 and limited strategic investments proposed in fiscal year 
2013 are balanced by reductions in lower-priority programs, deferrals, 
and planning efficiencies.
    Taking Fiscal Responsibility.--Interior made its fiscal year 2013 
budget decisions in the context of the challenging fiscal environment. 
The fiscal year 2013 budget of $11.5 billion, including BOR, eliminates 
and reduces lower-priority programs, defers project start-ups, reduces 
duplication, streamlines operations, and captures savings. The fiscal 
year 2013 request is $97.9 million, essentially level with fiscal year 
2012 enacted and $280.4 million less than 2011.
    The fiscal year 2013 budget contains $516.8 million in program 
terminations, reductions, and savings from administrative efficiencies. 
Staffing reductions of 591 full-time equivalents (FTEs) are planned for 
fiscal year 2013, a reduction of 741 FTEs from fiscal year 2011 levels. 
These personnel reductions are focused on areas where there are funding 
reductions. Staffing reductions will be achieved through attrition and 
buy-outs in order to minimize the need to conduct reductions in force 
to the greatest extent possible.
    This budget is responsible, with strategic investments in a few, 
targeted areas, and maintains the core functions that are vital to 
uphold stewardship responsibilities and sustain key initiatives. The 
budget also continues efforts to shift program costs to industry where 
appropriate. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6 billion, for $17.5 billion in total budget authority 
for Interior in fiscal year 2013.
    Administrative Savings.--As part of the administration's Campaign 
to Cut Waste, the Department will achieve additional administrative 
efficiencies that result in cumulative savings of $207 million from 
fiscal year 2010 to 2013. These reductions are being implemented 
throughout Interior and result from changes in how the Department 
manages travel, employee relocation, acquisition of supplies and 
printing services, and the use of advisory services. The proposed 
savings in administrative functions will not have an impact on 
programmatic performance, and to the greatest extent possible savings 
will be redirected into priority programmatic areas.
    The Department's 2013 budget reflects a freeze on Federal salaries 
for fiscal year 2012 and a 0.5 percent pay increase in 2013. The budget 
fully funds fixed costs for the civilian pay increase, anticipated 
changes in the Federal contributions to health benefits, rent 
increases, changes in workers and unemployment compensation costs, 
programs financed through the Working Capital Fund, and specific 
contract requirements for Public Law 93-638 agreements with tribes.
    Cost Recovery.--Significant portions of Interior's budget are 
funded by cost recovery, offsetting collections, and discrete fees 
linked to uses of lands and resources. The budget proposes to increase 
cost recovery to offset the cost of some resource development 
activities that provide clear benefits to customers. The proposed fees 
on oil and gas inspections are consistent with the recommendations of 
the National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling. The Commission's report stated the oil and gas 
industry should be ``required to pay for its regulators'' so that the 
costs of regulation ``would no longer be funded by taxpayers but 
instead by the industry that is permitted to have access to a publicly 
owned resource.''
    The budget includes $48 million from new inspection fees to be paid 
by onshore oil and gas producers. Instituting these fees will allow for 
a $10 million program increase to be used to strengthen the BLM 
inspection program, along with a $38 million decrease in current 
appropriations for BLM as a whole. Similar fees were proposed in fiscal 
year 2012, but not adopted due to concerns about impacts on the 
producers. The fees would be on average, 0.2 percent of the annual 
income collected by the producers. In addition to the proposed onshore 
inspection fees, estimated fee collections from the offshore oil and 
gas inspections instituted in fiscal year 2012 are slightly increased 
in fiscal year 2013 to $65 million. This fee-based funding is critical 
to maintaining the administration's aggressive implementation of a 
robust offshore safety program.
    The fiscal year 2013 budget proposes a new grazing administrative 
fee of $1 per animal unit month (AUM) on a 3-year pilot basis. The fee 
is estimated to generate $6.5 million in 2013 and will be used to 
assist BLM in processing grazing permits. During the period of the 
pilot, BLM would work through the process of promulgating regulations 
for the continuation of the grazing fee as a cost-recovery fee after 
the pilot expires.
    The fiscal year 2013 budget continues an offsetting collection 
initiated in 2012, allowing the Office of Surface Mining (OSM) to 
retain coal mine permit application and renewal fees for the work 
performed as a service to the coal industry. An estimated $3.4 million 
will be collected in 2013.

             MAJOR CHANGES IN THE FISCAL YEAR 2013 REQUEST

    The Department's fiscal year 2013 budget request totals $11.5 
billion in current authority including $10.5 billion for programs 
funded by the Department of the Interior, Environment, and Related 
Agencies Appropriations Act, 2012. This is $140.3 million, or 1.4 
percent more than the fiscal year 2012 level. The fiscal year 2013 
request for BOR including the Central Utah Project Completion Act, 
funded in the Energy and Water Development Appropriations Act, 2012, is 
$1 billion in current appropriations, $42.4 million or 3.9 percent less 
than the fiscal year 2012 level.
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual appropriation. In fiscal year 2013, Interior will 
generate receipts of approximately $13.9 billion and propose mandatory 
legislation with a total net savings of roughly $2.5 billion over 10 
years.
    Bureau of Land Management.--The fiscal year 2013 request is $1.1 
billion, essentially level with the fiscal year 2012 enacted budget. 
This includes a decrease of $8.2 million for BLM's two operating 
accounts, an increase of $11.2 million for land acquisition, and a 
reduction of $3.6 million that eliminates the construction account.
    To advance the America's Great Outdoors Initiative, the request 
includes $6.3 million in programmatic increases for recreation, 
cultural resources, and the National Landscape Conservation System for 
BLM to expand and improve opportunities for recreation, education, and 
scientific activities while enhancing the conservation and protection 
of BLM-managed lands and resources.
    BLM will continue to promote and facilitate the development of 
renewable energy on public lands, as part of the New Energy Frontier 
Initiative. The fiscal year 2013 budget includes a program increase of 
$7 million for renewable energy to support wind, solar, and geothermal 
energy. An additional $13 million in program increases are requested to 
maintain and strengthen management of the oil and gas program, along 
with a requested $10 million increase in mandatory funding specifically 
focused on strengthening BLM's oil and gas inspection program. These 
increases would be more than offset by $48 million in proposed 
inspection fees to shift the cost of the oil and gas inspection and 
enforcement activity from taxpayers to the oil and gas industry.
    The other major program increase is $15 million to implement sage 
grouse conservation and restoration measures to help prevent the future 
listing of the species for protection under the Endangered Species Act. 
BLM will use $10 million of the requested increase to incorporate the 
necessary protections into BLM's land use plans to address conservation 
of the sage grouse. These plans will guide energy development, 
transportation, and other uses and ensure conservation of sage grouse 
habitat. The remaining $5 million funds on-the-ground projects to 
restore and improve sage grouse habitat and additional inventory, 
monitoring, and mapping efforts to delineate areas of highest-priority 
habitat in the range of the sage grouse. Other program increases in the 
BLM budget include $1.5 million for the Secretary's Western Oregon 
Strategy, $2 million for research and development on population control 
in the Wild Horse and Burro Management program, and $4.4 million in the 
Resource Management Planning program to support high-priority planning 
efforts.
    A $15.8 million program decrease is proposed in the Rangeland 
Management program, however, the impact of this funding decrease will 
be mitigated by a new grazing administrative processing fee of $1 per 
AUM that BLM proposes to implement on a pilot basis through 
appropriations language, estimated to raise $6.5 million in 2013. The 
fiscal year 2013 budget reduces programmatic funding for the Alaska 
Conveyance program by $12.4 million from the fiscal year 2012 level. 
Interior will explore opportunities to further streamline the program. 
A $3.5 million program reduction is proposed in the Public Domain 
Forest Management program.
    Bureau of Ocean Energy Management.--The fiscal year 2013 operating 
request is $164.1 million, including $62.7 million in current 
appropriations and $101.4 million in offsetting collections. This is an 
increase of $3.3 million more than the fiscal year 2012 enacted level.
    The fiscal year 2013 budget includes program increases of $2 
million from the fiscal year 2012 enacted level for activities to 
promote offshore conventional and renewable energy development that is 
safe and environmentally responsible. Increased funding will be used to 
develop baseline characterization and monitoring capabilities in the 
Gulf of Mexico that are required as a result of the Deepwater Horizon 
incident, as well as to support renewable energy lease auctions.
    Bureau of Safety and Environmental Enforcement.--The fiscal year 
2013 operating request is $222.2 million, including $96.3 million in 
current appropriations and $125.9 million in offsetting collections. 
This is an increase of $24.8 million more than the fiscal year 2012 
enacted level. The $4.8 million increase for offsetting collections 
includes an estimated $3 million increase in inspection fee 
collections.
    The fiscal year 2013 budget includes funds to increase operational 
safety capabilities, develop the National Offshore Training and 
Learning Center for inspectors, and conduct research and development 
activities on critical safety systems associated with offshore oil and 
gas development.
    Office of Surface Mining.--The fiscal year 2013 budget request is 
$140.7 million, a decrease of $9.5 million from the fiscal year 2012 
enacted level. The reduction reflects decreases in grants to States and 
tribes to encourage regulatory programs to recover costs from fees 
charged to the coal industry and finalize the transition of abandoned 
mine land reclamation from discretionary to mandatory funding.
    I signed a Secretarial Order on October 26, 2011, to review certain 
functions of OSM and BLM for potential consolidation. As part of this 
effort, I asked the Directors of OSM and BLM and other Interior 
officials to report by February 15, 2012 , on the results of 
discussions with the BLM's employees, congressional committees, and 
interested parties, such as tribes, State regulatory officials, 
industry representatives, and representatives of communities affected 
by coal mining. Our efforts in consolidation will respect existing law 
and identify actions that will strengthen these two bureaus.
    United States Geological Survey.--The USGS budget request is $1.1 
billion, $34.5 million more than the fiscal year 2012 enacted level. 
The President's budget supports science, monitoring, and assessment 
activities that are critical to understanding and managing the 
ecological, mineral, and energy resources that underlie the prosperity 
and well-being of the Nation. The fiscal year 2013 budget includes a 
program increase of $51 million to fund research and development 
priorities in disaster response, hydraulic fracturing, coastal and 
ocean stewardship, and ecosystem restoration. The budget also supports 
the Secretary's initiatives in responsible energy development and 
further resolution of water challenges with funding more than the 
fiscal year 2012 enacted level.
    The USGS budget also includes investments in important science 
programs to help meet societal needs. A program increase of $13 million 
more than fiscal year 2012 for the WaterSMART Program will be used to 
conduct research on predictive models on regional water availability, 
explore methods of integrating and disseminating data through science 
platforms, and establish a National Groundwater Monitoring Network.
    A program increase of $8.6 million is requested to improve rapid 
disaster response to natural disasters. Funding will be used to improve 
capacity to provide timely and effective science and information 
products to decisionmakers, in order to minimize the risks hazards pose 
to human and natural systems. Funding will be invested in capability 
improvements to the USGS monitoring networks for rapid response to 
earthquakes, volcanoes, volcanic ash, debris flow, tsunamis, floods, 
hurricanes, and other potential threats to populations and 
infrastructure.
    The budget includes a program increase of $13 million to support 
the hydraulic fracturing research and development effort with the 
Department of Energy and EPA to understand and minimize potential 
adverse environmental, health, and safety impacts of shale gas 
development through hydraulic fracturing. New work will build on 
existing efforts and address issues such as water quality and quantity, 
ecosystem impacts, and induced seismicity.
    With a program increase of $16.2 million, USGS will conduct science 
in support of ecosystem management for priority ecosystems such as the 
Chesapeake Bay, California Bay-Delta, Columbia River, Everglades, Puget 
Sound, Great Lakes, Upper Mississippi River, and the Klamath Basin. 
With an increase of $2 million, the USGS will address overarching 
ecosystem issues related to the invasive brown tree snake, white-nose 
syndrome in bats, and coral reef health. These increases will provide 
information management and synthesis and land change science support 
for these ecosystem activities. Included in the total above is $500,000 
identified for research efforts through the Department of the Interior 
Climate Science Centers to enhance work with tribes to understand the 
impacts of climate change on tribal lands. Funding increases will also 
support priorities in sustaining our national environmental capital, 
including development of the first coordinated multi-departmental 
effort of its kind to develop a standardized ecosystem services 
framework.
    The fiscal year 2013 budget also provides a program increase of 
$6.8 million to sustain and enhance existing activities and for a new 
initiative on Science for Coastal and Ocean Stewardship that supports 
priority objectives of the National Ocean Policy in the areas of marine 
and coastal science, resource and vulnerability assessments, ecosystem-
based management, and providing science based tools to inform policy 
and management. The USGS will work with partners to provide access to 
comprehensive maps and assessments of seabed and coastal conditions and 
vulnerability. The increase will improve the integrated science needed 
to inform development of resources while conserving the Nation's 
coastal and marine ecosystems.
    Fish and Wildlife Service.--The fiscal year 2013 budget includes 
$1.5 billion, an increase of $72 million more than the fiscal year 2012 
enacted level. In addition, the budget includes a $200 million 
cancellation of prior year unobligated balances in the Coastal Impact 
Assistance program. The budget includes America's Great Outdoors 
Initiative increases of $20.9 million in the Resource Management 
account and $52.3 million for land acquisition. There is a $3.9 million 
increase in the North American Wetlands grants program, a component of 
the America's Great Outdoors Initiative. State and Tribal Grants are 
funded at $61.3 million, level with fiscal year 2012. Funding for the 
construction account is reduced by $3.9 million.
    The budget proposes a program increase of $4 million for activities 
associated with energy development. This enables FWS to participate 
fully in priority landscape level planning and assist industry and 
State fish and wildlife agencies as they plan for renewable energy 
projects and transmission corridor infrastructure. The fiscal year 2013 
budget continues the commitment to ecosystem restoration by including 
$13.5 million for the Everglades, an increase of $3 million; $4.9 
million for California's Bay-Delta, level with fiscal year 2012; $10.2 
million for the gulf coast, level with fiscal year 2012; $10.3 million 
for the Chesapeake Bay, a program increase of $145,000; and $47.8 
million for the Great Lakes, a program increase of $2.9 million. 
Funding for the Cooperative Landscape Conservation and Adaptive Science 
activity is $33.1 million, an increase of $856,000. This funding 
supports the operation of 14 Landscape Conservation Cooperatives.
    The budget includes $994.7 million available under permanent 
appropriations, most of which will be provided in grants to States for 
fish and wildlife restoration and conservation.
    The fiscal year 2013 budget proposes a reduction of $14 million to 
eliminate the discretionary contribution to the National Wildlife 
Refuge Fund payments to counties to offset local tax loss due to 
Federal land ownership. An estimated $8 million in mandatory receipts 
collected and allocated under the program would remain. Payments 
collected by counties can be used for nonconservation purposes and as 
such, this Fund does not provide the high-priority conservation 
benefits delivered by other FWS programs. The budget also proposes the 
cancellation of $200 million in prior year balances within the Coastal 
Impact Assistance Program.
    National Park Service.--The fiscal year 2013 budget includes $2.6 
billion, $1 million less than the fiscal year 2012 enacted level. 
Within the total available for National Park Service in 2013, $2.4 
billion is for programs that support the goals of the America's Great 
Outdoors Initiative. The budget proposes strategic increases to advance 
the goals of the initiative, including increases of $13.5 million for 
park operations and $17.5 million for land acquisition and State 
assistance. The budget proposes reductions of $7.8 million in the 
national recreation and preservation account from the National Heritage 
Areas program, and $24.2 million from construction. The request for the 
Historic Preservation Fund is level with fiscal year 2012--grants to 
States and tribes are continued at the fiscal year 2012 level of $55.9 
million.
    Select programmatic increases in the park operations account 
include $5 million for Climate Change Adaptive Management tools, $2 
million for U.S. Park Police operations including $1.4 million in 
support of the Presidential Inauguration, $1.2 million for National 
Capital Area parks in support of the Presidential Inauguration, and 
$610,000 for the Challenge Cost Share program. These increases are 
offset with strategic reductions of $24.8 million to park operations 
and service-wide programs.
    Funding for land acquisition and State assistance totals $119.4 
million and includes a programmatic increase of $2.5 million for 
Federal land acquisition. The land acquisition proposal includes $9 
million for matching grants to States and local entities to preserve 
and protect Civil War battlefield sites outside the National Park 
System. The budget also requests a programmatic increase of $15.1 
million for the State Assistance Grant program. The $60 million request 
for State Grants includes $20 million for competitive grants that 
support urban parks and green spaces, blueways, and landscape-level 
conservation projects in communities that need them the most.
    Funding for construction includes a programmatic reduction of $25.3 
million for line-item construction projects, however, the budget 
proposes funding for the most critical health and safety projects in 
the National Park System. It also includes programmatic reductions of 
$1.5 million from construction program management and planning, 
$760,000 from the housing improvement program, $443,000 from 
construction planning, $450,000 from management planning, and $228,000 
from equipment replacement.
    Bureau of Indian Affairs.--The fiscal year 2013 budget includes 
$2.5 billion for BIA programs, a decrease of $4.6 million from the 
fiscal year 2012 enacted level. This includes an increase of $11.7 
million for Operation of Indian Programs and a decrease of $17.7 
million in the construction account. The budget includes an increase of 
$3.5 million in Indian Land and Water Claim Settlements and a decrease 
of $2.1 million in the Indian Guaranteed Loan program.
    In fiscal year 2013, the largest increase, $8.8 million, is in 
Contract Support Costs and the Indian Self-Determination Fund, both 
high priorities for tribes. Public safety and justice activities 
receive a program increase of $8.5 million to support additional police 
officers and detention corrections staff.
    The budget proposes program increases of $7.8 million for the Trust 
Natural Resources programs and $7 million for Trust Real Estate 
Services programs. Funding increases for Trust Land Management programs 
are proposed to assist tribes in the management, development, and 
protection of Indian trust land and natural resources. The budget 
proposes a $2.5 million program increase to support increasing 
enrollment at tribal colleges.
    The fiscal year 2013 request reflects a reduction of $19.7 million 
as the Bureau will undergo a consolidation in 2013 to streamline and 
improve oversight operations. The BIA will engage in extensive 
consultation with tribes to identify strategies that will ensure tribal 
needs and priorities are addressed. Following consultation, BIA will 
construct an implementation plan for a streamlined, cost-effective 
organization. The budget also includes $13.9 million in administrative 
savings from reductions to fleet, travel, contractors, and awards.
    Departmental Offices and Departmentwide Programs.--The fiscal year 
2013 request for the Office of the Secretary is $261.6 million, a 
reduction of $266,000 from the fiscal year 2012 enacted level. Of this, 
$119.6 million is for Office of Natural Resources Revenue including a 
program increase of $1.2 million to complete termination of the 
Royalty-in-Kind program and a program decrease of $2.3 million for 
completed information management system upgrades. The budget for the 
Office of the Secretary includes a program increase of $1.6 million for 
minerals receipts modeling development to improve revenue estimation 
and reporting capabilities and a program increase of $2 million for 
facilities rent necessitated by the delay in the Main Interior Building 
modernization project. Other changes include a general program 
reduction of $3.7 million and the transfer of the Indian Arts and 
Crafts Board from the Office of the Secretary to BIA resulting in a 
reduction of $1.3 million.
    The Department's fiscal year 2013 request for the Working Capital 
Fund appropriation is $70.6 million, an increase of $8.7 million from 
the fiscal year 2012 enacted level. Within this request is $62.1 
million to continue deployment of the Financial and Business Management 
System including implementation of the acquisition and financial 
assistance functionality as recommended by an independent assessment of 
the program. The budget proposes an increase of $3.5 million to improve 
Interior's stewardship of its cultural and scientific collections and 
an increase of $2.5 million to expand collaboration similar to the 
Service First to improve delivery and operating costs. Proposed 
reductions include $5 million to reflect the shift of the Department's 
Information Technology Transformation initiative from appropriated 
funds to the Departmental Working Capital fund and $2.5 million for 
completion of the Department's Acquisition Improvement Initiative.
    Major changes in other Departmental programs include an increase of 
$243 million in the Wildland Fire Management program. The net increase 
is comprised of a program increase of $195.8 million that fully funds 
the 10-year suppression average and a program reduction of $39 million 
in the Hazardous Fuels Reduction program reflecting a refocusing of the 
program toward treatments in the wildland-urban interface.
    The budget request for the Office of Insular Affairs is $88 
million, a decrease of $16.4 million from the fiscal year 2012 enacted 
level. The budget includes $5 million to mitigate the impacts and costs 
of Compact migration and $3 million to implement energy projects 
identified by the territories' sustainable energy strategies. Funding 
of $13.1 million for the Palau Compact is not requested for 2013 as it 
is expected the Compact will be authorized in 2012.
    The Office of the Special Trustee request is $146 million, $6.1 
million less than the 2012 enacted level. The fiscal year 2013 request 
includes a program increase of $3 million for the Office of Trust 
Review and Audit to conduct compliance audit reviews for Interior 
bureaus. The budget includes program decreases of $9.9 million for 
streamlining, administrative savings, and the completion of certain 
trust reform activities.

                          MANDATORY PROPOSALS

    In fiscal year 2013, Interior will collect $13.9 billion in 
receipts and distribute $6 billion in permanent funding without further 
appropriation for a variety of purposes, under current law. The budget 
includes 13 legislative proposals that will be submitted to the 
Congress to collect a fair return to the American taxpayer for the sale 
of Federal resources, to reduce unnecessary spending, and to extend 
beneficial authorities of law. Together these proposals will save a net 
total of approximately $2.5 billion over the next decade.
    Reform Coal Abandoned Mine Land Reclamation.--The administration 
proposes to reform the coal Abandoned Mine Lands program to reduce 
unnecessary spending and ensure the Nation's highest-priority sites are 
reclaimed. First, the budget proposes to terminate the unrestricted 
payments to States and tribes that have been certified for completing 
their coal reclamation work because these payments do not contribute to 
abandoned coal mine lands reclamation. Second, the budget proposes to 
reform the distribution process for the remaining funding to 
competitively allocate available resources to the highest-priority coal 
abandoned mine lands sites. Through a competitive grant program, a new 
Abandoned Mine Lands Advisory Council will review and rank the 
abandoned coal mine lands sites, so OSM can distribute grants to 
reclaim the highest-priority coal sites each year. These reforms will 
focus available coal fees to better address the Nation's most dangerous 
abandoned coal mines while saving taxpayers $1.1 billion over the next 
10 years.
    Create a Hardrock Abandoned Mine Reclamation Fund.--To address the 
legacy of abandoned hardrock mines across the United States, the 
administration will propose legislation to create a parallel Abandoned 
Mine Lands program for abandoned hardrock sites. Hardrock reclamation 
would be financed by a new abandoned mine lands fee on the production 
of hardrock minerals on both public and private lands. BLM would 
distribute the funds through a competitive grant program to reclaim the 
highest-priority hardrock abandoned sites on Federal, State, tribal, 
and private lands. This proposal will hold hardrock mining companies 
accountable for cleaning up the hazards left by their predecessors 
while generating $500 million in savings over 10 years.
    Reform Hardrock Mining on Federal Lands.--The administration will 
submit a legislative proposal to provide a fair return to the taxpayer 
from hardrock production on Federal lands. The legislative proposal 
would institute a leasing program under the Mineral Leasing Act of 1920 
for certain hardrock minerals including gold, silver, lead, zinc, 
copper, uranium, and molybdenum, currently covered by the General 
Mining Law of 1872. After enactment, mining for these metals on Federal 
lands would be governed by the new leasing process and subject to 
annual rental payments and a royalty of not less than 5 percent of 
gross proceeds. One-half of the receipts would be distributed to the 
States in which the leases are located and the remaining half would be 
deposited in the Treasury. Existing mining claims would be exempt from 
the change to a leasing system but would be subject to increases in the 
annual maintenance fees under the General Mining Law of 1872. Holders 
of existing mining claims for these minerals could, however, 
voluntarily convert claims to leases. ONRR will collect, account for, 
and disburse the hardrock royalty receipts. The proposal is projected 
to generate revenues to the U.S. Treasury of $80 million over 10 years.
    Fee on Nonproducing Oil and Gas Leases.--The administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4 per-acre fee on nonproducing 
Federal leases on lands and waters would provide a financial incentive 
for oil and gas companies to either get their leases into production or 
relinquish them so the tracts can be leased to and developed by new 
parties. The proposed $4 per-acre fee would apply to all new leases and 
would be indexed annually. In October 2008, the Government 
Accountability Office issued a report critical of past efforts by 
Interior to ensure companies diligently develop their Federal leases. 
Although the report focused on administrative actions the Department 
could undertake, this proposal requires legislative action. This 
proposal is similar to other nonproducing fee proposals considered by 
the Congress in the last several years. The fee is projected to 
generate revenues to the U.S. Treasury of $13 million in fiscal year 
2013 and $783 million over 10 years.
    Net Receipts Sharing for Energy Minerals.--The administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2014. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
fiscal year 2013, this net receipts sharing deduction from mineral 
revenue payments to States would be implemented as an offset to the 
Department of the Interior, Environment, and Related Agencies 
Appropriations Act, 2012, consistent with identical provisions included 
in the act since 2008. Permanent implementation of net receipts sharing 
is expected to result in savings of $44 million in 2014 and $449 
million over 10 years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds.--The 
administration proposes to repeal portions of section 365 of the Energy 
Policy Act, beginning in 2014. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited BLM from establishing cost recovery fees for 
processing applications for oil and gas permits to drill. The Congress 
has implemented permit fees through appropriations language for the 
last several years and the fiscal year 2013 budget proposes to continue 
this practice. Upon elimination of the fee prohibition, BLM will 
promulgate regulations to establish fees for applications for permits 
to drill administratively, with fees starting in 2014. In combination 
with normal discretionary appropriations, these cost recovery fees will 
then replace the applications for permits to drill fees currently set 
annually through appropriations language and the mandatory permit fund, 
which would also be repealed starting in 2014. Savings from terminating 
this mandatory funding are estimated at $18 million in 2014 and $36 
million over 2 years.
    Geothermal Energy Receipts.--The administration proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
Government and States with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of 5 years, 25 percent to a new 
BLM Geothermal Steam Act Implementation Fund. The allocations to the 
new BLM geothermal fund were discontinued a year early through a 
provision in the Interior, Environment, and Related Agencies 
Appropriations Act, 2010. The repeal of section 224(b) will permanently 
discontinue payments to counties and restore the disposition of Federal 
geothermal leasing revenues to the historical formula of 50 percent to 
the States and 50 percent to the Treasury. This results in savings of 
$4 million in 2013 and $50 million over 10 years.
    Deep Gas and Deepwater Incentives.--The administration proposes to 
repeal section 344 of the Energy Policy Act of 2005. Section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure Americans receive fair value for 
federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices drop below current projections.
    Repeal of Authorities To Accept Royalty Payments in Kind.--The 
administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that royalty payments will be 
properly accounted for in the future. The budget does not assume 
savings from this change because the administration does not anticipate 
restarting the program; however, if enacted, this proposal would 
provide additional certainty that a new Royalty-in-Kind program could 
not be initiated at some point in the future.
    Federal Land Transaction Facilitation Act.--The administration 
proposes to reauthorize this act that expired July 25, 2011, and allow 
lands identified as suitable for disposal in recent land use plans to 
be sold using the act's authority. The sales revenues would continue to 
be used to fund the acquisition of environmentally sensitive lands and 
to cover the administrative costs associated with conducting sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
administration proposes to increase these fees to $25 per stamp per 
year, beginning in 2013. Increasing the cost of Duck Stamps will bring 
the estimate for the migratory bird conservation account to 
approximately $58 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2013. Total acres acquired for 2013 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association.--On September 3, 2010, the United 
States and the Republic of Palau successfully concluded the review of 
the Compact of Free Association and signed a 15-year agreement that 
includes a package of assistance through 2024. Under the agreement, 
Palau committed to undertake economic, legislative, financial, and 
management reforms. The conclusion of the agreement reaffirms the close 
partnership between the United States and the Republic of Palau. 
Permanent and indefinite funding for the Compact expired at the end of 
2009. The fiscal year 2013 budget seeks to authorize permanent funding 
for the Compact as it strengthens the foundations for economic 
development by developing public infrastructure and improving 
healthcare and education. Compact funding will also support one or more 
infrastructure projects designed to support Palau's economic 
development efforts. The Republic of Palau has a strong track record of 
supporting the United States and its location is strategically linked 
to Guam and United States operations in Kwajalein Atoll. The cost for 
this proposal for 2013-2022 is $184 million.
    Extension of Payments in Lieu of Taxes.--Payments in Lieu of Taxes 
(PILT) payments are currently authorized only through fiscal year 2012. 
The budget proposes a 1-year extension of mandatory PILT payments at 
the current authorization levels in fiscal year 2013. These payments 
support local government services in counties that have significant 
Federal lands within their boundaries. The administration looks forward 
to working with the Congress to develop a longer-term strategy for 
providing sustainable levels of funding for PILT payments, in light of 
overall constrained budgets and the need for appropriate offsets for 
new mandatory spending. This extension utilizes the current PILT 
payment formula that is prescribed by law and based on population, 
certain receipt sharing payments, and the amount of Federal land within 
an affected county. The cost for this proposal in fiscal year 2013 is 
estimated at $398 million.

                    OFFSETTING COLLECTIONS AND FEES

    The budget includes several proposals to increase cost recovery 
fees, so that industries share some of the cost of regulation.
    Fee Increase for Offshore Oil and Gas Inspections.--Through 
appropriations language, the administration proposes to continue the 
current offshore inspection fee levels authorized by the Congress in 
fiscal year 2012. These fees are estimated to generate $65 million in 
fiscal year 2013, up from $62 million in fiscal year 2012, from 
operators with offshore oil and gas drilling facilities that are 
subject to inspection by BSEE. The increased fees will fund an expanded 
inspection program, and as enacted for fiscal year 2012, operators will 
now be charged for the inspection of drilling rigs in addition to 
production platforms. These inspections are intended to increase 
production accountability, human safety, and environmental protection.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the administration proposes to implement an 
inspection fee in fiscal year 2013 for onshore oil and gas drilling 
activities that are subject to inspection by BLM. The proposed 
inspection fee is expected to generate an estimated $48 million in 
fiscal year 2013, $10 million more than the corresponding $38 million 
reduction in requested BLM appropriations, thereby expanding the 
capacity of BLM's oil and gas inspection program. The fee would support 
Federal efforts to increase production accountability, human safety, 
and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee.--The fiscal year 2013 
budget proposes to continue a fee for processing drilling permits 
through appropriations language, an approach taken by the Congress in 
the Interior, Environment, and Related Agencies Appropriations Acts. A 
fee of $6,500 per drilling permit was authorized in fiscal year 2010, 
and if continued, would generate an estimated $32.5 million in 
offsetting collections in fiscal year 2013.
    Grazing Administrative Fee.--The fiscal year 2013 budget includes a 
new grazing administrative fee of $1 per AUM. BLM proposes to implement 
the fee through appropriations language on a 3-year pilot basis. The 
budget estimates the fee will generate $6.5 million in funds that will 
assist the BLM in processing grazing permits. During the period of the 
pilot, BLM would work through the process of promulgating regulations 
for the continuation of the grazing fee as a cost-recovery fee after 
the pilot expires.
    Surface Mining and Reclamation Permit Fee.--The fiscal year 2013 
budget continues an offsetting collection initiated in fiscal year 
2012, allowing OSM to retain coal mine permit application and renewal 
fees for the work performed as a service to the coal industry. The fee 
will help ensure the efficient processing, review, and enforcement of 
the permits issued, while recovering some of the regulatory operations 
costs from the industry that benefits from this service. The fee, 
authorized by section 507 of Surface Mining Control and Reclamation 
Act, would apply to mining permits on lands where regulatory 
jurisdiction has not been delegated to the States. The permit fee will 
generate an estimated $3.4 million in offsetting collections in fiscal 
year 2013.

                               CONCLUSION

    Thank you for the opportunity to testify on the President's fiscal 
year 2013 budget request for the Department of the Interior. We have a 
tremendous opportunity to invest in America's energy independence and 
economic growth. This budget balances forward looking investments with 
fiscal restraint. For America to be at its best, we need lands that are 
healthy, waters that are clean, and an expanded range of energy options 
to power our economy. I thank you again for your continued support of 
the Department's mission. I look forward to working with you to 
implement this budget. This concludes my written statement. I am happy 
to answer any questions that you may have.

    Senator Reed. Thank you very much, Mr. Secretary.
    We will take 6-minute rounds, and I fully anticipate at 
least two rounds. But I am prepared to stay as long as my 
colleagues are here asking questions.

                             OFFSHORE WIND

    Let me begin with a topic that both Senator Collins and I 
touched upon. That is development of offshore wind power. Mr. 
Secretary, you started with your Smart from the Start 
Initiative, a very aggressive approach to thoughtfully and 
carefully beginning the process of leasing these sites so that 
we can develop power offshore and create jobs onshore.
    My concern is that in Rhode Island we are really falling 
behind in the timing of the environmental assessment while the 
Mid-Atlantic region seems to be going forward rapidly. And that 
is troubling to me in one particular aspect. It seems as if we 
have done so much preliminary work over the last 5-7 years in 
terms of the ocean SAMP, where we have, I believe, a much 
better scientific basis with respect to tidal conditions, 
fishing practices, and the whole geographic and geological 
areas, we seem to be not at the front of the line. We seem to 
be in the back of the line.
    So I would ask you, could you commit to help us expedite 
this timeframe, get the environmental assessment done in the 
same sort of period that Mid-Atlantic States are, and then move 
forward to leasing? Can you help us with that?
    Secretary Salazar. Absolutely, Senator Reed. Because I know 
many of you, you and Senator Collins in particular, are very 
interested in Atlantic wind, if I may take just a few minutes 
to speak about the effort in general?
    Senator Reed. Of course.
    Secretary Salazar. I have, from day one as Secretary of the 
Interior, thought that Atlantic wind was one of the most 
promising renewable energy programs for the United States of 
America for the ease of transmission because of the high 
quality of the wind, because of the topography off the 
Atlantic.
    Our Smart from the Start Initiative is intended to stand up 
offshore wind in the Atlantic. The President has been very 
supportive and has been leading the effort in making sure we do 
everything we can. We have set up task forces in each of the 
States, and they are moving with us to make sure we are 
deconflicting the uses of the ocean that we can stand up 
offshore wind in a real way.
    With respect to Rhode Island, just last week I think the 
Deputy Secretary and BOEM's Director and others announced what 
we have done in terms of marking those areas, more than 200,000 
acres, which are ready offshore to be developed. We are moving 
forward with the environmental assessment, and we hope to be 
able to publish that this summer in the State of Rhode Island, 
and we will do everything we can to get it done.
    The State of Maine, the disappointing news from Statoil was 
that they were perhaps planning on not moving forward with 
their deepwater application. I have asked my staff to have a 
meeting with me and Statoil to see whether we can keep up their 
interest in the deepwater because I think what Maine has done 
at its center with Senator Collins's leadership has been 
extraordinary, and I think the future for that project is very 
bright. I would be delighted to work with Senator Collins on 
that effort.
    Senator Reed. Thank you very much, Mr. Secretary.
    An ancillary question. As you know, we have two major 
projects, one in Federal waters and one in State waters off of 
Block Island. The Department of the Interior and COE and others 
have to give us approval for a transmission line from the State 
project, Block Island essentially to the mainland. Would you 
also commit to helping us expedite from Interior and BOEM's 
position those approvals?
    Secretary Salazar. The answer is absolutely yes. I would 
like David Hayes to speak a little bit to the Rhode Island 
issue because he has been working very closely with BOEM to 
make sure we are moving as fast as we can and we are cutting 
down the permitting time on what we are doing, both in Rhode 
Island as well as in other States.
    Senator Reed. Thank you. And I want to thank Deputy 
Secretary Hayes for his great work in this effort. Thank you.
    Mr. Hayes. Thank you, Senator.
    I think the Secretary really said it all. We are very eager 
to move forward with Rhode Island and also with the deepwater 
work in Maine. With regard to Rhode Island, I will just comment 
that the SAMP work the State has done and you have encouraged, 
will absolutely pay dividends in terms of the schedule for 
getting steel in the water off Rhode Island.
    We expect the environmental assessment process to move 
forward much more quickly because of the groundwork that has 
been done, the good science done by the State. Certainly, once 
we get an application in, every applicant is going to be able 
to do an environmental impact statement more quickly and more 
solidly because of that terrific work the State has done with 
your leadership and support.
    Senator Reed. Thank you very much.

                        BLACKSTONE RIVER VALLEY

    Very quickly, Mr. Secretary, turning to the Blackstone 
Valley Park, as you know, last year the National Park System 
put out a tentative approval, and we are waiting for the final 
version. And can we get some indication of when the final study 
from NPS will be released? Because without that, it is 
difficult for us to seek the kind of authorization that is 
necessary.
    Secretary Salazar. Senator Reed, I will do everything to 
get the study sprung. It is essentially completed, and there is 
a process underway. There is no doubt the center that founded 
the Industrial Revolution of America and all the history you 
have in the Blackstone area, the support of your Governor, both 
Senators, the support of Massachusetts as well, all that is in 
our calculus. I think it would be a great addition to our 
National Park System.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                         CONTRACT SUPPORT COSTS

    Mr. Secretary, I mentioned in my comments my appreciation 
for the funding in the budget for contract support costs within 
BIA's budget. You are--it is estimated at full funding to cover 
the costs, and again, I thank you for that.
    But the same account for IHS, which provides for the 
administrative cost to healthcare, is severely underfunded. So 
we are looking at this and saying, okay, we are making good 
headway on Department of the Interior's side through BIA, but 
through IHS we are not seeing things sync up.
    Can you tell me whether or not there is any coordination 
between BIA--your Department and on IHS to deal with this as we 
seek to conduct the tribal consultation? And if there is not, 
if there is some way that we could look at this to see if we 
might be able to line some things up better?
    Secretary Salazar. We would be happy to do so, and you and 
the President have attended some of these conferences. Every 
year we brought Nations from the country together. On law 
enforcement, Attorney General Eric Holder and I have an ongoing 
conversation about what we are doing on law enforcement issues 
in Indian country, on health issues as well with Secretary 
Kathleen Sebelius.
    Now the specifics in terms of our budget on the BIA and 
health services at HHS maybe Pam will be able to answer those 
questions, or I will get some additional information to you. 
But at the end of the day, our approach, Senator Murkowski, has 
been to bring the whole of Government to deal with some of the 
most significant issues facing Indian country.
    Certainly, the healthcare issue that is faced almost in 
every Indian reservation is one of the biggest challenges we 
face. It is important we have the whole Government behind it.
    Senator Murkowski. Well, and as we talk about tribal 
consultation, it makes sense to have that consultation with all 
of the affected agencies. So if we could just try to better 
understand how this coordinates because on paper it doesn't 
look like it is working as efficiently as we should.

                              477 PROGRAM

    On another issue as it relates to tribal funding, last year 
in the Interior bill, we had placed language that would require 
the existing program within the 477 program. You will recall 
that this is the program for Indian employment for training and 
related services. There was a new requirement for auditing that 
really lacked a level of flexibility, lacked any effort with 
consultation with the tribes.
    So, in last year's appropriations bill, we included 
language that stated that consultation with the tribes must 
occur before any changes to the 477 program moved forward. Do 
you have any updates in terms of how that consultation is 
coming along, whether or not we can expect some kind of 
agreement with the tribes through this process that will help 
with the program accountability?
    Secretary Salazar. According to my Budget Director and my 
Deputy Secretary, we have workgroups meeting every week on this 
issue, and we hope to get to some good resolution.
    Senator Murkowski. Okay. So we will await an update from 
you or from your staff. I thank you for that.

                          HYDRAULIC FRACTURING

    Let us move over to the energy side here. In the Interior 
budget, you are seeking a $13 million increase to USGS to 
support hydraulic fracturing research. But in looking through 
the rest of the President's budget, we see that within the 
Department of Energy's Office of Fossil Fuel, they are also 
proposing an increase in that very limited fossil fuel budget 
to study hydraulic fracking on the impacts of water quality. 
And apparently, also within the EPA budget, there are 
additional monies devoted to fracking research.
    And I guess the question is, as we are looking to eliminate 
redundancies within the budget, can you explain the need for at 
least three different agencies now to be devoting extra money 
in a very tight budget year to seemingly be doing the same 
research?
    If it is not the same research, I would be curious to know 
where we are going with it. But can you fill me in on that?
    Secretary Salazar. We have a very good working relationship 
in the cross-cutting budget that OMB approved for DOE, as well 
as EPA and Interior, relating to hydraulic fracking. All the 
efforts on research from all of the agencies--the USGS, DOE, 
and EPA--will be coordinated so we have a comprehensive look at 
the issues of hydraulic fracking.
    Senator Murkowski, I have often said in places around the 
country and in my meetings with the oil and gas industry and 
other stakeholders, that the President has been very strong on 
supporting the future of natural gas. It is an abundant 
domestic resource. We have a 100-year supply.
    As you will recall, even in 2009, we were very strong in 
supporting the trans-Alaska natural gas pipeline. We are still 
working on it, and hopefully, some of that will happen.
    But as we look at the bright future of natural gas, it is 
my view as Secretary, where through the BLM we oversee about 
700 million acres of the mineral estate of the country, that 
unless we are able to bring about the confidence of the 
American people in hydraulic fracking, it could be the Achilles 
heel for the promising energy resource we see. The rules we are 
in the process of putting together in their final stages will 
require three things.
    First, it will require disclosure so everybody knows what 
is being injected into the Earth. So we don't have the kind of 
reaction that essentially has a potential for stopping natural 
gas development as we have seen happening in some of the 
States.
    Second, well bore integrity. Each member of this 
subcommittee I have had conversations with at different times 
about the Deepwater Horizon and the Macondo oil spill. Well, 
the well integrity issues were part of what was going on there. 
We need to ensure well integrity with respect to hydraulic 
fracking so we don't have contamination of water supplies. It 
seems to me is common sense.
    Third, every time you frack a well, you inject the fluids 
into the well, and you have flowback water and materials come 
back from the well. Our proposed rule will actually address the 
monitoring of what happens with flowback water so it is not 
contaminating our streams.
    When I have spoken to members of the industry, including 
the leading oil and gas companies, when I speak to them one-on-
one, they are supportive of those kinds of common sense rules. 
If you look at what has happened in the State of Wyoming and in 
the State of Colorado now, in the State of Texas, there are 
rules on the books in those States that will allow that to move 
forward.
    So hydraulic fracking I know will be an issue here in this 
Senate in the days ahead. Our intention is to move forward with 
the kind of a program at the Department of the Interior, 
knowing that, at the end of the day, the North Star guiding us 
and I know guiding you, Senator Murkowski, is that we need to 
make sure we are fully using the great promise we see in 
natural gas here in the United States.
    Senator Murkowski. Well, I thank you for that, and I would 
just, again, urge that we ensure that we don't have duplication 
of efforts across the agencies at a time when we have got tough 
budgets. I would concur with you. We need to get this right. We 
need to make sure that it is right, and your agencies are 
charged with that.
    But just from a budget perspective, let us look carefully 
at whether we have got overlap. But I am sure you are looking 
at that.
    Thank you.
    Secretary Salazar. Absolutely.
    Senator Reed. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And thank you to my good friend Secretary Salazar for being 
here today. And welcome Deputy Secretary Hayes and Ms. Haze.

                    LAND AND WATER CONSERVATION FUND

    Though I have some concerns about parts of the budget 
request, I do appreciate the administration's recognition of 
the value of conservation, tourism, hunting, and fishing to our 
Nation's economy. I especially appreciate the boost in funding 
for the LWCF and also note that the LWCF from the Department of 
the Interior is responsible for Wind Cave National Park being 
able to complete acquisition of the 5,500-acre Casey Ranch that 
will provide access to a historic buffalo jump and preserve a 
valuable natural resource.

                  AMERICA'S GREAT OUTDOORS INITIATIVE

    I also note that you, Secretary Salazar, have also 
identified the Blood Run site in South Dakota and the Dakota 
Grasslands Conservation Area as priority projects in the 
America's Great Outdoors Initiative.
    As you well know, we have been long making the piece for 
better investment in infrastructure projects like rural water 
systems. While the budget request for rural water is much 
better this year than last, we are still losing ground to 
inflation in projects like Lewis and Clark.

                              RURAL WATER

    In the 2006 Rural Water Supply Act, the Congress directed 
Interior and the Bureau of Reclamation to develop a report 
assessing the status of authorized rural water supply projects 
like Lewis and Clark and the plan for completion. When can we 
expect to see this report, and what can you tell us about the 
long-term plans to complete these vital projects?
    Secretary Salazar. Senator Johnson, first, thank you for 
your Herculean efforts on behalf of the people of South Dakota, 
and thank you for your support of the LWCF. I think the 
projects you speak about are very huge economic generators for 
the State of South Dakota from the Wind Caves National Park to 
Blood Run to the Dakota Grasslands.
    As I travel around the country and I speak to both the 
business community and the conservation community, I often use 
those projects as great examples of how job creation and 
conservation go hand-in-hand. And certainly, the Dakota 
Grasslands are the duck factory of the United States of 
America. Fifty percent of the migratory birds go through that 
area, and it would be, frankly, 50 years from now a major 
setback for conservation in our world if we are not able to 
join you and your leadership in your efforts in protecting the 
Dakota Grasslands.
    On rural water, it is a hugely important issue for us. I 
wish we could do more on the Lewis and Clark project. We have 
put in, I think, $4.5 million, more or less, into next year.
    Obviously, we could put a lot more in if we had the money. 
But again, Senator Johnson, this is one of those tough choices 
and painful budgets, and I believe in the rural water supply 
arena alone we could use probably 100 times the amount of money 
made available. We are having to make some really, really tough 
choices where we put the money.
    South Dakota, Lewis and Clark, a multi-State project is a 
great example where we should have the money because the 
States' local water users have already put up their share of 
the money for the project. But we don't have the money on the 
Federal side to be able to complete it. We are trying to do as 
much as we can to move the project forward.

                   INDIAN SCHOOL EQUALIZATION PROGRAM

    Senator Johnson. I would also like to touch on the Indian 
School Equalization Program (ISEP). According to the last 
census, Indians younger than the age of 18 had a spike in 
population in my home State of South Dakota. How do you explain 
that from fiscal year 2012 to fiscal year 2013 more than 60 
percent of the BIE's schools in South Dakota received a 
decrease in their ISEP funds? Does the ISEP formula need 
review?
    Secretary Salazar. First, let me say the President, 
Secretary Duncan--and Keith Moore--the Director of the Bureau 
of Indian Education, have been working very hard with the 
tribes to make sure we are moving forward with reforms that, 
hopefully, will address the very painful and difficult 
circumstance we face in Indian schools around the country. We 
hope to be able to have some reform efforts that will help us 
get there.
    In terms of the money itself, my understanding is that the 
formula that funds the equalization is driven by enrollment, 
and I think in those schools that you mention, there has been a 
significant decline in enrollment. But I would be happy to look 
into this issue further and to supplement my answer to you and 
your staff.
    Senator Johnson. Please do.
    Senator Johnson. I yield back.
    Senator Reed. Thank you very much, Senator Johnson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                             OFFSHORE WIND

    First, Mr. Secretary, I know that you were very impressed 
when you came to the University of Maine and saw the cutting-
edge lab that has been developed to test composite wind 
turbines that can withstand the heavier, more persistent 
offshore winds and all the work that is being done with the 
consortium that is supported by private companies, the State, 
the university system, other States as well, and the Federal 
Government.
    And I think that is the kind of partnership that we need to 
ensure that the United States wins the race to develop offshore 
deepwater wind energy. And I would point out that race also 
includes thousands of manufacturing jobs to make the new 
composite wind turbines that are going to be necessary. So it 
is very important not only from an energy perspective, but an 
American manufacturing jobs perspective as well.
    I look at what other countries are doing to foster the 
development of offshore wind, and I can't help but ask whether 
we should be doing more. For example, the United Kingdom, 
Germany, and Portugal have all established test sites for ocean 
energy. They have funded the environmental permitting studies 
and provided electrical infrastructure, including underseas 
cabling and grid interconnection for these test sites.
    Then private industry in those countries, working with the 
research institutions, have then access to these sites that are 
all ready for them to build and test advanced offshore wind 
turbines and other ocean-energy-harvesting devices. And that is 
for still further commercial development.
    So my question is, what potential role do you see for the 
Interior Department to develop plans similar to those that are 
being pursued in other countries, in our competitor countries, 
to work with States to actually establish the national offshore 
wind test sites? Do you, for example, envision a role for the 
Department in helping to provide the critical funding necessary 
to construct the grid interconnection for these national test 
sites?
    Secretary Salazar. Senator Collins, we are doing everything 
we can on Atlantic offshore wind and are actually now 
processing an application on transmission for the Mid-Atlantic 
States called the Atlantic Connection. We will do everything we 
can because it is highest priority for the President of the 
United States and for me to move forward.
    We control, obviously, the land base and have a partnership 
arrangement, memorandum of understanding, with DOE as well in 
terms of some of the research efforts that are going on. If 
there is anything we can do that we are not doing within the 
resources we currently have, I would be delighted to have those 
conversations with you and members of the subcommittee because 
we are doing everything we can.
    I would note your eloquence in your statement. It seems to 
me that if the United Kingdom, Portugal, and Denmark could move 
forward with these kinds of efforts, there is no reason why we 
in the United States should not. This is part of the race we 
cannot cede to the rest of the world.
    I think, especially when you look at the Atlantic, when you 
look at Maine, and you look at the attributes you have there, 
it is an opportunity we ought not to let pass from us.
    Senator Collins. Thank you. I couldn't agree with you more.

                   NORTH WOODS NATIONAL PARK PROPOSAL

    I also want to take this opportunity to give you an update 
on a very controversial issue in Maine with which you are very 
familiar, and that is a proposal to establish a North Woods 
National Park.
    Since your visit to Maine in August, the proponents have 
been trying hard to gain support for the completion of a 
feasibility or reconnaissance study. But I will tell you that 
the harder they have pushed, the stronger the resistance has 
become. Statewide, the Maine legislature passed a joint 
resolution opposing the creation of a national park in Maine's 
North Woods. Locally, the Millinocket town council approve a 
resolution in opposition.
    East Millinocket actually had a vote, and the voters 
overwhelmingly opposed a feasibility study for this proposed 
national park. And the proposal is now opposed by the Maine 
Forest Products Council, the Maine Snowmobile Association, the 
Sportsmen's Alliance of Maine, Great Northern Paper Company, 
the United Steelworkers Local 137, and many of the smaller 
communities, as well as the two principal, three principal 
communities in the area.
    So I would also point out that the National Park Regional 
Citizen Evaluation Committee, which had supported the park, has 
recently become inactive, reflecting the dwindling support for 
this plan.
    What we have found in Maine works best is working with 
private owners to ensure public access, and we have been very 
fortunate over the centuries in Maine--Maine is the most 
heavily forested State in the Nation--to have that kind of 
public-private partnership without having Federal control and 
Federal ownership.
    So I wanted to give you that update since your visit that 
the support that may have existed, which was always a minority 
level of support, has declined significantly. And I am hoping 
that you will assure me that NPS, which has so many demands on 
its funds, will not be looking into funding a reconnaissance 
study for this region.
    Secretary Salazar. Senator Collins, first, let me say we 
have no plans to move forward on a reconnaissance study on the 
proposal from Ms. Quimby on the national park. There is no 
effort underway to do any of that.
    When we look at the two projects that are part of the 
America's Great Outdoors Initiative, which I have identified as 
2 per State and 1 for the District of Columbia--101 projects--
the 2 in Maine reflect the approach you have been advocating to 
me for a number of years, and that is grounds-up.
    If you look at the Penobscot River, as you so eloquently 
stated, it is one of the most significant river restoration 
projects in the world, and we are getting close to getting that 
done. You look at the State project which is moving forward in 
part through your support and our advocacy on Keeping Maine's 
Forests, that is also a grounds-up kind of approach there.
    I hope to visit those America's Great Outdoors Initiative 
projects with you soon. But on your point with respect to the 
Roxanne Quimby proposal, we are not moving forward with a 
reconnaissance study of any kind.
    Senator Collins. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Reed. Senator Collins, thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    And I will be as quick as I can getting to it. Welcome, 
Secretary Salazar.

                          SCHOOL CONSTRUCTION

    The funding for the BIE's construction program was at $140 
million in fiscal year 2011, down to $71 million in fiscal year 
2012, and now $52 million in fiscal year 2013. The schools, at 
least in Montana, are in dire need of repair. Dilapidated might 
be a word that comes to mind.
    I know you have put forth a budget that is--has a lot of 
cuts in it, and as you said in your opening remarks, painful 
cuts in many, many cases. I want to bring that to your 
attention, and I want to get your response very quickly on it 
if I could.
    Secretary Salazar. I wish we had the money to work on all 
these schools. We put significant amount of money from the 
American Recovery and Reinvestment Act into the construction 
projects. We have made significant progress from where we were 
in 2009, and more than 60 percent of the BIE schools are now 
rated in good condition. Well, that is not enough because that 
means 40 percent are in poor condition.
    Senator Tester. That is right. Yes.
    Secretary Salazar. It is just a matter, Senator Tester, of, 
frankly, not having the money to be able to move forward.
    Senator Tester. Okay. We will look for opportunities as it 
goes forward together on this.

          AUTOMATED STANDARD APPLICATION FOR PAYMENTS PROGRAM

    The Automated Standard Application for Payments program, 
which I think you are familiar with. I hope I am calling it the 
right thing, A-S-A-P. It is an online reimbursement program 
designed for Government payments to go to corporations, 
nonprofits, universities--a paperless reimbursement.
    The program was not designed for private land owners. It is 
kind of a one-size-fits-all policy, which treats family farms 
and ranches the same as large corporations when it comes to 
reimbursement. You, being an agricultural guy yourself, 
understand that, well, I mean, in most cases, we do have access 
to the Internet. But a lot of times, we are a little bit 
suspicious when it comes to transferring money online, and so, 
it is a deterrent.
    Is there any ability to put some flexibility in that? 
Because from my perspective, the land owners' buy-in is the 
most important part of this equation.
    Secretary Salazar. Senator Tester, I absolutely agree with 
you, and I have asked Director Ashe from the Fish and Wildlife 
Service (FWS) to work with Pam Haze to see whether we can come 
up with some kind of a resolution. There are now 29 States with 
ranching organizations for conservation, much like you have in 
the Crown of the Continent, and I believe we need to do 
everything to encourage that kind of ``working lands 
conservation'' approach to conservation.
    Senator Tester. Okay. Good.

                          HYDRAULIC FRACTURING

    I want to just touch on the fracking thing just to 
reinforce what you already know. And we have got a big play 
with the Bakken in eastern Montana. It is creating jobs. It is 
creating energy security. It is doing a lot of good things.
    But hydraulic fracking is something I hear about when I 
come home all the time, and folks want to know if we have 
adequate inspectors to determine whether that case, the 
cementing that is going on in the casing is actually going to 
keep what is going on 2 or 3 miles down out of our groundwater.
    Can you say with any kind of certainty that we have 
adequate inspections to make sure that that cement is done in a 
proper way to assure that we are not going to be polluting our 
drinking water?
    Secretary Salazar. Our rule will so require, and I am going 
to have David, the Deputy Secretary, speak to the inspector 
issue.
    Mr. Hayes. Senator, certainly on our public lands, we are 
prioritizing inspections to deal with potential high-risk 
issues, and that includes ensuring well construction is done 
with the appropriate integrity. The proposed rule the Secretary 
is referring to will require an additional certification by the 
operators to ensure they are using the proper cementing and, as 
you say, walling off the well from lower aquifers.
    Senator Tester. And we have got adequate people on the 
ground to make sure that happens, or is it a self-inspection 
reporting?
    Mr. Hayes. It is both. We are giving a lot of attention to 
the inspector issue. We could use more inspectors, but BLM does 
do an enormous number of inspections a year. We want to 
supplement it with the certification by the operator.

                       HUNTING AND FISHING ACCESS

    Senator Tester. Okay. When I return to Montana, I also hear 
from sportsmen and women about access. It is the number-one 
issue amongst our sportsmen out there--access to go fishing, 
access to go hunting. Because of that input, I adopt--drafted a 
bill that sets aside 1.5 percent of land and water conservation 
funding to secure access for existing public lands.
    Not to put you on the spot, but I will. Would you support 
this effort?
    Secretary Salazar. We have money. It is $2.5 million with 
BLM to try to provide public access. I think the concept makes 
tremendous sense and would be happy to work with you on it.
    Senator Tester. Okay. I appreciate that very much.

                          OFFSHORE DEVELOPMENT

    With that, I would just like to say when I talked to you, I 
guess it has been a bit ago, about the offshore spill and what 
all transpired on there, I know you were under a lot of 
pressure. Probably lost a few follicles of hair that you 
couldn't afford to lose.
    But the bottom line is, is that as we talk about opening up 
offshore production again, which we all want to be energy 
independent and we all want to make sure that this--that we 
develop the resources appropriately here at home, are you 
confident that what happened with the spill in the gulf won't 
happen again?
    Secretary Salazar. Senator Tester, first, let me say from 
those days, I think I did lose follicles of hair for that 
reason and probably many other reasons as well. I am proud of 
the fact we have weathered that storm. Now, there are 60 
permits issued in the Gulf of Mexico just in the last 12 
months; the rigs are up and working, and we have led the 
greatest overhaul in the Nation's history in terms of offshore 
oil and gas production in America's oceans.
    We are doing more to make sure prevention is prioritized so 
we don't see a Macondo well oil spill again. It means we have 
worked with industry and several corporations that have been 
set up, the Helix Corporation and Marine Well Containment 
Company, to make sure if something like that were to happen, 
there would be a quick response. Third, we have overhauled the 
efforts in terms of dealing with oil spill response as well.
    Now to your question, because I think that is an important 
question to all the members of this subcommittee, including 
Senator Landrieu, who sees so much of the energy production of 
the United States coming from the Gulf of Mexico. Can we be 
100-percent safe that something is not going to happen? No.
    We can do as much as we can to minimize the risk, and we 
certainly have done that, I believe, in the Gulf of Mexico.
    It is important, if I may, Senator Reed, and I know I 
probably am taking a little more time than I should here. It is 
important when you look at the map of the Gulf of Mexico to 
also recognize that between the United States and Mexico, we 
probably have about 98 percent of the land mass. We can control 
what happens in United States waters, but we can't, frankly, 
control what happens on the Mexican side of the border.
    So, when you think about the huge potential for oil and gas 
resources, and Mexico is moving very aggressively into the 
deepwater, it is important we have the kind of relationship 
with them where they also learn the lessons and have the kind 
of system we have here in the United States.
    Secretary Clinton and I signed an agreement with our 
counterparts in Mexico last Monday that will usher in this era 
of cooperation and resolve longstanding issues in the Gulf of 
Mexico. We are making significant progress, and I know probably 
Senator Murkowski, who is on top of these things in the Arctic, 
is also very cautious in terms of how we are moving forward 
with the most cautious program that has ever been put together 
in terms of any exploration.
    Senator Tester. Well, I want to thank you once again, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    Senator Reed. Thanks, Senator Tester.
    Senator Alexander, please.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, welcome.

                  JOINT CURATORIAL COLLECTION FACILITY

    I mentioned earlier and we have talked before that these 
great national parks, Yellowstone National Park gets $35 
million, Yosemite National Park $29 million, the Great Smoky 
Mountain National Park $19 million, counting all funding, 
including fees. Yet the Great Smoky Mountain National Park has 
three times as many visitors. I say that in a way of suggesting 
that a point in favor of the joint curatorial collection 
facility, which would benefit the Great Smoky Mountain National 
Park and four other national parks by holding hundreds of 
thousands of artifacts and archival records, that could be a 
point in its favor.
    I don't expect an answer from you on that right now, but I 
simply want to raise the importance of it. I appreciate your 
considering, the Department's considering it, and it is a sound 
project.

                            FISH HATCHERIES

    I have two areas of question. One has to do with fish 
hatcheries. And I mentioned a little earlier that at one point 
I noticed that the number of Tennesseans who have hunting and 
fishing licenses exceeded the number who voted in the last 
election. So this is serious business for us.
    The Erwin National Fish Hatchery provides eggs for 
hatcheries all over the country, and Dale Hollow produces 60 
percent of the trout stocked in Tennessee. In your tight 
budget, you are having to cut from $3.2 million from mitigation 
hatcheries, which would, if left alone, would close those 
hatcheries with very serious consequences for Americans.
    My question is, well, we are working with TVA and with COE 
to help share in the funding of those hatcheries so that you 
will be able to keep them open. So my question is, can you 
assure me the hatcheries won't close until we have an 
opportunity to try to secure joint funding for them?
    Secretary Salazar. Absolutely, Senator Alexander. I look 
forward to working with you and TVA and COE to see how we can 
keep these hatcheries open. They are, as you say, very 
important to the anglers of Tennessee and beyond Tennessee. I 
am happy to work with you on that.

                  JOINT CURATORIAL COLLECTION FACILITY

    Just a quick note on the curatorial effort, I have asked 
NPS to see what we can do, and I do know, as we have 
communicated, the plan is done. I think nearly $1 million of 
the $4 million is already in the bank, and we will turn over 
every stone to see how we can figure out a way of making the 
difference.
    Senator Alexander. I thank you for that. And you are 
exactly right. The five parks have worked together to try to 
squeeze every $1 they can to minimize the money that is 
responded, and $2 million is what is left.

                                 ENERGY

    Now I would like to ask you a question about equal 
treatment for different forms of technology, which the 
administration is moving toward. The President is talking about 
all of the above, and I think increasingly those of us who deal 
with energy and environment are saying we ought to treat all 
our different forms of energy as equally as possible.
    For example, you propose to raise fees on oil and gas 
production in this budget. Do you intend to raise fees on wind 
and solar energy production at the same time and by the same 
amount?
    Or let us take a second area. Let us take birds. In reading 
about Teddy Roosevelt, I was reminded that his whole 
conservation career began with birds and the protection of 
birds. And we have in our law a law that says if you kill 
eagles, you can go to jail. And then we have the Migratory Bird 
Treaty Act, if you kill migratory birds, you can go to jail.
    And in 2009, Exxon Mobil killed 85 birds that had come into 
contact with crude oil in uncovered tanks or wastewater 
facilities, and they paid $600,000 in fines and fees. Well, I 
noticed the other day the Minnesota Public Utilities Commission 
denied plans for a 48-turbine wind farm because of concerns 
about birds, bats, and bald eagles. And we all know that these 
big wind turbines have become sort of Cuisinarts in the sky for 
birds, especially golden eagles in California.
    And I understand that that wind farm has even applied to 
the Department of the Interior, to the FWS for a ``taking 
permit''. So they can take a certain number of birds when the 
turbines start to roll.
    So am I to understand that if you are going to treat forms 
of energy production equally that Exxon Mobil ought to be 
applying for taking permits for the next golden eagles it 
kills? Or if not, why would you not apply to wind turbines and 
other forms of energy the same rules you apply to oil and gas 
production?
    So my question on this is equal treatment for forms of 
energy production. If you are going to raise fees on production 
of oil and gas, will you do the same for wind and solar? And 
will you apply to wind turbines the same laws that exist for 
killing birds that you apply to oil and gas production?
    Secretary Salazar. Senator Alexander, first, on the revenue 
side for renewable energy projects, we have moved forward with 
rules and in our right-of-ways, which is what we grant to 
renewable energy projects onshore as well as in the offshore, 
to make sure the principle of a fair return to the taxpayers is 
adhered to, and that is the same principle we have with respect 
to oil and gas production, both onshore as well as offshore.
    On your second concern relative to wind energy projects and 
birds, we are working on developing a set of guidelines from 
FWS to deconflict the wind projects that are being proposed 
around the country with the avian issues we care so much about 
at the Department of the Interior.
    Many of the projects, which were built 20, 30 years ago, 
including the one you cite in California, were projects that, 
first of all, didn't have the technology we have today. The 
technology being used now for wind blades and wind turbines is 
much better than the ones in place then. In fact, some of the 
projects in California have already turned over into the new 
technology because they recognize the issues, the lethality of 
their projects on avian populations.
    Second, and perhaps more importantly, what we are working 
on with FWS is to try to identify those corridors which we know 
are of high use for avian populations so, in those areas, we 
would not be permitting wind projects. We are in the process of 
trying to come up with a plan to deconflict our mandate for 
conservation, which is a legal one, as you say, under the law, 
and at the same time honoring the priority to develop 
alternative sources of energy.
    Senator Alexander. Thank you, Mr. Secretary.
    If I can prove to you we have lots of birds in the Great 
Smoky Mountains, will you keep the wind turbines out?
    Secretary Salazar. I can guarantee you, Senator Alexander, 
that there will never be a wind farm built in the Great Smoky 
Mountain National Park.
    Senator Alexander. Thanks, Mr. Chairman.
    Senator Reed. Thank you, Senator Alexander.
    I want to recognize Senator Leahy, but I also want to thank 
Senator Landrieu. Because of Senator Leahy's schedule, he asked 
to be recognized when he arrived.
    Senator Leahy, please.
    Senator Leahy. I apologize, and I do thank Senator Landrieu 
also.
    I also want to thank Senator Reed for holding this 
important hearing. I should tell you, Mr. Chairman, that 
Secretary Salazar is a rock star in Vermont. People still talk 
about his visit up there, and I appreciate that.

                    LAND AND WATER CONSERVATION FUND

    But I am hoping that today's hearing doesn't simply focus 
on energy issues related to drilling and permits, and Senator 
Alexander has obviously related one. I would like to see us 
refocus our attention on LWCF, the bipartisan promise we made 
to land conservation in 1965 to allow us to invest in our 
natural areas in historic preservation.
    Some of our country's most treasured places have been 
acquired using the LWCF, including the Grand Canyon National 
Park, Denali National Park, many historic Civil and 
Revolutionary War battlefields, the Appalachia National Scenic 
Trail, which runs through Vermont as well as States of three 
other subcommittee members--from Georgia, through Tennessee and 
Maryland, Vermont, ending in Maine. In fact, our four States 
make up 35 percent of it.

       SILVIO O. CONTE NATIONAL WILDLIFE REFUGE LAND ACQUISITION

    I worry that if we don't use it right, we could lose 
natural resources forever, and I was concerned in hearing about 
the Silvio O. Conte National Fish and Wildlife Refuge that they 
have a number of resources that are ready to be acquired with 
the $6.5 million that was in the President's fiscal year 2012 
request and the $1.5 million in fiscal year 2013.
    Now I know you don't want to draw out too long some of 
these acquisitions. But I challenge the claims that have been 
made the Conte refuge is not able to spend the entire request 
that was made by the President last year.
    They span four States. They encompass the entire 7.2 
million acre Connecticut River watershed. Conservation in this 
area is essential. A Vermont Fish and Wildlife survey yesterday 
detected four or five Canadian lynx in the Nulhegan Basin of 
the Conte refuge. Now this is an endangered species and almost 
never seen, and they are coming back.
    So, Mr. Secretary, can you explain the difference between 
what I am hearing on the ground in Vermont and throughout the 
Conte refuge regarding the number and cost of tracks of land 
available for acquisition with the $6.5 million in your fiscal 
year 2012 request and what I am seeing in your reprogramming 
request?
    I mention that because it is a critical part of the 
America's Great Outdoors Initiative. It crosses four States. It 
is an area under enormous pressure from developers. Is it a 
case where we have the money, and now the money is being taken 
away?
    Secretary Salazar. Senator Leahy, first, let me thank you 
and Marcelle for the wonderful welcome that you always give me, 
including into the great State of Vermont just last summer. I 
hope to be up there again. Vermont is one of the great States 
in terms of hunting and fishing and environmental education.
    Two, I support your efforts and applaud your leadership as 
well on the LWCF. The true needs of it, even though there will 
be debate, I am sure, in this subcommittee, are probably more 
in the neighborhood of $5 billion a year. So, when we look even 
at our request at $450 million in the fiscal year 2013 budget, 
it is not meeting the needs that are out there for conservation 
programs. And every one of our areas around the country from 
the Grand Tetons National Park to Yellowstone National Park to 
Silvio O. Conte National Park have needs.
    What we have done with the Silvio O. Conte National Park 
area, and it is such a great wildlife refuge, and in the 
connectors that we are working on through the America's Great 
Outdoors Initiative, there are $4 million in acquisitions ready 
to go. We will make those acquisitions in the fiscal year 2012 
budget.
    Now the delta between the $4 million and the $6.5 million 
and our reprogramming request before this subcommittee comes as 
a result of the fact there were significant cuts that were made 
to LWCF in the fiscal year 2012 budget. The budget we had put 
forward had a request of $900 million, which was full funding 
for the LWCF.
    When it came out of the fiscal year 2012 process, it was 
down to approximately $300 million, and we have had to make 
some realignments. But recognizing the importance of Silvio O. 
Conte National Park, Senator Leahy, what we have done is we are 
ready to go for the $4.5 million, and we have the other $1.5 
million requested in the fiscal year 2013 budget.
    Senator Leahy. We may have to have further discussions on 
it. I fought like mad to get that money in the budget, and I 
would hate to have it go right back out. So we will have some 
more discussions, I will with the chair, on questions of 
reprogramming.

                              STREAMGAGES

    And I will put for the record, and I really want answers on 
this, to give--our floods we had in Vermont, and we had an 
important Interior Department tool that both we and New York 
used. Those were the gages the USGS had, the river and lake 
gages.
    I think we would have lost a lot more property, a lot more 
lives if we had not had those. So I will have questions. I will 
have questions on that, and I will thank you again on putting 
in money for white-nose syndrome among bats.
    When I first started raising this question, people thought 
I was referring to a movie character that I have some 
familiarity with. But this is decimating, the loss of these 
bats are hurting agriculture throughout many, many, many 
States. And so, it is important that we keep working on this, 
and I applaud you for that.
    Secretary Salazar. Thank you.
    Senator Reed. Thank you.
    I am going to recognize Senator Cochran--we are going back 
and forth--and then Senator Landrieu. Excuse me again, Senator 
Landrieu.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, welcome. It is good to see you and to be 
here to congratulate you on your fine job as Secretary of the 
Interior. We have enjoyed having the opportunity to work with 
you on a number of programs for wildlife habitat protection, 
NPS, LWCF programs, all very important in our State.

                   COASTAL IMPACT ASSISTANCE PROGRAM

    One in particular, though, has come in for substantial 
reduction or deletion of funds that we had seen recommended for 
this agency is in the Coastal Impact Assistance Program (CIAP). 
This is particularly important in the Gulf of Mexico. We have 
been through a lot of challenges in that area, as everybody 
knows. And it just seems to me to assume a savings of $200 
million by rescinding unspent balances in the CIAP gave me 
pause when I saw that as kind of the lead description of this 
request.
    Is there any way to reconsider that? How locked in are you 
to reducing the funding for that program at this critical point 
in the gulf's history?
    Secretary Salazar. Senator Cochran, let me say that I 
appreciate your leadership on conservation and your work on the 
Migratory Bird Conservation Commission and our meetings every 
couple of months in that effort.
    On CIAP, you may recall I was one of those supporters for 
CIAP when I was a U.S. Senator working with all of you. It is a 
very important program. It was not functioning well under the 
former Minerals Management Service. I moved it over to the FWS, 
and we are getting the money out in very significant amounts. 
The monies are going to the States.
    In terms of the budget itself, it will take congressional 
action to adopt the proposal in the budget. It is one of those 
times where the whole budget is being combed for places where 
we can find some money to be able to balance the budgets. As I 
said in my opening remarks, Senator Cochran, it is painful to 
think we are having to do some of these things.
    Senator Cochran. Well, you wouldn't urge the President to 
veto the bill if we added some of that money back in the 
budget, would you?
    Secretary Salazar. I think it is a long way from today 
until we get to the point where we have a budget, an 
appropriations bill presented to the President. The Gulf of 
Mexico and coastal impacts and the restoration of the Gulf of 
Mexico, Senator Cochran, are an area where I would say it is 
probably the single most important conservation initiative on 
where I spend my time, at least in the last 3 years.
    Senator Cochran. Well, we appreciate your service, and you 
have been very generous in allocating some of your travel time 
to come to our State and to reassure us of the attention that 
the national leadership of the Department is giving to 
challenges that we face in the Deep South.
    And I want to thank you for mentioning the wildlife 
programs where you and I both have served as Members of 
Congress. It has been a great pleasure working with you over 
the years, and we look forward to a continuation of that good 
relationship.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Cochran.
    Senator Landrieu, and again, thank you for your patience.
    Secretary Salazar. If I may, Senator Reed, Mr. Chairman 
Reed, just one comment to Senator Cochran?
    Senator Reed. Yes.
    Secretary Salazar. One, I very much appreciate your help 
and leadership on the fiscal year 2012 budget, as well as 
members of this subcommittee, because we did make a huge 
difference on that. And number two, Sam Hamilton was a Hercules 
of wildlife and conservation and a great advocate for hunting 
and fishing. We appreciate your leadership in having a national 
wildlife refuge named in his honor, a bill which the President 
has now signed.
    Senator Cochran. Thank you very much for that mention, and 
particularly remembering Sam Hamilton. Thank you.
    Senator Landrieu. Thank you, Mr. Chairman.

                          OIL AND GAS REVENUES

    I wanted to ask, Mr. Secretary, the total amount of your 
budget before us today is about $11 billion. Is that correct?
    Secretary Salazar. That is, approximately.
    Senator Landrieu. What was the amount of money collected 
from oil and gas severances, both onshore and offshore, last 
year? Do you have those numbers, Ms. Haze?
    Secretary Salazar. I think I may. Off the top of my head, 
they were in the $9 billion range.
    Senator Landrieu. So it is fair to say that the production 
of oil and gas in this country and the severances that are 
collected, the severance taxes--not the corporate income tax 
that is paid, not the payroll tax that is paid, not the 
indirect sales tax that is paid--literally funds the entire 
Interior Department of the United States? Is that roughly 
correct?
    Secretary Salazar. It is roughly correct.
    Senator Landrieu. Do you know where 80 percent of the 
offshore funding comes from, off the shores of what three 
States would those be?
    Secretary Salazar. Most of our offshore energy production, 
as you well know, Senator Landrieu, is in the Gulf of Mexico.
    Senator Landrieu. And what States exactly are those 
offshore?
    Secretary Salazar. Well, the five States of the gulf--
Louisiana, Mississippi, Alabama, Florida, and Texas.
    Senator Landrieu. Well, it is not off of Florida, and it is 
Texas and Louisiana and Mississippi. Very little off the 
Alabama coast and none off the Florida coast because it is off 
limits except for the section 181 that we had to struggle to 
open.
    My point being that a large chunk, Mr. Chairman and Ranking 
Member Murkowski, of the money that goes to fund this entire 
budget comes from Senator Cochran's shore and my shore. So you 
can imagine my horror when I pick up the budget and just read 
through the pages, starting here, page F1, this is the LWCF, 
land acquisition. These are all the States that I see--Arizona, 
California, Colorado, Idaho, Montana, Nevada, Oregon, Utah.
    Let us flip the page. Wildlife and fisheries--California, 
Florida, Kansas, Montana, New Mexico, Washington, Dakota, Upper 
Mississippi River. Not a penny for the lower Mississippi River.
    Let us go to land acquisition. Arizona, California, 
Montana, Washington, and Wyoming. I don't know how long this 
subcommittee expects me to be a cooperative member. I really 
don't know how long this administration expects me to continue 
to try to be supportive. I cannot express anymore that we have 
had enough.
    The second point I want to make is that when you said you 
did the greatest overhaul of oil and gas drilling in this 
country, you most certainly did. I guess the incident required 
it. But there was a tremendous amount of pain from Senator 
Cochran's State and my State that was contributed to that 
overhaul. For the record, I want to read it in. A study was 
just released.
    This is not Exxon. This is not Mobil. This is not BP. These 
are the 2,000 independent oil and gas producers in my State 
alone. I am sorry I don't have the numbers for Mississippi, 
Secretary Salazar. And I want to tell you what they reported to 
an independent administration.
    Forty-one percent of these businesses are no longer making 
a profit. Seventy-six percent have lost their cash reserves. 
Forty-six percent have moved away from the gulf coast, and 82 
percent of these business owners have lost personal savings 
trying to live through the overhaul of this Interior 
Department.
    So, on two points--and you are my friend, and I respect you 
personally--I strongly disagree with the policies of this 
administration. One, for underchanging the region of the 
country that contributes most to your entire budget. Where is 
Mississippi listed in this budget? Where is Louisiana listed in 
this budget?
    And following up on what Senator Cochran said, the place we 
are listed, you are taking $200 million away from us. That is 
not going to happen. The CIAP money, which you know because you 
voted for it, was my bill. I fought like a tiger to get the 
money, and we got it.
    The first, the first money that the gulf coast has ever 
gotten to do restoration, and we shared it with Alaska. We 
shared it with California. And we shared it with Florida, even 
though they don't produce one barrel of oil. Mr. Chairman, that 
money cannot leave the gulf coast.
    And I want to say just one more thing. In 1965, the LWCF 
was created using the severance taxes that come out of oil and 
gas drilling offshore, not onshore. The bill was passed by 
Senators Mark and Tom Udall's family that served here.
    They said let us take the oil and gas resources, put them 
together, and create great conservation land for the country. 
We support that. What we cannot support is taking that money 
off the shores of Louisiana, Mississippi, and Texas, saving 
everyone else while we are literally drowning.
    Do you all remember the water, how high it was for Katrina? 
Do I have to explain to anyone on this subcommittee that south 
Louisiana is going underwater? Can I find one dime in this 
budget?
    I have had it. I don't know what I am going to do, but I am 
going to use all the power that I can to stop any funding for 
any programs as long as the money is coming off the coast of 
Louisiana, Mississippi, and Texas. You all can go find the 
money elsewhere.
    Go get it from Wyoming. Go get it from the interior States. 
Wyoming yesterday--I want to correct this, and I am going to 
finish. Wyoming, they have plenty money. They have 500,000 
people. I have 4.5 million, 1 million of them lost their homes 
and went underwater. I don't remember anyone losing their home 
in Wyoming.
    Mr. Chairman, last year they kept from their revenue 
sharing $971 million Wyoming put in their general fund. There 
are no restrictions as to how that money is spent. They can do 
anything with it. The law does not allow them--gives them all 
freedom.
    They can spend it on education. They can reduce taxes. I 
can't get one penny of the $6 billion that we send off the 
coast of Louisiana to fund this entire budget. And when I ask 
for it, it is given reluctantly. It is given with all kinds of 
``Oh, my gosh, we can't keep giving those people down there 
money.''
    My city has gone underwater. My State is underwater. We 
have lost more land than any State in this country, and it has 
got to stop.
    So go get your money, Mr. Secretary, from the West. They 
have plenty of it, and just let us use our money to save 
ourselves.
    Thank you.
    Secretary Salazar. Mr. Chairman.
    Senator Reed. Mr. Secretary.
    Secretary Salazar. May I respond? First, let me say there 
is no doubt everyone here in this subcommittee and everyone in 
the administration recognizes the passion that my good friend 
Senator Mary L. Landrieu has for Louisiana and for the Gulf 
States.

                          GULF STATES FUNDING

    And I can tell you that with respect to the gulf States 
that include all the five States of the gulf, we have put 
significant resources into both our national parks and our 
wildlife refuges. There are more than 40 of them in that part 
of the country. They have some of the most incredible extensive 
wildlife habitat, as Senator Cochran knows from his service on 
the Migratory Bird Conservation Commission. And we will 
continue to make sure those investments, which create jobs in 
New Orleans and other places, are investments we continue to 
make.
    Specific to Louisiana, one of the projects which Senator 
Landrieu has long championed is Lake Pontchartrain and the 
restoration efforts there. We are working very hard to make 
that project a reality. We have prioritized an urban water 
initiative in New Orleans that will connect up the downtown. We 
are working very hard to try to make sure we are taking care of 
the Gulf States.

                              OIL AND GAS

    The other point I would make is I disagree very much with 
my friend Senator Landrieu in terms of the overhaul on the oil 
and gas industry in America's oceans. Without the overhaul that 
we have undertaken, we wouldn't be able to say there are 60 
permits that have been granted just in the last year in the 
Gulf of Mexico.
    Senator Landrieu lived through the horror of the Macondo 
spill. I was with her and Senator Murkowski and Senator 
Bingaman and others as we flew over on C-130s over the Gulf of 
Mexico. That was a national crisis, and our oil and gas 
industry offshore is doing very well today.
    We are producing significant amounts of oil and gas, and it 
is less than 2 years from the date when the Macondo well blew 
up. We have continued to move forward in a cautious way, as 
Senator Murkowski knows, to try to put the resources in place 
for two seas in the Arctic, which she has been an advocate of 
for a long time.
    So I would only say that President Obama and I are very 
serious about moving forward with an ``all-of-the-above'' 
energy strategy, and it does, in fact, include oil and gas, and 
it includes oil and gas in America's oceans. Now I will say 
this to Senator Landrieu's point that I think is an important 
one to note.
    When she argued very hard for the Gulf of Mexico Energy 
Security Act legislation which I helped pass in the Senate, she 
was making the point about the impacts of oil and gas 
production on the Gulf Coast States, and that is a policy 
debate which will go on in this chamber and the U.S. Senate. My 
hope is when we work our way through the issues in front of us, 
including the litigation we now are involved in, in the Gulf of 
Mexico against those responsible for the oil spill, we will see 
the most significant ecosystem restoration project in the Gulf 
of Mexico we have ever seen.
    So your part of the country is near and dear to my heart, 
even though I know that you are mad.
    Senator Reed. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. Welcome.
    Secretary Salazar. Governor.

                        STREAM BUFFER ZONE RULE

    Senator Hoeven. I would like to talk to you about the 
stream buffer zone rule, which the Department of the Interior 
is promulgating and implementing, as I understand it. I believe 
that this is a rule that you are developing and implementing as 
a result of some conditions in the Appalachian region of the 
country. But I am concerned that you are also implementing it 
in our part of the world as well, and obviously, the coal 
mining is different throughout the country.
    And so, I am concerned that the stream buffer zone rule 
will require additional monitoring requirements on the part of 
our companies, tougher reclamation procedures, and also it 
provides a broader definition of streams and damage. So I guess 
my first question is how many existing American jobs does the 
Department of the Interior expect will be eliminated as a 
result of this?
    Well, let me step back. First, why are we kind of using 
this one-size-fits-all? In other words, if you are trying to 
address an issue in one region of the country, in the 
Appalachian region, why are you implementing the same approach 
in North Dakota, for example, where the coal is different and 
the mining procedures are different?
    Secretary Salazar. Senator Hoeven, Governor Hoeven, thank 
you for your service to the country and to North Dakota.
    Let me just say we still do not have a rule. It is still in 
the process of being formulated, and the economic analysis will 
certainly be a part of that rule. The Deputy Secretary has been 
working with Office of Surface Mining (OSM), Joe Pizarchik, the 
Director of the OSM, and I would like him to comment on the 
substance of the rule and the concerns you raised.
    Mr. Hayes. Thank you, Mr. Secretary.
    Senator, I would just like to emphasize we do not have a 
proposal on the street. We are hearing your concerns and the 
concerns of others, and we are still doing the evaluation, both 
economic and environmental. We want to work with you, and 
certainly before a rule comes out, we will want to sit down and 
talk to you about it.
    A new rule is not imminent. A new proposed rule is not 
imminent. When the proposal comes out, there will be an active 
comment period. This process is extremely important to your 
State and to many other States and to the Department. I can 
assure you that we will work with you on it.
    Senator Hoeven. Where are you in the process?
    Mr. Hayes. We are continuing to prepare the environmental 
impact statement associated with the proposed rule. That is 
ongoing right now. We do not have a proposal over to Office of 
Management and Budget (OMB) for review yet. So we are not even 
at the stage where we are engaged with OMB, which is, of 
course, the office we work through before we can put a proposed 
rule on the street.
    Senator Hoeven. What is your intent? What do you intend to 
do?
    Mr. Hayes. We are still internally evaluating the 
environmental impact statement and the proposed rule. We have 
not made a decision as to when we will go to OMB with a 
proposal. If we do go, it typically takes an extended period of 
time of discussion back and forth before a proposed rule hits 
the street.
    Senator Hoeven. Are you willing to have either you, Mr. 
Secretary, or your designee come out to my State and actually 
take a look on the ground at the situation and talk to some of 
our companies before you proceed?
    Secretary Salazar. Senator Hoeven, I am happy to do that 
and, in fact, I spent a good deal of time with your Governor 
just two nights ago, speaking about a number of North Dakota 
issues, including the Bakken formation where we have been very 
pleased to work with you, when you were Governor, and with the 
State in terms of the USGS information that has been provided 
on the Bakken.
    I also noted to the Governor that it is the only place in 
the country where we actually have enhanced oil recovery 
through CO<INF>2</INF> capture.
    Senator Hoeven. Right.
    Secretary Salazar. And so, North Dakota is a very important 
State. A number of issues there to be addressed. I hope to be 
out there, and when I am out there, we can certainly have a 
meeting around the coal issues as well.
    Senator Hoeven. I do want to say that you have been very 
good about coming to our State. Very good both just on these 
types of issues, but also when we have had flooding and some 
emergencies, and you have been out there a number of times. And 
we really appreciate it. So I do want to commend you for that 
and thank you for that.
    On this rule, I am asking, again, that you or your designee 
come out and meet with us and look through this before you 
determine how best to proceed. I mean, again, this is 
information. This is fact finding, and hopefully, it will be 
beneficial both to you and to the companies out in our part of 
the country that do mining.
    We are number one in the country in land reclamation. We 
are number one in terms of how we handle the water. We meet all 
ambient air quality requirements. So we believe in producing 
energy, but we believe in taking care of the environment, too.
    So let us try to work together on this, and this is an 
opportunity to do so. And----
    Secretary Salazar. That is a fair request, and we will be 
happy to do that.
    Senator Hoeven. Thank you.

                          HYDRAULIC FRACTURING

    And then, I am pleased to hear that you were talking with 
Governor Dalrymple. Undoubtedly, he brought up the fracking 
issue to you. Obviously, it is a hot topic around the country. 
It is an important topic.
    We want to do it safely and well. We want good 
transparency. We want people to understand it and be 
comfortable with it. But we are producing an incredible amount 
of oil and gas and more energy not just in North Dakota, but 
around this country. And we can do so much more with good 
environmental stewardship. But we have to understand business 
practices and how they work.
    So for you to bring forward a rule that says that--excuse 
me, Mr. Chairman, I will try to wrap up here. But for you to 
bring forward a rule that says, okay, that the exact 
specifications in every frack job have to be submitted to you 
30 days before that is done, and then they can't make any 
changes whatsoever to that frack fluid mix when they undertake 
fracking, that is the kind of thing that does not work for 
business.
    So, again, full transparency. We have no problem requiring 
that our companies provide what is in that frack fluid so that 
people know and it is fully transparent. You can go on the Web 
and find it. That is the Interstate Oil and Gas Compact 
Commission (OIGCC) model that we developed. But the idea that 
they can't change that once they have submitted the exact 
specifications to you 30 days after when they are out on a well 
site, trying to produce a well, and the conditions change as 
they develop that well--I know you understand this--that has to 
be taken into account.
    So, again, it is about regulation that is understandable, 
straightforward, protects the environment, but that empowers 
businesses and investors and so forth to do the--undertake the 
development, but do it right. And so, this is an example of 
where we are going to have to do more work on your frack 
regulation.
    And again, from the point of understanding, let us make it 
workable. Sure, let us know what is going into the ground, but 
let us make sure it is a workable regulation.
    Secretary Salazar. We very much agree with you, Senator 
Hoeven. It has to be a workable regulation. In fact, much of 
the time over the last year has been spent on gathering 
information, including a meeting I had with oil and gas 
industry and other experts at the Department of the Interior 
over a year ago, hearings that BLM has had, including the one 
in North Dakota, to get input.
    When the rule does come out that will address the issue of 
transparency to disclosure and the other matters I spoke about 
earlier here in this subcommittee, it still will only be a 
proposed rule. It needs to work.
    I think this is one area where I do hope we can transcend 
the hot politics of the time and say we agree that our North 
Star here has to be to use the abundant resource of natural 
gas, which is an American resource, and that in order to do so, 
we need to make sure we are providing confidence to the 
American people that we are doing it right.
    Most of the companies I deal with, Senator, come and talk 
to me about the requirements we are talking about on 
disclosure, well integrity, and flowback water, are in 
agreement that we are moving in the right direction. But we 
will continue to listen to you, as well as to industry, as well 
as to other stakeholders before any rule is finalized.
    Senator Hoeven. Thank you, Mr. Secretary.
    And we can help you with that. Cost-benefit needs to be 
part of it. But we can work together on this and I think get it 
right. And so, we appreciate your willingness to work with us 
on it and look forward to it.
    Secretary Salazar. Thank you, Senator.
    Senator Reed. Thank you, Senator Hoeven.

                        OFFSHORE INSPECTION FEES

    Mr. Secretary, if I may, there has been some discussion of 
offshore production of oil and gas. You have taken significant 
efforts to reform the inspection process, the leasing process, 
et cetera. One of those was the result of last year's budget, 
we increased inspection fees $62 million.
    Will you realize the full $62 million increase this year? 
Is that your expectation?
    Secretary Salazar. Yes. And let me say thank you, thank 
you, thank you to you and Senator Murkowski and the members of 
this subcommittee for making sure we get the additional 
resources to be able to do the job right. We are pushing hard 
on the hiring of the inspectors and moving forward with the 
program that you have enabled us to implement.
    Senator Reed. And as you suggest, Mr. Secretary, 50 percent 
of these new fees are required to be used to improve permit 
reviews and related oversight activity. So there is a direct 
correlation between the increased fees and we hope the 
effectiveness of the inspections and the oversights, which 
after the Macondo spill, clearly, we need a more effective 
system. And your goal is to implement this effort?
    Secretary Salazar. Yes, Senator.
    Senator Reed. And you had indicated also, that your budget 
reflects a cut in personnel to the Department of the Interior, 
but you are actually hiring more inspectors because of the 
increase in fees for the offshore production?
    Secretary Salazar. The offshore oil and gas programs will 
see increases in the number of FTEs. Just a quick reminder, no 
increase from I think 1981, 1982 until what we have done in the 
last several years. It is necessary, and it is such an 
important part of our economy that we need to keep investing in 
that program.

                          OIL AND GAS REVENUES

    Senator Reed. And just a technical point, I believe, that 
all of the proceeds from production--from the gulf, from the 
Chukchi, from Bering, from Beaufort--all of those go to the 
Treasury of the United States. They do not go to the Department 
of the Interior?
    Secretary Salazar. That is correct.
    Senator Reed. And they fund a range of efforts. You do not 
have a restricted receipt account where the Department gets all 
the proceeds?
    Secretary Salazar. I wish we did. It would make it easier.
    Senator Reed. It would make it simpler. It would make it 
much more simple for this subcommittee. This could be a very 
short hearing, Mr. Secretary.

                        ONSHORE INSPECTION FEES

    Turning now from offshore to onshore. One of the proposals 
that we discussed quite seriously in the appropriations process 
last year, was an onshore inspection fee, that the BLM would be 
able to charge, an increase in fees, for that effect. That fee 
would be to increase their ability to inspect, to permit, in 
fact, to provide the kind of certainty and responsiveness that 
the business community really should have.
    That was not successful, but I think, in the context 
particularly of the emphasis on making sure we get these 
fracking regulations done right and not just the regulations 
and the reporting, but the inspections, my feeling is that this 
fee increase would be appropriate and would be used for the 
same purpose. That purpose would be to facilitate both the 
exploration and recovery of these resources, while doing it 
safely so that we don't have contaminated water and don't have 
unexpected consequences. Is that your view also?
    Secretary Salazar. I agree with you, Mr. Chairman.
    Senator Reed. And would you be supportive of the proposal 
in the budget to increase the fees on land-based as well as 
offshore?
    Secretary Salazar. Yes.
    Senator Reed. Thank you very much.

                    LAND AND WATER CONSERVATION FUND

    Let me just turn quickly to the LWCF because it has been 
mentioned before. It seems that the increases are focused in 
several specific areas--Montana, Wyoming, and in Florida. And 
the question really has been raised by a number of my 
colleagues, that this is a national program, and we understand 
that certain projects have particular needs and appeal and 
urgency. But there has to be, I believe, a much more even-
handed or a comprehensive approach to try to fund projects 
across the country.
    I could pick out urban projects in a number of places in 
the country. I could pick out projects that are east coast, 
south coast, et cetera. How can we help you provide a more 
comprehensive approach, based on merit, of course, than what 
seems to be appearing in the first cut of this budget?
    Secretary Salazar. Senator Reed, Chairman Reed, let me say 
the way in which we could move forward with the true 
conservation agenda that fulfills the dreams of many in the 
conservation world would be to have enough money to be able to 
do many more of these landscapes. At the end of the day, this 
is about landscape-level planning.
    When we look at the Crown of the Continent, from 
Yellowstone National Park up to Glacier and all of the work 
going on at three now national conservation areas there, we 
believe that with a collaborative effort, as opposed to 
operating in the silos of the agencies--the United States 
Forest Service, FWS, the BLM, and NPS--we can actually get that 
done.
    The same thing is true with the longleaf pine in Georgia 
and Florida. And the same thing, frankly, would be true in a 
number of other landscapes that we would like to do the same 
thing with.
    When I make the pitch, and it is not so in Senator 
Murkowski's case in Alaska, because Alaska is a world unto 
itself, very different situation than when you look at the 
lower 48. But there are landscapes, including many of those in 
the Northeast, which could benefit from this kind of investment 
and this kind of collaborative planning.
    Criticism from some about investments in the LWCF, I will 
just say he is not on this subcommittee, but Senator Barrasso 
and Senator Enzi from Wyoming are great beneficiaries of the 
LWCF because the Grand Teton National Park alone would swallow 
up several hundred millions of dollars just to be able to buy 
out the in-holdings within Grand Teton National Park.
    The need is tremendous, and the big problem we struggle 
with is how can we be most effective in implementing a 
conservation agenda that protects these landscapes of America 
and do it in a way that is going to be done in a timely manner?
    So the Dakota Grasslands, the Flint Hills of Kansas, the 
Silvio O. Conte Connecticut River areas, all those are 
tremendous areas where there is just a huge need. I would hope, 
with the leadership of this subcommittee, that we can see some 
august, robust support for the LWCF.

                       GRAZING ADMINISTRATIVE FEE

    Senator Reed. Just a final question. The budget includes a 
proposed increase in grazing fees on BLM lands of $1 from $1.35 
per horse to $2.35--or per animal, I should say to be accurate, 
per animal to $2.35. Even with such an increase, my presumption 
from what I have seen, would only cover a fraction of the BLM's 
cost to maintain this facility. I would also assume that 
comparative or relative to leasing private grazing property, 
even with this increase, there would be a very, very small 
charge. Is that a fair estimate, based on your analysis?
    Secretary Salazar. That is very accurate, Chairman Reed. 
The fact of the matter is, and I know ranchers, including in my 
family, who rent lands for probably $10, $11 an Animal Unit 
Month (AUM), $12 in the State of Colorado. So when you think 
about the public lands being leased out at $1.35 an AUM, adding 
the $1 administrative fee at $2.35 still gives a tremendous 
benefit and advantage to part of the heritage of this country, 
which is the ranching heritage of America.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                        OFFSHORE INSPECTION FEES

    I just have a small handful of questions remaining here. 
But I want to follow on the chairman's questions about the 
increased fees that were placed in last year's appropriations 
bill, 50 percent of which to fund the personnel and the 
mission-related costs. You have indicated that you are pushing 
to get additional personnel brought on. We greatly appreciate 
that.
    With that, are you seeing that the amount of time that it 
takes to approve the plans, the approvals, are they moving 
forward as you are able to add more on? Are we seeing any 
noticeable gains yet in that?
    Secretary Salazar. If you look back just at the last year 
from today to February this day a year ago, we have seen a 
number of exploration plans approved. We have seen permits 
issued, including I think more than 130 in the shallow water in 
the gulf and 60 in the deepwater. We are moving forward with 
that effort.
    On the hiring part, we are putting a lot of emphasis on it. 
In fact, we were having a conversation this morning about how 
Admiral Watson and Tommy P. Boudreau will make sure we are 
expediting the hiring of these people, and the flexibility you 
gave us in the budget to be able to pay 25 percent more for 
petroleum geologists and others who have the expertise will 
help us get the job done.
    Senator Murkowski. So you are still working to get there, 
is what you are saying?
    Secretary Salazar. We are on the case, but it is not 
stopping us from moving forward.
    Senator Murkowski. All right. Thank you.

                          ONSHORE ROYALTY RATE

    Yesterday, in the Energy Committee, I asked a couple 
questions about the onshore leases and the increase in the 
royalties, and the chairman has alluded to that in his 
question, et al. You mentioned that yesterday you were looking 
at several studies and mentioned the Government Accountability 
Office (GAO) study, I guess it was. But you said you were going 
to be taking that all into account.
    And I left the hearing thinking, well, wait a minute. If 
you are going to be taking into account these various studies 
that are out there, but yet the budget makes very clear that 
you are going to be raising the rates 50 percent for all 
onshore oil and gas production, it seems like you have already 
made up your mind on doing this.
    So I guess I have a question in terms of why are you going 
back and doing the studies now if you have already made the 
decision that you are going to move forward, or is that still 
in flux, the decision as to whether or not you bump up the fees 
an additional 50 percent?
    Secretary Salazar. Senator Murkowski, it is still in flux 
in the sense there is additional information and study to be 
done. As you know, when you put a budget together, you are 
forecasting what may be happening, and that is what OMB did in 
this particular case.
    At the end of the day, North Dakota just increased its 
royalty rates on State lands I think more than 18 percent. We 
know the numbers out of Texas and Wyoming, and I think the GAO 
was correct in making its finding at the 12.5-percent royalty 
rate, which has been in place since 1920, that the American 
taxpayer was not getting a fair return.
    I believe we need to make sure we honor that principle of 
getting a fair return.
    Senator Murkowski. Well, we all want a fair return. But I 
would again urge you to make sure that we are taking into 
account what we are paid for those initial leases, to make sure 
that is factored in because that, clearly, is a return that 
comes to the taxpayers. And again, to ensure that where we are 
not going to be in a situation where we are not competitive.

                     NATIONAL WILDLIFE REFUGE FUND

    I wanted to ask you about the National Wildlife Refuge 
Fund. I mentioned it in my opening statement. Apparently, the 
mandatory portion of this fund is going to continue to go to 
the local counties, but you are proposing to eliminate the 
discretionary portion of the program.
    And again, I will take you back to my rhetorical question, 
I guess, in my opening, which was what do you do for States 
like Alaska where we really are very limited in terms of our 
options? You have got the PILT payments coming. You are 
suggesting that it is going to be a 1-year continuation. 
Offsets haven't been identified. How do we deal with this, and 
can you tell me why you have chosen to eliminate the 
discretionary side from the National Wildlife Refuge Fund?
    Secretary Salazar. Senator Murkowski, we still will have I 
think it is $8 million set aside for the payments to the 
counties, which are a form of PILT, as you mentioned.
    Senator Murkowski. Right.
    Secretary Salazar. In terms of the other $14 million cut 
for the refuge fund that is in the budget, I will only say 
that, again, as one of those cuts which is a painful cut to 
take, I wish we didn't have to do it. At the end of the day, 
the concerns some of you have with the cuts proposed in this 
budget, they will all sort out relative to how the United 
States, the Congress, the President move forward with respect 
to dealing with some of the debt, deficit, and revenue issues 
needed to fund the Government.
    Senator Murkowski. Well, we will continue to talk about 
that one. We have got to figure out a good path forward. I 
appreciate the budget constraints that you are dealing with.
    I have got a couple questions about wood bison in Alaska 
and Unimak Island that relates to the caribou, but I will give 
you those in written format.

                  GEOLOGICAL SURVEYING OF AFGHANISTAN

    Senator Murkowski. But I do have one. I think this is 
really quite interesting. Apparently, in September of last 
year, USGS issued a press release that described the process 
that had been made in the geological surveying of Afghanistan, 
and they used some hyperspectral imaging and indicated in the 
release that more than 96 percent of Afghanistan is now mapped 
using this advanced technology.
    And I mean, that is all good, and clearly, the work is 
important. But we also have great opportunities with our own 
resources here in this country, certainly in Alaska. And of 
course, we all have to figure out, well, how do you pay for 
this type of mapping?
    In comparison to the 96 percent of Afghanistan that 
according to USGS has been geologically surveyed using these 
technologies, we are told that only 5 percent of the United 
States has been mapped using the same technologies. I don't 
know if this is true. I don't know if you can give me this 
answer today.
    But if it true, if you really do have this very stark 
difference between what we know about mineral-related 
investments that this administration is making in Afghanistan 
versus Alaska, do we know whether in this budget we have 
sufficient funding to start focusing on the United States 
mapping? I don't know if it is in there.
    But this is, again, one of those interesting data points 
that you say, well, gosh, if we can afford to be mapping 
Afghanistan, we would assume that this country is mapped, and I 
know for a fact that it is not. So can you help me out with 
that one?
    Secretary Salazar. On Afghanistan, obviously, because there 
has been huge investment both by the Bush administration and by 
President Obama's administration in Afghanistan, those were all 
reimbursable costs, as I understand, to the USGS.
    I will note, Senator Murkowski, the USGS just developed a 
study that looked at shale gas in Alaska, including the 
important areas of the North Slope, which you care so much 
about. I take your comment seriously, and one of the things I 
will do is I will talk to Dr. McNutt and to Bob Abbey to see 
whether there are some ways in which the technology that has 
been developed with efforts here in the United States, we have 
a good foundation from which to start.
    But maybe even taking the lessons from Afghanistan to be 
able to deal with some of the other mapping and surveying 
issues which you have talked about. Let me take that under 
consideration, see whether there is something we might be able 
to do.
    Senator Murkowski. Okay. I would recommend you start 
alphabetically with the States.

                       GOVERNMENT REORGANIZATION

    Senator Murkowski. We got a lot that we can cover up North. 
And then, Mr. Chairman, with your indulgence, what do you think 
about the proposal to move the National Oceanic and Atmospheric 
Administration (NOAA) from the Department of Commerce to the 
Department of the Interior?
    Secretary Salazar. Well, Senator Murkowski, first, the 
President was very clear in asking for the authority to be able 
to reorganize the Government. That is first and foremost 
because with that authority, there are probably other areas in 
Government that do need to be consolidated. We still have much 
of our Government which was created 100 years ago and really 
hasn't caught up to the 21st century.
    President Ronald Reagan had the authority to do 
reorganizations and consolidations. I think it is a simple 
request from the President.
    On the question of NOAA and the Department of the Interior, 
there are synergies that could be developed if there was such a 
consolidation. But we are not at this point looking at it until 
we get the authority from the Congress to move forward.
    Senator Murkowski. So you really haven't invested any time 
or effort to see how those synergies might come together?
    Secretary Salazar. I have seen studies from outside groups 
that indicate it would be a good idea, but any reorganization 
undertaken is always a difficult one and takes time to do it 
right. I tried to do a little consolidation with OSM and BLM, 
and we know what happened with that.
    Secretary Salazar. A reorganization of the kind that would 
bring NOAA and the Interior together, it would be an effort 
that would take a significant amount of time to do it right. 
Where the President is on this issue and where I am and my 
colleague Secretary Bryson are is we are supportive of giving 
the President the authority.
    It doesn't make sense for us to engage in any kind of study 
on any of these reorganizations until we have that authority.
    Senator Murkowski. Thank you.
    Mr. Chairman, I just might point out that if fisheries were 
under the Secretary's jurisdiction here, we could probably 
ensure better salmon dinners, and we will work with you on 
that.
    Senator Reed. Thank you, Senator Murkowski.
    Mr. Secretary, thank you very much, and your colleagues, 
for your testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will leave the record open until next Wednesday if there 
are additional statements or questions by any of my colleagues, 
and would ask you, Mr. Secretary, you and your staff to respond 
as quickly as possible.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Jack Reed

                             OFFSHORE WIND

    Question. Rhode Island has been helping lead the way on offshore 
wind in developing its ``pilot-scale'' offshore wind project in the 
State waters off Block Island, which will provide important engineering 
and environmental expertise for these new technologies in the water. 
How will the Department of the Interior (DOI) partner with Rhode Island 
on these efforts?
    Answer. Rhode Island continues to be a valuable partner at the 
forefront of offshore renewable energy development with DOI. Rhode 
Island's work in developing its Special Area Management Plan provided 
essential information to support DOI's decisions. The Bureau of Ocean 
Energy Management (BOEM) Rhode Island OCS Renewable Energy Taskforce 
continues to be an effective means of expanding this partnership at the 
Federal, State, local, and tribal levels. Through its Environmental 
Studies Program, BOEM is addressing issues and concerns identified by 
Rhode Island. For example, BOEM is partnering with the University of 
Rhode Island to develop protocols and modeling tools to support 
offshore wind development. Ongoing and future studies funded by BOEM 
through the Environmental Studies Program will investigate changes to 
recreation and tourism activities that may result from offshore wind 
energy development. BOEM is also conducting a study of best management 
practices to foster compatible development of offshore energy with 
fishing activities. BOEM also engages routinely with the Rhode Island 
Fishery Advisory Board and Habitat Advisory Board. Finally, to ensure 
an efficient and responsible environmental review, BOEM is combining 
its review of the transmission cable system with the U.S. Army Corps of 
Engineer's (COE) review of the pilot project under the National 
Environmental Policy Act (NEPA) and required consultations under 
Federal law.
    Question. Mr. Secretary, I appreciate that the commitment you made 
in the hearing to expedite BOEM's efforts to process right-of-way 
applications for the transmission line between Block Island and the 
Rhode Island mainland. Would you also make a similar commitment to 
expedite the consultation of any agency within DOI, such as the 
National Park Service (NPS), with other Federal agencies including COE 
that would have a role in the siting and approval of the State water 
project?
    Answer. Yes. The President has directed that all Federal agencies, 
including NPS and COE, do everything that can be done to expedite 
consultation and to be supportive in siting and approving projects in 
State waters. In these times of fiscal restraint, partnering between 
Federal agencies ensures that resources are spent more efficiently and 
are directed to those areas of greatest concern. Partnering also 
ensures the maximum use of collaboration between all stakeholders at 
the Federal, State, and local levels. In keeping with our ``Smart from 
the Start'' Initiative, I am committed to accelerating the leasing 
process changes in order to build a robust and environmentally 
responsible offshore renewable energy program that also creates jobs 
here at home.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                 CADIZ

    Question. Last November the Interior Department's Solicitors office 
issued a memorandum known as the ``M Opinion'' which stated that 
railroad companies lack authority to permit activities along their 
right-of-way unless the projects directly benefit railroad operations. 
The proposed Cadiz water project in the Mojave Desert has proposed 
using the Arizona & California Railroad's Right of Way to construct a 
43-mile long pipeline connecting their project site with the Colorado 
River Aqueduct. The project's Draft Environmental IR suggests that the 
water pipeline would benefit the railroad because it would allow them 
to place fire hydrants along the route for fire suppression. Can you 
tell me are fire hydrants typically placed along the Bureau of Land 
Management (BLM) granted-railroad right-of-ways?
    Answer. We are not aware of any hydrants placed on BLM-granted 
railroad rights-of-way. We would need to review each authorization to 
determine if hydrants are present.
    Question. Do they exist along any railroad right-of-way in the 
desert southwest?
    Answer. We can only speak to those railroad right-of-way grants 
that we approved. We do not know if other railroad grants involve 
hydrants. The Federal Railroad Administration or Surface Transportation 
Board may be able to clarify this.
    Question. What steps has the Department of the Interior to taken to 
assess Cadiz' proposed use of the right-of-way as it relates to the ``M 
Opinion'' or assert its jurisdiction to regulate the use of the Right 
of Way for nonrailroad purposes?
    Answer. BLM is currently in the process of assessing Cadiz' 
proposed use of the right-of-way as it relates to the ``M Opinion.'' As 
part of that assessment, the BLM California State Office has taken the 
following steps:
    On January 10, 2012, the BLM California State Office sent a letter 
to all railroad companies with rights-of-way authorized under the 
authority of the 1875 Railroad Act in California, including the Arizona 
& California Railroad, which has entered into a lease for a pipeline 
for the Cadiz project. The letter requested the companies to disclose 
agreements for third-party easements within 30 days. The Arizona & 
California Railroad (ARZC) responded to this request on February 15, 
2012, requesting additional information about specific ROWs and the 
areas for which BLM is interested.
    On February 13, 2012, BLM's California State Director sent a letter 
commenting on the Draft Environmental Impact Report prepared by the 
Santa Margarita Water District and Cadiz, to comply with the California 
Environmental Quality Act. The comment letter requested copies of the 
plan related to water conveyance along the railroad, the Longitudinal 
Lease Agreement between Cadiz and ARZC and all other supporting 
documentation. BLM received a response letter from the Santa Margarita 
Water District which included copies of the Longitudinal Lease 
Agreement, an amendment to this agreement and correspondence between 
the Railroad and Cadiz.
    On May 4, 2012, BLM sent a letter to ARZC, along with a copy of the 
Longitudinal Lease Agreement between ARZC and Cadiz requesting the 
company provide more information on how the proposed pipeline described 
in the Agreement furthers railroad purposes, and whether these design 
features are consistent with standard railroad industry practices.
    On May 22, 2012, ARZC provided a response letter to BLM's May 4th 
request describing the ``proposed water pipeline as a unique 
opportunity to bring fire suppression resources to ARZC's critical rail 
improvements in an efficient and cost-effective manner, as well as 
providing collateral rail operating benefits.'' It also asserts that 
``with respect to hydrants, fire suppression capability is a chronic 
and historical challenge in the rail industry, most particularly on 
rural lines with trestles and bridges.'' BLM is currently coordinating 
with FRA to understand the feasibility of these water features, and 
whether they meet the objective of furthering railroad purposes.

                        PRIVATE LANDS PERMITTING

    Question. Secretary Salazar, I am concerned that the permitting of 
renewable energy projects on disturbed private lands remains more 
difficult than the process for permitting a similar project on pristine 
public land. The Conference Report accompanying the Department of the 
Interior's fiscal year 2012 appropriations legislation asked you to 
address this, stating:

    ``In order to facilitate better species protection and stewardship 
of public resources, the conferees expect that (the new Renewable 
Energy Permitting Office in the Fish and Wildlife Service) will develop 
permitting policies that make it less difficult and time-consuming to 
permit projects on disturbed private lands than on pristine public 
lands . . . . The conferees . . . support efforts by the Service to 
establish a pilot fee program using the Service's existing 
authorities.''

    Please describe how the Fish and Wildlife Service (FWS) has 
implemented this congressional directive to date, and please describe 
the Interior Department's strategy to address this matter during fiscal 
year 2013.
    Answer. FWS has met this congressional directive by realigning 
support for renewable energy work in the Carlsbad, Ventura, and Nevada 
Fish and Wildlife Offices (FWOs). FWS opened an office in Palm Springs 
in August 2011, which is closer to where many renewable energy projects 
are located. The office covers southwestern San Bernardino County, and 
all of Riverside and Imperial counties. The Palm Springs FWO works on 
renewable energy projects in the desert area, including the Desert 
Renewable Energy Conservation Plan (DRECP). FWS has two offices working 
on renewable energy permitting in Nevada, one in Reno and one in Las 
Vegas. The Secretary of the Interior recently signed an agreement to 
finish the DRECP by 2013. FWS is developing the DRECP to address 
private lands impacts and to serve as the programmatic permitting 
mechanism for renewable energy projects in the desert in California 
while sustaining the conservation of listed species.
    To help us be more responsive to renewable energy projects on 
private lands, the Service recently finalized a package of template 
documents and instructions that can be used by local FWS offices to 
establish reimbursable agreements with non-Federal entities that would 
provide additional funding. The additional funding can then be used to 
hire additional staff so that the Service can provide more timely 
environmental reviews of the projects.

                                 GAMING

    Question. Mr. Secretary, I am deeply disappointed that the 
Department was delinquent in responding to this subcommittee about the 
two controversial casinos that were approved in California last 
September. The Consolidated Appropriations Act, 2012 provided a 60-day 
window to respond; this deadline was missed by more than 2 weeks.
    The Committee report language gave your Department an opportunity 
to verify the claim of strong local support for these projects, despite 
the fact that only 3 of 33 elected officials or public entities 
expressed support for the casinos. I find it hard to believe that three 
support letters constitute ``strong local support'' as your document 
claims, particularly when Yuba County voters expressed opposition to 
one of the casinos in an advisory measure.
    Since Californians continue to be puzzled by the claim of ``strong 
local support'' for these casinos, I would like to follow up on the 
Committee Report.
    Of the 33 elected officials and bodies that you are required to 
consult with, how many have expressed support, in writing, for the 
casino projects?
    Answer. The Department received six express declarations of support 
from local units of government, with respect to the Enterprise 
Rancheria's application for a Secretarial Determination under the 
Indian Gaming Regulatory Act. These statements of support were 
discussed in the Department's September 1, 2011, decision at page 25. 
It is important to note that these supportive comments were submitted 
by the City of Marysville and Yuba County, in which the Enterprise 
Rancheria's proposed gaming facility would be located. These local 
units of government would experience the most significant impact of the 
tribe's proposed gaming facility. The Department previously provided 
the subcommittee with a copy of the September 1, 2011, Secretarial 
Determination for the Enterprise Rancheria on March 8, 2012, as an 
appendix to our response to House Conference Report No. 112-331 
Directive.
    The Department received seven express declarations of support from 
local units of government, with respect to the North Fork Rancheria's 
application for a Secretarial Determination under the Indian Gaming 
Regulatory Act. These statements of support were discussed in the 
Department's September 1, 2011, decision at pages 43-45. It is 
important to note that these supportive comments were submitted by the 
City of Madera and Madera County, in which the North Fork Rancheria's 
proposed gaming facility would be located. These local units of 
government would experience the most significant impact of the tribe's 
proposed gaming facility. The Department provided the subcommittee with 
a copy of the September 1, 2011, Secretarial Determination for the 
North Fork Rancheria on March 8, 2012, as an appendix to our response 
to House Conference Report No. 112-331 Directive.
    Question. How many have expressed opposition?
    Answer. The Department received three express declarations of 
opposition from local units of government, with respect to the 
Enterprise Rancheria's application. These statements of opposition were 
discussed in the September 1, 2011, Secretarial Determination at pages 
26-27.
    The Department received two express declarations of opposition from 
local units of government, with respect to the North Fork Rancheria's 
application. These statements of opposition were discussed in the 
September 1, 2011, Secretarial Determination at page 44.
    It is important to note that the Department provided a meaningful 
opportunity for local units of government to comment on the tribes' 
applications, pursuant to our regulations at 25 CFR part 292. A 
majority of those local units of government declined to submit comments 
to the Department on the tribes' applications.
    Question. How much weight was given to Yuba County Measure G, the 
advisory vote rejecting the proposed casino in Yuba County?
    Answer. The Secretarial Determination issued on September 1, 2011 
for the Enterprise Rancheria contains a discussion of how the 
Department considered Measure G in reviewing the tribe's application at 
page 25.
    Question. What needs to be done to ensure that county voters and 
residents can have their voices heard in this process?
    Answer. On June 13, 2011, the Assistant Secretary--Indian Affairs 
issued a memorandum explaining how the Department would consider tribal 
applications for Secretarial Determinations under the Indian Gaming 
Regulatory Act. In that memorandum, the Assistant Secretary noted ``In 
my view, IGRA and the Department's regulations, at 25 C.F.R. Parts 151 
and 292, adequately account for the legal requirements and policy 
considerations that must be addressed prior to approving fee-to-trust 
applications, including those made pursuant to the ``off-reservation'' 
exception. Specifically, the recently enacted part 292 regulations 
require exacting review of requests for off-reservation gaming.''
    Part 292 regulations were promulgated pursuant to IGRA and other 
statutory authorities. Under the IGRA's ``off-reservation'' exception, 
a tribe may conduct gaming on lands acquired after October 17, 1988 
only if:

    ``The Secretary, after consultation with the [applicant] Tribe and 
appropriate State and local officials, including officials of other 
nearby Indian Tribes, determines that a gaming establishment on newly 
acquired land would be in the best interest of the Indian Tribe and its 
members, and would not be detrimental to the surrounding community.''

    The Department continues to believe that existing law and 
regulations ensure a careful review of tribal applications for 
Secretarial Determinations under IGRA, which will allow for a 
meaningful opportunity for local communities to participate. It is 
important to note that Secretarial Determinations issued pursuant to 
IGRA are subject to the concurrence of the Governor of the State in 
which tribal gaming activities would occur.
    Question. Some of the most vocal opposition to these casinos has 
been from tribes, especially those who believe that new casinos should 
be built on the tribe's aboriginal lands--not in the most profitable 
location. This is consistent with the position of the National Indian 
Gaming Association. To what extent did you engage in consultation with 
these tribes and how did you respond to their concerns?
    Answer. The Assistant Secretary's June 13, 2011 Memorandum on 
processing tribal applications under IGRA's Secretarial Determination 
Exception was issued after thorough consultation with tribal leaders 
throughout the United States over a period of 3 months. Similarly, the 
Department's regulations at 25 CFR part 292 were promulgated in 2008 
after years of tribal consultation, as well as after a period of public 
notice and comment.
    With respect to the applications of the Enterprise Rancheria and 
the North Fork Rancheria, the Department adhered to the requirements 
set forth in governing regulations. In an effort to be transparent and 
inclusive, the Department even considered comments submitted by tribes 
outside the scope of what is required by our regulations. The September 
1, 2011, Secretarial Determination for the Enterprise Rancheria 
contains a discussion of comments submitted by other tribes at page 27. 
The September 1, 2011, Secretarial Determination for the North Fork 
Rancheria contains a discussion of comments submitted by other tribes 
at page 45.
    Question. Are the proposed casino sites on land that is within the 
undisputed aboriginal territory of the appropriate tribe?
    Answer. Neither IGRA nor the Department's regulations, at 25 CFR 
part 292, require a tribe's proposed gaming facility be located within 
its ``aboriginal territory.'' Nevertheless, the Department's 
regulations require us to evaluate the existence and extent of a 
tribe's ``significant historical connection'' to a proposed gaming site 
when making a Secretarial Determination under IGRA. The September 1, 
2011, Secretarial Determinations for both the Enterprise Rancheria and 
the North Fork Rancheria concluded that both tribes established a 
``significant historical connection'' to their respective proposed 
gaming sites.
    The September 1, 2011, Secretarial Determination for the Enterprise 
Rancheria contains a discussion of the tribe's significant historical 
connection to the proposed gaming site at pages 13-14. The September 1, 
2011, Secretarial Determination for the North Fork Rancheria contains a 
discussion of the tribe's significant historical connection to the 
proposed gaming site at pages 11-17.

    BUREAU OF LAND MANAGEMENT SOLAR SUPPLEMENTAL DRAFT PROGRAMMATIC 
                     ENVIRONMENTAL IMPACT STATEMENT

    Question. Last October, BLM issued its Draft Supplemental Solar 
Programmatic Environmental Impact Statement (PEIS), which includes 
large amounts of ``variance'' lands outside the solar zones. It is my 
understanding that while applicants are strongly encouraged to pursue 
projects within the identified solar zones, BLM will also consider 
permitting development in these ``variance'' areas. While some 
flexibility to consider lands beyond the zones may be necessary, I find 
it highly problematic that an estimated 50,000 acres of land that were 
donated or purchased with Land and Water Conservation Fund dollars have 
been included in the variance lands. Given that these lands were 
intended to be preserved in perpetuity, I do not believe they should be 
open for development. Can you tell me what is the process by which the 
BLM will consider and grant permission for solar projects to be 
constructed on ``variance'' lands?
    Answer. The process for considering solar projects on ``variance'' 
lands has been delineated in the Supplemental Draft Solar PEIS in 
detail. However, no final decision has been made. In addition, there 
might be market, technological, or site-specific factors that make a 
project appropriate in a non-solar energy zone area. BLM will consider 
variance applications on a case-by-case basis based on environmental 
considerations; consultation with appropriate Federal, State, and local 
agencies, and tribes; and public outreach. All variance applications 
that the BLM determines to be appropriate for continued processing will 
subsequently be required to comply with National Environmental Policy 
Act (NEPA) and all other applicable laws, regulations, and policies at 
the applicant`s expense. Applicants applying for a variance must assume 
all risk associated with their application and understand that their 
financial commitments in connection with their applications will not be 
a determinative factor in BLM's evaluation process.
    Question. Why have donated and LWCF-acquired lands been included 
among the ``variance'' lands and what steps are being taken to avoid 
their development?
    Answer. Comments received on the Supplement to the Draft Solar PEIS 
have requested that donated and LWCF-acquired lands be identified as 
exclusion areas for utility-scale solar energy development. BLM is 
currently considering this request, but no decision has been made yet. 
We would be available to brief your office directly in more detail at 
your request.

                         CENTRAL VALLEY PROJECT

    Question. Last week the Bureau of Reclamation (BOR) released its 
initial water allocations for Central Valley Project (CVP) water users. 
Given the low precipitation and Sierra snowpack we have experienced in 
California, the 30-percent water allocation for agricultural service 
contractors is disconcerting, but not altogether surprising. 
Significant carry-over storage appears to have helped boost reservoir 
supplies, but it is unclear whether those supplies are sufficient to 
provide all the water necessary to meet the needs of farms and 
communities for the remainder of the year. Can you tell me:
    If there is not significant additional precipitation in the 
remaining weeks of the wet season, how will this affect future water 
allocations for the remainder of the water year?
    Answer. The initial 30-percent allocation to agricultural water 
service contractors in February 2012, was due to very dry hydrologic 
conditions. December, typically one of the wettest months in 
California, ended up being one of the driest on record. The dry pattern 
continued through mid-March. Since mid-March, improved precipitation in 
the Sacramento Valley and improved snowpack in the Northern Sierra 
resulted in increases to the allocation for CVP San Joaquin Exchange 
and Sacramento River Settlement Contractors, wildlife refuges, 
agricultural, and municipal and industrial water service contractors in 
April. As of May, the allocation for north of delta agricultural water 
service contracts was 100 percent, but the allocation south of delta 
agricultural water service contractors remained lower at 40 percent. 
The lower allocation south of the delta is a reflection of constraints 
on exports from the Delta and the loss of pumping windows during the 
winter when conditions were much drier. In the San Joaquin Valley, 
precipitation did not improve as significantly as it did in the 
Sacramento Valley. The initial allocation to Friant Class I contractors 
was 35 percent which increased to 55 percent as of May 24. The Friant 
Class II allocation remains zero.
    Question. What administrative actions can BOR take to help ensure 
adequate water supplies to San Joaquin and Sacramento farmers this 
year?
    Answer. BOR developed a series of actions in the CVP Water Plan 
2012 to help support water management efforts this year. The plan, 
available at http://www.usbr.gov/mp/pa/water, identifies actions 
related to Joint Point of Diversion, Exchange Contractors' transfers, 
and California Aqueduct/Delta-Mendota Canal Intertie operations. BOR 
also worked with the water community to identify opportunities for 
transfers and administrative actions to better manage available 
supplies.

                             YUROK FUNDING

    Question. Secretary Salazar, Yurok Chairman O'Rourke recently wrote 
to your Department seeking assistance with the historic and continued 
under-funding for Yurok tribal government, law enforcement and 
transportation needs. I share his concerns and hope that your staff 
will give his request for additional funding all due consideration.
    To help clarify some outstanding questions raised by Chairman 
O'Rourke, I hope that you can provide me with answers to the following 
questions.
    Has your Department reviewed and analyzed the Yurok Tribe 
Justification and Request for Increased Base Funding, which was 
provided to the Regional Office and conveyed to the Assistant Secretary 
earlier this month?
    Answer. The Department received and reviewed the ``Yurok Tribe 
Justification and Request for Increased Base Funding.'' The Bureau of 
Indian Affairs (BIA) has examined the request, and we hope that our 
explanation of the issues raised by the tribe are addressed in the 
explanation of Tribal Priority Allocations (TPA) which are below.
    Question. Do you agree with the conclusions reached in this 
document, particularly that the tribe is disproportionately 
underfunded?
    Answer. In general, the distribution of TPA funds is sound. Tribes 
with historically larger populations and/or larger reservations receive 
proportionately larger shares of TPA funds. Adjustments reflecting 
treaties, court decisions, executive policy decisions, and 
congressional acts are also factored into the distributions.
    The allocation of resources among the regions and tribes is based 
on a complex set of historical, geographical, demographic, political 
and programmatic factors. Today, ``base funding'' identifies the basic 
contract amount of services on which a tribe can rely from 1 year to 
the next--the base amount from which budget increases or decreases are 
calculated. The base funding amount is the result of years of 
legislation, appropriations, and BIA administrative polices.
    At various times, especially in the past several decades, the 
Federal Government has emphasized the development of certain natural 
resources and provided additional funding for those programs. 
Additional funds were provided only to tribes owning such resources, 
and those funds were made part of the tribe's recurring TPA base 
funding. On the other hand, several programs were removed from tribal 
recurring bases, as well. These programs included the Housing 
Improvement Program and Road Maintenance program; many tribes had 
ranked these programs as top priorities and had allocated a substantial 
amount of their funding for them. When these funds were reduced or 
eliminated from the TPA base, tribes that had these programs listed as 
top priorities lost significant portions of their base funding.
    At various times, the BIA has emphasized certain programs, such as 
Human Services. At those times, the BIA has requested additional 
funding for those programs. Tribes with higher populations received a 
high proportion of these funds, which were then made part of their 
recurring TPA base to meet ongoing needs. However, increased tribal 
enrollment, whether through changes in membership criteria, or natural 
population growth, has not been considered a factor in distributing 
additional funds for TPA programs. Migration to and from reservations, 
particularly as economic opportunities change, has not been accounted 
for in any calculations of TPA funding.
    As a result of treaties, court decisions, executive policy 
decisions, and congressional acts, the legal obligations and funding 
for particular tribes have resulted in unique recurring funding levels 
for those tribes. Additionally, these funds were incorporated into 
various tribes' bases to address the prospect of litigation from these 
tribes against the Federal Government for failure to support certain 
activities required by treaty, statute, or the Government's trust 
responsibility.
    Question. What is the minimum per-capita funding that a rural, 
nongaming tribe should receive?
    Answer. The BIA does not establish a minimum per-capita funding 
level for any tribe, regardless of locality or gaming status. However, 
the Small Tribes Initiative was established to address a funding 
allocation process that consistently failed to take into consideration 
the basic funding needs of small tribes. These tribes have small 
memberships and most have little or no land or natural resources. The 
initiative attempts to ensure that all tribes, regardless of population 
size, land base, or natural resources, will receive a recurring base of 
$160,000 for tribes in the continental United States. The base funding 
amount is considered sufficient to enable small tribes to put in place 
and maintain the management systems necessary to account for funds and 
ensure compliance with applicable laws and regulations. The funding 
also permits tribes to establish and maintain administrative mechanisms 
sufficient to establish viable tribal office operations and service 
delivery systems.
    Question. If a per-capita formula is inappropriate, please explain 
what formula your Department does use any why it is the more 
appropriate funding mechanism.
    Answer. A per capita formula is inappropriate to use. At one time, 
the Government Accountability Office (GAO) developed an analysis of the 
TPA base funding per tribe. Their analysis showed that there is 
considerable variation in per capita funding between regions and 
tribes. For example, in the comparison between regions, GAO found the 
average TPA funding per capita Nationwide was $601; however, in Eastern 
Oklahoma TPA per capita was $121 and in Northwest TPA per capita was 
$1,020. This level of analysis, though, ignores that the Eastern 
Oklahoma Tribes tend to have small land bases while the Northwest 
Region Tribes have both reservations and significant natural resources 
held in trust.
    The only funding formula that the Department uses for the 
distribution of base funding is the TPA process. Many difficulties 
arise in any effort to develop an allocation system that takes into 
account the relative means of the tribes. Determining the type, extent, 
and magnitude of tribal revenues is the first difficulty. In an era 
when the BIA had a continuous presence on the reservation and managed 
an Indian Tribe's affairs, BIA personnel knew about all tribal business 
activities. In the current era of Self-Determination and Self-
Governance, the BIA often does not know the extent of tribal 
businesses. There is no assurance that the financial statements and 
reports even exist for all tribal business. Even if they exist, there 
is no assurance the format and content of the statements and reports 
may be readily compared or that the tribes would give BIA the 
information.
    The current TPA process is the most appropriate due to the efforts 
of the BIA in consulting with tribes and tribal leaders in the early 
development stages of the TPA process.
    Question. As a small and needy tribe, what supplemental funding can 
be identified to address this shortfall?
    Answer. The Catalog of Federal Domestic Assistance is a valuable 
resource because it identifies programs which identify tribal 
governments as eligible applicants. These programs are available and 
the BIA has seen increased outreach efforts by a number of Federal 
agencies, which is an indicator that tribal participation in these 
other programs may show steady increases and a bridged gap in 
shortfalls.

                     SAN LUIS REY WATER SETTLEMENT

    Question. In 1988, the Congress passed the San Luis Rey Indian 
Water Rights Settlement Act which provided a framework for resolving 
the decades old water dispute in Northern San Diego County. Within the 
last 2 years the five Indian Bands and the cities of Escondido and 
Vista have reached an agreement on how to proceed, however the 
Department of the Interior--as the bands' trustee--has yet to approve 
the deal.
    What are the primary unresolved issues which prohibit you from 
approving this settlement?
    Answer. The Department of the Interior believes that the proposed 
settlement agreement drafted by the Bands and the local entities is 
inconsistent with the 1988 San Luis Rey Indian Water Rights Settlement 
Act (``Settlement Act'') and contemplates obligations for the United 
States which exceed the authority and intent of the Act. The 
Department's position on the core issue in dispute, discussed below, 
was conveyed to the Bands as early as 2004, and has been reiterated 
multiple times across at least two administrations.
    The central point of contention concerns the scope and effect of 
the Settlement Act. The Department believes that the Settlement Act 
fully and finally quantified and resolved all of the Bands' Federal 
reserved water rights. The Department believes this position is fully 
supported by both the plain language of the Settlement Act and the 
congressional record behind the enacted legislation. In full settlement 
of the Bands' reserved water rights claims and to satisfy the 
obligations of the United States to the Bands as trustee, the 
Settlement Act established a $30 million trust fund and also required 
the Secretary to acquire and deliver 16,000 acre-feet per year of 
imported water to the Bands. The Bands and local entities disagree with 
this interpretation and rely on language from, and the legislative 
history behind, prior unenacted bills to assert that, in addition to 
the 16,000 acre-feet per year of imported water identified in the 
Settlement Act, the Bands retain claims to reserved water rights in 
waters originating within the San Luis Rey River basin.
    Question. What is the timeline for you to resolve these issues?
    Answer. The Department is committed to the expeditious development 
of a settlement agreement consistent with the Settlement Act, should 
the parties wish to pursue such an agreement. The Department has 
engaged in dozens of settlement discussions with the parties over the 
last several years and has offered multiple approaches to fashioning an 
agreement which would make the benefits of the Settlement Act available 
to the Bands. The Department views the quantity of water together with 
the specific exchange authority provided by the Settlement Act as an 
exceptional asset that holds the potential to provide the Bands with a 
permanent and reliable water supply unobtainable through any other 
means. If the parties are willing to pursue an agreement based upon the 
benefits explicitly set forth in the Settlement Act, the Department is 
hopeful that a final agreement could be developed this year.
    Question. Does the 16,000 acre/feet of water provided by the 
Settlement have federally reserved status?
    Answer. The Congress directed the United States, through the 
Secretary of the Interior, to acquire and deliver 16,000 acre-feet of 
water to the Bands in settlement of the Bands' reserved water rights 
claims. This water cannot be forfeited or abandoned and is federally 
protected water that, in the Department's view, constitutes a trust 
asset.
    Question. Under your interpretation of the Settlement Act, does it 
preclude tribes from using existing ground and surface water on their 
reservations?
    Answer. No. All five Bands have historically used either local 
surface water, ground water through domestic or community wells, or 
some combination of both. These uses have never been challenged. There 
is no reason that these uses could not continue following 
implementation of the Settlement Act.
    Question. Does this water have federally reserved status?
    Answer. The purpose of the Settlement Act is ``to provide for the 
settlement of the reserved water rights claims of the la Jolla, Rincon, 
San Pasqual, Pauma and Pala Bands of Mission Indians'' by providing the 
Bands with 16,000 acre-feet per year of supplemental water and a $30 
million trust fund. Against the backdrop of this congressional intent, 
the United States would not assert Federal reserved water rights on 
behalf of the Bands to local water sources.
    Question. The Settlement Act provides the authority to exchange 
settlement water for water from other sources. Once this exchange 
occurs, is the federally reserved status of the water maintained?
    Answer. The Settlement Act resolved the Federal reserved water 
rights claims of the five Bands by directing the Secretary to acquire 
and deliver 16,000 acre-feet of water imported annually to supplement 
the waters under dispute in the basin. The Department takes the 
position that this water is a trust asset to which the obligations of 
the United States attach. The Congress further authorized specific and 
limited authority for exchanges of the imported water for water from 
other sources for use on the Bands' reservations. If the water provided 
by the United States is exchanged consistent with the authority of the 
statute for water from another source, the Department believes that the 
trust asset character of the water can follow the exchange and be 
applied to this new source and that the Bands' use of water from this 
source could be protected as such.

                 FEE TO TRUST PROCESS AND APPLICATIONS

    Question. One of the most common concerns I hear expressed by 
tribes in California is the length of time it takes the Department to 
make decisions on fee to trust applications.
    In some cases I believe the Department acts responsibly in 
conducting a deliberative process, especially when gaming is involved. 
But in other cases, I believe the Department could and should move more 
quickly. This will require a more open, transparent process, and better 
communication with local interests.
    How many trust applications are pending in California? How many are 
for gaming?
    Answer. California has 134 applications pending, of which 13 are 
for gaming.
    Question. What has been the average length of time it takes to 
process a trust application for a California tribe in the last 10 
years?
    Answer. The time it takes complete an application varies depending 
upon a number of factors, including the stated purpose of the 
acquisition, comments from interested parties, environmental concerns, 
and concerns stemming from the Supreme Court's decision in Carcieri v. 
Salazar. Some applications can be completed in less than 2 years, while 
others have taken up to 5 years.
    Question. On average, how long does it take the Department to 
notify the local interests of a new trust application in their area? 
What steps are you taking to improve notifications?
    Answer. On average, it takes the Department 6 months to notify the 
local interests. Actions that have been taken to improve the 
notification process include the development of a national policy 
identifying timeframes associated with the process, revising the Fee-
to-Trust Handbook, implementing guidance to process mandatory 
acquisitions, replacing the Fee-to-Trust tracking system with an 
improved collaborative system, and developing performance measures for 
senior executives to process applications.
    Question. To what extent do gaming acquisitions slow the process of 
trust land approvals in general?
    Answer. Gaming applications require more work/information/approval 
levels and require preparation of an Environmental Impact Statement 
rather than an Environmental Assessment. The tribe must coordinate 
processing with the State and local governments and applications 
generally receive more scrutiny for compliance with NEPA, IGRA, and 
applicable gaming and land acquisition regulations.
    Question. Do the same staff analyze both gaming and nongaming 
applications? Does this create a situation where nongaming trust 
applications receive less staff time because of the more intensive 
process required for gaming acquisitions?
    Answer. Yes, staff does perform work on both gaming and nongaming 
applications. The nongaming applications do compete for staff time as 
the gaming acquisitions are labor intensive.
    Question. Is it possible for a parcel taken into trust using the 
nongaming procedure to ever be used for gaming activities?
    Answer. Yes, in some circumstances. Section 20 of IGRA provides 
that for lands that are within reservation boundaries or contiguous 
thereto, BIA has the authority to take land into trust that can 
subsequently be used by a tribe for gaming purposes. Requests for 
gaming must still be approved using section 20 of IGRA, whether the 
land is being taken into trust for that purpose or it is in existing 
trust status.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Secretary Salazar, an important Interior Department tool 
that Vermont and many other States, including New York, used during the 
floods caused by Hurricane Irene were the U.S. Geological Survey (USGS) 
river and lake gauges. These gauges helped our first responders save 
lives and property by providing real-time information as the waters 
rose. In addition, the gauges also provide a long-term value by helping 
track changes in our rivers and lakes for ongoing water quality control 
monitoring and improvements. Nonetheless the USGS has flagged 18 river 
and lake gauges in the Champlain watershed of Vermont and New York to 
be discontinued for lack of funding.
    Do you agree with the assessment that the USGS river and lake 
gauging network in the United States represents one of the greatest 
return-on-investments of any dollar spent by your Department? Can you 
tell me what is needed to avoid any further damage to this critical 
network in Vermont and nationwide?
    Answer. Yes, the USGS streamgaging network provides a great return 
on the American taxpayer's dollar. Information on the flow of water in 
America's rivers and streams is fundamental to national and local 
economic well-being, the protection of life and property, and the 
efficient and effective management of the Nation's water resources. 
According to the National Research Council (2004), ``streamflow 
information has many of the properties of a public good, because 
everyone benefits whether they pay or not, and benefits to additional 
users come at no additional cost.'' There are many uses of streamflow 
information including:
  --water resource appraisal and allocations;
  --managing interstate agreements and court decrees;
  --engineering design of bridges, culverts, and treatment facilities;
  --the operation of reservoirs, powerplants, and locks and dams;
  --evaluating changes in streamflow due to climate and land-use 
        change;
  --flood forecasting (warning) and flood plain mapping (planning);
  --support of water quality evaluations; and
  --assessing in-stream conditions for habitat assessments and 
        recreational safety and enjoyment.
    For many of the uses of streamflow information, it is difficult or 
impossible to assign an economic benefit to the information, though in 
many cases the benefits are evident. The National Weather Service (NWS) 
is one agency that reports an economic benefit on the use of streamflow 
data. NWS reports that over the last 30 years, there has been, on 
average, 94 deaths and $7.8 billion in damages in personal and public 
property per year due to flooding on the Nation's rivers. Without 
streamflow information to calibrate and verify NWS forecast models, NWS 
would be ``flying blind'' in making flood forecasts, implying that the 
number of deaths and magnitude of loses to property would be much 
higher.
    Question. The National Streamflow Information Program (NSIP), as 
authorized in the SECURE Water Act of 2009, was designed to provide 
stability to the national streamgage network by providing a federally 
funded ``backbone'' network of streamgages to meet Federal needs for 
streamflow information. This backbone is supplemented with streamgages 
that are funded through partnerships to more fully meet State, tribal, 
and local needs for streamflow information. The enacted funding level 
for fiscal year 2012 for the NSIP is $29.4 million and the proposed 
funding level for fiscal year 2013 is $32.5 million. This increase 
during a time of fiscal constraints represents a commitment to 
increasing funding for the Nation's streamgages and greater 
implementation of the NSIP as described in the SECURE Water Act.
    Has the Department's Climate Change Response Council, which you 
chair, analyzed the impact of these gauge closures in the face of 
potential climate change impacts which are likely to bring about new 
and greater flood risks?
    Answer. Yes, the Department takes the issue of climate change very 
seriously with respect to water and other natural resources and 
hazards.
    The effects of climate change in any given area are often widely 
debated. It is likely that certain areas of our Nation will be at 
greater risk of floods, while other areas are at greater risk of 
droughts, and some may see no change at all. Some of the first 
scientific work demonstrating the occurrence and consequences of 
climate change was produced through analysis of long-term streamflow 
information. For example, it was demonstrated that in the Northeast, 
river flows were getting higher earlier in the year as a consequence of 
snow pack melting sooner, and late summer flows were getting lower, 
while there was no discernible change in the average or peak flows. In 
other areas, such as the Southwest, it appears that stream flows are 
decreasing. Without an adequate number of streamgages located in 
optimal locations and providing comparable high-quality data, it will 
be increasingly difficult to detect and predict the consequences of 
climate change on water supply and hydrologic extreme hazards.
    Question. With regard to white nose syndrome (WNS), which is still 
spreading across the country at a fast rate and has the potential to 
cost our Nation's farmers and consumers billions of dollars, can you 
tell me how the Department's request to reduce the Endangered Species 
Recovery account by more than $1 million will impact the work being 
done on white nose syndrome and other important endangered species 
recovery work?
    Answer. While our fiscal year 2013 budget request seeks a net 
overall reduction of $1.59 million, the decreases are specifically 
targeted at discontinuing the Wolf Livestock Loss Demonstration Program 
and reducing funding for the State of the Birds activities in fiscal 
year 2013 in order to fund higher-priority conservation activities 
elsewhere in the budget request, such as the Cooperative Recovery 
Initiative. Through the Cooperative Recovery Initiative, the Service is 
requesting $5.35 million to support a cross-programmatic partnership 
approach to complete planning, restoration, and management actions 
addressing current threats to endangered species on and around National 
Wildlife Refuges. In addition, the Service is continuing to place a 
high priority on addressing white nose syndrome (WNS) and bat 
conservation. In fiscal year 2012, the Service will allocate $995,000 
in State and Tribal Wildlife Grants for WNS research and monitoring by 
the States. In addition, $485,000 in Refuge Inventory and Monitoring is 
estimated to be spent on work related to WNS monitoring and control on 
Refuges. The total amount being spent by the Service in fiscal year 
2012 for WNS research and response activities will be at least 
$4,855,000. Additional funding may also come from Cooperative 
Endangered Species Section 6 Grants or Adaptive Science competitive 
grants, if projects addressing WNS are chosen to be funded.
    Question. In August, you announced that the U.S. Fish and Wildlife 
Service (FWS) would take full responsibility for sea lamprey control on 
Lake Champlain. In this context, can you explain when we will see the 
funding required to implement the program become a part of the 
President's budget request so that your Department's commitment can be 
entirely fulfilled?
    Answer. FWS funds a wide array of aquatic invasive species control, 
management, and prevention responsibilities across the country. 
Protecting the health and vitality of Lake Champlain and the 
significant fisheries resources, economic benefits, and jobs it 
provides is a high priority for FWS. The fiscal year 2013 President's 
budget includes $380,000 in base funding for Sea Lamprey in Region 5 
which supports 3.5 FWS base-funded full-time equivalents (FTEs) and 
four temporary/term FTEs based in the Lake Champlain Fish and Wildlife 
Resources Office in Essex Junction, Vermont. Through a reimbursable 
agreement, FWS currently works with the Great Lakes Fishery Commission, 
which receives funding from the State Department, to administer the Sea 
Lamprey control program.
    Question. The White River National Fish Hatchery remains the best 
cold water National Fish Hatchery in New England and the Northeast. 
White River is the lynch-pin to Federal fishery restoration work from 
Lake Ontario all the way to Maine, but it is currently out of 
commission and requires approximately $5 million in repairs as a result 
of damage caused by Hurricane Irene.
    Can you confirm that repairs to the White River Hatchery will be a 
priority? Are sufficient funds requested in your budget proposal, and 
programmed, as needed, for the repairs to this hatchery to proceed 
without delay?
    Answer. The White River National Fish Hatchery sustained 
approximately $5.2 million in damages resulting from Hurricane Irene. 
Repairing the White River National Fish Hatchery will be among the 
highest priorities for the Fisheries Program. Emergency clean-up 
operations have already been completed. Additionally, the Northeast 
Region immediately redirected approximately $620,000 in fiscal year 
2011 deferred maintenance funding to initiate emergency mission-
critical repairs. The President's fiscal year 2013 proposed budget 
includes $1.9 million to reconstruct the water infiltration gallery and 
to demolish and reconstruct the fish-tagging building. Upon completion 
of the aforementioned projects, 100 percent of fish-rearing capacity 
and operational capacity will be restored. An additional $2.6 million 
in damages to critical support infrastructure (e.g. roads, septic 
systems, etc.) will remain, which will need to be addressed through the 
application of annual deferred maintenance funds.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

    Question. As you know, both the EROS Data Center, located in my 
home State, and the Landsat series of satellites are very important 
resources, not only for South Dakota, but for our entire Nation and the 
international community. Lead time is required for developing these 
satellites, and it's important that we look now at how to proceed 
beyond Landsat 8, which is scheduled for launch next year. The budget 
request excludes funding for Landsat 9 mission development, which is 
very concerning to me. How does the United States Geographical Survey 
(USGS) envision the program to function beyond Landsat 8, and what 
coordination activities are currently underway with the National 
Aeronautics and Space Administration (NASA) and other agencies in 
examining how to continue the Landsat missions program and ensure 
mission continuity?
    Answer. USGS received $2 million in the 2012 omnibus appropriations 
bill to support program development activities for Landsat satellites 9 
and 10. In fiscal year 2012, these funds are being used to consider 
options to obtain, characterize, manage, maintain, and prioritize land 
remote sensing data and to support the evaluation of alternatives for a 
Landsat 9 mission and other means for acquiring data. The fiscal year 
2013 budget request includes $250,000 to continue these efforts.
    USGS is working closely with the Landsat user community, the 
Department of the Interior, the White House Office of Science and 
Technology Policy, and NASA to identify and consider all available 
options for maintaining the continuity of moderate-resolution land 
observation data for the Nation. USGS recently posted a Request for 
Information to solicit information and options for providing a 
dependable, long-term source for Landsat-like data to follow Landsat 8. 
Mission concepts may include revolutionary ``clean-slate'' technical 
approaches, as well as evolutionary upgrade approaches. Approaches may 
involve single- or multiple-satellite acquisitions, commercial data buy 
arrangements, public/private partnerships, hosted payloads, 
international collaboration, small satellites, or architectures 
utilizing combinations of space-based sensors. USGS is also supporting 
a National Research Council study on programmatic and operational 
alternatives for establishing a long-term source of Landsat-like data 
for the Nation. These efforts include a ``Meeting of Experts'' to 
examine the feasibility of new and emerging technology that might be 
applicable for sustaining global land observations.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

    Question. Secretary Salazar, could you provide an update on the 
Platte River Recovery Program?
    As you know, Platte River Recovery Implementation is a basin-wide 
effort undertaken by the Department of the Interior (DOI) in 
partnership with the States of Nebraska, Colorado, and Wyoming to 
provide benefits for endangered and threatened species.
    I know you've included $8 million for implementation in your 
request which I appreciate.
    I was serving as Governor in 1997 when Nebraska entered into the 
Cooperative Agreement for Platte River Recovery Implementation. A 
little more than a decade later we were able to successfully authorize 
implementation as part of the Consolidated Natural Resources Act signed 
into law in 2008.
    I believe the first increment of the program is to last a bit over 
a decade--wrapping up in 2019. What's the Department's assessment so 
far? What progress are we making and are we on the right track?
    Answer. The Platte River Recovery Implementation Program (Program) 
continues to be a highly successful collaborative process, and also 
continues to receive broad support from water users, environmental and 
conservation entities, the States of Nebraska, Colorado, and Wyoming, 
as well as the U.S. Fish and Wildlife Service and the Bureau of 
Reclamation (BOR).
    The Program has made significant and steady progress during the 
first 6 years of the 13-year First Increment. The most recent Program 
success has been the completion of the Pathfinder Modification Project, 
which was declared substantially complete on January 11, 2012. The 
Pathfinder Modification Project raised the spillway at Pathfinder Dam 
(a BOR facility) by approximately 2.4 feet in order to recover storage 
space in Pathfinder Reservoir which had been lost to sedimentation. The 
Pathfinder Modification Project is a contribution to the Program by the 
State of Wyoming, and no Federal appropriations were required to modify 
the spillway at Pathfinder Dam. The Pathfinder Modification Project's 
Environmental Account in Pathfinder Reservoir will provide up to 
approximately 34,000 acre-feet (AF) of water for the benefit of the 
Program's target species.
    The Program will implement the Land Plan in order to protect, and 
where appropriate, restore 10,000 acres of habitat by no later than the 
end of the First Increment. To date, the Program has acquired an 
interest in approximately 9,150 acres of land for habitat purposes, 
leaving approximately 850 acres left to acquire by the end of the First 
Increment.
    The Program will implement water projects under the Water Action 
Plan capable of providing at least an average of 50,000 AF per year of 
shortage reduction to target flows, or for other Program purposes, by 
no later than the end of the First Increment. The Program, through an 
agreement with the State of Wyoming, has acquired 4,800 AF of water per 
year from the Wyoming Account in Pathfinder Reservoir through the 
remainder of the First Increment; however, the Program and the State 
are still in the process of determining the final yield of the 4,800 AF 
for the benefit of the target species at the associated habitat. The 
Program is also currently negotiating a water service agreement with 
the State of Nebraska (Nebraska) and the Central Nebraska Public Power 
& Irrigation District (CNPPID) to acquire water from the proposed J-2 
Project. The J-2 Project, if constructed, could have the ability to 
retime approximately 40,000 AF of excess flows for the benefit of the 
target species. Under the proposed agreement, the 40,000 AF would be 
shared 25 percent (approximately 10,000 AF) for Nebraska and 75 percent 
(approximately 30,000 AF) for the Program. This agreement is a vital 
aspect of achieving the Program's Milestone of providing at least an 
average of 50,000 AF per year of shortage reduction to target flows.
    The Program continues to be successful, and many of the Program's 
Milestones have been achieved. The implementation of the Program and 
the achievement of the Milestones provides measures to help recover the 
four target species, which in turn provides critical Endangered Species 
Act (ESA) compliance for the continued operation of existing water 
projects in the Platte River Basin. The Program also provides ESA 
compliance for the development of certain new water projects within the 
Platte River Basin.
    Due to the amount of land that the Program has acquired an interest 
in, it is very likely that the Program will achieve the Land Milestone 
of 10,000 acres by the end of the First Increment. The one remaining 
major Program Milestone to be achieved by the end of the First 
Increment is developing water projects capable of providing at least an 
average of 50,000 AF per year of annual shortage reduction to target 
flows. Significant funding from DOI will need to be contributed to the 
Program over the remaining years of the First Increment for the 
development of these water projects, including the aforementioned water 
service agreement with Nebraska and CNPPID. Adequate funding in the 
future for this project and other water projects will be critical in 
order to achieve the Program's Water Milestone by the end of the First 
Increment.
    Question. I am regularly reminded by Nebraska constituents that 
additional wind power development will require new investments in the 
transmission system along with more efficient and flexible operation of 
the grid. I would appreciate your thoughts on ways the Federal 
Government may assist in expanding and improving the transmission 
system.
    Answer. Transmission remains one of the largest barriers to the 
development of renewable energy potential in this country. This 
administration is taking steps to improve coordination and streamline 
processing of Federal permits through interagency agreements to 
expedite and simplify permitting on Federal lands. In addition, in 
2009, the Bureau of Land Management (BLM), the United States Forest 
Service (USFS), the Department of Defense, and the Department of Energy 
issued a final Programmatic Environmental Impact Statement that 
evaluated issues associated with the designation of energy corridors on 
Federal lands in 11 Western States. Using this information, the BLM 
designated transmission corridors on BLM lands by amending 92 land-use 
plans in the Western States. Designation of corridors provides 
preferred locations for developers to site major linear facilities 
(such as transmission lines) and specifically identifies lands that are 
available for that purpose.
    BLM will continue to actively coordinate with the Western 
Electricity Coordinating Council to ensure their transmission planning 
and grid reliability initiatives are in harmony with BLM initiatives 
related to land-use planning, designation of utility corridors, policy 
development, and timely review and permitting of high-voltage 
transmission lines.
    BLM's 2009 transmission corridor designations were limited to BLM-
managed lands. BLM manages only 6,354 acres in Nebraska so it was not 
practical to designate any corridors in that State.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. I see that inspection fees for offshore oil and gas 
facilities are being increased from $62 to $65 million. Will this money 
be used to provide more personnel for inspections, in order to relieve 
delays? If it is not being used to alleviate delays, what will this 
increased fee be directed toward?
    Answer. The amount of individual inspection fees has not changed. 
The $3 million increase in inspection fee collections is the result of 
differences in assumptions about the timing of fee collections, not an 
increase in the fees themselves. In fiscal year 2012, inspection fees 
were assessed for the inspection of drilling rigs for the first time. 
The revenue from monthly drilling rig inspections that occur in the 
last quarter of the fiscal year may not be received until the following 
fiscal year. In fiscal year 2013, actual receipts will include fees 
from inspections in the final quarter of fiscal year 2012 and the 
Bureau will therefore receive a full year of inspection fee revenue. It 
is also important to remember that these are estimates and that actual 
fee collections will vary depending on changes in the number of 
applicable Outer Continental Shelf (OCS) operations in a given year. 
All fee revenue will be used to address important mission-related 
priorities. As required by the Consolidated Appropriations Act of 2012, 
not less than 50 percent of the inspection fees collected by the bureau 
will be used to fund personnel and mission-related costs to expand 
capacity and expedite the orderly development, subject to environmental 
safeguards, of the OCS pursuant to the Outer Continental Shelf Lands 
Act, including the review of applications for permits to drill.
    Question. With industry still struggling with slow permitting and 
delays in the permit submission process, and in light of the 
President's stated desire to increase domestic production, what efforts 
are you making to fix the problems with the permit process?
    Answer. Respectfully, the Department does not agree that the 
industry is struggling with slow permitting and delays in the permit 
submission process. As of May 4, 2012, the Bureau of Safety and 
Environmental Enforcement (BSEE) approved 128 new shallow water 
permits, 412 deepwater permits requiring subsea containment, and 66 
deepwater permits not requiring subsea containment.
    BSEE has worked very hard to help industry better understand the 
permitting requirements and improve the efficiency of the application 
process. Among the steps taken to improve the process, BSEE has:
  --Held permit processing workshops for industry, including one in 
        April 2012, which has improved the quality and thoroughness of 
        applications;
  --Published a permit application completeness checklist to make it 
        clear to industry what information is required, and to reduce 
        the frequency with which operators submit incomplete 
        applications;
  --Established priorities for reviewing permit applications--assigning 
        the highest priority to permits for ongoing operations or 
        emergency operations;
  --Begun to balance workloads for its engineers by taking some permit 
        applications and reassigning them to different districts;
  --Allowed authorized users of BSEE's online permit application system 
        to track the status of their applications, which provides 
        operators with greater transparency in the permitting process.
    As a result of these steps and the industry's increasing 
familiarity with the process, permit review times have decreased 
significantly in the past year.
    Question. In light of the fact that production on public lands and 
waters have decreased and with Federal OCS production dropping 441 
million barrels in 2011, down from 588 million in 2010. What is being 
done to increase the speed at which permits are reviewed and approved? 
Would it be wiser to direct more of the money allocated to Bureau of 
Energy Management (BOEM) and BSEE to hire more staff to review permit 
applications?
    Answer. With respect to production from the Federal OCS, the data 
you reference is incomplete. Production data is not required to be 
submitted by operators until 45 days after the end of the month of 
production, so the spreadsheet on BSEE's Web site presenting production 
figures as of January 25, 2012, is missing nearly all the production 
from December 2011. Furthermore, production is not included in that 
spreadsheet until after the reported production volumes are verified, 
which can take several months. The final production numbers for 2011 
will be substantially higher than the values you reference.
    BSEE intends to hire significantly more personnel with the funding 
provided by the Congress in fiscal year 2012, including a significant 
number dedicated to reviewing permits. The hiring and training process 
takes time, and it will be several years before engineers hired this 
year are fully trained to evaluate the breadth of issues required as 
part of the full permitting process. However, BSEE is committed to 
continuously monitoring and improving its permitting process, while 
conducting thorough reviews to ensure that all safety requirements are 
met. In the meantime, as indicated by the permit information available 
on BSEE's Web site, the Bureau is successfully reviewing permit 
applications and doing so in a timely fashion.
    Question. I see that a fee of $4 per acre is being proposed on 
nonproducing, but leased, Federal lands. I am curious why this fee is 
being proposed, when it would appear that the greatest impediment to 
production on these lands is the slow pace of permitting. What was the 
rationale behind this fee?
    Answer. The administration believes this legislative proposal will 
encourage energy production on lands and waters leased for development. 
A $4 per-acre fee on nonproducing Federal leases would provide a 
financial incentive for oil and gas companies to either get their 
leases into production or relinquish them so that the tracts can be 
leased to and developed by new parties. The proposed $4 per-acre fee 
would apply to all new leases and would be adjusted for inflation 
annually. In October 2008, the Government Accountability Office (GAO) 
issued a report critical of past efforts by the Department of the 
Interior to ensure that companies diligently develop their Federal 
leases. This proposal is similar to other nonproducing fee proposals 
considered by the Congress in the last several years and this fee is 
projected to generate revenues to the U.S. Treasury of $13 million in 
2013 and $783 million over 10 years.

                              WILD HORSES

    Question. Mr. Secretary, since passage of the Wild Free- Roaming 
Horse and Burro Act of 1971, more than 20 million acres of wild horse 
habitat has been removed from Herd Management Areas. At least 5 million 
of those acres could be suitable for reintroduction of wild horses. 
When the Bureau of Land Management (BLM) is spending more than $40 
million per year on wild horse and burro holding costs and continues to 
remove almost twice as many animals as it can reasonably adopt each 
year, why hasn't the BLM re-evaluated those 20 million acres and 
seriously considered reintroducing horses and burros to those areas?
    Answer. No specific amount of acreage was set aside for the 
exclusive use of wild horses and burros under the 1971 Wild Free-
Roaming Horses and Burros Act. The Act directed the BLM to determine 
the areas where horses and burros were found roaming, and then to 
consider managing the animals within the boundaries of those areas. Of 
the 22.2 million acres no longer managed for wild horse and burro use, 
6.7 million acres were never under BLM management. There are a number 
of reasons why the BLM has not considered reintroducing wild horses and 
burros to the remaining acres. These reasons include:
  --48.6 percent (7,522,100 acres) are intermingled (``checkerboard'') 
        land ownerships or areas where water was not owned or 
        controlled by the BLM, which made management of wild horses 
        infeasible;
  --13.5 percent (2,091,709 acres) are lands transferred out of the 
        BLM's ownership to other agencies, both Federal and State, 
        through legislation or exchange;
  --10.6 percent (1,645,758 acres) are lands where there were 
        substantial conflicts with other resource values;
  --9.7 percent (1,512,179 acres) are lands removed from wild horse and 
        burro use through court decisions, urban expansion, highway 
        fencing (causing habitat fragmentation), and land withdrawals;
  --9.6 percent (1,485,068 acres) are lands where no BLM animals were 
        present at the time of the passage of the 1971 Act or places 
        where all animals were claimed as private property. (These 
        lands should not have been designated as lands where herds were 
        found roaming and will be removed from the totals in future 
        land use plans.); and
  --8 percent (1,240,894 acres) are lands where a critical habitat 
        component (such as winter range) was missing, making the land 
        unsuitable for wild horse and burro use, or areas that had too 
        few animals to allow for effective management.
    Question. Equine geneticists have concluded that a minimum wild 
horse herd size to sustain genetic viability is 150-200 adult animals. 
Most wild horse herds are less than this minimum level. The BLM budget 
request includes an additional $2 million with your stated goal of 
maintaining herd health. Can you provide more information about how BLM 
intends to address herd health and viability considering herd 
populations are lower than recommended by experts?
    Answer. The proposed number of animals (150-200) in a genetically 
viable wild horse herd is a size that is estimated by some to minimize 
genetic loss. Genetic diversity is lost through time in any isolated 
population of animals, but is slower in larger populations.
    Although some of the herds on BLM lands are smaller than this 
recommended size, there are other factors that make these herds 
genetically viable. Herds that are associated with or border other 
herds experience the exchange of genetic material. Many BLM herds fall 
into this category. A small amount of exchange (through a few 
individuals) can have a large impact on overall genetic diversity. The 
exchange of individuals through management intervention is also 
possible should the need arise.
    During gather operations, the BLM frequently collects hair samples 
from individuals in a herd for genetic testing. The geneticist who does 
the testing provides BLM with a report evaluating the level of genetic 
diversity and recommending actions that BLM should take, if any, 
including when additional genetic monitoring should be conducted. For 
instance, should a herd genetics report indicate low genetic diversity, 
the BLM can adjust the herd composition by removing and relocating some 
of the brothers and/or sisters (genetic redundancy likely to cause 
genetic malformities) to keep them from breeding. Depending on herd 
population size relevant to appropriate management level within the 
herd management area, the BLM may also bring in horses with other 
genetics from similar herds.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

               U.S. FISH AND WILDLIFE SERVICE--BACKGROUND

    Question. The Minnesota Public Utilities Commission recently denied 
plans for a 48 turbine wind farm because of concerns about the impact 
on birds, bats, and bald eagles. According to the American Bird 
Conservancy, this project was the first ever wind farm project to apply 
to the U.S. Fish and Wildlife Service (FWS) for a ``taking'' permit for 
bald eagles. Thankfully, there is growing awareness that wind turbines 
kill not just migratory birds and bats, but also bald eagles.
    If the Department moves forward with plans to allow construction of 
wind farms on public land, how do you plan to address this problem?
    Answer. FWS has promulgated a regulation at 50 CFR 22.26 (the Eagle 
Take Regulation) under the Bald and Golden Eagle Protection Act that 
authorizes issuance of programmatic eagle take permits to 
unintentionally take golden eagles, bald eagles, or both, at sites such 
as wind facilities. However, the permits will be issued only if FWS 
determines that any take is compatible with the preservation standard 
for eagles set in the Act by Congress.
    FWS established an approach to ensure that permitted take meets the 
preservation standard in our National Environmental Policy Act (NEPA) 
analysis for the Eagle Take Rule. Further, FWS has developed Eagle 
Conservation Plan Guidance that provides recommendations for wind 
developers on how to reduce impacts to eagles by using robust survey 
techniques to select project sites, establishing appropriate monitoring 
of eagle use areas, employing adaptive management measures, and if 
necessary, offsetting impacts to eagles through compensatory 
mitigation. FWS believes that using the Guidance and working with the 
Service will reduce likely eagle take by wind energy projects to levels 
compatible with the preservation standard for eagles set in the Act by 
Congress.
    Additionally, FWS is developing training on how to evaluate wind 
projects in light of FWS guidance and regulations. The training will 
initially be targeted at Service staff, but the FWS plans to expand the 
training and make it available to industry in the near future. The 
draft training outline was provided to private stakeholders for comment 
in an effort to ensure it will meet industry's needs.
    Question. Will wind farm projects be expected to apply for a permit 
to kill bald eagles?
    Answer. Take of a bald eagle or a golden eagle without a permit is 
a violation of the Act. FWS's Guidance relative to Eagle Take Permits 
applies to both species. The Guidance encourages a wind project 
developer at a site at which take of bald eagles is predicted to seek 
an Eagle Take Permit.
    Question. Will wind farm projects be required to submit mitigation 
plans to make up for the killing of bald eagles?
    Answer. Any wind energy facility that receives a permit from FWS 
will be required to work through the mitigation hierarchy as defined 
under the FWS's Mitigation Policy. Avoidance and minimization are the 
essential components of the Mitigation Policy, while compensatory 
mitigation may be appropriate if avoidance and minimization cannot 
reduce take to acceptable levels. In order to qualify for a permit, the 
new regulations require applicants to demonstrate that they have 
avoided and minimized take of eagles to the maximum degree achievable. 
In many areas of the country, FWS has determined that some take of bald 
eagles can be authorized without risk of violating the preservation 
standard set by the Congress. In these locations, additional 
compensatory mitigation for take is not mandatory, but in other 
locations compensatory mitigation may be required to qualify for an 
eagle take permit.
    Question. What about other species that might be endangered or 
threatened?
    Answer. Section 9 of the Endangered Species Act prohibits the take 
(which includes killing) of endangered wildlife and that prohibition is 
generally extended by regulation to threatened wildlife. Wind farm 
projects that are expected to take listed wildlife species would 
therefore need to receive an authorization to take listed species. 
Information regarding these procedures may be found in Appendix 5 
``Procedures for Endangered Species Evaluations and Consultations'' in 
the 2003 ``Service Interim Guidance on Avoiding and Minimizing Wildlife 
Impacts from Wind Turbines.''
    Additional information regarding Consultations and Habitat 
Conservation Plans may be accessed at http://www.fws.gov/endangered/
what-we-do/consultations-overview.html and http://www.fws.gov/
endangered/what-we-do/hcp-overview.html respectively.

               U.S. FISH AND WILDLIFE SERVICE--BACKGROUND

    Question. Tennessee is home to two very important mitigation fish 
hatcheries, the Erwin National Fish Hatchery in Erwin, Tennessee and 
the Dale Hollow National Fish Hatchery in Celina, Tennessee. The Erwin 
hatchery provides eggs for hatcheries all across the country, and the 
Dale Hollow hatchery produces 60 percent of all the trout stocked in 
Tennessee.
    The Department's fiscal year 2013 budget request proposes to cut 
$3.2 million from the mitigation hatcheries, and Ed Carter, director of 
the Tennessee Wildlife Resources Agency, has said that if these 
hatcheries close the impact on Tennessee will be devastating.
    Will the Department work with the Corps of Engineers (COE) and 
other Federal agencies to continue to fund mitigation hatcheries and 
ensure that these critical hatcheries will not be closed until a 
funding solution is in place?
    Has the Department considered the economic benefits of maintaining 
the fish hatcheries?
    Answer. FWS's mission-driven priority is to protect and restore 
native fish species and habitat. At a time when budgets are tight and 
available resources limited, we need to focus our resources on these 
high-priority outcomes. The President's fiscal year 2013 budget 
proposal would move nonreimbursed mitigation activities toward a user-
pay system, similar to the President's fiscal year 2012 budget 
proposal. This approach puts all of the mitigation hatcheries on the 
same footing, and represents a more efficient use of Federal funds. 
Federal water development agencies are the appropriate entities for 
mitigating the adverse effects of the projects they operate and the 
impact of those projects on recreational fisheries. The Department is 
aware of the significant economic benefits of fish hatcheries and will 
continue to work with COE, the Tennessee Valley Authority and other 
Federal agencies to receive full reimbursement for mitigation 
activities. We understand that the fish supplied by these hatcheries 
provide important economic opportunities to States and recreational 
community, and we support the continuation of mitigation work. Our goal 
is to keep our mitigation fish hatcheries open, and to continue to 
provide fish as we have in the past in the most efficient and effective 
way possible. However, the Service's policy is to move toward a user-
pay system.

       U.S. GEOLOGICAL SURVEY--DISASTER PREPAREDNESS--BACKGROUND

    Question. Tennessee experienced record flooding in Nashville and 
middle Tennessee in May 2010 and in Memphis and west Tennessee in 2011. 
The U.S. Geological Survey (USGS) played a critical role in these 
flooding events, and it is welcome news that the Department is 
requesting increased funding for USGS to prepare for future disasters.
    USGS has doubled the number of monitoring stations in the Nashville 
area, and is working closely with local government and other Federal 
agencies to ensure the right information gets to emergency managers as 
quickly as possible. Other communities in Tennessee, including 
Chattanooga and Memphis, hope to work with USGS to improve their flood 
management as well.
    Question. Could you tell us how the Department plans to use the 
additional funds?
    Answer. The fiscal year 2013 proposed budget for the National 
Streamflow Information Program (NSIP) provides funds to be invested in 
activities that will help protect life and property from hydrologic 
hazards, including flooding. These activities include developing and 
producing streamgages that can be rapidly, but temporarily, deployed to 
locations that are currently or forecast to be in flood or drought 
conditions to provide streamflow information over a broader area. This 
information would be used by forecasters, flood-management agencies, 
and first responders, who must make decisions regarding flood-fighting 
and evacuation, and would provide a better understanding of hydrologic 
extremes. The fiscal year 2013 proposed budget also provides for 
activities related to producing flood inundation maps. These maps show 
the extent and depth of flood waters for streams at USGS streamgages 
that serve as National Weather Service flood-forecast locations. The 
maps will assist home owners, business owners, and first responders to 
anticipate and respond to flooding. Since the recent flooding in the 
Nashville area, the USGS has been involved in a cooperatively funded 
pilot project that developed more than 1,000 flood inundation maps for 
that community.
    Question. Will funds be available for additional monitoring 
stations?
    Answer. The proposed NSIP budget for 2013 provides funds for 
ecosystem restoration activities in the upper Mississippi and Columbia 
River basins that likely will include providing streamflow information 
for use in the design and implementation of techniques and processes to 
restore ecosystems to more natural conditions.
    In addition to these activities the 2013 request includes funding 
for the operation and maintenance of about 100 streamgages, which are 
part of the Federal backbone needed for flood forecasting. Many 
streamgages are currently funded through the Cooperative Water Program 
(CWP). Reductions in the budget of the CWP could lead to a net loss of 
270 to 300 streamgages nationwide. Proposed funding increases in the 
budget for NSIP will help to bring more stable funding to those 100 
streamgages.
    Question. What steps will the Department be taking to address 
earthquake hazards along the New Madrid fault, which impacts Memphis 
and west Tennessee?
    Answer. USGS supports a seismographic network in the New Madrid 
seismic zone in cooperation with the University of Memphis and Saint 
Louis University. The location, depth, time, and felt area of all 
earthquakes in the region above approximately magnitude 1.7 are 
automatically posted to a public USGS Web site in near real time. The 
USGS National Seismic Hazard Maps depict the regional elevated hazard 
in the region. More detailed earthquake hazard maps are currently 
available for the urban areas of Memphis, Tennessee, and Evansville, 
Indiana and a map of the St. Louis metropolitan area is nearing 
completion. These maps show the amplification of seismic shaking caused 
by local geologic deposits. Data from a network of geodetic stations 
supported by the USGS shows that there is small but significant slow 
ground deformation in the region capable of producing damaging 
earthquakes.

                 OIL AND GAS LEASE REVENUES--BACKGROUND

    Question. In 2011, the Department generated $11.3 billion from 
energy production on Federal lands--a $2 billion increase more than 
2010. Since 2008 oil production from the Outer Continental Shelf has 
increased by 30 percent. Despite this progress, gas prices are on the 
rise and domestic production is not keeping up.
    What steps are being taken to expand oil and gas leases on public 
land?
    What impact will the Department's proposal to impose new inspection 
fees and raise other collection fees have on oil and gas production?
    Answer. Facilitating the efficient, responsible development of 
domestic oil and gas resources is part of the administration's broad 
energy strategy that will protect consumers and help reduce our 
dependence on foreign oil. The Bureau of Land Management (BLM) is 
working on a variety of fronts to ensure that development is done 
efficiently and responsibly including implementing leasing reforms; 
increasing leasing opportunities in the National Petroleum Reserve in 
Alaska (NPR-A); adopting new processes to process drilling permits more 
quickly; and improving inspection, enforcement, and production 
accountability. BLM can only speculate as to why the operators have not 
produced more on Federal Lands. Oil and gas drilling and development 
are market-driven activities, and the demand for leases is a function 
of market conditions. Market drivers include prevailing and anticipated 
oil and gas prices, bidder assessments of the quality of the resource 
base in a given area, the availability/proximity of necessary 
infrastructure, and the proximity of the lease to local, regional, and 
national markets and export hubs. The shale formations that currently 
have high industry interest for development, such as North Dakota's 
Bakken shale, Texas's Eagle Ford shale, and the Marcellus and Utica 
shales of the Eastern United States, are primarily in areas with a high 
proportion of non-Federal land. These areas have seen increased 
development recently due to a favorable mix of the factors noted above. 
As drilling priorities shift due to changes in technology or markets, 
an operator may choose different areas for development. Further, BLM 
lands are primarily gas-prone. Recent national rig counts (by Baker 
Hughes) indicate that rigs drilling for gas are at an ``all-time low'' 
(by percentage) and the gas is selling at ``a record discount to 
crude.'' (Wall Street Journal, May 4, 2012).
    Approximately 38 million acres of Federal land are leased for oil 
and gas development. Not all leases have equal production potential, 
and not all leases have optimal transmission capacity where the oil or 
gas is being extracted. Approximately 12 million acres are producing 
oil and gas, and active exploration is occurring on an additional 4 
million acres. We are encouraged by increasing production on Federal 
leases. BLM, specifically, has approved approximately 7,000 
applications for permit to drill that are not being used by industry.
    The proposed new inspection and enforcement fee is consistent with 
the principle that users of the public lands should pay for the cost of 
both authorizing and oversight activities. These fees are similar to 
fees now charged for offshore inspections, and to numerous cost-
recovery fees charged for other uses of Federal lands and resources.

                    WHITE NOSE SYNDROME--BACKGROUND

    Question. In May 2011, FWS unveiled a national plan to address the 
growing threat posed by white-nose syndrome (WNS), which has killed 
more than 5 million bats since it was discovered in 2006. Since then, 
the fungus has spread throughout the bat population and is now reported 
in 18 States and Canada, including Tennessee. In 2010, Austin Peay 
State University's Center of Excellence for Field Biology was tasked by 
the U.S. Forest Service (USFS) to monitor WNS at Land Between the 
Lakes, and the Center is currently engaged in a number of research 
efforts to combat this disease.
    The Department has invested millions to support monitoring, 
research, and the development of protocols to reduce transmission. 
However, most of this funding has been targeted for northeastern States 
where the WNS was first discovered, but funding is not making it to the 
States and universities in the South, where WNS is rapidly expanding.
    Question. What is the Department doing to help wildlife researchers 
in States like Tennessee to reduce the spread of WNS?
    Answer. WNS is a disease associated with massive bat mortality in 
the Northeastern and Mid-Atlantic United States. Affected hibernating 
bats often have white fungal growth on their muzzles, ears, and/or wing 
membranes as the result of infection by a newly described species of 
fungus (Geomyces destructans), which causes skin erosions and ulcers 
and can invade underlying connective tissue. There is no clear 
indication of any natural resistance to WNS in the affected bat 
populations.
    Since first observed at four bat hibernacula (hibernation areas) in 
New York in winter 2006-2007, WNS has been detected in 16 States and 
four Canadian Provinces. The most recent surveys of hibernacula near 
the epicenter of the outbreak show that since 2007, mortality is 
approaching 100 percent at some sites. Six cave-hibernating bat 
species, including four federally listed species, are directly affected 
or at risk from WNS. The fungus causing WNS is responsible for the 
death of more than 6 million bats.
    During the winter of 2011-2012, USGS conducted video-monitoring of 
bats in caves and mines in New York and Tennessee to test whether 
fungal skin infection triggers unsustainable energy-consuming behaviors 
during hibernation. USGS is working with USFS to conduct detailed 
characterizations of fungi associated with bat hibernation sites to 
better understand the microbial ecology of WNS.
    For fiscal year 2012, USGS has allocated $692,882 for WNS research 
studies. Modeling software is being developed by USGS that will help 
forecast the consequences of alternative actions for the persistence 
and recovery of bats. The USGS fiscal year 2013 budget includes a $1 
million increase that would be used to enhance surveillance and 
diagnostic capability to detect the continued spread of WNS; bolster 
research on environmental factors controlling persistence of the fungus 
in the environment; develop management tools, particularly the 
development of a vaccine; and conduct research on mechanisms by which 
WNS causes mortality in bats, focused on immunology and pathogenesis.
    In fiscal year 2012, the Congress directed FWS to spend $4 million 
from endangered species recovery funding to combat WNS. FWS has 
proposed to reprogram $625,000 of this funding to other critical 
endangered species recovery actions, and to utilize funding from the 
State and Tribal Wildlife grant program and from the National Wildlife 
Refuge program for WNS. Under this proposal FWS will dedicate a minimum 
of $4,855,000 for WNS efforts in 2012. The fiscal year 2013 FWS budget 
includes $1.9 million (not including any competitive grants that may be 
awarded) for work on WNS, including $995,470 to continue funding WNS 
coordinator positions, and $901,530 to fund critical WNS research.
    WNS continues to spread and is projected to appear in the highly 
dense and diverse bat populations in additional Southern and Midwestern 
States in the very near future. Predictions for spread to western 
States and the affect of WNS on bats there is less certain.

         NATIONAL PARK SERVICE--MAINTENANCE BACKLOG--BACKGROUND

    Question. The National Park Service (NPS) budget request for fiscal 
year 2013 is $2.6 billion, $1 million less than the fiscal year 2012 
enacted level. Within this amount, the Department seeks to increase 
park operations funding by $13.5 million, but proposes to reduce line 
item construction funding by $25.3 million and funding for National 
Heritage Areas program by $7.8 million.
    Question. National parks are already underfunded by $600 million 
each year. What progress is being made to address this issue?
    Answer. NPS does not quantify shortfalls in park operations. 
Funding for the main operating account of the NPS has stayed fairly 
level in nominal dollars since 2010, but there have been unavoidable 
cost increases in recent years due to inflation, rise in nonpersonnel 
fixed costs, and the added responsibility for five new parks. NPS is 
focusing funding on programs that are most central to the NPS mission, 
implementing management efficiencies, and undertaking administrative 
cost savings to optimize the use of appropriated dollars.
    Question. What is being done to address the deferred maintenance 
backlog and how long can we continue to ignore the problems facing our 
national parks?
    Answer. The current backlog of deferred maintenance (DM) associated 
with NPS constructed asset components considered critical to their 
function, such as roofs, foundations, road surfaces, etc., is 
approximately $4.1 billion. The fiscal year 2013 budget request 
maintains funding for operational DM at fiscal year 2012 levels. The 
request includes $71 million for the highest-priority DM repair and 
rehabilitation projects and $96.4 million to prevent additions to the 
DM backlog through cyclic maintenance projects. The line-item 
construction proposal funds the highest-priority construction projects 
to address critical life safety, resource protection, and emergency 
needs and does not add any new assets to the NPS asset portfolio. These 
projects address long-standing DM needs.

     FEDERAL INTERAGENCY COUNCIL ON OUTDOOR RECREATION--BACKGROUND

    Question. According to Tennessee's Commissioner of Tourism, Susan 
Whitaker, tourism has a $13 billion impact on Tennessee. Tourism 
supports a lot of jobs in Tennessee, and since the Great Smoky 
Mountains National Park is our Nation's most visited national park, the 
new Federal Interagency Council on Outdoor Recreation is welcome news.
    It is very encouraging to see the Department of the Interior 
working with the Departments of Commerce and Agriculture to boost 
tourism and outdoor recreation, but one of the biggest challenges our 
international visitors face is getting a visa. If it takes months to 
get a visa to come to the United States and only 1 week to get a visa 
to go somewhere else, people will go somewhere else.
    Is the Department working with the State Department to decrease the 
amount of time international visitors have to wait before they can come 
visit our national parks?
    Answer. In the same Executive order that established the Task Force 
on Travel and Competitiveness (which is co-chaired by the Secretary of 
the Interior and the Secretary of Commerce), the President directed the 
Department of State in conjunction with other agencies and White House 
offices to take actions to enhance and expedite travel to and arrival 
in the United States by foreign nationals, consistent with national 
security requirements.
    The Visa Waiver Program (VWP) is the flagship of our national 
tourism strategy. More than 60 percent of all travelers to the United 
States come under the VWP, generating more than $60 billion in annual 
tourism revenue and representing about 60 percent of all tourism-
related expenditures in the United States from overseas travelers. 
While VWP remains the largest travel facilitation program, the Obama 
administration is also committed to easing travel for the approximately 
35 percent of international travelers who currently require visas and 
border crossing cards to enter the United States. Building on the 
progress made over the past several years and in response to the 
President's Executive order, the Obama administration is facilitating 
legitimate travel to America while maintaining security by:
      Tracking the Increasing Arrivals.--The Department of Homeland 
        Security continues to monitor the number of arriving travelers. 
        Comparing the first 6 months of fiscal year 2012 to fiscal year 
        2011, arrivals of travelers using VWP have increased by 8 
        percent and arrivals of travelers from China and Brazil have 
        increased by 33 percent and 18 percent, respectively. Total 
        nonimmigrant admissions, travelers not including U.S. citizens 
        and returning residents, have increased by 4.5 percent.
      Shortening Visa Interview Wait Times.--Around the world, wait 
        times for visa interviews are generally short, and have dropped 
        dramatically in some of the busiest travel markets where demand 
        for visas has increased. Now, travelers wait just 2 days for an 
        appointment at United States consulates in China, 2 weeks or 
        less in Brasilia, Recife, and Rio de Janeiro, and 35 days or 
        less in Sao Paulo. In anticipation of the summer travel season, 
        the Department of State is adding staff and streamlining its 
        operations to continue to reduce wait times.
      Streamlining the Visa Process.--Tens of thousands of travelers 
        want to visit the United States, and a new pilot program is now 
        underway to streamline processing will help facilitate the 
        demand by freeing up more interview slots for first-time 
        applicants. Consular officers may waive in-person interviews 
        for certain low-risk, qualified individuals, such as those 
        renewing their visas within 48 months of the expiration of 
        their previous visas. Consular officers may also waive 
        interviews for Brazilian applicants younger than the age of 16 
        and age 66 and older, but retain the authority to interview any 
        applicant in any category if security or other concerns are 
        present.
      Building Capacity in China and Brazil To Meet Demand.--The 
        Department of State is doubling the number of diplomats 
        performing consular work in China and Brazil over the next year 
        and is investing approximately $40 million in 2012 on existing 
        facilities in Brazil and $18 million in China--adding interview 
        windows, expanding consular office space, and improving waiting 
        areas. On April 9, President Obama announced that the United 
        States will establish consulates in Belo Horizonte and Porto 
        Alegre, Brazil, while major expansion projects are underway in 
        China.
      Increasing Consular Staffing and Implementing Innovative Hiring 
        Programs.--To address immediate growth in demand, the 
        Department of State is sending consular officers from all over 
        the world to Brazil and China to adjudicate visa applications. 
        The Department of State is doubling the number of diplomats 
        performing consular work in China and Brazil over the next 
        year, to ensure that the United States can continue to offer 
        timely visa services to qualified applicants. Similarly, the 
        first group of newly hired consular adjudicators recently 
        arrived at United States consulates in Brazil and China. These 
        adjudicators were hired under a landmark program targeting 
        recruits who already speak Portuguese or Mandarin.
    Additionally, Interior agencies have made it easier for more 
partners to become third-party vendors of the ``America the Beautiful'' 
$80 pass which provides visitor access, including international 
visitors, to hundreds of public lands destinations nationwide. They are 
actively reaching out and encouraging partners to both sell the pass 
online, at trade shows, and in other tourism venues as well as to 
develop promotions for buying and using the pass. The goal is to 
increase sales to both Americans and international visitors, who will 
then have an incentive to visit more destinations and lesser known 
locations, and to extend their stays.
    Question. How has COE worked with the Department to support the 
outdoor recreation initiatives promoted by the interagency council?
    Answer. Through the America's Great Outdoors Initiative, seven 
agencies were identified for inclusion in the Federal Interagency 
Council on Outdoor Recreation including:
  --COE;
  --National Oceanic and Atmospheric Administration (Commerce);
  --USFS (Agriculture);
  --NPS;
  --FWS;
  --Bureau of Reclamation; and
  --BLM (Interior) to coordinate Federal land and water recreation 
        management efforts.
    The Federal Interagency Council on Outdoor Recreation (FICOR) has 
worked closely with existing Federal Advisory Committee Act bodies that 
support recreational activities, including the Wildlife and Hunting 
Heritage Conservation Council, the 21st Century Conservation Service 
Corps Committee, the Sport Fishing and Boating Partnership Council, the 
First Lady's Let's Move! Initiative, and the President's Council on 
Fitness, Sports, and Nutrition to promote better integration and 
coordination among the Federal agencies in support of providing outdoor 
recreation opportunities for Americans. FICOR has identified two high-
priority actions, including support for the National Travel and Tourism 
Strategy to promote domestic and international tourism on Federal lands 
and waters, and enhancements to the Federal Interagency Recreation Web 
site--recreation.gov.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. States have complained that the length of the Coastal 
Impact Assistance Program (CIAP) grant approval process is too long and 
cumbersome. For years I have relayed the frustration Mississippi 
coastal communities have experienced with this program. Last year, the 
administration transferred management to the Fish and Wildlife Service 
(FWS) stating that this would lead to a more efficient process and 
expeditious delivery of funds. Can you please provide details on the 
progress being made in addressing these concerns?
    Answer. To address these concerns, FWS began meeting with all of 
the affected States starting in May 2011, to discuss the issues and 
develop a transition plan to minimize the impact on States and Coastal 
Political Subdivision (CPS) operations. As a result of these 
discussions, on October 1, 2011, FWS began to encourage submission of 
CIAP applications and the obligation of funds. We centralized the grant 
administration into the Washington office and hired and trained a 
professional grants management team to review and award grants. 
Additionally, we have added a technical guidance function in each of 
the States to provide a State liaison to work closely with the 
recipients of CIAP funds. Five of the six States presently have a State 
liaison, with the sixth in the process of being hired. The State 
liaisons in the four gulf States are co-located with State staffs. In 
California and Alaska, the liaisons are located in local FWS offices in 
Sacramento and Anchorage, respectively, to encourage communication and 
expeditious handling of technical questions on planning and proposed 
project issues. The Washington office staff is responsible for the 
technical review, including programmatic and financial aspects that are 
integral to the grant award process. The State liaisons are working 
with the recipients in the pre-award phase to guide the planning 
process, develop project proposals and to help improve the quality of 
initial grant application submissions to alleviate the time consuming 
process of supplemental information requests during review.
    In addition, we have held a national webinar and two national 
teleconferences with CIAP applicants. We have completed a CIAP training 
session in Alaska and are in the process of scheduling training 
workshops for States and CPSs for better CIAP grants management. We 
expect to hold these workshops April through August 2012 in the 
eligible States.
     Question. It is my understanding that the Department of the 
Interior has changed the definition of ``obligated funds'' under CIAP. 
Why?
    Answer. The Department has not changed the definition of obligated 
funds.
    Question. The administration has been quick to highlight increased 
levels of domestic oil and gas production. How much of this is 
attributed to production increases on State and private lands as 
opposed to Federal lands?
    Answer. The Department of the Interior does not administer oil and 
gas from State and private lands. However, as reported by the U.S. 
Energy Information Administration in its March 2012 report ``Sales of 
Fossil Fuels Produced from Federal and Indian Lands, Fiscal Year 2003 
Through Fiscal Year 2011'',production of oil from onshore Federal lands 
in fiscal year 2011 was 112 million barrels, an increase more than the 
108 million barrels produced in fiscal year 2010. Natural gas 
production from Federal lands in fiscal year 2011 was 2,955 billion 
cubic feet, nearly level with the 3,068 billion cubic feet produced in 
fiscal year 2010. Average oil production from Federal lands from fiscal 
year 2005 through fiscal year 2008 was 103 million barrels. Average oil 
production increased from fiscal year 2009 through fiscal year 2011 to 
108 million barrels. Average gas production from Federal lands from 
fiscal year 2005 through fiscal year 2008 was 2,892 billion cubic feet. 
Average gas production, too, increased from fiscal year 2009 through 
fiscal year 2011 to 3,064 billion cubic feet.
    Question. The President has called for an ``all-of-the-above'' 
approach to addressing our Nation's energy challenges, and while I have 
always supported energy diversification, it seems to me that this 
budget and the proposed offshore oil and gas leasing plan for 2012 to 
2017 does not reflect that. Can you speak to what the Department is 
doing to explore and develop new energy resources, in the Gulf of 
Mexico specifically, that could lower gas prices and strengthen our 
energy security?
    Answer. When President Obama took office, the United States 
imported 11 million barrels of oil a day. The President has put forward 
a plan to cut that by one-third by 2025. The administration is taking a 
series of steps to execute the Blueprint for a Secure Energy Future, a 
broad effort to protect consumers by producing more oil and gas at home 
and reducing our dependence on conventional energy resources by using 
cleaner, alternative fuels and improving our energy efficiency. The 
Blueprint is a plan that calls for an ``all-of-the-above'' approach. 
The administration is moving ahead with a comprehensive energy plan for 
the country that is enhancing our energy security, creating jobs, and 
improving protections for the environment. In 2011, American oil 
production reached its highest level since 2003, and total U.S. natural 
gas production reached an all-time high.
    The Department of the Interior plays an important role in advancing 
domestic production. Last November, I announced a proposed Outer 
Continental Shelf (OCS) Oil and Gas Leasing Program for 2012-2017 that 
would make areas containing more than 75 percent of undiscovered 
technically recoverable oil and gas resources estimated in Federal 
offshore areas available for exploration and development. The proposed 
program focuses on six offshore areas where there are currently active 
leases and/or exploration, and where there is known or anticipated 
hydrocarbon potential. Three of the six areas are in the Gulf of 
Mexico, which is and will remain one of the cornerstones of America's 
energy portfolio and is central to our country's energy security. The 
gulf, in particular the deepwater areas, already has several world 
class producing basins and there have been a number of significant new 
discoveries in the last year. We estimate that the Central Gulf of 
Mexico holds more than 30 billion barrels of oil and 133.9 trillion 
cubic feet of natural gas yet to be discovered. This is nearly double 
the estimated technically recoverable resource potential of the Chukchi 
Sea. The Western Gulf of Mexico is just behind the Chukchi with more 
than 12 billion barrels of technically recoverable oil and nearly 70 
trillion cubic feet of technically recoverable natural gas.
    We have been providing incentives to spur efficient oil and gas 
development where possible using administrative action. Offshore, 
existing authorities make it possible to shorten the base term of 
leases, where appropriate, and reward diligent development efforts with 
lease extensions, providing industry with an incentive to develop its 
existing leases. The proposed 2012-2017 lease sales in the Gulf of 
Mexico consider offering all the unleased available acreage, including 
the small portion of the Eastern Gulf of Mexico planning area that is 
not under congressional moratorium pursuant to the Gulf of Mexico 
Energy Security Act of 2006.
    Moving ahead with the ``all-of-the-above'' strategy will reduce 
dependence on foreign oil, thereby enhancing energy security and 
helping us as we transition to a cleaner energy future. However, it 
will not have a direct impact on the price of gasoline, which is 
overwhelmingly dictated by the global price of crude oil. There are 
other actions that the administration has taken that can have longer-
term impacts on the demand for gasoline, which is why the President set 
an ambitious goal that by 2015 we would have 1 million electric 
vehicles on the road, becoming the world's leader in advance vehicle 
technologies. To help reach this goal, the President is proposing bold 
steps to improve the efficiency of all modes of transportation and to 
develop alternative fuels. The administration continues to push forward 
on fuel economy standards for cars and trucks. The President has 
proposed to speed the adoption of electric vehicles with new, more 
effective tax credits for consumers and support for communities that 
create an environment for widespread adoption of these advanced 
vehicles in the near term. These actions are already helping to lower 
transportation costs by reducing dependence on oil, provide more 
transportation choices to the American people, and revitalize the U.S. 
manufacturing sector.
    Question. I am curious to know if the Historic Preservation Fund 
contains any public-private partnership opportunities to fund bricks 
and mortar projects, previously carried out by grants from Save 
America's Treasures program?
    Answer. Development (bricks and mortar) projects are an eligible 
activity under the National Historic Preservation Act (NHPA). State and 
Tribal Historic Preservation Offices may choose to use their annual 
Historic Preservation Fund (HPF) grants to fund development activities 
at National Register listed properties. Additionally, the NHPA requires 
that States direct 10 percent of their annual HPF allotment to 
Certified Local Governments (CLGs). Each State sets the parameters of 
the types of projects CLGs can complete with this funding, and may 
choose to allow CLGs to fund development projects.
    Most States and tribes, however, currently use the majority of 
their HPF grant funds to carry out nondiscretionary activities mandated 
by the NHPA, including consultation with Federal agencies on the impact 
of Federal undertakings (section 106 compliance), survey and inventory 
of historic properties, listing properties in the National Register, 
and administering CLGs. After this work has been completed, little 
funding generally remains to complete development projects. Similarly, 
few States currently choose to include development projects as an 
eligible project type for CLGs subgrants, because the amount each State 
distributes to CLGs is small. The average CLG subgrant in fiscal year 
2011 was $2,600. The projects CLGs complete generally include survey of 
historic properties, National Register listings, and educational 
resources.

                          SUBCOMMITTEE RECESS

    Senator Reed. With that, again, thank you, and the hearing 
is concluded.
    [Whereupon, at 11:42 a.m., Wednesday, February 29, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Tester, and Murkowski.

                       DEPARTMENT OF THE INTERIOR

                       Bureau of Land Management

STATEMENT OF HON. ROBERT V. ABBEY, DIRECTOR

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. Good 
morning. I want to welcome our witnesses to the subcommittee's 
oversight hearing on Federal offshore and onshore energy 
development programs within the Department of the Interior.
    On behalf of the members of the Interior, Environment, and 
Related Agencies Subcommittee, I'd like to welcome our panel 
and thank everyone for joining us here today.
    Now, before us, we have the Honorable Robert V. Abbey, 
who's the Director of the Bureau of Land Management (BLM); the 
Honorable Tommy P. Beaudreau, Director of the Bureau of Ocean 
Energy Management (BOEM); and the Honorable James Watson, 
Director of the Bureau of Safety and Environmental Enforcement 
(BSEE). Gentlemen, thank you.
    Director Beaudreau and Director Watson, this is your first 
hearing before the subcommittee as heads of these two new 
bureaus which were created in October of last year, so we 
wanted to offer a special welcome to both of you.
    As many of you know, the subcommittee was fortunate to have 
the opportunity to discuss many aspects of energy development 
when Secretary Salazar appeared before us 2 weeks ago. In 
particular, I'm especially grateful that we had the opportunity 
to discuss with him the potential for offshore wind development 
to create new manufacturing and assembly jobs and to generate 
renewable energy in my home State of Rhode Island and in other 
States.
    However, and I know that many of my colleagues on both 
sides of the aisle will agree, there is much more to discuss 
about energy policy, which is why we've convened this hearing 
today.
    Making sure that the right resources and policies are in 
place and that safe and responsible energy development on 
public lands is a significant part of this subcommittee's 
jurisdiction. The three agencies that we have before this 
subcommittee today all play a huge role in ensuring the success 
of the President's energy strategy by overseeing both 
conventional and renewable energy development on Federal lands 
and in our Federal waters.
    We must ensure that these three agencies have the right 
resources with staffing in place to perform their permanent 
inspections and enforce their duties. That is why I think it's 
important to start with an overview of where these agencies are 
in terms of their fiscal year 2013 budget requests.
    For the offshore perspective, the budget proposed a large 
increase to BSEE for a total of $222.2 million. That's a 13-
percent increase or $24.8 million more than fiscal year 2012 
funding levels.
    The President's request also continues the inspection fee 
program that the Congress established last year and proposes to 
collect $65 million in inspection fees from drilling operations 
to offset the appropriations request.
    The budget request also includes a total program level for 
BOEM of $164.1 million. That's a $3 million increase more than 
the fiscal year 2012 levels, or approximately 2 percent.
    Finally, the budget includes a program level of $173.4 
million for BLM energy program. That's a $33 million increase 
more than the fiscal year 2012 level or approximately 23 
percent.
    The budget request also includes a new $48 million 
inspection fee program similar to the one we enacted last year 
for BSEE that will offset the appropriations request. I'm 
anxious to hear from Director Abbey how these fees would be 
used to strengthen energy development on BLM lands.
    We're also going to take a look this morning at the 
progress that's being made to better process offshore and 
onshore permits and efforts that these agencies have made to 
recruit, hire and train new petroleum engineers and inspection 
personnel.
    Since the Deepwater Horizon incident less than 2 years ago, 
major reforms have been made to the way the Interior Department 
oversees the planning, leasing, and permitting processes for 
offshore energy development. I understand that concerns are 
being raised about whether the administration is acting quickly 
enough to exploit our offshore energy reserves.
    It is also important to note that lease sales are underway 
and permits have in fact been approved since the incident 
including a total of 325 deepwater drilling permits and an 
additional 116 shallow water drilling permits approved in the 
Gulf of Mexico as of Monday, March 12.
    As we move ahead, I think the administration must strike 
the proper balance between the speed of processing and ensuring 
that industry is drilling responsibly and safely especially in 
the context of the largest oil spill in our Nation's history 
which we saw with the Deepwater Horizon incident.
    The same can also be said for making sure that we are 
addressing onshore energy development in a thoughtful and 
environmentally sensitive manner. I look forward to discussing 
efforts to improve the BLM inspection process, particularly 
related to the steep rise in the use of hydraulic fracking on 
public lands.
    Now, before we hear from our panel, I'd like to recognize 
Ranking Member, Senator Murkowski, and other colleagues if 
they'd like to speak.
    Senator Reed. Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome to 
our witnesses. I appreciate all that each of you do. It was 
nice to visit with you, Director Beaudreau. It's always nice to 
have an Alaskan at the helm. You clearly understand what we're 
faced with so on many of these issues. But, again, welcome to 
each of you.
    As Americans face steeply rising energy costs, it's 
important that this subcommittee ensure that the agencies that 
sit before us today have the resources that they need and the 
right policies are in place to maximize domestic production 
from our Federal lands in an environmentally responsible 
manner.
    Now, a number of new authorities were included in last 
year's Interior bill that I hope will give your agencies the 
tools necessary to improve the pace of permitting and increase 
our domestic production.
    For example, new fees on offshore operators were authorized 
and 50 percent of these collections must be used to expand 
capacity and expedite the development of the Outer Continental 
Shelf (OCS). Authority was also given to pay higher salaries 
for certain critical job positions in order to address the 
problems with hiring sufficient numbers of key personnel to 
review the exploration plans and the process permits in a 
timely fashion, as the chairman has mentioned.
    Finally, the responsibility for reviewing air quality 
issues in the Arctic OCS was transferred from the Environmental 
Protection Agency (EPA) to BOEM to deal with egregious 
permitting delays, almost 6 years in one case. I'd like to hear 
from all of you today about how these new authorities are being 
utilized, and whether you believe that you've got the tools 
that you need to improve the pace of permitting and increase 
production both on and offshore.
    Improving the Department's performance is particularly 
important to me in light of recent Department of the Interior 
reports that indicate that while overall production 
domestically is at an all-time high, but it's not necessarily 
the case on Federal lands and waters.
    ENE News recently reported the production of natural gas 
declined by 11 percent in fiscal year 2011 and oil production 
declined by 14 percent. A significant portion of this is 
clearly the result of the moratorium that was put in place in 
the Gulf of Mexico following the Deepwater Horizon.
    So I would like to explore with you today what the current 
pace of permitting is in the gulf; how many drilling rigs are 
operating; whether the improvements have been made to improve 
and accelerate the approval of exploration plans and drilling 
permits.
    I think there is a difference of opinion out there between 
the Department and the industry on whether or not things are 
improving. So I would like to hear your perspective on that.
    The discrepancy between production on State and private 
lands versus Federal lands also concerns me as I look at the 
new policies that are proposed in the fiscal year 2013 budget 
that will make leasing on Federal lands less competitive.
    When companies have the option of oil exploration on large 
new reserves on State and private lands, whether it's North 
Dakota or Texas, or for natural gas in the Marcellus Shale, I 
question the wisdom of proposals to increase Federal onshore 
royalty rates and put in place new inspection and drilling 
fees, and charge a fee on the so-called nonproducing leases.
    It seems to me that this is just taking us in a direction 
that will make our Federal lands less competitive, and we may 
see a continued trend of more investment fleeing to the 
stateside into the private lands or possibly even to other 
countries.
    Again, I thank the witnesses for joining us and for the 
work that they do within their respective agencies and look 
forward to the questions.
    Senator Reed. Thank you, Senator Murkowski. I just have to 
point something out. Mr. Beaudreau is from Alaska, but his 
father is from Woonsocket, Rhode Island. So that is either the 
shrewdest appointment ever made----
    Senator Murkowski. Way to go. Phenomenal.
    Senator Reed [continuing]. Or the luckiest appointment ever 
made, and only time will tell.
    Senator Murkowski. I'm sure he also has ties to Montana.
    Senator Reed. If not, he's bought a cabin there. Senator 
Tester, do you have any comments?

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. I would. Thank you, Chairman Reed, and 
Ranking Member Murkowski for holding this hearing today, and I 
want to welcome Mr. Abbey, Mr. Beaudreau, and Mr. Watson to the 
hearing this morning.
    I want to say just a few quick words about the fiscal year 
2013 Department of the Interior budget. First, there's been a 
lot of talk about oil and gas leasing and development in the 
United States and the need to expand the developments, reduce 
our dependence on foreign oil. And I firmly believe that we do 
need to reduce our dependence on imported oil.
    We are giving $1 billion a day to countries that don't 
necessarily like us much and that hasn't done us much good in 
securing and developing our economy or enhancing our national 
security.
    But I think it's important we don't confuse reducing our 
dependence on foreign oil with reducing prices at the pump. We 
all know the price of gasoline isn't just about supply and 
demand factors and the talking point of ``drill baby drill'' 
isn't getting us those desired results. So let's be honest 
about the facts.
    Drilling is up. There are more drilling rigs in the United 
States than there are anywhere else in the world. Production is 
up. We're producing more than we have in the last 8 years. 
Dependence on imported oil is declining. Consumption, 
domestically, is down.
    But we are facing competition from China for oil, and that 
is driving the world price as well as speculators influencing 
the market and adding as much as 56 cents a gallon at the pump. 
All this is to say that we need to look at an ``all-the-above'' 
solution. There is no magic bullet.
    In Montana, energy production is fueling our economy, 
literally, with the Bakken Field, we're producing nearly 
500,000 barrels per day. I'm proud Montana is a part of that 
expanding energy, domestic energy solution.
    But I also want to point out that this hearing isn't just 
about extracting traditional fuels from public lands. We also 
need to permit renewable energy projects in a timely manner. We 
need to put just as much effort into those leasing and 
approvals of those projects to secure our energy future.
    And I look forward to visiting with each one of you today 
and, particularly, you, Bob, about getting more renewable 
energy up and running. I look forward to visiting with you 
about those throughout this hearing and hearings to come.
    Senator Tester. And, once again, I want to thank Chairman 
Reed and Ranking Member Murkowski, for holding this hearing.
    Senator Reed. Thank you very much, Senator. Gentlemen, your 
statements are part of the record, so you may be free to 
summarize your comments and Mr. Abbey, please begin.

                  SUMMARY STATEMENT OF ROBERT V. ABBEY

    Mr. Abbey. Well, thank you, Mr. Chairman, and members of 
the subcommittee. It's always a pleasure to appear before you 
today to discuss the President's fiscal year 2013 energy and 
minerals budget request for BLM. In the interests of time, I 
will keep my opening remarks quite brief.
    BLM, as many of you know already, is responsible for 
managing more than 245 million acres of public lands primarily 
in the 12 Western States, as well as approximately 700 million 
acres of onshore subsurface mineral estate nationwide.
    BLM's unique multiple-use management of public lands 
includes activities as varied as livestock grazing, outdoor 
recreation and conservation of natural, historical, cultural, 
and other important resources. America's public lands provide 
resources that are critical to the Nation's energy security and 
will continue to play an important role in domestic energy 
production, in mineral development, for decades to come.
    Our management of public land resources and protection of 
public land values results in extraordinary economic benefits 
to local communities and to this Nation. It is estimated that 
in 2011, BLM's management of public lands contributed more than 
$120 billion to the national economy and supported more than 
550,000 American jobs.
    BLM's fiscal year 2013 budget proposal reflects the 
administration's efforts to maximize public benefits while 
recognizing the reality of the current fiscal situation.
    The New Energy Frontier Initiative recognizes the value of 
environmentally sound, scientifically grounded development of 
both conventional and renewable energy resources on public 
lands. Conventional energy resources on these public lands 
continue to play a critical role in meeting the Nation's energy 
needs, producing 41 percent of the Nation's coal, 13 percent of 
natural gas, and 5 percent of the domestically produced oil.
    During 2011, BLM held 32 onshore oil and gas lease sales 
covering more than 4 million acres. Onshore mineral leasing 
revenues are estimated to be $4.4 billion in 2013. The fiscal 
year 2013 budget strengthens BLM's oil and gas inspection 
capability through a proposed fee on oil and gas producers 
similar to the fees now charged for offshore inspections.
    Collection of these fees is consistent with the principle 
that users of the public lands pay for both the cost of use 
authorizations and for providing for oversight activities. This 
fee will generate an estimated $48 million to improve safety 
and production inspections for oil and gas operations.
    President Obama, Secretary Salazar and this Congress have 
stressed the critical importance of renewable energy to the 
Nation's energy security, job creation, and long-term economic 
development. To date, Secretary Salazar has approved 29 
commercial-scale, renewable-energy projects on public lands, 
and these include 16 solar, 5 wind, and 8 geothermal projects 
that represent more than 6,500 megawatts and 12,500 jobs.
    BLM's fiscal year 2013 budget proposes a $5 million 
increase for these efforts, and we do intend to reach our goal 
of almost 11,000 megawatts of renewable energy production in 
2013.

                           PREPARED STATEMENT

    Finally, the budget proposes legislative initiatives to 
reform hard-rock mining, remediate abandoned mines and 
encourage diligent development of nonproducing oil and gas 
leases.
    Mr. Chairman, members of the subcommittee, again, thank you 
for this time.
    [The statement follows:]

                 Prepared Statement of Robert V. Abbey

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear here today to discuss the President's fiscal year 
2013 energy and minerals budget request for the Bureau of Land 
Management (BLM).
    BLM, an agency of the Department of the Interior (DOI), is 
responsible for managing our national system of public lands, which are 
located primarily in 12 Western States, including Alaska. BLM 
administers more than 245 million surface acres, more than any other 
Federal agency. BLM also manages approximately 700 million acres of 
onshore subsurface mineral estate throughout the Nation. BLM's unique 
multiple-use management of public lands includes activities as varied 
as energy production, mineral development, livestock grazing, outdoor 
recreation, and the conservation of natural, historical, cultural, and 
other important resources. BLM is one of a handful of Federal agencies 
that generates more revenue than it spends.

              <greek-l>blm deg.MEETING OUR NATION'S NEEDS

    BLM's management of public land resources and protection of public 
land values results in extraordinary economic benefits to local 
communities and to the Nation, helping to contribute more than $120 
billion annually to the national economy and supporting more than 
550,000 American full and part-time jobs according to the Department of 
the Interior Economic Contributions report of June 21, 2011. Energy and 
mineral resources generate the highest revenue values of any uses of 
the public lands from royalties, rents, bonuses, sales, and fees.
    These benefits are not only economic, but also contribute 
substantially to America's energy security. During calendar year 2011, 
BLM held 32 onshore oil and gas lease sales--covering nearly 4.4 
million acres--which generated about $256 million in revenue for 
American taxpayers. Onshore mineral leasing revenues are estimated to 
be $4.4 billion in 2013. The 2011 lease sale revenues are 20-percent 
more than those in calendar year 2010. There are currently more than 38 
million acres of Federal mineral estate under oil and gas lease, and 
since only about 32 percent of that acreage is currently in production, 
BLM is working to provide greater incentives for lessees to make 
production a priority. In fiscal year 2011, DOI collected royalties on 
more than 97 million barrels of oil produced from onshore Federal 
minerals. Moreover, the production of nearly 3 trillion cubic feet of 
natural gas made it one of the most productive years on record.
    Meanwhile, the coal produced from more than 300 Federal coal 
leases, on nearly a one-half million acres of Federal mineral estate, 
generated more than $780 million in royalties. This coal is used to 
generate electricity in at least 40 States, accounting for more than 
one-fifth of all electricity generated across the country. BLM held 
four coal leases sales in 2011. BLM accepted bonus bids of more than 
$700 million for these four lease sales, underscoring the 
administration's commitment to the goals of energy security and job 
creation.
    BLM also is leading the Nation on the new energy frontier, actively 
promoting solar, wind, and geothermal energy development. Under 
Secretary Salazar, BLM has approved permits for 29 commercial-scale 
renewable energy projects on public lands or the transmission 
associated with them since 2009. This includes 16 solar, 5 wind, and 8 
geothermal projects. Together, these projects represent more than 6,500 
megawatts (MW) and 12,500 jobs, and when built will power about 1.3 
million homes. In addition, DOI has identified more than 3,000 miles of 
transmission lines for expedited review. Enhanced development of wind 
power is a key component of our Nation's energy strategy for the 
future. There are currently 437 MW of installed wind power capacity on 
BLM-managed public lands, but there are 20 million acres of public 
lands with wind potential. Additionally, nearly one-half of U.S. 
geothermal energy production capacity is from Federal leases. The 
fiscal year 2013 budget reflects a goal of permitting a total of 11,000 
MW of clean renewable energy by the end of 2013.

           <greek-l>blm deg.FISCAL YEAR 2013 BUDGET OVERVIEW

    BLM's fiscal year 2013 energy and minerals budget makes significant 
investments in America's economy, while making difficult choices to 
offset priority funding increases. Investments in this budget will 
promote America's energy production at home and grow America's economy. 
The proposed budget for BLM makes a strategic investment in support of 
the New Energy Frontier, an important Secretarial initiative. 
Investment in this program today will reap benefits for years to come.
    The total fiscal year 2013 BLM budget request is $1.1 billion in 
current authority, which is essentially the same as the fiscal year 
2012 enacted level. The budget proposes $952 million for BLM 
appropriation and $112 million for the Oregon and California grant 
lands appropriation, BLM's two main operating accounts. The budget 
makes strategic funding shifts to target high-priority initiatives, 
scales back on lower-priority programs, and sustains and expands energy 
program activities. The budget also includes several important 
legislative proposals linked to the uses of lands and resources, 
including proposals to fund the remediation of abandoned hardrock 
mines; to provide a fair return to the taxpayer from the production of 
several hardrock minerals on Federal lands; to encourage diligent 
development of oil and gas leases; to repeal a prohibition on charging 
oil and gas permitting fees along with associated mandatory funds; and 
to reauthorize the Federal Land Transaction Facilitation Act. This 
testimony focuses on BLM's energy and mineral resources programs.

     <greek-l>blm deg.PROMOTING AMERICAN ENERGY PRODUCTION AT HOME

    The fiscal year 2013 budget continues DOI's new energy frontier 
initiative to create jobs, reduce the Nation's dependence on fossil 
fuels and oil imports, and reduce carbon impacts. The Secretary's new 
energy frontier initiative emphasizes the value of scientifically 
based, environmentally sound development of both renewable and 
conventional energy resources on the Nation's public lands. 
Facilitating renewable energy development is a major component of this 
strategy along with effective management of conventional energy 
programs. BLM's proposed fiscal year 2013 budget advances the goals of 
the initiative by including priority funding for both renewable and 
conventional energy development on public lands.
    Renewable Energy.--President Obama, Secretary Salazar, and the 
Congress have stressed the critical importance of renewable energy to 
the future of the United States. Success in attaining the Nation's 
goals to reduce greenhouse gas emissions, mitigate climate change, and 
protect the global environment relies on sustained efforts to develop 
renewable energy resources. Renewable energy production is vital to our 
Nation's long-term economic development and energy security. The 
development of renewable energy creates American jobs and promotes 
innovation in the United States while reducing the country's reliance 
on fossil fuels.
    BLM continues to make significant progress in promoting renewable 
energy development on the public lands in 2012, including working to 
approve additional large-scale solar energy projects and complete a 
draft Solar Programmatic Environmental Impact Statement to provide for 
landscape-scale siting of solar energy projects on public lands. The 
agency is working on wind development mitigation strategies with wind 
energy applicants and other Federal agencies, and is currently 
reviewing more than 45 wind energy applications. Additionally, the 
transmission infrastructure required to deliver renewable energy from 
production facilities to major markets relies on corridors across BLM-
managed lands.
    The fiscal year 2013 budget request includes a total program 
increase of $7 million in the Renewable Energy Management program, 
including $5 million in new funding. This will support additional 
environmental studies to accelerate the identification of prime areas 
for utility-scale renewable energy project development. It will also 
enable BLM to continue ongoing program management responsibilities 
associated with geothermal energy development by replacing mandatory 
funding previously provided by the Geothermal Steam Act Implementation 
Fund, for which new deposits have ceased. The remaining $2 million 
increase is a transfer of geothermal funds from the oil and gas 
management program to BLM's renewable energy program.
    Conventional Energy.--While we work to develop renewable energy 
sources, domestic oil and gas production remain critical to our 
Nation's energy supply and to reducing our dependence on foreign oil. 
Secretary Salazar has emphasized that conventional energy resources on 
BLM-managed lands continue to play a critical role in meeting the 
Nation's energy needs. Conventional energy development from public 
lands produces 41 percent of the Nation's coal, 13 percent of the 
natural gas, and 5 percent of the domestically produced oil. DOI's 
balanced approach to responsible conventional energy development 
combines onshore oil and gas policy reforms with effective budgeting to 
provide appropriate planning and support for conventional energy 
development.
    The fiscal year 2013 budget proposes an increase of $2.4 million in 
appropriated funding to be utilized for inspection and enforcement of 
coal production on Federal and Indian lands. The requested increase 
will fund the program at roughly the 2011 enacted level. BLM will 
continue efforts to institute cost-recovery fees within this program, 
but recognizes these fees may not be in place by the start of 2013.
    The President's fiscal year 2013 budget proposes $13 million in oil 
and gas program increases to provide industry with timely access to 
Federal oil and gas resources, backed by the certainty of defensible 
environmental analysis. Of that increase, a $5 million program increase 
will restore BLM's leasing and oversight capacity to the 2011 enacted 
level. An additional $3 million will be used for large, regional-scale 
studies and environmental impact statements for oil and gas leasing and 
development issues. Finally, an additional $5 million programmatic 
increase will allow BLM to fully implement its leasing reform strategy 
without sacrificing other important program goals.
    BLM is committed to ensuring oil and gas production is carried out 
responsibly. To accomplish this, BLM performs inspections to ensure 
that lessees meet environmental, safety, and production reporting 
requirements. BLM recently initiated a program using a risk-based 
inspection protocol for production inspections, based on production 
levels and histories. Success realized in this program will support 
expansion of this risk-based strategy to the other types of inspections 
the BLM performs. The risk-based strategy will maximize the use of 
inspection staff to better meet BLM inspection goals and requirements 
in the future.
    The fiscal year 2013 budget proposes to expand and strengthen BLM's 
oil and gas inspection capability through new fee collections from 
industry, similar to the fees now charged for offshore inspections. 
Collection of these fees is consistent with the principle that users of 
the public lands should pay for the costs of use authorizations and the 
costs associated with the oversight of authorized activities. The 
inspection fee schedule included in the budget is estimated to generate 
$48 million in collections, which would offset a proposed reduction of 
$38 million in BLM's appropriated funds, while providing for a net 
increase of $10 million in funds available for this critical BLM 
management responsibility. The increased funding is aimed at correcting 
deficiencies identified by the Government Accountability Office (GAO) 
in its February 2011 report, which designated Federal management of oil 
and gas resources including production and revenue collection as high 
risk. The $10 million increase will help BLM achieve the high-priority 
goal of increasing the completion of inspections of Federal and Indian 
high risk oil and gas cases by 9 percent more than fiscal year 2011 
levels. BLM will also complete more environmental inspections to ensure 
environmental requirements are being followed in all phases of 
development. Fee levels will be based on the number of oil and gas 
wells per lease so that costs are shared equitably across the industry.
    To encourage diligent development of new oil and gas leases, the 
administration is proposing a per-acre fee on each nonproducing lease 
issued after enactment of the proposal. The $4-per-acre fee on 
nonproducing Federal leases (onshore and offshore) would provide a 
financial incentive for oil and gas companies to either put their 
leases into production or relinquish them so that tracts can be re-
leased and developed by new parties.
    The administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. A 2008 GAO report suggests that taxpayers could be getting a 
better return from Federal oil and gas resources in some areas. To this 
end, the administration is developing a proposed rule to address 
onshore royalty rates.

   <greek-l>blm deg.ABANDONED MINE LANDS AND HARDROCK MINING REFORM 
                               PROPOSALS

    The budget includes legislative proposals to address AML hazards on 
both public and private lands and to provide a fair return to the 
taxpayer from hardrock production on Federal lands. The first component 
addresses abandoned hardrock mines across the country through a new AML 
fee on hardrock production. Just as the coal industry is held 
responsible for abandoned coal sites, the administration proposes to 
hold the hardrock mining industry responsible for abandoned hardrock 
mines. The proposal will levy an AML fee on all uranium and metallic 
mines on both public and private lands that will be charged on the 
volume of material displaced after January 1, 2013. The receipts will 
be distributed by BLM through a competitive grant program to restore 
the Nation's most hazardous hardrock AML sites on both public and 
private lands using an advisory council comprising of representatives 
of Federal agencies, States, tribes, and nongovernment organizations. 
The advisory council will recommend objective criteria to rank AML 
projects to allocate funds for remediation to the sites with the most 
urgent environmental and safety hazards. The proposed hardrock AML fee 
and reclamation program would operate in parallel to the coal AML 
reclamation program, as two parts of a larger effort to ensure that the 
Nation's most dangerous coal and hardrock AML sites are addressed by 
the industries that created the problems.
    The budget also includes a legislative proposal to institute a 
leasing process under the Mineral Leasing Act of 1920 for certain 
minerals (gold, silver, lead, zinc, copper, uranium, and molybdenum) 
currently covered by the General Mining Law of 1872. After enactment, 
mining for these metals on Federal lands would be governed by a leasing 
process and subject to annual rental payments and a royalty of not less 
than 5 percent of gross proceeds. One-half of the royalty receipts 
would be distributed to the States in which the leases are located and 
the remaining half would be deposited in the Treasury. Pre-existing 
mining claims would be exempt from the change to a leasing system, but 
would be subject to increases in the annual maintenance fees under the 
General Mining Law of 1872. However, holders of pre-existing mining 
claims for these minerals could voluntarily convert their claims to 
leases. The Office of Natural Resources Revenue in DOI will collect, 
account for, and disburse the hardrock royalty receipts.

              <greek-l>blm deg.REDUCTIONS AND EFFICIENCIES

    BLM's fiscal year 2013 budget proposal reflects many difficult 
choices in order to support priority initiatives and needs while 
supporting the President's commitment to fiscal discipline and spending 
restraint. In fiscal year 2013, BLM is requesting a decrease of $2 
million for its abandoned mine lands program. BLM will continue to fund 
the highest-priority sites, as determined through its ongoing ranking 
process. Red Devil Mine reclamation activities remain a high priority.

                               CONCLUSION

    BLM's fiscal year 2013 budget request for energy and minerals 
programs provides funding for the agency's highest-priority energy and 
minerals initiatives, while making difficult but responsible choices 
for reductions to offset some of these funding priorities. Our public 
lands and resources play an important role in American lives, 
economies, and communities and include some of our Nation's greatest 
assets. This budget request reflects the administration's commitment to 
encourage responsible energy development on the public lands, as well 
as to ensure the American people receive a fair return for the public's 
resources. Mr. Chairman, thank you for the opportunity to testify on 
BLM energy and mineral budget request for fiscal year 2013. I will be 
pleased to answer any questions you may have.

    Senator Reed. Thank you very much, Director Abbey. Director 
Beaudreau.

                   Bureau of Ocean Energy Management

STATEMENT OF HON. TOMMY P. BEAUDREAU, DIRECTOR
    Senator Reed. Please turn on your microphone.
    Mr. Beaudreau. Okay. Yes. Thank you, Chairman Reed, Ranking 
Member Murkowski, and Senator Tester.
    Thank you for the opportunity to appear today to discuss 
the President's fiscal year 2013 budget request for BOEM, and 
for the opportunity to provide these brief opening remarks.
    As we know, the Deepwater Horizon rig explosion and oil 
spill in the Gulf of Mexico spurred the administration to 
undertake the most aggressive and comprehensive reforms to 
offshore oil and gas regulation in United States history.
    Central to these reforms are the structural changes we have 
made to Federal oversight, including the establishment of new, 
independent agencies with clearly defined missions to provide 
effective management and strong safety oversight of the 
development of our shared offshore energy and mineral 
resources.
    Simply put, BOEM is responsible for overseeing the 
environmentally and economically responsible development of our 
country's abundant offshore conventional and renewable energy 
resources. This includes promoting responsible offshore oil and 
gas development as well as renewable energy projects such as 
offshore wind.
    BOEM's decisionmaking must closely consider the resource 
potential of geographic regions on the OCS, the critical role 
offshore energy development plays in the mix of resources 
necessary to meet the Nation's energy demands, the significance 
of offshore oil and gas to the economy and employment, and the 
vital need for environmental protection and responsible 
stewardship.
    These are priorities and values shared by everyone in this 
room. This budget request is designed to provide BOEM with the 
resources necessary to advance our commitment to a 
comprehensive all-of-the-above energy strategy that encourages 
safe and responsible domestic oil and gas exploration and 
development as well as pushes forward with the development of 
offshore wind and other clean, renewable-energy resources.
    The resources we have requested will allow BOEM to continue 
pursuing our programmatic priorities which include, one, 
finalizing and implementing the next 5-year offshore oil and 
gas leasing program which as proposed will include 15 potential 
lease sales and make available more than 75 percent of the 
undiscovered but recoverable oil and gas resources offshore of 
the United States.
    Two. Conducting the rigorous scientific and environmental 
analyses that are necessary at all stages of the offshore 
energy development process. Last December, we held the first 
lease sale following the spill which was one of the most 
successful in the history of the Western Gulf of Mexico.
    We will hold a consolidated lease sale for the Central Gulf 
of Mexico on June 20. Planning for both of these sales included 
rigorous analyses of available information concerning the 
environmental effects of the Deepwater Horizon oil spill.
    Three. We continue to conduct efficient and thorough 
reviews of offshore exploration and development plans under the 
new heightened standards which include site specific 
environmental assessments on every deepwater exploration and 
development plan.
    Four. We've implemented innovative lease terms that ensure 
that the American taxpayer receives fair return and that 
provides strong incentives for industry to diligently develop 
their lease holdings offshore to meet our energy needs.
    Finally, we are on the forefront of development of offshore 
renewable energy resources. Over the next year and beyond, we 
expect to issue a number of commercial leases for offshore wind 
development particularly along the Atlantic coast.

                           PREPARED STATEMENT

    BOEM is focused on its mission to help the United States 
secure its energy future through responsible development of 
conventional and renewable offshore energy. Thank you and thank 
this subcommittee for its continuing support of our mission and 
our efforts.
    [The statement follows:]

                Prepared Statement of Tommy P. Beaudreau

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear here today to discuss the President's fiscal year 
2013 budget request for the Bureau of Ocean Energy Management (BOEM) 
within the Department of the Interior (DOI).
    This request is designed to provide the resources necessary to 
advance BOEM's commitment to effective and efficient management and 
oversight of the Nation's offshore resources as part of our 
comprehensive energy strategy to encourage safe and responsible 
domestic oil and gas exploration and development, as well as to expand 
development of clean and abundant renewable energy resources.
    With the guidance, support, and oversight of the Congress, the 
Obama administration has been implementing the most aggressive and 
comprehensive reforms to offshore oil and gas regulation in U.S. 
history following the Deepwater Horizon explosion and oil spill in the 
Gulf of Mexico. The Minerals Management Service (MMS) was restructured 
into three new, independent entities, and the Bureau of Ocean Energy 
Management (BOEM) took on the role of effective and efficient 
management and oversight of the Nation's offshore resources as part of 
our comprehensive strategy to encourage safe and responsible domestic 
oil and gas exploration and development. BOEM is also committed to 
expand development of clean and abundant renewable energy resources. 
Both activities support job growth and healthy local economies, and 
this budget request is designed to provide the resources necessary to 
advance this commitment.
    In order to ensure an efficient and integrated approach to offshore 
energy development, BOEM and the Bureau of Safety and Environmental 
Enforcement (BSEE) work together closely and certain functions remain 
linked and require close coordination. As you will hear from my 
colleague, Director James Watson, BSEE functions as the offshore safety 
authority, charged with enforcement of the strengthened safety and 
environmental standards implemented in the aftermath of Deepwater 
Horizon. We designed the reorganization to ensure that both agencies 
operate efficiently and without unnecessarily redundant bureaucracies. 
For example, BOEM and BSEE continue to share administrative 
infrastructure and functions that service both bureaus efficiently.
    For fiscal year 2013, BOEM is requesting an operating level of 
$164.1 million, which includes a base appropriation of $62.7 million 
and $101.4 million in offsetting collections ($98.8 million from rental 
receipts and $2.6 million from cost-recovery fees). BOEM manages the 
Nation's offshore energy and mineral resources in a balanced way that 
promotes efficient and environmentally responsible energy development 
through oil and gas leasing, renewable energy development, and a 
commitment to rigorous, science-based environmental review and study. 
BOEM's functions include offshore leasing, resource evaluation, review 
and administration of oil and gas exploration and development plans, 
renewable energy development, National Environmental Policy Act (NEPA) 
analysis, and environmental studies.
    BOEM's organizational structure is designed to advance core 
elements of its mission including:
  --strategic resource development;
  --environmental analysis and applied science; and
  --renewable energy development.

          <greek-l>boem deg.key PRIORITIES AND ACCOMPLISHMENTS

    Since its establishment on October 1, 2011, BOEM has made 
substantial progress and achieved a number of important priorities. 
These priorities will continue to guide the agency's activities 
throughout the remainder of fiscal year 2012, and form the basis of the 
budget request moving into fiscal year 2013. These priority areas 
include:
      Developing and Implementing the Five-Year Outer Continental Shelf 
        Oil and Gas Leasing Program for 2007-2012.--In December 2011, 
        BOEM held Western Gulf of Mexico (GOM) Lease Sale 218--the last 
        Western GOM sale scheduled under the current 5-year program and 
        the first sale conducted after completion of a supplemental 
        environmental impact statement that considered the effects of 
        the Deepwater Horizon oil spill. BOEM has scheduled 
        Consolidated Central GOM Sale 216/222, the final sale in the 
        current program, for June 20, 2012. In addition, BOEM is 
        developing the next 5-year program. Last November, BOEM issued 
        the proposed Outer Continental Shelf (OCS) Oil and Gas Leasing 
        Program for 2012-2017, which makes more than 75 percent of 
        undiscovered technically recoverable oil and gas resources 
        estimated in Federal offshore areas available for exploration 
        and development. It advances an innovative, regionally tailored 
        approach to offshore oil and gas leasing designed to take into 
        account the particular resource potential, environmental and 
        social concerns, and infrastructure condition of each planning 
        area. BOEM will finalize the program in fiscal year 2012.
      Conducting rigorous scientific and environmental analysis to 
        support all stages of the OCS Lands Act process--from pre-sale 
        planning through exploration and development. Rigorous 
        scientific analysis underlies all of BOEM's decisions. For 
        example, BOEM held Western Gulf of Mexico Lease Sale 218 after 
        conducting necessary environmental analyses to evaluate 
        available information concerning the effects of the Deepwater 
        Horizon oil spill. BOEM recently completed a similar analysis 
        with respect to the Central Gulf of Mexico Planning Area in 
        preparation for Lease Sale 216/222. BOEM has completed an 
        extensive supplemental environmental analysis for the Chukchi 
        Sea Planning Area that addresses key issues including the 
        potential effects of a hypothetical, very large oil spill. The 
        analysis supported the Secretary's decision to affirm Chukchi 
        Sea Lease Sale 193, originally held in 2008. This analysis 
        resulted in Chukchi Lease Sale 193 being judicially upheld, and 
        the injunction of those leases being lifted. At the postlease 
        stage, BOEM currently conducts site-specific environmental 
        assessments on all deepwater exploration and development plans, 
        rather than relying on categorical exclusions as had been done 
        historically.
      Ensuring a Fair Return.--BOEM lease terms now include a range of 
        fiscal and drilling requirements to ensure that taxpayers 
        receive fair value and encourage operators to undertake 
        diligent development, consistent with the administration's 
        Blueprint for a Secure Energy Future. Recent changes made in 
        lease terms include raising the minimum bid level from $37.50 
        per acre to $100 per acre in water depths of 400 meters or 
        greater; promulgating policies that reduce the time a lease can 
        be held without drilling activity by up to 3 years in water 
        depths of 400 to 1,600 meters; and increasing rental rates to 
        encourage faster exploration and development of leases. The 
        higher minimum bid level strengthens the bidding process and 
        supports the goal of ensuring a fair return. It discourages 
        bidders from acquiring tracts with the intention to hold them 
        undrilled for many years. Lessees who meet the shorter drilling 
        timeframes earn three additional years on the lease term as an 
        added incentive for timely drilling. BOEM has both increased 
        base rental rates and established escalating rentals to 
        encourage faster exploration and development of leases, or 
        earlier relinquishment when exploration is unlikely to be 
        undertaken by the current lessee.
      Conducting Reviews of Exploration and Development Plans.--BOEM 
        conducts efficient and thorough reviews of exploration and 
        development plans. Consistent with strengthened standards for 
        environmental analysis, BOEM is committed to ensuring that its 
        process for reviewing and approving plans is rigorous, 
        efficient, and transparent. BOEM works collaboratively with 
        industry throughout the review of plans, to ensure operators 
        understand and comply with BOEM's stronger operational and 
        environmental standards and that the review process is 
        efficient.
      Advancing Renewable Energy Leasing and Development through the 
        ``Smart from the Start'' Initiative.--BOEM has established a 
        regulatory framework for renewable energy leasing and 
        development on the OCS and has taken critical steps to support 
        the development of an offshore wind industry. On April 19, 
        2011, Secretary Salazar announced the approval of the Cape Wind 
        Associates' Construction and Operations Plan. The Secretary 
        signed the Cape Wind lease in 2010, and it is the first 
        offshore commercial wind lease in the United States.
      The Secretary's ``Smart from the Start'' Initiative, announced in 
        fiscal year 2011, is intended to build on the existing 
        regulatory framework and facilitate the efficient and 
        environmentally responsible siting, leasing, and construction 
        of new wind energy projects in the Atlantic. Recently, BOEM 
        completed a number of important steps to advance additional 
        lease sales in fiscal year 2013 and beyond, including:
    --developing a commercial lease form and conducting an analysis to 
            determine auction formats;
    --completing an environmental assessment to support leasing in wind 
            energy areas off of four Mid-Atlantic States; and
    --issuing Calls for Information and Nominations to gauge industry 
            interest in the areas offshore Rhode Island, Massachusetts, 
            Maryland, and Virginia.
      BOEM also is moving forward with the review for a potential Mid-
        Atlantic Wind Energy Transmission Line, which would enable up 
        to 7,000 megawatts of wind turbine capacity to be delivered to 
        the electric grid.
      The fiscal year 2013 request continues these efforts and supports 
        ongoing collaboration between BOEM, intergovernmental task 
        forces, industry, and stakeholders and a continued focus on 
        environmental assessment, while developing formats and 
        processes for renewable energy lease auctions. BOEM expects to 
        hold the first competitive lease sales for offshore wind in 
        fiscal year 2013.
      Science-Based Decisionmaking.--A core principle of BOEM is the 
        integration of science with decisionmaking through 
        comprehensive research and rigorous analysis. The new Office of 
        Environmental Programs establishes an umbrella organization 
        that integrates applied scientific research and information 
        with the environmental analyses that BOEM conducts in support 
        of programmatic decisions. This structure facilitates top-
        quality research by talented scientists from a range of 
        disciplines, as well as targeted scientific study to support 
        policy needs and priorities.
      Strengthening of the Environmental Review Processes.--BOEM is 
        committed to setting high standards for analyses conducted in 
        compliance with NEPA and other governing statutes, and this 
        budget request continues ongoing efforts to strengthen these 
        processes. BOEM is conducting a comprehensive review of its 
        application of NEPA to ensure that environmental risks are 
        thoroughly analyzed, appropriate protective measures are 
        implemented, and the process is transparent and well-understood 
        within the Federal Government and by stakeholders. This review 
        includes an ongoing assessment of the use of categorical 
        exclusions. In the interim, BOEM is conducting site-specific 
        environmental assessments for all new and revised exploration 
        and development plans in deepwater.
      Developing the First Geological and Geophysical Programmatic 
        Environmental Impact Statement for Areas in the Mid- and South 
        Atlantic.--BOEM is committed to conducting thorough, scientific 
        reviews that facilitate a better understanding of potential 
        conventional and renewable resources in the Atlantic, which is 
        central to our strategy for evaluating potential future leasing 
        in the Mid- and South Atlantic. This Programmatic Environmental 
        Impact Statement (PEIS) will evaluate potential environmental 
        effects of multiple Geological and Geophysical activities, such 
        as seismic surveys, conducted to inform future decisions 
        regarding oil, natural gas, and renewable energy development on 
        the OCS in the mid and south Atlantic planning areas. BOEM will 
        issue the draft PEIS this spring.

         <greek-l>boem deg.THE FISCAL YEAR 2013 BUDGET REQUEST

    This fiscal year 2013 BOEM budget request is consistent with the 
direction set forth in the fiscal year 2012 budget for BOEM and 
consists of limited funding increases reflecting difficult tradeoffs 
given the tight fiscal constraints. BOEM's fiscal year 2013 request of 
$164.1 million includes careful analysis of the resources needed to 
develop the agency's capacity and to execute its functions carefully, 
responsibly, and efficiently. Consistent with the overall contours of 
BOEM's request, these targeted increases, which amount to $3.3 million 
more than the fiscal year 2012 enacted level, reflect modest increases 
for renewable energy auction support services, environmental studies, 
and fixed costs--and are necessary to advance administration priorities 
that are vital to BOEM's mission.
      Renewable Energy Auction Support Services (+$1,296,000; 0 FTE).--
        In order to achieve the Secretary's renewable energy goal 
        outlined in the ``Smart from the Start'' Initiative, BOEM must 
        accelerate the auction schedule of potential wind leases. 
        Because it is not yet equipped with the technical support or 
        expertise to manage these auctions, BOEM will contract those 
        services and purchase wind resource data in the near term.
      Environmental Studies (+$700,000; 0 FTE).--The requested increase 
        will enable BOEM to initiate high-priority baseline 
        characterization and monitoring studies. With the release of 
        the proposed 5-year program, establishing baseline information 
        will become an increasing need in order to ensure a scientific 
        basis for informed and environmentally responsible policy 
        decisions.
      Fixed Costs (+$1,453,000; 0 FTE).--Fixed costs in the amount of 
        $1,453,000 are fully funded in this request. These costs 
        include increases needed to support employee pay, changes in 
        Federal health benefits and worker's compensation, rent to the 
        General Services Administration, and payments to the 
        Department's Working Capital Fund.
      Offsetting Collections and Cost Recovery (-$322,000; +0 FTE).--
        This requested change reflects a revised net estimate of BOEM's 
        fiscal year 2013 offsetting collections and cost-recovery fees.
      Administrative Reduction (-$122,000; +0 FTE).--This reduction 
        offsets high-priority increases in the fiscal year 2013 request 
        and will be applied by reducing administrative costs within 
        BOEM.
    The fiscal year 2013 request also includes legislative proposals 
that directly relate to BOEM's programs including:
      Deep Gas Incentives.--The administration proposes to repeal 
        section 344 of the Energy Policy Act of 2005. Section 344 
        mandated royalty incentives for certain ``deep gas'' production 
        on the OCS. This change will help ensure that Americans receive 
        fair value for federally owned mineral resources. Based on 
        current oil and gas price projections, the budget does not 
        assume savings from this change; however, the proposal could 
        generate savings to the Treasury if future natural gas prices 
        end up below current projections.
      Fee on Non-Producing Oil and Gas Leases.--The administration will 
        submit a legislative proposal to encourage energy production on 
        lands and waters leased for development. A $4 per-acre fee on 
        nonproducing Federal leases would provide a financial incentive 
        for oil and gas companies to either get their leases into 
        production or relinquish them so that the tracts can be leased 
        to and developed by other parties. The proposed fee would apply 
        to all new leases onshore and offshore and would be indexed 
        annually. In October 2008, the Government Accountability Office 
        issued a report critical of past efforts by Interior to ensure 
        that companies diligently develop their Federal leases. 
        Although the report focused on administrative actions that the 
        Department could undertake, this proposal requires legislative 
        action. This proposal is similar to other nonproducing fee 
        proposals considered by the Congress in the last several years. 
        The fee is projected to generate revenues to the U.S. Treasury 
        of $13 million in 2013 and $783 million over 10 years.

                               CONCLUSION

    BOEM plays a vital role in advancing safe and responsible offshore 
energy development to secure our energy future. Given our environment 
where serious fiscal constraints demand difficult decisions, we 
appreciate the critical resources the Congress has provided in recent 
appropriations--including investment in robust science to inform 
decisions relating to ocean energy policy and management and 
appropriate environmental safeguards. It is imperative to sustain this 
investment moving into the next fiscal year and the fiscal year 2013 
request reflects a careful analysis of the resources needed to ensure 
our ability to carry out the important mission with which we are 
charged.
    Thank you once again for the opportunity to testify here today, and 
for your consistent support throughout the reorganization process. I 
look forward to our continued work together, and to answering your 
questions today.

    Senator Reed. Thank you very much. Director Watson, please.

             Bureau of Safety and Environmental Enforcement

STATEMENT OF HON. JAMES WATSON, DIRECTOR
    Mr. Watson. Good morning, Chairman Reed, Ranking Member 
Murkowski, and Senator Tester. Thank you.
    I am pleased to appear before you for the first time as 
Director of BSEE and to discuss the tremendous strides we have 
made as well as our vision for the future of the agency.
    We have a critical mission, providing safety and 
environmental oversight of offshore oil and gas operations on 
the OCS. In leading positive changes in the safety culture of 
offshore operations, our near-term goal is to restore America's 
confidence that offshore operations can be carried out safely 
and responsibly and without the tragic human and ecological 
costs that occurred as a result of the Deepwater Horizon 
tragedy.
    In the long term, our goal is to set standards and build 
capacity for offshore safety assurance throughout this country 
and also to be the world leader for safe offshore operations.
    The key to our success is the employees of BSEE. Over the 
past 3 months, I have met our employees from all of our 
offices. They've made it clear to me that they believe in and 
are passionate in our mission. They are unmatched in their 
knowledge of the offshore industry and are making the best use 
of the resources at their disposal to advance the cause of 
safety and responsible offshore oil and gas operations.
    Overseeing safety and environmental performance on the OCS 
includes drilling permits and managing the orderly development 
of the Nation's offshore oil and gas resources. A lot of 
attention has been paid to our permitting pace, and I 
sympathize with the people who depend on these permits for 
jobs, the same people who were so negatively impacted by the 
Deepwater Horizon tragedy in many cases.
    Permitting is an essential part of our safety mission. We 
issue permits only when companies have demonstrated that they 
can conduct their proposed operations safely and responsibly, 
they're meeting all of the enhanced safety standards, and they 
can respond effectively in the event of a worst case discharge.
    By working closely with the industry, we have significantly 
decreased the amount of time it takes to approve a permit and 
have issued hundreds of deepwater and shallow-water permits 
over this past year.
    However, those who believe that the pace of permitting 
should be automatically the same as before Deepwater Horizon 
are ignoring the lessons of that disaster.
    I will commit to routing out inefficiencies in making the 
permitting as straightforward, predictable and understandable 
for the industry as possible, but not at the expense of safety.
    When coupled with increasing hiring and training of 
engineers, scientists, inspectors and other personnel, these 
efforts will further enhance the permitting process and improve 
safe and responsible operations on the OCS.

                           PREPARED STATEMENT

    We've made a tremendous amount of progress since our 
formation. In my written testimony, I've provided a number of 
examples of how we spent the time focused on hiring new 
personnel, enacting safety reforms, improving our permitting 
process, and completing the reorganization of the Minerals 
Management Service.
    Thanks again for this opportunity to testify. I look 
forward to answering your questions.
    [The statement follows:]

                   Prepared Statement of James Watson

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear here today to discuss the President's fiscal year 
2013 budget request for the Bureau of Safety and Environmental 
Enforcement (BSEE) in the Department of the Interior (DOI).
    BSEE has an enormously critical mission--providing safety and 
environmental oversight of offshore oil and gas operations on the Outer 
Continental Shelf (OCS). More fundamentally, however, our mission is to 
restore the confidence of the American people that offshore operations 
can be carried out without the tragic human and ecological costs that 
were borne by the people of the Gulf of Mexico region nearly 2 years 
ago.
    The budget request for BSEE strengthens and advances the reform 
efforts begun in the aftermath of the Deepwater Horizon tragedy. This 
request advances the President's vision of maintaining and expanding 
responsible oil and gas production on our OCS as part of an all-of-the-
above approach to addressing our Nation's energy challenges, while 
providing the funding necessary to be the world leader in offshore 
safety and environmental oversight. The resources provided by the 
Congress over the past 2 years have been instrumental in laying the 
foundation and building a framework for a revitalized and enhanced 
offshore regulatory regime. This request continues the development of 
that framework, allowing us to continue the critical tasks that the 
President, the Congress, and the American people have rightly demanded 
of us.
    Let me be clear: the employees of the former Minerals Management 
Service (MMS) were, with isolated yet well-publicized exceptions, an 
extremely committed group of public servants that dedicated their lives 
to their communities and their Nation, often foregoing much higher 
salaries they could have earned in the oil and gas industry. The need 
for reform did not stem from the actions of these dedicated 
professionals. It arose from outdated regulations, an inability to 
match the pace and scope of the offshore industry's growth, and 
leadership that was often forced to focus on one of several 
fundamentally different priorities to the detriment of the others. The 
reorganization of MMS by Secretary Salazar into BSEE, the Bureau of 
Ocean Energy Management (BOEM), and the Office of Natural Resources 
Revenue was designed to address these issues and allow the employees of 
each agency to apply their expertise with clarity of mission. The BSEE 
employees I have met in the past 3 months have made it clear to me that 
they believe in, and are passionate about, our mission, and I am fully 
confident that we have the right core of people in place to start this 
agency off in the right direction.
    Overseeing safety and environmental regulations on the OCS includes 
issuing drilling permits, and managing the orderly development of the 
Nation's offshore oil and gas resources. A great deal of attention has 
been paid to our pace of permitting recently, and I greatly sympathize 
with the people who depend on these permits for jobs. It is in our 
country's interest to have a robust offshore oil and gas industry, and 
I am pleased to see a constant stream of new rigs coming into the gulf 
and an industry becoming increasingly optimistic about both the short 
and long-term outlook for their industry. However, I will not measure 
success for this agency by the rate at which we issue permits. 
Permitting is an essential part of our safety mission: we issue permits 
only when companies have demonstrated that they can conduct their 
proposed operations safely and responsibly. We will not rush permits 
out the door; we will conduct thorough reviews that ensure that the 
applicant is meeting all the enhanced safety standards put in place 
after the Deepwater Horizon explosion and oil spill, and that they can 
respond effectively in the event of a worst case scenario. Those who 
believe that the pace of permitting should automatically be the same as 
before the Deepwater Horizon are ignoring the lessons of that disaster. 
I will commit to rooting out inefficiencies and making the permitting 
process as straightforward and understandable for the industry as 
possible, and these efforts, when coupled with increased hiring and 
training of engineers, scientists, inspectors, and other personnel, may 
very well enhance the permitting process. But our primary 
responsibility is ensuring safe and responsible operations on the OCS.
    In March 2011, the Director of the former Bureau of Ocean Energy 
Management, Regulation and Enforcement came before you to discuss the 
reforms that agency had implemented to address the many safety, 
environmental protection, and regulatory oversight weaknesses 
highlighted in many reviews of the Deepwater Horizon spill, including 
those identified in the final report of the National Commission on the 
BP Deepwater Horizon Oil Spill and Offshore Drilling (Commission). The 
Congress responded by passing the fiscal year 2012 Consolidated and 
Further Continuing Appropriations Act that provided BSEE with new 
resources needed to institutionalize these fundamental reforms and 
implement additional regulatory measures needed to improve the safety 
of offshore drilling, as well as to enhance protection of the ocean and 
coastal environments. I would like to update you on the progress our 
agency has made in the last year.

             <greek-l>bsee deg.RECRUITMENT OF KEY POSITIONS

    Although BSEE began operations as an independent agency only a few 
months ago, the recruitment for key management positions began last 
year after the reorganization effort received congressional support and 
resources. As a result, all key senior management positions have been 
filled. As part of our commitment to provide more comprehensive 
oversight of offshore oil and gas operations, we have increased the 
number of inspectors by 50 percent since April 2010, and the number of 
engineers, who also perform critical safety functions, by nearly 10 
percent. There are still a considerable amount of positions yet to be 
filled, including additional inspectors, engineers, regulatory 
specialists, environmental specialists, and other critical disciplines. 
While recruiting is a time consuming process, we are confident that we 
will continue to show significant strides in building out the new 
organization.

                  <greek-l>bsee deg.REGULATORY CHANGE

    We are continuing to update and enhance Federal regulations and 
ensure compliance through our offshore regulatory programs. We plan to 
update the Interim Drilling Safety rule, which was issued shortly after 
the Deepwater Horizon spill, in the near future to increase regulatory 
clarity while maintaining the same enhanced level of safety. Also, the 
Safety and Environmental Management Systems (SEMS) rule, which was 
finalized in September 2010, will be enhanced with the completion of 
the ``SEMS II'' rule. We are currently addressing comments received on 
the SEMS II proposed rule. We are also reviewing recent recommendations 
from the National Academy of Engineering as we continue to update 
regulations and enhance safety requirements.

                      <greek-l>bsee deg.PERMITTING

    With significant new safeguards designed to reduce the chances of a 
loss of well control, and a new focus on capping and containment 
capabilities in the event that one occurs, the permitting environment 
is completely different now than it was before Deepwater Horizon. 
Comparing the pace of permitting pre- and post-Deepwater Horizon does 
not consider the current reality that applications must now meet a 
suite of new requirements that receive extremely close scrutiny by the 
Bureau's engineers.
    We have worked very hard to help industry better understand the 
requirements and improve the efficiency of the application process. 
Perhaps most significantly, BSEE held permit processing workshops for 
industry, which has improved the quality and thoroughness of 
applications. We published a permit application completeness checklist 
to make it clear to industry what information is required and to reduce 
the frequency with which operators submit incomplete applications. We 
have established priorities for reviewing permit applications--
assigning the highest priority to permits for ongoing operations or 
emergency operations. We have begun to balance workloads for our 
engineers by taking some permit applications and moving them around to 
different districts. We have also allowed authorized users of our 
online permit application system to track the status of their 
applications. This answered the call from many operators for greater 
transparency in our permitting process. As a result of these steps, and 
the industry's increasing familiarity with the process, permit review 
times have decreased significantly in the past year. Rigs that had left 
the Gulf of Mexico are returning, new rigs are being contracted, and we 
are starting to see a small inventory of unused drilling permits 
develop.
    While staying focused on our primary objective--ensuring that 
enhanced safety requirements are met--we plan to continuously monitor 
and improve our permitting processes throughout the upcoming year, to 
give industry increased confidence in the timeliness of the process, 
while rebuilding the American people's confidence that these permitted 
operations can be performed safely and responsibly.
          <greek-l>bsee deg.inspection and compliance program
    BSEE continues to expand its capacity to maintain a robust and fair 
inspection and compliance program. With the additional resources 
provided by the Congress, BSEE has been able to add 28 new inspectors 
in the Gulf of Mexico region since the Deepwater Horizon spill, and we 
are continuing our efforts to hire additional inspectors. BSEE's 
inspectors now witness far more activity on drilling rigs than before 
the Deepwater Horizon explosion and spill, including critical tests of 
blowout preventers (BOP).
    BSEE has also begun to set up its new National Offshore Training 
and Learning Center (NOTLC) and has put two groups of new inspectors 
through a core curriculum in offshore inspections. We are also 
supplying our inspectors with new equipment and tools, including 
handheld computers, to make our inspection process more efficient and 
effective. Both of these initiatives were initiated using the 2010 oil 
spill supplemental funding, but will need base resources to continue. 
Those resources are specifically requested in fiscal year 2013.

              <greek-l>bsee deg.ENVIRONMENTAL ENFORCEMENT

    The Environmental Enforcement program was established as a separate 
division within BSEE to elevate the importance and visibility of the 
program, both internally and externally, to a level on par with safety 
and regulatory compliance.
    This program will ensure compliance with all applicable 
environmental requirements, ensuring that operators keep the promises 
they make at the time they obtain their leases, submit their plans, and 
apply for their permits. The funding requested in fiscal year 2013 will 
support the full build-out of this critical function.

      <greek-l>bsee deg.FISCAL YEAR 2013 BUDGET REQUEST SPECIFICS

    BSEE's fiscal year 2013 request is $222.2 million; an increase of 
$24.8 million more than the fiscal year 2012 enacted level. The request 
is offset by $52.5 million in eligible OCS rental receipts, $8.4 
million in cost-recovery fees, and $65 million in inspection fees, 
resulting in a net request of $96.3 million in direct appropriated 
funds. These additional resources are essential to effectively protect 
our Nation's natural resources as well as to address industry's need 
for an efficient, effective, transparent, and stable regulatory 
environment.
    BSEE's fiscal year 2013 budget fully supports the President's 
``Blueprint for a Secure Energy Future'' by enabling the safe and 
environmentally responsible development of the Nation's vast offshore 
energy resources. Until offshore renewable energy facilities are 
constructed, BSEE will focus its resources on conventional energy 
programs. Funds will be used to recruit expert engineers, scientists, 
and oil spill response specialists to support the development of strong 
scientific information and timely and thorough review of permits. The 
fiscal year 2013 budget request increases funding for operational 
offshore safety, oil spill response initiatives, environmental 
enforcement, and the development of modern electronic systems to 
increase the efficiency and effectiveness of offshore inspection and 
oversight activities.
    The fiscal year 2013 budget includes funding to maintain the gains 
made to date, and proposes the following specific changes:
      Critical Funding Needs for the Environmental Enforcement Division 
        (+$4,177,000; +14 FTE).--BSEE will further develop and manage 
        an expanded environmental oversight role arising out of efforts 
        to reform offshore operations and regulations as recommended by 
        many external national investigative reports.
      Research and Development for Offshore Drilling Safety 
        (+$2,000,000; 0 FTE).--BSEE will utilize this funding to 
        perform additional, and more in-depth, research relating to 
        safety systems and operations such as well cementing, BOP 
        research, methods of shallow gas containment, and well control 
        methods.
      Operational Safety (+$4,495,000; +29 FTE).--Funds will support 
        ongoing reorganization efforts identified as critical to the 
        success of BSEE in strengthening post-Deepwater Horizon 
        regulatory and oversight capabilities. It represents a cross 
        section of staffing for newly identified efforts and increased 
        activities such as development of regulations, safety 
        management, structural and technical support, and oil spill 
        response.
      NOTLC for Inspection Program (+$3,685,000, +11 FTE).--This will 
        provide base funding for the NOTLC. NOTLC supports the BSEE's 
        goals by providing upfront and ongoing learning and development 
        opportunities to BSEE staff.
      e-Inspections for the Enforcement Program (+$2,300,000; 0 FTE).--
        This multi-faceted initiative would allow BSEE to replace the 
        existing outdated paper-based process with a modern electronic 
        system for conducting the inspections mandated by the OCS Lands 
        Act.
      Wellbore Integrity (+$1,395,000; +9 FTE).--The requested funding 
        will provide resources needed for BSEE to meet current 
        requirements to evaluate whether operators have submitted 
        adequate information demonstrating access and deployment 
        capabilities for surface and subsea containment.
      Sustain Administrative Operations (+$5,000,000; 0 FTE).--Funding 
        is needed to sustain the necessary level of support services 
        for both BSEE and BOEM and to adjust the base to provide 
        sufficient administrative services to both bureaus
      Fixed Costs (+$1,772,000; 0 FTE).--This request fully funds 
        increased personnel-related costs and other fixed costs such as 
        rent.
      Inspection Fees (-$3,000,000; 0 FTE).--This request partially 
        offsets programmatic funding increases by increasing industry 
        inspection fee revenue. This is not an increase in the amount 
        of the fees, but rather increased revenue attributable to a 
        full year collection at the current fee levels. The additional 
        revenue will defray the cost of inspection and oversight 
        activities.
      Offsetting Collections (-$1,800,000; 0 FTE).--BSEE anticipates a 
        net increase in offsetting collections including rental 
        receipts and cost recoveries. These collections reduce the need 
        for direct appropriations and offset the cost of programmatic 
        funding increases.
    In addition to its continued focus on operational and environmental 
safety and compliance, the fiscal year 2013 request will further the 
completion of the reorganization of the former MMS and establish a base 
operating level consistent with the recommendations from the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling 
and the National Academy of Engineering's report on the Deepwater 
Horizon tragedy.
    In fiscal year 2012, the Congress made a commitment to offshore 
safety and environmental protection by providing the necessary 
resources to complete our reorganization, hire additional people, and 
provide the necessary oversight to allow for the continued growth of 
offshore energy development while giving the American people confidence 
that their Government is doing everything it can to prevent another 
catastrophe like the Deepwater Horizon. The fiscal year 2013 request 
builds on these efforts by providing necessary training for our 
employees, and the tools to increase the efficiency of our processes 
and operations. As the Nation looks to expanding domestic energy 
development, we must provide the leadership and the expertise to ensure 
offshore oil and gas development operations are conducted in a safe and 
environmentally responsible way. BSEE provides that leadership and 
expertise, and we very much appreciate your commitment to the Bureau's 
mission and success.
    Thank you again for the opportunity to be with you today.

    Senator Reed. Thank you very much, Director Watson. We'll 
initiate 6-minute question rounds to give my colleagues a 
chance to ask questions. I anticipate at least one or two 
rounds. We have a great many questions.

                 <greek-l>BOEM deg.OFFSHORE WIND ENERGY

    Let me begin with Director Beaudreau. By the way, thank 
you, gentlemen, for your excellent testimony. Director 
Beaudreau, you mentioned the accelerating approval of offshore, 
wind in particular, along the Atlantic coast.
    We have made some significant investment both with Federal 
dollars and local dollars in terms of preparing Quonset Point, 
one of our former Navy bases, as a potential site for 
application. We have applications for 9 State projects, in 
State waters, we have an application for a project offshore in 
Federal waters.
    We've also done a lot of planning, especially the area 
management plan, which has drawn nationwide attention as one of 
the best, comprehensive approaches to evaluating offshore 
potential in areas of development. And, again, it's been 
recognized nationally.
    But we seem to be falling behind other States in terms of 
approvals. The next big step for us is to release the draft 
environmental assessment. Can you give us an indication when 
that environmental assessment will be completed?
    Mr. Beaudreau. Yes, Sir. You're absolutely correct about 
the work that the State of Rhode Island has done to promote the 
development of offshore energy. That work will feed and has fed 
directly into BOEM's process in evaluating the wind energy area 
in the shared area between Massachusetts and Rhode Island. What 
we call the area of mutual interest.
    One example is the Special Area Management Plan , which was 
a comprehensive environmental assessment that is relevant to 
our process under the National Environmental Policy Act in 
evaluating the area. That analysis and the good scientific work 
sponsored by the State of Rhode Island will feed directly into 
our environmental assessment, as will all of the work that the 
State task force has done.
    It helped us define what the potential conflicts might be, 
including the Cox's Ledge area which is a particular area of 
sensitivity both environmentally and for fishing interests.
    In light of all of that work, work already done by my 
agency, and work done by the State of Rhode Island, we 
anticipate issuing a draft of the environmental assessment this 
spring, late this spring.
    Senator Reed. One of the reasons I am being critical of 
getting the environmental assessment out, is that it looks like 
August of this year, 2012, is, the time where the final 
environmental assessment will be issued, which would put us 
back on track with some of the other States along the Atlantic 
coast.
    And if that's the case, would allow us to begin a leasing 
process at the end of the calendar year 2012, or early in 2013. 
Again, the fear is if we don't, we just fall behind, and that's 
not just a question of where the towers go in the water. It's 
also a question of the landside operations, where they might be 
situated.
    So I would urge you again to expedite--Secretary Salazar 
has committed to expedite this draft environmental assessment. 
And then with similar speed, finalize the environmental 
assessment so we can begin the leasing process.
    Mr. Beaudreau. Yes, Sir. This is absolutely a high priority 
for the Secretary and for my agency.

                   <greek-l>BSEE deg.INSPECTION FEES

    Senator Reed. Let me just turn to Director Watson. And, I 
do anticipate a second round. Last year we included in, for 
BSEE, the inspection fee program. Can you tell us what 
improvements you're making with these fees? I think Director 
Abbey said it very well in terms of the proposed fees this 
year.
    It makes sense to basically help defray the cost of 
inspections and review to immediately rebound to the benefit of 
the drillers because they're the ones who presumably get 
quicker approvals, better inspections, better protection for 
the environment and less problems down the road.
    So can you comment, Director, about how you have been 
ensuring that these fees are being used well and wisely?
    Mr. Watson. Yes, Sir. The fees are focused on our safety 
program, primarily our field operations and our permitting 
operations.
    The expense of these operations is mostly in the cost of 
our work force. We're increasing the size of that work force at 
a pretty steep rate for a small agency. We have already 
increased the numbers of inspections--inspectors--by a 
significant number.
    We started at about 55, and I think we're up to 91 now. 
We're headed up to more than 100 and into about the 150 range 
that we're going to need for inspectors. And as you increase 
your number of inspections, you also need helicopters to get 
those inspectors offshore which are costly as well.
    And then, turning to the permit side, we are adding almost 
100 engineers. These are people who are plan reviewers for the 
information that's submitted to get a permit. And they are a 
combination of structural engineers, petroleum engineers, and 
some geophysicists and geologists to review those permitting 
applications.
    So we are still challenged to bring those people into the 
work force, but we have an aggressive outreach program. We did 
get some incentives for hiring these people in the fiscal year 
2012 appropriations which will be very valuable. And so, I'm 
optimistic about that program.
    Senator Reed. Just a quick--because my time has expired, 
the initial feedback from the industry is positive in terms of 
the more expeditious permitting process, the better sense of 
the professional skill of the inspections, is that what you're 
sensing?
    Mr. Watson. Well, my experience is the industry is looking 
at the bottom line, how quickly can they get a permit. But they 
are also focused on the competencies of our people. I haven't 
heard any disparaging remarks about our competencies.
    On the permitting side, I think there's been a combination 
of efforts by the industry to provide more comprehensive, 
better-prepared applications than say a year ago. And on the 
BSEE side, I think we're also better at doing these new safety 
standards, at reviewing them.
    And the numbers kind of bear this out. Just between last 
March and September, our average was about 97 days to get a 
permit processed. That was the average. And then between 
September and today, it's gone to 62 days. So it's right around 
2 months right now.
    And I think we can probably make some more improvements. 
But as I said in my opening statement, I'm not about the number 
of days it takes. I'm still about safety and environmental 
protection.
    Senator Reed. Thank you very much.
    Senator Murkowski.

                <greek-l>BLM deg.OIL AND GAS PRODUCTION

    Senator Murkowski. Thank you, Mr. Chairman. Gentlemen, 
thank you for your testimony this morning.
    I want to try to better understand some statistics that are 
out there. Yesterday, the President released his, or he 
discussed the 1-year progress report on energy within the 
administration. He called it his blueprint for secure energy 
future.
    And in that report, he notes that oil production is up 
overall. That's a statement that has certainly been made. He 
doesn't disclose where that increased production comes from. 
Whether it's on Federal lands, private, or State.
    I mentioned in my opening comments, the Department of the 
Interior's own numbers would seem to indicate that onshore oil 
production is down 14 percent from last year, and offshore 
production down 17 percent. And yet, yesterday, when Secretary 
Salazar commented on the President's blueprint, he stated the 
fact of the matter is that we're producing more from public 
lands, both oil and gas, both onshore as well as offshore, than 
any time in recent memory.
    So I'm trying to understand our data here. Because I think 
that this is important. People really do want to understand 
what the situation here is in this country. So I guess we've 
got a situation where either the data from the Department of 
the Interior is wrong, or it has not been communicated 
adequately or appropriately to the Secretary.
    So the question that I have is, who's right here? When you 
peel this back, are we seeing an increased production on 
Federal lands and offshore as well, or not?
    Mr. Abbey. Well, let me take a stab at this, Senator 
Murkowski, and then others may contribute.
    But, no doubt, the statistics would show that the United 
States oil and gas production is up, and last year more oil was 
produced in this country than at any time since 2003, according 
to Dr.----
    Senator Murkowski. And do we, do we dissect that as just 
State, Federal----
    Mr. Abbey. I can.
    Senator Murkowski. Okay.
    Mr. Abbey. And, you know, no doubt the aggressive 
development of shale gas and shale oil has led to a shift to 
private lands in the East and to the South where there are 
fewer amounts of Federal mineral estate in those sections of 
the country.
    As far as natural gas, last year, there was more natural 
gas produced from BLM-managed mineral estate than in decades. 
Oil production was down somewhat last year. But we are moving 
forward again now offering up additional parcels for leasing. 
We're processing more applications for permits to drill than in 
the past several years.
    And so, we should see an increase in production of both oil 
on public lands as well as natural gas. But, again, natural gas 
production was up.
    Senator Murkowski. So it isn't accurate--Right. So, I'll 
grant you that. And I also recognize that--where that natural 
gas production is primarily coming from is on the State and the 
private side.
    But is it an accurate statement then to state that a 14-
percent decrease onshore from last year, and offshore, down 17 
percent for oil?
    Mr. Abbey. Well, again, the statistics will speak for 
itself.
    Senator Murkowski. But this is where the confusion is 
because the statistics are being used to suggest that there is 
this incredible increase in oil and gas production. But we all 
know that oil, you've got oil production, and you've got gas 
production, and we're seeing remarkable, remarkable 
opportunities with natural gas within our shale formations.
    And that's good. I support that absolutely. What I'm trying 
to understand is whether or not our oil production, offshore 
and onshore, is up or down?
    Mr. Abbey. The oil production from onshore, Federal 
minerals, was down last year from previous years. I will say 
this though. Where the industry decides to produce, or where 
they decide to develop, is up to them.
    For example, we have approved 7,000 applications for 
permits to drill that are not being drilled. We have more than 
25 million acres of lands that we've leased that are not being 
developed. So a decision is being made by the market.
    Senator Murkowski. I understand that. And I will, in 
probably my next round here, ask about some of those incentives 
or disincentives that we impose that kind of pushes, those that 
are in the exploration and production realm, to go from Federal 
lands to State lands.
    I want to ask very quickly, and this is to you, Director 
Abbey. I mentioned it to the Secretary last week, a couple 
different times. This relates to the Legacy Well situation in 
Alaska.

                     <greek-l>BLM deg.LEGACY WELLS

    For members of the subcommittee, it's somewhat an 
interesting situation. About 40 years ago, there was 
exploration by the Government, by the Navy primarily, in the 
National Petroleum Reserve, they drilled some 137 different 
wells, looking around, and, then moved on.
    The problem that we face is they moved on without properly 
abandoning and caring for those wells. Now, decades afterwards, 
we're having some of the casings collapse. We've got erosion 
issues coming in. And it's not only unsightly, but it's an 
environmental scar. And it's something that has been difficult 
for Alaskans to accept because on the one hand the standards 
for--the environmental standards are exceptionally high--and I 
think appropriately so.
    We want to make sure that we're taking care of the land 
there. But on the Federal Government's side, they can come in. 
They can explore. They can leave, and their environmental 
responsibility is not attended to.
    If you were on the private side, you would be fined--I 
think the fines that we're talking about could be in the realm 
of $40 million. The revenues that have been received from the 
National Petroleum Reserve-Alaska are certainly sufficient to 
help clean this up, but we're on track for cleaning up these at 
about the rate of 1 per year.
    It's going to take us another 135 years to clean it up 
which is certainly not acceptable. So I asked the Secretary, 
and I would ask you, Director Abbey, whether or not we can get 
a commitment to be coordinating between BLM and the Alaska Oil 
and Gas Conservation Commission to not only provide the 
Commission with an inventory of the exact number, the 
associated costs for plugging them, and then a plan.
    An action plan, so that we can have a reasonable level of 
assurance that we will move forward, that the Government will 
move forward, in keeping their commitment to Alaska and to the 
land up there.
    Mr. Abbey. My response would be similar to what the 
Secretary shared with you. We are committed to working with the 
State of Alaska to identify where the highest-priority needs 
are for cleanup.
    We have spent millions of dollars to date in cleaning up 
some of those legacy wells----
    Senator Murkowski. And they're expensive, we acknowledge, 
yes.
    Mr. Abbey. Very much, very expensive. This year we are--we 
do have sufficient funds to clean up an additional three, but 
as you suggest, and I will admit, that's a pretty slow progress 
toward dealing with the challenge that we face.
    Senator Murkowski. Well, we need to be working on this 
together, so I appreciate that. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski. Senator Tester, 
please.

                <greek-l>BLM deg.OIL AND GAS PRODUCTION

    Senator Tester. Yes, thank you, Mr. Chairman. And, once 
again, thank you all for being here.
    As I mentioned in my opening statement, the number of rigs 
operating in the United States this year is the highest number 
in probably 8 or 10 years. The United States has more rigs 
operating right now, and correct me if I'm wrong, than the rest 
of the world combined.
    Our domestic production is at an all-time high. And, you 
know, maybe the public lands is down some, and I want to get 
into that a little bit. But the fact is, if it's up on State 
and private, we got more rigs operating in the United States 
than the whole rest of the world combined.
    And I talked to a person from eastern Montana today where 
they've got a bunch of permits, and they can't get any rigs 
because they're all tied up. I don't know, you know, I just 
kind of want to get your perspective on all of this because 
there's about 32 million acres of Federal land that's leased 
right now.
    As you pointed out there, I think there's 7,000 
applications, permits to drill, that have been issued, and not 
drilled? Can you give me--give me some insight into why that 
is. Give me some insight into what you're seeing as trends on 
the Federal lands.
    Mr. Abbey. Well, Senator, I'd be happy to. Again, there's a 
lot of factors that come into play relative to a decision that 
would be made by the industry on where they choose to drill.
    As it relates to the number of applications for permits to 
drill, we issued 4,200 last year. That was more than the number 
that were submitted by the industry. We had a little backlog 
from the previous year, and we were able to address some of the 
backlog.
    But we issued 4,200 applications for permits to drill last 
year. At the end of the year, we had more than 7,000 that were 
not being drilled. As I mentioned, there are several factors 
for that. Sometimes, it's financing. Another factor that comes 
into play is that the industry themselves have chosen to drill 
elsewhere where it's more economical.
    But it is a choice that they have to make. It is a choice 
that they make every day. We are moving forward as 
expeditiously as possible to streamline our review processes 
without forsaking the need to insure safety as well as 
environmental diligence on the drilling operations.
    We're increasing our inspections for all drilling. But much 
of the easy plays are located right now on the private mineral 
estate.

              <greek-l>BLM deg.WELL INTEGRITY INSPECTIONS

    Senator Tester. Okay. And this goes to, I think, Senator 
Murkowski's last question, or last point, and that is as we 
push to open up lands in a responsible way, not sacrificing one 
resource for another, we also have to consider things like the 
casing, how it's cemented in.
    And, quite frankly, I hope we're thinking about what 
happens when the wells usefulness is gone. I hope we're 
thinking about that upfront. So, can you give me some sort of 
idea on what the thought process is to make sure that this 
land's being leased responsibly, and that the development is 
being done in a responsible way so that we don't have a bunch 
of wrecks like Senator Murkowski was talking about?

              <greek-l>BLM deg.ONSHORE OIL AND GAS LEASING

    Mr. Abbey. Well, let me start by saying that in 2009, when 
Secretary Salazar and I both came into our new positions, we 
inherited an onshore oil and gas program that was on the verge 
of collapse.
    And I say that because more than 50 percent--or close to 50 
percent of all the parcels that were being offered for lease by 
BLM were being protested or litigated. That's unacceptable. 
There were literally hundreds of leases that had been awarded 
by the Department of the Interior, specifically, BLM, tied up 
in protests and litigation.
    And so the millions of dollars that we had collected from 
the oil and gas companies for their leases that they purchased, 
were placed in suspense accounts until those protests and 
litigation could be resolved. Again, that was unacceptable.
    The rules that were in place to govern the oil and gas 
operations, and to ensure production verification of the oil 
and gas that was being extracted from these public assets, were 
more than 20 years old. Technology had advanced significantly 
in that 20-year period, but no one was paying attention to 
updating those rules.
    We had EPA and other fellow agencies criticizing the 
National Environmental Policy Act (NEPA) analysis that was 
being performed by BLM, primarily as it related to air quality 
documents.
    We had sportsmen, we had other public land stakeholders 
criticizing the leasing everywhere and anywhere mentality that 
was going on at the time, and certainly, very much a part of 
BLM culture.
    Because there were concerns about the environmental damage 
that was being--that was occurring as a result of not doing a 
very good job of looking at these lands before we committed 
those lands through leasing.
    So we took it upon ourselves not to ignore the challenge or 
the problems, but to address them. And one of the ways that we 
have been able to address them is to insure that there is a 
better opportunity to look at these lands prior to committing 
them through leasing.
    And we've done that through our leasing reforms. The 
primary purpose for our leasing reform is to make sure that the 
lands that we are going to be leasing, are the right ones to 
lease, and they have the greatest chance to be developed in a 
timely manner.
    Senator Tester. Did you say that 50 percent of the leases, 
when you took over, were being either litigated or protested? 
Is that what I heard you say in this answer?
    Mr. Abbey. Close to 50 percent----
    Senator Tester. So where are you at, now?
    Mr. Abbey. Close to 50 percent of the parcels that we were 
offering were being protested or litigated.
    Senator Tester. Okay. And what----
    Mr. Abbey. At this point in time, it's around 35 percent.
    Senator Tester. Okay, okay. My time is up. We'll save some 
for the next round. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Tester. This is 
a very, I think, useful line of questioning. Just as Director 
Abbey points out, there are a significant number of leases that 
are capable of being drilled, but not being drilled. Those are 
the decisions of the private entrepreneurs, the companies, 
onshore.

                   <greek-l>BOEM deg.OFFSHORE LEASING

    Offshore, Director Beaudreau, is that the same situation 
where you have a significant number of leases all ready, 
approved, and yet the drilling activities are not commencing?
    Mr. Beaudreau. Ah, yes, that's correct. There's a 
significant percentage of the leases that have been issued by 
the Interior Department offshore that are not currently subject 
to an exploration or development plan.
    And we've tried to develop, both through our leasing 
process and postleasing processes, to try to encourage prompt 
and diligent development of those leases to bring them into 
exploration, bring them into production.
    As Director Abbey indicated, there are a number of 
commercial factors that weigh into industry's decisions about 
when and where to drill. We're trying to line up our leasing 
process and our incentives to influence those decisions so that 
we can have prompt development.
    Senator Reed. Thank you.

                <greek-l>BLM deg.ONSHORE INSPECTION FEES

    Director Abbey, in the President's budget, we've mentioned 
there's a request for additional inspection fees that will be 
comparable to the increases that we've provided to BSEE and the 
Director is using, Director Watson, for improving his program.
    Can you indicate how you can improve your program with 
these fees?
    Mr. Abbey. I'd be happy to. And, thank you for the 
question. As Senator Tester alluded to, it's important that if 
we are going to be leasing these parcels of public lands for 
oil and gas development, that we have sufficient inspections to 
insure that it's being done responsibly.
    You know, we--it is our goal to inspect drilling operations 
that are considered a high risk. And those high-risk operations 
are those with the most violations, but also those that are 
producing the most volumes of gas or oil.
    We test for blow-out preventer equipment, setting and 
cementing casings. We also test for plugging operations and 
well-completion operations. The additional monies that we would 
get from the inspection fee would provide sufficient funds to 
add another 46 inspectors to our work force that would again 
allow us another opportunity, or greater opportunity, to be 
onsite when the drilling is actually taking place.

                 <greek-l>BLM deg.HYDRAULIC FRACTURING

    Senator Reed. One of the other complicating aspects is the 
fact that the new technology, the fracking technology, has 
raised at least issues which are being evaluated by State 
authorities, by other agencies, and it's, I would think, 
something that you are looking at more closely now in terms of 
your inspection program; is that accurate?
    Mr. Abbey. It is. You know, fracking is not new by any 
means. About 90 percent of the wells that are being drilled 
today on public lands are using the fracturing technology.
    So our inspections have always included looking at the 
fracking operations as they were occurring. But again, the 
additional fees would provide us opportunities to be onsite 
more often than where we are right now.

                     <greek-l>BLM deg.ROYALTY RATES

    Senator Reed. The Secretary has also indicated recently his 
intention to raise the onshore royalty rate from 12.5 to 18.75 
percent. Can you tell me how these rates, the present rate and 
the proposed rate, compare to State rates? Because State rates 
is probably the comparable point.
    Mr. Abbey. Well, it varies somewhat. Let me just suggest 
that our primary goal is to make sure that the American 
taxpayer is receiving a fair return for the assets that are 
being developed. That's the least that we can do.
    At the same time, as we go forward we have analyzed what 
some of the States--well, many of the States actually--are 
charging relative to royalty for production that are occurring 
within or around State lands.
    We've also done some analysis of what some of the other 
countries have--are charging relative to royalties or similar 
types of fees that are assessed oil and gas companies.
    Even though our budget was based upon an assumption that an 
increase of royalties would go to 18.75 percent for both oil 
and natural gas, let me just reassure the members of this 
subcommittee that that decision has not been reached.
    We're continuing to look at the full range of statistics 
that we have been able to compile, the analysis that we're 
continuing to perform, prior to making any decision to increase 
the royalties for oil and gas production on these public lands.

            <greek-l>BLM deg.ONSHORE OIL AND GAS PRODUCTION

    Senator Reed. Well, thank you very much. And I know Senator 
Murkowski is going to get into this, and she's raised a very 
important question about the difference between production 
figures on private lands and public lands.
    And I think implicit in all your answers has been just that 
there are commercial reasons why even if the lease is 
available, it's not being utilized. Can you kind of list the 
three or four general, number of rigs? Is there an insufficient 
number of rigs?
    Mr. Abbey. Well, no doubt--Well, I don't have the figures. 
But I do know that the availability of rigs is an equation that 
comes into consideration by the companies relative to where 
they're going to be developing, or drilling.
    Let me just say right up front. It is quite--it is a lot 
cheaper to drill on private land than it is on public lands. 
All they have to do is cut a deal with the private landowner.
    When you come before BLM with a proposal to drill on public 
lands, there are a lot of factors that we evaluate. Again, we 
have to look at the appropriateness of leasing certain parcels 
for oil and gas development or any particular use. We have to 
adhere to NEPA. We have to adhere to consultation not only with 
Native Americans, but with the Fish and Wildlife Service to 
ensure that the proposals that are before us can be adequately 
mitigated.
    So there are an awful lot of rules and regulations that the 
companies would have to adhere to. But each of those rules and 
regulations are intended to make sure that the production goes 
forward to the degree that it can be allowed as appropriate.
    But also the leasing reforms that we have applied are to 
provide greater certainty to the industry themselves that if 
they lease a parcel of land, that they're going to be able to 
develop that parcel of land. And I can tell you in 2009 that 
was not the case.
    Senator Reed. Well, thank you. My time has expired. Senator 
Murkowski, please.

                 <greek-l>BLM deg.ONSHORE ROYALTY RATES

    Senator Murkowski. Well, thank you. And I'll follow on 
because you've given me a little bit of assurance by saying the 
decision has not been made on this issue of increasing the 
royalty rates onshore.
    You have stated, and rightly so, that it is more costly to 
develop on the public lands. And so, as we look to a royalty 
rate increase as has been suggested, that too then adds to that 
cost.
    And again, to my earlier point, I think it causes 
developers to look to develop on State and private lands before 
they would turn to our public lands. I do think it's important 
to recognize the study that was commissioned by the Department 
to look at the royalty rate structures on our Federal lands and 
compare them to other States, as you've noted, to other 
countries.
    There's a consensus coming out of the report that says that 
they--that a rate increase is not warranted. They compare 
Wyoming to other onshore areas and conclude that Wyoming's 
competitive edge is on shaky ground, and Alberta and British 
Columbia are aggressively seeking to attract investment by 
offering incentives for lower royalty rates that encourage 
development.
    So I really hope that the Department is looking very 
critically at your own analysis and working to insure again 
that we are not putting additional hurdles in place for 
development on Federal lands, additional costs on top of the 
costs that are already in place.
    So I am glad to hear you make the statement that it has not 
been--a conclusion has not been reached. Do you have any idea 
when you might make that determination, where you're going with 
that?
    Mr. Abbey. Well, Senator, we really don't--or least, I 
don't, at this point in time. I do know that we had 
conversations as recently as yesterday with the Office and 
Management and Budget regarding proposed rules as it relates to 
royalty increases.
    You know, Wyoming is doing quite well. You cited that in 
this study and said that they're losing their competitive edge.
    Senator Murkowski. Your study, not mine.
    Mr. Abbey. But nonetheless, there are a lot of factors that 
we have taken into consideration relative to what we will 
ultimately propose for any royalty rate increase.
    I will say this to you that the 12.5-percent royalty rate 
that's in place right now for both natural gas and oil has been 
in place for decades. And so, I do think it was prudent that we 
conducted this study. That we are doing the analysis to 
determine what is a fair return to the American taxpayer.

     <greek-l>BSEE deg.OUTER CONTINENTAL SHELF INSPECTION PERSONNEL

    Senator Murkowski. Let me ask about the timeliness of where 
we are with OCS permitting. And I guess I'll bring you into the 
conversation, Director Watson.
    Can you tell us how the Department is doing with respect to 
hiring the additional personnel that you need to conduct the 
inspections and process the permits?
    As I mentioned in my statement, in the last Interior bill, 
we moved forward the new fees to help with this effort, provide 
additional authorities to not only increase the level of 
competition, but really to try to get additional funds for 
those personnel responsibilities.
    Where are we with that? I'm still hearing from folks that 
they feel that the agency is still understaffed, and that is 
causing what they consider to be ongoing delays. Where are we?
    Mr. Watson. We began with about 60 inspectors and a modest 
number of engineers that do the permitting. And we have a 
target that is based on where the industry is projected to go 
in terms of the number of applications that we would expect to 
get, plus all of the new standards that we've implemented and 
the workload that's required.
    And it comes out to you need about a total of 150 
inspectors, and you need about 230 engineers. And so, we are on 
a process of hiring inspectors and engineers. In the area of 
inspectors, we've gone up from about 60 last year to 91 this 
year.
    And on the engineers, we've added about 10 percent. So 
we're needing to add more engineers.
    Senator Murkowski. You've got a long ways to go.
    Mr. Watson. We do have a long way to go in engineers. But, 
as you know, the appropriation just came out in December. It 
was vital that we had some ability to incentivize those 
engineers to work for the U.S. Government instead of for the 
oil companies. They're paid very well by the oil companies 
especially when the price of oil is what it is today.
    So we are in the process of implementing that pay 
incentive. And we also are doing some aggressive outreach to 
connect with new graduates from the engineering schools. We're 
even working with the American Petroleum Institute and other 
industry organizations to assist us with those people that may 
want to work for the Government because of some of the benefits 
and perhaps some of the stability that we can provide that the 
industry typically doesn't.
    So I'm optimistic. It'll take a couple of years for us to 
reach our goal. But I think we will make a big stride this 
year.
    Senator Murkowski. Well, as you all know, the congressional 
intent was that part of these new fees be used to expand the 
capacity so that we could expedite the orderly development of 
offshore there.
    And I do appreciate the timelines and I also recognize that 
we just can't snap our fingers and have these folks in place. 
But I--you will be able to count on me to keep inquiring with 
you on a regular basis to see how we are doing, not only in 
getting the bodies in these positions, but again making sure 
that it's going towards the goal which is a more orderly and 
expedited processing for these OCS permits.
    So it's not only getting the bodies in, but making sure 
that we're seeing greater movement there. My time has expired, 
Mr. Chairman.
    Senator Reed. Thank you very much, Senator Murkowski. 
Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
talk about fracking for a little bit.

                 <greek-l>BLM deg.HYDRAULIC FRACTURING

    A current complaint from the industry is there's too many 
cooks in the kitchen. The Department of Energy (DOE), United 
States Geological Survey (USGS), and the EPA are all in the 
process of studying fracking. I've heard that there's maybe as 
many as 10 agencies that are involved in the process.
    I think the budget gives $13 million to USGS. I think 
there's about $45 million for fracking research in total in the 
different budgets. Duplication is something that I'm always 
worried about. People doing the same work in different 
agencies, and we can get a little better bang for the buck.
    I just want to get your perspective on what's going on with 
the research effort. And is there coordination between agencies 
so that there isn't overlapping research.
    Mr. Abbey. Again, duplication is always a concern for all 
of us, I believe, as we go forward during these lean times. I'm 
aware of two studies that we are assisting with. We're not--
only with data.
    One study by EPA, and then a second study that's being 
conducted by the USGS within the Department of the Interior. 
Our participation, like I said, is fairly limited to providing 
statistics and data that they are then taking into account as 
part of their analysis.
    As it relates to BLM, we are proposing a new rule relative 
to fracking. The components of that rule are based upon three 
primary recommendations. It came to us from the DOE Task Force 
on Fracturing Technology.
    The three components that we're focused on are public 
disclosure of the chemicals that are being used on drilling 
operations on public lands. Many States have such disclosure 
policies in place right now, and we want to make sure that the 
standards that are going to apply to public lands, are similar 
to what's being applied on State lands.
    The second component of our proposed fracking rule will 
address well-bore integrity, to make sure that the casings that 
are being used during the drilling operation are secure. 
They're going to protect groundwater.
    And then the third component is water management, both 
looking at the source of the water that's being used because 
there's a significant amount of water that's used in fracking 
operations in most circumstances. And then, second, what occurs 
with the disposal of that wastewater after a fracking operation 
ceases.
    Making sure that the disposal is consistent with local and 
State law, not Federal law, but local and State law. So those 
are the three components that we've incorporated into our 
proposed rule. We anticipate releasing a draft rule pertaining 
to fracking as early as April.
    Senator Tester. I want to take it one more direction, and 
that is, when I talk to the industry, the industry says, 
fracking is going on so deep that it can't impact the potable 
water up above.
    When I talk to folks, other folks, they're saying that 
their water is being impacted by the fracking. I don't know 
which is the truth. USGS has estimated that some aquifers in 
the Bakken are losing about 1 to 2 feet per year due to 
increased energy production.
    I don't know why that is, if it's because of fracking or 
some other reason. But water's very, very important. And I just 
wondered, can you give me any idea if, number one, the aquifers 
in the Bakken are indeed losing that kind of--that they're 
being diminished by 1 to 2 a year?
    And, second, why is that? And, third, is there something we 
can do about it?
    Mr. Abbey. Well, I would refer you to USGS for the answer 
to your specific question relative to what is causing that 
depletion. I do know that many fracking operations require an 
extensive amount of water. That water has to come from 
somewhere.
    And so energy companies are securing water rights wherever 
they're operating in order to have access to such water so that 
they can continue with the fracking operation. But I would also 
give acknowledgement to the industry for they understand the 
potential impact, and certainly the long-term impacts of 
continuing the operations that are currently taking place with 
the amount of water.
    And they're doing, or at least proposing to do, a better 
job of re-using water. And actually treating water onsite so it 
can be used there on additional or new fracking operations.
    Senator Tester. Well, it is a big issue. I mean, there was 
an amendment on the floor yesterday that I think failed because 
some people didn't want to encourage more fracking. The Bakken 
play is because we have the ability to frack. We're getting 
natural gas because we have the ability to frack. We like to 
see it done.
    But by the same token, 10 years from now, we don't want to 
look back and say, ``Oh, my God! What have we done?'' So I 
would hope that the research that's being done is being done in 
a coordinated fashion and very timely.

                     <greek-l>BLM deg.WELL CLOSURE

    I want to talk about well closure for BLM wells, for wells 
on BLM land. Could you compare the procedure to what happens on 
state or private lands in a State like Montana when it comes to 
well closure?
    Mr. Abbey. Well, again, we take plugging and abandonment 
quite seriously because it's the last time we actually have an 
opportunity to look down the hole before the cement is placed.
    And so, we give that one of the highest priorities as part 
of our inspection program--is that when there is going to be a 
well that's going to be closed and abandoned--that we have our 
inspectors out there almost 100 percent of the time to make 
sure that the process is completed based upon the engineering 
that had gone into that design and approval process.
    Senator Tester. Is that the--can you give me any idea--you 
may not have knowledge--what goes on the State or private lands 
as far as well closure?
    Mr. Abbey. I really don't. I do know that there should be 
some similarities, but some States do a better job of 
prioritizing inspections than others. I won't cite any examples 
relative to who does that better than others, but nonetheless, 
you know, we are responsible for managing these wells on 
Federal lands, and that's where our focus is right now.
    Senator Tester. All right. Thank you very much.
    Senator Reed. Thank you, Senator Tester. I have a few more 
questions and I will then obviously recognize my colleagues for 
their additional questions.

               <greek-l>BOEM deg.OFFSHORE LEASE AUCTIONS

    Mr. Beaudreau, I understand that you're going to use a new 
auction process format for offshore wind, alternate energy, 
unlike what you do for oil and gas in the gulf, for example.
    And it raises a question of why the different auction 
procedures, first question. Second, we've got to get that 
information out to potential applicants in a very expeditious 
way otherwise they might not be prepared when the auction 
occurs.
    And, frankly, they also, deserve the opportunity of, 
evaluating, and commenting on the procedures to insure that 
they are fair to all potential parties.
    So, could you comment on the reason for the new procedures 
and also commit to getting the proposal out quickly so that 
relevant parties can participate?
    Mr. Beaudreau. Yes, the reason for the new procedures is 
that, strictly speaking, offshore wind energy development is 
fundamentally different than oil and gas. You have a finite 
area that is being made available. You want to make sure that 
you get as much efficiency out of that area as possible.
    Unlike oil and gas where you purchase a parcel. You assume 
the risk for the parcel. You drill a well. If it's a dry well, 
you go someplace else. Here, we have a number of interested 
companies. We have a number of interests that we need to take 
into account in considering how to lease the finite area.
    That includes the efficiency of their project. The 
likelihood that this particular operator can actually bring a 
viable project online, and the best configuration of multiple 
projects within the limited area.
    And so that creates a little bit more complex process. That 
said, we are very actively evaluating alternatives for this 
leasing process with the idea of, while addressing those 
multiple factors that distinguish it from oil and gas, keeping 
it as simple as possible.
    And there's a number of reasons for that. We have gone 
through an extensive process to make this area available. We 
want to encourage the development of offshore wind, and so we 
want to keep our auction process as simple as possible, while 
at the same time, getting the area into the hands of operators 
who will be able to stand up real projects.
    With respect to the auction process and familiarity among 
operators with that process, you're absolutely right. That is 
essential. We put out a description, an auction format 
information request last fall, and had a comment period 
provided to operators and got a lot of useful feedback from 
operators about the different factors and alternatives we could 
employ in the auction format.
    And so we've been extensively engaged with operators 
through that process. And we are planning into the run-up to 
lease sales, coordination with operators, to make sure they 
understand exactly how a lease process will unfold, exactly 
what would be expected of them, because we want an efficient 
lease sale.
    And we want it to work, and we want it to work right out of 
the box.
    Senator Reed. Do you have an idea of when you will be 
prepared to sort of publish a final, or at least final for 
comment, proposal?
    Mr. Beaudreau. Yes. We've done all of the comment and so 
now we're working on finalizing what the auction format will 
be.
    You know, each auction will have to be tailored a little 
bit to the region, but we hope to have all of that in place for 
competitive leasing later this year.

               <greek-l>BOEM deg.OFFSHORE WIND INSPECTION

    Senator Reed. Very good. Now, assuming you've got turbines 
and transmission lines operating in the water, will BOEM 
employees conduct the on-site inspections? Or, will BSEE step 
in and take over?
    Mr. Beaudreau. Yes. So in the near term, part of what we're 
trying to do with the additional funding that we've received is 
hire structural engineers who can help us evaluate construction 
and operation plans which is a key component down the road to 
getting steel in the water.
    Eventually, when those operations are up, steel is in the 
water, BSEE will have a role in conducting safety inspections 
and compliance with respect to those operations.
    Senator Reed. Director Watson, you're collaborating right 
now for the hand off, I presume?
    Mr. Watson. Yes, Sir. The two Bureaus were just recently 
created, but we have a lot of inter-dependencies, and there's 
still evolution going on. I think right now our priority is 
with the oil and gas safety and establishing our environmental 
enforcement division.
    But we'll be ready when the time comes to take on the wind 
work.
    Senator Reed. Just a final question. You know, you don't 
have the same dangers that we saw with the oil rig exploding, 
et cetera, but you have the problems of hurricane damage, et 
cetera.
    Have we clearly set out the responsibility for the 
leaseholders in terms of their obligation to repair and to 
remediate? You know, there's no oil fund for this process, I 
presume.
    Mr. Beaudreau. No, that's right. And there are other 
mitigation factors around the impacts on avian resources, 
marine mammals. That is why we're doing these environmental 
analyses so we can develop mitigation measures and requirements 
to ensure that, one, the operations go up that can provide 
energy from renewable sources, but, two, we're managing the 
potential impacts.
    Senator Reed. Thank you very much. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I want to add a 
couple more questions to the inquiry from Senator Tester on 
fracking.

                 <greek-l>BLM deg.HYDRAULIC FRACTURING

    One of the concerns that I'm hearing from folks is that the 
concern that these will be overlapping or duplicative 
regulations that are coming out of BLM on top of what they 
already face within the States.
    Can you speak to that as an issue? Give me some assurance 
there that we're not just adding on additional, Federal 
regulations, on top of what the States are doing, and how you 
will work to eliminate any such redundancy?
    Mr. Abbey. Again, as I mentioned earlier, there's going to 
be three components of our fracking rule: disclosure of 
chemicals, well-bore integrity, and water management.
    The similarities that exist would be in the disclosure of 
chemicals. Many States now are requiring----
    Senator Murkowski. Right.
    Mr. Abbey [continuing]. As part of fracking operations, for 
the companies to disclose what chemicals are being used as part 
of their operations.
    We will be requiring that, but we also hope----
    Senator Murkowski. Will that information be shared 
publicly, or will there be provisions that will allow for 
protecting any trade secrets that might exist?
    Mr. Abbey. The information would be available publicly 
unless there's some rationale and justification that the 
companies would provide us to keep that trade secret from being 
made public.
    Senator Murkowski. So that would be considered on a case-
by-case basis?
    Mr. Abbey. It would be considered on a case-by-case, and we 
have a process already in place to make that type of 
determination.
    Senator Murkowski. Okay. All right. Let me ask about 
onshore inspection fees.

                <greek-l>BLM deg.ONSHORE INSPECTION FEES

    Currently, BLM collects more than $32 million for the 
processing of the APDs, and this fiscal year 2013 budget 
proposes new authority to collect an additional inspection fee 
that apparently totals $48 million.
    How did you establish these fees? Are they based on actual 
inspection costs? Where did they come from?
    Mr. Abbey. Basically, they are based on actual costs, or 
what our estimates of actual costs would be. The fee itself 
would be implemented in accordance with the number of wells 
that are on a particular lease.
    And, for example, if there's a lessee with a lot of wells 
on that particular lease, they would pay more inspection fees 
than a smaller operator would.
    Senator Murkowski. So, has there been any assessment on the 
impact to small businesses that may be on the Federal lands? 
When we're talking offshore, we don't worry about that because 
you don't have any very small operators there.
    But, has there been any kind of an assessment there that 
looks at what the impact may be on those smaller businesses?
    Mr. Abbey. We have done that analysis and that assessment 
and, you know, quite frankly though, the highest risk we have 
sometimes are with smaller operators. They just do not have the 
capital to do everything that's required to ensure 
environmental protections for the drilling that's occurring or 
the production that's occurring.
    So there's a necessity for us to get out there on the site 
to make sure that those operators are complying with all the 
laws and rules of governing their operations. So we can't 
ignore them. But we have taken into account--or taken into our 
analysis the economic effects or impacts to operators.
    Senator Murkowski. As you have done the analysis, have you 
looked at kind of the cumulative impact of these additional 
fees that we're talking about? You've got the existing APD 
fees. You're talking about new inspection fees, increasing 
royalty rates, perhaps.
    Are you concerned that what might result is lower bonus 
bids coming out, less production on Federal lands, which then 
results in less revenue to the Treasury? Has that been factored 
into the analysis as well?
    Mr. Abbey. It is. And we understand the cumulative effects 
on the industry itself based upon everything that we are doing 
to ensure environmentally responsible drilling on these lands.
    And to make sure that we're making appropriate parcels of 
public lands available for such extraction. Well, that is a 
factor that we've also taken into account as we review the 
royalty rate options before us.
    We are looking at the cumulative effects--that all the 
other actions that we're also taking have on the industry.
    Senator Murkowski. Okay. Got one more question, Mr. 
Chairman. This is it for me.

<greek-l>BLM deg.BUREAU OF LAND MANAGEMENT/OFFICE OF SURFACE MANAGEMENT 
                                 MERGER

    But, the Department yesterday had announced its analysis of 
this merger, the proposed merger between the OSM and BLM. It 
generated a fair amount of discussion and controversy within 
the Energy Committee when that was announced.
    I do appreciate what the Department of the Interior has 
done to avoid the violation of the statutory responsibilities 
under the Surface Mining Control and Reclamation Act, but the 
analysis, as I understand it, fails to quantify how this merger 
is actually going to generate any savings or efficiencies.
    And we had asked for an assessment of the costs and the 
benefits of the proposal. But, from what I can tell, the 
Department has failed to include any of that. I am of the mind 
that the Interior Department needs to go back and actually 
calculate whether the consolidation of administrative functions 
is really worth pursuing.
    I know that you have been involved in this probably more so 
than most others out there. What can you tell us about this new 
proposal versus what was originally laid out there, and about 
the fact that we haven't been able to demonstrate that we're 
going to see any cost savings here?
    Mr. Abbey. Well, again, I think the jury is out relative to 
how much cost savings there actually will be. But----
    Senator Murkowski. You do agree that it is's an important 
part of what this was all about?
    Mr. Abbey. It is. But we also believe that there will be 
efficiencies gained based upon the actions that the Secretary 
approved yesterday. And by that, and what you read, is that BLM 
will be providing administrative support to OSM.
    Where they were required to hire similar skills in 
positions that we already had in place right now, they would no 
longer need those type of positions because those services 
would be provided by the BLM.
    Some of the revenue collections functions would then be 
transferred to the Office of Natural Resource Revenue (ONRR). 
Again, gaining some efficiencies relative to the savings of 
positions. But the OSM would remain an independent entity 
within the Department of the Interior performing their mandated 
functions.
    All we are trying to achieve are some administrative 
efficiencies, some cost savings, and to allow the OSM to focus 
their limited dollars on the important work that they do 
perform on behalf of this Nation.
    Senator Murkowski. So, are you suggesting then that the 
cost benefit analysis will still be coming to us? That, in 
fact, there is an ongoing assessment in terms of what cost 
savings might be achieved that we might be able to learn that 
later?
    Mr. Abbey. No, that's not what I'm implying. Basically, 
what I'm saying is that we're going to learn how much 
efficiencies there are, or cost savings there are, as we go 
forward and implement the actions that were approved.
    Senator Murkowski. Well, I'm leaving here to go to another 
Appropriations subcommittee where I'm going to be inquiring 
with the Secretary of the Air Force about where they're going 
to achieve certain cost savings, and they're kind of going into 
the same thing.
    Well, we'll see if we get the cost savings that we're 
hoping for. My argument to them was, you made that argument to 
me in 2005 with the Base Realignment and Closure round. We 
didn't achieve the cost savings. Now, you're going back and 
you're doing the exact same thing.
    So count me a bit as a skeptic if we're waiting to see 
whether there's any efficiencies that are gained. I think you 
know that there's a lot of consternation about this specific 
merger. So I would hope that we would be focusing on how we see 
those savings, how we gain those efficiencies.
    Mr. Abbey. Again, I think that there will be some savings. 
I just could not give you the exact amount of savings at this 
point in time.
    There will be fewer people that would be employed. The 
systems would be consistent, or at least the systems that we 
would have in place in BLM, that would allow us to provide the 
support that OSM would require, are already in place. So it 
wouldn't require us to do much adjustment or to increase that 
type of capacity.
    And, again, we would be benchmarking against what OSM is 
currently doing and improving our own performance and 
operations within the BLM.
    Senator Murkowski. Mr. Chairman, thank you.
    Senator Reed. Thank you, Senator Murkowski.
    Senator Murkowski. And thank you, gentlemen, for your 
testimony.
    Senator Reed. Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. Just a very 
quick follow up on what Senator Murkowski was talking about.
    You said there were going to be fewer people. Is there 
duplication that will be eliminated?
    Mr. Abbey. There is. I mean, that's why there will be less 
people because there will be duplication eliminated.
    Senator Tester. Okay. And will there be a higher level of 
accountability at least for us in order to know who to look at 
it, where the buck stops?
    Mr. Abbey. Yeah. You have my telephone number relative to 
the support function----
    Senator Tester. Well, I mean, part of the problem that I 
find is when it comes to accountability, I'm not talking about 
your agency, necessarily, is that there is duplication in work 
being done. And when it comes to a problem, when it arises, 
that there's--well, too many cooks in the kitchen.
    So you can't nail anybody down. Would this, from your 
perspective, would this help with accountability?
    Mr. Abbey. I do. Again, there's a lot of opportunities for 
us to improve our performance.
    Senator Tester. Okay.
    Mr. Abbey. In these lean times that we're all in, we need 
to be looking at every opportunity that we have to improve our 
performance, to create the efficiencies that the American 
taxpayers are demanding, and to reduce costs, because there are 
no new dollars coming our way.
    Senator Tester. All right. Thank you. That was just brought 
up. I'm glad Senator Murkowski brought it up because I think 
ultimately in the end, I think money is important but for us, I 
think what's equally--well, it is equally important in my 
opinion is--if something goes upside down and there's more than 
one agency dealing with it, people slip through the cracks.

            <greek-l>BLM deg.ONSHORE RENEWABLE ENERGY LEASES

    But that's not what I want to talk about. In your budget 
this year, $73 million was permitted to construct renewable 
energy projects on public lands. The agency has a goal of 
10,000 megawatts at the end of the year.
    The Department has recently sent out a request for 
information on proposing competitive leasing on public lands 
for renewable energy. It's a proposal similar to a bill that 
Senator Risch and I have, S. 1775, which directs the agency to 
pilot competitive leasing for renewable energy on public lands.
    BLM's request is a bit different, for information, it's a 
bit different? It does not include revenue sharing for states 
or communities or ecosystems which are most impacted by the 
development and has minimal sideboards for mitigation or 
avoidance of natural resource damage, and it doesn't return 
funding to streamline the process, as S. 1775 does.
    I believe it's because the BLM does not have the authority 
to do so today. I am optimistic to see the agency moving 
forward, but leasing is only a part of the equation. I would 
like to have you expand on how your agency plans to address the 
broader issue of impacts to communities, natural resources, if 
the permitting is expanded.
    Mr. Abbey. Well, first and foremost, we're quite intrigued 
by your legislation. Not only encouraging competitive process, 
but also, potentially, the return of some of the revenues back 
to mitigate for the impacts associated with such development.
    So we look forward to working with you, Senator, and others 
in this Congress to pass common sense legislation that would 
allow us to meet our common goals.
    As we go forward with greater emphasis on renewable energy 
development in using public lands to achieve that goal, we are 
quite confident that by calendar year 2013 we will have 
approved 11,000 megawatts of renewable energy generated from 
public lands.
    That would include wind, solar and geothermal, primarily. 
We are also moving forward expeditiously through our land use 
planning process and our NEPA process to actually designate--in 
the case of solar, solar energy development zones, where we 
would steer development, do our best to steer development to 
areas that have already been screened, analyzed, and cleared 
for such development.
    We would be proposing to do something similar for wind in 
the very, very near future, so that we could steer development 
to the best places where that development could go forward and 
actually achieve our mutual goal of diversifying the Nation's 
energy portfolio.
    At the same time, we understand that these are large-scale 
projects. They're large foot prints on these public lands. 
Therefore, we need to make sure that there is appropriate 
mitigation to offset the lands that are being dedicated for 
that particular type of use.
    We will work very closely with the communities. We are 
working very closely with all public land stakeholders, with 
the industry itself, as well as environmental groups, to come 
up with an appropriate mitigation for such a large-scale 
commercial development. And I think we're seeing some 
successes.

                <greek-l>BLM deg.GEOTHERMAL DEVELOPMENT

    Senator Tester. That's good. I want to flesh out geothermal 
a little bit as long as you brought it up.
    Mr. Abbey. You bet.
    Senator Tester. I think it's an incredible opportunity to 
provide baseload power. It is very costly at this point in 
time.
    Senator Murkowski and I have a bill which would expand our 
knowledge about geothermal energy and its potential.
    Can you speak specifically, you touched on it, but 
specifically on your efforts to expand geothermal production 
and the barriers that you're facing at this point in time to 
deploying this technology?
    Mr. Abbey. Well, quite honestly, the footprint associated 
with geothermal is a lot less than with wind and solar. It also 
has probably the highest potential for future development than 
probably solar or wind as it relates to the amount of public 
lands that would be dedicated or made available for that type 
of particular use.
    We're very optimistic about the future of geothermal. You 
know, the prices are not necessarily competitive when you're 
looking or competing against coal and some of the other 
conventional energy sources at this point in time. But we do 
believe that geothermal will be a major part of our Nation's 
energy portfolio in the years to come.
    Senator Tester. Are you facing any barriers at this point 
in time other than money?
    Mr. Abbey. No, we're not.
    Senator Tester. Okay. Well, thank you, Mr. Chairman. I 
think a three-member committee with a three-member board, this 
works out pretty damn nice. So thank you all very much for your 
time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. Thank you, Senator Tester. I want to thank 
the witnesses for their excellent testimony and for your 
skillful leadership of your agencies. I also want to thank my 
colleagues for what I concur with Senator Tester was a very 
productive and very thoughtful hearing.
    There may be additional questions. I would ask all of my 
colleagues to submit them within 1 week, by March 21, and for 
you gentlemen to respond as quickly as possible to any written 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Bureaus for response subsequent to the 
hearing:]

                 Questions Submitted to Robert V. Abbey
            Questions Submitted by Senator Dianne Feinstein

       <greek-l>blm deg.NATIONAL ENVIRONMENTAL POLICY ACT REVIEWS

    Question. Bureau of Land Management (BLM) is now just completing 
work on the Solar Programmatic Environmental Impact Statement, which 
has been a 4-year effort to categorize Federal land into Solar Energy 
Zones (SEZs) where solar development is encouraged, areas off limits to 
solar development, and areas where solar development will be allowed 
only in situations where a variance is awarded.
    In theory, this process was supposed to identify zones of BLM land 
where solar development is appropriate and the permitting process can 
be done expeditiously.
    However, I am concerned that the benefits of this process are still 
unclear.
    First, I don't understand how it will expedite permitting. BLM has 
not conducted comprehensive field studies of the SEZs, so solar 
development proposed within the zones will still be subject to a multi-
year period of field studies, consultation with Fish and Wildlife 
Service (FWS), substantial species mitigation expenses, and likely 
another full EIS.
    Second, BLM has already permitting numerous projects in the only 
large zone in California, known as Riverside East, and experts suggest 
that the transmission capacity to this zone will be used up by the 
projects already permitted and further development in this area is 
unlikely.
    What incentives does BLM propose that will ensure that development 
of solar power on public lands in California is centered on these 
zones?
    Answer. The Supplement to the Draft Solar Programmatic Environment 
Impact Statement (EIS) describes in detail proposed incentives for 
developers to site new projects in SEZs--including greater certainty of 
applications being approved and shorter permitting times. This will be 
further refined in the final EIS.
    BLM has taken a number of important steps through the Supplement to 
the Draft Solar Programmatic EIS to facilitate future development in 
SEZs in a streamlined and standardized manner. Utility-scale solar 
energy development projects proposed in SEZs will be required to comply 
with National Environmental Policy Act (NEPA) and other applicable 
laws, including, but not limited to the Endangered Species Act and the 
National Historic Preservation Act, and applicable regulations and 
policies. Nonetheless, much of the environmental analysis completed for 
the Supplement to the Draft Solar Programmatic EIS will benefit future 
development in SEZs by minimizing the level of detailed analyses 
required for individual projects. In addition to this work, under the 
Supplement to the Draft Solar Programmatic EIS BLM is proposing to 
undertake a variety of additional activities that could help steer 
future utility-scale solar development to the SEZs. For example, these 
include faster and easier permitting in SEZs; improvement of mitigation 
processes; facilitation of the permitting of needed transmission to 
SEZs; encouragement of solar development on appropriate non-Federal 
lands; and economic incentives for development in SEZs. For further 
details please see the Supplement to the Draft Solar Programmatic EIS, 
section 2.2.2.2.3 incentives for Projects in SEZs at: http://
solareis.anl.gov/documents/sup/Supplement_to_the_Draft_Solar_PEIS.pdf.

             <greek-l>blm deg.WEST MOJAVE SOLAR ENERGY ZONE

    Question. The Conference Report to the fiscal year 2012 Interior, 
Environment, and related agencies appropriations bill states: ``. . . 
the Secretary is instructed to complete a report evaluating the 
possible Solar Energy Study Areas in the West Mojave that respect 
designated off-road vehicle routes and provide the report to the 
Committee on Appropriations within ninety days of enactment of this 
Act.''
    What is the status of this report?
    Answer. BLM's California State Office is currently reviewing a 
draft report that includes a summary of BLM's approach and progress in 
the evaluation of solar energy development in the West Mojave. This 
evaluation is part of the Desert Renewable Energy Conservation Plan 
(DRECP). BLM is evaluating off-highway vehicle (OHV) access and other 
recreational resources as part of the environmental analysis. 
Recreation and OHV specialists at the BLM State offices, districts, and 
field offices are involved in this analysis. Some of the alternatives 
will include potential energy development impacts to OHV Open areas and 
to designated trails in the West Mojave. BLM is aware of the importance 
of access to multiple-use areas on public lands and is working with its 
Federal, State, and local partners to maintain multiple uses within the 
DRECP planning area.
    When does BLM intend to create a SEZ in the West Mojave to 
encourage development in this area of lower ecological value?
    Answer. Planning and analysis of renewable energy development in 
the West Mojave is currently underway. Draft environmental documents 
are expected to be released for public review in mid-September 2012. 
The final documents are expected to be released in mid-March 2013, and 
BLM anticipates making a final decision on the plan in late May 2013.
    DRECP is the largest landscape planning effort in California, 
covering approximately 22.5 million acres of Federal and non-Federal 
land in the Mojave and Colorado (Sonoran) deserts of southern 
California. Solar, wind, and transmission development are all under 
consideration for the West Mojave in the DRECP. Alternatives will 
consider different configurations of development in the West Mojave on 
both Federal and non-Federal land. One possible outcome of the DRECP 
could be the designation of an additional SEZ in the West Mojave.

                  <greek-l>blm deg.PRIORITY PERMITTING

    Question. When this administration took office in 2009, more than 
200 applications had been filed to develop renewable energy projects on 
BLM land in California, but no projects had been permitting, and only 
two were under formal NEPA review. Objectively speaking, the process 
for permitting was fundamentally broken.
    Over the past 3 years, this administration has fixed a broken 
system. BLM now creates a list of 8 to 12 ``priority projects'' each 
year on which to focus its work. The projects on this list propose to 
develop less environmentally sensitive lands in a manner less likely to 
end up in court, and have developers who have done the necessary work 
lining up transmission agreements, power purchase agreements and 
conducting field studies to be considered, for lack of a better term, 
``ready to go.''
    Bottom line: BLM has prioritized the permitting of the best 
projects, and it has been able to permit many good projects 
expeditiously as a result. The proof is in the pudding. Very few of the 
projects in California permitted through the priority list process have 
been challenged in Court. (Brightsource's Ivanpaw, arguably the most 
controversial project permitted by BLM, was one of the two projects 
already under formal NEPA review when Obama took office.)
    BLM is now just completing work on the Solar Programmatic 
Environmental Impact Statement, which attempts to categorize Federal 
land into SEZs where solar development is encouraged, areas off limits 
to solar development, and areas where solar development will be allows 
only in situations where a variance is awarded.
    How does BLM plan to integrate its highly successful ``priority 
projects'' approach to permitting with this new approach?
    Answer. Over the past 3 years, BLM has implemented a program to 
prioritize the processing of renewable energy applications. These 
priority lists were developed in collaboration with FWS, the National 
Park Service (NPS), and the Bureau of Indian Affairs with an emphasis 
on early consultation. The screening criteria for priority solar and 
wind projects, developed through BLM policy memoranda issued in 
February 2011, assisted in evaluating and screening these utility-scale 
projects on BLM-managed lands. The process of screening for projects is 
about focusing resources on the most-promising renewable-energy 
projects. One of the likely outcomes of the Supplement to the Draft 
Solar Programmatic EIS is that some SEZs would be established. Projects 
located within the SEZs would be given priority for processing, all 
other factors being equal, over projects outside these zones. However, 
even if SEZs are established, there will almost certainly be legitimate 
reasons for developing certain projects outside of these zones, and BLM 
will work to ensure that permitting timelines are reasonable for all 
meritorious projects. As described in the Supplement to the Draft Solar 
Programmatic EIS (Appendix A, Section A.2.1.1), BLM will develop and 
incorporate into its Solar Energy Program an adaptive management and 
monitoring plan to ensure that data and lessons learned about the 
impacts of solar energy projects will be collected, reviewed, and, as 
appropriate, incorporated into BLM's Solar Energy Program in the 
future.

              <greek-l>blm deg.DEPARTMENT OF DEFENSE LAND

    Question. A recent study by the Defense Department (DOD) found that 
four military bases in California could produce 7,000 MW of solar power 
on marginal base lands. The lands cannot be used for training and have 
little ecological value. However, some of these base lands were 
``withdrawn'' long ago. I understand that BLM and the Interior 
Department continue to assert that these lands should be returned to 
BLM management if they are developed for solar, even though these lands 
are often surrounded on all sides by the base. Realistically, I think 
Interior's position will prevent the DOD from opening its bases to 
solar development if it means giving up control of lands in the middle 
of military bases.
    Will BLM agree to work with the DOD to settle, within 3 months, its 
legal dispute with regard to management of withdrawn lands developed 
for solar energy?
    Answer. While the development of renewable energy on the public 
lands is a national priority, providing opportunities for renewable 
energy development on DOD lands (including BLM withdrawn lands), is 
also important. We have established a collaborative process with the 
DOD to address renewable energy development opportunities on BLM-
withdrawn land. The Department of the Interior (DOI) and DOD in April 
2011 formed an Interagency Land Use Coordinating Committee (ILUCC) to 
help facilitate that dialogue. The Committee is co-chaired by DOI 
Deputy Assistant Secretary Sylvia Baca and DOD Assistant Deputy Under 
Secretary John Conger. The ILUCC members include not only BLM, but also 
FWS, NPS, Office of the Solicitor, and the individual DOD services. 
Several subgroups have been formed under the ILUCC to address various 
areas of collaboration, including a subgroup that is focused on 
resolving authorities for the siting and permitting of renewable energy 
projects on BLM withdrawn lands.

  <greek-l>blm deg.BUREAU OF LAND MANAGEMENT SOLAR SUPPLEMENTAL DRAFT 
              PROGRAMMATIC ENVIRONMENTAL IMPACT STATEMENT

    Question. Director Abbey, last October BLM issued its Draft 
Supplemental Solar Programmatic Environmental Impact Statement (PEIS), 
which includes large amounts of ``variance'' lands outside the solar 
zones. It is my understanding that while applicants are strongly 
encouraged to pursue projects within the identified solar zones, BLM 
will consider permitting development in these ``variance'' areas. While 
some flexibility to consider lands beyond the zones may be necessary, I 
find it highly problematic that an estimated 50,000 acres of land that 
were donated or purchased with Land and Water Conservation Fund dollars 
have been included in the variance lands. Given that these lands were 
intended to be preserved in perpetuity, I do not believe they should be 
open for development. Can you tell me what is the process by which BLM 
will consider and grant permission for solar projects to be constructed 
on ``variance'' lands?
    Answer. The process for considering solar projects on ``variance'' 
lands has been delineated in the Supplement to the Draft Solar 
Programmatic EIS in detail. However, no final decision has been made. 
In addition, there might be market, technological, or site-specific 
factors that make a project appropriate in a non-SEZ area. BLM will 
consider variance applications on a case-by-case basis, based on 
environmental considerations; consultation with appropriate Federal, 
State, and local agencies, and tribes; and public outreach. If BLM 
determines a variance application to be appropriate for continued 
processing, BLM will require the applicant to comply with NEPA and all 
other applicable laws, regulations, and policies at the applicant's 
expense. Applicants applying for a variance must assume all risk 
associated with their application and understand that their financial 
commitments in connection with their applications will not be a 
determining factor in BLM's evaluation process.
    Why have donated and LWCF-acquired lands been included among the 
``variance'' lands and what steps are being taken to avoid their 
development?
    Answer. Comments received on the Supplement to the Draft Solar 
Programmatic EIS have requested that donated and LWCF-acquired lands be 
identified as exclusion areas for utility-scale solar energy 
development. BLM is currently considering this request. However, no 
decision has been made yet. We would be pleased to brief members of 
your staff if you so desire.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. Director Abbey, thank you as well for taking time to 
appear. While reading your testimony, I was most interested in what 
steps you take to increase the percentage of leased onshore lands which 
are currently producing. We have 38 million onshore acres leased, which 
is a slight decrease from the previous year, when 41 million acres were 
leased. On these 38 million acres, only 32 percent, by your estimate, 
are currently producing.
    What is the prime deterrent to production on Federal onshore lands? 
It certainly is not a shortage of companies able to do the work. In 
fact, production on private lands has increased drastically--enough to 
cover the 15 million barrel shortfall from 2010 to 2011. In your 
opinion, what is holding back the huge amount of companies who want to 
work onshore from doing so on Federal lands?
    Answer. The Bureau of Land Management (BLM) strives to achieve a 
balance between oil and gas production and protection of the 
environment. Facilitating the efficient, responsible development of 
domestic oil and gas resources is part of the administration's broad 
energy strategy that will protect consumers and help reduce our 
dependence on foreign oil. BLM is working on a variety of fronts to 
ensure that development is done efficiently and responsibly including:
  --implementing leasing reforms;
  --continuing leasing activities in the National Petroleum Reserve in 
        Alaska;
  --continuing to process drilling permits in a timely fashion; and
  --improving inspection, enforcement, and production accountability.
    Oil and gas drilling and development are market-driven activities, 
and the demand for leases is a function of market conditions. Market 
drivers include prevailing and anticipated oil and gas prices, bidder 
assessments of the quality of the resource base in a given area, the 
availability/proximity of necessary infrastructure, and the proximity 
of the lease to local, regional, and national markets and export hubs. 
The shale formations that currently have high industry interest for 
development, such as North Dakota's Bakken shale, Texas's Eagle Ford 
shale and the Marcellus and Utica shales of the Eastern United States, 
are primarily in areas with a high proportion of non-Federal land. 
These areas have seen increased development recently due to a favorable 
mix of the factors noted above. As drilling priorities shift due to 
changes in technology or markets, an operator may choose different 
areas for development. Further, BLM lands are primarily gas-prone. 
Recent national rig counts (by Baker Hughes) indicate that rigs 
drilling for gas are at an ``all-time low'' (by percentage) and the gas 
is selling at ``a record discount to crude.'' (Wall Street Journal, May 
14, 2012).
    Approximately 38 million acres of Federal land are currently leased 
for oil and gas development. Approximately 12 million acres are 
producing oil and gas, and active exploration is occurring on an 
additional 4 million acres. BLM has approved approximately 7,000 
drilling permits that are not being used by industry.
    Question. You mention that you plan to take steps to increase 
production on leased lands, and I see that one step would be a proposed 
$4 per-acre fee on nonproducing lands, which I do not support. Do you 
have any plans to increase regulatory clarity to make the process or 
permitting and oversight more straightforward? Do you plan to increase 
the minimum bids for onshore lands or shorten the time leases may be 
held without production?
    Answer. The purpose of the nonproducing lease fee is to encourage 
diligent development of leased parcels. The nonproducing lease fee will 
provide financial motivation to either put leases into production or 
relinquish the leases so they can be re-leased.
    As part of BLM's ongoing efforts to ensure efficient processing of 
oil and gas permit applications, BLM will implement new automated 
tracking systems expected to significantly reduce the review period for 
drilling permits and expedite the sale and processing of Federal oil 
and gas leases.
    The new system for drilling permits, which is expected to be fully 
online by May 2013, will track permit applications through the entire 
review process and quickly flag any missing or incomplete information. 
This will enable operators to communicate with the BLM more promptly to 
address deficiencies in their applications.
    To expedite the sale and processing of Federal oil and gas leases, 
BLM will launch a new National Oil and Gas Lease Sale System, which 
will streamline the phases of competitive oil and gas lease sales by 
electronically tracking BLM's leasing process from start to finish. 
This new system will replace numerous stand-alone systems and provide a 
consistent, easy-to-use electronic process for both the oil and gas 
industry and BLM employees. BLM estimates the National Lease Sale 
System will be ready to begin testing in a pilot State by December 
2012.
    The Mineral Leasing Act establishes the national minimum acceptable 
bid and the primary term of an oil and gas lease. The act provides the 
Secretary of the Interior with the authority to establish a higher 
national minimum bid amount. However, the act does not provide 
authority to the Secretary to modify the primary term of an oil and gas 
lease.
                                 ______
                                 
               Questions Submitted to Tommy P. Beaudreau
            Questions Submitted by Senator Mary L. Landrieu

    Question. Director Beaudreau, thank you also for taking time to 
appear before this hearing today. In your testimony, you mentioned the 
efforts that the Bureau of Energy Management (BOEM) is making to 
increase offshore production, in light of the President's stated desire 
to increase production. You mention that you aim to open 75 percent of 
technically recoverable assets to drilling, and that you have taken 
steps to increase the percentage of currently leased lands that are 
producing.
    I see that you have scheduled the final lease sale under this 5-
year plan and that you are already looking forward to the next 5-year 
plan, under which you aim to open 75 percent of technically recoverable 
assets. Since we currently produce on only 2 percent of the total land 
in the Outer Continental Shelf (OCS), what effect will this have on the 
amount of land being produced on--that is, is an increase to 75 percent 
of technically recoverable assets as large a step as the President has 
stated?
    Answer. The proposed Five-Year Oil and Gas Leasing Program for 2012 
to 2017 focuses on encouraging exploration and development where the 
oil is--and the Gulf of Mexico still has the greatest, by a large 
margin, untapped resource potential in the entire OCS. The Gulf of 
Mexico is the crown jewel of the OCS, and will remain so for the 
foreseeable future as developments in seismic and drilling technology 
have opened new resource frontiers in the gulf. The Gulf of Mexico, in 
particular the deepwater, already has several world class producing 
basins, and just in the past year there have been a number of 
significant new discoveries.
    The 75 percent represents the portion of BOEM's estimated total 
``undiscovered technically recoverable resources'' on the OCS that 
underlie areas being considered for oil and gas leasing in the proposed 
program. Our geological and geophysical data indicate that those 
resources are not evenly dispersed across the OCS and that a relatively 
small area may have very high concentrations of potentially recoverable 
resources.
    According to BOEM's findings, the Central Gulf of Mexico is 
estimated to hold more than 30 billion barrels of oil and 133.9 
trillion cubic feet of natural gas of undiscovered resources. This is 
nearly double the resource potential of even the Chukchi Sea. The 
Western Gulf of Mexico is just behind the Chukchi Sea with more than 12 
billion barrels of oil and nearly 80 trillion cubic feet of natural 
gas. BOEM derived the 75-percent figure from an evaluation of the 
undiscovered technically recoverable resources estimated in the 
proposed lease areas as a function of this total estimated amount.
    Question. You also mentioned the steps you have taken to increase 
production on the lands which are currently leased, including a 
proposed $4 per-acre fee on nonproducing leases, which I do not 
support--you have raised the minimum bid on deepwater acres, and you 
have shortened the time that a lease may be held without any production 
occurring. What has been your feedback from industry on these two 
steps? What effects do you believe that these steps will have?
    Answer. While BOEM implements these measures for offshore leases, 
we have continued to see robust industry interest in acquiring leases 
that include these underlying terms. The increased minimum bid and new 
lease terms were in place for Western Gulf of Mexico lease sale 218, 
held in December 2011. The bidding activity in that sale demonstrates 
that these changes are not having a detrimental impact on industry's 
interest in acquiring leases in the gulf.
    A $4 per-acre fee on nonproducing Federal leases would provide a 
financial incentive for oil and gas companies to either get their 
leases into production, or relinquish them so the tracts can be leased 
to and developed by new parties. In general, industry has not been 
supportive of the fee, citing concerns over delays that they argue are 
out of their control. However, the administration believes that this 
legislative proposal is important to encourage energy production on 
lands and waters leased for development. The $4 per-acre fee would only 
apply to new leases and would be adjusted for inflation annually. The 
minimum bid on deepwater acres encourages prompt development and 
production, and helps to ensure that the American public receives fair 
market value for these shared resources. BOEM plans to use the minimum 
bid as a way to limit the sale size, rather than arbitrarily adjusting 
the size of the sale. This allows the market to determine which tracts 
are leased. The minimum bid strategy used will be consistent with the 
goal of maximizing the economic value of OCS resources.
    As you mention, BOEM has taken several specific steps to provide 
incentives for diligent development and to encourage operators to bid 
on tracts that they are more likely to develop. These steps include:
      Increasing Rental Rates To Encourage Faster Exploration and 
        Development of Leases.--In the Gulf of Mexico, during the 
        initial term of a lease and before the commencement of royalty-
        bearing production, the lessee pays annual rentals which either 
        step-up by almost half after year 5--for leases in water 400 
        meters or deeper--or escalate each year after year 5--for 
        leases in less than 400 meters of water. The primary use of 
        step-up and escalating rentals is to encourage faster 
        exploration and development of leases, or earlier 
        relinquishment when exploration is unlikely to be undertaken by 
        the current lessee. Rental payments also serve to discourage 
        lessees from purchasing tracts they are unlikely to actually 
        develop, and they provide an incentive for the lessee to drill 
        the lease or to relinquish it, thereby giving other market 
        participants an opportunity to acquire these blocks. In March 
        2009, in addition to implementing escalating rental rates, BOEM 
        raised the base rental rates for years 1-5.
      Tiered Durational Terms To Incentivize Prompt Exploration and 
        Development.--Industry maintains that producing oil is a 
        lengthy process that takes years between the time a lease is 
        awarded and the time energy begins flowing from a well on that 
        lease site. In order to address this concern, BOEM implemented 
        tiered durational terms to incentivize prompt exploration and 
        development for leases in the Gulf of Mexico for certain water 
        depths (400-1,600 meters): a relatively short initial lease 
        followed by an additional period under the same lease terms if 
        the operator has already drilled a well. In addition, BOEM 
        maintains lease terms graduated by water depth in order to 
        account for technical differences in operating at various water 
        depths. Bureau of Safety and Environmental Enforcement also 
        recently informed lessees of a decision from the Department's 
        Office of Hearings and Appeals that reaffirms the requirement 
        that lessees demonstrate a commitment to produce oil or gas in 
        order to be eligible for lease expiration suspensions.
      Increased Minimum Bid.--In 2011, BOEM increased the minimum bid 
        for tracts in at least 400 meters of water in the Gulf of 
        Mexico to $100 per acre, up from $37.50, to help ensure that 
        taxpayers receive fair market value for offshore resources and 
        to provide leaseholders with additional impetus to invest in 
        leases that they are more likely to develop. Analysis of the 
        last 15 years of lease sales in the Gulf of Mexico showed that 
        deepwater leases that received high bids of less than $100 per 
        acre, adjusted for energy prices at the time of each sale, 
        experienced virtually no exploration and development drilling.
                                 ______
                                 
                  Questions Submitted to James Watson
            Questions Submitted by Senator Mary L. Landrieu

    Question. Thank you for making time today to appear before this 
hearing. I realize that you only assumed office on December 1, 2011, 
but I understand that you have already taken time to visit Port 
Fourchon, a vital supply and support hub for our offshore industry. I 
am hopeful that we will develop a close working relationship and that 
you will bring new and effective leadership to the Bureau of Safety and 
Environmental Enforcement (BSEE).
    Reading through you testimony, a few points caught my attention. 
First, you mention that the new standards for inspection are much more 
stringent, reflected in the fact that the timeline for permit approval 
is now longer and that you have hired more inspectors and engineers. I 
understand that these steps were taken to account for increased 
difficulty in permitting, but despite this, I continually hear from 
industry about the difficulty that they face not only in permit 
approval, but also the submission process which occurs prior to any 
technical review of a permit application.
     Would it make the permit submission process more streamlined if 
you were to hire more administrative personnel? I understand that 
already work is being shifted from district to district to alleviate 
excessive workload--could this be a function of understaffing on the 
administrative side of things?
    Answer. Permit reviews are addressed by engineers in the Bureau's 
district offices. BSEE is hiring and training new engineers to reduce 
review and approval time and improve upon the efficiencies that we have 
achieved over the past year. The variation in workload that we see 
among our district offices in the Gulf of Mexico region is a result of 
the geographic distribution of oil and gas activity in the Gulf of 
Mexico. The bulk of the activity in the gulf is occurring in the areas 
overseen by our New Orleans and Houma District offices. When 
appropriate, we shift certain high-priority permits from the New 
Orleans and Houma District offices to other offices that have the 
ability to provide assistance. Permit applications are submitted and 
reviewed electronically, so engineers in any district have access to 
all submitted applications. Administrative personnel are essential to 
operations in our regional and district offices, and provide vital 
support to our engineers who are educated and trained to review or 
approve permit applications.
    Question. I also hear that many of these submissions are being 
returned for resubmission 8 or 9 times--because of small grammatical 
errors or the use of footnotes. I understand that you have instituted a 
workshop for permitting, might it be helpful to these companies to have 
a workshop focused purely on the guidelines for submission, so that we 
may avoid these problems. Might it also be beneficial to rewrite the 
submission process so that permit applications are judged on their 
technical merits more heavily than their grammar?
    Answer. As you point out, BSEE has held permitting workshops for 
industry that were attended by more than 200 offshore industry 
personnel. In addition, the Bureau has also published an Application 
for Permit to Drill (APD) submission checklist for operators to provide 
clear guidance to operators about the requirements for submitting a 
complete APD. Because of these efforts, as well as industry's 
increasing familiarity with the new safety requirements instituted 
after the Deepwater Horizon event, permit review times have decreased 
significantly over the past year and the number of applications 
returned to applicants for being incomplete or incorrect has also 
declined. We return submittals to applicants for substantive reasons, 
not for grammatical errors. The Bureau will continue to work with 
industry to make the permit application and review process as clear and 
efficient as possible, while continuing to ensure that every 
application meets all safety requirements.
    Question. I also understand that you plan to update the Interim 
Drilling Safety rule to increase regulatory clarity, and that you are 
currently reviewing comments on the Safety and Environmental Management 
Systems II (SEMS II) rule to increase regulatory clarity and provide 
for a more streamlined, but still safe, process moving forward. What 
details can you give me about the changes you are making, and what 
affects you expect these changes to have?
    Answer. The Final Drilling Safety Rule will respond to the comments 
received on the Interim Final Rule and is expected to be published in 
the Federal Register in the near term. These changes will provide a 
considerable amount of clarification and simplification of the 
regulations featured in the Interim Drilling Safety rule.
    The SEMS II Proposed Rule proposes to expand, revise, and add 
several new requirements necessary to ensuring industry uses robust 
SEMS programs and to facilitate oversight. The comment period for the 
SEMS II Proposed Rule closed on November 14, 2011, and BSEE is 
currently reviewing the comments.
    Question. I know that your agency, as well as the others testifying 
today, is actively involved in developing and implementing a long-term 
restoration plan for the Gulf of Mexico. I am sure you are aware that 
the Mabus report on America's gulf coast highlighted the need for 
developing quantifiable performance measures to track progress in the 
Gulf of Mexico recovery efforts, including an assessment of baseline 
environmental conditions. The subsequent Gulf Coast Ecosystem 
Restoration Task Force report echoed these recommendations and further 
noted the need for a robust data collection regimen. In light of the 
budget pressures facing your agency, how does the fiscal year 2013 
budget support these important baseline environmental data collection 
activities? Are you considering more cost-effective, technologically 
advanced data collection systems, such as unmanned, persistent 
propulsion marine robotic vehicles?
    Answer. Baseline environmental data collection responsibilities 
fall under the Bureau of Ocean Energy Management's (BOEM) Office of 
Environmental Programs, and are not BSEE functions. The environmental 
program under BSEE focuses on environmental compliance and enforcement 
efforts and relies upon BOEM for necessary environmental analyses.
    BOEM's fiscal year 2013 budget request for environmental 
assessments includes an increase of $700,000 to support environmental 
data collection for baseline information on species, habitats, and 
ecosystems. These studies and other scientific information form the 
basis of environmental assessments and environmental impact statements 
required under the National Environmental Policy Act prior to 
development. This increase in funding will enable BOEM to initiate one 
or two new high-priority baseline characterization and monitoring 
studies. These studies will expand the scientific basis for informed 
and environmentally responsible policy decisions at BOEM and the 
enforcement of environmental regulations by BSEE.
    With respect to advanced data collection systems, BOEM has 
historically used the best-available technology in its studies and will 
consider emerging technologies when looking at future analyses.
    Question. The Interior Department administratively issued new 
guidance for removal of idle iron--unilaterally changing previous 
regulations for the decommissioning of offshore platforms and wells. 
Would the Department of the Interior support amending the new idle iron 
guidance to either allow for structures to be reefed in place or 
provided an extension of time to remove structure that will eventually 
be placed in the Rigs-to-Reefs program?
    Answer. The regulations regarding decommissioning facilities and 
wells (subpart Q of 30 CFR 250) have remained the same since October 
30, 2002. The Notice to Lessees and Operators (NTL) No. 2010-G05 was 
issued on September 15, 2010 to clarify the decommissioning 
regulations, provide clearer definitions, and allow operators to submit 
plans for the use of wells and structures that are potentially no 
longer useful for lease operations. BSEE is currently reviewing plans 
on a case-by-case basis and working with operators on schedules for 
decommissioning and future use of wells and structures.
    BSEE supports the reuse of obsolete oil and gas facilities. About 
12 percent of all platforms decommissioned annually in the Gulf of 
Mexico are used as artificial reefs through State-sponsored programs. 
The NTL 2010-G05 does not prevent an operator from reusing a structure. 
A proposal to reuse a facility as a reef is a complex multi-step 
process that must comply with several State and Federal regulations as 
well as engineering and environmental reviews. Consequently, not all 
structures are good candidates for artificial reefs. The Bureau's 
policy was developed in accordance with its mission and allows for 
sound adaptive management. We are in close communication with the State 
artificial reef coordinators, industry, and our Federal partners to 
ensure that the reuse of obsolete oil and gas facilities remains a 
viable alternative in the decommissioning process.
    Question. It is my understanding that the Federal Fishery 
Rebuilding Plan for Gulf Red Snapper is based on the critical marine 
habitat provided by older oil and gas structures in the Gulf of Mexico. 
Has the Interior Department discussed or coordinated with the National 
Oceanic and Atmospheric Administration (NOAA) or the National Marine 
Fisheries Service (NMFS) on the potential devastating impacts to marine 
life from its idle iron directive?
    Answer. The Department of the Interior, through BSEE, has 
coordinated, and will continue to coordinate with NOAA's NMFS on the 
decommissioning program and the possible impacts on marine life. The 
Department, in coordination with NMFS and Louisiana State University's 
Coastal Marine Institute, has also funded numerous studies regarding 
the habitat provided by Outer Continental Shelf facilities and the 
potential impact of decommissioning facilities on fisheries.

                          SUBCOMMITTEE RECESS

    Senator Reed. If there are any of my colleagues that wish 
to have statements submitted for the record, they will be 
accepted for the record without objection.
    And with that, again, let me thank you, and conclude the 
hearing.
    [Whereupon, at 11:04 a.m., Wednesday, March 14, the hearing 
was concluded, and the subcommittee recessed, to reconvene 
subject to the call of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Johnson, Tester, and 
Murkowski.

                UNITED STATES DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY SUSAN SPEAR, ACTING DIRECTOR, STRATEGIC PLANNING BUDGET 
            AND ACCOUNTABILITY

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Good morning. I would like to welcome 
everyone to this hearing on the fiscal year 2013 budget request 
of the United States Forest Service (USFS).
    And on behalf of the subcommittee, I would like to welcome 
Tom Tidwell, Chief of the USFS. Chief, thank you. And he is 
joined by Susan Spear. Thank you, Susan.
    We appreciate you appearing before us to discuss the issues 
pertaining to the USFS.
    As you may know, Rhode Island is not home to any national 
forest, yet. But the reality is that 55 percent of my State is 
actually forested land. It is in State or private ownership. 
That's a huge amount given we are the smallest State in the 
country, and also have the second-highest population density.
    So, forests are important to every State, including Rhode 
Island. We recognize the USFS's main role is to maintain our 
national forests, but they also support outdoor recreation, 
habitat, access to open space in every State in the country, 
including Rhode Island.
    Again, we thank you for your service, and believe it is 
important everywhere. And the hearing today is to ask you 
questions about your budget, and to see what we can do to 
provide you the resources necessary.

                    FISCAL YEAR 2013 BUDGET REQUEST

    As I turn to this budget, I note that the administration's 
request for all USFS programs totals $4.849 billion in new 
budget authority. That amount is $255.1 million or a 5.6-
percent increase more than the fiscal year 2012 enacted level.
    What looks like a large increase though has to be put into 
perspective. It is important to note that this subcommittee 
provided an additional $240 million in prior-year funding to 
cover firefighting needs for fiscal year 2012.
    So on an apple-to-apples basis, that means that the 
administration's budget request is really only $15 million more 
than the fiscal year 2012 level, well within the kind of 
request we've seen for other departments under our 
jurisdiction.

                        WILDLAND FIRE MANAGEMENT

    Overall, the requested funds will continue wildland fire 
management (WFM) programs at $1.971 billion, a level that's 
essentially flat when compared to the fiscal year 2012 request. 
Within that amount, fire suppression's portion is fully funded 
at the 10-year rolling average of $931 million.
    USFS has also set aside $24 million from within its fire 
program to begin building its next-generation airtanker fleet, 
an action that is long overdue and something that I hope we can 
discuss at greater length this morning.

                         NATIONAL FOREST SYSTEM

    The request includes $1.62 billion for national forest 
system operations, an increase of $69 million, or about 4 
percent. Much of that increase is actually due to a major 
budget restructuring to create a $793 million Integrated 
Resource Restoration (IRR) program, a program which this 
subcommittee started as a pilot in fiscal year 2012, while the 
budget requests full funding. We will talk about whether the 
time is right for full funding or whether the pilot still has 
to be pursued.
    This request also includes an 11-percent increase for land 
acquisition and Forest Legacy programs for a total of $118 
million. Funding for construction of roads, trails, and 
facilities is cut by 12 percent, for a total of $334 million.

                       STATE AND PRIVATE FORESTRY

    And, finally, State and Private Forestry programs are 
slated to receive a 1-percent cut for a total of $251 million.
    The budget request includes a number of proposed changes to 
State Forestry Grants including a new $18 million competition 
to fund landscape-scale restoration projects, which I also 
expect we will have a chance to discuss today.
    I look forward to hearing a more in-depth discussion of 
these matters with you, Chief, and Ms. Spear, after you have 
had the opportunity to share your testimony.
    With that, let me recognize and acknowledge my Ranking 
Member, Senator Murkowski. Senator.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and good 
morning. And, Chief, good morning to you. Ms. Spear, welcome 
also.
    Before I comment on a couple of concerns that I have with 
the USFS budget request, I would like to raise a recent court 
decision that I believe has the potential to severely hamper 
the ability of the USFS to get work done on the ground.

                    SEQUOIA FORESTKEEPER VS. TIDWELL

    Chief, I think you clearly know what I'm talking about. On 
March 19, the Federal District Court in California found in 
Sequoia ForestKeeper vs. Tidwell that the USFS's use of 
categorical exclusions under the National Environmental Policy 
Act (NEPA) violates the Appeals Reform Act and enjoined the 
USFS from using these exclusions nationwide without providing 
for notice, comment, and appeal.
    This will mean that simple, routine tasks that have no 
environmental impact will be subject to full notice, public 
comment, and appeal. I think we're already seeing some absurd 
consequences.
    For example, Mr. Chairman, the USFS Web site lists a 
decision to replace a campground bathroom that is now subject 
to notice, comment, and appeal due to the Sequoia ForestKeeper 
case decision even though the USFS explicitly found that it 
will have no impact on the environment.
    So if a project as routine as replacing a bathroom in a 
campground is now subject to appeal, it's hard for me to 
imagine any USFS action that some group could not appeal or 
delay. And, in a time of extremely tight resources, I think 
this will cause waste within the Agency.
    We will lose enormous amounts of time. It will increase the 
costs of getting necessary work done, and it concerns me. I'm 
particularly concerned how this decision will affect activities 
on the Tongass National Forest in Alaska.

                     CATEGORICAL EXCLUSION IMPACTS

    In a local press account in the Juneau Empire earlier this 
month, the region 10 regional forester indicated that a 
categorical exclusion was used during the exploratory drilling 
process associated with Greens Creek.
    And I hope that you'll be able to explain to me the impact 
that this court decision may have on mining activities on the 
Tongass National Forest, not only at Greens Creek, but at the 
Niblack and Bokan Projects as well.
    I'm told that compliance with the court's order could add 
140 days to the permitting process where categorical exclusions 
have been used. These added delays will have even more harmful 
impacts in Alaska where the field's season is shorter than it 
is in the lower 48.
    I do hope, Chief, that you can assure me today that USFS 
plans to appeal the court's decision in Sequoia ForestKeeper 
vs. Tidwell, and that you're doing everything possible to 
mitigate the impacts of this decision.

                    INTEGRATED RESOURCE RESTORATION

    Now, turning to the budget, I'm concerned that, once again, 
USFS is proposing to collapse several different budget 
activities, including timber, into one large pot called IRR.
    This subcommittee explicitly rejected the same proposal 
last year and instead gave you the authority to pilot the 
concepts in regions 1, 3, and 4. The clear intent of the pilot 
was for USFS to prove that the concept had merit before the 
committee would consider it again.
    At this point, I don't think we've got the information from 
these three regions that would provide for an informed judgment 
on the merits of the proposal.
    There are many constituencies from the environmental 
community to industry that are skeptical of the big bucket 
approach to the budget, and I think that we need some clear 
data from the regions before we approve the consolidation of 
budget activities.
    And I certainly understand the Agency's desire for 
flexibility. The Congress and the public require the 
accountability, and I'm concerned that we're going to lose that 
with this proposal.

                        AIRTANKER MODERNIZATION

    I do applaud USFS for including $24 million in its budget 
for modernization of the large airtanker fleet. However, I am 
troubled by the lack of specifics within the budget about how 
these funds are going to be spent.
    Likewise, I appreciate that USFS issued a large airtanker 
modernization strategy, but again, I'm concerned about the lack 
of details. It does contain general description of several 
aircraft, but no indication of how and when the Agency intends 
to make its selection or whether it plans to purchase its own 
aircraft or continue to use the existing model of contracting 
for industry aircraft.
    So I do hope that you can give us some additional details 
on USFS plan for this. Again, Chief, I welcome you and thank 
you for your service, and look forward for the opportunity for 
questions and answers here this morning.
    Thank you.

                           PREPARED STATEMENT

    Senator Reed. Let me ask if any of my colleagues have 
opening statements. And, of course, all statements will be made 
part of the record. But if anyone wants to make statements now 
is the time to do so.
    Also, I have been informed that Senator Blunt regrettably 
could not attend this hearing in person, but has submitted a 
prepared statement for the record.
    [The statement follows:]

                Prepared Statement of Senator Roy Blunt

    Thank you, Chairman Reed and Ranking Member Murkowski, for holding 
this hearing today. I appreciate this opportunity to examine the 
budgetary needs of the United States Forest Service (USFS) in order to 
make sure taxpayer dollars are spent on programs that reflect our 
Nation's priorities.
    Additionally, I would like to thank Chief Tidwell and Director 
Spear for being here today.
    USFS manages more than 193 million acres of public land. The Mark 
Twain National Forest in Missouri represents a significant part of that 
mission. The Mark Twain National Forest consists of 1.5 million acres 
spanning 29 Missouri counties.
    USFS announced that more than $40 million would be dedicated to 
projects under the Land and Water Conversation Fund, including the Mark 
Twain National Forest. This includes almost $1 million to connect 
existing national forest lands to the Ozark National Scenic Riverways, 
with the stated goals of protecting watershed quality and providing 
maximum benefit for both resident and migratory wildlife species.
    While, of course, conservation activities with respect to forests 
are critical, I would hope that USFS focuses their efforts on the 
opportunity to increase harvest levels, without compromising forest 
health, and improve the Federal Government's return on its investment.
    Over the last 5 years, annual saw timber harvests in the Mark Twain 
National Forest averaged about $2.1 million for the 17.2 million board 
feet sold, according to Forest Industry and Analysis data.
    However, timber sale proceeds cover only about 7 percent of the 
Mark Twain National Forest's annual budget of $28 million.
    With annual saw timber growth of more than 210 million board feet 
worth an estimated $21,273,000, the National Forest System is missing a 
significant opportunity to capitalize on these resources.
    I hope that USFS takes these types of considerations into account 
when allocating, spending, or establishing new management plans.
    We need to both protect and utilize our natural resources to boost 
contributions to the GDP and create jobs. I look forward to your 
testimony, and thank you again for being here.

    Senator Reed. Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Yes. Thank you, Chairman Reed, and Senator 
Murkowski, for holding this hearing today. And thank you, Chief 
Tidwell and Ms. Spear for being here to discuss the 
administration's request for USFS.
    I've appreciated your attention to forest health in South 
Dakota, and I look forward to continuing this discussion today 
in the context of the fiscal year 2013 budget. Thank you.
    Senator Reed. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Mr. Chairman. I appreciate 
you holding the hearing, and along with the Ranking Member, 
once again, thanks for being here, Chief. And, Susan, thank you 
very much for both of your time and your service to this great 
country.

                               H.R. 1581

    I just want to touch on one thing that you might be able to 
address in your opening statement. It deals with a bill in the 
House--H.R. 1581. It's a bill that, quite frankly, I think is a 
direct attack on our hunter and our fishermen in this country 
as far as access.
    One of the huge assets we have in this country is our 
Federal lands, particularly in the West. And the ability to 
utilize those Federal lands in a way that makes sense is 
critically important.
    What H.R. 1581 is going to do is release a lot of pristine, 
back-country land, good elk, good fisheries, just incredibly 
prized elk habitat and blue ribbon fisheries.
    Montana has one of the highest percentage of hunters and 
anglers in the Nation and it amazes me that some over in the 
House want to take away these opportunities. They want to talk 
about second amendment on the one hand, and in the other hand, 
take away the opportunity to use rifles in the wild.
    I would like to have you address that, if you can, in your 
opening statement, on what USFS thinks about extreme proposals 
like H.R. 1581, and what you think we ought to do about it.
    Thank you very much, Mr. Chairman. Thank you both.
    Senator Reed. Thanks, Senator Tester. Chief Tidwell, 
please.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Mr. Chairman and members of the subcommittee, 
it is a privilege to be here to discuss the President's fiscal 
year 2013 budget request for the USFS.
    I want to thank you for the support that we have received 
from this subcommittee in the past, and I look forward to 
working with you in the future.
    The President's budget request, as you've already noted, 
reflects some very difficult choices we need to make to help 
reduce the deficit while investing in long-term economic growth 
and job creation.
    Our budget request supports these priorities through three 
key objectives. The first is our focus on restoration. This 
budget request would restore and sustain another 2.6 million 
acres of forest and grasslands by increasing collaborative 
efforts and building support for restoration activities, which 
helps create thousands of jobs each year.
    It requests full funding for the Collaborative Forest 
Landscape Restoration Fund that you gave us last year. We have 
been able to identify an additional 10 projects that are now 
moving forward because of what you were able to provide us in 
last year's budget. So I want to thank you for that.
    The fiscal year 2013 budget also requests permanent 
authorization for stewardship contracting, which is an 
essential tool that we need to have available, along with our 
timber sale contracts, to be able to do this restoration work.
    It also allows us to continue to apply the science, as 
developed by USFS research, to address the increasing frequency 
of forest disturbances. These range from longer fire seasons, 
record insect and disease outbreaks, and invasives to the 
floods and the droughts that we are experiencing.

                    INTEGRATED RESOURCE RESTORATION

    The budget request proposes an IRR budget-line item to 
align our budget structure with the work. I know that we need 
to first demonstrate through our pilot and the pilot regions, 
that this approach will not only increase our productivity and 
efficiency but also for us to be able to show not only the 
outputs that will be produced, but also how the outcome of this 
is going to help us address the watershed conditions across all 
our lands.
    Once again, I want to thank you for this pilot authority.

                        WILDLAND FIRE MANAGEMENT

    The second key objective with our budget request deals with 
WFM. It includes a level of preparedness that will continue our 
success in suppressing close to 98 percent of the wildland 
fires that we take on during initial attack. It does request 
the 10-year average for suppression.
    This is the area where you see a large increase, Mr. 
Chairman, as you have mentioned, in our budget request. It will 
also reduce the threat of wildfire to homes and communities by 
reducing hazardous fuels on a million acres in the wildland 
urban interface (WUI).

                        AIRTANKER MODERNIZATION

    It does request an additional $24 million to begin 
modernizing our large airtanker fleet. These funds will be used 
to pay for what we anticipate will be the additional contract 
costs to bring on what we call our next generation of large 
airtankers.

                  AMERICA'S GREAT OUTDOORS INITIATIVE

    The third objective is through the America's Great Outdoors 
Initiative, where we will increase support for community-based 
conservation. This enables us to continue to support 
recreational opportunities that improve on our quality of life, 
which we enjoy in this country, but it will also help maintain 
more than 223,000 jobs and about $13 billion in annual spending 
by recreational visitors.

                        INCREASING EFFICIENCIES

    It will help America to reconnect with the outdoors by 
increasing conservation education, volunteer opportunities, and 
increasing youth employment opportunities. We also request a 
slight increase in LWCF funding, in our Forest Legacy Program, 
to use conservation easements and land acquisition to protect 
critical forests and acquire public access while reducing our 
administrative costs of managing the national forests and 
grasslands.
    We will continue to work together with our States to use 
both State and private funding programs to promote conservation 
and to help keep private forests forested.
    We also encourage biomass utilization and other renewable 
energy opportunities while working to process oil and gas 
permit applications and energy transmission proposals more 
efficiently.
    We also propose a framework for reauthorization of the 
Secure Rural Schools Act, which I believe is vitally important 
to continue. Especially in these very difficult economic times 
that our counties and boroughs are currently facing.

                           PREPARED STATEMENT

    We have also included some actions to increase our 
efficiencies. Over the next 2 years, between 2013 and 2014, we 
will reduce our overhead costs by more than $100 million. This 
is an ongoing process of always looking at everything we do in 
order to increase our efficiencies; to make sure that we're 
doing everything that we can to get as much work done on the 
ground as possible through the appropriations.
    [The statement follows:]

                   Prepared Statement of Tom Tidwell

    Mr. Chairman and members of the subcommittee, it is a privilege to 
be here today to discuss the President's budget request for the United 
States Forest Service (USFS) for fiscal year 2013. I appreciate the 
support this subcommittee has shown for USFS in the past, and I look 
forward to working together with members of the subcommittee in the 
future to ensure that stewardship of our Nation's forests and 
grasslands continues to meet the desires and expectations of the 
American people. I am confident that this budget will allow USFS to 
meet this goal while demonstrating both fiscal restraint and efficient, 
cost-effective spending.
    Our Nation can and should take steps to reduce the deficit and make 
Government leaner and more efficient in the 21st century. The fiscal 
year 2013 budget that the President is proposing reflects the difficult 
choices we need to make to help reduce the deficit while investing in 
long-term economic growth and job creation. To make the strategic 
investments to grow the economy and tackle the deficit, this budget 
makes difficult cuts to programs. It also reflects efficiency and 
improvements to reduce our administrative costs. It is designed to 
appropriately fund programs that matter to Americans.

                             BUDGET CONTEXT

    USFS manages 193 million acres of public lands on 155 national 
forests and 20 national grasslands in 44 States and Puerto Rico. We 
also work effectively with States, tribes, local governments, 
communities and private forest landowners to support the sustainable 
stewardship of the 423 million acres of private forest, 68 million 
acres of State forests, and 18 million acres of forestlands on Indian 
reservations in the United States. USFS management is based on peer-
reviewed science; we lead the way for the Nation and, indeed, the world 
in cutting-edge research on a full range of conservation issues, 
including bioenergy, ecological restoration, wildland fire management 
(WFM), forest pests and diseases, and sustainable outdoor recreation.
    Our mission is to work with the American people on all lands to 
sustain all the benefits needed and wanted from their forests and 
grasslands. For example, approximately 80 percent of the Nation's 
freshwater resources originate on forests, and Americans get more than 
one-half of their water supplies from sources that originate in the 
Nation's forests. USFS management, combined with assistance to private 
landowners, helps to protect the single greatest source of drinking 
water in the Nation.
    Jobs are maintained and created through the work of USFS. Millions 
of Americans have forest-related jobs, from forest restoration work to 
recreation use, wood products, grazing, and energy and mineral 
development. In 2010, the National Forests attracted more than 170 
million annual visitors, and recreation use, which alone sustained 
nearly 223,000 jobs while contributing $14.5 billion annually to the 
U.S. economy.
    Water and jobs are only some of the benefits Americans get from 
their forests and grasslands. These lands provide a whole range of 
ecosystem services-- clean air, clean water, fertile soil that provides 
timber, forage, energy, food and fiber, fish and wildlife habitat, 
carbon storage, and opportunities for outdoor recreation just to name a 
few. These critical services to people are now at risk due to declining 
forest health, such as bark beetle infestation in the West. Regional 
drought, invasive species, loss of open space, catastrophic wildfires, 
devastating outbreaks of insects and disease, and the overarching 
challenge of a changing climate are degrading our Nation's natural 
infrastructure--the forests and grasslands that Americans depend on for 
so many services, values, and benefits.
    By making targeted investments in the landscapes most at risk, we 
can restore healthy, resilient forests and grasslands, provide 
recreational and hunting access, and provide forest products for the 
benefit of all Americans. Our fiscal year 2013 budget request is 
designed to do just that by working with partners across borders and 
boundaries at a landscape level. Our focus on landscape-scale 
conservation dovetails with broader administration priorities, 
including the President's America's Great Outdoors Initiative, the 
Secretary's ``All-Lands'' vision, and the Department's high-priority 
goal for enhancing water resources. Landscape-scale conservation is 
designed to maintain and enhance the resilience and productivity of the 
Nation's forests and grasslands through targeted investments in natural 
infrastructure. Our investments will put Americans back to work, 
maintaining and creating jobs and economic opportunities for both rural 
and urban Americans.

             FISCAL YEAR 2013 BUDGET REQUEST AND PRIORITIES

    The fiscal year 2013 President's budget requests $4.86 billion for 
USFS, an increase of $15.5 million more than the 2012 appropriated 
level. This budget responds to the public's desire for the conservation 
and stewardship of the Nation's forests and grasslands. Through 
strategic partnerships, we accomplish more work that yields benefits 
for all Americans, while sustaining forest and grassland ecosystems for 
future generations. In these tough economic times, this budget balances 
spending on priorities against reductions. It establishes spending on 
conservation principles and natural resource development needed by the 
public and for the Nation's economy. USFS managers will continue to 
scrutinize spending and programs to ensure the public's investment is 
used wisely toward safely achieving key outcomes and shared priorities.
    USFS's fiscal year 2013 President's budget prioritizes USFS funding 
in three themes:
  --restoration;
  --communities; and
  --fire.
    Our priorities are designed to respond to the needs of the American 
public. The President's budget aligns with the Secretary's ``All 
Lands'' vision to meet the challenges of ecological restoration through 
collaborative approaches to address forest mortality and live tree 
density, invasive species and watershed degradation. The budget request 
will engage communities and help Americans reconnect to the outdoors, 
expand on recreation benefits and create a wide range of opportunities 
for economic expansion to retain and create jobs. The budget request 
also fosters partnering with communities and cooperating agencies to 
reduce the threat of wildland fires to people, property and watersheds.

                           RESTORATION THEME

    With the current threats from insects and disease, wildfire, urban 
development, and impacts of a changing climate, active restoration is a 
key component of our fiscal year 2013 budget strategy. To achieve our 
restoration goals, we engage a broad set of partners in active forest 
management at large, landscape scales and apply peer-reviewed science 
related to forest disturbances, fire management, and the effects of a 
changing climate. Our restoration efforts are guided by a continuous 
cycle of assessing, implementing, and adapting based on information 
from inventory and monitoring efforts. This strategy will yield a 
variety of forest products and restore the structure, function, 
composition, and processes of healthy, resilient ecosystems across the 
Nation.
    Restoration means jobs and economic opportunities. In order to 
maintain forest-related jobs we are requesting permanent authority for 
stewardship contracting. This authority allows the agency to accomplish 
collaborative restoration work at a landscape scale. Current authority 
for stewardship contracting expires in September 2013.

                 LANDSCAPE SCALE RESTORATION PRIORITIES

    Through active forest management, USFS is restoring ecosystem 
structure, functions, and processes in order to improve the health and 
resilience of ecosystems across large landscapes. Through the proposed 
Integrated Resource Restoration (IRR) program, we expect to continue to 
collaborate using an inclusive process to find common ground across the 
many stakeholders and to leverage our investments for broader 
conservation impacts. IRR blends a cross-section of forest management 
activities, such as forest thinning to reduce hazardous fuels, 
decommissioning roads, and removal of fish passage barriers--all of 
which lead to improved forest and grassland health and watershed 
function. The Watershed Condition Framework, released in 2011, will 
help managers prioritize IRR activities. This framework provides a 
nationally consistent approach for classifying watershed conditions and 
allows us to track the number of watersheds that move to an improved 
condition in the long term.
    In fiscal year 2011, we restored or enhanced more than 4.9 million 
acres of both public and private lands. We will continue to invest in 
and accomplish restoration on the ground. In fiscal year 2013, through 
IRR we propose to restore or sustain 2.6 million acres on National 
Forest System lands; provide 2.8 billion board feet of timber; 
decommission more than 2,000 miles of road; and restore or enhance 
2,750 miles of stream habitat. By focusing on restoration outcomes, the 
IRR program empowers USFS managers and local communities to find the 
best, most-efficient way to meet their ecological, economic, and social 
objectives. For example, a landscape thinning project may be 
accomplished under a combination of timber sales and stewardship 
contracts which reduces the threat of catastrophic wildfire, improves 
forest and watershed health and resilience, and removes unneeded 
erosion prone roads. These outcomes help reduce risk from threats like 
fire, insects, and diseases; provide clean, low-cost drinking water to 
communities; and maintain local infrastructure and jobs by creating 
economic opportunities such as uses for biomass and other forest 
products.
    Our Forest Health Management program provides insect, disease, and 
invasive plant survey and monitoring information on forest health 
conditions on Federal and non-Federal (cooperative) lands and provides 
technical and financial assistance to prevent, suppress, and control 
outbreaks threatening forest resources and watershed conditions. Forest 
Health Management helps to implement the States' Forest Action Plans 
and focuses on the highest-priority areas and on high-priority pests, 
as identified by mapping and surveys. In fiscal year 2013, Forest 
Health Management will continue to utilize science, active land 
management, and technology transfer expertise to restore and sustain 
forest landscapes, across urban, private, State, tribal, and Federal 
forests, and create private sector jobs because of the expertise 
required to carry out this work.
    The Collaborative Forest Landscape Restoration Program is a high-
priority program that embodies our integrative, collaborative, 
landscape-scale restoration focus. In fiscal year 2011, Collaborative 
Forest Landscape Restoration projects implemented treatments to restore 
ecosystem resilience and adaptive capacity while generating forest 
products to help support local infrastructure and economies. Forest 
vegetation was improved or established on more than 26,000 acres; 121 
million board feet of timber was sold; and approximately 268,000 green 
tons of woody biomass was made available for biomass or bioenergy-
related production. Cooperators played a substantial role in fiscal 
year 2011 by providing more than $8 million in additional funding. The 
fiscal year 2013 request supports the community-based Collaborative 
Forest Landscape Restoration projects chosen in fiscal year 2010 and 
fiscal year 2012. The Collaborative Forest Landscape Restoration 
Program is creating job stability by supplying a reliable wood and 
biomass supply for forest products and bioenergy production; improving 
forest health and wildlife habitat; and reducing fire suppression costs 
in overgrown forests.

                          RESEARCH PRIORITIES

    USFS houses the world's largest forestry research organization. We 
conduct research that develops new technologies and brings cutting-edge 
science to bear on the sustainable management of the Nation's forests 
and rangelands. Long-term research from our experimental forests and 
rangelands contributes to an understanding of the impacts of forest 
disturbance on the natural and cultural resources of U.S. landscapes. 
This knowledge assists public and private land managers in identifying 
strategies to mitigate and adapt to forest stressors. Rigorous, applied 
research is also key to supporting new and emerging markets with 
innovations that enhance and diversify the forest products industry. 
Private investment in the forestry sector relies on USFS research. 
Finally, our social science research is critical to appropriately 
aligning agency activities with society's values and priorities for the 
Nation's natural resources and public lands.
    The proposed funding will maintain essential levels of research in 
our high-priority and strategic program areas to ensure that we 
develop, apply, and deliver new knowledge and technologies that support 
sustainable management objectives. One high-priority program is Forest 
Inventory and Analysis, which provides the resource data, analysis, and 
tools needed to assess current status and trends of forests; management 
options and impacts; and threats such as fire, insects, and disease. In 
fiscal year 2011, USFS's Research and Development deputy area 
implemented the Forest Inventory and Analysis annual forest sampling in 
all 50 States (though we have not been able to sample interior Alaska), 
providing accessible data for 96 percent of the Nation. The data 
provides important information for private forest landowners to use in 
developing management objectives for sustainable management of private 
forests. In fiscal year 2013, Forest Inventory and Analysis will 
continue in all 50 States and seven reports will be published.

             PLANNING, MONITORING, AND ANALYSIS PRIORITIES

    Restoration efforts are guided by a continuous cycle of assessment, 
project planning and implementation, and adaptation based on 
information from inventory and monitoring. Consistent with the USFS's 
priority of landscape-scale conservation, our proposed Planning Rule 
emphasizes a collaborative, science-based approach with broad-scale 
monitoring strategies at the regional and national level for the 
National Forest System. USFS managers collaborate with a wide variety 
of stakeholders to consider all interests affected or influenced by 
land management planning and project level implementation decisions. We 
are integrating and improving monitoring databases to enhance 
efficiency and transparency. These monitoring data provide baseline 
information from which managers plan the mix of goods and services for 
individual national forests and frame objectives for planning and 
subsequent restoration activities. The data helps managers set 
conservation objectives to sustain the health, diversity, and 
productivity of the National Forest System.
    This budget proposes consolidation of the Land Management Planning 
and Inventory and Monitoring programs to form the single, integrated 
program of Land Management Planning Assessments and Monitoring. This 
new budget structure highlights the connectedness of these activities 
under the proposed Planning Rule. High-priority resource issues include 
watershed and ecological conditions; habitat needs for a number of 
species; visitor use and recreation objectives; forest disturbances; 
and other local, regional and national objectives. USFS units completed 
58 plan assessments in fiscal year 2011--an initial step for 
determining the need to revise or amend land management plans in 
response to changing ecological, social, and economic conditions.

                           COMMUNITIES THEME

    Communities continue to be a priority for USFS in fiscal year 2013. 
We are committed to engaging communities across the Nation to reconnect 
with the outdoors, expand recreation benefits, and harness the many 
economic opportunities our land management activities create in a way 
that supports diverse employment in forest-dependent communities. As 
part of the President's fiscal year 2013 budget, we request 
reauthorization of the Secure Rural Schools and Community Self-
Determination Act of 2000 for 5 years. The fiscal year 2013 proposal 
supports rural communities through assuming enactment of the fiscal 
year 2012 President's proposed reauthorization through mandatory 
funding.
    We continue to develop successful collaboration with 
municipalities, nongovernmental organizations, and private companies at 
many levels. Through approximately 7,800 grants and agreements in 
fiscal year 2011, we engaged a wide circle of partners in land 
management projects and activities, leveraging agency investment for an 
additional $616 million in partner contributions. In fiscal year 2013, 
this collaboration will continue to expand recreation opportunities, 
reconnect people with the outdoors, and use land management activities 
to create employment and sustain communities. Our budget request 
includes proposed language that would authorize the Secretary to enter 
into agreements with interpretive associations (including scientific, 
historical, educational, and other societies, organizations, and 
associations) to enhance visitor awareness and knowledge of the 
Nation's natural resources and cultural heritage, and to enhance and 
leverage our collective interpretative efforts. Based on our current 
efforts, we know that increasing collaboration with local communities 
can move conservation efforts from a scale of thousands of acres to 
hundreds of thousands of acres. The President's fiscal year 2013 budget 
strategically allocates resources to support exemplary local 
stewardship and collaboration models and to catalyze new partnerships 
and innovations.

                LANDSCAPE SCALE CONSERVATION PRIORITIES

    Restoration projects across broad Federal landscapes, such as the 
Collaborative Forest Landscape Restoration Program, are not sufficient 
alone to address the restoration needs and challenges of today. USFS's 
approach to land management focuses on landscape-scale outcomes through 
cross-boundary landscape conservation. We consider current and desired 
resource conditions across all ownerships--putting national forests and 
grasslands in the broader social, economic, and ecological context of 
the entire landscapes. Considering the well-being of communities 
adjacent to national forests, as well as urban populations that depend 
on forest-derived ecosystem services such as water filtration, is a top 
priority
    In fiscal year 2011, our State and Private Forestry programs 
competitively allocated $19.8 million to State Foresters, supporting 72 
projects in 47 States. These allocations enable USFS to leverage more 
than $21 million in partners dollars and in-kind contributions. In 
fiscal year 2013, we propose to build on the success of our recent 
redesign of State and Private Forestry by combining funds into a 
Landscape Scale Restoration Program to continue our work with the State 
Foresters and engage multiple landowners across boundaries. This 
program helps address challenges like forest fragmentation and the 
conversion of forestland due to urbanization and other land uses. 
Through competitive grants, it will implement innovative projects that 
address the greatest threats to forest sustainability, as identified by 
States in their Forest Action Plans.
    The Forest Legacy Program is an incentive-based approach that uses 
easements to permanently protect non-Federal forest lands vital for 
wildlife habitat and rural jobs. The focus is on forest lands at risk 
of conversion to other (non-forest) land uses. To date, more than 2 
million forested acres have been protected from conversion, ensuring a 
robust natural infrastructure to support rural jobs in the forest 
sector.
    Through Land Acquisition, we work to consolidate non-USFS 
properties within or adjacent to national forest boundaries. These 
acquisitions protect critical ecosystem connectivity, enhance visitor 
access, and reduce expenditures associated with boundary management and 
fire suppression. This request includes up to $25 million for support 
of the Federal Interagency Collaborative Land and Water Conservation 
Fund Initiative. This interagency partnership with the Department of 
the Interior will guide acquisitions in support of objectives set by 
the America's Great Outdoors Initiative, achieving targeted, 
coordinated Federal acquisitions that are locally driven and supported 
by local governments. The request also includes up to $5 million to 
acquire land to open up additional access for recreational purposes, 
specifically to increase priority recreation access to National Forests 
System lands. USFS will use the funds to acquire parcels that provide 
access to National Forest System lands whereby access is not currently 
available or is impeded.
    Just as we recognize the importance of conserving working forest 
lands in rural areas, we also support the creation of community forests 
that connect urban populations to nearby outdoor areas. Through the 
Community Forest and Open Space Program, we fund cost-share (matching) 
grants for the acquisition of community forests that provide public 
recreation and watershed benefits. Such benefits include enhanced 
drinking water quality, wildlife habitat, forest management jobs, and 
opportunities for wildlife viewing, hunting, fishing, and other outdoor 
experiences readily accessible to urban populations. In October 2011, 
USFS issued regulations to ensure a consistent and transparent program. 
We are in the process of soliciting applications to award the first 
projects.

                    RECREATION AND TRAILS PRIORITIES

    USFS lands are a public treasure providing unparalleled outdoor 
recreation opportunities. Population growth and loss of open spaces 
contribute to ever-greater demand for high-quality recreation 
opportunities. Annually, more than 170 million visitors enjoy 
activities such as camping, picnicking, skiing, fishing, and hunting. 
The Recreation, Heritage and Wilderness Program provides the 
interpretive, outreach and infrastructure needs vital to connecting 
Americans to the great outdoors.
    In response to the America's Great Outdoors Initiative, we are 
improving recreational access and expanding opportunities for youth and 
diverse populations. The Youth Conservation Corps creates jobs, as do 
expanded opportunities for private sector outfitters, guides, ski 
areas, and resorts. Through the Federal Interagency Council on Outdoor 
Recreation, we are implementing actions to eliminate redundancy and 
create seamless programs between the Federal agencies to increase 
recreation opportunities.
    Our Trails program ensures public safety and backcountry access 
through the operation, maintenance, rehabilitation, and improvement of 
National Forest System trails, serving a wide constituency of visitors 
at a relatively low cost. In fiscal year 2013, we are prioritizing the 
designation of trails for motorized use, consistent with the Travel 
Management Rule. Our trail system also accommodates nonmotorized uses 
such as cross-country skiing, hiking, hunting, fishing, wildlife 
viewing, horseback riding, and mountain biking. In fiscal year 2011, 
partners contributed approximately $7 million and maintained almost 
5,500 miles of national and scenic trails. Through strengthened 
partnerships in fiscal year 2013, we will emphasize trail stewardship 
activities and youth programs.
    Our proposed legislative language to make permanent our authority 
on administration of rights-of-way and land uses would ensure timely 
customer service, reduce the potential liability to the United States 
associated with uses on National Forest System lands under an expired 
authorization, and enable us to accept new applications to expand our 
support for local and regional economies. Special uses enable a wide 
range of public services that support thousands of jobs, from large-
scale energy and communication transmission to small-scale outfitters 
and guides. Processing these permit applications is time intensive and 
expensive. Recovered funds will remain at the local office of 
collection to enable more-timely service to permit holders and 
applicants. The existing authority expires on September 30, 2012.
    USFS assists in developing and sustaining urban forest 
infrastructure within cities, as well as connecting urban residents--
especially youth--to recreation experiences in national forests. With 
more than 83 percent of all Americans living in metropolitan areas, 
USFS Urban and Community Forestry Program supports the active 
management of forests and trees in more than 7,000 communities, 
reaching 194 million people in fiscal year 2011. This program seeks to 
optimize benefits from urban forests by planting trees for carbon 
sequestration and energy conservation objectives. USFS research and 
development helps to create more livable and desirable urban areas and 
improve urban ecosystem services, like cleaner city air and water, 
through leading science and new technology. In New York City, for 
example, USFS's iTree tool provided baseline information about trees 
that has been a critical foundation for the MillionTreesNYC campaign. 
The Conservation Education program--through initiatives like 
``Children's Forests'' and ``More Kids in the Woods''--builds on both 
long-term and new partnerships. In fiscal year 2011, more than 5 
million children and families participated in environmental education, 
recreation, and related literacy programs on public lands and waters, 
increasing their understanding of the natural world and its benefits.

              FACILITIES AND ROADS MAINTENANCE PRIORITIES

    Maintenance of physical infrastructure--including the best and safe 
use of over 40,200 buildings for administrative, recreation-related, 
and other uses, approximately 373,000 miles of roads (102,000 miles are 
closed, but provide options for future use) and 6,200 bridges--is an 
important priority in fulfilling USFS mission. Maintaining our 
facilities saves money over time and provides for safe, pleasurable, 
and accessible sites for the public's enjoyment while recreating. In 
fiscal year 2013, strategic investments in facilities and 
infrastructure maintenance will reduce our agency's environmental 
footprint and save money by lowering energy costs. This budget request 
proposes deferring new facilities construction when other cost-
effective and reasonable options exist.
    This budget request also prioritizes road maintenance to ensure we 
protect water quality, meet Highway Safety Act standards, and meet the 
need for motorized use, as identified on USFS motor vehicle use maps. 
We also emphasize replacing deficient bridges, upgrading stream 
crossings, and providing a transportation system to and from timber and 
stewardship project sites that support local jobs and our collaborative 
restoration priorities.

                               FIRE THEME

    Our final priority for the fiscal year 2013 budget request reflects 
the President's commitment to a responsible budget for WFM. We will 
continue to partner with States, communities, and other Federal 
agencies to maximize our suppression capabilities and support community 
efforts to reduce direct threats from wild fires.
    Wildland fire is a natural and necessary component of restoring 
ecosystem resilience in fire-adapted ecosystems. In many places, drier 
conditions and longer fire seasons, along with invasive species like 
cheatgrass, have further altered the timing and pattern of fire, making 
fires bigger and harder to suppress. Addressing these challenges will 
reduce fire risk to communities and maintain and create jobs through 
activities that restore ecosystem resilience.
    The cost and complexity of both fuels treatments to reduce fire 
risk and wildfire suppression have gone up due to growing numbers of 
housing developments adjacent to wildlands and other factors. In this 
context of more costly fire management, we continue to refine our use 
of decision-support tools. These tools help us allocate resources more 
efficiently and to adopt appropriate risk management principles. 
Further, we responded to the Federal Land Assistance, Management and 
Enhancement (FLAME) Act of 2009 by collaborating broadly to develop the 
new National Cohesive Wildland Fire Strategy. The strategy is designed 
to:
  --Restore and maintain resilient landscapes at a regional and sub-
        regional scale;
  --Create fire-adapted communities; and
  --Respond to wildfire effectively through partnerships among local, 
        State, tribal, and Federal fire organizations.
    The Nation depends on USFS to take proactive measures to reduce the 
threat of wildfire. By working proactively to re-establish fire-adapted 
ecosystems, we can reduce the costs associated with catastrophic 
wildfire. The proposed budget for fiscal year 2013 would direct fire 
management resources toward the highest-priority areas while maximizing 
cost-effectiveness. We are ready to protect life, property and 
community, and public safety.

                       FUELS REDUCTION PRIORITIES

    The Hazardous Fuels budget line item for fiscal year 2013 focuses 
on treatments in the wildland-urban interface (WUI) and other high-
priority areas with a target of 1 million acres vital to protecting 
lives, property and public infrastructure. The priority for these funds 
is in WUI communities that are working to achieve firewise standards, 
have demonstrated local investment, and that have developed a community 
wildfire protection plan. The agency will continue to emphasize the 
importance of community wildfire protection plans by prioritizing 
hazardous fuels treatments in WUI areas that are identified in these 
plans. This funding is also used for grants that encourage woody 
biomass utilization and to facilitate market development for the 
biomass removed from the landscape through fuels treatments.
    Biomass for energy is an important byproduct of hazardous fuels 
reduction and restoration work. Currently one-quarter of all renewable 
energy consumption comes from wood. Biomass utilization is important 
because it helps diversify the forest products industry and creates new 
markets that ensure alternative uses for material that would otherwise 
be piled or burned at the treatment site. With active management, 
America's forests can sustainably supply woody biomass for fuels and 
high-value chemicals and help meet national energy, environmental, and 
employment goals.
    In fiscal year 2013, USFS plans to reach out to municipal water 
providers and pursue additional investments to protect water supplies. 
For example, three of the five major Front Range water utilities (in 
Denver, Aurora, and Colorado Springs) have invested nearly $34 million 
in forest thinning treatments to reduce wildfire risks. Our strategy is 
to attract investments from all Front Range cities and to substantially 
increase amounts invested by those cities and other partners through 
matching USFS funds.
    The hazardous fuels management efforts compliment restoration 
activities conducted through Integrated Resource Restoration and the 
Collaborative Forest Landscape Restoration Program to reduce fuels, 
restore forest landscapes, and protect communities. These projects 
leverage partner investments through innovative collaboration to 
restore landscape resilience across 50,000 acres or more. Contracted 
services for fuels reduction in core forest zones provide jobs, as do 
the forest products and woody biomass utilization activities that 
result from fuels removal and reduction.

                        PREPAREDNESS PRIORITIES

    The second way we are responsibly addressing WFM with this budget 
request is through our preparedness program, which ensures the 
capability to protect life, property, and natural resources while 
assuring an appropriate, risk informed and effective response to 
wildfires, consistent with land and resource management objectives.
    The preparedness program pre-positions resources as needed to 
ensure an appropriate, risk-informed, and effective wildfire response. 
This budget also includes $24 million to pay for the increased costs of 
modernizing the firefighting large airtanker fleet. We are soliciting 
bids for modern airtankers to complement the remaining 11 in our fleet.

                         SUPPRESSION PRIORITIES

    The suppression program combined with the FLAME Wildfire 
Suppression Reserve Fund, meets the funding level at the 10-year 
average cost of suppression for fiscal year 2013. Wildland fires 
continue to be larger and more difficult to suppress due to many 
factors including longer fire seasons, fuel accumulation, and the 
increased size and complexity of housing developments adjacent to or in 
forested lands.
    In fiscal year 2011, USFS contained more than 97 percent of the 
fires we managed during initial attack. Wildfire response 
decisionmaking is evolving based on risk-informed analysis that reduces 
exposure to wildland firefighters while ensuring that high-value 
resources are protected. The results of these decisions allow us to 
manage fires more cost-effectively while achieving agency land 
management objectives by enabling fire to play its natural role in 
restoring landscapes. For fiscal year 2013, the suppression, 
preparedness and FLAME budget request continues to emphasize our 
efforts related to strategic risk assessment and programs to improve 
wildland fire operational decisions and meet overriding objectives of 
maintaining public and firefighter safety. These efforts are expected 
to result in significant increases in the effective and efficient use 
of agency resources.
    For the few fires that escaped initial attack, the percentage that 
exceeded expected containment costs fell from 39.7 percent in fiscal 
year 2010 to 20.8 percent in fiscal year 2011, a notable achievement in 
responsibly budgeting for fire suppression. Implementing the agency's 
broader restoration goals will lead to further progress. Given the 
highly variable nature of fire seasons from year to year, the FLAME 
Wildfire Suppression Reserve Fund ensures our ability to cover the cost 
of large, complex fires that escape initial attack.

             GAINING EFFICIENCIES AND COST CONTROL MEASURES

    We must be efficient and effective in meeting our mission and 
delivering services to the American people. We have been gaining 
efficiencies and managing costs and our workforce to achieve our 
mission in the past and will continue to do so. We are making difficult 
choices to work better and leaner to live within constrained budgets. 
USFS's fiscal year 2012 target for cost savings is $44 million. Reduced 
travel accounts for $14 million of these savings. An additional $30 
million is achieved through new acquisition management procedures 
including the use of strategic sourcing, competitive and/or 
performance-based contracts, and ongoing training of contracting staff 
to better manage contracts.
    Our efforts to gain efficiency in fiscal year 2012 and this fiscal 
year 2013 budget request focus on implementing the President's 
Executive order, ``Promoting Efficient Spending''. We identified 
reduced spending levels in travel, information technology, printing, 
fleet and promotional items. We have planned a $100 million reduction 
in cost pools over the course of fiscal year 2013 and fiscal year 2014. 
We are also implementing the Department of Agriculture (USDA) 
Administrative Solutions Project to reduce redundancies and take 
advantage of existing resources across USDA. We will also continue our 
strategic investments in safety and cultural transformation for our 
employees. These efforts will enable employees to spend less time on 
operational functions and more time on priority work in a safe, 
healthy, and productive manner. We expect these efforts to result in 
costs savings in the future. We also estimate that our workforce will 
be reduced by nearly 1,500 full-time equivalents between fiscal year 
2011 and fiscal year 2013. This level of reduction is within our 
average annual attrition rate. We will continue to manage our workforce 
and organizational changes to provide service at the local level.

                               CONCLUSION

    USFS's fiscal year 2013 President's budget aligns with priorities 
set by the administration and USDA while balancing the need for fiscal 
restraint. The magnitude and urgency of forest restoration work, along 
with the demand for safe, accessible outdoor recreation opportunities, 
are growing in a context of declining budgets. This means that the 
agency will face unprecedented fiscal challenges in the next few years. 
USFS must act strategically and tackle fiscal challenges directly, 
focusing our resources on continuing to provide services and goods to 
the American public.
    Through landscape-scale conservation, our three funding priorities 
of restoration, communities, and fire will pass on to future 
generations the water, wildlife habitat, renewable resources, scenic 
beauty, and other natural riches that Americans enjoy today from their 
forests and grasslands.

    Mr. Tidwell. Again, Mr. Chairman, I want to thank you for 
this opportunity to be here, and I look forward to answering 
your questions.
    Senator Reed. Well, thank you very much, Chief. We will 
hear from Senator Feinstein. Senator Feinstein, do you want to 
make a brief comment, as our colleagues have, before we begin 
the questioning?
    Senator Feinstein. I would like to talk about firefighting, 
so I will wait my turn. Thank you very much.
    Senator Reed. Thank you, Senator Feinstein.
    Again, Chief, thank you for not only your testimony today, 
but your leadership. We'll do 8-minute rounds, and I'll 
anticipate we will do at least two, for those who want to stay 
for the second round.
    Senator Feinstein, Senator Murkowski, and I, all have 
mentioned the issue of fire suppression. One of the annual 
challenges we have is to ensure you have the appropriate 
resources to deal with fires.
    You might begin by letting us know what your sense is for 
this fire season, given the weather, modeling and other data 
that you have, as to will you have the resources, do you expect 
a very challenging fire season this year?

                            FIRE SEASON 2012

    Mr. Tidwell. Mr. Chairman, our predictive services, when 
they put out their last report the first of April, indicates 
that we will have a fire season similar to what we had last 
year. That is based on getting some favorable weather that will 
continue to occur in the Northwestern part of the country and 
also through the Central part.
    If that does not occur, then we anticipate that we will 
probably have a more active fire season than we did last year. 
We are prepared with the resources, the crews that are in 
place, the large helicopters, and we are moving forward with 
acquiring some additional large airtankers under contract, to 
better enable us to deal with this fire season.
    A lot will depend on the weather. But we have already seen 
some very active fire behavior here in the East. We had the 
tragic fire out in Colorado just a few weeks ago in March. 
Today, we have a very large fire burning here in Virginia, on 
the George Washington and Jefferson National Forests. We have a 
Type 1 team that we have had to deploy under that fire today.
    We are seeing an active fire season right now, and a lot 
will depend on how the weather develops over the next 30 to 60 
days; that will determine just how difficult this season will 
be.
    Senator Reed. Thank you. Along with Senator Feinstein, I'm 
interested in your aircraft modernization program.
    In February, you released a strategy, a large airtanker 
modernization strategy; there's been several strategies, but 
what we need is a plan. Specific numbers of aircraft, whether 
they'll be acquired, or they'll be leased. To what extent will 
you have to rely upon Air National Guard C130J's to supplement, 
or helicopter supplements.
    Can you describe the plan you have in place, for this 
season, for the aircraft, the number you'll have available, the 
types of availability, and the adequacy of that plan?

                        AIRTANKER MODERNIZATION

    Mr. Tidwell. Well, our plan not only for this year but for 
the future is to move forward and acquire additional contracted 
aircraft. For this year, we expect to bring on three additional 
aircraft to supplement what we currently have. This will give 
us 14 large airtankers for this year.
    We are also bringing on two water scoopers down from Alaska 
to augment the fleet down here, and we will also have one very 
large airtanker that will be available.
    In addition to that, we have brought on some additional, 
Type 1 helicopters. These are helicopters that can carry almost 
as much water as the large airtankers can retardant.
    They are very effective and a little more expensive, but we 
have brought on additional large helicopters for this year.
    As we move forward, we expect to bring on 10 additional 
aircraft next year. These will all be contracted aircraft. This 
is what the $24 million part of our request is for. We 
anticipate that the new aircraft will be a faster aircraft, and 
they will have a little larger capacity.
    It will be a little more expensive than what our current 
costs are. We are going to need $24 million to be able to cover 
the additional costs for probably up to an additional 13 planes 
next year.
    For next year, I anticipate we are going to be in much 
better shape. This year, we are down and we will be down at 
least 4 large airtankers from what we had at the start of last 
season, but we are bringing on those additional large 
helicopters.

                  MODULAR AIRBORNE FIREFIGHTING SYSTEM

    In addition to that, we will probably have to rely and 
depend on the Modular Airborne FireFighting System (MAFFS) 
units again, like we did last year.
    We have been using those MAFFS planes for 40 years. Even in 
the past when we had the large number of large airtankers we 
would often hit periods of time during an active fire season 
where we needed to rely on that additional capacity.
    It works out very well because they are ready to go early 
in the season. They are ready to go late in the season, and we 
have continued to appreciate the partnership we have with those 
units. I can assure you that we are in constant communication 
to make sure that if those planes would not be available, that 
we would know about it ahead of time, and then we can make 
additional plans.
    All indications are that those units are ready, and ready 
to fly when we need them. We will probably have to rely on 
those a little bit more than we have in the past.
    Senator Reed. My final question with respect to this issue 
of the aircraft is that I think the number in this year and 
next year is roughly 13?
    Mr. Tidwell. I expect we will probably have 14 this year.
    Senator Reed. Fourteen. But your long-term strategy calls 
for somewhere between 18 and 28.
    Mr. Tidwell. Yes.
    Senator Reed. So the obvious question is, how do we get 
from 14, let's say, to double that literally in the timeframe 
you're talking about with your strategy?

                      AIRTANKER LONG-TERM STRATEGY

    Mr. Tidwell. With the request for proposals that we put out 
a few months ago, we anticipate to bring on 3 additional 
aircraft this year, and then up to 10 additional aircraft next 
year. Those will all be contracted.
    An ideal situation would be at this time next year, I would 
be reporting to you that we have 23 to 24 aircraft that are 
available for the 2013 fire season.
    Senator Reed. And that would be based on the $24 million 
incremented funding?
    Mr. Tidwell. Yes.
    Senator Reed. Very good.
    Just a final question I have, and I might revisit this one, 
and that's the integrated resource restoration.
    You know, last year's appropriations bill provided the 
flexibility to conduct your pilot in three regions. This year's 
budget with full funding without essentially the results of the 
pilot, in a way, might be anticipating the results.
    We would like to see the results. So, can you comment very 
briefly?

                    INTEGRATED RESOURCE RESTORATION

    Mr. Tidwell. Mr. Chairman, we will be sending up our plan 
that not only lays out how those funds are allocated, but how 
they will be used, and how they will be able to account for 
what is produced from those funds throughout the year.
    At the end of the year, I look forward to when we can come 
up here and actually show what we have accomplished by having 
the flexibility that this fund affords.
    I recognize that we need to first show you that this is a 
better way through the pilot. At the same time, I would not be 
proposing this if I did not think it was a better way, and if I 
did not have the confidence that we can demonstrate that this 
will be better.
    So I understand I first need to prove it, and we will be 
doing that and I look forward to working with you.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just to follow on that, Chief. If I understand what you are 
saying, you are asking within this budget request for the full-
on IRR proposal. And yet, you say you are not going to be in a 
position until the end of this year to basically be able to 
show the accomplishments.
    Mr. Tidwell. Yes.
    Senator Murkowski. So this is kind of a ``trust me'' 
moment. And I think you heard last year from this subcommittee 
that we were willing to move forward with the pilot, but we 
wanted to see step by step.
    So, since we're in this ``trust me'' time, can you tell me 
how, whether or not, you've issued any guidance to the field on 
how to implement the authority, what performance measures you 
are using currently to evaluate the pilot, and then, how we'll 
be able to assess whether or not this pilot is actually more 
effective than how the regions operated under the current 
budget structure?
    Can you give me a little bit more than just say, wait until 
the end of the year?
    Mr. Tidwell. Yes, Senator.

               INTEGRATED RESOURCE RESTORATION DIRECTION

    As soon as the bill was passed, we sent out directions to 
the three pilot regions about how to move forward with using 
the Integrated Resource Restoration budget line item, and then 
allocated their percentage of those funds to those three 
regions.
    At the same time, we laid out that they need to be able to 
track our accomplishments: the amount of timber that's 
harvested, the number of acres that are going to be restored, 
watershed conditions improved, the number of miles of stream 
that are restored, and the miles of road that are 
decommissioned.
    In addition to that, we set up a watershed condition 
framework. We had taken every one of the watersheds across all 
of the national forests and grasslands, and developed criteria 
that puts them in a specific category so we know what their 
current condition is.
    These three regions would then be able to track how they 
actually made a change and improved the condition in those 
watersheds in addition to the outputs that we will be tracking.
    This will be part of the plan that we will have up here 
hopefully in the next few weeks to be able to share with you. 
Then, at the end of the year, to be able to come up here and 
show what work we were able to get done.
    And then also to compare with what we have done in the 
past, in these same regions, with the same level of funding.
    Senator Murkowski. And I think we'll all look forward to 
seeing that plan when you bring it up then.
    Let me ask you a little bit about this lawsuit out there, 
the Sequoia ForestKeeper  decision that deals with the 
categorical exclusions.
    As you heard in my opening comments, I think that this 
could have some considerable repercussions within the Agency. 
Can you tell me what the current legal status of the case is, 
and whether or not the USFS plans to appeal the decision?

                    SEQUOIA FORESTKEEPER VS. TIDWELL

    Mr. Tidwell. There have been numerous discussions with our 
attorneys about what the next course to look at this, and a 
decision has not been made on what is the next legal step to 
take.
    Immediately though, we started looking at how we could move 
forward. We sent out direction to the field that for these 
projects that would be covered under a decision memo, we wanted 
them to go ahead and put out a 30-day notice, for notice and 
comment.
    If we don't receive any substantive comments, then we can 
go ahead and move forward with the project. As you pointed out, 
that if we do, then we also have to allow for an appeal process 
that could easily delay these projects up to 140 days like you 
mentioned.
    There are 600 of these projects that were ready to move 
forward in the next 90 days. Not only on some of the minimal 
operations that you mentioned in Alaska, but there are more 
than 200 associated with oil and gas operations, primarily in 
North Dakota.
    More than 90 are hazardous fuel projects that we had 
planned to move forward with and do that work.
    Senator Murkowski. Is that 600 projects across the Nation 
then in all of these different areas? Whether it's oil and gas, 
mining, et cetera.

                           IMPACTED PROJECTS

    Mr. Tidwell. Yes. There are 600 total that were planned to 
go forward in the next 90 days. Of that 600, there are more 
than 200 that are associated with oil and gas operations, and 
more than 90 with hazardous fuels. There are at least six in 
Alaska, just dealing with mining activities.
    Senator Murkowski. So, will the USFS notify these permit 
holders and the contract holders if their operations next 
season are going to be delayed or cancelled because of this 
decision out there? How does that work?
    Mr. Tidwell. We will need to do that. I am optimistic that 
many of these projects, after the 30-day time limit for public 
notice and comment, will be able to go forward.
    As you mentioned, the one project, I would assume that is 
one that after 30 days, we would not get any substantive 
comments on it, so we could just go forward with it.
    Senator Murkowski. But, we're assuming that that's going to 
be the case. We get lucky, basically?
    Mr. Tidwell. Well, I need to remain optimistic as much as I 
can on this. I do expect that there will be some, if not many 
of these projects that we will probably need to go through the 
appeal process on, and there will be significant delays.
    Senator Murkowski. Well, and you've been able to detail the 
number of projects. Do we have any estimate on the number of 
jobs that we're talking about, the number of different economic 
activities that could be potentially delayed or held up because 
of this? Have you done that kind of an assessment?

                            ECONOMIC IMPACTS

    Mr. Tidwell. We have not done that yet. That is something 
we could pull together, especially for the projects because of 
our short field season in some parts of the country, that we 
would not be able to implement this year.
    If we need to wait 30 days for notice and comment, that 
will not be a significant impact, and we will be able to move 
forward with those. We will track the potential job impacts, 
and we can get back to you on that.

                    PREDECISIONAL OBJECTION PROCESS

    Senator Murkowski. I'd appreciate that.
    Now, last year, in the Interior, environment, and related 
agencies bill, section 428, we gave you the authority to 
promulgate regs, that use the Healthy Forest Act predecisional 
objection process instead of the process under which the 
Federal court found that you couldn't use the categorical 
exclusions.
    So I guess the question to you is whether or not you plan 
to issue these kinds of regulations pursuant to section 428, 
and whether or not the issuance of these regulations through 
this section would be an opportunity to perhaps fix what we're 
dealing with with this court decision?
    Mr. Tidwell. First, we do plan to move forward with 
rulemaking, to be able to use this predecisional objection 
process, that will actually be a better process. It allows us 
to have that additional discussion before the final decision is 
made.
    It supports our collaborative efforts very well. Part of 
the legal discussion that has been going on is if it would also 
give us an opportunity to address the current court order to 
use common notice and appeals on categorical exclusions.
    I am not sure if it will. It may not because the 
appropriations language was very specific to Environmental 
Assessments (EA) and Environmental Impact Statements (EIS), and 
it did not mention categorical exclusions. It is one of the 
things our attorneys are looking at, and we will have to get 
back to you on that.
    Senator Murkowski. Okay. Can you update the Committee, the 
subcommittee, when you know?
    Mr. Tidwell. Yes.
    Senator Murkowski. I think it is an area where we looked 
and said, okay, we might be able to get around this, this court 
decision, which I think you and I would both agree, has the 
potential to really snarl things up through a process.
    And, if in fact, we have allowed for a fix last year, it 
would certainly seem to me that that would be one way to try to 
approach the problem. So, if you can just keep us current with 
that, I'd appreciate it.
    Mr. Tidwell. I will. I look at the predecisional objection 
process as really a better way. It still provides the 
opportunity, especially on EAs and EIS.
    With categorical exclusions, because of the type of 
projects that we have to do I have already addressed all of the 
potential environmental impacts prior to using the categories.
    Hopefully, we will be able to find a way forward with this 
so that those type of projects can move forward rather quickly.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much.
    We are following the early bird rule so I'll recognize 
Senator Tester and then Senator Feinstein.
    Senator Tester. Well, thank you, Mr. Chairman.
    And, once again, I want to thank both you, Chief, and 
Susan, for your service.
    I want to flush out a little bit more about what the 
chairman talked about in his questioning about the planes. The 
number of planes has declined, with tankers from 43 in 2000 to 
11 in 2011.
    I've had the opportunity over the last year to be all over 
the West pretty extensively, and, of course, you know, I farm 
in Montana. So weather is something that I pay particular 
attention to, and I know that the snow pack is claimed to be 
average up in the high elevations. I don't know if that's true. 
I talked to a couple of ranchers this morning and said if 
there's a lot of snow up there, they haven't seen it.
    So, the question becomes that sets us up for a pretty 
potentially big fire year. I know we do a lot of praying and we 
say, you know, if it's the same as last year, I mean, if we get 
decent rainfall, it could be the same as last year. And last 
year, at least in my neck of the woods, it was a pretty decent 
fire season from a cost standpoint.
    You talked about going from 11 to 14 this year. There's 
three more tankers that you're going to contract for. When do 
you anticipate those contracts to be let?

                         AIRTANKER CONTRACTING

    Mr. Tidwell. Hopefully within the next 30 days, we will be 
able to make the decisions on the proposals that were 
submitted.
    Senator Tester. Okay.
    Mr. Tidwell. Then there will be a period of time that the 
aircraft will be able to demonstrate that they can meet our 
standards for retardant and delivery. We are optimistic that we 
will be able to bring on another three planes this year.
    Senator Tester. Okay. And I am familiar that you said that 
these planes are going to be faster so they're going to be a 
little more expensive, and I am familiar with what you're 
talking about.
    The question becomes, is there an analysis to know if the 
delivery of the product onto the fire is more cost beneficial 
with these bigger, more expensive planes? Maybe not bigger, but 
faster planes.

                       AIRTANKER DELIVERY STUDIES

    Mr. Tidwell. The information we have from the studies that 
have been done is that if we have a larger payload, ideally up 
to around 3,000 gallons, and then deliver it in a way that 
penetrates the brush and the heavy timber like up in your 
country, that is the type of delivery system that we need.
    Also, with the larger tank, they can split their loads and 
be able to drop two or maybe three from the same load. So that 
is where the efficiencies are gained.
    We are also moving forward with a study to put additional 
equipment into these aircraft so that we will be able to 
collect more information about their effectiveness. Not only 
how often they hit right where the ground crew are requesting 
retardant, but how it was delivered.
    By this time next year, we are going to have additional 
information that will help us as we move forward with 
determining just what is the right mix of aircraft. I want to 
stress that we are going to need a mix of aircraft. We are 
going to rely on our current contractors to keep delivering 
those resources.
    We are going to need some additional contractors to come 
onboard to provide aircraft for us.
    Senator Tester. Okay. And because you talked about a mix, 
so I do want to talk about helicopters for a second. You said 
that it was potentially--well, maybe not potentially, I don't 
want to put words in your mouth--that there will be additional 
helicopters this year.
    Could you tell me what that increase would be, and where 
we're at, and where it would be after the increase is done?

                        FIREFIGHTING HELICOPTERS

    Mr. Tidwell. We are contracting for four additional of the 
Type 1, which is what we call our heavy helicopter. Last year 
we had 26 of those, and then we had eight Type 2s that were 
available for really large fires.
    In addition, there is another 90 helicopters that are 
available for initial attack. By going with four more of the 
large helicopters, it gives us more capacity than what we had 
last year.
    However, there are additional costs. We had to put another 
$4 million into those contracts just to start the season.
    Senator Tester. Okay. So and I know you're going to say, 
just fine, but can you tell me how confident you are between 
the airtankers and the helicopters that will be available to 
shut the unwanted fires down when they occur in a timely basis 
and effectively deal with the other ones as your management 
plan dictates?

                     FIREFIGHTING ASSET CONFIDENCE

    Mr. Tidwell. I have a lot of confidence in our firefighters 
ability to do the job and the mix of resources. I acknowledge 
we are short of large airtankers. I would feel much more 
comfortable if we had another four, five, or six of those 
available this year.
    We will probably be quick to call on the MAFFS units to 
bring on those additional aircraft. With the MAFFS units, we 
will be well prepared to be able to deal with this fire season.
    However, if it becomes much more active than what we 
currently predict, which it could, there will be times like in 
years past, when there will be a shortage of resources in the 
near term during initial attack. And we will have to deal with 
that just like we have had to in the past.
    Senator Tester. Are you familiar, I talked about a team 
with H.R. 1581? It appears to me that at a time where you guys 
are trying to get some stewardship stuff done, I think you've 
got about a $6 billion backlog in roads as it is, that we're 
going exactly in the wrong direction.
    Hunter and fishermen interests aside, we're going exactly 
in the wrong direction for what you guys are trying to get 
accomplished. Has the Department taken a stand on H.R. 1581 and 
its impact on outdoor activities?

                               H.R. 1581

    Mr. Tidwell. I don't have a position on that bill yet. I 
can tell you that there is very strong support to maintain the 
undeveloped character of our back country, the roadless areas 
in this country, to provide recreational benefits, clean water, 
and wildlife benefits that come out of that land.
    What I want to focus on is being able to address the 
restoration needs and the millions of other acres, the roaded 
part of our country. It is often adjacent to our communities, 
that we need to restore, to make these areas much more 
resilient to fires, insects, and disease.
    You mentioned our road backlog. There are many places in 
the country--because of the erosion--that are coming off of the 
road system, it is limiting some of our management options.
    If we could ever get on top of that to the point where we 
could eliminate those concerns, it would free up and give us 
more flexibility to do restoration work and the timber harvest 
that needs to be done on these lands.
    Senator Tester. I agree.
    Very quickly. Region 1 has been honored to have the 
regional forester become the chief or the deputy chief in the 
USFS. You, in fact, yourself, made this jump.
    We have had now four regional foresters leave the region in 
the last decade and they've been darn good people. You're one 
of them.
    The management and oversight, continuity in that region 
takes a hit because of that. We are in kind of, between a rock 
and a hard place, so to speak, because although we'd love to 
have the regional forester become the person in your position, 
it does impact continuity.
    What steps since Leslie has left are you taking to get a 
new Director and are you concerned about the continuity in 
region 1, being intimately familiar with that region, as I am?

                                REGION 1

    Mr. Tidwell. I am with every region and every station 
whenever we have a change in leadership. I am very pleased with 
the work that the regional foresters have been doing for us.
    I can assure you that the next regional forester, who I can 
at least say will do a better job than I did--I will not say 
she did a better job than the last one.
     I will say that the next person will do a better job than 
I did up there for you.
    Senator Tester. How about the length, the continuity?
    Mr. Tidwell. I would hope in the future that our regional 
foresters can stay in place a little bit longer than at least 
the last couple have stayed up there.
    I can assure you that the people that will be stepping into 
those positions have the experience, they have decades of 
experience in dealing with these resources. When they do step 
in, they will be ready to go and will be able to continue to 
provide the leadership that is necessary in our regions.
    Senator Tester. I appreciate that. They have been top 
flight, I agree. Thank you.
    Senator Reed. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Tidwell, you know, I think we're all really very 
concerned about what's happening. The President's budget for 
you is up about 1 percent. And yet, I want to show you fires.
    Here are ``Total Acres Burned By Decade''. And you can see 
from 2002 to 2011, 70,482,958 acres.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    So you can see, there was a decline, 1982 to 1991, and from 
that point on, acreage burned has gone up. Here are the numbers 
of times planes were used.
    Do we have the one on planes? Could we put that up?

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

 Shows the total number of times airtankers were used between 1990 and 
                                 2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Shows the number of times a request for a tanker was not filled.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 The percentage of unfilled requests compared to the sum of filled and 
                           unfilled requests.

    Senator Feinstein. Oh, the number of times planes were 
used.
    And you see the line going straight up. So we have more 
acres burned, more need for planes. And I want my staff to 
bring you down a copy of a letter that you received on March 7 
from CAL FIRE. I don't know if you have that in front of you.
    [The information follows:]

     State of California--Natural Resources Agency,
                Department of Forestry and Fire Protection,
                                     Sacramento, CA, March 7, 2012.
The Honorable Tom Tidwell,
Chief, USDA Forest Service,
Washington, DC.
    Dear Chief Tidwell: The California Department of Forestry and Fire 
Protection (CAL FIRE) and the United States Forest Service (USFS) 
Region 5 have a long history of cooperative fire protection, including 
an integrated air attack program. Air attack bases were located 
throughout the State based on a maximum 20 minute response time to any 
location, including both State Responsibility Area (SRA) and National 
Forest lands. CAL FIRE's fleet of 23-Type 3 airtankers, mixed with the 
assigned Federal Type 1 airtankers, provided a mixture of aircraft to 
meet our joint initial attack goals, as well as the needs of extended 
attack and major fires.
    The reduction in the number of Federal airtankers from 43 in 2000, 
to 11 in 2011, has resulted in significant impacts on this integrated 
system, placing an increasing burden on CAL FIRE aircraft to respond to 
fires on National Forest lands. Initial and extended attack fires on 
Federal lands are increasing the flight hours on CAL FIRE's airtankers 
and reducing their availability for response to new fires.
    The USDA Forest Service Large Airtanker Modernization Strategy 
(Strategy), released on February 10, 2012, is long overdue and is a 
critical step toward identifying the next-generation large airtanker 
platform. I have concerns, however, that the Strategy falls short in 
several areas:
  --The Strategy does not reference the individual needs of the States. 
        The Federal aviation program is critical to meeting the fire 
        protection goals of the States as well as those of the Federal 
        agencies, especially in California. Fire fighting aircraft are 
        a very limited resource and, therefore, it is critical that the 
        national strategy include collaboration with the States to 
        ensure the plan provides for efficient and integrated use of 
        all assets.
  --The identified optimum number of 18 to 28 aircraft is insufficient 
        to meet the needs of the combined Federal, state and local wild 
        land firefighting missions. As the Strategy indicates, the 
        current drought cycle will continue through the next decade, 
        only exacerbating the already dry fuel conditions and potential 
        for extreme fire behavior. Over half of California's most 
        devastating fires have occurred within the last 10 years. The 
        Federal aviation program must build capacity back to a level 
        that adequately supports the initial and extended attack needs, 
        both nationally and within individual states. I am concerned 
        that during periods of multiple large fires in other Regions, 
        California will be left with an insufficient number of Federal 
        aircraft to meet the normal initial and extended attack 
        workload. This places additional burden on CAL FIRE and local 
        government aircraft and risks additional large fires that 
        threaten lives and natural resources.
  --The Strategy identifies a desire to look at dual mission aircraft 
        that can transition from delivering retardant to transporting 
        cargo or fire fighters. It is critical that aircraft identified 
        as airtankers remain dedicated to initial attack response and 
        that retardant systems be designed for the most effective 
        delivery and application of retardant. Switching between 
        multiple functions often leads to a reduction in performance 
        for any given task.
  --The Strategy does not adequately address the potential use of very 
        large airtankers (VLATs), especially for the extended attack 
        incidents. The VLAT should be considered to meet your interim 
        needs, and as part of your long-term strategy. Use of the VLAT 
        on extended attack incidents, where large amounts of retardant 
        are required over extended periods of time, could free up other 
        airtankers for initial attack incidents where they are arguably 
        more effective.
    CAL FIRE has maintained its own aviation program in California for 
many years and has worked very closely with our Federal partners. We 
have a vested interest in an effective national aviation program that 
supports all of our missions. Unless there are a sufficient number of 
Federal airtankers, CAL FIRE cannot continue to support extended attack 
fires on Federal lands without adversely affecting our aviation 
program.
    States stand ready to assist you in developing and implementing a 
plan for the appropriate number, type and location of Federal 
airtankers. I look forward to discussing this issue with you and Tom 
Harbour in the near future.
            Sincerely,
                                               Ken Pimlott,
                                                          Director.

    cc: (USFS) James Hubbard, Deputy Chief for State & Private Forestry
        (USFS) Tom Harbour, Director of Fire and Aviation Management
        (USFS) Randy Moore, Regional Forester Pacific Southwest Region
        (CAL FIRE) Andy McMurry, Deputy Director, Chief of Fire 
Protection
        (CAL FIRE) Caroline Godkin, Deputy Director of Legislation

                         FIREFIGHTING CAPACITY

    Mr. Tidwell. I do, Senator.
    Senator Feinstein. You do.
    I've underlined certain parts of it, and I'd like you to 
follow along. Well, CAL FIRE's fleet of 23 Type 3 airtankers 
mixed with the assigned Federal type 1 airtankers provide a 
mixture of aircraft to meet our joint, initial attack goals, as 
well as the needs of extended attack on major fires.
    And then he points out what the reductions are. And he 
says, initial and extended attack fires on Federal lands are 
increasing the flight hours on CAL FIRE's airtankers and 
reducing their availability for response to new fires. And then 
he talks about your strategy.
    I have concern that the strategy falls short in several 
areas. And the one I would talk of the identified optimum 
number of 18 to 28 aircraft is insufficient to meet the needs 
of the combined Federal, State, and local wildland firefighting 
missions. The current drought cycle will continue through the 
next decade.
    I'm concerned that during periods of multiple large fires 
in other regions, California will be left with an insufficient 
number of Federal aircraft to meet the normal initial and 
extended attack workload.
    Now, here's the deal breaker. Unless there are a sufficient 
number of Federal airtankers, CAL FIRE cannot continue to 
support extended attack fires on Federal lands without 
adversely affecting our aviation program.
    So what this is saying is if you're going to provide, you 
know, reduced ability, CAL FIRE is considering stopping 
fighting fires on Federal land, and we have huge amounts of 
Federal land in California.
    Where do the new helos come from? You're cancelling four 
helos, three of them in California, is that right?

                        FIREFIGHTING HELICOPTERS

    Mr. Tidwell. Those were the smaller Type 2 helicopters.
    Senator Feinstein. But you're cancelling four, right?
    Mr. Tidwell. We replaced those. We actually have eight less 
of the Type 2 helicopters, and we are bringing on four Type 1s 
which actually will carry more, have more capacity, and are 
able to deliver more water per hour than those eight.
    Senator Feinstein. How many will be available during fire 
season in California?
    Mr. Tidwell. Depending on what's going on in California, 
Type 1 helicopters could be in California.
    We move these resources to where the fire season is 
starting to increase, and we pre-position these large 
helicopters to be available.
    They are not the helicopters that we rely on for initial 
attack. These are large helicopters that are dedicated to fire 
suppression, the large fires. And so we will move those and 
pre-position them wherever in the country we need them.
    Senator Feinstein. You're staying that 30 of these 
helicopters will be available in California during fire season?

                         HELICOPTER POSITIONING

    Mr. Tidwell. They could be, depending on what's going on in 
California, and the rest of the country.
    Senator Feinstein. Could be.
    Mr. Tidwell. We also have our initial attack helicopters 
that will be located throughout the State. This is one of the 
things that we are also looking at, especially as the fire 
season develops. If we need to bring on additional helicopters 
over the next 30 to 45 days.
    It is one of the things we are considering, to actually 
bring on some additional helicopters depending on how this fire 
season develops over the next 30 to 45 days.
    Senator Feinstein. Well, I'm concerned because I know CAL 
FIRE, and they don't say things that they don't mean. And I'm 
worried that we're on our way to a confrontation which is not 
going to be helpful.
    And, you know, we've got big national forests up in the 
Tahoe Basin, up in the northern part of the State. You've got 
the Los Angeles National Forest where if they have a fire 
there, it impacts subdivisions and a lot of forestry land as 
well, different forest land.
    That you will not have adequate equipment available in the 
State. You are saying to me that you will, is that right?
    Mr. Tidwell. We will be able to move these resources to 
California depending on the fire season. If we determine in the 
next 30 to 45 days that there's a need to bring on additional 
helicopters, we will do that.
    We also have the hundreds of call-when-needed helicopters 
that we can also bring on.
    Senator Feinstein. Are they adequate? Is the supply going 
to be adequate? Look, hazardous fuels mitigation money is down. 
We have had a wet winter. You're going to have huge food for 
fire.
    And if what happens with weather is more heat which is 
suspected, we've got two nuclear power plants down in Southern 
California, the possibility of rolling blackouts in the summer.
    What I'm trying to find out is, will you make a commitment 
that there are adequate Federal firefighting resources for 
Federal land in California this next firefighting season?
    Mr. Tidwell. I will make a commitment that we will provide 
the resources that we have available to address the situation.
    I would like to remind the subcommittee that there are 
times when we have the large airtankers, the large helicopters, 
the Type 1 crews that are within minutes of a fire.
    If it gets started under certain conditions, we are not 
able to catch that fire during initial attack.
    Senator Feinstein. Well, my understanding is that the helos 
are not available to hit fires when they're small, only after 
they burn out of control; is that correct?

                     FIREFIGHTING WITH HELICOPTERS

    Mr. Tidwell. No. Our helitack crews, their primarily 
responsibility is initial attack. We have more than 90 
helicopters that are just available for initial attack.
    As the fire season develops, we can bring on dozens to 100 
more on-call helicopters when needed to do initial attack, to 
drop water and also move crews.
    Senator Feinstein. I don't want to go through another 
Station Fire.
    Mr. Tidwell. Yes.
    Senator Feinstein. And you're telling me now that the 
helicopters will be available on the initiation of what could 
be a big fire. You're not going to wait until it's out of 
control.
    Mr. Tidwell. No. Usually, depending if the fire starts near 
one of our helitack bases, that helicopter is the first 
resource on the fire.
    If it is farther away, then it is the airtanker that is 
going to be the first resource on the fire, and then the 
helicopters are usually the second resource on that fire.
    Senator Feinstein. Is it your intention in a wildfire, 
wildland fire on Federal land, to let the land burn or to 
attack it at its beginning? What is the policy now?

                          WILDLAND FIRE POLICY

    Mr. Tidwell. The policy is that when we need to take 
initial attack, we are going to take initial attack. Our record 
of being successful on close to 98 percent of the fires that we 
take initial attack on has held up over the years. I expect we 
are going to be able to continue that.
    There are fires in the back country, where the planning has 
been completed. If we have the right set of conditions, we will 
manage that fire in the back country for resource benefits.
    But when I say it is managed, it is still suppression 
actions that are taken to make sure that it is contained within 
an area that has been basically already addressed through a 
planning process.
    Senator Feinstein. Well, I'm going to follow this fire 
season very carefully and come back and look at this 
transcript. Because I am really concerned. And I hope you will 
give California some attention.
    Things are happening weather-wise out there which are very 
serious, and it's getting warmer, and drier. And as I say, I 
think the decision was made in the Station Fire, not to attack 
early. And I think that was a mistake.
    Initially, we had more than 1,000 lightning strikes on a 
given day up north, not last year, but a couple of years ago, 
which started hundreds of wildfires. And I went with President 
Bush and flew over and the damage that was done was just 
enormous. It looked like another planet.

                              STATION FIRE

    Mr. Tidwell. Yes, Senator, I worked in that region, and I 
was up there on those fires when we had that. I think it was 
one storm, we had more than 3,000 fires get started there in 
the northern part of California.
    We will continue to work very closely with CAL FIRE along 
with all the other States. The only way we can deal with 
wildland fire in this country is for all the cooperators to 
work together. We will take initial attack, like we did on the 
Station Fire. We had crews and resources that were on that fire 
right from the start. Early the next morning, we had a large 
helicopter dropping close to 2,000 gallons of water every few 
minutes on that fire.
    But you get the right set of conditions, and you get the 
wind behind it, and there are a few of these that we are just 
not able to catch during initial attack.
    Senator Feinstein. I know that that's true. Have you 
responded to CAL FIRE's letter of March 7?
    Mr. Tidwell. We have been working with them, having 
discussions with them, and I will be sending a written 
response.
    Senator Feinstein. Would you please ``cc'' me on the 
response, I'd appreciate it.
    Mr. Tidwell. Certainly, Senator.
    Senator Feinstein. I'd appreciate it. Thank you. I'm sorry 
I took so much time.
    Senator Reed. Quite all right, Senator.
    Senator Feinstein. Thank you.
    Senator Reed. Very important and timely questions. In fact, 
let me just follow up.
    As Senator Feinstein pointed out, not only do we look at a 
very complicated and challenging fire season ahead, we lost a 
lot of acreage last year which raises a question about 
rehabilitation.
    And I note, and you may correct me if I'm inaccurate, that 
there's no line item for rehabilitation in the fiscal year 2012 
budget, so how are you rehabilitating some of the lands? Where 
are you getting the money?

                          LAND REHABILITATION

    Mr. Tidwell. Mr. Chairman, you are correct. We no longer 
have the budget line item that we have had in the past to deal 
with restoration following a fire.
    So the initial work that is done is through our burn area 
emergency rehab work, where we do have current year funds that 
we can use, but a lot of the work has to be done following 
that.
    We will have to rely on using the funds--the fund codes 
that make up the IRR proposed line item.
    We use force management of watershed funds, fish and 
wildlife funds at times, to be able to do that work. We are 
going to have less resources to be able to respond in the 
future.
    Senator Reed. Let me follow up with a related question. One 
of the ways that you try to minimize the risk is hazardous 
fuels reduction. And I looked at the fiscal year 2012 budget, 
and in the 2013 budget proposal, you are taking $75 million 
from hazardous fuels, and you're putting it in the IRR line 
which we both talked about as perhaps the cart before the horse 
in terms of the pilot program.
    That raises the question of how are you using these limited 
dollars for fuel reduction mitigation efforts that will help?

                            HAZARDOUS FUELS

    Mr. Tidwell. The $75 million that we proposed to put into 
the IRR is basically that part of our hazardous fuel money that 
we have been spending in more of the back country to do the 
work.
    Over the years, we have spent the majority of our funds in 
the WUI. We have 25 million acres of WUI on the National Forest 
and grasslands.
    We have a system that we have been using for the past 
years, a model that we follow, to determine the highest-
priority areas for distributing fuels funding across the 
country.
    We follow that model to set the priorities and the 
allocations out to the regions, and the regions then use a 
similar model to actually determine which forest receives the 
hazardous fuels funding so that we are putting the funding 
where we have the highest priority.
    Often when there are resources like communities that are at 
risk from a large wildfire those projects are going to rate out 
very high. That is why you are going to see us continue to 
spend the majority of our appropriations dealing with WUI 
hazardous fuels projects.
    They are also the most expensive work. The work we do in 
the back country, we can treat a lot more acres for a lot less 
money. So over the last few years, as far as acre 
accomplishment, we have been getting about 50 percent of our 
accomplishment in the WUI, and then 50 percent in the back 
country, even though we have been spending the majority of our 
appropriated funds in the WUI.
    It is just much more expensive to work in communities' 
backyards.
    Senator Reed. Yes. You presumably have evaluated the cost 
benefit, you know, the relative efficiency of this program. Can 
you share that with us? Whatever analysis you have.
    Mr. Tidwell. We can do that. I can tell you that we 
continue to learn. We had last year with the Wallow Fire, the 
largest wildfire of record in Arizona.
    We were fortunate that a few years ago, we started the 
White Mountain Stewardship Project down there that had treated 
thousands of acres before that fire got started.
    Because of that work, when that large wildfire hit those 
treated areas, areas that had been thinned out, that fire 
dropped out of the top of the trees onto the ground, and our 
suppression crews, our firefighters were successful.
    It saved thousands of homes. It is tragic that we lost 
dozens, but because of that work, I would be glad to show you 
some photos that demonstrate the difference it can make.
    We have also learned with the fire seasons we are dealing 
with now, that we need larger treatments. Some of the work that 
we did in the past was not large enough. We have to be able to 
understand that these wildfires, the conditions that we have 
today, that it is going to take much larger areas that have 
been treated to really make a difference.
    Those are some of the things that we are looking at more 
now as we move forward. Taking more of a landscape approach so 
that we are not treating 50 or 100 acres. We need to be 
treating the thousands, the tens of thousands of acres.

       COLLABORATIVE FOREST LANDSCAPE FOREST RESTORATION PROJECTS

    That is our current approach with these Collaborative 
Landscape Forest Restoration projects across the country. I 
used the one project down there in Arizona that we are moving 
forward with as an example.
    We are also doing another one, an environmental impact 
study on 750,000 acres, to be able to address, do the analysis 
for 750,000 acres under one environmental document. Then we 
will be able to move forward and do the restoration work across 
this four-forest area over the next decade or so.
    That is what we need to do. That is what we have been 
learning, and I will be glad to provide you with the 
information that we have on some of the studies we have been 
doing on the effectiveness.
    Senator Reed. Let me turn now to the urban and community 
forest program. You are looking at a $3.2 million reduction, 
and yet you are indicating that you'll maintain the same level 
of activity.
    That would be very good. How do you do that?

                      LANDSCAPE SCALE RESTORATION

    Mr. Tidwell. Well, actually, our request is very similar to 
what we received in fiscal year 2012. But there is a portion of 
those funds that have moved into our Landscape Scale 
Restoration proposed budget line item.
    This Landscape Scale Restoration proposed budget line item 
reflects what we have been doing over the last few years. 
Taking a portion of our State and private funds and setting it 
aside, so that the States actually compete for those funds.
    They get their initial funding, and then there is this 
other pot of money that we have had them compete for over the 
last few years. What we have noticed through this is that they 
have learned to look at how they can put together better 
proposals, even working across State lines, so that we have 
been able to increase our efficiency.

                      URBAN AND COMMUNITY FORESTRY

    When it comes to Urban and Community Forestry, we are 
requesting a similar amount of money. There is just a portion 
of it that will be in this other proposed line item that the 
States will have to compete for just like they have had to over 
the last few years.
    Senator Reed. There's another aspect here, and that is with 
respect to States, particular States that don't have large 
national forests but have private and State owned forests.
    That's the proposal to consolidate the State Wildland Fire 
Assistance and the Forest Health Management Program, which 
could leave some States, one of which being mine, unsure of 
where they stand or not receiving adequate resources for 
current programs.
    Can you comment upon that?

                         PROGRAM CONSOLIDATION

    Mr. Tidwell. There is a very slight decrease in what is 
available for the State Fire Assistance funds.
    Once again, we have proposed to put both of the funds into 
one budget line item just to make it a little easier for us to 
track just one budget line item.
    It is going to be a little easier for the States, instead 
of having two. Basically, they have done the same type of work, 
and we feel that it's more efficient to have one budget line 
item.
    Overall, it is a slight decrease from what we requested, 
what we received in fiscal year 2012. Those funds are still 
going to be available for Rhode Island and for all the States.
    As it has been pointed out so clearly here a couple of 
times, our fire seasons are becoming not only longer, but more 
severe, and are becoming a bigger problem for us to deal with. 
It is essential that we can continue to be able to provide the 
support to our States and to local fire departments.
    Without them, we would not have near the success ratio that 
we currently do, because we rely on both the State and the 
local fire department to be the first resources that come onto 
fires that are on the national forests.
    Senator Reed. Thank you, Chief. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, let me ask you about the 9th Circuit, Court of 
Appeals decision that decided that forest roads are point 
sources that require industrial discharge permits.
    Last year in the appropriations bill, language was included 
that temporarily prevented this ruling from taking place. So 
the question to you this morning is whether or not insertion of 
that language actually allowed USFS to get more work done on 
the ground?
    Was that helpful, not helpful? Can you just kind of speak 
to how that played out?

                              FOREST ROADS

    Mr. Tidwell. Senator, it allowed us to continue to do what 
we have been doing to address the need for clean water, and 
that is to follow the use of our best management practices that 
we have been relying on to address any potential concerns of 
erosion coming off of logging roads.
    It's something we're working closely with Environmental 
Protection Agency (EPA) as we move forward. They had a court 
order they had to address. But to be able to work with them to 
find a way we can continue to use our best management practices 
to be able to apply that.
    Because it has proven to be very effective not only on the 
national forests but also on the private forested lands, that 
most I think every State requires the use of best management 
practices.
    And they have been effective to address, the potential 
concerns and be able to not only meet the intent of the Clean 
Water Act, but also to address any concerns with the impacts to 
water.
    Senator Murkowski. So if in fact this is actually helped 
you, is there a reason that you didn't request extension of 
this authority in the budget this year?
    You mentioned you are working with EPA. We understand that 
we need to do that. But if it's proven effective, why wouldn't 
we want to continue this?
    Mr. Tidwell. I'm optimistic that through the work of EPA, 
we will be able to find an administrative path forward to be 
able to address this. I am optimistic we will be able to get 
that done.
    Senator Murkowski. Can you give me any indication at this 
point in time that you think you have that administrative 
authority?
    Mr. Tidwell. We do not have it at this point in time, but 
we are continuing to work closely with the EPA.
     I would be glad to, as those discussions move forward, and 
a decision is made by the EPA on what steps they are going to 
take, provide that information to you.
    Senator Murkowski. Okay. I would appreciate that because if 
it appears that that isn't possible, if you've indicated that 
you think you've actually made some improvements, you've been 
able to get some additional work done on the ground, then maybe 
we need to look again to inserting that language.
    Let me ask you about Secure Rural Schools program. You 
mentioned very briefly in your statement a reference to Secure 
Rural Schools program. Clearly very important to States like 
mine and to many on this panel.
    Can you tell me what the allocation split is? I'm looking 
at the budget justification here. And it just indicates that, 
let's see, the fiscal year 2012 proposal assumes the enactment 
of Secure Rural Schools program for 5 years, funds payments for 
mandatory funding.
    And the proposal revises the allocation split between the 
schools and roads, economic investment, forest restoration, and 
fire assistance portions of the program.
    Can you tell me where you are going to the Secure Rural 
Schools program?

                      SECURE RURAL SCHOOLS PROGRAM

    Mr. Tidwell. In the President's request, we identified 
mandatory funding that could be used for this program.
    Senator Murkowski. So where did you identify that from?
    Mr. Tidwell. It is part of the President's budget request.
    Senator Murkowski. Okay.
    Mr. Tidwell. It is the overall request, and at the same 
time, we need to work with you to put together the legislative 
framework on how to move forward with this program.
    We put it in there as mandatory funding this year, it shows 
the importance, the understanding of the importance of this 
program, especially in these current economic times, about how 
we need to be able to find a way to work together to be able to 
move forward, to be able to continue to provide this funding to 
the counties and the boroughs.
    Senator Murkowski. Okay. Well, I want to understand a 
little bit further the administration's proposal.
    Again, this is something that many of us are very focused 
on, and want to make sure that we've got the funding piece of 
it figured out, but also the formula going forward over the 5 
year proposal.
    Let me ask you about the new forest planning rule. On the 
23d of March, you finalized the new planning rule. This is the 
latest attempt to revise the 1982 planning rule.
    Of course, we've seen a series of litigation over the 
years. The 1982 rule remains in effect. I guess a question to 
you is whether or not you also similarly expect that this new 
rule will be challenged and whether you think that this one is 
one that could actually be held up in a court challenge?

                             PLANNING RULE

    Mr. Tidwell. Senator, I do not know if it is going to be 
challenged or not. As you mentioned, we have had to deal with 
this for the last two decades, and the last three attempts were 
challenged.
    We definitely have learned from those previous attempts. 
From my perspective, we have done the best job of having a very 
transparent process involving and engaging more members of the 
public across this country than we ever did before.
    To be able to factor in what we heard from all those 
different meetings, and all the comments that we received, I 
believe we have the best proposal we have ever put together. It 
is very balanced. It will save money. It is going to save time.
    It will do a better job than what we did under the 1982 
rule. I also believe we did an excellent job dealing with the 
analysis that is required, and that we are optimistic about 
moving forward and demonstrating how we will apply this.
    The other thing we are relying on is that we are putting 
together a Federal advisory committee to provide 
recommendations to the Secretary and myself about the 
directives and about how to move forward with this and also 
with the collaborative process that is required.
    I think by having that committee in place, which will be a 
very diverse, group of individuals, that will need to spend the 
time to really look at this. We will be able to bring in not 
only employees from the forest that are moving forward with the 
plans, but also members of the community to be able to say, 
that this is how we're moving forward with it.
    Here is how it is working. They can hear directly from 
them. I am optimistic that this time around, we will be able to 
demonstrate that this is a better process than in 1982. That if 
and when there is a court challenge, we will have that 
additional evidence to be able to demonstrate that this is a 
better way, while at the same time, addressing the same 
concerns that have been brought up in the previous litigation 
on our past attempts.
    Senator Murkowski. Well, I think we all know there's been a 
somewhat tortured history out there going through the courts.
    Mr. Tidwell. Yes.
    Senator Murkowski. I was a little surprised that the 
Chugach National Forest was selected as one of the first eight 
forests to revise its plan under the new rule because as it 
stands right now, the Chugach Plan doesn't require revision for 
yet another 5 years.
    So the question is, why was the Chugach National Forest 
selected when you've got other forests out there that are well 
past their life of their 15-year plan? Why did you single out 
the Chugach National Forest?
    Mr. Tidwell. First of all, it is within every 10 to 15 
years, and so they will be closed here in a couple of years, 
but they asked. The forest felt they were well positioned to be 
able to move forward.
    They wanted to use this new rule to make some changes in 
their current forest plan based on what they are hearing from 
their communities and from the public.
    So they requested that they could be one of the first 
forests to move forward with implementation. That was one of 
the things that we factored in as to which ones need, have a 
pressing need, and the ones that were positioned and had the 
ability to move forward.
    Then, if there was a strong desire. The Chugach National 
Forest met all of those.
    Senator Murkowski. Do you worry that not only the Chugach 
National Forest, but the others, the other eight, might start 
revising their plan under this new rule, and then as we saw 
before, the rule gets thrown out in court.
    And you're in a situation where you've effectively wasted a 
lot of time, clearly, a lot of money, because you have to start 
all over again.
    Do you worry about that course ahead?
    Mr. Tidwell. We do factor that in, and that is where the 
forests that are currently going, they have been going through 
planning for the last couple of years. They will probably all, 
or most of those, will continue under the 1982 rule.
    This new rule is so much more efficient, and it eliminates 
a lot of unnecessary modeling and analysis. So that, under any 
scenario, we probably are not going to lose any ground. I 
remain optimistic that because of the work that we did this 
time around, the additional work, working with our communities, 
that I feel that we have finally done this.
    That this will be a rule that will withstand any 
challenges, and that we will be able to move forward and revise 
our forest plans for decades to come. I know, you know, there 
is a chance it could be challenged.
    I feel really strongly about this, and I tell you I would 
not have this level of confidence if it was not based on just 
the work that has gone into this. The amount of support across 
the board, and not everyone is supportive. I understand that.
    We definitely have more support for this rule than we have 
ever had for the previous three attempts.
    Senator Murkowski. Well, I guess it remains to be seen. Mr. 
Chairman, I have one more question, but my time is up.
    Senator Reed. Take your time. Go ahead.

                        STEWARDSHIP CONTRACTING

    Senator Murkowski. Okay. Then this is as it relates to the 
stewardship contracting and the Tongass. I'm sure you probably 
anticipated this question.
    You indicated in your comments that you're seeking a 
permanent extension of the stewardship contracting authority, 
and have indicated that this is a real priority for USFS and 
its restoration efforts.
    Unfortunately, this hasn't been met positively in the 
Tongass as it relates to the stewardship contracting. Back in 
2008, USFS promised to offer four 10-year commercial timber 
sales at approximately 150 to 200 million board feet.
    Those have been modified into two stewardship contracts at 
a greatly reduced volume. We've yet to see these contracts 
completed and offered to the industry.
    So I'm concerned that with the focus on the stewardship 
contracting, what is happening is it's coming at the expense of 
a commercial sales program, and our very small male 
infrastructure is being squeezed here.
    So I would ask you to address that criticism that USFS 
focus is on, in an area that directs resources away from the 
commercial sales, whether or not, I guess, the volume of 
commercial sales that you would anticipate be part of these 
contracts, and how you see it really operating in the Tongass?
    Mr. Tidwell. Stewardship Contracting is just another tool 
to augment the work that needs to be done. It is not to replace 
the timber sale contracts.
    I share your concern about the lack of progress we have 
made with the Stewardship Contracts that USFS has been working 
on. It is one of the things that I would really like to work 
with you to maybe look at some of the different options that we 
may have up there on the Tongass to be able to move forward 
with that.
    I want to be very clear. It is just part of our program. We 
are currently doing about 20 percent of the restoration work, 
the timber harvest under Stewardship Contracts across the 
country.
    Ideally, would I like to see a little more of that? Yes. 
But we are still going to be using the timber sale contract. It 
is the right tool for certain projects.
    However, we are finding the Stewardship Contract to be a 
very effective tool. I think it does have some use up on the 
Tongass. Maybe not as much up there as in other parts of the 
country, but we did have one very successful project last year. 
It was small.
    But I think those are things that build confidence not only 
in the industry, but in the communities, that this is a good 
tool.
    I am hoping because of the success they had last year on 
that small project that we will be able to move forward with 
the Stewardship Contracts, and to make these multiple-year 
contracts, so that it allows someone to be able to come in and 
make that financial investment in either maintaining the mill 
or investing in upgrading the mill.
    If they know that there is a long-term contract here and 
that there is going to be a certain amount of material that is 
going to be available, it is going to be harvested, they can 
make sound financial decisions.
    That is what we need to be able to do. Senator, I really 
look forward to being able to work with you to look at maybe a 
couple of different options I have been thinking about that 
maybe could help us on the Tongass.
    Senator Murkowski. Well, I'd like to take you up on that 
offer. Again, my concern is that you have a diversion of 
resources that goes toward the stewardship contracts at the 
expense of the other projects and how we affect these 
commercial sales.
    So if we can sit down and discuss how some of these options 
might move forward on the Tongass, I think the people in the 
region would greatly appreciate it. I would appreciate it.
    It's something that, again, in our conversations both in 
hearing and in my office, I've expressed the concern of those 
that are really just hanging on by their fingernails out there.
    And the assurance of a longer-term contract and some 
reasonable volume is all they're looking for. They're not 
looking to take it back to the days of the timber industry 30 
years ago. They're more pragmatic about that.
    But we need to have some assurance. So if your folks can 
sit down with us and work through some realistic options, I 
think that that would be appreciated.
    Mr. Tidwell. Well, thank you.
    I look forward to having that opportunity because I do 
think we have some additional flexibilities, some things we are 
doing here in the lower 48 that we should be able to have those 
same flexibilities on the Tongass too. Especially in these very 
difficult economic times that we are facing.
    Senator Murkowski. Exactly.
    I would rather the people of Ketchikan and Prince of Wales 
be able to harvest timber, be able to have jobs in the small 
saw mills than figure out ways that we're piecing together 
Secure Rural Schools program funding.
    Trying to rob Peter to pay Paul type of an approach. But 
knowing that that's all we have to offer right now, I think 
they would rather have the jobs. They would rather have that 
small industrial base.
    Mr. Tidwell. Yes.
    Senator Murkowski. So I look forward to working with you, 
and thank you, Mr. Chairman, for the additional time.
    Senator Reed. Thank you, Senator Murkowski. And thank you, 
Chief, for your testimony. Did you have a comment? Please, go 
ahead.

                               H.R. 1581

    Mr. Tidwell. Yes. Mr. Chairman, I just need to, for the 
record, correct an earlier statement from Senator Tester about 
H.R. 1581.
    I did not recognize the H.R. number versus the Senate 
number.
    Senator Reed. You didn't? I'm shocked.
    Mr. Tidwell. I apologize to the subcommittee, but we did 
testify on that bill in the past, and our position is that we 
strongly opposed that bill. I just wanted to correct the 
record. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. The correction is duly noted. We will keep 
the record open for 1 week. You may receive additional 
questions from my colleagues. Any further statements by my 
colleagues will be submitted for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                   Questions Submitted to Tom Tidwell
                Questions Submitted by Senator Jack Reed

                       STATE AND PRIVATE FORESTRY

    Question. The fiscal year 2013 budget proposes a $3.2 million 
reduction for the Urban and Community Forest program while the budget 
justification states that the fiscal year 2012 level of activity will 
be maintained in fiscal year 2013. How will a $3.2 million reduction 
result in the same level of activity?
    Answer. In fiscal year 2012, as in the previous 4 years, 15 percent 
of funds from selected State and Private Forestry (S&PF) programs, 
including Urban and Community Forestry (UCF) were used to fund 
competitive, landscape-scale ``Redesign'' projects. The fiscal year 
2013 budget proposes a Landscape Scale Restoration Program as a new 
Budget Line Item (BLI) that would formalize the Redesign competitive 
process. The $3.3 million reduction is similar to the amount that would 
have been used to traditionally fund ``Redesign'' projects, which will 
now be funded by the Landscape Scale Restoration BLI. As such, the 
amount proposed in the UCF program is similar to previous years and is 
expected to have similar accomplishments.
    Question. Can you specifically detail the initiatives planned for 
urban forests in fiscal year 2013?
    Answer. UCF will work with the State forestry agencies and other 
partners to provide assistance to develop and maintain urban and 
community forestry programs. These programs protect and maintain urban 
trees and forests in more than 7,000 communities, representing more 
than 194 million people. In fiscal year 2013, UCF will continue to 
support the national strategic tree planting initiative launched in 
fiscal year 2012 to reduce energy consumption and provide communities 
with all of the benefits that urban trees provide including:
  --improved air and water quality;
  --improved human health and well-being;
  --green jobs;
  --recreation; and
  --wildlife habitat.
    In fiscal year 2013, UCF will also work with partners to advance 
the recommendations contained in the Vibrant Cities and Urban Forests 
Task Force Report, issued in the fall of 2011 and available online at 
http://issuu.com/vibrantcities/docs/vibrantcitiesreport.
    Question. What are the goals of the proposed Landscape Scale 
Restoration program and how will States with predominately State and 
private forest lands, such as Rhode Island, likely to compete?
    Answer. The goal of the proposed Landscape Scale Restoration 
Program is to focus and prioritize S&PF resources to better shape and 
influence forest land use at a scale and in a way that optimizes public 
benefits from trees and forests across all landscapes, from rural lands 
to urban centers. This increased focus on ``All Lands'' projects brings 
particular attention to implementation of the priorities identified in 
Rhode Island's State Forest Action Plan, formally called the State-wide 
assessment. Over the past 5 years, Rhode Island has been successful in 
receiving project funding through the competitive process and will 
continue to compete for project funding which includes projects with 
universities and nonprofit organization partners, and through project 
partnerships with adjoining States.
    Question. Will the Forest Resource and Inventory Analysis program 
continue to have the same authority to partner with the States under 
research as it has had in S&PF?
    Answer. Yes, this program, proposed for consideration under the 
Forest and Rangeland Research budget line item as Forest Inventory and 
Analysis (FIA), will continue as a priority research area. FIA will 
continue to have the same ability to partner with States under research 
as it had under S&PF.
    Question. How will you maintain these State partnerships without a 
distinct funding line?
    Answer. In the fiscal year 2013 President's budget, FIA will have 
distinct funding within the Forest and Rangeland Research budget line 
item. This is identified as a priority research area in the budget 
justification with $66,805,000 proposed for funding in fiscal year 
2013. We will continue to work within our authority to diligently 
maintain these State partnerships. We will also continue measurement of 
field plots for data collection and provide State reports, but at a 
slower pace.

                         STATE FIRE ASSISTANCE

    Question. Detail any changes in implementation of the following 
programs, which are proposed to be consolidated,
    Answer. The proposed consolidation of the National Fire Plan-State 
Fire Assistance with Cooperative Fire Protection-State Fire Assistance 
in the fiscal year 2013 President's budget is expected to have minimal 
effects on how the program is implemented. States will continue to 
receive funding, as they have in previous years, for programs and 
projects such as hazardous fuels reduction, developing community 
wildfire protection plans, capacity building, training, increasing 
initial attack capabilities, improving firefighter safety and creating 
fire adapted communities. The combination of funding from two budget 
lines into a single budget line will simplify program management and 
performance measurement in addition to reducing administrative 
complexity.

                       VOLUNTEER FIRE ASSISTANCE

    The proposed consolidation of the National Fire Plan-Volunteer Fire 
Assistance with Cooperative Fire Protection-Volunteer Fire Assistance 
in the fiscal year 2013 President's budget will have minimal effects on 
how the program is implemented. States will continue to receive funding 
targeted for rural fire departments that can be used for improving 
initial attack capability, providing training and improving 
firefighting safety. Funds will match financial assistance in 4,500 
rural communities (population less than 10,000 people) to build and 
maintain fire suppression capacity.

                   FOREST HEALTH MANAGEMENT--FEDERAL

    The proposed consolidation of the Wildland Fire Management Forest 
Health Management with S&PF Forest Health Management in the fiscal year 
2013 President's budget will have minimal effects on programs or 
funding compared to fiscal year 2012. Major programs in fiscal year 
2013 such as gypsy moth suppression, eradication and Slow-the-Spread 
program; and priority treatments to control invasive pests such as 
southern pine beetle and western bark beetle are planned at similar 
levels as fiscal year 2012. The combination of funding from four budget 
lines to two lines simplifies program management and performance in 
addition to reducing administrative complexity.
    Forest Health Management-Federal Lands will continue to conduct 
forest insect and disease surveys on more than 400 million acres of 
forestlands; conduct forest insect and disease prevention, suppression, 
restoration, and eradication projects; provide technical assistance; 
and monitor forest health on all Federal lands including those of the 
Departments of Defense and the Interior, and the Army Corps of 
Engineers.

                    FOREST HEALTH MANAGEMENT--CO-OP

    The combination of funding from four budget lines to two lines are 
similar as stated for Forest Health Management-Federal Lands. Forest 
Health Management-Cooperative Land funds will continue to provide 
technical and financial assistance to States and territories to conduct 
monitoring and treatments such as the Slow-the-Spread program for gypsy 
moth and for work on sudden oak death, southern pine beetle, and 
hemlock woolly adelgid.

               FOREST RESOURCES INFORMATION AND ANALYSIS

    Historically, the FIA program has been funded from both Forest and 
Rangeland Research and the State and Private Forestry Forest Resources 
Information and Analysis program. In fiscal year 2013, FIA is proposed 
for consolidation under the Forest and Rangeland Research 
appropriation.
    FIA will continue with reduced annual forest inventory data 
collection in all 50 States. This will result in extending the 
inventory cycles and State forest resource reports by 1 year for each 
of the 50 States.
    Question. What will the effect be of the consolidations for States 
like Rhode Island that are not at risk of catastrophic wildfire, but 
still receive base funding in State and volunteer fire assistance?
    Answer. The proposal to consolidate the State Fire Assistance (SFA) 
and Volunteer Fire Assistance (VFA) budget line items in the fiscal 
year 2013 President's budget is not expected to reduce base funding for 
States such as Rhode Island. The allocation methodology for SFA and VFA 
funding is reviewed approximately every 5 years. At this time, the 
different allocation methodologies being considered include base 
allocations for both State fire assistance and VFA.

                        WILDLAND FIRE MANAGEMENT

    Question. Provide a table of the available aerial firefighting 
resources on the following dates, detailing at least the aircraft model 
(tanker and helicopter), exclusive use (EXU) vs. call-when-needed 
(CWN), type (VLAT, SEAT, Type I, Type II, etc.), and owner (Minden, 
Neptune, CalFire, etc.):
  --August 1, 2011;
  --May 1, 2012;
  --August 1, 2012 (projected); and
  --May 1, 2013 (projected).
    Answer. The United States Forest Service (USFS) does not maintain 
records on CalFire or other States' aircraft numbers or availability. 
Other States including Minnesota, Washington, Oregon, and Alaska 
contract for or operate airtanker and/or helicopter resources, which 
provide an interagency aerial firefighting response in those States. 
The table below shows available contracted aviation assets and 
Department of Defense supplied Mobile Aerial Firefighting System 
(MAFFS) capabilities for USFS.

--------------------------------------------------------------------------------------------------------------------------------------------------------
               Aircraft                          Owner                Contract Type       August 1, 2011    May 1, 2012   August 1, 2012    May 1, 2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
Large airtankers.....................  Minden--2; Neptune--9...  EXU....................              11              11              11         Up to 8
Next-generation large airtankers.....  To be determined on       EXU--Not awarded as of   ..............  ..............         Up to 3        Up to 13
                                        contract award.           May 5,  2012.
Type 1 helicopters...................  Multiple................  EXU....................              26              30              30              30
Type 2 helicopters...................  Multiple................  EXU....................              41              33              33              33
Type 3 helicopters...................  Multiple................  EXU....................              61              61              61              61
Helicopters--All types...............  Multiple................  CWN....................       Up to 378       Up to 378       Up to 378       Up to 378
Water scoopers.......................  Aero Flite..............  EXU--Department of the                2               2               2               2
                                                                  Interior contract.
Water scoopers.......................  To be determined on       CWN--Department of the   ..............  ..............         Up to 4         Up to 4
                                        contract award.           Interior contract.
Very large airtanker.................  10 tankers..............  CWN....................               1               1               1               1
Single engine airtankers.............  Unknown.................  EXU--Department of the                1               1               1               1
                                                                  Interior contract.
Mobile Aerial Firefighting System: C-  Air National Guard and    None. Activated by                    8               8               8               8
 130H/J.                                Air Force Reserve.        request.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Provide a detailed explanation for how the $24 million 
for the next-generation airtankers in the fiscal year 2013 budget will 
be spent.
    Answer. The $24 million will pay for contract costs associated with 
additional next-generation large airtankers in accordance with our 
large airtanker modernization strategy. The $24 million augments 
existing funding to help account for inflation and anticipated 
increased cost of next-generation large airtankers.
    Question. How many new aircraft do you expect to bring online in 
fiscal year 2013?
    Answer. USFS will shortly award contracts for up to three next-
generation large airtankers, to be operational in 2012, in addition to 
the 11 legacy P-2V airtankers. This contract may provide up to 10 
additional next-generation airtankers in fiscal year 2013. The 
potential exists to have up to 20 large airtankers in 2013. The P-2V 
airtankers will continue to be part of our strategy to maintain large 
airtanker numbers until next-generation airtankers are fully 
operational.
    Question. The airtanker Modernization Strategy calls for 18 to 28 
next-generation tankers in total, which will require contracting 
aircraft over the next several years. What is the long-term plan for 
securing the fleet?
    Answer. The long-term strategy is a modern large airtanker fleet as 
outlined in the Large Airtanker Modernization Strategy. It is not the 
intent of USFS, nor does USFS believe that there is an adequate supply 
of next-generation large airtankers, to replace our existing legacy (P-
2V) fleet in 2013.
    The next-generation aircraft are unproven airtankers, some with 
new-design retardant delivery systems or other new features which will 
take time to evaluate and modify to fully meet performance standards 
and airworthiness requirements. Therefore, a legacy airtanker contract 
will be a necessary part of our strategy to maintain large airtanker 
numbers until enough next-generation airtankers are fully operational. 
The current contract for the legacy airtankers ends December 2012. 
Another contract will be advertised in late 2012 or early 2013, which 
would include legacy large airtankers and will be structured to provide 
flexibility to both private industry and the Government. If next-
generation large airtankers are available and approved they will be 
given preference.
    Question. What are the estimates for how much additional funding 
this new fleet of aircraft will cost?
    Answer. Since USFS does not have any long-term contracts for next-
generation airtankers, it is not possible to provide this information.
    Question. If a full complement of next-generation tankers called 
for in the Strategy is reached, how frequently will the National 
Guard's mobile airborne firefighting system units be used?
    Answer. The National Guard and Air Force Reserve C-130s equipped 
with USFS owned MAFFS 2 retardant delivery systems will continue to 
provide surge capability to supplement commercial contract airtanker 
support.
    We cannot predict how often MAFFS will be called upon; their 
activation is dependent on weather, fire activity, and other values 
which cannot easily be forecast. However, since 2003, MAFFS have 
averaged more than 250 missions annually.
    Question. How is USFS ensuring that the limited Hazardous Fuels 
dollars are targeted to the highest-priority areas?
    Answer. USFS continues to improve its processes for allocating fuel 
reduction funds, which prioritizes fuel reduction projects based on 
national priorities. These improvements include the use of a computer 
model to assist in making allocation decisions, rather than relying 
primarily on historical funding patterns and professional judgment. The 
computer model uses data from various sources and considers wildfire 
potential, negative consequences of wildfire, program performance with 
prior year's allocations, and potential opportunities that meet other 
integrated resources objectives.
    The agency annually updates the model inputs to use the best 
available data and science. USFS also directs its regional offices to 
use a similar process and finer scale information, to further inform 
allocations to units and selection of fuel treatment projects based on 
national and regional priorities. USFS provides annual direction to its 
regional offices on how to fund fuel treatment projects that best meet 
national priorities.
    Question. The subcommittee has made an investment of more than $1 
billion in the last 3 years alone for fuels reduction in USFS. How is 
USFS showing the return on investment, such as reduced risk to 
communities or reduced suppression costs?
    Answer. USFS now requires its field units to complete a 
standardized report whenever a wildfire burns into an existing fuel 
treatment, in other words, when a fuel treatment is ``tested'' by 
wildfire. This report includes an assessment of how the fire behavior 
changed, if the fire effects changed as the wildfire burned through the 
fuel treatment, and if the fuel treatment made management and 
suppression of the wildfire easier and safer. These are real world 
examples of fuel treatment effectiveness.
    The initial results indicate that most fuel treatments reduce 
wildfire behavior and reduce fire severity under all but the most 
extreme wildfire conditions. As this data set grows and is combined 
with the latest research, USFS expects to be able to draw conclusions 
about which fuel treatments are most effective under various 
circumstances of ecosystems, fuel types, weather conditions, and other 
variables. The agency also expects to refine its estimates of how fuel 
treatment effectiveness will decline over time and to evaluate the cost 
effectiveness of these treatments. USFS takes fuel treatment 
effectiveness very seriously and continues to improve its measurement 
and understanding by incorporating the latest research.

                            LAND ACQUISITION

    Question. Why were the ``Crown of the Continent'' and ``Florida/
George Longleaf Pine'' ecosystems chosen as the Collaborative Landscape 
Planning Areas for fiscal year 2013?
    Answer. These selected projects contain landscapes that are among 
the most important for conservation, recreation, and restoration in the 
United States. These projects support American Great Outdoors Action 
Item 5.2a: Implement an interagency process to invest part of the 
Federal Land and Water Conservation Fund funds in high-yield 
conservation projects that address shared ecological goals.
    The Crown of the Continent project is one of the last remaining 
intact mountain ecosystems in the coterminous United States and 1 of 
the 23 last remaining large intact ecosystems in the world. The mixed 
wetland and longleaf pine habitats of the Florida panhandle and 
Okeefenokee swamp in southern Georgia protect critical drinking water 
sources for growing human populations in the region, and provide 
important habitat for migratory birds and the remaining bear 
population. Both areas are threatened with development and landscape 
fragmentation that would impair resource management. Both landscapes 
also have robust local support and grassroots organization and 
planning, including local and State government supporters that desire a 
public-private partnership to address conservation needs.
    Question. What is the long-term plan for the Collaborative 
Landscape Planning Areas? Will the same landscapes continue to be the 
budget priority until they are completed, or will different 
geographical areas be the focus in fiscal year 2014?
    Answer. The long-term plan of the interagency work is to maintain 
the focus in a landscape until the stated conservation goals are as 
complete as possible. Not all agencies have the same demand in each 
landscape, but Collaborative Landscape Planning (CLP) will seek to 
complete as much as possible before moving to a new landscape. There 
may be new geographical areas considered for fiscal year 2014. Both 
agencies are waiting on pre-proposals from the field to determine 
whether or not there is capacity or funding to start working in one or 
more new landscapes.
    Question. How do the Collaborative Landscape projects rank vis-a-
vis the 14 ranked acquisitions on the prioritized list?
    Answer. All of the projects, core and collaborative, are important 
agency priorities. The core projects focus on acquiring the highest 
priority lands within the National Forest System boundaries that 
further specific agency goals for forest and grassland restoration, 
watershed management under the Watershed Condition Framework, and 
public and private access. The Collaborative Landscape Planning 
projects are focused on landscapes where the Federal agencies can more 
effectively coordinate land acquisitions with government and local 
community partners to achieve the highest priority shared conservation 
goals. These projects respond to locally supported planning efforts to 
protect critical ecosystems before fragmentation occurs.
    Question. The proposed Priority Recreational Access program 
requires a cost-share and caps projects at $250,000 each. How were 
these requirements determined?
    Answer. A per project cap is proposed to help distribute the 
opportunity to complete a recreational access project among the nine 
USFS regions. Two hundred and fifty thousand dollars ($250,000) is the 
cap because it equates to each region getting at least two projects. 
The cost-share proposal would help the appropriated dollars go further 
and demonstrates a strong show of support from non-Federal partners. 
The cost-share rate was set at 25 percent, a low percentage and a 
resultant relatively small amount of non-Federal money to bring to the 
table (less than $62,000 for the most expensive project).
    Question. Are there $5 million worth of identified Priority 
Recreational access projects (matching the budget justification's 
requirements) that can be accomplished within fiscal year 2013? Provide 
a list of potential projects detailing at least the location by 
national forest, total acreage, types of recreation served, cost, and 
whether the project is a conservation easement or fee title 
acquisitions.
    Answer. There is a substantial need for access to National Forest 
System lands for these purposes as demonstrated in our annual land 
acquisition programs. USFS has not developed a list of projects. This 
is an important initiative for potential projects to be proposed by the 
public and nongovernmental organizations. While we are anxious to issue 
a Request for Proposals so that we can learn about projects that are 
new to us, we have already been contacted by several groups. One 
potential example is gaining an easement for the Seely Lake Community 
Trail across Montana Department of Natural Resources and State school 
lands. This trail provides year-round motorized and nonmotorized access 
for 5,000 acres of hunting and hiking, 16,000 acres for horseback 
riding, and 32,000 acres for mountain biking. We are confident there 
will be a number of robust responses from all USFS regions to the 
Request for Proposals that meet the fiscal year 2013 budget 
justification requirements.
    Question. While the proposed Priority Recreational Access program 
would be funded at $5 million, the longstanding Critical Inholding 
Acquisitions account is zeroed out in fiscal year 2013. Why does the 
new focus area come at the expense of inholdings?
    Answer. The Priority Recreational Access line item is proposed for 
only 1 year to focus on unique recreational access problems.
    Question. Will USFS be able to secure critical inholding 
acquisitions without a specific line item?
    Answer. USFS may secure some inholdings with the Priority 
Recreational Access line item, but projects will be selected based on 
different criteria than is required for critical inholdings. The 
criteria for recreational access will rate tracts based on the 
project's ability to maximize access to areas previously considered 
inaccessible and that increase visitor use. Recreational Access 
acquisitions may or may not be inholdings.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. This year's budget provides you with $24 million to 
contract for new firefighting aircraft. And you have publicly stated 
that you intend to acquire three new planes this year, so that works 
out to $8 million per plane acquisition.
    Answer. The fiscal year 2013 budget request includes $24 million to 
acquire new firefighting aircraft. We are estimating contracting for 10 
additional next-generation airtakers in 2013. In addition, the three 
next-generation airtankers that may be awarded and operational in 2012 
will be funded utilizing fiscal year 2012 budget appropriated funds.
    Question. Following this pricing model, will the United States 
Forest Service (USFS) be seeking $80 million to purchase the 10 planes 
you intend to acquire next year?
    Answer. USFS does not intend to purchase these aircraft. The 
services will be acquired through contracts operated by the contractor. 
The $24 million in fiscal year 2013 will be used to help account for 
inflation and anticipated increased cost of next-generation large 
airtankers.
    Question. Aerial firefighting contractors tell me that the USFS's 
5-year contracts, with single year options, are not long enough for 
them to secure the capital needed to purchase firefighting aircraft.
    Answer. The next-generation large airtanker contract was lengthened 
in response to private industry input. It is a Firm Fixed Price Multi-
Year contract(s) not to exceed 10 years (a 5-year base period with five 
1-year options).
    Question. What indication do you have from your contractors that 
they will be able to actually provide the 13 planes by the end of next 
year?
    Answer. USFS is skeptical that private industry will be able to 
design, build, test, and gain approval of the next-generation large 
airtankers as quickly as they state. These aircraft are generally 
unproven as airtankers, some with new-design retardant delivery systems 
or other new features which will take time to evaluate and modify to 
fully meet performance standards and airworthiness requirements.
    However, several of the contractors are represented by an aerial 
firefighting industry group (American Helicopter Services and Aerial 
Firefighting Association) which has publicly stated that private 
industry is ``technically capable and financially able to bring about 
this fleet modernization plan.''
    Question. If the terms of the contract were longer, would that 
reduce the Federal cost of acquiring these planes?
    Answer. Private industry has told us that longer contract periods 
should reduce overall costs during the full contract period. The next-
generation contract with a base 5-year period and five 1-year options 
and an incremental delivery option provides flexibility for private 
industry and the Government delivering next-generation large airtankers 
this year, while providing time for current and new airtanker vendors 
to secure financing, design, and develop aircraft for 2013 and beyond.
    Question. Do you have the authority to offer a longer contract?
    Answer. Under the Federal Acquisition Regulations (FARs) USFS was 
able to solicit this 5-year base with five 1-year options contract for 
airtankers. The FARs do not allow for more than 5 years with 5 years of 
extensions for this type of contract.
    Question. Chief Tidwell, with the proposed 25-percent cut to 
hazardous fuels, how many fewer acres will you be able to treat?
    Answer. The hazardous fuel's program request for fiscal year 2013 
is about the same as fiscal year 2012, but we request that $75 million 
of that be transferred into Integrated Resource Restoration (IRR). The 
$75 million represents the amount hazardous fuels is shifting to IRR in 
fiscal year 2013. These are hazardous fuel funds that have 
traditionally been spent outside the Wildland Urban Interface (WUI) and 
for restoration in previous years. These funds will now be combined 
into IRR and support integrated restoration and accomplish landscape-
level ecosystem restoration which includes hazardous fuel reduction. 
IRR is designed to help address at the national level the complete 
scope of restoration activities, highlighting water, fuels reduction 
and road decommissioning, while also integrating the many other 
activities that have always been central to the agency's mission.
    Question. How many fewer acres will be treated in California?
    Answer. We don't anticipate fewer acres treated in California due 
to IRR. If fewer acres are treated it will be due to other factors such 
as cost per acre, weather, and the time needed to complete analysis 
under the National Environmental Policy Act (NEPA) requirements. Also, 
the acre target has been reduced due to the increased cost of treating 
the WUI.
    Question. It is my understanding that you revoked the 10-percent 
pay raise for firefighters because retention rates improved.
    This reasoning doesn't hold water. If the pay raise worked, and 
retention rates have stabilized, why roll back the successful 
initiative?
    Answer. During March 2009, USFS implemented two retention 
incentives to address the 13-percent attrition rate affecting the fire 
program for permanent/career conditional employees. The first incentive 
implemented converted less than full-time employees in certain 
positions to a full-time tour of duty. This incentive is still in place 
and includes a full-time tour of duty for all new employees hired in 
these positions. The annual cost of this incentive is $21 million and 
is funded from our Wildland Fire Preparedness allocated funds.
    The second incentive implemented was a 10-percent increase in base 
pay for primary fire positions for grades GS-5 through GS-8. This 
incentive required annual approval with the Department of Agriculture 
(USDA). Approvals were requested and granted for March 2009 through 
February 2010, March 2010 through February 2011, and March 2011 through 
February 25, 2012. USFS did not request reauthorization from USDA for 
this retention incentive after February 25, 2012. The decision was 
based on the agency's ability to maintain Fire Fighting Production 
Capability due to the low attrition rate. USFS will continue to monitor 
our fire management workforce situation and respond appropriately.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Can you provide a brief update of the land acquisition 
program for the Green Mountain National Forest (GMNF) and what priority 
projects may be secured this year? I have made GMNF land acquisition a 
priority during my entire time in the U.S. Senate and have seen Federal 
ownership go from less than 300,000 acres to more than 400,000 acres 
during that time. Seeing the benefits of GMNF land acquisition helped 
inspire me to create the Forest Legacy Program (FLP) which has 
protected more than 2 million acres nationally.
    Answer. The fiscal year 2013 budget request did not propose 
specific new land acquisition projects for the GMNF. The GMNF is in the 
process of completing various land acquisitions including the 
following:
    Recently the GMNF acquired from the Trust for Public Land, a 300-
acre parcel ($318,000), that contains approximately 8 acres of 
wetlands. It is contiguous to a large block of National Forest System 
lands to the west and east. The property is also within a bear corridor 
(a species of high public interest), and provides a swath of currently 
undeveloped land that serves as an east-west traveling corridor for 
black bears.
    Partnering with the Manchester Land Trust, the GMNF recently 
acquired a 120-acre parcel ($350,000) in Manchester and Winhall that 
contains a significant portion of Stony Brook, which is a tributary to 
the Batten Kill River, high-quality northern hardwoods, that provides 
opportunities for backcountry recreation.
    The GMNF also acquired from a private landowner a 4-acre parcel 
($20,000) that consolidates the last block of private land within the 
section of National Forest System lands in the Town of Ripton.
    Under contract is an 80-acre parcel located in the Town of Woodford 
that is contiguous to National Forest System lands on the south and 
east and provides the public with opportunities for backcountry 
recreation.
    The GMNF is actively engaged with the potential purchase of a 
multitude of properties, including two parcels totaling 330 acres that 
provide public access to a larger block of National Forest System lands 
and a 36-acre parcel entirely surrounded by National Forest System 
lands within the Taconic expansion area. In addition, several 
additional parcels that meet the GMNF Land and Resource Management Plan 
and National Strategic Plan goals are being negotiated.
    In addition we have worked with partners to protect 78,829 acres of 
important forests across 62 tracts in Vermont, through FLP. Although 
not in Federal ownership, many of these tracts are strategically 
located adjacent to the GMNF.
    Partnering with third parties, such as the Trust for Public Land, 
the Conservation Fund and the Manchester Land Trust, the GMNF 
acquisition program continues to work with local communities to 
identify and support priority acquisitions.
    Question. I introduced the legislation which created the Moosalamoo 
National Recreation Area (NRA) within the GMNF in order to literally 
put this fantastic recreational resource ``on the map''. Since its 
creation in 2006 however, this NRA has struggled to gain the national 
recognition that it so richly deserves. Can you tell me what the U.S. 
Forest Service (USFS) is doing within Vermont, regionally, and across 
the country to fully implement the New England Wilderness Act of 2006? 
This act established the National Recreation Area and calls for the 
Moosalamoo to become a national showcase of integrated forest 
management, as well as a nationally significant recreational resource.
    Answer. The GMNF has been working hard to implement the New England 
Wilderness Act of 2006 as part of the Chief's 10-Year Wilderness 
Challenge. For example:
  --The GMNF has worked with the Vermont Youth Conservation Corps to 
        remove culverts by hand and decommission roads within 
        wilderness designated by the act.
  --The forest has plans to remove larger culverts in designated 
        wilderness that would require mechanized equipment. This work 
        requires NEPA review before restoration of these roads can be 
        implemented.
  --USFS is working closely with the Moosalamoo Association by 
        providing Challenge Cost Share Agreements for trail maintenance 
        projects throughout the National Recreation Area. An American 
        Recovery and Reinvestment Act project was recently awarded 
        ``Project of the Year'' from the Vermont Trails and Greenways 
        Council and received recognition from the USFS regional office 
        for collaboration and partnership success.
  --Partnering with the Vermont Youth Conservation Corps and the 
        Vermont Mountain Bike Association, the GMNF recently completed 
        major trail work on the Leicester Hollow--Chandler Ridge Loop 
        Trail in the Moosalamoo National Recreation Area.
  --The GMNF continues to inventory and identify the condition of our 
        campsites within the Moosalamoo National Recreation Area.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. In light of the President's announcement last week of an 
Executive order creating an interagency working group ``. . . to 
coordinate the efforts of Federal agencies responsible for overseeing 
the safe and responsible development of unconventional domestic natural 
gas resources'', and the inclusion of the United States Department of 
Agriculture in that working group, how are the activities of individual 
forests, like those of the George Washington and Wayne National 
Forests, being coordinated within the United States Forest Service 
(USFS) and with the interagency working group?
    Answer. The Executive order, dated April 13, 2012, directs that 
Interagency Working Group membership ``. . . shall include deputy-level 
representatives or equivalent officials, designated by the head of the 
respective agency or office . . .'' and lists the Department of 
Agriculture under membership. Individual forest and grassland line 
officers will continue to coordinate with appropriate officials within 
USFS through the agency Deputy Chiefs. The agency leadership through 
the Chief and the Deputy Chiefs will coordinate with Department of 
Agriculture officials. Departmental representatives will coordinate 
with other agencies on appropriate issues within the interagency 
working group.
    Question. When do you expect the George Washington National Forest 
plan and the Wayne National Forest's study to be finalized?
    Answer. We anticipate that the George Washington National Forest 
plan will be completed in the late summer of 2012. The Wayne National 
Forest's study is projected to be finalized in mid to late June 2012.
    Question. Can you please get back to me when you have had a chance 
to review this as an agency and inform me of your plans?
    Answer. Yes.
                                 ______
                                 
                   Questions Submitted to Susan Spear
            Questions Submitted by Senator Patrick J. Leahy

    Question. The Green Mountain National Forest (GMNF) is one of the 
most recreated National Forests in the region--the roughly 80 employees 
of the GMNF serve some 3 to 4 million visitors annually, and are within 
a day's drive of 70 million people. The GMNF serves as the only 
experience that many people from crowded east coast cities may have 
with Federal natural resource agencies. The staffs of the GMNF do a 
great job of resource management but they do so working out of a leased 
facility, some distance from the Forest itself and with very modest and 
dated visitor facilities.
    The U.S. Forest Service (USFS) has identified the site for 
construction of a new GMNF headquarters building, on National Forest 
land, on Route 4, the Gateway to the National Forest. Construction of a 
new headquarters will save the Federal Government money, as compared to 
ongoing lease payments, and allow for an even better job of resource 
management and public education. This is a project that I have 
supported for 10 years and am eager to see it built in the near future. 
Can you assure me that USFS will allocate the necessary $1 million to 
complete the design of the new headquarters building for the GMNF this 
year?
    Answer. While the design and construction phases of a new Forest 
Supervisor's office in Mendon, Vermont, are included in the Eastern 
Region's Infrastructure Priority Project List, there are many projects 
of higher priority nationally. Therefore, design work for the new GMNF 
headquarters has not been initiated this year. Overall agency funding 
for facility design/construction in 2012 has been reduced by 56 percent 
since 2010. As a result, we are reassessing many competing priorities, 
considering less-costly alternatives, and re-evaluating the highest-
priority projects that may be possible to complete with very limited 
funding.
    For fiscal year 2013 the budget request includes a program increase 
of $23,799,000 from the fiscal year 2012 enacted level for facilities 
to support the safety and health of all users of existing 
infrastructure and to judiciously defer all new construction, including 
phased projects that include new construction, when other cost 
effective and reasonable options exist.
    Question. The GMNF was at the epicenter of the worst damage wrought 
by Tropical Storm Irene. USFS staff performed heroically to help local 
communities even though many of them had suffered damage to their own 
homes. There are 900 miles of trails and roads within the GMNF, 85 
percent of which were damaged and a majority of the damaged trails 
remain closed as our most active trail season approaches, with repair 
needs in excess of $2 million. Will you be able to allocate resources 
to repair the damage caused by Tropical Storm Irene to the trails and 
roads within the GMNF in a timely manner?
    Answer. Yes, we have been and will continue to allocate resources 
to the trails and roads within the GMNF. For fiscal year 2012, the 
Eastern Region allocated $390,000 for use in trail restoration and 
repair directly related to Tropical Storm Irene. USFS was able to apply 
appropriated funds to the early recovery stages on the GMNF at the end 
of fiscal year 2011 and in early fiscal year 2012. Additional funding 
has been secured from the Federal Highway Administration's Emergency 
Relief for federally Owned Roads (ERFO) program. The GMNF will be 
working with local partners and contractors to prioritize and implement 
major repairs in fiscal year 2012 and fiscal year 2013.
    While much of the road repair work qualifies for ERFO funding, 
almost all trail related damage does not. We will continue to work with 
established volunteer organizations and other nongovernmental 
organizations on creative ways to bring these trails up to safe 
standards for public use.
    The GMNF completed a comprehensive survey of all roads, trails, and 
facilities that were damaged extensively during Tropical Storm Irene. 
Many roads and trails require environmental assessment work before work 
can be initiated.
    The GMNF has been working closely with the public and municipal 
leaders on short- and long-term solutions, including establishing 
priorities for limited funding and resources to meet specific public 
demands. This work includes shifting resource management priorities so 
that public and private access is available through damaged GMNF roads.

                          SUBCOMMITTEE RECESS

    Senator Reed. And we ask you to respond to any requests for 
information or questions as promptly as possible, Chief.
    With no further comment, the hearing is concluded. Thank 
you very much.
    [Whereupon, at 10:58 a.m., Wednesday, April 18, the 
subcommittee was recessed.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, MAY 16, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:36 a.m. in Room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed, (chairman) presiding.
    Present: Senators Reed, Tester, Murkowski, Cochran, Blunt, 
and Hoeven.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF LISA P. JACKSON, ADMINISTRATOR
ACCOMPANIED BY BARBARA J. BENNETT, CHIEF FINANCIAL OFFICER

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. On behalf 
of the Interior, Environment, and Related Agencies 
Appropriations Subcommittee, I'd like to welcome everyone to 
our hearing on the fiscal year 2013 budget request for the 
United States Environmental Protection Agency (EPA).
    I'm very pleased to again welcome Administrator Lisa 
Jackson to testify before us. We're also very glad that you and 
your Chief Financial Officer, Barbara J. Bennett, are here this 
morning to talk about your budget request and related policy 
issues.
    As you know, Administrator Jackson, this subcommittee has 
been ground zero for many of the contentious policy issues that 
you face. And so we all know what a challenging job you have.
    It's hard to address environmental challenges when our 
economy is strong, let alone when our current fiscal situation 
is challenging. That's why I particularly appreciate your 
message that environmental protection is not only compatible, 
but it is, in fact, essential for the economic growth and well-
being of our Nation. That's an important message.
    Of course, balancing environmental protection needs against 
economic constraints isn't limited to policy choices. Turning 
to the budget, we can see the difficult choices that you have 
made.
    Overall, the administration has requested a total of $8.344 
billion for EPA programs. That's a decrease of $105 million or 
about 1 percent less than the fiscal year 2012 enacted level.
    Within this amount, the budget request includes a 5-percent 
increase in EPA's operating programs for a total of $2.8 
billion, which includes major investments in enforcement and 
compliance and chemical safety programs.
    The request also includes a 10-percent increase for grants 
to States and tribes to help them run their environmental 
permitting and monitoring programs, including a large increase 
for State air quality grants.
    I also would like to note that the budget request includes 
$14 million, an $8 million increase, to expand EPA's current 
slate of hydraulic fracturing research to ensure that the 
Nation can continue to access its unconventional oil and gas 
reserves in a safe and environmentally sustainable way.
    I know there is a lot of interest in how EPA plans to use 
these funds as well as interest in new EPA regulations that 
address the effects on air and water quality associated with 
hydraulic fracking. So I expect we'll discuss these issues in 
some length this morning.
    Now, while I agree that the investments I've just discussed 
are very important, I'm very concerned that the water 
infrastructure grant program bears the brunt of cuts in this 
budget.
    Specifically, the budget proposes to cut $359 million or 15 
percent from Clean and Drinking Water State Revolving Fund 
program levels. That would mean a 20-percent cut to the Clean 
Water State Revolving Fund program and a 7-percent cut for the 
Drinking Water State Revolving Fund program.
    These additional cuts mean that the State Revolving Funds 
(SRF)would be cut by more than 40 percent compared to where the 
programs were 3 years ago, and would negatively impact our 
communities in at least two ways.
    First, by EPA's own estimates, our communities face more 
than $600 billion in sewer and drinking water project needs 
over the next two decades. And these needs are far outpacing 
the Federal Government's ability to help communities pay for 
them.
    My own State of Rhode Island has more than $1.6 billion in 
projects waiting for funding on its intended use plan, 
including $1.3 billion in clean water needs. Yet, in the 
President's fiscal year 2013 budget, we are only slated to 
receive about $16 million in SRF grants.
    So I'm concerned that further cuts to SRFs will cause us to 
fall even further behind.
    Second, the SRFs are tremendous job creators, especially 
when our Federal grants are combined with the additional funds 
that States contribute as a matching requirement, or stretched 
even further by leveraging through the bond markets.
    Every $1 we invest in these grants creates more than $2 in 
total investments in actual projects on the ground.
    The bottom line is that cutting these programs means 
cutting construction jobs. And despite the fact that many of 
EPA's programs we'll discuss here today are controversial, 
funding for water infrastructure has bipartisan support.
    So I'm very concerned that the administration is proposing 
to cut one of the few areas of the EPA budget that both sides 
agree is extremely important.
    There are some additional reductions to smaller programs in 
the EPA budget which also concern me, including a proposal to 
cut diesel emission reduction grants by one-half, and to 
eliminate Beach Act coastal monitoring grants and the 
environmental education program.
    As part of our conversation today, I'd like to know why 
these programs were selected for reductions, and I hope you'll 
work with me, Administrator Jackson, and the subcommittee to 
restore these proposed cuts.
    Finally, I'd like to turn to an area of the budget that is 
very important to my home State, if you would allow me.
    For many years, I've worked to protect Rhode Island's 
coastal environment since I became chairman. I've been working 
closely with the EPA to emphasize the need to restore coastal 
watersheds in southern New England like the Narragansett Bay.
    Last year, I directed the EPA through the Interior, 
Environment, and Related Agencies appropriations bill to take a 
leadership role to coordinate and expand restoration programs 
in the region.
    I'm happy that EPA's moving forward with these efforts and 
thank you very much, Madam Administrator, and your Regional 
Administrator Curt Spaulding in Region 1.
    And I'm particularly pleased to see your proposed $2 
million investment in the region as part of your budget 
request. I want to thank you both, Administrator Jackson and 
Ms. Bennett, for your personal attention to this issue. Thank 
you very much.
    And, now, let me turn to my ranking member, Senator 
Murkowski. Senator.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    Administrator, welcome. Good morning, Ms. Bennett. Thank 
you also for being here.
    Administrator, as you might expect, many of my questions 
today will involve policy issues. But first, I want to 
recognize and thank you for maintaining the Alaskan Native 
Villages Program at $10 million in your budget request.
    The need in rural Alaska for wastewater improvements is 
enormous. I truly appreciate that you've maintained this 
critical program while keeping the overall budget request below 
last year's level. So thank you for that.
    Earlier this month, there was an editorial in the 
Washington Post entitled ``The EPA is Earning a Reputation for 
Abuse''. Not a very complimentary headline there.
    And this was in response to statements that came to light 
from one of your regional administrators concerning the EPA's 
enforcement tactics.
    And the editorial states as follows: ``The most reasonable 
interpretation is also among the most disturbing, that Mr. 
Armendariz preferred to extract harsh punishments on an 
arbitrary number of firms to scare others into cooperating.''
    This sort of talk isn't merely unjust and threatening to 
investors in energy projects, it hurts the EPA. The question 
will remain, is an aggressive attitude like the one Mr. 
Armendariz described common among EPA officials?'' And that's 
the end of that quote.
    I raise these issues because I think these statements are 
somewhat consistent with some of the fears that have been 
expressed by some of my constituents and that I have expressed 
about the EPA.
    That it can sometimes be arrogant, use arbitrary 
enforcement or put in permitting requirements which then in 
turn discourage the market from investing in critical projects 
that are necessary to get folks back to work, invigorate our 
economy.
    There's a couple of examples in Alaska that I will cite too 
that suggest that this attitude has perhaps affected EPA's work 
on issues within my State.
    You are very familiar, of course, with Shell Oil and its 
effort to gain the necessary permits to pursue exploring 
offshore there.
    They've spent more than 5 years and $50 million pursuing 
air permits from the EPA for no more than two drill ships to 
operate in the Arctic Outer Continental Shelf (OCS). At the 
same time, these kinds of permits were issued routinely in the 
Gulf of Mexico in about a 6-week period in air sheds where 
there are many, many more drilling rigs operating year-round, 
and with many more communities in close proximity.
    As you know, I worked with my colleagues last year to 
transfer air permitting authority in the Arctic OCS from the 
EPA to the Department of the Interior who already has the 
permitting responsibilities within the gulf.
    A second case in point is the watershed assessment for 
Bristol Bay. This assessment is in response to a petition to 
block the proposed Pebble Mine under section 404 of the Clean 
Water Act.
    I've heard from a lot of Alaskans on this issue. They're 
concerned about so many different aspects of it, from the 
potential development of a mine affecting our State's 
fisheries, to the need for a fair permitting process and the 
potential economic benefits of mineral development.
    But precisely because this is such a controversial and very 
complex issue, I think that the process used by the EPA must be 
absolutely fair and transparent. And, I've been somewhat 
concerned about the potential for unintended consequences from 
such an assessment.
    Back in February of last year, and again just last month, I 
sent letters to you inquiring what would stop the assessment 
from being used by opponents of other nonmining development in 
Bristol Bay.
    I think that the assessment would be flawed if it doesn't 
contain an answer to that question. So that is something that I 
have asked and hope to get a firm answer on.
    I do want the EPA to do its job in the regular order of 
things.
    You clearly have the responsibility to protect the public 
health. I support that. I respect that, and I respect the 
passion for which you exercise your responsibility. But I do 
believe that it has to be done in a way that the public 
believes is fair and based on objective science.
    And I would hope that you would agree with that. Mr. 
Chairman, again, I thank you.
    Administrator Jackson, I appreciate you being before the 
committee today, and I look forward to our discussions later 
on. Thank you.
    Senator Reed. Before I recognize the Administrator, Senator 
Tester, do you have any comments?
    Senator Tester. No.
    Senator Reed. Thank you very much. Administrator Jackson, 
please.

                  SUMMARY STATEMENT OF LISA P. JACKSON

    Ms. Jackson. Thank you all, and thank you, Mr. Chairman.
    Thank you for inviting me to testify on the President's 
fiscal year 2013 budget for the EPA. And, as you noted, thank 
you. I'm joined by our Chief Financial Officer, Barbara J. 
Bennett.
    EPA's budget request is $8.344 billion, and it focuses on 
fulfilling EPA's core mission that's protecting human health 
and the environment, while making sacrifices and, indeed, tough 
choices that Americans across the country are making every day.
    EPA's budget request fully reflects the President's 
commitment to reducing Government spending. The budget is down 
and finding cost savings in a responsible manner, while still 
supporting clean air, clean water and the innovative safeguards 
that are essential to an America that's built to last.
    In some cases, we have, indeed, had to take a step back 
from programs. This budget reflects a savings of $50 million 
through the elimination of several EPA programs and activities 
that have either met their goals or can be achieved at the 
State or local level or by other Federal agencies.
    I just want to spend a moment discussing a few elements of 
EPA's budget request.
    The budget request recognizes the importance of our 
partners at the State and local and tribal level. As you know, 
they are, indeed, at the front lines of implementing our 
Nation's environmental laws like the Clean Water Act, and the 
Clean Air Act.
    And, in fact, the largest portion, fully 40 percent of 
EPA's funding request, is directed to State and Tribal 
Assistance Grants appropriations. And that's to support their 
efforts.
    Specifically, the budget proposes that $1.2 billion, nearly 
15 percent of EPA's overall budget request, be allocated back 
through categorical grants to the States and tribes. This 
includes funding for State and Local Air Quality Management 
grants, Pollution Control grants, and the Tribal General 
Assistance Program.
    The budget also proposes that a combined $2 billion, fully 
25 percent of EPA's budget request, goes directly to the States 
for the Clean Water and Drinking Water State Revolving Funds.
    As you noted, Sir, this funding will help support 
systemwide investments that are efficient and that develop 
water infrastructure in our communities. We are working 
collaboratively especially to identify opportunities to fund 
green infrastructure, projects that can reduce pollution 
efficiently and much less expensively than traditional grey 
infrastructure.
    Additionally, our budget request would fund the protection 
of the Nation's land and water in local communities, including 
important water such as the Narragansett Bay.
    Reflecting the President's commitment to restoring and 
protecting the Great Lakes, the budget requests that the 
Congress maintain the current funding level of $300 million for 
the Great Lakes Restoration Initiative.
    This support will continue to be used for collaborative 
work with partners at the State, local and tribal level, and 
also with nonprofit and municipal groups.
    The budget also requests support for protection of the 
Chesapeake Bay, and several other treasured and economically 
significant water bodies.
    The budget reflects the importance of cleaning up 
contaminated land requesting $755 million for continued support 
of the Superfund cleanup programs and maintaining EPA's 
emergency preparedness capabilities.
    EPA's budget request makes investments in its science and 
technology account of $807 million, that's almost 10 percent of 
the total request. That includes $576 million for research, 
including $81 million in research grants and fellowships to 
scientists and universities throughout our country for targeted 
research as part of the Science to Achieve Results, or STAR 
program, on areas that include issues like children's health, 
endocrine disruption, and air monitoring research.
    Also, as part of this request, EPA is funding increases in 
areas that include green infrastructure and hydraulic 
fracturing.
    As I've mentioned before, natural gas is an important 
resource abundant in our country, but we must make sure that 
the way we extract it does not jeopardize our water supplies.
    This budget continues EPA's ongoing congressionally 
directed fracking study, which we have taken great steps to 
ensure is independent, peer reviewed, and based on strong and 
scientifically defensible data.
    Building on these ongoing efforts, this budget requests $14 
million in total to work collaboratively with the USGS, the 
Department of Energy (DOE), and other partners to assess 
questions regarding hydraulic fracturing.
    Strong science means finding the answers to tough 
questions, and that's what our budget request is intended to 
do.
    We are making investments to support standards for clean 
energy and energy efficiency in this budget. Specifically, this 
budget supports EPA's efforts to introduce cleaner vehicles and 
fuels, to expand the use of home-grown renewable fuels.
    This includes funding for EPA's Federal Vehicle and Fuel 
Standards and Certification program and compliance testing for 
emissions standards. This also includes implementation of the 
President's historic agreement with the auto industry for 
reducing carbon pollution and increasing fuel economy standards 
through 2025 for cars and light duty vehicles, including 
testing support for NHTSA's fuel economy standards.

                           PREPARED STATEMENT

    Taken together, the administration's standards for cars and 
light trucks are projected to result in $1.7 trillion in fuel 
savings and 12 billion fewer barrels of oil consumed.
    This funding will also help support implementation of the 
first ever carbon pollution and fuel economy standards for 
heavy duty vehicles.
    Mr. Chairman, I thank you for the opportunity to testify. 
While my testimony reflects only a few highlights of EPA's 
budget request, I look forward to answering all questions of 
the subcommittee.
    [The statement follows:]

                 Prepared Statement of Lisa P. Jackson

    Thank you for inviting me to testify on the President's fiscal year 
2013 budget for the Environmental Protection Agency (EPA). I'm joined 
by EPA's chief financial officer, Barbara J. Bennett.
    EPA's budget request of $8.344 billion focuses on fulfilling EPA's 
core mission of protecting public health and the environment, while 
making the sacrifices and tough decisions that Americans across the 
country are making every day.
    EPA's budget request fully reflects the President's commitment to 
reducing Government spending and finding cost savings in a responsible 
manner while supporting clean air, clean water, and the innovative safe 
guards that are essential to an America that's built to last. In some 
cases we have had to take a step back from programs--this budget 
reflects a savings of $50 million through the elimination of several 
EPA programs and activities that have either met their goals, or can be 
achieved at the State or local level or by other Federal agencies.
    Let me spend a moment discussing major elements of EPA's budget 
request.
    This budget recognizes the importance of our partners at the State, 
local, and tribal level. As you know, they are at the front lines of 
implementing our environmental laws like the Clean Water Act, and the 
Clean Air Act. In fact, the largest portion--40 percent of EPA's 
funding request--is directed to the State and Tribal Assistance Grants 
appropriation to support their efforts.
    Specifically, this budget proposes that $1.2 billion--nearly 15 
percent of EPA's overall request--be allocated back to the States and 
tribes, through categorical grants. This includes funding for State and 
Local Air Quality Management grants, Pollution Control grants and the 
tribal general assistance program.
    The budget also proposes that a combined $2 billion--another 25 
percent of EPA's budget request--also goes directly to the States for 
the Clean Water and Drinking Water State Revolving Funds. This funding 
will help support efficient systemwide investments and development of 
water infrastructure in our communities. We are working collaboratively 
to identify opportunities to fund green infrastructure--projects that 
can reduce pollution efficiently and less expensively than traditional 
grey infrastructure.
    Additionally, EPA's budget request would fund the protection of the 
Nation's land and water in local communities. Reflecting the 
President's commitment to restoring and protecting the Great Lakes, 
this budget requests that the Congress maintain the current funding 
level of $300 million for the Great Lakes Restoration Initiative. This 
support will continue to be used for collaborative work with partners 
at the State, local and tribal level, and also with nonprofit and 
municipal groups. The budget also requests support for protection of 
the Chesapeake Bay, and several other treasured and economically 
significant water bodies. The budget reflects the importance of 
cleaning up contaminated land sites in our communities by requesting 
$755 million for continued support of the superfund cleanup programs 
and maintains EPA's emergency preparedness and response capabilities.
    EPA's budget request makes major investments in its science and 
technology account of $807 million, or almost 10 percent of the total 
request. This request includes $576 million for research, including $81 
million in research grants and fellowships to scientists and 
universities throughout the country for targeted research as part of 
the Science to Achieve Results--or STAR--program, including children's 
health, endocrine disruption, and air monitoring research. Also, as 
part of this request, EPA includes funding increases into key areas 
that include green infrastructure and hydraulic fracturing.
    As I've mentioned before, natural gas is an important resource 
which is abundant in the United States, but we must make sure that the 
ways we extract it do not risk the safety of public water supplies. 
This budget continues EPA's ongoing congressionally directed hydraulic 
fracturing study, which we have taken great steps to ensure is 
independent, peer reviewed, and based on strong and scientifically 
defensible data. Building on these ongoing efforts, this budget 
requests $14 million in total to work collaboratively with the United 
States Geological Survey, the Department of Energy and other partners 
to assess questions regarding hydraulic fracturing. Strong science 
means finding the answers to tough questions, and EPA's request does 
that.
    We are making investments to support standards for clean energy and 
efficiency in this budget. Specifically, this budget supports EPA's 
efforts to introduce cleaner vehicles and fuels and to expand the use 
of home-grown renewable fuels. This includes funding for EPA's Federal 
Vehicle and Fuel Standards and Certification program to support 
certification, and compliance testing for all emissions standards. This 
also includes implementation of the President's historic agreement with 
the auto industry for carbon pollution and fuel economy standards 
through 2025 for cars and light duty vehicles, including testing 
support for National Highway Traffic Safety Administration's (NHTSA) 
fuel economy standards. Taken together, NHTSA's standards for cars and 
light trucks are projected to result in $1.7 trillion of fuel savings, 
and 12 billion fewer barrels of oil consumed. This funding will also 
help support implementation of the first ever carbon pollution and fuel 
economy standards for heavy duty trucks.
    Stepping back from EPA's budget request, let me spend a moment 
discussing the impact of a sequester. Mr. Chairman, as you know, as 
part of the Budget Control Act of 2011 (BCA), through a sequestration, 
spending may be forced to be slashed in an irresponsible manner that 
can endanger the public health protections that we rely on and not 
invest in an America that's built to last. By design the sequester is 
bad policy, bringing about deep cuts in defense and nondefense spending 
to act as an incentive for congressional action on deficit reduction.
    Even without the sequester, discretionary spending has already been 
cut in nominal terms for 2 straight years. Under the BCA, it is on a 
path to reach its lowest level as a share of GDP since the Eisenhower 
administration.
    If the sequester were to happen, it would bring another round of 
deep cuts in discretionary spending. Although the administration is 
continuing to analyze the impact of the sequester, CBO has said that in 
2013, the sequester would result in a 7.8-percent cut in nonsecurity 
discretionary accounts that are not exempt from the sequester. It would 
be impossible for us to manage cuts of that magnitude and still achieve 
our fundamental mission to protect human health and the environment.
    The sequester would thus have a devastating effect on our country's 
ability to conduct the following activities over the long haul:
  --A sequester would result in deep cuts to EPA's operating budget, 
        which includes funds for the enforcement of public health and 
        environmental protections.
  --It would significantly harm our ability to help State and local 
        governments finance needed drinking water and wastewater 
        projects that provide communities clean and safe water.
  --A sequester also would slash EPA grants that help States carry out 
        basic functions that protect human health and the environment 
        like water quality permitting and air quality monitoring.
  --The sequester would impair progress on the country's ability to 
        clean up the nation's hazardous waste sites over the long haul.
    The President has been clear that the Congress needs to avoid a 
sequester by passing a balanced deficit reduction--at least as much as 
the BCA required of the Joint Select Committee on Deficit Reduction to 
avoid sequestration. The President's budget reflects such a balanced 
proposal, and we believe the Congress should enact it and cancel the 
sequester.
    Mr. Chairman, thank you for the opportunity to testify today. While 
my testimony reflects only some of the highlights of EPA's budget 
request, I look forward to answering your questions.

    Senator Reed. Thank you very much, Administrator.
    We'll do 6-minute rounds, and I assume that we'll have a 
second round at least and maybe more. But let me begin.

                         STATE REVOLVING FUNDS

    Obviously, with my initial comments about SRFs, I want to 
give you a chance to respond about the deep cuts relative to 
other programs.
    And the two points that I made in my comments, I'll just 
reiterate and ask for you to respond. One is, there are 
numerous projects at the State level that are available, 
billions of dollars and more than 10 years worth of projects 
that have to be funded and we're cutting back on it.
    And this is a program obviously that creates the kind of 
construction jobs and multiplier effect in the local 
communities that is so critical at this moment, particularly, 
up in Rhode Island, and I think every State in the country.
    So, Madam Administrator, I know you had to make tough 
choices, but does it make sense to cut this program this much?
    Ms. Jackson. Well, thank you for recognizing, Chairman, 
that this does represent the kinds of tough choices that we 
have to face.
    This administration really has strongly supported 
investments in drinking water and wastewater infrastructure to 
the tune of $18 billion more than the budgets so far. That 
includes $6 billion that was in the American Reinvestment and 
Recovery Act, of which, 100 percent allocated to States and 
tribes has been obligated.
    So it's important for us, and I think we would love to work 
with you. I understand the concern. There is great need out 
there. It is absolutely true that clean water is the basis for 
economic growth and development, and it's also a clear 
stimulant for jobs and construction.
    We'd like to take a look at what's out there, what has been 
expended and whether there are still monies that will be 
expended over the coming year. Part of this is a recognition 
that we may have money that because of the incredible 
investment, that $18 billion, we can look to make sure that the 
funds are being purposed and put out on the street for jobs.
    Senator Reed. Thank you. Obviously, we'll be following up 
with you to try to get that information and also to continue to 
press the case that this program could, I think, effectively 
use additional funding.

                            NARRAGANSETT BAY

    I want to, as I said before, thank you and Ms. Bennett for 
your work with the coastal watersheds of Region 1, in 
particular, in Narragansett Bay.
    Can you give us an idea of your concept? I know there's $2 
million within the budget for this, and how do you see this not 
only affecting Narragansett Bay, but also being consistent with 
and maybe a model for other watersheds throughout the country?
    Ms. Jackson. Well, thank you, Mr. Chairman.
    I think, as you pointed out, southeast New England faces 
environmental challenges, and the region has typical challenges 
associated with the legacy of some amount of contamination, 
channelized and impounded rivers, and natural systems that have 
been altered.
    Under your leadership and working together, I think we do 
have an opportunity to develop and test and implement best 
practices for restoration and renewal that would benefit the 
entire bi-State areas, the entire areas along that coastline, 
especially Narragansett Bay.
    We, of course, have the National Estuary Program, and we 
worked on that. We have other estuary programs where there is 
some opportunity to work together. But our hope here is to 
bring expertise and commitment on water quality together with 
an intense focus on the Narragansett Bay, in particular, to 
determine what specific levers can be pulled to make the 
largest increases in water quality as well as habitat and 
coastline improvements along the Bay.
    Senator Reed. Thank you.

                   STATE AND LOCAL AIR QUALITY GRANTS

    Let me raise a final question in my first round. And that 
is, I've received letters from the directors of nine State 
environmental agencies, and I think Senator Murkowski and 
others have received the letters.
    And they are responding to your proposal to change the 
formula for State and local air quality grants which would 
essentially change the formula to favor the south and the west 
from the current arrangement.
    And their fear, even though you're increasing funding so 
that there's no immediate decrease, their fear is obviously 
that this fund is locked in. If funding is not increased over 
time consistently, they will begin to receive less and less for 
these important functions.
    One other point I have, and this is just specific to the 
Northeast, one of the ironies of course is that we have to 
monitor a lot of air that comes from the Midwest. So that our 
air quality efforts are not simply a function of, you know, our 
regional or even local output.
    And that I think also is another rationale for maintaining 
the formula. And there is a second issue too. And that is that 
they've raised the point that you are proposing to transfer 
authority for particulate monitoring from section 103 to 
section 105.
    The bottom line is that this transfer requires a State 
match, which means, in the worst case, and generally, they 
think it's the worst case, they're going to see their funds 
decrease. And then another portion of their operations will 
require a State match which is virtually impossible to obtain 
given the reality of the States, all of our States at the 
moment.
    Could you comment?
    Ms. Jackson. Yes, Mr. Chairman, thank you.
    I do think, we have heard some of those concerns and 
received copies of those letters. And I think that once we 
receive our appropriation amount, there is an opportunity for 
us to try to work with States on how the money is allocated 
between section 103 and 105 authorities.
    There is some difference across the country in need. 
Actually, the need is greater than what we can give them. We 
are increasing, and we're very, very proud, we'd love to be 
able to give you even more money.
    But we're increasing because we recognize that States are 
so strapped, and that these monitoring systems for air quality 
are really the basis of determining whether air is healthy or 
not. And, of course, potentially taking action.
    So I think there is opportunity to work to make sure that 
there are no unintended consequences for States. But the 
increase is very real.
    Senator Reed. Well, I appreciate that.
    But, again, taking the longer view, there's a real fear 
that this formula change could significantly disadvantage, as 
well as the shifting of authorities.
    So we will be working with you and looking very closely for 
the justification for these proposals and also to ensure that 
if these concerns are justified, we can respond and make 
appropriate changes.
    With that, let me recognize Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Administrator, as I go around the State meeting with 
constituents, more people ask me questions about EPA than any 
other Federal agency out there.
    And they ask me to intervene. They ask me to do everything 
that I can to help just deal with an agency that they're having 
some difficulty understanding.
    In fact, I had asked my Alaska staff to, as they meet with 
various community leaders, to just kind of keep a running list 
of some of the issues that are coming out of our communities. 
Some of them are what you would certainly expect, concerns 
about Boiler MACT, Utility MACT.
    Others are pretty local, everything from how we get 
different ice melt on airport runways to how animals that are 
on the Alaska marine highway system moving from small island 
community to small island community, how the waste from those 
animals can be dealt with.
    So it's really a range all over the board. What I would ask 
for you this morning is a commitment to have your senior staff 
with operational authority sit down with some of my senior 
advisers within the next few weeks or so to discuss where the 
EPA is on a range of these issues.
    Senator Murkowski. Again, many of them are so very local 
that I don't want to take the subcommittee's time to resolve, 
but exceptionally important to these more isolated and smaller 
communities.
    So I'd ask if you'd be willing to appoint some folks to sit 
with me.
    Ms. Jackson. Of course.
    Senator Murkowski. Thank you.
    [The information follows:]

    Administrator Jackson committed to have senior staff with 
operational authority sit down with some of Senator Murkowski's senior 
advisors within the next few weeks to discuss where the Environmental 
Protection Agency (EPA) is on a range of issues (ice melt on airport 
runways, Boiler Maximum Achievable Control Technology (MACT), Utility 
MACT, animal waste, etc.).
    Senior EPA staff met with staff from Senator Murkowski's office on 
May 31, 2012. The meeting resulted in numerous issue-specific, follow-
up meetings, and an ongoing discussion on specific matters.

                         BRISTOL BAY WATERSHED

    Senator Murkowski. Let me ask you, just a quick question on 
the Bristol Bay watershed. I understand that an announcement on 
that is due out shortly. And, of course, my hope is that in 
addition to the questions that I had posed in my two letters to 
you, that we will not see a pre-emptive veto.
    The concern that I have expressed, and just mentioned in my 
opening, is how far this assessment can be utilized beyond just 
the Pebble project itself.
    Can you legally limit the impact to just EPA's 
consideration of the mining activity? Or, will it impact or 
affect the development decision in the watershed involving 
other issues, whether it's dredge or fill material?
    Of course, the concern is, is that within this area that's 
about the size of the State of West Virginia, if they're not 
going to be able to build a road, build a runway, because of 
this assessment, this is extraordinarily limiting.
    So I'm trying to understand that EPA authority, if you 
could address that for me.
    Ms. Jackson. Yes, Senator. And thank you for your letter.
    [The information follows:]


                                      United States Senate,
                                    Washington, DC, April 18, 2012.
Hon. Lisa P. Jackson,
Environmental Protection Agency,
Washington, DC.
    Dear Administrator Jackson: The Environmental Protection Agency 
(EPA) announced over a year ago that it would undertake a ``scientific 
assessment of the Bristol Bay watershed'' in Alaska in response to a 
petition to preemptively veto development, in that area, under section 
404(c) of the Clean Water Act. These actions materialized in response 
to the potential development of the so-called Pebble Mine.
    Since that project became a possibility, I have encouraged all 
stakeholders to withhold judgment until 1) a detailed development plan 
is released for review and 2) all relevant analyses of that plan arc 
completed. A preemptive veto, just like a preemptive approval, would be 
based purely upon speculation and conjecture. It would deprive relevant 
government agencies and all stakeholders of the specifics needed to 
take an informed position. As I have communicated to you in the past, 
this would be an unacceptable outcome to me.
    Even as the EPA proceeds with its watershed assessment, I have 
continued to hear from many Alaskans about it. They are concerned about 
everything from the potential development of a mine and the importance 
of our State's fisheries to the need for a fair permitting process and 
the potential economic benefits of mineral development. Needless to 
say, I remain apprehensive about EPA's handling of this matter 
generally, but I write today regarding one particular issue.
    Setting aside my opposition to a preemptive veto of a mining 
project that has not yet applied for a permit, I am worried about the 
unintended consequences for other development should the EPA decide to 
take such action. Specifically, I remain concerned that an attempt to 
preemptively veto the Pebble mine would have the practical effect of 
halting any development in the Bristol Bay area that might generate 
dredge or fill material. It remains unclear to me how dredge or fill 
material from a mining operation might be substantively different from 
dredge or fill material generated from any other form of development.
    In my letter to you of February 16, 2011, I raised this issue and 
asked a pair of detailed questions. I was disappointed to find that 
your response of March 21, 2011 did not definitively answer either of 
those questions, both of which appear with the responses that the EPA 
provided in the attachment. Since our exchange, and in continuing to 
hear from my constituents about the EPA's activities in Alaska, I have 
only become more concerned. It was my hope that a recent meeting with 
EPA officials would finally alleviate some of these concerns, but I 
regret that it failed to accomplish that objective as well.
    On March 6th, members of my staff met with EPA's Region Ten 
Administrator, Dennis McLerran. Consistent with my past inquiries, they 
asked Administrator McLerran about the potential impact of a preemptive 
veto of development in the Bristol Bay watershed for not only mining, 
but all other development. They were told that the watershed assessment 
would be narrowly crafted to look at hypothetical mining activities and 
that any preemptive veto would he similarly structured to avoid 
impacting other development. I ask that you provide further, written 
clarification on this matter.
    In particular, I fail to see what grounds the EPA might have for 
asserting that dredge or fill generated by a hypothetical mine and the 
acceptability of impacts resulting from its disposal--is any different 
from dredge or fill material generated by any other hypothetical 
development. Given the EPA's apparent comfort with consideration of 
hypothetical scenarios, and for purposes of more definitively answering 
my previously submitted questions, I ask that you do so again.
    Specifically, please assume that EPA goes ahead with a preemptive 
veto of mineral development in the Bristol Bay area. Having done so, 
please consider the possibility of a subsequent proposal to develop an 
airfield--one that would generate, and require disposal of, dredge or 
fill material--in the same area. If a third-party litigant sued to 
prevent construction of this hypothetical airfield, please describe the 
legal grounds upon which that challenge might he reliably defeated and 
the airfield development allowed to move forward.
    To date, I have not received a satisfactory response to this 
question, no matter how it has been phrased. This makes me very 
concerned, so I appreciate any assistance you might be able to provide 
in clarifying the matter and hope that the more specific example 
provided herein will be helpful to that end. In attempting to answer 
this question, I ask that you do so no later than--and ideally prior 
to--the issuance of the watershed assessment that the EPA has 
undertaken. To be clear: I will view as fatally flawed any assessment 
that does not include, or is not accompanied by, an official legal 
opinion from the administration on this matter. I further ask that your 
analysis be performed in conjunction with the Department of Justice and 
the EPA's Solicitor.
    As the people of my State work to attract investment and create 
jobs, regulatory uncertainty is hampering those efforts and they need 
answers to questions about actions that the EPA is considering. This is 
particularly true when those actions could have a permanent and 
detrimental impact on our ability not only to develop Alaska's 
resources, but also to undertake any other forms of development in our 
State.
    Thank you for your attention to this important matter.
            Sincerely,
                                            Lisa Murkowski,
                                                      U.S. Senator.
    cc: Administrator Dennis McLerran and Attorney General Eric Holder
                                 ______
                                 

                               Attachment

    Question:
    Should a veto be exercised preemptively within the Bristol Bay 
watershed--not in relation to an application to undertake specific 
development in the area--could that decision be interpreted by courts 
or future administrations to extend more broadly to all future 
development proposals (e.g., an airstrip, fish-processing plant, 
refinery, hospital, school, museum) that may require a dredge or fill 
disposal site?
    EPA Response:
    EPA's assessment is not a regulatory action. This assessment will 
help inform consideration of options for improving protection of the 
Bristol Bay watershed. EPA has made no decision at this time to proceed 
with a CWA section 404(c) review in Bristol Bay. As a result, we are 
not prepared to speculate regarding the scope of any action taken under 
this authority.
    Question:
    It seems that a preemptive veto could set a number of highly-
problematic precedents. For example, the Bureau of Land Management, the 
U.S. Forest Service, and other federal agencies have historically been 
tasked with land planning decisions on federal acreage. Similarly, 
state lands are managed by analogous entities. Should the EPA issue a 
preemptive veto of an entire area which, in this case, consists largely 
of state lands, those aforementioned agencies would no longer be able 
to plan for multiple-use activities, but instead he subjected to 
preemptive yes-or-no decisions from the EPA under whatever speculative 
assumptions regarding development the EPA may choose to adopt.
    Has the EPA considered the precedents that would be set by a 
preemptive veto? Has the EPA consulted relevant federal and state 
agencies regarding such a course of action? Could third-party litigants 
cite the veto as precedent in opposing other projects within the 
watershed?
    EPA Response:
    EPA has not made any decision regarding whether or not to initiate 
an advance 404(c) action at this time. As we have emphasized, we have 
instead chosen to work with our federal, state, and tribal partners, 
and the public, to assess the resources in Bristol Bay and identify 
options for improving protections for fisheries in the Bay that depend 
so significantly on clean water and a healthy watershed. We look 
forward to working with federal agencies, corresponding state agencies, 
tribes, and others to take advantage of their experience and 
information to support the Bristol Bay assessment. As part of the 
assessment process, EPA will collaborate with an extensive list of 
federal, state, tribal, and local government agencies and 
organizations; the public; private interests such as mining project 
proponents; and others with an interest in Bristol Bay. EPA's 
assessment process is being conducted in an open and transparent manner 
to allow the issues you have raised to be effectively raised and 
discussed. This information and public discussion will help inform 
decisions following completion of the study.

    Ms. Jackson. I'll lay this out more fully in my response to 
your letter which will be coming very, very shortly. And, 
because your letter was addressed, and copied to the Attorney 
General, we have been also consulting on the legal issues here.
    [The information follows:]

             United States Environmental Protection Agency,
                                      Washington, DC, May 17, 2012.
Hon. Lisa A. Murkowski,
United States Senate,
Washington, DC.
    Dear Senator Murkowski: Thank you for your April 18, 2012, letter 
requesting additional clarification about the U.S. Environmental 
Protection Agency's (EPA) Bristol Bay watershed assessment. I 
appreciate the opportunity to respond to your letter.
    As detailed in my letter of March 21, 2012, EPA undertook this 
assessment after numerous native villages and other organizations in 
Alaska and elsewhere raised concern about potential environmental, 
water quality, fisheries and associated economic and subsistence 
impacts from proposed large-scale mining development in the Bristol Bay 
watershed. Clean Water Act Sections 104(a) and (b) clearly provide the 
Agency with the authority to study the resources of the Bristol Bay 
watershed, evaluate the effect of pollution from large scale mining 
development on those resources, and make such an assessment available 
to the public. Although these groups requested that EPA use its 
authority under Section 404(c) of the Clean Water Act, others argued 
that any action should be based on submission and review of a 
particularized permit application.
    EPA decided it was premature to make any decision on the use of 
Section 404(c). Instead, the Agency opted to undertake a scientific 
assessment to obtain a more informed basis for future decisionmaking. 
The EPA is conducting this assessment in coordination with Federal 
agencies, tribal organizations, and the public. We have also consulted 
with the State of Alaska. We intend to make our draft available for 
public comment and are convening a peer review panel to provide us with 
independent scientific feedback. Our goal is the finalization of a 
robust, technically sound assessment. Only upon its completion will the 
Agency examine regulatory options, including application of404(c), if 
appropriate. We will be happy to brief you and your staff on the draft 
assessment and its implications when it is released.
    Your letter raises an important question about the precedential 
effect of a hypothetical EPA section 404(c) review of mining in Bristol 
Bay on other future development activities in the Bristol Bay 
watershed. Before turning to this issue, I want to be clear that the 
focus of our assessment is on the environmental and water quality 
impacts from discharges of dredged or fill material associated with 
large-scale mining in the watershed. The assessment does not address 
impacts associated with other development activities, such as 
construction of an airfield, which have a wholly different 
environmental footprint from large-scale mining Since this assessment 
focuses only on the impacts of large-scale mining projects to the 
Bristol Bay watershed, use of the assessment in support or in 
opposition to other types of wetland fill activities is not 
appropriate. Therefore, we would not expect the assessment to play a 
significant role should controversy arise about possible regulation of 
development activities unrelated to large-scale mining.
    While your question is hypothetical, and EPA has no plans to use 
404(c) authority unless justified by the full technical assessment, let 
me also assure you that we have a broad range of discretion in our use 
of the 404(c) authority. A final 404(c) action in Bristol Bay 
prohibiting or restricting large scale mining activities would not 
affect other development in the watershed. CWA section 404(c) 
authorizes the EPA to prohibit or restrict discharges in a defined area 
of the waters of the United States when those discharges are determined 
to have unacceptable adverse environmental or water quality impacts. 
Discharges associated with activities outside the focus of a particular 
Section 404(c) decision are not prohibited or restricted by EPA's 
action. As a result, if EPA were to prohibit or restrict certain 
discharges from large-scale mineral development at Bristol Bay, this 
action would not preclude other development or infrastructure such as 
airport construction that had less damaging impacts.
    Historic application of this authority demonstrates that we have 
used it sparingly and only for severe and widespread impacts on 
ecological resources that we felt justified protection of these 
resources. I am unaware of any case where our decision to use 404(c) in 
one situation was interpreted to compel its use in a different set of 
factual circumstances.
    Impacts from the discharge of dredged or fill material vary 
significantly depending on the location, scale, and duration of the 
activity associated with the discharge. The impacts from using clean 
fill material to build a private boat dock are not the same, for 
example, as impacts from placing contaminated fill material to 
construct a large solid waste landfill. EPA carefully considers these 
distinctions in its review under Section 404 to ensure that our actions 
protect against unacceptable adverse impacts to public health and the 
environment while assuring that environmentally responsible development 
may proceed.
    Preparation of this letter was coordinated within the EPA's Office 
of General Counsel and with the Department of Justice. I hope it 
responds effectively to your questions. Please contact me if you have 
any additional questions regarding EPA's Bristol Bay watershed 
assessment or your staff may contact Arvin Ganesan, Associate 
Administrator for Congressional and Intergovernmental Relations, at 
202-564-5200.
            Sincerely,
                                           Lisa P. Jackson,
                                                     Administrator.

    Ms. Jackson. And I feel confident that I can answer that 
the assessment focuses on large-scale mining. And using the 
assessment to oppose or support any other type of project will 
be inappropriate.
    It's a draft assessment. It's going out for public comment 
and then it will go for peer review. So it's early on.
    Senator Murkowski. How long a public comment do you 
anticipate on that?
    Ms. Jackson. I believe it's 60 days, Senator. And we're 
trying to get it out before commercial fishing and other 
successive fishing seasons begin.
    So we do believe that it won't apply to nonmining projects, 
and that will be laid out more fully in the letter.
    Senator Murkowski. Have you requested a legal opinion to 
that effect then?
    Ms. Jackson. Well, we've coordinated with the Attorney 
General's office to ensure that our reading of the law under 
Section 404 of the Clean Water Act is correct and accurate.
    Senator Murkowski. Do you have or will you have anything in 
writing that you can provide to us on that legal opinion?
    Ms. Jackson. Well, I have the letter which will indicate 
our having consulted with our counterparts at the Attorney 
General's office.
    Senator Murkowski. Well, I understand you're going to be 
sending me a written response, and I will await that.
    But I think it's going to be important that it clearly be 
established through legal opinion, or some form of assurance 
out there that, in fact, this can be and will be limited to 
large-scale mining.
    Because again, I think the big unknown here is what this 
potential impact may mean to any other kind of development 
within this region.
    Ms. Jackson. Well, definitely, the letter will reflect the 
concurrence of opinion between EPA, but having consulted with 
the Attorney General's office, not only our internal attorneys, 
but those who would be responsible for interpreting the law.
    And so we do believe that it will do that.
    Senator Murkowski. Well, I will await that letter. But I 
may want to double back with you in just ascertaining where we 
really are.
    Because this is the big issue that we're dealing with, with 
Pebble right now, is how this, the extent of this assessment 
might be interpreted.

                       NEW RULES AND REGULATIONS

    One last question before my time has expired here. A lot of 
concern about the rush toward additional regulations coming out 
of the administration as we come to the end of President 
Obama's first term here.
    And a concern that we're going to see a rush of major, new 
rules and regulations prior to January 20.
    Can you give a list to the subcommittee, for the record, on 
what major rules and regulations are due to be final, by either 
virtue of the statute, or by court order, prior to January 20.
    [The information follows:]

    The Congressional Review Act (CRA) defines a major rule as one that 
``has resulted in or is likely to result in (1) an annual effect on the 
economy of $100 million or more; (2) a major increase in costs or 
prices for consumers, individual industries, Federal, State, or local 
government agencies, or geographic regions; or (3) significant adverse 
effects on competition, employment, investment, productivity, or 
innovation, or on the ability of United States-based enterprises to 
compete with foreign-based enterprises in domestic and export 
markets.'' (5 U.S.C. 804(2).)
    The Office of Management and Budget (OMB) reviews rules to ensure 
that regulations are consistent with applicable law, the President's 
priorities, and the principles set forth in Executive Order 12866, and 
that decisions made by one agency do not conflict with the policies or 
actions taken or planned by another agency. OMB's Administrator of the 
Office of Information and Regulatory Affairs determines whether a rule 
is classified as ``major''.
    Generally, the Environmental Protection Agency's (EPA) rules that 
have been determined as ``major'' under the CRA are based on the annual 
effect on the economy of $100 million or more'' part of the definition. 
EPA's Semiannual Regulatory Agenda captures information on rules that 
are ``major'' as well as any associated deadlines for the rules in 
question. EPA's Semiannual Regulatory Agenda is available at http://
www.epa.gov/lawsregs/regulations/regagenda.html; please note that a 
more updated Agenda is scheduled to publish in the very near future.
    Executive Order 12866 defines a significant regulatory action as 
one that is likely to result in a rule that may:
  --Have an annual effect on the economy of $100 million or more or 
        adversely affect in a material way the economy, a sector of the 
        economy, productivity, competition, jobs, the environment, 
        public health or safety, or State, local, or tribal governments 
        or communities;
  --Create a serious inconsistency or otherwise interfere with an 
        action taken or planned by another agency;
  --Materially alter the budgetary impact of entitlements, grants, user 
        fees, or loan programs or the rights and obligations of 
        recipients thereof; or
  --Raise novel legal or policy issues arising out of legal mandates, 
        the President's priorities, or the principles set forth in this 
        Executive order. (section 3(f).)
    EPA rules that have been determined as ``significant'' under 
Executive Order 12866 are based on the `` annual effect on the economy 
of $100 million or more'' and ``raise novel, legal or policy issues 
arising out of legal mandates, the President's priorities, or 
principles set forth'' parts of the definition.
    Accordingly, EPA's Semiannual Regulatory Agenda captures 
information on rules that are meet the criteria of ``economically 
significant'' or ``other significant.'' EPA's Semiannual Regulatory 
Agenda is available at http://www.epa.gov/lawsregs/regulations/
regagenda.html; please note that a more updated Agenda is scheduled to 
publish in the very near future.

    Senator Murkowski. And then again, a list as to those 
significant rules that you expect to go final within that same 
timeframe, just so that we understand what it is that we're 
dealing with.
    Ms. Jackson. Most certainly, Senator.
    There are two things though I just need to clarify. We have 
a regulatory agenda that tends to be somewhat broader than what 
actually comes to be in terms of proposed or final regulations.
    And we are right now in the middle of several court cases 
which may change our agenda. So I can certainly give you a 
listing of those things, and they're fairly publicly known 
major regulations that we are working on.
    For example, finalizing the fuel economy standards and 
others. But our regulatory agenda, which we're working on 
updating, is probably the best source of that information, and 
we'll get that updated as soon as we can.
    Senator Murkowski. Thank you.
    Senator Reed. We're going to go back and forth on order of 
arrival. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. And thank you for 
being here, Administrator Jackson.
    I want to tag onto your statement earlier that clean air 
and clean water is important for economic development. It's 
also the basis of life.
    And I think that as we, whether it's mining for gold or 
drilling for oil, it's critically important we don't sacrifice 
one resource for another.

                          HYDRAULIC FRACTURING

    And along those lines, there is a robust discussion 
regarding hydraulic fracking or fracturing. Fracking is what's 
taken North Dakota to number two in oil production in this 
country.
    And DOE's advisory board, shale and gas production 
subcommittee of the National Petroleum Council, have released 
reports about hydraulic fracturing and domestic production of 
oil and gas.
    These reports provide suggested steps that the government, 
industry and researchers need to take to assure that we have a 
balanced regulatory regime to protect development and citizens.
    Just last week your agency released draft guidance on Class 
2 injection wells and the use of diesel fuel. BLM just released 
their draft regulation of hydraulic fracturing on BLM and 
Tribal Trust lands.
    And from my read, one of the most critical parts of the 
recommendation is the standards for casing and constructing 
wells.
    If there isn't public trust that this technology can be 
used safely, that will inhibit its future development. And I 
believe that the industry is starting to recognize that.
    My question for you is, do you believe that the standards 
provided by American Petroleum Institute (API) and used by the 
BLM are sufficient to protect groundwater and surface water 
contamination both during protection and into the future?
    Ms. Jackson. I believe, based on what we know now, Senator, 
our staff worked--I can't speak about API, as much as I can say 
that our staff at EPA were consulted and reviewed the proposed 
regulations that the Department of Interior put out last week.
    It's obviously their jurisdiction because it's on public 
lands. The only caveat I would offer, Sir, is that we are in 
the middle of this 2-year, congressionally directed study on 
groundwater, on the effect or potential effect of fracking on 
groundwater.
    And anything that we learn as a result of that will be 
available to the private sector, the public sector, States, 
locals, and of course, our colleagues at the Department of the 
Interior.
    Senator Tester. Another major section of the recommendation 
is about disclosure. There are many forms of disclosure.
    Do you believe that the Web site, FracFocus, provides 
sufficient information to the public?
    Ms. Jackson. I believe that the proposal that the 
Department of the Interior put out leaned heavily on the 
information in FracFocus, and that they are probably best able 
to describe how their regulations mesh with the FracFocus 
effort.
    But I do think it is an important effort that the industry 
step forward and recognize that one of the major concerns the 
public has is the lack of awareness and transparency around the 
chemicals being injected.
    Senator Tester. Okay. Thank you very much.

                            FARM FUEL TANKS

    One of the things that I visited with your office before 
about is EPA's implementing new regs on farm fuel tanks to 
prevent fuel spills into rivers and streams.
    My concern is that EPA has not adequately explained the 
rules or educated the public about them, particularly, people 
in production agriculture.
    Look, I don't think farmers have, nor should they, check 
the Federal Register or regularly check the EPA's Web site. 
Although it might be handy, I don't think it's high on their 
list and I don't think it probably should be.
    As EPA implements the regulations, and I think it's EPA's 
responsibility to make sure that the folks out there know 
what's coming. In this particular case, farmers and ranchers, 
and how they can work through the process.
    Many folks in my neck of the woods continue to have 
questions and deadlines. There's good information. There's bad 
information about the certification process, and whether they 
can certify themselves.
    I guess just to cut to the chase, we asked you to hold off. 
What progress has EPA made in conducting outreach to the folks 
in production agriculture? I'm talking farmers and ranchers.
    Ms.  Jackson. And I thank you, Senator.
    And, yes, you're right. Happy to give you an update on our 
progress after we put in place a delay to include additional 
outreach. We met with national agricultural groups who have an 
interest in the issue.
    We've drafted, and it's with their input, new materials 
that can be provided to grower groups, States, and cooperative 
extensions.
    I think just in the last week or so, we had a discussion 
with communication directors at the major grower groups to 
particularly focus and discuss other outreach efforts to make 
sure that the information is clear and useful for farmers.
    Senator Tester. Have you got any feedback from farmers on 
it yet?
    Ms. Jackson. I can certainly check on that, Sir. But I 
don't, I think we are--Let me check on it for you.
    [The information follows:]

    The Environmental Protection Agency has actively engaged in a 
significant number of outreach efforts to ensure the farmer community 
is fully aware of their responsibilities under the Spill Prevention, 
Control, and Countermeasure regulations and have the tools needed to 
meet those requirements. Our efforts have included developing a flyer 
to be used by trade associations and agriculture extension services to 
inform and educate their members; holding webinars for the farming 
community to educate and provide opportunity to ask questions regarding 
their responsibilities; attending fairs and conventions to speak and 
distribute information; compiling a list of outside materials (such as 
articles, videos, blogs, Web sites, etc.) produced by outside groups 
like agriculture centers, universities, trade associations; and 
creating and supporting a Web site with pertinent information and tools 
for farmers. At this time, we have had no additional formal feedback 
from farmers; however, we have received some anecdotal information from 
trade associations and farmers that they are finding this information 
useful.

    Senator Tester. Okay. That's fine.
    In Montana, we pride ourselves on self-sufficiency. Many 
folks in Montana are trying to use biodiesel on their farms to 
help increase energy independence.
    Unfortunately, certifying each batch of biodiesel for small 
producers is cost prohibitive. A while ago, I asked CPA to 
consider an exemption for on-farm/regional biodiesel use.
    I don't think any progress has been made on that, but you 
can correct me if I'm wrong. So I guess what I'm asking you is 
if you can commit to working with me to develop a reasonable 
certification process for small, on-farm regional use of 
biodiesel, I think this could do a lot of things, Administrator 
Jackson.
    I think it can help contribute to our energy independence. 
I also think it could create some jobs in rural America where 
we need a few more.
    Ms. Jackson. Yes, Senator. I'm not aware of what progress, 
if any, we've made. So I'm happy to commit to working with you 
on that issue.
    [The information follows:]

    Fuel and fuel additive registration requirements under 40 CFR part 
79 are not required for producers who make biodiesel fuel for off-road 
use (e.g., in agricultural equipment).

    Senator Tester. All right. Thank you very much for that. 
Thank you for being here.
    Ms. Jackson. Thank you.
    Senator Tester. Mr. Chairman.
    Senator Reed. Thank you, Senator Tester. Senator Blunt, 
please.

                           PREPARED STATEMENT

    Senator Blunt. Thank you, Mr. Chairman. I've got a 
statement for the record I'll submit and I'm sure that EPA will 
want to read it carefully.
    [The statement follows:]

                Prepared Statement of Senator Roy Blunt

    Thank you Chairman Reed and Ranking Member Murkowski for holding 
this hearing today. I appreciate the opportunity to examine not only 
the budgetary needs, but also some of the recent activities of the 
Environmental Protection Agency (EPA). I would also like to thank 
Administrator Jackson and Chief Financial Officer Barbara J. Bennett 
for being here.
    Around this time last year, I pointed out that EPA had issued or 
planned to issue almost 20 different rules placing mandates on 
manufacturing, the power industry, and even our farmers. EPA should not 
be using taxpayer dollars to impose costly and burdensome regulations 
that could severely impact jobs, our economy and the cost of everything 
we do or buy.
    Only one regulation from this list was stopped, and that was the 
expensive tightening of ozone standards that EPA publically supported 
despite the economic toll it would have. Of course this was only 
because the White House scrapped it at the last minute, no doubt 
realizing the impact in a political year.
    There is yet a new medium for EPA regulations, through something 
called ``guidance''. Guidance, in EPA's own words is ``frequently used 
by federal agencies to explain and clarify their understanding of 
existing requirements''. This says to me that guidance can have just as 
far reaching consequences as traditional rulemakings can.
    Yet guidance technically is not ``final'', so affected parties have 
no recourse to appeal the rules. This circumvents the fair procedures 
put in place to safeguard against overreaching agency action, like 
affected parties' ability to appeal to the courts.
    EPA recently came out with guidance that expands the jurisdiction 
of the Clean Water Act--meaning that EPA now can control even a stream 
that EPA ``determines'' has a close enough connection to the navigable 
waters the Clean Water Act traditionally regulates. This could have 
devastating effects for our farmers, miners, and even construction 
workers. Oddly enough, EPA still accepted comments before issuing the 
final guidance document, many of which pleaded with the EPA to use 
notice and comment rulemaking. Yet EPA did not undertake a rulemaking, 
issuing the final guidance soon after.
    This is the most recent example of the dangers of agency overreach. 
The cumulative effects of these rules are vast and probably cannot be 
determined at this time. Even EPA's own cost-benefit analysis used in 
these rules often do not include job losses or what it would mean for 
families if their food and energy prices go up.
    We all can agree that cleaning up and protecting our environment 
are important goals. Yet this must be balanced among economic losses. A 
robust economy doesn't just mean businesses are making more money; it 
means people are employed, and it means consumer choice thrives and 
keeps costs of goods low. Economic and environmental goals must be 
balanced.
    I hope the EPA can stop and consider the multitude of rules coming 
out of the Agency that threaten the economic viability of our country's 
energy, manufacturing, and agricultural sectors.
    Again thank you for your time, and I look forward to your 
testimony.

    Senator Blunt. I've got three questions I want to ask about 
three areas.

                           FUEL HARMONIZATION

    One is fuel harmonization, a fuel harmonization study. I 
sent you a letter in May of last year. The Ranking Member of 
this subcommittee--Senator Murkowski--Senator Cochran, a number 
of my other colleagues signed that letter as well.
    In 2005, in the Energy Policy Act, EPA and DOE were asked 
to do a fuel harmonization study. One of the things we did in 
the Energy Policy Act was give you the ability to waive fuel 
standards under certain difficult situations to where all of 
these different boutique fuels wouldn't all have to be 
available under specific circumstances.
    The most notable time it was used was during Katrina. It 
was used effectively and well for about 6 months. But that's a 
stop-gap solution to trying to figure out how many different 
fuel blends we really need.
    So what I'm asking is, why haven't you done the study? The 
response to the letter we sent in May of last year was pretty 
much nonresponsive. It was basically, we received your letter 
response.
    The 2005 Act asked the Department to do that. You haven't 
been responsible since for all that time. I get that. But can 
you do that study as the Congress requested you to do?
    Ms. Jackson. Well, Sir, just a couple of points.
    I think the reason that there hasn't been a commitment to 
do the study is that on the ground we see that these local fuel 
requirements. They're put in place by State regulators looking 
at smog issues and air pollution issues in their regional 
districts.
    The use of those special fuels has decreased since 2002.
    Senator Blunt. Has decreased?
    Ms. Jackson. Decreased. Yes, Sir.
    Senator Blunt. Yes.
    Ms. Jackson. And that we do know about, the effect on the 
price of gasoline: they add very little to the cost of 
gasoline.
    So we have people using fewer and fewer of these fuels. We 
know that they are not adding significantly to the price of 
gasoline, and we know that they are used in the places where 
there are still remaining summer fuels issues. I know that 
certainly from New Jersey that it is important----
    Senator Blunt. Well, there was a Kansas City Star, there 
was a Kansas City Star article recently that said that their 6-
year study indicates that the average has cost 10 cents more 
per gallon because of their boutique fuel.
    So, you know, if I'm standing there watching that tank and 
every time I fill it up it costs me 10 cents more a gallon and 
I live in Kansas City, I would think that was significant.
    Ms. Jackson. Well, the----
    Senator Blunt. But the question is, can you come up with a 
series of fuels that people could choose from rather than this 
idea that every community has a perfect fuel that's only right 
just for it? That's what the study asked if you could do.
    Ms. Jackson. Yes, Sir. And I think what I'm trying to 
convey is that the market is moving toward fewer and fewer of 
that kind of situation happening.
    More and more, we see some regions that have regional 
blends, but fewer and fewer specialized, local blends. And so, 
the market is taking care of the problem itself.
    What's remaining are those fuels where State regulators 
have determined that there's a need to have a special fuel in 
summer to reduce smog levels because of an increased 
volatilization of gasoline.
    So I understand your concern for the issue. I guess I'm 
offering, respectfully, that I think the issue is, the impact 
on cost is not that high, and that there aren't as many fuels 
that are truly unique in the country.
    Senator Blunt. Well, we capped the number of fuels you 
could have in that same act, so that does have some impact on 
how many more there could be.
    All right. That was not quite as nonresponsive as the 
letter, so I'll accept that.

                            CLEAN WATER ACT

    The Clean Water Act guidance. A lot of concern about 
moving, removing the word ``navigable waters'' from the Clean 
Water Act. Give me some thoughts. Why guidance instead of a 
rule?
    You all have issued some guidance, and I'm not sure anybody 
really quite knows how binding guidance is, or what guidance 
means, except guidance doesn't go through the rulemaking 
process.
    So this guidance, it looks like to me, suggests that 
anything that eventually gets into, extends the authority to 
streams, ponds, or even maybe puddles that the EPA would 
determine has a connection to a larger body of water.
    Not true?
    Ms. Jackson. Not quite, Senator.
    First, to your question as to why guidance? In the wake of 
the two Supreme Court decisions in both 2003 and then 2008, the 
EPA and the Corps of Engineers (COE) jointly issued guidance to 
assist in determining what water bodies were jurisdictional 
under the Clean Water Act.
    That has widely, I think, very widely, been seen as not 
being helpful enough. So COE and EPA have set out, and we have 
not issued final guidance, but we issued draft guidance, I 
believe last year, and took public comment on it.
    And are working to finalize guidance that would replace the 
2003 and 2008 guidances. So that is why, guidance.
    As to your concern about extending jurisdiction. The 
guidance is intended to help answer the question of, in a 
navigable water body, certainly we know what ``navigable'' 
should be or can be, although there have been even disputes 
about ``navigable''.
    But how far up in the watershed do you have to go? Since 
certainly, in order to protect navigable waters, you have to 
protect the streams that feed into them otherwise, you know, 
you don't stand a chance.
    So that's what the guidance is intended to do. It has been 
out in draft and for public comment, and we're working to 
finalize that, Sir.
    Senator Blunt. Well, why guidance rather than a rule?
    Ms. Jackson. Well, the guidance will replace the guidance 
that's currently out there. Certainly, a rulemaking could be 
considered, but we believe it's better to start with the 
guidance and then we can certainly move towards a rule if 
necessary.

                      PORTLAND CEMENT ASSOCIATION

    Senator Blunt. Okay. The last question I had is short and 
can get a short answer I think.
    In mid-April, EPA entered into a proposed settlement 
agreement with the Portland Cement Association. And, do you 
intend to finalize that agreement?
    I think they've accepted the proposed settlement, and are 
waiting for you to accept it as well.
    Ms. Jackson. Yes, Sir. To my knowledge, I don't think 
there's any concern with finalizing our agreement.
    Senator Blunt. Okay. Thank you, Chairman.
    Senator Reed. Thank you, Senator Blunt. Senator Hoeven, 
please.
    Senator Hoeven. Thank you, Mr. Chairman.
    I want to begin by thanking you, Administrator Jackson, for 
your help with North Dakota's State Implementation Plan (SIP) , 
in regard to regional haze. We do appreciate that.
    We're not quite completed. We've resolved it for a number 
of our plants, but there's still some work remaining and I ask 
for your continued help as we continue to fully resolve that 
issue on regional haze as to continuation of the State's SIP 
versus a FIP on some of our plants.
    So thank you for your help. And I ask for your continued 
help in that regard.

                          HYDRAULIC FRACTURING

    My questions, at least my initial questions, relate to 
hydraulic fracturing. As Senator Tester said, North Dakota is 
now in the process of moving into becoming the second-largest 
oil producing State in the country behind Texas.
    The good Senator from Alaska, Senator Murkowski, of course, 
I share her desire to produce much more oil and gas in Alaska. 
I know that's going to happen too.
    So, long term, we know that you're going to be a real 
powerhouse. But the point I want to make is that we can't do it 
without hydraulic fracturing. We cannot produce oil and gas 
without hydraulic fracturing.
    So it's incredibly important to us. And a State-led 
approach is the right approach. It's working very well. It will 
continue to work very well.
    So we're concerned about regulations that you're proposing 
in regard to hydraulic fracturing, and also, we're very 
concerned about how you conduct the study. We are very 
supportive of transparency, good environmental protection, and 
we believe we work very hard to do that.
    But, at the same time, we believe that the State-led 
approach not only provides those things, but also empowers the 
industry to produce more energy for this country.
    So, specifically, I want to ask you about, and it's 
interesting, because Senator Blunt was asking about guidance 
versus rules. And I think he made some very important points as 
to what is guidance mean, and how do we deal with guidance?
    But on May 4 of this year, EPA released a draft permitting 
guidance regarding the use of diesel fuel in hydraulic 
fracturing. Now, on the one hand, in that draft guidance, you 
refer to six chemical abstract service registry numbers. So 
you're specific. And we're working with industry to find out if 
those specific, defining those specific chemicals as diesel is 
a workable situation.
    But then you go on in this draft guidance and you use terms 
like, in addition to those six chemicals. You talk about 
substantially similar. You talk about several others. You talk 
about common synonyms.
    So we go from specifically defining what you're going to 
consider diesel in this guidance. And, as Senator Blunt says, 
we've got to understand, with a State-led approach, what does 
guidance mean?
    In other words, does the State have to follow your guidance 
or you'll step in and take over the program? Or, exactly, what 
do you mean by guidance?
    And, then, second, when you specifically define those 
chemicals by registry number, okay, maybe we can work with 
that. But then, when you start saying, you know, several 
others, substantially similar, common synonyms. Now we get 
vague, and creates ambiguity.
    So my question to you is, in your final guidance, will you 
continue to use language like substantially similar, several 
others, and common synonyms? That's my first question.
    Ms. Jackson. The guidance is out for public comment, Sir. 
And I should note that we worked with industry in the drafting 
of it. But the purpose of the public comment is to get 
information, and I can't really pre-judge what will happen on 
finalization.
    Senator Hoeven. Would you comment as to my point regarding 
the ambiguity and the vagueness and the problems it creates for 
industry if you say, well, it's this chemical. This is diesel, 
but, gee, it could be all these other things and we're not 
going to say what they are.
    Now, industry has to work with that. How would you address 
that?
    Ms. Jackson. Well, I think we're happy to have discussions 
with industry so that there is some clarity. And synonym is 
pretty straightforward.
    If you call it something different by trade name, or some 
other thing, I think, the implication there is clear, that you 
shouldn't be able to name it something different, and 
therefore, not have it subject to the guidance when it is 
finally put in place.
    As far as substantially similar, we certainly can have 
additional comments on that.
    I should just add, Sir, that the reason for that guidance 
is because there was something of a loophole in the exemption 
from regulation for hydraulic fracturing under the underground 
injection control standards.
    And the one thing that wasn't exempt was the injection of 
diesel. And there was great uncertainty in the regulated 
community that whether or not when they injected diesel, they 
needed a permit.
    And in some States, EPA issues those permits, not the 
State. They did not receive delegation or sought it.
    Senator Hoeven. If they don't have primacy, that's correct.
    Ms. Jackson. That's right, Sir.
    So this is not an attempt to change. There are many States 
that already deal with this issue.
    But there was ambiguity and uncertainty as to how to deal 
with those cases where someone was injecting diesel.
    And that's what this guidance is attempting to give 
additional information on for permit writers, as well as the 
regulated community.
    Senator Hoeven. Administrator, I'm trying to get to two 
points here.
    If we're going to empower industry, and if we're going to 
empower investment to produce more energy in this country and 
do it with good environmental stewardship, they need to know 
the rules of the road, and they need consistent enforcement.
    If you say, okay, this is diesel and they can understand 
that, fine. Then perhaps they can work with that. I mean, I 
have to understand what those six chemicals are, and we have to 
get some feedback from them. Hence, the reason for the proposed 
draft guidance.
    So we need to find that out. Maybe that works. We need to 
determine that. But then when you say, or it could be all these 
other things like that, now we're starting to get ambiguity and 
a vagueness that is very hard for industry to work with.
    So we need you to work with us through that process.
    Ms. Jackson. And I'm happy to do that, Sir.
    I mean, we're in public comment, and we will finalize the 
guidance. But part of the reason for the comment is to get 
information and to try to assure that we do remove ambiguity 
from the process.
    We have the same goals, Sir.
    Senator Hoeven. Thank you. And I have more questions, but 
I'll come back to them. I see my time has elapsed.
    Senator Reed. Thank you, Senator Hoeven. We will have a 
second round.
    Let me begin it by continuing the line of questioning that 
both Senator Tester and Senator Hoeven opened up with respect 
to hydraulic fracturing, but from a slightly different 
perspective.

                       HYDRAULIC FRACTURING STUDY

    Your budget includes $40 million to deal with this topic--
an increase of $8 million.
    And I think we all recognize, and it's explicit in the 
comments, that we don't want to trade access to the very 
valuable petroleum and carbon resources at the cost of degraded 
water supplies and environmental problems.
    I think that's our position consistently across the board. 
So your research is absolutely necessary and your collaboration 
with industry is absolutely necessary.
    Your money is part of a larger pool of about $45 million 
that the President has directed throughout several different 
Departments. One thing though that we did in 2010 is we 
directed EPA, specifically, to initiate a multi-year study on 
the potential impacts of hydraulic fracturing on drinking water 
resources, to be specific.
    And I understand the first report for the study is 
scheduled for the end of this year, 2012. Is the EPA still on 
track to meet this timeline, and can you give us sort of a 
preview of what information that might be revealed?
    Ms. Jackson. We are still on track, Sir. And I have not 
been briefed on any preliminary findings, so I'm not in a 
position to give any information at this point.
    Senator Reed. Let me again look at sort of the overall 
approach to the research with respect to hydraulic fracturing.
    On April 13, the President issued an Executive order to 
align all current and future research which, again, I think we 
all say is absolutely necessary for the protection of the 
public, made up of 13 Federal agencies.
    On that same day, EPA joined DOE and the United States 
Geological Survey in signing a Memorandum of Agreement (MOA) 
creating a new steering committee. So we've got what appears to 
be two steering committees here.
    Can you explain these two efforts, does one subsume the 
other? Is one parallel, is one complementary? Can you just give 
us an idea of the approach you're taking administratively?
    Ms. Jackson. Yes, certainly.
    The Department of the Interior, DOE, and EPA are currently, 
obviously at the order of the President, and under the 
direction of the White House, working together to scope out a 
series of studies.
    You're absolutely correct, Mr. Chairman. Of course, EPA 
already had an ongoing 2-year study. That goes on about $6 
million in EPA's fiscal year 2012 enacted budget is for it. 
There's now an $8 million increase, and we would be looking to 
expand the scope potentially, but only working together with 
the other agencies to other issues, maybe ecosystem impacts or 
air quality.
    Some amount of that additional $8 million, that's in the 
fiscal year 2013 budget, would go to those areas.
    Senator Reed. Let me follow up with another related 
question. That is, you have this Memorandum of Understanding 
with USGS which presumably you would allocate the 
responsibilities.
    It appears from the budget request that part of the $8 
million of additional funds you're going to use is for seismic 
risk from hydraulic fracturing practices. And we understand 
that USGS is also studying, no surprise, seismic risk, et 
cetera.
    Can you comment upon this? Is this duplication, or is it 
complementary?
    Ms. Jackson. I want to go back and check on that, Mr. 
Chairman, because in general, my response on seismic issues is, 
it's not us. That's USGS.
    [The information follows:]

    The fiscal year 2013 President's budget requested for hydraulic 
fracturing (HF) research includes $6.1 million to complete the study 
plan on the potential environmental impacts of HF on drinking water; 
and an additional $4.3 million to address questions raised by 
stakeholders regarding the potential environmental impacts of hydraulic 
fracturing on water quality and ecosystems. Of the $4.3 million 
request, less than $100,000 was intended to screen for HF induced 
seismic risks in association with underground injection control wells.
    Subsequent to the submission of the fiscal year 2013 President's 
budget, the MOA between the EPA, DOE, and USGS on Multi-Agency 
Collaboration on Unconventional Oil and Gas Research was developed. 
During the MOA's development, it was determined that the USGS is best 
suited to manage research in induced seismicity. As defined in the MOA, 
EPA will collaborate as appropriate with USGS regarding seismic issues.

    Ms. Jackson. So I don't believe we're doing a lot although 
we may be providing some expertise on the groundwater aquifer 
regimes down there. But they're pretty much the experts in 
USGS.
    Senator Reed. Well, you know, that was my presumption too. 
So I think if you could clarify that, that would be helpful to 
us.
    And, you've already mentioned some of the additional 
resources, about $3.8 million is going to go to air quality 
studies.
    Can you give us an idea of the concept of how you're going 
to spend that money with respect to the hydraulic fracturing 
and air quality?
    Ms. Jackson. I think we would probably be best served if we 
gave you a briefing update. The scoping meetings that have just 
begun to look at the potential ways to scope these research 
studies, are just really beginning.
    I think they've had a couple of meetings so far. So it's a 
little premature. But, obviously, we have the opportunity over 
time to update you on those as well.
    There have been some. Obviously, we just finalized rules on 
air quality issues around oil and gas development. They were 
not loved by everyone, but that's usually okay in our world. 
They were pretty well received.
    And I think one of the things we were doing is trying to 
look at additional information to ensure we're not missing 
something.

                    ENVIRONMENTAL EDUCATION PROGRAM

    Senator Reed. Well, let me change the subject for my final 
and brief comment, which I think will require a brief response 
from you.
    That is, we've had an environmental education program 
through EPA for many, many years. In fact, my distinguished 
predecessor, John Chafee, I think in 1990, through the National 
Environmental Education Act put it in place.
    And the proposed budget would require severe reductions in 
this education program which raises the question, why that 
program?
    The bottom line is, how do you continue to maintain the 
legal requirements under the 1990 legislation?
    Ms. Jackson. Yes, Sir. Let me limit it to two very quick 
things.
    First, I want to assure you, we remain committed to the 
spirit and goal of environmental education and increasing 
environmental literacy.
    What we found from an efficiency standpoint in EPA is when 
we looked at the program as it was being funded, we believe 
there is better opportunity to do more and do it better in the 
programs by each of the programs, air, water, waste, or some 
amount of it, maybe recycling and waste, or energy and air.
    Letting the programs put forth those educations and then 
coordinating their efforts. So there will be resources going 
towards environmental education. They're going from the 
programs.
    I also want to say that we're working really hard to have 
our national environmental education foundation, which was also 
in that law, become more active and vital in helping to promote 
some of those opportunities.
    Senator Reed. Thank you very much.
    With the concurrence of the Ranking Member, Senator Cochran 
has just arrived. We've already had a first round, Senator. If 
you would like to take your first round now, if you're 
prepared.
    Senator Cochran. Well, Mr. Chairman, I do have a question I 
was going to ask the Administrator.
    Senator Reed. Go ahead, Sir.

                             DESOTO COUNTY

    Senator Cochran. In DeSoto County, Mississippi, which is 
our northernmost county in the State, and adjoins the State of 
Tennessee, right at the Memphis metropolitan area, is one of 
those situations where the metropolitan area of Memphis spills 
over into both Arkansas and Mississippi.
    Anyway, the point is, that I wanted to bring to the 
attention of the Department something that really came to my 
attention because the DeSoto County area has been declared by 
EPA to be in a state of nonattainment.
    One of the new bureaucratic words--``Nonattainment''. What 
it means is, you can't build anything or do anything in terms 
of urban growth without jumping through a lot of new hoops and 
abiding by rules that really are beyond the control of local 
elected officials or the population or zoning authorities.
    And I just wanted to bring to the attention of the 
Administrator that this is really, I think it's discrimination 
of the worst kind in terms of rulemaking by the EPA.
    And I just hope that the highest authorities at EPA and in 
the Department can give their attention to this to see what are 
the options for continued growth in that area.
    Anyway, I don't know whether this has reached your desk or 
not, Madam Administrator, but I wanted to bring it to your 
attention. Are you familiar with this? Or has anybody, Ms. 
Jackson, brought this to your attention personally?
    Ms. Jackson. Yes, Sir.
    And I know that area staff at the very highest levels have 
met with Mississippi Department of Environmental Quality staff. 
There was data that was exchanged.
    The nonattainment designation is not a no growth 
designation, Sir. DeSoto County, that part of the county that's 
being designated nonattainment for small growth zone, is really 
part of the municipal area around Memphis.
    And it has to do with commutation patterns and growth in 
terms of primarily automobiles and others within the Memphis 
urban boundary. It's a matter of working with the Memphis 
Metropolitan Planning Organization of which that portion of 
DeSoto County is a part.
    And so we have explained to them that as cars become 
cleaner and more efficient, we do foresee a time when this 
nonattainment issue will, through other Federal rules, become 
less of a concern.
    But the attainment and the nonattainment designations, are 
based on data. And we have to make calls based on what we have 
which show that the area is contributing.
    That's what the law says, whether it contributes to 
nonattainment in the nonattainment area.
    So I believe where things were left is that they met 
recently with Mississippi, and I'm not sure what happened as a 
result, but I can certainly check on that for you.
    Senator Cochran. Well, I would hope that you could give 
this your personal attention to be sure that the obvious intent 
of the rules and the laws are fairly applied particularly in an 
area that is a very popular area for job creation activity and 
business activity, that is not a very serious polluter in and 
of itself.
    Working in an office, you're not going to pollute a lot. 
But office buildings and the like would be attracted to this 
area if it were not for the EPA nonattainment ruling.
    So I hope that you can help ensure that fairness is the 
result rather than arbitrary rulemaking without a basis in 
fact. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Cochran. Senator 
Murkowski, please.

                       HYDRAULIC FRACTURING STUDY

    Senator Murkowski. Thank you, Mr. Chairman.
    Administrator Jackson, I want to follow up with a 
discussion about the hydraulic fracturing study. I've got a 
copy of the actual statute here from 2010.
    And it states, ``The conferees urge the Agency to carry out 
a study on the relationship between hydraulic fracturing and 
drinking water, using a credible approach that relies on the 
best available science, as well as independent sources of 
information. The conferees expect the study to be conducted 
through a transparent, peer-reviewed process that will ensure 
the validity and accuracy of the data. The Agency shall consult 
with other Federal agencies as well as appropriate State and 
interstate regulatory agencies in carrying out the study, which 
should be prepared in accordance with the Agency's quality 
assurance principles.''
    So I guess I'm a little concerned about the scope of the 
study that we're seeing come out. You've just mentioned in 
response to the Chairman here that you're expanding the scope 
of the study to address not only ecosystem but air quality.
    It's my understanding that now part of the study includes 
collecting data on the environmental justice impacts on 
disadvantaged communities.
    It seems to me that the language in the legislation was 
pretty clear in terms of assessing the relationship between 
hydraulic fracturing and contaminated water. And that there has 
been a very stepped up increase and expansion of scope.
    Can you address that part of it?
    Ms. Jackson. I can, Senator.
    And if I misspoke before, I shouldn't have. This is not an 
expansion of the congressionally directed study.
    We have a congressionally directed study. You read the 
scope of it. That is the scope we've kept to. It's been 
publicly scoped. There's been peer review of the actual scope 
of the study.
    The study is ongoing, and we, of course, have had to work 
with industry in order to get access to some of the sites. 
Because if you want to test around hydraulic fracturing sites, 
many of them are in private ownership.
    There is, on the part of the administration, from the 
President, from the White House, a desire to do additional 
science around hydraulic fracturing, partially as someone said 
earlier, because the public's trust in that technology we 
believe is also based on the belief that we are looking to 
bring the very best science to bear to ensure that it remains 
safe.
    I have said over, and over again, that natural gas, 
hydraulic fracturing, and fracturing for oil is an incredibly 
important part of our energy mix, but we need to assure the 
American public that we are stepping up to the challenge in 
getting the best science so that it remains as safe as it 
possibly can be.
    So it is not an expansion of the scope of the study. It's a 
proposal in the President's budget to add funding to do studies 
in additional areas, and those would be done with the 
Department of the Interior and DOE.
    Senator Murkowski. Okay. So I would agree with you in terms 
of the science there. But it's my understanding that part of 
the study now includes collecting data on the environmental 
justice impacts of disadvantaged communities.
    So it seems to me that you're presuming that there is an 
impact. I guess I look at it and say, it would be more 
appropriate to look at these impacts only if you do discover 
that there is a link between fracking and contaminated water 
first.
    So I don't disagree with you that we want to be using best 
science, not only through the study that EPA is doing, but what 
the other agencies are doing as well.
    But it would appear to me that there is an added expansion 
here in terms of the scope. You've indicated that it will be 
peer reviewed as the statute requires, and that industry has 
provided input in terms of giving access to data.
    Will industry and others be permitted to review the study 
before it's released?
    Ms. Jackson. The study will be put out for public comment, 
but it will also be peer reviewed during the process. We can 
get you a briefing on exactly the steps.
    [The information follows:]

    Later this year, we will update our peer-review plan to describe 
the steps we are taking to assure peer review of the specific research 
products comprising the study. In addition, we are forming a new 
Science Advisory Panel (SAB) panel later this year that will consult 
with the Environmental Protection Agency (EPA) periodically on the 
progress of the study and ultimately review the conclusions and 
findings in the 2014 report.
    The public, including members of the oil and gas production and 
service companies and industry associations, as well as other Federal 
agencies, State and interstate regulatory agencies, nongovernmental 
organizations, tribes, the public, and others will have comment 
opportunities built into the workings of this SAB panel.
    In fiscal year 2013, EPA requested a total of $14.1 million for 
hydraulic fracturing. This includes $6.1 million to complete the study 
plan on the potential environmental impacts of hydraulic fracturing on 
drinking water. In response to stakeholders concerns, an additional $8 
million was requested.
    To address the potential environmental impacts of hydraulic 
fracturing water quality and ecosystems, $4.3 million and $3.7 million 
to address questions about the potential impact of hydraulic fracturing 
on air quality.

    Ms. Jackson. I know that original data that comes out will 
go out for public comment to everyone after it's been reviewed.

                         EMISSION CONTROL AREA

    Senator Murkowski. Let me ask you a question about the 
standards that relate to the low sulphur fuel standards rules. 
These are on freight carriers and cruise ships bound for 
Alaska.
    The new standards start this August. It ramps up over a 3-
year period to reduce the sulphur emissions.
    We, as you know, are a State that relies on almost all of 
our freight, everything that comes into the State pretty much 
comes to us by barge, by freight, over the water.
    And there's a great concern that this standard could cause 
what is anticipated to be a 20-percent rise in freight costs. 
If you look at the cost of goods in Alaska already, they're 
astonishingly high. So 20 percent is really a great deal of 
concern.
    We recognize that this is going to increase the cost of 
living in Alaska at a time that we can't handle it. We're also 
concerned because it could have a very serious impact on the 
State's tourism industry.
    Our cruise ships carry 80 percent of the State's summer 
tourists to Alaska and the concern is that this will, these 
standards will increase the cost to those who are coming north.
    There is further concern that we simply won't, or the 
industry won't, be able to meet the deadline because the 
maritime industry won't be able to obtain the 1-percent sulphur 
fuel without blending different types of fuel that increase 
operational and safety issues.
    So there's a real concern about their ability to meet the 
standards in the first place. The marine industry's been 
working with EPA on this issue trying to determine if there's 
an alternative compliance mechanism that could ultimately 
result in lower overall air emissions than even what the EPA 
rule would actually produce.
    There have been efforts. I understand that they have not 
yielded a positive result at this point in time. So the 
question to you is whether or not the EPA will give serious 
consideration to accepting the pending alternative compliance 
proposal and do so soon.
    The cruise industry basically has to set their schedule 
well more than a year out, and the obvious concern is that if 
there isn't discussion and action on this in the very, very 
short term, we're all going to see and suffer the consequences.
    Ms. Jackson. Well, certainly, Senator, EPA will continue to 
give serious consideration to any issues of compliance or fuel 
availability.
    We've been told by fuel suppliers that they expect to make 
fuel available for the August 1 date for 10,000 parts per 
million fuel. Obviously, we'll continue to work with them and 
keep an eye on that.
    This standard was adopted by the International Maritime 
Organization (IMO). And we've made clear that we support the 
use of innovative equivalent methods, but only as long as they 
achieve the same results as the standard that they're intended 
to replace.
    I know that IMO is currently working on guidance to ensure 
that equivalent methods that any country tries to approve are 
based on a common set of criteria.
    And EPA will continue to work with the Coast Guard, we'll 
work with IMO, we'll reach out to the suppliers, and, of 
course, to the folks who use the fuel in meeting the 10,000 
part per million standard in August.
    Senator Murkowski. Well, this is something that we need to 
have further discussion on.

                            AMBIENT TESTING

    There has been no ambient testing done in either Alaska or 
Hawaii. We've been attempting to make that distinction. So far, 
it has not been considered which I think is unfortunate.
    You indicate that the fuel suppliers can make the fuel 
available. Yes, fuel can be made available, but at what cost?
    And, truly, and in an effort to deal with these 
extraordinarily--You cannot put a 20-percent increase on the 
cost of freight that comes into the State of Alaska and expect 
people to be able to continue to buy groceries or lumber or 
whatever it is that they need.
    We've got to have some ability to work with you on this. 
This would be one of those issues that I would hope that your 
senior folks sitting down with our folks can have a further 
discussion on.
    Ms. Jackson. To be clear, Senator. I'm not, I'm certainly 
not saying, well, we don't want to discuss this further with 
you. And I don't know that we necessarily agree with the 
outcome of the study that you cite.
    But I do think we would agree that it has to be affordable 
and it has to be practical.
    Senator Murkowski. Thank you.
    Senator Reed. Thank you, Senator Murkowski.
    Senator Blunt.

                          HYDRAULIC FRACTURING

    Senator Blunt. Thank you, Chairman.
    Let me ask a couple of other questions on this hydraulic 
fracturing issue. You may have answered this already, and I was 
trying to listen and I just may have missed the answer.
    Report language in the fiscal year 2010 appropriations bill 
asked for a study whether there was a link between the 
hydraulic fracturing and drinking water. You're asking for $14 
million more to expand that study, is that right?
    Ms. Jackson. There is an additional $8 million, I believe, 
pulling out my card here. It's a total of $14 million.
    But some of the money is to do the study that was 
authorized in fiscal year 2010. And there's an additional 
request for $8 million to do additional work outside the scope 
of that study.
    Senator Blunt. And when will you expect to get that study 
done, since the fiscal year 2010 study isn't done yet?
    Ms. Jackson. Well, we have just begun meetings with the 
other Federal agencies that will be involved with the studies.
    And so I can't give you details, but we're happy to 
continue as I mentioned earlier.
    Senator Blunt. And does that study stop us from moving 
forward with hydraulic fracturing?
    Ms. Jackson. Well, this is science. This is science. This 
is intended to ask and answer questions related to hydraulic 
fracturing. So it's research, Sir.
    Senator Blunt. So it doesn't set any obstacle in the way of 
hydraulic fracturing anywhere it's going on, or did we have to 
have the drinking water study before certain things could be 
done?
    Ms. Jackson. No, Sir. Hydraulic fracturing, as you heard, 
is continuing apace.
    And what I've said about the drinking water study is that 
if we learn things that teach us better ways to protect 
drinking water, certainly we're going to share that with all 
the people who are out there as our partners trying to protect 
drinking water.
    But we don't have any results yet. The first results will 
be toward the end of this year.
    Senator Blunt. So you are moving forward with the drinking 
water part of the study?
    Ms. Jackson. Yes, Sir. That's the one that we have funding 
for. It was directed by the Congress.
    This is a budget request for additional studies coordinated 
across EPA and other agencies.
    Senator Blunt. And if this budget request isn't met, you 
would still do the drinking water study?
    Ms. Jackson. Provided that portion of the $14 million, and 
I think it's $6 million in fiscal year 2012, that we already 
have then.
    So, yes, the answer to your question.
    Senator Blunt. How much was provided in fiscal year 2010?
    Ms. Jackson. Let us grab the number for you while we sit 
here, but we believe it was $2 or $4 million.
    [The information follows:]

    $1.9 million and three full-time equivalents were provided in 
fiscal year 2010.

    Ms. Jackson. The study on drinking water in fiscal year 
2011 was enacted with $4.3 million and $6.1 million in fiscal 
year 2012.
    And then there's $4.1 million in the present budget for 
fiscal year 2013. But the study is----
    Senator Blunt. So the drinking water study would cost 
around $14 million?
    Ms. Jackson. Four plus six, 12, yes, Sir.
    Senator Blunt. And you've asked for another $8 million to 
start this new series of studies.
    Ms. Jackson. Yes, but other agencies are asking for 
additional funding as well.
    So as the Chairman mentioned, I believe it's $45 million in 
total additional research around hydraulic fracturing.
    Senator Blunt. And what you would hope to find out is that 
even if drinking water wasn't affected, that wastewater 
treatment plants were, or other water sources were?
    Ms. Jackson. The general areas have been air quality, water 
quality, and ecosystems. We have had other issues that States 
have dealt with, or are dealing with. Wastewater, certainly, 
surface water can raise some concerns.
    But the idea is to ask the questions so that the American 
people know that their Government is doing the research to 
ensure we stay in front of any issues before they develop.
    Senator Blunt. And we would expect to see the drinking 
water study, when?
    Ms. Jackson. The initial results would be at the end of 
this calendar year, Sir. But the study goes on an additional 
year after that.
    Senator Blunt. Thank you. Thank you, Chairman.
    Senator Reed. Thank you, Senator.
    Senator Hoeven, please.
    Senator Hoeven. Thank you, Mr. Chairman.
    I would like to follow up on Senator Blunt's question as 
well as Senator Murkowski.
    You're more than doubling your budget for hydraulic 
fracturing.
    How can you make the argument that you're not greatly 
expanding the scope of the study?
    Ms. Jackson. Well, I hope it's not a matter of semantics. I 
just want to be clear.
    The study that we were directed by the Congress to do, we 
are doing. And we're seeking the funding we need, and we 
already have the authority to continue and complete it. That 
will happen.
    But to be, you know, but the President has also said we 
need to do additional science to assure the American people 
that we're looking at hydraulic fracturing. So there is 
additional money proposed in the fiscal year 2013 budget to do 
additional studies.
    Senator Hoeven. So is that broken out between what is 
required to do the study, as defined in scope by the Congress, 
and the additional work that you just referenced?
    Ms. Jackson. Yes, Sir.
    The total funding for research in the fiscal year 2013 
request is $14.1 million. And I believe, I saw a number 
somewhere else, that about $4 million of that is for the study 
that is ongoing.
    Senator Hoeven. This also relates to the earlier question I 
was asking you about guidance.
    When you provide guidance then, because whether it's 
pursuant to this study or proposed rules that you've already 
put out. Like we're talking about, for example, diesel fuel.
    Where we have a State primacy program, which we have with 
hydraulic fracturing, when you issue guidance, is the State 
required to follow that guidance or risk having you take over 
their program?
    Ms. Jackson. First, EPA is not looking to take over the 
State programs.
    But if the State is acting as the primacy agent for the 
underground injection control program, the guidance is intended 
to tell them how to meet the requirements of law under that 
program.
    Many States have their own laws that either supersede, that 
add to, or supersede, or go further than Federal standards.
    But for a State who says, listen, my permit that I issue is 
also intended to be an underground injection control permit, so 
EPA doesn't have to issue a separate one, this is the guidance 
the study is intended to say here is how EPA views the 
injection of diesel, because diesel is not exempt.
    The injection of every other chemical is exempt by law, so 
EPA does not permit that injection. Many States do, but EPA 
does not.
    Senator Hoeven. But it's important to distinguish between a 
rule and between guidance and understand that under a State 
primacy program, the State has the authority to make its own 
determination.
    They can take into account your guidance, but that doesn't 
give EPA the authority to step in front of the State on a State 
primary program.
    You would agree with that?
    Ms. Jackson. Yes, guidance is intended to give a State, 
guidelines to know how EPA believes to meet the requirements of 
the regulation. So the regulation tends to be broader. It talks 
about the injection of any number of things.
    But with respect to diesel and hydraulic fracturing, there 
was an omission. There was nothing that told a State, or in 
some States, EPA does indeed write those permits. What a 
Federal or State permit writer would need to do to assure that 
their meeting the requirements of the Safe Drinking Water Act.
    Senator Hoeven. And as you do this study, and again, we've 
got to look at the scope of the study as was defined by the 
Congress and your funding, it's very important that you are 
specific in the guidance so that States understand it and 
industry understands it, and can use that as a guidepost.
    And you agree with me, it is a guidepost. It is not the 
same as a proposed rule.
    Ms. Jackson. It does not have the same stature as a 
rulemaking, but it is not uncommon for EPA to issue permit 
writers guidance on how to meet the requirements of a law.
    So the EPA does issue guidance often, and it's for Federal 
and State permit writers, but it is not the stature of a 
rulemaking, Sir.
    Senator Hoeven. And if you'll work with us both in terms of 
collaborating with States, with the tribes and with industry, I 
think we can help make that guidance more effective in a way 
that creates some rules of the road that the industry 
understands, again, produce more energy, and have good 
environmental stewardship.
    So we ask for your consultation.
    Ms. Jackson. Absolutely. More than just public comment, our 
State partners and tribal partners, have a special role in 
implementing and understanding these issues. And we want the 
same thing, Senator.
    We want certainty, and we want clarity. And that's not what 
we had before. We had people threatening to sue because diesel 
was being injected, and permits were not issued.
    And so that's what this guidance is intended to address.
    Senator Hoeven. On some of our reservations, particularly, 
Three Affiliated Tribes Reservation in North Dakota doing a 
tremendous amount of drilling. The tribes are doing a fantastic 
job working with industry to do that.
    Their concern is in regard to the Synthetic Miner Source 
Rule. Right now we operate under a consent agreement that 
expires, or the tribe does, excuse me, they're operating under 
a consent agreement, that expires at the end of July.
    And it is very important that we get a workable rule in 
place. Both the tribes and the industry want to be, consult 
with you, in establishing that workable rule. But they need a 
rule by the end of July here.
    Otherwise, unless the consent decree is extended, they 
can't keep drilling wells. So I would strongly encourage you 
assisting Region 8, manager Jim Martin, in making sure that we 
get a solution there.
    Now, I believe there is some dialogue going on. Tex Hall, 
the Three Affiliated Tribes chairman, wants consultation here, 
but we need a workable rule. We need something in place by the 
end of July for both the tribe and the industry.
    And I ask for your help to the Regional Administrator to do 
that, and again, with good consultation.
    Ms. Jackson. Yes, Sir.
    Senator Hoeven. The other item, well, I see my time has 
expired. I have one remaining item.
    Senator Reed. Please, go ahead.
    Senator Hoeven. Thank you, Mr. Chairman.

                        CO<INF>2</INF> EMISSIONS

    You have a new source performance standard for 
CO<INF>2</INF> emissions on coal-fired plants. This is a 
proposed rule that you issued on April 13, 2012. It sets a 
CO<INF>2</INF> emissions limit of 1,000 pounds per megawatt 
hour.
    That is essentially a natural gas fired electric plant 
standard, which no coal plant in the entire country can meet, 
cannot meet it.
    Does this new performance standard that you're proposing 
apply to new plants, only new plants, or does it also apply to 
existing plants?
    And, how do you expect, and I see at the same time, you 
know, you increase your enforcement budget by 20 percent, from 
$27 million to $34 million. And then, you issue this rule which 
no coal plant in the entire country can comply with. How do you 
expect that to work?
    Ms. Jackson. Well, first we can't enforce a rule that isn't 
final. It is only a rule for new plants. It does not apply to 
existing coal plants.
    And, you know, the standard as proposed, creates a path 
forward for technology, for those plants that want to use 
technology, burn coal, and capture their carbon pollution. It 
allows a period during which a plant, if it chooses to, can 
operate and then enact a 10-year period where it doesn't have 
to have the carbon captured and sequestered.
    After 10 years, it has to commit to 50-percent capture of 
its carbon emissions. So, in fact, I personally believe the 
rule does the opposite. It allows a path forward for investment 
in coal-fired power plants that doesn't exist at the current 
time.
    And it's a proposal, Sir. It is not final.
    Senator Hoeven. So your proposal applies to any new plant 
construction, not to existing plants.
    What about any improvement or major renovations to an 
existing plant?
    Ms. Jackson. It does not apply to existing plants, Sir. 
Only new plants, only new.
    Senator Hoeven. All right, thank you.
    Then, we are going to need to work through with you both 
the technological and the economic viability on that rule 
because we need to take a hard look at that.
    If we want to continue to develop clean coal technology, 
we've got to have a realistic rule.
    Ms. Jackson. Thank you, Sir.
    Senator Hoeven. Thank you.
    Senator Reed. Senator Cochran.
    Senator Cochran. I have no further questions.
    Senator Reed. I have some additional questions which will 
be handled in writing.
    Senator Reed. Senator Murkowski, do you have additional 
questions?
    Senator Murkowski. I have just a couple here, if I may.
    Senator Reed. Go right ahead.
    Senator Murkowski. And I hope that they will be quick.

                            PM<INF>2.5</INF>

    And both of these involve communities in the, well, energy 
impact within the interior.
    Fairbanks, Alaska, our second-largest city, pretty cold up 
there, dealing with the increased standards, or the tightened 
standards on small particulate matter (PM), the 
PM<INF>2.5</INF>.
    And, as you know, this has been an issue that they've gone 
back and forth with, trying to meet these standards. They're 
providing incentives for citizens to change out their older 
furnaces and their wood stoves and their boilers for new more 
efficient stoves and furnaces.
    The biggest problem that Fairbanks has is they have no 
other options. They can't turn to natural gas because it's not 
available to them. So their options are extraordinarily 
limited.
    EPA has provided grant aid to other larger communities to 
help them meet the PM<INF>2.5</INF> issues. Fairbanks has 
received just some very, very minimal grants from the agencies. 
I know they are looking for assistance. Not much in the total 
scheme of things.
    They were seeking initially $3 million to help with this 
wood stove exchange to cut their emissions, $1 million of it is 
still, unfunded.
    So what I get when I go to Fairbanks every time, and I was 
there this weekend, is, what, if anything, can be done to help? 
And we recognize that the budgetary issues are extraordinarily 
debilitating and we appreciate that.
    But given the very unique climate conditions that the 
interior faces, will the Agency look at a possible extension to 
give the community more time, additional time, to meet the new 
standards before the penalty phase kicks in in 2014?
    They are working. They are being aggressive on it. It's not 
as if they're putting their head in the sand. But they are 
really in a difficult, difficult spot because they have no 
other options.
    Again, I'd like you to either give me your sense on this, 
or consider what options Fairbanks might be able to consider.
    Ms. Jackson. How about I promise to look at the options for 
you, both in funding and in compliance. Because that's for the 
existing PM<INF>2.5</INF> standard, right, Senator?
    Senator Murkowski. It is the tightened standards that come 
into play in 2014. So they are the new PM<INF>2.5</INF> 
standards.
    Ms. Jackson. Yes. Well, I'm not sure exactly what you are 
referring to. Why don't I look at both.
    Senator Murkowski. All right.

                         HEALY CLEAN COAL PLANT

    And then, the other one that I would like to bring to your 
attention is the Healy Clean Coal Plant that we have been 
trying to get online since 1991 as an option for the residents 
in the interior to help them meet their energy needs.
    Golden Valley is working with the EPA right now on the 
appropriate terms for renewal of their air permit for the 
plant. They have been aggressive in trying to resolve, go 
through all the hoops, doing what EPA has asked.
    I met with some of the folks just this past weekend. I 
guess, I need your assurance that this is something that EPA is 
going to continue to work with the Golden Valley Electric 
Association to find a fair and hopefully final conclusion on 
this.
    Ms. Jackson. I'm happy to assure that knowing none of the 
facts, but that doesn't seem unreasonable to ask, so we'll 
continue to----
    Senator Murkowski. Okay. We'll put that one on our to-do 
list when we meet.
    Ms. Jackson. We have a lot to do.
    Senator Murkowski. And then, my final question, Mr. 
Chairman, and I will conclude.

                             AVIATION FUEL

    And this relates to the new regulations for aviation fuel. 
As you know, we have more people that fly in Alaska than 
anywhere else in the country, and it's like the family minivan. 
You use it to haul the family around.
    The concern that we have is the advance notice of 
rulemaking that could sharply reduce the lead content in the 
aviation fuels. It's impossible for the engines in older 
aircraft to run without lead being in their fuels.
    It's estimated that up to one-third of all the general 
aviation in the State will have to be pulled from service if in 
fact EPA proceeds with these rules.
    Because, as I understand, it's just not technically 
possible to repower, retrofit the planes. Last December, I was 
informed by Gina McCarthy, that the EPA would likely consider 
changes in the rules over the next one to 2 years.
    So the question to you this afternoon is where you are in 
this study on the air quality impacts of lead in aviation fuel, 
and where does the EPA stand on modifying the proposed rule to 
lessen what we know to be a considerable impact on aviation in 
Alaska?
    Ms. Jackson. Thank you, Senator.
    Yes, to my knowledge, we are still on course. We're looking 
at the study. This issue I saw personally when I visited 
Alaska, the one time I was able to get up to Alaska. Clearly, 
that's how everyone gets around. Clearly, it was a concern 
everywhere I went.
    And so I came back with an understanding that we need to do 
something. I don't have a date for you today, but when we meet, 
we'll put it on the list and give your staff an update.
    Senator Murkowski. I appreciate that. And I hope that your 
voice feels better than normal levels.
    Ms. Jackson. Thank you.
    Senator Murkowski. But I thank you for your testimony and 
your time this morning. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. Thank you, Senator Murkowski. Thank you, 
Administrator, for your testimony. Thank you, Ms. Bennett for 
all your work with the Administrator.
    I will ask my colleagues to submit any further written 
statements or questions by next Wednesday, the 23d of May.
    And then ask the Administrator to respond as quickly as 
possible with any written questions so we can close the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

                Questions Submitted by Senator Jack Reed

             STATE AND LOCAL AIR QUALITY MANAGEMENT GRANTS

    Question. What are the Environmental Protection Agency's (EPA) 
plans regarding the two proposed funding changes to the State and Local 
Air Quality Grants, which are:
  --changing the formula for allocating the section 105 funds to 
        States; and
  --transitioning funding for particulate monitoring from section 103 
        authority to section 105 authority?
         changing the formula for allocating section 105 funds
    Answer. EPA has been working with State and local air pollution 
control agencies and State associations since 2006 to revise the 
formula to ensure that grant resources are targeted to address current 
air quality circumstances, priorities, needs, and concerns while also 
protecting gains already achieved. The last comprehensive analysis and 
re-allocation of grants occurred from 1991-1993 to implement the 1990 
Clean Air Act Amendments. The increase in State and Tribal Assistance 
Grant funds requested for fiscal year 2013 would ease implementation of 
an updated allocation approach that would provide increases for each 
region of the country. Increased funding notwithstanding, EPA must 
still assure that funds are targeted to the most pressing air-quality 
problems and that the integrity of State/local air program operations 
is maintained. If funding remains static, shifts will be limited so 
that no region will experience a decline any greater than 5 percent of 
its prior year funding level. This approach will be phased in over a 
multiyear period to minimize any disruptions to State and local program 
operations and can be re-evaluated based upon updated data, changes in 
air quality, or changes in available funding.

   TRANSITIONING PARTICULATE MONITORING FUNDING FROM SECTION 103 TO 
                         SECTION 105 AUTHORITY

    EPA intends to transition 10 percent of the particulate monitoring 
funding in year 1 (fiscal year 2013); 20 percent in year 2; 40 percent 
in year 3; and 60 percent in year 4; and will continue to work closely 
with State/local/tribal agencies on implementing an adequate 
particulate matter (PM)<INF>2.5</INF> monitoring network.

                 BEACHES PROTECTION CATEGORICAL GRANTS

    Question. I am concerned that EPA proposed eliminating the Beach 
Grant Program in your fiscal year 2013 budget request. Since 2000, 
Rhode Island has received $2.4 million through the program to monitor 
water quality at beaches and notified the public when recreational 
waters are not safe for swimming. My home State has reported 45 beach 
closures over the past 2 years, so we know firsthand how important 
funding for monitoring is. I am worried that without continued Federal 
funding, States and local governments will not have the capacity to 
continue beach monitoring. Administrator Jackson, can you explain why 
EPA singled out these grants for elimination?
    Answer. To help meet the fiscal challenges of fiscal year 2013, EPA 
has reviewed its programs for areas where any potential efficiencies 
and streamlining can yield savings. EPA is proposing to eliminate 
certain mature program activities that are well-established, well-
understood, and where there is the possibility of maintaining some of 
the human health benefits through implementation at the State and local 
levels.
    EPA's beach program has provided important guidance and significant 
funding to support successfully State and local governments in 
establishing their own programs. Beach monitoring continues to be 
important to protect human health. However, States (including 
territories and tribes) and local governments now have the technical 
expertise and procedures to continue beach monitoring without Federal 
support as a result of the technical guidance and more than $110 
million in financial support EPA has provided over the last decade 
through the beach program. As a result, EPA is proposing that this 
grant program be terminated at the end of fiscal year 2012.

                     DIESEL EMISSIONS REDUCTION ACT

    Question. I would like to talk a little bit about your proposal to 
phase out the Diesel Emission Reduction Act (DERA) program. As you may 
know, I cosponsored the DERA reauthorization in 2010. It is a 
successful program and one that has enjoyed bipartisan support.
    Last year EPA proposed eliminating the program, but this 
subcommittee restored the $30 million funding. You have cut the program 
by one-half in your fiscal year 2013 budget request, for a total of $15 
million, and identify the program for future elimination. Yet EPA has 
estimated that in 2030 there will still be 1.5 million existing diesel 
engines polluting the air. Can you explain why the administration 
thinks this program should be cut back significantly this year and 
eventually phased out given this need?
    Answer. The DERA grant program results in tangible emissions 
reductions, but it is important to strategically target the available 
resources to communities with the greatest need. The funding strategy 
EPA proposes for fiscal year 2013 would do just that--it would provide 
rebates on the purchase of pollution control technology and grants for 
revolving loan programs, and target these funds to communities with the 
greatest need, such as those areas with the highest levels of exposure 
near ports and transportation hubs.
    Second, the DERA program can point to success in retrofitting and 
replacing the oldest, most polluting diesel engines, complementing the 
stringent emissions standards on new diesel engines that EPA 
promulgated in 2007. For example, with the $469 million appropriated by 
the Congress in 2008-2010, EPA has funded projects that reduced 
approximately 203,900 tons of nitrogen oxides (NO<INF>X</INF>) and 
12,500 tons of PM. States and localities have also established programs 
to address diesel emissions from older engines not subject to current 
regulations, such as the Texas Emissions Reduction Program and the Carl 
Moyer Program in California.
    Question. In the Office of Management and Budget's budget materials 
it says that you will use fiscal year 2013 DERA funding to create 
revolving loan programs that will subsidize retrofits and replacements 
of older engines ``without the need for additional infusions of Federal 
grant dollars.'' I'm not sure how to square this statement with the 
enormous demand for the grants. There is such a pressing demand that 
EPA received seven times more applications for DERA grants than it can 
fund. How does EPA expect to establish a robust revolving loan program 
that will not need additional Federal funding with only $15 million?
    Answer. The DERA program has shown that retrofits and engine 
replacements are effective in reducing emissions and provided valuable 
lessons in how to administer clean diesel programs. Going forward, the 
fiscal year 2013 budget request recognizes the limited availability of 
Federal funding and would transition the program to greater reliance on 
State and local efforts to address diesel emissions from legacy fleets. 
In fiscal year 2013, EPA will pilot a new approach
    That will target specific fleets in high diesel exposure areas such 
as near ports and freight distribution hubs and other 
disproportionately affected communities. The Federal monies spent under 
the $15 million request would be split into two categories. The first 
category would allocate funds to a new rebate program established under 
DERA's reauthorization. The second component would allocate funds 
toward low-cost revolving loans or other financing programs that help 
fleets reduce diesel emissions. We believe the rebate and loan programs 
may allow greater precision in scrapping certain model years of 
vehicles and equipment and assisting public and private fleet owners 
with retrofitting or replacing those engines. This pilot would also 
test financial mechanisms to continue accelerating diesel retrofits 
without ongoing Federal funding. By using grant funds to establish 
revolving loan programs administered by non-Federal parties, EPA would 
be able to have that funding revolve back into the programs (as the 
loans are repaid) to make more loans available on an ongoing basis. For 
the revolving loan mechanism to be successful, it would need to be 
coupled with State or local requirements to phase out the dirtiest 
engines, thereby creating the incentive for fleet managers to seek a 
lower-cost loan to make the necessary upgrades.
    Question. DERA requires that 30 percent of funding be made 
available to support grant and loan programs administered by States. 
What is going to happen to the State formula grants in your proposed 
budget?
    Answer. Under the proposed budget, the State program would not be 
funded in fiscal year 2013.
    Question. You are also starting a new DERA rebate program. Setting 
up a rebate program is an area where EPA doesn't have a lot of 
experience. What is your timeline for setting up this program? Why is a 
rebate program better or more efficient than a grant program? How do 
you plan to operate both a rebate program and a revolving loan fund 
given the cuts in your budget request?
    Answer. The Diesel Emissions Reduction Act of 2010, which modified 
and reauthorized EPA's Diesel Emission Reduction Program through fiscal 
year 2016, added rebates to the grants and loans already authorized 
under the initial authorization of DERA. EPA will utilize rebates and 
grants to establish revolving loan programs under the reauthorized DERA 
language, and match those mechanisms to the needs of fleets and 
communities in their quest to reduce emissions from the legacy diesel 
engines. This will expand the number of options for targeting certain 
types of engines, model years and fleets for retrofit or replacement. 
Use of the rebate option would make DERA funding available directly to 
private fleet owners for retrofit or replacement of older, high-
pollution engines. Similar to how a rebate works in a retail situation, 
EPA would use rebates as an efficient incentive mechanism to turn over 
parts of the existing fleet sooner than through natural attrition. The 
program could specify the most cost-effective and beneficial type of 
engines and technology solutions, in locations of greatest need. EPA 
continues to believe that grants should be used to establish revolving 
loan programs; at the same time rebates offer a specificity and 
simplicity which would be welcomed by stakeholders and policy leaders 
alike.
    EPA plans to initiate the rebate program in the fall of 2013.

                   GREAT LAKES RESTORATION INITIATIVE

    Question. Administrator Jackson, as you know the Great Lakes 
Restoration Initiative (GLRI) has been a huge investment that affects 
the States of a number of members of this subcommittee. I am very 
interested in hearing about the results that have been achieved. Since 
2010, GLRI has received more than $1 billion of funding and you propose 
another $300 million in your fiscal year 2013 budget request. Can you 
tell us what results you have achieved thus far?
    Answer. The investments made under the GLRI are showing promising 
results in addressing the most critical environmental challenges facing 
the Great Lakes. Some of the notable achievements from GLRI include:
  --The Presque Isle, Pennsylvania Area of Concern (AOC) will be 
        delisted this year, now that all necessary management actions 
        are complete. Eighteen Beneficial Use Impairments (BUIs) at 10 
        different AOCs have been removed since GLRI's inception.
  --One million cubic yards of contaminated sediments have been 
        remediated in the basin.
  --GLRI has been central to keeping self-sustaining Asian carp 
        populations out of the Great Lakes. No new invasive species 
        populations have been detected in the Great Lakes.
  --GLRI-funded projects contributed to the delisting of the Lake Erie 
        watersnake under the Endangered Species Act.
  --GLRI-funded projects have contributed to a 5-year low in swimming 
        bans and advisories at Chicago's beaches.
    Additional achievements include:
  --More than 13,000 acres are being managed in order to keep 
        populations of invasive species controlled to a target level.
  --GLRI funding has helped increase the number of acres within the 
        Great Lakes basin subject to the Department of Agriculture 
        conservation practices to approximately 270,000, an increase of 
        more than 50 percent. GLRI funding is now being targeted at 
        three priority subwatersheds to reduce phosphorus contributions 
        from agricultural and urban lands that contribute to harmful 
        algal blooms and other water quality impairments.
  --Hundreds of river-miles have been cleared for fish passage by 
        removing or bypassing barriers. More than 20,000 acres of 
        wetland, coastal, upland, and island habitat have been 
        protected, restored, or enhanced.
  --Rapid response capabilities have been improved:
    --six rapid response actions were performed in the fight against 
            Asian carp; and
    --four States have now updated their Aquatic Nuisance Species 
            Management Plans to include rapid response capabilities.
    Question. GLRI funds--$353 million--have been directed toward toxic 
substances and AOCs to remedy huge underwater sites where contamination 
is especially dangerous. Specifically, what progress has been made 
toward delisting AOCs?
    Answer. Because EPA and its partners have prioritized and 
accelerated AOC work, we expect to meet or exceed our goals to remove a 
cumulative total of 41 BUIs by the end of fiscal year 2013 and to 
complete management actions at a cumulative total of four AOCs. A few 
examples of delisting progress are as follows:
  --As noted above, the Presque Isle, Pennsylvania AOC will be delisted 
        by the end of this year. This will be the first U.S. delisting 
        of an AOC since Oswego River was delisted in 2006.
  --All the management actions necessary for delisting at four 
        additional AOCs (Ashtabula, Ohio; River Raisin, Michigan; White 
        Lake, Michigan; and Sheboygan, Wisconsin) are expected to be 
        completed this year and all the management actions necessary 
        for delisting at an additional AOC (Deer Lake, Michigan) are 
        expected to be completed in 2013.
  --EPA and its partners have started 88 projects to address BUIs at 
        AOCs and we remain on track to start an additional 22 projects 
        to address BUIs at AOCs in fiscal year 2012.
  --Work done at AOCs includes completion of Great Lakes Legacy Act 
        projects at sites in five AOCs. This work has removed 
        contaminated sediments and is reviving waterfronts in the 
        Kinnikinnick River, Wisconsin; Grand Calumet River, Indiana; 
        Ashtabula River, Ohio; Detroit River, Michigan; and Muskegon 
        Lake, Michigan.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                              PERCHLORATE

    Question. In February 2011, the Environmental Protection Agency 
(EPA) announced its intention to regulate perchlorate under the Safe 
Drinking Water Act. Given the nearly 300 public drinking water wells 
impacted by perchlorate contamination in California, this was certainly 
welcome news. Can you tell me what is the status of EPA's effort to 
develop perchlorate regulations and when do expect they will be 
finalized?
    Answer. EPA is moving forward with the process to develop a 
national primary drinking water regulation for perchlorate. EPA is 
evaluating the science on perchlorate health effects and exposure to 
develop a proposed Maximum Contaminant Level Goal (MCLG). The MCLG is a 
nonenforceable level in drinking water at which no known or anticipated 
adverse effects on the health of persons occur and which allows an 
adequate margin of safety. EPA also is evaluating treatment 
technologies, analytical methods, and costs and benefits of potential 
Maximum Contaminant Levels (MCLs). The MCL is the enforceable standard 
that is set as close as feasible to the MCLG, taking cost into 
consideration. EPA has a statutory deadline of February 2013 to issue 
the proposed perchlorate rule. EPA is working to develop the proposed 
regulation for public review and comment expeditiously and expects to 
promulgate a final regulation within 18 months of the proposal.
    Question. Will the new perchlorate standard consider pregnant women 
and children as well as potential perchlorate exposure from food 
products?
    Answer. Yes. As EPA works to develop the MCLG, the Agency is 
closely reviewing data on the effects of perchlorate on pregnant women 
and children because these lifestages may be at greater risk of adverse 
effects due to exposure to perchlorate in drinking water. EPA is also 
considering perchlorate exposure from food products in developing the 
MCLG. EPA is currently seeking input from the Science Advisory Board on 
key issues related to the scientific basis for the MCLG. One of the 
questions EPA has asked the SAB for input on is how life stage 
differences should be considered in developing the MCLG.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                         MERCURY IN AMBIENT AIR

    Question. Administrator Jackson, throughout your fiscal year 2013 
budget justification, I repeatedly see references to the importance of 
having a strong air monitoring network for our Nation's air quality. I 
steadfastly believe in having air monitoring tools to measure and track 
pollutants, to identify pollutant sources, and to inform us how and 
where Americans could be exposed to air pollutants. These are critical 
resources that serve the Nation and should be fully supported by the 
Environmental Protection Agency's (EPA) work.
    I understand that EPA is partnering with utilities to collect 
mercury emission data directly from utilities and that you believe that 
this partnership will allow you to assess the effectiveness of existing 
technologies in meeting current mercury reduction requirements. I am 
curious, though, as to how this partnering will serve those citizens 
who live at a considerable distance from utilities with mercury 
emissions but are nevertheless subject to the regional transport of 
out-of-State sources of mercury. In my home State of Vermont, we have 
collected a continuous sampling of particulate and gaseous mercury air 
levels at the Underhill Air Quality site (VT99), where research 
measurements have been made since 2004. This long-term record is 
necessary for detecting trends, and since 1993 we have established an 
unbroken record of mercury measurements in precipitation. Through this 
monitoring, we have learned many important lessons and have also found 
that the current Community Multi-scale Air Quality model estimates for 
mercury deposition have proven too low for northern Vermont and New 
England. This is the longest continuous mercury deposition record in 
the United States.
    I find it extremely troubling and perplexing that the EPA has made 
cuts in funding to the Atmospheric Mercury Network (AMNet) and VT99, 
which coincides with your December 2011 announcement of new mercury and 
air toxics standards for coal and oil-fired power plants. Can you 
please explain to me your rational for ending this research and long-
term air monitoring program at the exact moment when the need for 
continued monitoring for human health risk and tracking of emission 
levels is most essential?
    Do you agree that measurements of mercury in ambient air are 
necessary to verify the anticipated deposition reductions as a result 
of your newly mandated emissions reductions? If so, we must continue 
the work at VT99 so we can measure progress toward restoration of 
environmental quality.
    Answer. Mercury is a complex and multi-faceted issue that 
necessitates monitoring in all media, including air, water, sediments, 
fish, and wildlife. EPA recognizes the need for comprehensive, long-
term mercury monitoring. EPA has collaborated with Federal, State, and 
tribal agencies, and academic partners to provide a comprehensive 
understanding of mercury in the environment using existing data, 
monitoring capabilities, and resources. In particular, advances have 
been made in developing a national atmospheric mercury monitoring 
program by building, where possible, upon the existing long-term 
monitoring infrastructure which has successfully tracked the 
effectiveness of programs to control emissions of sulfur dioxide 
(SO<INF>2</INF>) and nitrogen oxides (NO<INF>X</INF>). Since 2007, EPA 
has worked through the National Atmospheric Deposition Program (NADP) 
to develop AMNet--a North American network that monitors atmospheric 
concentrations of mercury at 20 sites throughout the United States and 
Canada. NADP/AMNet is sponsored by a multi-organizational cooperative 
of Federal, State, and tribal agencies, universities, and private 
companies.
    Many of the AMNet mercury sites were established by different 
organizations to support an array of diverse research and monitoring 
objectives. The Underhill VT99 site is an example of an existing 
atmospheric mercury monitoring site that joined AMNet. Historically, 
these sites operated in an uncoordinated manner, using disparate 
protocols for measurement, data management, and quality assurance. In 
other words, they did not comprise a coordinated network of atmospheric 
mercury monitoring sites providing comparable data to assess 
implementation of a national mercury control program. With the 
development of AMNet, NADP and its partners, including EPA, took an 
opportunity to coordinate existing monitoring sites and collaborate 
with the scientists operating those sites to create a cohesive network 
of standardized measurements complemented by an organized scientific 
community.
    As part of the initial catalyst to establish AMNet, EPA provided a 
small amount of funds, through competitively awarded time-limited 
contracts, to six monitoring groups to operate atmospheric mercury 
sites. With a core set of AMNet sites established, EPA's focus turned 
to facilitating the development and implementation of a centralized 
NADP data management program to assure high quality and comparable 
mercury measurement data across the United States. Toward that end, EPA 
uses its resources to continue supporting AMNet by funding NADP's AMNet 
quality assurance and data management activities.
    EPA served as a catalyst in launching the AMNet collaborative 
mercury monitoring effort. We remain committed to working with NADP and 
our partners in the scientific community to track progress of mercury 
emissions reductions under our air rules. We hope that the atmospheric 
mercury monitoring sites and experts participating in AMNet will 
continue to improve our understanding of mercury in the environment.

                            CHEMICAL SAFETY

    Question. As a cosponsor of the Safe Chemicals Act of 2011 I am 
acutely aware of the need to modernize the Toxic Substances Control Act 
of 1976 (TSCA). It is clear that the EPA desperately needs new tools to 
regulate the health and safety testing of toxic chemicals. Your fiscal 
year 2013 budget justification requests a funding increase of $11 
million for enhancing chemical safety and assessing chemical risks.
    Please tell me what resources EPA proposes to put toward work on 
carbon nanotubes with this requested increase in funding.
    Answer. EPA's fiscal year 2013 President's budget requests a total 
of $67.6 million to support the Chemical Risk Review and Reduction 
(CRRR) program, which includes an $11.1 million increase more than the 
fiscal year 2012 amount appropriated for the CRRR Program account 
($56.5 million). As detailed in the Congressional Budget Justification, 
the fiscal year 2013 CRRR request is divided into four areas of 
activity:
  --$13.9 million to support Existing Chemicals--Obtaining/Managing 
        Data efforts;
  --$14.9 million to support Existing Chemicals--Chemical Assessment 
        efforts;
  --$24.6 million to support Existing Chemicals--Risk Management 
        efforts; and
  --$14.2 million to support the New Chemicals Program.
    Resources supporting EPA's work on carbon nanotubes are housed in 
all four of these activity areas. We should note that EPA does not 
estimate resources on a chemical-by-chemical basis, as would be 
required in order to further specify the amount of funding budgeted for 
carbon nanotube work.
    Question. Does EPA have sufficient resources to truly address and 
assess the risk level from carbon nanotubes and efficiently approve 
nanomaterials that manufacturers have proven minimize or eliminate the 
associated adverse impacts on human health?
    Answer. EPA's fiscal year 2013 President's budget requests the 
resources necessary to continue to gather environmental health and 
safety data, assess risk levels and, as necessary, undertake risk 
management action to address identified risks associated with some of 
the carbon nanotubes already in commerce and to continue to review new 
nanomaterials submitted to EPA through the new chemicals program prior 
to their entry into commerce. As the science of nanomaterials evolves, 
EPA will continue to enhance its approach to obtaining and using 
information to inform both risk assessment and risk management to 
inform decisionmaking. For example, EPA is considering the development 
of categories of nanomaterials, based on shared chemical and 
toxicological properties, which may enable the Agency to make use of 
accumulated data common to each category (such as data on chemical 
hazard, structure, and properties) as well as a history of past 
decisions that may be relevant. In most cases, sufficient history would 
have been accumulated so that testing recommendations would vary little 
among the chemicals within a category.
    Question. What progress can you assure me will occur in EPA's work 
on nanoscale materials? In addition, do you expect that EPA will be 
able to make advances in its work in determining when nanoscale 
materials may require further assessment and when there has been 
sufficient testing without requiring undue additional expenses for 
manufacturers?
    Answer. EPA will continue to pursue a comprehensive regulatory 
approach under TSCA to ensure that both new and existing nanoscale 
materials are manufactured and used in a manner that protects against 
unreasonable risks to human health and the environment. EPA's approach 
includes pre-manufacture notifications; Significant New Use Rules; 
information gathering rules; and test rules. For example, EPA has 
played a leading role in guiding the development of test data and 
harmonized approaches to the testing, assessment, and management of 
nanomaterials with other Federal agencies for several years. EPA will 
continue to work in fiscal year 2013 with other Federal agencies 
through the National Nanotechnology Initiative and internationally with 
other governments to identify and develop these sources of data, with 
an emphasis on providing guidance for applying internationally 
harmonized chemical test guidelines to nanomaterials. EPA is already 
assessing and addressing the potential risk from carbon nanotubes and 
other nanomaterials. As new data are developed for nanomaterials, EPA 
will refine its approach to both risk assessment and risk management. 
EPA will identify those nanomaterials or categories of nanomaterials 
that require additional data development or risk management as well as 
the nanomaterials that do not warrant further testing or other actions.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

          CAMELINA BIODIESEL AND THE RENEWABLE FUELS STANDARD

    Question. Just over 2 years ago, Environmental Protection Agency 
(EPA) released a final rule setting up the Renewable Fuels Standard 
(RFS2). Every year since then, EPA has had to drastically revise its 
advanced biofuel quotas down, due to the fact that there was no chance 
the biofuel industry could meet them.
    Part of the RFS2 rule was the establishment of a process to approve 
new feedstocks for production of biofuel. However, since the RFS2 was 
established, Canola is the only feedstock that has been approved 
through that process.
    At the same time, I know that Montana producers have been working 
toward approval of biodiesel from camelina and ethanol from barley 
almost since the day the RFS2 was established.
    I have watched with growing concern the lack of newly approved fuel 
pathways eligible for Renewable Identification Numbers (RINs), 
particularly given the backlog of petitions that the EPA is 
considering. EPA did approve a handful of pathways in January, only to 
withdraw that approval shortly thereafter, resulting in yet another 
crop year without recognition of these innovative fuels.
    I am concerned that unless EPA enhances the diversity of fuel 
pathways eligible for RINs, the renewable fuels standard will continue 
to act as a barrier to entry for new and promising feedstocks by 
supporting incumbents that frankly don't need the help.
    To what extent is EPA's inability to approve new fuel pathways 
contributing to the lack of advanced biofuel? What is EPA doing to get 
the petition program for new fuel pathways working as intended?
    Answer. As a clarification, in the past 2 years, EPA has not had to 
reduce the advanced biofuel mandate, only the cellulosic volume 
mandate. Therefore, we do not believe that the new fuel pathway 
approval process is contributing to a shortage of advanced biofuels. 
Since the RFS2 volume standards are nested (with cellulosic fuels being 
a subset of advanced fuels), the total advanced biofuel mandate can 
remain unchanged even if cellulosic volumes are reduced. To date, EPA 
has not reduced the overall advanced volume mandates since our analysis 
has shown that there is a sufficient supply of advanced biofuels. What 
this means is that refiners and blenders have still been obligated to 
acquire sufficient advanced biofuel to fulfill the statutory mandate, 
even though the EPA Administrator lowered the required volume for 
cellulosic biofuel. Biodiesel from camelina and ethanol from barley 
could potentially qualify as advanced biodiesel, if the fuel pathways 
satisfy certain criteria.
    In the final RFS2 rule, EPA developed a petition process to allow 
for new potential pathways to be reviewed and incorporated into the RFS 
program. In the last 2 years, EPA has made significant progress in 
evaluating new feedstocks and fuels under the RFS program. For example, 
EPA has approved canola as a new feedstock and six other new fuel 
pathways through the petition process. In addition, EPA released for 
public comment analysis on six other feedstocks (arundo donax, 
camelina, energy cane, napiergrass, palm oil, and sorghum). EPA 
recognizes the need to review and include new advanced biofuel 
feedstocks to help further the goals of the Energy Independence and 
Security Act. To this end, EPA tried to expedite the approval of arundo 
donax, camelina, energy cane, and napiergrass through a direct final 
rulemaking process. However, EPA received relevant adverse comments as 
part of the public review process and was legally required to withdraw 
the direct final rule and proceed instead with a proposed rule. EPA is 
working to respond to these comments and finalize the analysis of these 
pathways as quickly as possible.

                         ENHANCED OIL RECOVERY

    Question. Administrator Jackson, I understand that your agency is 
in the process of developing guidance for Enhanced Oil Recovery (EOR) 
projects. I am a strong supporter of enhanced oil recovery and believe 
it is a win-win for the storage of CO<INF>2</INF> as well as getting 
more oil out of existing fields. EOR helps to localize the impact of 
oil field development, while increasing our energy security with 
domestic production.
    I have heard some concern from some in industry that this proposed 
guidance makes could hinder EOR use and expansion.
    Question. Are you supportive of developing EOR?
    Answer. EPA remains committed to the safe implementation of 
enhanced oil and gas recovery technologies. Since the 1980s, EPA has 
worked with State co-regulators to ensure that injection of 
CO<INF>2</INF> (and other fluids) for enhanced oil and gas recovery is 
conducted in an environmentally sound manner that enables increased 
energy security through domestic hydrocarbon production.
    Question. Can you assure me that EPA will continue to work with 
stakeholders to assure that guidance on this program is workable and 
encourage the use of EOR?
    Answer. EPA will continue to work with stakeholders, including 
State co-regulators and industry representatives, to develop this 
guidance and intends to implement it in a manner that is consistent 
with existing EOR regulations and Underground Injection Control program 
authority under the Safe Drinking Water Act.

                     OIL SPILL RESPONSE AND TRIBES

    Question. Administrator Jackson, last year on the Blackfoot 
Reservation in Montana there was a small oil spill from an oil 
distribution pipeline. This occurred about the same time we had the 
larger spill on the Yellowstone River. Unfortunately the small spill 
wasn't found for nearly 1 month because it was in a distribution line.
    In Montana a number of tribes, including the Blackfeet are actively 
developing their traditional energy resources, in particular oil and 
natural gas. Unfortunately, many tribes lack a full staff of people to 
regularly monitor well and develop safeguards for the development of 
energy resources.
    Question. What is EPA doing to provide technical assistance to 
tribes who have expanding energy development to develop safeguards are 
in place to prevent incidents like what happened on Browning?
    Answer. EPA conducts numerous workshops and inspections to provide 
technical assistance to tribes who have expanding energy development 
regarding oil spill prevention and response. EPA routinely includes 
inspections of production facilities on tribal lands with tribal 
environmental personnel to train the tribe on the requirements of the 
SPCC regulation and address facilities the tribe may have concerns 
about. EPA also routinely answers technical questions from the tribal 
environmental office to provide assistance on the requirements of the 
spill prevention control and countermeasure (SPCC) regulation, respond 
to spills and complaints, and address noncompliance.
    The following examples are representative of the types of 
assistance EPA provides to tribes that are developing their traditional 
energy resources:
  --In 2010 and 2011, EPA worked with Fort Berthold officials on spill 
        response capabilities and conducted workshops to improve 
        compliance with SPCC regulations. In previous years, EPA 
        similarly conducted SPCC workshops on the Uintah & Ouray, 
        Southern Ute, and Wind River Reservations.
  --In August 2011, EPA provided technical assistance to the Blackfeet 
        Tribe by conducting interactive SPCC training for nine 
        participants from tribal environmental staff, emergency 
        response staff, and a representative from the Bureau of Indian 
        Affairs (BIA). This training focused on how to identify 
        facilities that could pose a high risk for a spill or that may 
        not be in compliance. EPA also discussed with the tribe 
        concerns they had regarding facilities or spills that had 
        occurred.
  --In June 2011, EPA inspectors were accompanied by tribal personnel 
        during the SPCC inspections conducted on the Fort Berthold 
        reservation. In August 2011, EPA inspectors were accompanied by 
        Blackfeet Tribal environmental and emergency staff, as well as 
        a BIA representative, on SPCC inspections.
  --During Tribal Region Operation Committee meetings held at the 
        Region 8 office, the prevention and preparedness program 
        presented and distributed outreach materials. The region also 
        distributed materials on oil spill prevention during the Denver 
        March Pow Wow.
  --In September 2011, EPA held a 4-day oil response training course 
        for members of the Three Affiliated Tribes. This course is 
        designed for EPA Federal On-Scene-Coordinators (FOSCs), U.S. 
        Coast Guard (USCG) FOSCs, and tribal, State, and local 
        responders who are involved in inland oil spill prevention and 
        cleanup. The course was focused around a hands-on practical oil 
        spill response scenario on fast water usually found in rivers 
        in the western regions of the United States. Course 
        participants learned physical and chemical properties; 
        statutory and regulatory framework; factors affecting response 
        and cleanup decisions; how to read rivers; determine oil 
        recovery locations; determine various methods of boom 
        deployment; and deploy oil recovery methods on fast water 
        rivers.
  --In addition to oil spill prevention and response training, EPA 
        initiated meetings with all 27 tribal governments to create a 
        foundation for open communication and to understand the 
        priorities, risks and vulnerabilities of the Region 8 tribes. 
        The region plans to meet with the tribes in order to conduct an 
        assessment of tribal emergency planning and preparedness 
        capabilities in order to tailor an appropriate technical 
        assistance and training regimen specific to the tribal needs.
  --With oil and gas production being one of the top priorities for the 
        tribes, on June 13, 2012, EPA conducted a workshop to help 
        tribal communities understand potential issues and resources 
        available to prepare for and address environmental accidents, 
        spills, and releases due to oil and gas drilling and production 
        processes. Information included an overview of the production 
        process itself, a summary of the various EPA laws and 
        regulations that cover oil and gas production, and information 
        from other guest speakers including, but not limited to, 
        private industry, the Department of Transportation, and the 
        Bureau of Land Management.
    As with EPA's activities in previous years, there are also plans to 
continue one-on-one outreach, SPCC technical assistance, and joint 
inspections with certain tribes in 2012.
    EPA has a goal to update and create new Area Contingency Plans that 
would include Browning, Montana. As part of this effort, EPA Region 8 
has held meetings with representatives from the tribes, U.S. Fish & 
Wildlife Service, BIA, Army Corps of Engineers, Departments of 
Agriculture and State, and local agencies to discuss subarea 
contingency planning for the Missouri River-Lake Sakakawea area.

                     LIBBY, MONTANA SUPERFUND SITE

    Question. Montana also has some big challenges with Superfund. In 
Montana we have the dubious honor of having 11 Superfund sites on the 
National Priorities List. These are some of the largest and most 
complex in the United States. And Administrator Jackson, as I've said 
each year as you come before this subcommittee it needs your personal 
attention.
    Let me take a moment to talk about Libby, Montana. It has been more 
than 10 years since EPA's work in Libby commenced, and there are still 
a number of unanswered questions and actions with questions. Currently 
the toxicological review of Libby Amphibole Asbestos has a draft form 
and is being circulated.
    Question. When do you believe you will be able to finalize that 
study? And when can you start using the Science Advisory Board's (SAB) 
information to make decisions about if homes are safe or clean for the 
citizens of Libby?
    Answer. EPA currently anticipates completing and posting the 
Integrated Risk Information System (IRIS) Toxicological Review of Libby 
Amphibole Asbestos in fall 2013. EPA's SAB has indicated that they 
expect their peer review advice will be published by November 2012. As 
per the IRIS process, EPA will then conduct any further analyses needed 
to respond to the peer review and revise the draft assessment to 
respond to comments. After internal and interagency reviews, a final 
Toxicological Review of Libby Amphibole Asbestos will be posted on 
IRIS.
    To date, risks from exposure to Libby Amphibole have been 
substantially reduced through cleanup actions at 1,670 properties in 
Libby, including homes, commercial buildings, parks, and other 
recreational spaces. Once the Toxicological Review of Libby Amphibole 
Asbestos is posted on IRIS, the toxicity values can be used for human 
health risk assessments. EPA will evaluate the remaining properties in 
Libby and reassess the properties that have undergone cleanup actions 
to determine whether additional cleanup is required. Region 8 will be 
able to publish a draft cumulative human health risk assessment for the 
Libby Superfund Site approximately 6 months after the IRIS posting of 
the Libby Amphibole toxicity values. The results of the human health 
risk assessment, as well as community opinions and concerns, will be 
considered by EPA as it evaluates alternatives and selects an 
appropriate response to address site risks.

                        CLARK FORK CLEAN UP SITE

    Question. Currently in the State of Montana has great work going on 
the Clark Fork River restoring a watershed. This work will restore 
clean water, fish, and aquatic species habitat and revitalize a 
corridor home to many of Montana's farms and ranches.
    This site, listed in 1985, has waited a long time for clean up.
    The State and EPA have entered into a consent agreement with the 
State as lead agency, a position well deserved after their good work in 
Silver-Bow County and on Milltown Dam.
    There is more than $100 million ready to put people to work in the 
restoration economy in Montana. Unfortunately, as of my last update, 
this work has is still stalled for while lawyers bicker over small 
technicalities and details.
    Question. Can I have your commitment that you will work the lead 
agency, the State of Montana, to get any issues resolved and make sure 
this project commences in a timely fashion so that by this summer we 
can be putting people back to work cleaning up the banks of the Clark 
Fork?
    Answer. EPA remains committed to working with the lead agency, the 
Montana Department of Environmental Quality (Montana DEQ), to help the 
Montana DEQ implement the remedy in an efficient and effective manner. 
Under a 2008 consent decree, the Montana DEQ received $123 million from 
Atlantic Richfield to perform State-lead Superfund remedial design, 
remedial action, and natural resource damage restoration for the Clark 
Fork River Operable Unit (Clark Fork Site) of the Milltown Reservoir 
Sediments/Clark Fork River Superfund Site. EPA has consistently met 
review times requested by the Montana DEQ for deliverables and has 
worked expeditiously to resolve issues to help the Montana DEQ complete 
design and construction on the Clark Fork River.
    The Montana DEQ began construction in 2010 by removing arsenic and 
lead contaminated soil from eight residential properties located on 
East Side Road in Deer Lodge. The Montana DEQ also cleaned up six 
residential properties adjacent to the Clark Fork River in Deer Lodge 
in 2011. Cleanup construction was completed at the Trestle Area Bridge 
in Deer Lodge in fall 2011. Construction firms out of Butte, Missoula, 
and Lincoln, Montana were able to bid successfully on these 
construction projects.
    In addition, engineering firms from Helena and Butte, under 
contract to the Montana DEQ, collected design level data in 2011 at the 
Grant Kohrs Ranch National Historic Park and the Clark Fork Coalition 
Ranch. The Montana DEQ has already incorporated data collected during 
these investigations into Design Summary Reports. Draft preliminary 
designs are anticipated in fall 2012, with final design packages going 
out for construction bids in 2013.
    Finally, the Montana DEQ is currently incorporating design review 
team comments into its final design for cleanup of the first 1.6 miles 
of the Clark Fork River directly below the Warm Springs Ponds (Reach A, 
Phase 1). Montana DEQ will solicit bids later this summer for a multi-
year construction project that will begin in fall 2012.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                   DESIGN FOR THE ENVIRONMENT PROGRAM

    Question. Administrator Jackson, I would like to bring to your 
attention some concerns I have with the Design for the Environment 
(DfE) program. This program is intended to identify chemicals for which 
increased margins of safety may be needed and to make suggestions on 
alternative chemicals that would provide increased margins of safety. 
As I understand it, Congress did not explicitly fund or create this 
program, nor did the Environmental Protection Agency (EPA) issue 
regulations outlining any criteria on which to select products for 
which substitutes are sought. Furthermore, there is no criteria that 
exists to define the improved safety of the alternatives. While the 
program may be deemed voluntary, the process will lead to manufacturers 
substituting alternatives, none of which have been approved by a 
government agency as safe for use or by industry as technically or 
commercially viable. Therefore the DfE program can effectively drive 
major structural changes in the chemical industry while avoiding the 
rigor of the regulatory process.
    I am very concerned with the lack of transparency in the 
decisionmaking process and the lack of defined criteria upon which DfE 
chemical evaluations are based.
    Are the chemical evaluations under the DfE program done consistent 
with other EPA chemical evaluations or assessments such as under the 
Integrated Risk Information System (IRIS)?
    Answer. Yes, DfE chemical evaluations are consistent with other EPA 
evaluations, including IRIS, and use similar criteria. For example, the 
IRIS assessment process includes obtaining information through a 
comprehensive literature search and data call in. The IRIS assessment 
process also includes professional EPA science experts evaluating 
research studies on health effects and providing judgments regarding 
issues such as appropriate study choice, characterization of effects, 
and uncertainty factors, among others. Data sources for DfE evaluations 
include the following:
  --Publicly available data obtained from a literature review;
  --Data contained in confidential business information received by 
        EPA;
  --Structure-Activity-Relationship based estimations from EPA's 
        Pollution Prevention Framework and Sustainable Futures 
        predictive methods; and
  --Professional judgment of EPA science experts with decades of 
        chemical review experience.
    When IRIS assessments are available, they are a primary 
consideration for DfE chemical evaluations.
    Question. If chemical evaluations for DfE are not conducted in a 
similar fashion, what is the evaluation process and where is it 
documented?
    Answer. The DfE approach for conducting chemical evaluations is 
similar to evaluations in other EPA programs.

         WASTEWATER OPERATIONS--UNDERGROUND PIPE INFRASTRUCTURE

    Question. Efforts are currently being made by innovative companies 
to assist small- and medium-sized cities to maximize cost savings and 
asset management for their underground pipe infrastructure. Efforts 
involve aggregating data and leveraging information to the benefit of 
municipalities' wastewater operations and financial planning. What is 
EPA currently doing to aggressively compliment or incentivize 
municipalities to embrace this proven, comprehensive, cost savings 
practice?
    Answer. EPA has been in the forefront, especially in the area of 
Asset Management practices, with a whole series of initiatives to 
assist communities in making more efficient and effective long-term, 
life-cycle based decisions regarding water and wastewater 
infrastructure. The key elements in the EPA strategy are based on 
providing training and knowledge transfer and supporting the 
development of new tools and techniques to foster better municipal 
system outcomes. Over the past decade, approximately 60, 2-day ``hands-
on'' workshops have been held with more than 4,500 local water and 
wastewater personnel attending these training sessions. In addition, 
EPA has worked closely with the Water Environment Research Foundation 
to establish a focused research program to address some of the key 
knowledge questions associated with the aging of our water and 
wastewater infrastructure. Much of this work is focused on underground 
pipe infrastructure, where the issues associated with the aging of the 
networks are most prominent. Finally, a number of State SRF programs 
have adopted Asset Management related incentives associated with their 
funding decisions and a few States have started integrating Asset 
Management requirements into their National Pollutant Discharge 
Elimination System permit process.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                   INTEGRATED RISK INFORMATION SYSTEM

    Question. In testimony before the Congress in July, 2011, 
Environmental Protection Agency's (EPA) Science Advisor stated that the 
EPA did not intend to implement the reforms identified in chapter 7 of 
the National Academy of Science (NAS) peer review report on the 
formaldehyde Integrated Risk Information System (IRIS) assessment for 
draft assessments that had then been released for peer review but not 
finalized. Since that time, EPA has also chosen not to implement those 
reforms to certain draft assessments subsequently released for peer 
review. EPA's stated rationale for that decision was that NAS did not 
intend to delay IRIS assessments pending development of program-wide 
reforms. However, a review of the specific NAS recommendations for 
improving the formaldehyde assessment demonstrates that they parallel 
the NAS recommendations for longer-term IRIS reform. Clearly, then, NAS 
wanted and expected EPA to implement on a chemical-specific basis going 
forward recommendations comparable to those NAS was recommending that 
EPA develop over a longer-term for the program as a whole.
    Given NAS' conclusion that its recommendations are ``critical for 
the development of a scientifically sound IRIS assessment'' and EPA's 
conclusion that all the NAS' recommendations are warranted, what is 
EPA's justification for implementing those reforms for some chemicals, 
like formaldehyde, but not others in like or earlier stages of 
development than formaldehyde at the time of the NAS report?
    In its recent progress report to the Congress on the status of its 
IRIS reform efforts and elsewhere, EPA has stated that it agrees that 
all the NAS recommendations are scientifically sound and should and 
will be implemented by EPA. However, EPA is applying only a few of 
those reforms to some of the assessments in the pipeline and none of 
them to others now under development.
    Answer. EPA agrees with and is implementing the NAS 
recommendations. Consistent with the advice of the NAS in their 
``Roadmap for Revision'' in chapter 7 of the formaldehyde review 
report, EPA is implementing the recommendations using a phased 
approach. Specifically, the NAS stated that ``the committee recognizes 
that the changes suggested would involve a multiyear process and 
extensive effort by the staff of the National Center for Environmental 
Assessment and input and review by the EPA Science Advisory Board and 
others.'' In implementing the recommendations in a phased approach, EPA 
is making the most extensive changes to documents that are in the 
earlier steps of the assessment development process.
    For assessments that are in the later stages of development, EPA is 
implementing the recommendations without taking the assessments 
backwards to earlier steps of the process. Phase 1 of implementing the 
NAS recommendations has focused on editing and streamlining documents 
and using more tables, figures, and appendices. However, for some 
assessments, EPA went beyond the changes that were slated for Phase 1 
to incorporate changes slated for Phase 2. For example, the final 
dioxin reanalysis (released as part of the Phase 1 batch of 
assessments) included:
  --Evaluation tables for epidemiology study summaries;
  --Health effects study descriptions in an appendix to streamline the 
        main text;
  --Graphical and tabular displays of potential points of departure and 
        oral reference dose candidate values; and
  --Links to the Health and Environmental Research Online (HERO) 
        database for all citations.
    EPA is now in Phase 2 of implementing the NAS recommendations, as 
evidenced by the recent release of the draft IRIS assessment of 
ammonia. This assessment represents a major advancement in implementing 
the NAS recommendations. EPA is using a new document structure, 
including an executive summary presenting major conclusions, a preamble 
describing methods used to develop the assessment, distinct sections on 
Hazard Identification and Dose-Response Analysis, and more tables and 
figures to clearly present data. Additionally, as part of Phase 2, EPA 
is addressing all of the short-term recommendations provided by the 
NAS, including:
  --Eliminating redundancy in format to substantially reduce the volume 
        of text;
  --Adding a preamble to describe the methods of the assessment;
  --Providing detailed information about the literature search and 
        describing how studies were selected for evaluation;
  --Using the HERO database to allow public access to all studies 
        considered and cited in the assessment;
  --Using standardized evidence tables instead of long text 
        descriptions;
  --Conducting a more thorough and standardized evaluation of studies, 
        including strengths and weaknesses;
  --Developing a more integrated synthesis of health information 
        organized by toxicological effect, including a discussion of 
        weight of evidence;
  --Clearly describing all decision points;
  --Presenting candidate reference values for multiple endpoints, where 
        appropriate; and
  --Considering the possibility of combining multiple studies or 
        effects for deriving toxicity values, instead of choosing the 
        most sensitive effect.
    Phase 3 of implementation, which will begin when EPA convenes a 
workshop on weight of evidence, will incorporate the longer-term 
scientific recommendations made by the NAS, including:
  --Incorporating a systematic identification of the relevant evidence;
  --Developing and utilizing criteria for evaluating the strength of 
        the evidence; and
  --Developing language for describing the strength of the evidence of 
        causation so that a standardized approach is used that is 
        comparable among different agents and outcomes.
    Question. Given EPA's concurrence with NAS' conclusion that all 
these reforms are critical to scientifically sound assessments, upon 
what basis has EPA concluded that some assessments now being prepared 
are more deserving of these reforms than others?
    Answer. As discussed in the response to question 1, EPA has used a 
systematic approach to implementing the NAS recommendations in a phased 
manner based on stage of assessment development.
    Question. The recommendations are being applied based on the stage 
of development of the assessment. Thus, those in the earliest stage of 
development are in Phase 3, while those in the later stages are in 
Phases 1 and 2. We did this so as not to unduly delay the release of 
final assessments and to ensure that the effort placed in drafting the 
document was not lost. This is consistent with the advice of the NAS.
    If EPA's basis is that it is important to finalize quickly 
assessments now in the later stages of development, has EPA concluded 
that it is more important to get these assessments prepared quickly 
than it is to get them prepared correctly, that is, in a manner that 
both EPA and NAS have concluded is critical to scientifically sound 
assessments?
    Answer. EPA is working as quickly as possible to finalize 
assessments. However, quality and correctness of assessments are not 
being sacrificed for speed.
    Question. Sound science and independent, open-to-the public, 
scientific peer review are the cornerstones of the IRIS program and the 
foundation upon which IRIS is built. Every IRIS assessment that has 
been finalized has been through rigorous independent external peer 
review and has been revised to address the peer review comments, 
ensuring that EPA is using the best-available sound science.
    The Board on Environmental Studies and Toxicology of NAS recently 
informed the Senate and House Appropriations Committees that it had 
unanimously concluded that in lieu of the two discretionary NAS IRIS 
assessment peer reviews called for by the conference report language 
for EPA's appropriation in title II of Public Law 112-74, it would be 
more productive and valuable for the IRIS program if NAS undertook a 
comprehensive in-depth review of EPA's IRIS report development process 
and the changes in that process contemplated by EPA. Do you concur with 
that conclusion?
    Answer. Yes, EPA agrees that it would be more productive and 
valuable for the IRIS Program if the NAS undertook a comprehensive in-
depth review of the IRIS assessment development process in lieu of peer 
reviewing two draft IRIS assessments. It is most appropriate for the 
NAS to address broad scientific issues rather than conducting reviews 
of individual IRIS assessments.
    Question. EPA is committed to a strong and robust IRIS program. The 
EPA welcomes NAS' review of the IRIS assessment development process and 
looks forward to working with the NAS to continue to strengthen the 
IRIS program.
    We have received several reports of newly developed IRIS toxicity 
values that are well below naturally occurring background levels of the 
chemicals involved to which the public is routinely exposed. If these 
values were scientifically valid, wouldn't one expect to find evidence 
of adverse health effects that to date are not apparent?
    Answer. By definition, a reference dose (RfD) is an estimate (with 
uncertainty spanning perhaps an order of magnitude) of a daily oral 
exposure to the human population (including sensitive subgroups) that 
is likely to be without an appreciable risk of deleterious effects 
during a lifetime. That is, the RfD is the level of exposure that a 
person could experience every day over their entire lifetime without an 
appreciable risk of harmful effects. The derivation of an RfD generally 
includes the use of uncertainty factors that account for limitations in 
scientific information. Therefore, it is designed to be public health 
protective. It is expected that a person's exposure to a certain 
chemical might vary throughout their lifetime, increasing at some 
points and decreasing at others. Exceeding the RfD for one day, or a 
week or more does not necessarily mean that an individual has a greater 
risk of a health effect. As exposure increases above the RfD for 
prolonged periods, then the potential risk for health effects 
increases. It is generally not possible to determine an exact exposure 
level at which the risk of adverse effects will start to increase. Nor 
is it generally possible to determine exactly how many days of exposure 
above the RfD it would take to increase the risk of health effects.
    In addition, the term ``background'' may mean different things, 
such as the production of endogenous compounds or naturally occurring 
substance. Just because something occurs naturally in the environment 
does not mean it is without harm. In some cases, naturally occurring 
substances may lead to adverse health effects in humans. For example, 
people in certain locations outside the U.S. are exposed to high levels 
of naturally occurring arsenic in their drinking water. Health effects, 
such as skin pigmentation and cancer, have been identified in these 
populations. In most cases, however, well-conducted epidemiological 
studies have not been performed to evaluate whether adverse effects are 
occurring at background levels of exposure.
    Finally, the human body does not discern between naturally 
occurring and manmade substances. The toxicity of a chemical is the 
same regardless of the source, and understanding the toxicity of a 
chemical, natural or not, makes for better informed decisions.
    Question. Moreover, in as much as the principal purpose of IRIS 
assessments is to educate the public and risk managers as to 
concentrations of chemicals above which unacceptable risks may exist, 
how useful are these values when they are at levels that risk managers 
and the public cannot rectify?
    Answer. IRIS assessments are useful to risk managers and the 
public. IRIS assessments provide information on the toxicity of 
chemicals. Risk managers use IRIS values, along with information about 
exposure, to characterize the public health risk of chemicals. When 
making decisions, they also take into consideration other factors, such 
as statutory and legal considerations, risk management options, public 
health considerations, cost/benefit considerations, and economic and 
social factors.
    It should also be noted that just because something occurs 
naturally in the environment does not mean it is without harm. The 
human body does not discern between naturally occurring and manmade 
substances. The toxicity of a chemical is the same regardless of the 
source, and understanding the toxicity of a chemical, natural or not, 
makes for better informed decisions. It is important that risk managers 
and the American public have the most up-to-date information on the 
health effects of chemicals in their environment.
    Question. When EPA develops a toxicity value that is lower than 
background levels in such public spaces as urban areas and schools, or 
at people's homes, does it evaluate the implications of such a value on 
public perception of safe levels of chemicals and on use of societal 
resources to address such exceedingly low values?
    Answer. IRIS assessments provide information on the toxicity of 
chemicals. When this information is combined with specific exposure 
information, government and private entities can use IRIS to help 
characterize the public health risks of chemical substances. When risk 
managers make decisions, they consider additional information, such as 
the use of societal resources, statutory and legal considerations, risk 
management options, public health considerations, cost/benefit 
considerations, and economic and social factors.
    Question. The IRIS program is very important to establishing 
credible cleanup standards that touch many people and organizations. 
It's very important that these standards be credible and be based on 
the best-available science. The Congress has asked EPA to implement the 
NAS recommendations with regard to the IRIS program to restore its 
credibility. Yet implementation is slow and reports are still moving 
through the approval process without the benefit of being subjected to 
the rigor recommended by the NAS. Could you explain why you are pushing 
through new standards for individual substances absent the sound 
science approach recommended by NAS?
    Again, our goal is to have the best-possible science guide this 
standard setting.
    Answer. EPA is using a systematic approach to implementing the NAS 
recommendations in a phased manner, based on stage of assessment 
development. Every IRIS assessment that has been finalized has been 
through rigorous independent external peer review and has been revised 
to address the peer review comments, ensuring that EPA is using the 
best-available sound science.
    Question. IRIS assessments and IRIS toxicity values are not 
standards. An IRIS human health assessment is a scientific and 
technical report that provides information on hazard identification and 
dose response. When information from an IRIS assessment is combined 
with specific exposure information, government and private entities can 
use IRIS to help characterize the public health risks of chemical 
substances. It is during the risk management part of the risk 
assessment/risk management paradigm that standards are developed. In 
making risk management decisions, EPA considers the supporting science, 
as well as statutory and legal considerations, risk management options, 
public health considerations, cost/benefit considerations, and economic 
and social factors.
    Could you explain why you are willing to have the IRIS program 
subjected to wide criticism by rushing through standards absent the 
rigor of an NAS type review?
    Many of us on the subcommittee have already heard from constituents 
that have problems with some of the proposals in the works.
    EPA has stated that it does not want its reforms in response to the 
NAS report to delay issuing of IRIS reports.
    Answer. IRIS assessments and IRIS toxicity values are not 
standards. An IRIS human health assessment is a scientific and 
technical report that provides information on hazard identification and 
dose response. When information from an IRIS assessment is combined 
with specific exposure information, government and private entities can 
use IRIS to help characterize the public health risks of chemical 
substances. It is during the risk management part of the risk 
assessment/risk management paradigm that standards are developed. In 
making risk management decisions, EPA considers the supporting science, 
as well as statutory and legal considerations, risk management options, 
public health considerations, cost/benefit considerations, and economic 
and social factors.
    EPA is using a systematic approach to implementing the NAS 
recommendations in a phased manner based on stage of assessment 
development. This is consistent with the advice of the NAS in their 
``Roadmap for Revision'' in chapter 7 of the formaldehyde review 
report. The NAS did not intend for their recommendations to slow down 
or delay issuing IRIS assessments, but rather noted that ``the changes 
suggested would involve a multiyear process and extensive effort by the 
staff of the National Center for Environmental Assessment and input and 
review by the EPA Science Advisory Board and others.''
    Independent, open-to-the public, scientific peer review is a 
cornerstone of the IRIS Program. Every draft IRIS assessment is subject 
to independent, external scientific peer review. Every IRIS assessment 
that has been finalized has been through rigorous independent external 
peer review and has been revised to address the peer review comments, 
ensuring that EPA is using the best-available sound science.
    Question. Given EPA's statement that IRIS documents do not have 
regulatory effect and given EPA's existing statutory authority at 
cleanup sites and for regulatory standards and permitting, are there 
any specific EPA program needs for IRIS values that cannot be met 
through EPA's other existing authorities? If so, please explain these 
needs. If not, please explain why it is sound public policy not to 
carry out the NAS recommendations before issuing IRIS values?
    Answer. IRIS was designed to develop assessment values for use 
throughout EPA, and this remains the case. The IRIS program develops 
health assessments and toxicity values in concert with scientists from 
across EPA's programs and regions. The toxicity values are then added 
to the IRIS database for use by EPA's program and regional offices and 
others. Time and again, EPA's program and regional office have 
indicated their need and strong support for the IRIS program.
    The IRIS program is responsible for developing IRIS health 
assessments and providing the associated toxicity values in the IRIS 
database. EPA's program and regional offices determine which toxicity 
values to use in their work. While we know that IRIS values are widely 
used, the IRIS program does not track what toxicity values the program 
offices use in every aspect of their work. The rigorous assessment 
development process, which includes opportunity for public comment and 
independent external peer review, ensures that EPA decisions will be 
based on the best-available science.

                       REGIONAL HAZE REGULATIONS

    Question. What steps has EPA taken to coordinate more effectively 
with States on regional haze issues in response to the congressional 
directive included in the conference report accompanying the fiscal 
year 2012 Appropriations Act?
    Why is EPA rejecting State Implementation Plans that reduce 
visibility impairment consistent with the Clean Air Act (CAA) and the 
congressional directive to work with the States?
    Answer. Since 1999, EPA has been collaborating with the States and 
with their regional planning organizations on the development of 
regional haze plans. Our preference has always been to allow States 
that are moving forward to complete their work, and then to give due 
deference to the emission controls decisions that they reach based on 
accurate technical information. In fact, we have fully approved the 
plans for the District of Columbia and the following 12 States:
  --California;
  --Delaware;
  --Illinois;
  --Kansas;
  --Maine;
  --Maryland;
  --New Hampshire;
  --New Jersey;
  --Rhode Island;
  --South Dakota;
  --Vermont; and
  --Wisconsin.
    All have proposed to fully approve the Alaska, Colorado, 
Connecticut, Idaho, Massachusetts, and Oregon plans.
    In addition, for the following 10 States, we have fully approved 
the regional haze plans with the single exception that we have adopted 
a simple ``housekeeping'' Federal plan to substitute reliance on the 
Cross State Air Pollution Rule (CSAPR) for these States' earlier 
decision to rely on the Clean Air Interstate Rule, an approach that 
will not result in any additional control requirement for any 
powerplants in these States solely for regional haze purposes:
  --Georgia;
  --Indiana;
  --Iowa;
  --Kentucky;
  --Missouri;
  --Ohio;
  --Pennsylvania;
  --South Carolina;
  --Virginia; and
  --West Virginia.
    We collaborated with these States on this approach of adopting the 
CSAPR-based Federal plan. These States do not need to take any further 
action to meet the current regional haze planning requirements. We 
fully expect to add Tennessee to this group once the State submits and 
we approve a revision to its State Implementation Plan (SIP) for a 
particular source (Eastman Tennessee) so that this source can pursue 
its preferred approach to the regional haze requirements. We have also 
relied on a CSAPR-based Federal plan element in the case of Nebraska, 
such that Nebraska also does not need to make any changes in its SIP. 
North Carolina and Alabama need to amend their SIPs to substitute 
reliance on CSAPR for their original reliance on CAIR, but otherwise we 
have fully approved their plans.
    We have also been collaborating very closely with Florida on staged 
revisions to its plan to address the fact that Florida cannot rely on 
CSAPR to meet all of its regional haze requirements for powerplants. We 
have proposed approval of the revisions submitted to date and 
anticipate proposing approval of the remaining revisions as they are 
submitted. Mississippi also could not rely on CSAPR to meet all of its 
regional haze requirements and therefore we had to disapprove its plan, 
but we were not required to issue a Federal plan so we did not do so. 
We are working with Mississippi to help it address this issue within 
the next 2 years so that a Federal plan can be avoided.
    In Arkansas and Louisiana, we could not fully approve the SIP and 
we were required to take final disapproval action on some portions 
already, but we were not required to issue a Federal plan so we did not 
do so. We are working with these States to help them address the 
disapproval issues within the next 2 years so that a Federal plan can 
be avoided. The same situation will apply for Utah if we finalize our 
proposed disapproval of portions of its SIP.
    In Hawaii, Montana, and the U.S. Virgin Islands, by mutual 
agreement we have developed and proposed complete Regional Haze Federal 
plans because those governments did not have the resources to develop 
SIPs.
    Of the 11 States not mentioned above, final actions remain to be 
taken on 10 States. For these 10 States, if we do not fully approve the 
SIP we are required by a consent decree to adopt a Federal plan.\1\ 
Because of this requirement, we have already adopted final partial 
Federal plans for New Mexico, North Dakota, and Oklahoma. We have 
proposed to disapprove portions of the SIPs for Arizona, Michigan, 
Minnesota, Nevada, New York, and Wyoming, and there is not sufficient 
time remaining for the State to submit new plan revisions. However, we 
are duly considering the comments received from these States on our 
proposed disapprovals. Also, we will collaborate with these States if 
they wish to replace the final Federal plan with a State plan. We have 
negotiated significant consent decree extensions for portions of the 
SIPs from Arizona, Washington, and Oklahoma, and for the entire SIP 
from Texas, and we will take advantage of this time to collaborate with 
these States.
---------------------------------------------------------------------------
    \1\ This distinction in consent decree terms across States stemmed 
from the interaction of the provisions of the Clean Air Act and the 
timing of the actions taken by the States to submit their plans, not 
from any choice on the part of the EPA.
---------------------------------------------------------------------------
    Question. The stringent pollution control equipment being selected 
by EPA as BART under the Regional Haze Rule is that which would 
typically be classified as best-available control technology (BACT) or 
maximum achievable control technology (MACT), which is more stringent 
than typically would be classified as BART.
    What is the basis for this change?
    Answer. EPA assesses all regional haze SIPs in accordance with the 
Regional Haze Rule BART Guidelines, which were issued in 2005. With 
respect to BART determinations, EPA reviews the State's assessment of 
each individual source considering five statutory factors. These five 
factors are:
  --the costs of compliance;
  --the energy and nonair quality environmental impacts of compliance;
  --any existing pollution control technology in use at the source;
  --the remaining useful life of the source; and
  --the degree of improvement in visibility which may reasonably be 
        anticipated to result from the use of such technology.
    As determinations are made on a source-specific basis considering 
all of the five factors, there is no promotion of one control 
technology over another. Similarly, there is no ``bright line'' as to 
what the EPA considers to be cost-effective technology nor is there any 
presupposition that BART is more or less stringent than BACT or MACT 
would be for affected sources. The magnitude of the visibility 
improvement expected may warrant greater emission reductions at a 
higher cost, for example when the visibility improvement is very large. 
Alternatively, a BART determination may require fewer emission 
reductions at a lower cost when the visibility improvement is not as 
significant.
    Question. EPA's regional haze SIP requirements are found in the 
Regional Haze Rules (40 CFR 51.300), Appendix Y to Part 51 (Guidelines 
for BART Determinations under the Regional Haze Rule), and the preamble 
discussion in the Federal Register (70 FR 39104) concerning Appendix Y. 
Appendix Y indicates that NO<INF>X</INF> control costs more than $1,500 
per ton are not cost effective for BART purposes.
    Is EPA no longer relying on Appendix Y presumptive limits, despite 
being part of the BART guidance relied on by States and companies? If 
so, what is the justification for this disregard for Appendix Y?
    Answer. EPA is still using its guidance on presumptive limits. 
Appendix Y does not indicate that NO<INF>X</INF> control costs more 
than $1,500 per ton are not cost effective for BART. In Appendix Y, EPA 
states that most sources can meet the presumptive limits for less than 
$1,500 per ton, but the guidelines do not establish that value as a 
threshold for cost effectiveness. States must conduct a proper 
evaluation of the five statutory factors, as required by 40 CFR 
51.308(e)(1)(ii)(A) and section 169A(g) of the CAA, before determining 
whether the presumptive emission limits are the ``best available 
retrofit controls'' for affected units. Because the five factors are 
evaluated separately and weighted accordingly, there are no ``bright 
line'' thresholds for cost effectiveness or visibility improvement.
    Question. When a State has determined that alternatives (Selective 
Non-Catalytic Reduction technology or combustion controls, such as Low 
NO<INF>X</INF> Burners) could achieve visibility improvements at much 
lower cost with visibility benefits that are on a reasonable path to 
the 2064 goal, what is EPA's legal justification for requiring 
different, more expensive retrofit controls and more stringent 
emissions limits?
    Answer. The overarching goal of section 169A of the CAA is for 
States to submit SIPs that ensure reasonable progress toward remedying 
visibility impairment in Class I areas. Each SIP must include the 
measures necessary to make reasonable progress, including BART limits 
(or alternatives that achieve greater reasonable progress than BART). 
Section 169A of the CAA defines the BART requirements as ``an emission 
limitation based on the degree of reduction achievable through the 
application of the best system of continuous emission reduction for 
each pollutant which is emitted'' by a BART eligible facility, and 
requires that States consider five factors when assessing a control 
determination for BART:
  --the costs of compliance;
  --the energy and nonair quality environmental impacts of compliance;
  --any existing pollution control technology in use at the source;
  --the remaining useful life of the source; and
  --the degree of improvement in visibility which may reasonably be 
        anticipated to result from the use of such technology.
    In considering these five factors, States must use technically 
sound approaches in estimating costs and visibility improvements. 
Assuming that a State does this, the BART requirement is satisfied by 
putting in place emission reduction measures that are reasonable in 
light of the costs and visibility benefits associated with a control 
technology, not by any presumed path between current conditions and 
natural conditions.
    Question. The EPA Air Pollution Control Cost Manual, Sixth Edition, 
was published in 2002 and has been used by EPA in estimating costs in 
its BART determinations.
    Given that it was published in 2002, is it out-of-date? What steps 
are being taken by EPA to update it?
    Answer. The current version of the Control Cost Manual is the sixth 
edition. Revisions of the Control Cost Manual usually include either 
publication of new chapters or substantial revisions to existing ones. 
Given the size of the Control Cost Manual (18 chapters) and the 
reliance by many parties on its contents, EPA limits completion and 
publication of new editions to avoid confusion on the State of the 
contents.
    The current version of the Control Cost Manual includes a well-
recognized control cost methodology that provides consistency for 
States and local agencies in reviewing cost estimates prepared for BART 
and other programs, and offers a foundation for the comparison of cost 
estimates prepared by different sources in different locales. This 
methodology is still well-recognized and valuable today. It should be 
noted that a major reason for EPA disapproval of cost estimates 
included in Regional Haze SIPs has been the failure to follow the 
methodology for cost estimation provided in the Control Cost Manual by 
either including items that are not part of this methodology or not 
including all cost items. EPA has no reason to believe that the 
methodology for cost estimation is out-of-date.
    Question. How does EPA, a State, or a company integrate current 
cost information for purposes of regional haze compliance planning with 
the methodology prescribed by EPA's 2002 cost manual?
    Answer. The Control Cost Manual has considerable cost and other 
information (design and installation, to name two) to serve as a basis 
for the preparation of BART analyses. However, we want to be clear that 
the Control Cost Manual is not the only source of cost information for 
a BART analysis. For instance, the reference to the Control Cost Manual 
in the BART Guidelines, which is an important basis for cost analyses 
to be done for Regional Haze SIPs, clearly recognizes the potential 
limitations of the Manual and the need to consider additional 
information sources.
    A source can use data supplied by an equipment vendor or firm (i.e. 
quotes, bids, or budget estimates) as cost information for a BART 
analysis. The basis for using these data should be clearly documented, 
either by the equipment vendor or firm or by a referenced source (e.g., 
the Control Cost Manual or other recognized source of cost 
information). Thus, where the Control Cost Manual's information is 
valuable and up to date for use in BART analyses, then it should be 
used; where additional equipment cost data is needed to overcome any 
limitations with the Control Cost Manual's data, such information 
should be clearly documented as previously expressed, and should be 
provided to support analyses using the Control Cost Manual's 
methodology.
    Question. Given that the Regional Haze program is a program to 
protect the aesthetics of national parks and national wilderness areas, 
and not human health, should the required visibility improvement be 
discernible?
    Answer. Failing to consider less-than-perceptible improvement in 
visibility impairment would ignore the CAA's intent to have BART 
requirements apply to sources that contribute to, as well as cause, 
such impairment (70 FR 39104; RH Regulations and Guidelines for Best 
Available Retrofit Technology (BART) Determinations, July 6, 2005). A 
perceptible visibility improvement is not a requirement of the BART 
determination as a visibility improvement that is not perceptible may 
still be determined to be significant. The importance of visibility 
impacts below the thresholds of perceptibility from each of a number of 
individual sources cannot be ignored given that regional haze is a 
problem that is produced by a multitude of sources and emissions that 
are distributed across a broad geographic area.
    Question. EPA has used CALPUFF Version 5.8 to conduct visibility 
modeling to analyze the impacts on visibility impairment from proposed 
NO<INF>X</INF> retrofit technologies.
    How does EPA respond to scholarly, peer-reviewed studies asserting 
that CALPUFF Version 5.8 overestimates visibility improvements?
    Answer. While the studies mentioned are stated to be peer-reviewed, 
they are largely papers included as part of general proceedings at 
conferences, as opposed to a formal peer review associated with 
submission to scientific journals. Therefore, we do not consider these 
references suitable for establishing the validity of a model or 
demonstrating that a model has undergone independent scientific peer 
review in accordance with EPA's Guideline on Air Quality Models 
(published as Appendix W to 40 CFR part 51). These guidelines, which 
oversee the EPA's approach to updating air quality models, require that 
studies supporting the air quality model's validity be appropriately 
peer-reviewed through publication in a professional journal, a panel 
review by subject experts, or other formal and well-documented process.
    That said, in promulgating the BART guidelines, the EPA made the 
decision to recommend the use of the CALPUFF model to estimate the 98th 
percentile visibility impairment rather than the highest daily impact 
value as proposed. This decision acknowledged that the regulatory 
version of the CALPUFF model could lead to modeled over predictions 
and, therefore, provide conservative (higher) results for peak 
impacts.\2\ The decision to use the 98th percentile rather than the 
highest daily value is EPA's adjustment to account for potential 
overestimates.
---------------------------------------------------------------------------
    \2\ ``Most important, the simplified chemistry in the model tends 
to magnify the actual visibility effects of that source. Because of 
these features and the uncertainties associated with the model, we 
believe it is appropriate to use the 98th percentile--a more robust 
approach that does not give undue weight to the extreme tail of the 
distribution.'' 70 FR 39104, 39121.
---------------------------------------------------------------------------
    Question. What does EPA need to do to update CALPUFF Version 5.8? 
Is this underway?
    Answer. In coordination with the Federal Land Mangers (FLMs), EPA 
is currently pursuing updates to the current regulatory version of 
CALPUFF (Version 5.8) to address known ``bugs'' and expects to complete 
these updates later this year. EPA and FLM representatives met with 
WEST Associates and the model developer, TRC, in February 2011 and 
discussed the current status of the regulatory version of CALPUFF and 
the updates implemented by TRC related to underlying model formulation 
and to account for atmospheric chemistry. The information provided to 
EPA at that meeting indicated that the planned updates account for new 
science related to complex chemistry reactions in the atmosphere. 
Because this is a regulatory application for which this model was never 
approved under Appendix W, these changes would necessitate a notice and 
comment rulemaking and not a simple update as previously done to 
address bug-fixes.
    At this time, EPA and the FLM representatives are planning to 
review all available models to determine their suitability for these 
analyses, including updated versions of the CALPUFF modeling system. 
After review of public comment from EPA's 10th Modeling Conference, EPA 
will provide more concrete plans on the process and plans for updating 
Appendix W to address chemistry for individual source impacts on ozone, 
secondary PM<INF>2.5</INF> and regional haze/visibility impairment.
    Question. Why is EPA not allowing the use of more recent versions 
of CALPUFF, such as Version 6.4?
    Answer. The newer version(s) of CALPUFF have not received the level 
of review required for use in a regulatory context. Based on EPA's 
review of the available evidence, the models have not been shown to be 
sufficiently documented, technically valid, and reliable for use in a 
BART decisionmaking process. Because of documented concern with the 
science updates in the new CALPUFF versions, which affect air quality 
related values, EPA has not approved these new versions of the CALPUFF 
model as a ``preferred'' model. The use of the regulatory version is 
approved for increment and NAAQS analysis of primary pollutants only. 
Currently, CALPUFF Versions 6.112 and 6.4 have not been approved by EPA 
for even this limited purpose.
    Under the BART guidelines, CALPUFF should be used as a screening 
tool and appropriate consultation with the reviewing authority is 
required to use CALPUFF in a BART determination as part of a SIP or 
FIP. Moreover, Appendix W does not identify a particular modeling 
system as ``preferred'' for modeling conducted in support of State 
implementation plans under 40 CFR 51.308(b) nor for supporting 
secondary particulate matter or visibility assessments. Under this 
general framework, EPA followed the general recommendation in Appendix 
Y to use CALPUFF as a screening technique only subject to Appendix W 
requirements, which include an approved protocol for using the current 
5.8 version.
    Furthermore, it should be noted, that the U.S. Forest Service 
(USFS) and EPA review of CALPUFF (Version 6.4) results for a limited 
set of BART applications clearly indicates that the lower results are 
driven by two input assumptions and not associated with the ``improved 
chemistry.'' Use of the ``full'' ammonia limiting method and finer 
horizontal grid resolution are the primary drivers in reducing modeled 
visibility impacts in CALPUFF (Version 6.4). These input assumptions 
have been previously reviewed by EPA and the FLMs and have been 
rejected based on lack of documentation, adequate peer-review, and 
technical justification and validation.
    Question. In its cost estimates, it appears that EPA is 
substituting the judgment of its experts, the National Park Service, 
and USFS for the cost judgments of the States, utilities and most 
notably expert engineering firms. For example, EPA's cost estimates are 
significantly lower than the cost estimates prepared by Black and 
Veatch, Sargent and Lundy, and Burns and McDonnell--each of whom is 
actively engaged in the business of designing and retrofitting 
Selective Catalytic Reductions (SCR) and other pollution control 
equipment on existing powerplants.
    What is the legal authority for EPA's lower cost estimates?
    What is the legal authority for rejecting cost estimates based on 
actual construction experience and market-supported bid documents?
    Answer. When reviewing State plans, EPA must consider all the cost 
information in the record. However, it would be arbitrary and 
capricious for EPA to accept submitted cost information without any 
analysis of its accuracy or consideration of significant issues raised 
in comments. It would also be arbitrary and capricious for EPA to 
simply reject cost estimation studies submitted by a State or source, 
and we have not done so to date. Where EPA has itself estimated the 
cost of control, this is because of specific flaws in the cost estimate 
submitted by a State, and both our finding that there were flaws and 
our own cost estimates have then been subject to public notice and 
comment.
    Question. How is EPA taking into account the impact of higher 
elevations present in the Western United States over those in the 
Eastern United States in its regional haze retrofit technology 
decisions, and what is the effect of higher elevations on the operation 
of SCRs?
    Answer. A retrofit SCR at high elevation could require a somewhat 
larger unit than what might be required at lower elevations. Any 
differences in costs necessary for larger units would be part of the 
factors considered in making the BART determination. For example, in 
the case of the San Juan Generating Station in New Mexico, which is at 
a particularly high altitude compared to other powerplants, we modified 
our original cost estimates to increase SCR costs in response to 
comments from the owners of the station on this particular point. Cost 
estimates submitted by other Western States, often prepared by the 
affected sources, have not always included an explicit cost adjustment 
for this possibility.
    Question. How is EPA taking into account retrofit challenges 
associated with congested site and equipment layouts of individual 
facilities in its cost estimates of SCRs?
    How is EPA taking into account the need for an affected utility 
company to move and relocate previously installed pollution control 
equipment in order to accommodate SCRs?
    Answer. Where the State has provided reasoned cost estimates of 
equipment staging and other operational or logistical concerns in 
installing retrofits, EPA adopts and approves the State's figures when 
evaluating a SIP for approval. In cases where EPA must estimate these 
costs independently, EPA relies on its engineering judgement and 
experience to make reasoned cost estimates. In some instances, EPA has 
conducted site visits and revised its estimates to accommodate spacing 
concerns and in another case, has invited public comment to better 
estimate costs and compliance timing concerns for a source that was 
faced with several SCR retrofits.
    Question. In computing the cost per ton of emission reductions 
expected to result from adding new controls on a unit, what is the 
legal justification for EPA lowering its cost effectiveness 
determinations by including reductions already achieved by emission 
controls that already exist on that unit?
    For example, if Low NO<INF>X</INF> Burners already exist on a unit, 
why does EPA assume that emission reductions resulting from those Low 
NO<INF>X</INF> Burners should instead be attributed to new SCR controls 
and thus result in lower dollars per ton removed amount for the SCR 
controls?
    Answer. These questions address the distinction between what is 
commonly referred to as average versus incremental cost effectiveness 
when evaluating the cost factor for the BART determination. Average 
cost effectiveness is the overall cost per ton of implementing a given 
control option compared to the control (if any) that is in place now or 
was in place as of some historical baseline date. Incremental cost 
effectiveness is the marginal cost per ton of implementing each 
succeeding and more stringent control option. Usually, incremental 
cost/ton will be higher than average cost/ton. The BART Guidelines 
recommend consideration of both types of cost effectiveness metrics 
when making a BART determination. It is a misperception that EPA 
considers only the average cost effectiveness when reviewing regional 
haze SIPs, i.e., that we give credit to SCR for emission reductions 
that could be achieved by Low NO<INF>X</INF> burners. The records of 
our actions on regional haze SIPs document that EPA has considered both 
metrics when reviewing whether a State has made a technically correct 
and reasoned BART determination, or when EPA makes a BART 
determination. When we use BART outcomes that have been decided in 
other States or for other sources in the same State as benchmarks for 
what costs are reasonable, we logically compare incremental cost/ton 
values to incremental cost/ton values, and average cost/ton values to 
average cost/ton values. EPA does not use a bright line test for either 
the average or the incremental cost/ton.
    Question. CAA requires reasonable progress toward the goal of 
reducing regional haze at national parks and wilderness areas for 2064.
    If EPA requires the most stringent pollution reduction equipment on 
nearby coal plants today, what steps will be left to take in the future 
to achieve this goal?
    Answer. In the regional haze rule, EPA recognized the relatively 
long time horizon necessary to achieve the aggressive statutory goal of 
the prevention of any future, and the remedying of any existing, 
impairment of visibility in Class I areas. CAA, however, neither 
requires States to achieve that goal by 2064 nor does it excuse States 
from adopting reasonable measures that would achieve the goal more 
quickly. EPA adopted an analytical requirement in the regional haze 
rule requiring States to consider the measures necessary to achieve the 
national goal by 2064. The adoption of this analytical requirement does 
not mean that States should delay the adoption of reasonable measures 
such that the national goal is not achieved until 2064.
    States must adopt, in their SIPs, the measures necessary to make 
reasonable progress, which is defined as the emission reduction 
measures that are reasonable to put in place in a given planning period 
in light of costs and visibility benefits, not by any presumed path 
between current conditions and natural conditions. Given the 
significant impact on visibility from many coal plants and the highly 
cost effective control measures, in many cases the installation of 
controls on coal plants is appropriate to ensuring reasonable progress. 
Even with such measures, much additional work will still be necessary 
in future planning periods to meet the national goal.

        INFORMATION TECHNOLOGY EQUIPMENT--EXECUTIVE ORDER 13514

    Question. Executive Order 13514 requires the Federal Government to 
purchase energy-efficient computer equipment that has been approved by 
Electronic Product Environmental Assessment Tool (EPEAT). EPEAT is a 
proprietary list owned by the Green Electronics Council (GEC), which 
certifies information technology equipment to the Institute of 
Electrical and Electronics Engineers (IEEE) 1680 standard. GEC charges 
six-figure fees to manufacturers to certify that their equipment is 
compliant with IEEE 1680 and eligible for government purchase. Other 
testing labs have indicated that they are capable of certifying 
products to IEEE 1680 at a much lower price.
    Is EPA taking any steps to allow for competition, which will reduce 
the prices that the Government pays for computer equipment?
    Answer. EPA is not responsible for the management of EPEAT or GEC, 
but EPA has a representative on the EPEAT Advisory Council who, in that 
capacity, has opportunities to provide suggestions to the GEC on ways 
to improve this green purchasing tool.
    Through its role on the EPEAT Advisory Council, EPA has 
communicated, and the GEC has recognized, the value of increasing 
competition for verification services under the EPEAT Program. In May 
2012, the GEC entered into a formal partnership with four third-party 
certification organizations to expand the breadth and depth of 
verification options available to manufacturers under the EPEAT 
program. These organizations--UL Environment, Intertek, VDE, and DEKRA 
SE--just took part in an extensive training GEC organized on the EPEAT 
system in preparation for their verification of products on the EPEAT 
Registry. For further information, please see http://www.epeat.net/pre-
network.
    By way of clarification, the GEC utilizes a sliding scale under 
which the annual fees that manufacturing companies pay for verification 
services are calibrated according to their sales volume. Thus, smaller 
firms with lower sales volume pay significantly less in annual fees 
than do firms with higher sales. For further information about fees, 
please see http://www.epeat.net/documents/subscriber-resources/epeat-
mse-1680.1-fee-schedule.2011-12.pdf.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven

                       FORT BERTHOLD RESERVATION

    Question. The Environmental Protection Agency's (EPA) Synthetic 
Minor Source rule has the potential to shut down oil and gas drilling 
on the Fort Berthold Reservation if a workable rule is not finalized by 
August 30, 2012. Will EPA have a rule finalized by August 30 to ensure 
the economic activity continues on the Fort Berthold Reservation? If a 
plan is not finalized by August 30, how will EPA provide a pathway to 
compliance for operators to ensure drilling will continue on the 
Reservation?
    Answer. In responding to the question, EPA assumes that the 
``Synthetic Minor Source rule'' refers to the Review of New Sources and 
Modifications in Indian Country Rule (also known as the Tribal Minor 
New Source Review Program) published July 1, 2011 (76 FR 38748). EPA 
does not believe there is the potential to shut down oil and gas 
drilling on the Fort Berthold Reservation. In fact, just the opposite 
is true. For projects in Indian country that exceed major source 
thresholds, EPA has now made ``synthetic minor'' permits available. 
This streamlined permitting mechanism has previously been available in 
States, but only became available in Indian country with the 
publication of the Tribal Minor New Source Review (NSR) Program. 
Without this streamlining mechanism, oil and gas drilling projects on 
Fort Berthold that exceed major source thresholds would be subject to 
permitting under the Prevention of Significant Deterioration (PSD) 
Program.
    Ten companies operating on the Fort Berthold Reservation are 
currently subject to consensual enforcement agreements for drilling 
operations that may have been conducted without first obtaining the 
appropriate permits. EPA is actively working with these companies to 
amend their agreements to allow construction of new wells during July 
and August of 2012 without first obtaining synthetic minor permits from 
EPA. This action will effectively protect the companies through the end 
of August 2012, when the agreements expire.
    We recognize that additional measures are necessary to maintain the 
continued pace of development of oil and gas resources on the Fort 
Berthold Reservation. To accomplish that goal, EPA, in consultation 
with the tribes and the Fort Berthold Reservation operators, is 
developing a targeted rule for the Fort Berthold Reservation that would 
provide enforceable controls on specific oil and gas production 
equipment. For the large majority of oil production sources, these 
controls are likely to be sufficient to limit emissions to below the 
major source PSD thresholds. EPA also proposed synthetic minor permits 
for several of these sources. These proposed permits and the comments 
received regarding them have informed the rule development.
    EPA has committed to develop the Tribal Minor NSR rule in a timely 
manner. Management in both the regional and headquarters offices fully 
support this effort and have already committed substantial technical 
and legal staff resources to the rule. To date, there have been no 
permit-related delays in the development of new oil wells on the 
Reservation. If Fort Berthold operators desire an added layer of 
insurance against operating delays or interruption of activities they 
are encouraged to file synthetic minor permit applications for 
equipment they intend to operate in the near term after August 30, 
2012. EPA does not believe this added insurance is necessary, but will 
process quickly any permits that it receives.

       PERMITTING GUIDANCE--DIESEL FUEL AND HYDRAULIC FRACTURING

    Question. May 4, 2012, EPA released draft permitting guidance for 
using diesel fuel in oil and gas hydraulic fracturing.
    How is EPA going to enforce this guidance with States that have 
primacy?
    Question. In a State with Underground Injection Control primacy, 
will EPA have the ability to over-file against a company that does not 
permit a well that uses diesel?
    Answer. EPA's draft permitting guidance for diesel fuels hydraulic 
fracturing was directed at EPA permit writers where EPA is the 
enforcement authority. As indicated in the draft guidance, it also sets 
forth EPA's best current interpretation of the existing statutory and 
regulatory requirements with respect to diesel fuels hydraulic 
fracturing, and, therefore, may be useful to States. States with 
primacy for the Class II Underground Injection Control program have 
some latitude in designing a permitting program for diesel fuels 
hydraulic fracturing. While in some cases the EPA may have the 
authority to bring an enforcement action in a primacy State, it is not 
the EPA's intention to assume the role of State primacy agencies.

       PERMITTING GUIDANCE--DIESEL FUEL AND HYDRAULIC FRACTURING

    Question. Please identify what is the source of dollars EPA is 
using to complete the study identified by the Congress in EPA's fiscal 
year 2010 budget?
    Answer. EPA is using the funds that the Congress appropriated 
through the Science and Technology (S&T) appropriation in fiscal years 
2010, 2011, and 2012 to continue to study the relationship between 
hydraulic fracturing and drinking water as specified in the 2010 Senate 
Appropriations Committee conference report.
    Question. Please identify the source of dollars the EPA is using 
for any other study of hydraulic fracturing the EPA is a party.
    Answer. Currently, we are not doing any hydraulic fracturing 
research outside of the fiscal year 2010 ``Plan to Study the Potential 
Impacts of Hydraulic Fracturing on Drinking Water Resources''. EPA will 
continue to use the drinking water research S&T appropriated funds to 
complete this study.
    Question. Please identify the source of funds for each individual 
study.
    Answer. The only hydraulic fracturing study EPA is conducting is 
the fiscal year 2010 congressionally requested, ``Plan to Study the 
Potential Impacts of Hydraulic Fracturing on Drinking Water 
Resources.'' All current hydraulic fracturing research falls under the 
purview of this study plan. EPA will continue to use the drinking water 
research S&T appropriated funds to complete this study.

                         CONCLUSION OF HEARINGS

    Senator Reed. If there are no further questions, I will 
conclude the hearing.
    [Whereupon, at 12:07 p.m., Wednesday, May 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

              Prepared Statement of Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies supporting fiscal year 2013 funding for the 
National Endowment for the Arts (NEA) at a level of $155 million, which 
aligns closely with President Obama's fiscal 2013 budget request.
    I would first like to thank Chairman Jack Reed and Ranking Member 
Lisa Murkowski for your efforts last year to appropriate $155 million 
to the National Endowment for the Arts. Your leadership helped to 
prevent a large cut that was being proposed in the House of 
Representatives. The arts community owes you and your colleagues a debt 
of gratitude for your public stance in support of NEA's critical 
Federal leveraging dollars. Those dollars help support creative sector 
jobs, improve community access to high quality artistic programming, 
spur innovation, and strengthen the country's nonprofit arts 
infrastructure. Thank you again for your support.
    I want to take this opportunity to describe an improving nonprofit 
arts landscape and the role NEA plays in that improvement. This is not 
to say there are no challenges. According to our new 2012 National Arts 
Index, nonprofit arts organizations are still struggling to maintain 
their bottom lines as Government and private-sector support for the 
arts decreases due to the economic downturn. Even as the country 
continues to move out of the worst of the recession, nonprofit arts 
organizations are not immune to the prevailing economic realities. 45 
percent of them ended the year with a deficit in 2009--an increase from 
36 percent in 2007. Our research shows that this closely mirrors the 
recession's impact on other types of nonprofit organizations.
    But upon closer inspection of the nonprofit arts, a resilient 
industry built upon a solid foundation for future growth is revealed. 
Despite the current harsh economic landscape, the creative sector has 
maintained its well-earned reputation as one of the country's premier 
economic drivers. I am pleased to say that the nonprofit arts are 
playing a true leadership role in restoring our economy. The arts are 
about jobs. The arts are about the revitalization of communities. NEA 
is the signature Federal resource that enables nonprofit arts 
organizations and institutions to leverage relatively modest Federal 
seed money and maximize their influence.
    You have heard me cite the numbers from our studies before, but 
they bear repeating. Especially as our elected officials are tasked 
with assessing what priorities to fund while the Nation struggles to 
balance its books and still provide essential services. Our Arts & 
Economic Prosperity III study shows that the nonprofit arts industry 
generates $166 billion in economic activity every year, supporting 5.7 
million jobs in the United States and generates nearly $30 billion in 
Government revenue.
    Since its creation in 1965, NEA has grown the arts and culture 
sector significantly. The year of its founding, there were fewer than 
7,000 nonprofit arts organizations; today there are 113,000. Five State 
arts agencies have blossomed to 50 and some 200 local arts agencies to 
5,000. NEA's one-to-one matching grant requirement has created a 
positive economic domino effect that promotes communities, businesses, 
and local government working in unison to deliver quality arts 
programming. And this creates jobs. Also since that time, the number of 
artists in the United States has grown from 560,000 to 2.2 million--now 
accounting for 1.5 percent of the total workforce.
    And that is just the nonprofit side of the ledger. Our analysis of 
Dun & Bradstreet data shows that there are an additional 800,000 for-
profit arts businesses such as film, design, and architecture firms 
with 3.3 million people on the payroll. Our 2012 Creative Industries 
study provides a research-based approach to understanding the scope and 
importance of the arts to the Nation's economy. Arts-centric businesses 
from nonprofit museums, symphonies, and theaters to for-profit film, 
architecture, and advertising companies represent 4.25 percent of all 
businesses and 2.15 percent of all employees nationwide.
    As of January 2012, Rhode Island is home to 3,248 arts-related 
businesses that employ 13,445 people. Alaska is home to 2,229 arts-
related businesses that employ 6,522 people. Nationally, there are 
904,581 businesses in the United States involved in the creation or 
distribution of the arts. Arts are the cornerstone of tourism. Arts 
travelers are ideal tourists--they stay longer and spend more. The U.S. 
Department of Commerce reports that the percentage of international 
travelers who include arts and culture events during their stay has 
increased annually for the last 6 years. The arts industry generates 
$150 billion annually in consumer spending domestically and the U.S. 
export of goods has increased to the point where is it running a $41 
billion trade surplus.
    As you can see, the arts are big business. NEA is helping lead the 
way for the nonprofit aspects of this business to continue aiding in 
our Nation's recovery.
    The creative community's rate of return to Federal and State 
coffers would be the envy of any industry. Whether it is through 
supporting State arts agencies, Blue Star Museums, Art Works grants, 
the tried and true Mayors Institute on City Design (MICD), or the 
innovative Our Town initiative, NEA is the Nation's most recognized 
partnership between the Government and culture and plays a crucial role 
in fostering a highly developed creative sector.
    NEA, under the leadership of Chairman Rocco Landesman, has fully 
grasped the challenges of its primary role of ensuring access to the 
arts to all Americans through their signature grants but also by 
providing a range of programming and research that addresses and 
measures changing audiences and artistic delivery. The cornerstone 
grant programs like Art Works, Challenge America Fast Track Grants, and 
Our Town continue to advance distinctive cultural art forms, promote 
artistic access across the country, and help revitalize communities.
    NEA continues to be pivotal for investments in local cultural 
programming. Chairman Landesman continues to build upon the proven 
successes of NEA grants models with inventive agency initiatives that 
recognize the changing landscape and their unique position to help 
strengthen communities through partnerships with local and State 
governments, the business sector, and the nonprofit arts.
    With these guiding principles in mind, the creative placemaking 
concept of Our Town was born. According to NEA, ``Communities across 
our Nation are engaging design and leveraging the arts to create 
livable, sustainable neighborhoods with enhanced quality of life, 
increased creative activity, distinct identities, a sense of place, and 
vibrant local economies that capitalize on existing local assets.'' A 
limited amount of grants ranging from $25,000 to $125,000 are made to 
improve quality of life, sustainability, and livability of communities 
with the arts as an anchor toward those goals.
    Artists, designers, community organizations, and Government 
agencies work to together to systematically ``Improve their quality of 
life; Encourage creative activity; Create community identity and a 
sense of place and Revitalize local economies.''
    I want to acknowledge the work that Chairman Landesman and the 
agency have done to address the ever-changing arts landscape. Today, 
audiences are absorbing and participating in the arts in many different 
ways. NEA is constantly evolving with the times while still ensuring 
quality arts programming reaches all our communities. We are excited 
that the administration has proposed doubling Our Town funding to $10 
million in grant funds.
    In conclusion, I respectfully request that the subcommittee fund 
NEA at $155 million, as you did last year. Recent decreases in funding 
have led to fewer grants and less leveraging support that impact jobs 
in every State. Recent efforts by the agency to streamline the grants 
process and trim administrative costs have led to incremental boosts 
for all grant categories across the board. It is my profound hope that 
the subcommittee can do even more for citizen participation in the arts 
by continuing to demonstrate leadership, believing in the nonprofit 
arts sector and by supporting NEA.
    The cultural community stands ready to assist you in supporting 
these fundamentally important programs and initiatives. Thank you for 
the honor of testifying before the subcommittee today.
                                 ______
                                 
                 Prepared Statement of American Forests

    Dear Mr. Chairman and members of the subcommittee: American Forests 
appreciates the opportunity to submit written public testimony 
regarding our fiscal year 2013 appropriation recommendations. We 
understand the economic realities facing the Nation and the need for 
fiscal responsibility, and we thank this subcommittee for its support 
of key Federal conservation programs in the fiscal year 2012 
Consolidated Appropriations Act. The return on investing in our 
Nation's forests is great, whether those forests are public or private, 
urban, or rural. The economic, social, and environmental benefits 
healthy forests provide are clear incentives for Federal investment. 
American Forests funding requests are generally consistent with the 
President's proposals, with the exception of an increase for Forest 
Health Management to $128 million.
    American Forests is a national nonprofit 501(c)(3) conservation 
organization that restores and protects urban and rural forests. 
Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the country. Throughout history, American 
Forests has served as a catalyst for many of the most important 
milestones in the conservation movement, including the founding of the 
United States Department of Agriculture (USDA) Forest Service (USFS), 
the national forest and national park system. Today, American Forests' 
primary objectives are:
  --ensuring healthy forests and expanding forest cover throughout the 
        United States;
  --restoring and protecting threatened forest ecosystems;
  --assuring that public and private forests are managed in ways that 
        give high priority to ecosystem services; and
  --assessing and managing threats such as climate change, invasive 
        species, insects and disease, wildfire, and conversion of land 
        to nonforest uses to limit their impacts on healthy forests.
    The economic benefits of our Nation's forests highlight the 
importance of American Forests' priorities. For example, combined 
spending on hunting, fishing, and wildlife watching associated with 
National Forest System lands totals $9.5 billion in annual retail 
sales, supports 189,400 jobs and provides $1.01 billion in annual 
Federal tax revenues.\1\ Protecting and restoring our forests will 
ensure economic and environmental viability for communities that rely 
on them for clean air, clean water, wildlife habitat, increased health 
and well-being, and recreational opportunities.
---------------------------------------------------------------------------
    \1\ Southwick Associates, ``The Economics Associated with Outdoor 
Recreation, Natural Resources Conservation and Historic Preservation in 
the United States'', October 10, 2011, p. 2.
---------------------------------------------------------------------------
Ensuring Healthy Forests and Expanding Cover
    USDA Secretary Vilsack's vision for an ``all-lands'' approach to 
managing forests at the landscape and watershed scale fits with 
American Forests' objectives of ensuring healthy forests in urban and 
rural settings whether privately owned or publicly managed. American 
Forests supports the following programs within the USDA to assist 
communities and private land owners with efforts to protect, restore, 
and sustainably manage their forests.
    United States Forest Service Urban and Community Forestry.--Urban 
forests are integral to any community striving to reinvest in itself, 
to encourage an active and healthy citizenry, and to create a more 
sustainable environment and economy through green infrastructure. 
American Forests works to better understand the environmental, social, 
and economic benefits of urban forests and to encourage greater 
investment in the protection and restoration of urban forests. We 
support the administration's request of $28.04 million. While this is a 
reduction from the fiscal year 2012 funding level, we believe that 
urban forestry activities will fare well in the new Landscape Scale 
Restoration Program which the agency proposes as a next step in its 
redesign effort for State and Private Forestry. We support funding the 
new Landscape Scale Restoration Program at $18 million and believe that 
it will provide opportunity for innovative urban forestry projects at a 
landscape or watershed scale.
    United States Forest Service Forest Legacy.--The Forest Legacy 
Program has become a key tool for USFS working in partnership with 
State governments and nonprofit conservation organizations to protect 
environmentally important private forests threatened by conversion to 
nonforest uses. American Forests supports the administration's request 
for an increase more than fiscal year 2012 enacted to $60 million.
    United States Department of Agriculture Natural Resources 
Conservation Service and United States Forest Service Farm Bill 
Conservation Programs.--The Natural Resources Conservation Service 
(NRCS) and USFS partner with private landowners, providing technical 
and financial assistance to help protect farm and ranch lands and 
private forestlands. USFS provides key assistance for management plans 
on private lands through the Forest Stewardship Program. The NRCS has 
the responsibility for implementing most of the landowner assistance 
programs in the conservation title of the 2008 farm bill. In fiscal 
year 2013, NRCS programs will support conservation practices on an 
additional 27 million acres at a total cost of approximately $3.9 
billion, and achieve a record total cumulative enrollment of nearly 329 
million acres in conservation programs such as the Conservation Reserve 
Program, Environmental Quality Incentives Program, Conservation 
Security Program, and the Wildlife Habitat Incentives Program. American 
Forests supports full funding for these conservation programs.
Restoring and Protecting Threatened Forests
    Specific forested landscapes need to be prioritized due to their 
level of degradation, ecological importance, or cultural significance. 
American Forests is encouraged by USFS's initiative to increase the 
pace of restoration of the national forests, to prioritize those most 
in peril, and to address restoration needs through an integrated 
landscape-level approach
    United States Forest Service Integrated Resource Restoration.--The 
consolidated budget line item for restoration with specific performance 
measures has the potential to increase the rate of restoration in a 
much more focused manner. This focus is evident in USFS's recent report 
``Increasing the Pace of Restoration and Job Creation on Our National 
Forests''. The 3-region test pilot created in fiscal year 2012 was an 
important first step to fully understand how this integrated effort 
would work. American Forests' supports the concept and believes that 
better outcomes and greater efficiencies can be achieved through more 
widespread use of the Integrated Resource Restoration (IRR), 
particularly in combination with the agency's new Watershed Condition 
Framework. USFS used this framework in 2011 and 2012 to complete its 
first national assessment of watershed health across the entire 
National Forest System, to identify priority watersheds and to prepare 
Watershed Restoration Action Plans. While there is currently no 
dedicated funding for this activity, the agency can make progress on 
implementing these plans through greater use of the IRR.
    United States Forest Service Collaborative Forest Landscape 
Restoration.--American Forests truly appreciates the full funding 
Collaborative Forest Landscape Restoration received in fiscal year 
2012. The addition of 10 more projects to the program will enhance the 
collaborative and science-based ecosystem restoration of priority 
forest landscapes while benefiting local communities. In the first 2 
years of the program, fiscal years 2010 and 2011, the cumulative 
outputs generated by the projects included:
  --228 million board feet of timber;
  --2,100 jobs created or maintained;
  --$80 million in labor income;
  --167,000 acres of hazardous fuels reduction to protect communities;
  --110,000 acres of fire-prone forest restoration; and
  --198 miles of road conditions improved to reduce sediment in 
        streams.
    American Forests supports the full funding of this program at $40 
million.
    United States Forest Service Federal Land Assistance, Management 
and Enhancement Wildfire Suppression Reserve Fund.--As part of a broad 
coalition supporting Federal Land Assistance, Management and 
Enhancement (FLAME), we believe it is critical to fund FLAME at $315 
million. The intent of FLAME was to eliminate the need to transfer 
funds from other USFS programs in order to fund emergency wildfire 
suppression--a practice that undermined the agency's ability to 
implement other critical programs. Failure to adequately fund FLAME 
this year could force the agency to revert to the old practice and have 
disastrous effects on those programs.
Prioritizing Ecosystem Services
    American Forests is dedicated to promoting all the ecological and 
societal benefits that forests provide us. Prioritizing protection of 
these forests that provide the ecosystem services saves municipalities 
money in wastewater treatment and stormwater management. They provide 
recreational opportunities and protect wildlife. The USFS is not the 
only steward of our Nation's forests, as the Department of the 
Interior's Bureau of Land Management (BLM), National Park Service, and 
Fish and Wildlife Service (FWS), as well as the Environmental 
Protection Agency (EPA) have numerous programs dedicated to the health 
and restoration of forested lands. American Forests encourages funding 
these programs at the administration's requested levels.
    Bureau of Land Management National Landscape Conservation System.--
The System comprises 27 million acres of protected public land managed 
to maintain and enhance conservation values and allow for multiple, 
sustainable uses. The System's goal is to conserve, protect, and 
restore these important landscapes for their outstanding cultural, 
ecological, and scientific values. Of the 59 million visitors to BLM 
lands in 2010, approximately 20 million visited these units and 
recreation activities on NLCS units created approximately 20,000 jobs. 
American Forests believes the administration's request for $69.55 
million is needed to prevent critical damage to these resources, ensure 
proper management and provide for quality visitor experiences.
    Fish and Wildlife Service National Wildlife Refuge System.--The 
Refuge System, with 556 refuges on more than 150 million acres across 
the country is vital to protecting America's wildlife and ensuring that 
these habitats are a priority. Visited by approximately 45 million 
people each year generating nearly $4 billion and more than 32,500 jobs 
to regional economies,\2\ investment in the Refuge system is 
imperative. While it is well documented that an annual operations and 
maintenance budget should total at least $900 million,\3\ American 
Forests supports the administration's request for $494.8 million, an 
$8.8 million increase more than fiscal year 2012 enacted.
---------------------------------------------------------------------------
    \2\ The Department of the Interior's Economic Contributions, 2011.
    \3\ Restoring America's Wildlife Refuges 2011: Assets for All 
Americans, Cooperative Alliance for Refuge Enhancement.
---------------------------------------------------------------------------
    Fish and Wildlife Service Endangered Species Program.--For nearly 
40 years, the Endangered Species Act (ESA) has helped prevent the 
extinction of our Nation's treasured wildlife and plant species, many 
of which thrive in forested habitat. While the ESA has made significant 
strides in protecting our most imperiled species--99 percent of species 
protected under the ESA have been rescued from extinction and 20 
species have been restored to the point of no longer needing 
protection--there are still major shortfalls. Numerous species in need 
of protection, including the whitebark pine, are precluded from the 
list due to lack of adequate resources. American Forests supports the 
administration's request for an additional $3.74 million more than 
fiscal year 2012 to a total of $179.69 million.
    National Park Service.--American Forests was instrumental nearly 
100 years ago in the creation of the national parks and continues to 
this day supporting the service that is the steward of the Nation's 
most cherished natural and cultural resources--397 park units, 23 
national scenic and historic trails, and 58 wild and scenic rivers. 
However, many of these forested parks are threatened by a series of 
stresses. Invasive species and uncontrolled outbreaks of pests have 
left these forested treasures vulnerable. American Forests is dedicated 
to restoring these parks, especially those in the intermountain west 
affected by the mountain pine bark beetle. As such, we support the 
administration's request for funding the National Park System at $2.986 
billion.
    Environmental Protection Agency Urban Waters Program.--No 
ecological boundaries separate urban, community, and rural forests--and 
all forests play vital roles in delivering clean water to communities 
of every size. EPA's Urban Waters Partnership brings together multiple 
Federal agencies (including USFS) to support stewardship and local 
restoration efforts to improve urban watersheds and accelerate water 
quality improvements by promoting green infrastructure, volunteer 
monitoring, and outreach to communities. American Forests supports the 
request of $4.7 million.
Managing Under a Multitude of Pressures
    With all that forests provide, we need to better understand the 
multitude of pressures they face and manage them in a sustainable 
manner. Forests can be managed in ways that mitigate the impacts of a 
changing climate, invasive species, insect infestation, disease, large 
wildfires, and conversion to nonforest uses.
    United States Forest Service Forest Health Management.--This 
program provides insect, disease, and invasive plant survey and 
monitoring information on forest health conditions on Federal and non-
Federal lands and provides technical and financial assistance to 
prevent, suppress, and control outbreaks threatening forest resources 
and watershed conditions. The number of acres affected by only the 
highest-priority pests is astronomical and the prevention and 
suppression needs are many. Since 1997, 41.7 million acres of conifer 
forests from the west coast to the Rocky Mountains have been affected 
by mountain pine bark beetles. From 2000-2009, bark beetle caused 
mortality over an estimated 21.7 million acres in the intermountain 
west. American Forests proposes funding this critical program at $128 
million in fiscal year 2013, a level higher than the administration's 
request. Our recommendation reflects the need to restore funding to a 
level more consistent with its funding prior to fiscal year 2012, when 
it was cut by $25 million.
    United States Forest Service Forest and Rangeland Research.--USFS 
research and development provides scientific information and new 
technologies to support sustainable management of the Nation's forests 
and rangelands. The priority research areas of forest disturbances, 
forest inventory and analysis, watershed management and restoration, 
urban natural resource stewardship, and localized needs are all 
integral to better understanding our forests. American Forests supports 
the USFS Forest and Rangeland Research at the administration's request 
for $292.79 million.
                                 ______
                                 
    Prepared Statement of the African Wildlife Foundation; American 
Veterinary Medical Association; Association of Zoos & Aquariums; Bonobo 
 Conservation Initiative; Born Free USA; The Dian Fossey Gorilla Fund 
      International; Fauna & Flora International; Humane Society 
 International; The Humane Society of the United States; International 
Crane Foundation; International Elephant Foundation; International Fund 
for Animal Welfare; the Jane Goodall Institute; The Nature Conservancy; 
 Ringling Bros. and Barnum & Bailey Center for Elephant Conservation; 
    Rare Species Fund; International Rhino Foundation; Safari Club 
 International; Sea Turtle Conservancy; Wildlife Conservation Society; 
                        and World Wildlife Fund

    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, the undersigned groups submit this testimony on the 
importance of the international conservation programs within the U.S. 
Fish and Wildlife Service (FWS) Office of International Affairs, 
specifically the Multinational Species Conservation Fund, the Wildlife 
Without Borders (WWB) and International Wildlife Trade programs. These 
programs enjoy the support of a broad-based coalition comprised of 33 
organizations representing sportsmen, conservationists, zoos, 
aquariums, circuses, veterinarians, animal welfare groups, and their 
more than 20 million members. We thank you for your past and consistent 
support for these programs. In fiscal year 2013, we respectfully 
request your support for continued funding of the Multinational Species 
Conservation Fund at the administration's requested level of $9.98 
million. We also request continued support for the Office of 
International Affairs at $13 million, as requested by the 
administration in the fiscal year 2013.
    Wildlife conservation programs are a modest, but essential piece of 
the United States' engagement with the developing world. Efforts to 
conserve our planet's wildlife and habitat are of the highest urgency. 
Extinctions are irreversible and increasing at an unprecedented rate. 
Because wildlife recognizes no political borders, an effective response 
requires nations to work together cooperatively, and because these 
animals often reside in relatively impoverished developing countries, 
support from interested countries such as the United States is crucial. 
The U.S. Government has been a consistent leader in this respect, and 
the modest funding for these programs goes a very long way, reaping 
significant returns and making them an excellent investment.

                MULTINATIONAL SPECIES CONSERVATION FUND

    Through the Multinational Species Conservation Fund (MSCF), the 
United States supplements the efforts of developing countries 
struggling to balance the needs of their human populations and endemic 
wildlife. These modest Federal programs, administered by the FWS, make 
targeted investments in conservation of several global priority 
species. In 1989, the Congress passed the African Elephant Conservation 
Act authorizing a dedicated fund in response to the threat posed to 
that species by rampant ivory poaching. Four more funds have since been 
authorized to support the conservation of Asian elephants, great apes, 
marine turtles, and tigers and rhinos. Each of the funds is authorized 
at $5 million, with the exception of the Rhino-Tiger Conservation Fund, 
which was intended as a double fund to address both sets of species, 
and is therefore authorized at $10 million. Appropriated funds for the 
programs have remained roughly 30 percent or less of the authorized 
level.
    MSCF programs have played a critical role in saving wild 
populations of these species by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat. They have generated 
enormous constituent interest and strong bipartisan support in the 
Congress. The MSCF has awarded more than 1,800 grants to more than 265 
organizations for conservation projects in more than 75 countries. 
These small grants consistently leverage between 2 to 3 times as much 
in matching funds from public and private partners. From 1990 to 2011, 
the Congress appropriated a total of $88 million for MSCF grant 
programs, which generated more than $200 million in matching and in-
kind contributions. Administrative costs for the program are low, and 
97 percent of the appropriated funds are distributed through grants. By 
conserving iconic species, these programs help sustain large areas of 
habitat home to a rich diversity of flora and fauna. By working with 
local communities and improving livelihoods, they build capacity and 
support for conservation in the developing world, contribute to 
economic growth and stability, and support U.S. interests in 
strategically important regions of the globe. Following are success 
stories for each of the five funds.
    Rhino-Tiger Conservation Fund.--In both Africa and Asia, rhinos are 
suffering a poaching crisis. Fewer than 50 Javan rhinos now remain in 
the wild in Indonesia, with none in captivity. Last year saw the 
extinction of rhinos in Vietnam when the last individual in that 
country was found killed by poachers. South Africa, which is home to 80 
percent of the planet's remaining black rhinos, is experiencing a 
shocking rise in rhino poaching driven by Asian demand for rhino horn, 
which is worth up to $30,000/lb on the black market. Earlier in the 
decade, perhaps a dozen animals were killed in South Africa annually. 
Since 2007, there has been an exponential increase. In 2011 a total of 
448 rhinos were killed--nearly four times as many as in 2009. Other 
African countries fear the poaching will spread to their rhino 
populations. Through the RTCF, FWS is working to respond. RTCF support 
to World Wildlife Fund (WWF) and local partners for anti-poaching, 
habitat restoration and rhino monitoring in Nepal helped to ensure that 
no rhinos were poached in that country in 2011. In Namibia, support for 
camel patrols have reduced illegal wildlife trade, providing security 
and regular monitoring of Namibia's black rhinos, which have rebounded 
to become the world's largest free-roaming population. This ongoing 
recovery is contributing to the exponential growth in local economic 
benefits for rural Namibians due to wildlife-based tourism, thanks in 
large part to U.S.-supported conservation efforts over the past two 
decades, including through the RTCF.
    As few as 3,200 wild tigers remain throughout all of Asia--down 
from 5,000-7,000 a decade ago. Tiger body parts continue to be in high 
demand on the global black market, including organs and bones, which 
are used in Asian tonics and medicines purchased by wealthy buyers 
believing they convey strength, virility or status. RTCF funding is 
supporting the creation and expansion of tiger reserves and protected 
areas in Malaysia, India and Thailand, anti-poaching and enforcement 
efforts in Sumatra, and research, monitoring and capacity building in 
countries such as Nepal, where WWF helped conduct the first ever 
nationwide assessment of tiger populations, distribution and prey base 
in 2009. Last July, the Government of Thailand arrested tiger poachers 
operating in the Western Forest Complex, one of the country's most 
important protected areas and a critical landscape for tigers and other 
wildlife. The arrest, which yielded an abundance of evidence about 
poaching activities in the region, was an achievement of the SMART 
patrol, a systematic, evidence-based adaptive management program 
designed to increase monitoring and enforcement. With RTCF support, 
Wildlife Conservation Society (WCS) is helping to train rangers in 
countries such as Thailand on SMART patrol methods. In November 2010, a 
Global Tiger Summit was held in St. Petersburg, Russia at which tiger 
range states and supportive countries, including the United States, 
pledged to ramp up coordinated efforts to save tigers, with a goal of 
doubling wild tiger populations by 2022. To address critical needs for 
both rhinos and tigers, we recommend at least $2.697 million for the 
RTCF in fiscal year 2013, the same as in the administration's fiscal 
year 2013 budget request.
    African Elephant Conservation Fund.--Despite much success in 
elephant conservation over the past two decades, ivory remains a 
lucrative commodity, and rising demand in China along with ongoing 
instability and porous borders in many areas of Central Africa provide 
opportunities for well-organized gangs of poachers to decimate that 
region's remaining elephant populations. This winter, heavily armed 
northern Sudanese and Chadian poachers crossed into Cameroon's Bouba 
N'Djida National Park and slaughtered an estimated 300-400 elephants--
more than one-half of the park's remaining population. The scale of the 
ongoing slaughter is unprecedented, and the cross-border incursion has 
prompted an intervention by the Cameroonian military to defend the 
country's sovereignty and save its remaining elephants, with lives lost 
on both sides. The poachers have suspected connections to the Jangaweed 
militia, and profits from illicit ivory sales are believed to help fund 
their purchases of guns and other armaments. The African Elephant 
Conservation Fund (AfECF) is supporting improved protected area 
enforcement in several African countries, including hiring and training 
of local ``ecoguards''. Ecoguards in Chad's Zakouma National Park 
prevented organized gangs from poaching one of the last and largest 
herds of elephants in the Sahel. In Cameroon's Campo Ma'an National 
Park, the AfECF supported a large-scale anti-poaching operation 
involving village and forest patrols, soldiers and game guards that 
flushed out four suspected poachers, including two notorious elephant 
poachers, and resulted in the seizure of 450 lbs of bushmeat. The AfECF 
is also helping address elephant-human conflict. In Malawi, it has 
helped to resolve a growing conflict between an elephant herd and local 
villagers that included human deaths and retaliation killings against 
elephants. AfECF support helped the Government of Malawi and the 
International Fund for Animal Welfare (IFAW) to move the herd--83 
elephants in all--to Majete Wildlife Reserve in Southern Malawi, 
protecting both the elephants and local livelihoods. We recommend at 
least $1.697 million for the AfECF in fiscal year 2013, the same as in 
the administration's fiscal year 2013 budget request.
    Asian Elephant Conservation Fund.--In Thailand, Asian Elephant 
Conservation Fund (AsECF) support has improved wildlife law 
enforcement, established a population monitoring system, and reduced 
conflicts between humans and elephants in Kaeng Krachan National Park 
by working with local communities to deter elephants from raiding 
crops. In Sumatra, it has also supported Flying Squads--teams of 
rangers equipped with noise and light-making devices and trained 
elephants that drive wild elephants back into the forest whenever they 
threaten to enter villages. The Squads have reduced losses suffered by 
local communities, prevented retaliatory killings and helped reduce 
elephant mortality in Riau by 27 percent in 2009 compared to the 
previous 4 years. The AsECF has also supported efforts of the 
International Elephant Fund (IEF) and partners to establish 
Conservation Response Units (CRUs) in Sumatra to mitigate human-
elephant conflict, reduce wildlife crime in elephant habitat through 
forest patrol and monitoring, and raise local conservation awareness. 
CRU teams have recorded more than 500 cases of illegal logging, and 190 
cases were reported to government law enforcement agencies, resulting 
in the closure of three illegal saw mills and seizure of more than 
300m\3\ of illegal timber, 26 vehicles, 17 chainsaws, and 2 industrial 
saws. More than 150 arrests have taken place and two dozen individuals 
have received prison sentences ranging from 4 months to 4.5 years. We 
recommend at least $1.697 million for the AsECF in fiscal year 2013, 
the same as in the administration's fiscal year 2013 budget request.
    Great Ape Conservation Fund.--In 2008, a Great Ape Conservation 
Fund (GACF)-supported survey discovered more than 125,000 western 
lowland gorillas in the Republic of Congo. The program is now 
supporting Ebola surveillance in that country, helping hire more than 
60 eco-guards and training 20 researchers in carcass sampling and 30 
field team leaders in health and biological sampling techniques. More 
than 900 hunters in 71 villages have participated in educational 
programs on Ebola to help prevent its spread. Two separate GACF grants 
are also supporting efforts in the Central African Republic to secure 
long-term protection of the country's gorillas, beef up trans-boundary 
anti-poaching patrols and create economic opportunities around 
sustainable gorilla tourism. MSCF grants made it possible for the Dian 
Fossey Gorilla Fund's Karisoke Research Center to continue protecting 
the mountain gorillas that live in the Virunga Volcanoes located on the 
border between Rwanda, the Democratic Republic of Congo (DRC) and 
Uganda. Karisoke staff follow daily almost one-fourth of the 480 
remaining Virunga mountain gorillas. A 2010 census found that this 
highly endangered subspecies has achieved a remarkable increase of 26 
percent since the previous count in 2003, with an astounding annual 
growth rate of 3.7 percent. This is the only great ape population to 
have increased in recent decades. The GACF has also supported programs 
in both Rwanda and the DRC to improve the health of communities near 
gorilla habitat by upgrading rural clinics, increasing access to clean 
water, reducing intestinal parasite infestations, and supporting small 
animal husbandry. This reduces the likelihood of people transmitting 
parasites and other diseases to the gorillas and reduces people's need 
to seek water and game in the forest. We recommend at least $2.194 
million for the GACF in fiscal year 2013, the same as in the 
administration's fiscal year 2013 budget request.
    Marine Turtle Conservation Fund.--Nicaragua's Pacific coast 
provides nesting beaches to four highly threatened species of marine 
turtles. The Marine Turtle Conservation Fund (MTCF ) has provided major 
support to the efforts of Fauna and Fauna International (FFI) to 
protect these turtles, especially hawksbill and leatherback 
populations. Before the FFI program began, nearly 100 percent of the 
area's turtle nests were being poached. As a result of beach monitoring 
and protection programs, construction of egg hatcheries and awareness 
efforts, between 80-100 percent of the nests are now successfully 
protected each year and hatching success is increasing annually. During 
the 2010-2011 nesting season, 90 leatherback nests were recorded and 73 
were protected, a 300-percent increase more than the previous season. 
MTCF support has helped achieve similar successes at nesting sites in 
Costa Rica (WWF) and Gabon (WCS). We recommend at least $1.697 million 
for the MTCF in fiscal year 2013, the same as in the administration's 
fiscal year 2013 budget request.

                    OFFICE OF INTERNATIONAL AFFAIRS

    Within the FWS Office of International Affairs, the Wildlife 
Without Borders (WWB) and International Wildlife Trade (IWT) programs 
provide critical support to the on-the-ground species conservation 
programs of the MSCF. The WWB Regional program supports species and 
habitat conservation in priority regions, including Africa, Latin 
America and the Caribbean, India, and Mexico, through capacity 
building, outreach, education, and training. This includes training 
African wildlife professionals to combat the bushmeat trade and working 
to bolster wildlife laws and increase enforcement capacity in African 
countries. The WWB Global program targets cross-cutting, global threats 
to wildlife; supports signature initiatives to maximize long-term 
impact; and addresses declines of critically endangered species, such 
as amphibians. It also fulfills FWS mandates to support U.S. leadership 
through wildlife statutes and international treaties, such as NAFTA, 
the Ramsar Convention on Wetlands of International Importance, and the 
Convention on International Trade in Endangered Species (CITES). From 
2006 to 2010, WWB programs awarded more than $14 million, leveraging 
nearly $25 million in matching funds for conservation actions, regional 
capacity building, wetlands and migratory species protection and 
efforts to combat disease and illegal trade. IWT works to prevent 
illegal trade in wildlife and wildlife products, calculated as the 
third-largest illegal trade after drugs and arms, worth more than $10 
billion annually with strong links to organized crime and the illegal 
trade in arms and drugs. Illegal wildlife trade also transmits disease 
and invasive species, negatively impacting public health and economic 
productivity in the United States, which is one of the largest 
importers and exporters of wildlife products. IWT ensures this trade is 
legal and does not harm species in the wild and implements scientific 
and management requirements of laws and treaties for traded species, 
issuing 15,000-20,000 permits per year. We recommend $13.054 million 
for the Office of International Affairs, as requested in the 
administration's fiscal year 2013 budget request.
    We hope you will consider the important issues these programs are 
working to address alongside their proven success, their modest cost 
and the broad-based support they enjoy. We urge the subcommittee to 
fund these programs at the levels outlined above. Thank you for your 
consideration.
                                 ______
                                 
        Prepared Statement of the Ala Kahakai Trail Association

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical, and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    The Ala Kahakai Trail Association is a partner to the Ala Kahakai 
National Historic Trail (NHT) and an active member of the Partnership 
for the National Trail System. The Board is made up of individuals who 
have genealogical ties to the trail and have been and continue to work 
toward the preservation and protection of the approximate 175 miles of 
coastal trail. Many portions of the trail are in immediate danger of 
encroaching development which would significantly compromise the 
integrity and historical value of the trial.
    An analogy one member of our Board used was to liken the national 
trails as the string holding a lei together. Without the string, the 
flowers would remain separate. However, by stringing the flowers 
together a beautiful lei is created. This is the same for the national 
parks. The trails serve as a string to link national parks together. In 
the case of the Ala Kahakai NHT, the trail links four national parks:
  --Puu Kohola National Historic Preservation (NHP);
  --Koloko-Honokahau NHP;
  --Pu`uhonua O Honaunau NHP; and
  --the Volcanoes NP.
    Portions of the Ala Kahakai NHT are already in eminent danger. In 
recent past, a new subdivision road was paved within feet of the trail 
leading to potential damage by vehicular traffic, all-terrain vehicles 
and unmonitored use of the fragile trail system. One preventative 
action is to acquire lands bordering the trail to secure protection 
against irreversible damage. The Ala Kahakai Trail Association is ever 
vigilant in seeking opportunities to acquire properties or to create 
wider buffers for the entire length of the trail. Our association has 
established partnerships with county, State and Federal agencies as 
well as with communities along the trail to fulfill this mission and to 
optimize efforts in protecting the trail.
    The Ala Kahakai Trail Association is writing in support for the 
acquisition in fiscal year 2013 by the National Park Service (NPS) of a 
59-acre property located on the Ala Kahakai NHT and immediately 
adjacent to the southern boundary of Pu`uhonua O Honaunau NHP. 
Acquisition of the Pace property in the Kauleoli ahupua`a of South 
Kona, with its more than half-mile of shoreline, will complement recent 
protection efforts at the national historic park and provide additional 
recreational opportunities for users of the Ala Kahakai Trail.
    The Kauleoli property represents an opportunity to protect land of 
historic and ecological significance, and its acquisition will further 
the missions of two National Park Service units. It lies within the 
priority area identified in the management plan of the trail, and its 
addition will provide further protection to the outstanding resources 
for which Pu`uhonua O Honaunau NHP is renowned. The landowners are 
currently willing to make this stunning landscape available for public 
ownership. There is real danger, however, that the land could be sold 
for development if sufficient funding is not forthcoming in a timely 
fashion.
    To protect these 59 acres with their historical, cultural, and 
ecological resources, the NPS needs $4.5 million from the LWCF for the 
Ala Kahakai NHT. This acquisition is eligible for funding under the 
National Trails program requested in the President's budget for fiscal 
year 2013.
    In closing, I urge you to provide funding for the LWCF of $450 
million, as proposed in the President's fiscal year 2013 budget, 
including critical funding for the Ala Kahakai NHT. I want to thank the 
chairman and the members of the subcommittee for this opportunity to 
submit testimony on behalf of this nationally important protection 
effort in Hawaii, and I appreciate your consideration of this funding 
request.
                                 ______
                                 
    Prepared Statement of the Alaska Native Tribal Health Consortium

    My name is Andy Teuber, I am the chairman and president of the 
Alaska Native Tribal Health Consortium (ANTHC). For the fiscal year 
2013 Indian Health Service (IHS) budget we are requesting full funding 
for contract support costs (CSC), currently estimated to be $571 
million for fiscal year 2013.
    ANTHC is a statewide tribal health organization that serves all 229 
tribes and more than 140,000 American Indian and Alaska Natives (AI/AN) 
in Alaska. ANTHC and Southcentral Foundation co-manage the Alaska 
Native Medical Center (ANMC), the tertiary care hospital for all AI/ANs 
in Alaska. ANTHC also carries out virtually all nonresidual Area Office 
functions of the IHS that were not already being carried out by tribal 
health programs as of 1997.

                FULL FUNDING FOR CONTRACT SUPPORT COSTS

    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    We are very thankful for the increases in CSC that this 
subcommittee has been able to provide, beginning with fiscal year 2010, 
particularly the large increase that tribes and tribal organizations 
received last year thanks to the efforts of this subcommittee. Although 
these increases have gone a long way toward helping to diminish the CSC 
shortfall, a significant CSC shortfall remains.
    The best projections available show that the CSC shortfall for 
fiscal year 2012 will be approximately $60 million, and that the 
shortfall in fiscal year 2013 will be nearly $99 million. Given these 
significant shortfalls, IHS's request for only a $5 million increase in 
CSC for fiscal year 2013 is extremely disappointing. Our disappointment 
is particularly acute when we consider that the BIA has requested full 
CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
more than $130 million. During that period, as our fixed costs 
increased every year, all major tribal health programs in Alaska were 
forced to lay off staff due to lack of funds.
    The opposite is also true: when CSC reimbursement increases occur, 
vacant positions are filled. If ANTHC had full funding of our CSC 
requirements, we would be able to fill scores of provider and support 
positions, including enrollment technicians, financial analysts, 
medical billing staff, professional recruiters, maintenance 
technicians, security officers, information technology support, and 
professional support staff.
    ANTHC respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing $571 million for IHS CSC reimbursements in 
fiscal year 2013.
    I appreciate your consideration of our recommendation for 
additional CSC funding to improve the level, quality and accessibility 
of desperately needed health services for AI/ANs whose healthcare 
status continues to lag far behind other populations in Alaska and in 
this Nation.
                                 ______
                                 
   Prepared Statement of the Aleutian Pribilof Islands Association; 
  Bristol Bay Area Health Corporation; Maniilaq Association; and the 
                    Norton Sound Health Corporation

    We submit this joint testimony on behalf of four co-signers to the 
Alaska Tribal Health Compact, which is a self-governance agreement with 
the Indian Health Service (IHS) under title V of the Indian Self-
Determination and Education Assistance Act. Our organizations are 
responsible for providing and promoting healthcare and overseeing a 
variety of health programs in our various regions of Alaska, including 
remote villages. Our request is that the Congress direct the IHS to 
utilize existing fiscal year 2013 appropriations to fully fund the 
Village Built Clinics leases in accordance with section 804 of the 
Indian Health Care Improvement Act. We estimate an additional $6.6 
million more than current IHS resources should be allocated to Village 
Built Clinic (VBC) leases.
    We submit this testimony because we have great concern about the 
IHS's continued choice to underfund VBCs in Alaska. This IHS decision 
has jeopardized the provision of basic health services to Alaska 
Natives in their villages through the Community Health Aide Program 
(CHAP), because CHAP services are provided in the VBCs. The CHAP 
program is mandated by the Congress as the instrument for providing 
basic health services in remote Alaska Native villages. The Community 
Health Aides and Practitioners cannot function as medical, behavioral 
health and dental providers in the villages without well maintained and 
suitable clinic facilities with teleconferencing capability, which the 
IHS has the statutory duty to provide under the Indian Health Care 
Improvement Act (IHCIA).
    Rather than allocate sufficient resources for the VBCs, the IHS has 
shifted its statutory responsibilities onto the villages and tribal 
health corporations themselves, which do not have the financial 
resources to maintain and upgrade the clinics for use by the CHAPs. 
This has caused many of the VBCs, often the only healthcare facilities 
in rural Alaska communities, to be unsafe or closed; others are 
unsuitable for use by the CHAPs. This is a longstanding problem which 
has become worse as the years go by. In 2007, the Alaska Native Health 
Board prepared a White Paper entitled ``The Village Built Clinic 
Programs; Village Clinics in Crisis.'' That Paper described this 
problem in great detail. The ANHB estimated that $5.7 million was 
needed to maintain and improve the VBCs for use by the CHAPs. However, 
no additional funding was provided.
    The Village Built Clinic Lease Program.--VBCs are critical to 
maintaining health services for rural Alaska Natives. The IHS Community 
Health Aide Program was developed years ago to respond to disparities 
in healthcare access and to help facilitate improved health status in 
rural Alaska. CHAP now involves a network of health aides/practitioners 
who provide primary healthcare services and coordinate patient care 
through referral relationships with midlevel providers, physicians, and 
regional hospitals.
    The CHAP cannot operate in most of rural Alaska without clinics in 
which to provide the services. In the 1970s, the IHS established the 
VBC leasing program to provide funds for leasing health clinics from 
Alaska Native Villages for the provision of CHAP services. By 1972 the 
IHS was able to lease 142 clinics for a total cost of $842,000 
appropriated by the Congress, and by 1989 the funding for the VBC 
leasing program was approximately $3 million, which came through the 
IHS Hospitals and Clinics sub-activity of the IHS appropriation.
    Indian Health Service Is Legally Responsible to Fully Fund Village 
Built Clinic Leases.--IHS is required to keep the VBCs in good repair. 
Under the IHCIA amendments of the 1992 Congress required the IHS to 
``maintain'' the CHAP, and in the recent reauthorization of the Act, 
the Congress requires the IHS to ``develop and operate'' the CHAP for 
Alaska healthcare, health promotion, and disease prevention for Alaska 
Natives living in rural Alaska (25 U.S.C. 1616l(a)(2)). The act also 
requires the IHS to ensure that the VBCs are upgraded to establish a 
teleconferencing capability (25 U.S.C. 1616l(a)(3)). IHS cannot fulfill 
these statutory responsibilities without keeping the VBCs maintained 
and in good repair.
    The IHS has traditionally used ``full-service'' leases (presumably 
under the leasing authority in the Federal Property and Administrative 
Services Act of 1949) as the basis for shifting the cost of operation 
and maintenance of the VBCs to the villages. This was apparently done 
as an agency initiative. We have been unable to find any specific 
language added to the IHS appropriation statute for 1970 authorizing 
the VBC leasing program; nor do the appropriation committee reports for 
that year specifically mention adding funds for this purpose. The 
``full-service'' leases require the Villages to pay for heat, cleaning, 
utilities, maintenance, and replacement. But the rental amounts--which 
in most cases have not been raised since 1994--are woefully inadequate 
to cover all of these expenses. As a result, we (and other Alaska 
regional health organizations) are forced to subsidize the VBCs, 
draining resources that could otherwise be devoted to healthcare 
services.
    IHS has had direct leasing authority under the IHCIA, since it was 
originally enacted in 1976, to enter into leases that cover a full 
range of costs, such as rent, depreciation, and operation and 
maintenance expenses. Such authority also includes reconstruction or 
renovation by IHS of the leased property. This authority was part of 
the original IHCIA, Public Law 94-437, section 704. Now renumbered as 
section 804 of the act, 25 U.S.C. 1674, it authorizes the Secretary, 
``notwithstanding any other provision of law'' to enter into leases 
with Indian tribes for periods not in excess of 20 years. It provides 
that leased property may be ``reconstructed or renovated'' by the 
Secretary and that lease costs ``include rent, depreciation based on 
the useful life of the building, principal and interest paid or 
accrued, operation and maintenance expenses, and other expenses 
determined by regulation to be allowable.'' The House Report for the 
1976 legislation specifically mentions leasing village facilities in 
rural Alaska to help the IHS meet its responsibilities to provide 
health services in remote villages in Alaska.\1\
---------------------------------------------------------------------------
    \1\ H. Rept. 94-1026 (Apr. 9, 1976), 122-123, reprinted in 1976 
U.S.C.C.A.N. 2760-2761.
---------------------------------------------------------------------------
    Contrary to congressional intent, the IHS has continued to shift 
its responsibilities to the villages and to the Alaska Tribal Health 
Compact co-signers, without regard for the health of the people who 
need the VBCs for services. It has become impossible to keep up with 
the costs of operating and maintaining the VBCs, and thus continuing to 
provide needed CHAP services to rural Alaska Natives. In many 
situations, the CHAP has to be operated in unsafe facilities and, in 
some villages, the VBCs have to be closed and CHAP services suspended 
because of safety hazards to the employees and patients.
    In order to establish proper standards of care, compliance 
accreditation by the Joint Commission has been established as one of 
the terms included in the tribal health corporations annual funding 
agreements. Compliance with several of the Joint Commission's 
environments of care standards are simply not possible due to lack of 
funding made available by the IHS to maintain these facilities.
    Additionally, IHS's failure to maintain the VBCs and upgrade them 
directly hampers the ability of the co-signers to the Compact to meet 
the ``meaningful use'' standards set by the Centers for Medicare and 
Medicaid Services in order to be eligible for incentive payments for 
Electronic Health Records (EHR) technology. IHS should ensure that VBCs 
are brought up to the appropriate technological capability for the co-
signers to be able to qualify for needed incentive payments to 
implement EHR, which will improve patient health and is an important 
congressional initiative.
    Leases Are Underfunded and Indian Health Service Refuses To Use 
Available Appropriations.--The majority of VBC lease rentals have not 
increased since 1989 and the current funding is not sufficient to cover 
inflationary increases and, in particular, the cost of repair and 
renovation of the facilities needed to keep them in a safe condition. 
Funds in the IHS's hospitals and clinics subactivity allocated by IHS 
to the VBC leasing program increased very slowly over the years. For 
example, from 1997 to 2007, funding for the VBC system increased from 
$3,718,268 to $3,903,434, an increase of less than 5 percent over the 
entire 10-year period and well less than the actual costs to operate 
and maintain the VBCs in the same period. As a result, by the end of 
fiscal year 2006 the lease rentals paid to the villages covered only 55 
percent of the village-built clinics' operating costs.\2\ The 
shortfalls have only grown in the 6 years since then, as fuel costs 
(among others) have skyrocketed.
---------------------------------------------------------------------------
    \2\ See, Village Built Clinic Programs: Village Clinics in Crisis, 
Alaska Native Health Board, May 2007 at 9. Pay act increases during 
this period were not provided to the VBC leasing program. But even if 
they had been, the additional increase would be minimal and would have 
no material impact on the current shortfall for VBC operating costs. 
Id.
---------------------------------------------------------------------------
    While the IHS leases allow costs for rent, loan amortization, fuel 
for heat, electricity, water and waste disposal, janitorial services 
and supplies, insurance, and costs associated with minor maintenance, 
none of these allowable costs are currently covered by the existing VBC 
lease payments. In 2007, the operation and maintenance shortfall for 
the average VBC was $28,692 per year. Furthermore, major maintenance 
and improvement costs are not provided by the IHS.
    In the past, when this matter has been brought to the IHS's 
attention, IHS has responded that it provides for VBC leases all of the 
funding that the Congress has appropriated for the program. The IHS 
excludes clinics leased under the VBC lease program from maintenance 
and improvement funding because it asserts that the leases are full 
service leases and the leases do not include a reserve fund for 
building improvements and replacement. IHS has told co-signers to the 
Alaska Tribal Health Compact that they cannot use maintenance and 
improvement funding--provided to them under their self-governance 
agreements--for the VBCs. We just don't accept IHS's statements as 
legally correct, and the agency has provided no legal analysis to 
convince us otherwise.
    Based on our review, the amounts historically traceable to the VBC 
lease program are not capped by statute and are not the only funds 
available for that program. The Indian Health Facilities appropriation 
is a lump-sum appropriation that can be used for construction, repair, 
maintenance, improvement and equipment, and includes a subactivity for 
maintenance and improvement of IHS facilities. The VBCs are IHS 
facilities acquired by lease in lieu of construction and should thus be 
eligible for maintenance and improvement funding. The IHS also has the 
ability to access other IHS discretionary funds to fully fund its VBC 
responsibilities.
    We believe there is no question that the IHS has had sufficient 
funds in its unrestricted appropriations to fully fund the VBCs' needs. 
According to a report issued by the Alaska Native Health Board in 2007, 
the operation and maintenance shortfall for the average VBC was $28,692 
per year. The Board estimated that $5.8 million should have been added 
in fiscal year 2008 to the fiscal year 2007 VBC lease program base in 
order to sustain the program. More than 4 years have gone by since then 
and the funding crisis for the VBCs has continued to get worse. 
Assuming a modest inflationary rate of 3 percent since the Board's 
analysis in 2007, we estimate at least $6.6 million should be added in 
fiscal year 2013 to the VBC lease program base funding.
    We Need Your Help To Ensure That Indian Health Service Fully Funds 
Village Built Clinic Leases.--Despite repeated requests from the Alaska 
Tribal Health Compact Co-Signers, the IHS continues to fund VBC leases 
at less than 60 percent of costs, while adopting standards for VBC 
operation and maintenance and requiring evaluations and inspections 
without supplying maintenance and improvement or other funding to 
assure compliance. Our VBCs are falling apart, cannot keep pace with 
technological advances in health, and hamper our efforts to qualify for 
``meaningful use'' incentive payments to implement the Electronic 
Health Record in the VBCs. We thus request that the Appropriations 
Committee direct the IHS in the fiscal year 2013 appropriations to 
utilize existing, available appropriations to fully fund the VBC leases 
in accordance with section 804 of the IHCIA.
    The VBC program is a unique and critical component of the CHAP. 
Without VBCs that are suitable for their purposes, the CHAP cannot work 
as intended by the Congress and our people cannot get the healthcare 
they need. Please help ensure that the United States' trust 
responsibility to Alaska Native people for healthcare is fully 
realized. For more information, contact:
  --Aleutian Pribilof Islands Association: Carolyn Crowder, 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea898b988586938489aa8b9a838b83c485988d">[email&#160;protected]</a>;
  --Bristol Bay Area Health Corporation: Robert Clark, 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85f7e6e9e4f7eec5e7e7e4ede6abeaf7e2">[email&#160;protected]</a>;
  --Maniilaq Association: Ian Erlich <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="402925322c292328002d212e29292c21316e2f3227">[email&#160;protected]</a>; and/or
  --Norton Sound Health Corporation: Deven <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d888b9aab4b1b3b9aabca8b9aab4b1b3b9aa98bfb5b9b1b4f6bbb7b5f6">[email&#160;protected]</a>
                                 ______
                                 
       Prepared Statement of the American Association of Museums

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for inviting me to submit this testimony. My 
name is Ford Bell and I serve as president of the American Association 
of Museums (AAM). We urge your support for at least $154.3 million each 
for the National Endowment for the Arts (NEA) and the National 
Endowment for the Humanities (NEH)--the amounts requested in the 
President's fiscal year 2013 budget proposal. We also urge your support 
for Historic Preservation efforts funded by the subcommittee.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
Presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums.
    AAM is proud to work on behalf of the 17,500 museums that employ 
400,000 people, spend more than $2 billion annually on K-12 educational 
programming, receive more than 90 million visits each year from primary 
and secondary school students, and contribute more than $20 billion to 
local economies.
    Museums are essential in our communities for many reasons:
  --Museums are key education providers. Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, science, technology, 
        engineering, and mathematics education, youth training, job 
        preparedness, and teacher training.
  --Museums create jobs and support local economies. Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce, and local and international tourism. Museums pump 
        more than $20 billion into the American economy, creating many 
        jobs.
  --Museums address community challenges. Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum, some are 
        teaching English as a Second Language, and some are serving as 
        locations for supervised family visits through the family court 
        system.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations. Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more help in 
        digitizing collections.
    Support from the NEH, NEA, and the Historic Preservation Fund plays 
a critical role in helping museums provide all of these essential 
community services.
    NEH is an independent Federal agency created by the Congress in 
1965. Grants are awarded to nonprofit educational institutions--
including museums, colleges, universities, archives, and libraries--for 
educational programming and the care of collections. NEH provides 
annual grants to State humanities councils located in every State and 
U.S. territory. NEH supports museums as institutions of learning and 
exploration, and keepers of our cultural, historical, and scientific 
heritages.
    Due to the impact of the economic downturn, many institutions and 
nonprofits around the country, including museums, are struggling to 
maintain continued access to high-quality programming and educational 
opportunities in the humanities.
    In 2011, through Preservation & Access, one of NEH's national 
program divisions, more than 90 peer-reviewed, competitive grants 
totaling more than $4.1 million were awarded to museums, historical 
societies and historic sites for a variety of projects to preserve and 
provide access to our Nation's rich cultural heritage. Across all NEH 
divisions (including Preservation, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received more than 160 awards totaling $12.4 million in 2011.
    Demand for humanities project support, as demonstrated by NEH grant 
application rates, far exceeds available funding. In fiscal year 2009, 
NEH received 4,366 competitive grant applications representing more 
than $402 million in requested funds, but was only able to fund 16.9 
percent of these peer-reviewed project proposals.
    Here are just two examples of how NEH funding is used to support 
museums' work in your communities:
  --The Rhode Island Historical Society in Providence is using its 
        $300,000 fiscal year 2011 Sustaining Cultural Heritage 
        Collections grant to install a sustainable environmental 
        control system and make building improvements and security 
        upgrades to preserve collections documenting the history of 
        Rhode Island from pre-European contact to the present.
  --The Sheldon Museum and Cultural Center in Haines, Alaska, is using 
        its $6,000 fiscal year 2010 Preservation Assistant grant to 
        support a general preservation assessment and the purchase of 
        preservation supplies and environmental monitoring equipment. 
        The collection consists of 2,515 historical artifacts, 885 
        pieces of art, more than 6,000 photographs, 1,677 bound 
        volumes, and 1,296 archival items dealing with the history of 
        the Chilkat Valley and the town of Haines.
    NEA provides direct Federal funding to State arts agencies and to 
nonprofit arts institutions including museums. Its mission is to make 
art accessible to all and to provide leadership in arts education. 
Established in 1965, NEA brings great art to every congressional 
district. Its grants to museums help them exhibit, preserve, and 
interpret visual material through exhibitions, residencies, 
publications, commissions, public art works, conservation, 
documentation, and public programs. Grants are awarded for specific 
projects and require at least a one-to-one match from the recipient. 
Most recently, a partnership between the NEA and Blue Star Families has 
created the Blue Star Museums program, in which more than 1,500 museums 
of all types across the Nation provide free admission to military 
families from Memorial Day through Labor Day.
    In 2011, NEA made 148 awards to museums, totaling more than $6 
million. Many museums have reduced staff and budgets as a result of the 
recession, which has hit nonprofit arts particularly hard. Despite the 
economic downturn, attendance is up, causing increased pressure to 
serve more people with fewer staff and smaller budgets.
    Receiving a grant from the NEA confers prestige on supported 
projects, strengthening museums' ability to attract matching funds from 
other public and private funders. On average, each $1 awarded by the 
NEA leverages $7 from other sources. Forty percent of NEA's grant funds 
is distributed to State arts agencies for re-granting.
    Here are two examples of how NEA funding is used to support 
museums' work in your communities:
  --The Rhode Island School of Design (on behalf of Museum of Art) in 
        Providence is using its $20,000 fiscal year 2011 Access to 
        Artistic Excellence grant to support the exhibition ``Ahead of 
        the Curve: Richard Brown and Contemporary British Art'', with 
        accompanying catalogue and educational programs. The exhibition 
        will feature more than 100 paintings, sculptures, and drawings 
        by late 20th-century British artists such as David Hockney, 
        Anthony Caro, Bridget Riley, Fionna Banner, Yinka Shonibare, 
        Anish Kapoor, and Damian Hirst.
  --The Seward Association for the Advancement of Marine Science (aka 
        Alaska SeaLife Center) in Seward, Alaska is using its $39,000 
        fiscal year 2012 Art Works I grant to support an expedition and 
        planning of the exhibition, GYRE, that will engage artists and 
        scientists in the global problem of marine debris. In 
        partnership with the Anchorage Museum, a group of artists 
        including Pam Longobardi, Mark Dion, Alexis Rockman, Andrew 
        Hughes, and Sonya Kelliher-Combs will accompany a team of 
        scientists aboard the ship R/V Norseman in a research 
        expedition to expose artists to the impact of marine debris on 
        various ecosystems.

                         HISTORIC PRESERVATION

    In addition to the NEH and NEA, we urge you to fund important 
historic preservation programs under the subcommittee's jurisdiction 
providing at least $47 million for State Historic Preservation Offices 
and $9 million for Tribal Historic Preservation Offices. We also urge 
you to restore funding of $25 million for Save America's Treasures and 
$4.6 million for Preserve America, which have not been funded for the 
past 2 fiscal years.
    The 2005 Heritage Health Index of archives, libraries, historical 
societies, and museums concluded that immediate action is needed to 
prevent the loss of 190 million artifacts that are in need of 
conservation treatment.
  --59 percent have collections damaged by light.
  --56 percent have insufficient security to protect their collections.
  --80 percent do not have an emergency plan that includes collections.
  --71 percent need additional training and expertise for staff caring 
        for collections.
  --Only 13 percent have access to endowment funds for preservation.
    Historic preservation programs matter now more than ever--not only 
because they protect our national heritage, but because they serve as 
economic development engines and job creators in the thousands of 
communities they serve. For example, Save America's Treasures alone has 
been responsible for supporting more than 16,000 jobs since it was 
created just 10 years ago. A 2009 report to the Congress by the 
Advisory Council on Historic Preservation found that Preserve America 
is addressing many State, local, and regional heritage tourism needs 
with a relatively small Federal investment.
    Thank you once again for the opportunity to submit this testimony.
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy

    Dear Chairman Reed and Ranking Member Murkowski: American Bird 
Conservancy (ABC) is a 501(c)(3) national nonprofit organization 
dedicated to the conservation of wild native birds and their habitats 
throughout the Americas. Founded in 1994, ABC is the only U.S.-based 
group dedicated solely to overcoming the greatest threats facing native 
birds in the Western Hemisphere.
    As you know, America is blessed with a spectacular abundance and 
rich diversity of birds, with more than 800 species inhabiting the 
mainland, Hawaii, and surrounding oceans. Unfortunately, according to 
the U.S. Fish and Wildlife Service's 2009 State of the Birds report, 
many of our bird species are in decline and some are threatened with 
extinction making it more important now than ever to continue funding 
Federal programs like the Neotropical Migratory Bird Conservation Act 
(NMBCA) grants program, Joint Ventures (JV), and the North American 
Wetlands Conservation Act which have been proven and effective in 
maintaining healthy and abundant native bird populations.
    Funding Federal bird conservation programs not only provides 
ecological benefits, it makes good economic sense. Birds are also a 
very important economic driver. According to a report put together by 
the Federal Government, Americans spend about $36 billion in pursuit of 
birding activities every year. Approximately 1 in 5 Americans--48 
million people--engages in bird watching, and about 42 percent travel 
away from home to go birding. Birding activities also generate about 
$4.4 billion in Federal tax revenues. Birds also naturally provide 
billions of dollars' worth of pest control each year benefiting farmers 
and consumers alike.
    ABC's report, ``Saving Migratory Birds for Future Generations: The 
Success of the Neotropical Migratory Bird Conservation Act'' found that 
of our 341 species that are neotropical migrants--meaning birds that 
breed in the United States and Canada and winter in Latin America and 
the Caribbean--127 are in decline. Sixty of those species, including 29 
songbirds, are in severe decline having lost 45 percent or more of 
their population in the past 40 years. If these trends continue, future 
generations of Americans may never be able to see a bright blue 
Cerulean Warbler, Bell's Vireo, or Black-chinned Sparrow.
    This trend can be seen all throughout the country. Here in 
Washington, DC for example an annual census of birds in Rock Creek Park 
that started in the 1940s, found that the number of migratory songbirds 
breeding there has dropped by 70 percent during the past half century. 
Three species of warbler (Black-and-white, Hooded, and Kentucky) no 
longer breed there at all. The main reasons for these precipitous 
declines are well established and reported in the 2009 State of the 
Birds report: The largest source of bird mortality is due to habitat 
loss through conversion for human uses. Resource extraction and a 
growing human population have resulted in more development and land 
conversion for suburban sprawl so there are simply fewer and fewer 
large blocks of unbroken habitat for our native birds.
    The second major impact is from habitat degradation from 
ecologically harmful land uses, such as unsustainable forestry or 
destruction of grasslands to create farm land. Deforestation, 
especially in Latin America, is accelerating at an alarming rate, 
driven by the needs of the rapidly expanding human population, which 
has tripled from 1950-2000. Estimates of the percentage of remaining 
forests that are lost each year in the Neotropics are between 1-2 
percent.
Neotropical Migratory Bird Conservation Act
    To address these two problems--habitat loss and degradation, both 
of which are rapidly increasing south of our border--ABC respectfully 
suggests that the Congress act to help mitigate their impact by 
continuing to fund the NMBCA grants program at the highest level 
possible. As the subcommittee knows, the NMBCA supports partnership 
programs in the United States, Canada, Latin America, and the Caribbean 
to conserve migratory birds, especially on their wintering grounds 
where birds of nearly 350 species, including some of the most 
endangered birds in North America, spend their winters. Projects 
include activities that benefit bird populations such as habitat 
restoration, research and monitoring, law enforcement, and outreach and 
education.
    The NMBCA grants program has a proven track record of reversing 
habitat loss and advancing conservation strategies for the broad range 
of Neotropical birds that populate America and the Western Hemisphere. 
The public-private partnerships along with the international 
collaboration they provide are proving themselves to be integral to 
preserving vulnerable bird populations.
    Between 2002 and 2011, the program supported 367 projects, 
coordinated by partners in 48 U.S. States/territories and 35 countries. 
More than $39 million from NMBCA grants has leveraged more than $152 
million in matching funds and $7 million in nonmatching funds. Projects 
involving land conservation have affected about 2 million acres of bird 
habitat. While there are more than 100 worthy proposal received each 
year, the program is oversubscribed with funding only available to fund 
about 40 projects. From these numbers, it is clear that conservation 
that would benefit our migrant songbirds is not able to take place due 
to a lack of funding for this program. ABC strongly believes expanding 
this program is essential to achieving conservation goals critical to 
our environment and economy. Just as importantly, this Federal program 
is a good value for taxpayers, leveraging more than $4 in partner 
contributions for every $1 that we spend. ABC respectfully requests 
that NMBCA be funded at $4 million for fiscal year 2013.
Joint Ventures
    JVs also exemplify a highly successful, cost-effective approach to 
conservation. By applying science and bringing diverse constituents 
together, JVs across the United States have created a model for solving 
wildlife management problems and restoring habitats critical to 
conserving declining species. Nationally, JVs have protected, restored, 
or enhanced more than 18.5 million acres of important habitat for 
migratory bird species. There are currently 21 JVs in the United States 
that provide coordination for conservation planning and implementation 
of projects that benefit all migratory bird populations and other 
species.
    JVs have a long history of success in implementing bird 
conservation initiatives mandated by the Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies. For every $1 appropriated for JVs 
leveraged more than $35 in non-Federal partner funds. ABC respectfully 
requests that JVs be funded at $15 million for fiscal year 2013.
    ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging more than $4 and $30, respectively, in 
partner contributions for each one that the taxpayers spend.
North American Wetlands Conservation Act
    The North American Wetlands Conservation Act (NAWCA) has helped 
conserve wetlands in North America for more than 20 years by providing 
funding for conservation projects that benefit wetland-associated 
migratory birds in all 50 States, Canada, and Mexico. NAWCA has a 
proven track record of success. The program has received more than $1.1 
billion in grants for 2,067 projects that have leveraged approximately 
$3.2 billion in matching funds affecting 26.7 million acres. More than 
4,500 partners have fostered public and private sector cooperation for 
migratory bird conservation, flood control, erosion control, and water 
quality. For every $1 invested in the program, an average of $3.20 is 
raised to match the Federal share by non-Federal entities.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of wetland and upland habitat 
must occur across the continent if the goal is to protect the species. 
As a result ABC respectfully requests that NAWCA be funded at $39.5 
million for fiscal year 2013.
    America faces a serious challenge to reverse the decline of many of 
our bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, this 
decline signals a crisis that the Congress must act now to reverse it. 
If these reports tell us anything, it is that when we apply ourselves 
by investing in conservation, we can save imperiled wildlife, protect 
habitats, and solve the multiple threats at the root of this problem.
                                 ______
                                 
Prepared Statement of the American Bird Conservancy; American Forest & 
 Paper Association; Association of Fish & Wildlife Agencies; Audubon; 
  Bat Conservation International; Environmental Investigation Agency; 
  Fuller Park Community Development Corporation; Hardwood Federation; 
   Klamath Bird Observatory; The Nature Conservancy; North American 
 Banding Council; Point Reyes Bird Observatory; Sierra Club; Union of 
 Concerned Scientists; United Steelworkers; The University of Montana; 
Wildlife Conservation Society; Wild Salmon Center; World Wildlife Fund; 
          and The Xerces Society for Invertebrate Conservation

    The undersigned groups, representing a diverse coalition of timber 
and labor industry, conservation groups and academic institutions, 
thank Chairman Reed, Ranking Member Murkowski, and subcommittee members 
for their continued support for the U.S. Forest Service (USFS) Office 
of International Programs. The following testimony recognizes the 
valuable investments made by USFS in promoting U.S. leadership in 
international conservation and helping American interests, business and 
ecological, to remain protected from being undercut by illegal logging 
activities.
    While we understand the subcommittee's responsibility in finding 
the appropriate balance between conservation and navigating a difficult 
fiscal climate, it is important to note that the U.S. Forest Service 
International Programs (FSIP) provides tremendous economic value to the 
American public. Industry and congressional reports estimate that U.S. 
roundwood, sawnwood, and panel exports could increase by approximately 
$460 million each year if illegal logging was eliminated. FSIP works on 
behalf of the American people to level the playing field for the United 
States in international timber trade while protecting the United States 
from invasive species and recovering declining U.S. migratory species.
    We respectfully request the subcommittee support FSIP by 
maintaining fiscal year 2012 funding level for fiscal year 2013 at $8 
million. This would not only ensure the investments undertaken in 
fiscal year 2012 are maintained, but, more importantly, will ensure 
that FSIP remains an integral part of the U.S. forest policy and 
practice.
Reducing Illegal Logging and Leveling the Playing Field for 
        International Timber Trade
    One of most important contributions FSIP makes to the American 
economy is to level the playing field in international trade for U.S. 
timber producers. Illegal logging is a complex and multifaceted issue, 
affecting international trade, the long-term viability of forest 
ecosystems, land tenure, rural poverty, and governance. For the United 
States, it has detrimental impacts on the U.S. forest products industry 
and disrupts market access, resulting in huge losses in potential 
revenue for American producers.
    To combat illegal logging, FSIP dedicates roughly one-quarter of 
its budget toward a variety of measures to prevent illegal logging from 
many different angles:
  --by developing cutting-edge technologies that assist in determining 
        wood type and origin;
  --by organizing regional workshops overseas to exchange and transfer 
        knowledge;
  -- by supporting numerous global platforms and domestic policymaking 
        (such as the Lacey Act); and
  --by building global awareness of legality requirements and 
        technology.
    Moreover, with its breadth of expertise in forest management, FSIP 
is coordinating and implementing on-the-ground activities in several 
countries to monitor and manage forest ecosystems, support enforcement 
work and build strong bilateral programs in regions with serious 
illegal logging challenges, such as Peru, Brazil, Russia, and the Congo 
Basin. Some highlights include:
      Hand-Held Wood Identification Device and Wood Identification 
        Database.--With support from FSIP and the U.S. Department of 
        State, USFS scientists are developing a hand-held wood 
        identification device that port inspectors could use to quickly 
        determine whether timber shipments match species declarations. 
        The device also functions on smart phones equipped with 
        cameras. The application will allow the inspector to scan the 
        wood shipment and compare the image to those in libraries of 
        wood identification data.
      Innovations in DNA Testing.--Funded by FSIP, USFS is working with 
        New Mexico State University to support innovation in DNA 
        testing of wood samples. This will ultimately ensure that 
        declarations citing origin of wood species are accurate, 
        improving the abilities of U.S. enforcement agents to determine 
        legality under the Lacey Act and/or under the Convention on the 
        International Trade of Endangered Species of Flora and Fauna 
        (CITES).
      Other Technologies and Education.--USFS is also working on a 
        range of other wood science and technological efforts overseas 
        to enhance data management, timber tracking, and field 
        identification manuals as well as conducting field personnel 
        training on forest monitoring.
      Targeted Bilateral Assistance.--The FSIP's Peru Forest Sector 
        Initiative (PFSI) assists the Government of Peru in complying 
        with the obligations of the U.S.-Peru Trade Promotion Agreement 
        in partnership with the U.S. Agency for International 
        Development. The collaboration focuses on the development of an 
        information and control system for chain of custody for CITES-
        listed species, support for population studies for mahogany and 
        cedar, design of forest inventories, specialized expertise in 
        yield determination and methodology, development of skill in 
        forest and wildlife management including community and 
        indigenous forest management; organizational design and 
        training to regional governments; anti-corruption plans for the 
        forest sector; environmental investigation; and environmental 
        prosecution training.
Protecting the United States from Invasive Species
    Invasive forest pests inflict millions of dollars of damage to the 
U.S. economy every year. Researchers currently estimate there are at 
least 20 destructive forest pests likely to enter the United States in 
the coming decade. The threat of invasive species is often manipulated 
by countries and cited as a barrier to U.S. exports. Reducing the 
threat of invasive species will serve to boost the American economy 
while protecting domestic ecosystems. The USDA Forest Service 
identifies and uses bio-control agents for invasive forest pests as 
bio-control agents, which can be an effective and inexpensive method of 
suppressing devastating pests that wreak ecological and economic havoc 
on American forests. FSIP facilitates projects involving agency 
scientists and land managers with counterparts in those countries where 
the invasive species originate. Without international collaboration, 
pests already in the United States will not be controlled and there may 
be future introductions of economically damaging pests. Current 
international cooperation, to protect the U.S.'s forests occurs with 
many countries including China and Russia. FSIP has worked to address 
invasive species including Sudden Oak Death, Hemlock Woolly Adelgid, 
Mile-a-Minute Weed, Beech Bark Scale, European and Asian gypsy moths, 
and Emerald Ash Borer.
Recovering Migratory Species in Decline by Conserving Habitat
    FSIP invests heavily in protecting overseas habitat for endangered 
species listed on the U.S. Endangered Species Act. Millions of dollars 
invested into domestic habitat conservation for these species is wasted 
if the wintering habitat is not also conserved. For example, wild 
Pacific salmon migrate from the rivers of the West Coast of North 
America and Eastern Russia to the Pacific Ocean. FSIP works in Eastern 
Russia with partner organizations to improve watershed management for 
wild salmon stocks. Also in Russia, FSIP has invested in the recovery 
of the Korean pine-deciduous forests relied upon by prey species such 
as wild boar and deer that has resulted in a steady recovery of the 
Siberian tiger over the past decade.
    In conclusion, we appreciate the support of the Subcommittee and 
request maintaining fiscal year 2012 enacted levels of $8 million for 
the U.S. Forest Service Office of International Programs in fiscal year 
2013. Continued investment in international conservation will improve 
our economic security, while helping our domestic species to flourish 
and protecting our local ecological habitats from invasive species. It 
will also reaffirm our position as the preeminent conservation leader 
in the world.
                                 ______
                                 
 Prepared Statement of the American Fisheries Society; Association of 
  Fish & Wildlife Agencies; Association of Zoos & Aquariums; National 
 Audubon Society; Teddy Roosevelt Conservation Partnership; The Nature 
  Conservancy; The Wildlife Society; and Wildlife Management Institute

    Chairman Reed and Ranking Member Murkowski and members of the 
subcommittee, thank you for this opportunity to offer comments on the 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. On behalf of the 6,366 organizations and 
businesses representing millions of birders, hunters, anglers, boaters, 
hikers, conservation organizations and other outdoor enthusiasts, we 
encourage the subcommittee to provide at least $61.32 million for the 
State and Tribal Wildlife Grants program in fiscal year 2013. This is 
unchanged from the level funding enacted last year and is the same as 
the administration's fiscal year 2013 request. We also request that the 
non-Federal match requirement remain at 35 percent and that the 
proportion allocated for tribal and State competitive grants remain at 
approximately 7 and 9 percent, respectively, the same as fiscal year 
2012 enacted.
    Although the need is much greater, level funding would help 
maintain essential capacity to conserve the more than 12,000 species 
that States have identified as at-risk in their State Wildlife Action 
Plans. The State and Tribal Wildlife Grants program is the only Federal 
program with the singular purpose of preventing Federal endangered 
species listings. It is achieving success as highlighted in the State 
Wildlife Grants Success Stories Report which showed how partnerships in 
every State are conserving vulnerable fish and wildlife, including many 
that are candidates for Federal endangered species listing.
    Preventing new endangered species listings is a goal shared by 
conservationists, business, farmers, and ranchers and has broad 
bipartisan support. Through early and strategic action, we can be 
successful in preventing new endangered species listings and even 
recover species already on the list, such as the Lake Erie Water Snake, 
which was delisted in September 2011 because of State and Tribal 
Wildlife Grant investments. Adequate and consistent funding for the 
program is essential to fulfillment of the shared Federal-State 
responsibility for keeping our Nation's wildlife from becoming 
endangered. Now more than ever, we should be focusing limited resources 
on this kind of smart, effective investment in conservation.
    The State and Tribal Wildlife Grants program has been cut by one-
third since 2010. The reduction in funding is impacting States' and 
their partner's ability to restore habitat, protect land, incentivize 
private lands conservation, monitor species and habitats, and conduct 
research. Past cuts are slowing conservation work and further cuts may 
jeopardize the success of the program, leading to a higher probability 
for future endangered species listings. There is no other program that 
can take the place of the State and Tribal Wildlife Grants program.
    State Wildlife Action Plans, which guide spending of State-
apportioned funds, were developed collaboratively by leading 
scientists, conservationists, sportsmen, and private landowners and 
identified the most effective and practical means to prevent wildlife 
from becoming endangered. The Congress can demonstrate its commitment 
to these plans in every State and territory by providing the Federal 
share of support, leveraging millions in State and private matching 
funds. This investment in conservation helps support thousands of jobs 
and the $730 billion outdoor recreation industry.
    We ask the subcommittee to support the administration's request to 
maintain the required non-Federal match at 35 percent, the same level 
as fiscal year 2012 enacted. This level of match will help ensure 
program funds are efficiently put on the ground and will support those 
States still recovering from substantial budget cuts to their nongame 
programs the last several years. In addition, we ask the subcommittee 
to keep the proportion of funds for tribal and State competitive grants 
at roughly the same proportion, approximately 7 and 9 percent, 
respectively. Although we feel there is an appropriate role for 
competitive grants, particularly for regional and landscape projects, 
we don't feel growth in competitive grants should come at the expense 
of apportioned funding which is at or near its lowest level since 
inception of the program in 2000. Funding provided to States through 
apportionments is already accountable in the following ways:
  --Funding dispersed through apportionments: are directed by State 
        Wildlife Action Plans that were approved by the Director of the 
        U.S. Fish and Wildlife Service (FWS);
--must be subsequently reviewed and approved as grants to FWS; and
  --will adhere to an effectiveness measures framework that will be 
        incorporated into FWS's new Wildlife TRACS reporting and 
        tracking system beginning in October 2012.
    We understand and appreciate the fiscal constraints that face our 
Nation. However, the State and Tribal Wildlife Grants program is modest 
compared to the scope of work it funds (proactive conservation in all 
56 States, territories, and the District of Columbia) and the 
importance of that work (recovery of some of our Nation's most 
imperiled fish and wildlife). We appreciate the subcommittee's past 
support for the State and Tribal Wildlife Grants program and hope 
funding can be maintained in fiscal year 2013 at or more than the 
fiscal year 2012 level.
                                 ______
                                 
          Prepared Statement of the American Forest Foundation

    Investments in the U.S. Forest Service (USFS) Forest Stewardship 
Program and the USFS Forest Health Program on Cooperative Lands will 
help family forest owners get ahead of increasing threats from invasive 
pests and pathogens, wildfire, and development pressures. It is also 
critical that funding for USFS Forest Inventory and Analysis (FIA) 
Program and overall USFS research and development (R&D) is maintained, 
so these programs continue to provide the information and technical 
resources for landowners to make informed decisions about our forests. 
Investments in forestry programs will help strengthen rural 
communities, support rural jobs, and ensure that communities that rely 
on the clean water and air, wildlife habitat, and forest products from 
these forests, don't face additional costs for these services. 
Additionally, we urge continued support for the Environmental 
Protection Agency's (EPA) Office of Environmental Education, which 
invests in the future--our children--ensuring the next generation is 
well-prepared to manage our Nation's natural resources.
    Family forest owners are facing a ``perfect storm'' of threats. 
Wildfires, invasive species and other insects and diseases, pressures 
from development, shrinking forest products markets, and ownership 
changes make it harder than ever to keep America's forests healthy and 
productive. It is therefore essential we ensure these families have 
tools, technical information, and policy support to keep their forests 
as forests, for current and future generations.
    The American Forest Foundation (AFF) urges the subcommittee to 
maintain fiscal year 2012 funding for programs that support good forest 
stewardship on our Nation's 251 million acres of family owned forests 
and ensure the next generation is equipped to conserve and manage these 
forests--for the benefit of all Americans.
    Given the tight budget climate, we understand tough decisions must 
be made. However, we urge you to consider maintaining funding for the 
previously mentioned programs as a high priority, given the impact 
these programs have on rural families and communities, forest 
conservation, and the future of our country's forest resources.
    AFF is a nonprofit conservation organization that works on the 
ground through a variety of programs including the American Tree Farm 
System, representing 83,000 tree farmers who sustainably manage more 
than 26 million acres under rigorous standards. Our mission is to help 
these families be good stewards and keep their forests healthy for 
future generations. Because we know that conserving our forests also 
means enabling the next generation to manage and care for them, AFF is 
also home to the largest environmental education program, Project 
Learning Tree (PLT). Our network of coordinators in all 50 States 
helps train more than 30,000 teachers each year in peer-reviewed 
curricula, correlated to State standards. Since its inception, PLT has 
reached 75 million students, helping them learn how to think, not what 
to think, about complex environmental and natural resources issues.
    Families and individuals steward more of America's forests than the 
Federal Government or corporations. Families and individuals own 35 
percent of our Nation's forests.\1\ These private forests provide 
myriad public benefits--clean air, clean water, recreation, renewable 
resources that build our homes and communities, and good-paying rural 
jobs. Family forest owners invest their own time, resources, and energy 
into keeping their forests healthy and ensuring their children and 
grandchildren have the same opportunities. Sometimes families can do 
this on their own, but in many cases, these families need help, both 
technically and financially. In addition to the private, consulting 
forester workforce, every State has a network of reliable and trusted 
service foresters that help family forest owners make good forest 
management decisions. These boots-on-the-ground make all the 
difference.
---------------------------------------------------------------------------
    \1\ USDA, May 2008, Who Owns America's Forests?
---------------------------------------------------------------------------
    Take Steve and Janet Funk, for example. Steve and Janet are our 
2011 National Outstanding Tree Farmers of the Year from Idaho. When the 
couple first purchased their Tree Farm in the early 1970s, it was in a 
state of total disrepair. The stream banks were heavily eroded and the 
forested hillsides were overstocked and severely neglected. Knowing he 
needed professional guidance, Steve looked toward his State forestry 
agency, the Idaho Department of Lands, and local extension programs. 
Steve proceeded to work with these professionals to complete his first 
Forest Stewardship management plan, with the goal of restoring water 
quality, wildlife habitat, and the health and productivity of his 
forest.
    State service foresters were always available to help the Funks 
after a harvest, determine what species were best to plant, and 
determine the best management tactics for maximum productivity. 
Resources from the Forest Stewardship Program were instrumental in 
bringing the Funk's tree farm back to life.
    With the proposed cuts to the Forest Stewardship Program, fewer 
family forest owners will have access to State service foresters who 
help millions of America's forest owners keep America's private forests 
healthy. These foresters provide valuable technical advice as well as 
help forest owners write management plans to guide the future 
management of their land. We simply cannot have healthy forests without 
foresters.
    Steve and Janet Funk are just 2 forest landowners from a collection 
of more than 1,200 forest owners in 48 States who, in the last 4 weeks, 
signed a letter calling on the Congress to maintain support for the 
Forest Stewardship Program. These folks can't imagine how they would 
continue sustainably managing our Nation's forests without the 
assistance of our network of State foresters.
    In addition to active landowners like the Funks, there is a large 
portion of family forest owners, estimates suggest close to 95 percent, 
that aren't actively engaged in the management of their lands.\2\ We 
know from the latest trends in forest health and wildfire, that leaving 
nature to take its course is no longer a viable option. We must find 
ways to engage these landowners in active management of their 
woodlands. The Forest Stewardship Program provides support for State 
agencies to reach these landowners and help them engage in management 
that will improve the health of their land.
---------------------------------------------------------------------------
    \2\ Brett J. Butler. 2010. Family Forest Owners of the United 
States, 2006: A Technical Document Supporting the Forest Service 2010 
RPA Assessment.
---------------------------------------------------------------------------
    Proper forest management is critical to ensuring the long-term 
sustainability of our Nation's forests. Every day forests across the 
country face threats from invasive pests and pathogens. Forests--58 
million acres--are at risk of being overtaken by insects, disease, and 
other invasive species, threatening to change the existing structure of 
our forest ecosystems. The implications of this forest loss on our 
Nation's clean water supply, wildlife habitat, recreation, renewable 
energy supply, and rural communities would be devastating.
    Pulling Examples From Across the Country.--Last year, the Asian-
longhorned beetle, which threatens 15 tree species from maples to 
birches, was found, for the first time, in southern Ohio.\3\ In 
California and Arizona, the goldspotted oak borer has already killed 
more than 80,000 live oak and black oak trees in less than 15 years.\4\ 
And in Minnesota, forest owners are gearing up for what would be a 
devastating attack of thousand cankers disease on their black walnut 
trees. These are just a few in a long list of invasive threats our 
forest owners face.
---------------------------------------------------------------------------
    \3\ USDA Agriculture Research Service. 2011. Behavior and Biology 
of the Asian Longhorned Beetle.
    \4\ Center for Invasive Species Research, University of California, 
Riverside. 2011. The Goldspotted Oak Borer.
---------------------------------------------------------------------------
    Efforts such as the USFS Forest Health Program, help landowners 
better understand the threats they face and the management techniques 
which mitigate harm. In the case of the emerald ash borer, the Forest 
Health Program created an integrated program strategy, dedicated to 
reducing the adverse impacts of this pest on Northeastern area forests. 
Similar efforts for other threats are a main focus of these programs, 
ensuring our Nation's forest landowners are equipped with the best 
knowledge to make the most informed management decisions.
    USFS's Forest Health Programs are critical tools in identifying, 
mitigating, and eliminating the impacts of invasive pests and 
pathogens. Without these programs, our Nation's forests, and the 
livelihoods that depend on them, would be left unprotected.
    Both of these programs, the Forest Stewardship Program and the 
Forest Health Program, must be grounded in sound science and sound 
forest information. That's where USFS's FIA Program and EPA's R&D come 
in. These programs provide irreplaceable data about our forests, the 
health and conditions, and give landowners the tools to know how to 
manage the growing threats they face. The R&D function is not only 
essential for providing forest management research, it is also on the 
leading edge of providing new information about the use of wood 
products through life-cycle assessments. With more information about 
the environmental and economic benefits of using wood products, 
especially in the growing green building market, decisionmakers can 
make informed building material choices. And we believe as the science 
shows, wood is one of the top materials when it comes to reducing 
greenhouse gas emissions and storing carbon, reducing energy 
consumption and pollution, and creating jobs. With more decisionmakers 
choosing wood, family forest owners have more demand for their products 
which helps ensure they have the resources to reinvest in keeping their 
lands healthy. We urge the subcommittee to support the Forest 
Stewardship and Forest Health programs and we continue to call on USFS 
to invest in life-cycle assessment research in particular.
    Steve, Janet, and our vast network of Tree Farmers also understand 
the importance of educating the next generation of Tree Farmers and 
natural resource managers. The Funks want to ensure that the next 
generation will take on the challenge of good stewardship and continue 
to conserve these lands. This is a growing concern, with 170 million 
acres of family forests expected to change hands in the next few 
decades as family forest owners increase in age.\5\
---------------------------------------------------------------------------
    \5\ Brett J. Butler. 2010. Family Forest Owners of the United 
States, 2006: A Technical Document Supporting the Forest Service 2010 
RPA Assessment.
---------------------------------------------------------------------------
    Steve and Janet, like so many tree farmers, do their part to 
educate local schoolchildren on the importance of proper forest 
management. In addition to hosting numerous school tours, every year, 
they coordinate with their State Project Learning Tree Coordinator to 
host more than 40 State teachers on their tree farm. These educators 
learn first-hand the many public benefits of healthy forests and the 
management necessary to protect these forest goods and services--
information that then goes back to the classroom, reaching hundreds 
more schoolchildren.
    Programs like EPA's Office of Environmental Education, authorized 
by the National Environmental Education Act, or USFS's Conservation 
Education Program, help support Project Learning Tree efforts and 
enable more Tree Farmers, like Steve and Janet, to reach even more 
kids. Without these program resources, fewer kids would understand the 
important connection of our country's well-being to the natural world. 
Educating the next generation is key to conserving and maintaining 
healthy forests for the long-run, and these education programs make it 
happen.
    To conclude, AFF recognizes the subcommittee must find areas to 
reduce spending. We simply ask the subcommittee to consider the impact 
these reductions may have on the country's more than 10 million family 
forest owners and every American who benefits daily from the benefits 
of well-managed, working forests. We urge the subcommittee to work to 
maintain funding levels for the USFS's Forest Stewardship Program, 
Forest Health Cooperative Lands Program, Forest Inventory and Analysis 
Program, Research and Development Program, Conservation Education 
Initiative, and EPA's Office of Environmental Education.
    I thank the subcommittee for giving me the opportunity to provide 
some insight on these programs and appreciate consideration of my 
testimony. I am more than happy to answer any questions on these 
programs and our Tree Farm network.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute

    Thank you for this opportunity to provide the American Geosciences 
Institute's (AGI) perspective on fiscal year 2013 appropriations for 
geoscience programs within the subcommittee's jurisdiction. AGI is a 
nonprofit federation of 50 geoscientific and professional associations 
that represents more than 250,000 geologists, geophysicists, and other 
Earth scientists who work in industry, academia, and government. 
Founded in 1948, AGI provides information services to geoscientists, 
serves as a voice of shared interests in our profession, plays a major 
role in strengthening geoscience education, and strives to increase 
public awareness of the vital role the geosciences play in society's 
use of resources, resilience to natural hazards, and the health of the 
environment. We ask the subcommittee to support and sustain the 
critical geoscience work in the United States Geological Survey (USGS), 
the National Park Service (NPS), and the Smithsonian Institution. 
Specifically we ask for $1.2 billion for USGS, $333 million for NPS's 
Resource Stewardship Program, and $857 million for the Smithsonian 
Institution.
    As the U.S. economy improves, the Nation must continue to focus on 
intersecting needs for energy resources, water resources, mineral 
resources, soil resources, and healthy ecosystems. To speed up the 
recovery of our economy and workforce, we need to sustain and 
efficiently use our natural resources and cost-effectively improve our 
quality of life and the quality of the environment, while reducing 
risks from natural hazards. USGS is the Nation's only natural resource 
science agency that can provide the objective data, observations, 
analyses, assessments, and scientific solutions to these intersecting 
critical needs.
U.S. Geological Survey
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from USGS products 
and services. A wide variety of industries rely on USGS for assessments 
and data to reduce their costs and risks and to help them develop their 
own products and services. As was made clear by the National Research 
Council report ``Future Roles and Opportunities for the U.S. Geological 
Survey'', the USGS's value to the Nation goes well beyond the 
Department of the Interior's stewardship mission for public lands.
    USGS addresses a wide range of important problems facing the 
Nation:
  --natural hazards;
  --environmental change;
  --water resources;
  --waste disposal; and
  --energy and mineral resources.
    AGI in ``Critical Needs for the Twenty First Century: The Role of 
the Geosciences'' lists seven critical and policy actions to help the 
Nation meet these needs through the geosciences, including the USGS 
(available online at www.agiweb.org/gap/criticalneeds/index.html). With 
a burgeoning human population, rising demand for natural resources and 
the rising costs of natural hazards, it is critical to more fully 
integrate USGS data and understanding into actions for a sustainable 
world. USGS plays a prominent role in meeting national needs, while 
growing the economy, building a skilled workforce and ensuring a 
natural resource-literate public.
    AGI strongly supports smart growth of about $98 million compared to 
the USGS fiscal year 2013 request for a total budget of $1.2 billion. 
Please avoid proposed cuts of $48 million and distribute an additional 
$50 million for energy, minerals, water, hazards, geospatial analyses, 
mapping, and data preservation. Enhancing infrastructure, observations, 
data, and understanding builds the workforce inside and outside of USGS 
and spurs economic growth through wise resource management.
    Mineral Resources Program.--The value of domestically processed 
mineral materials was about $633 billion in 2011. The USGS Mineral 
Resources Program (MRP) is the only entity, public or private, that 
provides an analysis and assessment of the raw materials and processed 
minerals accessible from domestic and global markets. This highly 
regarded research program is the Nation's premier credible source for 
regional, national, and global mineral resource and mineral 
environmental assessments, statistics and research critical for sound 
economic, mineral-supply, land-use and environmental analysis, planning 
and decisionmaking. Not only does the program track global commodities, 
it prepares assessments such as the recent report on rare earth element 
deposits in the United States.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other Federal, State and 
local government entities, foreign governments, private companies, and 
the general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land-use decisions posed by industry, government, and private land 
owners. We urge the subcommittee to support the Mineral Resources 
Program at a level of $54 million so that it may perform its core 
missions without a loss of critical information and jobs. This level is 
the same as the fiscal year 2010 and fiscal year 2005 levels and more 
than the fiscal year 2013 request of $45 million.
    Please avoid proposed cuts of $5.25 million in Mineral Resources to 
research related to minerals and human health, research on rare earth 
elements, analysis, and assessments of resources in Alaska and in other 
countries, jobs associated with this work and external funding for 
States and universities.
    AGI appreciates the consolidation of energy, minerals and 
environmental health, but we are concerned about two significant 
proposed cuts. Please avoid cuts of $1 million to the Energy Resources 
Program's State Cooperative Project for assessments of coal and oil 
shale resources. Please avoid cuts of $2 million to Toxic Substances 
Hydrology to reduce research on pharmaceuticals, pesticides, and other 
emerging contamination as well as environmentally robust approaches to 
uranium resource extraction and shale gas development.
    Water Program.--AGI is concerned with the decreased funding in the 
President's request for USGS's Water Resources Programs. The USGS is 
the Nation's premier Federal water science agency and knowledge about 
water quality and quantity is necessary for economic growth and to 
avoid catastrophes. Going forward for fiscal year 2013, AGI supports 
efficient budgets to sustain many critical water programs including 
National Streamflow Information, Ground Water Monitoring Network, the 
National Water Quality Assessment (NAWQA), Hydrologic Research and 
Development, Hydrologic Networks and Cooperative Water. We respectfully 
ask that water programs in the fiscal year 2013 request be restored to 
a total budget of $231 million, by removing proposed cuts to the 
Cooperative Water program (-$5 million in request), the Water Resources 
Research Act (-$6.5 million), the National Water Quality Assessment 
Program (-$6.5 million), and Hydrologic Networks and Analysis (-$3.7 
million).
    Please avoid proposed cuts to the Cooperative Water program to 
eliminate research and monitoring of local to State level water quality 
and availability or cuts to Water Resources Research which eliminates 
research grants to 54 institutes at universities. Please avoid proposed 
cuts to the National Water Quality Assessment Program for reductions in 
monitoring sites, well water sampling, and laboratory methods 
development for pharmaceuticals, pesticides, antibiotics, and other 
emerging contaminants in water systems or to the Hydrologic Networks 
and Analysis which eliminates real time and archived water resources 
data for all users.
    National Earthquake Hazards Reduction Program and Other Natural 
Hazards.--A key role for the USGS is providing the research, 
monitoring, and assessment that are critically needed to better prepare 
for and respond to natural hazards. The tragic earthquake/tsunami in 
Japan and the Indian Ocean, the massive earthquakes in New Zealand, 
Chile, Haiti, Pakistan, and Wenchuan, and the local earthquake in 
Mineral, Virginia remind us of the need for preparation, education, 
mitigation, and rapid response to natural hazards. Several National 
Academies' reports and studies by other hazard experts have shown that 
mitigation and preparation reduces fatalities, injuries, and economic 
losses. With great forethought, the Earthquake Hazards Reduction 
Authorization Act of 2000 (Public Law 106-503) called for modernization 
of existing seismic networks and for the development of the Advanced 
National Seismic System (ANSS)--a nationwide network of shaking 
measurement systems focused on urban areas. ANSS can provide real-time 
earthquake information to emergency responders as well as building and 
ground shaking data for engineers and scientists seeking to understand 
earthquake processes and mitigate damage.
    With 2,142 of 7,100 stations in operation at the end of fiscal year 
2011, the ANSS is far from achieving its goals. Critical investments 
now will help to reduce earthquake risks; help to create jobs and grow 
the economy by improving and modernizing seismic networks and the built 
environment; help support external earthquake research and education 
efforts; and help to support other major earthquake science 
initiatives, such as the EarthScope Observatories run by NSF. A major 
component of EarthScope is a seismic network that is moving across the 
country and is appropriately complemented and connected to ANSS. Given 
all of these factors, now is really the time to increase investments in 
USGS-National Earthquake Hazards Reduction Program (NEHRP) through the 
Earthquake Hazards Program. AGI strongly supports reauthorization of 
NEHRP in 2012 (H.R. 3479/S. 646), the passage of the Volcano Warning 
Act (S. 566) and appropriations to meet the goals of both measures in 
fiscal year 2013. AGI strongly supports robust appropriations of at 
least the request for the Earthquake Hazards Program ($58.9 million), 
the Volcano Hazards Program ($25 million) and Landslide Hazards Program 
($3.9 million).
    National Cooperative Geologic Mapping Program.--AGI is very 
grateful to the Congress for passing the re-authorization of the 
National Cooperative Geologic Mapping Program (NCGDP) in the 2009 
public lands omnibus (Public Law 111-11, section 11001). This important 
partnership between the USGS, State geological surveys, and 
universities provides the Nation with fundamental data for addressing 
natural hazard mitigation, water resource management, environmental 
remediation, land-use planning, and raw material resource development. 
AGI supports a modest increase of $1.5 million for the NCGDP for a 
total of $29.5 million in fiscal year 2013. This additional support 
would restore the Federal and State Partnerships to almost fiscal year 
2010 levels; still far less than authorized levels of $64 million.
    National Geological and Geophysical Data Preservation Program.--The 
data preservation program (Public Law 109-58, section 351) is 
administered by USGS in partnership with State geological surveys and 
other stakeholders. Private and public entities collect geologic and 
geophysical data in the form of paper records, digital files, and 
physical samples. Often these data and samples are given to State 
geological surveys either voluntarily or because of regulatory 
statutes. These data are worth far more than the cost of preserving 
them because they provide information about natural resources and 
natural hazards that are used by others for business or safety. The 
program generates more value in terms of economic development, 
environmental stewardship, hazard mitigation, and fulfilling regulatory 
requirements than it costs to run.
    The President's budget request for fiscal year 2013 places the 
National Geological and Geophysical Data Preservation and the 
Biological Information Management and Delivery Program within a single 
subactivity called science synthesis, analysis, and research. AGI 
supports an appropriation of $1 million, the same as the fiscal year 
2010 amount to sustain the program.
Smithsonian Institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to support Smithsonian research with steady 
funds that are a tiny fraction of the overall budget, but will 
dramatically improve the facilities and their benefit to the country. 
We strongly support the President's request of $856.8 million for the 
Smithsonian Institution in fiscal year 2013.
National Park Service
    The national parks are very important to the geoscience community 
and the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education, and outdoor activities. NPS's Geologic Resources 
Division was established in 1995 to provide park managers with geologic 
expertise. Working in conjunction with USGS and other partners, the 
division helps ensure that geoscientists are becoming part of an 
integrated approach to science-based resource management in parks. AGI 
supports the President's small increase ($333 million for NPS Resource 
Stewardship for fiscal year 2013) so the NPS can adequately address the 
treasured geologic resources in the National Parks, especially as the 
National Parks approach their 100th anniversary.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which compose the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2013 
appropriations recommendations for the 29 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act); the Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts. The Bureau of 
Indian Education administers these programs, save for the Institute of 
American Indian Arts, which is congressionally chartered and funded 
directly through the Department.
    In fiscal year 2013, TCUs seek $82,872,000 for institutional 
operations, an endowment program, and technical assistance grants under 
the Tribally Controlled Colleges and Universities Assistance Act of 
1978 or Tribal College Act; of which, $73.5 million for titles I and II 
grants (27 TCUs); $109,000 for title III (endowment grants), and 
$601,000 for technical assistance. In fiscal year 2011, the clear 
intent of the Congress was to level fund the institutional operating 
grants for the TCUs funded under titles I and II of the Tribal College 
Act, having appropriated the same funding level for the overall pot of 
funds available to support Tribal College Act programs. However, 
because of a spike in enrollments at the TCUs, the operations funding 
actually dropped by $549 per Indian student. TCUs are being penalized 
for their successful efforts to recruit and retain students. Our fiscal 
year 2013 request restores the funding for institutional operating 
grants to the fiscal year 2010 level based on the per Indian student 
allocation.
    AIHEC's membership also includes tribally controlled postsecondary 
career and technical institutions whose institutional operations 
funding is authorized under title V of the act; AIHEC supports their 
request for $9.372 million. There are three other TCUs funded under 
separate authorities within Interior, Environment, and Related Agencies 
appropriations, namely:
  --Haskell Indian Nations University;
  --Southwestern Indian Polytechnic Institute; and
  --the Institute of American Indian Arts.
    AIHEC supports their independent requests for support of the 
institutional operating budgets of these institutions.

                  NEED FOR CHANGE IN FUNDING STRATEGY

    Today there are 37 TCUs operating on 75 campuses in 15 States. 
These institutions, accredited by independent, regional accreditation 
agencies and like all institutions of higher education, must undergo 
stringent performance reviews on a periodic basis to retain their 
accreditation status, were begun specifically to serve the higher 
education needs of American Indians. Annually, these institutions serve 
students from more than 250 federally recognized tribes, more than 75 
percent of whom are eligible to receive Federal financial aid.
    A process should be articulated, beginning in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill, to 
compare and fund TCUs annually on a ``per Indian student'' basis, as 
authorized under the Tribally Controlled Colleges and Universities 
Assistance Act, rather than a lump sum. The current funding strategy 
fails to take into account annual growth in TCU student populations, so 
what might look like ``level'' funding year to year actually translates 
into annual funding decreases. TCU student enrollments are growing as 
TCUs work to help meet national education (completion) and 
accountability (retention) goals, but the overall funding pot is 
remaining nearly stagnant. In fiscal year 2011 alone, TCUs grew by more 
than 1,660 full-time Indian students. This growth, encouraged by the 
Federal Government, resulted in a loss of funding of $549/full-time 
Indian student, or $9.2 million, in just 1 year, compared to the TCUs' 
fiscal year 2010 funding level.
    The Congress put the student-based funding formula in law to help 
reflect the realities of operating small and geographically remote 
higher education institutions engaged in strengthening tribal 
communities and growing American Indians in postsecondary education. 
But over the years, appropriations have focused on the overall dollar 
amount, with no attention to how that impacts a TCU's actual operating 
budget when allocated per student. It is imperative that a student-
focused formula be employed when determining funding priorities.
    This is not simply a matter of appropriations fluctuating greatly 
and continually falling short of an authorization; it effectively 
impedes our institutions from having the necessary resources to grow 
their programs in response to the changing needs of their students and 
the communities they serve. Ultimately, the TCUs need to be fully 
funded at the authorized level of $8,000 per Indian student. To 
illustrate the reasonableness of this request, Howard University (HU), 
located in the District of Columbia, is the only other minority-serving 
institution, besides the TCUs, to receive basic institutional 
operations funding from the Federal Government. The similarity ends 
there as HU's Federal support (exclusive of its medical school) amounts 
to more than $19,000 per student. In contrast, the majority of the TCUs 
currently receives $5,235 per Indian student, with no Federal funding 
toward basic operations for the non-Indian students, which account for 
approximately 20 percent of TCU enrollments. HU needs this funding--no 
question. So do TCUs.

                         FURTHER JUSTIFICATIONS

    Tribal Colleges and Universities Provide Critical Access to Vital 
Postsecondary Education Opportunities.--Tribal Colleges and 
Universities provide access to higher education for American Indians 
and others living in some of the Nation's most rural and economically 
depressed areas. According to U.S. Census data,\1\ the annual per 
capita income of the U.S. population is $26,059. By contrast, the 
annual per capita income of American Indians is $15,671 or about 40 
percent less. In addition to serving their student populations, TCUs 
offer a variety of much needed community outreach programs.
---------------------------------------------------------------------------
    \1\ Source.--U.S. Census Bureau, 2010 American Community Survey.
---------------------------------------------------------------------------
    Tribal Colleges and Universities Are Producing a New Generation of 
Highly Trained American Indian Teachers, Tribal Government Leaders, 
Nurses, Engineers, Computer Programmers, and Other Much-Needed 
Professionals.--By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities. In contrast to the 
high rates of unemployment on reservations, graduates of TCUs are 
employed in ``high need'' occupational areas such as Head Start 
teachers, elementary and secondary school teachers, and nurses/
healthcare providers. Just as important, the vast majority of tribal 
college graduates remain in their tribal communities, applying their 
newly acquired skills and knowledge where they are most needed.
    Tribal Colleges and Universities Meet the Strict Standards of 
Mainstream Accreditation Boards Offering Top-Quality Academic Programs; 
Contributing to the Achievement of the National Graduation Goal, and 
Serving as Effective Bridges to 4-Year Institutions of Higher 
Learning.--A growing number of TCUs have attained a 10-year 
accreditation term, the longest term granted to any higher education 
institution. All TCUs offer associate degrees with 13 offering 
bachelor's and 2 conferring master's degrees, making TCUs a critical 
component in achieving the national goal to once again lead the world 
in the percentage of the population with college degrees by 2020. 
Additionally, TCUs' transfer function from 2-year to 4-year degree 
institutions is significant. An independent survey of TCU graduates 
conducted for the American Indian College Fund indicated that more than 
80 percent of respondents who attended a mainstream college prior to 
enrolling at a TCU did not finish the degree they were pursuing at the 
mainstream college. The rate of completion markedly improved for those 
who attended a TCU prior to beginning a degree program at a mainstream 
institution. After completing tribal college coursework, less than one-
half of respondents dropped out of mainstream colleges, and nearly 40 
percent went on to earn a bachelor's degree. This clearly illustrates 
TCUs' positive impact on the persistence of American Indian students in 
pursuit of baccalaureate degrees. The overwhelming majority of 
respondents felt that their TCU experience had prepared them well for 
further education and noted that it had a very positive influence on 
their personal and professional achievements.

                            ADDITIONAL FACTS

    Enrollment Gains and New Tribal Colleges and Universities.--
Compounding existing funding disparities is the fact that although the 
numbers of TCUs and students enrolled in them have dramatically 
increased since 1981, appropriations have increased at a 
disproportionately low rate. Since they were first funded, the number 
of tribal colleges has quadrupled and continues to grow; Indian student 
enrollments have risen more than 370 percent. Between fiscal year 2005 
and fiscal year 2012, five additional TCUs have become accredited and 
eligible for funding under title I of the Tribal College Act. TCUs are 
in many ways victims of their own successes. The growing number of 
tribally chartered colleges and universities being established and 
increasing enrollments have forced TCUs to slice an already inadequate 
annual funding pie into even smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on a local tax base 
for revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 60 percent.
    Federal Trust Responsibility.--The emergence of TCUs is a direct 
result of the special relationship between American Indian tribes and 
the Federal Government. TCUs are founded and chartered by their 
respective American Indian tribes, which hold a special legal 
relationship with the Federal Government, actualized by more than 400 
treaties, several Supreme Court decisions, prior congressional action, 
and the ceding of more than 1 billion acres of land to the Federal 
Government. Beyond the trust responsibility, the fact remains that TCUs 
are providing a public service that no other institutions of higher 
education are willing, or able, to provide by helping the Federal 
Government fulfill its responsibility to the American people, 
particularly in rural America. Despite the fact that only enrolled 
members of a federally recognized tribe or the biological child of a 
tribal member may be counted as Indian students when determining an 
institution's share of the operating funds, TCUs have open enrollment 
policies. Approximately 20 percent of TCU enrollments are non-Indians. 
These institutions are simply and effectively providing access to 
quality higher education opportunities to reservation community 
residents.
    Gaming and the Tribal Colleges and Universities.--Although several 
of the reservations served by TCUs do have gaming operations, these are 
not the mega casinos located in proximity to urban outlets and featured 
in the mainstream media. Only a handful of TCUs receive regular income 
from the chartering tribe's gaming revenue, and the amounts received 
vary greatly from year to year. Most reservation casinos are small 
businesses and use the gaming revenue to improve the local standard of 
living and potentially diversify into other, more sustainable areas of 
economic development. In the interim, where relevant, local TCUs offer 
courses in casino management and hospitality services to formally train 
tribal members to work in the local tribally run casinos.
    Although some form of gaming is legalized in 48 States, the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to public colleges or 
universities that are State-run.
    It has been implied that those tribes that operate the few 
enormously successful and widely publicized casinos should be financing 
higher education for all American Indians. However, no State is 
expected to share its gaming revenue with a nongaming State.
   president's budget and appropriations request for fiscal year 2012
    As noted earlier, it has been three decades since the Tribal 
College Act was first funded, and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. To fully 
fund the TCUs institutional operating grants would require an increase 
of $27 million more than the current funding level. However, we do 
recognize the budget constraints the Nation is currently facing and 
consequently, we are not requesting that level of increase in fiscal 
year 2013, but rather seek to restore funding to the fiscal year 2010 
level of $5,784 per Indian student, which calls for an increase of $ 
$6.1 million more than fiscal year 2012 and $3.7 million more than the 
President's fiscal year 2013 budget request. Additionally, we seek to 
maintain level funding for the technical assistance grants, as included 
in the President's fiscal year 2013 budget request. Details of the 
request are outlined in the Request Summary above.

                               CONCLUSION

    TCUs provide quality higher education to many thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment that has been made in TCUs has paid great 
dividends in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's TCUs and your serious consideration of our fiscal year 2013 
appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), and Environmental Protection Agency (EPA) for fiscal 
year 2013. AIBS encourages the Congress to provide the USGS with at 
least $1.2 billion in fiscal year 2013, with at least $177.9 million 
for the Ecosystems activity. We further request that the Congress 
provide the USFS Forest and Rangeland Research program with at least 
$295.3 million, and EPA's Office of Research and Development with at 
least $600 million.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. AIBS 
works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has nearly 160-member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.

                         U.S. GEOLOGICAL SURVEY

    USGS provides unbiased, independent research, data, and assessments 
that are needed by public and private sector decisionmakers. Data 
generated by the USGS save taxpayers money by reducing economic losses 
from natural disasters, allowing more effective management of water and 
natural resources, and providing essential geospatial information that 
is needed for commercial activity and natural resource management. The 
data collected by the USGS are not available from other sources and our 
Nation cannot afford to sacrifice this information.
    The ecosystems activity within USGS underpins the agency's other 
science mission areas by providing information needed for understanding 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use. USGS science is also used to control invasive 
species and wildlife diseases that can cause billions of dollars in 
economic losses. Collectively, the knowledge generated by these USGS 
programs is used by Federal and State natural resource managers to 
maintain healthy and diverse ecosystems while balancing the needs of 
public use.
    Other examples of successful USGS ecosystem initiatives include:
  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan fuel reduction projects.
  --Identification of white-nose syndrome, a fungus that is devastating 
        U.S. bat populations and could jeopardize the multi-billion 
        dollar pest control services provided by bats.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species.
  --Study of the impacts of solar energy and other next generation 
        energy sources on wildlife and endangered species.
    Through the Cooperative Research Units, the USGS and their partners 
address pressing issues facing natural resource managers at the local, 
State, and Federal levels. Examples of recent research initiatives 
include studying the effects of the Gulf of Mexico oil spill on 
wildlife and fisheries, and improving management of elk and waterfowl. 
In addition to providing research expertise, these partnerships at 40 
universities in 38 States serve as important training centers for 
America's next generation of scientists and resource managers. More 
than 500 graduate students each year receive training by USGS 
scientists at Cooperative Research Units. The program is also an 
efficient use of resources: each Federal dollar invested in the program 
is leveraged more than three-fold.
    The National Streamflow Information Program within the Water 
Resources mission area provides needed information for resource 
managers and scientists. Its national network of streamgages records 
changes in streamflow due to alterations in precipitation, land use, 
and water use. This information is vital to State and local 
governments, utilities, and resource managers who make decisions about 
water use.
    The requested fiscal year 2013 budget would support several science 
priorities. The proposed budget would enable the USGS to develop 
methodologies to better prevent, detect, and control Asian carp and 
other invasive species. USGS would also be able to provide enhanced 
surveillance and diagnostic tools, and to develop management tools for 
white-nose syndrome and other ecologically and economically costly 
wildlife diseases. Additionally, USGS would be able to study and better 
inform decisions about new energy sources. Importantly, the proposed 
budget would increase support for USGS research on high-priority 
conservation and land-use issues faced by other Interior bureaus, which 
lack intramural scientific resources to study these issues.
    Although the proposed budget supports many USGS priorities, the 
requested funding level would result in cuts to other programs that 
support agency core missions. For instance, USGS would have to diminish 
efforts to assess the Nation's water quality and reduce studies on the 
impacts of environmental contaminants. Given the agency's critical role 
in informing the environmental and economic health of the Nation, more 
support is justified. We urge the Congress to fully fund the USGS by 
restoring administration-proposed reductions to core science programs 
and operations costs while maintaining the proposed increases for other 
areas.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality and use, energy independence, and 
conservation of biological diversity. Biological science programs 
within the USGS gather long-term data not available from other sources. 
These data have contributed fundamentally to our understanding of the 
status and dynamics of biological populations and have improved our 
understanding of how ecosystems function, all of which is necessary for 
predicting the impacts of land management practices and other human 
activities on the natural environment. This array of research expertise 
not only serves the core missions of the Department of the Interior, 
but also contributes to management decisions made by other agencies and 
private sector organizations. USGS science is also cost-effective, as 
the agency's activities help to identify the most effective management 
actions. In short, increased investments in these important research 
activities will yield dividends.

                          U.S. FOREST SERVICE

    USFS research provides scientific information and new technologies 
to support sustainable management of the Nation's forests and 
rangelands. These products and services increase the basic biological 
and physical knowledge of the composition, structure, and function of 
forest, rangeland, and aquatic ecosystems.
    The fiscal year 2013 budget request would cut funding for the 
Forest and Rangeland Research by $2.5 million. If enacted, the budget 
would reduce the USFS's capacity to conduct research relevant to 
wildfires, control of invasive species, and management of wildlife and 
fish. Given the importance of this scientific work to the management of 
public and private lands, we urge the Congress to fund the program at 
the fiscal year 2012 enacted level.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Office of Research and Development (ORD) supports valuable 
extramural and intramural research that is used to identify and 
mitigate environmental problems facing our Nation. ORD research informs 
decisions made by public health and safety managers, natural resource 
managers, businesses, and other stakeholders concerned about air and 
water pollution, human health, and land management and restoration. In 
short, ORD provides the scientific basis upon which EPA monitoring and 
enforcement programs are built.
    Despite the important role played by ORD, its funding has declined 
by 11 percent since fiscal year 2004, when it peaked at $646.5 million. 
At $575.6 million, the budget request for fiscal year 2013 falls far 
short of addressing past and current shortfalls. We ask that the 
Congress restore funding for ORD to at least the fiscal year 2010 
level.
    The Ecosystem Services Research program within ORD is responsible 
for enhancing, protecting, and restoring ecosystem services, such as 
clean air and water, rich soil for crop production, pollination, and 
flood control. The program has been chronically underfunded, according 
to the EPA Science Advisory Board (SAB). Indeed, the current level of 
funding ``provides inadequate funding for research that supports 
multiple EPA regulatory programs and that the SAB has characterized as 
transdisciplinary with the `potential to be transformative for 
environmental decisionmaking' . . .'' according to an SAB analysis of 
the fiscal year 2012 budget request. The fiscal year 2013 request fails 
to correct this problem, instead proposing a reduction of $600,000. 
Moreover, funding for EPA ecosystem research has been cut nearly in 
half since 2004. We ask that the Congress address the chronic 
underfunding of the program.
    The Science to Achieve Results (STAR) program supports valuable 
research on human health and the environment through competitively 
awarded research grants. The program enables EPA to fill information 
gaps that are not addressed by intramural EPA research programs or by 
other agencies. A report by the National Academy of Sciences found that 
the ``STAR program is an important part of the overall EPA research 
program.'' That same report recommends that funding for the STAR 
program should be at 15 to 20 percent of the overall ORD budget, ``even 
in budget-constrained times.'' Despite a proposed increase for the 
program, the fiscal year 2013 request would fund STAR at less than 15 
percent of the overall ORD budget. We urge the Congress to fund STAR at 
the recommended level.
    The STAR Graduate Fellowship contributes to the training of the 
next generation of scientists by supporting graduate students pursuing 
an advanced degree in environmental science. The National Academy of 
Sciences called the fellowship ``a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering.'' Since its inception in 1995, this successful program has 
supported the education and training of 1,500 fellows who have gone on 
to pursue careers as scientists and educators. The agency's request 
would flat fund the program. Given the fellowship's valuable role in 
preparing environmental scientists and engineers, we ask for the 
program's funding to be increased accordingly.
    ORD's Safe and Sustainable Water Resources program supports 
research that underpins safe and sustainable water. In addition to 
helping to ensure safe drinking water for society, the program's 
research focuses on better understanding resiliency of watersheds to 
stressors and factors that affect watershed restoration. The budget 
request would allow the program to pursue research that will inform 
decisions about water safety and to ensure the sustainability of our 
coastal watersheds and estuaries.
    In conclusion, we urge the Congress to restore funding for the ORD 
to the fiscal year 2010 enacted level. These appropriation levels would 
allow ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
U.S. Environmental Protection Agency:
    Improving Air Quality and Addressing Climate Change:
        Federal Stationary Source Regulation...............         34.1
        Federal Support of Air Quality Management..........        134.8
        Climate Protection Programs........................        108.0
        Clean Air Allowance Trading Program................         20.8
        State and Local Air Quality Management Grants......        301.5
        Diesel Emission Reduction Act Grants...............         30.0
        Federal Vehicle and Fuels Certification............        101.9
    State Indoor Radon Grants..............................          8.0
    Indoor Air: including Radon Program....................          4.1
    Research: Air, Climate, and Energy.....................        105.8
    Enforcement............................................         15.8
------------------------------------------------------------------------

    The American Lung Association is pleased to support the 
Environmental Protection Agency's (EPA) program to improve the nation's 
air during fiscal year 2013. The American Lung Association was founded 
in 1904 to fight tuberculosis and today, our mission is to save lives 
by improving lung health and preventing lung disease. We urge the 
subcommittee to support ensuring that the U.S. Environmental Protection 
Agency has the necessary resources to protect the public health from 
air pollution, and we urge the subcommittee to pass an fiscal year 2013 
bill free from any policy riders.
    Protecting the public from the health threats of pollution is a 
core mission of the EPA, and it has a long history of success. 
Furthermore, the public expects EPA to implement the Clean Air Act and 
strongly supports EPA's effort to reduce air pollution. In March, we 
released a bipartisan public opinion poll that shows strong public 
support the EPA's efforts to update clean air protections. Nearly 
three-quarters (73 percent) of voters say that we do not have to choose 
between air quality and a strong economy--we can achieve both. And a 2-
to-1 majority (60 to 31 percent) believes that strengthening safeguards 
against pollution will create, not destroy, jobs by encouraging 
innovation.
    Implementing the Clean Air Act to protect health and save lives is 
a tremendous responsibility and the EPA workload is vast. In fiscal 
year 2013, we expect EPA to update health-based air quality standards; 
implement rules to clean up toxic pollution from major sources such as 
power plants; clean up toxic pollution from automobile tailpipes; 
aggressively enforce the law to ensure compliance and protect the 
public; support State and local air pollution cleanup; continue 
research on the health impacts of air pollution; improve air pollution 
monitoring; and ensure that the Clean Air Act is implemented in a way 
that protects the most vulnerable. As a Nation, we need EPA to be able 
to do all of these things. Below, we have highlighted key provisions of 
the President's fiscal year 2013 budget that deserve your attention 
and/or support.

          IMPROVING AIR QUALITY AND ADDRESSING CLIMATE CHANGE

    We support the President's budget increases to improve air quality 
and address climate change. Specifically, we support EPA's request for 
the Federal Stationary Source Regulation budget increase of $6.8 
million, including an additional $2.4 million to fund the review of 
existing Clean Air Act standards for criteria pollutants including 
ozone and particulate matter to ensure that the air pollution health 
standards effectively convey to local communities when the air is 
unhealthy to breathe, as required by law; as well as the requested $2 
million for the development of new source performance standards to 
reduce greenhouse gases. As EPA advances clean air protections, more 
coordination will be needed and we urge you to provide the resources to 
do so as requested.
    We also support EPA's request for an additional $8.5 million for 
Climate Protection Programs, including $2.9 million for the Greenhouse 
Gas Reporting Program, and the $2 million requested by EPA to develop 
Carbon Pollution Standards for Power Plants. Higher temperatures can 
enhance the conditions for ozone formation. Even with the steps that 
are in place to reduce ozone, evidence warns that changes in climate 
are likely to increase ozone levels in the future in large parts of the 
United States. It is clear that EPA is taking a careful and common 
sense approach to addressing climate change, including setting carbon 
pollution standards for power plants.
    The American Lung Association supports the increase requested by 
EPA to provide Federal Support for Air Quality Management of $11.9 
million (including $531,000 for science and technology needs) to assist 
States, tribal, and local air pollution agencies in the development and 
implementation of plans to meet standards established by EPA. People 
who live near major sources of pollution often face the greatest health 
risk. Through development of faster, electronic reporting, closing of 
data gaps, and continuing to develop the science necessary to reduce 
pollution to healthy levels, EPA supports States, tribes, and local 
agencies and directly benefits communities.
    The Clean Air Allowance Trading Program is responsible for 
development, implementation, and assessment, and provides regulatory 
and modeling support for efforts to address major regional and national 
air issues from stationary sources. Clean air allowance trading 
programs help implement the National Ambient Air Quality Standards 
(NAAQS) and reduce acid deposition, toxics deposition, and regional 
haze. Pollutants include sulfur dioxide (SO<INF>2</INF>), nitrogen 
oxides (NO<INF>X</INF>), and, as a co-benefit of SO<INF>2</INF> 
emission reductions, mercury. Please support a funding level of 
$792,000 (including $715,000 to meet science and technology needs) to 
implement this important program.
    Finally, we urge the Congress to provide at least the requested 
$101.9 million for the EPA Federal Vehicle Fuels Standards and 
Certifications Programs. It is critically important to increase the 
budget for EPA's Federal Vehicle Fuels Standards and Certifications 
Programs, particularly to improve the effectiveness of the 
certification and compliance testing programs in the face of increasing 
demand, more challenging oversight requirements, and the increasing 
diversity of technologies. Currently, EPA conducts very limited testing 
of small imported engines but a high fraction of these engines fail the 
test. Additional resources are needed to improve testing and compliance 
for this important program to protect public health.
    We strongly support EPA's planned work to update gasoline sulfur 
and tailpipe standards. Light duty cars and trucks remain a significant 
source of air pollution. This work is vital to address any adverse air 
quality impacts that may result from increased use of renewable fuels.

                        INDOOR AIR AND RADIATION

    Indoor air quality is a major concern for the American Lung 
Association, and we support the $17.8 million budget request for the 
Reducing Risks from Indoor Air Program to promote comprehensive asthma 
care that integrates management of environmental asthma triggers and 
healthcare services through community based programs, and we appreciate 
EPA's special attention to communities most at risk including children, 
low-income and minority populations.
    However, we strongly oppose the $1.9 million cut to the Indoor Air 
Radon Program (including $200,000 for science and technology needs) and 
the elimination of the $8 million State radon categorical grants 
proposed in the President's budget. Exposure to radon continues to be a 
significant risk to human health, and is the largest cause of lung 
cancer after tobacco.\1\ Without the guidance and funding support from 
EPA, State programs will simply not be able to protect the public from 
the threat of radon. Please fully restore these programs.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency. EPA's Assessment of Risks 
from Radon in Homes (2003).
---------------------------------------------------------------------------
    Please restore the Tools for Schools which has succeeded in 
improving environmental conditions and reducing asthma triggers in 
schools across the country. More schools need this help. Please fund 
this important program.

           SUPPORT FOR STATE AND LOCAL AIR POLLUTION CONTROL

    The American Lung Association strongly supports increased funding 
for State and local air pollution agencies, which are on the front 
lines in the effort to improve air quality across the Nation. These 
agencies will be called on to put in place the revised and new 
safeguards set under the Clean Air Act and must adopt and enforce a 
range of new emissions reduction programs--including the recently 
finalized Mercury and Air Toxics Standards for Power Plants that will 
save up to 11,000 lives per year when fully implemented. At this 
critical juncture, State and local air pollution agencies need more 
resources, not less, to ensure proper implementation of the Clean Air 
Act and protection of the public so we strongly support the requested 
additional $65.8 million for State and Local Air Quality Management 
Grants.
    However, we strongly oppose cuts in the President's budget to the 
widely supported Diesel Emission Reduction Act (DERA) program that was 
reauthorized in late 2010. Twenty million old diesel engines are in use 
today that pollute communities and threaten the public and workers. 
Immense opportunities remain to reduce diesel emissions and protect 
public health through the DERA program. Please restore funding to the 
$30 million level.
    As mentioned previously, we strongly oppose the elimination of the 
$8 million State radon categorical grants as proposed in the 
President's budget. Without the financial support from EPA, the State 
programs will not be able to protect the public from the pervasive 
threat of radon.

                   RESEARCH: AIR, CLIMATE, AND ENERGY

    The American Lung Association strongly supports EPA's Air, Climate 
and Energy Research Program. Research is essential to improve the 
understanding of the health effects of air pollution and determining 
what levels of pollution should be set to protect the public with an 
adequate margin of safety. Specifically, we urge the Congress to 
provide at least the additional $15 million requested in the 
President's fiscal year 2013 budget for improved air quality 
monitoring. Improving the Nation's air pollution monitoring network is 
absolutely critical in providing better information to enhance Federal, 
State and local knowledge and empower efforts to protect the health of 
their communities. Continued investment in other areas of research, 
especially in climate change and biofuels, is also vital to informing 
future agency action.

                              ENFORCEMENT

    The American Lung Association supports EPA's request for 
enforcement funding to ensure that air pollution standards and 
requirements are being met to protect public health. In order to 
effectively protect the public and promote justice for 
disproportionately impacted populations, EPA must have the ability to 
enforce penalties for permit violations and respond to civil 
enforcement actions authorized by the Clean Air Act. We ask the 
Congress to fully fund EPA's enforcement program appropriation request 
of $15.8 million, in the interests of the Nation's youngest, oldest, 
and most economically challenged citizens.

                               CONCLUSION

    For 40 years the Clean Air Act has charged EPA to protect the 
public from air pollution and fulfill the promise of air that is clean 
and healthy for all to breathe. We urge the subcommittee to ensure that 
EPA is meeting the required deadlines and updating standards to reflect 
the best science with the maximum health protection, and to pass and 
fiscal year 2013 bill free of any policy riders. Thank you for the 
opportunity to present the recommendations of the American Lung 
Association. Every day we are fighting for clean, healthy air for all 
Americans to breathe.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2013 appropriation for 
science and technology (S&T) programs at the Environmental Protection 
Agency (EPA). The ASM is the largest single life science organization 
in the world with more than 38,000 members.
    The administration's proposed fiscal year 2013 budget of $807.3 
million for EPA's S&T activities is $13.5 million; a 1.7-percent 
increase more than the fiscal year 2012 enacted level. This request is 
roughly 10 percent of the total EPA budget proposal, and it provides 
crucial resources for EPA's science based regulatory responsibilities. 
The S&T funding supports research and development (R&D) efforts, 
personnel costs, laboratory purchases, and other operating expenses, 
resources necessary to strengthen the science underlying EPA's 
environmental standards and their enforcement.
    The fiscal year 2013 EPA budget provides critical resources for the 
Agency's current strategic plan, which identifies five goals to guide 
EPA research, education, regulatory, compliance, and enforcement 
functions during fiscal year 2011-2015:
    Goal 1: Taking Action on Climate Change and Improving Air Quality
    Goal 2: Protecting America's Waters
    Goal 3: Cleaning Up Communities and Advancing Sustainable 
        Development
    Goal 4: Ensuring the Safety of Chemicals and Preventing Pollution
    Goal 5: Enforcing Environmental Laws
    EPA has developed five cross-cutting strategies to help achieve the 
Strategic Plan's goals, one of which is ``advancing science, research, 
and technological innovation.'' EPA's strategic successes depend upon 
best practice science capabilities enabled by adequate S&T funding. EPA 
research programs contribute new knowledge to regulatory science; 
analyze environmental samples; provide technical support to Federal, 
State, and local labs; monitor regulated pollutants; check compliance 
and enforce Federal regulations; and respond to emergencies.
    In the past year, EPA monitored United States air quality following 
Japan's nuclear disaster, awarded grants to universities and health 
departments to develop new controls for bed bug infestations, and 
accepted a congressional directive to evaluate the potential impacts of 
hydraulic fracturing on drinking water. In January, EPA announced its 
fiscal year 2012-2013 ``priority goals''--selected as measurable and 
achievable within 2 years, designed to advance the agency's long-term 
strategic objectives. One priority goal is the clean-up of 22,100 
contaminated U.S. sites by September 30, 2013. As specified in the 
administration's request, the fiscal year 2013 budget also would 
support restoring water quality in the Great Lakes, implementing new 
computing tools to improve environmental monitoring data-gathering, and 
developing new standards for vehicles' greenhouse gas emissions. Such 
EPA actions require frequent testing and a thorough understanding of 
current scientific knowledge.

 ENVIRONMENTAL PROTECTION AGENCY FUNDING BUILDS TECHNICAL EXPERTISE IN 
                         ENVIRONMENTAL SCIENCES

    The EPA Office of Research and Development (ORD) currently manages 
research programs in six priority areas to advance environmental 
science:
  --air, climate, and energy;
  --safe and sustainable water resources;
  --sustainable and healthy communities;
  --chemical safety for sustainability;
  --human health risk assessment; and
  --homeland security research.
    EPA scientists and engineers conduct this research at ORD's three 
national laboratories, four national centers, and two offices situated 
in 14 facilities. These centers and labs are responsible for studies 
spanning the agency's S&T research portfolio:
  --National Exposure Research Laboratory--employs more than 400 
        scientists, engineers, and staff to develop the knowledge and 
        tools needed for environmental risk assessments as well as 
        optimal responses to contaminants.
  --National Health and Environmental Effects Research Laboratory--
        conducts research on the effects of contaminants and 
        environmental stressors on human health and ecosystems, to 
        identify and evaluate risks.
  --National Risk Management Research Laboratory--focuses on practical 
        actions to solve environmental problems like improving air 
        quality, cleaning contaminated sites, and reducing greenhouse 
        gas emissions.
  --National Center for Computational Toxicology--uses high-throughput 
        screening technologies, systems biology, and advanced computer 
        models to develop better tools that can screen thousands of 
        chemicals for toxicity.
  --National Center for Environmental Assessment--prepares technical 
        reports and risk assessments on how pollutants, etc., might 
        impact human health and the environment; also develops new risk 
        assessment methods and tools.
  --National Center for Environmental Research--manages EPA's 
        competitive grants and fellowship programs to develop the next 
        generation of U.S. scientists and engineers.
  --National Homeland Security Research Center--created in 2002, 
        provides the scientific knowledge to counter biological, 
        chemical, and radiological pollutants.
    Research at EPA's Microbiological and Chemical Exposure Assessment 
Research Division (MCEARD) is concerned about microorganisms in the 
environment that could be beneficial or harmful to human health. MCEARD 
scientists have established risk assessment tools and methods to detect 
molds, bacteria like Escherichia coli, viruses, Giardia parasites, and 
other microbes in water, soil, and air samples. The agency's 
researchers have contributed significantly to commonly used protocols 
for monitoring microbial contaminants throughout the United States.
    Across its six priority programs, ORD is placing more emphasis on 
finding sustainable solutions, within a sustainability focused 
operational framework recently developed by the National Research 
Council at EPA's request. In addition, the six programs routinely 
leverage collaborations with other EPA offices, Federal agencies, and 
State and local stakeholders. With its Federal partners, EPA's S&T 
expertise is integral to the Nation's homeland security efforts. EPA is 
the lead agency for Federal preparations against terrorist attacks via 
water and for decontamination of indoor and outdoor areas post-attack. 
Biosecurity-related discoveries by ORD scientists and engineers also 
have clear applications to other sectors of public health and 
environmental sciences. As part of its homeland security 
responsibilities, EPA will use fiscal year 2013 funds to implement a 
Regional Center of Expertise for Chemical Warfare Agent Laboratories, 
coordinating agency efforts into a more efficient operation.

  ENVIRONMENTAL PROTECTION AGENCY FUNDING PROTECTS AGAINST THREATS TO 
                          HEALTHY ENVIRONMENTS

    Every action taken by EPA to protect public health and the 
environment must be supported by solid S&T expertise and risk 
assessments. In the fiscal year 2013 budget, S&T funding distributed 
among EPA's five strategic goals would fall less than fiscal year 2011 
levels, but slightly more than fiscal year 2012 enacted levels with one 
exception:
  --taking action on climate change and improving air quality, $271 
        million (4.3-percent increase);
  --protecting America's waters, $151 million (1.2-percent increase);
  --cleaning up communities and advancing sustainable development, $183 
        million (2.3-percent decrease);
  --ensuring the safety of chemicals and preventing pollution, $185 
        million (2.4-percent increase); and
  --enforcing environmental laws, $18.5 million (2.5-percent increase).
    To achieve EPA's strategic goals, fiscal year 2013 funds will 
support prioritized actions in the coming year, all dependent upon S&T 
capabilities, including the following:
  --About 70 Federal rules directing EPA's air toxic control efforts 
        are due for review, and EPA experts and health risk data will 
        shape the resultant standards and their enforcement.
  --EPA will replace outdated technologies to detect air contaminants 
        currently used in the national monitoring networks, using S&T 
        funds to develop improved monitors for ambient air pollutants 
        that are more cost-effective for EPA, State, and local 
        agencies.
  --Fiscal year 2013 increases include funds for the Drinking Water 
        program that will provide additional technical assistance to 
        States. By September 30, 2013, EPA also will have collaborated 
        with 20 States to specifically improve small drinking water 
        systems. A partnership created last August with the U.S. 
        Department of Agriculture will direct fiscal year 2013 EPA 
        resources toward protecting rural drinking water and wastewater 
        systems.
  --With the Department of Energy and the U.S. Geological Survey, EPA 
        researchers will prepare a detailed study of potential air, 
        ecosystem, and water quality impacts of hydraulic fracturing.
  --The EPA Pollution Prevention Program will focus its R&D efforts on 
        evaluating and encouraging greater use of greener chemicals, 
        products, and technologies.
    EPA programs play a role in preserving healthy environments in U.S. 
communities. In January, EPA provided nearly $10 million in grants to 
38 States, territories, and tribes to protect swimmers at beaches 
against bacterial and other contamination. A recent annual EPA report 
showed that EPA actions in fiscal year 2011 stopped more than 1.8 
billion pounds of harmful pollution in the Nation's air, land, and 
waters. In the past year, EPA safeguarded our food supply by issuing 
compliance orders to several beef feedlots in the Midwest and warning 
against consuming fish from contaminated waters in Texas. The agency 
also announced improvements to its Integrated Risk Information System 
(IRIS), an online repository of EPA's scientific evaluations of health 
risks associated with environmental contaminants. There currently are 
540 chemical substances in the IRIS database.
Environmental Protection Agency Funding Stimulates Scientific and 
        Economic Innovation
    In fiscal year 2013, EPA grants will continue to support both the 
university researchers who make new discoveries in environmental 
sciences and the educational institutions that train our future 
scientists and engineers. One example is EPA's principal sponsorship of 
the University of California's Center for Environmental Implications of 
Nanotechnology, created in 2008 to help design environmentally safe 
nanomaterials for what is expected to become a $1 trillion industry in 
the near future. Another is the exemplary Science To Achieve Results 
(STAR) fellowship program, which supports graduate environmental study.
    ASM recommends that the Congress provide increased funding for EPA 
science programs in the fiscal year 2013 budget for the agency. EPA's 
effectiveness in enforcing Federal environmental standards clearly 
depends upon the quality of EPA science and technology and increased 
resources are needed for the important EPA mission of protecting the 
public against unhealthy environments. The external portion of EPA's 
S&T funds which goes to universities is of major importance in training 
the next generation of scientists and engineers who will implement more 
cost-effect and sustainable protection of human health and the 
environment.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy; Crop Science 
        Society of America; and Soil Science Society of America

    Dear Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee: On behalf of the American Society of Agronomy (ASA), Crop 
Science Society of America (CSSA), and the Soil Science Society of 
America (SSSA), I am pleased to submit comments in strong support of 
enhanced public investment in the U.S. Forest Service (USFS), U.S. 
Geological Survey, and U.S. Environmental Protection Agency. ASA, CSSA, 
and SSSA urge the subcommittee to support USFS at a minimum level of 
$4.86 billion; the U.S. Geological Survey at a level of $1.1 billion, 
and the U.S. Environmental Protection Agency, Science and Technology 
appropriation at $807 million.
    ASA, CSSA, and SSSA represent more than 18,000 members in academia, 
industry, and government, and 13,000 Certified Crop Advisers. The 
largest coalition of professionals dedicated to the agronomic, crop, 
and soil science disciplines in the United States, ASA, CSSA, and SSSA 
are dedicated to utilizing science in order to meet our growing food, 
feed, fiber, and fuel needs. With an ever-expanding global population 
and increasing food demands, investment in food and agriculture 
research is essential to maintaining our Nation's food, economic and 
national security.
U.S. Forest Service
    USFS sustains the health, diversity, and productivity of the 
Nation's forests and grasslands to meet the needs of present and future 
generations, and the health of soils represents a vital component of 
forest management.
            Forest and Rangeland Research
    ASA, CSSA, and SSSA urge the subcommittee to support funding for 
Forest and Rangeland Research at a level of $292 million in fiscal year 
2013 to maintain an essential level for basic research. The research 
and development arm of USFS provides scientific information and new 
technologies to support the sustainable management of the Nation's 
forests and rangelands. This knowledge and technology is essential to 
foster healthy watersheds, forest products, wildlife protection, 
outdoor recreation opportunities and other benefits across the United 
States.
            Water, Air, and Soil Research and Development Program
    USFS scientists in this department have conducted essential 
research such as developing a software tool to predict the impact of 
contaminant releases, including radioactive materials, to surface 
waters (which was later used for assessment purposes at Japan's 
Fukushima Daiichi nuclear powerplant). In another project, researchers 
with USFS's Eastern Forest Environmental Threat Assessment Center 
applied models to measure water supply stress in relation to carbon and 
biodiversity. All of these tools provide important information for 
decisionmakers.
            National Forest System
    ASA, CSSA, and SSSA support a funding level of $1.6 billion for the 
National Forest System, as requested in the President's fiscal year 
2013 budget proposal. This funding is essential to not only provide for 
the maintenance of forests and grasslands that contribute to air and 
water quality, plants, and wildlife, but also to respond to the 
public's interests and needs. The National Forest System programs 
support water-quality protection and improvement; recreation 
opportunities for the public; energy for the Nation; forest products; 
wildlife habitat; and forage for domestic animals--all while 
maintaining or improving the health of the land.
U.S. Geological Survey
    ASA, CSSA, and SSSA support the President's 2013 budget request for 
$1.1 billion for USGS, a $34.5 million increase more than the fiscal 
year 2012 enacted level. USGS is uniquely positioned to address many of 
the Nation's greatest challenges. USGS plays a crucial role in reducing 
risks from earthquakes, tsunamis, floods, landslides, wildfires, and 
other natural hazards, assessing water quality and quantity, providing 
geospatial data to improve agricultural production, soil management, 
and crop adaptation. In addition, the science provided by the USGS is 
increasingly in demand as new energy supplies are developed, 
competition for water grows, and the cost of natural disasters expands. 
USGS is working in every State and has nearly 400 offices across the 
country and works with more than 2,000 Federal, State, local, tribal 
and private organizations.
Environmental Protection Agency
    In order to fulfill its mission of protecting human health and the 
environment, we need to maintain investments in the Environmental 
Protection Agency's ecological and exploratory research as well as 
partnerships with academia and State and local government.
            Science and Technology
    ASA, CSSA, and SSSA support the President's budget request of $807 
million for the EPA Science and Technology appropriations account. This 
request includes $576 million for research through the Office of 
Research and Development (ORD), which conducts intramural and 
extramural research across a broad spectrum of disciplines. ORD seeks 
out the science and engineering solutions necessary to realizing a 
healthy, productive, and sustainable environment. ORD has worked with 
the National Institutes of Health (NIH) to develop models for how 
chemicals could impact human health, partnered with major cities to 
investigate solutions to water security issues, and collaborated with 
local municipalities to improve stormwater management practices.
            Science To Achieve Results
    ASA, CSSA, and SSSA support the President's budget request of $81 
million for the Science to Achieve Results (STAR) grants and 
fellowships that are awarded to scientists and universities throughout 
the country to conduct targeted research in a competitive and 
independently peer reviewed program. This research has addressed 
children's health issues, hydraulic fracturing, potential endocrine 
disruptors, water infrastructure, and air monitoring.
    Thank you for your consideration of our requests.
                                 ______
                                 
  Prepared Statement of the American Society of Landscape Architects; 
  City Parks Alliance; International Mountain Bicycling Association; 
League of American Bicyclists; PGA of America; and The Trust for Public 
                                  Land

    To the Chair and members of the subcommittee, as national 
organizations representing people who design, create, manage, protect 
and use the Nation's urban parks, we are writing to express our strong 
support for the Land and Water Conservation Fund (LWCF) in fiscal year 
2013 and to urge you to allocate robust funding to this valuable 
program in the fiscal year 2013 Interior, Environment, and Related 
Agencies appropriations bill, including the proposed LWCF stateside 
competitive grant program.
    At this time of national fiscal crisis, investments that create 
jobs and grow our economy must be paramount. LWCF benefits local 
economies, communities, and the environment. Natural amenities like 
parks, open space, and rivers fuel economic investment, particularly 
when they are close to our population centers. Parks, greenways, and 
trails augment surrounding property values--contributing to higher tax 
revenues--encourage tourism, and attract employers drawn to the 
enhanced quality of life for residents. The shared outdoor spaces also 
provide opportunities for recreation and exercise critical to 
countering skyrocketing rates of childhood obesity and other health 
problems. Moreover, our parks and public lands protect critical 
drinking water supplies through watershed, forest, and wetland 
conservation.
    Already, outdoor recreation activities contribute $730 billion 
annually to the U.S. economy, supporting 6.5 million jobs, according to 
the Outdoor Industry Foundation. New investments in parks could quickly 
create an added 100,000 to 200,000 positions--jobs based largely in 
local communities and, thus, hard to outsource.
    As you begin the process of drafting the fiscal year 2013 budget, 
we request $450 million in funding for LWCF. These investments will 
support public land conservation and ensure access to the outdoors for 
Americans, in cities and rural communities alike. We also encourage 
your support for the proposed stateside competitive matching grant 
program that would be allocated $20 million under the authorities found 
in sections 3, 5, and 6 of the LWCF Act. Through this proposed 
competitive program, States would be eligible to apply for projects 
which:
  --enhance and create urban parks and community green spaces;
  --develop public access to rivers, lakes, streams, and other bodies 
        of water through water trails and blueways; and
  --conserve rural landscapes.
    This matching grant program would leverage private and 
philanthropic support at the local level, where urban parks have 
fostered a vital network of private-public partnerships to sustain 
them. The public values supported by these targeted LWCF investments 
are critically important to the future health of local communities and 
their residents.
    The entire suite of LWCF programs protects natural resource lands, 
outdoor recreation opportunities and working forests at the local, 
State and Federal levels, ensuring that critical wildlife habitat, 
hunting and fishing access, State and local parks, Civil War 
battlefields, productive forests, and other important lands are 
protected for future generations. The LWCF stateside program is the 
Government's primary investment tool for ensuring that children and 
families have access to close-to-home recreation. It has funded more 
than 41,000 projects including sports fields, outdoor recreation 
facilities and trails touching all 50 States.
    LWCF receipts are not revenues for general purposes--they are 
payments to the Government specifically intended for conservation 
spending. More than $17.5 billion has been siphoned from the LWCF trust 
fund since the program's inception in 1965; these funds have been 
diverted from their original conservation purpose with no 
accountability. This chronic redirection of funding has created a large 
backlog of conservation needs, including already-negotiated 
acquisitions from willing sellers, and has led States and Federal land 
management agencies to postpone or cancel many important projects.
    The LWCF is one of the most important long-term investments we can 
make to help spur our economy, create jobs by putting more Americans 
back to work in tourism and recreation, and help American's stay 
healthier by making it easier to spend more time outside.
    By working together to protect our natural heritage and leveraging 
resources like LWCF to provide children and families with access and 
opportunities to enjoy the outdoors, we can make our communities 
healthier, sustainable, and more economically competitive.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2013 funding for White-Nose Syndrome activities of the U.S. Fish 
and Wildlife Service (FWS); U.S. Geological Service; Bureau of Land 
Management (BLM); and the U.S. Forest Service (USFS); and for the Wild 
Horse and Burro program of the Bureau of Land Management.
    Since the Congress last received testimony on the devastation being 
wrought on bat populations by White-Nose Syndrome (WNS), the picture 
has grown more alarming. In January, FWS released new estimates of the 
death toll: Having now spread to 20 States (this time last year it was 
16) and 4 Canadian provinces, with more than 200 sites affected, WNS 
has caused the deaths of at least 5.7 million hibernating bats. 
Mortality rates at many affected sites continue to be at or near 100 
percent. Insect-eating bats provide pest-control services worth at 
least $3.7 billion, and possibly as much as $53 billion, per year to 
U.S. agriculture. When the death toll stood at 1 million, scientists 
estimated that that many bats could have eaten nearly 700 tons of 
insects per year. With the disappearance of bats due to White-Nose 
Syndrome--necessitating greater use of pesticides and raising the price 
of food for consumers--our country's agriculture industry is at risk of 
serious economic losses that will likely be noticeable in 4 to 5 years. 
There are public health impacts as well due to greater numbers of 
disease-carrying insects.
    The above-mentioned agencies have been hard at work to understand 
the fungus, Geomyces destructans, involved in the deaths of so many 
bats, to identify steps to control and prevent its spread, and assist 
States with WNS oversight, surveillance, research, education, and 
outreach. Scientists succeeded in mapping the genome of the fungus and 
identifying its origin. Now, having also been able to conclude that 
Geomyces destructans does indeed cause WNS, they are in a better 
position to deal with it. Projects underway include but are not limited 
to:
  --detailed studies of the fungus, its transmission, and possible 
        means of mitigation, including nonchemical control; and
  --improving WNS detection techniques; and developing a better 
        understanding both of bats' resistance and susceptibility to 
        infection and of the persistence of the fungus in the 
        environment.
    Additional priorities include assessing the post-WNS world, 
evaluating remnant populations, and determining the broader ecological 
impacts of WNS.
    We very much appreciate the Congress's concern over this wildlife, 
environmental, and economic disaster, and the steps it took in the 
fiscal year 2012 appropriations redirecting $4 million in FWS spending 
to WNS, as well as instructing BLM and USFS to prioritize research 
related to WNS and the inventorying and monitoring of bat resources on 
agency lands. There is a need, however, for new funds to support the 
many research, surveillance, prevention, and mitigation efforts needed 
to address this increasingly urgent problem. As noted above, much has 
been accomplished since the disease was first detected and scientists 
are on the verge of accomplishing a good deal more. Modest increases in 
the agencies' budgets for WNS will prevent the unraveling of this hard-
won progress.
U.S. Fish and Wildlife Service: +$4.5 Million
    FWS leads the Federal Government's WNS efforts and supports all of 
the working groups under the White-Nose Syndrome National Plan. Its 
accomplishments include assembling an investigative team, support for 
research and State response activities, developing national and State 
plans, putting containment protocols in place, and providing 
surveillance.
    We ask the subcommittee to maintain the President's fiscal year 
2013 recovery fund request of $81.909 million, including the requested 
$1.897 million within that amount for WNS, to be supplemented by an 
additional $2.603 million for WNS, for a total of $4.5 million, for an 
incremental increase in the Congress's fiscal year 2012 commitment.
    These funds are needed for the following:
  --Interagency coordination, providing and relaying scientific 
        information and guidance to and among Federal and State 
        agencies, tribes, landowners, recreation, and conservation 
        groups to ensure best practices on WNS-related issues, such as 
        research findings, status of disease spread, and fungus 
        decontamination procedures;
  --identifying priorities for applied research that will assist in 
        combating WNS and managing its spread, and funding projects 
        that support these goals;
  --support to State wildlife agencies to conduct disease surveillance, 
        monitor bat populations, implement conservation measures, and 
        conduct research; and
  --conservation action for bat species in decline due to WNS, 
        including assessing populations and spectrum of threats and 
        providing guidance to Federal and State agencies and private 
        landowners on the needs of species.
U.S. Geological Survey: +$1 Million +1 FTE
    We ask the subcommittee to maintain the $1 million increase 
requested in the President's fiscal year 2013 budget in order to allow 
enhancements to USGS's WNS surveillance and diagnostic capabilities, 
and to support research on topics such as the following:
  --Immunology and pathogenesis (the origin, development, and resultant 
        effects of WNS);
  --vaccine development;
  --prevalence and survival of WNS fungus in cave environments; and
  --modeling WNS disease processes.
    These activities support the goals of the following working groups 
of the National Plan:
  --diagnostics;
  --disease management;
  --epidemiological and ecological research;
  --disease surveillance; and
  --conservation and recovery.
National Park Service: +$300,000
    Fourteen parks have significant cave resources (there are 4,000 
caves in NPS sites), account for 2,600 jobs, and generate $105 million 
in ``value added'' to the local communities. Seven of these sites are 
affected by WNS; they receive approximately 22 million visitors per 
year. We ask the subcommittee to provide $300,000 for the National Park 
Service's WNS efforts, which include the following:
  --Preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis;
  --conducting on-the-ground surveillance of disease; and
  --monitoring for disease presence or absence on NPS lands.
    These activities support the goals of the National Plan Disease 
Management Working Group.
Bureau of Land Management: +$1 Million
    In order for BLM to comply with the Congress's fiscal year 2012 
directive to ``prioritize research related to WNS in bats and the 
inventory and monitoring of bat resources on BLM-administered lands'', 
we ask the subcommittee to provide $1 million for BLM's WNS efforts. 
This will fund conducting bat inventories of the BLM's presently known 
caves and abandoned mines, which will support the goals of the National 
Plan Disease Management Working Group.
U.S. Forest Service: +$1.5 Million
    In order for USFS to comply with the Congress's fiscal year 2012 
directive to ``prioritize research related to WNS as well as inventory 
and monitoring of bat resources on Forest Service lands'', we ask the 
subcommittee to provide $1.5 million. With this level of funding, the 
USFS will be able to undertake the following:
  --Research on topics such as enhancing environmental conditions for 
        bat survival in the face of WNS, possible biological controls 
        for WNS, and ways to measure the status and fitness of bat 
        populations;
  --preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis;
  --conducting on-the-ground surveillance of disease;
  --monitoring for disease presence or absence; and
  --managing forests to optimize bat habitat.
    Among other pests in their diet, bats eat mosquitoes and gypsy 
moths, and there are 15 beetles and 10 moths in the diet of the little 
brown bat alone, one of the species badly affected by WNS. 
Massachusetts expects an increase in defoliation by the winter moth, 
which is also found in Connecticut and New Hampshire, all of whose bat 
populations have been significantly decimated by WNS. More research 
into the economic impact on forests from the loss of bat populations is 
greatly needed.
    These activities support the goals of the Disease Management, 
Epidemiological and Ecological Research, and Conservation and Recovery 
Working Groups of the National Plan.
Wild Free-Roaming Horses and Burros Act
    The wild horse is as much a symbol of American heritage as the 
image of Uncle Sam and baseball. Currently, these wild horses are at 
risk of mistreatment by BLM, which misuses most of its budget to round 
up and warehouse wild horses and burros to make room for privately 
owned cattle. Wild horses have been removed from more than 19 million 
of the 52 million acres allocated to them by the Congress. Since 2004, 
wild horses have been at risk of being sold to killer-buyers who make a 
profit by sending horses to slaughter for human consumption. AWI 
requests that any increase in appropriations under the Wild Free-
Roaming Horses and Burros Act be solely used for implementation of 
humane, on-the-range management methods such as immunocontraception 
versus unnecessary roundup. AWI strongly encourages that this ``no-
kill'' language also be maintained to ensure the BLM does not kill 
healthy wild horses and burros:

    ``Provided, That appropriations herein made shall not be available 
for the sale or destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors''.
                                 ______
                                 
   Prepared Statement of the Arctic Slope Native Association Limited

    Thank you for the honor and opportunity to provide testimony. My 
name is Marie Carroll and I am the President/Chief Executive Officer of 
the Arctic Slope Native Association Limited (ASNA) based out of the 
northernmost community of the United States of America, Barrow, Alaska. 
We operate the Samuel Simmonds Memorial Hospital under the Self 
Determination Act through a title V 683 Compact with the Indian Health 
Service (IHS). Our service area is the size of the State of Minnesota.
    IHS began the work to replace our 48-year-old hospital in 1991. In 
1996, ASNA took over management of the health facilities under 638 
Compact with IHS. Since then, ASNA took over the project justification 
and other related documents to get the project in line with the IHS 
facilities construction program. ASNA is constructing the hospital 
through a title V hospital construction agreement with IHS. I am 
pleased to report to you that our hospital construction project is on 
time and on budget, it is also the first project of its size to be 
constructed by a tribal health organization under title V. We 
anticipate the completion of the project in December of this year. IHS 
and ASNA have agreed to go through the acceptance and commissioning 
process jointly at the end of this year.
    ASNA plans to move from the 48-year-old, 2 by 4 facility to a more 
modern hospital in April 2013. However, we have a challenge because our 
staffing package was excluded in the fiscal year 2013 President's 
budget. IHS has told ASNA that they did not recommend a staffing 
package for fiscal year 2013 because of the uncertainty of full funding 
for our construction budget in fiscal year 2012. Thanks to the Congress 
our project was fully funded in fiscal year 2012 which has kept our 
project on time and on budget without additional cost of delaying a 
project in the Arctic environment. Which brings me to the final point, 
ASNA has been responsible in carrying out the construction program, we 
are now without a staffing package to bring a new hospital on line in 
April unless our staffing package be fully funded along with other 
tribal facilities opening in fiscal year 2013 at least through the 
portion of the fiscal year that the facilities are operational.
    We are grateful for the new facility that will benefit not only the 
Alaskan Native people who reside in the northernmost communities in our 
country, it will also benefit everyone who lives there or visits our 
region because we operate the only hospital north of the Arctic Circle.
    In my language we end our public statements by simply saying, 
Quyanaq, meaning thank you.
                                 ______
                                 
    Prepared Statement of the Arctic Slope Native Association; the 
   Chickasaw Nation of Oklahoma; the Choctaw Nation of Oklahoma; the 
Citizen Potawatomi Nation; the Kodiak Area Native Association; the Nez 
    Perce Tribe; the Port Gamble S'Klallam Tribe; the Southcentral 
 Foundation; the SouthEast Alaska Regional Health Consortium; the St. 
 Croix Chippewa Indians of Wisconsin; and the Tanana Chiefs Conference

    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, of Washington, DC. I 
am submitting this testimony on behalf of 11 tribes and tribal 
organizations that experienced contract support cost shortfalls but who 
have been denied their day in court, due to no fault of their own. On 
behalf of these 11 tribes and tribal organizations we request that the 
Committee include language which would deem their claims to have been 
timely filed so that they can finally have their day in court. The 
language would not guarantee any outcome on the claims, and would only 
assure that the tribes and tribal organizations are permitted to bring 
them.
    The 11 tribes and tribal organizations named here were all caught 
in a double catch-22 that was not of their making.
    The first catch-22 concerned two law suits that were pending before 
New Mexico Federal Judge Leroy Hansen. One was a class action lawsuit 
against the Bureau of Indian Affairs over unpaid contract support 
costs, and is called the Ramah case.\1\ The other was a class action 
law suit against the Indian Health Service over unpaid contract support 
costs and is called the Zuni case.\2\ These were essentially identical 
law suits. The Ramah BIA suit was filed in 1990, and the Zuni IHS suit 
was filed in 2001.
---------------------------------------------------------------------------
    \1\ Ramah Navajo Chapter v. Lujan, No. 1:90-cv-00957 (D.N.M. filed 
Oct. 4, 1990).
    \2\ Pueblo of Zuni v. United States, No. 1:01-cv-01046 (D.N.M. 
filed Sept. 10, 2001).
---------------------------------------------------------------------------
    In the BIA class action case, Judge Hansen ruled in 1993 that 
individual tribal contractors did not need to individually ``present'' 
their own claims to the Government in order to be covered by the law 
suit. Instead, Judge Hansen ruled, the claims that were filed by the 
Ramah Navajo Chapter were sufficient to cover all tribal contractors. 
Later, in 1999 and 2001, portions of this lawsuit were settled and all 
qualifying tribal contractors in the country shared in the 
settlements.\3\
---------------------------------------------------------------------------
    \3\ Ramah Navajo Chapter v. Babbitt, 50 F. Supp. 2d 1091 (D.N.M. 
1999); Ramah Navajo Chapter v. Norton, 250 F. Supp. 2d 1303 (D.N.M. 
2002).
---------------------------------------------------------------------------
    The Zuni class action law suit against IHS was filed in 2001, and 
for 4 years it was handled by Judge Hansen. Since Judge Hansen had 
already ruled in the Ramah case that individual tribal contractors did 
not need to present their individual claims in order to be covered by 
the class action law suit--and because Judge Hansen's decision was the 
only decision in the country to address this issue--individual tribal 
contractors likewise relied on the 2001 Zuni class action law suit to 
protect their claims. They did not file individual claims.
    In 2005, the Zuni law suit was assigned to a new Judge. Within a 
few weeks the Government informed the new Judge that the Government 
intended to challenge Judge Hansen's earlier 1993 ruling. Shortly after 
this development--again, in 2005--all of the 11 tribes and tribal 
organizations named above filed individual claims against the 
Government. The claims reached back as far back as fiscal year 1996 (5 
years before the Zuni case was filed, but 9 years before the 2005 
claims were filed). Eventually, the new Judge handling the Zuni case, 
Judge Johnson, announced that he disagreed with Judge Hansen's 1993 
decision. Judge Hansen ruled that a class action law suit does not 
protect individual tribal contractor's claims if those claims have not 
been separately presented to the Government within 6 years after they 
first accrued. (Partly for this reason, Judge Johnson ended up refusing 
to certify the Zuni case as a class action. It was later dismissed.)
    This was the first catch-22. The 11 tribes and tribal organizations 
named here relied on Judge Hansen's ruling that a class action lawsuit 
relieves individual tribal contractors of the burden of filing their 
own claims. No one could have predicted that the Zuni case being 
handled by Judge Hansen would be transferred to Judge Johnson, and that 
Judge Johnson would then disagree with Judge Hansen and require all 
tribal contractors to present their claims one by one.
    The second catch-22 concerns what happens when a class action law 
suit is not certified. The usual rule is that individuals who are 
covered by an uncertified class action are protected during the time 
that the law suit was pending. They do not lose any rights. If the 
class is not certified, the individuals are then free to go forward on 
their own, and they are given the extra time that the law suit was 
pending to pursue their own individual claims. This is called ``class 
action tolling'', because the class action law suit ``tolls'' the time 
for the individual to act on his or her own.
    That is the usual rule. But when the 11 tribes and tribal 
organizations sought to rely on the usual ``class action tolling rule'' 
to pursue their individual claims, the Federal Circuit Court of Appeals 
held that the ``class action tolling rule'' does not apply in 
Government contract litigation. As a result, claims that were filed 
more than 6 years after the claims arose are considered untimely.\4\
---------------------------------------------------------------------------
    \4\ Arctic Slope Native Assoc., Ltd. v. Sebelius, 583 F.3d 785 
(Fed. Cir. 2009). Subsequent cases have ruled that the ``equitable 
tolling'' doctrine also does not apply in this setting to preserve the 
timeliness of claims more than 6 years old. See, e.g., Menominee Indian 
Tribe of Wisconsin v. United States, _ F. Supp. 2d _, 2012 WL 192815 
(D.D.C. 2012).
---------------------------------------------------------------------------
    This is the second catch-22. In 2001, these 11 tribes and tribal 
organizations assumed that the usual class action tolling rules would 
protect them if there were ever any problem with the Zuni class action 
law suit, only to learn, for the very first time in 2009, that the 
usual rules do not apply to this kind of law suit. By then--even by 
2005--it was too late to cure the problem of the claims having been 
presented too late.
    Two catch-22 situations should not stand in the way of tribes 
having their day in court on legitimate assertions that the Government 
underpaid their contract support cost requirements. For this reason, we 
request that the Committee consider including in the bill the following 
language:

    ``: Provided, That claims presented to an Indian Health Service 
contracting officer on or before October 31, 2005, and involving claims 
which accrued after October 1, 1995, and on or before September 30, 
1999, shall be deemed timely presented''.

    The proposed language would deem the claims that were filed in 
2005, and covering contract years 1996-1999, to have been timely filed. 
If enacted, each of the 11 tribes and tribal organizations will finally 
have its day in court. The proposed language does not guarantee any 
outcome, just a day in court.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation

    My name is Thomas ``Stoney'' Anketell, I am a member of the 
Executive Board of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. On behalf of the Fort Peck Tribes, I am pleased to present 
testimony on the fiscal year 2013 budget. We are a large, land-based 
tribe located in northeastern Montana. The Fort Peck Reservation 
encompasses 2 million acres. The Reservation Native American population 
is approaching 8,000 and our tribal enrollment is more than 12,000 
members. Our greatest need is healthcare, infrastructure, economic 
development and public safety.
    The tribes' unemployment rate on the reservation is 56 percent. Of 
our tribal members who are working, 4 in 10 live below the poverty 
level. Given the enormous unemployment and poverty rates on the 
reservation, our needs for the Bureau of Indian Affairs (BIA), Indian 
Health Service (IHS), and Environmental Protection Agency (EPA) 
programs and services are substantial.
    The United States has a continuing trust responsibility to assist 
tribes address the basic governmental services such as safe drinking 
water, public safety, and healthcare. More than 20 years ago, an 
earlier Congress noted that when there is community stability--with 
core governmental services being met--``Indian tribes are in the best 
position to implement economic development plans, taking into account 
the available natural resources, labor force, financial resources and 
markets.'' If the Federal Government could provide greater assistance 
to us with these core governmental services, our members would be much 
better off.
    Contrary to what some may think, the appropriation of funds for 
Tribal Governments is not a discretionary act by the United States, 
rather these appropriations represent the Federal Government's 
fulfillment of its mandatory obligation under the treaties and 
agreements entered into with tribal governments. We kept our word. The 
United States must do the same.

                        BUREAU OF INDIAN AFFAIRS

    The Fort Peck Reservation Rural Water System.--The health status of 
a community is directly related to the quality of our available water. 
That is why the Fort Peck Tribes took the lead in building the Fort 
Peck Reservation Rural Water System project, a Project that will 
provide quality drinking water to the Reservation and surrounding 
communities. The Congress enacted the Fort Peck Reservation Rural Water 
System Act of 2000, Public Law 106-382, to ensure a safe and adequate 
drinking water supply to all of the residents of the Fort Peck Indian 
Reservation. Under the law, the BIA has the statutory obligation to 
fund the operation and maintenance of this Project. We are very excited 
that the BIA has included $750,000 in programmatic funding for the 
operation of this important Project in its budget. However, the cost of 
operating this Project in fiscal year 2013 will be $1.866 million. 
Thus, the BIA will need an additional $1.11 million to meet its 
statutory obligation with regard to the operation of the Fort Peck 
Reservation Rural Water Project if the Congress appropriates only what 
the BIA has requested.
    The tribes and the Bureau of Reclamation have completed 
construction of many components of this $200 million project, including 
the raw water intake facility and the water treatment facility. The 
integrity of the Water Treatment facility is vital, as the EPA has 
determined that the well that now provide water to the City of Poplar, 
the seat of tribal government, home to the BIA and IHS agency and the 
location of the Poplar schools, is contaminated by a brine plume. 
Again, while the BIA budget includes $750,000 for the O&M of this 
important Project, more funding is needed. Specifically, an additional 
$1.11 million is needed to fully operate the Fort Peck Reservation 
Rural Water System in fiscal year 2013.
    Office of Indian Energy and Economic Development and Road 
Maintenance.--The tribes are very supportive of the BIA's request for 
$8.5 million for energy development in Indian country. However, we are 
concerned that of this amount $2.5 million will be directed only at the 
Fort Berthold Reservation. We believe that these resources should be 
more equitably distributed among the tribes who are presented with the 
opportunities now being experienced at Fort Berthold.
    The Bakken formation, which is in play at Fort Berthold extends to 
the Fort Peck Reservation. An April 2008 USGS Report determined that 
there are 3 to 4.3 billion barrels of recoverable oil in the Bakken 
formation alone. This represents a once in a lifetime opportunity for 
our tribal government--working in close collaboration with our Federal 
trustee--to use the bounty of our natural resources to create jobs and 
spur sustainable economic development to erase the persistently high 
rates of unemployment and poverty on our Reservation.
    However, our experience--like that at Fort Berthold a few years 
ago--is that the BIA Regional and Agency staff often do not have 
adequate technical expertise in the complex field of energy 
development, and they do not always appreciate that ``time is of the 
essence'' when it comes to energy development.
    Consequently, the Fort Peck Agency's long delays in processing 
mineral leases and other critical energy development paperwork often 
frustrate our energy development plans and serve only to push oil, gas 
and other types of energy and mineral development off the Reservation. 
In fact, BIA approval of oil and gas leases can take so long that 
Indian probates have been known to open and close before any BIA action 
is ever taken. We know from the experience at Fort Berthold that if the 
BIA makes an investment in the people at the agency level to ensure 
that they have the knowledge and capacity to work in the field of 
energy development great things can happen. We believe the same 
opportunities exist on the Fort Peck Reservation and the BIA needs to 
make the same commitment that it made to the Fort Berthold Tribes to 
the Fort Peck Tribes.
    Another disincentive to drilling on Indian lands is the $6,500 that 
the BLM charges for a permit application to drill on Federal land, 
including Indian and tribal trust lands. In fiscal year 2010, the 
Appropriations Committee increased this fee from $4,000 to $6,500. In 
theory, this fee is intended to cover the BLM's cost of processing the 
drilling permit application. However, the funds collected on Indian 
lands are not dedicated to processing permits on Indian lands. 
Moreover, the fee is highly disproportionate to the $75 that the State 
of Montana charges to process the same kind of permit on State fee 
land. This is creates a disincentive for developers to consider Indian 
and tribal lands. We would ask that Indian lands be exempt from the BLM 
fee.
    Closely related to economic development is the adequacy and safety 
of our public roads. We have seen the increased fatalities at Fort 
Berthold resulting from the explosion of truck traffic on the 
reservation resulting from oil drilling. Paved roads have deteriorated 
rapidly from the increased traffic, often by overweight vehicles. 
Please reverse the harmful trend of the last 30 years, and increase 
funding for the BIA Road Maintenance Program by $10 million, so that 
tribes can provide routine and emergency road maintenance services to 
ensure the safety of our existing roads. Years of budget cuts have 
undermined our ability to maintain our transportation infrastructure to 
an adequate design standard. This is a public safety issue.
    Funding for Public Safety and Detention.--The need for increased 
law enforcement and tribal courts remains a priority for the Fort Peck 
Tribes. We greatly appreciate the increases the Congress has recently 
provided for public safety programs. These increases, however, are 
insufficient to fulfill the United States' basic trust responsibility 
in the areas of health and safety. Our Reservation needs more officers 
and the resources they require to patrol a large land base. This must 
be matched with additional resources for Tribal Courts and detention 
facilities.
    I want to particularly support the $6.5 million requested to fund 
the operations of the newly constructed detention facilities. The Fort 
Peck Tribes received a grant from the Department of Justice to rebuild 
our detention facilities. We have entered into a contract with the BIA 
for the operation of this newly expanded facility and are excited. We 
will be operational in fiscal year 2013. This new facility will allow 
us to better house and care for our prisoners close to their families 
and the community support that they need to become productive members 
of our society again. Please ensure that the BIA and OFMC have the 
resources needed to maintain these facilities after they are built. We 
lack infrastructure. When built, these facilities must be properly 
maintained or they will deteriorate far sooner under our harsh Montana 
winters.

                         INDIAN HEALTH SERVICE

    Indian country continues to suffer higher rates of infant 
mortality, suicide, accident, alcoholism, diabetes, and heart disease 
when compared with other minorities and the general American 
population. Yet money directed to healthcare, especially preventative 
care--such as routine checkups and health education that clearly 
improves the quality of life and helps avoid more expensive health care 
costs in the future--has not been provided to tribal communities. The 
Federal Government has a trust responsibility to provide healthcare to 
Native Americans, an obligation that was paid for by the Native people 
of this county with millions of acres of land, resources, and the 
sacrifice of our traditional way of life.
    Fort Peck Dialysis Center.--There is a desperate need on our 
Reservation for a fully staffed and equipped health facility capable of 
providing a full range of medical services to our members. The IHS 
needs to evaluate and plan the process for new facilities in Montana, 
including the urgent expansion of the Fort Peck Tribal Dialysis Unit to 
18 stations (from 10) or construction of a new dialysis unit. We are 
now at capacity, serving 33 patients 6 days a week. We have additional 
73-100 pre-renal patients. If we cannot expand our services, these 
patients will have to travel great distances for this life-sustaining 
care. The Indian Health Care Improvement Act now allows the Indian 
Health Service to dedicate resources to dialysis, which is an important 
aspect of healthcare in Indian communities. We request that the 
subcommittee direct the Indian Health Service to report to the Congress 
on its efforts to address the need for dialysis treatment in Indian 
country, especially rural areas such as the Rocky Mountain Region.
    Contract Health.--We recognize the significance of the requested 
$20 million increase in Contract Health Care but this increase is 
inadequate to address the growing healthcare crisis in Indian country. 
The Fort Peck Tribes alone need a near doubling of our inadequate 
Contract Health Care budget--to $11 million--to meet the growing health 
demands of our more than 12,000 tribal members. Far too many members 
are not referred out for Contract Health Care Services which their 
primary healthcare providers determine are medically necessary because 
we only have CHS dollars to treat life threatening illnesses and 
injuries.
    Currently, the IHS does not refer individuals for necessary medical 
care, even when they have medical insurance, because the IHS does not 
want to pay the minimal co-pays or deductible for these services. As a 
result, our members do not get the care they need until it reaches the 
critical ``life or limb'' stage at which point the IHS would still only 
have to pay the minimal co-pay or deductible. It would seem that it 
would be far better public policy to pay the co-pay or the deductible 
for preventive care rather than let medical conditions worsen until a 
person's health deteriorates to a life-threatening life or limb crisis. 
Yet, the IHS will not reconsider its interpretation of the payor-of-
last resort policy to allow for these sound health policy decisions to 
be made and implemented within available healthcare funds.
    At a minimum, the Congress should request that a study be conducted 
to examine how CHS funds are expended and to make recommendations that 
will help save lives.

                    ENVIRONMENTAL PROTECTION AGENCY

    Finally, I want to express the tribes' strong support for the 
increased funding for tribal environmental programs. Specifically, I 
urge the subcommittee to support the $96.3 million for the Tribal 
General Assistance Program (Tribal GAP program). The Fort Peck Tribes 
were one of the first tribes in the country to obtain Treatment as a 
State Status under the Clean Water Act and one of the first to obtain 
Class I air designation for our Reservation. For the Fort Peck Tribes, 
protecting the land and resources that our ancestors fought so hard to 
preserve for us is our paramount mission. We work closely with our 
Federal and State partners to accomplish this goal and appreciate the 
continuing support of the Congress for these efforts. The tribal GAP 
program is critical to maintaining tribal capacity in these areas.
    Thank you for providing me the opportunity to present the views of 
the Fort Peck Tribes.
                                 ______
                                 
   Prepared Statement of the Association of American State Geologists

                                SUMMARY

    Within the United States Geological Survey (USGS) budget, we 
recommend that a sum of $29.5 million be budgeted for the National 
Cooperative Geologic Mapping Program in fiscal year 2013, rather than 
the proposed $28 million, by not implementing the proposed $1.5 million 
cut to the base program, and by incorporating funding for two new 
initiatives:
  --WaterSMART; and
  --Hydraulic Fracturing.
    Also within the USGS budget, we strongly support the National 
Geological and Geophysical Data Preservation Program, and we are 
pleased that plans as we understand them call for funding of this 
activity at least equal to the fiscal year 2012 ($996,000) level as 
part of the program with which this activity has been merged.
    We believe that USGS is responsible for programs that are essential 
for the functioning of the U.S. Government and of the Nation, for 
optimization of the health, wealth, and security of the American 
people, as well as preservation and appreciation of our natural 
heritage.
    Whether at the U.S. Federal level, the U.S. State level, or in 
national or regional jurisdictions throughout the world, geological 
survey agencies fulfill the role of maintaining systematic information 
on the landmass administered by the Government they serve, as well as 
additional roles where geologic information is needed by Government.
    Whereas academic research institutes have a conceptual mandate, 
geological survey agencies have a unique and essential spatial mandate 
associated with their landmass. While academic centers focus on 
research and education, geological surveys are engaged in mapping over 
areas, and monitoring over time, as essential roles that accompany 
their needed research roles.
    This jurisdiction-wide, long-term function builds and maintains a 
body of knowledge regarding an understanding and accounting of earth 
materials, processes, and geologic history, based on mapping, 
monitoring, and research. Benefits for society result, as this 
systematic, accessible, and authoritative knowledge is used in relation 
to energy, mineral, and water resources, as well as hazards. Management 
of these issues, guided by sound information, is needed by society to 
ensure orderly progress toward their objectives.
    In a Federal system, both Federal and State governments require 
geological survey agencies to carry out their mission and mandates in 
an informed manner. States strongly endorse and support the unique 
Federal role of the USGS, which addresses national programs, 
specialized capabilities, and the needs of the Federal Government. 
State geological surveys meanwhile work closely with users on the 
priorities of each State. In our roles, we benefit from partnerships 
with USGS, while our roles were strongly endorsed last year by a paper 
released by the American Institute of Professional Geologists.
    While USGS functions with a budget of more than $1 billion, 
supported by on the order of 10,000 employees, State geological surveys 
in total are funded at a level of $250 million per year, and are 
supported by more than 2,000 employees.
    The work of the U.S. Federal and State geological surveys is 
closely coordinated. State geological surveys therefore have a great 
interest in the role of the USGS, as this role is a major factor in 
fulfillment of our roles.
    The President's budget proposal outlines support for successful and 
effective USGS programs that stimulate economic development, that save 
lives and property from natural disasters, and that protect the 
environment and public health. Through competitive grants and 
partnership programs, USGS directly benefits from collaboration with 
leading experts across the Nation.
    We endorse identification of priorities to which resources need to 
be shifted. We agree with the importance of a National Groundwater 
Monitoring Network, other water programs such as those related to 
stream gages, improved disaster mitigation and response, improved 
information needed to guide the economic benefits and risks of 
hydraulic fracturing, and increased attention to rare earth element 
research and assessment.
    We note with concern, however, potential reduction to important 
programs, including the minerals program, coal assessments, and several 
water programs. We are particularly concerned about proposed reductions 
to partnership and grant programs that promote efficiency, as well as 
preserving long-term datasets.
    Proposed reductions to the minerals programs are difficult to 
reconcile with the rapidly growing urgency of the efforts that are 
needed to ensure our access to materials that allow our economy to 
function. We endorse conservation and recycling, and we recognize that 
increasing global population and standard of living will require more 
mining.
    Most mineral commodities occur in the United States, where these 
materials can be mined using the world's best practices for 
environmental stewardship and health and safety for workers and the 
public. The USGS has a vital role in documenting domestic production 
and reserves, and in assessing the likelihood of future discoveries 
that will add to our mineral and energy resources.
    The dominance of China as a producer and consumer of mineral and 
energy commodities is a major factor that will influence our future. 
This can best be understood by utilizing critical data that are 
collected and reported by the USGS. USGS minerals data collection was 
considered to be an essential Government function in two 2008 National 
Academy of Sciences reports. We therefore believe these are programs 
and functions that should not be cut.
    We also are concerned about proposed reductions to energy-related 
programs, such as grants to States for coal resource assessments. Coal 
remains a major source of inexpensive electricity for America, while 
coal and other carbon-based energy fuels such as unconventional sources 
of oil and natural gas will continue to dominate global energy supply 
for years to come. It therefore is important that research is 
developing ways to reduce fossil-fuel-related emissions.
    While the Department of Energy maintains information on domestic 
energy production, USGS's role in long-term forecasting of energy 
supplies is unique and necessary. Much of this work is done in 
collaboration with States, using data largely compiled and provided by 
States, and the Association of American State Geologists supports this 
working relationship.
    State Geologists recognize, however, that geologic maps showing 
sediment and rock materials at and below the land surface are the 
foundation that guides all programs dealing with issues such as energy, 
minerals, construction, water, and hazards.
    In Ohio, for example, developers and engineers who used modern 
geologic maps saved about $50,000 for every project. Typically, many 
projects use the same map, multiplying these cost savings many times 
over. Furthermore, economists documented Kentucky's geologic maps to be 
worth 25 to 39 times the cost of the mapping.
    Less than one-half of the United States, however, is covered by 
adequate geologic maps, and many maps need to be updated due to the 
progress of science, new technology, and much new data. USGS therefore 
needs to have a vibrant geologic mapping program, as do State 
geological surveys nationwide, and we welcome the Federal role in 
maintenance of standards and coordination.
    Geologic mapping at the resolution and coverage done by geological 
survey agencies is clearly a role for Government, because the public 
benefits and cost savings are broad, and businesses must limit their 
work to small areas of immediate interest to their activity.
    While the mapping is guided by the accumulated knowledge of 
Government geologists, geologic mapping commonly utilizes surveys 
conducted by the private-sector, such as immensely useful new airborne 
laser elevation surveys known as LiDAR.
    We therefore place emphasis on our advocacy for the National 
Cooperative Geologic Mapping Program, a subactivity within the USGS 
Core Science Systems Activity, funded at $26.3 million in fiscal year 
2012. Given its proven record in stimulating economic development and 
protecting the public, we believe that this program should grow to its 
authorized level of $64 million per year in upcoming years.
    All Federal dollars in the portions of this program that we are 
involved with are matched one to one with State dollars. Despite this, 
significant State geologic mapping resources that could be used to 
match Federal dollars are being left on the table.
    We certainly are pleased, however, that the President's budget 
proposal recognizes the key role of geologic mapping in pressing 
priorities, in particular related to water and hydraulic fracturing, by 
proposing transfers to the program in relation to these topics.
    Given the importance of geologic mapping, however, we not only 
endorse these proposed transfers, but we also suggest that a proposed 
reduction to the base of the program not be implemented, thus resulting 
in a further expansion of this crucial activity. We also note that it 
is good that the National Cooperative Geologic Mapping Act provides 
clear guidance for distribution of these proposed increases.
    In turn, geologic mapping is underpinned by precious data and 
materials accumulated by scientists over decades. We thus recognize the 
fundamental importance of the National Geological and Geophysical Data 
Preservation Program, also a subactivity within the Core Science 
Systems Activity, funded at about $1 million in fiscal year 2012. This 
is another cooperative program with States, which doubles the Federal 
investment.
    The 2002 National Academy of Sciences report on Geoscience Data and 
Collections--National Resources in Peril made the case for preserving 
these irreplaceable data and physical samples and led to congressional 
authorization of this program at $30 million per year within the Energy 
Policy Act of 2005. We have seen many uses for these data and samples 
in exploration for domestic mineral and energy resources. We believe 
that this program should grow.
    In the President's budget proposal, we note that this program has 
been merged with allied activity, and we applaud efficiencies that will 
be thus achieved, while we strongly support the activity being 
maintained at a funding level at least equivalent to that of fiscal 
year 2012.
    In summary, the Association of American State Geologists strongly 
endorses the President's fiscal year 2013 budget proposal for USGS, 
because we strongly endorse what we regard as the essential role that 
USGS fulfils in building and maintaining essential information needed 
by the U.S. Government and by people nationwide.
    In particular, we endorse programs that are operated as 
partnerships, thus leveraging funds, as well as encouraging 
coordination, efficiency, and adoption of nationwide standards. 
Nevertheless, we have concerns about proposed reductions in important 
programs.
    We appreciate this opportunity to offer information that we hope 
will be helpful for the work of the subcommittee.
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors

    Thank you for the opportunity to submit a statement for the record 
regarding fiscal year 2013 appropriations for the National Endowment 
for the Arts (NEA) and the National Endowment for the Humanities (NEH). 
We respectfully request that the subcommittee approve a funding level 
of $155 million for the NEA and $155 million for the NEH, which would 
restore them to their fiscal year 2011 levels.
    The Association of Art Museum Directors (AAMD) is composed of the 
directors of more than 200 art museums in the United States, as well as 
several in Canada and Mexico. Its mission is to support its membership 
in fostering vibrant communities. The AAMD is a current grantee of the 
NEA.
    Both the NEA and the NEH help museums achieve their mission of 
preserving, exhibiting and interpreting art to the broadest possible 
audiences. To cite a recent example, the Los Angeles County Museum of 
Art (LACMA) received grants from both the NEA and the NEH to support 
the exhibition Children of the Plumed Serpent: The Legacy of 
Quetzalcoatl in Ancient Mexico, its accompanying catalogue and 
educational activities.
    According to the exhibition Web site:

    ``Recent scholarship demonstrates that a confederacy of city-states 
in southern Mexico . . . successfully resisted both Aztec and Spanish 
subjugation. Children of the Plumed Serpent explores the extraordinary 
wonders in fresco, codices, polychrome ceramics, gold, turquoise, 
shell, textiles, and other precious materials that were produced by 
these confederacies between AD 1200 and 1500, as their influence spread 
throughout Mesoamerica by means of vast networks of trade and exchange. 
A ruling class of nobles, or caciques, believing that Quetzalcoatl, the 
human incarnation of the Plumed Serpent, had founded their royal 
lineages, called themselves the `Children of the Plumed Serpent' . . . 
The culture hero Quetzalcoatl, the Plumed Serpent, epitomizes a Mexican 
sense of national identity that is deeply rooted in the heroic 
qualities of its ancient art.''

    Children of the Plumed Serpent opens at LACMA on April 1, 2012. 
After its run in Los Angeles it will travel to the Dallas Museum of 
Art. Together, the NEA and NEH contributed nearly 25 percent of the 
cost of the exhibition, which totaled approximately $1.3 million. As is 
always the case, the NEA and NEH ``seal of approval'' leveraged other 
contributions. There is no doubt that the Federal grants had a huge 
impact in keeping Children of the Plumed Serpent in its desired format 
and scope.
    The exhibition highlights the role of museums in cultural exchange 
and collaboration. The U.S. Department of State, having determined it 
to be in the national interest of the United States, awarded it 
protection from seizure, assuring that the works would be returned to 
their lenders. Further, LACMA collaborated with two important cultural 
institutions in Mexico, the National Council for Culture and the Arts 
and the National Institute for Anthropology and History. The exhibition 
also received indemnity from the Federal Council on the Arts and the 
Humanities, which is administered by the NEA and without which many 
objects would not be able to travel to the United States.
    (In connection with the indemnity program, which the Congress 
expanded in 2007, we respectfully suggest that it may be time to look 
again at raising the limits available for domestic and international 
exhibitions.)
    The educational outreach of the exhibition is targeted to low-
income, primarily Hispanic parts of the metropolitan area, and will 
include bilingual materials. Typically, attendance at the museum is 
about 12-percent Hispanic, but it doubles when there is a Latin 
American exhibition. Attendance for Children of the Plumed Serpent is 
estimated at about 100,000 people in its LACMA venue. For the past 
decade, LACMA has had a Latin American Initiative, with at least one 
exhibition per year. Last year's show, Contested Visions in the Spanish 
Colonial World, which examined the significance of indigenous peoples 
within the artistic landscape of colonial Latin America, also received 
an NEH planning grant and a grant from NEA; attendance was 56,748. That 
exhibition was on view at LACMA from November 6, 2011 through January 
29, 2012 and is currently touring to two museums in Mexico.
    More information about the exhibition is available online at: 
www.lacma.org/art/exhibition/children-plumed-serpent-legacy-
quetzalcoatl-ancient-mexico.
    Museum staff notes that the majority of the cost of exhibitions 
often comes down to labor and materials--shipping, crating, couriers to 
accompany the art, and installation. This was dramatically illustrated 
recently by the ongoing creation and installation of Levitated Mass, 
which entailed quarrying and transporting a 340-ton boulder more than 
100 miles across southern California. As LACMA director Michael Govan 
told the Los Angeles Times:

    ``This is not money used for buying something but for building 
something: it goes to concrete workers, truckers, quarry workers, so 
this money is being injected into the economy and lives of working 
people. It's not unlike the impulse of the 1930s WPA Works Progress 
Administration to put craftspeople in a down economy to work. For me, 
there is a key distinction: Are you putting money into the pockets of a 
European gallery or putting money into the American economy?''

    To put into context the educational scope of the museum: it serves 
between 600,000 and 1 million people a year, including more than 
300,000 through its education programs. Education activities include 
art-making programs in schools and libraries, tours of the museum for 
students and adults, art classes for children, teenagers, and adults, 
summer and holiday art camps for children, programs for college 
students, high school internships, family days, workshops and 
curriculum materials for teachers, lectures, concerts, films, 
conversations with artists, and more. Across the entire State, the 
museum's education programs reach 351 organizations including 217 
schools, 67 colleges and universities, 31 community organizations, 22 
cultural organizations, and 14 healthcare organizations. Nearly 70,000 
individuals and families are members of LACMA; membership fees start at 
$25 for college students, which entitles them to free admission all 
year. All children under 18 are NexGen members, which allows them free 
admission and free admission for one accompanying adult.
    LACMA is also a proud participant in the Blue Star Museums 
initiative, which offers free admission to military families from 
Memorial Day to Labor Day.
    The map below shows the extent of the museum's outreach, with each 
dot symbolizing an organization that uses LACMA's educational services.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The AAMD mapping project, which is supported in part by an NEA 
grant, now encompasses 100 museums, including.
    Please note that the maps are generally produced in color and with 
more detail. The map depicted was altered to fit the testimony format 
required by the subcommittee.
    Using data from the U.S. Census Bureau, the mapping project gives 
museums the capacity to analyze their community service by geography 
and socio-economic level, allowing them to target resources to where 
they are most needed. For example, just last week a museum requested a 
list of majority-minority census tracts in its service area.
    With the NEA's help, the mapping project has given us a new level 
of understanding of the reach and depth of museum programming in their 
communities. Further, surveys of our membership show that one-third of 
them offer free admission to all, while two-thirds offer free admission 
to children. The average full price of admission for adults is under 
$10, but nearly all offer steep discounts and/or free days. One hundred 
percent of AAMD member museums serve K-12 schools; 93 percent serve 
colleges and universities; and 68 percent of our museums serve 
preschools. In total, AAMD members serve about 40,000 schools across 
the Nation. One-third have programs for people with Alzheimer's, and 
their caregivers, and an increasing number offer art instruction for 
medical and nursing students, which has been proven to increase their 
powers of observation, leading to better diagnostic skills.
    None of this work is possible, however, unless museums can care for 
and present art to the public. In these basic, core functions, the help 
of the NEA and NEH has been and continues to be invaluable.
    Thank you again for the opportunity to submit testimony for the 
record.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities

    On behalf of the Association of Public and Land-Grant Universities 
(APLU) Board on Natural Resources (BNR), we thank you for your support 
of science and research programs within the United States Geological 
Survey (USGS) and the Environmental Protection Agency. We appreciate 
the opportunity to provide recommendations for the following programs 
within USGS:
  --$8.8 million for the Water Resources Research Institutes; and
  --$18.9 million for the Cooperative Fish and Wildlife Research Units.
    Within the Environmental Protection Agency, we recommend $81 
million for the Science to Achieve Results extramural grants and 
fellowship programs.
    APLU BNR requests at least $8.8 million for the Water Resources 
Research Institutes (WRRI). The APLU BNR request is based on the 
following:
  --$7 million in base grants for the WRRI as authorized by section 
        104(b) of the Water Resources Research Act, including State-
        based competitive grants; and
  --$1.8 million to support activities authorized by section 104(g) of 
        the act, and a national competitive grants program.
    Federal funding for the WRRI program is the catalyst that moves 
States and cities to invest in university-based research to address 
their own water management issues. State WRRI take the relatively 
modest amount of Federal funding appropriated, match it 2:1 with State, 
local, and other funds and use it to put university scientists to work 
finding solutions to the most pressing local and State water problems 
that are of national importance. The Institutes have raised more than 
$15 in other funds for every $1 funded through this program. The added 
benefit is that often research to address State and local problems 
helps solve problems that are of regional and national importance. Many 
of the projects funded through this program provide the knowledge for 
State or local managers to implement new Federal laws and regulations. 
Perhaps most important, the Federal funding provides the driving force 
of collaboration in water research and education among local, State, 
Federal and university water professionals. This program is essential 
to solving State, regional and inter-jurisdictional water resources 
problems. For example, the Idaho Institute conducted work in 2011 for 
the City of Boise and the National Renewable Energy Laboratory to 
determine whether the Boise Front geothermal aquifer was adequate for 
supplying current and increased withdrawals. Similarly, Institutes in 
Louisiana, California and North Carolina have made major contributions 
in emergency planning and hurricane recovery, protecting groundwater 
aquifers from sea water intrusion, and reducing water treatment costs.
    The institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, Earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working should-to-shoulder with the top 
research scientists in their field on vanguard projects of significant 
regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education in an effort to transfer 
their research information to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.
    APLU BNR requests at least $18.9 million for the Cooperative Fish 
and Wildlife Research Units (CRU). This program serves to:
  --train the next generation of fish and wildlife managers;
  --conduct research designed to meet the needs of unit cooperators; 
        and
  --provide technical assistance to State and Federal personnel and 
        other natural resource managers.
    Originally established to provide training for students in fish and 
wildlife biology, the units were formally recognized by the Cooperative 
Units Act of 1960 (Public Law 86-686). The CRU provide experience and 
training for approximately 600 graduate students per year, a critical 
need as State and Federal workforces face unprecedented retirements 
over the next 5 to 10 years. The CRU also provides valuable mission-
oriented research for their biggest clients, the U.S. Fish and Wildlife 
Service and cooperating State agencies. Today, there are 40 Cooperative 
Research Units in 38 States.
    Each unit is a true Federal-State-university collaboration in that 
it is a partnership between USGS, a State natural resource agency, a 
host university, and the Wildlife Management Institute. For every $1 
the Federal Government puts into the program, $3 more are leveraged 
through the other partners. The U.S. economy has long relied on the 
bountiful natural resources bestowed upon this land. Federal investment 
in the CRU will be returned many times over though the training of 
future natural resource managers who will guide the Nation in 
sustainable use of our natural resources. The research conducted by CRU 
scientists directly supports the difficult management challenges faced 
by natural resources managers. The examples below demonstrate the value 
of the CRUs to wildlife issues with local and national importance.
  --The Minnesota Cooperative Fish & Wildlife Research Unit currently 
        has 3 Federal employees, 3 post-doctoral research fellows and a 
        total of 12 graduate students. Current research funded by the 
        Minnesota Department of Natural Resources and Federal agencies 
        totals $4.9 million. Among the numerous projects being 
        conducted by unit personnel, a project determining the 
        olfactory sensitivity of Asian carp to putative hormonal sex 
        pheromones has recently received national attention. The Asian 
        carp is an invasive species that threatens many of the Nation's 
        freshwater native fish because they are more competitive than 
        native fish for food. The Minnesota CRU hopes to use the sex 
        pheromones to attract and trap Asian carp, removing them 
        permanently from the Nation's freshwater lakes and rivers.
  --The Idaho Cooperative Fish and Wildlife Research Unit has 3 Federal 
        scientists who are training 22 graduate students and supervise 
        8 year-round staff plus 15 seasonal staff and 5 work-study 
        students. Total grants and contracts for these three scientists 
        exceed $1.5 million and include projects related to gray wolf 
        monitoring and population estimation, improving fish passage at 
        lower Columbia River dams, and defining ``recovery'' for 
        endangered species.
    APLU BNR supports the President's request of $81 million for the 
Science to Achieve Results (STAR) grants and fellowship programs. The 
STAR program funds extramural research grants and graduate fellowships. 
Using a competitive and peer-reviewed process, the STAR program 
supports targeted research in support of EPA's mission. The funded 
research falls into three areas: grants awarded to individuals or small 
groups, grants awarded to multidisciplinary teams, and fellowships for 
masters and doctoral students. The STAR program allows EPA to solicit 
independent research apart from the research EPA itself conducts. 
Because the research is conducted at many of the best universities 
across the Nation, it is not unusual for the findings to be published 
in highly respected, peer-reviewed journals, allowing for widespread 
dissemination of the research.
About Association of Public and Land-Grant Universities and the Board 
        on Natural Resources
    APLU's membership consists of 221 State universities, land-grant 
universities, State-university systems and related organizations. The 
Board's mission is to promote university-based programs dealing with 
natural resources, wildlife, ecology, energy, and the environment. BNR 
representatives are chosen by their President's office to serve and 
currently number more than 500 scientists and educators, who are some 
of the Nation's leading research and educational expertise in 
environmental and natural-resource disciplines. APLU institutions 
enroll more than 3.5 million undergraduate students and 1.1 million 
graduate students, employ more than 645,000 faculty members, and 
conduct nearly two-thirds of all federally funded academic research, 
totaling more than $34 billion annually.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators

                               WHO WE ARE

    Edward G. Hallock, president, on behalf of the Association of State 
Drinking Water Administrators (ASDWA), is pleased to provide testimony 
to the Interior, Environment and Related Agencies Subcommittee on 
fiscal year 2013 appropriations for the Environmental Protection 
Agency. ASDWA represents the State drinking water programs in the 50 
States, territories, District of Columbia, and the Navajo Nation in 
their efforts to provide safe drinking water to more than 275 million 
consumers nationwide.

                           SUMMARY OF REQUEST

    ASDWA respectfully requests that, for fiscal year 2013, the 
subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance; that ensure appropriate public health protection; and that 
will result in enhancing economic stability and prosperity in American 
cities and towns. ASDWA requests $200 million for the Public Water 
System Supervision (PWSS) program; $1.287 billion for the Drinking 
Water State Revolving Loan Fund (DWSRF) program; and $10 million for 
State drinking water program security initiatives. A more complete 
explanation of the needs represented by these requested amounts and 
justification for these requested levels follows.

                      HOW STATES USE FEDERAL FUNDS

    States Need Increased Federal Support To Maintain Overall Public 
Health Protection.--State drinking water programs strive to meet public 
health protection goals through two principal funding programs:
  --the Public Water System Supervision Program (PWSS); and
  --the Drinking Water State Revolving Loan Fund (DWSRF) Program.
    These two programs, with their attendant State match requirements, 
provide the means for States to work with drinking water systems to 
ensure that American citizens can turn on their taps with confidence 
that the water is both safe to drink and the supply is adequate. In 
recent years, State drinking water programs have accepted additional 
responsibilities to work with all public water systems to ensure that 
critical drinking water infrastructure is protected; that plans are in 
place to respond to both natural and manmade disasters; and that 
communities are better positioned to support both physical and economic 
resilience in times of crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. More than 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system. Firefighting also relies on potable water from public 
water systems to ensure public safety. Even people who have their own 
private wells to meet their daily water needs will visit other homes or 
businesses served by a public water system. As important as public 
water systems are to the quality of water we drink and our health, the 
majority of water produced by public water systems is used by 
businesses for a variety of purposes, including processing, cooling, 
and product manufacturing. The availability of adequate supplies of 
water is often a critical factor in attracting new industries to 
communities. Public water systems--and the cities, villages, schools, 
and businesses they support--rely on State drinking water programs to 
ensure they are in compliance with all applicable Federal requirements 
and the water is safe to drink. A number of incidents in the United 
States over the past several years that have led to illnesses or deaths 
from unsafe drinking water serve as stark reminders of the critical 
nature of the work that State drinking water programs do every day and 
the dangers of inadequately funded programs,
    The Public Water System Supervision Program.--To meet the 
requirements of the Safe Drinking Water Act, States have accepted 
primary enforcement responsibility for oversight of regulatory 
compliance and technical assistance efforts for more than 155,000 
public water systems to ensure potential health-based violations do not 
occur or are remedied in a timely manner. More than 90 contaminants are 
regulated in Federal drinking water regulations and, the pace of 
regulatory activity has accelerated in recent years. Since 1996, State 
drinking water programs have participated in the development and 
implementation of more than 25 new Federal regulations and strategic 
initiatives designed to enhance the protection of public health. States 
are also implementing an array of proactive initiatives to protect 
public health from ``the source to the tap''. These include source 
water assessments and protections; technical assistance with water 
treatment and distribution; and enhancement of overall water system 
performance capabilities. In recent years, States have also taken on an 
increasingly prominent role in working with Federal and local partners 
to help ensure sufficient water quantity. In short, State activities go 
well beyond simply ensuring compliance at the tap.
    The Drinking Water State Revolving Loan Fund Program.--Drinking 
water in the United States is among the safest and most reliable in the 
world, but it is threatened by aging infrastructure. The DWSRF program 
is helping, but greater levels of Federal support are needed. The 
payback on this investment has been exceptional. In the core DWSRF 
program, $12.4 billion in cumulative capitalization grants and $2 
billion in American Reinvestment and Recovery Act (ARRA) funds since 
1997 have been leveraged by States into nearly $22 billion in 
infrastructure loans to small and large communities across the country. 
Such investments pay tremendous dividends--both in supporting our 
economy and in protecting our citizens' health. State drinking water 
programs have also used DWSRF funds to support the technical assistance 
and training needs of numerous small drinking water systems and to help 
these often challenged water systems obtain the technical, managerial, 
and financial proficiency needed to meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--State drinking 
water programs are critical partners in emergency planning, response, 
and resiliency at all levels of government. State primacy agencies 
provide key resources and critical support regardless of whether the 
emergency is rooted in terrorism, natural disasters, or cyber 
intrusions. States continually work toward integrating security 
considerations throughout all aspects of their drinking water programs. 
Technological advances in contaminant detection and decontamination 
capabilities, new economic risk and impact analysis models, and 
enhancements in cyber security techniques also demand State program 
awareness, implementation, and outreach to the water community.

                WHY INCREASED FUNDING IS URGENTLY NEEDED

    State Drinking Water Programs are Hard Pressed.--States must 
accomplish all of the above-described activities, and take on new 
responsibilities, in the context of the continuing economic downturn. 
This has meant operating with less State-provided financial support--
which has historically compensated for inadequate Federal funding. 
State drinking water programs have often been expected to do more with 
less and States have always responded with commitment and ingenuity. 
However, State drinking water programs are now in crisis and are 
stretched to the breaking point. Insufficient Federal support for this 
critical program increases the likelihood of a contamination event that 
puts the public's health at risk.
    State Funding Gap Continues To Grow; States Cannot Keep Up.--
Although the 1996 SDWA Amendments authorized the PWSS program at $100 
million per year, appropriated amounts have only recently reached that 
authorized level--a level that now, more than 16 years from the date of 
those amendments, falls far short of the need. $105 million was 
appropriated for the PWSS program in fiscal year 2012. The President's 
fiscal year 2013 budget requests $109 million for the PWSS grant--an 
amount that is woefully inadequate for the enormity of the task faced 
by State drinking water programs. A few years ago, State drinking water 
program administrators identified an annual shortfall nationally of 
approximately $360 million between available funds and those needed to 
administer their programs. That gap only continues to grow and has a 
number of negative consequences. Many States are simply unable to 
implement major provisions of the newer regulations, leaving the work 
undone or ceding the responsibility back to EPA where it is likely to 
languish because of EPA's own resource constraints and lack of ``on the 
ground'' expertise. This situation has created a significant 
implementation crisis in several regions of the country and is 
ultimately delaying implementation of critically needed public health 
protections.

  FISCAL YEAR 2013 REQUEST LEVELS AND SAFE DRINKING WATER ACT PROGRAM 
                              OBLIGATIONS

    The Public Water System Supervision Program.--The number of 
regulations requiring State implementation and oversight as well as 
performance expectations continue to grow while at the same time, the 
Federal funding support necessary to maintain compliance levels and 
meet expectations has been essentially ``flat-lined'' or included only 
meager increases. Inflation has further eroded these inadequate funding 
levels. State drinking water programs are hard pressed to understand a 
justification for these funding levels since they are engaged in the 
critical phases of implementing the LT 2/Stage 2 Rule cluster (two 
sophisticated and complex initiatives to control disinfection by-
products and microbial contaminants), the recently promulgated Ground 
Water Rule, and changes to the Lead and Copper Rule. States want to 
offer the flexibilities allowed under these and other rules to local 
water systems; however, fewer State resources mean less opportunity to 
work one-on-one with water systems to meet their individual needs. 
Looking ahead, States expect that new rules for perchlorate and 
carcinogenic volatile organic carbon compounds will be forthcoming in 
the near future as well as revisions to the Total Coliform Rule.
    ASDWA respectfully requests that the fiscal year 2013 funding for 
the PWSS program be appropriated at $200 million. This figure begins to 
fill the above-described resource gap and is based on the expense of 
implementing new drinking water rules, taking on a number of other new 
initiatives, and accounting for the eroding effects of inflation.
    The Drinking Water State Revolving Loan Fund Program.--States were 
very encouraged by the $1.387 billion appropriated for the DWSRF in 
fiscal year 2010 but are disappointed at the subsequent downward 
trend--$963 million in fiscal year 2011 and $919 million in fiscal year 
2012 and the alarming administration request of $850 million for fiscal 
year 2013--a figure not seen since 2008. The primary purpose of the 
DWSRF is to improve public health protection by facilitating water 
system compliance with national primary drinking water regulations 
through the provision of loans to improve drinking water 
infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. States 
have very effectively and efficiently leveraged Federal dollars with 
State contributions to provide assistance to more than 8,500 projects, 
improving health protection for millions of Americans. According to the 
most recent figures available, this equals a 177.4-percent return on 
the Federal investment. Approximately 72 percent of projects and 38 
percent of assistance has been provided to small communities (serving 
less than 10,000 people). However, EPA's most recent National Drinking 
Water Infrastructure Needs Survey (2007) indicated that water system 
needs total $334.8 billion over the next 20 years to comply with SDWA 
mandates. States believe the $2 billion in ARRA funds and the fiscal 
year 2010 appropriated level were very substantial down payments on 
addressing those needs and filling the infrastructure gap. In light of 
these indicators of success and documented needs, we believe funding at 
the $1.287 billion level will better enable the DWSRF to meet the SDWA 
compliance and public health protection goals for which it was 
designed.
    ASDWA respectfully requests $1.287 billion in fiscal year 2012 
funding for the DWSRF program. This was the amount appropriated in 
fiscal year 2011 and ASDWA believes this is an appropriate funding 
level on an ongoing basis.
    Security Responsibilities.--After 7 years of supporting State 
security programs through a small grant of approximately $5 million in 
EPA's appropriation, no funds have been provided for this purpose since 
fiscal year 2009 and none are requested for fiscal year 2013. State 
drinking water programs need funds to continue to maintain and expand 
their security activities, particularly for small and medium water 
systems and to support utility-based mutual aid networks for all 
drinking water systems. It is very difficult to understand why this 
grant has been zeroed out of EPA's proposed budget. Given the realities 
exemplified by ongoing Homeland Security initiatives, the goals of the 
National Infrastructure Protection Plan, and the lessons learned from 
Hurricanes Katrina, chronic flooding in the Midwest, and most recently, 
from the 2011 Northeast experience with Hurricane Irene and Tropical 
Storm Lee, State drinking water programs are working more closely than 
ever with their water utilities to evaluate, assist, and support 
drinking water systems' preparedness, response, and resiliency 
capabilities. States continue to expand their efforts to reflect a more 
resilient ``all hazards'' approach to water security and to focus their 
efforts toward smaller water systems. These systems rely heavily on the 
States to help them meet their needs and identify potential funding 
sources.
    ASDWA respectfully requests $10 million in fiscal year 2012 funding 
for the State security initiatives. These funds would be commensurate 
with the security tasks state drinking water programs must take on.

                               CONCLUSION

    In conclusion, ASDWA respectfully recommends that Federal fiscal 
year 2013 budget needs for the provision of safe drinking water be 
adequately funded by the Congress. A strong drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory and security needs. The financial needs of these programs is 
particularly acute when one considers that the Budget Control Act of 
2011 sequestration may well cut an additional 9 percent from whatever 
is ultimately appropriated. In 1996, the Congress provided the 
authority to ensure that the burden would not go unsupported. For 
fiscal year 2013, ASDWA asks that the promise of that support be 
realized.
                                 ______
                                 
          Prepared Statement of Bat Conservation International

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to submit testimony. Bat 
Conservation International (BCI) is a nonprofit organization that 
conducts and supports science-based research, education, and 
conservation to ensure that bats will still be helping to maintain 
healthy environments and human economies far into the future. We are 
based in Austin, Texas, with a membership of more than 10,000 from all 
50 of the United States. We respectfully request $7.8 million plus one 
full-time employee in fiscal year 2013 funding to address White-nose 
Syndrome (WNS), a disease decimating North American bats.
    WNS poses the gravest threat ever faced by U.S. bats. Since its 
discovery in 2006, the disease has killed at least 5.7 million bats. It 
is named for the previously unknown, cold-loving white fungus that 
causes the disease, found on the faces and wings of infected bats. WNS-
infected bats awaken frequently during hibernation, burning the fat 
reserves they need to survive the winter. They often emerge early from 
hibernation, before the return of warm weather and insects, only to 
freeze or starve to death. The disease or its associated fungus has 
spread to 20 States and 4 Canadian provinces in the 6 years since WNS 
was first observed in a cave near Albany, New York. The Northeastern 
United States has borne the brunt of WNS so far, but the disease or its 
fungus has spread as far south as Alabama. It has also reached as far 
west as Oklahoma, in a location closer to the Pacific Ocean than to the 
site of WNS's first observation in New York.
    Biologists consider the WNS die-off to be North America's most 
precipitous wildlife decline in the past century. The disease strikes 
hibernating bats--those that sleep through the winter in caves and 
mines--and has affected every hibernating bat species in its geographic 
path. Of the Nation's 47 bat species, 25 hibernate, and all of these 
hibernating species are considered at risk of the disease. WNS or the 
fungus currently affects nine species, including the federally 
endangered Indiana and gray bats, which could well be even closer to 
extinction as a result. Some WNS-infected sites experience mortality 
rates of almost 100 percent. Losses are so severe that researchers are 
predicting regional extinctions of the little brown bat--previously one 
of America's most common mammals--in Northeastern States within 15 
years.
    Bats provide many benefits to humankind. As primary predators of 
night-flying insects, bats are critical to maintaining the balance of 
nature. A bat can eat one-half to all of its body weight in insects per 
night, consuming vast numbers of pests that damage crops such as corn, 
cotton, and potatoes. A study published last year in the journal 
``Science'' estimates the value of bats to the U.S. agriculture 
industry ranges from $3.7 to $53 billion per year. Bats also eat 
insects that damage forests and spread disease. Some bat species 
pollinate crops and disperse seeds. Research of bat biology has yielded 
important chemical products, including a medication to prevent strokes. 
Bat droppings in caves support unique ecosystems, including 
microorganisms that could be used in detoxifying industrial wastes and 
producing safer pesticides and antibiotics.
    The loss of bats would have serious ecological and economic 
consequences. With millions of bats dead from WNS, their would-be prey 
insects are surviving to attack crops and forests. The ``Science'' 
article argues that, as a result of WNS, North American agriculture 
will begin noting economic losses within 3 to 4 years, with especially 
severe impacts to the Midwest and Great Plains regions. In addition to 
crop losses, farmers will need to use more pesticides, increasing the 
financial strain on farming families, raising the price of food for 
consumers, and releasing more chemicals into our environment. Bats are 
important predators, so their disappearance could have broad, ripple 
effects on the environment that we cannot yet assess.
    Population declines from WNS could lead to listing more bat species 
under the Federal Endangered Species Act, as well as State-level 
statutes, which would cause far-ranging economic costs. Due to WNS, the 
Fish and Wildlife Service (FWS) is conducting a status review of the 
little brown bat and listing reviews of the northern long-eared bat and 
eastern small-footed bat. At the State level, Ohio and Wisconsin have 
each listed four bat species, and other States are considering 
designations. Bat species affected by WNS have broad geographic 
distributions and complex ecological patterns, which would likely 
require very high recovery costs. Finally, regulations stemming from 
listing more bat species would have economic impacts on industries such 
as mining, defense, energy, forestry, construction, transportation, 
tourism, and outdoor recreation.
    BCI appreciates the commitment the Congress has demonstrated toward 
fighting WNS. In fiscal year 2010, the Congress made an appropriation 
of $1.9 million to FWS for WNS. In the fiscal year 2012 spending 
package, the Congress directed FWS to spend no less than $4 million on 
WNS, and directed Bureau of Land Management (BLM) and United States 
Forest Service (USFS) to prioritize WNS activities. We thank the 
Congress for recognizing not only the gravity of WNS, but also the 
institutional and geographic scope of the response needed to fight the 
disease. The Federal Government--in conjunction with partners in State, 
local, and tribal agencies, academic institutions, and nonprofits--has 
mounted an admirable response to the disease within the framework of 
the National Plan for Assisting States, Federal Agencies, and Tribes in 
Managing White Nose Syndrome in Bats (National Plan).
    The increases for WNS requested in the President's fiscal year 2013 
budget will enable Federal agencies to capitalize on, and add to, the 
hard-won progress they have made against WNS. Researchers have answered 
many of the basic science questions about this previously unknown 
disease, and are ready to apply the knowledge to exploring management 
and conservation measures. Failing to fund WNS this year will undermine 
the accomplishments Federal agencies and their partners have made to 
fight this devastating epidemic.
    BCI therefore supports the requests for WNS funding in the 
President's fiscal year 2013 budget, and we urge the subcommittee to 
maintain them. If the subcommittee can invest more in fighting WNS to 
protect bats and the valuable contributions bats make to the economy, 
agriculture, and the environment, we suggest the following outlays.
U.S. Fish and Wildlife Service--$4.5 Million
    We ask the subcommittee to maintain the $1.897 million for WNS in 
the President's fiscal year 2013 budget, and to maintain the 
President's fiscal year 2013 Recovery Fund request of $81.909 million. 
An additional $2.603 million for WNS--for a total of $4.5 million--
would incrementally increase the Congress's fiscal year 2012 
commitment.
    This will fund:
      Research.--Identify priorities for applied research that will 
        assist in combating WNS and managing its spread, and fund 
        projects that support these goals.
      Interagency Coordination.--Provide and relay scientific 
        information and guidance to and among Federal and State 
        agencies, tribes, landowners, recreation, and conservation 
        groups to ensure best practices on WNS-related issues, such as 
        research findings, status of disease spread, and fungus 
        decontamination procedures.
      State Support.--Provide funding for State wildlife agencies to 
        conduct disease surveillance, monitor bat populations, 
        implement conservation measures, and conduct research.
      Conservation Action for Bat Species in Decline Due to White Nose 
        Syndrome.--Assess populations and threats; provide guidance on 
        needs of species to Federal and State agencies and private land 
        owners.
U.S. Geological Survey--$1 Million Plus One Full-Time Equivalent
    We ask the subcommittee to maintain the requested increase in the 
President's fiscal year 2013 budget for $1 million and one full-time 
employee to carry out work related to WNS.
    This will support:
  --Enhancing WNS surveillance and diagnostic capabilities.
  --Research, on topics such as:
    --Vaccine development;
    --Pathogenesis--the origin, development, and resultant effects--of 
            WNS;
    --Prevalence and survival of WNS fungus in cave environments;
    --Modeling WNS disease processes.
    These activities support the goals of the following working groups 
of the National Plan:
  --Diagnostics;
  --Disease management;
  --Epidemiological and ecological research;
  --Disease surveillance; and
  --Conservation and recovery.
National Park Service--$300,000
    We ask the subcommittee to provide $300,000 for the National Park 
Service's WNS efforts.
    This will fund:
  --Preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis.
  --Conducting on-the-ground surveillance of disease.
  --Monitoring for disease presence or absence.
    These activities support the goals of the National Plan Disease 
Management Working Group.
Bureau of Land Management--$1 Million
    In order for BLM to continue the Congress's fiscal year 2012 
directive to ``prioritize research related to WNS in bats and the 
inventory and monitoring of bat resources on Bureau-administered 
lands'', we ask the subcommittee to provide $1 million for BLM's WNS 
efforts.
    This will fund bat inventories of the BLM's presently known caves 
and abandoned mines, supporting the goals of the National Plan Disease 
Management Working Group.
U.S. Forest Service--$1 Million
    In order for USFS to continue the Congress's fiscal year 2012 
directive to ``prioritize research related to White Nose Syndrome as 
well as inventory and monitoring of bat resources on Forest Service 
lands'', we ask the committee to provide $1 million to be divided 
between the Research and Development branch and the National Forest 
System branch.
    This will fund:
  --Research, on topics such as:
    --Enhancing environmental conditions for bat survival in the face 
            of WNS.
    --Possible biological controls for WNS.
    --Ways to measure the status and fitness of bat populations.
  --Preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis.
  --Conducting on-the-ground surveillance of disease.
  --Monitoring for disease presence or absence.
  --Managing forests to optimize bat habitat.
    These activities support the goals of the following National Plan 
Working Groups:
  --Disease management;
  --Epidemiological and ecological research; and
  --Conservation and recovery.
    Money spent on WNS is a wise investment. First, preventing the 
spread of WNS will spare businesses the regulatory and other impacts of 
bat die-offs. In addition, implementing WNS response generates jobs. 
Finally, conducting WNS research, management, and prevention now will 
reduce future expenses to the U.S. economy resulting from pest impacts 
to agriculture and forestry, businesses affected by additional bat 
listings, and the cost of listed-species recovery. In this case, an 
ounce of prevention is truly worth a pound of cure.
    Thank you for the opportunity to share BCI's position on this 
serious matter, and we respectfully ask you to consider our urgent 
request.
                                 ______
                                 
   Prepared Statement of the Bernalillo Board of County Commissioners

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical, and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Fish and 
Wildlife Service included an allocation of $1.5 million for Middle Rio 
Grande National Wildlife Refuge (NWR). I am pleased that this funding 
was included in the request and urge the Congress to provide necessary 
funds for LWCF for this important project.
    The 570-acre Price's Dairy property is located in the South Valley 
of Albuquerque, New Mexico, 5 miles south of downtown. This tract is 
one of the largest remaining farms in the Middle Rio Grande Valley and 
the largest agricultural property within the Albuquerque metro region. 
The city of Albuquerque is among the fastest-growing urban areas in the 
United States, and its developing sprawl contributes to a loss of 
history and culture while placing significant stress on the natural 
resources of the Valley and the Rio Grande.
    Over the years, various attempts have been made to preserve this 
property. During that time, other large-acreage properties on the river 
have been subdivided and developed and the water rights sold to support 
other needs. With a landowner who seeks a conservation outcome, the 
opportunity exists now to protect this section of the Rio Grande, 
engage the next generation though environmental education and outreach, 
and support economic development on the south side of the city. This is 
a property that has high environmental values but also will benefit New 
Mexico residents and visitors far into the future.
    These conservation efforts culminated on September 29, 2011, with 
an announcement by Secretary of the Interior Ken Salazar and the U.S. 
Fish and Wildlife Service (FWS) to authorize the Price's Dairy property 
as the Middle Rio Grande National Wildlife Refuge (MRGNWR). The unit 
would be the first urban refuge in the FWS southwest region. 
Overwhelming public support for the new refuge was generated throughout 
the FWS's planning process, and it was named one of the 50 State 
projects under the Obama administration's America's Great Outdoors 
Initiative.
    The creation of this new refuge will protect the natural resource 
values of the property that would be lost through subdivision and 
development, bolster environmental education and outreach for local 
students and residents, and provide a gateway to the larger regional 
park system. In addition, because of the property's significant senior 
water rights, the protection of this property would also add to the 
health and vitality of the adjacent Rio Grande, which is struggling to 
support the people and wildlife that depend on it for water. About 70 
percent of the State's population--more than 1.3 million people--live 
in the 10 counties along the Rio Grande.
    The FWS proposal creating the new MRGNWR emphasizes restoration of 
river, bosque, and wildlife habitats on the property. The section of 
the river next to Price's Dairy has been designated critical habitat 
for Rio Grande silvery minnow and southwestern willow flycatcher, two 
endangered species. The restoration of the landscape and the 
redistribution of acquired senior water rights on the property to 
increase instream flows would meet objectives to improve habitats and 
their viability, lower the threat to fish and wildlife of drought, and 
mitigate expected effects of climate change. Price's Dairy provides an 
important waypoint for migratory birds such as sandhill cranes, Arctic 
geese, and varied duck species that move up and down the river from 
summer breeding grounds in the north to wintering havens in the south.
    The river corridor also provides an opportunity for hiking and 
biking along the planned Rio Grande Trail, which is proposed to 
parallel the river as it cuts through New Mexico from north to south. 
The MRGNWR would provide an important trailhead for this system and 
also be a new southern terminus of the city of Albuquerque's existing 
Paseo del Bosque Trail. These recreational connections would improve 
public access to the Rio Grande and underscore the significant Federal, 
State, local, and private efforts to promote recreation and the 
outdoors.
    As an urban refuge, the MRGNWR will connect Albuquerque residents 
to the outdoors in ways not previously available. The refuge plan calls 
for the eventual construction of an onsite environmental education 
center to enhance student learning and connection with nature. The 
refuge unit could also become the site of agricultural extension 
offices, a native plant materials center, small farm demonstration 
plots that promote regionally cherished crops, and university-level 
scientific and agricultural research.
    Protection of Price's Dairy offers myriad benefits for the public. 
As open space and as a trailhead, it would provide recreational 
opportunities for an underserved part of the Albuquerque metro area. 
Its proximity to the Rio Grande, large undeveloped acreage, and 
existing farming activity offer the FWS and State agencies an 
opportunity to engage in sound environmental restoration practices 
while connecting young people and urban residents to the natural world. 
With the attraction of a FWS visitor's center and the nearby access to 
Interstate 25, there are also economic benefits to the South Valley.
    The acquisition of the property and associated senior water rights 
is expected to cost up to $20 million. Demonstrating the importance of 
the project to the Albuquerque metropolitan area, the Bernalillo County 
Board of Commissioners, of which I am a member, unanimously voted on 
September 28, 2010 to appropriate $5 million in county funds for the 
acquisition. These funds were made available only over a period of 2 
years from approval and expire in late September 2012. To match these 
funds, other funding is being sought from a variety of local, State and 
Federal sources, and the landowner agreement in place requires a Phase 
I closing by the end of June 2012.
    To date, in addition to the county funds, $1 million has been 
secured from the Albuquerque Metropolitan Flood Control Authority and 
$1 million from the Bureau of Reclamation. The fiscal year 2013 
President's budget request for FWS includes an allocation of $1.5 
million from the LWCF to the MRGNWR, which may be supplemented by 
additional LWCF dollars and FWS grants. In order to ensure that this 
project moves forward in a timely way, the fiscal year 2013 President's 
budget recommendation is urgently needed, while the effort to secure 
supplemental local, State, Federal, and private funds continues.
    In closing, I urge you to provide funding for the LWCF of $450 
million, as proposed in the President's fiscal year 2013 budget, 
including critical funding for the Middle Rio Grande NWR. I want to 
thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in New Mexico, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
      Prepared Statement of Chugach Regional Resources Commission

    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony 
reflecting the needs, concerns and requests of CRRC regarding the 
proposed fiscal year 2013 budget. As is everyone, we are aware of the 
ongoing economic problems in the United States. While the Government is 
trimming its spending, the Federal Government must still fulfill its 
legal and contractual spending obligations. The Bureau of Indian 
Affairs (BIA) not only has a legal and contractual obligation to 
provide funding for the CRRC, but the CRRC is able to translate this 
funding into real economic opportunity for those living in the Prince 
William Sound region.
    After failing to seek funding for CRRC for more than a decade, we 
are very pleased that the BIA has recognized its obligation to CRRC and 
has requested $350,000 for CRRC in fiscal year 2013. In its fiscal year 
2013 budget justification, the BIA recognized CRRC's role in developing 
the capabilities of its member villages to better facilitate their 
active participation in resource use and allocation issues in Alaska. 
We urge the subcommittee to support this funding and include it in the 
final bill.
    Chugach Regional Resource Commission History.--CRRC is a coalition 
of Alaska Native Villages, organized in 1987 by the seven Native 
Villages located in Prince William Sound and Lower Cook Inlet in 
southcentral Alaska:
  --Tatitlek Village IRA Council;
  --Chenega IRA Council;
  --Port Graham Village Council;
  --Nanwalek IRA Council;
  --Native Village of Eyak;
  --Qutekcak Native Tribe; and
  --Valdez Native Tribe.
    CRRC was created to address environmental and natural resources 
issues and to develop culturally sensitive economic projects at the 
community level to support the sustainable development of the region's 
natural resources. The Native Villages' action to create a separate 
entity demonstrates the level of concern and importance they hold for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding.
    Employment.--Through its many important programs, CRRC has provided 
employment for up to 35 Native people in the Chugach Region annually--
an area that faces high levels of unemployment--through programs that 
conserve and restore our natural resources.
    An investment in CRRC has been translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment and opportunities 
of other families. Our programs, as well, support future economic and 
commercial opportunities for the region--protecting and developing our 
shellfish and other natural resources.
    Programs.--CRRC has leveraged its $350,000 from BIA into almost $2 
million annually to support its several community-based programs. 
Specifically, the $350,000 base funding allowed CRRC to maintain core 
administrative operations, and seek specific projects funding from 
sources such as the Administration for Native Americans, the Exxon 
Valdez Oil Spill Trustee Council, the State of Alaska, Bureau of Indian 
Affairs, U.S. Forest Service, U.S. Fish and Wildlife Service, and the 
U.S. Department of Education. This diverse funding pool has allowed 
CRRC to develop and operate several important programs that provide 
vital services, valuable products, and necessary employment and 
commercial opportunities. These programs include:
      Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        The 20,000 square foot shellfish hatchery is located in Seward, 
        Alaska, and houses shellfish seed, brood stock and algae 
        production facilities. Alutiiq Pride is undertaking a hatchery 
        nursery operation, as well as grow-out operation research to 
        adapt mariculture techniques for the Alaskan Shellfish 
        industry. The Hatchery is also conducting scientific research 
        on blue and red king crab as part of a larger federally-
        sponsored program. Alutiiq Pride has already been successful in 
        culturing geoduck, oyster, littleneck clam, and razor clam 
        species and is currently working on sea cucumbers. This 
        research has the potential to dramatically increase commercial 
        opportunities for the region in the future. The activities of 
        Alutiiq Pride are especially important for this region 
        considering it is the only shellfish hatchery in the state, and 
        therefore the only organization in Alaska that can carry out 
        this research and production.
      Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska, Fairbanks, and the National Oceanic and 
        Atmospheric Administration, CRRC is developing and implementing 
        a model curriculum in natural resource management for Alaska 
        Native students. This curriculum integrates traditional 
        knowledge with Western science. The goal of the program is to 
        encourage more Native students to pursue careers in the 
        sciences. In addition, we are working with the Native American 
        Fish & Wildlife Society and tribes across the country 
        (including Alaska) to develop a university level textbook to 
        accompany these courses.
      In addition, we are in the process of completing a K-12 Science 
        Curriculum for Alaska students that integrates Indigenous 
        knowledge with western science. This curriculum is being 
        piloted in various villages in Alaska and a thorough evaluation 
        process will ensure its success and mobility to other schools 
        in Alaska.
      Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives, as well 
        as conducting harvest surveys and various research projects on 
        migratory birds of conservation concern. Our participation in 
        this State wide body ensures the legal harvest of migratory 
        birds by Indigenous subsistence hunters in the Chugach Region.
      Statewide Subsistence Halibut Working Group.--CRRC participates 
        in this working group, ensuring the halibut resources are 
        secured for subsistence purposes, and to conduct harvest 
        surveys in the Chugach Region.
    We urge the Congress to sustain the $350,000 included in the BIA's 
fiscal year 2013 budget for CRRC. We appreciate the opportunity to 
submit this important testimony.
                                 ______
                                 
               Prepared Statement of the Cherokee Nation

                              INTRODUCTION

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee thank you for accepting testimony into the record on 
fiscal year 2013 budgetary concerns regarding Native American Issues. 
Cherokee Nation requests that in setting fiscal year 2013 Bureau of 
Indian Affairs (BIA) and Indian Health Services (IHS) budget 
priorities, the Federal Government uphold its Trust Responsibility to 
tribes.
    Cherokee Nation was one of the first tribes to enter into a treaty 
with the United States. In that tradition, the Cherokee Nation executed 
a self-determination contract in 1990 under title III of the Indian 
Self-Determination and Education Assistance Act (ISDEAA), which gave 
the tribe more authority to administer its programs. In just two 
decades, Cherokee Nation has taken over the administration of several 
BIA and IHS programs, including healthcare, education, and law 
enforcement. ISDEAA is a powerful mechanism that provides tribes with 
the opportunity to control and administer essential governmental 
services and engage in local economic and resource development.
    Cherokee Nation is the largest employer in northeastern Oklahoma 
and has an economic impact of more than $1.06 billion on the State's 
output level, including $401 million in State income impacts, and 
supports 13,527 jobs in a predominantly under-developed, rural region 
of Oklahoma. While 3,250 people are employed in the Nation's 
Government, an ever-increasing number of people are employed in the 
Nation's diverse portfolio of businesses, including hospitality, 
healthcare, aerospace, and technology sectors.
    The combined revenue from the tribe's business operations helps 
fund essential Government services while offering a foundation to 
expand and diversify economic development and create job growth in 
Oklahoma. Therefore, adequate funding for both IHS and BIA is vital to 
maintain and increase our recent progress and strength.

                  FIXED COSTS--CONTRACT SUPPORT COSTS

    One of the most important budgetary issues facing Indian Country 
for the next fiscal year is the funding of contract support by BIA and 
IHS. In Indian Country, every $1 lost in contract support costs is $1 
subtracted from healthcare, education, law enforcement, and other 
critical governmental services. The contract support cost (CSC) 
deficiency has caused severe financial strains on Cherokee Nation's 
programs and facilities.
    Because CSCs are fixed costs that a contractor must incur, tribes 
are required to either:
  --reduce funds budgeted for critical healthcare, education, and other 
        services under contract to cover the shortfall;
  --divert tribal funds to subsidize the Federal contract (when such 
        tribal funds are available); or
  --use a combination of these two approaches. For every $1 million 
        that the Cherokee Nation must divert from direct patient care 
        to cover CSCs, the Cherokee Nation health system must forego 
        5,800 patient visits.
    While the President's fiscal year 2013 budget request for IHS is 
$4.42 billion--an increase of $115.9 million more than the fiscal year 
2012 enacted level--IHS sees only a very modest $5 million increase in 
IHS funding for contract support. The Cherokee Nation appreciates the 
increase, but it is less than a 1-percent increase more than the fiscal 
year 2012 enacted level. At this level, the IHS contract support cost 
shortfall is estimated to increase to approximately $100 million in 
fiscal year 2013. This shortfall will substantially impact Cherokee 
Nation, which, like other tribes across the United States, operates 
replacement or joint venture facilities throughout our tribal 
jurisdiction.
    The projected CSC shortfall will force the Cherokee Nation to 
divert investments in job creation and other important programs to 
avoid decreasing primary care, dental treatment, and pharmaceutical 
coverage. As long as the Federal Government maintains the status quo of 
inadequate funding, the United States is failing in its partnership 
with tribes and is ignoring its Trust Responsibility.
    Fortunately, BIA does not have the same CSC shortfall crisis. 
Cherokee Nation appreciates the President's budget proposal because it 
increases Indian self-determination funds by $8.8 million. This 
increase must be protected during the appropriations process to avoid 
the same problems IHS has with CSC funding and BIA should be seen as a 
model for IHS.
    We appreciate past and current efforts to reduce shortfalls, but it 
is unacceptable for sequestration or domestic deficit reduction efforts 
to single out tribes by cutting tribally administered health and law 
enforcement programs. The Federal Government has a moral and legal 
obligation to fund these essential governmental services. The trust 
responsibility is not, and should not be viewed as, discretionary 
spending.

                         INDIAN HEALTH SERVICE

    Under a Self-Governance compact with the Department of Health and 
Human Services, the Cherokee Nation constructs and maintains waterlines 
and improves sanitary services throughout the region. Furthermore, in 
conjunction with IHS contract support cost dollars, the tribe operates 
a sophisticated network of eight rural outpatient health centers that 
provide Native people with primary medical care, dental service, 
optometry, radiology, mammography, behavioral health promotion and 
disease prevention, and a public health nursing program.
    In addition to these services, the Cherokee Nation operates WW 
Hastings Indian Hospital in Tahlequah, Oklahoma. Hastings is a 60-bed 
facility offering outpatient and ancillary services with more than 
300,000 outpatient visits each year and more than 335,000 prescriptions 
filled annually. Adequate funding is required to continue this 
successful partnership in fulfillment of the Unites States' trust 
obligations and IHS must be exempt from future reductions during 
appropriations and the sequestration process as prescribed in the 
Budget Control Act of 2011.

                  EXPANDING THE JOINT VENTURE PROGRAM

    The IHS Joint Venture program demonstrates the shared commitment of 
tribal nations and IHS. This program provides additional health 
facilities within the Indian health system and the staff necessary to 
support the facilities across Indian Country. This program has been 
effective in the Oklahoma City area as well as providing staff at our 
clinics across eastern Oklahoma. Cherokee Nation requests the Joint 
Venture program be funded at an adequate level, including CSC funds.

                  INDIAN HEALTH CARE IMPROVEMENT FUND

    In addition to the well-documented disparate funding between IHS 
and other federally funded health programs, funds among the various IHS 
areas are distributed inequitably. In order to address such inequities, 
the Indian Health Care Improvement Fund (IHCIF) was created to achieve 
parity among the IHS areas. Over the years, tribes have recommended the 
Federal Government implement a time-limited plan to bring all IHS 
operating units to the 80-percent level. To achieve parity, a $1 
billion investment will be required during a 4-year period.

 SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION BLOCK GRANT 
                                 FUNDS

    The President's fiscal year 2013 budget request for Substance Abuse 
and Mental Health Services Administration (SAMHSA) is $3.4 billion, a 
$141.9 million decrease from the fiscal year 2012 enacted level. Each 
State receives block grant (formula) funds from SAMHSA for providing 
behavioral health services to all residents within the State. However, 
when an American Indian is in need of behavioral health services, he 
typically seeks care through an IHS or tribally operated facility, as 
opposed to a State agency or State-operated facility. As with 
competitive and discretionary funds, increasing and giving the Cherokee 
Nation access to this type of funding would expand our opportunity to 
improve our behavioral health services and better meet the system's 
current demand.

                        BUREAU OF INDIAN AFFAIRS

    Cherokee Nation compacts with the Department of the Interior to 
administer a wide array of Federal programs serving American Indians. 
Full Federal funding is crucial for continued administration of social 
services, child wellness programs, child abuse services, adult and 
higher education, housing improvement, law enforcement service, road 
and bridge construction, planning and maintenance, forestry and real 
estate programs, and Johnson O'Malley education programs.

                     INDIAN GUARANTEED LOAN PROGRAM

    The Indian Guaranteed Loan Program, established under the Indian 
Financing Act of 1974, helps Cherokees and other Native Americans 
access capital by guaranteeing and insuring loans to promote economic 
development throughout Indian Country. The program leverages 
appropriated monies by a ratio of 13 to 1. However, in the upcoming 
budget, the program sees a $2.1 million reduction to $5 million because 
it is purportedly duplicative of programs in other agencies. However, 
these programs do not replace the Guaranteed Loan Program. Cherokee 
Nation requests this highly successful program be fully funded so 
tribes may access loans when attempting to increase their economic 
livelihood in often economic-depressed regions.

                      TRIBAL PRIORITY ALLOCATIONS

    We join our fellow Self-Governance Tribes in continuing to request 
funding increases for the fundamental services provided as Tribal 
Priority Allocations (TPA). Of the 566 federally recognized tribes, 235 
tribes manage their own affairs under Self-Governance agreements with 
the BIA. Although these tribes account for 42 percent of the federally 
recognized tribes, they received roughly only 15 percent of BIA budget, 
which bears the responsibility for providing services to all federally 
recognized tribes. Collectively, most of the varied programs fall under 
the broad category of ``Tribal Priority Allocations.''
    The President's fiscal year 2013 budget includes $2.5 billion for 
BIA, which is $4.6 million or 0.2 percent less than the fiscal year 
2012 enacted level. While this is basically level with fiscal year 
2012's budget, any decrease strains tribal governments. Further, the 
budget proposes a total of $897.4 million in TPA and these funds must 
be protected as the budget process proceeds.

  SEQUOYAH SCHOOLS AND THE TRIBAL EDUCATION DEPARTMENTS PILOT PROJECT

    In 1985, Cherokee Nation gained control of Sequoyah Schools, a 
former, underperforming BIA boarding school. After years of tribal 
control, Sequoyah is now regionally and State accredited, consistently 
meets Adequate Yearly Progress goals and is flourishing. While Sequoyah 
receives funding from Bureau of Indian Education grants, the Cherokee 
Nation also utilizes tribal funding from motor vehicle tag sales to 
fund the School.
    The Campus now covers more than 90 acres and houses more than 400 
students in grades 7-12 representing 42 tribes. Cherokee Nation and 
other tribes better understand how to educate our children and provide 
cultural curricula that revitalizes and protects language and tribal 
history. The School also creates an academic environment that mirrors 
college preparatory schools by utilizing an advanced curriculum and 
using data collection to track student progress and School performance, 
which allows the administrators to quickly address any deficiencies or 
problems that develop.
    Therefore, Cherokee Nation is very appreciative of the $2 million 
appropriated for the Tribal Education Departments (TEDs) Pilot Project 
in the fiscal year 2012 Department of Education budget. Funding for 
TEDs is also authorized in No Child Left Behind Act for DOI, but has 
not been funded. This pilot project will increase the role of TEDs in 
education and will help tribes provide an equitable learning 
environment for our children. Therefore, we request $2 million in 
fiscal year 2013 for the TED pilot project.
    The pilot project will allow tribes and the Federal Government to 
utilize a method of funding that has been demonstrated to increase 
efficiency and self-determination in other areas. The pilot project 
allows TEDs to receive funding as authorized in the Elementary and 
Secondary Education Act (ESEA) for education programs and authorizes 
the TED to directly administer such ESEA programs in a similar fashion 
as the Cherokee Nation receives and administers funding for IHS and BIA 
self-governance programs. The Nation respectfully requests this 
subcommittee work with the House Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies and 
Subcommittee on the Interior, Environment, and Related Agencies to 
ensure the pilot project is funded and that the appropriations act 
language directs the Department of the Interior and Education to 
directly provide ESEA funding to the tribes chosen to participate in 
the pilot project.

                               CONCLUSION

    Cherokee Nation is committed to providing Federal services and 
direct, local-level programs, including job creation, education, health 
and law enforcement services, in a time when economic issues and 
desired deficit reduction hinder Federal attempts to accomplish the 
same. The Federal Government's current fiscal situation does not negate 
its trust responsibility to Cherokee Nation and Indian Country. Thank 
you for your continued support and for the opportunity to provide 
testimony on these critical fiscal year 2013 budget issues. Please 
contact the Cherokee Nation Washington Office at 202.393.7007 with any 
questions or requests for additional information.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network

    The Children's Environmental Health Network (CEHN) providing 
testimony on fiscal year 2013 appropriations, especially appropriations 
for the Environmental Protection Agency (EPA) and the Agency for Toxic 
Substances and Disease Registry (ATSDR).
    We are writing today to provide testimony on the fiscal year 2013 
budget currently before your subcommittee, especially the budget 
proposed by the President for the Environmental Protection Agency 
(EPA).
    This year, CEHN is celebrating its 20th anniversary as a national 
nonprofit organization whose mission is to protect the developing child 
from environmental hazards and promote a healthier environment. The 
Network's Board and committee members include internationally 
recognized experts in children's environmental health science and 
policy who serve on key Federal advisory panels and scientific boards. 
We recognize that children, in our society, have unique moral standing.
    The Network is deeply concerned about the health of the Nation's 
children and urges the subcommittee to help all children grow up in 
healthy environments by embracing its role in protecting our 
environment and our health.
    American competitiveness depends on having healthy educated 
children who grow up to be healthy productive adults. Yet, growing 
numbers of our children are diagnosed with chronic and developmental 
illnesses and disabilities. The National Academy of Sciences estimates 
that toxic environmental exposures play a role in 28 percent of 
neurobehavioral disorders in children and this does not include other 
conditions such as asthma or cancers. Thus, it is vital that the 
Federal programs and activities that protect children from 
environmental hazards receive adequate resources.
    CEHN urges the subcommittee to provide funding at or above the 
requested levels for the following EPA activities:
  --Office of Children's Health Protection (OCHP);
  --Children's Environmental Health Research Centers of Excellence;
  --Office of Research and Development;
  --School and Child Care Environmental Health;
  --The Pediatric Environmental Health Specialty Units; and
  --The National Children's Study.
    CEHN also urges full funding of all activities that advance healthy 
school and childcare environments for all children.
    As epidemiologists see increasing rates of asthma, learning 
disabilities, and childhood cancers; as parents seek the causes of 
birth defects; as researchers understand more and more about the fetal 
origins of disease, policymakers must do a much better job of 
understanding and acting on the connections between children's health 
and the environments in which they spend their time.
    These environments include but go beyond home, school, and 
childcare settings. A growing number of studies are finding unexpected 
impacts of prenatal environmental exposures on health in later years. 
For example, prenatal exposures to either a common air pollutant or a 
common pesticide have both been linked to lower IQs and poorer working 
memory at age 7.
    Thus, all agencies should assure that their children's programs 
build on and respond to the growing evidence of the importance of 
prenatal exposures to a child's health and future.
    This evidence also highlights the shortcomings of the Toxic 
Substances Control Act, which does not adequately protect human health, 
including that of vulnerable populations such as children. The Network 
urges you, as Members of Congress, to support the long overdue reform 
of this important statute to give priority to the protection of human 
health under this law.
    A variety of factors, such as children's developing systems, their 
unique behaviors and differing exposures, mean that children can be 
more susceptible than adults to harm from toxic chemicals. Standards 
and guidelines that are based on adults cannot be assumed to be 
protective of children. EPA programs of highest importance in the 
protection of children are described below.
    Environment Protection Agency's Office of Children's Health 
Protection.--EPA's efforts to protect children from environmental 
hazards have been led by OCHP since 1997. Despite an effective track 
record, funding for OCHP has been level, at approximately $6 million, 
since its creation. CEHN strongly supports an increase in funding for 
OCHP for its work on environmental health in the home, school and child 
care settings. This valuable work includes the office's interagency 
work promoting healthy housing and healthy children, where we find that 
environmental interventions result in great cost savings, not to 
mention the health problems averted, such as asthma episodes and lead 
poisoning cases. There is great interest but few resources for these 
approaches. OCHP--and EPA--must also build on the research on prenatal 
exposures, an area of growing concern. OCHP should help healthcare 
providers better understand the science and in translating these 
findings for clinical consultation and communicating with patients. 
CEHN urges the subcommittee to provide funds more than the proposed 
level for OCHP.
    Children's Environmental Health Research Centers of Excellence.--
The Centers, jointly funded by EPA and National Institute of 
Environmental Health Sciences (NIEHS), play a key role in providing the 
scientific basis for protecting children from environmental hazards. 
With their modest budgets, which have been unchanged over more than 10 
years, these centers generate valuable research. We were pleased to see 
the commitment by EPA's Office of Research and Development to this 
program in the budget language and applaud the recent release of 
Requests for Proposals for the Children's Centers. A unique aspect of 
these Centers is the requirement that each Center actively involves its 
local community in a collaborative partnership, leading both to 
community-based participatory research projects and to the translation 
of research findings into child-protective programs and policies. The 
scientific output of these centers has been outstanding. It was these 
centers, for example, that generated the findings I mentioned earlier 
about connections between prenatal exposures and lower IQ at age 7. We 
urge you to provide full funding for these Centers.
    Office of Research and Development.--This office is critical in 
efforts to understand environmental impacts on children's health. 
Children's environmental health is a priority of EPA's strategic plan 
and we were pleased to see the mention in the fiscal year 2013 budget 
supporting continued research on children's issues. Yet the funding and 
research dedicated to this area is not specifically listed or 
identified in the plan. If this area is indeed a priority, where are 
measurable goals on this area of research? Where is the documentation 
of the amount and type of research conducted as well as how the 
protection of children is given priority throughout Office of Research 
and Development (ORD)? We ask that your subcommittee direct the office 
to improve transparency by tracking and reporting on the funding and 
research across the office dedicated to children's environmental 
health.
    ORD's focus on sustainability in its work is commended; no truly 
sustainable development paradigm could be developed without protecting 
children and their future. Children's environmental health is an issue 
that cuts across all of ORD's programs. For example, EPA's National 
Health and Environmental Effects Research Laboratory scientists are 
protecting children's health through the development of cost-effective 
methods to test and rank chemicals for their potential to cause 
developmental neurotoxicity. Historic methods using laboratory animals 
are expensive and time consuming. To date, only a small number of the 
thousands of chemicals currently in commerce have been assessed for 
their potential toxicity and for their effects on the child's 
developing nervous system. These new testing methods can screen in 
hours to days instead of months to years and will provide faster, less 
expensive ways of assessing potential toxicity.
    These new testing methods, however, do not replace the need for 
continued research in childhood exposures and health effects. Our 
understanding is that of the $81 million proposed for the grants 
program, only $6.3 million is targeted to children's research (for the 
centers mentioned above). Much of the research in this field cannot be 
conducted in a short timeframe and requires sustained funding if 
scientists are to conduct research and measure effectiveness.
    School and Chlid Care Environmental Health.--In America today, 
millions of infants, toddlers and preschoolers, often as young as 6 
weeks to 4 years of age, spend 40-50 hours a week in childcare. Yet, 
little is known about the environmental health status of the Nation's 
childcare centers or how to assure that these facilities are protecting 
this highly vulnerable group of children. Environmental health is 
rarely if ever considered in licensing centers or training childcare 
professionals. Similarly, about 54 million children and nearly 7 
million adults--20 percent of the total U.S. population--spend up to 40 
hours per week inside school facilities every week. Unfortunately, many 
of these facilities contain unsafe environmental conditions that harm 
children's health and undermine attendance, achievement, and 
productivity. Thus, it is vital that EPA maintain and expand its 
activities for healthy school and child care settings, such as the 
Indoor Air Quality Tools for Schools program.
    Pediatric Environmental Health Specialty Units.--Funded jointly by 
EPA and the Agency for Toxic Substances and Disease Registry, the 
Pediatric Environmental Health Specialty Units (PEHSUs) form a valuable 
resource network, with a center in each of the U.S. Federal regions. 
PEHSU professionals provide medical consultation to healthcare 
professionals on a wide range of environmental health issues, from 
individual cases of exposure to advice regarding large-scale community 
issues. PEHSUs also provide information and resources to school, child 
care, health and medical, and community groups to help increase the 
public's understanding of children's environmental health, and help 
inform policymakers by providing data and background on local or 
regional environmental health issues and implications for specific 
populations or areas. We urge the subcommittee to provide adequate 
funding for both EPA's and ATSDR's portions of this program.
    National Children's Study.--The National Children's Study (NCS) is 
examining the effects of environmental influences on the health and 
development of more than 100,000 children across the United States, 
following them from before birth until age 21. This landmark 
longitudinal cohort study--involving a consortium of agencies including 
Centers for Disease Control and Prevention (CDC) and NIEHS--will be one 
of the richest research efforts ever geared toward studying children's 
health and development and will form the basis of child health 
guidance, interventions, and policy for generations to come. CEHN urges 
the subcommittee to restore the budget of NCS for fiscal year 2013 to 
ensure that EPA has sustained funding for the necessary infrastructure 
for data access and the ability to collaborate with its partners on the 
NCS.
    Children's Health and Healthy Children Must be an Ongoing Priority 
for This and Every Administration.--Since CEHN's creation 20 years ago, 
great leaps forward have been made. We commend the EPA for its great 
progress in recognizing children's unique susceptibilities to 
environmental toxicants. More remains to be done, however. CEHN urges 
the subcommittee to direct EPA to assure that all of its activities and 
programs--including regulations, guidelines, assessments and research--
specifically consider children.
    EPA's work must always assure that children and other vulnerable 
subpopulations are protected, especially poor children, minority 
children, farmworker children, and others at risk. A wonderful example 
doing just that is EPA's long-awaited decision to limit emissions of 
mercury and other toxicants from power plants. Mercury is a potent 
neurotoxin, which can permanently damage a child's sensitive nervous 
system. If we want our children to reach their full potential, we need 
to get mercury out of their environment. This proposal is a practical, 
cost-effective, and vital step toward this goal. Other benefits of this 
rule will be decreased exposures to pollutants that can cause cancer or 
trigger asthma attacks.
    Thank you for the opportunity to testify on these critical issues, 
and thank you for your concern about the environmental health of 
children.
                                 ______
                                 
          Prepared Statement of the Cook Inlet Tribal Council

    Chairman Reed and members of the subcommittee, thank you for the 
opportunity to speak before you today. My name is Gloria O'Neill and I 
am the President and CEO of Cook Inlet Tribal Council (CITC), an Alaska 
Native tribal nonprofit organization which serves as the primary 
education and workforce development center for Native people in 
Anchorage. CITC has been designated tribal authority through Cook Inlet 
Region Inc., organized through the Alaska Native Claims Settlement Act 
and recognized under section 4(b) of the Indian Self-Determination Act 
and Education Assistance Act, Public Law 93-638. CITC builds human 
capacity by partnering with individuals to establish and achieve both 
educational and employment goals that result in lasting, positive 
change for themselves, their families, and their communities.
Demographics and Expanding Service Population
    CITC's programs serve Alaska Native and American Indian people in 
the Cook Inlet Region, which includes Alaska's most urbanized and 
populated communities, and is home to an Alaska Native/American Indian 
population of more than 40,000, approximately 40 percent of the Native 
population of the State of Alaska. In Anchorage alone, the Native 
population is approximately 22,000, about 20 percent of the total 
Native population in the State. Anchorage is the fourth-largest Native 
community in the Nation. CITC's programs address many of the social, 
economic, and educational challenges faced by Alaska Native people. For 
example, Alaska Native students are twice as likely to drop out as 
their non-Native peers; 33 percent of Alaska's unemployed are Alaska 
Native people, and almost 20 percent of Alaska Native people have 
incomes below the Federal poverty line--nearly three times the rate of 
non-Native people.
    In-migration from rural, largely Alaska Native communities to the 
urban areas in the Cook Inlet Region is accelerating as Alaska Native 
people find it increasingly difficult to make a living in rural Alaska. 
Fifty-nine percent of CITC's participants have been in Anchorage for 5 
years or less; and employment, training, and education are frequently 
cited as reasons for moving to Anchorage. In contrast, the current 
Bureau of Indian Affairs funding formula for CITC is based on the 
population figure of 14,569--from the 1990 census--which leaves CITC 
with a funding shortfall to meet the needs of the 40,000 Alaska Native 
and American Indian people currently residing in our service region. 
CITC is able to create and maintain successful programs, despite this 
shortfall, due to flexibility granted by the 477 program that allows us 
to leverage our existing funding and maximize efficiencies.
Public Law 102-477 is Essential to Effective Service Provision
    The Indian Employment Training and Related Services Demonstration 
Act, Public Law 102-477, as amended, 25 U.S.C. 3401-3417 (or the ``477 
program''), administered by the Office of Indian Energy and Economic 
Development in the Department of the Interior, provides a critical 
foundation for maximizing the effectiveness of CITC's programs. The law 
allows the consolidation of funding streams from the U.S. Departments 
of the Interior (DOI), Health and Human Services (HHS), and Labor (DOL) 
into a single employment and training program. The 477 program enables 
flexibility on the part of the receiving organization to plan the 
programming to best fit the needs of the community and minimize 
administrative redundancy by merging reporting requirements, while 
still adhering to the Government Performance Results Act's stringent 
accountability standards.
Cook Inlet Tribal Council 477 Programs
    The 477 Program is essential to the success of our program as it 
allows CITC to increase effectiveness and innovation, enhance 
interoperability, and eliminate inefficiency while maximizing program 
outcomes. The wrap-around services we provide include job training and 
placement, Temporary Assistance for Needy Families (TANF), and child 
care. CITC's Employment and Training Services Department (ETSD) 
provides comprehensive services to assist Native job seekers. CITC's 
employment and training programs are based on the premise that 
effective solutions to workforce development require integrated 
approaches to ensuring job readiness, training, and placement. By 
working closely with State and Federal programs, community and tribal 
nonprofits, universities, vocational training centers, employers, and 
Native corporations, CITC is able to provide a wide array of training 
and employment assistance, coupled with supportive services, to help 
overcome many barriers to employment.
    CITC is the sole provider of tribal TANF in Anchorage, a key 
component of our 477 program. Our TANF program is built on an 
integrated service model that connects participants to the range of 
programs offered throughout CITC's departments. Through our integrated 
service model, CITC has reduced caseloads as well as effectively 
implemented TANF prevention. This is precisely the type of innovation 
and interoperability that would be impossible without the flexibility 
provided by the 477 program.
    Furthermore, efficiencies gained within the TANF program resulted 
in a 5-year savings of $7.1 million--savings that have been re-invested 
in supportive services and programs going directly to participants. 477 
allows tribes and tribal entities (e.g., CITC) to administer federally 
funded employment and job training programs as a single program, with a 
single budget and single set of reporting requirement. CITC relies on 
the 477 program to provide our people more effective and integrated 
services while reducing costly administrative redundancy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over the past 5 years CITC 477-supported programs have:
  --Provided 8,257 job seekers with career coaching, training, and job 
        search assistance; 5,403 (65 percent) of these individuals were 
        placed in jobs. In 2010, the average hourly wage (AHW) of a job 
        seeker coming to CITC for services was $9.95--upon leaving CITC 
        their AHW was $17.23.
  --Transitioned 2,270 TANF recipients from welfare to work, with an 
        AHW of $11.53.
  --Provided training opportunities and job placement in critical 
        employment sectors, including:
    --Customer Service/Retail Management (AHW $11.01);
    --Driver's Education (AHW $14.16) and CDL Driver's Certification 
            (AHW $16) Union Apprenticeship (AHW $number needed);
    --Weatherization Training (AHW $14.77-$22.15);
    --Healthcare: CNA, LPN, RN, Medical Coding (AHW $13.79)
    We are proud of the effective programs that we provide and the 
success that our participants enjoy. The 477 program is critical to our 
effectiveness, especially in this environment of shrinking funding 
sources.
Subcommittee Support for 477
    Last year the tribes sought assistance from the Congress regarding 
two problematic changes the agencies proposed to the administration of 
the 477 program that would significantly undermine its success:
  --ending the practice of transferring 477 program funds to 
        participating tribes and tribal organizations through Public 
        Law 93-638 contracts or Self-Governance agreements, as 
        authorized by the Indian Self-Determination and Education 
        Assistance Act (ISDEAA); and
  --a new requirement that 477 tribes and tribal organizations report 
        their 477 expenditures separately by funding source number for 
        audit purposes.
    This subcommittee has been very responsive to the tribes' concerns 
and supportive of the 477 program. The House/Senate Appropriations 
conferees on the fiscal year 2012 Interior, Environment, and Related 
Agencies appropriations bill instructed the Federal agencies to engage 
in consultations with the 477 tribes and tribal organizations to reach 
consensus on the transfer and reporting of funds administered by tribes 
through program plans adopted by tribes and approved by the Department 
of the Interior under the 477 program.
    The Federal agencies and 477 tribes agreed to try to resolve their 
differences over these issues, which led to the formation of the Public 
Law 102-477 Administrative Flexibility Work Group. This group has met 
weekly and included policy and program representatives from DOI, which 
administers the 477 program, HHS, DOL and the Office of Management and 
Budget (OMB), as well as representatives from 10 affected tribes and 
tribal organizations. In the meantime, the agencies agreed to 
temporarily allow funds to continue to be transferred through ISDEAA 
and have suspended the reporting requirements instituted in the March 
2009 OMB Circular. The agencies and tribes have moved toward consensus 
in some general areas:
  --First, the agencies and tribal representatives agree in principal 
        that the 477 program is one provided for tribes by virtue of 
        their status as Indians. Its targeted purpose is to facilitate 
        employment opportunities for Indian youth and adults, as well 
        as to encourage tribal self-sufficiency consistent with self-
        determination principles. The 477 program is structured so that 
        tribal program plans, as authorized under the 477 act, are 
        approved and administered by the Bureau of Indian Affairs, and 
        thus can be funded through ISDEAA.
  --Second, the both sides have agreed in principal that the 477 act 
        authorizes tribes to develop 477 program plans to integrate 
        services and expenditures from various agency programs in a 
        single, coordinated, comprehensive tribal program plan with a 
        single budget and a single annual report delivered to DOI. The 
        current reporting system includes OMB-approved statistical, 
        narrative, and financial reporting forms. The Federal agencies 
        have identified limited additional reporting information 
        required by law but not currently reported in the consolidated 
        reports provided annually to DOI. Discussion is ongoing as to 
        what, if any, additional information needs to be included in 
        the statistical, narrative, and financial reports.
    In spite of this progress, it has become clear that the agencies 
continue to question one of the fundamental purposes of the 477 
program--to allow tribes and tribal organizations to reallocate their 
funds within their approved 477 program in order to address local 
issues and programmatic needs in the most effective manner. From our 
perspective, giving this authority and responsibility to tribes to meet 
their own needs is exactly the point and strength of the 477 program. 
It is precisely this flexibility that has allowed us to be so 
successful. In addition, the tribal representatives have requested, but 
not received, written confirmation that this funding mechanism will 
continue without restriction and be available for new programs coming 
into the 477 program in the future. Finally, the tribes continue to 
request that the 2009 OMB Circular A-133 be permanently suspended or 
rescinded.
    Given this disagreement of fundamental principle, we urge the 
subcommittee to remain involved in this issue and supportive of the 477 
program. Specifically, we request that the subcommittee maintain 
section 430, the language on 477 that was included in the bill last 
year, and amend to clarify the intent of the program by adding 
following language:

    ``(3) all funds transferred under an approved Public Law 102-477 
plan may be reallocated and rebudgeted by the Indian tribe or tribal 
organization to best meet the employment, training and related needs of 
the local community served by the Indian tribe or tribal 
organization.''.
Conclusion
    Mr. Chairman, CITC, as a 477 tribal organization is grateful for 
this subcommittee's interest in and support for the 477 program. This 
program is essential to our ability to meet the needs of our people in 
innovate and efficient ways that allow us to provide wrap around 
services designed on a model of integration and interoperability. The 
Tribal Work Group representatives remain concerned that, in the absence 
of specific legislative authorization as provided in section 430 with 
the above addition, the spirit, the letter and the opportunities of the 
Public Law 102-477 law will be subject to changes in implementation 
from administration to administration.
    Thank you for your time and consideration.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to offer comments on the 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. The National Wildlife Refuge System stands alone 
as the only land and water conservation system with a mission that 
prioritizes wildlife and habitat conservation and wildlife-dependent 
recreation. Since 1995, the Cooperative Alliance for Refuge Enhancement 
(CARE) has worked to showcase the value of the Refuge System and to 
secure a strong congressional commitment for conserving these special 
places. Located in every U.S. State and territory, refuges conserve a 
diversity of America's environmentally sensitive and economically vital 
ecosystems, including oceans, coasts, wetlands, deserts, tundra, 
prairie, and forests. We respectfully request a funding level of $495 
million for the operations and maintenance accounts of the National 
Wildlife Refuge System (NWRS) for fiscal year 2013.
    This testimony is submitted on behalf of CARE's 22 member 
organizations, which represent approximately 15 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    Although CARE strives to make steady progress toward funding the 
NWRS at $900 million annually, a budget that more accurately reflects 
demands on the ground, our request of $495 million for fiscal year 2013 
essentially maintains the NWRS at a flat funding level. It includes 
only a modest increase more than the fiscal year 2012 appropriation in 
order to keep fuel in the trucks, pay for rising utilities and building 
rent, and cover other fixed costs. The NWRS generally requires an 
annual increase of at least $15 million to offset these rising costs, 
but our request for approximately $8 million in additional funding for 
fiscal year 2013 accounts for the current salary freeze for Federal 
employees.
    An appropriation of $495 million in fiscal year 2013 would 
stabilize the workforce by keeping workforce downsizing plans securely 
on the shelf, thereby reducing pressure on the U.S. Fish and Wildlife 
Service (FWS) to cut refuge staff less than already insufficient 
levels. It would enable refuge staff to continue making progress toward 
protecting and restoring America's wildlife and habitat, and providing 
a positive experience for nearly 46 million annual visitors who use 
refuges for hunting, fishing, watching wildlife, and educational and 
interpretive programs.
    This funding would also allow the NWRS to continue its recently 
initiated inventory and monitoring program. The need for this program 
was made clear by the Deepwater Horizon oil spill, which forced FWS 
staff to hastily catalog the assets of gulf coast refuges in order to 
recoup the cost of damaged resources from responsible parties. Without 
adequate baseline data, most refuges are ill-prepared to assess or 
respond to such impacts, and the inventory and monitoring program is 
needed to fill the widespread information gaps that exist across the 
NWRS.
    Many years of inadequate budgets have left the NWRS's operations 
and maintenance (O&M) backlog at nearly $3.2 billion. While budget 
increases in fiscal year 2008 through fiscal year 2010 helped 
immensely, too many visitors still show up to find roads and visitor 
centers closed, viewing platforms and hiking trails in disrepair, and 
habitat restoration and nature education programs eliminated.
    Annual budgets that do not cover fixed costs are particularly 
harmful because the NWRS is already stretched thin responding to 
damages from natural disasters. From fiscal years 2005-2011, the NWRS 
sustained $693 million in damages from natural disasters including 
hurricanes, flooding, tornadoes, fires, a tsunami, and an earthquake. 
The damages in 2011 alone were almost $200 million, approximately 40 
percent of the NWRS's O&M funds for the year. Of the $693 million in 
damages, the Congress appropriated $254 million in emergency 
supplemental funding, but the remaining $439 million has been added to 
the NWRS's $2.5 billion deferred maintenance backlog.
    Today, more than 35 percent of America's national wildlife refuges 
have no on-site staff, leaving no one to unlock gates, teach 
schoolchildren, administer hunting programs, or carry out restoration 
projects. Refuges with only one or two staff lack the capacity to 
partner with interested stakeholders, and opportunities for volunteer 
involvement and leveraging of additional dollars are lost. Non-native, 
invasive plants have infested approximately 2.5 million acres, and only 
10 percent of this acreage was treated in 2011. Further, a crippling 
shortage of law enforcement officers has left refuges sorely under-
protected from illegal activities such as drug production and 
trafficking, wildlife poaching, illegal border activity, assaults, and 
many types of natural resource violations. Currently, only 244 full-
time law enforcement officers are tasked with managing the 150-million-
acre NWRS--the equivalent of one officer per 650,000 acres--which an 
independent analysis recommends be patrolled by a force of 845 
professional officers. For instance, one officer in the Pacific region 
is responsible for covering nearly 54 million acres of the NWRS alone.
    National wildlife refuges are critically important on local and 
regional scales. According to data from a recent report by Southwick 
Associates, the NWRS generates $8 in economic activity for every $1 
appropriated by the Congress. Further, more than 32,500 American jobs 
are attributed to recreation on refuges. And, as stated in the fiscal 
year 2013 budget justification for FWS, ``On a national level, each $5 
million invested in the Refuge System's appropriations (salary and 
nonsalary) impacts an average of 83.2 jobs, $13.6 million in total 
economic activity, $5.4 million in job-related income and $500,000 in 
tax revenue. Each 1-percent increase or decrease in visitation impacts 
$16.9 million in total economic activity, 268 jobs, $5.4 million in 
job-related income, and $608,000 in tax revenue. Therefore, maintaining 
a healthy visitor program at national wildlife refuges is vital to the 
economic well-being of communities all across the Nation.''
    Refuges also provide important environmental and health benefits, 
such as filtering storm water before it runs downstream to municipal 
water supplies and, in many areas, reducing flooding by capturing 
excess rainwater and attenuating coastal storm surges. The Southwick 
Associates report states that in 2010, refuges generated more than 
$32.3 billion in these ecosystem services, a return of more than $65 
for every $1 appropriated by the Congress.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends groups and 
volunteers do approximately 20 percent of all work on refuges. In 2011, 
these 1.5 million hours equated to roughly 8 volunteers for every 1 
refuge employee, or the equivalent of almost 650 full-time employees. 
Without staff to oversee volunteers, their commitment and passion is 
lost, as is their desperately needed contribution to the NWRS.
    Funding increases in fiscal year 2008 through fiscal year 2010 
allowed for meaningful progress toward properly patrolling and 
enforcing laws on the NWRS's 150 million acres, maintaining recreation 
and education programs for the public, sustaining high water quality, 
completing habitat restoration projects, and more, although our new 
marine monuments comprising one-third of the NWRS largely remain a 
major unfunded need. Cutting O&M funding back to fiscal year 2008 
levels would result in the elimination of several hundred staff 
positions and loss of important wildlife management, education, and 
hunting and fishing programs. The way to keep from reversing recent 
progress is to fund the NWRS at $495 million in fiscal year 2013.
    On behalf of our more than 15 million members and supporters, CARE 
thanks the subcommittee for the opportunity to offer comments on the 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill and we look forward to meeting with you to discuss 
our request.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma

    On behalf of Chief Gregory E. Pyle, of the Great Choctaw Nation of 
Oklahoma, I bring greetings to the distinguished Members of the 
Committee. I am Mickey Peercy, the Executive Director of Health 
Services. I appreciate this opportunity to provide testimony to the 
subcommittee on our top budget priorities for fiscal year 2013 in the 
Indian Health Service.
    The Choctaw Nation of Oklahoma is the third-largest Native American 
tribal government in the United States, with more than 208,000 members. 
The Choctaw Nation territory consists of all or part of 10 counties in 
southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to:
  --a sophisticated health system serving more than 33,000 patients 
        with a hospital in Talihina, Oklahoma;
  --eight outpatient clinics;
  --referred specialty care and sanitation facilities construction;
  --higher education;
  --Johnson O'Malley program;
  --housing improvement;
  --child welfare and social services;
  --law enforcement; and
  --many others.
    Appropriations for Indian Country remain severely deficient for 
each of these programs, and it is simply not acceptable for such 
programs to be further debilitated by budget cuts. Thus, it is 
essential that programs impacting Indian Country be exempted from any 
sequestration for fiscal year 2013 and forward.
    In my testimony today, I will focus on Indian health and related 
programs, appropriations which are critical in order to address the 
health disparities of Native Americans as compared to other Americans. 
The current funding levels have created a system of rationed healthcare 
and perpetuate these health disparities for Native people.
Joint Venture--Increase to $90 Million
    The Joint Venture program, although a relatively small program, 
remains the most innovative, timely, and cost-effective means within 
the Indian Health Service (IHS) to acquire new or replacement health 
facilities for Indian Country. The IHS Joint Venture program 
demonstrates the shared commitment of Tribal Nations and the IHS in 
providing additional health facilities within the Indian health system 
and the staff necessary to support the facilities. This strategy has 
been especially effective in the Oklahoma City area, allowing us to 
replace some antiquated facilities and extending healthcare to 
underserved tribal citizens in our communities. However, the need for 
adequate health facilities remains great. We request that funds 
continue to be appropriated for the Joint Venture program on an annual 
basis, including the associated contract support costs and adequate 
operational funds.
Contract Health Services--Increase of $200 Million
    Contract Health Services (CHS) remain a high priority for the 
Choctaw Nation and many other tribes in the Nation. CHS funds all of 
the referrals from tribal and IHS facilities for specialty care that 
cannot be delivered at the tribal/IHS clinic or hospital site. 
Referrals are often deferred or denied, due to lack of funds, despite 
the determination of medical need by our health providers. The Oklahoma 
City area and the Choctaw Nation suffer some of the highest deferral/
denial rates of CHS cases in the Nation. For example, denied or 
deferred cases in our health system resulted in some of our patients 
not receiving necessary diagnostic tests, cancer treatment or neurology 
services last year.
Contract Support Costs--Increase of $100 Million More Than Fiscal Year 
        2013 President's Request
    One of the most important appropriation issues facing Indian 
Country is the underfunding of contract support costs (CSC), which 
negatively affects nearly every single Tribal Nation. This issue is 
especially significant for Self-Governance/Self-Determination Tribes 
because it protects direct service operations from sharing in overall 
funding reductions and limitations. Every dollar in unfunded contract 
support costs is a direct reduction in healthcare or other services to 
our tribal citizens.
    CSC appropriations go directly to the Tribal Nations at the local 
level, with immediate positive impact on healthcare and other critical 
programs. CSC funds mandatory costs for which the Federal Government is 
legally and contractually responsible to provide. Failing to adequately 
fund CSC defeats the very program that has most improved health 
conditions for American Indian and Alaska Natives.
    Tribal programs have significantly increased the quality and level 
of services in our health systems compared to direct service programs. 
Since contract support costs are fixed costs that a contractor must 
incur, tribes are required to either:
  --reduce funds budgeted for critical healthcare or other services 
        under contract to cover the shortfall;
  --divert tribal funds to subsidize the Federal contract (when such 
        tribal funds are available); or
  --use a combination of these two approaches.
    For every $1 million that the Choctaw Nation would be required to 
divert from direct patient care to cover contract support costs, the 
Nation's health system must forego an estimated 5,800 patient visits.
    The reported CSC shortfall is nearly $5.5 million annually for the 
Choctaw Nation alone. The President's budget request for fiscal year 
2013 includes only a $5 million increase in IHS CSC funds for all 567 
tribes in the country, an amount insufficient to fund even the Choctaw 
Nation's shortfall for 1 year. This current budget request is woefully 
inadequate to not only address the present shortfall, but to prevent 
the shortfall from growing in future years. We urge you to consider the 
total unfunded need for CSC, which we estimate for fiscal year 2013, 
will approach $100 million within the IHS.
Special Diabetes Program for Indians--Support 5-Year Reauthorization at 
        $200 Million/Year
    The Special Diabetes Program for Indians (SPDI) was authorized in 
1997 in response to an alarming and disproportionate high rate of type 
2 diabetes in American Indian and Alaska Native people. Tribal advocacy 
has contributed greatly to changing the course of this once devastating 
health menace in Indian Country. Continued innovation and increased 
funding are required to further arrest the disparity and achieve 
equity. SDPI funding has been at $150 million since it was reauthorized 
in 2004. During this time nearly 400 Indian Health Service, Tribal, and 
Urban (I/T/U) Indian health programs have assisted in developing 
innovative and culturally appropriate strategies, vital resources and 
tools to prevent and treat diabetes. Congressional funding remains the 
critical factor in the battle against diabetes which translates into 
documented improvements in blood glucose control, reduced amputation 
rates and decreased cases of kidney failure, just to name a few of the 
maladies associated with this disease. The Choctaw Nation has been an 
aggressive soldier in the fight against diabetes and we ask this 
subcommittee to support the crusade to ensure the continuation of the 
SDPI. We also request that you urge your colleagues on the Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Subcommittee to increase funding for the SDPI program, 
which is administered by IHS. Without the SDPI, the epidemic status of 
Type 2 diabetes will once again be a serious life-changing disease to 
future generations of our people.
Indian Health Care Improvement Fund--Request $45 Million Increase
    Overall funding for the IHS remains at less than 60 percent of 
need; using the benchmark of the Federal employee benefit package. 
Deplorably, IHS average funding per patient remains less than that 
expended on Federal inmates. In addition to the well-documented 
disparate funding between the IHS and other federally funded health 
programs, funds among the IHS areas are distributed inequitably. The 
Oklahoma City area, specifically, suffers a funding level even below 
that of the average within the IHS. In order to address such inequities 
and resulting health disparities, the Indian Health Care Improvement 
Fund (IHCIF) was created to direct funding to the most severely 
underfunded programs first. Tribal Nations have previously recommended 
that the Federal Government implement a time-limited plan to bring all 
IHS Operating Units to the 80-percent level, and the Choctaw Nation 
supports that position.
    In addition, the Choctaw National supports these National Indian 
Program Priorities
    Mandatory Costs--Provide $304 Million Increase To Maintain Current 
        Services.--Mandatory cost increases are necessary to maintain 
        the current level of services. These ``mandatories'' are 
        unavoidable and include medical and general inflation, pay 
        costs, phasing in staff for recently constructed facilities, 
        and population growth.
    Alcohol and Substance Abuse Programs--Provide $40 Million 
        Increase.--Alcohol and Substance Abuse Programs (ASAP) and 
        community-based prevention activities are an integrated part of 
        behavioral health programs needed to reduce the incidence of 
        alcohol and substance abuse in American Indian and Alaska 
        Native communities and to address the special needs of Native 
        people dually diagnosed with both mental illness and drug 
        dependency. Youth Region Treatment Centers are also funded by 
        this line item.
    Funding for Implementation of the Indian Health Care Improvement 
        Act.--Implementation of the IHCIA remains a top priority for 
        Indian Country. IHCIA provides the authority for Indian 
        healthcare, but does not provide any funds to IHS. The American 
        healthcare delivery system has been revolutionized while the 
        Indian healthcare system waited for the reauthorization of the 
        IHCIA. Resources are needed to implement all provisions of the 
        IHCIA.
    Office of Tribal Self-Governance--Increase $5 Million to the IHS 
        Office of Tribal Self-Governance.--In 2003, the Congress 
        reduced funding for this office by $4.5 million, a loss of 43 
        percent from the previous year. In each subsequent year, this 
        budget was further reduced due to the applied congressional 
        rescissions. As of 2012, there are 337 Self-Governance (SG) 
        Tribes managing approximately $1.4 billion in funding. This 
        represents almost 60 percent of all federally recognized tribes 
        and 33 percent of the overall IHS funding. The Self-Governance 
        process serves as a model program for Federal Government 
        outsourcing, which builds tribal infrastructure and provides 
        quality services to Indian people.
    We also support the testimony presented by the National Indian 
Health Board and the National Congress of American Indians.
    In closing, on behalf of the Choctaw Nation of Oklahoma, and Chief 
Gregory E. Pyle, thank you for the honor to provide this testimony and 
we respectfully urge your consideration and support of these program 
funding requests in the fiscal year 2013 budget for the IHS.
                                 ______
                                 
               Prepared Statement of the Civil War Trust

Introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Trust. I come before you today 
to respectfully request that the Senate Appropriations Subcommittee on 
the Interior, Environment, and Related Agencies fund the Civil War 
Battlefield Preservation Program (CWBPP), financed through the Land and 
Water Conservation Fund in the Department of the Interior, at its 
authorized amount of $10 million.
    I would like to start by providing a little information about our 
organization. The Civil War Trust is a 55,000-member nonprofit 
organization--the only national one of its kind--dedicated to 
preserving America's remaining Civil War battlefields. To date, the 
Trust has permanently protected more than 32,000 acres of hallowed 
ground in 20 States, most of it outside National Park Service (NPS) 
boundaries.
    I write to you today regarding the highly effective Federal land 
conservation program that has made much of our success possible: the 
Civil War Battlefield Preservation Program (CWBPP). This authorized 
competitive matching grants program, operated through the National Park 
Service (NPS) American Battlefield Protection Program office, requires 
a 1-to-1 Federal/non-Federal match, although on many occasions the 
Federal dollars are leveraged much more than 1-to-1. The program has 
successfully promoted cooperative partnerships between State and local 
governments and the private sector to preserve targeted, high-priority 
Civil War battlegrounds outside NPS boundaries. Since it was first 
funded in fiscal year 1999, the program has been used to protect more 
than 17,500 acres of our Nation's hallowed ground.

Battlefield Lands Are Our Shared American Heritage
    These battlefield lands are an irreplaceable part of our shared 
national heritage. These lands are consecrated with the blood of brave 
Americans who fought and died to create the country we are today. By 
preserving these hallowed grounds, we can rightfully honor all who made 
the ultimate sacrifice, whether it was on the rolling fields of 
Gettysburg or the sandy beaches of Fort Wagner.
    Development threatens to erase these sacred sites; living history--
our shared history--will consequently fade into distant memory. The 
private sector organizations engaged in battlefield preservation--and 
we are just one among many nonprofit battlefield preservation groups--
are competing with developers to acquire this land. Once these hallowed 
grounds are lost, they are lost forever.
    We estimate that 30 acres of battlefield lands are lost every day. 
These lands, when preserved, serve as outdoor classrooms to educate 
current and future generations of Americans about this defining moment 
in our Nation's history. In addition, preserved battlefields are 
economic drivers for communities, bringing in tourism dollars that are 
extremely important to State and local economies.
    With the sesquicentennial commemoration of the Civil War underway, 
now is the opportune time to reaffirm our national commitment to the 
protection of these hallowed grounds. Throughout the sesquicentennial, 
millions are expected to learn about our Nation's unique history by 
visiting Civil War sites around the country. This anniversary provides 
the perfect opportunity to promote preservation of Civil War 
battlefields.

Origins of the Program
    In 1990, the Congress created the Civil War Sites Advisory 
Commission (CWSAC), a blue-ribbon panel composed of lawmakers, 
historians and preservationists. Its goal: determine how to protect 
America's remaining Civil War battlefields. In 1993, the Commission 
released a study entitled ``Report on the Nation's Civil War 
Battlefields.'' The report identified the 384 most historically 
important Civil War battlegrounds and further prioritized them 
according to preservation status and historic significance. Eighteen 
years later, this landmark report and a recent update conducted by NPS 
remain our guide for targeting only the most historically significant 
remaining Civil War battlefields.
    In addition to creating a prioritized list of battlefield 
preservation targets, the Commission also recommended that the Congress 
establish a Federal matching grant program to help the nonprofit sector 
save high-priority Civil War battlefields. The Commission's proposal 
for a Federal matching grant program was the genesis of the Civil War 
Battlefield Preservation Program.

Congressional Funding and First Successes
    Five years after the ``Report on the Nation's Civil War 
Battlefields'' was released, the Congress acted upon the Commission's 
recommendation by setting aside $8 million over a 3-year period from 
the Land and Water Conservation Fund for Civil War preservation 
matching grants. Grants were competitively awarded through the American 
Battlefield Protection Program (ABPP), an arm of NPS. Funding was 
solely for acquisition of properties outside NPS boundaries at 
battlefields identified in the 1993 report. Land could be purchased 
from willing sellers only; there was--and there remains--no eminent 
domain authority.
    Thanks to the new program, there began an unprecedented and almost-
immediate surge in Civil War battlefield preservation. The $8 million 
appropriation generated $24 million for land acquisition by encouraging 
State and private investment in battlefield land protection. The 
program inspired the Virginia and Mississippi legislatures to 
appropriate $3.4 million and $2.8 million, respectively, to meet the 
Federal match. The Civil War Trust alone contributed $4 million in 
private sector funds to meet the match.
    As a result of the non-Federal funds generated by the program, 
battlefields like Virginia's Brandy Station and Manassas received a new 
lease on life. In addition, other sites such as Prairie Grove in 
Arkansas, Champion Hill in Mississippi, and Bentonville in North 
Carolina--just to name a few--were substantially enhanced. Largely 
because of the success of those first 3 years, the Congress 
appropriated an additional $11 million for the program in fiscal year 
2002.

Authorization of the Program
    The Civil War Battlefield Preservation Program was first authorized 
through the Civil War Battlefield Preservation Act of 2002. Supporters 
on Capitol Hill felt that authorization of the program would convey to 
the Department of the Interior congressional intent regarding the 
program's goals and objectives. The bipartisan bill formally tied the 
program to the 1993 CWSAC report, creating a Federal conservation 
program with a highly focused, prioritized list of acquisition targets. 
It also provided for an annual appropriation of up to $10 million per 
year--the level originally recommended by the Commission in 1993. The 
Civil War Battlefield Preservation Act was passed with the unanimous 
consent of both the House and Senate in the fall of 2002, and was 
signed into law by President Bush on December 17, 2002 (Public Law 107-
359). Authorization has provided funding predictability for the 
program's non-Federal partners, encouraging continued private-sector 
involvement in battlefield preservation.

Program's Continued Successes and Reauthorization
    Since the program was first funded in fiscal year 1999, Civil War 
Battlefield Preservation Program grants have been used to protect 
17,500 acres of hallowed ground in 14 States. Among the many 
battlefields that have benefited from this program are:
  --Antietam;
  --Maryland;
  --Averasboro, North Carolina;
  --Chancellorsville, Virginia;
  --Chattanooga, Tennessee;
  --Corinth, Mississippi;
  --Harpers Ferry, West Virginia;
  --Mill Springs, Kentucky; and
  --Prairie Grove, Arkansas.
    The Civil War Battlefield Preservation Program was reauthorized as 
part of the Omnibus Public Land Management Act of 2009 (H.R. 146), 
which President Obama signed into law on March 30, 2009 (Public Law 
111-11).

Urgent Need for Funding
    We thank the Senate Appropriations Subcommittee on the Interior, 
Environment, and Related Agencies for providing $9 million for the 
Civil War Battlefield Preservation Program in fiscal year 2012. This 
appropriation has allowed for the preservation of many historically 
significant lands at battlefields such as:
  --Bentonville;
  --North Carolina;
  --Franklin, Tennessee;
  --Gettysburg, Pennsylvania;
  --New Market Heights, Virginia;
  --South Mountain, Maryland; and
  --Perryville, Kentucky.
    To build off the successes of the program in fiscal year 2012, we 
respectfully ask the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies to fund the Civil War Battlefield 
Preservation Program at its authorized amount of $10 million. We 
recognize that these are difficult economic times and appreciate the 
constraints on this subcommittee as you work to draft an appropriation 
bill that meets the needs of the agencies and programs under your 
jurisdiction. However, we believe that now, as we commemorate the 150th 
anniversary of the conflict that shaped our Nation, is the opportune 
time to provide robust funding for the Civil War Battlefield 
Preservation Program.
    Funding at this level will allow for the continued success of the 
program and the preservation of key battlefield lands that will serve 
as lasting, tangible legacies for the sesquicentennial. In addition, 
with time rapidly running out to forever protect these hallowed 
grounds, funding for this program will soon no longer be necessary. We 
estimate that in the next 10 years the remaining Civil War battlefield 
lands will be either paved over or protected. That is why we must act 
now in order to preserve as much key battlefield land as possible 
before time runs out.

Conclusion
    There is no question that the Civil War was a defining moment in 
our country's history. For 4 long years, North and South clashed in 
hundreds of battles that reunited our Nation and sounded the death 
knell for slavery. More than 625,000 soldiers and 50,000 civilians 
perished as a result of the war.
    Preserved battlefields not only honor the memory of our Civil War 
ancestors, but all of our Nation's brave men and women in uniform. 
Further, preserved battlefields serve as outdoor classrooms to teach 
new generations of Americans about the significance of the Civil War--
and remind them that the freedoms we enjoy today came at a terrific 
price.
    Mr. Chairman, I sincerely hope you and your subcommittee will 
consider our request to provide funding of the Civil War Battlefield 
Preservation Program at its authorized level of $10 million. We look 
forward to working with you and other subcommittee members on 
battlefield protection and other historic preservation issues. Thank 
you for the opportunity to address the subcommittee.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (BOR) has estimated 
the current quantifiable damages at about $300 million per year. The 
Congress authorized the Colorado River Basin Salinity Control Program 
(Program) in 1974 to offset increased damages caused by continued 
development and use of the waters of the Colorado River. Modeling by 
BOR indicates that the quantifiable damages would rise to more than 
$500 million by the year 2030 without continuation of the Program. The 
Congress has directed the Secretary of the Interior to implement a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by the Bureau of Land Management (BLM). 
BLM funds these efforts through its Soil, Water and Air Program. BLM's 
efforts are an essential part of the overall effort. A funding level of 
$5.2 million for general water quality improvement efforts within the 
Colorado River Basin and an additional $1.5 million for salinity 
specific projects in 2013 is requested to prevent further degradation 
of the quality of the Colorado River and increased downstream economic 
damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is administered by BLM. In implementing 
the Colorado River Basin Salinity Control Act in 1974, the Congress 
recognized that most of the salts in the Colorado River originate from 
federally owned lands. Title I of the Salinity Control Act deals with 
the United States commitment to the quality of waters being delivered 
to Mexico. Title II of the act deals with improving the quality of the 
water delivered to U.S. users. This testimony deals specific with title 
II efforts. In 1984, the Congress amended the Salinity Control Act and 
directed that the Secretary of the Interior develop a comprehensive 
program for minimizing salt contributions to the Colorado River from 
lands administered by BLM. In 2000, the Congress reiterated its 
directive to the Secretary and requested a report on the implementation 
of BLM's program (Public Law 106-459). In 2003, BLM employed a Salinity 
Coordinator to coordinate BLM efforts in the Colorado River Basin 
States to pursue salinity control studies and to implement specific 
salinity control practices. With a significant portion of the salt load 
of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentrations of salt in the Colorado River cause approximately 
$300 million in quantified damages and significantly more in 
unquantified damages in the United States and result in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM has proven to be a very cost-effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
adequate funding levels for salinity within the Soil, Water and Air 
Program will prevent the water quality of the Colorado River from 
further degradation and significant increases in economic damages to 
municipal, industrial and irrigation users.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    This testimony is in support of fiscal year 2013 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with the subactivity that assists title II of the Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). This longstanding 
successful and cost-effective salinity control program in the Colorado 
River Basin is being carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Board) is the State agency 
charged with protecting California's interests and rights in the water 
and power resources of the Colorado River system. In this capacity, 
California participates along with the other six Colorado River Basin 
States through the Colorado River Basin Salinity Control Forum (Forum), 
the interstate organization responsible for coordinating the Basin 
States' salinity control efforts. In close cooperation with the U.S. 
Environmental Protection Agency (EPA) and pursuant to requirements of 
the Clean Water Act, the Forum is charged with reviewing the Colorado 
River water quality standards every 3 years. The Forum adopts a Plan of 
Implementation consistent with these water quality standards. The level 
of appropriation being supported in this testimony is consistent with 
the Forum's 2011 Plan of Implementation. If adequate funds are not 
appropriated, significant damages associated with increasing salinity 
concentrations of Colorado River water will become more widespread in 
the United States and Mexico.
    EPA has determined that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. Due to geological 
conditions, much of the lands that are controlled and managed by BLM 
are major contributors of salt to the Colorado River system. Past 
management practices have led to human-induced and accelerated erosion 
processes from which soil and rocks have been deposited in various 
stream beds or flood plains. As a result, salts are dissolved and enter 
the Colorado River system causing water quality problems downstream.
    Through passage of the Colorado River Basin Salinity Control Act in 
1974, the Congress recognized that much of the salts in the Colorado 
River originate on federally owned lands. Title I of the Salinity 
Control Act deals with the U.S. commitment to efforts related to 
maintaining the quality of waters being delivered to Mexico pursuant to 
the 1944 Water Treaty. Title II of the Act deals with improving the 
quality of the water delivered to U.S. users. In 1984, the Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM. In 
2000, the Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to coordinate 
BLM efforts in the Colorado River Basin States to pursue salinity 
control studies and to implement specific salinity control practices. 
With a significant portion of the salt load of the Colorado River 
coming from BLM-administered lands, the BLM portion of the overall 
program is essential to the success of the entire effort.
    The BLM's budget justification document for fiscal year 2013 has 
stated that the BLM continues to implement on-the-ground projects, 
evaluate progress in cooperation with the U.S. Bureau of Reclamation 
(Reclamation) and the U.S. Department of Agriculture (USDA), and report 
salinity control measures in order to further the Plan of 
Implementation associated with the Federal Salinity Control Program in 
the Colorado River Basin. The BLM budget, as proposed in the BLM budget 
justification document, calls for six key performance goals within the 
BLM's Soil, Water, and Air Management Program. One of the goals is to 
reduce saline runoff from public lands into the Colorado River system 
by 10,000 to 20,000 tons of salt from new projects. Additionally, the 
BLM budget justification document reported a cumulative salt-loading 
reduction from ongoing BLM efforts in 2011 that totaled 126,000 tons 
per year. The Soil, Water and Air Management Program subactivity is 
responsible for reducing the discharge of salts to waters of the 
Colorado River Basin to ensure usable water supplies to tens of 
millions of downstream users of which nearly 20 million are located in 
southern California.
    The Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by Reclamation through its Basin-wide Program and by the 
USDA through its on-farm Environmental Quality Incentives Program.
    The 2011 Colorado River Basin Salinity Control Advisory Council 
report states that the funding from BLM's Soil, Water and Air Program 
has been generally expended on studies, research, and implementation. 
These studies and research have successfully identified several 
different tools which could be used to reduce salinity contributions to 
the Colorado River from publicly administered lands. BLM's efforts are 
now transitioning toward implementation of salinity control. During the 
past several years proposals for implementation of salinity control 
specific efforts have exceeded more than $1.5 million. The Advisory 
Council's 2011 report recommends that BLM make at least $1.5 million 
available annually for salinity-specific activities in addition to the 
$5.2 million expended under the Soil, Water and Air Program for general 
improvements within the Colorado River Basin. The Colorado River Board 
supports the Advisory Council's recommendation and urges the 
subcommittee to specifically designate $1.5 million for the Colorado 
River Basin Salinity Control Program.
    Over the 28 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $300 million in quantifiable damages 
in the United States annually. Economic and hydrologic modeling by 
Reclamation indicates that the quantifiable damages could rise to more 
than $500 million by the year 2030 without the continuation of the 
Salinity Control Program. For example, damages can be incurred related 
to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water pursuant to 
the 1944 Water Treaty. In order for those commitments to be honored, it 
is essential that in fiscal year 2013, and in future fiscal years, that 
the Congress continue to provide adequate funds to BLM for its salinity 
control activities within the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through an effective salinity control program will 
avoid the additional economic damages to users in California and the 
other States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of the Interior, Bureau of Indian Affairs's (BIA) fiscal 
year 2013 budget. We have specifically identified three funding needs 
and one allocation recommendation:
  --$7.7 million, an increase of $3,054,000 more than the President's 
        request for Columbia River Fisheries Management within the 
        Rights Protection Implementation account to meet the base 
        program funding needs of the Commission and the fisheries 
        programs of its member tribes, specifically to implement 
        Federal court-ordered management obligations, including efforts 
        for species listed under the Endangered Species Act;
  --$4.8 million, an increase of $436,000 more than the President's 
        request, for U.S./Canada Pacific Salmon Treaty within the 
        Rights Protection Implementation account to implement new 
        obligations under the recent agreement adopted by the United 
        States and Canada under the Treaty;
  --$328 million for Public Safety and Justice, Criminal Investigations 
        and Police Services--of which $718,000 supports enforcement of 
        Federal laws at in-lieu and treaty fishing sites on the 
        Columbia River. This supports the President's request; and
  --We request that the subcommittee direct the BIA to allocate Rights 
        Protection Implementation accounts at the 2008 percentages 
        unless or until account holders receive a rationale or 
        justification for a variance.
    CRITFC was founded in 1977 by the four Columbia River treaty 
tribes:
  --Confederated Tribes of the Umatilla Indian Reservation;
  --Confederated Tribes of the Warm Springs Reservation of Oregon;
  --Confederated Tribes and Bands of the Yakama Nation, and Nez Perce 
        Tribe.
    CRITFC provides coordination and technical assistance to these 
tribes in regional, national, and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951;
      -- Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 
Stat. 963;
      -- Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945;
      -- Treaty with the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes are leaders in fisheries restoration and 
management working with State, Federal, and private entities. CRITFC's 
member tribes are principals in the region's efforts to halt the 
decline of salmon, lamprey, and sturgeon populations and rebuild them 
to levels that support ceremonial, subsistence, and commercial 
harvests. To achieve these objectives, the tribes' actions emphasize 
``gravel-to-gravel'' management including supplementation of natural 
stocks, healthy watersheds, and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.

     COLUMBIA RIVER FISHERIES MANAGEMENT WITHIN RIGHTS PROTECTION 
                             IMPLEMENTATION

    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management issues increase the 
complexity, requiring greater data collection and more sophisticated 
analyses. Funding shortfalls prohibit the achievement of tribal self-
determination goals for fisheries management, ESA recovery effort, 
protecting nonlisted species, conservation enforcement and treaty 
fishing access site maintenance. We are seeking an increase of 
$3,054,000 more than fiscal year 2012 for a new program base of 
$7,712,000 for Columbia River Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes.
    In 2008 CRITFC and its member tribes successfully concluded lengthy 
negotiations resulting in three landmark agreements:
  --the Columbia Basin Fish Accords with Federal action agencies 
        overseeing the Federal hydro system in the Columbia Basin; \2\
  --a Ten-Year Fisheries Management Plan with Federal, tribal and State 
        parties under United States of America v State of Oregon; and
  --a new Chinook Chapter of the Pacific Salmon Treaty.\3\
    These agreements establish regional and international commitments 
on harvest and fish production efforts, commitments to critical 
investments in habitat restoration, and resolving contentious issues by 
seeking balance of the many demands within the Columbia River basin. 
While through these agreements the tribes have committed to substantial 
on-the-ground projects with some additional resources from the 
Bonneville Power Administration, the overall management 
responsibilities of the tribal programs have grown exponentially 
without commensurate increases in BIA base funding capacity. For 
example, the tribes' leadership in addressing Pacific Lamprey declines 
is this species' best hope for survival and recovery. The tribes are 
also addressing unmet mitigation obligations, such as fish losses 
associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    Compounding the challenges in implementing tribal fish management 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaption 
strategies on behalf of our member tribes. CRITFC and its member tribes 
currently have insufficient funds to do the technical work and allow 
policy-level participation in the co-management arena.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
public and private forums. Lost purchasing power through rising costs, 
inflation and lack of pay-cost adjustments to tribal funding has 
further challenged us to deliver these essential services.

       U.S./CANADA PACIFIC SALMON TREATY UNDER RIGHTS PROTECTION 
                             IMPLEMENTATION

    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4.8 million for BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. Section of the PSC annually 
develops a coordinated budget for tribal, State and Federal programs to 
ensure cost and program efficiencies. The Congress increased funding in 
2000 in order to implement the 1999 Agreement but funding has 
significantly eroded since then. In 2008, the United States and Canada 
adopted a new long-term Treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource.
    The $4.8 million provides for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required Treaty 
implementation activities. The fiscal year 2012 recommended level for 
this program is an increase of $436,000 more than the President's 
request and $600,000 more than the fiscal year 2012 enacted level. Our 
request correlates to the U.S. Section's recommendation.
    The tribal management programs provide needed beneficial and 
technical support to the U.S. Section. The Pacific Salmon Commission 
relies heavily on the various technical committees established by the 
Treaty. The work of these Committees is integral to the task of 
implementing fishing regimes consistent with the Treaty and the goals 
of the Parties. Numerous tribal staff appointed to these committees and 
all of the tribal programs generate data and research to support their 
efforts. For example, indicator stock tagging and escapement monitoring 
provides key information for estimating the parties' annual harvest 
rates on individual stocks, evaluating impacts of management regimes 
established under the Treaty, and monitoring progress toward the 
Chinook rebuilding program started in 1984.

 PUBLIC SAFETY AND JUSTICE, CRIMINAL INVESTIGATIONS AND POLICE SERVICES

    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are grateful 
for the support of the BIA Office of Justice Services in obtaining the 
SLECs. We are also very pleased that the BIA has created OJS District 8 
and housed it in Portland. Beginning in February 2011, CRITFC entered 
into a Public Law 93-638 contract with BIA for enforcement services 
along the Columbia River. That contract provides funding for two 
enforcement positions.
    It's important that CRITFC build its enforcement capacity more than 
the level of the two officers currently funded by the BIA Office of 
Justice Services. Our immediate priority is to add two officers. 
Funding for two additional officers would cost $313,560 plus indirect. 
Full funding for this project would be a total budget of $716,053 plus 
indirect which would support four officers, a sergeant and a 
dispatcher.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
                    Prepared Statement of Dance/USA

    Mr. Chairman and distinguished members of the subcommittee, Dance/
USA is grateful for this opportunity to submit testimony on behalf of 
our members across the United States. We urge the Committee to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2013. This testimony is intended to 
highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community to our national character.
    Dance/USA, the national service organization for not-for-profit 
professional dance, believes that dance is essential to a healthy 
society, demonstrating the infinite possibilities for human expression 
and potential, and facilitating communication within and across 
cultures. Dance/USA sustains and advances professional dance by 
addressing the needs, concerns, and interests of artists, 
administrators, and organizations. By providing services and national 
leadership, Dance/USA enhances the infrastructure for dance creation, 
education and dissemination. To fulfill its mission, Dance/USA offers a 
variety of programs, including data research and regional professional 
development, and works with organizations within and outside the arts 
field with whom common goals are shared. Dance/USA's membership 
currently consists of more than 450 ballet, modern, ethnic, jazz, 
culturally specific, traditional and tap companies, dance service and 
presenting organizations, artist managers, individuals, and other 
organizations nationally and internationally. Dance/USA's member 
companies range in size from operating budgets of under $100,000 to 
more than $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The Arts Endowment has 
helped to strengthen regional theater, opera, ballet and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographic limitations. The Endowment embodies the ideal that no one 
should be deprived of the opportunity to have art in their lives. The 
Arts Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
    Despite diminished resource, the NEA awards more than 1,000 grants 
annually to nonprofit arts organizations for projects that encourage 
artistic creativity. These grants help nurture the growth and artistic 
excellence of thousands of arts organizations and artists in every 
corner of the country. NEA grants also preserve and enhance our 
Nation's diverse cultural heritage. The modest public investment in the 
Nation's cultural life results in both new and classic works of art, 
reaching the residents of all 50 States.
    NEA grants are instrumental in leveraging private funding. On 
average, each $1 from an NEA grant generates at least $8 from other 
sources. Government cultural funding plays a catalytic leadership role 
that is essential in generating private support for the arts.
    The NEA is a great investment in the economic growth of every 
community. The return of the Federal Government's small investment in 
the arts is striking. The nonprofit arts industry generates $166.2 
billion annually in economic activity, supports 5.7 million full-time 
equivalent jobs, and returns $12.6 billion to the Federal Government in 
income taxes. Measured against direct Federal cultural spending of 
about $1.4 billion, that's a return of nearly nine to one. Few other 
Federal investments realize such economic benefits, not to mention the 
intangible benefits that only the arts make possible. Even in the face 
of tremendous cutbacks in recent years, the NEA continues to be a 
beacon for arts organizations across the country.

                           NEA GRANTS AT WORK

    NEA grants are awarded to dance organizations through its core 
programs:
  --Art Works;
  --Challenge America Fast Track Grants; and
  --Federal/State Partnerships.
    The following are some examples of the impact of NEA funding on 
dance programs from the NEA's 2012 Art Works Program:

Alabama Dance Council
Birmingham, Alabama
$10,000
    To support the presentation of the 2012 statewide Alabama Dance 
Festival that will feature performances by Ronald K. Brown's Evidence: 
A Dance Company and Brazz Dance Theater, showcases of Alabama dance 
companies, pre-professional and professional master classes, 
professional dance development workshops, summer intensive auditions, 
and dance education workshops.

Ballet Hispanic of New York
New York, New York
$20,000
    To support the creation and presentation of a new work by artistic 
director Eduardo Vilaro. The work, titled Reina, will be inspired by 
the music of Celia Cruz, the Queen of Salsa.

Chicago Dancing Festival
Lombard, Illinois
$10,000
    To support the presentation of local and national dance companies 
as part of the 2012 Chicago Dancing Festival. Activities include 
performances, open rehearsals, open company classes, and moderated 
lecture-demonstrations.

Nai-Ni Chen Dance Company
Fort Lee, New Jersey
$10,000
    To support dance performances and education and outreach activities 
based on the ancient legends and folklore of the Chinese dragon. The 
project includes curriculum guides for students and teachers.

Ragamala Dance
Minneapolis, Minnesota
$20,000
    To support the creation and presentation of a new work, titled 1001 
Buddhas, inspired by the 12th-century Sanjusangendo temple in Kyoto, 
Japan, famous for its 1001 life-sized statues of Kannon, the Buddhist 
Goddess of Mercy.

San Francisco Ballet Association
San Francisco, California
$70,000
    To support the creation and presentation of new works by several 
choreographers including:
  --Yuri Possokhov;
  --Wayne McGregor;
  --Mark Morris; and
  --Christopher Wheeldon.
    The project includes audience engagement activities such as 
matinees for students and seniors, reduced-price tickets, pre-
performance discussions, podcasts, and lectures.

Trey McIntyre Project
Boise, Idaho
$15,000
    To support the creation and presentation of a new work, by 
choreographer Trey McIntyre. The dance will be the third piece in an 
autobiographical trilogy and is inspired by the 1970's show Free to Be 
You and Me.

               THE NONPROFIT PROFESSIONAL DANCE COMMUNITY

    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. More 
than two-thirds of America's professional dance companies are less than 
45 years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And yet, American can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
almost 300 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:
  --Employed more than 12,800 people in a mix of full-time and part-
        time positions;
  --Paid approximately $316 million in wages and benefits;
  --Earned $178.9 million, or 30 percent of their income, from 
        performances;
  --Received $235.7 million, or 47 percent of their income in 
        contributions (including public support, corporate 
        contributions, foundation support, and individual donations);
  --Generated more than $585 million in economic activity across the 
        United States.

                               CONCLUSION

    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40-percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million in the past 2 years, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2013.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife

    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for the opportunity to submit testimony for the record. Founded in 
1947, Defenders has more than 1 million members and supporters and is 
dedicated to the conservation of wild animals and plants in their 
natural communities.
    Wildlife and its habitat are valuable national assets. Even in the 
face of dire fiscal realities, investments in the protection of 
wildlife and habitat are a wise choice for our Nation. Wildlife related 
recreation is a $122 billion a year industry.\1\ Moreover, protecting 
wildlife and its habitat also supports healthy natural systems that 
provide clean air and water, food, medicines and other products. The 
value of benefits provided by natural habitats in the United States is 
estimated at more than $2 trillion per year.\2\ Defenders appreciated 
the successful efforts of the Senate Appropriations Committee to 
protect wildlife programs from deep cuts both in the Senate bill and in 
H.R. 2055, the Consolidated Appropriations bill. Defenders opposes cuts 
to crucial programs that conserve wildlife and habitat, and we support 
the modest but crucial increases in the President's request.
---------------------------------------------------------------------------
    \1\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States 
www.nfwf.org/Content/ContentFolders/NationalFishandWildlifeFoundation/
HomePage/ConservationSpotlights/
TheEconomicValueofOutdoorRecreation.pdf.
    \2\ Ibid.
---------------------------------------------------------------------------
                       FISH AND WILDLIFE SERVICE

    We urge the subcommittee to do as much as possible to protect the 
accounts of the Fish and Wildlife Service (FWS), our Nation's premier 
wildlife conservation agency. We strongly support the following modest 
increases in the President's request and oppose one disappointing 
decrease:
    Renewable Energy.--A crucial $4 million increase associated with 
renewable energy development that includes $1.5 million for Endangered 
Species Program Consultation, $750,000 for Conservation Planning 
Assistance, $750,000 for Migratory Bird Management and $1 million for 
the Office of Law Enforcement. This increase will help to ensure siting 
of renewable energy projects in a way that prevents harm to species 
such as golden eagles, seabirds, bats and desert tortoise.
    Cooperative Recovery.--A praiseworthy new initiative to implement 
recovery actions for species listed under the Endangered Species Act on 
National Wildlife Refuges and surrounding lands. The $5.4 million 
increase includes $2.5 million for Refuges, $883,000 for Partners for 
Fish and Wildlife, $800,000 for Fisheries Population Assessment, 
$770,000 for Adaptive Science and $400,000 in the Endangered Species 
program. This initiative will support more efficient efforts across 
landscapes to recover threatened and endangered species.
    Endangered Species.--
  --A $1 million increase to support consultations on pesticides that 
        may impact listed species including the development of 
        protocols to determine safe levels of exposure. This increase 
        is vital to facilitate likely needed consultations on several 
        hundred pesticides out of at least 739 pesticide cases 
        identified by the Environmental Protection Agency that are 
        scheduled for review by 2022.
  --A $1.6 million increase for listing species. This funding will 
        support progress in listing more than 250 candidate species, 
        many of which have awaited protection for years.
  --A $12.3 million increase for the Cooperative Endangered Species 
        Fund to provide assistance to States to protect threatened and 
        endangered species.
  --A $998,000 reduction for the Wolf Livestock Loss Demonstration 
        Program that assists livestock owners co-existing with wolves. 
        In light of the recent delisting of wolves in the Northern 
        Rockies and Western Great Lakes and potential expansion of 
        wolves into California, it is important to continue this 
        valuable program which is intended to both compensate ranchers 
        for livestock losses due to wolves and to implement proactive, 
        nonlethal methods to prevent these losses. We urge restoration 
        of this funding.
    National Wildlife Refuge System.--A net increase of $9.1 million 
for National Wildlife Refuge System (NWRS) Operations and Maintenance 
in the request includes not only the $2.5 million for Cooperative 
Recovery but also $3 million for baseline inventory and monitoring of 
refuge resources, $3.6 million for Challenge Cost Share projects with 
partners and volunteer groups, $1 million for law enforcement, and $1.4 
million for priority operations. Even with the increase, the request is 
still $8 million less than the fiscal year 2010 level, even though 
refuges need an annual increase of a least $8 million just to keep fuel 
in trucks and pay for rising utilities and other costs. Moreover, in 
2011, devastating disasters including tornadoes, wildfires, hurricanes, 
an earthquake, and a tsunami caused more than $190 million in damages 
to the Refuge System, an amount that totals nearly 40 percent of its 
budget that will put the System at further risk without supplemental 
disaster funding.
    Cooperative Landscape Conservation and Adaptive Science.--Threats 
to the conservation of our natural resources are increasingly large-
scale and complex. Combined with decreasing financial resources, there 
is a need to work more effectively and efficiently across 
jurisdictional boundaries. This comprehensive initiative is helping the 
natural resource management agencies improve landscape-level 
coordination of conservation efforts and provide science and technical 
capacity to tackle today's complex environmental problems. We oppose 
any cuts to this activity.
    Environmental Contaminants.--A $1.3 million increase in this 
program that has been flat since 2001 to help expedite and complete 
more restoration activities for Natural Resource Damage Assessment and 
Restoration cases.
    International Affairs.--An $83,000 increase which is the fiscal 
year 2012 level with fixed costs to sustain vital efforts to provide 
crucial capacity building, education, and training for priority species 
and habitats of global concern and for the growing permitting, research 
and monitoring workload for species subject to trade, including native 
U.S. species.
    Office of Law Enforcement and Migratory Bird Management.--In 
addition to the increases requested for these two programs related to 
renewable energy development, Defenders wishes to underscore their 
vital importance for wildlife conservation in our Nation. In fiscal 
year 2011, the Office of Law Enforcement's 143 inspectors processed 
approximately 167,000 declared shipments of wildlife and wildlife 
products worth more than $2.7 billion and the 219 special agents 
investigated nearly 13,000 cases, from breaking up smuggling rings to 
working with states to protect U.S. game species from poaching. The 
Migratory Bird Management program is working to reverse precipitous 
declines in U.S. bird populations including native Hawaiian birds, 
ocean birds, coastal shorebirds, arid lands birds, and grassland birds.
    Other Key Grant Programs.--In addition to the increase for the 
Cooperative Endangered Species Fund referenced above, we support the 
President's request for the Multinational Species Conservation Fund, 
$9.98 million, for the Neotropical Migratory Bird Fund, $3.8 million, 
and for the State and Tribal Wildlife grants, $61.3 million.

       UNITED STATES FOREST SERVICE AND BUREAU OF LAND MANAGEMENT

    The Bureau of Land Management (BLM) and the U.S. Forest Service 
(USFS) are crucial to the conservation of wildlife and habitat in the 
United States, yet their resources are not adequate to meet significant 
challenges. A top priority for Defenders is ensuring that renewable 
energy development on these lands proceeds in a balanced way that 
maintains the ecological integrity of our public lands and waters, 
conserves wildlife habitat and populations, and contributes to agency 
efforts to successfully recover our most imperiled wildlife. We urge 
strong oversight to ensure that any energy development is done in an 
environmentally sensitive fashion. Given their large land ownerships it 
is imperative that both participate fully in landscape level 
conservation and management efforts.
    United States Forest Service Integrated Resource Restoration/
Wildlife and Fisheries Habitat Management.--The budget has again 
proposed merging a number of accounts, including Wildlife and Fisheries 
Habitat Management, into an integrated budget. However, Defenders 
supports continuing Integrated Resource Restoration (IRR) as a 3-year 
pilot as directed by the Congress in the final fiscal year 2012 Omnibus 
appropriations bill so that the agency can demonstrate its ability to 
adequately protect habitat for fish and wildlife under the consolidated 
program. We urge no less than the fiscal year 2012 level of $140 
million for Wildlife and Fisheries Habitat Management. Even at that 
level, the program would be nearly $25 million less than the fiscal 
year 2001 inflation adjusted level.
    United States Forest Service Land Management Planning/Inventory and 
Monitoring.--The budget has again proposed merging these two programs 
into a single line item. As with IRR, we are concerned about such a 
consolidation unless the agency can demonstrate its ability to carry 
out its responsibilities under these two programs, especially given 
that in the coming year, USFS will finalize and begin to implement a 
new forest planning rule that requires sufficient funding for critical 
inventory and monitoring activities, including the assessments that 
will be fundamental to the implementation of the new planning rule. We 
urge no less than the fiscal year 2012 level for each of these two 
programs:
  --$39.9 million for land management planning; and
  --$161.7 million for inventory and monitoring.
    United States Forest Service Collaborative Forest Landscape 
Restoration Program.--We support the administration's request of $40 
million for the Collaborative Forest Landscape Restoration Program 
(CFLRP), a unique program that was established specifically to create 
job stability, achieve reliable wood supply, restore forest health, and 
reduce the costs of fire suppression in overgrown forests.
    United States Forest and Rangeland Research.--Defenders supports 
the administration's request of $292.8 million for United States Forest 
and Rangeland Research (FS R&D). Within FS R&D our highest priority is 
the Wildlife and Fish Research and Development program that supports 
science-based fish and wildlife management on National Forest System 
lands and beyond such as grappling with the question of how changes in 
snow pack will impact wolverines and other climate vulnerability 
assessments.
    Bureau of Land Managment Sage Grouse.--A critically needed increase 
of $15 million in the BLM Wildlife Management program for sage grouse 
conservation in 10 western States includes $10 million for amendments 
to Resource Management Plans, $2.5 million for on-the-ground habitat 
restoration, and $2.5 million for inventory, monitoring and mapping. 
Almost half of all sagebrush habitat has been destroyed and this loss 
has been compounded by fragmentation of the remaining sage-grouse 
habitat. During the 42 years between 1965 and 2007, population decline 
was estimated at 3.1 percent each year. This modest funding increase is 
desperately needed to support a broad effort to stop this iconic bird's 
decline and avert the need for listing under the Endangered Species 
Act.
    Bureau of Land Managment Renewable Energy.--An increase of $7.1 
million for renewable energy includes support for regional land use 
planning studies and environmental reviews of potential wind energy 
zones. These studies will help to identify future renewable energy 
zones that will avoid areas with potential natural resource conflicts, 
including wildlife conflicts (especially sage grouse, golden eagles, 
desert tortoise, or other sensitive species).
    Bureau of Land Managment Resource Management Planning.--Another 
crucial increase is $4.7 million for Resource Management Planning in 
this program that has been cut by nearly 25 percent since fiscal year 
2010 and needed to help address 47 plans under revision and another 45 
that need revision.
    Bureau of Land Managment Challenge Cost Share.--Defenders supports 
a total of $7.5 million, same as the fiscal year 2012 level for 
proactive wildlife and habitat conservation projects on the ground with 
partners.
                         u.s. geological survey
    The U.S. Geological Survey (USGS) provides the basic science 
necessary for conservation of fish, wildlife and habitat. We urge 
support for the following increases in the request:
      Ecosystems.--A $16.6 million increase that includes $1 million 
        for research on White Nose Syndrome that is devastating bat 
        populations. The base program also supports crucial scientific 
        efforts needed to avoid harm to birds, bats, desert wildlife, 
        and other species that could be impacted by the development of 
        wind and solar energy.
      Climate and Land Use Change.--A $500,000 increase for the 
        National Climate Change and Wildlife Science Center/DOI Climate 
        Science Centers and a $6.5 million increase in Science Support 
        for DOI Bureaus to address scientific needs in planning for 
        adaptation to climate change.

                    LAND AND WATER CONSERVATION FUND

    Finally, each day, 6,000 acres of open space in the United States, 
including wildlife habitat, is lost to fragmentation and destruction. 
Once these lands are lost, they can never be recovered. Defenders 
supports the requested increase of $104.7 million for Land and Water 
Conservation Fund (LWCF). A portion of the LWCF total, about $108 
million, is for an Interior-Forest Service collaborative interagency 
land acquisition program to protect strategic landscape-scale projects 
that at the same time meet core agency acquisition priorities. This 
innovative initiative will help to bring larger conservation benefits 
and build resilience across landscapes with scarce dollars. Thank you 
for the opportunity to testify.
                                 ______
                                 
Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School, 
                             Navajo Nation

                            REQUEST SUMMARY

    Mr. Chairman and members of the subcommittee: My name is Ervin 
Chavez, School Board President of the Dzilth-Na-O-Dith-Hle Community 
School (DCGS) on the Navajo Reservation in Bloomfield, New Mexico. With 
me is Faye BlueEyes, Finance Director, who will be presenting our 
testimony on behalf of the DCGS School Board. We will focus on three 
areas of particular concern to our school in the fiscal year 2013 
funding requests for the Bureau of Indian Education (BIE). The DCGS 
requests the following, all under the BIE budget category:
  --Provide $109.8 million in facilities operations and $76 million in 
        facilities maintenance as recommended by the National Congress 
        of American Indians in its budget requests;
  --Support requested $2 million increase, at a minimum, for Tribal 
        Grant Support Costs; provide $72.3 million to fully fund;
  --Restore $4.4 million in reductions to the Indian School 
        Equalization Program Formula Funds account.

                               BACKGROUND

    DCGS is a tribally controlled grant school is located in 
Bloomfield, New Mexico, approximately 170 miles northwest of 
Albuquerque, within the boundaries of the Navajo Indian Reservation. 
DCGS is primarily funded through appropriations received from the BIE, 
and pass-through funding from the Department of Education. Our school, 
which has been in continuous service since 1968, operates a K-8 
educational program and a dormitory program for students in grades 1-
12. Residential students in grades 9-12 attend the local public school. 
There are 109 students currently enrolled in our academic program, and 
67 students are housed in campus dormitories. Our all-Navajo Board 
operates the DCGS through a Grant issued by the BIE under the Tribally 
Controlled Schools Act. The DCGS mission is to make a difference in the 
educational progress of our students and we believe that all of our 
students are capable of achieving academic success. DCGS, however, has 
struggled with chronic underfunding of virtually each and every one of 
its educational and related programs. We describe below the impacts of 
the underfunding in several key areas.
    Funding for Facilities Maintenance in the Amount of $76 Million and 
Facilities Operations in the Amount of $109.8 Million.--Facilities 
Maintenance funds are intended to provide for the preventative, 
routine, and unscheduled maintenance for all school buildings, 
equipment, utility systems, and ground structures. There are numerous 
studies that attest to the fact there is close correlation between poor 
or inadequate facility conditions and poor student and staff 
performance. And it is documented fact that 63 of the 181 schools for 
which BIE is responsible are rated in ``poor'' condition on the 
Bureau's ``Education Facility Condition Index (FCI) for fiscal year 
2013'', the same number as in fiscal year 2012. Without a significant 
increase in facilities maintenance funding, there is little doubt there 
can be no measurable progress in addressing the ever-growing deferred 
maintenance backlog of at least $967 million (according to the 2011 
draft No Child Left Behind School Facilities and Construction 
Negotiated Rulemaking Committee Report). The report also acknowledged 
that persistent underfunding of Facilities Maintenance contributes to 
more rapid deterioration of the aging buildings.
    The DCGS is, unfortunately, one of the ``poor'' rated schools and 
with an FCI of 0.4001, it is among the poorest-rated facilities. From a 
practical standpoint, this means that we are not able to provide a 
safe, healthy learning environment for our students and staff. 
Realistically, some of the health and safety problems at DCGS include 
the closure of the restrooms servicing our junior high classrooms due 
to leaking sewer lines. Whereas the required industry standard for 
plumbing today is PVC piping, our 40-plus-year-old buildings have 
galvanized pipes that have become so rusted, corroded and contain 
sediment experts estimate only about one-quarter inch diameter of the 
pipes remain open. Repairs are also difficult because extensive 
corrosion makes any disturbance of the pipes makes it susceptible to 
crumbling. Adding to the sewer problems is that the sewage lagoon 
servicing the DCGS is not the adequate size for our complex, thus 
requiring weekly cleanouts, meaning our already over-burdened 
facilities have to send out one staff member to manually hose out each 
of the sewage cells in the lagoon.
    The age of the facilities also impacts the water lines, which are 
also very corroded and contain so much sediment that we must provide 
bottled drinking water for the students (an additional cost that most 
public schools do not face). We also have issues with an outdated 
electrical transformer for which parts are no longer available and 
insufficient internal electrical wiring that must be replaced to avoid 
further electrical fires.
    Most public schools have readily available, reliable Internet 
access. The DCGS, on the other hand, has for years relied on a 
satellite link to support the educational technology needs of the 
students. The Internet access was very unreliable--depending on weather 
conditions and other reasons that were not able to be fully determined 
by the provider--which more often than not resulted in frustrating 
students trying to do research and/or cancelling academic lessons. We 
pleaded with the BIE to assess and address the problem or at least 
facilitate rewiring the facilities to accommodate better IT access but 
sadly that tech support has been so lacking for more than 6 years that 
we have turned to the Navajo Nation Technology Department (NNTD) for 
assistance. Sadly we are placing blind faith that through the Federal 
E-rate program we will be able to recoup the installation payment we 
had to pay upfront for the NNTD to begin work and to also fund the 
additional work to complete the technology upgrades. Even with the 
limited work that has been completed, the students are already seeing 
noticeable improvements in Internet availability.
    Despite our best efforts to maximize the limited facilities 
maintenance funds for upkeep of our buildings, there is only so much 
that our five-member facilities staff can do. The BIE has estimated 
$7.7 million would be needed to fix all that is on the DCGS deferred 
maintenance backlog, and the replacement cost would be $19.1 million. 
The BIE's fiscal year 2013 request for facilities maintenance is nearly 
level funding again ($50.9 million), which means that once again there 
will not be enough to make a significant dent in the maintenance 
backlog of DCGS or any of the other schools.
    Facilities Operations funding is for the ongoing operational 
expenses like electricity, heating fuels, communications, ground 
maintenance, refuse collection, water and sewer service, etc. However, 
the facilities operation expenses are currently funded at approximately 
46 percent of need. In light of the escalating costs of these essential 
services--especially the cost of electricity and heating costs--it is 
evident the BIE's fiscal year 2013 request of $58.6 million (level 
funding) is still grossly inadequate.
    When the facilities operations and maintenance costs are not funded 
at a realistic level, our schools are not able to address the small, 
preventable problems to keep them from becoming bigger and more 
expensive to fix, or we cannot even perform some needed maintenance. 
Further, in emergency situations, school funding must be diverted from 
other programs to meet these needs. For the health and safety of our 
students and staff, we support the NCAI-recommended $76 million for 
facilities maintenance and $109.8 million in facilities operation 
funding.
    Funding for Tribal Grant Support Costs in the Amount of $72.3 
Million.--Tribal Grant Support Costs (TGSC), formerly known as 
Administrative Costs Grants, are funds provided to tribally operated 
schools to cover the administrative or indirect costs associated with 
the operation of a school. Currently, 125 of the 183 BIE-funded schools 
are operated by tribes or tribal school boards, with another three BIE-
operated schools possibly being converted to grant status in fiscal 
year 2013. TGSC funding is applied to the costs of payroll, accounting, 
insurance, background checks, and other legal, reporting and record-
keeping requirements, including the preparation of required annual 
audits. TGSC are appropriated in a lump sum and then awarded to 
individual schools after application of a complex statutory formula 
that divides the available funding--not the statutorily required 
amount--among eligible recipients. In fiscal year 2012, the funding 
available for TGSC met only 63.7 percent of the need of the schools, 
which is less than the BIE estimated rate for fiscal year 2012. This 
means that at 100 percent of TGSC need, DCGS should have received 
nearly $700,000; instead, we received only $445,000. What happens when 
there is a $250,000 shortfall? At DCGS we have consolidated internal 
controls, streamlined checks and balances, and scaled back 
significantly our management staff. For example, our business office 
now has only two full-time staff to handle all the DCGS business-
related functions, such as process payroll for 90 on a bi-weekly basis; 
complete all the accounting; complete all tax reporting requirements; 
process account payables-requisitions-purchase orders, and ensure 
conformance with all audit requirements.
    For fiscal year 2013, the BIE requests a $2 million increase, which 
they estimate will provide a TGSC rate of 65 percent of need. The DCGS 
is very concerned this projected percentage is being over reported. 
Consider that the BIE does not request separate start-up funds for 
newly converting schools but they report there may be as many as three 
in fiscal year 2013. With no start-up funds, the additional school 
conversions will consume an inordinate amount of the already limited 
TGSC, thus further limiting the funds available to the ongoing grants/
contracts.
    The increase sought by the administration not only falls well short 
of the schools' actual support cost needs, it fails to make even 
minimal progress in promoting fairness or equity with respect to the 
Government's support costs paid for other Indian programs. As a result 
of contract support cost (CSC) litigation brought by tribes for BIA and 
IHS failures to fully fund CSC, in all other BIA program areas except 
education, growth has been tremendous. In fact, for the period covering 
fiscal year 2009 to fiscal year 2012, the nonschool BIA CSC account has 
grown by an astounding $73.9 million, which raised the percentage of 
CSC need paid from 75 to nearly 100 percent. In contrast, the TGSC 
funding during the same period increased by a mere $2.8 million, and 
that was in the last 2 fiscal years; with the TGSC rate rising from 61 
to 63.7 percent during that period. The schools should not have to 
spend years before the courts litigating their being short-changed by 
the BIE. The Congress should fix the problem and fully fund TGSC at 
$72.3 million for the indirect cost requirements of current tribally 
controlled schools, and provide $2 million in start-up funds for newly 
converting schools.
    Restore $4.4 Million to Indian School Equalization (ISEP) Formula 
Funds Account.--The fiscal year 2013 budget request proposes a $4.4 
million (or 1 percent) reduction in ISEP formula funds due to a 1-
percent decline in student population. The Bureau, however, fails to 
recognize that schools still have costs that are not directly tied to 
the number of students enrolled; in essence a minimum operating costs 
to keep our doors open. For instance, our electrical bill is not based 
on the number of students served, and the buses must cover their routes 
whether there is 1 student or 50 students on that route. Further, as we 
have testified, many of the accounts that support School Operations are 
seriously underfunded so that we must constantly utilize our education-
program (ISEP) funds to offset nonacademic costs such as student 
transportation, maintenance, administrative functions to name a just a 
few. Despite our best efforts to stretch each and every dollar, in 
school year 2012-2013 DCGS will be forced to reduce the number of 
student school days and instead operate on providing the requisite 
number of contact hours for each grade level.

                               CONCLUSION

    It is widely acknowledged that investments in education have a 
direct economic impact as well as benefits to the individual. Studies 
have also shown that reductions in education expenditures have 
negatively impacted employment rates. With our native students coming 
from some of the hardest hit areas in these times of economic downturn, 
we ask the Congress to provide the levels of education funding that 
will enable us to provide a quality education in safe and secure 
environment for our students. We are grateful for any assistance you 
can provide.
                                 ______
                                 
      Prepared Statement of the Federal Forest Resource Coalition

    The following testimony is submitted on behalf of the Federal 
Forest Resource Coalition (FFRC), a 501(c)(6) trade association, 
representing purchasers of United States Forest Service (USFS) and 
Bureau of Land Management (BLM) timber across the country with members 
in more than 24 States, more than 650 member companies representing 
350,000 workers and about $19 billion in payroll.
    The FFRC supports sustainable management of the National Forests 
and BLM lands to produce clean water, enhance wildlife habitat, produce 
forest products including timber and biomass, support rural economic 
development, and to reduce the threats of catastrophic wildfires and 
insect outbreaks. Our members come from every link on the forest 
products value chain, from loggers to landowners and from large pulp 
and paper facilities to forest bioenergy plants. Our member companies 
are frequently located in rural areas, which have higher than average 
unemployment, poverty, and population loss compared to their States' 
averages.
    Many of our member companies rely on the National Forests and BLM 
lands to provide a consistent and sustainable timber supply. Forest 
products companies also represent the lowest cost, and most effective, 
tool for Federal land managers to improve the health of our public 
lands. Increased management and forest products outputs would provide a 
much-needed economic boost to rural America, creating thousands of 
jobs, as well as increasing the pace of forest restoration on our 
public lands, particularly the National Forests. The health of the 
National Forests, the economic health of our member companies, and the 
health of the communities where we live and work, are inextricably 
linked.
    Increasing the Pace of Forest Restoration.--Last month, the 
Secretary of Agriculture announced an initiative to accelerate the pace 
of forest restoration on the National Forests. While we applaud the 
administration for recognizing the urgency of the forest health threat 
on the National Forests, we are concerned that the initiative does not 
go either far, or fast, enough. Some of my member companies have faced 
situations where the USFS is proposing management projects which either 
fail to address pressing forest health concerns, like the pine beetle 
epidemic in the Rockies, or which don't go as far as local 
collaborative groups would like to go, such as in the Northeast 
Washington Forest Vision project around the Colville National Forest.
    Even in these extremely challenging wood markets, some FFRC member 
companies have been frustrated by the Forest Service's lack of 
commitment to sell adequate log supplies. The result is idled 
investments, reduced shifts at sawmills, jobs lost to foreign 
competition, and a failure to position the USFS to help sustain or 
enhance a value-added, manufacturing industry that can capture greater 
domestic and international market share. Our member companies are 
extremely competitive in the global market, and only need a fairly 
priced raw material to capture more of those markets. The time 
available to capture these opportunities is limited, and we urge you to 
reward the USFS's recent initiative by investing in more aggressive in 
management of the National Forests.
    We have worked--and will continue to work--closely with the 
leadership in the USFS and USDA to find ways of reducing overhead and 
making the forest products and fuels reductions program more efficient. 
We believe some of the steps taken by the USFS in their February 2, 
2012 report will help achieve these efficiencies. However, other 
authorities, like allowing the USFS to use designation by description 
on regular timber sales, much as they do on current Stewardship 
contracts, will help reduce unit costs even further.
    Investing in Land Management.--We are very thankful to the 
subcommittee for including national direction to the USFS to increase 
timber outputs from 2.4 to 3 billion board feet in 2012. We urge the 
subcommittee to continue raising the bar for the agency and set a goal 
of 3.5 billion board feet for fiscal year 2013. The current annual 
harvest from the National Forests represents less than 10 percent of 
annual forest growth, and less than half the allowable sale quantity 
under existing forest plans. In many regions, the USFS is falling short 
of its own management goals; including in reacting to the pine beetle 
outbreak in the Rockies and in managing aspen habitat in the Lake 
States. Stepping up management, through formal collaboratives where 
they exist and normal timber programs elsewhere, will help address 
pressing forest health concerns while helping bolster employment in 
rural communities where unemployment is frequently near 20 percent and 
poverty is well more than State averages. Investing in the USFS timber 
program is a very effective job creator, generating 16.5 new direct and 
indirect jobs per 1 million board feet harvested.
    While we appreciate the support for forest management, we urge the 
subcommittee to make new investments in the National Forest Timber 
Management line item this year. This program has not received an 
increase since 2008, and due to inflation it has lost about 5 percent 
of its purchasing power. Further, extraordinarily high overhead rates 
have further eroded the program's effectiveness. To help keep the 
program pointed in the right direction, we urge the subcommittee to 
invest $371 million, an increase of $36 million more than the current 
fiscal year to achieve a fiscal year 2013 target of 3.5 billion board 
feet.
    Forest Roads, Hazardous Fuels Reduction.--It is also urgent that 
the subcommittee restore funding which has been cut since 2010 from the 
Capital Improvement and Maintenance Account, as well as the Wildland 
Hazardous Fuels Reduction program. These two programs are vital to 
maintaining access to the National Forests and in helping to reduce the 
massive, 90-million-acre backlog of lands which urgently need hazardous 
fuels reduction. The work cannot be done economically without the 
ability to use the USFS road system. We continue to oppose a blanket 
moratorium on new roads, because this arbitrarily restricts the agency 
from implementing needed management, and also prohibits the USFS from 
replacing poorly located or damaged roads with new roads which are 
engineered and located properly.
    We appreciate the efforts of the subcommittee to remove the 
arbitrary requirements for hazardous fuels reduction work in the 
Wildland Urban Interface (WUI), but we were troubled that the 
President's budget continues to focus the USFS's efforts there. A 
greater percentage of lands in need of fuels reduction are outside of 
the WUI, and mechanical thinning allows the USFS to take advantage of 
the wood products infrastructure to reduce treatment costs. Extensive 
USFS research shows that mechanical thinning (which included removing 
useable wood fiber) followed by prescribed fire is the best approach to 
significantly reduce threats from wildfire and forest pests.
    Reducing National Environmental Policy Act Costs.--The President's 
Council on Environmental Quality issued a memo on increasing the 
efficiency and effectiveness of environmental reviews required by the 
National Environmental Policy Act (NEPA) in December. The USFS has told 
the Congress that complying with NEPA and other environmental laws 
costs them $356 million annually, which is more than the agency spends 
on timber management, or Research, or State and Private Forestry. 
Saving even a portion of these expenses would free up resources to 
actually manage forests and reduce the threat of wildfire and insect 
outbreaks. We urge the subcommittee to direct the USFS and CEQ to take 
more aggressive steps to reduce NEPA costs than the comparison study of 
two landscape restoration projects approved on February 9.
    Timber purchasers across the country report that USFS personnel 
frequently conduct exhaustive NEPA analysis, only to propose and 
implement small-scale land management projects which do not meet the 
objectives the agency set out to meet. Examples include leaving higher 
than called for stand densities, or dropping entire units from proposed 
sales even though doing so leaves forest stands susceptible to insects 
and mortality. The USFS's February 2 report on increasing the pace of 
forest restoration touches on this subject, but we believe direction 
from this subcommittee would help reinforce the urgency of directing 
the resources to management rather than paperwork.
    When National Forests in the Lake States are up to 75 percent 
behind on their management goals for early successional habitat, and 
the National Forests in the Rocky Mountains are falling woefully behind 
in dealing with a massive, 41-million-acre-and-growing pine beetle 
outbreak, finding some way of reducing NEPA costs is urgently needed.
    Land Acquisition.--Considering the fiscal situation facing the 
Nation and the backlog of both forest management and roads and 
facilities maintenance needs on the National Forests, we recommend no 
funding for the National Forest System Land Acquisition line item. It 
makes little sense to increase the size of the National Forest System 
at a time when the agency has a demonstrated backlog in maintenance and 
land management. We recommend that the $59 million recommended by the 
administration be redirected to the land management priorities 
recommended above.
    Bureau of Land Management Forest Management.--The President's 
fiscal year 2013 budget includes a sharp reduction in funding for the 
BLM Public Domain Forest Management Program. The President's budget 
proposes to reduce BLM PD Forest Management funding by nearly 40 
percent, which will result in reduction of 40 percent of associated 
FTEs, 50-percent reduction in biomass volume, and 80 percent reduction 
in Stewardship Contracts. This would mean the BLM would drop from 
offering 123 million board feet in 2012 to offering 19 million board 
feet, a decline of more than 85 percent of the public domain 
timberlands. FFRC supports funding for BLM PD Forest Management Program 
at no less than the fiscal year 2012 level of $9.7 million. Aggressive 
action is also needed to offer regeneration harvests from the O&C lands 
in Oregon that meet the needs of local mills. This will necessitate 
funding at or near fiscal year 2011 levels, coupled with strong 
direction to the agency to fulfill its statutory duty under the O&C Act 
to produce a sustainable flow of timber for local economies.
    Alaska.--The timber industry in Alaska faces several challenges 
stemming from years of controversy over the management of the Tongass 
National Forest. FFRC members depend upon supplies of timber from this 
forest, and have been hard pressed as the Forest Service has placed 
complete restrictions on harvest in roadless areas. Current efforts 
billed as ``restoration'' forestry have instead focused on a particular 
approach to fisheries management and on a transition to harvesting 
second growth timber that will not meet the local industries needs for 
decades. Steps must be taken to offer a timber sale program that 
complies with the National Forest Management Act and can sustain the 
local value added industry in order to save the capacity to manage the 
very small percent of the Tongass that is open to any harvest. Current 
policies of avoiding all litigation risk will surely cause the death of 
the local industry in southeast Alaska, leaving the region dependent on 
a less diversified, tourism-based economy.
    Forest Health and Forest Restoration.--2011 demonstrated that the 
poor health of our National Forests and other Federal Forests impacts 
everyone, from the industries that depend on useable wood fiber to 
casual weekend visitors to the Forests. The large fires in Arizona and 
New Mexico last year forced the closures of popular campgrounds, 
destroyed dozens of recreational cabins, and forced cancellations of 
Fourth of July events at popular mountain resorts. Many miles of forest 
roads and several campgrounds in Arizona remain closed. The large-scale 
beetle infestation in the Black Hills has forced local campground 
owners to spend more than $100,000 annually to remove beetle killed 
trees and spray others in an effort to stop beetles from spreading off 
of the National Forests. The Pagami Creek fire in Minnesota disrupted 
popular hiking and canoeing areas in an around the Boundary Waters 
Canoe Area. Campers, hikers, hunters, and skiers all want to visit 
healthy, green, and growing forests.
    In each of these cases, wood using industries, from start-up 
biomass plants to family run sawmills to internationally competitive 
pulp and paper facilities, stand ready to help the USFS and BLM to 
actively manage the public lands they oversee. Opportunities to expand 
this management, and the benefits that come from it, abound nationwide. 
We thank you for your support for our efforts to manage these lands and 
help our rural communities in the process.
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils

    The Federation of State Humanities Councils respectfully requests 
that the Senate Appropriations Subcommittee on the Interior, 
Environment, and Related Agencies allocate $154.255 million for the 
National Endowment for the Humanities and $44 million for the State 
humanities councils for fiscal year 2013.
    As full partners of the NEH, councils receive their core funding 
through the Federal/State Partnership line of the NEH budget and use 
that funding to leverage additional funds from foundations, 
corporations, private individuals, and State governments. In 2011, 
every Federal dollar the councils awarded through grants to local 
institutions leveraged, on average, $5 in local contributions. Councils 
further extend their resources by forming programming partnerships with 
organizations and institutions throughout their States.
    We are requesting a funding increase for fiscal year 2013 for the 
work of the council because cuts over the past 2 years have had serious 
consequences for the communities and institutions the councils serve. A 
recent survey by the Federation of State Humanities Councils revealed 
that councils have had to shrink their grants programs significantly, 
even though requests for council funding have increased due to the 
troubled economy. These reductions in turn have led to fewer dollars 
leveraged and therefore even less funding for local organizations and 
communities.
    Our communities and our Nation as a whole will benefit from 
increased funding to the State councils, in part because State 
humanities council programs serve critical needs. Dozens of councils, 
for example, support family literacy programs, which make a significant 
difference in the lives of participants--low-income families, immigrant 
families, or simply families that need help to engage with words and 
ideas. Thousands of families have benefited from the Prime Time 
program, developed by the Louisiana Endowment for the Humanities and 
now active in a dozen other States throughout the Nation. In 2011, the 
Nebraska Humanities Council's Prime Time program reached 325 families 
in six communities. More than 1,800 free books were distributed through 
the program, and 100 new library cards were issued. Of the 
participating families, 89 percent said that as a result of the program 
they now spend more time reading as a family. Connecticut's Family Read 
program, operating primarily in the State's urban areas, fosters a 
culture of literacy in many public schools and community-based agencies 
where it is most needed, helping to address an achievement gap that is 
among the largest in the Nation.
    Council programs also serve other critical needs. The Literature 
and Medicine program, created by the Maine Humanities Council and now 
offered by 26 other councils, improves patient care and enables 
overtaxed medical personnel to find the renewed energy and inspiration 
to continue in the profession. By expanding into VA hospitals, the 
program provides invaluable resources for caregivers of returning 
veterans. The Missouri council has gone directly to the veterans 
themselves with a program that offers creative writing workshops and 
mentoring for veterans.
    Thirty-one organizations in the State of New York can attest that 
councils serve critical needs. After Hurricanes Irene and Lee hit last 
year, the New York Council for the Humanities swiftly distributed funds 
from an NEH Chairman's Discretionary Grant to provide relief to small 
cultural organizations in the affected area, prompting one museum 
director to observe, ``The council's response reflects an understanding 
of how best to serve the urgent needs of cultural institutions.''
    Council funding ensures that humanities programming is widely 
available to the general public. Councils reached 5,700 communities 
across the Nation in 2011, including rural towns, suburban communities, 
and urban neighborhoods. Councils supported programs in every 
congressional district and served hundreds of thousands of students, 
teachers, healthcare professionals, seniors, veterans, and many more.
    Council programs help communities and institutions not adequately 
served through other means. In rural communities, council programs are 
often the only cultural resources available. For more than 25 years the 
Idaho Humanities Council has offered the ``Let's Talk About It'' 
reading and discussion program, which now totals 75 scholar-led 
programs annually and is especially popular with small libraries 
lacking the resources to plan and seek funds for their own programs. 
The program's outreach to small communities is so powerful that it 
attracted the attention of a corporate sponsor that has provided about 
one-third of the program's cost for the past decade. ``Montana 
Conversations'' provides up to 200 programs annually for communities 
with populations of 2,000 or less. The South Dakota council reports 
that in their sparsely populated State, ``libraries, cultural centers, 
and museums often serve entire communities that stretch for miles, and 
these are the very institutions in need of the programming support that 
the South Dakota council can provide.''
    But it is not just rural States that face these issues. In 
California, where libraries have had to cut many services, the council 
joined forces with the California Center for the Book to create 
California Reads, a reading and discussion program. The council awarded 
more than $400,000 to 52 library jurisdictions serving 65 percent of 
the State. The project not only encouraged civic conversation 
throughout the State, but also offered a much-needed boost to 
libraries. In State after State, where cuts in State budgets are slowly 
starving both Government and private institutions, councils have been 
compelled to step in and try to help fill the gap.
    Council programs also serve communities whose stories and issues 
have too long been overlooked. The Oklahoma Humanities Council 
supported ``Carry the Fire'', a Native Humanities forum hosted by the 
Chickasaw Nation Division of Arts and Humanities to create a dialogue 
among tribal members, students, and the general public. The Forum 
explored issues important to the tribal community but unknown to many 
members of the public, such as comparisons of indigenous humanities to 
the humanities in general, the importance of the study of the 
humanities to Native people and others, and indigenous thinking and 
learning styles.
    In Wyoming, the council has made a special effort to engage those 
who have been left out of the mainstream conversations. Last summer the 
council launched the dialogue series ``Government, God, Google, and 
Guns'' as part of the broader program, ``Civility Matters,'' which 
involved sending a traveling tent to summer festivals and interviewing 
Wyomingites on civility issues. They learned that civility also 
includes listening to all voices in a democracy, so this year the 
council launched ``Giving Voice,'' a program that will reach out to 
youth, individuals and families below the poverty line, and those 
struggling with mental health.
    Council programs improve the quality of K-12 education. One of the 
many casualties of the poor economy has been State support for the 
educational structure. Councils have significantly lessened the impact 
of cuts on teachers and students. The Teacher Enrichment Program in 
Texas addresses the dual, interconnected problems of teacher training 
and teacher retention. Heeding studies that suggest that many teachers 
abandoned the profession in part because they felt ill prepared to 
teach their subjects, and recognizing the high cost of teacher 
turnover, the council created teacher institutes designed to provide 
intensive, deep-content enrichment using top-quality faculty. The 
council pays particular attention to early-career teachers working in 
low-performing schools--another example of councils stepping in where 
the need is greatest and no one else is providing help.
    Many councils offer teacher institutes, providing what is typically 
the only professional development in the humanities offered in their 
States. But councils also improve K-12 education in other ways. Several 
councils sponsor National History Day, which was recently awarded a 
National Humanities Medal by the President. The Maryland Humanities 
Council, for example, has been the State affiliate of National History 
Day since 1999, involving more than 18,400 students in 18 jurisdictions 
in 2011. The skills that students develop through Maryland History Day 
have been shown not only to strengthen students' performance in other 
subject areas, including reading, math, and science, but also to 
prepare students for college and their future careers.
    Council programs contribute to the civic health of their 
communities. Using texts and discussion techniques steeped in the 
humanities, councils allow community members to engage in dialogue with 
each other about both local and global problems. From Maryland to 
Indiana to Nebraska to Washington, councils bring a humanities 
perspective to discussions of community problems that allow for 
respectful airing of diverse viewpoints and movement toward possible 
solutions. Councils also engage citizens in the civic life of their 
communities by supporting thousands of reading and discussion groups. 
The Vermont Humanities Council's ``Vermont Reads'' program, now in its 
10th year, has enabled thousands of Vermonters to explore themes and 
ideas generated through the shared experience of reading. This 
intergenerational program, which draws on the expertise of teachers, 
librarians, and community leaders, not only is a catalyst for 
meaningful discussion of important themes but also it has a lasting 
impact on how children and adults understand ``community'' and how they 
experience reading as a lifelong activity.
    Councils extend resources through partnerships. Councils worked 
with an estimated 9,800 organizations in 2011. These included museums, 
libraries, schools, universities, senior centers, veterans' hospitals, 
churches, social service agencies, corporations and local businesses, 
chambers of commerce, State tourism offices, radio and television 
stations, and many more.
    Councils also fostered lasting partnerships among the groups with 
whom they worked. The Minnesota Humanities Center's traveling exhibit, 
``Why Treaties Matter,'' which explores relationships between Dakota 
and Ojibwe Indian Nations and the U.S. Government, demonstrates 
collaboration in many directions. The council developed the exhibit in 
consultation with the Minnesota Indian Affairs Council and the National 
Museum of the American Indian, and they have worked with dozens of 
agencies in Minnesota to create programming around this important 
topic. One host institution said that ``Partnering with the Minnesota 
Humanities Center on `Why Treaties Matter' isn't just about putting an 
exhibit up for a month. It's about working with local organizations to 
increase our capacity to engage audiences and provide multiple 
interpretive experiences and opportunities. Getting the exhibit is 
great, but it's this interaction and education that continues to shape 
our institutions well after the month is over.''
    And finally, funding allocated to councils makes good economic 
sense. Councils protect local economies through their support for 
struggling organizations that have seen other funding sources decline 
or disappear. In addition, every Federal dollar awarded by councils 
leverages, on average, more than $5 for programs carried out by local 
organizations. Even when grants are modest, council support has helped 
small organizations save programs, staff positions, and even 
organizations themselves.
    Council funding and programming yield other economic benefits. The 
many council-sponsored book festivals that take place throughout the 
country are an undeniable economic boon for their host cities. The 
annual Virginia Festival of the Book, created nearly two decades ago by 
the Virginia Foundation for the Humanities, has seen increases in 
audience, partners, participating authors, and programs each year. The 
Director of Economic Development of the City of Charlottesville 
estimates the economic impact of the Festival at more than $1 million.
    The Museum on Main Street tours, conducted through a partnership 
with the Smithsonian Institution Traveling Exhibition Service, enliven 
small-town economies by attracting audiences to the exhibits and 
accompanying programs that are sometimes larger than the populations of 
the towns themselves. Councils also provide support for cultural 
heritage tourism efforts to draw additional visitors--and their 
dollars--to local economies. Last year the Rhode Island Council for the 
Humanities provided a grant to the Rhode Island Marine Archaeology 
Project (RIMAP) for ``Rhode Island in the Revolution: A Heritage 
Tourism Project,'' which expanded existing knowledge of the State's 
Revolutionary War history by creating four heritage trails. The council 
has continued its work with RIMAP to expand its reach and impact, with 
plans to add digital applications to allow them to market their tours 
to the public and to Rhode Island schools.
    The State humanities councils invigorate their State's cultural 
institutions, K-12 education, civic health, and local economies. By 
partnering with more than 9,800 local organizations, the councils 
achieve a five-fold return on their Federal funding. The councils 
ensure that this Federal investment benefits the public as a whole--
citizens in every congressional district and 5,700 communities in 2011. 
In ways both intangible and concrete, the humanities programs made 
possible by the Federal funding to the councils simply make our States 
better places to live.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We appreciate having the opportunity to provide you 
with testimony on fiscal year 2013 appropriations for the Indian 
programs funded through the U.S. Department of the Interior and Indian 
Health Service (IHS). The Fond du Lac Band provides health, education, 
social, and other governmental services to approximately 6,700 Indian 
people living on or near our Reservation in northeastern Minnesota. 
These programs are essential to our ability to educate our children, 
care for our elderly and infirm, prevent crime, and protect and manage 
natural resources.
Bureau of Indian Education: Education
    We urge the Congress to increase funding for Bureau of Indian 
Education (BIE) Elementary/Secondary School Programs. The Fond du Lac 
Band relies on BIE funding for the operation of the Band's pre-K 
through grade 12 Ojibwe School. The Ojibwe School serves approximately 
340 students most of whom are tribal members or descendants of tribal 
members. Most of our students come from very low income households, as 
illustrated by the fact that more than 90 percent of our students 
qualify for free or reduced rate lunches. But although American Indian 
students are the most at-risk group of students in our Nation, the BIE 
Elementary/Secondary School Programs have been historically 
underfunded. We ask that BIE Elementary/Secondary School Program 
funding be increased as follows:
    Indian School Equalization Program Funding.--We urge the Congress 
        to provide $431 million for Indian School Equalization Program 
        (ISEP) Formula funds. These are the primary source of funding 
        for our school, covering salaries for teachers, teacher aides, 
        reading and math specialists, language and culture teachers, 
        administrative personnel and school governance (School Board 
        costs). While the President's proposed budget would reduce ISEP 
        funds to offset other funding increases, ISEP should not be 
        reduced as it is critical to the ability of tribal schools to 
        recruit and retain qualified teachers and to cover shortfalls 
        in other budget areas, such as transportation, facilities and 
        maintenance.
    Tribal Grant Support Costs.--We urge the Congress to provide $72.3 
        million to fully fund Tribal Grant Support Costs (TGSC). The 
        funds are critical to maximizing tribal self-determination and 
        ensuring effective program administration. We rely on TGSC to 
        help pay for accounting, payroll, insurance, background checks, 
        legal and record-keeping requirements. Inadequate funding of 
        TGSC forces our school to use ISEP and other funds to meet 
        these important needs.
    School Facility Operations and School Facility Maintenance.--We 
        urge the Congress to provide $109.8 million in facilities 
        operations and $76 million in facilities maintenance. Facility 
        funding is used to keep our building in safe condition, pay for 
        preventative and unscheduled maintenance for our school 
        building, and cover insurance and increasing utility costs, 
        e.g., electricity, heating and cooling, water and sewer. 
        Increased funding for school facility operations and school 
        facility maintenance is needed as past funding has not kept 
        pace with the cost of school operations or the growing backlog 
        of Indian schools and facilities needing repair.
    School Construction and Repair.--We urge the Congress to provide 
        $263.4 million for BIE school construction and repair. Research 
        studies continue to document a link between inadequate facility 
        conditions and poor performance by students. Inadequate support 
        for school repairs will cause the unmet needs for construction 
        and repair to continually increase. Not addressing these 
        critical infrastructure needs will only jeopardize student and 
        staff safety.
    Student Transportation.--We urge the Congress to provide $73 
        million for student transportation. Flat funding levels mean 
        that there is no mechanism for replacing buses that need 
        replacing, nor any way to keep pace with rising fuel costs. 
        Without an increase in funding for student transportation, the 
        costs to maintain, repair, and replace buses and cover rising 
        fuel costs must be paid out of education program funds.
Bureau of Indian Affairs: Public Safety and Justice
    We support the President's proposal to increase Bureau of Indian 
Affairs (BIA) funding for law enforcement. We also ask the Congress to 
increase the Band's base funding by $2 million for court operations and 
law enforcement, and provide a one-time appropriation of $8 million to 
allow us to expand the facility that houses our law enforcement 
department--a facility that is completely inadequate for that purpose.
    We continue to face massive unmet needs for law enforcement. The 
Fond du Lac Band had to assume responsibility for law enforcement after 
the Minnesota Supreme Court ruled that the State lacked jurisdiction to 
enforce traffic laws on roads within Indian reservations, State v. 
Stone, 572 N.W.2d 725 (Minn. 1997). Over the years, we have done this 
using a combination of tribal and available Federal funds and by 
cooperative agreements with local law enforcement agencies. But those 
sources do not meet our needs. We face huge demands on our Law 
Enforcement Department due to the insurgence of methamphetamine, 
alcohol, illegal prescription drug use, and gang-related activities on 
our Reservation. Prescription drug abuse is an epidemic. Increasing 
numbers of our elders and others are the victims of more frequent 
assaults and robberies that are drug related. Our law enforcement 
officers are responding to a growing number of drug overdoses and 
deaths, as well as juvenile offenses involving drugs, alcohol, thefts, 
assaults and burglaries. They also respond to a wide range of other 
matters, including, for example, reports involving domestic disputes, 
disturbances, disorderly conduct, property damage, theft, medical 
emergencies, fire, neglected children, runaways, suicide threats, as 
well as numerous traffic-related matters. In 2011 alone, our Law 
Enforcement Department responded to close to 4,900 incidents and 
requests for assistance.
    To address these problems, we need to increase our law enforcement 
staff so we can ensure effective law enforcement coverage 24/7. This is 
especially important because the Band needs to implement a community 
policing model under which the Band operates neighborhood stations at 
the different community centers within the Reservation. But we do not 
have sufficient funds to hire the number of officers we need. We 
currently employ 13 patrolmen, 1 investigator, 1 school resource 
officer (assigned to the Ojibwe School), a Chief of Police, and 3 
administrative staff. To the extent possible we schedule three officers 
per shift, but we do not have sufficient funds to do this around the 
clock. In fact, to effectively patrol the Reservation we should have 4 
officers working each shift and a second investigator, for a total of 
20 officers. Fewer officers on duty means serious safety issues for 
both officers and the people we need to protect. The large number of 
calls for police assistance also means that we need more than one 
investigator and, with our limited staff we cannot implement proactive 
measures, such as education and outreach programs.
    Federal funding is also vital for law enforcement equipment. We 
have only six vehicles--three patrol cars, and one vehicle each for the 
use of the K-9 officer, investigator and school resource officer. Much 
of the Fond du Lac Reservation is rural, and there are many dirt roads 
as well as minimum maintenance roads. As a result, the vehicles take 
some punishment and, with a patrol area of approximately 136 square 
miles, the mileage covered by each patrol vehicle adds up very quickly. 
Budget limitations make it difficult to repair and replace patrol cars 
in a timely manner.
    In addition to this, the Band has a substantial need for a a new 
facility for our law enforcement department. The Department is still 
housed in a six-room building, which we share with the Band's housing 
program. It has neither room for investigative interviews, nor office 
space for specialty positions such as investigators. The evidence room 
and reception area are all completely inadequate for law enforcement 
purposes and, with the increased number of calls we are receiving, are 
becoming more inadequate each day. A new building with a garage, along 
with a larger evidence room, storage room for record-keeping, and a 
training room for officers, is essential.
Bureau of Indian Affairs: Natural Resources
    We very much appreciate the funding for BIA Natural Resource 
programs that the Congress has provided in past years as well as the 
proposed increases for these programs contained in the President's 
fiscal year 2013 budget. Natural resources are vitally important to our 
tribal members, as they provide the foundation for our culture, meet 
subsistence needs, and provide employment. The Fond du Lac Band's right 
to access natural resources within and outside our Reservation was 
reserved by Treaties with the United States in 1837, 1842, and 1854 and 
reaffirmed by the courts. In connection with these Treaty rights, the 
Band is responsible for managing natural resources and for enforcing 
Band conservation laws that protect those natural resources by 
regulating tribal members who hunt, fish and gather those resources 
both within and outside the Reservation. Funding is essential for that 
work. Fond du Lac routinely partners with State, Federal, and tribal 
organizations to conduct research and management activities. We request 
that $2 million be added to our base budget for Resource Management 
programs, as funds for this program have not been increased since 1991.
    We urge the Congress to at least maintain current funding levels 
for all Federal programs that support the conservation and restoration 
of natural resources. Specifically, we request that the Congress fund 
the U.S. Fish and Wildlife Service's State and Tribal Wildlife Grant 
Program, Tribal Historic Preservation Offices, and all BIA programs 
related to natural resources and land management at the levels 
indicated in the President's budget request.
    Additionally, as a member of the Great Lakes Indian Fish & Wildlife 
Commission, the Fond du Lac Band supports the Commission's request for 
BIA funding of $6.367 million and EPA funding of $1.2 million to 
continue its longstanding treaty rights protection and implementation 
program on behalf of its member tribes.
Bureau of Indian Affairs: Human Services
    We urge the Congress not to cut funding for Human Services 
programs. Although some of the cuts are due to administrative 
streamlining, increased funding is needed to address the impact that 
the methamphetamine epidemic has on not only public health and safety, 
but also on child protection, child welfare and foster care services. 
Increased funding for social services and Indian Child Welfare Act 
programs is essential if tribes are to have any realistic hope of 
protecting Indian children, preventing domestic violence, and fostering 
Indian families.
Indian Health Service
    We fully support the President's proposed increase in funding for 
the Indian Health Service (IHS) and appreciate the commitment that the 
administration and the Congress have made to address the funding needs 
for healthcare in Indian country. The President's proposed increase is 
essential to address the high rates of medical inflation and the 
substantial unmet need for healthcare among Indian people. Indians at 
Fond du Lac, like Indians throughout the Nation, continue to face 
disproportionately higher rates of diabetes and its associated 
complications, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency and mental health problems are also 
prevalent among our people. While other Federal programs, like Medicare 
and Medicaid, have seen annual increases in funding to address 
inflation, the budget for the IHS has never had comparable increases, 
and, as a result, IHS programs have consistently fallen short of 
meeting the actual needs. All Indian tribes should receive 100 percent 
of the Level of Need Formula (LNF), which is absolutely critical for 
tribes to address the serious and persistent health issues that 
confront our communities. The Band serves approximately 7,129 Indian 
people at our clinics, but the current funding level meets only 42 
percent of our healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. Additional funding for the Methamphetamine, Suicide 
Prevention Initiative should be made available to tribes and the IHS so 
that this ``new sickness'' can be addressed. Best practices in pharmacy 
inventory and prescription monitoring need to be modeled and replicated 
throughout Indian Country. Related to this is the fact that more and 
more Government agencies are expecting local units of governments, 
including tribes, to address these problems and the increasing number 
of individuals who become homeless as a result of them, through the 
operation of supportive housing. But Fond du Lac, like most tribes, 
lacks the financial resources to establish new program initiatives, 
like supportive housing, without assistance from the Federal 
Government. We urge the Congress to support programs through the IHS or 
the BIA that would fund supportive housing for tribes in every area of 
the country.
    In sum, the needs at Fond du Lac and throughout Indian Country 
remain massive. Congress's support on these funding issues is essential 
to our ability to maintain vitally important programs and improve the 
delivery of services to Band members.
    Miigwech. Thank you.
                                 ______
                                 
Prepared Statement of Friends of Balcones Canyonlands National Wildlife 
                                 Refuge

    Mr. Chairman and members of the subcommittee, on behalf of the 
Friends of Balcones Canyonlands National Wildlife Refuge (Friends of 
Balcones) and its membership, thank you for your strong support for the 
National Wildlife Refuge System (NWRS). The Friends of Balcones 
appreciates the opportunity to offer comments on the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. We are 
specifically requesting an allocation of $700 million for the Land and 
Water Conservation Fund (LWCF), including $150 million for the NWRS.
    The meaningful funding increases in fiscal years 2008-2010 allowed 
NWRS to emerge from years of chronic funding shortfalls. But 
unfortunately, those substantial gains are undermined by more than $17 
million in cuts to NWRS's funding in fiscal years 2011 and 2012 that 
equate to a larger loss of more than $41 million when annual increases 
in refuge fixed costs are factored in. Consequently, we support the 
President's fiscal year 2013 budget request of $495 million because it 
will maintain existing management capabilities. Should across-the-board 
sequestration cuts of 9-10 percent take effect in fiscal year 2013, the 
impacts to NWRS would be devastating and could force FWS to close or 
end major programs at more than 130 refuges.
    We respectfully request the subcommittee support all of the funding 
allocations requested by the National Wildlife Refuge Association as 
detailed and explained in their testimony letter. All of the 
allocations are critical to the health of the NWRS but the one that 
will impact the Balcones Canyonlands NWR the most is the allocation of 
$700 million for LWCF, including $150 million for the NWRS. Balcones 
Canyonlands Refuge, although 20 years old, is only slightly more than 
50-percent complete. The Friends of Balcones urges you to fund the LWCF 
at $700 million so we can continue to buy land toward our goal of 
46,000 acres. Out of that amount, we are requesting $5 million from 
LWCF for 2013. Completing the Refuge is anticipated to cost more than 
$87 million in today's dollars, so acting now is especially important 
for monetary reasons and because of the intense pressure from urban 
expansion that is occurring within the Refuge acquisition boundary.
    We feel a sense of urgency to complete the land acquisition for the 
Refuge. Twenty years after the creation of the Refuge and just more 
than 23,000 acres are protected! Austin Texas is a short drive from the 
Refuge and is among the top 10 fastest-growing cities in the United 
States. That rate of development will impact the ability of the FWS to 
complete the Refuge if something isn't done quickly.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step toward recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 23,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the city and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a source of eco-tourism for the surrounding area. 
Over the longer term, the Balcones Refuge is expected to become a major 
draw for birders interested in viewing the endangered Warbler and 
Vireo, for which this area provides unique habitat. As you likely know, 
the Texas Hill Country is very special, and the Balcones Canyonlands 
National Wildlife Refuge is one of the best places to experience the 
beauty and uniqueness of this Texas landscape. The Refuge has been 
described as one of the Last Great Places by the Nature Conservancy and 
as an ``Important Bird Area'' by two national conservation groups based 
on its ``global importance'' to the endangered Warbler and Vireo. When 
completed, Balcones Canyonlands will be a step toward providing 
additional accessible public outdoor areas, identified as a critical 
need in a study by Texas Parks and Wildlife.
    There are many willing sellers within the acquisition boundary of 
the Refuge. All we need is money to move forward immediately! An 
appropriation of $5 million will fund purchase of the 350-acre 3 Creeks 
Ranch (second phase of this acquisition) and 1,000 acres of the Sunset 
Ranch, one of the last remaining large tracts of land with high quality 
Golden-cheeked Warbler habitat left within the Refuge acquisition 
boundary. The rolling hills and steep canyons on this ranch provide 
nesting habitat for the Golden-cheeked Warbler and potential for Black-
capped Vireo habitat management. The purchase of this large tract will 
also protect habitat for additional endemic species in the Hill Country 
as well as the unusual Karst topography of the Edwards Plateau. The 
ranch is situated near other Refuge property which makes it even more 
valuable as we attempt to protect large contiguous tracts of land. The 
properties have been appraised, and the sellers are willing. These 
acquisitions would be a significant step toward the long range goal of 
completing the Refuge. As mentioned earlier, acting now is particularly 
important, as the window of time is closing rapidly as a result of 
urban expansion, and the opportunity for protecting these species is at 
risk.
    The Friends of Balcones Canyonlands National Wildlife Refuge is a 
nonprofit, volunteer organization. Our mission is to support, complete, 
and enhance Balcones Canyonlands Refuge and to promote the Refuge's use 
for recreational, educational, and scientific purposes. Our membership 
is drawn primarily from Central Texas communities situated near the 
Refuge. Our members care passionately about preserving our natural 
heritage and fulfilling our organization's mission of completing the 
Refuge. Because of all the reasons listed above, we strongly recommend 
that you allocate $700 million for LWCF and set aside $5 million from 
the LWCF for Balcones Canyonlands Refuge for fiscal year 2013.
    In closing, thank you for considering our request of $700 million 
for LWCF. Your actions in support of our request will significantly 
improve our chances and the chances of other Refuges in similar 
situations to create fully functioning Refuges that are a testament to 
America's amazing natural heritage. We are entrusted with the 
protection of our wild spaces for the benefit and enjoyment of current 
and future generations. Anne Frank wrote the following:

    ``The best remedy for those who are afraid, lonely or unhappy is to 
go outside, somewhere where they can be quiet, alone with the heavens, 
nature and God.
    Because only then does one feel that all is as it should be and 
that God wishes to see people happy, amidst the simple beauty of 
nature. I firmly believe that nature brings solace in all troubles.''

    Please help us provide places of solace for all Americans. We very 
much appreciate your attention to this matter and thank you for the 
opportunity to present this statement to the subcommittee.
                                 ______
                                 
           Prepared Statement of Friends of Rachel Carson NWR

    Mr. Chairman and honorable members of the subcommittee, I am Bill 
Durkin, President of the Friends of Rachel Carson National Wildlife 
Reserve in Maine. I have been a member of the Friends of Rachel Carson 
NWR for the past 20 years. The group was founded in 1987; we are a 
small group of about 200 members. This time of the year all of the 
letters go out to the Congress asking for support of the refuge. I have 
given numerous written statements over the years and we really 
appreciate your support in the past. This year, our refuge is not 
requesting any appropriations directly for Rachel Carson National 
Wildlife Refuge; this is a request for general funding of the National 
Wildlife Refuge System (NWRS). I thank you all for your consideration.
  --We are requesting an overall funding level of $495 million in 
        fiscal year 2013 for the operations and maintenance budget of 
        the NWRS, managed by the U.S. Fish and Wildlife Service (FWS). 
        This would be level funding from fiscal year 2012. All of the 
        refuges are in dire need of staffing and upkeep. Refuges 
        provide unparalleled opportunities to hunt, fish, watch 
        wildlife, and educate children about the environment. Without 
        increased funding for refuges, wildlife conservation and public 
        recreation opportunities will be jeopardized.
  --Refuges are vital places for the American people to connect with 
        nature and get involved. Currently, refuge Friends and 
        volunteers do approximately 20 percent of all work on refuges. 
        In 2011, these 1.5 million hours equated to roughly 8 
        volunteers for every 1 Refuge System employee. Without staff to 
        oversee volunteers, their commitment and passion is lost, as is 
        their desperately needed contribution to the System. We request 
        $80 million for Visitors Services for the NWRS.
  --The Land and Water Conservation Fund (LWCF) is our Nation's premier 
        Federal program to acquire and protect lands at national parks, 
        forests, refuges, and public lands and at State parks, trails, 
        and recreational facilities. These sites across the country 
        provide the public with substantial social and economic 
        benefits including promoting healthier lifestyles through 
        recreation, protecting drinking water and watersheds, improving 
        wildfire management, and assisting the adaptation of wildlife 
        and fisheries to climate change. For all these reasons, LWCF 
        needs to be funded at the $700 Million level. Created in 1965 
        and authorized at $900 million per year (more than $3 billion 
        in today's dollars), the LWCF is our most important land and 
        easement acquisition tool. The President has included 
        meaningful increases to the program in his fiscal year 2013 
        budget, and I support the administration's commitment to fully 
        funding the program in the near future. This wise investment in 
        the LWCF is one that will permanently pay dividends to the 
        American people and to our great natural and historical 
        heritage.
    The LWCF should be fully funded at $900 million annually--the 
congressionally authorized level. LWCF is good for the economy, it is 
good for America's communities and their recreational access and it is 
critical for our public lands.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the FWS, Rachel 
Carson became entranced with Maine's coastal habitat, leading her to 
write the international best seller The Sea Around Us. This landmark 
study, led Rachel Carson to become an advocate on behalf of this 
Nation's vast coastal habitat and the wildlife that depends on it, the 
refuge that bears her name is dedicated to the permanent protection of 
the salt marshes and estuaries of the southern Maine coast. This year, 
we will be celebrating the 50th anniversary of Rachel Carson's 
publication of her historic book, Silent Spring.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our NWRS and respectfully request the Interior, 
Environment, and Related Agencies Appropriations Subcommittee allocate 
$495 million for the Refuge System's fiscal year 2013 Operations & 
Maintenance (O&M) budget, $80 million for Visitors Services of the 
NWRS, and fund the LWCF at the $700 million level.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and its habitat. Enjoy your 
next walk out on a National Wildlife Refuge.
                                 ______
                                 
 Prepared Statement of the Friends of the Florida Panther Refuge, Inc.

    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, thank you for the opportunity to offer comments on the 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. The Friends of the Florida Panther Refuge is a 
nonprofit volunteer organization that works to support the 26,400-acre 
refuge established in southwest Florida to protect the critically 
endangered Florida panther and its habitat.
    Refuge managers at the Florida Panther National Wildlife Refuge are 
challenged by a variety of funding shortfalls to fully carry out 
habitat restoration, invasive species control, prescribed burning, 
baseline and updated inventories, education/interpretation, acquisition 
of outparcels and expansion, law enforcement, as well as technical 
assistance and collaborative efforts across boundaries with private 
land owners. For example, as a result of cuts to the refuge's fire 
budget, several fire technician vacancies have not been filled, which 
significantly limits burning the desired acreage to maintain and 
restore habitat for the Florida panther, its prey and the many other 
species found within its natural community.
    Understanding the difficult economic realities, we respectfully 
request a funding level of $495 million for the Operations and 
Maintenance accounts of the National Wildlife Refuge System for fiscal 
year 2013 that would essentially maintain the Refuge System at a flat 
funding level, given increasing fixed operating costs.
    On behalf of our members and supporters, the Friends of the Florida 
Panther Refuge thanks the subcommittee for the opportunity to offer 
comments on the fiscal year 2013 Interior, Environment, and Related 
Agencies appropriations bill and we appreciate your full consideration 
of the aforementioned funding level.
                                 ______
                                 
 Prepared Statement of the Friends of the National Wildlife Refuges of 
                              Rhode Island

    On behalf of the 150 members of the Friends of the National 
Wildlife Refuge of Rhode Island as well as our hundreds of volunteers 
I, as Chairman of the Friends, write urging you to provide $495 million 
of funding for the refuge system in the fiscal year 2013 budget.
Background on Rhode Island Friends Group
    In Rhode Island there are five national wildlife refuges 
encompassing more than 2,000 acres which present visitors with very 
different experiences ranging from the woodlands of the Ninigret NWP 
located in Charlestown to a more coastal experience at Sachuest Point 
NWR in Middletown, just north of Newport. Trustom Pond NWR in South 
Kingstown is unique in that it encompasses a coastal pond, the only one 
in our State totally free of shoreline development. The Friends group 
serves all three of these refuges as well as the Block Island NWR and 
John Chafee at Pettaquamscutt Cove NWR. Each refuge has its own unique 
characteristics. Staffing due to the budget constraints has been an 
issue and the Kettle Pond (Ninigret) Visitors Center and Sachuest Point 
Visitors Center as well as the Trustom Pond Contact Station are only 
open on a daily basis due to our dedicated volunteers. Last year more 
than 17,000 volunteer hours were recorded helping out at these 
locations as well as doing other maintenance and other tasks on the 
refuges.
Budget Request for Operations and Maintenance
    We request that the Committee provide $495 million in fiscal year 
2013 for Refuge System Operations and Maintenance which is about the 
same level as provided in fiscal year 2012. Refuges need more than that 
but given the current economic and fiscal situation, it is unrealistic 
to expect the significant additions needed to properly maintain the 
refuges and staffing and management capabilities. The Cooperative 
Alliance for Refuge Enhancement estimates that the Refuge System needs 
at least $900 million in annual funding to properly administer its 150 
million acres and remains committed to aiming for this goal.
    The Refuges are vital places for wildlife--ours are all along the 
Atlantic Flyway and provide resting and nesting places for more than 80 
bird species as well as other wildlife. The Refuges are also places for 
the American people to connect with nature and get involved. Currently, 
refuge Friends and volunteers do approximately 20 percent of all work 
on refuges. In 2011, these 1.5 million hours equated to roughly eight 
volunteers for every one Refuge System employee. Without staff to 
oversee volunteers, their commitment and passion is lost, as is their 
desperately needed contribution to the System. We request $80 million 
for Visitors Services for the NWRS.
Land and Water Conservation Fund
    We also request that the Congress fund the Land and Water 
Conservation Fund (LWCF) at $700 million. This Fund, which was created 
in 1965 and authorized at $900 million per year (more than $3 billion 
in today's dollars), is our most important land and easement 
acquisition tool. With more than 8 million acres still unprotected 
within existing refuge boundaries, and the need to establish key 
wildlife corridors and connections between protected areas, the LWCF is 
more important than ever. Here in Rhode Island there are opportunities 
to acquire land adjoining existing refuges to further protect the land 
and wildlife. Land prices are now at levels not seen in years and the 
opportunities to acquire may never happen again so it is urged that the 
LWCF be funded. We also request that the Congress support the new 
Collaborative Conservation requests of the Departments of the Interior 
and Agriculture, bringing together several Federal agencies around a 
common goal.
    Thank you.
                                 ______
                                 
     Prepared Statement of the Friends of the Potomac River Refuges

    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of the Potomac River Refuges and its 136 members, we would like 
to thank the subcommittee for their strong support of the National 
Wildlife Refuge System (NWRS) and for giving us the opportunity to 
submit testimony. We are a nonprofit volunteer organization whose 
purpose is to promote conservation, awareness, and appreciation of the 
wildlife and habitats of the Potomac River National Wildlife Refuge 
Complex and to provide assistance to Refuge programs. We urge you to 
show your continued support of the National Wildlife Refuge System by 
approving the President's fiscal year 2013 budget request of $495 
million for the operations and maintenance of the world's premier 
system of public lands and water set aside to conserve America's fish, 
wildlife, and plants. This level of funding will maintain existing 
management capabilities.
Potomac River National Wildlife Refuge Complex
    The refuges that comprise the Potomac River National Wildlife 
Refuge (NWR) Complex are approximately 25 miles from Capitol Hill in 
northern Virginia. They border the Occoquan River as it meets the 
Potomac River. The complex is made up of three refuges:
  --Elizabeth Hartwell Mason Neck NWR;
  --Occoquan Bay NWR; and
  --Featherstone NWR.
    Elizabeth Hartwell Mason Neck NWR is in Fairfax County, Virginia 
and is the oldest and largest refuge within the Complex containing 
2,277 acres. Residents of the Mason Neck Peninsula saw the need to 
preserve bald eagle habitat and worked with Fish and Wildlife Service 
to create the first national wildlife refuge specifically created for 
the protection of bald eagles. The newest refuge in the complex is 
Occoquan Bay NWR, which was 640 acres of military surplus lands, that 
now provides essential habitat for more than 200 species of birds and 
has been designated by Audubon as an Important Bird Area. The smallest 
refuge in the complex is Featherstone NWR containing 325 acres of marsh 
and riverine habitat important to both waterfowl and eagles.
    In addition to providing critical habitat for wildlife in an urban 
environment the refuges are places where residents and visitors can 
enjoy nature and experience the diversity of plants and animals. 
Visitors enjoy birding, photography, hiking, hunting, and even biking 
and kayaking. Students, whether from surrounding school districts or 
those schooled at home, come to the refuges to observe environmental 
concepts and gain an appreciation for environmental stewardship. Many a 
scouting merit badge has been earned learning about wildlife and 
volunteering on a refuge.
Current Challenges and Needs
    Even though there were meaningful funding increases to the NWRS in 
fiscal years 2008-2010 the Potomac River Refuges still struggle with 
the impacts of budget cuts in fiscal year 2006. At that time the staff 
was reduced from eight to six full-time employees.
    Effects of Fiscal Year 2006 Cuts.--As a result of those budget cuts 
two positions were eliminated and have not been replaced. Biological 
programs have been generally suspended and maintenance has been 
curtailed. Research and investigation on the refuge by graduate and 
local universities have mostly been eliminated since there is no staff 
available to oversee the programs. Some habitat management is 
continuing, however monitoring of the treatments and management actions 
are not being conducted.
    Maintenance of the 6 miles of trails, 9 miles of roads, and other 
facilities has been reduced and delayed. When storm events wash debris 
or drop trees across trails or roads they may remain obstructed for 
weeks reducing the public's access to the refuge. Maintenance that is 
deferred continues to be added to the NWRS's $2.5 billion deferred 
maintenance backlog.
    Law Enforcement.--The presence of a law enforcement officer has 
improved safety. Prior to his arrival the refuges were plagued with 
prostitution, homeless camps, poaching, drugs, gangs, and illegal 
trespass. These refuges are in an urban area and so they will never be 
crime free, but the presence of law enforcement has greatly reduced 
illegal activities and improved safety for visitors and wildlife. The 
International Association of Chiefs of Police did an analysis of the 
NWRS's law enforcements needs in 2005. The Association recommended a 
force of 845 full-time officers yet the NWRS only has 246 officers to 
protect resources and visitors on the 150-million-acre System. We ask 
that you budget $39 million for Refuge Law Enforcement.
    Visitor Services.--While more than 1.8 million people live within 
20 miles of these refuges in the Washington Metropolitan Area, services 
for potential visitors are very limited. The refuges lack the 
facilities to greet and orient visitors. For years the Potomac River 
Refuges have been on the Service's short list for a visitor/
administration building, yet nothing has happened. NWRS has almost $1 
billion worth of construction needs. Staff is currently housed in an 
office park miles away from the refuges. Without facilities and 
staffing the Service is only able to reach approximately 1 percent of 
the surrounding population. Visitor enhancements will provide greater 
efficiencies and economic impacts. Refuges that offer a board range of 
programs generate more visits, create more jobs, and provide more 
income to the local communities.
    Volunteer Programs.--Refuges need the staffing and facilities to 
draw visitors in, entice them to volunteer, and become stewards of the 
refuge and their communities. Friends groups and other volunteers 
contribute nearly 20 percent of all the work hours on refuges. At 
Potomac, volunteers are picking up trash, mowing, presenting 
interpretive programs, organizing festivals, and assisting staff. Could 
we do more? Yes, but there are obstacles that prevent volunteer 
programs from reaching their full potential. Without staff to oversee 
and interact with volunteers, projects are not done and volunteer 
retention is difficult. NWRS needs to invest $80 million in visitor 
services in order to capitalize on the opportunities to involve the 
public in fulfilling its mission.
    Challenge Cost Share Program.--The Challenge Cost Share program has 
allowed our Friends organization to leverage our time and funds to help 
our local refuges complete small-scale projects. We, along with other 
partners, have constructed overlooks and sun shelters, created 
interpretive signs, hosted festivals, equipped environmental education 
programs, and removed invasive species. In 2011 the cost share program 
was shelved while reforms could be made. We ask that you re-establish 
the Challenge Cost Share program and provide $3.6 million in funding.
The Tale of Two Refuges
            Sequestration
    The Friends of the Potomac River are very concerned about the 
devastating impact across-the-board sequestration cuts of 9-10 percent 
in fiscal year 2013 will have on our refuges and the entire NWRS. If 
sequestration occurs refuge management estimates there will just enough 
funds to pay salaries and utilities. The impacts will affect wildlife 
and visitors.
    Impacts on Wildlife.--Managing the habitat will be staff's first 
goal, however management will not be as effective. The deer population, 
which is managed through hunts, will explode. The increased browsing of 
the forest floor reduces biodiversity and decreases forest 
regeneration. This will affect creatures from chipmunks to the bald 
eagles. Invasive animal and plant species will consume native species 
and acres of habitat. The Northern Snakehead and other non-native 
species will have more opportunity to consume and displace native 
species. Mason Neck NWR has the largest blue heron colony in the Mid-
Atlantic. Mile-A-Minute, a very aggressive herbaceous plant, has been 
found there and left unchecked it could smother trees that the rookery 
depends upon. The grasslands at Occoquan Bay NWR must be burn or mowed 
for nesting grassland birds. The burn program was eliminated with the 
loss of the biologist, and now the mowing program is in jeopardy.
    Impact on Visitors.--If sequestration goes into effect all refuge 
led visitor service programs will be eliminated. The part-time visitor 
service intern will be released. There will be no ranger led programs, 
youth fishing events, festivals at Mason Neck NWR, or scouting 
programs. The Fall Festival that the Friends organize will be suspended 
because the entire staff is involved the event and there will be no 
overtime funds to pay them.
    Access to the refuges will be reduced. Trails and roads that are 
obstructed by storm events will be closed. There will be no extended 
hours during the summer or weekends. Regular trail and road maintenance 
will be deferred. Vaulted toilets will be cleaned every few weeks 
instead of weekly and portable toilets will be closed.
    Friends and other volunteers will not be able to compensate for all 
of these loses. To assist with managing the habitat, volunteers need 
oversight and training, but there will be no funds to pay for the 
training. The Friends organization is willing to expand our 
interpretive programs; the challenge will be access, safety, and the 
quality of wildlife viewing.
            Opportunities To Embrace
    The Potomac River Refuges are the epitome of an urban wildlife 
refuges. Residential and industrial developments border the refuges. 
The surrounding land uses create additional stresses for the refuges 
such as stormwater runoff, illegal trespass, and invasive species. But 
the surrounding communities provide these refuges and the entire Refuge 
System with the exceptional opportunity to engage the public and 
increase their awareness of the NWRS and its role in conservation.
    In 2011, NWRS created a vision to guide the management of the 
System during the next decade and beyond. The new vision seeks to make 
wildlife conservation more relevant to the public and engage them in 
the NWRS. With 80 percent of Americans now living in urban or suburban 
areas, the System is placing special emphasize on helping urban America 
connect with and understand the benefits of its wildlife heritage.
    What better place to engage the American people than at the Potomac 
River Refuges? Increasingly the population has become more racially and 
ethnically diverse; in Prince William County less than one-half of the 
population is reported as non-Hispanic and of one race. These refuges 
have the potential of embracing all Americans and sharing with them our 
wildlife heritage.
In Summary
    Wildlife Refuges matter to your constituents. Last fall, on a cold 
rainy day, we hosted a festival on Occoquan Bay NWR. A young mother and 
her four children came and all of them looked unprepared for the 
weather. The oldest boy gave me a dollar saying, ``My mother wants you 
to have this.'' The family was living in homeless shelter, but that did 
not stop this wonderful woman from showing her appreciation for the 
natural heritage we all share and demonstrating to her child how 
important it is to support it. I hope all of us will follow her 
example.
    Our members realize that our country is facing difficult economic 
times and we must all share in the challenges of the recovery. We thank 
you for the meaningful funding increases allowed the NWRS in fiscal 
year 2008-2010 that provided stability to our refuges. We respectfully 
ask you to support the following funding allocations for the National 
Wildlife Refuge System that will allow the NWRS to maintain existing 
management capabilities:
  --$495 million for the operations and maintenance accounts of the 
        NWRS including:
    --$39 million for refuge law enforcement;
    --$80 million for visitor's services;
    --$3.8 million for Challenge Cost Share; and
  --$37 million for the Fish and Wildlife Service construction account.
                                 ______
                                 
         Prepared Statement of Friends of the Refuge Headwaters

    Chair and members of the subcommittee: On behalf of the Friends of 
the Refuge Headwaters (FORH), I am writing regarding the fiscal year 
2013 Interior, Environment, and Related Agencies appropriations bill 
and the impact this bill will have on the Refuge we support: the Upper 
Mississippi River National Wildlife and Fish Refuge (Upper Miss 
Refuge). We are very proud to be part of the National Wildlife Refuge 
System and ask that you support the President's funding proposals for 
programs in the NWRS and the U.S. Fish and Wildlife Service (FWS).
    Below I will begin by briefly describing FORH, the Upper Miss 
Refuge, and use of the Refuge by 3.7 million visitors per year. With 
respect to the Upper Miss Refuge in particular, I will explain the 
importance of the following allocations:
  --$495 million for Operations and Maintenance (O&M) of the NWRS. This 
        includes $80 million for Visitor's Services, and $39 million 
        for Refuge Law Enforcement.
  --$700 million for the Land and Water Conservation Fund (LWCF). This 
        includes $150 million for the NWRS.
  --$3.8 million in fiscal year 2013 for Challenge Cost Share (CCS).
    The Refuge System has endured significant cuts during the last 2 
fiscal years, the cuts reduced an already austere budget, and they have 
negatively impacted the people who use the Upper Miss Refuge and who 
deeply care about it, as well as the wildlife that is the reason for 
the Refuge's existence. I will illustrate this to you below, and show 
how additional cuts will have harmful consequences out of proportion to 
any money saved by carrying them out. Finally, I will describe how 
deeply people care about the Upper Miss Refuge and their commitment to 
paying for its proper management.
The Friends of the Refuge Headwaters
    The Friends of the Refuge Headwaters is an all-volunteer group that 
began in 1997. Our mission is to support the Refuge's goals of 
sustaining diverse and abundant wildlife as well as providing 
compatible recreation, education, and interpretation to the public. Our 
current activities include sponsoring public outings for fishing, 
birding, canoeing, planting trees, removing invasive species, surveying 
Refuge users, holding public events with expert speakers, monthly 
meetings, and advertising and communicating through print, electronic, 
and social media. We also seek and write grants to aid the Refuge and 
these grants often require challenge cost shares at rates of 10-20 
percent. That is why it is so important to provide sufficient funding 
for challenge cost shares in the fiscal year 2012 budget: these dollars 
will then be multiplied 5-10 times.
The Upper Mississippi River National Wildlife and Fish Refuge
    The Refuge winds through 261 miles of the Upper Mississippi River 
across four States:
  --Minnesota;
  --Wisconsin;
  --Iowa; and
  --Illinois.
    It comprises 240,000 acres of bottomland forests, wooded islands, 
marshes, backwaters, and upland prairies. It has more than 300 species 
of birds, more than 100 species of fish, and more than 50 species of 
mammals, as well as 250 bald eagle nests and 5,000 heron and egret 
nests. The Refuge is part of one of the four major waterfowl migration 
flyways in the United States, where birds must find reliable food, 
water, and resting places: during fall migration you can find hundreds 
of thousands of waterfowl using the Refuge on a single day.
    But the Upper Miss Refuge is not just for wildlife. It's also a 
paradise for people. Minnesota is known as the land of 10,000 lakes and 
there are just as many lakes in Wisconsin, but not the part of 
Minnesota and Wisconsin where I live. We live in the land of the land 
of the Mississippi River, and thankfully, the land of the Upper 
Mississippi National Wildlife and Fish Refuge.
Public Use of the Upper Miss Refuge
    So I will now describe for you how much people use this Refuge and 
how deeply they care about it. That's not hard for me to do, because 
I'm one of them. I'm out on the Refuge a lot and for many reasons. I 
fish year-round, from my boat, shore, or ice, and in the fall I hunt on 
the Refuge. You'll find my wife and I on backwaters or pools in our 
canoe or kayaks, sometimes with friends, exploring and observing 
wildlife. We take walks through the bottomland forest or upland 
prairie, on trails, on ice-covered channels in the winter, or on 
levees. We walk or drive to observation platforms to watch birds. We 
often join with friends to take one or more boats to an island shore 
for a picnic. On a warm summer day we may swim at the riverside bathing 
beach directly across the river from Winona.
    People like us make 3.7 million visits per year to the Refuge to 
hunt, fish, watch wildlife, boat, canoe, camp, or just walk. That's 
because the Refuge is not put away behind a fence or distant from the 
cities that dot the river. It's our backyard. That's why it's so 
heavily used by families, schools, colleges, youth groups such as Boy 
Scouts and Girl Scouts, and many others. If you drive through my town--
Winona, Minnesota--or through other towns and cities along the river, 
you'll see boats on trailers parked in side-yards, driveways, and often 
on the street. They're fishing boats with rod holders and trolling 
motors, pleasure boats with picnic and swimming gear, or hunting boats 
painted camo and surrounded by a cattail fence, or airboats used by 
trappers. Inside our garages, in the backyard, or on the side of the 
house you'll find canoes and kayaks.
    Any week of the year that you go out into the Refuge, you'll find 
people:
  --a couple of dozen anglers in boats and on shore at a pool below a 
        dam (the Refuge receives more than 1 million visits annually 
        for fishing);
  --a group of boats pulled up on the sandy beach of an island to swim 
        and picnic on a summer day (more than 1.3 million visits for 
        such activities);
  --bunches of duck hunters heading out from landings on a fall morning 
        (300,000 waterfowl hunters); or
  --birdwatchers lining the sides of an observation platform (300,000 
        visit to observe wildlife or for education).
    And they're not just in the easy-to-reach places. You've canoed far 
back into a remote maze of islands, pulled your ice-fishing sled as far 
down a channel as you can stand, or stalked through the forest with 
your gun until you may be lost. And you think you're alone. Around the 
corner comes another person, maybe doing the same thing you are, but 
just as likely there for another reason. But they wouldn't be there if 
the Refuge was not.
The Austerity in Which the Upper Miss Refuge Operates
    The Refuge is understaffed for many positions and has been for 
years. For example, four law enforcement officers patrol 261 miles of 
river and 240,000 acres throughout four States with more than 3.7 
million visitors. That is an impossible task. Not only is that level of 
enforcement inadequate for the safety and protection of visitors and 
wildlife, but it is a threat to the officers themselves. The officers 
patrol alone and are often far from other enforcement agencies. Imagine 
how it feels to cruise toward an isolated island beach at night to 
confront 100 intoxicated people--and you're alone. For another example, 
two Rangers and four Visitor Services Coordinators plan and carry out 
activities with thousands of visitors and must often simply say no to 
requests for programs from schools, youth groups, and many others.
    Other key positions are simply vacant. The Refuge has 51,000 acres 
of floodplain forest but no Forester, getting guidance instead from the 
Corps of Engineers Forester. Yet those same forests are declining due 
to invasive insects, plants, and trees such the Emerald Ash Tree Borer 
beetle, Buckthorn shrub, Oriental Bittersweet vine, and Black Locust 
tree. There is likewise no Fisheries Biologist, a position that 
provides a crucial link to States. Thus the Refuge has little or no say 
in fish management, fishing tournaments, commercial fishing, fishing 
seasons, fishing methods, or even catch limits, though fishing is an 
extremely popular activity on the Refuge and has large impacts on it. 
Even in the face of an advancing threat like Asian Carp, which have 
caused severe harm to fish populations and injuries to boaters, the 
Refuge can do little. In addition, there is no Private Lands Biologist 
to reach out to adjacent private landowners and help them restore fish 
and wildlife habitat on their lands through both FWS and USDA programs.
    In other cases lack of funding means the Refuge cannot carry out 
its obligations. Currently the Refuge has authorized $2.25 million for 
land acquisition through the LWCF and has land acquisitions waiting for 
either appraisals, signed purchase agreements, or final closing to 
fulfill its obligations for these funds. In sum, the Refuge cannot 
carry out its own goals and this underscores the need to increase the 
operations and maintenance budget.
Consequences of the Fiscal Year 2011-2012 Budget Cuts for the Upper 
        Miss Refuge
    The fiscal year 2011 and 2012 cuts have had many negative 
consequences, but I will mention just two. First, the Refuge has 
reduced the number of people it hired seasonally, most of whom are 
young people taking part in the Student Temporary Experience Program 
(STEP). As a result, high school and college students lost an important 
path for gaining direct on-the-job experience. Second, the Refuge has 
reduced its outreach programs for the general public at weekend and 
evening events, most often within the communities adjacent to the 
Refuge. Not only does this mean less education, interpretation, and 
recreation for children and adults, but it also means fewer volunteer 
opportunities on the Refuge, fewer contacts between Refuge staff and 
volunteers and local citizens and leaders, and a decrease in tourists 
who support local economies.
Consequences of a 10-Percent Budget Reduction for the Upper Miss Refuge
    The Refuge is understaffed and absorbed cuts in fiscal year 2011 
and 2012. To carry out a further cut of 10 percent, the Refuge would 
eliminate special hunts for the disabled, youth, and others requiring 
special accommodations. All weekend environmental education and 
interpretation programs would be eliminated. Visitor centers would not 
provide weekend or evening hours for the public. In addition, there 
would be reductions in environmental education programs for schools, 
weekend outreach/interpretation programs regarding fish and wildlife 
and other refuge programs, restoration projects with State and other 
Federal agencies, oversight of trust species (bald eagle, endangered 
species), and law enforcement including search and rescue operations, 
drug enforcement and accident investigations, hunting and fishing 
contacts, refuge trespassing, and habitat destruction. Clearly, these 
actions will have harmful consequences for wildlife and for the people 
who use the Refuge, and they can be avoided.
Economic Benefits of the Upper Miss Refuge
    The authors of an economic study that is now 8 years old \1\ found 
that the Refuge generated more than $19 million annually in 
expenditures and economic value, $98 million in economic output, 1,266 
jobs with an income of $21.4 million, and Federal, State and local 
taxes of $10.4 million. Given the importance of Refuge to the economies 
in four States and in the lives of the several million people who use 
it, the budgets for the two refuges is remarkably small. So funding of 
the Refuge has huge leverage. That's one of the reasons why reducing 
the budget will have such large negative consequences and increasing 
the budget would have similarly large positive consequences.
---------------------------------------------------------------------------
    \1\ Caudill, J. 2004a. The Economic Effects of the Upper 
Mississippi River National Wildlife and Fish Refuge: Baseline and 
Effects of Alternatives. U.S. Fish and Wildlife Service, Arlington, 
Virginia. 32 pp.
---------------------------------------------------------------------------
Public Commitment to the Upper Miss Refuge
    The people who use it have strong feelings about the Upper Miss 
Refuge. We truly care, because it's a big part of our lives. That 
Refuge is part of our regional heritage, just as the National Wildlife 
Refuge System is part of our national heritage. We also have strong 
expectations for it. We want it taken care of so that it's there not 
just for us, but also for our children and grandchildren and beyond. 
When people in this region learned last month that all three species of 
Asian carp had been caught in the river in one day by commercial 
fishermen, we were scared, depressed, and to be honest, angry. Because 
those fish threaten the Refuge that we care about so much, we saw that 
threat coming years ago, and there was a failure to address it.
    We're also willing to pay for management of the Refuge. In 2008, by 
statewide referendum, Minnesotans voted by a large margin to increase 
our sales tax by three-eighths of 1 percent for three decades. 80 
percent of the new revenues are dedicated to protecting, restoring, and 
improving wildlife habitat, surface waters and ground water, and parks 
and trails. Iowans passed a similar amendment in 2010, but are waiting 
on their Legislature to put their wishes into action. I'm confident the 
voters of Wisconsin would do the same if they had the opportunity, as 
would the voters of many other States. We Americans care deeply about 
our lands, waters, and wildlife. Doing so is a proud part of our 
history, as evidenced by more than a century of commitment to our 
National Wildlife Refuge System. We ask that you carry on this 
tradition.
                                 ______
                                 
   Prepared Statement of Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.

    Mr. Chairman and members of the subcommittee, on behalf of the 152 
members of the Friends of the Tampa Bay National Wildlife Refuges, 
including Egmont Key National Wildlife Refuge (NWR), Passage Key NWR, 
and Pinellas NWR, I would like to thank you for your commitment to the 
National Wildlife Refuge System (NWRS) through increased funding over 
the past few years. We realize that in this time of budget cuts, it may 
be difficult to justify increasing the NWRS funding, but once the 
Refuges start to decline it will cost many times more than these small 
increases to return them to a condition that will fulfill their 
mandates. We respectfully request that you consider the following in 
your appropriations:
  --Fund the National Wildlife Refuge System $495 million in fiscal 
        year 2013, essentially keeping level funding from fiscal year 
        2012;
  --Fund the Land and Water Conservation Fund (LWCF) at $700 million 
        for fiscal year 2013;
  --Fund Visitor Services for the NWRS at $80 million for fiscal year 
        2013; and
  --Support $3.8 million in fiscal year 2013 for Challenge Cost Share 
        (CCS).
    The Tampa Bay Refuges are located at the mouth of Tampa Bay on the 
west central gulf coast of Florida. The budget increases in the past 
few years have meant increased management, protection, and restoration 
of the Refuges and the ability to better meet the Comprehensive 
Conservation Plan (CCP) goals. In 2008 the Tampa Bay Refuges (TBRs) had 
one staff person who was split duty manager/law enforcement. Because of 
the incremental increases to the Refuge budgets over the last few 
years, the TBRs have a full-time manager and a law enforcement officer 
every weekend during the summer nesting season. Due to those past 
increases in budget and personnel the TBRs are able to do long range 
planning for big picture issues such as erosion and increased public 
use. With decreases in budget, these will fall by the wayside and the 
wildlife will have a degraded or useless habitat. Egmont Key NWR has 
the Fort Dade Guardhouse that has been restored and will become the 
visitor center. The Refuge has grant money to fund the first phase of 
the displays. If the budgets are cut, staff may not have time to 
oversee construction of the center displays or to keep the center open 
to the public. This will compromise outreach and education goals for 
the TBRs. The TBR's have made small steps to begin to control the 
invasive plants and animals that threaten the native species. If there 
are budget cuts there will be less money for facilities maintenance 
which will then cost more to restore in the future. If the TBRs were to 
again lose ground on their budgets they may not be able to meet many of 
their CCP goals. Please consider keeping the operations and management 
budget at $495 million for fiscal year 2013.
    The Friends of the Tampa Bay National Wildlife Refuges (FTBNWR) was 
incorporated and became a 501(c)(3) in 2008 to better assist the Tampa 
Bay National Wildlife Refuges with volunteers and fundraising. In 2011 
FTBNWR was able to provide 3,800 hours of volunteer hours to assist the 
refuge staff with exotic invasive control, refuge cleanups, and 
education. FTBNWR has been able to raise funds to remove invasive 
raccoons on the Pinellas Refuges that prevent birds from nesting and 
eat eggs laid by the Terrapin turtles that reside there. The Friends 
also started an Education Program to provide outdoor environmental 
educational programs at our local schools for grades K-5 and also 
environmental field trips to nearby preserves to teach our fourth and 
fifth graders about the NWRS and the environment. We also provide bird 
stewards on Egmont Key NWR during the summer nesting season to enhance 
the visitors experience on the refuge through education and an up close 
look at the birds through spotting scopes. Our refuges do not have 
enough staff to provide these education programs so we have stepped up 
as volunteers. Our volunteers are passionate about the Refuge System 
and donate their time, money, and expertise to protect them.
  --The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
        that the NWRS needs a budget of at least $900 million annually 
        in operation and maintenance funding in order to properly 
        administer its 150 million acres as mandated in the Refuge 
        Improvement Act. The current budget is far short of the amount 
        actually required to effectively operate and maintain the 
        Refuges. In this time of tightening budgets, we respectfully 
        request that you keep the NWRS budget at the same level as 
        fiscal year 2012 ($495 million) so that the Refuges do not 
        backslide even further in protecting these valuable lands and 
        ecosystems.
  --LWCF was created in 1965 and authorized at $900 million. We ask 
        that you fund the LWCF at $700 million for fiscal year 2013. 
        These funds are used for land acquisition to protect wildlife 
        and their habitats. With the effects of a changing climate, it 
        is more important now than ever to establish key wildlife 
        corridors between protected areas so wildlife can migrate to 
        more suitable habitat as their historic ones changes. These 
        landscape level conservation efforts through conservation 
        easements and land purchases are the best way to protect the 
        diversity of flora and fauna. The price of real estate is low 
        at this time and the $700 million can go much further in 
        protecting habitats than it can in a higher market. When we 
        start to lose species due to lack of food, water, shelter, or 
        space, we are changing the balance of nature. We urge you to 
        fund the LWCF at $700 million for fiscal year 2013. The LWCF is 
        not funded by taxpayer money.
  --The refuges give the American people places to connect with nature 
        and get involved. In 2011 refuge Friends and volunteers 
        contributed 1.5 million hours of work for the refuge system. 
        This is about eight volunteers for every one refuge system 
        employee. These Friends and volunteers do approximately 20 
        percent of all work on refuges for free. Without a refuge 
        system employee to guide them, the volunteers can't perform 
        these valuable free services. We request $80 million for 
        Visitors Services for the NWRS.
  --Please support the Challenge Cost Share (CCS) with $3.8 million in 
        fiscal year 2013. Partners are the key to successful 
        conservation. The Federal Government doesn't need to foot the 
        bill alone. Through programs that leverage Federal dollars 
        (such as the CCS program), partner organizations such as our 
        Refuge Friends groups can get matching dollars from other 
        entities to give the American taxpayers more for their dollars. 
        Projects such as trails, education, boardwalks, and habitat 
        restoration give the American public places to connect with 
        nature and relax.
    The Friends of the Tampa Bay National Wildlife Refuges is one of 
230 Friends groups who support the National Wildlife Refuges. The 
interest in our NWRS is significant and we are proving it with our 
donated time and funds.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believes NWRS can meet its important conservation objectives 
only with strong and consistent funding leveraged by the valuable work 
of refuge staff and volunteers. We again extend our appreciation to the 
subcommittee for its ongoing commitment to our NWRS. We encourage you 
to approve a $495 million for the fiscal year 2013 NWRS operations and 
maintenance budget managed by FWS and to approve $700 million for 
fiscal year 2013 for the LWCF land acquisition budget as well as 
funding refuge Visitor Services at $80 million and the CCS at $3.8 
million.
                                 ______
                                 
     Prepared Statement of Friends of Virgin Islands National Park

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the National Park 
Service (NPS) included $2.738 million for the acquisition of land at 
Virgin Islands National Park. I am pleased that this funding was 
included in the request and urge the Congress to provide necessary 
funds for LWCF for this important project.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place for visitors. More than 800 species 
of trees, shrubs, and flowers are found in the park, and more than 30 
species of tropical birds breed on the island, which was designated a 
Biosphere Reserve by the United Nations in 1976. St. John is also home 
to two species of endangered sea turtles, the hawksbill and the green. 
In addition, the park contains archeological sites indicating 
settlement by Indians as early as 770 B.C. The later colonial history 
of St. John is also represented by remnants of the plantations and 
sugar mills established by the Danes in the 18th and 19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on Earth match the breathtaking beauty of Maho Bay. Its crystal 
waters and soft white beaches are rimmed by a lush forested slope 
rising 11,086 feet. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green and hawksbill turtles, and 
magnificent coral reefs. This fragile area contains large nesting 
colonies of brown pelicans, as well as the migratory warblers and terns 
that winter on St. John. In addition to its natural treasures, the 
largest concentration of historic plantations and ruins on the island 
is found within this area.
    Maho Bay is an important destination for visitors to St. John. The 
popular Maho Bay Camps are adjacent to the lands being acquired by NPS, 
and protection of Estate Maho Bay is key to maintaining the character 
and appeal of this area. Visitors to Maho Bay often come back again and 
again because of the unspoiled natural beauty of these lands. The 
Department of the Interior recently reported that in 2010 visitors to 
Virgin Islands NP spent more than $61 million in the surrounding 
community. This spending supported 1,084 local jobs. Major U.S. air 
carriers bring an average of 11,000 visitors to St. Thomas/St. John 
each week. Overall, tourism accounts for 80 percent of the U.S. Virgin 
Islands' GDP and employment.
    Available for acquisition in fiscal year 2013 is the final phase of 
a 205-acre acquisition of land overlooking Maho Bay within the Virgin 
Islands National Park boundaries. The property offers spectacular views 
of the bay and extends the amount of publicly owned beachfront at Maho 
Bay. This property, known as Estate Maho Bay, is extremely important 
because it connects the southern and northern sections of the national 
park and will preserve significant natural and cultural resources. The 
land was historically used during the plantation era for agricultural 
activities such as sugar cane, coconut, and cotton cultivation. With 
increasing growth and investment throughout the Caribbean--including 
places not far from the unspoiled beauty of St. John--these vulnerable 
lands have become the focus of intense development threats. In recent 
years, more than one investor has envisioned private development along 
these shores, which would jeopardize the unique character of Maho Bay 
and the visitors' experience of the park.
    Estate Maho Bay was originally 419 acres owned by 11 interests, 
only 3 of which had been acquired by NPS. Following years of litigation 
and negotiation, The Trust for Public Land (TPL), using philanthropic 
support in the form of a loan, obtained seven of the remaining 
interests. A partition of the property was approved. NPS received 114 
acres as its share, and approximately 100 acres will remain in private 
hands, although most of these will have strict covenants to prevent 
incompatible building and uses. TPL is in the process of conveying the 
remaining 205 acres to the Virgin Islands National Park. In fiscal year 
2013, 74 acres will remain for NPS to acquire.
    Recognizing the need to protect this unique property, over the past 
3 years the Congress and two different presidential administrations 
have allocated a total of $6.75 million to the Park Service for Estate 
Maho Bay. This year, $2.25 million is needed from the LWCF to complete 
the purchase of the property. TPL will convey these lands to NPS at a 
significant discount made possible by private donations. The estimated 
value of the 205 acres is $18.6 million.
    The 205-acre Estate Maho Bay project has been made available to NPS 
for $9 million. The appraised value of these lands is $20.5 million, 
more than twice the purchase price. An additional 18 acres of land on 
Mamey Peak, overlooking the ongoing Estate Maho Bay project, have been 
donated by The Trust for Public Land to the Virgin Islands National 
Park. Because of the generosity of TPL's donors, NPS is receiving 223 
acres valued at more than $29.5 million for only $9 million, truly a 
remarkable example of the public-private partnerships that NPS seeks to 
promote.
    This acquisition will ensure continued public access to the beach, 
protect ecologically and historically significant land from 
development, and connect two separate sections of the national park. In 
fiscal year 2013, a total of $2.25 million is needed from the Land and 
Water Conservation for NPS to complete the acquisition of this 
outstanding property in Virgin Islands National Park.
    In closing, I urge you to provide funding for the LWCF of $450 
million, as proposed in the President's fiscal year 2013 budget, 
including critical funding for Virgin Islands National Park. I want to 
thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in the U.S. Virgin Islands, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
   Prepared Statement of Friends of Wertheim National Wildlife Refuge

    Mr. Chairman and members of the subcommittee, I am submitting 
testimony on behalf of Friends of Wertheim National Wildlife Refuge. 
(Wertheim National Wildlife Refuge is the Headquarters for the 9 
refuges in the Long Island National Wildlife Complex in New York.) We 
ask that you fund the National Wildlife Refuge System operations and 
maintenance (O&M) accounts at $495 million in the fiscal year 2013; 
which is essentially level funding from fiscal year 2012. We estimate 
that refuges would need at least $527 million in fiscal year 2013 to 
maintain management capabilities from fiscal year 2010; this request 
would only maintain status quo at current funding levels. The current 
Federal salary freeze still leaves Refuges needing at least $8 million 
to absorb other fixed costs. The Cooperative Alliance for Refuge 
Enhancement (CARE) estimates that the Refuge System needs at least $900 
million in annual funding to properly administer its 150 million acres 
and remains committed to accomplishing this goal. It is of the utmost 
importance that our Nation protects and enhances our National Wildlife 
Refuge System for future generations.
    Economically, according to the Banking on Nature report produced by 
the U.S. Fish and Wildlife Service in 2006, Federal spending on refuges 
offers a 4 to 1 return to local economies. Every $1 you appropriate 
generates $4 in local economic activity and in many cases it's much 
more. This makes an fiscal year 2013 appropriation of $495 a ``win-
win'' for the habitat and wildlife, for educational opportunities, for 
visitors and for the local economies of the communities surrounding our 
refuges.
    Friends of Wertheim NWR feels that the National Wildlife Refuge 
System deserves $495 million in Federal funding for fiscal year 2013 
because U.S. Fish and Wildlife is the Federal agency charged with 
conserving, protecting and enhancing the Nation's fish, wildlife and 
plants for the continuing benefit of the American people. Another top 
priority of the Service is connecting people with nature: ensuring the 
future of conservation. While there is no doubt that our public lands 
need to be managed through community partnerships/community resources, 
the Federal Government should be the catalyst in making this happen.
    When the funding for the National Wildlife Refuge System is 
compared to the entire national spending it is not even a ``blip on the 
radar screen''. The National Wildlife Refuge System is one of our 
``National Treasures'' and the dedicated Refuge staff, Friends and 
volunteers do much with very little. Only by being ``faithful 
stewards'' of all of the National Wildlife Refuges in the United States 
will we ensure that they will be here for our children and our 
children's children. This is why we ask that you support our National 
Wildlife Refuge System with adequate funding, $495 million for fiscal 
year 2013.
    Friends of Wertheim NWR also ask that you:
  --Provide $80 million in funding for Refuge System Visitor Services 
        programs. Visitor Services funding pays for many Friends and 
        volunteer programs. Currently, refuge Friends and volunteers do 
        approximately 20 percent of all the work on refuges. Staff is 
        needed to oversee the volunteers. The $80 million in funding 
        will allow all of the Friends groups to remain effective 
        stewards of our refuge and offer programs to get more people 
        outdoors in nature.
  --Please support $3.8 million for Challenge for Cost Share (CCS). 
        Partners are the key to successful conservation; no Federal or 
        State agency can do it alone. Therefore, we support programs 
        that leverage Federal dollars such as the CCS Program. Partner 
        organizations such as the Friends groups leverage these funds 
        and it gives taxpayers more ``bang for their buck'' for 
        projects like trails, boardwalks and habitat restoration.
  --We ask that you fund the Land and Water Conservation Fund (LWCF) at 
        $700 million. LWCF was created in 1965 and authorized at $900 
        million per year; which would be more than $3 billion in 
        today's dollars. LWCF is our most important land and easement 
        acquisition tool. There are more than 8 million acres still 
        unprotected within existing refuge boundaries and there is a 
        need to establish key wildlife corridors and connections 
        between protected areas making LWCF more important than ever.
    Last but not least, please support the new Collaborative 
Conservation requests of the Department of the Interior and 
Agriculture, bringing together several Federal agencies around a common 
goal.
    On behalf of Friends of Wertheim NWR thank you for your 
consideration of our request.
                                 ______
                                 
        Prepared Statement of the Geological Society of America

    The Geological Society of America (GSA) urges the Congress to fully 
fund the fiscal year 2013 request for the U.S. Geological Survey (USGS) 
and restore cuts in the request to key programs, including the Mineral 
Resources Program, the Water Resources Research Act, and the National 
Water Quality Assessment Methods Development and Monitoring program. As 
one of our Nation's key science agencies, the USGS plays a vital role 
in understanding and documenting mineral and energy resources, 
researching and monitoring potential natural hazards, monitoring 
effects of climate change, and determining and assessing water 
availability and quality. These issues are truly some of society's 
greatest challenges. Despite the critical role played by the USGS, 
funding for the Survey has stagnated in real dollars for more than a 
decade. Given the importance of the many activities of the Survey that 
protect lives and property for natural hazards, stimulate innovations 
that fuel the economy, provide national security, and enhance the 
quality of life, sustained, steady growth in Federal funding for the 
Survey is necessary for the well being of our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with more than 25,000 members from academia, government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA advances the geosciences, 
enhances the professional growth of its members, and promotes the 
geosciences in the service of humankind. GSA encourages cooperative 
research among Earth, life, planetary, and social scientists, fosters 
public dialogue on geoscience issues, and supports all levels of earth 
science education.
Broader Impacts of the U.S. Geological Survey
    The USGS is one of the Nation's premier science agencies. 
Approximately 70 percent of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities of 
the Department of the Interior, this research is used by communities 
across the Nation to assist in land use planning, emergency response, 
natural resource management, engineering, and education. USGS research 
addresses many of society's greatest challenges, including natural 
hazards, mineral and energy resources, climate change, and water 
availability and quality.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, floods, droughts, wildfires, and hurricanes--are a 
        major cause of fatalities and economic losses worldwide. Recent 
        natural disasters provide unmistakable evidence that the United 
        States remains vulnerable to staggering losses. 2011 was a 
        record year for natural disasters in the United States, with 12 
        separate $1 billion weather/climate disasters, breaking the 
        previous mark of $9 billion weather/climate disasters in 1 
        year, which occurred in 2008. The combined historic and recent 
        geologic records demonstrate that several areas in the United 
        States will continue to experience major earthquake and/or 
        volcanic activity in the future. An improved scientific 
        understanding of geologic hazards will reduce future losses 
        through better forecasts of their occurrence and magnitude, and 
        allow for better planning and mitigation in these areas. GSA 
        urges the Congress to increase funding for the USGS to 
        modernize and upgrade its natural hazards monitoring and 
        warning systems and support the proposed increases for early 
        warning systems in the budget request.
  --Energy and mineral resources are critical to national security and 
        economic growth. Improved scientific understanding of these 
        resources will allow for their more economic and environmental 
        management and utilization. USGS is the sole Federal 
        information source on mineral potential, production, and 
        consumption. USGS assessments of mineral and energy resources--
        including those that have recently become of greater and 
        greater importance (such as unconventional natural gas and 
        geothermal resources)--are essential for making informed 
        decisions about the Nation's future. Therefore, we are greatly 
        concerned about the proposed $5 million cut in mineral 
        resources and its effect on the ability of our Nation to safely 
        develop new resources.
  --Many emerging energy technologies--such as wind turbines and solar 
        cells--depend on rare Earth elements and critical minerals that 
        currently lack diversified sources of supply. China accounts 
        for 95 percent of world production of rare Earth elements 
        (USGS, 2010). The increases proposed for rare Earth research at 
        USGS will help ease our dependence on these foreign sources.
  --Improved understanding of geologic processes across Earth's history 
        can increase our confidence in the ability to predict future 
        climate States and long-term ecological changes and thus 
        enhance the prospects for mitigating or adapting to adverse 
        impacts. USGS research on climate impacts is used by the 
        Department of the Interior and local partners to make informed 
        land-use decisions.
  --The devastating droughts in 2011 reminded us of our dependence on 
        water. The availability and quality of surface water and 
        groundwater are vital to the well being of both society and 
        ecosystems. Greater scientific understanding of these 
        resources--and communication of new insights by geoscientists 
        in formats useful to decision makers--is necessary to ensure 
        adequate and safe water resources for the future. The 
        establishment of a National Groundwater Monitoring Network will 
        expand our understanding of this critical resource.
  --The budget request proposes a $13 million increase at USGS for 
        hydraulic fracturing research as part of a joint effort with 
        the Department of Energy and the Environmental Protection 
        Agency. The USGS would play a critical role in this endeavor to 
        better understand and minimize the environmental, health, and 
        safety impacts of hydraulic fracturing. The USGS research will 
        focus on better understanding induced seismicity, water 
        quality, and creating an atlas of shale resources.
    Research in Earth science is also fundamental to training and 
educating the next generation of Earth science professionals. A recent 
study, Status of the Geoscience Workforce 2011, by the American 
Geosciences Institute found:

    ``The supply of newly trained geoscientists falls short of 
geoscience workforce demand and replacement needs. According to the 
U.S. Bureau of Labor Statistics there were a total of 262,627 U.S. 
geoscientist jobs in 2008, and in 2018, the projected number of U.S. 
geoscientist jobs will be 322,683, a 23 percent increase. These 
projections do not include replacements due to attrition . . . With 
this adjustment, aggregate job projections are expected to increase by 
35 percent between 2008 and 2018 . . . . The majority of geoscientists 
in the workforce are within 15 years of retirement age. Even in oil and 
gas companies, which typically offer the highest salaries of all 
geoscience employing industries, the supply of new geoscientists is 
short of replacement needs. By 2030, the unmet demand for geoscientists 
in the petroleum industry will be approximately 13,000 workers for the 
conservative demand industry estimate.''

    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report ``Rising Above the Gathering Storm'' (2007), 
``Economic studies conducted even before the information-technology 
revolution have shown that as much as 85 percent of measured growth in 
U.S. income per capita was due to technological change.'' Likewise, the 
National Commission on Fiscal Responsibility and Reform, headed by 
Erskine Bowles and Alan Simpson, said: ``We must invest in education, 
infrastructure, and high-value research and development to help our 
economy grow, keep us globally competitive, and make it easier for 
businesses to create jobs.'' Earth science is a critical component of 
the overall science and technology enterprise. Growing support for 
Earth science in general and the U.S. Geological Survey in particular 
are required to stimulate innovations that fuel the economy, provide 
security, and enhance the quality of life.
    GSA supports the efforts of USGS, NASA, NOAA, and OSTP to examine a 
future path forward for the Landsat satellites that maintains funding 
for other key programs within USGS. The Landsat satellites have amassed 
the largest archive of remotely sensed land data in the world, a 
tremendously important resource for natural resource exploration, land 
use planning, and assessing water resources, the impacts of natural 
disasters, and global agriculture production.
Budget Shortfalls
    GSA supports the fiscal year 2013 budget request for the U.S. 
Geological Survey and the increases provided for key areas such as 
hydraulic fracturing research, early earthquake warning, and 
establishing a National Groundwater Monitoring Network. However, we are 
concerned about cuts in some programs and ask that these areas be 
restored. Some proposed cuts of concern in the budget request include:
  --$6.5 million for Water Resources Research Act Program;
  --$6 million for National Water Quality Assessment methods, 
        development, and monitoring;
  --$5 million for the Cooperative Water Program interpretive studies;
  --$5 million for the Mineral Resources Program;
  --$3.3 million for hydrologic networks and analysis information 
        management and delivery; and
  --$2 million for toxic substances hydrology methods development and 
        assessments.
    We urge the Congress to support the fiscal year 2013 budget request 
and restore these and other detrimental cuts. We recognize the 
financial challenges facing the Nation, but losing irreplaceable data 
can increase costs to society in the long term.
    Thank you for the opportunity to provide testimony about USGS. GSA 
is grateful to Senate Appropriations Subcommittee on the Interior, 
Environment, and Related Agencies for its leadership in strengthening 
the USGS over many years. For additional information or to learn more 
about the Geological Society of America--including GSA Position 
Statements on water resources, mineral and energy resources, climate 
change, natural hazards, and public investment in Earth science 
research--please visit www.geosociety.org or contact Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d564a555449587d5a58524e525e5458494413524f5a13">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

Bureau of Indian Affairs Great Lakes Area Resource Management: 
        $6,367,000
    Fiscal year 2013 requested allocation within the administration's 
fiscal year 2013 Rights Protection Implementation request in the amount 
of $32,645,000.
    Agency/Program Line Item.--Department of the Interior, Bureau of 
Indian Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.
    Funding Authorizations.--Snyder Act, 25 U.S.C. 13; Indian Self-
Determination and Education Assistance Act, (Public Law 93-638), 25 
U.S.C. 450f and 450h; and the treaties between the United States and 
GLIFWC's member Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 
491, Treaty of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and 
Treaty of 1854, 10 Stat. 1109.\1\
---------------------------------------------------------------------------
    \1\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
Bureau of Indian Affairs Contract Support: $228 Million
    Agency/Program Line Item.--Department of the Interior, Bureau of 
Indian Affairs, Operation of Indian Programs, Tribal Government.
    Funding Authorization.--Indian Self-Determination and Education 
Assistance Act, (Public Law 93-638), 25 U.S.C. 450f and 450h.
Environmental Protection Agency Great Lakes Restoration: $300 million. 
        Tribal Need: $25 million. Great Lakes Indian Fish and Wildlife 
        Commission Need: $1.2 Million (Estimated Annual Need).
    Agency/Program Line Item.--Environmental Protection Agency, 
Environmental Programs and Management, Geographic Programs, Great Lakes 
Restoration.
    Funding Authorizations.--Clean Water Act, 33 U.S.C. 1268(c); and 
treaties cited above.

   GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION'S GOAL--A SECURE 
                FUNDING BASE TO FULFILL TREATY PURPOSES

    For more than 25 years, the Congress has funded GLIFWC to meet 
nondiscretionary treaty obligations and associated Federal court 
orders. This funding has allowed GLIFWC to implement comprehensive 
conservation, natural resource protection, and law enforcement programs 
that ensure member tribes are able to exercise their treaty reserved 
rights to hunt, fish, and gather throughout the ceded territories, and 
that ensure a healthy and sustainable natural resource base to support 
those rights. These programs also provide a wide range of public 
benefits and assure full participation in management partnerships in 
Wisconsin, Michigan, and Minnesota.
    GLIFWC and its member tribes would like to take this opportunity to 
thank Congress, and specifically this subcommittee, for its strong 
support of these treaty obligations. In fiscal year 2012, the Congress 
increased its support for treaty rights protection and the 
administration followed suit by more fully supporting these treaty 
obligations in its fiscal year 2013 request. GLIFWC recently estimated 
the full cost of its program at approximately $9,870,000, including:
  --$5,434,000 provided in fiscal year 2012 through the RPI line item;
  --approximately $1,800,000 provided by grants and other ``soft'' 
        funding in fiscal year 2012; and
  --$2,636,000 in unmet needs.
    Funding at the proposed fiscal year 2013 level would begin to 
address these unmet needs. For more detail, the three elements of this 
fiscal year 2013 funding request are:
      Bureau of Indian Affairs Great Lakes Area Management: 
        $6,367,000.--This program falls within the Rights Protection 
        Implementation (RPI) line item, which is proposed at 
        $32,645,000 in fiscal year 2013. Funds provided to GLIFWC under 
        the RPI program ensure that GLIFWC's member tribes continue to 
        comply with Federal court orders by ensuring effective 
        implementation of tribal self-regulatory and co-management 
        systems.
      In previous fiscal years, GLIFWC has testified about chronic 
        underfunding of the Rights Protection Implementation line item 
        and the impacts of that underfunding on GLIFWC's programs. In 
        fiscal year 2010, the Congress recognized this threat and 
        provided a much-needed increase in support. Following 
        congressional lead, the administration has incorporated and 
        supplemented that increase in its fiscal year 2013 proposal. 
        The funding provided through the Great Lakes Area Resource 
        Management line item in fiscal year 2010 allowed GLIFWC to 
        restore some program cuts. Funding at the proposed fiscal year 
        2013 level would enable GLIFWC to meet even more of its program 
        needs, including funding for research and assessments of 
        threats to the ceded territories and for conservation 
        enforcement officers.
      Bureau of Indian Affairs Contract Support: $228 Million.--GLIFWC 
        supports the $228 million proposed for Contract Support. This 
        amount would meet the needs identified in the most recent 
        Contract Support Shortfall Report to fully fund this account, 
        which provides funds to meet costs incurred in fulfilling 
        administrative requirements that are mandated when operating 
        programs, including costs for accounting, personnel 
        administration, and property management. Rectifying this 
        chronic underfunding will allow GLIFWC to direct scarce 
        resources toward restoring program cuts and service capacity.
      Environmnetal Protection Agency Environmental Programs and 
        Management: $300 Million.--GLIFWC supports continued funding 
        for the Great Lakes Restoration Initiative (GLRI) at no less 
        than the administration's proposed fiscal year 2013 level of 
        $300 million. It also recommends that at least $25 million be 
        provided to the BIA for tribes, to ensure they are able to 
        undertake local projects that contribute to the protection and 
        restoration of the Great Lakes.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to retain jobs created through this program, to fully 
implement projects it undertook to meet the goals of the GLRI, and to 
meaningfully participate in the decisionmaking processes that will 
affect the treaty rights of its member tribes.
    Funding provided through the BIA should be made available under the 
Indian Self-Determination and Education Assistance Act (ISDEAA). In 
2010, GLRI funding awarded through the ISDEAA was virtually the only 
GLRI funding that was available before the 2010 field season. This 
enabled tribes to begin project implementation much earlier and realize 
substantial, early ``on-the-ground'' ecosystem benefits.

  CEDED TERRITORY TREATY RIGHTS--GREAT LAKES INDIAN FISH AND WILDLIFE 
                 COMMISSION'S GOAL'S ROLE AND PROGRAMS

    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area that extends to Minnesota, Wisconsin, 
and Michigan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through its staff of 65 full-time biologists, scientists, 
technicians, conservation enforcement officers, policy specialists, and 
public information specialists, GLIFWC's mission is to:
  --ensure that its member tribes are able to exercise their Treaty-
        protected rights to meet subsistence, economic, cultural, 
        medicinal, and spiritual needs; and
  --ensure a healthy, sustainable natural resource base to support 
        those rights. GLIFWC is a ``tribal organization'' as defined by 
        the Indian Self-Determination and Education Assistance Act, 
        governed by a Constitution that is ratified by its member 
        tribes and by a Board composed of the Chairs of those tribes.
              justification and use of the requested funds
    With the requested stable funding base, GLIFWC will:
      Maintain the Requisite Capabilities To Meet Legal Obligations, To 
        Conserve Natural Resources, and To Regulate Treaty Harvests.--
        Although it does not meet all GLIFWC's needs, sustained funding 
        at the fiscal year 2013 level would go a long way in 
        facilitating continued tribal compliance with various court 
        decrees and intergovernmental agreements governing the tribes' 
        treaty-reserved hunting, fishing, and gathering rights. It also 
        enhances GLIFWC's capability to undertake work and participate 
        in relevant partnerships to tackle ecosystem threats that harm 
        treaty natural resources, including invasive species, habitat 
        degradation and climate change.
      Remain a Trusted Environmental Management Partner and Scientific 
        Contributor in the Great Lakes Region.--With the requested EPA 
        funding base, GLIFWC would maintain its role as a trusted 
        environmental management partner and scientific contributor in 
        the Great Lakes Region. It would bring a tribal perspective to 
        the interjurisdictional mix of Great Lakes managers \2\ and 
        would use its scientific expertise to study issues and 
        geographic areas that are important to its member tribes but 
        that others may not be examining.\3\
---------------------------------------------------------------------------
    \2\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \3\ With the requested fiscal year 2013 funds, GLIFWC would:
      -- continue a ceded territory wild rice enhancement project;
      -- facilitate tribal input and participation in the 
implementation of the revised Great Lakes Water Quality Agreement;
      -- continue to participate in the development and implementation 
of the Lake Superior Lakewide Management Plan;
      -- build upon its longstanding fish contaminant analysis and 
consumption advisory program by testing additional species, testing in 
a wider geographic range, and testing for chemicals of emerging 
concern;
      -- enhance its invasive species and animal disease prevention, 
monitoring and mitigation programs, particularly given the potential 
impacts of climate change, the recent discovery of viral hemorrhagic 
septicemia (VHS) in Lake Superior and the potential migration of the 
Asian Carp into the Great Lakes; and
      -- enhance its capacity to protect ceded territory natural 
resources by responding to development proposals such as those related 
to mining.
---------------------------------------------------------------------------
      Maintain the Overall Public Benefits That Derive From Its 
        Programs.--Over the years, GLIFWC has become a recognized and 
        valued partner in natural resource management. Because of its 
        institutional experience and staff expertise, GLIFWC has built 
        and maintained numerous partnerships that:
    --provide accurate information and data to counter social 
            misconceptions about tribal treaty harvests and the status 
            of ceded territory natural resources;
    --maximize each partner's financial resources and avoid duplication 
            of effort and costs;
    --engender cooperation rather than competition; and
    --undertake projects and achieve public benefits that no one 
            partner could accomplish alone.\4\
---------------------------------------------------------------------------
    \4\ For example, on March 14, 2012, U.S. District Judge Barbara B. 
Crabb sentenced Norberto Burciago to 10 years in Federal prison for his 
involvement in a conspiracy to manufacture marijuana in the 
Chequamegon-Nicolet National Forest. The ``grow'' was discovered by 
hunters, monitored by law enforcement, and raided by more than 200 law 
enforcement officers from a dozen local, State, and Federal agencies, 
including 9 officers from the Great Lakes Indian Fish and Wildlife 
Commission.
---------------------------------------------------------------------------
                 OTHER RELATED APPROPRIATIONS CONCERNS

    Support for the Bureau of Indian Affairs Conservation Law 
Enforcement Officers.--GLIFWC supports BIA's proposal to provide 
$500,000 in fiscal year 2013 to support conservation officers like 
those employed by GLIFWC. This program will assist tribal conservation 
enforcement programs in protecting and monitoring natural resources 
both on and off-reservation.
    Bureau of Indian Affairs Circle of Flight Tribal Wetland & 
Waterfowl Initiative.--GLIFWC supports BIA funding of the Circle of 
Flight Tribal Wetland & Waterfowl Enhancement Initiative for Michigan, 
Minnesota, and Wisconsin. The Circle of Flight program is a 
longstanding tribal contribution to the North American Waterfowl 
Management Plan that has leveraged matching partnership funding on a 3 
to 1 ratio. In 2010, this program was awarded a Department of the 
Interior ``Partners in Conservation'' Award.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club

    As Director of Conservation for the Green Mountain Club, the 
nonprofit organization which maintains the Long Trail, the Nation's 
oldest long-distance hiking trail, I appreciate the opportunity to 
present this testimony in support of the Forest Legacy Program (FLP) in 
the fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. The President's budget for this year recommended 
$60 million for FLP. The FLP works with landowners, the States, and 
other partners to protect critical forestlands with important economic, 
recreation, water quality, and habitat resources through conservation 
easement and fee acquisitions. The program has protected more than 2 
million acres in 43 States and territories, consistently with a 50-
percent non-Federal cost share, double the required 25-percent cost 
share. For several years this important conservation program has been 
funded under the umbrella of the Land and Water Conservation Fund 
(LWCF), which as a whole received $450 million in the budget request.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the Forest 
Legacy Program will permanently pay dividends to the American people 
and to our great natural, historic and recreational heritage. As LWCF 
is funded from Outer Continental Shelf (OCS) revenues, not taxpayer 
dollars, these funds should go to their intended and authorized use as 
a conservation offset to the energy development of our offshore oil and 
gas resources.
    As part of the FLP request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $2.72 million for the Northern Green 
Mountains Linkage project in Vermont. I am pleased that this funding 
was included in the request and urge the Congress to provide necessary 
funds for FLP for this important project.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting the following types of 
land:
  --large contiguous and productive forest blocks;
  --wildlife habitats dependent on large contiguous forest blocks;
  --threatened and endangered species habitat;
  --State fragile areas and undeveloped shoreline, significant 
        wetlands; and
  --important recreational corridors.
    Sustainable timber harvesting is also critical; the annual 
contribution of forest products, forest-based manufacturing, and 
forest-related recreation to Vermont's economy is more than $2.6 
billion. All tracts are well suited for development of large estate 
lots or subdivisions due to the extensive road frontage, gentle 
terrain, scenic value, and proximity to ski resorts and urban areas.
    The 5,768-acre Northern Green Mountains Linkage project is situated 
on the spine of the Northern Green Mountains in Lamoille and Orleans 
Counties, and will protect managed and productive timberland as well as 
16 miles of streams, several rare species, and high-quality wildlife 
habitat. Using fee and easement acquisitions, the project will link 
68,300 acres of conserved lands, including lands the Green Mountain 
Club has protected for the Long Trail, providing connectivity from the 
Green Mountains north to Quebec and east to the Worcester Range. This 
project will address the problem of forest fragmentation and associated 
impacts on the timber economy, improve public access to recreation, and 
secure wildlife habitat connectivity in Vermont's northern region by 
permanently protecting critically located properties.
    Vermont's Northern Green Mountains are one of the wildest and 
largest forested landscapes remaining in all of New England. The 
region, which follows the spine of the Green Mountains north from Mount 
Mansfield to the Canadian border, encompasses sweeping tracts of forest 
where moose, bobcat, black bear, and a myriad of rare and endangered 
songbirds make their home. These mountains and their slopes are 
remarkably diverse, containing all the major ecosystem types of the 
region, from boreal forests, temperate mixed hardwoods, and alpine 
meadows to floodplain forests and marshes. It is also a magnet for 
hikers, skiers, backpackers, and other outdoor enthusiasts, 
particularly those drawn by more than 65 miles of the Long Trail--the 
Nation's oldest long-distance hiking path and the inspiration for the 
Appalachian Trail, built by the Green Mountain Club between 1910 and 
1930. Also snaking through the region is the increasingly popular 
Catamount Trail, a skiing trail traversing the length of Vermont.
    The Northern Green Mountains have long been recognized as a top 
conservation priority by many of the region's small towns, such as Jay, 
Westfield, and Hyde Park, which are now mobilizing to conserve the 
places that define and sustain their communities. Two Countries One 
Forest (2C1Forest), a Canadian-American coalition of 50 conservation 
organizations, public agencies, and researchers, sponsored scientific 
research to identify important wildlife corridors in the Northern 
Appalachian Acadian ecoregion. In 2007, 2C1Forest chose the Northern 
Green Mountains-to-Sutton Mountains linkage as one of their top five 
conservation priorities. The area has also been identified as 
significant in Vermont Fish & Wildlife's statewide assessment and 
ranking of large forested blocks and associated linkage habitats. The 
Northern Green Mountains are a crucial place for regional landscape 
connectivity because they help tie the Adirondacks of New York, and the 
central Appalachians of Massachusetts and points south to the Northern 
Appalachians of Maine and Canada. In so doing they serve as an 
important north-south corridor for wildlife, and because of their large 
range in elevation, provide species with flexibility in their movement.
    Projects like the Northern Green Mountains Linkage that maintain 
connectivity on local, State, and regional scales are also critical to 
support adaptation of wildlife species to climate change. These 
corridors will facilitate species movement in response to shifts in 
forest habitat, food availability, and snowpack. These forested tracts 
also offer important climate adaptation value as habitat refugia for 
cold-loving species whose habitats will be lost in other areas. The 
Northeast Climate Impacts Synthesis Assessment Team projects that this 
region will retain consistently cold winters and reliable snowpack 
through the end of the 21st century, even under high carbon emission 
scenarios. This is significant for a wide range of snow-dependent 
species like snowshoe hare and marten, as these same projections 
suggest that snowpack will largely disappear from New England to the 
south of the project area. Protection of this area is also important 
for adaptation of the eastern brook trout. Some of the parcels for 
protection include important headwater streams to the Missisquoi River, 
one of Vermont's important habitat areas for eastern brook trout. 
Conserving these high elevation headwater streams will help maintain 
flows and cooler water temperatures in the lower lying Missisquoi as 
the climate warms in this area.
    The 3,984 acres that will be conserved with fiscal year 2013 Forest 
Legacy funding is made up of four separate parcels. Almost the entire 
expanse--95 percent of the 1,748-acre Jay Brook tract in Westfield is 
higher than 1,500 feet, providing critical wildlife habitat protection 
and an important refugia to species adapting to climate change. 
Protection of this land would conserve 3.6 miles of the Catamount Trail 
and add an extra conserved buffer to 5.8 miles of The Long Trail, where 
portions of the Long Trail State Forest are only 650 feet wide--an 
inadequate buffer for the State's most well-known and well-loved trail. 
The 1,478-acre Bullard Tract in Eden and Hyde Park provides a wide 
linkage that connects lowland forest to previous Forest Legacy Program 
investments around Green River Reservoir State Park (protected with 
fiscal year 1999 funds) up to the ridgeline of the Green Mountains on 
the Eden Forest property (protected with fiscal year 2009 and fiscal 
year 2010 funds). The 553-acre Moffat property, half of which was 
funded in fiscal year 2011, is part of a significant east-west corridor 
of conserved forestland and contains significant wetlands and sugar 
maple stands. Last, the 513-acre Westfield Mountain Tract is managed 
for the production of maple syrup and high value timber and would be a 
significant addition to a previously conserved block of forestland in 
the Northern Green Mountains.
    The vast majority of the land in the Northern Greens remains in 
private hands, with thousands of acres available on the open market. 
Threats from an expanding second-home industry (even in today's 
uncertain economy), road construction, and changing forestry, and 
farming practices put key blocks of forestland at risk and create 
barriers to wildlife movement. Such changes also threaten the vibrant 
rural culture and economy of the Northern Greens, with its mix of 
small-scale community farms, forestry and recreation. A recent 
explosion of development pressure in the Northern Green Mountains, 
resulting from expanding ski resorts and the area's proximity to 
greater Burlington and other population centers, has made this a ``now 
or never'' moment to conserve key landscapes in this important habitat 
and recreation area. According to census data, growth rates in Lamoille 
and Orleans Counties are more than double the growth rate in Vermont as 
a whole. In Vermont, only 21 percent of the Northern Green Mountains is 
protected from development, compared to 45 percent of the central and 
southern Green Mountains.
    Forest Legacy Program funding in fiscal year 2011 secured the first 
1,784 acres of the Northern Green Mountains Linkage project. A Forest 
Legacy grant of $2.72 million in fiscal year 2013 for the remaining 
3,984 acres would complete this important project. These Federal funds 
are needed to ensure the protection of critical forest resources in 
northern Vermont and will be matched by $950,000 of non-Federal 
contributions for the acquisition of full fee and partial interests 
through conservation easement.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Forest 
Legacy Program and the Northern Green Mountains Linkage project. I want 
to thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in Vermont, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
     Prepared Statement of the Illinois Lake Management Association

    Dear Chairman Reed, Ranking Member Murkowski, and Members of the 
Committee: The Illinois Lake Management Association (ILMA) encourages 
the subcommittee to provide the most robust funding possible for the 
State and Tribal Wildlife Grants program in fiscal year 2013. This 
program is the only one within the Federal Government with the singular 
purpose of preventing Federal endangered species listings, and it is 
achieving success as highlighted in the recent State Wildlife Grants 
Success Stories Report (http://teaming.com/tool/state-wildlife-grants-
success-stories-report-2011). We also ask that the non-Federal match 
requirement for States remain at 35 percent to help States who are 
still struggling to recover from significant reductions in conservation 
budgets to meet match requirements.
    The State and Tribal Wildlife Grants program provides critical 
capacity for State fish and wildlife agencies and their partners to 
implement congressionally required State Wildlife Action Plans. The 
program is used by States to conserve more than 12,000 fish and 
wildlife species that have been identified as at-risk, including those 
that are candidates for Federal endangered species listing. Despite the 
success of the program, the State and Tribal Wildlife Grants program 
has been cut by one-third since 2010. The reduction in funding is 
impacting States' ability to restore habitat, protect land, provide 
incentives to private landowners, monitor, conduct research and 
implement other measures needed to conserve declining fish and 
wildlife.
    The State and Tribal Wildlife Grants program supports 
implementation of State Wildlife Action Plans that were developed 
collaboratively by leading scientists, sportsmen, conservationists and 
private landowners and identified the most effective and practical 
means to prevent wildlife from becoming endangered. The Congress can 
demonstrate its commitment to these plans by providing the Federal 
share of support, leveraging millions in State and private matching 
funds. This investment in conservation helps support jobs and the $730 
billion outdoor recreation industry. The State and Tribal Wildlife 
Grants program is modest compared to the scope of work it funds: The 
recovery of some of our Nation's most imperiled fish and wildlife. We 
hope the Senate Subcommittee on the Interior, Environment, and Related 
Agencies can provide the most robust funding possible for the program 
in fiscal year 2013.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian Country. I am the Lead 
Judge representing the Independent Tribal Court Review Team. We thank 
this subcommittee for the additional $10 million funding in fiscal year 
2010. These funds were a blessing to tribes. Even minimal increases 
were put to good use. It is the strong recommendation of the 
Independent Tribal Courts Review Team that the Federal tribal courts 
budget be substantially increased in fiscal year 2013 to support the 
needs of tribal judicial systems.
Budget Priorities, Requests, and Recommendations
    +$10 million increase for tribal courts more than the fiscal year 
2010 enacted level
    Fully fund all provisions of the Tribal Law and Order Act of 2010
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds have been appropriated to date)
    The budget requests will support:
  --Hiring and training of court personnel;
  --Compliance with the Tribal Law and Order Act of 2010;
  --Salary increases for existing judges and court personnel;
  --State-of-the-art technology for tribal courts;
  --Security and security systems to protect court records and privacy 
        of case information;
  --Tribal court code development; and
  --Financial code development;
Background
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in Tribal Self-Determination and Self-Governance as cited in 
longstanding Federal policy and acts of the Congress. Funding levels 
from BIA to support tribal justice systems have not met the Federal 
obligations.
    For the past 6 years, the Independent Court Review Team has been 
traveling throughout Indian Country assessing how tribal courts are 
operating. During this time, we have completed approximately 84 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of tribal courts than our Review Team.
    We have come into contact with every imaginable composition of 
tribe:
  --large and small;
  --urban and rural;
  --wealthy and poor.
    What we have not come into contact with is any tribe whose Court 
system is operating with financial resources comparable to other local 
and State jurisdictions.
Justification for Request
    Hiring and Training of Court Personnel.--Tribal Courts make do with 
underpaid staff, underexperienced staff, and minimal training. (We have 
determined that hiring tribal members limits the inclination of staff 
to move away; a poor excuse to underpay staff.)
    Compliance with the Tribal Law and Order Act of 2010.--To provide 
Judges, Prosecutors, Public Defenders, who are attorneys and who are 
bared to do ``enhanced sentencing'' in tribal courts.
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State Court personnel to keep pace 
with the non-Tribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology (software, 
computers, phone systems, tape recording machines).--Many tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    Security and Security Systems to Protect Court Records and Privacy 
of Case Information.--Most tribal courts do not even have a full-time 
bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed Codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
tribal jurisdiction.)
    Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
Tribal Courts Review
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their Court systems. Tribes with even modest resources tend to 
allocate funding to Courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian Courts.
    Tribal Courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate Courts and Judges from political 
pressure. No longer in Indian country are Judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 184 tribes with courts that 
received $24.7 million in Federal funding in 2011. Assessments have 
indicated that the Bureau of Indian Affairs only funds tribal courts at 
26 percent of the funding needed. This is further documented in the BIA 
budget book under the Tribal Priorities Allocation Account/Tribal 
Courts reflecting only a $1 million increase ``to enhance the ongoing 
daily operations of the Indian Affairs funded tribal courts and Courts 
of Federal Regulations throughout Indian Country''. That's real bang 
for the buck and certainly validates the adage ``you get what you pay 
for''! The lack of investment in tribal courts is an atrocity given the 
challenges and impediments they must endure to remain effective. tribes 
who have economic development generally subsidize their tribal courts. 
On the flip side, tribes who cannot afford to assist in the financial 
operations of the court are tasked with doing the best they can with 
what they have even at the expense of decreasing or eliminating 
services elsewhere. This while operating at a disadvantage with already 
overstrained resources and underserved needs of the tribal citizens. 
The assessment suggests that the smaller Courts are both the busiest 
and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a Drug Court 
Clerk who then is used as a Court Clerk with Drug Court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed Drug Courts, failed Court management software projects (due 
to training costs) and incomplete Code development projects. When the 
Justice funding runs out, so does the Project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how tribes were using Federal funding. In 
the last 6 fiscal years through fiscal year 2011 there were only two 
isolated incidents of a questionable expenditure of Federal funds. It 
is speculated that because of our limited resources, we compromise 
one's due process and invoke ``speedy trials'' violations to save 
Tribal Courts money. Everyone who is processed through the tribal 
judicial system is afforded their constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
Tribal Courts. Tribal Courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
Courts will put such funding to good use.
    There are tribes like the Fort Belknap Tribe of Montana whose Chief 
Judge manages both offices and holds Court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the tribes to fix the damaged ceilings.
    Tribal Courts have other serious needs. Tribal Appellate Court 
Judges are mostly Attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in Court budgets and if 
the defense advocate, or Prosecutor, should leave, the replacement 
process is slow.
    We feel it is our duty to come here on behalf of tribes to advocate 
for better funding. Tribes ask us to tell their stories. They open 
their files and records to us and say, ``We have nothing to hide''. 
Tell the Congress we need better facilities, more law enforcement, more 
detention facilities, more legal advice, better codes . . .  the list 
goes on and on. But, as we have indicated, it all involves more 
funding. This Congress and this administration can do something great. 
Put your money where your promises have been.
National Requests
    We support the requests and recommendations of the National 
Congress of American Indians. We support the increases for:
  --contract support costs of $8.8 million;
  --law enforcement of $30 million;
  --10-percent increase more than 2012 for TPA; and
  --an additional $10 million for tribal courts.
    On behalf of the Independent Tribal Court Review Team, Thank you.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission, on whose behalf I am 
appearing today. I appreciate the opportunity to present this statement 
to the subcommittee regarding the views of the Compact's 24 member 
States on the fiscal year 2013 budget request for the Office of Surface 
Mining Reclamation and Enforcement (OSM) within the Department of the 
Interior. In its proposed budget, OSM is requesting $57.3 million to 
fund title V grants to States and Indian tribes for the implementation 
of their regulatory programs, a reduction of $11 million or 15 percent 
less than the fiscal year 2012 enacted level. OSM also proposes to 
reduce mandatory spending for abandoned mine lands (AML) program by 
$180 million pursuant to a legislative proposal to eliminate all AML 
funding for certified States and tribes.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $57.3 million for title V grants to 
States and tribes in fiscal year 2012, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs. Pursuant to these primacy 
programs, the States have the most direct and critical responsibilities 
for conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States 
accomplish this through a combination of permitting, inspection and 
enforcement duties, designating lands as unsuitable for mining 
operations, and ensuring that timely reclamation occurs after mining.
    In fiscal year 2012, the Congress approved $68.6 million for State 
title V grants. This continued a much-needed trend whereby the amount 
appropriated for these regulatory grants aligned with the demonstrated 
needs of the States and tribes. The States are greatly encouraged by 
the significant increases in title V funding approved by Congress over 
the past 3 fiscal years. Even with mandated rescissions and the 
allocations for tribal primacy programs, the States saw a $12 million 
increase for our regulatory programs more than fiscal year 2007 levels. 
State title V grants had been stagnant for more than 12 years and the 
gap between the States' requests and what they received was widening. 
This debilitating trend was compounding the problems caused by 
inflation and uncontrollable costs, thus undermining our efforts to 
realize needed program improvements and enhancements and jeopardizing 
our efforts to minimize the potential adverse impacts of coal 
extraction operations on people and the environment.
    In its fiscal year 2013 budget, OSM has once again attempted to 
reverse course and essentially unravel and undermine the progress made 
by the Congress in supporting State programs with adequate funding. As 
States prepare their future budgets, we trust that the recent increases 
approved by the Congress will remain the new base on which we build our 
programs. Otherwise, we find ourselves backpedaling and creating a 
situation where those who were just hired face layoffs and purchases of 
much needed equipment are canceled or delayed. Furthermore, a clear 
message from Congress that reliable, consistent funding will continue 
into the future will do much to stimulate support for these programs by 
State legislatures and budget officers who each year, in the face of 
difficult fiscal climates and constraints, are also dealing with the 
challenge of matching Federal grant dollars with State funds. In this 
regard, it should be kept in mind that a 15-percent cut in Federal 
funding generally translates to an additional 15-percent cut for 
overall program funding for many States, especially those without 
Federal lands, since these States can generally only match what they 
receive in Federal money.
    It is important to note that OSM does not disagree with the States' 
demonstrated need for the requested amount of funding for title V 
regulatory grants. Instead, OSM's solution for the drastic cuts comes 
in the way of an unrealistic assumption that the States can simply 
increase user fees in an effort to ``eliminate a de facto subsidy of 
the coal industry.'' No specifics on how the States are to accomplish 
this far-reaching proposal are set forth, other than an expectation 
that they will do so in the course of a single fiscal year. OSM's 
proposal is completely out of touch with the realities associated with 
establishing or enhancing user fees, especially given the need for 
approvals by State legislatures. IMCC's polling of its member States 
confirmed that, given the current fiscal and political implications of 
such an initiative, it will be difficult, if not impossible, for most 
States to accomplish this feat at all, let alone in less than 1 year. 
OSM is well aware of this, and yet has every intention of aggressively 
moving forward with a proposal that was poorly conceived from its 
inception. We strongly urge the subcommittee to reject this approach 
and mandate that OSM work through the complexities associated with any 
future user fees proposal in close cooperation with the States and 
tribes before proposing cuts to Federal funding for State title V 
grants.
    At the same time that OSM is proposing significant cuts for State 
programs, the agency is proposing sizeable increases for its own 
program operations ($4 million) for Federal oversight of State 
programs, including an increase of 25 FTEs. In making the case for its 
funding increase, OSM's budget justification document contains vague 
references to the need ``to improve the implementation of existing 
laws'' and to ``strengthen OSM's skills base.'' More specifically, OSM 
states in its budget justification document (on page 60) that ``with 
greater technical skills, OSM anticipates improved evaluation of 
permit-related actions and resolution of issues to prevent 
unanticipated situations that otherwise may occur as operations 
progress, thereby improving implementation of existing laws''. In our 
view, this is code language for enhanced and expanded Federal oversight 
of State programs. However, without more to justify the need for more 
oversight and the concomitant increase in funding for Federal 
operations related thereto, the Congress should reject this request. 
The overall performance of the States as detailed in OSM's annual State 
program evaluation reports demonstrates that the States are 
implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.\1\
---------------------------------------------------------------------------
    \1\ While not alluded to or fully addressed in OSM's budget 
justification document, there are myriad statutory, policy and legal 
issues associated with several aspects of the agency's enhanced 
oversight initiative, especially three recently adopted directives on 
annual oversight procedures (REG-8), corrective actions (REG-23) and 
Ten-Day Notices (INE-35). IMCC submitted extensive comments regarding 
the issues associated with these directives and related oversight 
actions (including Federal inspections) on January 19, 2010, July 8, 
2010 and January 7, 2011.
---------------------------------------------------------------------------
    In our view, this suggests that OSM is adequately accomplishing its 
statutory oversight obligations with current Federal program funding 
and that any increased workloads are likely to fall upon the States, 
which have primary responsibility for implementing appropriate 
adjustments to their programs identified during Federal oversight. In 
this regard, we note that the Federal courts have made it abundantly 
clear that SMCRA's allocation of exclusive jurisdiction was ``careful 
and deliberate'' and that the Congress provided for ``mutually 
exclusive regulation by either the Secretary or State, but not both.'' 
Bragg v. West Virginia Coal Ass'n, 248 F. 3d 275, 293-4 (4th Cir. 
2001), cert. denied, 534 U.S. 1113 (2002). While the courts have ruled 
consistently on this matter, the question remains for the Congress and 
the administration to determine, in light of deficit reduction and 
spending cuts, how the limited amount of Federal funding for the 
regulation of surface coal mining and reclamation operations under 
SMCRA will be directed--to OSM or the States. For all the above 
reasons, we urge Congress to approve not less than $70 million for 
State and tribal title V regulatory grants, as fully documented in the 
States' and tribes' estimates for actual program operating costs.\2\
---------------------------------------------------------------------------
    \2\ We are particularly concerned about recent OSM initiatives, 
primarily by policy directive, to duplicate and/or second-guess State 
permitting decisions through the reflexive use of ``Ten-Day Notices'' 
as part of increased Federal oversight or through Federal responses to 
citizen complaints. OSM specifically addresses this matter in its 
budget justification document (on page 69) where it states that ``OSM 
has an obligation under section 521 of SMCRA to take steps to ensure 
that all types of violations, including violations of performance 
standards or permit conditions and violations of permitting 
requirements, are corrected if the State does not take action to do so. 
Aside from the impact on limited State and Federal resources, these 
actions undermine the principles of primacy that underscore SMCRA and 
are likely to have debilitating impacts on the State-Federal 
partnership envisioned by the act.
---------------------------------------------------------------------------
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State title IV 
grants are funded primarily by mandatory appropriations. As a result, 
the States should have received a total of $488 million in fiscal year 
2013. Instead, OSM has budgeted an amount of $307 million based on an 
ill-conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $180 million reduction flies in the face of 
the comprehensive restructuring of the AML program that was passed by 
the Congress in 2006, following more than 10 years of congressional 
debate and hard fought compromise among the affected parties. In 
addition to the elimination of funding for certified States and tribes, 
OSM is also proposing to reform the distribution process for the 
remaining reclamation funding to allocate available resources to the 
highest-priority coal AML sites through a competitive grant program, 
whereby an Advisory Council will review and rank AML sites each year. 
The proposal, which will require adjustments to SMCRA, will clearly 
undermine the delicate balance of interests and objectives achieved by 
the 2006 Amendments. It is also inconsistent with many of the goals and 
objectives articulated by the administration concerning both jobs and 
environmental protection. We urge the Congress to reject this 
unjustified proposal, delete it from the budget and restore the full 
mandatory funding amount of $488 million. A resolution adopted by IMCC 
last year concerning these matters is attached. We also endorse the 
statement of the National Association of Abandoned Mine Land Programs 
(NAAMLP) which goes into greater detail regarding the implications of 
OSM's legislative proposal for the States and tribes, a copy of which I 
would like to submit for the record.
    We also urge the Congress to approve continued funding for the AML 
emergency program. In a continuing effort to ignore congressional 
direction, OSM's budget would completely eliminate funding for State-
run emergency programs and also for Federal emergency projects (in 
those States that do not administer their own emergency programs). 
Funding the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed the States and OSM to 
address the unanticipated AML emergencies that inevitably occur each 
year. In States that have federally operated emergency programs, the 
State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula. We therefore request that the Congress restore funding 
for the AML emergency program in OSM's fiscal year 2013 budget.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of AMD from 
abandoned mines. This is a perennial, and often expensive, problem, 
especially in Appalachia. IMCC therefore requests the Committee to once 
again include language in the fiscal year 2013 appropriations bill that 
would allow the use of AML funds for any required non-Federal share of 
the cost of projects by the Federal Government for AMD treatment or 
abatement.
    We also urge the subcommittee to support funding for OSM's training 
program, including moneys for State travel. These programs are central 
to the effective implementation of State regulatory programs as they 
provide necessary training and continuing education for State agency 
personnel. In this regard, it should be noted that the States provide 
nearly half of the instructors for OSM's training course and, through 
IMCC, sponsor and staff benchmarking workshops on key regulatory 
program topics. IMCC also urges the subcommittee to support funding for 
TIPS, a program that directly benefits the States by providing critical 
technical assistance. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.2 million.
    Attached to our testimony today is a list of questions concerning 
OSM's budget that we request be included in the record for the hearing. 
The questions go into further detail concerning several aspects of the 
budget that we believe should be answered before the Congress approves 
funding for the agency or considers advancing the legislative proposals 
contained in the budget.
    Thank you for the opportunity to present this statement.

                              ATTACHMENTS

  QUESTIONS RE OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT'S 
                    PROPOSED FISCAL YEAR 2013 BUDGET

    What does OSM plan to do with the additional $4 million that has 
been budgeted for ``enhanced Federal oversight of State regulatory 
programs''? How does OSM justify an increase in money for Federal 
oversight while decreasing money for State title V grants? What is the 
demonstrated need for an additional 25 FTEs to perform Federal 
oversight of State programs? Will this not simply lead to duplication 
of effort, second-guessing of State decisionmaking, undermining of 
State primacy and wasted resources?
    If pressed by the Congress, how expeditiously does OSM intend to 
push the States to recover more of their regulatory costs from the coal 
industry through user fees? Has OSM undertaken a full analysis of the 
administrative and rulemaking complexities inherent in such an 
undertaking?
    OSM's newest AML legislative proposal (to eliminate payments to 
certified States and tribes and to utilize a competitive bidding 
process for the allocation of remaining AML reclamation funds for 
noncertified States) is the fourth time that the agency has put forth 
potential legislative adjustments to the 2006 amendments to SMCRA in 
its proposed budgets. Based on the legislative proposal we have seen to 
date, there are many more questions than answers about how this process 
will work. (See attached list) Does OSM intend to seek input from the 
States and tribes, especially given the role that the States and tribes 
will play in the bidding/selection process and the significant impact 
this will have on current program administration? What is the basis for 
OSM's proposal to essentially upend the carefully crafted legislative 
resolution related to future AML program funding and AML reclamation 
work approved by the Congress in 2006? Has OSM thought and worked 
through the implications for AML program management and administration 
that would result from its legislative proposal?
    Why has OSM chosen to advocate for a hardrock AML reclamation fee 
to be collected by OSM but not distributed by OSM? Why bring another 
Federal agency (BLM) into the mix when OSM has the greater expertise in 
this area?
Specific Questions re Cost Recovery/User Fees
    OSM has requested an amount for State title V regulatory program 
grants in fiscal year 2013 that reflects an $11 million decrease from 
fiscal year 2012. And while OSM does not dispute that the States are in 
need of an amount far greater than this, the agency has suggested once 
again that the States should be able to make up the difference between 
what OSM has budgeted and what States actually need by increasing cost 
recovery fees for services to the coal industry. What exactly will it 
take to accomplish this task?
    Assuming the States take on this task, will amendments to their 
regulatory programs be required?
    How long, in general, does it take OSM to approve a State program 
amendment?
    The State of Alabama submitted a program amendment to OSM in May 
2010 to raise current permit fees and authorize new, additional fees. 
It took OSM a full year to approve this amendment, resulting in lost 
fees of more than $50,000 to the State. If OSM is unable to approve 
requested State program amendments for permit fee increases in less 
than a year, how does the agency expect to handle mandated permit 
increases for all of the primacy States within a single fiscal year?
    If OSM is not expecting to pursue this initiative in fiscal year 
2013, why include such a proposal in the budget until OSM has worked 
out all of the details with the States in the first instance?
    Speaking of which, what types of complexities is OSM anticipating 
with its proposal at the State level? Many of the States have already 
indicated to OSM that it will be next to impossible to advance a fee 
increase proposal given the political and fiscal climate they are 
facing.
    OSM's solution seems to be that the agency will propose a rule to 
require States to increase permit fees nationwide. Won't this still 
require State program amendments to effectuate the Federal rule, as 
with all of OSM's rules? How does OSM envision accomplishing this if 
the States are unable to do it on their own?
    Even if a Federal rulemaking requiring permit fee increase 
nationwide were to succeed, how does OSM envision assuring that these 
fees are returned to the States? Will OSM retain a portion of these 
fees for administrative purposes?
Specific Questions re Federal Program Increases
    In OSM's budget justification document, the agency also notes that 
the States permit and regulate 97 percent of the Nation's coal 
production and that OSM provides technical assistance, funding, 
training and technical tools to the States to support their programs. 
And yet OSM proposes in its budget to cut funding to the States by $11 
million while increasing OSM's own Federal operations budget by nearly 
$4 million and 25 FTEs. How does OSM reconcile these seemingly 
contradictory positions?
    OSM's budget justification document points out in more detail why 
it believes additional Federal resources will be needed based on its 
recent Federal oversight actions during fiscal year 2011, which 
included increased Federal inspections. Was OSM not in fact able to 
accomplish this enhanced oversight with its current resources? If not, 
where were resources found wanting? How much of the strain on the 
agency's resources was actually due to the stream protection rulemaking 
and EIS process?
    In light of recent annual oversight reports over the past 5 years 
which demonstrate high levels of State performance, what is the 
justification for OSM's enhanced oversight initiatives and hence its 
Federal program increase?
    Something has to give here--no doubt. There is only so much money 
that we can make available for the surface mining program under SMCRA. 
Both the Congress and the courts have made it clear that the States are 
to exercise exclusive jurisdiction for the regulation of surface coal 
mining operations pursuant to the primacy regime under the law. It begs 
the questions of whether OSM has made the case for moving away from 
supporting the States and instead beefing up the Federal program. 
Unless the agency can come up with a better, more detailed 
justification for this realignment of resources, how can the Congress 
support its budget proposal?
Specific Questions re Office of Surface Mining Reclamation and 
        Enforcement Oversight Initiative
    OSM has recently finalized a Ten-Day Notice directive (INE-35) that 
had previously been withdrawn in 2006 based on a decision by then 
Assistant Secretary of the Interior Rebecca Watson. The basis for 
terminating the previous directive was several court decisions that 
clarified the respective roles of State and Federal governments 
pursuant to the primacy regime contained in SMCRA. The Secretary's 
decision also focused on the inappropriate and unauthorized use of Ten-
Day Notices under SMCRA to second-guess State permitting decisions. 
OSM's new TDN directive flies in the face of both this Secretarial 
decision and Federal court decisions. Does OSM have a new Secretarial 
decision on this matter? If not, how can its recent action overrule 
this prior decision? Has the Solicitor's office weighed in on this 
matter? If so, does OSM have an opinion supporting the agency's new TDN 
directive? Will OSM provide that to the subcommittee?
    In light of limited funding for the implementation of SMCRA, how 
does OSM justify the State and Federal expenses that will necessarily 
follow from reviewing and second-guessing State permitting decisions? 
States have complained that responding to a single OSM TDN, especially 
with respect to State permitting decisions, can require the investment 
of 2-3 FTE's for upwards of a week. How do you justify this?

QUESTIONS AND CONCERNS RE THE ABANDONED MINE LANDS LEGISLATIVE PROPOSAL 
 IN OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT'S FISCAL YEAR 
                              2013 BUDGET

The Proposed Competitive Allocation Process
    What is the potential for this new review and ranking process to 
reduce expenditures and increase efficiency without being counter-
productive? Will it introduce an additional level of bureaucracy and 
result in more time being spent formulating proposals and less on 
actual AML reclamation? The present funding formula, while not perfect, 
at least provides some direction on which to base long-term strategic 
planning and efficient use of available funds. The closest analogy to 
what OSM is proposing by way of its competitive allocation process is 
the way BLM and the Forest Service currently allocate their AML funds 
through competitive proposals to various State offices and regions. 
Because of the uncertainties of funding, neither agency has been able 
to develop significant in-house expertise, but instead often rely on 
SMCRA-funded States like Montana, New Mexico, Utah, and Colorado to do 
a good portion of their AML work. Why would OSM want to duplicate a 
system that has proven problematic for other agencies?
    Who would be the ``other parties'' potentially bidding on AML grant 
funds? Would this include Federal agencies such as BLM, USFS, NPS, etc? 
If so, in many cases, those agencies already rely on the States to 
conduct their reclamation work and also determine priorities based on 
State input or guidance.
    What do the State project managers and inspectors do if a State 
does not win a competitive bid for AML funds? How does a State gear up 
if it receives funding for more projects than it can handle with 
present staffing? Each State and tribe has different grant cycles. 
Unless all are brought into one uniform cycle, how will everyone 
compete for the same dollars? In this regard, how can the competitive 
allocation process and the use of the Advisory Council be more 
efficient and simple than what we already have in place?
    How long will OSM fund a State's/tribe's administrative costs if it 
does not successfully compete for a construction grant, even though the 
State/tribe has eligible high-priority projects on AMLIS? How will OSM 
calculate administrative grant funding levels, especially since 
salaries and benefits for AML project managers and inspectors 
predominantly derive from construction funds? Would funding cover 
current staffing levels? If not, how will OSM determine the funding 
criteria for administrative program grants?
    How do the States and tribes handle emergency projects under the 
legislative proposal? Must these projects undergo review by the 
Advisory Council? Will there be special, expedited procedures? If a 
State/tribe has to cut back on staff, how does it manage emergencies 
when they arise? If emergency programs do compete for AML funds, 
considerable time and effort could be spent preparing these projects 
for review by the Advisory Council rather than abating the immediate 
hazard. Again, how can we be assured that emergencies will be addressed 
expeditiously?
    What ranking criteria will be used to determine the priority of 
submitted AML project grant requests? The number of people potentially 
affected? The current priority ranking on AMLIS? How would the Council 
determine whether a burning gob pile near a city presents a greater 
hazard than a surface mine near a highway or an underground mine 
beneath a residential area? Would the winning bid be the ``most 
convincing'' proposal? The one with the most signatures on a petition? 
The one with the most influential legislative delegation? Will AMLIS 
continue to serve as the primary mechanism for identifying sites and 
their priority status?
    If the current AML funding formula is scrapped, what amount will be 
paid out to the noncertified AML States and tribes over the remainder 
of the program? What does OSM mean by the term ``remaining funds'' in 
its proposal? Is it only the AML fees yet to be collected? What happens 
to the historic share balances in the Fund, including those that were 
supposed to be re-directed to the Fund based on an equivalent amount of 
funding being paid to certified States and tribes each year? Would the 
``remaining funds'' include the unappropriated/prior balance amounts 
that have not yet been paid out over the 7-year installment period? 
What about the amounts due and owing to certified States and tribes 
that were phased in during fiscal year 2009-2011?
    Has anyone alleged or confirmed that the States/tribes are NOT 
already addressing the highest-priority sites for reclamation within 
the context of the current AML program structure under the 2006 
Amendments? Where have the 2006 Amendments faltered in terms of high-
priority sites being addressed as envisioned by the Congress? What 
would remain unchanged in the 2006 Amendments under OSM's proposal?
The Nature and Purpose of the Advisory Council
    Who would be on the AML Advisory Council and how could they 
collectively have better decisionmaking knowledge about hazardous AML 
sites than the State and tribal project managers and administrators who 
work with these sites on a daily basis?
    What will be the criteria to serve on the Advisory Council? Will 
the Federal Advisory Committee Act (FACA) requirements apply to the 
formation and deliberations of the Council? How long does OSM envision 
it will take to establish the Council and when will it become 
operational?
    Will the Advisory Council be providing recommendations to OSM or 
will OSM make all final decisions? Will these decisions by appealable? 
If so, to who? Does OSM envision needing to develop internal guidance 
for its own review process? If so, how long will it potentially take 
from Advisory Council review and recommendation to final OSM decision 
in order to complete the grant process so a State can begin a project?
    What degree of detail will be required in order to review and 
approve competitive grant applications? Will the Council review each 
project? What type of time constraints will be placed on their review?
    Will the Advisory Council consider partial grants for projects that 
may exceed the allocation for a single year? Would minimum program 
States be authorized to apply for a grant that would exceed $3 million?
    Will grant applications be based on an individual project or will 
the grant be based on a project year? How will cost overruns be 
handled?
Planning for Abandoned Mine Lands Work
    One of the greatest benefits of reauthorization under the 2006 
Amendments to SMCRA was the predictability of funding through the end 
of the AML program. Because State and tribes were provided with 
hypothetical funding levels from OSM (which to date have proven to be 
quite accurate), long-term project planning, along with the 
establishment of appropriate staffing levels and project assignments, 
could be made more accurately and efficiently. How can States/tribes 
plan for future projects given the uncertainty associated with having 
to annually bid for AML funds? NEPA compliance issues alone can take 
years of planning. One State recently asked its State Historic 
Preservation Office for initial consultation regarding project sites 
that may be reclaimed over the next 5 years. This process will also 
have significant impacts on those States that utilize multi-year 
construction contracts that are paid for with annual AML grants.
    State and tribal AML projects are often planned 18 months to 2 
years in advance of actually receiving construction funds, based on 
anticipated funding under the 2006 Amendments. During that time, States 
and tribes are performing environmental assessments, conducting 
archeology reviews, completing real estate work and doing NEPA 
analyses. There could be considerable effort and money wasted if a 
project does not get approved during the competitive allocation 
process.
    At what point does a State or tribe seek approval from the advisory 
council? Considerable investigation must take place prior to developing 
most projects, whether they be acid mine drainage projects or health 
and safety projects. How much time should be spent in design prior to 
proceeding to the Council? How accurate must a cost estimate be prior 
to taking a project before the Council? The greater the accuracy, the 
greater the design time expended, possibly for a project that will be 
rejected.
    State and tribes often seek and obtain valuable matching funds from 
watershed groups, which take considerable lead time to acquire. It will 
be difficult to commit to partners if we don't know what level of 
funding, if any, will be made available from OSM.
    Several States have committed significant amounts of money to 
waterline projects across the coalfields. Local governmental entities 
have started designs and applied for additional funds from other 
agencies to match AML funds in order to make these projects a reality. 
Ending all AML funding for these projects (assuming they are not 
considered ``high priority'') could have significant consequences for 
local communities. Our understanding is that these projects were 
excluded under the 2006 Amendments from the priority scheme contained 
in section 403(a) of SMCRA.
    Does OSM's proposal allow acid mine drainage (AMD) projects to be 
undertaken? Can these be designated as high priority? (Our 
understanding is that those AMD projects undertaken pursuant to the 
``AMD set-aside program'' are not subject to the priority scheme under 
section 403(a) and that those AMD projects done ``in conjunction with'' 
a priority 1 or 2 project are considered ``high priority''.) How do 
States handle ongoing engineering, operating and maintenance costs for 
existing AMD treatment systems? As the administration works diligently 
to develop a new rule to protect streams nationwide, why would it 
advance a proposal to essentially halt the cleanup of streams funded by 
the AML program?
Overarching Concerns
    Given the original design of SMCRA by its framers that AML funds 
will only be allocated to those States who agree to implement title V 
regulatory programs for active mining operations, to what extent can we 
expect that States will continue to implement and fund their title V 
programs if Title IV funding is drastically cut or eliminated under the 
proposal? Furthermore, since States and tribes will not know what level 
of AML program staffing to maintain from year to year under the 
proposal, who would desire to work for a program that is in a constant 
state of flux?
    The SMCRA 2006 Amendments were the result of roughly 10 years of 
negotiations, discussions, and debates in the Congress. Since the 
legislative process to enact these new proposed changes could take 
years, why didn't OSM begin with the legislation and then follow up 
with an appropriate budget proposal? Why weren't the States/tribes or 
the NAAMLP included in discussions that led to this legislative 
proposal?
    As OSM develops the legislative proposal for a competitive bidding 
process, the agency should consider the impacts on minimum programs and 
consider maintaining the minimum allocation of $3 million for minimum 
program States.
    What type of State AML plan amendments does OSM foresee as a result 
of this new process?
Proposed Elimination of Funding for Abandoned Mine Lands Emergencies
    While amendments to title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the Act, no changes were made to OSM's 
emergency powers in section 410. Quite to the contrary, section 
402(g)(1)(D)(2) states that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of nonemergency 
grant funds for the priorities listed in section 403(a), none of which 
include emergencies. The funding for the emergency program comes from 
the Secretary's discretionary share, pursuant to section 402(g)(3) of 
the act. This share currently stands at $416 million. OSM's elimination 
of funding for the emergency program will result in the shift of 
approximately $20 million annually that will have to be absorbed by the 
States. This is money that cannot be spent on high-priority AML work 
(as required by SMCRA) and will require the realignment of State AML 
program operations in terms of personnel, project design and 
development, and construction capabilities. In most cases, depending on 
the nature and extent of an emergency project, it could preclude a 
State's ability to undertake any other AML work during the grant year 
(and even following years), especially for minimum program States. How 
does OSM envision States and tribes being able to meet their statutory 
responsibility to address high-priority AML sites in light of the 
elimination of Federal funding for AML emergencies? How does OSM 
reconcile this proposal with the intentions of the Congress expressed 
in the 2006 amendments to move more money out of the AML Fund sooner to 
address the backlog of AML problems that continue to linger?
Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on 
noncertified States as a result of eliminating these payments to 
certified States and tribes--especially the equivalent payments that 
would otherwise be made to the historic production share that directly 
relate to ``in lieu of'' payments to certified States and tribes under 
section 411(h)(4). Previously, OSM has stated that ``the amounts that 
would have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2013 proposed 
budget, this will amount to $1.2 billion over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in title V grants)?
    Finally, how do the cuts in the title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by the Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
                                 ______
                                 
                               RESOLUTION
                  INTERSTATE MINING COMPACT COMMISSION

BE IT KNOWN THAT:

WHEREAS, Title IV of the Surface Mining Control and Reclamation Act of 
        1977 (SMCRA) established the Abandoned Mine Land (AML) 
        reclamation program; and
WHEREAS, the Interstate Mining Compact Commission (IMCC) is a multi-
        state organization representing the natural resource and 
        environmental protection interests of its 24 member States, 
        including the elimination of health and safety hazards and the 
        reclamation of land and water resources adversely affected by 
        past mining and left in an abandoned or inadequately restored 
        condition; and
WHEREAS, pursuant to the cooperative federalism approach contained in 
        SMCRA, several IMCC member States administer AML programs 
        approved, funded and overseen by the Office of Surface Mining 
        Reclamation and Enforcement (OSM) within the U.S. Department of 
        the Interior; and
WHEREAS, SMCRA, Title IV establishes a reclamation fee on each ton of 
        coal mined in the United States to pay for abandoned mine land 
        reclamation; and
WHEREAS, SMCRA, Title IV mandates that 50 percent of the reclamation 
        fees collected annually are designated as State share funds to 
        be returned to the States from which coal was mined to pay for 
        reclamation projects pursuant to programs administered by the 
        States; and
WHEREAS, SMCRA, Title IV also mandates that a minimum level of funding 
        should be provided to ensure effective State program 
        implementation; and
WHEREAS, Congress enacted amendments to SMCRA in 2006 to address, among 
        other things, continued collection of AML fees and funding for 
        State programs to address existing and future AML reclamation; 
        and
WHEREAS, the 2006 Amendments established new, strict criteria that 
        ensure States expend funds on high-priority AML sites; and
WHEREAS, the proposed 2012 budget for the Office of Surface Mining 
        Reclamation and Enforcement within the U.S. Department of the 
        Interior would disregard the State-Federal partnership 
        established under SMCRA and renege on the funding formula under 
        the 2006 Amendments by, among other things, eliminating 
        mandatory funding for States who have certified the completion 
        of their coal reclamation work and adjusting the mechanism by 
        which noncertified States receive their mandatory funding 
        through a competitive bidding process; and
WHEREAS, if statutory changes are approved by Congress as suggested by 
        the proposed fiscal year 2012 budget for OSM, reclamation of 
        abandoned mine lands within certified States would halt; 
        reclamation of abandoned mine lands in all States would be 
        jeopardized; employment of contractors, suppliers, technicians 
        and others currently engaged in the reclamation of abandoned 
        mine lands would be endangered; the cleanup of polluted lands 
        and waters across the United States would be threatened by 
        failing to fund reclamation of abandoned mine lands; minimum 
        program State funding would be usurped; the AML water supply 
        replacement program would be terminated, leaving coalfield 
        citizens without potable water; and the intent of Congress as 
        contained in the 2006 Amendments to SMCRA would be undermined

NOW THEREFORE BE IT RESOLVED:

That the Interstate Mining Compact Commission opposes the legislative 
proposal terminating funding for certified States and altering the 
receipt of mandatory AML funding for noncertified States contained in 
the fiscal year 2012 budget proposal for the Office of Surface Mining 
Reclamation and Enforcement and instead supports the AML funding 
mechanism contained in current law.

                                   Issued this 10th day of March, 2011

                                   ATTEST:

                                   Gregory E. Conrad,
                                   Executive Director.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony for the record concerning appropriations for fiscal 
year 2013 for various agencies and programs under the jurisdiction of 
the subcommittee. The League is a national, nonprofit organization with 
more than 39,000 members and 250 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the Departments of Agriculture and theInterior, Fish 
and Wildlife Service, U.S. Geological Survey, and Environmental 
Protection Agency.
Keep Fiscal Year 2013 Bill Free of Extraneous Policy Provisions
    This year, the American people will be celebrating the 40th 
anniversary of passage of the Clean Water Act. With this in mind, the 
League strongly urges the subcommittee not to accept any provision in 
its fiscal year 2013 bill barring the Environmental Protection Agency 
(EPA) from finalizing and implementing Clean Water Act guidance or 
proceeding with the formal rulemaking process to revise its clean water 
regulations. Our organization and other hunting, angling and 
conservation groups across the country actively opposed a similar 
provision advanced by the U.S. House in its fiscal year 2012 bill.
    Since proposing draft guidance last spring, EPA has conducted a 
nearly unprecedented public engagement process for agency guidance. 
During this process, EPA and the Army Corps of Engineers held a 90-day 
public comment period. The agencies received more than 230,000 comments 
and have publicly stated that 90 percent of individual comments 
supported the proposal. In mid-February 2012, the Corps and EPA 
submitted revised guidance to the Office of Management and Budget (OMB) 
for another round of inter-agency review. This process also allows 
nongovernmental organizations to meet with OMB to discuss this policy.
    Guidance proposed by EPA and the Corps is based on sound science 
and clearly complies with the Supreme Court decisions in SWANCC and 
Rapanos. Allowing EPA to proceed with guidance will partially restore 
protections for streams flowing to public drinking water supplies for 
117 million Americans. It will also begin--but only begin--to restore 
protections for some wetlands. Healthy wetlands provide essential 
habitat for waterfowl, fish, and other wildlife, offer cost-effective 
flood protection, and improve water quality. They also support hunting, 
angling, and wildlife watching, which together inject $122 billion 
annually into our economy. Finalizing the guidance will also provide 
more clarity and certainty about Clean Water Act implementation to 
landowners, developers, agency personnel, and State and local 
governments.
Departments of Agriculture and the Interior, Land and Water 
        Conservation Fund
    The League supports providing $450 million for the LWCF in fiscal 
year 2013 as requested by the administration. It is important to begin 
to reinvest in strategic land acquisition to protect critical habitat, 
secure valuable in-holdings, and expand recreational access to existing 
Federal public lands. Dramatically reducing funding for LWCF will not 
provide meaningful savings to taxpayers because it is capitalized with 
revenue from offshore oil and gas drilling. As importantly, diverting 
resources from LWCF to offset other expenditures from the general 
treasury directly undermines the fundamental premise on which LWCF is 
based. That common sense premise is a portion of the revenue generated 
by natural resource extraction should be invested in conserving other 
natural resources at the national, regional, and State levels.
    In addition to supporting the overall request, the League backs 
proposals by the Bureau of Land Management (BLM) and USDA Forest 
Service to allocate $2.5 million and $5 million, respectively, to 
projects which expand recreational access to existing public lands 
through easements or acquisition from willing sellers. The League and 
many other national hunting, angling, and conservation groups support 
legislation in the Congress that would achieve a similar purpose by 
annually allocating 1.5 percent of LWCF appropriations to expand 
recreational access.
Fish and Wildlife Service, National Wildlife Refuge System Operations 
        and Maintenance
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 22 wildlife, 
sporting, conservation, and scientific organizations representing 
approximately 15 million of members and supporters, in supporting the 
$495 million requested for operations and maintenance of the National 
Wildlife Refuge system.
    The League and CARE groups appreciate the importance of fiscal 
discipline and making strategic spending decisions. CARE annually 
develops an estimate of the operations and maintenance budget that is 
necessary to effectively provide visitor services and law enforcement 
and conserve and manage fish, wildlife, and habitat across the refuge 
system. CARE estimates operations and maintenance needs total $900 
million annually. Although our long-term goal is to make steady 
progress toward a budget which more accurately reflects demands on the 
ground, the fiscal year 2013 request balances fiscal responsibility 
with pressing resource conservation, visitor services, and law 
enforcement needs.
Fish and Wildlife Service, State and Tribal Wildlife Grants
    As a member of the Teaming with Wildlife Coalition, the League 
urges the subcommittee to provide at least $61 million in fiscal year 
2013 for State and Tribal Wildlife Grants. This amount equals the 
administration's request and the appropriation for the current fiscal 
year. State Wildlife Grants support proactive conservation projects 
aimed at preventing wildlife from becoming endangered. Experience shows 
that efforts to restore imperiled wildlife can be particularly 
contentious and costly when action is taken only after species are 
formally listed as threatened or endangered pursuant to the Endangered 
Species Act. State Wildlife Grants augment State and community-based 
efforts to safeguard habitat and wildlife before either reaches the 
tipping point. The Federal investment leverages significant funding 
from private, State, and local sources.
U.S. Geological Survey, Asian Carp Research and Control
    Asian carp pose a serious and potentially devastating threat to the 
long-term health of the Great Lakes. Asian carp have been steadily 
migrating north along the Mississippi River and could reach the Great 
Lakes through a system of canals that artificially connect the 
Mississippi River and Great Lakes basins. Experts warn invasive carp 
could devastate the $7 billion commercial and recreational fishery in 
the Great Lakes. In fiscal year 2013, the U.S. Geological Survey (USGS) 
requests a $3 million increase to accelerate research designed to 
detect, limit, and control carp in the Upper Mississippi River and 
Great Lakes. In the Upper Mississippi region, the research would focus 
on improving methods to detect Asian carp populations at low levels and 
identifying habitats most vulnerable to colonization. In the Great 
Lakes, research would be directed toward developing methods for oral 
delivery of fish toxicants, identifying and developing chemical 
attractants to aid in targeted removal of carp, and testing seismic 
technology as a means of restricting the passage of carp through locks 
and other navigation infrastructure.
    The League believes one of the most effective ways to safeguard the 
Great Lakes from aquatic invasive species is to restore the natural 
hydrologic separation between the Great Lakes and Mississippi River 
basins. In the mean time, we support this request, which represents a 
prudent near-term investment in invasive carp control.
U.S. Geological Survey/Environmental Protection Agency, Hydraulic 
        Fracturing Research and Analysis
    The League supports requests by the USGS and Environmental 
Protection Agency (EPA) for funding to continue and augment research 
concerning the potential effects of high-volume hydraulic fracturing on 
water and air quality, surface and groundwater resources, habitat, and 
fish and wildlife. The League supports responsible development of 
domestic energy resources, including natural gas, as well as greater 
emphasis on renewable sources and energy efficiency in order to improve 
energy independence and security. At the same time, the accelerated use 
of hydraulic fracturing in the Marcellus region, in particular, 
continues to outpace our knowledge about potential negative impacts on 
a wide range of natural resources.
    The proposed budget would augment research across a range of 
issues. For example, the USGS requests approximately $18.6 million for 
fracturing-related research. With this funding, USGS would prioritize 
research on water quality and supply, air quality, characterizing gas 
resources and the related geologic formations, movement of methane gas 
during the drilling process, and the impacts of fracturing on 
landscapes, habitat, and other natural resources. EPA is requesting 
approximately $14 million in fiscal year 2013 for research in this 
area. This will support an ongoing EPA study assessing the impacts of 
hydraulic fracturing on water resources and other applied research in 
cooperation with USGS and the Department of Energy.
Environmental Protection Agency, Great Lakes Restoration Initiative
    The League supports providing $300 million as requested for the 
Great Lakes Restoration Initiative. The Great Lakes provide drinking 
water to 35 million people and support jobs and recreational 
opportunities for millions more. However, the health of the Great Lakes 
is seriously threatened by untreated sewage, toxic pollution, invasive 
species, and habitat loss. The eight States that border the Lakes and 
many nongovernmental organizations have invested significant resources 
to safeguard these national treasures. Sustained Federal investment at 
a significant level is also needed or the problems will only get worse 
and cost even more to fix.
    Cleaning up the Great Lakes will provide many benefits, including 
economic development in the region. According to the Brookings 
Institution, Great Lakes restoration efforts produce $2 in economic 
return for every $1 invested. Restoration projects create jobs for 
engineers, landscape architects, and construction workers and improve 
water quality, support outdoor recreation, and reestablish healthy fish 
and wildlife habitat. These results lay the foundation for long-term 
prosperity in the region.
Environmental Protection Agency, Nonpoint Source Management Program 
        (Clean Water Act Section 319)
    The League is concerned that the Congress and EPA have reduced 
funding for section 319, the Non-point Source Management Program. These 
reductions are counterproductive as EPA and many States report that 
nonpoint source pollution is the leading cause of water quality 
problems, including harmful effects on drinking water supplies, 
recreation, fisheries and wildlife. Based on the pressing nature of the 
problem, it makes sense to invest resources that help States and local 
governments more aggressively tackle nonpoint source pollution. The 
League urges the subcommittee to provide at least the amount requested 
by EPA for section 319.
Environmental Protection Agency, Chesapeake Bay Program
    The League supports the administration's request for approximately 
$72.6 million in fiscal year 2013 for the Chesapeake Bay Program. The 
Chesapeake Bay is the largest estuary in the United States and one of 
the largest in the world. More than 16 million people live within the 
Bay watershed. The Bay is a critical economic, environmental, and 
recreational resource for these residents and the Nation as a whole. 
However, the productivity and health of this nationally significant 
resource remain seriously impaired by nutrient pollution from multiple 
sources throughout the watershed.
    The EPA and States have launched a significant and rigorous effort 
to cut pollution and improve water quality. Few would argue that 
implementing the total maximum daily load (TMDL) will not be 
challenging or not require significant investment to reduce point and 
non-point source pollution. However, EPA is requesting additional 
funds, in part, to support States, local governments, and other 
partners as they begin implementing the TMDL. The League believes it is 
essential to provide technical and financial assistance to achieve 
results on-the-ground and lay the foundation for sustained pollution 
reductions over the long-term.
    The Izaak Walton League appreciates the opportunity to testify 
about these important issues.
                                 ______
                                 
 Prepared Statement of the Jamestown S'Klallam Tribe, Washington State

    On behalf of the Jamestown S'Klallam Tribe, we are pleased to 
submit this written testimony on our funding priorities and requests 
for the fiscal year 2013 Bureau of Indian Affairs (BIA) and Indian 
Health Service (IHS) budgets. While we recognize that the Congress 
faces unusually difficult funding decisions this year, funding for 
tribal programs and services must be a priority in the Federal budget 
if the United States is to fulfill its trust obligation and live up to 
the promises made to American Indian/Alaska Native (AI/AN) tribal 
governments.
    Congressional support of our proposed funding initiatives will 
promote efficiency and accountability, strengthen reservation and 
surrounding local economies, and affirm tribal sovereignty and Self-
Governance. We have long appreciated this subcommittee's support of our 
funding requests and are pleased to submit the following 
recommendations and requests:
Tribal-Specific Appropriation Priorities
    $495,000 land purchase for Tamanowas Rock Sanctuary Project.
    $200,000 increase to BIA tribal base budget for fish & wildlife 
management.
Local/Regional Requests and Recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
National Requests and Recommendations
            Bureau of Indian Affairs Requests
    Provide $89 million increase for tribal priority allocations.
    Provide $8.8 million increase for BIA contract support cost (CSC).
    Provide $13.7 million increase for fixed costs/pay costs.
    Restoration and increase funding for Indian Loan Guarantee Program.
    Establishment and funding for a Surety Bonding Guarantee Program.
            Indian Health Service Requests
    Hold Harmless Indian Health Programs.
    Provide $99.4 million increase more than President's fiscal year 
2013 budget to fully fund contract support costs.
    Provide $304 million increase to fund mandatory costs for current 
services.
    Provide $45 million increase for the Indian Health Care Improvement 
Fund.
    The leadership of the Jamestown S'Klallam Tribe remains actively 
involved in both the National Congress of American Indians (NCAI) and 
the National Indian Health Board (NIHB) and we are extremely supportive 
of their requests.
Tribal-Specific Appropriation Justification
            $495,000 Land Purchase for Tamanowas Rock Sanctuary Project
    The purpose of the project is to preserve tribal cultural and 
ceremonial access to an important archaeological site of the S'Klallam 
American Indian people. Tamanowas Rock, located in Eastern Jefferson 
County on the Olympic Peninsula of Washington State, is of great 
cultural and spiritual significance to the tribes in the region, and 
also holds special significance for the local non-Indian community. As 
a geological formation, the estimated age of the Rock is 43 million 
years. More importantly, the oral history associated with the Rock 
among the local tribes includes the era of the mastodons (extinct for 
8,000 years), when it was used as a perch by tribal hunters and a story 
of a great flood (assumed to be a tsunami from around 3,000 years ago) 
when people tied themselves to the Rock to avoid being swept away.
    In 1976, the Rock was listed in the Washington Heritage Register as 
having significant archaeological interest. The tribes, Washington 
State Parks, and local community have been working for more than 13 
years to try to protect the Rock from development. In February 2005, 
the Jamestown S'Klallam Tribe, acting on behalf of all the S'Klallam 
Tribes, obtained loans to purchase a 20-acre parcel and a group of 
platted properties totaling 66.32 acres (if dedicated roads are 
vacated, the acreage is closer to 100 acres for the platted 
properties). This property was in imminent threat of development in the 
vicinity of the Rock. We are taking the lead to seek funds to purchase 
the land and the remaining 80 acres directly surrounding Tamanowas 
Rock, all of which would be protected in perpetuity.
            $200,000 Increase to Bureau of Indian Affairs Tribal Base 
                    Budget for Fish and Wildlife Management
    Jamestown S'Klallam Tribe is one of four tribes that signed the 
Point No Point Treaty with the U.S. Government in 1855. The U.S. 
Government formally recognized Jamestown in 1981. By then, the BIA was 
contracting with tribes to provide fisheries management services. The 
Point No Point Treaty Council (PNPTC) was serving as the fisheries 
management agency for the other Klallam and Skokomish Tribes. Rather 
than redistribute the funding pie, Jamestown received a smaller portion 
for fisheries management in relation to the other three tribes. Even 
with Self-Governance, the BIA continues to distribute contracted funds 
based on funding history, thus Jamestown receives a significantly 
smaller portion of the PNPTC base funding than the other three tribes. 
The Jamestown S'Klallam Tribe is nonetheless required to meet the basic 
fisheries and wildlife management responsibilities of United States v. 
Washington including planning, negotiation, regulation, technical 
expertise and enforcement.
    In addition to meeting our own responsibilities under United States 
v. Washington, our tribal staff regularly perform the essential 
fisheries management duties that other governmental jurisdictions are 
charged with but either do not administer or administer poorly. As a 
result, Treaty tribes are assuming responsibility for observing, 
documenting and urging the agencies with regulatory responsibilities to 
act in order to preserve critical fish habitat and protect dwindling 
fish species from further decline. Development pressures along streams 
and rivers have increased the need for local government monitoring and 
enforcement of shoreline regulations; however, local and State funding 
shortfalls have contributed to the decline in biologists and 
environmental enforcement officers. Our immediate concerns are that as 
State and local governments cut back on their capacity to carry out and 
enforce these obligations, our Treaty rights are further imperiled. The 
$200,000 increase to our fiscal year 2012 Self-Governance base is 
needed to implement these essential treaty fish and wildlife management 
services.
National Requests and Priorities
            Bureau of Indian Affairs Requests
    The President has committed to support and advance Tribal Self-
Determination and Self-Governance for the Nation's 567 federally 
recognized tribes. Consistent with that commitment, the fiscal year 
2012 budget should include the following critical increases:
      Tribal Priority Allocation General Increase--Provide $89 million 
        (10-percent increase more than fiscal year 2012 enacted).--TPA 
        is one of the most important funding areas for tribal 
        governments. Tribes use these funds to administer social 
        service programs for our tribal communities including, critical 
        services such as law enforcement, education, transportation, 
        natural resources and economic development. This funding has 
        steadily eroded due to inflation and population growth. We urge 
        you to adequately fund TPA to enhance the health and well-being 
        of tribal reservations and the surrounding non-Native 
        communities.
      Contract Support Costs--Provide $8.8 Million Increase as Included 
        in the President's Fiscal Year 2013 Budget Request for BIA to 
        Fully Fund Contract Support Cost.--The Indian Self-
        Determination and Education Assistance Act of 1975, (Public Law 
        93-638) allowed Indian tribes to manage Federal trust programs 
        for the benefit of their citizens that would otherwise be 
        administered by the U.S. Government. Under Self-Determination 
        contracts or Self-Governance compacts, tribes administer a vast 
        array of governmental services, including healthcare, law 
        enforcement services, education, housing, land and natural 
        resource management, as well as many other vital social service 
        programs. The greatest impediment to the successful 
        administration of these trust programs is the failure on the 
        part of the U.S. Government to fully fund contract support 
        costs.
      Fixed Costs/Pay Costs--Provide $13.7 Million Increase.--Most 
        Federal agencies receive adjustments to their fixed cost rates 
        each year to cover inflationary costs associated with fringe 
        benefits and pay costs. Tribes have never received similar 
        adjustments to account for these costs.
      Indian Loan Guarantee Program--Restoration and Increase 
        Funding.--The Bureau of Indian Affairs (BIA) loan guarantee 
        program is vital to tribes because it creates jobs, provides 
        new sources of revenue to tribal communities, and critical 
        support in advancing economic development in Indian Country. 
        Part of the rationale to cut back this program is that the 
        program could be duplicating other services, such as SBA loan 
        programs. This assumption is wrong and will undermine the 
        tribes economic development efforts.
      Surety Bonding--Establishment and funding of a Surety Bonding 
        Program.--There has long been a need for a Surety Bonding 
        program for Indian Country. The traditional bonding industry--
        uncomfortable and unfamiliar with sovereign tribes--requires 
        excessive waivers of sovereign immunity to issue surety bonds 
        for our companies requiring these bonds. This industry 
        impediment clearly suppresses our business opportunities.
            Indian Health Service Requests
    Our tribe strongly encourages the following:
      Hold Harmless.--Hold Indian health programs harmless and protect 
        prior year and proposed fiscal year 2012 and fiscal year 2013 
        increases from budget roll-backs, freezes, and rescissions. We 
        are encouraged by the increased investments in Indian health we 
        are equally concerned that efforts by the Congress and the 
        administration to reduce the overall size of the Federal budget 
        may jeopardize the recent progress.
      Contract Support Costs)--Provide $145 Million for IHS to Fully 
        Fund CSC, Including Direct CSC.--Tribal healthcare systems have 
        proven successful in providing quality, culturally appropriate 
        services to their citizens. However, the success of the program 
        will not be realized, without adequate CSC funding to support 
        these efforts.
      Fund Mandatory Costs--$400 million.--Mandatory costs include 
        adjustments for inflation, pay costs, staffing for new 
        facilities and population increases. Failing to fund these 
        mandatory requirements forces the tribes to cut vital 
        healthcare services.
      Fund the Indian Health Care Improvement Fund--$45 million.--The 
        purpose of the Indian Health Care Improvement Fund is to ensure 
        the equitable provision of healthcare services to Indian 
        people. The fiscal year 2010 $45 million appropriation brought 
        all operating units within the IHS to a 45-percent Level of 
        Need Funded (LNF). We are requesting $45 million in 2013 to 
        further decrease the disparity.
    In closing, thank you for this opportunity to provide this written 
testimony.
                                 ______
                                 
Prepared Statement of the Kern County Valley Floor Habitat Conservation 
                 Plan Industry and Government Coalition

    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior, Environment, and Related Agencies appropriations bill for 
fiscal year 2013.
    First, the Coalition supports the President's budget request for 
the Department of the Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for HCP land acquisition.
    Second, the Coalition urges the subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to complete 
and implement the KCVFHCP. The County's local oil and gas production 
industry and Water Districts have contributed more than $573,500 to the 
development of this program. In 1997, the U.S. Fish and Wildlife 
Service allocated $500,000 of Federal Endangered Species Act section 6 
funds to assist in program implementation (land acquisition and 
endowment). The California State Government has authorized $1 million 
to augment the Federal funds. In order to secure the $3 million total 
necessary to assist in the implementation of the plan, we will require 
$1 million for fiscal year 2013 and $500,000 for fiscal year 2014.
    The Coalition requests that the subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and need support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance and management efforts and other economic 
pursuits that are occurring. Since Kern County is the top oil producing 
county in the Nation and experiencing continued growth, potential 
conflicts with the ESA and their resolution through a proactive 
conservation program has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and Federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, water conveyance and other economic 
pursuits to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State and local government agencies, as well as the oil and 
gas industry, water interests, utilities, and environmental groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the Nation encompassing more than 3,110 square miles. 
The program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it will utilize an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of preparation. The HCP document is completed. An environmental impact 
statement is being prepared for public review in the near future. Final 
approval will occur in 2013.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. This program will be completed in 2013, provided there is 
the necessary Federal funding for the acquisition of habitat to 
mitigate for oil and gas operations and development. Additional funding 
is critical to completing the HCP. This is one of the final steps 
necessary to implement the conservation strategy. Because of the 
extensive private, local and State government financial support that 
went into the development of this program, Federal participation in 
program implementation will demonstrate that the burden of ESA 
compliance is not being placed exclusively on private property owners. 
Program funding will also contribute to eventual species recovery.

                         PROGRAM FUNDING NEEDS

    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first 2 years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.
Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which, in turn, will encourage the owners 
of such properties to offer lands for the benefit of species 
conservation. Protected species of plants and animals will benefit from 
a program that promotes private property owners to conserve permanent 
habitat preserves consistent with the objectives of the ESA.
Water District Activity Issue
    A Water District Strategy is included in the program to address 
Covered Species protection due to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The Covered Species will benefit from reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.
Federal Funding Support Will Augment Local Government and Private 
        Industry Efforts To Comply With the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and other development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
subcommittee's consideration of this request for a fiscal year 2013 
appropriation to support implementation of this significant program.
                                 ______
                                 
        Prepared Statement of the Kodiak Area Native Association

    My name is Andy Teuber and I am the President and CEO of the Kodiak 
Area Native Association (KANA) in Kodiak, Alaska. KANA is a 501(c)(3) 
nonprofit tribal organization formed in 1966 to provide health and 
social services for Alaska Natives of the Koniag region. KANA provides 
these services on behalf of the United States Government through 
contracts with the Indian Health Service (IHS) and with the Bureau of 
Indian Affairs (BIA). I am submitting this testimony on behalf of the 
Kodiak Area Native Association, which experienced contract support cost 
shortfalls but has been denied its day in court, due to no fault of its 
own. On behalf of this tribal organization, I request that the 
Committee include language which would deem its claims to have been 
timely filed so that it can finally have its day in court. The language 
would not guarantee any outcome on the claims, and would only assure 
that the tribal organization is permitted to bring them.
    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    We are very thankful for the increases in CSC that this Committee 
has been able to provide, beginning with fiscal year 2010, particularly 
the large increase that tribes and tribal organizations received last 
year thanks to the efforts of this subcommittee. Although these 
increases have gone a long way toward helping to diminish the CSC 
shortfall, a significant CSC shortfall remains.
    The best projections available show that the CSC shortfall for 
fiscal year 2012 will be approximately $60 million, and that the 
shortfall in fiscal year 2013 will be nearly $99 million. Given these 
significant shortfalls, IHS's request for only a $5 million increase in 
CSC for fiscal year 2013 is extremely disappointing. Our disappointment 
is particularly acute when we consider that the BIA has requested full 
CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
more than $130 million. During that period, as our fixed costs 
increased every year, all major tribal health programs in Alaska were 
forced to lay off staff due to lack of funds.
    KANA respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing $571 million for IHS CSC reimbursements in 
fiscal year 2013.
    I appreciate your consideration of our recommendation for 
additional CSC funding to improve the level, quality and accessibility 
of desperately needed health services for AI/ANs whose healthcare 
status continues to lag far behind other populations in Alaska and in 
this Nation.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    My name is Tom Maulson, I am President of the Lac du Flambeau Band 
of Lake Superior Chippewa Indians, located in Wisconsin. I am pleased 
to submit this testimony, which reflects the needs and concerns of our 
tribal members for the upcoming fiscal year 2013. I would especially 
like to thank the subcommittee for its leadership and commitment to 
tribes and the programs that are critical to our operations.
    This subcommittee's support of tribal programs demonstrates the 
very best of the Congress and our Nation's leaders. Today, I am going 
to discuss the funding needs of several programs vital to tribes, 
including tribal EPA funding, the BIA Natural Resource Programs and 
Indian Health Service funding.

                ENVIRONMENTAL PROTECTION AGENCY PROGRAMS

    Tribal General Assistance Program.--The tribe strongly supports the 
proposed $28 million increase for the Tribal General Assistance Program 
(Tribal GAP). The Tribal GAP program provides base environmental 
funding to assist tribes in the building of their environmental 
capacity to assess environmental conditions, utilize available data and 
build their environmental programs to meet their needs. According to 
the EPA's budget justification, this level of funding would increase 
the funding amounts available to eligible tribes by 40 percent, which 
is the first base increase these programs have received since 1999. 
This increased funding will help reduce staff turnover rates and 
enhance long-term sustainability of tribal environmental programs. This 
funding is critical for tribes in the Great Lakes as our region begins 
to examine resource extraction issues, in particular mining. While we 
understand the need for job creation, we believe any action must be 
done in a way that does not destroy our natural resources, which are 
the basic foundation of our way of life and economies today.
    Great Lakes National Program Office.--We want to express our 
continuing support for the Great Lakes Restoration Initiative (GLRI) 
and in particular, the $3 million tribal set-aside. As the subcommittee 
knows, the Great Lakes represent three-quarters of the world's supply 
of fresh water. But for us, the indigenous people of Wisconsin, the 
Great Lakes represent the life blood of our economies and our culture. 
The protection and preservation of the Great Lakes is necessary to the 
protection and preservation of the tribal communities that have made 
the Great Lakes their home since time immemorial.
    The Tribal GLRI funding has allowed the Lac du Flambeau Tribal 
Natural Resource Program to conduct a comprehensive bird survey and 
establish an inventory of current and past wild rice beds. This data 
will be used to draft restoration plans. The tribe also purchased a 
Marsh Master. This all-terrain vehicle allows us to implement our Fire 
Management Plan on the 8,000-acre Powell Marsh, a critical Reservation 
wetland habitat area for wildlife and waterfowl, and to establish and 
restore other important wildlife areas.
    Clean Water Program.--The Clean Water Program provides grants to 
tribes under section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems. The Lac du Flambeau Clean Water program 
monitors, maintains and improves water quality for the tremendous 
amount of surface and ground water within the exterior boundaries of 
our Reservation. According to the 2010 census, the Lac du Flambeau 
Reservation includes nearly one-half of all of the water area (56.34 
square miles) within the Wisconsin Indian Reservations. The tribe's GIS 
Program indicates that there are 260 lakes covering 17,897 acres, 71 
miles of streams, and 24,000 acres of wetlands within the Reservation. 
Surface waters cover nearly one-half of the Lac du Flambeau 
Reservation. Funding to maintain clean waters on our Reservation has 
already decreased below the minimum required to maintain our program. 
We ask the subcommittee to protect funding for this program that is so 
important to the health of our communities.

                        BUREAU OF INDIAN AFFAIRS

    While the tribe is disappointed that the BIA's proposed budget for 
fiscal year 2013 is essentially level funding for most programs, the 
tribe recognizes the difficult fiscal times the Nation is in and thus, 
the tribe is pleased that the BIA did not propose decreases to many of 
the BIA's programs. In particular, we are pleased that the BIA 
maintained funding for critical welfare and education programs. The 
tribe is concerned that the BIA has proposed an administrative 
streamlining initiative (including offering incentives for early 
retirements) to achieve cost savings. We are fearful that if these cost 
savings are not achieved that there will be a reduction across the 
board in program funding. Thus, we urge the subcommittee to be mindful 
of this and require the BIA to regularly report its progress in 
achieving this initiative's goals.
    Today, we want to particularly focus on the funding needs for the 
BIA Education and Natural Resource Programs.
    Tribal Education Programs.--Education is a top priority for the Lac 
du Flambeau Band. We believe that it is through investment in education 
that we will be able to restore stability to our Nation's economy. In 
particular, to continue the progress Indian Country has made in 
participation and control of education programs and schools, it is 
imperative that funding for tribal higher education programs be 
increased.
    Thus, we support the budget's proposed small increases for the BIA 
scholarship and adult education program and for the BIA Special Higher 
Education Scholarships (SHEP) program. This funding supports Indian 
students working for higher education and advanced degrees. Tribal 
communities have made great strides in educating their youth. Those 
strides are evident in the fact that more Indian students are attending 
and graduating from colleges and other post-secondary institutions. 
However, tribal communities must continue to evolve with other 
communities. The national and global economy has changed--students must 
earn college and graduate degrees to remain competitive. After making 
progress in Indian education, Indian students cannot be allowed to fall 
behind again because of lack of access to higher education programs.
    Tribal Natural Resource Departments.--Tribes are leaders in natural 
resource protection and BIA natural resource funding is essential to 
maintain our programs. Lac du Flambeau has a comprehensive Natural 
Resources Department and dedicated staff with considerable expertise in 
natural resource and land management. Our activities include raising 
fish for stocking, conservation law enforcement, collecting data on 
water and air quality, developing well head protection plans, wildlife 
habitat protection and enhancement, conducting wildlife surveys and 
administering timber stand improvement projects on our 86,000-acre 
reservation.
    We would like to remind the Congress that, in addition to being 
important cultural and environmental resources for current and future 
generations, natural resources provide many tribes and surrounding 
communities with commercial and economic opportunities. Whether tribes 
use those resources to sell licenses for hunting or recreational 
fishing, or operate subsistence fisheries, these resources often 
provide much needed hunting and fishing resources for families and 
tribes. As you all know, each and every economic and subsistence 
opportunity today is invaluable, and should not be taken lightly. To 
ensure that these opportunities continue, these resources must be 
protected.
    It is with this understanding of the importance of our natural 
resources, that the tribe strongly supports proposed increases for the 
Tribal Natural Management Development Programs, which would allow for a 
$60,000 increase to the Lac du Flambeau Program alone. This increased 
funding is the first significant increase these programs have received 
in more than a decade. This funding will allow us to improve our 
efforts to conserve and enhance the natural resources that are the very 
foundation of our way of life.
    Conservation Law Enforcement Officers.--One of the critical 
elements of our Natural Resource program is our Conservation Law 
Enforcement Officers. These officers are primarily responsible for 
enforcing hunting and fishing regulations related to the exercise of 
treaty rights, but they also have a much larger role in law 
enforcement. They are often the first to respond to emergency 
situations. These officers play an integral part in protecting our 
cultural and economic resources, as well as assisting with the most 
important role of protecting public safety.
    Thus, we urge the subcommittee to support the BIA's proposed 
$500,000 increase for Conservation Law Enforcement in the fiscal year 
2013 budget. While this funding will be divided among tribes nationwide 
and not sufficient to meet the overall need, it does represent an 
acknowledgement of the importance of tribal conservation law 
enforcement officers to the Federal law enforcement family.
    Circle of Flight: Wetlands Waterfowl Program.--We urge the 
subcommittee to support the $800,000 for the BIA Circle of Flight 
Program. This program supports tribal efforts throughout the Great 
Lakes Region to restore and preserve wetlands and waterfowl habitat 
within tribal territories. This program also gives the Great Lakes 
Region Tribes, States, USFWS, USDA, Ducks Unlimited and other private 
sector groups an opportunity to work cooperatively in projects that 
provide wetland protection, flood control, clean water, and recreation 
in the Great Lakes Region. The subcommittee's strong support of this 
program for the last two decades has resulted in tremendous successes 
in restoring wetlands and waterfowl habitat throughout the Mississippi 
Flyway.
    Great Lakes Indian Fish and Wildlife Commission.--Related to the 
tribe's natural resource needs, we would like to voice our continuing 
support for the Great Lakes Indian Fish and Wildlife Commission 
(GLIFWC). The tribe is a member of the Commission, which assists the 
tribe in protecting and implementing its treaty-guaranteed hunting, 
fishing and gathering rights. We urge the subcommittee to fully support 
the increased programmatic funding for GLIFWC. GLIFWC has played an 
invaluable role in providing science and sound management practices for 
our off-reservation resources. This role could not be filled by any 
other agency.
    Cooperative Landscape Conservation.--The tribe strongly supports 
the $1 million for the BIA's Cooperative Landscape Conservation 
initiative. This funding will allow tribal participation in activities 
intended to address climate change throughout the country, as well 
develop and implement adaption/mitigation projects. Only through 
collaborative initiatives will we address the challenges that climate 
change presents for all of us.

                         INDIAN HEALTH SERVICE

    The tribe strongly supports the testimony of both the National 
Congress of American Indians and the National Indian Health Board 
regarding the Indian Health Service's fiscal year 2013 funding needs. 
We join with them in expressing great appreciation to this subcommittee 
for your efforts to increase the funding for tribal programs in the 
face of very difficult fiscal times. Nevertheless, the level of funding 
has not kept pace with the rising cost of healthcare or with the 
population growth of our communities. Thus, we urge this subcommittee 
to continue your efforts.
    Contract Health.--We want to call particular attention to the need 
for contract healthcare funding, which is a need that is expressed to 
the subcommittee every year. This request is constant because contract 
healthcare funding is so important to the basic health and well-being 
of our communities, and is historically and continually tragically 
underfunded. Again we would like to express our appreciation to the 
subcommittee for providing increases to contract healthcare funding 
over the past couple of years. In this regard, we strongly support the 
$20 million programmatic increase for contract healthcare services 
proposed for the fiscal year 2013 budget.

                         CONTRACT SUPPORT COSTS

    We cannot commend the subcommittee enough for your efforts to fully 
fund Tribal Contract Support Costs. The last 2 years of increases have 
been unprecedented and vital to the continued success of the Indian 
self-determination policy. While we appreciate the BIA's $8.9 million 
increase for Contract Support Costs, which the Agency reports should 
fully fund this account, we are disappointed in the Indian Health 
Service's request of only $5 million. We understand that this will 
result in a $100 million shortfall for fiscal year 2013. Under the 
Indian Self-Determination Act, many tribes have assumed responsibility 
for providing core services to their members. If these services were 
provided by the Federal Government, employees would receive pay cost 
increases mandated by Federal law, but the Congress and Interior have 
historically failed to fulfill their obligation to ensure that tribes 
have the same resources to carry out these functions.
                                 ______
                                 
  Prepared Statement of the Land and Water Conservation Fund Coalition

    Mr. Chairman, Ranking Member Murkowski, and honorable members of 
the subcommittee: Thank you for the opportunity to present testimony in 
support of the Land and Water Conservation Fund (LWCF) in the fiscal 
year 2013 Interior, Environment, and related Agencies appropriations 
bill. My name is Kevin Boling, I am a resident of Coeur d'Alene, Idaho 
and owner of The Boling Company, a forestland investment company. I am 
pleased to be appearing today on behalf of the Land and Water 
Conservation Fund (LWCF) Coalition. The Coalition represents a broad 
array of groups and individuals across the country who value land 
conservation and outdoor recreation with members from ranging from 
business leaders to sportsmen to conservation organizations.
    In a career spanning thirty years, I have had the great good 
fortune to combine a personal passion for the outdoors with a career in 
forest management, planning and investment. During the two decades that 
I managed Potlatch Corporation's logging and forestry operations, I 
became aware of the challenges for private landowners in the face of 
changing land-use patterns and development pressures. Beginning in 
2002, I managed extensive timberland investments for Forest Capital 
Partners and, later, oversaw the successful closing of land and 
conservation easements sales valued at $87 million. I worked on several 
transactions funded through the Land and Water Conservation Fund and 
experienced firsthand its importance in helping communities and 
landowners work together to maintain privately owned working forests 
while protecting public values.
    I appreciate this opportunity to advocate for the Land and Water 
Conservation Fund (LWCF), America's premier Federal program to ensure 
that we all have access to the outdoors. Whether it is a local 
community park or playground, or the vast expanses of our Federal 
public lands, the Congress created the LWCF in 1964 to guarantee 
America's natural, historical and outdoor recreation heritage. In 1968, 
Congress had the wisdom to authorize an income stream of $900 million 
annually for LWCF from offshore oil and gas leasing revenues--not 
taxpayers' dollars. With an average of more than $6 billion coming in 
from offshore leasing royalties annually (and significantly more 
expected in future years), $900 million for the LWCF account is a 
reasonable conservation offset to offshore energy development. It only 
makes sense as we draw down some natural resources, that we reinvest a 
portion of the proceeds to conserve other natural resources.
    LWCF is a time-tested program with remarkable range, reaching all 
Americans. Each of us has likely visited a local or State park, trail 
or fishing access site that has benefitted from it. In total, more than 
40,000 LWCF State assistance grants have added value to every State and 
98 percent of the counties across the country. Each year, millions of 
Americans as well as international tourists visit our national parks 
and forests, hunt, fish or bird watch at our national wildlife refuges, 
or hike along our national trails. Yet, few are aware of the added 
protection that the LWCF program provides to our public lands. From 
Gettysburg to Yosemite, and countless places in between, LWCF funding 
has protected our natural, cultural, historical and recreation legacy, 
preserving our uniquely American landscapes, stories and traditions.
    Continued strategic LWCF investments in inholdings and conservation 
easements protects the asset that is our public lands, preventing 
incompatible development, creating management efficiencies, and 
enhancing access to outdoor recreation opportunities. During my tenure 
at Forest Capital, with the help of a conservation partner, we worked 
on the conveyance of 6,600 acres of Forest Capital timber holdings to 
the Siskiyou National Monument south of Medford, Oregon. This 
represented the best possible outcome to meet the management needs of 
the public agency, the financial considerations of Forest Capital, and 
the interests of the local community. From the vantage point of the 
private landowner, having a reasonable expectation that LWCF funding 
would be made available for the purchase was critical in our decision 
to invest time and manpower towards this conservation outcome at the 
Siskiyou.
    Increasingly, LWCF funding is playing an important role in 
landscape-scale protection. This doesn't involve extensive Federal 
purchases of land. Rather, open space, clean water, and wildlife 
habitat can often be preserved by partnering with private landowners to 
sustain working landscapes and keep land on the tax rolls. Conservation 
easements purchases allow ranchers and farmers to remain responsible 
land stewards, as they have for generations. Today, LWCF funding is 
needed to protect working lands from the Everglades Headwaters to the 
Dakota Grasslands to the Rocky Mountain Front. These projects--stunning 
in scale and impact to local communities and traditional landscapes--
are relatively small and strategic in terms of Federal investment.
    In my home State of Idaho, LWCF funding has contributed 
substantially to the conservation of working farms and ranches along 
the South Fork of the Snake River. Over the last decade and a half, a 
unique partnership of landowners, local communities, conservation 
partners, and Federal agencies has resulted in the permanent protection 
of what the U.S. Fish and Wildlife Service has dubbed one of our 
country's most sensitive and unique natural areas. Today, this 
continuous corridor of conservation easement-protected lands is keeping 
the ranching traditional alive. With 350 recreational visitor days per 
year along the South Fork Snake, it is also providing a major economic 
driver in East Idaho.
    The Forest Legacy Program, funded under LWCF since 2004, has 
partnered with States and private landowners to protect more than 2 
million acres of working forests in 42 States and the Commonwealth of 
Puerto Rico. Even during tough economic times, with presumably fewer 
private buyers out there, the reality is that these properties are 
still worth more to a second-home or subdivision developer than today's 
forest investor is willing or able to invest in them on a long-term 
basis. Through the purchase of development rights today, the timberland 
owner is no longer held hostage to future development considerations. 
They can focus on the full measure of long-term forest management 
opportunities and protect conservation values, while continuing to pay 
property taxes, produce logs for local mills and, importantly, preserve 
private sector jobs for rural communities.
    One such example is the McArthur Lake Corridor in northern Idaho. 
Several years ago, while a manager at Forest Capital, I oversaw the 
conveyance of development rights for 3,943 acres utilizing Forest 
Legacy funding. An important wildlife travel corridor between the 
Bitterroot and Selkirk ranges, this ownership was already surrounded by 
considerable rural residential development, so preventing further 
development was critical. This year, the State of Idaho has requested a 
Forest Legacy Program grant of $4 million to protect an additional 
6,000 acres of working forests lands across the McArthur Lake Wildlife 
Corridor. Stimson Lumber Company, the landowner, is contributing more 
than $1 million in donated land value. Stimson will continue 
sustainable timber harvest operations of approximately 2.5 million 
board feet annually supporting about 33 full-time forest products jobs 
plus another 69 full-time in other related sectors of the economy. By 
guaranteeing public access to these lands in perpetuity, the easement 
will also help to support numerous local businesses that are part of 
Idaho's outdoor recreation economy--which statewide supports 37,000 
jobs and accounts for more than $2 billion annually in retail sales and 
services This is a win-win that maintains vital timber industry jobs 
and production while supporting the local tourism and recreation 
economy.
    If we are serious about creating jobs and getting the economy back 
on track, conservation spending on LWCF is not only a wise, but an 
essential investment. Today, outdoor recreation and tourism represent a 
major part of the U.S. economy, one that America still dominates 
globally, and one that represents opportunities for sustained economic 
growth in rural and urban communities across America. A recent report 
from the National Fish and Wildlife Foundation tells us that, together, 
outdoor recreation, natural resource preservation and historic 
preservation activities support 9.4 million jobs (1 out of every 15 
jobs in the United States) and contributes $1.06 trillion annually to 
our economy. The popularity and demand for opportunities to recreate on 
public lands will only increase as our population grows and these 
natural places increase in aesthetic and economic value.
    I am an avid outdoorsman and my most treasured memories are of time 
spent in Idaho with family and friends, hunting and fishing, skiing and 
camping, and rafting our magnificent rivers. Across the country, LWCF 
purchases within federally designated areas, as well as conservation 
easements across private lands, are protecting our most threatened 
waterfowl, trout and big-game habitat. These Federal dollars often 
provide leverage for significant State, local, and private investments 
in land protection as well. Furthermore, LWCF funding can play an 
increasingly important role in making public lands public by ensuring 
that sportsmen and other outdoor enthusiasts have access to favorite 
hunting grounds, trout streams, and trails. With changing land use and 
ownership patterns, historic recreational access is being cut off or 
blocked in many areas. Strategic LWCF purchases can defuse conflicts 
with private landowners by securing permanent access. Additionally, 
they serve to connect existing public lands and create expanded parking 
and trailhead access for the public. Conservation easement acquisitions 
through the Forest Legacy Program compensate private landowners who 
have often provided voluntary public access to lands, thereby ensuring 
permanent public access to prime hunting and fishing lands.
    Mr. Chairman and members of the subcommittee, I join with the LWCF 
Coalition and many others across the Nation in urging you to support 
funding for LWCF . This year, the administration's budget request 
includes high-priority, now-or-never, willing seller projects across 
our national parks, wildlife refuges, forests and other public land. It 
makes investments in stateside LWCF grants including local parks and 
trails, and in non-Federal protection of working forests, key wildlife 
habitat, and other irreplaceable outdoor resources. It also expands 
LWCF investments in landscape conservation, hunting and fishing access, 
civil war heritage sites, and national trails. These are priorities I 
think we can all agree upon.
    We understand the severe financial constraints under which you and 
this Congress are operating. At the same time, we recognize that 
America simply cannot afford to lose the public opportunities that LWCF 
provides, or the activity it injects into the economy. It is a program 
that enables local communities and private landowners to make 
economically sound choices to protect the natural, cultural and 
recreation resources we all commonly share. I therefore respectfully 
ask that you support the administration's fiscal year 2013 
recommendation of $450 million for LWCF program. At one-half the 
authorized funding level for the program, this represents a measured 
proposal that spreads limited resources wisely across urgent and 
diverse LWCF priorities and programmatic goals.
    In closing, I thank you for your dedication and service. I can 
think of no greater legacy for my three lovely granddaughters than the 
conservation of our traditional working landscapes, and the protection 
of our recreation lands, clean waters, and wildlife heritage.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras

    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2013 funding for the National Endowment for the Arts (NEA) 
at a level of $155 million. We urge the Congress to continue supporting 
the important work of this agency, which broadens public access to the 
arts, nurtures cultural diversity, spurs the creation of new artistic 
works, and fosters a sense of cultural and historic pride, all while 
supporting countless jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of approximately 850 orchestras across North America 
runs the gamut from world-renowned symphonies to community groups, from 
summer festivals to student and youth ensembles.
    With communities throughout the Nation continuing to weather 
difficult economic conditions, the award of an intensely competitive 
NEA grant is a compelling boost to an orchestra's pursuit of funding 
from other sources. A grant from the NEA is seen as a mark of public 
value and national artistic significance, and the distinction of 
presenting these nationally recognized programs is enjoyed by 
communities large and small. In fiscal year 2011, the NEA's Grants to 
Organizations included 88 grants to orchestras, and continued funding 
for the agency will support orchestras' ability to serve the public. 
The NEA promotes creation, engagement, and learning in the arts through 
Art Works, the major support category for organizations, and the 
Challenge America: Reaching Every Community grant program--as well as 
through vital Federal/State partnerships.
    In addition to educating and engaging people of all ages, fueling 
local economies, and attracting new business development, orchestras 
unite people and cultures in a uniquely powerful way. The League is 
committed to helping our members engage with their communities, and the 
NEA plays an invaluable leadership role through its direct grants, 
strategic initiatives, and research on trends in public participation 
and workforce development.
     nea grants help orchestras educate and engage america's youth
    The Boston Youth Symphony Orchestras (BSYO), comprising 9 full-time 
administrative staff and 68 part-time artistic staff serves 
approximately 450 students every year. With an fiscal year 2012 NEA Art 
Works grant, BYSO initiated and continues to develop the Intensive 
Community Program (ICP), a nationally recognized string training 
program for underrepresented youth from Boston's inner city. BYSO 
provides ICP students with financial assistance for weekly music 
lessons, ensemble classes, instrument rental and tuition subsidy in 
BYSO orchestras. Additionally, BYSO makes more than 6,000 free tickets 
available each year to the community through partnerships and offers 
free outreach concerts directly in inner-city Boston neighborhoods, 
bringing classical music to traditionally underserved populations.
    Thanks to an NEA Art Works grant, the Eugene Symphony Orchestra, 
with 7 full-time employees and 84 part-time musicians, will be able to 
continue the Laura Avery Visiting Masters Program, an artistic 
development program for student musicians. This program is an annual 
series of artistic development activities for student musicians in 
Eugene, Springfield, and Roseburg, Oregon, which offers master classes, 
coaching sessions, lectures, and workshops by guest artists from the 
Eugene Symphony's season, which in 2012 include violinist Midori and 
pianist Adam Golka. All program activities are free and open to the 
public.
    The San Francisco Symphony Youth Orchestra (SFSYO) also received an 
NEA Art Works grant, which it will use in its Artistic Development 
Program to provide specialized training to prepare students for careers 
in music through intensive coaching, collaboration with guest artists, 
internships, mentoring, and training in chamber music, instrument care, 
and audition techniques. An annual concert series and community 
appearances reach more than 20,000 attendees each year, serving a broad 
and diverse population through free tuition for its members; free open 
rehearsals for seniors, students, and community groups; free concert 
tickets for public school instrumental music students; and ensemble 
performances at community events. The youth orchestra provides paid 
part-time apprenticeships to 4-5 students each year.
 nea funding increases public access to culturally diverse experiences
    The NEA, together with the organizations it helps support, is 
dedicated to improving public access to the arts. The experience of 
live music can serve as a conduit for disparate communities to connect 
with each other, and the Pacific Symphony, which employs 88 part-time 
musicians and 44 full-time staff, is utilizing an NEA Art Works grant 
to produce a celebration of the Persian New Year. The centerpiece is 
the world premiere of Toward a Season of Peace, a work for chorus, 
orchestra and solo soprano by the Iranian American composer Richard 
Danielpour. The Symphony is committed to building unity in the 
community through music, exploring a different facet of American music 
each year. The Nowruz celebration has sparked considerable interest 
nationally and spurred cross-cultural discourse among the orchestra's 
culturally diverse surrounding community.
    An fiscal year 2012 Challenge America grant will enable the 
Billings Symphony Orchestra and Chorale, with 4 full-time employees, 
500 volunteers, and 160 musicians, to present Classical Music/World 
Class Artists, a three-concert series that will engage Montana 
audiences in symphonic music presented by internationally acclaimed 
guest artists who have roots in Ireland, Serbia, and Mexico. Challenge 
America grants are specifically intended to support projects from 
primarily small and mid-sized arts organizations that extend the reach 
of the arts to underserved audiences. Accordingly, in addition to 
making international artistry available to the regional population of 
250,000, the Billings Symphony Orchestra and Chorale will offer master 
classes, a community concert in rural Red Lodge, and three school 
showcases in conjunction with this concert series.
    With an NEA Art Works grant, the Baltimore Symphony Orchestra (BSO) 
will establish the Orchestra Fellows Program for post-conservatory 
musicians of color. Fellows will rehearse and perform in the main BSO 
season and receive private coaching and preparation for auditions. 
Beyond the concert stage, Fellows will engage in the orchestra's after-
school and community programs, including OrchKids, the BSO Academy, and 
Rusty Musicians. The Orchestra Fellowship Program is part of the BSO's 
broader vision of inclusivity and relevance within the community that 
has marked the tenure of Music Director Marin Alsop. Among its goals, 
the Fellows Program seeks to create a welcoming destination for 
musicians of color and to increase the number of African-American 
musicians in the BSO, thus better reflecting the diversity of 
Baltimore. The BSO has 138 full-time and 318 part-time/freelance 
employees, and a volunteer force of 438.
    This May, an NEA Art Works grant will support the Milwaukee 
Symphony Orchestra's (MSO) participation in the second annual Spring 
for Music Festival at Carnegie Hall in New York. The Festival is a 
series of concerts by North American symphony and chamber orchestras 
with artistic profiles built around innovative, creative programming. 
The MSO, which employs 35 full-time staff, was selected for 
participation based on the submission of a program including works by 
Olivier Messiaen, Claude Debussy and Qigang Chen. The program's 
inspiration comes from the influence of world cultures and the 
generational teacher-student dynamic that enhances the creation and 
performance of the music.
    While many orchestras draw inspiration from the various ethnic 
cultures that make up our country, others celebrate distinctly local 
traditions and landscapes, such as the Louisiana Philharmonic Orchestra 
(LPO), which received funding from the NEA to support the concert 
Becoming American: The Musical Journey. Presented in collaboration with 
The Historic New Orleans Collection, the concert celebrated the 200th 
anniversary of Louisiana statehood by exploring the diverse classical 
music traditions of New Orleans influencing the development of jazz 
into the American tradition it has become today. The LPO, with 16 full-
time employees and 67 full-time musicians, was able to leverage its NEA 
grant to secure funding from a national foundation to webcast the 
performance to Internet audiences, resulting in more than 1,000 views 
by audience members from 41 States and 17 countries.
    Meanwhile, the Arkansas Symphony Orchestra, which employs 10 full-
time musicians, approximately 50 contracted musicians, 13 full-time 
staff and 2,436 volunteers in three community guilds across the State, 
will utilize its NEA grant for the American premiere of Michael Torke's 
Mojave Concerto for Marimba. The Mojave Desert directly inspired the 
composition, with the pulse of the marimba and accompaniment 
representing the moving panorama as one drives the interstate between 
Las Vegas and Los Angeles. In addition to the premiere, the composer 
and percussionist will spend 1 week leading education workshops and 
lectures for student musicians and community members.

          NEA FUNDING ENCOURAGES NEW WORKS AND LOCAL ARTISTRY

    NEA grants to orchestras help support the creative initiatives of 
American composers and musicians. The Bismarck-Mandan Symphony 
Orchestra, with a staff of 3 full-time employees, received its first-
ever NEA Challenge America grant for A Place in Heaven, a series of 
activities culminating in a full orchestra concert featuring 
Metropolitan Opera star and North Dakota native soprano Korliss Uecker. 
Area students will be offered a college-level master class and there 
will be an open rehearsal and presentation for students with 
disabilities in partnership with VSA North Dakota.
    A grant from the NEA will support the City of Fountains 
Celebration, presented by the Kansas City Symphony, whose 80 musicians 
and 30 full-time staff are dedicated to sharing music with audiences. 
The Celebration includes world premiere performances of Daniel 
Kellogg's Water Music, Steven Hartke's Muse of the Missouri, and Chen 
Yi's Fountains of KC, all inspired by the fountains of Kansas City. The 
project includes discussions with the composers, master classes, open 
rehearsals for students, visual media postings, and a special 
presentation about the fountains co-sponsored by the Kansas City Public 
Library.
    The Rochester Philharmonic Orchestra (RPO) also received NEA 
support to commission and premiere a new work, which will include a 
composer residency, by American composer Margaret Brouwer. The project 
includes workshops with high school and college-level composers and 
coaching at the International Viola Congress in Rochester with an 
Eastman School of Music student performing Brouwer's Viola Concerto. 
The RPO employs 58 full-time core musicians and 21 full-time 
administrative employees. In addition, nearly 900 volunteers assist the 
RPO, giving more than 22,000 hours of their time.
    NEA grants encourage orchestras to commission innovative 
compositions, bring music to underserved regions, and help educate and 
engage citizens young and old. Thank you for this opportunity to convey 
the tremendous value of NEA support for orchestras and communities 
across the Nation. The Endowment's unique ability to provide a national 
forum to promote excellence, both through high standards for artistic 
products and the highest expectation of accessibility, remains one of 
the strongest arguments for a Federal role in support of the arts. We 
urge you to support creativity and access to the arts by approving $155 
million in funding for the National Endowment for the Arts.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians

    Aaniin! (greetings) My name is Jimmie Mitchell, Director of Natural 
Resources for the Little River Band of Ottawa Indians, located in 
Manistee, Michigan. First of all, allow me to thank you for the past 
support that you have respectfully provided and also for this 
opportunity to present our testimony in support of the President's 
fiscal year 2013 budget.
    I represent the Chippewa Ottawa Resource Authority, herein referred 
to as CORA, a natural resource management coalition comprised of 5 
federally recognized Indian tribes:
  --the Bay Mills Indian Community;
  --the Grand Traverse Band of Ottawa and Chippewa Indians;
  --the Little River Band of Ottawa Indians;
  --the Little Traverse Bay Bands of Odawa Indians; and
  --the Sault Ste Marie Tribe of Chippewa Indians.
    The CORA Tribes currently manage federally protected Treaty-
reserved Rights under the BIA Rights Protection Implementation Program 
(RPI). These program funds are crucial as they greatly assist CORA and 
its member tribes with the ability effectively and responsibly uphold 
management obligations found under two separate decrees in United 
States v. Michigan:
  --the 2000 Great Lakes Consent Decree; and
  --the 2007 Inland Consent Decree.
United States v. Michigan
    The five CORA tribes are parties to the historic United States v. 
Michigan court case concerning the exercise of treaty-reserved fishing, 
hunting, trapping and gathering rights under Article 13 of the 1836 
Treaty of Washington of March 31, 1836. In Article 13 the tribes 
``stipulate[d] for the right of hunting on the lands ceded, with the 
other usual privileges of occupancy, until the land is required for 
settlement.'' The 1836 Ceded Territory covers a significant portion of 
the Northern Great Lakes surrounding Michigan and also 13.7 million 
acres of land found in the Northern Lower and Western Upper Peninsula 
of Michigan. The 1836 Ceded Territory is quite arguably the oldest 
expanse of its type remaining where Treaty Reserved Rights have been 
reserved and exercised upon, prior to its inception through to current 
times.
    In the early 1970's, tribal members sought to further expand their 
Article 13 rights by engaging in commercial fishing activities on the 
Great Lakes. The State of Michigan did not recognize the tribes' 
Article 13 rights and responded by citing, arresting and prosecuting 
tribal members. The dispute led the United States to file United States 
v. Michigan in the United States District Court for the Western 
District of Michigan, to seek an adjudication of the tribes' Article 13 
rights. Eventually, all five CORA tribes intervened in the case.
2000 Great Lakes Consent Decree
    United States v. Michigan focused initially on the tribes' fishing 
rights in the treaty-ceded waters of the Great Lakes. In a landmark 
decision in 1979, the court held that the tribes retained their 
aboriginal fishing rights in the Great Lakes. The court found 
specifically that the ``usual privileges of occupancy'' reserved in 
Article 13 included the right to fish and that the Great Lakes had not 
been required for settlement. The court has since entered two decrees 
governing the allocation and management of the Great Lakes fishery:
  --a 15-year decree entered in 1985 that expired in 2000; and
  --a subsequent 20-year decree entered in 2000 that remains in force 
        today.
    The 2000 Great Lakes consent decree was negotiated by all parties 
to the case, including the United States, the tribes and the State, and 
contains extensive provisions for the restoration, preservation and 
enhancement of Great Lakes fishery resources. In accordance with these 
provisions (and their predecessors in the 1985 decree), the tribes have 
developed programs that are necessary to protect and manage the Great 
Lakes fishery resource while continuing to exercise the tribes' 
commercial and subsistence fishing rights. These programs include the 
following elements:
  --Enactment of conservation-based regulations governing the manner 
        and means by which tribal members may exercise the right to 
        harvest resources;
  --Staffing of conservation enforcement departments;
  --Establishment of adjudicatory bodies to determine the existence of 
        violations of regulations;
  --Biological assessment of the fishery resource and conduct of 
        resource protection and enhancement programs;
  --Development of access sites for use by tribal fishermen; and
  --Development of an inter-tribal management organization to provide 
        coordination and cooperation among the tribes and with the 
        State, the United States and international organizations.
2007 Inland Consent Decree
    It was not until after the entry of the 2000 Great Lakes Consent 
Decree that the parties to United States v. Michigan addressed the 
tribes' inland hunting, fishing, trapping and gathering rights under 
Article 13 of the 1836 Treaty. After several years of litigation, 
followed by several years of negotiations, the court entered a 
permanent consent decree on November 2, 2007, that recognizes the 
continued existence of the tribes' inland Article 13 rights and defines 
the nature and extent of those rights.
    The 2007 Inland Consent Decree contains allocation and management 
provisions governing treaty-reserved hunting, fishing, trapping, and 
gathering rights throughout the expanse of the 1836 Ceded Territory. It 
is a comprehensive and complex document that resolves the final phase 
of United States v. Michigan.
    The 2007 Inland Consent Decree establishes many new obligations and 
responsibilities for the tribes. These responsibilities are heavily 
weighted toward:
  --Biological programs to protect and enhance inland natural 
        resources;
  --Establishment of appropriate regulations of member harvesting 
        activities;
  --Provision of adequate law enforcement personnel to ensure that such 
        harvesting is conducted in compliance with applicable law;
  --Provision of judicial forums for the adjudication of any alleged 
        violations; and
  --Establishment, implementation, and maintenance of joint information 
        sharing and management activities through CORA to assist in 
        inter-tribal coordination and co-management with State and 
        Federal resource managers.
    All of these obligations impose a substantial and permanent 
financial burden for the tribes to realize the full potential the 
Consent Decree is designed to provide.
    In order to meet the obligations mandated by the 2007 Inland 
Consent Decree, while providing for long-term sustainable use of the 
resources for the next seven generations, each of the tribes are 
required to establish a management capability in several core areas, 
including conservation enforcement, biological monitoring and 
assessment, tribal court, and administration. Initiation of these 
management programs necessitates adequate funding to ensure that the 
tribes can meet their obligations, which is critical to ensure the 
future viability of both the treaty right and the newly established 
2007 Inland Consent Decree.
Support for Bureau of Indian Affairs Rights Protection Implementation 
        Program in the President's Budget
    After making such landmark, long-term commitments, it is imperative 
that the tribes not be placed in a position where inadequate funding 
prohibits them from meeting their obligations, responsibilities, and 
opportunities under either the Great Lakes or Inland consent decrees. 
Adequate funding is absolutely critical to achieving the objectives and 
responsibilities described in both consent decrees.
    CORA's base funding for implementation of the Great Lakes consent 
decree has suffered congressional funding reductions in recent years, 
threatening the tribes' ability to meet consent decree obligations and 
effectively manage and self-regulate their treaty fishery. However, 
most of the proposed increase in funding for CORA is for implementation 
of the newly enacted 2007 Inland consent decree, which has not been 
provided with recurring base funding. Very little funding to implement 
the Inland consent decree has been provided since it was entered into 5 
years ago.
    CORA heralds the BIA Rights Protection Implementation Program in 
the President's budget, which provides an increase of $1.6 million in 
CORA's funding. A small portion of the requested increase will be 
provided through CORA to return the CORA tribes' funding base for the 
Great Lakes treaty fishery to fiscal year 2010 levels. The vast 
majority of the increase will provide $1.5 million to allow the 
beneficiary tribes and their members to meet their obligations under 
the 2007 Inland consent decree and to implement their treaty-reserved 
inland hunting, fishing, trapping and gathering rights. The BIA Rights 
Protection Implementation Program in the President's budget provides 
base funding for the very first time for affected tribes to meet 
Federal-court mandated responsibilities in the conservation and 
management of fish and wildlife resources.
    The CORA Tribes stand united in reminding the Congress of the 
Federal Government's trust obligations to sustain funding for tribal 
natural resource management programs. This obligation is the result of 
treaties negotiated by tribes and Federal Government, which must be 
honored and protected within the limits of available funding, including 
current limits on discretionary funding. The President's budget 
demonstrates that this can be achieved.
    CORA hopes that you will recognize the fact that the tribes, State 
of Michigan, and the United States have successfully resolved many 
difficult legal, biological, social and political problems confronting 
the Great Lakes fishery and inland resources in the 1836 ceded 
territory. With your assistance, the tribes can continue to enhance 
cooperative inter-governmental programs, build upon past collaborative 
successes and to secure and promote our shared natural resources with 
sound management structures for both tribal and nontribal users now and 
forward into future generations.
    I thank you again for providing this opportunity to convey with 
you, both the challenges we face and the opportunities the RPI funds 
assist us to accomplish as managing co-sovereigns'.
                                 ______
                                 
                 Prepared Statement of the Lummi Nation

    Thank you Mr. Chairman and distinguished subcommittee members for 
the opportunity to share with you the appropriation priorities of the 
Lummi Nation for the fiscal year 2013 budgets of the Bureau of Indian 
Affairs and the Indian Health Service.

                         BACKGROUND INFORMATION

    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest tribe in Washington State serving a 
population of more than 5,200. The Lummi Nation is a fishing Nation. We 
have drawn our physical and spiritual sustenance from the marine 
tidelands and waters for hundreds of thousands of years. Now the 
abundance of wild salmon is gone. The remaining salmon stocks do not 
support commercial fisheries. Our fishers are trying to survive from 
shellfish products. In 1999 we had 700 licensed fishers who supported 
nearly 3,000 tribal members. Today, we have about 523 remaining. This 
means that more than 200 small businesses in our community have gone 
bankrupt in the past 15 years. This is the inescapable reality the 
Lummi Nation fishers face without salmon. We were the last surviving 
society of hunters/gatherers within the contiguous United States. We 
can no longer survive in the traditional ways of our ancestors.
Lummi Specific Requests--Advisory Council on Historic Preservation
    The Role of the Advisory Council on Historic Preservation in 
Preserving Ancestral Knowledge.--We would first like to acknowledge the 
most recent revisions to section 106 that emphasize landscapes when 
dealing with locations of cultural and historical significance. 
However, we need to bring to your attention the marginalization and de-
legitimization of Native American ancestral knowledge. The question is 
not whether ancestral knowledge is meaningful to Native Americans when 
we speak of the significance of sacred landscapes. Instead, the 
question is how, for what reason, to whose benefit, at what cost, and 
by what authority Native American ways of knowing knowledge have been 
marginalized as less than true knowledge. Our ancestral knowledge must 
contend with the influences of Christian belief and its moral order as 
well as conventional education, anatomo-economic regulations of the 
capitalized workplace, bureaucratized and jural-legal as opposed to 
ancestral systems of governance, and the imperium of science that 
marginalizes through the re-representation of Native American 
traditional knowledge and ways of knowing our world. The Advisory 
Council on Historic Preservation is one of the few entities in a 
position to acknowledge our forms and frameworks of knowledge as coeval 
with those of modern science and bring a degree of justice to our 
efforts to protect not only our sacred landscapes, but also our ways of 
understanding and experiencing them.
Lummi Specific Requests--Bureau of Indian Affairs
    +$2 million--Phase 1. New Water Supply System--Increase in funding 
for Hatchery construction, operation and maintenance.--Funding will be 
directed to increase hatchery production to make up for the shortfall 
of wild salmon. +$300,000 funding for the Conservation Law Enforcement 
Officer Program to insure that Lummi Nation need for Natural Resources 
Enforcement Officers will be funded.
            Committee Directive Requests
    Bureau of Reclamation.--The Lummi Nation requests that the 
Committee directs the Bureau of Reclamation to fund Lummi Nation work 
to develop comprehensive water resources conservation and utilization 
plans that accommodates the water needs of its residents, its extensive 
fisheries resources.
    Bureau of Indian Affairs Natural Resources Branch.--Direct the BIA 
to work with Lummi Nation to ensure that its needs related to the 
removal of wild stocks from the salmon available for harvest are 
compensated through increased hatchery construction, operations and 
maintenance funding.
    Direct the DOI Office of Indian Energy, Economic and Workforce 
Development to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Water Front Project 
which addresses Indian Energy, Economic and Workforce Development needs 
of the Lummi Nation membership.
Lummi Specific Requests--Indian Health Service
    Implement ACA & IHCIA.--Direct the Department and the U.S. Indian 
Health Services to fully and completely implement the Indian Specific 
provision of the Affordable care Act and the newly re-authorized Indian 
Health Care Improvement Act.
    Wellness is the #1 Priority of the Council in 2012-13.--Lummi 
Nation requests the committee support the SAMHSA Proposed Tribal Block 
Grant to combat Drug Epidemic among the Lummi Nation membership.
    Head Start for Tribal Development.--The Lummi Nation requests the 
Committee directs BIE and DHHS, Children's Bureau support the 
construction of a new Lummi Nation head start/day care facility with 
technical and financial assistance.
    Serve Native American Veterans.--Direct the Indian Health Services 
to immediately develop and provide formal consultation between Indian 
Health Services, U.S. Veteran's Affairs and tribes on the formal 
Memorandum of Understanding for the provision of VA medical services to 
tribal veterans and their families.
Lummi Specific Requests--Bureau of Indian Affairs
    +$2 million--Phase 1. New Water Supply System-Increase in funding 
for Hatchery construction, operation and maintenance. Funding will be 
directed to increase hatchery production to make up for the shortfall 
of wild salmon.--The Lummi Nation currently operates two salmon 
hatcheries that support tribal and nontribal fishers in the region. The 
tribal hatchery facilities were originally constructed utilizing 
Federal funding from 1969-1971. Understandably most of original 
infrastructure needs to be repaired, replaced and/or modernized. Lummi 
Nation Fish Biologists estimate that these facilities are currently 
operating at 30 percent of their productive capacity. Through the 
operation of these hatcheries the tribe annually produces 1 million 
fall Chinook and 2 million Coho salmon. To increase production, we must 
pursue a ``phased approach'' that addresses our water supply system 
first. The existing system only provides 850 GPM to our hatchery. To 
increase production to a level that will sustain tribal and nontribal 
fisheries alike, we need to increase our water supply four-fold. A new 
pump station and water line will cost the tribe approximately $6 
million. We are requesting funding for the first phase of this project. 
Our goal is to increase fish returns by improving aquaculture and 
hatchery production and create a reliable, sustainable resource to 
salmon fishers by increasing enhancement.
    +$300,000 to increase the funding for the BIA Conservation Officer 
Program to support Natural Resources Law Enforcement.--The Lummi people 
rely on several commercial fisheries for their livelihood and several 
noncommercial fish, game, fowl and natural plants for ceremonial and 
subsistence purposes. There are currently three Natural Resource 
Enforcement Officers (NREOs) and one Sergeant to patrol the 1,846 
square miles of marine area and 9,145 square miles of the ceded lands. 
The Natural Resource Officers patrol a vast area, with a large amount 
of Natural Resources to protect, including:
  --shellfish;
  --salmon;
  --halibut;
  --deer;
  --elk; and
  --other protected species.
    Although Lummi Code of Laws Title 10 (Natural Resources Code) 
prohibits timber harvests without a permit, members and nonmembers 
periodically conduct timber harvests without necessary permits. 
Tideland Trespass on the Lummi tidelands is a major enforcement 
challenge. The fact that all of the Reservation tidelands are held in 
trust by the United States for the exclusive use of the Lummi Nation 
was most recently re-affirmed in United States and Lummi Nation v. 
Milner, et al. No. CV-01-00809-RBL (9th Cir. 2009). Although all of the 
Reservation tidelands are closed to persons, who are not members of the 
Lummi Nation in the absence of a lease permitting nonmember use of the 
tidelands, or use permits issued pursuant to LCL Title 13 (Tidelands 
Code), and this closure is posted at several places around the 
Reservation, nonmembers continue to regularly trespass on these 
tidelands. Although LCL Title 17 (Water Resources Protection Code) 
prohibits the withdrawal of Reservation Waters without a permit, 
nonmembers continue to drill ground water wells on the Reservation. 
Illegal dumping is a major challenge on the Reservation. Although LCL 
Title 18 (Solid Waste Control and Disposal Code) prohibits solid waste 
dumping, like many places throughout rural America, illegal dumping 
continues to occur. Currently, the Lummi NREOs are only able to 
concentrate their patrol to the major Treaty concerns of fishing, 
crabbing, and shellfish harvesting. Additional funding is necessary for 
to prosecute actual incidents.
    Direct the Bureau's Office of Indian Energy, Economic and Workforce 
Development Division to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Waterfront Project.--
Unemployment on the reservation has been very difficult to address with 
limited on-reservation jobs. Tribal governments need to be able to meet 
the employment and training needs of our membership as well as the 
business development needs of our communities. This is the objective of 
the Lummi Nation Fisherman's Cove Harbor and Working Waterfront 
Project. We need financial assistance to enable our membership to get 
the job skills the local (Reservation and Non-Reservation) labor market 
demands. We ask the Committee to direct the Bureau to work with the 
Lummi Nation to fully develop the Working Waterfront Project for the 
benefit of the Lummi Nation fishers, members, and others invested in 
the marine economy of the extreme northwest corner of the United 
States.
Lummi Specific Requests--Indian Health Service
      Support for full and complete implementation of the Indian 
        Specific provision of the Affordable care Act and newly re-
        authorized Indian Health Care Improvement Act.--Tribes are 
        dismayed by the lack of support they have received in the 
        development and implementation of the following:
      Long-Term and Community-Based Care.--The authorization of long-
        term and community-based care tribal communities are among the 
        last to receive access to this all important health care 
        option.
      Tribal Medicaid Program Demonstration Project.--The act 
        authorizes a demonstration project to enable tribes to 
        demonstrate their ability to successfully plan, develop, 
        implement and operate Medicaid Programs for the benefit of 
        their membership.
      Healthcare Insurance Exchanges.--To support the planning 
        development, implementation, and operation of tribes as 
        providers of healthcare insurance on the same basis as State 
        are receiving this technical and financial assistance from the 
        Department.
    Lummi Nation requests the subcommittee support the SAMHSA Proposed 
Tribal Block Grant to combat Drug Epidemic among the Lummi Nation 
membership.--Wellness is the #1 Priority of the Council in 2012-13. 
Drug abuse is at epidemic proportions on the Lummi Reservation. The 
proximity of the Lummi Reservation to the U.S. and Canadian borders 
makes for a key ingredient in successful drug trafficking. With that 
prime ingredient add production, transportation, distribution, abuse 
and drug related crimes . . . this is our reality where my people are 
becoming prisoners in our own homes.
      What We Have Done.--Our people are seeking a return to health 
        through massive consumption of Lummi Nation Health Care 
        resources. We have increased the number of tribal members 
        receiving substance abuse treatment and mental health 
        counseling.
      What We Still Need.--We are not equipped to keep pace with the 
        increasing access and use of heroin and other opiate additive 
        drugs that have besieged our ports, borders, communities and 
        citizens. Lummi Nation and other tribes cannot successfully 
        compete with politically connected communities and interest 
        groups which receive the majority of the funding that is 
        available through the State block grant system. We need 
        assistance to secure funding to plan develop, construct and 
        implement, programs services and facilities needed to improve 
        health and safety in our communities.
    Head Start for Tribal Development--New Head Start Facility.--The 
Lummi Nation Requests that the Committee directs BIE and DHHS, 
Children's Bureau support the construction of a new head start/day care 
facility for the Lummi Nation membership with technical and financial 
assistance. Lummi has operated a Head Start program since 1966 in the 
same facility. Successive Head Start Performance reviews have 
consistently identified the building as not meeting Head Start 
Performance standards. The tribe is seeking gap financing in the amount 
of $1.2 million to complete the proposed new facility. These additional 
costs are generated by Head Start Performance and tribal Child Care 
Facility Standards.
    Support Formal Consultation Between Indian Health Services, U.S. 
Veteran's Affairs and Tribes on the Formal Memorandum of Understanding 
for the Provision of VA Medical Services to Tribal Veterans and Their 
Families.--Tribes have been seeking the development of relationship 
between the Veterans Administration and the Indian Health Services 
which results in simple parity of services between Indian and non-
Indian Veterans for more than a century. There is a need to insure that 
the provisions of the final agreement between the Veterans 
Administration and the Indian Health Services are consistent with 
Indian Veterans needs.
    National and Self-Governance Fiscal Year 2013 Budget Priorities.--
In general, all Bureau of Indian Affairs (BIA) and Indian Health 
Services (IHS) line items should be exempt from any budget recessions 
and discretionary funding budget reductions.
    Bureau of Indian Affairs.--Fully Fund Contract Support Costs--
Support $8.8 million increase included in fiscal year 2013 President's 
request. Tribal Priority Allocations--Provide $89 million increase. Law 
Enforcement--Full Fund all Provisions of the Tribal Law & Order Act of 
2010 that affect Indian Tribes & Increase funding for Bureau of Indian 
Affairs Law Enforcement by $30 million. Office of Self-Governance 
(OSG)--Provide increase funding to the OSG.
    Indian Health Services.--Contract Support Costs (CSC)--Provide 
increase of $99.4 million more than President's fiscal year 2013 
request to fund the CSC shortfall. Mandatory Costs--Provide $304 
million increase to for Mandatory costs to address these ongoing fiscal 
responsibilities to maintain current services. Contract Health Services 
(CHS)--Provide a $200 million increase to provide CHS. Adequate Funding 
for Implementation of the Indian Health Care Improvement Act (IHCIA). 
Office of Tribal Self-Governance--Increase $5 million to the HIS Office 
of Tribal Self-Governance.
    Hy'shqe (thank you) for the opportunity to provide these 
appropriations priorities of the Lummi Nation.
                                 ______
                                 
           Prepared Statement of Malheur Wildlife Associates

    Mr. Chairman and members of the subcommittee: On behalf of Malheur 
Wildlife Associates, the friends group for Malheur National Wildlife 
Refuge and its 110 members, we would like to thank the committee for 
their strong support of the National Wildlife Refuge System and for 
giving us the opportunity to submit testimony. We are a volunteer 
nonprofit organization whose purpose is to promote conservation, 
awareness, and appreciation of the wildlife and habitats of the Malheur 
National Wildlife Refuge and to provide assistance to Refuge 
operations. We urge you to show your continued support of the National 
Wildlife Refuge System by approving the President's fiscal year 2013 
budget request of $495 million for the operations and maintenance of 
the world's premier system of public lands and water set aside to 
conserve America's fish, wildlife, and plants. This level of funding 
will barely maintain current management capabilities. The National 
Wildlife Refuge Association estimates that refuges would need at least 
$527 million in fiscal year 2013 to maintain management capabilities 
from fiscal year 2010, and the Cooperative Alliance for Refuge 
Enhancement (CARE) estimates that the Refuge System needs at least $900 
million in annual funding to properly administer its 150 million acres 
and remains committed to aiming for this goal.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends and volunteers do 
approximately 20 percent of all work on refuges. In 2011, these 1.5 
million hours equated to roughly 8 volunteers for every 1 Refuge System 
employee. Without staff to oversee volunteers, their commitment and 
passion is lost, as is their desperately needed contribution to the 
System. We request $80 million for Visitors Services for the NWRS.
    We ask you to support $3.8 million in fiscal year 2013 for 
Challenge Cost Share (CCS). Partners are the key to successful 
conservation; no Federal or State agency can do it alone. Because of 
this, we support programs that leverage Federal dollars such as the CCS 
program. Partner organizations such as local volunteer ``Friends'' 
groups leverage these funds to give American taxpayers more bangs for 
their buck for projects like trails, education, boardwalks and habitat 
restoration. Malheur Wildlife Associates is helping Malheur NWR with 
such projects by providing matching grant funds and volunteer work 
crews.
    We also request that you fund the Land and Water Conservation Fund 
(LWCF) at $700 million. Created in 1965 and authorized at $900 million 
per year (more than $3 billion in today's dollars), the LWCF is our 
most important land and easement acquisition tool. With more than 8 
million acres still unprotected within existing refuge boundaries, and 
the need to establish key wildlife corridors and connections between 
protected areas, the LWCF is more important than ever. Also please 
support the new Collaborative Conservation requests of the Departments 
of the Interior and Agriculture, which brings together several Federal 
agencies around a common goal.
Malheur National Wildlife Refuge
    Malheur NWR is one of the largest freshwater wetland refuges in the 
Refuge System. It is considered one of the jewels of the Refuge System 
and despite its remote location, receives very high visitor use, which 
is very beneficial to both the local Harney County and Oregon economy. 
It is the most popular birding destination in the State of Oregon. A 
2004 study reported that Malheur NWR visitors spent $2.2 million. The 
net economic benefit showed an economic value of $1.62 for every $1 of 
the refuge budget. Such funding is a worthy investment in our Nation's 
economy.
    The refuge encompasses more than 187,000 acres and is critical to 
migrating and nesting waterfowl and waterbirds in the Pacific Flyway. 
It supports one of the largest nesting sandhill crane populations in 
North America and is home to many other important bird species such as 
the Greater Sage Grouse, Trumpeter Swan and American White Pelican and 
also a wide variety of other native plants and animals.
Current Challenges and Needs
    Malheur NWR wetlands have been seriously degraded by an introduced 
population of invasive common carp. Carp have destroyed much of the 
critical habitat on the Refuge, and are also affecting wetlands on 
private lands in all the tributaries to Malheur and Harney Lakes. These 
adjacent private lands have very high values for waterfowl and 
waterbirds and along with the Refuge, make up one of the most important 
wetlands complexes in North America. The refuge staff is embarking on a 
monumental effort to reduce carp impacts on wetland habitats and 
improve conditions for birds to further the Refuge's Mission. This 
effort has also resulted in a strong local partnership between Malheur 
NWR, private landowners, the Burns Paiute Tribe and State and Federal 
agencies to focus on restoring wetlands and enhancing conditions for 
wildlife on a landscape scale in Harney County.
    There is also huge maintenance backlog at Malheur NWR and much work 
is needed to properly manage the refuge. Malheur has one of the largest 
infrastructures in the National Wildlife Refuge System, with 
approximately 200 miles of public roads; 2,000 miles of waterways/
dikes; 5 dams; 1,000 water control structures; 6 automated fish 
screens; 27 administrative, 7 quarters, and 25 visitor services 
facilities; 4 historic building sites; and a large fleet of heavy/light 
vehicles and equipment. This extensive infrastructure requires a high 
degree of routine maintenance/repair to efficiently and effectively 
support the various Refuge programs and maintain tens of thousands of 
acres of wetlands, 30 miles of rivers/creeks, and 16,000 acres of 
irrigated meadow. At the current staffing level, a vast majority of 
routine maintenance and repair needs are addressed reactively. 
Additional funding is needed to proactively address the maintenance and 
repair backlog and move this Refuge forward to its full ecological 
potential and ensure biological integrity. In 2011, the deferred 
maintenance backlog for the Refuge was approximately $48 million.
            Sequestration
    Malheur Wildlife Associates is very concerned about the devastating 
impact across-the-board sequestration cuts of 9-10 percent in fiscal 
year 2013 will have on our refuges and the entire Refuge System. If 
sequestration occurs refuge management estimates there will just enough 
funds to pay salaries and utilities. The impacts will affect wildlife, 
visitors and the local Harney County economy.
    Impacts on Wildlife.--Managing the habitat will be staff's first 
goal; however management will not be as effective. Invasive carp will 
further degrade Refuge wetlands, reducing the value to waterfowl and 
other wildlife that depend on them. Important populations of waterfowl 
and waterbirds will suffer from this neglect. Refuge efforts to control 
invasive weeds will be curtailed, causing further loss of wildlife 
habitat and natural diversity, resulting in more costly control needs 
in the future. Reduced law enforcement efforts will likely lead to 
increased poaching of big game, livestock trespass, and looting of 
Refuge archeological sites.
    Impact on Visitors.--If sequestration goes into effect, refuge led 
visitor service programs will be severely reduced. Staff time for 
assisting visitors will be very restricted and access to the refuge 
will be reduced. Trails and roads that are obstructed by storm events 
will be closed. There will be no extended hours during the summer or 
weekends. Regular trail and road maintenance will be deferred. Vaulted 
toilets will be cleaned every few weeks instead of weekly and portable 
toilets will be closed.
    Friends and other volunteers will not be able to compensate for all 
of these loses. To assist with managing the habitat, volunteers need 
oversight and training, but there will be no funds to pay for the 
training. The Friends organization is willing to expand our 
interpretive programs; the challenge will be access, safety, and the 
quality of wildlife viewing.
            Opportunities To Embrace
    Malheur NWR staff has been presented a great opportunity for 
forming a ``Beyond the Boundaries'' partnership, the Harney Basin 
Wetlands Initiative. This is a collaborative partnership which includes 
the Refuge, local landowners, State and Federal agencies and the Burns 
Paiute Tribe. The goal of this initiative is to improve aquatic health 
and restore wetlands on a large scale (more than 300,000 acres of 
lands) in the Basin. Malheur Wildlife Associates is assisting with 
these efforts.
    In 2011, the National Wildlife Refuge System created a vision to 
guide the management of the System during the next decade and beyond. 
The new vision seeks to make wildlife conservation more relevant to the 
public and engage them in the National Wildlife Refuge System. Because 
of its high visitation, Malheur NWR has the opportunity to help the 
public understand the values of the National Wildlife Refuge System and 
the benefits of our wildlife heritage.
In Summary
    Wildlife Refuges matter to your constituents. In spite of its 
remote location, Malheur NWR is by far the most popular destination for 
birders in Oregon and has many fans who visit annually.
    Our members realize that our country is facing difficult economic 
times and we must all share in the challenges of the recovery. We thank 
you for the meaningful funding increases allowed the System in fiscal 
year 2008-2010 that provided stability to our refuges. We respectfully 
ask you to support the following funding allocations for the National 
Wildlife Refuge System that will allow the System to maintain existing 
management capabilities:
  --$495 million for the operations and maintenance accounts of the 
        National Wildlife Refuge System including:
    --$39 million for Refuge Law Enforcement;
    --$80 million for Visitor's Services;
    --$3.8 million for Challenge Cost Share; and
    --$37 million for the Fish and Wildlife Service construction 
            account.
    The Malheur Wildlife Associates invite all the members of this 
Subcommittee, your family, and staff to visit Malheur NWR, to see what 
a treasure the place is, watch the wildlife, enjoy the scenery and 
relax.
                                 ______
                                 
   Prepared Statement of Maine's Department of Inland Fisheries and 
                                Wildlife

    The Congress created the State Wildlife Grant (SWG) Program in 2001 
to help State and tribal fish and wildlife agencies address the unmet 
needs of fish and wildlife and associated habitats, especially species 
of greatest conservation need (SGCN). Funds appropriated under the 
State Wildlife Grants program are allocated to States according to a 
formula that takes into account each State's size and population. To 
date, Maine has received more than $6.5 million in SWG funds. Projects 
funded to date are diverse, covering many species groups, all 
geographic areas of the State, and ranging in scale from ecosystems to 
subspecies. They vary in length from 1 to 5 years, and include baseline 
surveys and inventories, research, and habitat conservation. State 
Wildlife Grant funds support 10 full-time positions within the Maine 
Department of Inland Fisheries and Wildlife (MDIFW) and have funded 
many projects that support conservation actions identified in Maine's 
Wildlife Action Plan (WAP). Here are a few examples of projects that 
State Wildlife Grant funds have supported. Other SWG-supported 
activities not described here include:
  --organizing a network of citizen-volunteers to locate and monitor 
        colony-nesting wading birds such as herons; and
  --population monitoring and public outreach for species such as 
        falcons, bats, New England cottontail rabbit, rare butterflies, 
        dragonflies, and freshwater mussels, and significant wildlife 
        habitats.
Beginning With Habitat
    Beginning with Habitat is a cooperative effort of agencies and 
organizations working together to secure Maine's outdoor legacy. The 
goal of the program is to maintain sufficient amounts of habitats to 
support all native plant and animal species currently breeding in Maine 
100 years from now. We aim to provide each Maine town with a collection 
of maps and accompanying information depicting and describing various 
habitats of statewide and national significance in the town. Beginning 
with Habitat partners then work with communities to design a landscape 
that accommodates the growth they need with the highest resource 
conservation. Beginning with Habitat is the foundation of Maine's 
Wildlife Action Plan and is a nonregulatory collaborative and 
information-based habitat conservation tool.
Seabird Outreach
    The principal objective of this project was to inform Maine 
students and the general public about seabird biology and marine 
conservation by providing insight into the lives of Maine seabirds 
(e.g., puffins and terns) through a web-based school curriculum and 
Internet access that features live-streaming video from Eastern Egg 
Rock, a State-owned 7-acre sanctuary managed by National Audubon 
Society.
Distribution and Ecology of Purple Sandpipers Wintering in Maine
    The northeast Atlantic Coast is recognized by the U.S. Shorebird 
Conservation Council as an area that is extremely important to the 
survival of wintering purple sandpipers in the Western Hemisphere. In 
fact, there is strong evidence that Maine supports a large percentage 
of the wintering population. With threats from catastrophic oil spills 
and consequent damage to shorebird habitats or shorebirds themselves, 
the Maine Department of Inland Fisheries and Wildlife identified the 
need to locate and map important purple sandpiper habitats and 
determine population abundance, distribution, and limiting factors. 
This project enabled the Department to:
  --estimate abundance and distribution of purple sandpipers in Maine;
  --assess movements and site fidelity of individuals at particular 
        sites; and
  --develop a protocol for monitoring purple sandpiper populations in 
        Maine.
Enhance Management of Piping Plovers and Least Terns
    Piping plovers and least terns are designated as endangered species 
in Maine and are known to nest on a handful of beaches in the State. To 
successfully raise young, these birds need sand beaches free from human 
disturbance and predators. This project enabled MDIFW, working in 
cooperation with Maine Audubon and local towns, to conduct the planning 
and data gathering necessary to enhance the management of piping 
plovers and least terns, including the development of cooperative beach 
management agreements with Maine municipalities.
Bald Eagle Survey and Essential Habitat
    Bald eagles continue their dramatic comeback in Maine. Presently, 
the State is home to at least 500 nesting pairs, a remarkable increase 
from the 30 nesting pairs reported in the late-1970s. Despite this 
accomplishment, our ultimate challenge is to provide suitable habitat 
for eagles in the future. Nesting eagles need mature trees and wooded 
buffers in shorelands, a niche that will always be at risk to land 
development and recreational pressures. This project devised statewide 
strategies and identified optimal sites for long-term conservation of 
bald eagle nesting habitat as the fundamental safeguard for a lasting 
recovery of the species in Maine. The delisting of the bald eagle is a 
great example of what SWG is all about. This is a tremendous story of 
conservation successful through Federal and State partnership, and we 
are striving for many more to come.
Ecoregional Surveys
    Since 1997, MDIFW and the Maine Natural Areas Program have been 
working on a systematic, statewide, 10-year survey of rare and 
endangered wildlife, plants, and natural communities. Surveys are 
designed to document new locations of rare species to better assess 
their status and distribution and design conservation strategies to 
predict potential new occurrences and promote their recovery. SWG funds 
helped support surveys in the Aroostook Hills and Lowlands (2.5 million 
acres), Eastern Lowlands (2.2 million acres), and Central and Western 
Mountains ecoregions (5 million acres). Inventories focused on high 
value habitats supporting rare, threatened, and endangered animals. 
Data gathered support voluntary land protection by large and small 
private landowners.
Canada Lynx Ecology
    The Canada lynx has long been a rare carnivore in northern and 
western Maine. Ten years ago, its status was largely unknown and was 
based on anecdotal reports or a track in the snow. SWG funds helped 
support an ongoing study of Canada lynx in Maine to:
  --determine that there is in fact a viable, self-supporting 
        population of lynx in the State;
  --document mortality factors affecting lynx;
  --identify habitats used by lynx and how they relate to distribution 
        and abundance of prey;
  --investigate how lynx distribution in Maine is affected by 
        populations of bobcats, coyotes, fishers, and fox; and
  --test the efficacy of various survey methods used to determine 
        status of lynx.
Stream Survey Databasing of Restored Aquatic Habitats
    The Maine Department of Inland Fisheries and Wildlife is enhancing 
its efforts toward managing and conserving flowing water habitats and 
their respective animal communities. Although the Department currently 
holds extensive survey information regarding these ecosystems, most 
data exist in a multitude of formats and physical locations. This 
project will compile existing stream habitat and fish community data 
into a computerized Geographic Information System (GIS) database for 
easier use, analysis, and visualization within landscapes.
Lake Habitat Inventories
    One of the primary responsibilities of the Maine Department of 
Inland Fisheries and Wildlife is to conduct habitat surveys of the 
aquatic resources in the State. These surveys include gathering data 
related to water quality, fish species composition and relative 
abundance, bathymetry, aquatic habitat types, and macroinvertebrate 
species composition. Surveys are important to present and future 
management of Maine's lakes and ponds. To date, there are roughly 3,800 
ponds that have never been inventoried by MDIFW staff and many that 
have been completed need to be updated. The purpose of this project is 
to use various fisheries techniques to collect data to properly plan 
for the future management of lacustrine habitat in Maine.
Aquatic Biodiversity Project
    Effective resource management depends on ready access to existing 
data resources and on the ability to design and implement future data 
collection efforts in a rational and cost-effective manner. This 
project enabled the Department to ensure that all priority freshwater 
fisheries data were in a format that permitted electronic mapping and 
analyses of this information.
Unique Aquatic Ecosystems
    Fishless ponds are believed to be rare in the Maine landscape. Many 
of these ponds occur in mountainous terrain where fish access is 
limited because of local topography. These sites have sometimes been 
targeted for introductions of sport fish, but they may have unique 
ecological attributes, especially for invertebrates and amphibians. 
Introduction of predatory fish could permanently alter the ecology of 
fishless ponds. This study documented the ecology of fishless ponds in 
Maine and conducted a landscape analysis to predict and evaluate the 
presence of these potentially unique natural communities.
Wildlife Park Displays
    The Maine Wildlife Park receives more than 80,000 visitors 
annually, including a large number of school children on field trips. 
These visitors come to the park to learn more about Maine's fish and 
wildlife resources and management. This project enabled the Department 
to construct a new fisheries display and to complete educational 
exhibits for moose, deer, coyote, turkeys, and turtles.
Fish and Wildlife Education
    This project provided educational materials to every fourth grade 
classroom in the State to increase students' awareness and 
understanding of fish and wildlife resources. The materials consisted 
of posters, activity guides for teachers, animal and fish guides, and 
management reports.
Wildlife Management Areas: Planning and Habitat Management for the 
        Future
    Two-thirds of MDIFW's 52 Wildlife Management Areas (WMAs) contain 
special habitats or communities that support Federal or State-listed 
threatened or endangered wildlife, species of special concern, and 
species identified of greatest conservation need. SWG funds supported 
development of a statewide WMA database, update of WMA management 
plans, development of a WMA schedule of development and maintenance 
treatments, and implementation of a schedule of habitat treatments 
across all WMAs to benefit a diversity of featured wildlife species and 
species of greatest conservation need.
An Investigation of Blanding's Turtle Road Mortality
    There is increasing emphasis on the part of Federal and State 
transportation authorities to minimize and mitigate impacts to wildlife 
passage and mortality from road construction projects. This project 
helped the Maine Departments of Inland Fisheries and Wildlife and 
Transportation identify the location and extent of road impacts on 
endangered turtles in Maine as a precursor toward designing strategic 
mitigation measures.
Status and Monitoring of Maine Owls
    MDIFW worked with Maine Audubon to evaluate the abundance and 
distribution of owls in Maine and to develop a volunteer-based 
monitoring system. Both Partners in Flight and recent initiatives 
directed at integrated bird conservation have identified monitoring of 
nocturnal birds as a high-priority research and management need in the 
northeast.
Species of Greatest Conservation Need Research and Status 
        Investigations
    Maine has identified 213 species of greatest conservation need 
(SGCN) in its Wildlife Action Plan:
  --103 birds;
  --7 herpetofauna (1 amphibian and 6 reptiles);
  --72 invertebrates;
  --12 inland fish;
  --6 nonmarine mammals; and
  --13 marine species (5 diadromous fish, 5 whales, and 3 turtles).
    For many SGCN, there is a need for financial resources to evaluate 
population dynamics and habitat relationships and use information 
gathered to support listing and de-listing proposals (State endangered, 
threatened, or special concern) and aid in conservation and management 
of these species, so that they may ultimately be de-listed.
    For more information on Maine's Wildlife Action Plan please visit 
www.mefishwildlife.com.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute

    Mr. Chairman and members of the subcommittee: Marine Conservation 
Institute, based in Bellevue, Washington, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world, and then advocate for their protection. As 
a member of the Cooperative Alliance for Refuge Enhancement (CARE), we 
support the U.S. Fish and Wildlife Service (USFWS) National Wildlife 
Refuge System (NWRS), particularly the monuments and refuges that 
conserve marine environments. I wish to thank the members of the 
Subcommittee on the Interior, Environment, and Related Agencies for the 
opportunity to submit written testimony to support the President's 
request of $494.8 million in fiscal year 2013 for the NWRS. This is an 
$8.8 million increase more than the fiscal year 2012 enacted level. 
Marine Conservation Institute recommends $3.5 million of that increase 
be allocated for the management of our Nation's unique marine 
monuments.
    President George W. Bush established four marine national monuments 
in the Pacific Ocean:
  --Papahanaumokuakea Marine National Monument;
  --Marianas Trench Marine National Monument;
  --Pacific Remote Islands Marine National Monument; and
  --Rose Atoll Marine National Monument.
    Together, these monuments protect approximately 335,348 square 
miles of marine habitat, and constitute about one-third of the entire 
Refuge System. The four monuments include 12 marine refuges and more 
than 20 islands, atolls and reefs spread across the Pacific Ocean. Each 
monument was designated because of its individual ecological and 
cultural uniqueness.
Papahanaumokuakea Marine National Monument
    Papahanaumokuakea Marine National Monument, also referred to as the 
Northwestern Hawaiian Islands, is home to millions of seabirds, an 
incredible diversity of coral reef species (including deep-sea corals), 
and the highly endangered Hawaiian monk seal. Approximately 90 percent 
of Hawaii's green sea turtles nest in the monument, as do about 99 
percent of the world's population of Laysan albatross and 98 percent of 
the black-footed albatross. These islands are also important to Native 
Hawaiians for culture, history, and religion.
Pacific Remote Islands Marine National Monument
    The Pacific Remote Islands Marine National Monument contains some 
of the last remaining, relatively intact coral reef and pelagic 
ecosystems in the Pacific Ocean. Any one of the seven coral islands 
within the monument contains nearly four times more shallow water, 
reef-building coral species than the entire Florida Keys. The monument 
provides habitat for an estimated 14 million seabirds and many 
threatened or endangered species, such as leatherback, loggerhead, and 
green sea turtles; humphead wrasse; bumphead parrotfish; and the 
globally depleted giant clam. An estimated 200 seamounts, most of which 
have yet to be identified or explored, are predicted to exist in the 
pelagic zone within 200 nautical miles of the seven islands. Seamounts 
are important biodiversity hotspots because they provide habitat and 
localized nutrients for many species in the vast pelagic waters of the 
Pacific.
Rose Atoll Marine National Monument
    Rose Atoll Marine National Monument is home to a very diverse 
assemblage of terrestrial and marine species, many of which are 
threatened or endangered. Rose Atoll supports 97 percent of the seabird 
population of American Samoa, including 12 federally protected 
migratory seabirds and 5 species of federally protected shorebirds. 
Rose Atoll is the largest nesting ground in the Samoan Islands for 
threatened green sea turtles, and is an important nesting ground for 
the endangered hawksbill turtle. Rose Atoll also provides sanctuary for 
the giant clam, whose population is severely depleted throughout the 
Pacific Ocean.
Marianas Trench Marine National Monument
    The Marianas Trench Marine National Monument protects areas of 
biological, historical and scientific significance. The monument is 
home to many unusual life forms found in its boiling and highly acid 
waters, highly diverse and unique coral reef systems (more than 300 
species of stony coral), and an astonishingly high population of apex 
predators, including large numbers of sharks. The monument also 
encompasses the Mariana Trench, the deepest ocean area on Earth, which 
is deeper than Mount Everest is tall.
Marine National Monument Management Implementation
    President Bush gave the Department of the Interior (U.S. Fish and 
Wildlife Service) management responsibility over the three newest 
monuments, while the Department of Commerce has primary responsibility 
for managing fishing in the outer waters of each monument. Although it 
has been more than 3 years since their designation, very little funding 
(<$200,000 annually) has been added specifically for managing the Rose 
Atoll, Marianas Trench, and Pacific Remote Islands Marine National 
Monuments. As a result, monument plans and fishing regulations have not 
been completed and most islands remain essentially unmanaged and 
unmonitored.
    It is imperative that USFWS establish appropriate management 
measures to adequately protect the land, waters and seafloor of all 
four marine monuments. In particular, the USFWS must have adequate 
funds to finalize management plans for the three newest monuments, hire 
adequate personnel, provide transportation to visit the islands on a 
regular basis, develop plans to restore damaged reefs and lands, and 
consult with the National Oceanic and Atmospheric Administration and 
the U.S. Coast Guard to provide proper surveillance and enforcement of 
illegal activities such as trespassing and illegal fishing.
    Restoration actions are needed at most of the islands, including 
restoring natural habitats, removing discarded equipment and structures 
from past military occupations, and dealing with old waste disposal 
sites. Additionally, human exploration and occupation introduced many 
invasive species to the islands which should be removed.
    For example, two fishing vessels that grounded in the Pacific 
Remote Islands Marine National Monument have yet to be removed and are 
currently devastating the surrounding coral ecosystems. In 1991, a 121-
foot Taiwanese fishing boat sank on Palmyra Atoll; in 2007 an abandoned 
85-foot fishing vessel was discovered on Kingman Reef. These two 
islands are home to some of the most pristine coral reefs in the world. 
The Palmyra wreck sits directly on the reef and continues to damage the 
ecosystem by leaching iron into the water which has accelerated the 
rapid growth of a nuisance corallimorph, Rhodactis howesii. According 
to a recent report by the U.S. Geological Service, more than 740 acres 
of the coral habitat has been smothered and destroyed so far by the 
corallimorph whose growth continues to be promoted by the wreck's 
presence.
    A recent study by L. Wegley, et al. on nearby Kingman Reef, 
indicates that the live coral cover surrounding the wreck has decreased 
to less than 10 percent of its original size due to accelerated algae 
growth and corallimorph infestation. The reef destruction extends 1.5 
kilometers along the reef horizontally, and was observed spreading down 
the reef slope to approximately 35 meters. As this growth continues 
unabated, it is expected to spread toward the north facing shoreline 
where fragile coral gardens are located.
Appropriations Needs
    Marine Conservation Institute requests that the subcommittee 
increase funding for NWRS operations by $8.8 million to a level of 
$494.8 million in fiscal year 2013 to better manage our Nation's 
refuges. We recommend that $3.5 million of that amount be allocated to 
the marine monuments, which now receive approximately $200,000 
annually. USFWS responsibilities in the Pacific Islands have increased 
substantially since the designation of the monuments in 2009, but 
funding has not followed suit.
    Additional monument funding would allow USFWS to properly manage 
Midway Atoll Airfield, and more adequately protect and restore the 
Papahanaumokuakea Marine National Monument. Furthermore, the additional 
funding would allow USFWS to provide adequate management of the three 
newest monuments. Funding is needed to hire managers for Marianas and 
Pacific Remote Islands (a Rose Atoll Manager has been funded over the 
last several years); hire one public planner position to aid in 
management responsibilities; and pay for associated administrative 
costs such as office space costs and travel expenses. Additional funds 
would also continue to address nuisance and invasive species that are 
hurting native wildlife populations, and hire additional law 
enforcement officers to combat illegal entry and fishing. The remaining 
funds would pay for an initial cost assessment for removal of the two 
shipwrecks mentioned above that are damaging coral reef habitats.
    Thank you for the opportunity to share our views.
                                 ______
                                 
     Prepared Statement of the Merritt Island Wildlife Association

    Mr. Chairman and members of the subcommittee: On behalf of the 
nearly 1,300 members of the Merritt Island Wildlife Association (MIWA), 
thank you for this opportunity to submit comments on the proposed 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. MIWA is a nonprofit volunteer organization formed 
in 1994. Our mission is ``to promote conservation, awareness, 
appreciation, and use of the Merritt Island National Wildlife Refuge 
(MINWR) and to support Refuge programs.''
    We appreciate your prior support of the National Wildlife Refuge 
System (NWRS), and specifically request that you continue that 
commitment to sustaining the world's foremost wildlife conservation 
system with approval of the President's budget request of $495 million 
for NWRS operation and maintenance. In the broader context of the 
overall Fish and Wildlife Service budget request, we also urge your 
support of the $51 million appropriation proposed for the Migratory 
Bird Management program. Further, we believe funding of the Land and 
Water Conservation Fund at $700 million is vitally important to 
acquisition and preservation of critical habitat throughout the United 
States.
Merritt Island National Wildlife Refuge
    MINWR was established in 1963, the 286th refuge in the system which 
now numbers 556. It serves as the headquarters for a complex of seven 
refuges which comprise a total of 172,000 acres located in five 
counties in east-central Florida. The complex includes Pelican Island 
NWR, the Nation's first Refuge, as well as the system's most recent 
addition--the Everglades Headwaters NWR. MINWR itself is an overlay of 
NASA's Kennedy Space Center and extends more than 140,000 acres of 
northern Brevard and southern Volusia counties. More than 2 million 
people live within an hour's drive of the Refuge.
    The initial primary purpose of MINWR was ``. . . for use as an 
inviolate sanctuary . . . for migratory birds.'' (Migratory Bird 
Conservation Act); later expanded under the North American Wetlands 
Conservation Act to include ``. . . to protect, enhance, restore, and 
manage an appropriate distribution and diversity of wetland ecosystems 
and other habitats for migratory birds and other fish and wildlife . . 
.'' and ``. . . to sustain an abundance of waterfowl and other 
migratory birds consistent with the goals of the North American 
Waterfowl Management Plan . . .''
    The Refuge has been designated by the State of Florida as an 
``Outstanding Florida Water'' in recognition of the exceptional 
ecological value and water quality of the Indian River Lagoon within 
MINWR; and is also identified as ``Essential Fish Habitat'' under the 
Magnuson-Stevens Act.
    These mandates and accolades speak to the quality of the biological 
and physical resources within MINWR and the necessity to preserve and 
protect them. Implicit in the mission of the NWRS, however, is the firm 
commitment to also serve the interests of the people who pay the bills. 
MINWR has done an excellent job of this. The Refuge receives more than 
750,000 visitors each year and another 250,000 visit the rest of the 
complex's lands and facilities. The spectrum of interests is broad--
many come for wildlife observation, photography, or simply to enjoy 
some quiet time in a natural setting; but there are also waterfowl 
hunters, anglers, boaters, and hundreds of school children drawn by the 
environmental education programs. MINWR is a highly favored stop on the 
Great Florida Birding Trail managed by the Florida Fish & Wildlife 
Conservation Commission.
    They come from near and far--more than 60 percent from outside the 
local area (50-mile radius) according to an extensive 2010-2011 visitor 
survey. For most, visiting the Refuge was either the primary purpose of 
their trip or one of a few equally important purposes. And they spend 
money locally; an average of $52 per day for local visitors, and $91 
for those from farther away (who typically stayed in the area for a few 
days). Nearly 80 percent of the respondents stopped at the Visitor 
Center for information, services, and gift shopping; more than 95 
percent said they were very satisfied with all aspects of their visit; 
and 92 percent believed that National Wildlife Refuges provide a unique 
recreational experience in comparison to other public lands. The 
survey, one of several done at refuges across the country, achieved a 
remarkable 79-percent response rate.
The National Wildlife Reserve System Operations and Maintenance Budget 
        Request
    It has been estimated that ``full funding'' of the NWRS would 
require a $900 million annual appropriation. We are all aware of the 
realities of our current economy, however, and request your approval of 
the fiscal year 2013 request of $495 million. We note that while this 
amount will avoid further sharp cuts in system staff and programs, it 
falls short of holding the line in terms of constant dollars. The 
Refuge staff has done an admirable job with the available resources, 
but they face a number of current and impending budget-related issues:
  --The current MINWR staff is 29 people, which provides less than one-
        half man-hour per acre per year of available labor for all 
        operation and maintenance requirements. (The staff of the other 
        six refuges in the complex is only 11.) One Refuge Manager 
        position was eliminated in 2011, and the Supervisory Refuge 
        Ranger position remains vacant for lack of available funding. 
        That position is responsible for managing the Refuge's public 
        services program . . . for those 750,000 people who visit each 
        year. The vacancy will force the reduction of Visitor Center 
        hours to 5 days per week from its current level of 7 days 
        during the winter ``high season'' and 6 days through the 
        summer.
  --Some of the Refuge's roads that historically have been open to the 
        public have been closed this year due to lack of maintenance 
        funds. Lack of adequate staffing also has caused planned 
        expansions of the hunting program (to include upland game at 
        MINWR and the satellite St. Johns NWR) to be postponed until 
        2015 or later. Inadequate funding also will reduce maintenance 
        of the levees and control structures used to manage water 
        levels in the impoundments critical for waterfowl habitat. 
        Without proper and timely water control, wintering waterfowl 
        numbers can decline precipitously.
  --There are only about 250 law enforcement personnel within the 
        entire NWRS; the MINWR 7-refuge complex has but 2. A 2005 
        assessment by the International Association of Chiefs of Police 
        recommended a NWRS force of 845 full-time officers. While crime 
        within our refuge complex has not yet become a major problem, 
        it is increasing. The law enforcement budget request for the 
        entire NWRS is less than $40 million . . . for 150 million 
        acres in more than 500 locations spread throughout 50 States. 
        That is about a one-third of the annual budget for either the 
        Brevard County Sheriff's Office or the Orlando Police 
        Department.
  --Nationally, the 230 ``Friends'' groups such as MIWA and individual 
        volunteers provide 1.4 million hours for NWRS programs and 
        facilities--the equivalent of 665 full-time positions. But 
        volunteers must be trained and managed to be effective, and 
        that requires F&WS staff.
  --MINWR is responsible for wildfire protection throughout the Refuge, 
        including Kennedy Space Center. Prescribed burning is the 
        primary management tool for both fire risk reduction and for 
        maintenance of scrub habitat for one of Florida's largest 
        populations of the endangered Florida Scrub Jay. Staff has 
        projected that prescribed burns may have to be reduced by up to 
        25 percent in the coming year if sufficient staff and funds are 
        not available.
    The impact of these issues on visitor orientation, assistance, and 
satisfaction is obvious, and quite likely to result in reduced 
visitation. And that problem extends well beyond MINWR.
    The Refuge is a linchpin in the local economy, and its senior staff 
have been closely and cooperatively involved in the efforts of 
Titusville and northern Brevard County--indeed, all of east central 
Florida--to deal with the repercussions of the ending of the NASA Space 
Shuttle program. The area has lost thousands of jobs in the past year 
and suffers from a painfully high unemployment rate.
    Local leaders have united to address this immediate and pressing 
problem . . . to turn an extraordinarily sour lemon into lemonade, to 
fall back on an old cliche. A notable example is the Greater Titusville 
Renaissance whose mission is to ``embark on an exciting path of 
revitalization by celebrating our natural and historic resources, 
cultivating arts and culture, and energizing our economy.'' Promoting 
and sustaining our nature-based tourism is an integral part of that 
concept.
    Using the survey data presented above, we estimate that our 750,000 
annual visitors are the source of more than $50 million in local gas, 
food, lodging, and other spending. MINWR is clearly a significant 
element in local economic recovery planning. Our community will be even 
more severely damaged if the Refuge's funding is eroded. We are a 
reflection of the entire NWRS in this regard. Nationwide, 45 million 
annual refuge visitors contribute nearly $1.7 billion to local 
economies and support tens of thousands of local jobs.
Migratory Bird Management Program Budget
    Given the fundamental importance of migratory bird habitat 
preservation and enhancement to the purpose of MINWR, MIWA strongly 
supports the $51 million budget request for these programs. While 
originally focussed on our wintering waterfowl populations, the Refuge 
also includes some of the last intact coastal hammock and upland scrub 
along the Florida coast. These areas are heavily used by migrating 
neotropical land birds--passerines and other woodland species--moving 
along the Atlantic Flyway. MINWR also has many large expanses of mud 
flats and salt marsh used by migrating shorebirds, many of which are 
species of concern, and several miles of undisturbed beach and dunes.
    Coupled with our excellent waterfowl areas, these additional 
components of the Refuge underlie its 2001 designation by the American 
Bird Conservancy as a Globally Important Bird Area. There are only 500 
such areas worldwide--including 183 of our National Wildlife Refuges.
    This also underscores the global nature of the need for migratory 
bird protection. Many of the species passing through MINWR winter in 
Central and South America where habitat degradation is an increasingly 
serious problem. We also support the proposed $3.8 million 
appropriation request for the Neotropical Migratory Bird Conservation 
Fund.
    A significant percentage of the visitors to MINWR are birders. 
Without large numbers of wintering species and the recurring passage of 
the migrants, our birders will go elsewhere.
Land and Water Conservation Fund
    The Land and Water Conservation Fund (LWCF) was created in 1965 
with the intention, never fulfilled, of annual funding of $900 million. 
These funds are derived primarily from offshore oil and gas drilling 
fees, not from general tax revenue. The administration's request this 
year is $104.7 million for the NWRS, but the Senate Transportation 
bill, as amended, would provide $700 million for national, State, and 
local efforts to conserve irreplaceable lands. We ask for your support 
of the increased amount. The LWCF can be an unequalled mechanism for 
the acquisition and preservation of critical habitats at the landscape 
scale. These would include the 8 million acres still unprotected within 
our National Wildlife Refuges and wildlife corridors between existing 
sanctuaries, preserves, and refuges.
Summary
    We believe our National Wildlife Refuges are viewed as great 
national assets by the American people, and we know that Merritt Island 
National Wildlife Refuge enjoys that support in Florida. These are 
places where we go for the enjoyment of things not built by man, for 
reconnection with our natural heritage, and sometimes simply for stress 
relief. Our members know they provide all of that. We hope you will 
find the time to experience these things personally and often, and that 
you will support the National Wildlife Refuge System to--and perhaps 
beyond--the extent we have requested.
    Thank you again for this opportunity to comment on this proposed 
appropriation.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Soil, Water, and Air Program. This 
includes for fiscal year 2013, Federal funding of $5.2 million for 
general water quality improvement efforts within the Colorado River 
Basin and, of that amount, specifically $1.5 million for salinity 
specific projects to prevent further degradation of Colorado River 
water quality and increased downstream economic damages.
    The concentrations of salts in the Colorado River cause 
approximately $300 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by more than 100 milligrams per 
liter (mg/L). Modeling by the U.S. Bureau of Reclamation (USBR) 
indicates that the quantifiable damages would rise to more than $500 
million by the year 2030 without continuation of the Colorado River 
Basin Salinity Control Program (Program).
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the River's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend more than $40 million annually on salinity 
control programs.
    The Program, as set forth in the Act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    The Act provides that the Secretary of the Interior shall ``develop 
a comprehensive program for minimizing salt contributions to the 
Colorado River from lands administered by the Bureau of Land 
Management.'' BLM is the largest landowner in the Colorado River Basin. 
Due to geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    The Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the U.S. Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its on-farm 
Environmental Quality Incentives Program.
    Over the past years, the Colorado River Basin Salinity Control 
Program has proven to be a very cost-effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important Basin-wide program is 
essential.
    Metropolitan urges the subcommittee to fund BLM's Soil, Water, and 
Air Program for fiscal year 2013 at $5.2 million for general water 
quality improvement efforts in the Colorado River Basin. Metropolitan 
additionally urges you to specifically designate $1.5 million of that 
amount for the Colorado River Basin Salinity Control Program.
                                 ______
                                 
 Prepared Statement of the Mississippi Interstate Cooperative Resource 
                              Association

Background
    One of the most significant threats to biodiversity in the Nation's 
coastal and estuarine habitats as well as inland navigable waters is 
the introduction of nonindigenous aquatic nuisance species (ANS) into 
the ecosystem. The introduction of ANS through intentional or 
accidental means establishes a stress on ecosystems that can result in 
the decline of native species population, serve as an impediment to 
species recovery and pose a long-term economic and ecological threat to 
the health of the area. The control and management of these ANS in such 
areas as the Mississippi River Basin Drainage, Great Lakes, Everglades, 
and San Francisco Bay/Inland Delta costs the economy and taxpayers 
billions of dollars annually.
    MICRA commends the Congress and the Federal Government's 
recognition of this problem and efforts to address it through enactment 
of the Non-indigenous Aquatic Nuisance Prevention and Control Act 
(NANPCA) of 1990 (Public Law 101-646) and the National Invasive Species 
Act (NISA) of 1996 (Public Law 104-332). The establishment of the 
Aquatic Nuisance Species Task Force (ANSTF) makes use of a coordinating 
body to improve efforts to administer the Government's responsibilities 
as carried out by the National Oceanic and Atmospheric Administration; 
U.S. Fish and Wildlife Service (USFWS); U.S. Coast Guard; U.S. 
Environmental Protection Agency; U.S. Army Corps of Engineers; and 
other Federal agencies.
    As a part of their authority and responsibility for water resources 
management, individual States have moved forward with State based 
programs to combat aquatic nuisance species and to prevent their 
introduction into State waters. These programs supplement the national 
activity and are indicative of an ongoing need for resources and action 
to reduce the threat and minimize the impacts of ANS on U.S. waters.
State/Interstate Aquatic Nuisance Species Management Plan
    The NANPCA (as amended by NISA) recognized that States are integral 
partners in the battle against ANS by authorizing the State/Interstate 
Aquatic Nuisance Species Management Plan (SIANSMP) grant program. 
Managed by the Service, the program provides annual funding to States, 
tribes, and Regional organizations to support the implementation of 
State and interstate ANS management plans that have been approved by 
the ANSTF. The SIANSMPs identify feasible, cost-effective measures to 
be undertaken by the States and cooperating entities to manage ANS 
infestations in an environmentally sound manner. This funding has 
helped many States initiate an ANS program and has enabled them to 
establish mechanisms for prevention, early detection and rapid 
response, containment, and control. Through their SIANSMPs, State 
efforts link together to form an effective national ANS program that 
combines strong Federal and State partnerships to eliminate or reduce 
the environmental, economic, public health and human safety risks 
associated with ANS.
    Section 1301(c) of NANPCA authorized a total of $4 million for the 
SIANSMP grant program; however, that amount has never been fully 
appropriated. Funding was gradually increased from $68,000 for the 
first approved State Management Plan in 1994, to its current level of 
$1,075,000 beginning in 2004. Over the years, the number of plans 
approved far outpaced the capacity of the SIANSMP funding. In 2011, the 
number of approved plans had reached 39, and the amount of support 
requested by the States was more than $9 million. The number of plans 
has increased almost 2.5 times since 2004, causing the amount of annual 
funding per plan to decrease over the same time period. In 2000, the 
Service provided approximately $100,000 per State for plan 
implementation; in 2004, it was approximately $71,000 per plan. In 
fiscal year 2011, the Service provided $29,800 to support each of the 
36 approved SIANSMPs that requested funding.
    More than 75 percent of the States have approved SIANSMPs. All but 
one Mississippi River Basin State are implementing an ANSTF approved 
plan or are at various stages of developing their State ANS plan. Each 
State has invested significant resources to develop a plan that meets 
its needs and addresses its priority ANS issues, and each has been able 
to significantly leverage available Federal funds. In 2010, the States 
combined the Federal contribution of $1.075 million with more than $6.6 
million in State and partner funds to complete a wide array of 
accomplishments toward the goals and objectives of their SIANSMPs.
    In some cases the funding from the FWS for SIANMPs represents the 
only funding the States spend on AIS, while in other cases, the annual 
allocation from the Service represents only a small portion of their 
total Invasive Species Management budgets. In either case, however, 
these funds are vital to supporting State AIS Coordinator positions or 
are pooled with other funds, and with other partners, to allow for 
effective and efficient collaborative projects to address plan 
priorities. For many States, a lack of dedicated State funding for the 
ANS Plans is an ongoing problem. Many elements of the SIANSMP have not 
been successfully implemented due to a lack of sufficient resources, 
and demands placed on the capacity of States to address these issues 
continue to outpace the availability of resources.
President's Fiscal Year 2013 Budget
    The States have developed ANSTF approved management plans and ANS 
programs in accordance with congressional authorizations in NANPCA and 
NISA. The SIANSMP grant program remains a high priority to States and 
is critical to their ability to implement successful ANS prevention and 
control programs. Funding for the SIANSMPs has remained stable since 
2004 at only 25 percent of the authorized level, however total requests 
to support the 36 approved State/Interstate ANS Management Plans that 
applied for funding in fiscal year 2011 exceeded $9 million. The States 
have consistently demonstrated a need for increased appropriations to 
implement ANS prevention and control priorities, yet the President's 
fiscal year 2013 budget eliminates the SIANSMP grant program for 
implementation of ANSTF-approved plans.
    MICRA urges the Congress to restore fiscal year 2013 appropriations 
of $1,075,000, and to provide additional fiscal year 2013 
appropriations to fully fund that SIANSMP grant program at $4 million 
as authorized by NANPCA and NISA.
    Note.--Information provided in this document was pulled from 
existing documents including:
  --2011-2012 Policy Positions for the Jurisdiction of the Environment 
        Committee, National Conference of State Legislatures, http://
        www.ncsl.org/state-Federal-committees.aspx?tabs=855,23,667.
  --State/Interstate Aquatic Nuisance Species Management Plans 2010 
        (1st in a Series of 3). U.S. Fish and Wildlife Service. April 
        2012.
  --Accomplishments of the State/Interstate Aquatic Nuisance Species 
        Management Plans A Summary of State Efforts in the Battle 
        Against ANS (2nd in a Series of 3). U.S. Fish and Wildlife 
        Service. February 2012.
  --The Evolution of the State/Interstate Aquatic Nuisance Species 
        Management Plan Grant Program (3rd in a Series of 3). U.S. Fish 
        and Wildlife Service. April 2012.
                                 ______
                                 
          Prepared Statement of the Moat Creek Managing Agency

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF. As 
part of this LWCF request, the Bureau of Land Management included $4.5 
million for the acquisition of land at the California Coastal National 
Monument in Mendocino County. I respectfully urge you to support robust 
funding for the LWCF to ensure that this critical California 
conservation priority will receive the necessary funds.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries. LWCF investments also support jobs, 
tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical, and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    For more than 100 years the small incorporated City of Point Arena 
and the Point Arena Lighthouse have clung to the rugged and remote 
coastline of Mendocino County in California. Surrounding the point and 
lying north of the town of Point Arena are the Stornetta Public Lands 
and Manchester Beach State Park, a complex of Federal and State 
conserved lands totaling approximately 3,350 acres.
    A unique designation, the national monument was proclaimed in 2000 
by President Bill Clinton to protect the coastline; offshore rocks, 
reefs, and islands; and marine habitats along the 1,100-mile Pacific 
Coast of California. The monument is part of the BLM's National 
Landscape Conservation System (NLCS), first created in 2000 and later 
authorized by the Congress in 2009. The State of California protects 
1,500 acres at Manchester Beach State Park. A privately held 
conservation easement inland along the Garcia River protects another 
589 acres. In total the public lands complex protects 6 miles of 
coastline.
    The jagged coastline of northern California is a major draw for 
tourists to Mendocino County. Most visitors access the area via 
California Route 1. Attracted by the scenery of the coast and 
recreational opportunities including hiking, biking, camping, wildlife 
viewing, ocean sports, and horseback riding, tourists also enjoy the 
hospitality of small communities like Point Arena. Tourism depends not 
only on the multiple small businesses along the Route 1 corridor, 
ranging from inns, shops, restaurants, and historic sites like the 
lighthouse, but also from the ecological and visual integrity of the 
high quality surrounding landscape.
    Available for acquisition in fiscal year 2013 is the 409-acre 
second phase of the Cypress Abbey property. This property has BLM lands 
on three of its borders including California Coastal National Monument 
to its west, Stornetta Public Lands to its north, and the tract 
recently acquired in the first phase of the project to its south. The 
property boasts miles of gentle coastal bluff, rich riparian corridors, 
and approximately 2 miles of terraces and wild beach with natural 
bridges, tide pools, waterfalls, sinkholes and blowholes. The coastal 
bluffs and terraces include open meadows and forests of Shore Pine. The 
property and surrounding area supports habitat for the Behren's 
Silverspot Butterfly, Point Arena Mountain Beaver, and California Red-
legged Frog, all federally listed endangered or threatened species.
    The acquisition will allow for a variety of onsite recreational 
uses, including interpretive hikes and studies; walking, and bicycling 
along multi-modal trails; and wildlife viewing. Visitors will be able 
to observe an array of seabirds along with wintering and migrating 
shorebirds such as black turnstones, surfbirds, and rock sandpipers. 
The exposed and vegetated offshore rocks support nesting sites for 
pelagic cormorants, pigeon guillemots, and black oystercatchers.
    Coastal trail access resulting from the proposed acquisition would 
create a gateway to the national monument and the scenic coastline, 
making this extraordinary resource accessible for public enjoyment. 
Acquisition of phase II lands will also provide the opportunity to 
create more than 8 miles of California Coastal Trail originating in the 
heart of the City of Point Arena and connecting to the protected open 
space. The protection of the property will also enhance the viewshed 
along California Route 1, the main access road for visitors to the 
coastline. The route is designated by Caltrans as an eligible State 
scenic highway.
    The project has the support of the U.S. Fish and Wildlife Service, 
the California State Coastal Conservancy, the California Department of 
Fish and Game, Mendocino County, the City of Point Arena, and other 
interested groups and organizations. The first phase of the project, 
comprising 123 acres, was completed in January 2012 using funds from 
the BLM and the California State Coastal Conservancy. A total of $5.3 
million is needed for the acquisition of the second phase.
    In its budget request for fiscal year 2013, the BLM included $4.5 
million from the Land and Water Conservation Fund (LWCF) for California 
Coastal National Monument. Additional funds are being sought from State 
sources, the Federal Public Lands Highways Discretionary program, and 
private donors.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for California 
Coastal National Monument. I want to thank the Chairman and the members 
of the subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in California, and I appreciate 
your consideration of this funding request.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs

    My name is Madeline Roanhorse and I serve as the Manager of the AML 
Reclamation/UMTRA Department with the Navajo Nation. I am appearing 
today on behalf of the National Association of Abandoned Mine Land 
Programs (NAAMLP) The NAAMLP represents 30 States and tribes with 
federally approved abandoned mine land reclamation (AML) programs 
authorized under Title IV of the Surface Mining Control and Reclamation 
Act (SMCRA). Title IV of SMCRA was amended in 2006 and significantly 
changed how State and tribal AML grants are funded. These grants are 
still based on receipts from a fee on coal production, but beginning in 
fiscal year 2008, the grants are funded primarily by mandatory 
appropriations. As a result, the States and tribes should receive $488 
million in fiscal year 2013. In its fiscal year 2013 budget, the Office 
of Surface Mining (OSM) is requesting $307 million for State and tribal 
AML grants, a reduction of $180 million. OSM's budget also includes a 
legislative proposal for the establishment of a competitive grant 
process that would allegedly improve AML program efficiency. The 
legislative proposal would also eliminate funding to States and tribes 
that have ``certified'' completion of their highest-priority abandoned 
coal reclamation sites.
    Over the past 30 years, the accomplishments of the States and 
tribes under the AML program has resulted in tens of thousands of acres 
of abandoned mine lands having been reclaimed, thousands of mine 
openings having been closed, and safeguards for people, property and 
the environment having been put in place. Be assured that States and 
tribes continue to be committed to address the unabated hazards at both 
coal and noncoal abandoned mines. We are all united to play an 
important role in achieving the goals and objectives as set forth by 
the Congress when SMCRA was first enacted--including protecting public 
health and safety, enhancing the environment, providing employment, and 
adding to the economies of communities impacted by past coal and 
noncoal mining.
    SMCRA was passed in 1977 and set national regulatory and 
reclamation standards for coal mining. The act also established a 
Reclamation Fund to work toward eliminating the innumerable health, 
safety and environmental problems that exist throughout the Nation from 
the mines that were abandoned prior to the act. The Fund generates 
revenue through a fee on current coal production. This fee is collected 
by OSM and distributed to States and tribes that have federally 
approved regulatory and AML programs. The promise the Congress made in 
1977, and with every subsequent amendment to the Act, was that, at a 
minimum, half the money generated from fees collected by OSM on coal 
mined within the boundaries of a State or tribe, referred to as ``State 
Share'', would be returned for the uses described in title IV of the 
act if the State or tribe assumed responsibility for regulating active 
coal mining operations pursuant to title V of SMCRA. The 2006 
Amendments clarified the scope of what the State Share funds could be 
used for and reaffirmed the promise made by the Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under section 411 of 
SMCRA, then the State Share funds could be used to address a myriad of 
other abandoned mine issues as defined under each State's or tribe's 
approved Abandoned Mine Reclamation Plan. These Abandoned Mine 
Reclamation Plans are approved by the Office of Surface Mining and they 
ensure that the work is in accordance with the intent of SMCRA. Like 
all abandoned mine reclamation, the work of certified States and tribes 
eliminates health and safety problems, cleans up the environment, and 
creates jobs in rural areas impacted by mining.
    The elimination of funding for certified State and tribal AML 
grants not only breaks the promise of State and Tribal Share funding, 
but upsets the balance and compromise that was achieved in the 
comprehensive restructuring of SMCRA accomplished by the 2006 
Amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectively ask the subcommittee to support 
continued funding for certified States and tribes at the statutorily 
authorized levels, and turn back any efforts to amend SMCRA in this 
regard.
    In addition to the $180 million reduction for certified States and 
tribes, the proposed fiscal year 2013 budget perpetuates the 
termination of Federal funding for the AML emergency program, leaving 
the States and tribes to rely on funds received through their 
nonemergency AML grant funds. This contradicts the 2006 amendments, 
which require the States and tribes to maintain ``strict compliance'' 
with the nonemergency funding priorities described in section 403(a), 
while leaving section 410, Emergency Powers, unchanged. Section 410 of 
SMCRA requires OSM to fund the emergency AML program using OSM's 
``discretionary share'' under section (402)(g)(3)(B), which is entirely 
separate from State and tribal nonemergency AML grant funding under 
sections (402)(g)(1), (g)(2), and (g)(5). SMCRA does not allow States 
and tribes to administer or fund an AML emergency program from their 
nonemergency AML grants, although, since 1989, 15 States have agreed to 
implement the emergency program on behalf of OSM contingent upon OSM 
providing full funding for the work. As a result, OSM has been able to 
fulfill their mandated obligation more cost effectively and 
efficiently.
    Regardless of whether a State/tribe or OSM operates the emergency 
program, only OSM has the authority to ``declare'' the emergency and 
clear the way for the expedited procedures to be implemented. In fiscal 
year 2011, OSM issued guidance to the States that the agency ``will no 
longer declare emergencies.'' OSM provided no legal or statutory 
support for its position. Instead, OSM has ``transitioned'' 
responsibility for emergencies to the States and tribes with the 
expectation that they will utilize nonemergency AML funding to address 
them. OSM will simply ``assist the States and tribes with the projects, 
as needed''. Of course, given that OSM has proposed to eliminate all 
funding for certified States and tribes, it begs the question of how 
and to what extent OSM will continue to assist these States and tribes.
    If the Congress continues to allow the elimination of emergency 
program funding, States and tribes will have to adjust to their new 
role by setting aside a large portion of their nonemergency AML funds 
so that they can be prepared for any emergency that may arise. 
Emergency projects come in all shapes and sizes, vary in number from 
year to year and range in cost from thousands of dollars to millions of 
dollars. Requiring States and tribes to fund emergencies will result in 
funds being diverted from other high-priority projects and delay 
certification under section 411, thereby increasing the backlog of 
projects on the Abandoned Mine Land Inventory System (AMLIS). For 
minimum program States and States with small AML programs, large 
emergency projects will require the States to redirect all or most of 
their AML resources to address the emergency, thereby delaying other 
high-priority reclamation. With the loss of stable emergency program 
funding, minimum program States will have a difficult, if not 
impossible, time planning, budgeting, and prosecuting the abatement of 
their high-priority AML problems. In a worst-case scenario, a minimum 
program State would not be able to address a costly emergency in a 
timely fashion, and would have to ``save up'' multiple years of funding 
before even initiating the work to abate the emergency, in the meantime 
ignoring all other high-priority work.
    OSM's proposed budget suggests addressing emergencies, and all 
other projects, as part of a competitive grant process whereby States 
and tribes compete for funding based on the findings of the proposed 
AML Advisory Council. OSM believes that a competitive grant process 
would concentrate funds on the highest-priority projects. While a 
competitive grant process may seem to make sense at first blush, 
further reflection reveals that the entire premise is faulty and can 
only undermine and upend the deliberate funding mechanism established 
by the Congress in the 2006 Amendments. Since the inception of SMCRA, 
high-priority problems have always taken precedence over other 
projects. The focus on high priorities was further clarified in the 
2006 Amendments by removing the lower-priority problems from the Act 
and requiring ``strict compliance'' with high-priority funding 
requirements. OSM already approves projects as meeting the definition 
of high priority under its current review process and therefore an AML 
Advisory Council would only add redundancy and bureaucracy instead of 
improving efficiency.
    Based on our understanding of OSM's legislative proposal, there are 
a myriad of potential problems and implications for the entire AML 
program. A listing of our questions and concerns regarding the 
legislative proposal is attached to this statement and we urge the 
subcommittee to press OSM for answers. Given the uncertainties and the 
negative implications for the accomplishment of AML work under title IV 
of SMCRA, the Congress should reject the proposed amendments to SMCRA 
as being counterproductive to the purposes of SMCRA and an inefficient 
use of funds. We request that the Congress continue mandatory funding 
for certified States and tribes and provide funding for AML 
emergencies. A resolution to this effect adopted by NAAMLP last year is 
attached.
    On a somewhat related matter, there appears to be increasing 
concern by some in Washington that the States and tribes are not 
spending the increased AML grant moneys that they have received under 
the 2006 Amendments in a more expeditious manner, thus resulting in 
what the administration has characterized as unacceptable levels of 
``undelivered orders''. What these figures and statements fail to 
reflect is the degree to which AML grant moneys are obligated or 
otherwise committed for AML reclamation work as part of the normal 
grant process. Most AML grants are either 3 or 5 years in length and 
over that course of time, the States and tribes are in a continual 
process of planning, bidding and contracting for specific AML projects. 
Some projects are multi-layered and require extended periods of time to 
complete this process before a shovel is turned at the AML site. And 
where Federal funding is concerned, additional time is necessary to 
complete the myriad statutory approvals for AML work to begin, 
including compliance with the National Environmental Policy Act and the 
National Historic Preservation Act.
    In almost every case, however, based on the extensive planning that 
the States and tribes undertake, AML grant funds are committed to 
specific projects even while clearances and bidding are underway. While 
funds may not technically be ``obligated'' because they are not yet 
``drawn down'', these funds are committed for specific purposes. Once 
committed, States and tribes consider this grant money to be obligated 
to the respective project, even though the ``order'' has not been 
``delivered'' and the funds actually ``drawn down''. The latter can 
only occur once the project is completed, which will often be several 
years later, depending on the size and complexity of the project. We 
would be happy to provide the subcommittee with more detailed 
information about our grant expenditures and project planning in order 
to answer any questions you may have about how we account for and spend 
our AML grant moneys. Given the confusion that often attends the 
various terms used to describe the grant expenditure process, we 
believe it is critical that the Congress hear directly from the States 
and tribes on this matter and not rely solely on the administration's 
statements and analyses. We welcome the opportunity to brief your 
subcommittee in more detail regarding this issue should you so desire.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is an ongoing, and often 
expensive, problem, especially in Appalachia. NAAMLP therefore requests 
the subcommittee to support the inclusion of language in the fiscal 
year 2013 appropriations bill that would allow the use of AML funds for 
any non-Federal cost-share required by the Federal Government for AMD 
treatment or abatement.
    We also urge the subcommittee to support funding for OSM's training 
program and TIPS, including moneys for State/tribal travel. These 
programs are central to the effective implementation of State and 
tribal AML programs as they provide necessary training and continuing 
education for State/tribal agency personnel, as well as critical 
technical assistance. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.2 million because it 
facilitates and enhances State and local partnerships by providing 
direct financial assistance to watershed organizations for acid mine 
drainage remediation.
    Thank you for the opportunity to submit this statement regarding 
OSM's proposed budget for fiscal year 2013. We would be happy to answer 
any questions you may have or provide additional information.

                               ATTACHMENT
QUESTIONS AND CONCERNS RE THE ABANDONED MINE LAND LEGISLATIVE PROPOSAL 
                    IN OSM'S FISCAL YEAR 2013 BUDGET

The Proposed Competitive Allocation Process
    What is the potential for this new review and ranking process to 
reduce expenditures and increase efficiency without being counter-
productive? Will it introduce an additional level of bureaucracy and 
result in more time being spent formulating proposals and less on 
actual AML reclamation? The present funding formula, while not perfect, 
at least provides some direction on which to base long-term strategic 
planning and efficient use of available funds. The closest analogy to 
what OSM is proposing by way of its competitive allocation process is 
the way BLM and the Forest Service currently allocate their AML funds 
through competitive proposals to various State offices and regions. 
Because of the uncertainties of funding, neither agency has been able 
to develop significant in-house expertise, but instead often rely on 
SMCRA-funded States like Montana, New Mexico, Utah and Colorado to do a 
good portion of their AML work. Why would OSM want to duplicate a 
system that has proven problematic for other agencies?
    Who would be the ``other parties'' potentially bidding on AML grant 
funds? Would this include Federal agencies such as BLM, USFS, NPS, etc? 
If so, in many cases, those agencies already rely on the States to 
conduct their reclamation work and also determine priorities based on 
State input or guidance.
    What do the State project managers and inspectors do if a State 
does not win a competitive bid for AML funds? How does a State gear up 
if it receives funding for more projects than it can handle with 
present staffing? Each State and tribe has different grant cycles. 
Unless all are brought into one uniform cycle, how will everyone 
compete for the same dollars? In this regard, how can the competitive 
allocation process and the use of the Advisory Council be more 
efficient and simple than what we already have in place?
    How long will OSM fund a State's/tribe's administrative costs if it 
does not successfully compete for a construction grant, even though the 
State/tribe has eligible high-priority projects on AMLIS? How will OSM 
calculate administrative grant funding levels, especially since 
salaries and benefits for AML project managers and inspectors 
predominantly derive from construction funds? Would funding cover 
current staffing levels? If not, how will OSM determine the funding 
criteria for administrative program grants?
    How do the States and tribes handle emergency projects under the 
legislative proposal? Must these projects undergo review by the 
Advisory Council? Will there be special, expedited procedures? If a 
State/tribe has to cut back on staff, how does it manage emergencies 
when they arise? If emergency programs do compete for AML funds, 
considerable time and effort could be spent preparing these projects 
for review by the Advisory Council rather than abating the immediate 
hazard. Again, how can we be assured that emergencies will be addressed 
expeditiously?
    What ranking criteria will be used to determine the priority of 
submitted AML project grant requests? The number of people potentially 
affected? The current priority ranking on AMLIS? How would the Council 
determine whether a burning gob pile near a city presents a greater 
hazard than a surface mine near a highway or an underground mine 
beneath a residential area? Would the winning bid be the ``most 
convincing'' proposal? The one with the most signatures on a petition? 
The one with the most influential legislative delegation? Will AMLIS 
continue to serve as the primary mechanism for identifying sites and 
their priority status?
    If the current AML funding formula is scrapped, what amount will be 
paid out to the noncertified AML States and tribes over the remainder 
of the program? What does OSM mean by the term ``remaining funds'' in 
its proposal? Is it only the AML fees yet to be collected? What happens 
to the historic share balances in the Fund, including those that were 
supposed to be re-directed to the Fund based on an equivalent amount of 
funding being paid to certified States and tribes each year? Would the 
``remaining funds'' include the unappropriated/prior balance amounts 
that have not yet been paid out over the 7-year installment period? 
What about the amounts due and owing to certified States and tribes 
that were phased in during fiscal year 2009-2011?
    Has anyone alleged or confirmed that the States/tribes are NOT 
already addressing the highest-priority sites for reclamation within 
the context of the current AML program structure under the 2006 
Amendments? Where have the 2006 Amendments faltered in terms of high-
priority sites being addressed as envisioned by the Congress? What 
would remain unchanged in the 2006 Amendments under OSM's proposal?
The Nature and Purpose of the Advisory Council
    Who would be on the AML Advisory Council and how could they 
collectively have better decisionmaking knowledge about hazardous AML 
sites than the State and tribal project managers and administrators who 
work with these sites on a daily basis?
    What will be the criteria to serve on the Advisory Council? Will 
the Federal Advisory Committee Act (FACA) requirements apply to the 
formation and deliberations of the Council? How long does OSM envision 
it will take to establish the Council and when will it become 
operational?
    Will the Advisory Council be providing recommendations to OSM or 
will OSM make all final decisions? Will these decisions by appealable? 
If so, to who? Does OSM envision needing to develop internal guidance 
for its own review process? If so, how long will it potentially take 
from Advisory Council review and recommendation to final OSM decision 
in order to complete the grant process so a State can begin a project?
    What degree of detail will be required in order to review and 
approve competitive grant applications? Will the Council review each 
project? What type of time constraints will be placed on their review?
    Will the Advisory Council consider partial grants for projects that 
may exceed the allocation for a single year? Would minimum program 
States be authorized to apply for a grant that would exceed $3 million?
    Will grant applications be based on an individual project or will 
the grant be based on a project year? How will cost overruns be 
handled?
Planning for Abandoned Mine Land Work
    One of the greatest benefits of reauthorization under the 2006 
Amendments to SMCRA was the predictability of funding through the end 
of the AML program. Because State and tribes were provided with 
hypothetical funding levels from OSM (which to date have proven to be 
quite accurate), long-term project planning, along with the 
establishment of appropriate staffing levels and project assignments, 
could be made more accurately and efficiently. How can States/tribes 
plan for future projects given the uncertainty associated with having 
to annually bid for AML funds? NEPA compliance issues alone can take 
years of planning. One State recently asked its State Historic 
Preservation Office for initial consultation regarding project sites 
that may be reclaimed over the next 5 years. This process will also 
have significant impacts on those States that utilize multi-year 
construction contracts that are paid for with annual AML grants.
    State and tribal AML projects are often planned 18 months to 2 
years in advance of actually receiving construction funds, based on 
anticipated funding under the 2006 Amendments. During that time, States 
and tribes are performing environmental assessments, conducting 
archeology reviews, completing real estate work and doing NEPA 
analyses. There could be considerable effort and money wasted if a 
project does not get approved during the competitive allocation 
process.
    At what point does a State or tribe seek approval from the advisory 
council? Considerable investigation must take place prior to developing 
most projects, whether they be acid mine drainage projects or health 
and safety projects. How much time should be spent in design prior to 
proceeding to the Council? How accurate must a cost estimate be prior 
to taking a project before the Council? The greater the accuracy, the 
greater the design time expended, possibly for a project that will be 
rejected.
    State and tribes often seek and obtain valuable matching funds from 
watershed groups, which take considerable lead time to acquire. It will 
be difficult to commit to partners if we don't know what level of 
funding, if any, will be made available from OSM.
    Several States have committed significant amounts of money to 
waterline projects across the coalfields. Local governmental entities 
have started designs and applied for additional funds from other 
agencies to match AML funds in order to make these projects a reality. 
Ending all AML funding for these projects (assuming they are not 
considered ``high priority'') could have significant consequences for 
local communities. Our understanding is that these projects were 
excluded under the 2006 Amendments from the priority scheme contained 
in section 403(a) of SMCRA.
    Does OSM's proposal allow acid mine drainage (AMD) projects to be 
undertaken? Can these be designated as high priority? (Our 
understanding is that those AMD projects undertaken pursuant to the 
``AMD set-aside program'' are not subject to the priority scheme under 
section 403(a) and that those AMD projects done ``in conjunction with'' 
a priority 1 or 2 project are considered ``high priority''.) How do 
States handle ongoing engineering, operating and maintenance costs for 
existing AMD treatment systems? As the administration works diligently 
to develop a new rule to protect streams nationwide, why would it 
advance a proposal to essentially halt the cleanup of streams funded by 
the AML program?
Overarching Concerns
    Given the original design of SMCRA by its framers that AML funds 
will only be allocated to those States who agree to implement title V 
regulatory programs for active mining operations, to what extent can we 
expect that States will continue to implement and fund their title V 
programs if Title IV funding is drastically cut or eliminated under the 
proposal? Furthermore, since States and tribes will not know what level 
of AML program staffing to maintain from year to year under the 
proposal, who would desire to work for a program that is in a constant 
state of flux?
    The SMCRA 2006 Amendments were the result of roughly 10 years of 
negotiations, discussions, and debates in the Congress. Since the 
legislative process to enact these new proposed changes could take 
years, why didn't OSM begin with the legislation and then follow up 
with an appropriate budget proposal? Why weren't the States/tribes or 
the NAAMLP included in discussions that led to this legislative 
proposal?
    As OSM develops the legislative proposal for a competitive bidding 
process, the agency should consider the impacts on minimum programs and 
consider maintaining the minimum allocation of $3 million for minimum 
program States.
    What type of State AML plan amendments does OSM foresee as a result 
of this new process?
Proposed Elimination of Funding for Abandoned Mine Land Emergencies
    While amendments to title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the act, no changes were made to OSM's 
emergency powers in section 410. Quite to the contrary, section 
402(g)(1)(D)(2) states that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of nonemergency 
grant funds for the priorities listed in section 403(a), none of which 
include emergencies. The funding for the emergency program comes from 
the Secretary's discretionary share, pursuant to section 402(g)(3) of 
the act. This share currently stands at $416 million. OSM's elimination 
of funding for the emergency program will result in the shift of 
approximately $20 million annually that will have to be absorbed by the 
States. This is money that cannot be spent on high priority AML work 
(as required by SMCRA) and will require the realignment of State AML 
program operations in terms of personnel, project design and 
development, and construction capabilities. In most cases, depending on 
the nature and extent of an emergency project, it could preclude a 
State's ability to undertake any other AML work during the grant year 
(and even following years), especially for minimum program States. How 
does OSM envision States and tribes being able to meet their statutory 
responsibility to address high-priority AML sites in light of the 
elimination of Federal funding for AML emergencies? How does OSM 
reconcile this proposal with the intentions of the Congress expressed 
in the 2006 amendments to move more money out of the AML Fund sooner to 
address the backlog of AML problems that continue to linger?
Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on 
noncertified States as a result of eliminating these payments to 
certified States and tribes--especially the equivalent payments that 
would otherwise be made to the historic production share that directly 
relate to ``in lieu of'' payments to certified States and tribes under 
section 411(h)(4). Previously, OSM has stated that ``the amounts that 
would have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2013 proposed 
budget, this will amount to $1.2 billion over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in title V grants)?
    Finally, how do the cuts in the Title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by the Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
                                 ______
                                 
 RESOLUTION OF THE NATIONAL ASSOCIATION OF ABANDONED MINE LAND PROGRAMS

WHEREAS, Title IV of the Surface Mining Control and Reclamation Act of 
        1977 (SMCRA) established the Abandoned Mine Land (AML) 
        reclamation program; and
WHEREAS, the National Association of Abandoned Mine Land Programs 
        (NAAMLP) was established as a nonprofit corporation to 
        accomplish the objectives of its 30 member tribes and States to 
        eliminate health and safety hazards and reclaim land and water 
        resources adversely affected by past mining and left in an 
        abandoned or inadequately restored condition; and
WHEREAS, NAAMLP members administer AML programs funded and overseen by 
        the Office of Surface Mining Reclamation and Enforcement (OSM), 
        U.S. Department of the Interior; and
WHEREAS, pursuant to the cooperative Federalism approach contained in 
        SMCRA, all tribes and States who are members of NAAMLP have 
        federally approved abandoned mine reclamation plans; and
WHEREAS, SMCRA, Title IV, establishes a reclamation fee on each ton of 
        coal mined in the United States to pay for abandoned mine land 
        reclamation; and
WHEREAS, SMCRA, Title IV, mandates that 50 percent of the reclamation 
        fees collected annually are designated as State/tribal share 
        funds to be returned to the States and tribes from which coal 
        was mined to pay for reclamation programs administered by the 
        States and tribes; and
WHEREAS, SMCRA Title IV also mandates that a minimum level of funding 
        should be provided to ensure effective State program 
        implementation; and
WHEREAS, Congress enacted amendments to SMCRA in 2006 to address, among 
        other things, funding for State and tribal programs and fee 
        collection to address existing and future AML reclamation; and
WHEREAS, the 2006 Amendments established new, strict criteria that 
        ensures States and tribes expend funds on high priority AML 
        sites; and
WHEREAS, the proposed 2012 budget for the Office of Surface Mining 
        Reclamation and Enforcement within the U.S. Department of the 
        Interior would abandon the 50/50 State-Federal partnership 
        established under SMCRA and renege on the funding formula under 
        the 2006 amendments by, among other things, eliminating 
        mandatory funding for those States and tribes who have 
        certified the completion of their coal reclamation work and 
        adjusting the mechanism by which noncertified States receive 
        their mandatory funding through a competitive bidding process; 
        and
WHEREAS, if statutory changes are approved by Congress as suggested by 
        the proposed fiscal year 2012 budget for OSMRE, reclamation of 
        abandoned mine lands within certified States and tribes would 
        halt; reclamation of abandoned mine lands in all States would 
        be jeopardized; employment of contractors, suppliers, 
        technicians and others currently engaged in the reclamation of 
        abandoned mine lands would be endangered; the cleanup of 
        polluted lands and waters across the United States would be 
        threatened by failing to fund reclamation of abandoned mine 
        lands in some States; minimum program State funding would be 
        usurped; the AML water supply replacement program would be 
        terminated, leaving coalfield citizens without potable water; 
        and the intent of Congress as contained in the 2006 amendments 
        to SMCRA and its 2006 Amendments would be undermined

NOW, THEREFORE BE IT RESOLVED BY THE NATIONAL ASSOCIATION OF ABANDONED 
MINE LAND PROGRAMS THAT ITS MEMBER TRIBES AND STATES:

Opposes the legislative proposal terminating funding for certified 
States and tribes and altering the receipt of mandatory AML funding for 
noncertified States contained in the fiscal year 2012 budget proposal 
for the Office of Surface Mining Reclamation and Enforcement and 
instead supports the AML funding mechanism contained in current law.

                                   Issued this 22nd day of February, 
                                       2011

                                   ATTEST:

                                   Michael P. Garner,
                                   President, NAAMLP.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies

    The National Association of Clean Air Agencies (NACAA) appreciates 
this opportunity to provide testimony on the fiscal year 2013 proposed 
budget for the United States Environmental Protection Agency (EPA). 
NACAA is a national, nonpartisan, nonprofit association of air 
pollution control agencies in 45 States, the District of Columbia, 4 
territories and more than 165 metropolitan areas. The members of NACAA 
have the primary responsibility under the Clean Air Act for 
implementing our Nation's clean air program. The air quality 
professionals in our member agencies have vast experience dedicated to 
improving air quality in the United States. The comments we offer are 
based upon that experience. The views expressed in these comments do 
not necessarily represent the positions of every State and local air 
pollution control agency in the country. NACAA supports the President's 
request for a $65.8 million increase in Federal grants for State and 
local air pollution control agencies under sections 103 and 105 of the 
Clean Air Act--part of the State and Tribal Assistance Grant (STAG) 
program (for a total of $301.5 million).
Air Pollution is a Significant Public Health Problem
    With all the competing requests the Congress must address, one may 
ask why air quality programs should receive additional funding. The 
answer is that dirty air poses a significant risk; tens of thousands of 
people die prematurely every year. In fact, it would be fair to say 
that more people die from air pollution than from almost any other 
problem under this subcommittee's jurisdiction. Many more people suffer 
serious health problems as a result of air pollution, including 
aggravation of existing respiratory and cardiovascular disease; damage 
to lung tissue; impaired breathing; irregular heart beat; heart 
attacks; adverse effects on learning, memory, IQ, and behavior; and 
cancer.
    While Federal, State and local clean air programs have made 
tremendous progress, millions of people in this country continue to 
breathe unhealthful air. EPA estimated that about 124 million people 
lived in areas that violated at least one of the health-based National 
Ambient Air Quality Standards (NAAQS) in 2010.\1\ EPA's data on toxic 
air pollution showed that everyone in the United States had an 
increased cancer risk of more than 10 in 1 million (1 in 1 million is 
generally considered ``acceptable'') in 2005.\2\ Finally, air pollution 
also harms vegetation and land and water systems, impairs visibility 
and causes other adverse impacts.
---------------------------------------------------------------------------
    \1\ Our Nation's Air: Status and Trends Through 2010 (February 
2012), EPA, www.epa.gov/airtrends/2011/.
    \2\ National Air Toxics Assessment for 2005--Fact Sheet, 
www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
---------------------------------------------------------------------------
The Current State of Funding for Air Quality Programs
    Funding for State and local air pollution control programs comes 
from several sources, including State and local appropriations; the 
Federal permit fee program under title V of the Clean Air Act; State 
and local permit and emissions fee programs and Federal grants under 
sections 103 and 105 of the Clean Air Act. Section 103 has usually 
funded specific monitoring efforts (e.g., particulate matter 
monitoring), while section 105 supports the foundation of State and 
local air quality programs, including, but not limited to, personnel.
    The Clean Air Act authorizes the Federal Government to provide 
grants up to 60 percent of the cost of State and local air quality 
programs, while State and local agencies must provide a 40-percent 
match (as per section 105). In reality, however, the Federal Government 
provides less than one-quarter of the total State/local air budget, 
while State and local governments supply more than three-quarters (not 
including income from title V permit fees). Furthermore, numerous air 
quality agencies receive no section 105 grants and must supply all of 
the funds to implement federally mandated programs to attain and 
maintain the national air quality standards.
    Not only do Federal funds provide a small share of the cost of 
Clean Air Act programs, those grants have actually decreased in 
purchasing power over the years due to inflation. As the following 
chart shows, this decline between fiscal year 2000 and fiscal year 2011 
has equaled 9 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because of current economic conditions, many State and local air 
agencies are finding it difficult to keep essential programs operating. 
Many have had to reduce or eliminate programs that protect public 
health and have had to reduce their staffs. As a result, States and 
localities are more dependent than ever on their Federal grants.
    In this time of limited State and local resources, where State and 
local governments are straining to maintain existing programs, 
additional Federal funding is needed to meet the ongoing and ever-
increasing responsibilities and challenges of air quality programs. A 
2009 NACAA funding study documented an annual shortfall of $550 million 
in Federal grants for State and local air programs.\3\ While the 
proposed increase would not solve all our funding problems, it is 
critically needed to help fill the gap in our efforts to attain and 
maintain healthful air quality.
---------------------------------------------------------------------------
    \3\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies (April 2009), NACAA, 
http://www.4cleanair.org/Documents/Reportneedssurvey042709.pdf.
---------------------------------------------------------------------------
    An EPA study from March 2011 highlighted the cost effectiveness of 
air quality programs, showing that the benefits from the Clean Air Act 
have outweighed the costs by more than 30 to 1.\4\ Moreover, an EPA 
White Paper from last year reported that environmental protection, 
including air quality, has had a significant positive effect on our 
economy in general and job creation in particular.\5\ Certainly 
additional jobs, a healthier and more productive workforce and fewer 
healthcare expenditures are all beneficial to our economy and should be 
encouraged through congressional appropriations, such as grants to 
State and local agencies.
---------------------------------------------------------------------------
    \4\ The Benefits and Costs of the Clean Air Act Amendments from 
1990 to 2020 (March 1, 2011), EPA, http://www.epa.gov/air/sect812/
feb11/summaryreport.pdf.
    \5\ Empirical Evidence Regarding the Effects of the Clean Air Act 
on Jobs and Economic Growth, EPA White Paper (February 9, 2011), http:/
/www.epa.gov/ocir/pdf/hottopics/2011_0208_white_paper.pdf.
---------------------------------------------------------------------------
Permit Fees Cannot Fill the Gap
    Some believe that the permit and emission fee program under title V 
of the Clean Air Act is the answer to the State and local air agencies' 
financial problems. Unfortunately, this is not so for several reasons. 
First, the fees must support only the operating permit program (and 
associated program support) and must not be used for other activities. 
Second, fees only apply to major sources and do not cover the 
significant costs related to nonmajor sources, which include minor 
source permits, monitoring, enforcement, compliance assistance, etc. 
Third, fee revenue is decreasing due to reductions in the emissions on 
which they are based.
    Increases in costs for air quality programs (except for permit 
programs themselves) are not addressed by title V permit fee programs. 
The Clean Air Act's fee program, while essential to State and local 
efforts, is not the solution to the funding problem. Federal grants 
must be expanded to meet the significant resource requirements.
The Increases Will Support Essential Programs
    The President's proposed budget calls for a much-needed increase of 
$65.8 million more than fiscal year 2012 levels for several very 
important activities. We urge the Congress to provide the amount of 
increased grants the administration is recommending, but to allow State 
and local air agencies the flexibility to determine which activities 
are most in need of additional funds in their areas. While there is a 
need for additional funds for a myriad of programs and activities at 
the State and local levels, most agencies find that they will require 
additional grants primarily for two major categories:
  --core programs; and
  --monitoring.
    Core Activities.--We are gratified that the President's request 
calls for additional grants to support State and local air agencies' 
core programs. These activities are the very foundation of our programs 
and include current day-to-day activities, as well as new and 
innovative efforts to address additional requirements. As EPA issues 
updated health-based NAAQS, State and local air agencies must prepare 
or update State Implementation Plans (SIPs). Specifically in fiscal 
year 2013, State and local air agencies must implement the revised 
lead, nitrogen dioxide (NO<INF>2</INF>), and sulfur dioxide 
(SO<INF>2</INF>) NAAQS, and the current particulate matter (PM), and 
ozone NAAQS. This includes the 1997 PM<INF>2.5</INF> NAAQS, the 2006 
24-hour PM<INF>2.5</INF> NAAQS, the 1-hour ozone NAAQS (through anti-
backsliding requirements), the 1997 8-hour ozone NAAQS, and the 2008 8-
hour ozone NAAQS. To develop these SIPs, State and local air agencies 
must compile emission inventories, carry out sophisticated modeling, 
significantly expand and operate monitoring networks, adopt and enforce 
regulations and address complex multi-pollutant and multi-state 
transport issues, among others. Additionally, agencies must 
continuously reassess and change SIPs as they are implemented. All of 
these important activities require significant resources.
    Monitoring.--State and local air agencies are facing a host of 
ongoing and additional monitoring requirements to address standards for 
ozone, lead, NO<INF>2</INF> and SO<INF>2</INF> that are either new or 
have been revised. In addition to monitoring for the health-based 
criteria pollutants, additional monitoring of toxic air pollutants is 
necessary. These monitoring activities provide information about the 
amount of pollution in the air and, later, about how successful our 
control strategies have been. In order to accomplish this monitoring, 
these agencies must purchase and operate additional ambient air 
monitoring equipment. While the budget request for air quality 
monitoring in fiscal year 2013 would not address all our additional 
monitoring needs, it would certainly help clean air agencies to expand 
their monitoring programs.
    EPA is proposing to begin the process of shifting funds for fine 
particulate matter (PM<INF>2.5</INF>) monitoring from section 103 
authority, where no match is needed, to section 105, which would 
require additional matching funds. We strongly urge that these funds 
remain under section 103 authority, as they have in the past. For 
individual agencies that have concerns about the matching requirements, 
this will ensure that they can continue receiving these monitoring 
funds. Additionally, we are concerned that EPA is proposing to reduce 
the total amount specifically set aside for fine particulate matter 
monitoring, based on the theory that State and local air agencies will 
fill in the reduced amount as part of their matching funds. However, as 
many agencies are already overmatched and would not be adding to the 
funds set aside for PM<INF>2.5</INF> monitoring, this important 
monitoring program could suffer. We recommend that EPA allot the same 
amount for PM<INF>2.5</INF> monitoring as it did last year and leave 
the entire amount under section 103 authority.
Conclusion
    The President's budget request calls for a much-needed increase in 
grants to State and local air quality agencies at a time when they are 
required to take on significant new responsibilities and continue their 
current efforts. While these increases would not completely address the 
enormous funding deficit that these programs face, they would be very 
helpful to State and local air quality programs.
    NACAA recommends, therefore, that the Congress appropriate an 
amount consistent with the President's fiscal year 2013 request for 
Federal grants to State and local air quality agencies under sections 
103 and 105 of the Clean Air Act, which is $305.1 million. This 
represents an increase of $65.8 million more than the fiscal year 2012 
appropriated amount.
    Thank you for this opportunity to testify on this important issue 
and for your consideration of the funding needs of State and local air 
quality programs as they work to improve and protect public health.
                                 ______
                                 
   Prepared Statement of the National Association of Forest Service 
                                Retirees

    Mr. Chairman and members of the subcommittee, the National 
Association of Forest Service Retirees (NAFSR) respectfully submits the 
following statement for the record to the Subcommittee on the Interior, 
Environment, and Related Agencies regarding the fiscal year 2013 budget 
for the United States Forest Service (USFS). I am Hank Kashdan, 
Legislative Director for NAFSR. I retired from USFS in December 2010 
having served as Associate Chief immediately prior to retirement. Let 
me first express NAFSR's gratitude for this opportunity to provide 
recommendations on the proposed budget for USFS. The NAFSR organization 
is a national, nonprofit organization of former USFS employees and 
associates. Members of the Association possess a unique body of 
knowledge, expertise and experience in the management of the National 
Forests, other public lands, forestry research, State and private 
forestry assistance, agency history, laws and regulations, and 
international forestry. Members of NAFSR are devoted to contributing to 
understanding and resolving natural resource issues through education, 
independent and cooperative analysis, and periodic review and critiques 
of agency policies and programs.
    This statement will address four areas of the administration's 
proposed budget and programs for the USFS:
  --the Wildland Fire Management Program;
  --the Agency's Focus on Restoration;
  --State and Private Forestry and Redesign; and
  --Potential Administrative Reforms to be Implemented by the 
        Department of Agriculture.
    Before addressing the specific areas noted above, NAFSR would first 
like to express its appreciation to the subcommittee for its clear 
commitment to preserving the core programs of USFS during some 
difficult budgetary times. In our opinion, the final enacted budget for 
fiscal year 2012 clearly indicates the Congress's appreciation of the 
importance of the USFS mission in managing the America's precious 
natural resources. As the budgetary pressure continues to affect the 
discretionary funding in the Federal budget, we are confident that with 
your support, the USFS will continue its ability to effectively steward 
the Nation's forests and grasslands and maintain a Forest and Rangeland 
Research program that is among the best in the world.

                        WILDLAND FIRE MANAGEMENT

    The administration proposes to fund wildfire suppression costs at 
the 10-year average and proposes a slight decrease in fire preparedness 
while targeting $24 million for ``modernizing the firefighting large 
airtanker fleet.'' NAFSR feels it important to raise several concerns 
regarding this budget proposal. First pertaining to wildfire 
suppression; while we concur that it is appropriate to fund wildfire 
suppression at the 10-year average, it is important to note the strong 
potential to exceed this amount during the fire season. The last three 
wildfire seasons have involved lower than normal large fires and 
significantly reduced expenditures. As a result under provisions of the 
FLAME Act, unexpended funds would normally have remained available for 
use in a season where expenditures exceeded available funds. However 
due to significant budgetary pressure, the Congress elected to use 
these unobligated funds for other purposes, thus resulting in funds 
only being available to the level of the 10-year average. While USFS's 
attention to appropriate wildfire suppression response can credited 
with some of the reduced wildfire suppression costs, it is clear that 
Mother Nature has been the primary contributor. These lower than normal 
wildfire seasons should not be expected to continue. The prospect of 
suppression costs exceeding available funding raises the very 
significant concern about a return to the ``wildfire suppression 
transfers'' that so detrimentally affected the agency's mission during 
wildfire seasons in the fiscal years of 2000 through 2005. As USFS 
ramps up its effort to restore unhealthy and wildfire prone ecosystems, 
a return to fire transfers of the past is a serious issue that can be 
disruptive to the critical work of the agency. This was pointed out by 
the Government Accountability Office in its report entitled ``Funding 
Transfers Cause Project Cancellations and Delays, Strained 
Relationships, and Management Disruptions, GAO-04-612, June 2, 2004.'' 
In these challenging budgetary times, NAFSR can only assume that should 
fire transfers occur, the prospect of immediate action to provide 
supplemental funding will be unlikely. This eventuality is one of the 
primary reasons FLAME was enacted, and which would not be redeemed if 
the coming season, or that of fiscal year 2013 is severe. NAFSR urges 
the subcommittee to prepare for a bad season through some form of 
advance emergency suppression provision in the fiscal year 2013 budget.
    The President's budget for wildfire preparedness reflects a $2.9 
million decrease and specifically targets $24 million for modernizing 
the large airtanker fleet. The agency's budget overview indicates there 
will be a decreased preparedness staffing level of 438 full-time 
equivalents based on this budget request. NAFSR urges the subcommittee 
to provide funding to retain a level wildfire preparedness staffing 
level. It has been continually demonstrated that the most effective way 
to control suppression costs is to be successful upon initial attack. 
Any decrease in staffing levels jeopardizes such ability to 
successfully suppress a wildfire at the time of initial attack. A 
single wildfire could cost as much as $100 million to suppress. Thus 
the agency needs to be aggressive in suppressing all wildfires at the 
point of initial attack as this will help contain costs; costs that can 
be turned into landscape restoration actions which are investments that 
will cut the costs to the Federal budget and impacted communities.
    In regards to the targeted funding for large airtankers, NAFSR 
concurs that any viable option for providing new airframes will cost 
more. However, NAFSR strongly discourages the subcommittee from 
authorizing any USFS purchase of C-130 aircraft (an option in the 
recently released airtanker strategy) at a cost of close to $80 million 
each. With the airtanker industry clearly able to provide suitable 
airframes if USFS can expand its contracting authorities, there is no 
reasonable rationale to use large sums of taxpayer money to purchase 
aircraft. This situation has become critical. The continuing loss of 
airtankers and medium retardant helicopters is making more perilous the 
ability with cooperators to effectively achieve initial wildfire attack 
response requirements. In fiscal year 2000 there were 43 available 
airtankers. Only 11 are available for the 2012 fire season. Adequate 
Federal airtanker capability is essential to keep a balance of local, 
State and Federal airtankers available to meet fire response time 
standards that are critical to protecting natural resources, watershed 
values, communities, public safety, and infrastructure. We encourage 
the subcommittee to continue to explore enhanced contracting 
authorities that will enable private industry to meet the large 
airtanker needs.

             UNITED STATES FOREST SERVICE RESTORATION FOCUS

    The President's budget reflects a strong focus on restoration 
programs to restore ecosystems to healthy and resilient conditions. 
NAFSR concurs with this focus and recognizes that such efforts will 
improve the economy of local communities and over the long term reduce 
the vulnerability to catastrophic wildfire events. Key components of 
the restoration focus involve community collaboration, full funding of 
the Collaborative Forest Landscape Restoration Program (CFLRP), and 
achieving permanent authority for Stewardship Contracting. In this 
regard NAFSR is fully supportive of the President's budget. However, we 
note that the President's budget again reflects a request to 
consolidate restoration activities under an Integrated Resource 
Restoration (IRR) budget line item. While NAFSR agrees this line item 
has potential to improve overall agency performance, and reflects a 
better integration of the broad range of agency programs, from the an 
accountability standpoint, ``the jury is still out.'' NAFSR is very 
appreciative that the Congress authorized a pilot program to test the 
IRR concept in three regions, and recommends that further 
consolidations of budget line items not be enacted until the agency can 
demonstrate improved efficiency and performance over the life of the 
pilot. Although the budget reflects a reduction of $12.1 million in 
restoration related programs, NAFSR does support the budget overall in 
light of the challenging budgetary outlook in fiscal year 2013. In 
order to offset this reduction NAFSR recommends full funding of the 
CFLRP as requested in the budget. NAFSR further recommends continued 
support for implementing permanent authority for Stewardship 
Contracting. This contracting authority is a core element of community 
collaboration and is quickly becoming the tool of choice for USFS land 
managers in achieving desired restoration objectives.

                STATE AND PRIVATE FORESTRY AND REDESIGN

    Efforts to significantly improve forest and grassland restoration 
objectives must be accomplished in concert with USFS State and Private 
Forestry Program. NAFSR notes an overall decrease in State and private 
funding of $2.1 million, and recommends that such a reduction not occur 
at the expense of International Forestry and Forest Inventory and 
Analysis. Rather, NAFSR recommends that the proposed funding level for 
the Forest Legacy Program be reduced to levels that will restore Forest 
Inventory and Analysis and International Forestry to the fiscal year 
2012 level.
    The President's budget for the State and Private Program includes a 
proposal to combine several budget line items for Federal Lands Forest 
Health and Cooperative Lands Forest Health, as well as the 
establishment of a Landscape Scale Restoration budget line item which 
consolidates six previously separate programs funded under Wildland 
Fire and State and Private. NAFSR supports these consolidations. 
Although NAFSR expressed concern for a similar consolidation under the 
National Forest System account, in the case of State and Private, we 
are supportive. This budget proposal is a result of extensive 
collaboration with partners over several years which has led to the 
``State and Private Redesign.'' The reality of the State and Private 
Program's budget is that the individual programs have small amount of 
funds (compared to other agency line items) that achieve efficiency 
through leveraging with partners. NAFSR supports the consolidated line 
item as a way of stretching these funds over the widest possible 
restoration focus in cooperation with State and local partners.

POTENTIAL ADMINISTRATIVE REFORMS TO BE IMPLEMENTED BY THE DEPARTMENT OF 
                              AGRICULTURE

    The NAFSR organization consists of retired employees who reside 
across the Nation and who maintain extensive contact with the 
organization and partners at all levels. Many of our members are 
raising concerns about the prospect of future administrative 
consolidations that might be implemented by the Department of 
Agriculture (USDA). While the agency has recovered for the most part 
from the impacts of major efficiency efforts that resulted in 
consolidated services for information technology, human resources, and 
financial management, it appears USFS is likely to be forced through 
another set of reforms as USDA undertakes significant efforts to 
improve efficiency. While NAFSR is supportive of any effort to enhance 
efficiency and stretch funding to accomplish the agency's mission, we 
do have concerns that the USDA efforts, if not done incrementally and 
with full recognition of prior consolidation missteps, will once again 
result in chaotic impacts and expense. NAFSR notes that the President's 
budget for USFS involves an increased assessment of approximately $7.6 
million in ``Central Cost'' and ``Green Book'' programs which currently 
total more than $200 million in assessments. While NAFSR understands 
that USFS must pay its ``fair share'' of total USDA operating costs, 
these increased assessments do not tend to imply that efficiencies will 
readily occur and that despite efforts to implement reforms, costs over 
the long term will continue to rise. NAFSR strongly encourages the 
subcommittee to work with its Agriculture Appropriations counterparts 
to assure that future USDA efficiency reforms have a strong potential 
to result in improved service to the Nation, and that such reforms are 
implemented incrementally based on well established benchmarks for 
accountability.

                               CONCLUSION

    Mr. Chairman and members of the subcommittee, this concludes 
NAFSR's statement for the record. We close by once again expressing our 
sincere appreciation for your commitment to supporting the mission of 
USFS and for your support of a program of work that assures quality 
natural resource stewardship will continue into the future. We are 
ready to assist the subcommittee at any time.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Mr. Chairman, Ranking Member and members of the subcommittee, I am 
David Terry, Executive Director of the National Association of State 
Energy Officials (NASEO). NASEO represents the energy offices in the 
States, territories and the District of Columbia. NASEO is submitting 
this testimony in support of funding for the ENERGY STAR program 
(within the Climate Protection Division of the Office of Air and 
Radiation) at the U.S. Environmental Protection Agency (EPA). NASEO 
supports funding of at least $55 million, including specific report 
language directing that the funds be utilized only for the ENERGY STAR 
program. The ENERGY STAR program is successful, voluntary and cost 
effective. With energy prices increasingly volatile, ENERGY STAR can 
help consumers quickly.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and more than 40 States are ENERGY STAR Partners. In 2005, EPA and 
NASEO announced a State Partnership program, which has many State 
members. With very limited funding, EPA's ENERGY STAR program works 
closely with the State energy offices to give consumers and businesses 
the opportunity to make better energy decisions, without regulation or 
mandates.
    ENERGY STAR focuses on energy efficient products as well as 
buildings. For example, in 2008, 550 million ENERGY STAR products were 
purchased. The ENERGY STAR label is recognized across the United 
States. It makes the work of the State energy offices much easier, by 
working with the public on easily recognized products, services and 
targets. In order to obtain the ENERGY STAR label a product has to meet 
established guidelines. ENERGY STAR's voluntary partnership programs 
include ENERGY STAR Buildings, ENERGY STAR Homes, ENERGY STAR Small 
Business and ENERGY STAR Labeled Products. The program operates by 
encouraging consumers and working closely with State and local 
governments, to purchase these products and services. Marketplace 
barriers are also eradicated through education. State energy offices 
are working with EPA to promote ENERGY STAR products, ENERGY STAR for 
new construction, ENERGY STAR for public housing, etc.
    In addition to the State partners, the program has more than 14,000 
voluntary partners including more than 2,000 manufacturers using the 
label, more than 1,000 retail partners, more than 5,000 builder 
partners, 4,500 businesses, 550 utilities and thousands of energy 
service providers. The Home Performance with ENERGY STAR activity 
allows us to focus on whole-house improvements, not simply a single 
product or service. This is extremely beneficial to homeowners. We are 
also working closely with EPA in the implementation of the ENERGY STAR 
Challenge, which is encouraging businesses and institutions to reduce 
energy use by 10 percent or more, usually through very simple actions. 
We are working with the building owners to identify the level of energy 
use and compare that to a national metric, establish goals and work 
with them to make the specified improvements. Again, this is being done 
without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR business partners 
program. We hope this expansion will continue. EPA has been expanding 
the technical assistance work with the State energy offices in such 
areas as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.

                               CONCLUSION

    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding in 
fiscal year 2013. Funding for the ENERGY STAR program is justified. 
NASEO endorses these activities and the State energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters

    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate 
Appropriations Subcommittee on the Interior, Environment, and Related 
Agencies regarding our fiscal year 2013 appropriations recommendations. 
Our priorities center on appropriations for the USDA Forest Service 
(USFS) State and Private Forestry (S&PF) programs. State Foresters 
fully appreciate the difficult choices that come with spending 
decisions. However, the commitment to the American people must also 
include making smart investments in programs that provide significant 
benefits to the health of our economy and our environment. We therefore 
recommend that fiscal year 2013 appropriations for S&PF be held at $262 
million, representing similar funding levels enacted in fiscal year 
2012.
    State Foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's forests. The USFS S&PF mission area provides 
vital support for delivering these services alongside other 
socioeconomic and environmental health benefits in both rural and urban 
areas. The comprehensive process for delivering such services is 
articulated in each of the State Forest Action Plans as authorized in 
the 2008 farm bill. S&PF programs provide a significant return on the 
Federal investment by leveraging the boots-on-the-ground and financial 
resources of State agencies to deliver assistance to forest landowners, 
tribes and communities. As State and Federal governments face extremely 
tight fiscal conditions, State Foresters, in partnership with the S&PF 
mission area of USFS, are best positioned to maximize the effectiveness 
of the limited resources available to respond to priority forest issues 
and focus efforts in those areas where they are needed most.

        RESPONDING TO PRIORITY FOREST ISSUES, TRENDS AND THREATS

    Management activities are underway to implement the State Forest 
Action Plans and respond to the following trends, issues, and 
priorities:
Forest Pests and Invasive Plants
    Among the greatest threats identified in the Forest Action Plans 
are exotic forest pests and invasive species. The growing number of 
damaging pests is often a result of the introduction and spread by way 
of wooden shipping materials, movement of firewood and through various 
types of recreation. A new pest is introduced every 2 to 3 years. These 
pests have the potential to displace native trees, shrubs and other 
vegetation types in forests. USFS estimates that hundreds of native and 
nonnative insects and diseases damage the Nation's forests each year. 
In 2009, approximately 12 million acres suffered mortality from insects 
and diseases.\1\ These losses impact the availability of clean and 
abundant water, wildlife habitat, clean air, and other environmental 
services that may be lost or impacted due to insect and disease 
infestation. Further, extensive areas of high insect or disease 
mortality can set the stage for large-scale, catastrophic wildfire.
---------------------------------------------------------------------------
    \1\ Man, Gary. 2010. Major Forest Insect and Disease Conditions in 
the United States: 2009 Update. Last accessed on March, 7, 2012 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_09_final.pdf
---------------------------------------------------------------------------
    In response, the Cooperative Forest Health Management program 
provides technical and financial assistance to States and territories 
to maintain healthy, productive forest ecosystems on non-Federal forest 
lands. Funding for the Program supports activities related to 
prevention, suppression, and eradication of insects, diseases, and 
plants as well as conducting forest health monitoring through pest 
surveys. The Program helped combat native and invasive pests on more 
than 766,000 acres of Cooperative lands in fiscal year 2011.\2\
---------------------------------------------------------------------------
    \2\ USDA Forest Service Fiscal Year 2013 President's Budget 
Justification. Last accessed February 21, 2012 at http://www.fs.fed.us/
aboutus/budget/2013/fy2013-justification.pdf.
---------------------------------------------------------------------------
    NASF supports the proposed consolidation of the Forest Health 
Program under State and Private Forestry and urges funding the Forest 
Health--Cooperative Lands Program at the current fiscal year 2012 
enacted level of $49 million. Any further cuts to this program beyond 
those made in fiscal year 2012 will necessitate deeper reductions in 
support for communities already facing outbreaks and expose more of the 
Nation's forests and trees to the devastating and costly effects of 
exotic and invasive pests and pathogens. This request is supported by a 
strong diversity of organizations in the forestry, conservation, and 
environmental community.\3\
---------------------------------------------------------------------------
    \3\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
Fuel Loads and Wildland Fire
    More people in fire-prone landscapes, high fuel loads, drought and 
unhealthy landscapes are among the factors that have led State 
Foresters to identify wildland fire as a significant priority issue in 
their Forest Action Plans. These factors have created a wildland fire 
situation that has become increasingly expensive and complex and, in 
many cases, threatens human life and property. In 2011, more than 
74,000 wildland fires burned more than 8.7 million acres.\4\ In the 
wake of these larger fires, the number of structures destroyed also 
surpassed the annual average with more than 5,200 structures, including 
nearly 3,500 residences.\1\ Of the 66,700 communities across the 
country currently at risk of wildland fire, only 21 percent are 
prepared for wildland fire.\5\ NASF and many other organizations in the 
forestry, conservation and environmental community agrees that the 
Forest Service State Fire Assistance (SFA) Program is essential in 
addressing the threat of wildland fire on non-Federal lands.\6\
---------------------------------------------------------------------------
    \4\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 9. Last accessed February 1, 2012 at http://
www.predictiveservices.nifc.gov/intelligence/2011_statssumm/
intro_summary.pdf.
    \5\ National Association of State Foresters, Communities at Risk 
Report FY2011. Last accessed February 1, 2012 at http://
www.stateforesters.org/files/2011-NASF-finalCAR-report-FY11.pdf.
    \6\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
    SFA is the fundamental Federal mechanism that assists States and 
local fire departments in developing preparedness and response 
capabilities for wildland fire management on non-Federal lands. This 
program helps train and equip first responders who can quickly and 
efficiently respond to wildland fires. By directing resources to 
actions that help reduce the number of large wildland fires--including 
prevention education, preparedness activities and fuels mitigation--the 
SFA program directly addresses concerns over rising wildland fire 
suppression costs, while also reducing wildland fire risks. In fiscal 
year 2011, SFA directly funded hazardous fuel treatments on nearly 
202,000 acres and provided assistance to 14,724 communities as they 
prepare for (and mitigate the risk of) wildland fire.\2\ NASF supports 
funding for the program at no less current enacted levels of $86 
million and endorses the proposal to consolidate SFA into one line 
item.
Working Forest Landscapes
    Working forest landscapes are a key part of the rural landscape and 
provide an estimated 900,000 jobs, in addition to clean water, wood 
products and other essential services to millions of Americans. For 
instance, 80 percent of renewable biomass energy comes from wood, 53 
percent of all freshwater in the United States originates on forest 
land and more than $200 billion in sales of consumer products and 
services are provided through the Nation's forests each year.\7\ 
Working forests are necessary to help the forest products industry 
recover and (re)employ nearly 300,000 full-time jobs that have been 
lost over the past 5 years as a result of the economic downturn.\8\
---------------------------------------------------------------------------
    \7\ Society of American Foresters. The State of America's Forests. 
2007.
    \8\ Guldin, R.W. and W. B. Smith. Forest Sector Reeling During 
Economic Downturn. 2012. Last accessed online at: http://
www.nxtbook.com/nxtbooks/saf/forestrysource_201201/index.php?startid=1.
---------------------------------------------------------------------------
    Private forests make up two-thirds of all the forestland in the 
United States and support an average of eight jobs per 1,000 acres.\9\ 
The ability of working forests to continue providing jobs, renewable 
energy, clean and abundant water and other important services is in 
jeopardy as private forests are lost to development. The Forest Service 
estimates that 57 million acres of private forests in the United States 
are at risk of conversion to urban development over the next two 
decades. The Forest Stewardship Program, Forest Legacy Program and 
other programs within USDA are key tools identified in the Forest 
Action Plans to keep working forests intact.
---------------------------------------------------------------------------
    \9\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program (FSP) is the most extensive family 
forest-owner assistance program in the country. Planning assistance is 
delivered in cooperation with State forestry agencies primarily through 
the development of Forest Stewardship Plans. The program provides 
information to private landowners to help them manage their land for 
wildlife, recreation, aesthetics, timber production, and many other 
purposes. The technical assistance provided through the FSP is a 
gateway to other effective USDA, State and private sector programs 
designed to help keep working forests intact. For instance, the FSP 
enables landowners to participate in USDA programs including the Forest 
Legacy Program and Environmental Quality Incentives Program. NASF 
recommends maintaining current funding at $29 million for the Forest 
Stewardship Program in fiscal year 2013. This program (and funding 
recommendation) enjoys support from landowners in every corner of the 
country.\10\
---------------------------------------------------------------------------
    \10\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
Urban and Community Forest Management Challenges
    Urban forests provide environmental, social and economic benefits 
to the more than 84 percent of Americans who live in metropolitan 
areas. Forest Action Plans identified a number of benefits associated 
with urban forests including energy savings, improved air quality, 
neighborhood stability, aesthetic values, reduced noise, and improved 
quality of life for communities across the country. At the same time, 
the plans reported a number of threats to urban and community forests 
including fire in the wildland urban interface (WUI), urbanization and 
development, invasive plants and insects, diseases and others.
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), USFS's Urban & Community Forestry (U&CF) program has 
provided technical and financial assistance to promote stewardship of 
urban forests in communities of all sizes across the country. The 
program is delivered in close partnership with State Foresters and 
leverages existing local efforts that have helped thousands of 
communities and towns manage, maintain, and improve their tree cover 
and green spaces. In fiscal year 2011, the U&CF program delivered 
technical, financial, educational, and research assistance to 7,172 
communities in all 50 States, the District of Columbia, U.S. 
territories and affiliated Pacific Island nations.\11\ The program 
reached nearly 195 million Americans (i.e., more than 60 percent of the 
U.S. population) and leveraged an additional $30 million in State and 
local support. NASF and the broad urban forestry community support an 
appropriation of $31 million in fiscal year 2013 for the Urban and 
Community Forestry Program.\12\
---------------------------------------------------------------------------
    \11\ USDA Forest Service Fiscal Year 2013 President's Budget 
Justification. Last accessed February 21, 2012 at http://www.fs.fed.us/
aboutus/budget/2013/fy2013-justification.pdf.
    \12\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
LANDSCAPE-SCALE RESTORATION AND RESPONSE TO FISCAL YEAR 2012 MANAGER'S 
                               STATEMENT

    Members of NASF recognize the value of competitively allocating a 
percentage of CFAA funds to encourage innovative approaches to 
addressing national, regional and State-specific priorities consistent 
with each State's Forest Action Plan. NASF also recognizes that the 
ability to provide State Foresters flexibility, with appropriate 
accountability, to reapply a portion of their allocations is necessary 
to address changing forest conditions and priorities. To that end, NASF 
supports the proposed Landscape Scale Restoration (LSR) line item with 
the understanding expressed in the fiscal year 2013 budget 
Justification that the current competitive process would be 
``formalized'' and that options for potentially establishing ``funding 
flexibility'' (per the fiscal year 2012 Interior, Environment, and 
Related Agencies Appropriations Managers Statement) would not be 
eliminated.
    NASF greatly appreciates (and requests) the continued support from 
the subcommittee to further explore options for providing State 
Foresters the ability to apply Federal funds in the highest-priority 
areas including, but not limited to, through the new LSR line item. Our 
recommended funding level for the LSR line item is contingent upon 
further discussions with the subcommittee and with the administration 
to better understand the budget relationships between the new line 
item, other CFAA programs and funding flexibility. NASF remains 
committed to working with the administration, including the USDA Forest 
Service, the Congress and other non-Federal partners to further define 
how Forest Action Plans can best inform and enhance Federal budget 
formulation and funding allocation decisions for CFAA programs.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) program, managed by Forest 
Service Research, is the Nation's only comprehensive forest inventory 
system for assessing the health and sustainability of the Nation's 
forests across all ownerships. FIA provides essential data related to 
forest species composition, forest growth rates, and forest health data 
and delivers baseline inventory estimates used in State Forest Action 
Plans. The Program provides unbiased information that serves as the 
basis for monitoring trends in wildlife habitat, wildfire risk, insect 
and disease threats, predicting spread of invasive species and for 
responding to priorities identified in the Forest Action Plans.
    We urge the Congress to support the FIA program in fiscal year 2013 
at no less than current funding levels of $69 million and provide 
direction to the Forest Service to look for the most efficient way(s) 
to deliver the program including contracting with partners, most 
notably State forestry agencies, who can accomplish necessary field 
work at lower cost. With efficient delivery, current funding levels can 
contribute towards the original goals of providing a fully annualized 
inventory in all States and provide policy makers, forest managers, 
private investors, and others with the information they need to make 
sound decisions regarding the Nation's forests.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to testify on tribal programs in the 
fiscal year 2013 budget under the Interior, Environment, and Related 
Agencies appropriations bill. This testimony will address programs in 
the Department of the Interior, Environmental Protection Agency, and 
Indian Health Service. Full funding of the Federal Government's trust, 
treaty and statutory obligations to tribes remains a bipartisan goal 
for Indian Country.
    In preparation for the President's budget, some agencies have 
consulted with tribes about programs in the budget. Recommendations 
from Indian Country that were included in the President's fiscal year 
2013 proposal include increases for contract support costs, some 
natural resource and environmental protection programs, public safety 
initiatives, and contract health services. While the administration's 
budget proposal maintains support for many critical programs, some cuts 
proposed represent significant setbacks to progress in Indian Country, 
such as for education construction. NCAI looks forward to working with 
this subcommittee to ensure that the Federal programs that fulfill the 
trust responsibilities to tribes receive bipartisan support in the 
appropriations process.
    Indian Country recognizes the state of the economy, the pressures 
on Government at all levels, and the related challenges for job 
seekers. Tribes take the responsibility to manage Federal funds as 
seriously as we do the Federal trust responsibility to provide them, 
and we propose the following general recommendations for the fiscal 
year 2013 budget.
  --Continue to promote the successful and efficient initiatives in 
        Indian Country that work, such as Self-Determination programs. 
        Critical to implementing these policies are the Bureau of 
        Indian Affairs (BIA) funding streams for Tribal Priority 
        Allocations, Contract Support Costs at BIA and the Indian 
        Health Service (IHS), and Tribal Grant Support Costs for tribal 
        schools.
  --Tribes urge the Congress to support legislation that will fully 
        restore the Secretary of the Interior's authority to take land 
        into trust for tribes (Carcieri).
    NCAI has compiled recommendations on many specific programs and 
agencies that affect Indian Country, but, in general, NCAI urges the 
Congress to at least hold Indian programs harmless in the fiscal year 
2013 appropriations process and exempted from across-the-board 
rescissions.
Public Safety and Justice
    Although they have taken various forms, the public safety problems 
that plague tribal communities are not new. They are the result of 
decades of gross underfunding for tribal criminal justice systems, a 
painfully complex jurisdictional scheme, and a centuries-old failure by 
the Federal Government to fulfill its public safety obligations on 
American Indian and Alaska Native lands.
    NCAI supports the Department of the Interior's Protecting Indian 
Country Initiative and the Priority Goal to reduce violent crime in 
Indian communities. Last year, the Department of the Interior launched 
the Safe Indian Communities Initiative, a 2-year program that included 
targeted community policing on four reservations, and the program has 
achieved successful and encouraging results. Since its inception, there 
has been a 35-percent overall decrease in violent crime across the four 
tribal communities. With an initial target of reducing violent crime by 
at least 5 percent, the initiative far exceeded this goal, achieving a 
68-percent decrease in violent crime at the Mescalero Reservation in 
New Mexico, a 40-percent reduction at Rocky Boy in Montana, and a 27-
percent reduction in violent crime at Standing Rock in North and South 
Dakota. The successful program is now being expanded to two additional 
reservations:
  --the Rosebud Sioux Reservation in South Dakota; and
  --the San Carlos Apache Reservation in Arizona.
    Indian Country would like to see it expanded even further--to reach 
even more tribes--and we would like to see the Congress appropriate 
adequate funding to ensure the Initiative's continued success. This 
Initiative has been a proven success, and these are the types of 
efforts that can make a real difference on the ground level, provided 
there is funding available to pursue them.
Indian Health Service
    The President's budget request demonstrates the administration's 
ongoing commitment to Indian Country and the recognition of the trust 
responsibility for providing healthcare in perpetuity to all American 
Indian and Alaska Native people. The increase of $116 million in the 
Indian Health Service (IHS) budget request was a confirmation of that 
commitment. Tribal leaders annually, through the National IHS Tribal 
Budget Formulation Workgroup, provide IHS with tribal leader priorities 
for the upcoming fiscal year. We applaud the administration for 
including targeted funding increases that have long been a priority for 
the Workgroup, such as for Contract Health Services, staffing, and 
contract support costs.
    While these increases are much needed, we must be clear that the 
IHS budget remains woefully short of providing full funding to the IHS 
system; and only full funding will ensure that parity is achieved in 
our healthcare system. Providing funding increases that addresses 
population growth and inflation so that current services can still be 
provided is vitally important.
    Tribal leaders provided the Congress and the administration a 
blueprint to bring parity to Indian people. The Indian Health Care 
Improvement Act (IHCIA) includes programs and services designed to 
bring the IHS into the 21st century. However, authorization only 
creates the program, appropriations are needed to fulfill its promise. 
Currently, there are 23 unfunded provisions in the IHCIA.
Education
    The fiscal year 2013 budget request for the Construction program is 
a reduction of $17.7 million less than fiscal year 2012. The request 
cuts $17.8 million, eliminating new school construction funding. Indian 
Affairs will focus on improving existing school facilities as part of 
the Department's strategic approach to not fund new construction in 
fiscal year 2013. The total fiscal year 2013 request for Education 
Construction is $52.9 million. NCAI urges funding for new school 
construction to be restored. All students in America deserve a safe, 
secure, and culturally appropriate environment in which to attend 
school. As cited in the draft No Child Left Behind School Facilities 
and Construction Negotiated Rulemaking Committee Report, numerous 
research studies have noted the link between inadequate facility 
conditions and poor performance by students and teachers. The report 
also underscored the fact that the quality of the school environment 
impacts student behavior, test scores, and teacher retention, among 
other issues. As of December 31, 2009, an estimated $1.34 billion was 
needed to bring 64 schools ranked in ``poor'' condition, meaning in 
significant need of repair, up to ``fair'' condition. Continued 
inadequate support for school facilities will cause the unmet need for 
construction and repair funds to balloon. Equally disconcerting is that 
the fiscal year 2013 budget directives could result in the continued 
elimination of funding for replacement school and replacement 
facilities. Delaying the replacement and repair of existing facilities 
not only jeopardizes student and staff safety, but also increases the 
amount of school funds that must be diverted to emergency repairs and 
other facilities maintenance--accounts which are also extremely 
underfunded.
Natural Resources
    The vitality and sustainability of natural resources is integral to 
the health of American Indian and Alaska Native peoples, communities, 
cultures, and economies. It also has demonstrable positive impacts on 
surrounding communities. The ecological practices tribal peoples have 
cultivated for millennia are inherently sustainable and practical.
            Environmental Protection Agency
    Although the Environmental Protection Agency's (EPA) fiscal year 
2013 budget decreased approximately $105 million overall from fiscal 
year 2012, much of the tribal set asides received increased funding. 
Recognizing tribes and States as the primary implementers of 
environmental programs the EPA continued funding its State and Tribal 
Assistance Grants program, which accounts for 40 percent of the EPA's 
budget request and is the largest percentage of the EPA's budget 
request. Tribes received an increase of approximately $29 million more 
than fiscal year 2012 appropriations to the Tribal General Assistance 
Program. These additional funds will assist tribes in capacity building 
and promote protections for the environment and human health. NCAI 
strongly supports the increased proposed for the Tribal General 
Assistance Program.
            Bureau of Indian Affairs, Natural Resources
    Tribes have voiced support for increased funding for natural 
resources programs in the Bureau of Indians Affairs through the Tribal 
Interior Budget Council, which provides input to the Department of the 
Interior on tribal budget concerns. The President's fiscal year 2013 
budget includes some of the recommendations for natural resources. 
Under trust land management, the fiscal year 2013 budget would provide 
increases in Trust Natural Resources of $3.5 million for the Rights 
Protection Implementation program and $2 million for the Tribal 
Management and Development program to support fishing, hunting, and 
gathering rights on and off reservations. The budget request would 
provide program increases of $1 million for the Forestry program and 
$500,000 for the Invasive Species program. An increase of $800,000 
supports greater BIA and tribal participation in the Landscape 
Conservation Cooperatives, for a total of $1 million. NCAI urges the 
Congress to retain these proposed increases in the final fiscal year 
2013 appropriations bill.
Supporting Tribal Governments
            Bureau of Indian Affairs
    The fiscal year 2013 President's budget includes $2.5 billion in 
current appropriations for Indian Affairs, which is $4.6 million or 0.2 
percent less than the fiscal year 2012 enacted level. The budget 
proposes a total of $897.4 million in Tribal Priority Allocations. 
Critical to implementing the Indian Self-Determination policy is the 
Bureau of Indian Affairs (BIA) funding streams for Tribal Priority 
Allocations, Contract Support Costs at BIA, and Tribal Grant Support 
Costs for tribal schools. NCAI supports the programmatic increases in 
Indian Affairs, which follow the recommendations from tribes. However, 
NCAI would note that the President's budget includes rather large 
reductions due to streamlining measures in the BIA. These reductions 
include $19.7 million in streamlining measures and $13.8 million in 
administrative savings. Although tribes appreciate that the 
administration is proposing increases to programs, NCAI would urge 
caution when cutting so deeply into BIA functions.
Economic Development
            Indian Guaranteed Loan Program
    The fiscal year 2013 proposed budget would provide $5 million for 
the Indian Guaranteed Loan program, a reduction of $2.1 million from 
the 2012 enacted level. The Department of the Interior's Office of 
Indian Energy and Economic Development (OIEED) Division of Capital 
Investment oversees the Indian Loan Guarantee Program that is the only 
Federal guarantee program that enables eligible borrowers to obtain 
conventional lender financing to develop Native businesses and eligible 
construction, while also enabling other companies to obtain 
supplemental surety bond guarantees. In the last several years, 
significant tightening of the credit markets made loans more difficult 
to obtain, reducing demand for loan guarantees. The revolving credit 
facility of the OIEED Loan Guarantee Program can greatly assist Native 
borrowers seeking guarantees for lines of credit for:
  --working capital;
  --payrolls for hiring new employees; and
  --assurances sufficient for sureties to provide performance bonds to 
        tribal- and other Native-owned contractors.
    The OIEED's Loan Guarantee Program is the most appropriate and 
urgently needed source of financing for business, energy, and other 
economic development in Indian Country. With the promises of a 
broadband-enabled economy in Indian Country looming on the horizon, an 
expanded investment in the OIEED Loan Guarantee Program would enable 
operating businesses to build their technological capacity as well as 
to provide seed financing for new businesses to begin operations. NCAI 
encourages the Congress to provide funding for the Indian Guaranteed 
Loan Program at a level of at least $10 million.
            Transportation
    NCAI urges an increase for the BIA roads maintenance program in 
fiscal year 2013, which services 29,000 miles of Indian Affairs-owned 
roads. As of 2011, the backlog in deferred maintenance was approximated 
to be $285 million, yet the funding level for BIA roads maintenance has 
been at about $25 million for the last 10 years.
Conclusion
    We look forward to working with Members of Congress to continue to 
build upon our successes. Tribal leaders urge the Congress to uphold 
its solemn promises to tribes, even as policymakers seek to reduce the 
deficit through spending reductions and revenue generation. The 
obligations to tribal citizens funded in the Federal budget are the 
result of treaties negotiated and agreements made between tribes and 
the United States in exchange for land and resources, known as the 
trust responsibility. The fulfillment of this trust responsibility is a 
solemn historic and legal duty.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition

Summary
    The National Cooperators' Coalition (NCC) urges the Subcommittee on 
the Interior, Environment, and Related Agencies to increase the funding 
of the U.S. Geological Survey's Cooperative Fish and Wildlife Research 
Units (CFWRUs) by $2.7 million more than the amount in the fiscal year 
2010 continuing resolution to fill vacant scientist positions. At a 
time when Federal spending needs to be reduced, the CFWRUs are 
precisely the type of program that should receive greater support 
because they successfully leverage $3 for every $1 of Federal funds 
appropriated for the program. With typically just three Federal 
scientists, each of the 38 CFWRUs is lean and highly productive and 
uses partnerships to avoid the need for Federal spending on 
administrative personnel, building space and much of the operating 
expenses. This cost-effective program, however, is in jeopardy unless 
funds are provided to replace its retiring scientists.
    The NCC also recognizes the efforts of several States that want to 
establish new unit capacity. Contingent on full funding of the base 
CFWRU program, it is vital to these efforts that an additional $2.5 
million be appropriated for the new capacity which will add units in 
Nevada, New Jersey and North Dakota and complete the wildlife mission 
at existing units in Hawaii and California.
Continue To Build on This Subcommittee's Efforts
    We greatly appreciate your leadership in adding funding in fiscal 
years 2008, 2009, and 2010 for the CFWRU research and training 
partnership, which for more than 75 years has brought together State 
fish and wildlife agencies, State universities, and Federal agencies 
around a local, applied research agenda. As a result, to provide the 
capacity in the CFWRU program that existed a decade ago, the fiscal 
year 2012 USGS appropriation now needs just $2.7 million more than the 
fiscal year 2010 enacted level.
    Each of the CFWRUs in 38 States is a true Federal-State-university-
private partnership among the U.S. Geological Survey, a State natural 
resource agency, a host university, and the Wildlife Management 
Institute. The CFWRUs build on these partner contributions to leverage 
more than $3 for every $1 appropriated to the program by the Congress. 
The CFWRUs have established a record of educating new natural resource 
professionals who are management-oriented, well-versed in science, 
grounded in State and Federal agency experience, and able to assist 
private landowners and other members of the public. Restoration of 
funding support would ensure that the Interior Department provides the 
Federal scientist staffing agreed to with CFWRU partners so that the 
return on the continuing investment in the program by those partners is 
realized and fully leveraged. At a time when Federal spending needs to 
be reduced, the role of the CFWRU program in facilitating solutions to 
natural resources management challenges and training the fish and 
wildlife managers of tomorrow should be expanded rather than 
compromised by funding shortfalls that result in the absence of 
scientist leaders.
    State and Federal natural resources agencies are facing 
unprecedented challenges posed by energy development needs, invasive 
species, infectious diseases, wildfire, and increased demand for 
limited water resources. These agencies also face the challenge of 
replacing an extraordinary number of natural resource professionals who 
are retiring. Finding workable solutions to these challenges requires 
the kind of approaches to research emphasized by the CFWRUs, which rely 
on leveraging Federal dollars through collaborative, interdisciplinary 
efforts to help resolve emerging issues at scales that transcend 
individual State boundaries.
    With appropriation of $22 million for the CFWRUs for fiscal year 
2012, a sound foundation will exist on which new capacity should be 
built. With appropriation of an additional $2.5 million will add CFWRUs 
in Nevada, New Jersey and North Dakota and complete the wildlife 
mission at existing CFWRUs in Hawaii and California. Rutgers 
University, University of Nevada--Reno, North Dakota State University-
The University of North Dakota, University of Hawaii--Hilo and Humboldt 
State University bring a wealth of research, education and innovative 
technology to address contemporary conservation issues at regional and 
national scales. The respective State agency partners bring an 
extensive history of successful fish and wildlife management skills and 
resources that complement those existing at the universities. The State 
agency and university partners are well equipped to collaborate with 
CFWRUs to help resolve natural resources management challenges that 
transcend State boundaries.
    We urge you to make greater use of the Cooperative Fish and 
Wildlife Research Units and to expand this program in five States. The 
program's efficient and cost-effective research and training 
partnership brings together State fish and wildlife agencies, State 
universities, and Federal agencies around a local, applied research 
agenda. With your assistance, this program can make the best use of 
limited Federal funds to become even more effective in using science 
and collaboration to address the natural resources challenges facing 
the Interior Department, other Federal, State, local agencies, and this 
country's citizens.
    Thank you for consideration of our request.
    The National Cooperators' Coalition is an alliance of non-Federal 
CFWRU program cooperators and other supporters. Its members include 
State fish and wildlife agencies, universities, and nongovernmental 
organizations. The mission of the NCC is to build a stronger and more 
coordinated base of support to serve research, education, and technical 
assistance needs of the non-Federal CFWRU program cooperators.

                                SPONSORS

University of Arkansas
University of Arizona
Arizona Game and Fish Department
Humboldt State University
Colorado State University
Colorado Division of Wildlife
University of Florida
Florida Fish and Wildlife Conservation Commission
University of Georgia
Georgia Department of Natural Resources
University of Hawaii
University of Idaho
Idaho Department of Fish and Game
Indiana Department of Natural Resources
Purdue University
Iowa State University
Iowa Department of Natural Resources
Louisiana State University
Maine Department Inland Fisheries and Wildlife
University of Maryland Eastern Shore
University of Minnesota
Minnesota Department Natural Resources
University of Missouri
Missouri Department of Conservation
University of Montana
Montana State University
Montana Fish, Wildlife and Parks
University of Nebraska
Nebraska Game and Parks Commission
University of Nevada, Reno
New Mexico Department of Game and Fish
New Mexico State University
North Carolina State University
North Carolina Wildlife Resources Commission
Oklahoma Department of Wildlife Conservation
Oklahoma State University
Oregon State University
Pennsylvania Game Commission
Pennsylvania Fish and Boat Commission
Clemson University
Rutgers University
South Dakota Department of Game, Fish and Parks
South Dakota State University
Tennessee Wildlife Resources Agency
Texas Parks and Wildlife Department
Texas Tech University
Utah State University
Virginia Tech University
Vermont Fish and Wildlife Department
Wisconsin Dept. Natural Resources
University of Wisconsin--Madison
Wyoming Game and Fish Department
University of Wyoming
Ducks Unlimited, Inc.
Association of Fish and Wildlife Agencies
Izaak Walton League of America
Midwest Association of Fish and Wildlife Agencies
Western Association of Fish and Wildlife Agencies
National Association of University Fish and Wildlife Programs
North American Grouse Partnership
The Wildlife Society
Wildlife Management Institute
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

Fiscal Year 2013 Request
  --$46.925 million for State Historic Preservation Offices (SHPOs); 
        and
  --$10 million for a Historic Preservation Grant Program to be run 
        though the SHPOs.
    Funded through withdrawals from the Historic Preservation Fund (16 
U.S.C. 470h) U.S. Department of the Interior's National Park Service 
Historic Preservation Fund (HPF).\1\
---------------------------------------------------------------------------
    \1\ The NCSHPO also supports the Tribal Historic Preservation 
Officer's fiscal year 2013 request of $9.7 million.
---------------------------------------------------------------------------
Preservation = ROI = Federal-State Partnership
    In 1966, the Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (NHPA 16 U.S.C. 470), 
which established historic preservation as a Federal Government 
priority. Instead of using Federal employees to carry out the Act, the 
Department of the Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs to:
  --locate and record historic resources;
  --nominate significant historic resources to the National Register of 
        Historic Places;
  --foster historic preservation programs at the local government level 
        and promote the creation of preservation ordinances;
  --provide funds for preservation activities;
  --comment on Federal preservation tax projects;
  --review all Federal projects for their impact on historic 
        properties; and
  --provide technical assistance to Federal agencies, State and local 
        governments, and the private sector.
    And, States contribute to the Federal Government half the operating 
cost.
Preservation = ROI = Job Creation
    Historic preservation creates jobs. Whether it is through the 
historic tax credit program, preservation grants, or other 
rehabilitation avenues, preservation creates skilled, principally 
local, jobs. The following are excellent examples of how historic 
preservation creates jobs and job training:
  --In 2011, while slowly climbing out of a national recession, there 
        were nearly 1,000 new historic tax credit projects started, 
        averaging 55 jobs per project. The private investment in the 
        approved and completed projects in 2011 totaled $4.02 
        billion.\2\
---------------------------------------------------------------------------
    \2\ ``Federal Tax Incentives for Rehabilitating Historic 
Buildings--Statistical Report and Analysis for Fiscal Year 2011'' 
National Park Service.
---------------------------------------------------------------------------
  --When compared to new construction, $1 million spent to rehabilitate 
        a building will create 5-9 more construction jobs and 4.7 new 
        jobs will be created elsewhere in the community.\3\
---------------------------------------------------------------------------
    \3\ The Economics of Rehabilitation, Donovan Rypkema.
---------------------------------------------------------------------------
  --In California $1 million of rehabilitation creates five more jobs 
        than manufacturing $1 million worth of electronic equipment. In 
        Oklahoma $1 million of rehabilitation creates 29 more jobs than 
        pumping $1 million worth of oil.\4\
---------------------------------------------------------------------------
    \4\ The Economics of Historic Preservation, Rypkema 1998:13.
---------------------------------------------------------------------------
Preservation = ROI = Economic Development
    From Providence, Rhode Island to Anchorage, Alaska historic 
preservation plays a key role in creating, maintaining, and growing 
these communities while preserving their historical significance. The 
Federal Rehabilitation Tax Credit program is an important driver in 
economic development. The program benefits communities by:
  --Increasing the value of the rehabilitated property and returning 
        vacant or underutilized structures to the tax roles.
  --Encouraging protection of landmarks through the promotion, 
        recognition, and designation of historic structures, and acting 
        as a catalyst for further community renewal.
  --Upgrading downtowns and neighborhoods and often increasing the 
        amount of available housing within the community.
    In 2011, still in the midst of a recession, the Federal 
rehabilitation tax credit spurred $4.02 billion in private investment, 
created more than 55,400 skilled, local jobs and nearly 7,500 moderate- 
and low-income housing units. All of which brings in both short and 
long-term economic opportunities for the community.
    According to the Major of Dubuque, Iowa, Roy D. Buol, ``The City of 
Dubuque views historic preservation as a key component of 
sustainability with its economic, environmental, and social/cultural 
benefits. Preservation enhances the vibrancy of neighborhoods and our 
community, instilling pride and value through increased property 
values, as well as enhanced quality of life, sense of place and 
neighborhood pride. Preservation translates into economic prosperity 
through creation of new jobs, retention of existing jobs especially in 
construction trades, stimulation of private investment, tourism and 
business growth, and financial investment in property improvements.''
    Heritage tourism also creates jobs, new businesses, builds 
community pride and can improve quality of life. SHPOs are essential, 
ground level partners in identifying historic places and providing 
research for tourism interpretation. According to the Department of 
Commerce's ``2010 Cultural Heritage Traveler'' report of activities 
that international visitors participate in, touring America's non-
National Park historical places ranks third, behind only shopping and 
dining. Visiting America's non-National Park Historical Places, 
Cultural Heritage Sites, and America's Small towns all rank above 
visiting National Parks--where the bulk of Federal money is spent.

----------------------------------------------------------------------------------------------------------------
                                                                       2009            2010         Percentage
        Activity participation while in the United States          (percentage)    (percentage)       change
----------------------------------------------------------------------------------------------------------------
Shopping........................................................              90              90             0.3
Dining in restaurants...........................................              86              86  ..............
Visit historical places.........................................              68              68             0.2
Sightseeing in cities...........................................              60              59            -0.9
Art gallery/museum..............................................              41              41            -0.1
Cultural heritage sites.........................................              40              41             0.7
Visit small towns...............................................              36              37             1.5
Amusement/Theme parks...........................................              32              34             2.1
Visit National Parks............................................              34              34             0.2
Concert/Play/Musical............................................              30              29            -0.3
----------------------------------------------------------------------------------------------------------------
Department of Commerce, Office of Travel and Tourism Industries ``2010 Cultural Heritage Traveler''.

Preservation = Return on Investment = America's Heritage
    Preservation honors the significant places of American history at 
the local, State and national levels through creating historic 
districts and listing resources in National and State Historic 
Registers. State Historic Preservation Officers, through the authority 
of the National Historic Preservation Act are there to assist, support, 
and encourage communities with their efforts. National Register 
recognition by the Secretary confirms citizens' belief in the 
significance of their community. That recognition, in turn, builds 
community pride and stable, livable communities such as Deadwood, South 
Dakota and Knoxville, Tennessee. Further, this neighborhood improvement 
comes from individual, private investment, not from Federal programs.
    The National Historic Preservation program is one of assistance, 
not acquisition. The Federal Government does not own, manage, or 
maintain responsibility for the historic assets in the National 
Historic Preservation program. Instead, the program, through the SHPOs, 
provides individuals, communities, and local and State governments the 
tools they need to preserve and utilize their historic heritage for the 
betterment of their community and the Nation.
Preservation = Return on Investment = Money Well Spent
    Federal funding for SHPOs is money well spent. Under the 
administration's Program Assessment Rating Tool, management of Historic 
Preservation Programs received a score of 89 percent, indicating 
exemplary performance of mandated activities. Reinforcing this finding 
is the December 2007 National Academy of Public Administration (NAPA) 
report ``Back to the Future: A Review of the National Historic 
Preservation Program'', and the 2009 National Parks Second Century 
Report, which called for fully funding the Historic Preservation Fund.
    NAPA, a nonprofit, independent coalition of top management and 
organizational leaders, found that the National Historic Preservation 
Program ``stands as a successful example of effective Federal-State 
partnership and is working to realize the Congress's original vision to 
a great extent. However, the Panel concluded ``that a stronger Federal 
leadership role, greater resources, and enhanced management are needed 
to build upon the existing, successful framework to achieve the full 
potential of the NHPA on behalf of the American people.'' \5\
---------------------------------------------------------------------------
    \5\ NAPA, ``Back to the Future: A Review of the National Historic 
Preservation Programs'' December 2007, p. 29.
---------------------------------------------------------------------------
2011 State Historic Preservation Offices' Accomplishments
    SHPOs used their HPF allocations well in 2011. While virtually 
every State continues to experience staffing and operation reductions, 
SHPOs are still charged with implementing the requirements of the NHPA 
to the fullest extent. Highlights of 2011 historic preservation 
accomplishments include:
  --Reviewing 140,000 Federal undertakings within 30 days.
  --Leveraging more than $4.02 billion of private investment in the 
        rehabilitation of commercial historic properties under the 
        Federal Rehabilitation Tax Credit (FRTC) program.
  --An estimated 55,458 jobs created by the FRTC program in 2011.
  --7,470 low- and moderate-income housing units created through the 
        FRTC.
  --Approximately 20.5 million acres surveyed for the presence and 
        absence of cultural resources and more than 610,700 properties 
        evaluated for their historical significance.
  --1,061 new listings in the National Register of Historic Places.
  --104,700 National Register eligibility opinions.
  --37 new communities became Certified Local Governments (CLGs).
  --Under local law, CLG's newly designated 57,000 properties, and 
        66,300 properties took part in local preservation review, 
        programs, and incentives.
Conclusion
    On behalf of all 57 SHPOs, I'd like to thank you Chairman Reed, 
Ranking Member Murkowski, and members of the Senate Appropriations 
Subcommittee on the Interior, Environment and Related Agencies for the 
opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary 50, 100, or 500 years from now. I 
would like to thank the committee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and through our partnership, SHPOs 
stand committed to identify, protect, and maintain our Nation's 
historic heritage. Thank you.
                                 ______
                                 
  Prepared Statement of the National Federation of Federal Employees 
                               Local 1957

    I am writing on behalf of the National Federation of Federal 
Employees (NFFE) Local 1957, the bargaining unit for the National 
Minerals Information Center (NMIC), USGS, Reston, Virginia. The 
President's proposed fiscal year 2013 budget for the USGS includes a 
$1.2 million cut (8 percent) to the NMIC's current funding level of 
$14.8 million, and $3.96 million (8 percent) cut from $49.2 million for 
the entire Mineral Resource Program (MRP), of which we are a part. This 
is on top of the enacted fiscal year 2012 MRP budget cut of $2.94 
million, of which $588,000 is expected to be allocated to the National 
Minerals Information Center. We have three things to ask of you.
    First: Reject the proposed fiscal year 2013 budget cuts to the USGS 
National Minerals Information Center and, at a minimum, set the fiscal 
year 2013 at the fiscal year 1996 funding level of $16 million.
    The proposed budget cut would render NMIC ineffectual and the USGS 
noncompliant with its congressional mandate by severely limiting NMIC's 
international information function. Without international data, NMIC's 
ability to meet its core mission--to collect, report, and analyze data 
on the supply of nonfuel minerals critical to the Nation's economic and 
defense needs--would be severely and irreparably compromised. This is 
because of the global nature of the minerals industry. The U.S. import 
dependence for most strategic and critical nonfuel minerals and metals 
exceeds 75 percent, which is greater than the country's dependence on 
foreign oil. In 2011, NMIC found that U.S. import reliance was more 
than 50 percent for 43 minerals critical to national security and the 
U.S. economy. Of those, the import reliance was 100 percent for 19 
minerals.
    With limitations to NMIC's international function, the USGS, 
therefore, could not fulfill its congressional mandate to assure there 
is an adequate and dependable supply of mineral materials for national 
defense, as established by The Defense Production Act of 1950, as 
amended (1980 and 1992).
    NMIC would lose an estimated 10 FTEs on top of the 11 incurred in 
fiscal year 2012, which would require a reduction in force. This would 
result in the loss of existing expertise and the inability to attract 
new hires for succession planning. Commodity and country report 
coverage would also be significantly reduced. NMIC is relied upon as an 
objective source of nonfuel minerals information and expertise by 
Federal, State, and local governments, as well as by private, academic, 
and nongovernmental organizations. NMIC produces more than 800 reports 
per year covering nonfuel minerals, including Mineral Commodity 
Summaries for the congressional offices. In 2011, our Web site had 
about 14.5 million hits and more than 9.7 million publication 
downloads.
    Second: Add $7.7 million to NMIC's fiscal year 2012 funding level 
for a total of $22.5 million. We would not ask for added funding in a 
time of such record deficits if we did not sincerely believe it was 
necessary. NMIC is unique to the Federal Government--it is the only 
comprehensive source of nonfuel mineral analysis to the Nation. In 
fiscal year 1996, the Congress recognized this fact when it transferred 
the NMIC function to the USGS from the former U.S. Bureau of Mines with 
specific responsibility for analyses of domestic and foreign mineral 
supplies. Since then, NMIC has endured a continually shrinking budget 
both in current and real terms (1996 dollars). NMIC's budget has 
declined by 36 percent in real dollars to $10.3 million through fiscal 
year 2012. The proposed fiscal year 2013 budget would result in a 41 
percent reduction in NMIC funding from that of fiscal year 1996 to $9.5 
million in real dollars (Figures 1 and 2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 2.

    Compounding the problem, NMIC has had to absorb mandated increases 
in salaries and cost of living adjustments. Not surprisingly, filled 
FTE positions have fallen--by 33 percent (55 positions) from fiscal 
year 1996 to fiscal year 2012. Quite frankly, NMIC is now at the point 
that even flat levels of funding will prevent the group from fully 
accomplishing its mission. Additional funding would allow NMIC to make 
much needed improvements, such as increasing the voluntary reporting of 
mineral production and consumption by U.S. companies; upgrading its 
data management system; and expanding data collection and analysis 
further down the supply chain.
    Third: Support Realignment of NMIC within the Federal Government so 
NMIC can be more autonomous, adaptable, and stable. NMIC's budget has 
been arbitrarily maintained at roughly 30 percent of the USGS MRP 
budget since fiscal year 1996. This is despite increasing requests for 
further collaboration by NMIC customers and recommendations by the 
National Research Council in 2008 in the report, ``Minerals, Critical 
Minerals, and the U.S. Economy,'' as well as the 2011 report by the 
American Physical Society and Materials Research Society entitled, 
``Energy Critical Elements: Securing Materials for Emerging 
Technologies.'' The 2008 report recommended that ``the Federal 
Government should continue to carry out the necessary function of 
collecting, disseminating, and analyzing mineral data and information. 
The USGS Minerals Information Team [now National Minerals Information 
Center] . . . should have greater authority and autonomy than at 
present. It also should have sufficient resources to carry out its 
mandate . . .''
    NMIC has never been well supported by the USGS. In addition to the 
proposed fiscal year 2013 budget cuts, NMIC and MRP budgets were 
proposed to be reduced in fiscal year 2004-2009. Prior Congresses 
strongly rejected those attempts. For example, the 2006 congressional 
joint committee managers wrote, ``[we] strongly disagree with the 
administration's proposed reductions to the mineral assessment program 
and believe it irresponsible for the Administration to decrease or 
eliminate funding for what is inherently a Federal responsibility.'' 
(See Box 1 for our rebuttal to several of the principles used to 
prioritize the fiscal year 2013 budget.)
    NMIC realignment would greatly enhance its position as the leading 
Government source of nonfuel minerals information and analyses. See Box 
2 for additional rationale and options.
    Thank you for your consideration of these issues that affect both 
our Union's and the Nation's interests.

    ----------------------------------------------------------------

      Box 1: Rebuttal to Fiscal Year 2013 USGS Budget Formulation
    The USGS budget justification for fiscal year 2013 states that the 
2013 budget ``builds on the core historical mission of the USGS''. NMIC 
and the MRP were one of only several USGS programs slated for reduction 
in fiscal year 2013--this at a time when the USGS would receive greater 
than a 3-percent increase in funding to $1.1 billion.
    Some of the principles used to prioritize the fiscal year 2013 USGS 
budget formulation include:
  --Maintaining programs that are unique to the USGS and conducted on 
        behalf of the Nation;
  --Retaining programs that are legislatively mandated; and
  --Aligning targeted increases with emerging science priorities that 
        are of national and global significance.
    Principle 1 is met. NMIC is the only group within the Federal 
Government that provides comprehensive nonfuel mineral analyses for the 
Nation.
    Principle 2 is met. The NMIC function is mandated by Defense 
Production Act of 1950, as amended; various sections under title 30 of 
the U.S. Code (U.S.C.)--Mineral Lands and Mining; and section 98 of 50 
U.S.C.--Strategic and Critical Materials Stock Piling Act of 1946, as 
amended.
    Principle 3 is met. The increasing need for more and more minerals 
information by NMIC is well documented. This has been recognized by the 
National Research Council in its 2008 report, ``Minerals, Critical 
Minerals, and the U.S. Economy'', and the 2011 report by the American 
Physical Society and Materials Research Society entitled, ``Energy 
Critical Elements: Securing Materials for Emerging Technologies''. 
Further, the Congress introduced seven bills in 2011 alone regarding 
the need for additional studies by the USGS on the availability and use 
of rare earth elements (REE) and other critical mineral materials.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

             Box 2: NMIC Realignment Rationale and Options
    NMIC is artificially located within a sub-regional reporting 
structure within the USGS. Such a reporting structure is contrary to 
NMIC's assessment of mineral materials availability for the United 
States within national and international contexts. This forces some 
NMIC resources to be diverted on unrelated activities that could be put 
to better use for the USGS, such as improving the voluntary reporting 
of mineral production and consumption by U.S. companies; upgrading the 
data management system; and expanding data collection further down the 
supply chain.
    NMIC's research is fundamentally different from other programs 
within the USGS. NMIC's research necessarily requires strong economic 
and social-science expertise that is quite different from traditional 
USGS scientific investigations. The mainstay of NMIC information comes 
from regional, commodity, and minerals industry analysts with 
multidisciplinary backgrounds (chemists, economists, engineers, 
geologists, etc.).
    NMIC's mission is fundamentally different from most other USGS 
programs. NMIC's mission requires quick turnaround, high-volume data 
gathering, analysis, and dissemination, unlike the research and 
assessment component of the MRP and many other USGS programs, which 
engage in long-term, project-oriented, fundamental scientific studies.
    Options for realignment include:
  --Reporting directly to the Office of Director, USGS. NMIC would have 
        greater flexibility to enable USGS management to respond to 
        mineral issues of national and international significance and 
        in seeking cross-disciplinary solutions to these issues.
  --Reporting directly to the Office of Secretary, Department of the 
        Interior. This would be similar to how the Energy Information 
        Administration is organized under the Department of Energy.
  --Transfer to some other Federal agency.

    ----------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony regarding fiscal year 2013 funding for 
the National Fish and Wildlife Foundation (NFWF). NFWF's fiscal year 
2013 appropriations request will be matched dollar-for-dollar with non-
Federal funds to conserve fish, wildlife and their habitats through 
local partnerships.
    We believe that NFWF is a sound investment in a time of constrained 
budgets because of our proven track record and statutory requirement to 
leverage Federal funding with private contributions to maximize 
conservation benefit. We appreciate the subcommittee's past support and 
respectfully request your approval of funding at the following levels:
  --$7.525 million through the U.S. Fish and Wildlife Service's (FWS) 
        Resource Management General Administration appropriation;
  --$3 million through the Bureau of Land Management's (BLM)Management 
        of Lands and Resources appropriation; and
  --$3 million through the United States Forest Service's (USFS) 
        National Forest System appropriation.
    Since its inception, NFWF has leveraged nearly $576 million in 
Federal funds into $2 billion in on-the-ground and in-the-water 
conservation with less than 5-percent aggregate overhead to the Federal 
Government and fewer than 100 staff nationwide.
    NFWF was established by the Congress in 1984 to catalyze private 
investments to conserve fish, wildlife and their habitats. NFWF is 
required by law to match each federally appropriated dollar with a 
minimum of one non-Federal dollar. We consistently exceed this 
requirement by leveraging Federal funds at a 3:1 average ratio while 
building consensus and emphasizing accountability, measurable results, 
and sustainable conservation outcomes.
    The goal of NFWF is to ensure abundant wildlife species in order to 
allow the economic health of our Nation to continue. The key elements 
of our approach include:
  --leverage;
  --efficiency;
  --partnerships;
  --transparency; and
  --measurable outcomes.
    A positive example of this approach is our ongoing response to the 
2010 Deepwater Horizon oil spill. As you know, NFWF took immediate 
action following the oil spill to help protect the species most at 
risk. NFWF's longstanding relationships with Federal and State 
agencies, scientists, and on-the-ground conservation organizations were 
invaluable in assessing local wildlife needs and shaping effective 
responses. In the first phase of its gulf response, NFWF invested in 22 
projects which are now delivering results in Louisiana, Mississippi, 
Alabama, Florida, and Texas. This first phase of projects was financed 
using $8.8 million from the Recovered Oil Fund for Wildlife, 
established by BP with proceeds from the sale of oil recovered from the 
spill site, as well as a $2.25 million commitment from Walmart. Since 
then, NFWF has invested an additional $14.1 million from the Recovered 
Oil Fund for Wildlife and other sources--$22.9 million total--to 
bolster populations of species affected by the spill in advance of 
formal restoration efforts. These investments have helped to pilot 
cost-effective conservation approaches and build capacity in the region 
to sustain conservation outcomes. With our Federal and private 
partners, more than 500,000 acres of coastal of freshwater wetland 
habitat was established to benefit a variety of migratory birds. Other 
investments have increased the number of sea turtle hatchlings by more 
than 100,000 and are ensuring the survival of an additional 800-1,000 
adult and juvenile sea turtles annually.

           NATIONAL FISH AND WILDLIFE FOUNDATION PARTNERSHIPS

    With the subcommittee's support, fiscal year 2013 funds will 
support our longstanding partnerships and new initiatives with FWS, 
BLM, and USFS. Some of our priority initiatives for fiscal year 2013 
are described below.
    Longleaf Pine Ecosystem.--Building on nearly a decade of investment 
to protect and restore vanishing longleaf pine forests in the 
southeastern United States, NFWF established the Longleaf Stewardship 
Fund in 2011. This landmark public-private partnership will award 
approximately $3 million in fiscal year 2012 with support through FWS, 
USFS, USDA's Natural Resources Conservation Service, Department of 
Defense, and Southern Company. With the combined financial and 
technical resources of the public-private partnership, the expanded 
program will support accelerated restoration of the longleaf pine 
ecosystem and implementation of the Range-Wide Conservation Plan for 
Longleaf Pine. NFWF is working with partners to establish specific 
measurable conservation goals that can be tracked over time. These 
goals will support the recovery of important keystone species of the 
longleaf pine ecosystem including red cockaded woodpecker, gopher 
tortoise and Northern bobwhite quail and advance specific habitat 
restoration goals outlined in the Range-Wide Plan.
    Chesapeake Bay, Great Lakes, and Long Island Sound.--Watershed 
health plays an important role in fish and wildlife conservation and 
has been a feature of NFWF's grantmaking since establishing our 
partnership with the Environmental Protection Agency (EPA) in 1998. In 
the last decade, NFWF has formed strategic public-private partnerships 
to restore and protect fish and wildlife habitat while improving water 
quality in the Chesapeake Bay, Great Lakes, and Long Island Sound. 
Federal partners in the programs include EPA, Department of the 
Interior agencies, USFS, USDA's Natural Resources Conservation Service, 
NOAA, and others. NFWF leverages various Federal funds for these 
partnerships but, more importantly, has attracted private contributions 
from corporations and other private foundations. Through these 
partnerships, Federal agencies are able to leverage resources with 
NFWF's corporate sponsors to increase the impact any one of them could 
have alone. NFWF's watershed grant programs continued positive results 
in 2011 with priority project requests far exceeding available funds.

        JOBS AND ECONOMIC BENEFITS FROM CONSERVATION INVESTMENTS

    In 2011, NFWF commissioned a report by Southwick Associates that 
revealed that investments in natural resource conservation have a 
strong positive impact on local jobs and economies. The report examines 
existing data on the economic value of natural resource conservation, 
outdoor recreation and historic preservation. It calculates the total 
U.S. economic impact of these three areas as $1.06 trillion. This 
includes 9.4 million jobs and $107 billion in Federal, State, and local 
tax revenues.

         NATIONAL FISH AND WILDLIFE FOUNDATION REAUTHORIZATION

    The National Fish and Wildlife Foundation Reauthorization Act (S. 
1494) was introduced in August 2011 with strong bipartisan support. S. 
1494 renews NFWF's direct appropriations authorization level of $30 
million for an additional 5 years. The $30 million authorization 
includes $20 million annually through the Department of the Interior; 
$5 million annually through USDA; and $5 million annually through the 
Department of Commerce. S. 1494 affirms the original purposes of NFWF 
and strengthens NFWF's ability to raise private dollars, work with 
Federal agencies more effectively, reduce bureaucratic burdens, and 
maximize conservation outcomes. Importantly, S. 1494 will ensure NFWF's 
ability to save money for the Federal Government through efficient 
grant administration, effective collaboration, and significant leverage 
through private sector contributions.
    S. 1494 is sponsored by Chairwoman Boxer and includes the following 
co-sponsors:
  --Baucus (D-MT);
  --Bingaman (D-NM);
  --Cardin (D-MD);
  --Cochran (R-MS);
  --Collins (R-ME);
  --Murkowski (R-AK);
  --Roberts (R-KS);
  --Snowe (R-ME);
  --Tester (D-MT);
  --Thune (R-SD);
  --Udall (D-NM); and
  --Whitehouse (D-RI).
    A legislative hearing by the Senate Committee on Environment and 
Public Works was held on April, 24 2012. A companion bill in the House 
of Representatives is pending.

                               CONCLUSION

    For nearly three decades, NFWF has been at the forefront of 
national conservation activity. With our partners, NFWF has contributed 
to some of the Nation's most important conservation programs, invested 
millions in worthy and successful projects, and spearheaded programs to 
conserve our Nation's most treasured natural resources. We have a 
successful model of coordinating and leveraging Federal funds and 
attracting support from the private sector to address the most 
significant threats to fish and wildlife populations and their 
habitats. NFWF currently has partnerships with 14 Federal agencies and 
more than 50 corporations and private foundations.
    Meaningful and measurable outcomes, evaluation, and accountability 
are NFWF's building blocks to ensure maximum conservation impact. We 
are working directly with the Federal agencies and our other partners 
to maximize results and produce sustainable conservation outcomes. To 
that end, the Foundation is incorporating monitoring and evaluation 
into our programs to measure progress, promote adaptive management, 
demonstrate results, and continuously learn from project investments. 
We look forward to building on our partnerships with FWS, BLM, and USFS 
in fiscal year 2013 and appreciate the subcommittee's continued support 
of these collaborative efforts.

        BACKGROUND ON THE NATIONAL FISH AND WILDLIFE FOUNDATION

    As of fiscal year 2011, the National Fish and Wildlife Foundation 
has awarded more than 11,600 grants to national and community-based 
organizations through successful partnerships with the Department of 
the Interior agencies, USDA's USFS and Natural Resources Conservation 
Service, the Environmental Protection Agency, the National Oceanic and 
Atmospheric Administration, and others. This collaborative model brings 
together multiple Federal agencies with State, tribal, and local 
governments and private organizations to implement coordinated 
conservation strategies in all 50 States.
    We work directly with Federal and State agencies and our other 
partners to measure progress, promote adaptive management, demonstrate 
results, and continuously learn from project investments. NFWF's grant-
making involves a thorough internal and external review process. Peer 
reviews involve Federal and State agencies, affected industry, 
nonprofit organizations, and academics. Grants are reviewed by the 
NFWF's science and evaluation team before being recommended to the 
Board of Directors for approval. By law, congressional offices are 
notified 30 days in advance of any grant that will be given out in 
their district or State that includes more than $10,000 in Federal 
funds.
    Mr. Chairman, we greatly appreciate your continued support and hope 
the subcommittee will approve funding for National Fish and Wildlife 
Foundation in fiscal year 2013.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association

    The National Ground Water Association (NGWA) requests that $10 
million be included in the U.S. Geological Survey's (USGS) Groundwater 
Resources Program account to begin implementation of a national 
groundwater monitoring network. NGWA is the world's largest association 
of groundwater professionals, representing public and private sector 
engineers, scientists, water well contractors, manufacturers, and 
suppliers of groundwater-related products and services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. In the United States, 78 percent of 
community water systems, nearly all of rural America's private 
household wells; and 42 percent of agricultural irrigation water are 
supplied by groundwater. While the Nation's people, food supply, 
economy and ecosystems depend on groundwater, no systematic nationwide 
monitoring network is in place to measure what is currently available 
and how groundwater levels and quality may be changing over time. As 
with any valuable natural resource, our groundwater reserves must be 
monitored to assist in planning and minimizing potential impacts from 
shortages or supply disruptions. Just as one cannot effectively oversee 
the Nation's economy without key data; one cannot adequately address 
the Nation's food, energy, economic, and drinking water security 
without understanding the extent, availability and sustainability of 
the critical commodity--groundwater.
    In the face of current and anticipated water supply shortages, 
public and private sector water professionals have put out the call 
over the years for increased groundwater monitoring and the 
dissemination of the resulting data to the Nation.\1\ And the need to 
take action continues to this day.\2\ \3\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. Freshwater Supply: 
States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Shortages. (GAO-03-514). July 2003. Page 1.
    \2\ White House Council on Environmental Quality. Progress Report 
of the Interagency Climate Change Adaptation Task Force: Recommended 
Actions in Support of a National Climate Change Adaptation Strategy. 
October 5, 2010. Page 11.
    \3\ U.S. Government Accountability Office. Energy-Water Nexus: A 
Better and Coordinated Understanding of Water Resources Could Help 
Mitigate the Impacts of Potential Oil Shale Development. (GAO-11-35). 
October 2010. Page 39.
---------------------------------------------------------------------------
    The Congress responded to these requests for enhanced groundwater 
monitoring by authorizing a national groundwater monitoring network 
with passage of Public Law 111-11 (Omnibus Public Land Management Act) 
in 2009. In 2010, six States \4\ voluntarily pilot tested concepts for 
a national groundwater monitoring network as developed by the Federal 
Advisory Committee on Water Information's (ACWI) Subcommittee on Ground 
Water (SOGW). If this effort moves forward, consistent, comparable 
nationwide data would become accessible through a web portal for 
Federal, State, and local government, and private sector users. In 
these tight fiscal times, the proposed network would build on existing 
State and Federal investments, maximizing their usefulness and 
leveraging current dollars to build toward systematic nationwide 
monitoring of the groundwater resource.
---------------------------------------------------------------------------
    \4\ The six pilot States were:
      -- Illinois;
      -- Indiana;
      -- Minnesota;
      -- Montana;
      -- New Jersey; and
      -- Texas.
    Additionally, Idaho, North Carolina, South Carolina, Washington, 
and Wyoming volunteered as pilots but were not included given limited 
oversight resources.
---------------------------------------------------------------------------
    The administration's fiscal year 2013 USGS budget request allocates 
$2.5 million under the heading National Ground Water Monitoring 
Network. But the UGSG budget justification suggests spreading these 
funds over three different programs:
  --the National Ground Water Monitoring Network;
  --a groundwater climate response network; and
  --a brackish aquifer assessment.
    Apart from the other two programs referenced, as part of the fiscal 
year 2013 Ground Water Resources Program, we ask the subcommittee to 
allocate $10 million exclusively for the National Ground Water 
Monitoring Network to do the following:
  --Provide grants to regional, State, and tribal governments to cost 
        share increased expenses to upgrade monitoring networks for the 
        50 States to meet the standards necessary to understand the 
        Nation's groundwater resources. The shared funding arrangements 
        should be modeled after highly successful cooperative programs 
        (e.g., STATEMAP) that already exist between USGS and the 
        States; and
  --Support the additional work necessary for USGS to manage a national 
        groundwater monitoring network and provide national data access 
        through an Internet web portal.
    The redirection of an appropriation of $10 million for groundwater 
monitoring requested here is small in comparison to the entirety of the 
Department of the Interior's appropriations. But the $10 million 
appropriation is vital when we understand that for a small investment 
we can begin finally to put in place adequate monitoring of the hidden 
resource that provides nearly 40 percent of the Nation's drinking water 
supply. Thank you for your consideration of this request.
    The National Ground Water Association is a not-for-profit 
professional society and trade association for the groundwater 
industry. NGWA is the largest organization of groundwater professionals 
in the world. Our members from all 50 States and 72 countries include 
some of the leading public and private sector groundwater scientists, 
engineers, water well contractors, manufacturers, and suppliers of 
groundwater related products and services. NGWA's vision is to be the 
leading community of groundwater professionals that promotes the 
responsible development, use, and management of groundwater resources.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance

                            FUNDING OVERVIEW

    For fiscal year 2013 the National Humanities Alliance strongly 
urges the subcommittee to provide no less than $154.3 million in 
funding for the National Endowment for the Humanities (NEH), the same 
amount requested by the administration. This represents an $8.2 million 
increase more than the final fiscal year 2012 appropriation ($146 
million). The NEH budget has suffered a significant funding reduction 
over the last 2 years--more than $21 million (13.2 percent) between 
fiscal year 2010 and fiscal year 2012, almost entirely in program 
funds. In addition, the agency is still trying to recover from cuts 
totaling nearly 40 percent that were made in the mid-1990s.
    At its nominal funding peak in fiscal year 1994, NEH's total budget 
was equivalent to $271.5 million in 2012 inflation-adjusted dollars. At 
its peak in real dollars in fiscal year 1979, the agency's 
appropriation equaled $455.8 million in current dollars--three times 
the fiscal year 2012 level.

                    IMPACT OF THE PRESIDENT'S BUDGET

    Program Funds.--At the level proposed by the administration, the 
fiscal year 2013 NEH budget would nearly equal its fiscal year 2011 
level ($154.7 million). However, the proposed increase would still 
restore only $5 million in program funds, which are proposed at $124 
million in fiscal year 2013, compared to $118.6 million enacted for 
fiscal year 2012 (still far less than the $140 million enacted for 
fiscal year 2010). The remaining $3 million of the proposed increase 
for fiscal year 2013 would be set aside for administration to help 
cover anticipated relocation costs associated with the pending 
redevelopment of the Old Post Office.
    Competitive Grants.--Within the President's request, funding for 
NEH competitive grants would increase by $2.6 million, from $68.8 
million in fiscal year 2012 to $71.4 million in fiscal year 2013. This 
includes small increments for each of the NEH's core program divisions 
and offices:
  --Research;
  --Education;
  --Preservation and access;
  --Challenge grants;
  --Digital humanities; and
  --Public programs.
    We are pleased to see these increases, as we have been especially 
concerned about the long-term erosion of funding suffered by 
competitive grants programs, which stand at only 40 percent of their 
value (in real dollars) in fiscal year 1994.
    Although modest, the increments proposed by the President would 
have a significant impact. For example, at the proposed fiscal year 
2013 level, the NEH Research Division could make 24 more awards than in 
fiscal year 2012. This means that an additional 22 individual scholars 
could receive fellowships, and two more collaborative research projects 
could receive continuing support. This kind of support is vital for 
humanities faculty. It enables recipients to devote themselves to 
intensive, systematic research--the kind of research needed to produce 
new understandings of American and world history and literature. NEH's 
continuing support can enable a long-term project to continue, 
leveraging additional institutional support, and providing unique 
research opportunities for participating graduate and undergraduate 
students. Similarly, the NEH Education Research Division could enable 
265 additional teachers to revitalize their knowledge of the humanities 
through participation in summer workshops; approximately 33,000 high 
school students would benefit from this valuable professional 
development for teachers.

                             NATIONAL NEEDS

    The NEH founding legislation articulates the imperative of Federal 
support for the humanities: ``An advanced civilization must not limit 
its efforts to science and technology alone, but must give full value 
and support to the other great branches of scholarly and cultural 
activity in order to achieve a better understanding of the past, a 
better analysis of the present, and a better view of the future.'' At a 
time when globalization has connected the world's societies and 
economies, and when America plays a central role in political 
developments in every continent, the wisdom of this statement is more 
evident than ever. We cannot afford to abandon the study of America's 
and the world's languages and literatures, religions and governments, 
traditions and innovations. Without the knowledge that the humanities 
provide, we cannot understand our own past or the present condition of 
the world.
    We do our humanities work well in the United States. American 
higher education remains the best in the world--a beacon for students 
across the liberal arts disciplines and an inspiration for the teaching 
and modeling of creative and critical thinking. The research funded by 
the NEH is essential to maintaining that standing, which enables 
American universities to attract students from every continent eager 
for the value of an American liberal education.
    This is not, however, an argument for complacency; it is not a 
defense of the status quo. The same technological forces that are 
transforming the physical, biological, and social sciences are 
transforming the humanities as well. Humanists are using the new 
resources of the digital age to reformulate age-old questions about 
human experience and find new answers for them; to explore new ways of 
making the humanities accessible and relevant. The NEH has played a 
leading role in supporting this work, not only financially but through 
such initiatives as its acclaimed ``EDSITEment'' Web site, which 
effectively spreads the word about the superb digital resources that 
NEH grants have made available to teachers.
    The NEH's impact extends well beyond our classrooms and research 
institutes. The humanities are a lifelong enterprise and a public 
resource. America's museums, libraries, and other cultural institutions 
play a central role in humanities education. Partly thanks to the NEH, 
they now offer a range of digital resources that have already 
transformed the way in which the general public discovers and 
experiences the past and the world of culture. Like universities, these 
institutions can do more--especially if the NEH, which has played a 
vital role in mobilizing new digital techniques and designing more 
creative approaches to the integration of educational and cultural 
institutions, can continue to support these efforts.

             THE NATIONAL ENDOWMENT FOR THE HUMANITIES ROLE

    The NEH is the lead Federal agency with the mission to create, 
preserve, and disseminate knowledge in the humanities--knowledge that 
is essential to healthy public culture in a democratic society. Each 
year, NEH awards hundreds of competitive, peer-reviewed grants to a 
broad range of nonprofit educational organizations and institutions, 
and to individual scholars, throughout the country. Grantees include 2- 
and 4-year colleges, universities, research institutes, museums, 
historical societies, libraries, archives, scholarly associations, K-12 
schools, television/film/radio producers, and more. These grants help 
support educational advancement; professional development; and 
institutional activities for thousands of students, teachers, faculty, 
and others engaged in the humanities in communities across the United 
States every year. By enhancing the work of our cultural institutions, 
colleges, and universities, they create jobs because such institutions 
attract tourists and students from abroad. The American economy, as 
much as its public culture, benefits from high-quality work in the 
humanities.
    The NEH stands at the center of much of this work. The reputation 
of the NEH's peer review process helps its grantees attract significant 
non-Federal funding for humanities projects nationwide. NEH funded 
projects attract and benefit from further support provided by 
corporations and foundations. These funders view NEH peer review as a 
certification of quality.
    But the support that the NEH can provide for such projects today 
does not meet the needs of our Nation's best work in the humanities. 
The demand for humanities project support far exceeds available 
funding, rendering NEH grants extremely competitive. In fiscal year 
2011, NEH received 5,710 grant proposals representing $552.6 million in 
requested funds, but could fund only 905 (15.8 percent) of these 
applications. This figure is strikingly low when compared to recent 
rates as high as 32 percent reported by grant-making agencies like the 
National Science Foundation.
    Underfunding is pervasive. There is too little money for digital 
humanities projects, which often represent the cutting edge in teaching 
and research, and for the public film, radio, television and digital 
media projects that reach a national public; for professional 
development for teachers who need (and want) to learn how to use new 
media in humanities education; for preserving great collections, many 
of them fragile and in need of conservation, as State support dwindles; 
for challenge grants to help institutions build their own capacities 
and offer the kind of leverage that attracts new donors and builds 
habits of philanthropy; and for the individual fellowships and 
collaborative research projects that promote new understandings of the 
past and the present. Without stronger support, enterprises from 
university research to public education will lose capacity, and as they 
do our ability to deal with the complexities of the world will dwindle.

                               CONCLUSION

    The National Humanities Alliance is grateful for the opportunity to 
submit testimony on behalf of funding for the National Endowment for 
the Humanities.
    This subcommittee stands as steward to many of our Nation's 
greatest shared cultural and natural resources, and we recognize that 
you face especially difficult and complex choices in crafting the 
fiscal year 2013 Interior, Environment, and Related Agencies 
appropriations bill. We are also deeply grateful for the strong support 
that the subcommittee has demonstrated for the NEH over the years. We 
hope that you will continue to consider the NEH as a vital investment 
in the Nation's global competitiveness, the strength and vitality of 
our civic institutions, the preservation and understanding of our 
diverse cultural heritage, and the lives of our citizens. Thank you for 
the opportunity to be heard.
    The National Humanities Alliance was founded in 1981 to advance 
public support for the humanities. With 104 organizational and 
institutional members, the Alliance encompasses a broad range of 
humanities-related disciplines and institutions, and is the only 
organization that represents the humanities community as a whole. Its 
members, and the thousands of teachers, scholars, humanities 
organizations and institutions they represent, use NEH grants to 
maintain a strong system of academic research, education and public 
programs in the humanities.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, I am Jeff Allen, Director of the South Carolina Water 
Resources Center at Clemson University's Strom Thurmond Institute. My 
statement is submitted on behalf of the National Institutes for Water 
Resources (NIWR), the organization that collectively represents the 
State water resources research institutes. My statement is in support 
of restoration of funding for the Water Resources Research Act programs 
as part of the fiscal year 2013 U.S. Geological Survey's budget.
    The Water Resources Research Act (42 U.S.C. 10301 et seq.) 
establishes a Federal, State, and university partnership in water 
resources research, education, and information transfer and 
dissemination. There are 54 Water Resources Research Institutes located 
at the land grant universities of the 50 States, as well as in the 
District of Columbia, the Virgin Islands, Puerto Rico, and Guam. The 
Act authorized a State-based network of institutes dedicated to solving 
problems of water supply and water quality in partnership with 
universities, local governments, and the public. It is the only 
federally mandated research network that focuses on applied water 
resources research, education, training and outreach. These institutes 
provide a direct, vital link between Federal water interests and public 
needs with the academic expertise located within the States' research 
universities. It is a mechanism for ensuring State, regional, and 
national coordination of water resources research, the education of 
future water professionals, and the transfer of results and outcomes to 
State and Federal water professionals. The Act's significant matching 
requirements ensure that States invest in water research and training.
    The Water Resources Research Act authorizes the two grant 
components. The first component is the base grant program which is 
allocated among the institutes. Institutes are required to match each 
Federal dollar with two non-Federal dollars. Federal funds cannot be 
used to pay indirect costs at the universities. This is the strictest 
match requirement of any Federal research program. Each Institute uses 
these funds to leverage research and/or student training through a 
statewide competitive grants process. In fiscal year 2012, each 
Institute received $92,335, equaling a total appropriation for the base 
component of $5.2 million. NIWR respectfully requests the subcommittee 
provide $7 million in fiscal year 2013 for competitive water supply 
research seed grants, technology transfer, professional education, and 
outreach to the water-user community by the Institutes, approximately 
$125,000 per institute.
    The second grant component is a national competitive grants program 
that has the objective of supporting research on water resources 
problems that are regional or national in nature. In 2011 this 
competition received 40 applications, which underwent rigorous peer 
review from a national panel. This panel selected five projects from 
Alabama, Colorado, Illinois, Kansas and New Jersey for funding. The 
selection is as competitive and as rigorously peer-reviewed as other 
Federal research programs. The NIWR respectfully recommends the 
subcommittee provide $1.5 million in fiscal year 2013 to support the 
national competitive research grants program.
    I would like to share with you some personal stories from the South 
Carolina Water Resources Center. First, let me talk about research 
quality and impact. Our Center awards approximately 2 grants per year, 
generally to researchers in the university community of South Carolina. 
While numerous water institutes across the country provide matching 
funds to investigators through other State appropriations, that is not 
the case in South Carolina. So, researchers who apply to the South 
Carolina research competition must provide their own match at the 2:1 
required rate. It is always refreshing that they value the research so 
much that they find the matching funds. We have funded research 
projects across a range of water issues, from land use change effects 
on streams to assessing stream conditions based upon fish health to the 
development of remote sensing wireless monitoring technologies. In 
fact, one of our projects helped build remote sensors for stream buoys 
that jump-started a multi-million dollar stream-monitoring network on 
the Savannah River. It is a technology, which we think could be used 
around the country and even around the world to monitor stream health 
without requiring extensive fieldwork.
    The South Carolina Water Resources Center also co-sponsors a 
biennial conference for water professionals, managers, educators and 
researchers. Other water institutes hold similar meetings in their 
States. We are proud to say that for our relatively small State, we had 
an attendance of more than 300 water professionals in 2010 and expect 
at least as many this fall in 2012. Conference participants come from 
the State agencies to water organizations to private consultants to 
college and university researchers. This is the one time each year that 
the entire water resources community comes together under one roof. The 
feedback is continually positive with participants telling us it is 
critical to keep these types of meetings ongoing.
    The Water Resources Research Act holds all of this together as a 
network. The Act places the Institutes at land-grant universities, 
where in coordination with their Extension services, they specialize in 
identifying problems within their States, developing solutions to those 
problems, and engaging with the public to implement those solutions. 
One of the Institute program's greatest strengths is that the research 
funded by each Institute is tailored to that State's needs, based on 
priorities set by consultation with an advisory panel. I would like to 
cite several examples of research conducted by institutes across the 
country.
    The Rhode Island Water Resources Center has an outreach program for 
water resource professionals and nonprofessionals targeted equally 
through the combination of an established conference for industry 
professionals and a summer camp for high school students. The primary 
objectives of the conference and the camp are the same; to advance 
awareness and knowledge of the importance of clean water in Rhode 
Island and to discuss and provide insight into the various factors 
affecting the State's ability to obtain clean water for multiple uses.
    The Alaska Department of Transportation & Public Facilities lacks 
sufficient hydrologic information to obtain permits for construction of 
transportation corridors to important resource-rich areas of the State. 
The Alaska Water and Environmental Research Center is conducting a 
series of modeling and measuring projects providing ADOT&PF with the 
data required to design and permit roads and bridges on the North Slope 
and elsewhere.
    The Montana Water Center has developed the Montana Watercourse, a 
statewide program for schools and citizens, providing water 
information, resources, tools and education. Among the projects 
sponsored as part of the Watercourse are:
  --a series of water-rights trainings for conservation district 
        supervisors;
  --recruiting and training student interns from Montana's tribal 
        colleges for a cutting-edge water-informatics research project 
        that assembles streaming sensor data for visualization and 
        modeling; and
  --water information sharing with audiences throughout the State, 
        including individuals, watershed groups, conservation 
        districts, cities, and counties.
    In a study of forest management and water yields, in collaboration 
with several nonprofit agencies, researchers supported by the 
California Institute for Water Resources will undertake a three-part, 
multi-year, multi-disciplinary project to research and assess issues 
related to climate change, vegetation manipulation and the forest water 
cycle in the Sierra Nevada Mountains. The Sierras harbor globally 
distinctive forest resources that deliver hydropower and water supply 
to downstream users in California and elsewhere.
    Mississippi relies heavily on agricultural commodity production as 
a source of revenue and jobs. And rice, one of Mississippi's top 
commodities and exports, relies heavily on water for germination and 
growth. Demand for water use from irrigated crop production has put 
enormous pressure on Mississippi Delta's groundwater supply. Research 
sponsored by the Mississippi Water Resources Research Institute has 
shown that intermittent irrigation can reduce the amount of water 
needed to grow a successful rice crop by up to 50 percent, compared 
with the conventional method of continuous flooding. Researchers 
designed a rain gauge that helps farmers tell from a distance how wet 
their fields are, and is now developing ways to remotely and 
automatically shut off water pumps to save rice producers time and 
money. The goal is to maximize the use of rainfall, relying on precious 
groundwater reserves only during dry spells. Data generated by this 
research also indicates savings of millions of dollars in production 
fuel costs for Mississippi's farmers.
    The Louisiana Water Resources Research Institute advised the State 
of Louisiana on the environmental impact of the BP oil spill on coastal 
wetlands. The LWRRI is coordinating research and damage assessment for 
the ecologically important coastal headland ``Fourchon Beach'' and 
adjacent marshes that remain heavily impacted by the spill. This 
research has resulted in changes in the response techniques for these 
unique environments and a better understanding of how to respond to 
future spills. In addition, it has helped organize scientific 
conferences and symposia related to the BP spill and researchers have 
presented more than 20 invited presentations on spill response and 
impacts around the United States.
    The University of Wisconsin Institute of Water Resources funded a 
number of projects dealing with groundwater protection. Projects 
include the development of a new remote-sensing method to detect 
infiltration areas for the replenishment of the groundwater that feeds 
aquifers across the State and the development of new management tools 
to help rural water managers implement groundwater protection measures 
more effectively. In addition, the Institute also supported the 
development of new molecular techniques to detect and measure pathogens 
and viruses such as E. coli in groundwater. Currently, the occurrence 
of such pathogens in groundwater are not well documented.
    We often tout the value of the network of institutes supported by 
the Water Resources Research Act program and their ability to work 
together to serve the public on regional water issues.
    In May 2011, the Water Resources Research Institutes in Colorado, 
Idaho, Montana, Oregon, and Washington collaborated on a conference on 
exempt wells. The most common water-use exception is the exemption of 
certain water uses from many States' water rights management processes 
in the West. The goal of the conference was to identify the critical 
issues associated with the management and impacts of exempt domestic 
wells and to stimulate new ideas to solve the conflicts that have 
arisen between traditional water rights holders and water users that 
rely on exempt wells.
    The short supply in the Western States and fears that there will 
not be enough water for all projected future demands, is creating 
strained relationships between those in the agricultural, urban and 
environmental sectors. The Institutes in Arizona and Colorado are 
working together to improve the relationship between these groups by 
facilitating discussions about creative ways they can share water and 
contribute to viable solutions. The institutes' efforts have already 
been successful in generating action at the State level and through 
industry groups that have initiated roundtable discussions, retreats 
and tours among water industry leaders.
    Several Water Resources Research Institutes in the Southeast are 
helping water utilities reduce water usage because of research 
supported by the North Carolina Water Resources Research Institute. 
Researchers collected water data from utilities in Georgia, South 
Carolina and North Carolina and then developed five case studies for 
use in workshops and presentations. Using the results of the research, 
utilities have been able to conserve water without sacrificing revenue 
by adjusting their rate structures, billing, customer communication and 
conservation programming.
    For more than 4 decades the Water Resources Research Institutes 
have provided research results and impacts to our Nation, and proved 
successful at bringing new water professionals into the work force. 
NIWR recommends the subcommittee provide $8.8 million to the USGS for 
the Water Resources Research Institute Program for fiscal year 2013. 
This includes $7 million for institutional grants, $1.5 million for 
national competitive grants, and $300,000 for USGS administration.
    The water institute directors recognize the fiscal challenges 
facing the Nation and the Congress, but NIWR strongly supports the USGS 
Coalition request that the Congress appropriate at least $1.2 billion 
for the USGS in fiscal year 2013, a level that will support critical 
USGS programs that improve the Nation's environment, health, safety, 
quality of life, and future economic growth.
    On behalf of all the Institute directors, I thank you for your 
continuing support of the Water Resources Research Act program.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association

    Mr. Chairman, Ranking Member Murkowski, and members of the 
subcommittee, I am Tom Kiernan, president of the National Parks 
Conservation Association (NPCA). I appreciate the opportunity to 
testify on behalf of our more than 600,000 members and supporters from 
every State and congressional district to provide our views regarding 
appropriations for the National Park System for the upcoming fiscal 
year. Since 1919, NPCA has been the leading, independent, private voice 
in support of promoting, protecting and enhancing America's national 
parks for people from all walks of life to learn from, be inspired by 
and enjoy--now and on into the future.
    We respect that it will be a challenge again for you to sort out 
and balance competing, often conflicting demands for limited Federal 
resources; we understand the difficult task you face. I commend each of 
you for your commitment and for your fortitude in going forward even 
with the specter of an unprecedented sequestration looming over all our 
heads. I particularly want to compliment the members of this 
subcommittee for working so hard last year to keep out of your bill any 
policy riders that could harm national parks. We were deeply grateful 
that we did not have to fight that battle in this chamber.
    I am here to argue that during these times especially, investing in 
the national parks should be an American priority. Providing adequate 
funding for the national parks is more than simply another expenditure; 
it is an investment in our Nation's future with tangible returns that 
are particularly significant now as we continue to try to recover from 
this long economic downturn.
    We've noted before that for every Federal dollar spent on the 
national parks, at least $4 are generated in economic value to the 
public at large. Adequately funded national parks create jobs, 
sustainable businesses and vibrant communities. The national parks are 
reliable economic engines: visitors to the National Park System 
contributed more than $31 billion to local economies and supported 
258,000 jobs in 2010, an increase of $689 million and 11,500 jobs more 
than 2009, according to recently published data by the park service and 
Michigan State University. The same data showed that visitors to 
Yellowstone spent $334 million, supporting almost 5,000 jobs, and City 
of Rocks supported 85 jobs through $6.3 million in visitor spending. 
These are just two illustrative examples of the economic impact of park 
units on local communities.
    According to a 2011 study from the McKinsey Global Institute 
commissioned by the Interior Department, the national parks make up 60 
percent ($33 billion) of Interior's overall contribution to the economy 
due to outdoor recreation. The study also determined that for every two 
people employed by the national parks, another job was created in local 
economies. In one example, Glacier National Park led to 18,000 local 
jobs, accounting for 25 percent of the jobs in the restaurant sector, 
and 50 percent of jobs in the lodging sector.
    But people won't come to the parks if their experience isn't 
enjoyable or if it's marred by parks in poor condition and lacking 
necessary staff.
    In January, NPCA, the National Park Hospitality Association, and 
the National Parks Foundation, in collaboration with the National Park 
Service, convened an unprecedented event called America's Summit on 
National Parks. The gathering, which included hundreds of diverse 
community, education, economic, business, tourism, healthcare, 
conservation, youth, and political leaders, reinforced the strong 
support for national parks among a wide cross-section of the American 
public. The nonpartisan nature of support for national parks was 
evident there, and at the subsequent White House Conference on 
Conservation. Summit participants agreed on a set of principles to 
guide national park-related policies, opportunities and funding as we 
prepare for the 2016 centennial. The principles--which include a focus 
on funding--quickly garnered endorsements from nearly 100 businesses, 
philanthropic, conservation, tourism and recreation groups, and many 
more continue to sign on. Efforts launched at the summit continue. We 
all look forward to working with you to help ensure the Federal 
Government does its part to perpetuate the American story and values 
through the national parks.
    This February, President Obama signed an Executive order to promote 
tourism in the United States, and at the time Secretary Salazar noted 
that, ``By investing in our parks and promoting them to visitors, 
especially internationally, we can have the dual benefit of an improved 
National Park System and a stronger economy that produces more jobs.'' 
Unfortunately, the administration's fiscal year 2013 budget request for 
the National Park Service is just not consistent with their lofty and 
ambitious pronouncements. We ask you to find a way to do better.
    With an overall request for the National Park Service that is 
essentially flat, the administration would increase funding for 
specific, targeted activities under park service operations by $13.5 
million. These include some additional money for the administration's 
priorities, but mostly funding for a lot of things that really just 
have to be paid for, such as the Presidential Inauguration. The problem 
is that under the administration's budget, these worthwhile things 
would come at the expense of base park operations--the very account 
that keeps the parks open and functioning and keeps rangers on the job. 
We were disappointed that the administration simultaneously claimed to 
provide funding for fixed costs while cutting budgets at the park level 
by nearly $22 million; we respectfully ask your subcommittee to find 
the funds to prevent this staff cut at a time when we are seeking to 
enhance the tourism economy and keep parks protected. The damage these 
cuts would do to the gains and improvements made as a result of this 
subcommittee's laudable efforts are not theoretical. This cut would 
result in the loss of more than 200 FTE, which depending on how those 
cuts are apportioned, could eliminate as many as 600 seasonal ranger 
positions. It makes no sense to market our national parks to 
international visitors while cutting the funding necessary for the 
parks to serve those very visitors when they arrive.
    National parks are among the most visited locations in America. 
According to Forbes, 8 of the top 25 U.S. travel destinations are 
national parks. If the administration is serious about promoting 
tourism as a boon to the economy, funding for the national parks--and 
especially base park operations--should really be increased rather than 
kept flat or reduced. What kind of impression will it make on visitors 
if the parks are allowed to return to the days of missing rangers, 
shuttered visitor centers, dirty restrooms, deteriorating resources, 
dangerous roads and trails, and reduced interpretive and educational 
programs? Not a very good one, I suspect. At the very least, we are 
hopeful the subcommittee will improve on the administration's request 
and provide more adequate and realistic funding for base park 
operations and fixed costs.
    NPCA fully supports helping the National Park Service understand, 
prepare for, and respond to climate-driven changes unfolding in 
national parks throughout the country. Planning in advance for things 
such as increasing wildfires, invasive species, and coastal flooding is 
needed.
    We're also worried about the continuing trend of reductions in the 
national parks construction account and the impact that will have on 
the continually growing deferred maintenance backlog.
    Last fall, NPCA released a report entitled ``Made in America: 
Investing in National Parks for our Heritage and Our Economy'', which 
highlighted the jeopardy in which continual, incremental cuts place our 
national parks, the heritage they protect, and the experiences they 
provide. Over the last 2 years, NPS discretionary funding has been 
reduced 6 percent; operations funding has been reduced $25 million; and 
construction has been cut by 35 percent, or $84 million, contributing 
to a 66-percent decline in that account since fiscal year 2002 in 
today's dollars. Total discretionary funding for the National Park 
Service is more than $400 million--or 14 percent--less than fiscal year 
2002 in today's dollars.
    The construction cut is proposed despite a maintenance backlog of 
more than $3 billion for the most critical systems, and a total 
deferred maintenance backlog of more than $11 billion. The backlog is 
attributable to chronic funding deficiencies in several categories, 
including operations, transportation, and construction. These 
deficiencies have forced park managers to make choices between what 
needs to be done and what absolutely must be done immediately to keep 
facilities up and running and visitors safe and satisfied for the time 
being. The longer needed repairs and maintenance to facilities is put 
off, the more expensive and difficult they become. The National Park 
Service needs almost $700 million annually just to keep up with the 
backlog, yet receives just half that. We realize deferring projects is 
one mechanism to minimize cuts to other accounts in an austere climate, 
but we fear we are getting to the point where there is nothing left in 
that account, and that is compounding the problem and the long-term 
threat to our national heritage.
    We are pleased that the administration recognizes the need to 
continue to fund the Land and Water Conservation Fund (LWCF), so that 
critical lands like the State lands in Grand Teton National Park can be 
protected. It's important to recognize that there are so many LWCF 
needs that continue to go unfunded, with a backlog of more than $2 
billion for NPS acquisitions. There are currently more than 2.6 million 
acres of private inholdings in national parks, and when there are 
willing sellers, there is broad public support for acquisition because 
people want to see public access for recreation and intact parks that 
don't suffer from incompatible development.
    Removing privately owned inholdings and completing parks actually 
makes their administration and resource management more efficient and 
cost effective, thereby freeing up money for other needs. Purchasing 
inholdings from willing sellers can help facilitate better invasive 
species control and water quality, reduce fire risks, remove obstacles 
to recreation and wildlife management, and facilitate conservation of 
historic resources. At the moment, with real estate prices at rock 
bottom, there are many good deals to be had from willing sellers. We 
are hopeful the President's LWCF request will accommodate what is 
necessary to carry out the purchase and exchange of Wyoming State lands 
to benefit Grand Teton National Park and other timely needs. We 
appreciate this subcommittee's bipartisan understanding of the value of 
the program and your effort to modestly restore some funding for the 
program in fiscal year 2012. We hope we can work with you to continue 
support in fiscal year 2013.
    It seems as if there's always a good deal of talk on Capitol Hill 
about what the American people want, expect and deserve. Phrases such 
as those are thrown about fairly readily on both sides of the Capital 
on both sides of the aisle. The views of the American people about 
their national parks are pretty clear. Their love affair with the 
national parks spans time, region, economic status, and political 
persuasion. As reflected in a recent Harris poll, national parks are 
among the most popular roles for the Federal Government. The National 
Park Service is arguably the most popular Federal agency and the park 
ranger may be the most recognizable and appreciated Federal public 
servant. Statistics show that support for national parks has remained 
strong and even increased with the recent downturn in the economy. A 
2010 poll found that 9 out of 10 Americans have visited a national park 
and 6 out of 10 did so within the past 2 years. Despite concerns about 
the economy and the Federal deficit, 88 percent of Americans say it is 
either extremely important or quite important to protect and support 
the national parks. And with the National Park Service centennial in 
mind, 85 percent of voters surveyed favor giving national parks enough 
funding so they are fully restored and ready to serve the public for 
the next 100 years.
    By taking care of our national parks, this subcommittee can show 
that the Congress can still do some things well. Despite a political 
scene that is so divisive and dysfunctional at so many levels, 
Americans from all walks of life and political persuasions cherish our 
national parks and want them protected. This subcommittee can make a 
statement that it understands that, and that the Congress is still 
capable of hearing them. And at the same time, it can make an 
investment in local economies and help recapture the U.S. share of the 
tourism market by ensuring parks are well protected and maintained and 
visitors have a safe and inspiring experience.
    As the milestone 100th anniversary approaches, the parks will be 
more and more at the forefront of people's minds, and more and more 
Americans will be drawn to visit a national park or park unit. We hope 
they will be proud of what they find and take pride in their experience 
and heritage. Whether this happens or not is, in no small measure, a 
function of the actions this subcommittee and your colleagues in the 
Congress undertake.
    Again, thank you for the opportunity to testify.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    Thank you Chairman Reed, Ranking Member Murkowski, and other 
honorable members of the subcommittee for this opportunity to submit 
written testimony on the fiscal year 2013 Interior, Environment, and 
Related Agencies appropriations bill and, specifically, the Land and 
Water Conservation Fund (LWCF).
    The National Recreation and Park Association (NRPA) is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of 
approximately 20,000 citizen and professional members we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities.
    In fiscal year 2012, you provided $322.9 million for LWCF, with $45 
million of that amount allocated to the State Assistance Program. You 
also specified that zero State Assistance dollars were to be used for 
the Department of the Interior's (DOI) proposed competitive grant 
program. We thank you for investing in conservation through the LWCF, 
and especially thank you for investing in States and local communities 
through the State Assistance Program and for protecting the integrity 
of that program.
    As this subcommittee works to craft the fiscal year 2013 Interior, 
Environment, and Related Agencies appropriations bill, NRPA makes three 
requests. First, we ask that you provide ample funding for the LWCF; 
second we ask that you choose to invest in local communities by 
allocating 40 percent of total LWCF appropriations to the State 
Assistance Program; and third we ask that you, once again, deny the DOI 
the ability to deprive States and local communities of funding by 
specifying that zero State Assistance dollars are to be used for the 
DOI's proposed competitive grant program.
    We recognize that you face difficult decisions relative to fiscal 
year 2013. However, the LWCF is budget neutral, having been authorized 
with a dedicated funding source of oil and gas leasing revenues. More 
than $6 billion a year is provided through these leases, and the 
funding provided to the LWCF is a minuscule fraction of this amount. 
Zeroing out the LWCF would negatively impact our country, especially at 
the State and local levels. There is a common misconception that LWCF 
is merely a Federal land acquisition program. Nothing could be further 
from the truth, as the LWCF State Assistance Program provides dollar-
for-dollar matching grants to States and local communities for the 
construction of outdoor recreation projects. The land purchased with 
LWCF State Assistance funding remains the property of the State or 
local government, and the facilities developed through the LWCF remain 
publicly accessible in perpetuity.
    The LWCF State Assistance Program ensures that local communities, 
such as Blackfoot, Idaho, have places where adults and children can go 
to recreate and enjoy the outdoors. It is a means by which this 
committee can provide investment to local communities, and for fiscal 
year 2013, we are asking this committee to make the investment by 
allocating a minimum of 40 percent of total LWCF appropriations to the 
State Assistance Program. Current law requires that a minimum of 40 
percent of LWCF appropriations be provided to the Federal land 
acquisition program, and we are merely asking for you to invest in 
local communities by allocating the same percentage amount to the State 
Assistance Program. Evidence of the impact of such an allocation is 
clear when you consider that in fiscal year 2012 California received 
approximately $3.6 million through the State Assistance Program. Had 40 
percent of LWCF appropriations been allocated to the State Assistance 
Program, the State would have received more than $11 million. Rhode 
Island received $426,000 in fiscal year 2012, but would have received 
more than $1.3 million with a 40-percent allocation.
    There are many viable reasons for such an allocation. One seemingly 
simple reason is access. Not everyone in America has access to our 
amazing National Park System, but everyone does have access to local 
outdoor spaces and recreational facilities provided through their State 
and local community. Additionally, accessibility to physical activity 
through outdoor recreation is crucial to reaping the benefits of 
healthy lifestyles and reducing healthcare epidemics such as childhood 
obesity.
    Close-to-home public parks and recreation are available to every 
age, ethnicity, gender, and socio-economic class in every community, 
both urban and rural, of every State. Is there any other program that 
so effectively treats all individuals so equally? This is made possible 
because LWCF funding has always been allocated by formula through the 
State Assistance Program, whereby a portion of funds are equally 
allocated among all States and territories and the remainder is 
allocated based on population. This ensures that 100 percent of the 
State Assistance funding is equitably distributed throughout the 
Nation. This formula currently does not favor one congressional 
district or party affiliation over the other, or projects that can gain 
the most national visibility. That would radically change under the 
DOI's proposal whereby more than one-third of the State Assistance's 
funding would be used for a DOI-administered competitive grants 
program. The DOI proposal would effectively decrease the amount of 
funding provided to each State as only a small number of projects would 
likely be funded. For example, Ohio would have lost approximately 
$950,000 in fiscal year 2012 LWCF funding under the DOI proposal. 
Additionally, more rural States, such as Alaska or Wyoming, would have 
to expect a loss of funding as only urban projects of national 
significance could compete for the grants. The distribution formula 
used for the past 47 years has yielded equitable results as 98 percent 
of America's counties have received State Assistance funds. In fiscal 
year 2012, this subcommittee ensured equal allocation among the States 
by specifically directing that zero dollars were to be spent on a 
competitive grant program in the fiscal year 2012 appropriations bill. 
NRPA supports repeating that language in fiscal year 2013 and rejecting 
any ongoing or future efforts by DOI to do otherwise. Absent directive 
language, the DOI has authority to implement its program.
Land and Water Conservation Fund State Assistance: Addressing National 
        Issues on the Local Level
    Few programs can address so many national priorities as effectively 
as the LWCF State Assistance Program does, with so few dollars and 
without negatively impacting the Federal budget.
    The National Park Service documented in a March 2011 report that 
the $40 million appropriated to LWCF State Assistance in 2010 made a 
direct impact on park and recreation facilities in or near 221 local 
communities, helped communities make 5,905 new acres available for 
outdoor recreation use and enjoyment, and helped ``encourage active 
participation to strengthen the health and vitality of the citizens of 
the United States pursuant to the original intent of the Act.'' While 
the LWCF State Assistance program annual benefits hundreds of local 
communities, local communities are in need of more recreational 
resources. As documented by the National Park Service, our country 
faces more than $18 billion in unmet need for outdoor recreational 
resources.
Land and Water Conservation Fund State Assistance Stimulates Jobs and 
        Local Economies
    According to a study by Southwick in October 2011, the economic 
impacts of outdoor recreation, natural resource conservation, and 
historic preservation activities in the United States contributed a 
minimum of $1.06 trillion to the economy, created a $107 billion return 
on investment to Federal, State and local governments through tax 
revenue, and supported 9.4 million jobs. The National Association of 
State Park Directors reports that America's State park system 
contributes $20 billion to local and State economies. Impressively, 
this section of the economy continues to grow even during the ongoing 
economic recession, and thus has enormous potential to immediately 
create new jobs. For example, the Outdoor Industry Association reported 
in October 2011 that the outdoor recreation industry grew at a rate of 
4.1percent in 2010 and 5.9 percent in 2011. As more people are using 
the outdoors, more jobs are being created, and nowhere is outdoor 
recreation more prevalent than State and local outdoor recreation 
areas.
    Virtually every community in New York has acquired and/or developed 
outdoor recreational facilities with the help of the LWCF State 
Assistance Program. As a result, the New York active outdoor recreation 
economy supports 130,000 jobs across New York, generates nearly $800 
million in annual State tax revenue, and produces $11.3 billion 
annually in retail sales and services.
    Arizonans also recreate close-to-home in local parks and venues. 
Parks like the De Anza Trail help the Arizona active outdoor recreation 
economy support 82,000 jobs across Arizona, generate nearly $350 
million in annual State tax revenue, and produce almost $5 billion 
annually in retail sales and services.
    Without the continued support of this subcommittee for the Nation's 
treasured State and local parks and recreation sites, the Congress 
would effectively contribute to State and local unemployment rates and 
deeper budget deficits.
Public Health
    The LWCF State Assistance Program plays a critical role in 
advancing parks and recreation that directly contributes to fighting 
our Nation's obesity and Type 2 diabetes epidemics. Several medical 
studies have shown that there is a strong correlation between proximity 
to recreational facilities and parks and increased participation in 
physical activity. It is estimated that obesity costs the United States 
Government about $344 billion in medical-related expenses by 2018, 
accounting for approximately 21 percent of healthcare spending. The CDC 
currently estimates 65 percent of adults and 16 percent of children are 
overweight or obese, and even small improvements in the lifestyles of 
Americans would yield marked health improvements and contribute 
substantially to decreasing the Nation's rising healthcare costs. In 
fact, CDC notes that the creation of or enhanced access to places for 
physical activity led to a 25.6-percent increase in the percentage of 
people exercising on 3 or more days per week. Investing in programs 
such as the LWCF State Assistance Program would provide a significant 
return on investment through the reduction in healthcare costs by 
ensuring access to places for physical activity.
Environmental Benefits
    The LWCF State Assistance Program not only meets important national 
goals and delivers tangible health and economic benefits to everyone; 
it also significantly contributes to protecting the environment and 
promoting environmental stewardship. LWCF State Assistance projects 
have a historical record of contributing to reduced and delayed 
stormwater runoff volumes, enhanced groundwater recharge, stormwater 
pollutant reductions, reduced sewer overflow events, increased carbon 
sequestration, urban heat island mitigation and reduced energy demands, 
resulting in improved air quality, increased wildlife habitat, and 
increased land values on the local level.
    For example, LWCF State Assistance funding allowed the Rhode Island 
Department of Environmental Management to complete the construction of 
a new beach facility at Salty Brine State Beach in Narragansett, Rhode 
Island. One of Rhode Island's most popular beaches, the new fully 
accessible facility is LEED Certified to the Silver Standard. According 
to DEM Director W. Michael Sullivan, the new bathhouse will generate 
more energy than it will use, making it the first State facility that 
is self-sufficient.
    In Clark County, Washington, LWCF funding enabled the Salmon Creek 
Greenspace to acquire uplands and riparian wetlands at the confluence 
of Salmon Creek and Morgan Creek will provide new trail access for 
hiking, walking and trail running. The 64-acre acquisition protects 
critical open space within the City of Battle Ground.
    In Juneau, Alaska, LWCF State Assistance funding was used to 
construct a ski lift, lodge, warming hut, trails, and maintenance 
buildings at the Eaglecrest Recreation Area.
    Mr. Chairman and members of the subcommittee, local parks and 
recreation agencies are not merely community amenities; they are 
essential services necessary for the economic and environmental 
vitality, as well as physical wellness, of communities throughout this 
country. LWCF's State Assistance Program has proven itself invaluable 
to improving State and local economies, while simultaneously reducing 
long-term healthcare costs through increased access to physical 
activity. This subcommittee and the Congress have the rare opportunity 
to achieve national goals without increasing spending or adding to the 
deficit, and can do so by adopting three simple recommendations: do not 
zero out the LWCF; allocate a minimum of 40 percent of LWCF funding to 
the State Assistance Program; and prohibit any diversion of formula 
funds to a DOI competitive grant program.
    Thank you for the opportunity to present testimony.
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition

    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, of Washington, DC. I 
appear here today as counsel to the National Tribal Contract Support 
Cost Coalition, comprised of 20 tribes and tribal organizations 
situated in 11 States and collectively operating contracts to 
administer more than $400 million in Indian Health Service (IHS) and 
Bureau of Indian Affairs (BIA) facilities and services on behalf of 
more than 250 Native American tribes.\1\ Thank you for the opportunity 
to appear once again to discuss the legal duty and urgent need to fully 
fund the ``contract support costs'' that are owed these and other 
tribes performing contracts and compacts on behalf of the United States 
pursuant to the Indian Self-Determination Act--specifically $571 
million for IHS contract support cost requirements and $228 million for 
BIA contract support cost requirements.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the:
      -- Alaska Native Tribal Health Consortium (Alaska);
      -- Arctic Slope Native Association (Alaska);
      -- Central Council of the Tlingit & Haida Indian Tribes (Alaska); 
Cherokee Nation (Oklahoma);
      -- Chippewa Cree Tribe of the Rocky Boy's Reservation (Montana);
      -- Choctaw Nation (Oklahoma);
      -- Confederated Salish and Kootenai Tribes (Montana);
      -- Copper River Native Association (Alaska);
      -- Forest County Potawatomi Community (Wisconsin);
      -- Kodiak Area Native Association (Alaska);
      -- Little River Band of Ottawa Indians (Michigan);
      -- Pueblo of Zuni (New Mexico);
      -- Riverside-San Bernardino County Indian Health (California);
      -- Shoshone Bannock Tribes (Idaho);
      -- Shoshone-Paiute Tribes (Idaho and Nevada);
      -- SouthEast Alaska Regional Health Consortium (Alaska);
      -- Spirit Lake Tribe (North Dakota);
      -- Tanana Chiefs Conference (Alaska);
      -- Yukon-Kuskokwim Health Corporation (Alaska); and
      -- the Northwest Portland Area Indian Health Board (43 tribes in 
Idaho, Oregon, and Washington).
---------------------------------------------------------------------------
    No single enactment has had a more profound effect on more tribal 
communities than has the Indian Self-Determination Act (ISDA). In just 
three decades tribes and inter-tribal organizations have taken over 
control of vast portions of the BIA and IHS, including Federal 
governmental functions in the areas of healthcare, education, law 
enforcement, and land and natural resource protection. Today, not a 
single tribe in the United States is without at least one self-
determination contract with each agency, and collectively the tribes 
administer more than $2.82 billion in essential Federal governmental 
functions, employing an estimated 35,000 people.
    In the IHS Aberdeen area, more than 20 percent of the IHS budget is 
under contract to the tribes. In Alaska, 100 percent of the IHS budget 
and most of the BIA budget has been contracted over to the tribes. From 
the Navajo Nation to the Pacific Northwest to California, tribes in 35 
States have demanded their self-determination rights and secured 
control over IHS and BIA programs.
    The ISDA employs a contracting mechanism to carry out its goal of 
transferring essential governmental functions from Federal agency 
administration to tribal government administration. To carry out that 
goal and meet contract requirements, the act requires that IHS and the 
BIA fully reimburse every tribal contractor for the ``contract support 
costs'' that are necessary to carry out the contracted Federal 
activities. (Cost-reimbursable Government contracts similarly require 
reimbursement of ``general and administrative'' costs.) Full payment of 
fixed contract support costs is essential: without it, offsetting 
program reductions must be made, vacancies cannot be filled, and 
services are reduced, all to make up for the shortfall. In short, a 
contract support cost shortfall is equivalent to a program cut.\2\
---------------------------------------------------------------------------
    \2\ Contract support costs are the necessary costs of operating a 
Federal program under contract. When the BIA and IHS operate these 
programs, the agencies are supported by their own bureaucracies and 
other Federal agencies (i.e., the Department of Justice, the General 
Services Administration, and the Office of Personnel Management ) to 
provide personnel and financial management systems, legal resources, 
procurement systems and the like. Tribal contractors require similar 
resources, as well as resources to meet mandatory Federal requirements 
such as annual audits. They cover those requirements with contract 
support costs. Most fixed contract support costs are set by Government-
issued indirect cost rates, with the rates issued based upon certified 
independent audits and adjusted based upon post-year audits.
---------------------------------------------------------------------------
    For years the administration failed to request full funding for its 
contract support cost obligations, and the resulting shortfalls grew. 
The first major effort to address this deficiency in the past 10 years 
occurred in fiscal year 2010, when the Congress enacted a $116 million 
increase to narrow the IHS contract support cost shortfall by about 
one-half, and a $19 million increase to address BIA contract support 
cost shortfalls. The IHS increase, alone, will eventually restore 2,820 
health sector jobs in Indian country.
    Today IHS refuses to disclose its shortfall projections for fiscal 
year 2012 and fiscal year 2013. Based upon our own projections, we 
believe the shortfall this year will be approximately $60 million, and 
that the shortfall in fiscal year 2013 will approach $99 million. Our 
calculations and assumptions are attached to my testimony. 
(Unfortunately, IHS's failure to disclose data for the past 2 years 
means our projections are subject to change.) Unless remedied, we 
foresee a $99 million cut in tribally contracted programs next year--
not IHS-administered programs, but tribally administered health 
programs alone--to cover the shortfall that will be left unaddressed.
    In this context, IHS's request for a $5 million increase is 
shocking, all the more so given this subcommittee's instruction to IHS 
last year that the agency must prioritize fully funding these contracts 
before requesting other discretionary increases. In contrast, the BIA 
has responded to Indian Country, and it has heeded this subcommittee's 
instruction, by requesting $228 million--an amount the BIA says will 
fully fund all contract support cost requirements.
    It is not acceptable for the agency to prioritize discretionary 
increases over its contract obligations. It is not acceptable to seek 
deficit reduction by cutting contract payments. It is not acceptable to 
treat tribal contractors differently from other contractors. And it is 
not acceptable to single out tribally administered health programs for 
grave cuts in essential governmental services, while the agency seeks 
enhancements to the rest of its budget. The Congress 24 years ago 
warned that the agencies ``must cease the practice of requiring tribal 
contractors to take indirect costs from the direct program costs, which 
results in decreased amounts of funds for services'', S. Rep. No. 100-
274, at 9 (1987). At long last this practice must stop.
    Last year we detailed for the subcommittee the extraordinary impact 
that addressing CSC shortfalls has on job creation across Indian 
country. Just as the shortfall costs jobs, eliminating the shortfall 
restores jobs. Addressing the IHS shortfall in contract payments is 
therefore not just a matter of legal obligation and sound policy; it is 
good economics at a time of terrible unemployment.
    The National Tribal Contract Support Cost Coalition recommends the 
following:
  --The Coalition recommends that in fiscal year 2013:
    --the IHS contract support cost line be increased to $571 million; 
            and that
    --the BIA's request to increase its contract support cost line to 
            $228 million be accepted.
  --The Coalition recommends that the Committee adopt language 
        requiring IHS and BIA to promptly disclose each year all 
        available contract support cost data--precisely as both 
        agencies have historically done up until the past year. 
        Language to address this issue accompanies my testimony. The 
        agencies are suddenly claiming that, because CSC data is 
        eventually wrapped up inside a formal Report to Congress, the 
        otherwise disclosable data cannot be disclosed until the Report 
        is fully cleared through each Department and through OMB. That 
        is a sure way to keep the data secret and under wraps for 
        years--witness the fact that only this month, March 2012, did 
        IHS submit its Report detailing 2009 data, 3 years too late. 
        Without data there is no way for tribes, or the Congress, to 
        see how these tribal funds are being managed.
      Such secrecy does not accompany any other agency funds, and only 
        leads one to speculate that the agencies have something to 
        hide. Indeed, last year's multiple IHS errors in projections 
        that were furnished to the Congress suggest that the agencies 
        want to hide both their own errors and the magnitude of the 
        shortfalls. This is unacceptable, and it should not require 
        costly Freedom of Information Act lawsuits every year for 
        tribes and the Congress to learn what is going on inside the 
        agencies with appropriated funds.
      This is a major issue. Today tribes have been denied all access 
        to 2011 data about how last year's appropriation--all of which 
        belongs to the tribes--was spent. They are also being told that 
        they will not see how the 2012 funds, which the Congress 
        appropriated in December, will be spent this year--not until 
        formal reports are sent to the Congress years from now. They 
        are being denied access to the critical information that would 
        permit them to see if systemic errors are being made--a 
        particularly acute problem given the wholesale loss of all CSC 
        expertise within the agency. They are even being told that 
        tribes, themselves, favor this secrecy--notwithstanding that 
        section 106(c) of the Indian Self-Determination Act mandates 
        Tribe-by-Tribe disclosure, and notwithstanding that such 
        diverse entities as the Great Plains Tribal Chairman's Health 
        Board, the Northwest Portland Area Indian Health Board, the IHS 
        Contract Support Cost Work Group (all attached), as well as 
        this 11 State, 20 tribe, coalition, all have demanded 
        disclosure.
  --The Coalition recommends that the subcommittee once again require 
        both agencies to consistently project and budget the additional 
        CSC requirements associated with new contracts and program 
        expansions (on average, 13.5 cents for each new IHS program 
        dollar, and 10.4 cents for each new BIA program dollar). The 
        IHS did this in its fiscal year 2012 budget, but ceased doing 
        it in the fiscal year 2013 budget. This is the first time in 
        some 25 years that IHS has not disclosed in its budget 
        justification its projection of CSC requirements for the coming 
        year. The Congress cannot do its work without this information.
  --Finally, the Coalition recommends that the subcommittee reconcile 
        the different language used in the IHS and BIA portions of the 
        bill, and that the subcommittee eliminate the old ``section 
        314'' language (a useless vestige after the Cherokee v. Leavitt 
        case). Variations in language only raise unnecessary questions 
        as to the subcommittee's intent. Suggested language accompanied 
        our testimony to the subcommittee last year.
    Thank you again for the opportunity to offer these recommendations.

                   INDIAN HEALTH SERVICE CONTRACT SUPPORT COST PROJECTIONS FISCAL YEARS 2011, 2012, 2013, AND 2014--FEBRUARY 15, 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
            FISCAL YEAR 2011
 
Fiscal year 2010 CSC need (from fiscal    \1\ $520,715,1
 year 2010 CSC data collected from                    03
 Tribes).
Tribal shares available for CSC (from        $32,683,845
 fiscal year 2010 CSC data).
IDC on unpaid DCSC in fiscal year 2010        $1,756,818             2011 program increases                                 54 percent      25 percent
 (calculated from fiscal year 2010 CSC
 data).
Base CSC funding (fiscal year 2010          $398,490,000  Services....................................  ...............  ...............  ..............
 appropriation).
Inflation for fiscal year 2011 at 1.5         $5,977,350  Facilities..................................  ...............  ...............  ..............
 percent.
Estimated new and expanded programs       ..............  Staffing of new facilities..................  ...............  ...............  ..............
 (ISD) in fiscal year 2011.
                                                                                                       -------------------------------------------------
CSC for program increases in the fiscal   ..............        TOTAL.................................  ...............  ...............  ..............
 year 2010 omnibus budget.
                                         ----------------                                              =================================================
      Total funding required in fiscal      $495,765,425
       year 2011.
      Base funding (fiscal year 2010        $398,490,478
       omnibus budget).
      Additional CSC needed in fiscal        $97,274,947
       year 2011.
Projected average CSC level of need                80.38
 funded (percentage).
                                         ================
            FISCAL YEAR 2012                                         2012 program increases                                 60 percent      25 percent
 
Total funding required in fiscal year       $495,765,425  Services....................................     $64,361,881      $38,617,129       $9,654,282
 2010.
Inflation (DCSC at medical inflation          $8,069,432  Facilities..................................       6,712,000        4,027,200        1,006,800
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................      62,950,119       38,678,119        9,669,530
 (ISD) in fiscal year 2012.
                                                                                                       -------------------------------------------------
CSC for program increases in the fiscal   \2\ 20,330,612        TOTAL.................................     134,024,000       81,322,448       20,330,612
 year 2012 enacted budget.
                                         ----------------                                              =================================================
      Total CSC funding required in         $534,165,469                    $38,426,396--Increase in CSC need over previous fiscal year
       fiscal year 2012.
      Adjustment for additional tribal           $26,352
       shares and IDC on DCSC shortfall.
      Base funding (fiscal year 2012        $471,437,000             $72,946,522--Increase in CSC funding available over previous fiscal year
       enacted budget).
      Additional CSC needed in fiscal        $62,754,822
       year 2012.
Projected average CSC level of need                88.25
 funded (percentage).
                                         ================
            FISCAL YEAR 2013                                         2012 program increases                                 60 percent      25 percent
 
Total funding required in fiscal year       $534,191,822  Services....................................      62,998,000       37,798,800        9,449,700
 2012.
Inflation (DCSC at medical inflation          $9,546,599  Facilities..................................       2,259,000        1,355,400          338,850
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................      49,236,000       49,236,000       12,309,000
 (ISD) in fiscal year 2013.
                                                                                                       -------------------------------------------------
CSC for program increases in the          \3\ 22,097,550          TOTAL...............................     114,493,000       88,390,200       22,097,550
 proposed fiscal year 2013 budget
 request.
                                         ================                                              =================================================
      Total CSC funding required in         $575,835,971                    $41,670,897--Increase in CSC need over previous fiscal year
       fiscal year 2013.
      Adjustment for additional tribal           $26,748
       shares and IDC on DCSC shortfall.
      Base funding (President's fiscal      $476,446,000              $5,009,000--Increase in CSC funding available over previous fiscal year
       year 2013 budget).
      Additional CSC needed in fiscal        $99,416,719
       year 2013.
Projected average CSC level of need                82.74
 funded (percent).
                                         ================
            FISCAL YEAR 2014                                         2014 program increases                                    60 percent     25 percent
 
Total funding required in fiscal year       $575,862,719  Services....................................  ...............  ...............  ..............
 2013.
Inflation (DCSC at medical inflation          $9,648,032  Facilities..................................  ...............  ...............  ..............
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................  ...............  ...............  ..............
 (ISD) in fiscal year 2014.
                                                                                                       -------------------------------------------------
CSC for program increases in the          \4\ 21,214,081          TOTAL...............................  ...............  ...............  ..............
 proposed fiscal year 2014 budget
 request (average of previous 2 years)..
                                         ================                                              =================================================
      Total CSC funding required in          616,724,831                    $40,889,261--Increase in CSC need over previous fiscal year
       fiscal year 2014.
      Adjustment for additional tribal           $27,149
       shares and IDC on DCSC shortfall.
      Base funding (President's fiscal      $476,446,000                  $0--Increase in CSC funding available over previous fiscal year
       year 2013 budget).
      Additional CSC needed in fiscal        140,305,980
       year 2014.
Projected average CSC level of need                77.25
 funded (percentage).
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Taken from fiscal year 2010 contract support cost shortfall data collected from tribes.
\2\ CSC associated with the portion of the fiscal year 2012 appropriation increases that are to be included in Self-Determination awards. (60 percent of
  the increase, times 25 percent for CSC).
\3\ CSC associated with the fiscal year 2013 proposed budget increases that are anticipated to be included in Self-Determination awards. (60 percent of
  the increase, times 25 percent for CSC).
\4\ CSC associated with the fiscal year 2014 budget increases that are anticipated to be included in Self-Determination contracts and compacts. (Average
  of previous 2 years).
\5\ This amount does not include any CSC based on program increases anticipated in the proposed budget.


----------------------------------------------------------------------------------------------------------------
                                                                      Amount       Inflation \1\     ISD fund
----------------------------------------------------------------------------------------------------------------
Total CSC funding required in fiscal year 2015..................  \2\ $634,087,0     $12,335,040      $5,000,000
                                                                              19
Total CSC funding required in fiscal year 2016..................  \2\ $651,768,7     $12,681,740      $5,000,000
                                                                              60
Total CSC funding required in fiscal year 2017..................  \2\ $669,804,1     $13,035,375      $5,000,000
                                                                              35
----------------------------------------------------------------------------------------------------------------
\1\ Inflation is computed at 2 percent of the prior fiscal year's total requirement.
\2\ This amount does not include any CSC based on program increases anticipated in the proposed budget.


                                     INDIAN HEALTH SERVICE--DETAIL OF CHANGE
----------------------------------------------------------------------------------------------------------------
                                                     Fiscal year--
                                              --------------------------  Difference   Fiscal year   Difference
           Program enacted request                 2011         2012       2012 over       2013       2013 over
                                                 enacted      enacted        2011        request        2012
----------------------------------------------------------------------------------------------------------------
Services:
    Hospitals and health clinics.............   $1,762,865   $1,810,966      $48,101    $1,849,310      $38,344
    Dental services..........................      152,634      159,440        6,806       166,297        6,857
    Mental health............................       72,786       75,589        2,803        78,131        2,542
    Alcohol and substance abuse..............      194,409      194,297         (112)      195,378        1,081
    Contract Health Services.................      779,927      843,575       63,648       897,562       53,987
                                              ------------------------------------------------------------------
      Total, Clinical Services...............    2,962,621    3,083,867      121,246     3,186,678      102,811
                                              ==================================================================
    Public health nursing....................       63,943       66,632        2,689        69,868        3,236
    Health education.........................       16,649       17,057          408        17,450          393
    Community Health Representatives.........       61,505       61,407          (98)       61,531          124
    Immunization AK..........................        1,930        1,927  ............        1,927  ............
                                              ------------------------------------------------------------------
      Total, Preventive Health...............      144,027      147,023        2,996       150,776        3,753
                                              ==================================================================
    Urban health.............................       43,053       42,984          (69)       42,988            4
    Indian Health Professions................       40,661       40,596          (65)       40,598            2
    Tribal Management Grants.................        2,581        2,577  ............        2,577  ............
    Direct operations........................       68,583       71,653        3,070        72,867        1,214
    Self-Governance..........................        6,054        6,044          (10)        6,044  ............
    Contract Support Costs...................      397,693      471,437       73,744       476,446        5,009
                                              ------------------------------------------------------------------
      Total, Other Services..................      558,625      635,291       76,666       641,520        6,229
                                              ==================================================================
      TOTAL, SERVICES........................    3,665,273    3,866,181      200,908     3,978,974      112,793
                                              ==================================================================
Facilities:
    Maintenance and improvement..............       53,807       53,721          (86)       55,470        1,749
    Sanitation facilities construction.......       95,665       79,582      (16,083)       79,582  ............
    Healthcare facilities construction.......       39,156       85,048       45,892        81,489       (3,559)
    Facilities and environmental health            192,701      199,413        6,712       204,379        4,966
     support.................................
    Equipment................................       22,618       22,582          (36)       22,582            -
                                              ------------------------------------------------------------------
      TOTAL, FACILITIES......................      403,947      440,346       36,399       443,502        3,156
                                              ==================================================================
      TOTAL, BUDGET AUTHORITY................    4,069,220    4,306,527      237,307     4,422,476      115,949
----------------------------------------------------------------------------------------------------------------
From DHHS/IHS Fiscal Year 2013 Justification of Estimates for Appropriation Committees.


------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
The fiscal year 2012 staffing packages total was
 $62,950,119
    Carl Albert.........................................      $2,487,000
    Lake Co HC..........................................       1,088,000
    Elbowoods...........................................       7,315,000
    Cheyenne River HC...................................      24,272,000
    Absentee Shawnee HC.................................       8,981,000
    Vinita HC...........................................       8,665,000
    Undesignated (place holder two joint venture               9,843,000
     facilities)........................................
                                                         ---------------
      Total.............................................      62,651,000
                                                         ===============
The fiscal year 2013 staffing was estimated at
 $49,236,000
    Ardmore, Oklahoma...................................       8,948,000
    Vinita, Oklahoma....................................       2,792,000
    Tishomingo, Oklahoma................................       5,341,000
    Wasilla, Alaska.....................................      13,462,000
    Fairbanks, Alaska...................................       8,074,000
    Nome, Alaska........................................      10,619,000
                                                         ---------------
      Total.............................................      49,236,000
------------------------------------------------------------------------

    Notwithstanding any other provision of law, the Bureau of Indian 
Affairs and the Indian Health Service shall, on or before April 1 of 
each fiscal year, circulate to every tribal and tribal organization 
engaged in contracting or compacting under Public Law 93-638, as 
amended, data from the preceding year showing:
  --for each tribe and tribal organization, nationally, and by area and 
        region, the total amounts of funds provided for the direct 
        costs of contracted or compacted programs, and the total 
        amounts of funds provided for the contract support costs 
        associated with such programs;
  --for each tribe and tribal organization, nationally, and by Area and 
        Region, any deficiency (or surplus) in funds needed to provide 
        required contract support costs;
  --the indirect cost rate and type of rate that has been negotiated 
        with the appropriate Secretary for each tribe and tribal 
        organization;
  --the direct cost base and type of base from which the indirect cost 
        rate is determined for each tribe and tribal organization;
  --the indirect cost pool amounts and the types of costs included in 
        the indirect cost pool; and
  --for the current fiscal year, each agency's calculation of the 
        estimated national contract support cost requirement for all 
        tribes and tribal organizations, based upon the President's 
        most recent budget submitted to the Congress.
                                 ______
                                 
    Prepared Statement of the National Tribal Environmental Council

    On behalf of the National Tribal Environmental Council (NTEC) and 
our 187 member tribes, we thank you for the opportunity to provide 
fiscal year 2013 funding recommendations for the Department of the 
Interior and other agencies under the purview of this subcommittee.
    Founded in 1991, NTEC works with federally recognized tribes to 
protect tribal environments. NTEC's mission is to support Indian tribes 
and Alaska Natives in protecting, regulating, and managing their 
environmental resources according to their own priorities and values.
    Despite having some of the most pristine habitat in the United 
States, tribes have been historically underfunded for wildlife and 
natural resource management and conservation. There are 565 federally 
recognized American Indian tribes and more than 300 reservations in the 
United States. Tribes manage 95 million acres of land, 11 million acres 
more than the National Park Service (NPS). Tribal lands contain more 
than 997,000 acres of lakes, 13,000 miles of rivers, and 18 million 
acres of forested lands. Tribal lands provide vital habitat for more 
than 525 federally listed plants and animals, many of which are both 
ecologically and culturally significant to tribes.

                        BUREAU OF INDIAN AFFAIRS

Interior Department Cooperative Landscape Conservation Initiative
            Increase the Bureau of Indian Affair's Allocation of the 
                    Department of the Interior's Climate Change 
                    Adaptation Initiative to $8.75 Million
    DOI began the Cooperative Landscape Conservation Initiative in 
2009, an undertaking that Indian tribes support. The administration's 
fiscal year 2013 budget request for the initiative is $175 million. The 
$136 million for the initiative in fiscal year 2011 did not include any 
funding for tribes.
    In fact, BIA repurposed $419,000 of its own funds for tribal 
participation in the DOI Cooperative Landscape Conservation Initiative. 
Out of the $175 million for the Initiative in fiscal year 2012, BIA was 
only allocated $200,000. As such, tribes were accorded a mere .001 
percent of the funding. Moreover, given the past failures to allocate 
new funding to BIA for this program, it is doubtful this funding will 
appear and likely that BIA will once again be compelled to repurpose 
its own funds. The lack of funding for tribes is highly inequitable, 
especially considering the disproportionate effect of climate change on 
tribes and their homelands. Sovereign Indian tribes deserve a broader 
seat at the table in the Climate Change Adaptation Initiative and a 
more equitable share of the funding.
    Tribal lands comprise 4 percent of the U.S. land base, but 
represent a higher percentage if compared to the Federal lands involved 
in the initiative. Tribal lands comprise 95 million acres which, 
divided by the total 587 million acres of Federal land, equal 16 
percent. Tribal lands include 11 million acres more than NPS, yet the 
administration proposed nearly 50 times more funding for NPS in fiscal 
year 2012.

                              [In millions]
------------------------------------------------------------------------
                         Agency                                Acres
------------------------------------------------------------------------
Bureau of Land Management...............................             258
Fish and Wildlife Service...............................             150
Bureau of Indian Affairs/Tribes.........................              95
National Park Service...................................              84
                                                         ---------------
      Total.............................................             587
------------------------------------------------------------------------

    Given that tribal natural resources have been historically 
underfunded and there is no Federal program or funding that 
specifically supports tribal climate adaptation efforts, we request 
that the allocation to tribes via the BIA should be increased to $8.75 
million, or 5 percent of DOI's Cooperative Landscape Conservation 
Initiative, for tribes to address and adapt to the impacts of climate 
change. This funding level was justified in a report submitted to the 
House Interior, Environment, and Related Agencies Appropriations 
Subcommittee in May 2011.\1\ To achieve this equitable increase for 
tribes, the money provided to the various Interior agencies for the 
Initiative must be reallocated. We request that you include language in 
the bill directing the Secretary to set aside these funds for tribes.
---------------------------------------------------------------------------
    \1\ Tribal recommendations for the fiscal year 2012 Department of 
the Interior Climate Change Adaptation Initiative, transmitted on May 
20, 2011, to Mike Simpson, Chairman, House Subcommittee on the Interior 
and Environment, www.ncai.org/fileadmin/appropriations/
Tribal_Recommendations_for_2012_ 
DOI_Climate_Change_Adaptation_Initiative.pdf.
---------------------------------------------------------------------------
Trust Natural Resources Program
            Provide $170.521 Million for Bureau of Indian Affairs Trust 
                    Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of base, Federal funding for tribal natural resource 
management. In 1999, the BIA reported that tribes had more than $356 
million of unmet annual needs for natural resource management.\2\ 
Despite some annual increases since then, the BIA and tribes have 
lagged significantly behind in funding compared to other Interior 
agencies. For example, the fiscal year 2013 budget requests increases 
of $34.5 million for USGS and $28 million for BLM, yet the request for 
BIA is a decrease of $110 million. Moreover, in roughly the last decade 
the BIA budget has grown only 8 percent compared to an average of more 
than 23 percent for other Interior agencies (FWS: 30 percent; NPS: 28 
percent; USGS: 19 percent; BLM: 13 percent). Because BIA spending on 
natural resources in the last 11 years has been relatively flat 
compared to inflation and BIA's budget has been historically inadequate 
to meet the natural resource needs of Indian tribes, their needs have 
multiplied. The fiscal year 2013 request is $13.51 million less than 
the fiscal year 2010 enacted level.
---------------------------------------------------------------------------
    \2\ U.S. Department of the Interior, Bureau of Indian Affairs, 
Report on Tribal Priority Allocations, July 1999, 52.
---------------------------------------------------------------------------
    Due to the significant unmet annual needs for tribal natural 
resource management and the historic underfunding of tribal natural 
resource base programs, we believe it is vital to augment TNR base 
funding. We request that $170.521 million be provided to the BIA TNR 
Program. We support allocating that amount to various TNR programs per 
the 2013 Indian Country budget request.\3\
---------------------------------------------------------------------------
    \3\ Available at: http://www.ncai.org/fileadmin/FY2013/
FY2013_Indian_Country_
Budget_Request.pdf.
---------------------------------------------------------------------------
                     U.S. FISH AND WILDLIFE SERVICE

Tribal Wildlife Grants Program
            Increase U.S. Fish and Wildlife Service Tribal Wildlife 
                    Grants Funding to $8 Million
    Unfortunately, tribes are not eligible for funding under Federal 
wildlife and fishery restoration programs such as the Federal Aid in 
Wildlife Restoration Act (Pittman-Robertson) or the Federal Aid in 
Sport Fish Restoration Act (Dingell-Johnson) that fund activities 
through an excise tax on hunting and fishing equipment. Although tribal 
members pay taxes that support this funding, they remain excluded from 
receiving the benefits and only States are allowed to access them.
    In 2002, the Congress authorized FWS to provide funding to tribes 
under the Tribal Wildlife Grant (TWG) and Tribal Landowner Incentive 
Programs (TLIP). Tribal proposals for support often total more than $30 
million annually. In fiscal year 2009, FWS only funded 41 TWG proposals 
out of 101 submitted, awarding $7 million to tribes with a meager 
average award of $170,000. With 566 federally recognized tribes, 
competition is severe and tribes rarely receive sufficient funds to 
fully support important conservation efforts.
    In fiscal year 2011, States received nearly $1 billion from the 
Pittman-Robertson, Dingell-Johnson, and State Wildlife Grants programs. 
Thus, the $7 million tribes received from the TWG program was only .007 
percent of the amount States received. From 2002-2010, States received 
nearly 86 times more FWS funding than tribes for fish and wildlife 
conservation, or $6.25 billion for States compared to $72.2 million for 
tribes.\4\ In fiscal year 2011 and 2012, tribes only received $4.3 
million from TWG in each year.
---------------------------------------------------------------------------
    \4\ In this example, State funding includes the FWS Wildlife and 
Sport Fish Restoration Programs and State Wildlife Grants. Tribal 
funding includes the FWS Tribal Wildlife Grants and Tribal Landowner 
Incentive Program.
---------------------------------------------------------------------------
    Since the inception of the TWG program in 2002, no more than $7 
million per year has been made available on a competitive basis to the 
Nation's 565 federally recognized tribes. At this low level of funding, 
very few tribes receive any TWG funding; those receiving TWG funding 
typically get very little; and no tribe receives sufficient funding to 
sustain long-term tribal wildlife and natural resource management 
efforts. We request that TWG Program funding be increased to $8 million 
for fiscal year 2013.

                    ENVIRONMENTAL PROTECTION AGENCY

General Assistance Program
            Increase Funding to $75 Million for the Environmental 
                    Protection Agency General Assistance Program
    Since 1992, the EPA's Indian Environmental General Assistance 
Program (GAP) has served a critical need by providing funding to tribes 
to build capacity for environmental management. Unfortunately, GAP 
funding has not kept pace with the growth of tribal environmental 
programs over the years, forcing tribes to perform the increased duties 
of maturing programs with fewer resources. The average cost for tribes 
to sustain a basic environmental program was set at $110,000 per tribe 
in 1999 and has not been adjusted for inflation since that time. fiscal 
year 2012 funding for GAP was slightly more than $ 67.5 million. 
However, a $175,000 per tribe distribution (totaling almost $99 
million) would be more equitable for tribes. We request that the EPA 
GAP Program be funded at $75 million level to begin incrementally 
meeting the need of $99 million.
Multimedia Tribal Implementation Grants Program
            Authorize and Appropriate $20 Million for the Multimedia 
                    Tribal Implementation Grants Program
    The fiscal year 2012 EPA budget included a request for this new 
program to support on-the-ground implementation of environmental 
protection on tribal lands. This program would provide $20 million 
(almost $13 million less than the fiscal year 2011 request) for tribes 
to address their most pressing environmental needs. This program would 
allow tribes to move beyond the planning measures supported by GAP and 
begin implementing tribal environmental priorities. We request that the 
Multimedia Tribal Implementation Grants Program be funded at the $20 
million level.
Tribal Water Pollution Control, Clean Water Act Section 106
            Provide a Tribal Allocation of 20 Percent
    Clean Water Act section 106 grants are critical to tribal efforts 
to control water pollution. Such efforts include water quality planning 
and assessments; developing and implementing water quality standards 
and total maximum daily loads; providing ground water and wetland 
protection; and engaging in nonpoint source control activities. Between 
1998 and 2010, the number of eligible tribes to receive CWA section 106 
funding increased from 141 to 257. The national CWA 106 allocation to 
tribes has remained flat and periodically decreased (e.g., 15.49 
percent in 1998 to as low as 11.55 percent in 2005). Only 40 of 565 
federally recognized tribes have EPA-approved water quality standards 
(WQS), yet the vast majority of States have them. Section 106 grants 
would enable tribes to bridge this gap. We request 20 percent of the 
national CWA section 106 allocation be made specifically available to 
tribes.
Nonpoint Source Pollutant Control--Clean Water Act 319
            Eliminate Caps on Tribal Funding for Nonpoint Source 
                    Pollution Control
    Clean Water Act section 319 provides tribes with grants to develop 
and implement polluted runoff control programs that address critical 
water quality concerns identified in the 106 program and other 
monitoring programs. Tribal needs for this funding exceed availability. 
We request that any caps on tribal funding for Nonpoint Source 
Pollution Control be eliminated to help close the vast inequity in 
funding.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present the National Trust for Historic Preservation's 
recommendations for fiscal year 2013 appropriations. My name is Thomas 
J. Cassidy, Jr. and I am the Vice President of Government Relations and 
Policy. The National Trust is a privately funded nonprofit organization 
chartered by the Congress in 1949. We work to save America's historic 
places to enrich our future. With headquarters in Washington, DC, 12 
field offices, 29 historic sites, and partner organizations in 50 
States, territories, and the District of Columbia, the National Trust 
protects significant historic sites and advocates for historic 
preservation as a fundamental value in programs and policies at all 
levels of government.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Mr. Chairman, as you address the ongoing needs for investments to 
sustain our Nation's rich heritage of cultural and historic resources 
that also generate the economic vitality of communities throughout the 
Nation.

                       HISTORIC PRESERVATION FUND

    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. Like 
the Land and Water Conservation Fund, its dedicated revenues are 
generated from oil and gas development on the Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, inventory, public education, 
and project review for the Federal Historic Rehabilitation Tax Credit 
(HTC), State and Tribal Historic Preservation Plans, and the National 
Register of Historic Places. The HTC is the most significant Federal 
investment in historic preservation. It has catalyzed the 
rehabilitation of more than 38,000 buildings throughout the Nation. 
Since its creation 30 years ago, the HTC has created 2 million jobs and 
leveraged nearly $100 billion in private investment.
    The President proposes level funding for the Historic Preservation 
Fund at the fiscal year 2012 enacted level of $55.9 million. While we 
appreciate there is not a cut to this program, we recommend that the 
Committee provide a modest increase for this program reflecting ongoing 
demands for preservation services and the increasing number of tribes 
who qualify for HPF THPO funding.
    We also look forward to working with the Committee to restore a 
program of competitive grant funding, such as formerly provided by Save 
America's Treasures, to provide matching grants to restore and preserve 
significant historic resources such as the Star Spangled Banner; the 
World Trade Center's Vesey Street Stairway; Touro Synagogue in 
Providence, Rhode Island; and the Holy Assumption Orthodox Church in 
Kenai, Alaska.

NATIONAL PARK SERVICE: OPERATION OF THE NATIONAL PARK SYSTEM, CULTURAL 
                         RESOURCES STEWARDSHIP

    Two-thirds of our National Parks were created to protect our most 
important historic and cultural resources. Over the past two decades, 
the National Park Service (NPS) has added more than 30 new parks, which 
are predominantly cultural and historical in value. However, funding 
for cultural resources stewardship has not receiving support 
commensurate with natural resources stewardship. During the fiscal year 
2010 budget hearings, then Acting National Park Service Director Dan 
Wenk stated that NPS had been neglectful of cultural resources. A 
report of the National Academy of Public Administration (NAPA) found 
that during the fiscal year 1999-2006 period the NPS bolstered 
stewardship of natural resources by an additional $77.5 million. 
However, during this same period, funding for park cultural programs 
decreased by 28 percent. Since the release of the NAPA report we have 
seen no significant effort by NPS to create funding parity between 
natural and cultural resources in the Park Base Operations Funding. 
And, although the fiscal year 2013 budget requests an increase in 
natural resources stewardship, there is a reduction proposed for 
cultural resources. We urge the Committee to at least restore the 
cultural resources stewardship account to its fiscal year 2012 enacted 
levels.

       NATIONAL PARK SERVICE: FACILITY OPERATIONS AND MAINTENANCE

    Of the nearly $11 billion deferred maintenance needed for NPS, $3 
billion is for the 27,000 properties in National Park units listed on 
the National Register of Historic Places. According to a report issued 
by the National Academy of Public Administration, Saving Our History: A 
Review of National Park Cultural Resource Program (2008), more than 40 
percent of historic buildings and structures in our national parks are 
in fair or poor condition. Without funding, the condition of these 
properties will continue to deteriorate and become more expensive to 
repair and preserve in the future. Therefore, we recommend that the 
Committee restore the proposed $15 million cut from the repair, 
rehabilitation, and maintenance accounts and provide funding at the 
fiscal year 2012 enacted level. The National Trust is conducting 
fundraising efforts to address the gap--most recently and successfully 
at White Grass Dude Ranch in Grand Teton National Park--but private 
money must be matched by Federal money. Continued loss of Federal 
maintenance money will reduce the opportunity to raise private funds 
for the preservation of these important structures.
    The administration is proposing a significant reduction in the 
line-item Construction account, most of which funds new construction. 
We are concerned, however, that the proposed reduction not adversely 
impact important rehabilitation of historic structures.

  NATIONAL PARK SERVICE: LEASING HISTORIC STRUCTURES IN NATIONAL PARKS

    We appreciate the Committee's inclusion of language in the fiscal 
year 2012 conference report recognizing that historic leases provide a 
cost-effective and innovative solution to mitigate the maintenance 
backlog of historic structures. We are working with the NPS and private 
partners to successfully implement such leases and bring private 
investment to rehabilitation expenses.
    One promising new and cost-effective opportunity for the NPS to 
address the backlog of historic maintenance in the parks is through the 
recently signed MOU establishing ``Historicorps,'' a new cooperative 
among NPS, the other Federal land agencies, and several NGOs, including 
the Student Conservation Association and The Corps Network.

             NATIONAL PARK SERVICE: NATIONAL HERITAGE AREAS

    We are disappointed that the administration has proposed a nearly 
50-percent decrease in funding for the National Heritage Areas (NHAs). 
The proposed reduction, justified as ``encouraging self-sufficiency,'' 
would severely impair the sustainability of the program and the 
individual NHAs that the Congress has established, including the John 
H. Chafee Blackstone River Valley National Heritage Area. A recent NPS 
study found ``without funding to replace the NPS investment, few NHAs 
are expected to survive longer than a few years.'' NPS Northeast 
Region, Report of Impacts and Operation Strategy for Sunsetting 
National Heritage Areas (2012).
    During these challenging economic times, every program that 
receives Federal funding needs to justify its worth and deliver 
substantial benefits to the American public. NHAs more than meet this 
test. They are congressionally designated places where community driven 
partnerships advance heritage conservation and economic development. 
Heritage areas have a proven record of fostering job creation and 
advancing economic, cultural, historic, environmental, and community 
development through their leverage of each Federal dollar by $5.50 of 
non-Federal investments. We urge the Committee to maintain funding for 
NHAs at the fiscal year 2012 enacted level.

   BUREAU OF LAND MANAGEMENT: NATIONAL LANDSCAPE CONSERVATION SYSTEM

    The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 27 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    The National Conservation Lands protect some of our country's most 
significant historical and cultural resources, yet the BLM's ability to 
steward these resources is undermined by insufficient funding averaging 
$59.6 million, or just $2.20 per acre. The National Conservation Lands 
are just one-tenth of BLM managed lands but they host one-third of all 
BLM's visitors. This high visitation rate has resulted in increased 
needs to protect and steward historic and archaeological sites from 
looting and reckless off-road vehicle use. Without sufficient funding, 
the BLM also struggles to complete essential resource protection, such 
as signing trails, closing illegal and unnecessary routes, and 
inventorying and protecting cultural sites.
    We support the administration's fiscal year 2013 request of $69.549 
million, a proposed increase of $4.58 million more than the fiscal year 
2012 enacted level, to prevent critical damage to the resources found 
in these areas, ensure proper management and provide for a quality 
visitor experience. This funding level would enable BLM to hire 
essential management and law enforcement staff, monitor and protect 
natural and cultural resources, close unauthorized routes that fragment 
fragile ecosystems, and undertake needed ecosystem and species 
restoration projects.

        BUREAU OF LAND MANAGEMENT: CULTURAL RESOURCES MANAGEMENT

    BLM oversees the largest, most diverse, and scientifically most 
important body of cultural resources of any Federal land managing 
agency, including 21 National Historical Landmarks, 5 World Heritage 
Sites, and more than 263,000 documented cultural properties. However, 
yet BLM receives the least amount of cultural resources money per acre 
of any Federal agency. In the 34 years since the enactment of the 
Federal Land Policy and Management Act (FLPMA) only 8 percent of the 
land managed by the BLM has been surveyed for cultural resources. 
Understanding the location and significance of cultural resources on 
BLM land creates greater certainty in decisionmaking about land uses 
including energy development, recreation, and resource protection. 
Proactive survey for cultural resources is also required under the 
National Historic Preservation Act. A long-term goal of surveying 20 
percent of BLM land would be a significant step toward helping our 
Nation efficiently and cost effectively develop energy resources on our 
public lands. We strongly support the President's fiscal year 2013 
request of $17.325 million for Cultural Resources Management, an 
increase of $1.22 million more than fiscal year 2012 enacted.

                    LAND AND WATER CONSERVATION FUND

    The National Trust supports robust funding for the Land and Water 
Conservation Fund. Many of the Nation's most significant historic and 
cultural landscapes have been permanently protected through LWCF 
investments, including the Flight 93 National Memorial, Minidoka 
National Historic Site, Lewis and Clark National Historic Trail, 
Gettysburg National Military Park, Martin Luther King Jr. National 
Historic Site, Canyons of the Ancients National Monument, and Harpers 
Ferry National Historic Park. We strongly support the administration's 
fiscal year 2013 request for NPS Civil War Sesquicentennial Units and 
American Battlefield Protection Program Grants.

               ADVISORY COUNCIL ON HISTORIC PRESERVATION

    We are concerned that the administration proposes a 6.2-percent 
reduction for the operating budget of the Advisory Council on Historic 
Preservation (ACHP). Although the overall request for the ACHP is an 
increase more than fiscal year 2012 enacted, this is solely because of 
an increase of $1.3 million included specifically for the agency's move 
from its headquarters in the Old Post Office.
    The National Trust recommends a continuation of fiscal year 2012 
enacted funding, plus the $1.3 million for the required move requested 
by the President. In addition, we suggest the subcommittee include 
report language recommending the President appoint a full-time 
Chairman. Such a recommendation was made by the ACHP membership at its 
November 2011 meeting, as did a task force of historic preservation 
organizations, including the National Trust. We believe a full-time 
Chairman would enhance the effectiveness of the ACHP.

   ENVIRONMENTAL PROTECTION AGENCY: OFFICE OF SUSTAINABLE COMMUNITIES

    The National Trust supports the President's fiscal year 2013 
request for funding EPA's Office of Sustainable Communities (OSC). OSC 
is helping America's communities become more sustainable by encouraging 
the renovation of historic buildings and the revitalization of older 
neighborhoods. Repurposing older buildings--particularly those that are 
vacant--reduces the need for construction of new buildings and the 
consumption of land, energy, materials, and financial resources that 
they require.
    The fiscal year 2013 funding request would enable OSC to continue 
its technical assistance to tribal, state, regional and local 
governments and to remain a strong partner with the U.S. Department of 
Transportation and the U.S. Department of Housing and Urban Development 
in the Partnership for Sustainable Communities. It will also support 
such programs as Building Blocks for Sustainable Communities, Greening 
America's Capitals, Smart Growth Implementation Assistance, and Smart 
Growth Implementation Assistance for Coastal Communities. For example, 
in Concord, New Hampshire, OSC helped identify ways to support 
redevelopment of historic properties in the downtown core that comply 
with new energy-efficiency and green building standards while also 
conforming to historic preservation codes.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2013 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest conservation advocacy and education organization, and our more 
than 4 million members and supporters, we thank you for the opportunity 
to provide fiscal year 2013 funding recommendations for the Department 
of the Interior and other agencies under the jurisdiction of this 
subcommittee.
    We understand the very difficult budget choices facing the 
subcommittee and the Nation as we move forward under the constraints of 
the Budget Control Act of 2011. That said, it is our belief that 
disproportionate cuts to conservation programs represent policy 
positions not consonant with the priorities and values of most 
Americans. These programs protect cherished lands and waters and 
conserve the natural resources that are vital to the Nation's continued 
economic vitality. Recent studies estimate that outdoor recreation, 
nature conservation, and historic preservation account for $1.06 
trillion in overall economic activity and support 9.4 million jobs each 
year. Outdoor recreation alone generates more than $49 billion in 
annual Federal tax revenue.
    NWF and its members remain concerned about proposed funding 
reductions to many of the Federal Government's core commitments and 
programs for conserving fish and wildlife, sustaining and restoring 
important ecosystems, and maintaining clean air and water. Perhaps of 
even greater concern are efforts to rewrite the Nation's landmark 
environmental laws through the use of policy riders on the 
appropriations bill. National Wildlife Federation urges the 
subcommittee to make the necessary investments in our essential 
conservation and environmental programs and commitments in the fiscal 
year 2013 appropriations bill, and to pass a bill free of such riders.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2013 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Below, we offer 
recommendations for specific budget items and programs.

                     U.S. FISH AND WILDLIFE SERVICE

State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
State. We are extremely concerned about the impact on the Nation's 
wildlife of the nearly 30-percent cut to this program in the fiscal 
year 2012 appropriations bill, which included a significant reduction 
to the tribal component of the program. We urge the Congress to honor 
its commitment to this important effort and strongly recommend funding 
this program at its previous level of $90 million, a $28.7 million 
increase from the President's fiscal year 2013 request of $61.3 
million.
Cooperative Landscape Conservation and Adaptive Science
    Safeguarding fish and wildlife resources from climate change is a 
major concern for the entire natural resource conservation community, 
and the Fish and Wildlife Service's Landscape Conservation Cooperatives 
represent an important means for leveraging Federal, State, and private 
resources to achieve effective conservation outcomes. We urge the 
Congress to meaningfully address the very real threats of climate 
change to our fish and wildlife and support the administration's 
request of $33 million for cooperative landscape conservation and 
adaptive science.
Cooperative Endangered Species Fund
    The Cooperative Endangered Species Fund provides essential 
assistance to States for the protection of endangered species on non-
Federal lands. We strongly support the President's fiscal year 2013 
request of $60 million.
National Wildlife Refuge System Operations and Maintenance
    The National Wildlife Refuge System is the largest system in the 
world dedicated to wildlife conservation. Simply maintaining the 
management capability to operate the Refuge System requires a $15 
million increase each year. NWF, in support of the Cooperative Alliance 
for Refuge Enhancement (CARE), strongly endorses the President's fiscal 
year 2013 funding request of $495 million for Operations and 
Maintenance for the National Wildlife Refuge System. Should across-the-
board sequestration cuts of 9-10 percent take effect in fiscal year 
2013, the impacts to the Refuge System would be devastating and could 
force FWS to close or end major programs at more than 130 refuges.

                         U.S. GEOLOGICAL SURVEY

Climate Science Centers
    The National Climate Change and Wildlife Science Center and 
associated regional Climate Science Centers are important for improving 
the scientific support required to successfully cope with the 
challenges of a changing climate. NWF is supportive of the 
administration's proposed $26.2 million in funding for fiscal year 
2013.

                        BUREAU OF INDIAN AFFAIRS

Trust Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of base, Federal funding for tribal natural resource 
management. Funding, however, has not kept pace over the decade with 
inflation or the increasing needs of tribes to manage natural 
resources. We are strongly supportive of the administration's fiscal 
year 2013 request of $162.11 million, which is $4.86 million more than 
in fiscal year 2012. Among these increases, we are particularly 
supportive of the $800,000 in additional funding for tribal 
collaboration with DOI Landscape Conservation Cooperatives. Although we 
believe that tribal engagement in climate adaptation is still severely 
underfunded, we are supportive of the administration's fiscal year 2013 
request of $1 million for this activity.

                       BUREAU OF LAND MANAGEMENT

National Landscape Conservation System
    The National Landscape Conservation System contains many of the 
most special places in the American West. Funding the Conservation 
Lands at the President's fiscal year 2013 funding request of $69.5 
million is needed to prevent critical damage to the resources found in 
these areas, ensure proper management, and provide for a quality 
visitor experience.

                          NEW ENERGY FRONTIER

    The New Energy Frontier initiative provides resources for six 
bureaus across DOI for renewable energy planning, leasing, and 
permitting activities. The initiative presents an opportunity for the 
Nation to facilitate large-scale clean energy projects without 
compromising crucial wildlife interests and investments. NWF strongly 
supports the President's request of $86.5 million for fiscal year 2013, 
an increase of $15.2 million from fiscal year 2012 enacted.

                      UNITED STATES FOREST SERVICE

Urban and Community Forestry Program
    The Urban and Community Forestry program improves the forests where 
people live, work, and play. With urban tree canopies in decline, the 
program is critical to support carbon sequestration, energy 
conservation, stormwater management, and air quality, while also 
providing cooling benefits in urban areas. We support the President's 
fiscal year 2013 request of $28 million for this program. We also 
support the request of $4 million for the recently established 
Community Forest and Open Space Program.
Landscape Scale Restoration
    The new Landscape Scale Restoration line item streamlines the 
budget while continuing USFS's landscape-scale restoration efforts to 
sustain and create jobs, restore ecosystem resilience, and enhance 
recreation infrastructure. This new line item formalizes the State and 
Private Forestry Redesign process, funding to State-level projects and 
allowing the engagement of multiple landowners across boundaries. We 
support the President's fiscal year 2013 budget request of $18 million 
for this new line item.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund (LWCF) is the primary tool of 
the Federal Government for acquiring land valuable for wildlife habitat 
and open space. LWCF is authorized to receive $900 million in revenue 
from offshore oil and gas drilling annually. Nonetheless, this program 
has been woefully underfunded over the years, with only a fraction of 
the dedicated revenues appropriated and available for use. National 
Wildlife Federation strongly endorses the President's fiscal year 2013 
request of $450 million for LWCF. In addition, we support current 
legislative efforts to provide robust and dedicated funding for LWCF 
outside of the budget process.

                    ENVIRONMENTAL PROTECTION AGENCY

Urban Waters Grant Program
    Most Americans now live in urban areas, but our urban waterways are 
imperiled from the effects of human development, including pollution 
from industrial point-source pollution and urban stormwater runoff. The 
Urban Waters Grant Program not only funds innovative approaches for 
water quality improvements that benefit aquatic ecosystems, but also 
revitalizes urban waterfronts, providing economic benefits and 
recreation value for residents. We support the President's fiscal year 
2013 budget request of $4.4 million for this program.
Geographic Programs--Ecosystem Restoration Initiatives
    America's great waters are the lifeblood of our Nation. Sustained, 
consistent restoration funding is crucial for the successful 
implementation of multi-year, complex ecosystem restoration plans. As 
such, we are concerned that this important funding is reduced for the 
second year in a row. While NWF is fully supportive of the proposed 
increases for EPA's Chesapeake Bay Program Office ($57.4 million 
requested), we are concerned about significant proposed funding 
decreases for several other regional efforts, and urge the Congress to 
restore funding to fiscal year 2010 levels for:
  --Great Lakes Restoration Initiative ($475 million vs. $300 million);
  --Long Island Sound ($7 million vs. $5.3 million); and
  --Puget Sound Program ($50 million vs. $30 million).
Environmental Protection Agency National Estuary Program
    The National Estuary Program (NEP) works to restore and protect 
nationally significant estuaries. Unlike traditional regulatory 
approaches to environmental protection, the NEP targets a broad range 
of issues and engages local communities in the process. The program 
focuses not just on improving water quality, but on maintaining the 
integrity of the whole system--its chemical, physical, and biological 
properties, as well as its economic, recreational, and aesthetic 
values. NWF is disappointed in the reduction in funding proposed for 
this program, and recommends $30 million, a $3 million increase from 
the fiscal year 2012 enacted level.
Clean Water State Revolving Fund
    Since the 1970's, CWSRF projects have helped improve the quality of 
wastewater treatment in communities throughout the country. Yet the job 
is far from complete and the Nation faces trillions of dollars in 
funding needs to repair aging wastewater treatment systems and keep our 
rivers and streams pollution free. To provide States with needed 
funding to upgrade aging sewer systems and to comply with the Clean 
Water Act, NWF urges the Congress to increase funding from the 
President's fiscal year 2013 request of $1.46 billion to $2 billion.
Clean Water Act 319 Nonpoint Pollution Reduction Program
    When Congress recognized the need for greater Federal leadership in 
assisting with nonpoint source pollution reduction efforts, The Clean 
Water Act was amended to establish section 319. Continued funding for 
the Nonpoint Source Management Program will provide State and local 
nonpoint source remediation efforts with the funds that are crucial to 
the implementation of these projects. As such we recommend that the 
subcommittee increase program funding from the $164.7 million requested 
by the President to the fiscal year 2012 enacted level of $175 million.
Air/Climate Programs
    NWF supports EPA's priority goal of improving the country's ability 
to measure and control greenhouse gas emissions, and we support the 
President's request of $825.4 million for this activity, an increase of 
$56.4 million more than fiscal year 2012 enacted. This funding will 
allow the agency to conduct statutorily mandated work on the National 
Ambient Air Quality Standards for criteria pollutants, including ozone. 
We also support the requested $32.8 million increase more than the 
fiscal year 2012 enacted level for climate protection, allowing the 
Agency to support a full range of approaches for reducing GHGs and the 
risks they pose to human health and the environment.
National Environmental Education Act Programs
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs. We are 
grateful for the subcommittee's support of environmental education in 
previous years and recommend fiscal year 2012 baseline funding levels 
for NEEA at $9.7 million in fiscal year 2013.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Mr. Chairman and members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
strong support for the National Wildlife Refuge System (NWRS). The NWRA 
appreciates the opportunity to offer comments on the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill.
    The meaningful funding increases in fiscal years 2008-2010 allowed 
the NWRS to emerge from years of chronic funding shortfalls. But 
unfortunately, those substantial gains are undermined by more than $17 
million in cuts to the NWRS's funding in fiscal years 2011 and 2012 
that equate to a larger loss of more than $41 million when annual 
increases in refuge fixed costs are factored in. Consequently, we 
support the President's fiscal year 2013 budget request of $495 million 
because it will maintain existing management capabilities. Should 
across-the-board sequestration cuts of 9-10 percent take effect in 
fiscal year 2013, the impacts to the NWRS would be devastating and 
could force FWS to close or end major programs at more than 130 
refuges.
    We respectfully request the subcommittee support the following 
funding allocations for programs in the NWRS and the U.S. Fish and 
Wildlife Service (FWS):
  --$495 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS including $23 million for Inventory and Monitoring; 
        $39 million for Refuge Law Enforcement; $80 million for 
        Visitors Services; $3.8 million for Challenge Cost Share; $2.5 
        million for Cooperative Recovery; and $5 million for the 
        Pacific Marine Monuments;
  --$57 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$30 million for the National Wildlife Refuge Fund;
  --$700 million for the Land and Water Conservation Fund (LWCF), 
        including $150 million for the NWRS;
  --$33 million for Landscape Conservation Cooperatives (LCCs) in the 
        FWS;
  --$37 million for the FWS construction account for large-scale refuge 
        restoration projects, visitor facility enhancements, visitors 
        centers and energy efficiency projects;
  --$60 million for the FWS's Partners for Fish and Wildlife Program;
  --$61.5 million for the State and Tribal Wildlife Grants Program;
  --$39.4 million for the North American Wetlands Conservation Fund;
  --$6.5 million for the Neotropical Migratory Bird Fund;
  --$8.4 million for Wildlife Without Borders; and
  --$7.5 million for the National Fish and Wildlife Foundation (NFWF) 
        in the FWS's Resource Management General Administration 
        appropriation.
National Wildlife Refuge Funding--Operation and Maintenance and 
        Construction
    The NWRA chairs the Cooperative Alliance for Refuge Enhancement 
(CARE), a diverse coalition of 22 sporting, conservation, and 
scientific organizations representing more than 15 million Americans 
that supports increased funding for the NWRS. After a century of 
chronic underfunding, increases in fiscal years 2008-2010 put the NWRS 
on a path to full funding. But cuts in fiscal years 2011 and 2012 
totaling $16.2 million ($40.5 million decrease in real dollars) is 
reversing the gains made and puts damaging workforce downsizing plans 
on the table should an across-the-board sequestration cut of 10 percent 
occur in fiscal year 2013. Should that happen, CARE estimates that FWS 
will be forced to close or end major programs at more than 130 refuges, 
eliminate more than essential 200 wildlife management jobs, cut more 
than 35 visitor services jobs needed to mobilize the System's 40,000 
volunteers and administer recreational programs, and cut law 
enforcement staff by more than 40 officers leaving a force of only 170 
when 845 are needed.
    These cuts are particularly harmful because the System is already 
having to respond to damages from natural disasters. From fiscal years 
2005-2011, the NWRS sustained $693 million in damages from natural 
disasters such as tornadoes, fires, hurricanes, flooding, a tsunami, 
and an earthquake. The damages in 2011 alone were almost $200 million, 
approaching half of the System's operations and maintenance funds for 
the year. Of the $693 million in damages, the Congress appropriated 
$254 million in emergency supplemental funding and the remaining $439 
million has been added to the Refuge System's $2.5 billion deferred 
maintenance backlog.
    NWRA respectfully requests that the subcommittee provide $495 
million in fiscal year 2013 for Refuge System Operations and 
Maintenance (O&M), essentially level funding from fiscal year 2012. We 
estimate that refuges would need at least $527 million in fiscal year 
2013 to maintain management capabilities from fiscal year 2010; this 
request would only maintain status quo at current funding levels. The 
current Federal salary freeze still leaves Refuges needing at least $8 
million to absorb other fixed costs. CARE estimates that the Refuge 
System needs at least $900 million in annual funding to properly 
administer its 150 million acres and remains committed to aiming for 
this goal.
    Refuges have almost $1 billion worth of construction needs, 
including the replacement of deteriorating structures that are becoming 
more expensive to maintain. We request $37 million for the System's 
construction budget, including funds for large-scale habitat 
restoration and small-scale visitor facility enhancements. Funds for 
new visitor/administration centers, including those at the Potomac 
River Refuges near Washington, DC and the Sherburne NWR outside 
Minnesota's Twin Cities, will provide a net benefit in efficiencies and 
in economic impact. Refuges with a broad range of programs create more 
service industry jobs and more income for local communities.
Supporting Prescribed Fire To Reduce Catastrophic Burns
    Fire as a wildlife habitat management tool is one of the most 
important items in the FWS tool chest but it is also perhaps the least 
understood. Unfortunately, the President has called for a 23-percent 
decrease to DOI's Hazardous Fuel Reduction program, which would have a 
negative impact on the FWS fire program. Prescribed burns reduce the 
occurrence of catastrophic fires and protect our most vulnerable 
communities and habitats. For instance, prescribed burns are used 
extensively in Florida where lightning strikes would normally cause 
fires annually or every couple of years. Consequently, when lightning 
caused a fire in the middle of the night at the Arthur R. Marshall 
Loxahatchee NWR in Palm Beach last year, the wildfire burned only 13 
acres and extinguished itself despite record drought conditions. 
However, at the Alligator River NWR in North Carolina, a lack of 
resources to do the amount of prescribed burning needed led to a 
wildfire that burned more than 45,000 acres on the refuge and adjacent 
lands, burning deep into the soil, and cost almost $15 million to 
contain. A combination of hydrology restoration and prescribed burns 
would have reduced the fire's intensity and containment costs. We urge 
maintaining current capabilities for FWS at $57 million for fiscal year 
2013 for Hazardous Fuel Reduction and Preparedness funding.
Supporting Jobs, Economic Activity, and Leveraging American 
        Volunteerism
    Refuges are economic engines and a good investment. According to a 
recent report by Southwick Associates, refuges generate more than $32.3 
billion in ecosystem services and $4.2 billion in economic activity, 
returning more than $65 and $8, respectively, for every $1 appropriated 
by the Congress.
    Refuges are job creators: more than 32,500 jobs--largely in the 
private sector--are attributed to refuge-related activities. And on a 
national level, each $5 million invested in the NWRS's appropriations 
(salary and nonsalary) impacts an average of 83.2 jobs, $13.6 million 
in total economic activity, $5.4 million in job-related income and 
$500,000 in tax revenue.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends and volunteers do 
approximately 20 percent of all work on refuges. In 2011, these 1.5 
million hours equated to roughly 8 volunteers for every 1 Refuge System 
employee. Without staff to oversee volunteers, their commitment and 
passion is lost, as is their desperately needed contribution to the 
System. We request $80 million for visitors services for the NWRS.
Protecting the Public and Refuge Resources--National Wildlife Reserve 
        System Law Enforcement
    In 2005, the International Association of Chiefs of Police (IACP) 
conducted a first of its kind analysis of law enforcement (LE) needs 
for a land management agency, focusing on the NWRS. They recommended a 
force of 845 full-time LE officers to adequately protect visitors and 
taxpayer resources; but the System has only a little more than one-
quarter of that amount with 246 officers for the 150 million acre 
System. Further, since the report was completed in 2005, the System has 
grown by 50 million acres with the addition of the Pacific monuments by 
President Bush and visitation has grown by 15 percent from 37 million 
visitors in 2005 to more than 45 million in 2011.
Using Science To Guide Adaptive Management
    The FWS and the Refuge System are developing landscape level 
strategies to address habitat changes due to shifting land use, 
increasing human population, the spread of invasive species and 
changing climates. We strongly support the FWS initiative to establish 
Landscape Conservation Cooperatives (LCCs) to bring the best science to 
help local, State and Federal agencies make the most educated 
management decisions. We recommend an allocation of $33 million to fund 
LCCs in fiscal year 2013 and $23 million for the System's Inventory and 
Monitoring program.
Commitment to Refuge Communities--Refuge Revenue Sharing
    The NWRS uses net income derived from things like use permits and 
timber harvests to make payments to local counties or communities to 
offset lost property tax revenue, and relies on congressional 
appropriations to the Refuge Revenue Sharing program to compensate for 
the shortfall between revenues and obligations. Due to declining 
revenue and lack of appropriations, the Service has been paying less 
than 50 percent of its tax-offset obligations since 2001. This has a 
measurable impact on local communities that is felt even more starkly 
in difficult economic times--and it creates severe strain in relations 
between the Federal units and their local community, threatening the 
goodwill and partnerships that are keystones of successful 
conservation. NWRA requests $30 million for the Refuge Revenue Sharing 
Program, which, in recognition of the President's proposal to zero out 
funding, is still only about half of what is needed. The NWRA also 
calls for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
Partnerships and Strategic Growth
    We strongly support $3.8 million in fiscal year 2013 for Challenge 
Cost Share (CCS). Partners are the key to successful conservation; no 
Federal or State agency can do it alone. Because of this, we support 
programs that leverage Federal dollars such as the CCS program. Partner 
organizations such as local volunteer ``Friends'' groups leverage these 
funds to give American taxpayers more bang for their buck for projects 
like trails, education, boardwalks and habitat restoration.
    The Partners for Fish and Wildlife Program is another powerful tool 
for working with private landowners to collaboratively conserve refuge 
landscapes. The program consistently leverages Federal dollars for 
conservation, generating between $4 and $10 in conservation return for 
every $1 appropriated, and has been key to the success of many iconic 
landscape conservation projects. If funded at its authorized level of 
$75 million, the program would net at least $300 million worth of 
additional conservation. NWRA requests an fiscal year 2013 
appropriation of $60 million for the Partners for Fish and Wildlife 
Program, a $5 million increase to maintain current capabilities.
    NWRA also calls upon the Congress to fund the Land and Water 
Conservation Fund (LWCF) at $700 million. Created in 1965 and 
authorized at $900 million per year (more than $3 billion in today's 
dollars), the LWCF is our most important land and easement acquisition 
tool. With more than 8 million acres still unprotected within existing 
refuge boundaries, and the need to establish key wildlife corridors and 
connections between protected areas, the LWCF is more important than 
ever. NWRA strongly supports the new Collaborative Conservation 
requests of the Departments of the Interior and Agriculture, bringing 
together several Federal agencies around a common goal. NWRA supports 
the following projects and those advocated by refuge Friends 
organizations:
  --Everglades Headwaters NWR & Conservation Area (Florida)--$50 
        million;
  --Bear Lake NWR (Idaho)--$1.5 million
  --Bear River Migratory Bird Refuge (Utah)--$2.5 million;
  --Blackwater NWR (Maryland)--$2.5 million;
  --Cache River NWR and White River NWR (Arkansas)--$8 million;
  --Cokeville Meadows NWR (Wyoming)--$1.5 million
  --Connecticut River--Silvio O. Conte NFWR (New Hampshire, Vermont, 
        Massachusetts, Connecticut)--$12 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$5 million;
  --Great Bay NWR (New Hampshire) and Rachel Carson NWR (Maine)--$4 
        million
  --Middle Rio Grande NWR (New Mexico)--$1.5 million;
  --Rocky Mountain Front Conservation Area (Montana)--$19 million;
  --Rhode Island NWR Complex (Rhode Island)--$5 million;
  --Southeast Louisiana Refuge Complex (Louisiana)--$3 million;
  --St. Marks NWR/Longleaf Pine (Florida)--33 million; and
  --St. Vincent NWR (Florida)--$1 million
    The NWRA believes the NWRS can meet its responsibilities to the 
American people with collaboration and sufficient funding and we urge 
the Congress to help the FWS meet these obligations.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2013 
appropriations for the Department of the Interior (DOI). We encourage 
Congress to provide the DOI Working Capital Fund with at least $70.6 
million in fiscal year 2013.
    The Natural Science Collections Alliance is a nonprofit association 
that supports natural science collections, their human resources, the 
institutions that house them, and their research activities for the 
benefit of science and society. We are comprised of more than 100 
institutions which are part of an international community of museums, 
botanical gardens, herbariums, universities, and other institutions 
that house natural science collections and utilize them in research, 
exhibitions, academic and informal science education, and outreach 
activities.
    Scientific collections are a vital component of our Nation's 
research infrastructure. Whether held at a national museum, government-
managed laboratory or archive, or in a university science department, 
these scientific resources contain genetic, tissue, organismal, and 
environmental samples that constitute a unique and irreplaceable 
library of the Earth's history. The specimens and their associated data 
drive cutting edge research on significant challenges facing modern 
society, such as improving human health, enhancing food security, and 
understanding and responding to environmental change. Collections also 
inspire novel interdisciplinary research that drives innovation and 
addresses some of the most fundamental questions related to 
biodiversity.
    The institutions that care for scientific collections are important 
research centers that enable scientists to study the basic data of 
life, conduct modern biological, geological, and environmental 
research, and provide undergraduate and graduate students with hands-on 
training opportunities.
    The Federal Interagency Working Group on Scientific Collections 
(IWGSC) was established by President Bush to evaluate the status of 
federally owned object-based scientific collections. In 2009, the IWGSC 
reported that, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' In response, in 2010, the Office of Science and 
Technology Policy directed Federal agencies to budget for the proper 
care of collections. ``Agencies should ensure that their collections' 
necessary costs are properly assessed and realistically projected in 
agency budgets, so that collections are not compromised.''
    We are pleased to see that DOI has included an increase of $3.5 
million in its budget request for the Cultural and Scientific 
Collections program. Interior is an important caretaker of museum 
collections; the Department has an estimated 146 million items, which 
is second in size only to the Smithsonian Institution. Although many of 
the department's collections are located in bureau facilities, 
artifacts and specimens are also housed by nongovernmental facilities, 
such as museums and universities.
    The fiscal year 2013 budget request would implement a multi-year 
action plan to address recommendations made by the DOI Inspector 
General regarding Interior's accountability for its cultural and 
scientific specimens. In a December 2009 report, the Inspector General 
found that DOI has failed to properly accession, catalogue, or 
inventory museum collections, leaving artifacts ``unavailable for 
research, education, or display and . . . subject to theft, 
deterioration, and damage.'' The proposed budget increase would support 
oversight and technical assistance for better care of collections, 
start a pilot project to identify and assess collections at non-Federal 
repositories, and study consolidation of bureau and non-bureau 
facilities housing collections.
    We support the proposed DOI study of bureau and non-bureau 
facilities housing biological collections to determine the potential 
for economies of scale, improvements of oversight and accountability, 
and space reduction. Because excellent public and private facilities 
already exist in every State, we believe the study is likely to 
conclude that contracting with existing bio-repositories that have the 
experience and expertise to house and curate the collections and 
associated data will be the most efficient and cost-effective means by 
which Federal agencies can access the collections data required to 
accomplish agency missions. We applaud the increased recognition by DOI 
and other Federal departments of the immense importance of biological 
collections and the data they provide in support of the Nation's 
research enterprise that ultimately drives economic growth, improves 
human health, addresses energy needs, and enables sustainable 
management of our natural resources.
    The National Park Service is also planning to continue its 
investments in collections. The proposed budget would support the third 
year of an initiative to eliminate the archival backlog at 165 parks 
and to address the recommendations made by the Interior Inspector 
General. In fiscal year 2013, the National Park Service plans to 
catalog an estimated 7.4 million additional museum objects through the 
Flexible Park Program.

                               CONCLUSION

    Scientific collections are an important part of our Nation's 
research enterprise. Research specimens connect us to the past, are 
used to solve current societal problems, and are helping to predict 
future environmental changes. Continued investments in scientific 
collections are critical for our Nation's continued scientific 
leadership. Please support the budget request for the Department of the 
Interior's Capital Working Fund, which will support Interior's efforts 
to preserve scientific collections--a truly irreplaceable resource.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
        Prepared Statement of the Nevada Department of Wildlife

    To the Chair and members of the subcommittee, thank you for this 
opportunity to provide testimony on behalf of the Nevada Department of 
Wildlife (NDOW) regarding the importance of restoring and increasing 
appropriations in the fiscal year 2013 for State implementation of 
aquatic nuisance species (ANS) programs.
    Aquatic invasive species are a growing national concern in the 
United States and pose serious economic and ecological threats to our 
national aquatic resources. At the State level, very limited 
opportunities exist for Federal and State partnerships to combat the 
threat associated with the invasion and spread of aquatic nuisance 
species. The invasion and spread of aquatic nuisance species continues 
to escalate at both the national and State level. Many of the newer 
aquatic invaders have the ability to adapt and withstand various 
environmental factors making them more prolific and a larger threat to 
our native aquatic life, ecosystems and water resources. The problem is 
not one that can be adequately managed or solved by individual States 
or agencies but will take the coordinated efforts of private entities 
and various Federal and State agencies.
    Thus, NDOW urges the Congress to restore the fiscal year 2012 
appropriation of $1,075,000 to States with approved ANS plans and the 
additional $3 million appropriation that was originally authorized by 
the National Aquatic Nuisance Plants and Animals Act (NANPCA) of 1990. 
These appropriations would provide grant funds for State fish and 
wildlife agencies with approved aquatic nuisance species plans to 
implement their plans, as authorized by NANPCA, and as amended in the 
National Invasive Species Act of 1996 (NISA). The additional 
appropriations in fiscal year 2013 will provide much needed assistance 
for State fish and wildlife agencies with approved ANS plans to combat 
these invaders. Although NDOW currently does not have an approved ANS 
plan, it is currently under development and is expected to be completed 
in the next several months. Nevada's ANS Plan will be an extremely 
valuable component to NDOW's Aquatic Invasive Species Program; however, 
implementation of the plan, without Federal support, will effectively 
make the plan of little value in preventing the introduction and spread 
of aquatic invaders.
    The threat of invasion and the spread of numerous prolific aquatic 
invasive species are placing our Nation's water resources and aquatic 
ecosystems at risk. The threat is real and States cannot be expected to 
effectively manage and eradicate ANS on their own; it will take the 
coordinated efforts of both State and Federal agencies to combat these 
invaders.
    Thank you for the opportunity to present this testimony to the 
subcommittee. As you deliberate appropriate funding levels for ANS 
issues, please consider the important public policy implications that 
could entail.
                                 ______
                                 
     Prepared Statement of the Nez Perce Tribal Executive Committee

    Honorable Chairman and members of the subcommittee, as Chairman of 
the Nez Perce Tribal Executive Committee, I would like to thank you for 
the opportunity to provide testimony on behalf of the Nez Perce Tribe 
to this subcommittee as it evaluates and prioritizes the spending needs 
of the United States regarding the Indian Health Service (IHS); Bureau 
of Indian Affairs (BIA); Environmental Protection Agency (EPA); the 
United States Forest Service (USFS); and the Fish and Wildlife Service 
(FWS).
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to the tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force with 16 officers, a 
social services department, a comprehensive natural resource program 
that does work in forestry, wildlife management, land services and land 
management, habitat restoration, air quality and smoke management, 
water quality and sewer service, and one of the largest fisheries 
departments of any tribe in the Nation working on recovery of listed 
species under the Endangered Species Act. The Nez Perce Tribe conducts 
its extensive governmental functions and obligations through a 
comprehensive administrative framework, which is necessary for a 
sovereign nation that oversees and protects the treaty rights of the 
Nez Perce People in addition to providing the day to day governmental 
services to its members and the surrounding communities. The Nez Perce 
Tribe has long been a proponent of self determination for tribes and 
believes its primary obligation is to protect the treaty-reserved 
rights of the Nez Perce Tribe and its members. All of the work of the 
tribe is guided by this principle. As a result, the tribe works 
extensively with many Federal agencies and proper funding for those 
agencies and their work with, for and through tribes is of vital 
importance.
Indian Health Services
    The Nez Perce Tribe was pleased to see the President's budget 
provided for increased spending for IHS. The request for $4.422 billion 
is an increase of $115.9 million more than the fiscal year 2012 enacted 
level but more is needed. The tribe requests that IHS contract support 
costs be funded at $571 million. The tribe's shortfall for fiscal year 
2011 for CSC was $859,860.54. Proper funding for the operations of the 
clinic is imperative. The Nez Perce Tribe currently operates one 
healthcare clinic on the Nez Perce Reservation, Nimiipuu Health, the 
main clinic in Lapwai, Idaho and a satellite facility 65 miles away in 
Kamiah, Idaho. Nimiipuu Health provided service to 3,870 patients in 
fiscal year 2011. These 3,870 patients represented 79,573 visits, which 
included pharmacy and laboratory visits in addition to medical provider 
visits. Our expenditure total for fiscal year 2011 was $12,555,959. Our 
Contract Health Services (CHS) cost for outpatient services for fiscal 
year 2011 was $3,674,368. In this fiscal year for the 4 months ended 
January 31, 2012, our expenditures totaled $4,989,836. Annualized for 
the full 12 months this will result in a cost of $14,969,508. Our CHS 
cost at the end of January was $2,118,537. When annualized, this amount 
will result in a total expenditure of $6,355,611. Our revenue from IHS 
for 2011 was $10,082,221 and is projected for fiscal year 012 at 
$9,873,494.
    In 2011, the tribe expended $2,626,164 of third-party billings 
collected in 2011. If expenditures continue as projected based on the 
first 4 months of fiscal year 2012, the tribe will have to collect in 
third-party billings $5,096,014. This will require approximately 57 
percent more collections in third-party revenue than is currently 
budgeted and anticipated in fiscal year 2012. The tribe has been in 
priority one status for our CHS patients for 9 months of fiscal year 
2011 and for the first 4 months of fiscal year 2012. Even in this 
priority one status we are already 32 percent overexpended in fiscal 
year 2012 with six identified Contract Health Emergency cases being 
processed for reimbursement through the CHEF funds. Priority one cases 
include only those circumstances where loss of life or limb will occur 
without treatment. All other referrals for outside treatments are 
placed on a deferred services list. At the end of fiscal year 2011, our 
deferred list totaled $516,817. At the beginning of fiscal year 2012, 
the patients on this deferred list were re-evaluated by the medical 
providers and either received treatment based on the condition reaching 
priority one status, remained on the deferred services list or denied 
services based on their condition at that time. Currently our deferred 
list totals $209,998 after only 4 months of referrals. Any shortfall in 
funding creates a trickle-down effect in emergency and preventative 
patient care.
Bureau of Indian Affairs
    For the fiscal year 2011 budget proposal, the BIA proposed several 
spending recommendations for improving trust land management that were 
supported by the tribe. The Nez Perce Tribe entered into an agreement 
with the United States in 2005 known as the Snake River Basin Water 
Rights Settlement Act of 2004 (title X of division J of Public Law 108-
447, 118 Stat. 3431, et seq.). A component of the agreement was the 
transfer of approximately 11,000 acres of land from the BLM to the 
tribe. The lands were supposed to be surveyed as part of the transfer. 
Full funding for those surveys has not been made to this date. The 
fiscal year 2011 budget request called for $695,000 for that fiscal 
year to begin that process. Although that amount would not cover the 
full cost of the surveys, it would allow the process to begin. The 
tribe supports a renewal of that appropriation request in the fiscal 
year 2013 budget that was not funded during the past several budget 
cycles.
    In addition, it is important to note that under the terms of the 
Snake River Basin Act referenced in the previous paragraph, for fiscal 
year 2013, a payment shall be made to the Nez Perce Tribe in the amount 
of $9 million. This is the last payment to the Nez Perce Tribe under 
the terms of the settlement. The waivers and terms of the agreement are 
not considered final and effective until the terms and conditions such 
as this payment are made and it is important that this payment be 
included in the fiscal year 2013 budget.
    The tribe requests more emphasis be placed on funding for contract 
support costs through the BIA and that the BIA's request of $228 
million be funded fully. The Nez Perce Reservation covers 1,200 square 
miles and covers five counties and has a mixture of tribal and 
nontribal residents. Currently, the Nez Perce Tribe contributes 
$600,000 per year to cover the shortfall in BIA funding for the tribe's 
law enforcement. This funding comes from cigarette taxes levied by the 
tribe.
    The tribe also relies on the BIA for funding for its work related 
to endangered species and protection of the tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the tribe relative to Big Horn 
Sheep. The BIA Endangered Species Program provides tribes with the 
technical and financial assistance to protect endangered species on 
trust lands but funding of this program has declined significantly over 
the last 8 years.
    In addition, the funding provided under the BIA Rights Protection 
fund is critical as it supports the exercise of off-reservation hunting 
and fishing for tribes like the Nez Perce. It is important to 
understand that this funding is not for equipment but is used for job 
creation. The tribe has employed two new conservation officers and an 
additional biologist for our programs under the funding during the last 
several fiscal years. The tribe has to cover and manage a large area in 
fisheries related activities from the Lostine River in Oregon to the 
South Fork of the Salmon River and a capable and adequate staff is 
vital to continue this work.
    The tribe supports the funding requests for the BIA Wildlife and 
Parks Tribal Priority Allocations. This funding is allowing important 
work to be done on fish recovery through hatchery operation and 
maintenance. As stated earlier, the tribe has invested a large amount 
of its personnel and resources in the restoration and recovery of this 
important resource through its fisheries programs. The State of Idaho 
directly benefits from this work as well through its sports fisheries. 
These programs have been successful but more work needs to be done.
Fish and Wildlife Service and United States Forest Service
    The tribe relies heavily on funding sources within FWS and the 
USFS. First, the Tribal Wildlife Grants account for a small pot of 
money that has resulted in huge returns from the tribe's perspective. 
This competitive grant does not simply dole out funds for projects but 
awards grants based on the quality of the proposal. The tribe has 
received funding from this grant 4 out of the last 5 years based on the 
quality of our research work on Big Horn Sheep. The Big Horn Sheep is a 
treaty resource of the tribe that is declining rapidly within the 
tribe's ceded territory. The funds from this program provide the 
resources to keep the research going. Funding for these grants was 
reduced to $4 million in the fiscal year 2012 budget. The tribe 
strongly urges this subcommittee to increase this funding as it 
provides a large return in work for a small investment. It is also one 
of the few sources of funds tribes can tap into for wildlife research.
    The tribe also supports increased funding for the work of USFS in 
the protection of treaty reserved resources of tribes. The Nez Perce 
Tribe reservation and its usual and accustomed areas are rich in 
natural resources and encompass eight different national forests. The 
tribe works closely with each forest administration to properly manage 
its resources on behalf of the tribe. These range from protecting and 
properly managing the products of the forest to managing the vast 
wildlife in each one such as elk, deer, bighorn sheep and wolves. For 
example, the Payette Forest will need increased funding for monitoring 
over the next several years. Increased funding is necessary so that the 
Forest Service can meet these trust obligations and continue to work 
with tribes such as the Nez Perce on a Government-to-government basis.
    The tribe also strongly supports the recommendations of USFS in the 
fiscal year 2013 Presidential budget justification for the United 
States Department of Agriculture to eliminate or delete section 431 of 
the Consolidated Appropriations Act, 2012 (Public Law 112-74) from the 
fiscal year 2013 budget. Section 431 restricts agency flexibility in 
the implementation of decisions and will prove harmful to the Nez Perce 
Tribe as it will limit the ability of USFS to provide protection to 
treaty reserved resources of the Nez Perce Tribe such as big horn 
sheep.
    Similarly, the tribe is looking for funding for solutions to help 
with its Bison hunt in the Gallatin National Forest near Yellowstone 
National Park. For the last 6 years, the Nez Perce Tribe has returned 
to the Gallatin to exercise its treaty right to harvest bison in that 
area. The treaty hunt has been successful and this year the tribe 
harvested more than 80 animals. However, disease transmission by the 
bison is a concern and therefore a ship and slaughter program used by 
the State of Montana to protect domestic livestock has the potential to 
endanger such treaty based hunts. More funding for work and research to 
assist in helping USFS, FWS, and the National Park Service meet the 
treaty hunting rights of the Nez Perce Tribe and the Confederated 
Tribes of the Salish Kootenai is needed.
Environmental Protection Agency
    The Nez Perce Tribe currently implements, on behalf of EPA, the 
Federal Air Rules for Reservations program (FARR). The program monitors 
air quality and regulates field burning throughout the Nez Perce 
Reservation. The tribe is located in Region 10 of the EPA. The tribe is 
currently dependent on several EPA sources for funding for the FARR. 
Continued funding is needed for tribes to meet their air quality needs 
and operate programs under the delegation of the EPA. EPA consistently 
uses the Nez Perce Tribe's FARR Direct Implementation Tribal 
Cooperative Agreement (DITCA) program as a model of success but Region 
10 is being forced to look for ways that the Nez Perce Tribe can reduce 
the cost of its FARR DITCA. The Nez Perce Tribe cannot cut its FARR 
DITCA budget without adversely impacting the tribe's ability to protect 
the health and welfare of the 18,000 residents of the Nez Perce 
Reservation. The Nez Perce Tribe currently operates its entire FARR 
DITCA program for about the same cost per year as the State of Idaho 
operates solely an agricultural burning program, therefore, EPA gets a 
much bigger ``bang for their buck'' with the FARR DITCA program 
compared to the state program and is a program worthy of investment.
    The tribe was pleased to see that most tribal set asides received 
increased funding in fiscal year 2012. Funding for these tribal 
programs is important. In addition to the air quality program, the 
tribe is currently in facilitated discussions with the State of Idaho 
that are being funded through grants from the EPA. The facilitated 
discussions involve the tribe adopting water quality standards to 
improve the water quality on the Nez Perce Reservation. The tribe also 
relies heavily on contract support dollars for our water resource 
programs such as the storage tank remediation issues and watershed 
restoration. As you can see, the Nez Perce Tribe does a variety of 
work, sometimes instead of and sometimes on behalf of the United States 
but the tribe still expects the United States to provide proper funding 
under its trust obligations.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2013 
Interior, Environment and Related agencies appropriations. My name is 
Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States vs. Washington \1\ (U.S. vs. 
Washington). To meet the many natural resource management 
responsibilities required of the tribes, I submit the following 
requests for the Bureau of Indian Affairs (BIA) and the Environmental 
Protection Agency (EPA).
---------------------------------------------------------------------------
    \1\ United States vs. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
           SUMMARY OF FISCAL YEAR 2013 APPROPRIATIONS REQUEST

Bureau of Indian Affairs
            Rights Protection Implementation
    Provide $17.146 million for BIA Western Washington Fisheries 
Management.
    Provide $2.777 million for BIA Washington State Timber, Fish and 
Wildlife (TFW).
    Provide $4.8 million for BIA U.S./Canada Pacific Salmon Treaty 
(PST) Implementation.
    Provide $2.4 million for BIA Salmon Marking.
            Fish, Wildlife, and Parks
    Provide $5.452 million for BIA Fish Hatchery Maintenance.
            Contract Support
    Provide $228 million for BIA Contract Support.
Environmental Protection Agency
    Provide $96.375 million for EPA General Assistance Program (GAP).
    Provide $20 million for EPA Multi-media Tribal Implementation 
Grants Program.
    Provide $50 million for EPA Puget Sound.
National Requests
    We also support the budget priorities and funding requests of the 
National Congress of American Indians.

         TREATY RIGHTS AT RISK AND THE FEDERAL TRUST OBLIGATION

    Before providing justification on our specific funding requests, I 
want to highlight an initiative that we have been pursuing--our Treaty 
Rights at Risk initiative. The treaty rights of the western Washington 
treaty tribes to harvest salmon are in imminent danger. The danger 
exists due to the inability to restore salmon habitat faster than it is 
being destroyed. The Federal Government has an obligation to the tribes 
to protect their constitutionally based treaty rights. By fulfilling 
these Federal obligations and implementing our requested changes to 
protect and restore salmon habitat, I have no doubt that we will 
recover the salmon populations. It is imperative that we are successful 
with this initiative as salmon are critical to the tribal cultures, 
traditions and their economies.
    The tribes have developed sophisticated natural resource programs 
designed to protect and enhance their treaty rights. Tribal programs 
have served as the backbone of salmon recovery, providing the 
technical, policy, and legal framework for this incredibly difficult 
task. Tribes perform complicated harvest, hatchery and habitat 
management tasks that neither the state nor the Federal Government can 
effectively carry out. It is because of the role that tribes play in 
protecting their rights that they require adequate, long-term, and 
stable funding.
    We are pleased that the fiscal year 2013 President's budget 
continues to be supportive of the northwest tribes' natural resources 
funding requests. On behalf of our 20 member tribes, our specific 
requests to the fiscal year 2013 natural resource management programs 
contained in the BIA and EPA are further described below.

                       JUSTIFICATION OF REQUESTS

Bureau of Indian Affairs
            Provide $17.146 Million for Bureau of Indian Affairs 
                    Western Washington Fisheries Management
    Over the past several years, the tribes and the NWIFC have 
requested an increase of $12 million in the base Western Washington 
Fisheries Management program (WW). In fiscal year 2010, the Congress 
heard our plea and increased the national Rights Protection 
Implementation account by $12 million with $3.386 million of this going 
to the WW Program. This increase was very much appreciated, however, we 
once again ask Congress to address the remaining identified needs of 
the NWIFC and our member tribes. The President's fiscal year 2013 
budget contains $8.66 million. We respectfully request $17.146 million, 
an increase of $8.486 million more than the President's fiscal year 
2013 budget. This request is consistent with our needs assessment 
presented in fiscal year 2010. This will provide new monies for 
shellfish, groundfish, enforcement, habitat, wildlife, and other 
natural resource management needs.
            Provide $2.777 Million for Bureau of Indian Affairs 
                    Washington State Timber, Fish and Wildlife
    The Timber-Fish-Wildlife Agreement is one of the most successful 
models of collaboration in natural resource management. This 
coordinated approach of private forest landowners, environmental 
groups, and tribal, State and Federal governments has led to greater 
integration of management responsibilities that ensures protection for 
salmon and wildlife while allowing for a financially viable timber 
industry. Tribes need the ability to participate in this process to 
help develop consensus-based solutions for natural resource management 
and landowner issues. The President's fiscal year 2013 budget contains 
$2.777 million. We support funding this account at $2.777 million as 
requested in the President's fiscal year 2013 budget. This will provide 
the necessary funding to tribal TFW programs to fully participate in 
the TFW process.
            Provide $4.8 Million for Bureau of Indian Affairs U.S./
                    Canada Pacific Salmon Treaty Implementation
    The Pacific Salmon Treaty Act of 1985 charges the U.S. Section of 
the Pacific Salmon Commission with the responsibility for 
implementation of the Pacific Salmon Treaty, a bilateral treaty with 
Canada. Tribes assist in meeting the Federal Government's obligations 
in implementing the treaty by participating in cooperative research and 
data gathering programs. The President's fiscal year 2013 budget 
contains $4.364 million. We support the U.S. Section's recommendation 
to fund the BIA at $4.8 million, an increase of $436,000 more than the 
President's fiscal year 2013 budget. This will provide sufficient 
funding to ensure that the tribes can continue to participate 
effectively in the bilateral PST process.
            Provide $2.4 Million for Bureau of Indian Affairs Salmon 
                    Marking
    These funds are used to mark salmon at tribal hatcheries, which are 
used to scientifically monitor salmon populations and watersheds in 
western Washington. This is necessary due to the Federal requirement to 
mass mark Pacific salmon reared in facilities funded by Federal 
dollars. The President's fiscal year 2013 budget contains $1.068 
million. We respectfully request an additional $1.332 million to fully 
implement more extensive selective fisheries targeted at these marked 
fish. This is the true need as determined by the tribes to meet the 
request of the Congress.
            Provide $5.452 Million for Bureau of Indian Affairs Fish 
                    Hatchery Maintenance
    Tribal fish hatcheries in western Washington are part of the 
largest fish hatchery system in the world. These hatcheries provide 
fish that significantly contribute to both non-Indian recreational and 
commercial harvest, as well as for tribal fisheries. Today, hatcheries 
also play a large role in recovering pacific salmon, many of which are 
listed under the Endangered Species Act. A comprehensive needs 
assessment study was conducted in fiscal year 2006 by the BIA at the 
request of Congress which identified a level of need of more than $48 
million in necessary hatchery maintenance and rehabilitation costs. 
This account has been increased over the last few years to better 
reflect the tribal need and the backlog of maintenance projects 
requested for tribal hatcheries. The President's fiscal year 2013 
budget contains $4.838 million. We support funding this account at 
$5.452 million as previously requested in the President's fiscal year 
2012 budget.
            Provide $228 Million for Bureau of Indian Affairs Contract 
                    Support Costs
    In fiscal year 2011 these funds received an increase of $53.56 
million more than the fiscal year 2010 enacted level of $166 million. 
The President's fiscal year 2013 budget contains $228 million. We 
support funding this account at $228 million as requested in the 
President's fiscal year 2013 budget. By not fully funding Contract 
Support Costs it hampers the tribes' ability to fully exercise their 
right to self-govern and requires tribes to use direct program dollars 
to fund the required contract support functions.
Environmental Protection Agency
            Provide $96.375 Million for Environmental Protection Agency 
                    General Assistance Program
    This funding has built essential tribal capacities and remains 
critical to the tribes' ability to sustain their important water 
quality programs. The President's fiscal year 2013 budget contains 
$96.375 million for the nationwide General Assistance Program (GAP). We 
support funding this account at $96.375 million as requested in the 
President's fiscal year 2013 budget.
            Provide $20 Million for Environmental Protection Agency 
                    Multi-Media Tribal Implementation Grants Program
    This program was initially included in the President's fiscal year 
2011 budget request but it did not receive an appropriation. These 
funds would allow the EPA to provide targeted multimedia (cross 
discipline) grants to tribes for implementation of Federal 
environmental programs. This program logically follows the capacity 
building function under the tribal GAP, as noted above. The President's 
fiscal year 2013 budget did not include any funding for this new 
initiative. We respectfully request $20 million for this program as 
previously requested in the President's fiscal year 2012 budget. This 
program will provide targeted grants to tribes for implementation of 
Federal environmental programs and would move the EPA/tribal 
partnership from capacity building to implementation of these important 
environmental programs. Identifying western Washington as a pilot for 
designing an EPA Indian program implementation strategy would build on 
the current investment EPA has made in tribal program development.
            Provide $50 Million for Environmental Protection Agency 
                    Puget Sound
    The Puget Sound Geographic Program provides essential funding that 
will help protect, restore and enhance Puget Sound. Tribes will 
continue to seek funding from this EPA account, in coordination with 
the Puget Sound Partnership. Such funding will allow the tribes to 
participate in the necessary scientific work, implementation measures, 
and policy discussions on issues that affect our treaty rights. The 
President's fiscal year 2013 budget contains $19.289 million. We 
respectfully request $50 million, an increase of $30.711 that restores 
this program to the fiscal year 2010 enacted level of $50 million. With 
this level of funding, collaborative work can continue on key marine 
issues, salmon recovery, land-use management, and regulatory changes.

                               CONCLUSION

    We know that it is difficult to allocate scarce Federal funds at 
this time. However, we believe the management work that we perform to 
protect our valuable resources and to help fulfill the trust obligation 
of the Federal Government continues to be worthy of your support. Thank 
you.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee the Northwest Portland Area Indian Health Board (NPAIHB) 
is honored to provide this testimony on the Indian Health Service (IHS) 
fiscal year 2013 budget.
    Established in 1972, NPAIHB is a Public Law 93-638 tribal 
organization that represents 43 federally recognized tribes in the 
States of Idaho, Oregon, and Washington on healthcare issues. Over the 
past 21 years, our Board has conducted a detailed analysis of the 
Indian Health Service (IHS) budget. Our Annual IHS Budget Analysis and 
Recommendations report has become the authoritative tribal document on 
the IHS budget. It is used by the Congress, the administration, and 
national Indian health advocates to develop recommendations on the IHS 
budget. It is indeed an honor to present you with our recommendations.
Indian Health Disparities
    The recent reauthorization of the Indian Health Care Improvement 
Act (IHCIA) includes a declaration of national Indian health policy. 
The Congress declares that it is the policy of this Nation, in 
fulfillment of its special trust responsibilities and legal obligations 
to Indians, to ensure the highest possible health status for Indians 
and to provide all resources necessary to effect that policy.\1\ The 
Congress recognizes that it has a duty to elevate the health status of 
American Indian and Alaska Native (AI/AN) people to a parity with the 
general U.S. population and to provide the resources necessary to do 
so. Our recommendations are consistent with this policy declaration and 
we respectfully ask the Congress to fulfill this duty.
---------------------------------------------------------------------------
    \1\ 25 U.S.C. 1601.
---------------------------------------------------------------------------
    While tribes have been successful at reducing the burden of certain 
health problems, there is strong evidence that other types of diseases 
are on the rise for Indian people. For example, national data for 
Indian people compared to the United States all races rates indicate 
they are 638 percent more likely to die from alcoholism, 400 percent 
greater to die from tuberculosis, 291 percent greater to die from 
diabetes complications, 91 percent greater to die from suicide, and 67 
percent more likely to die from pneumonia and influenza.\2\ In the 
Northwest, stagnation in the data indicates a growing gap between the 
AI/AN death rate and that of the general population. Evidence suggests 
that this gap might be widening in recent years. These data document 
the fact that despite the considerable gains that tribes have made at 
addressing health disparities, these gains are reversing themselves and 
the health of Indian people could be getting worse.\3\
---------------------------------------------------------------------------
    \2\ Fiscal Year 2000-2001 Regional Differences Report, Indian 
Health Service, available at: www.ihs.gov.
    \3\ Please note findings in The Health of Washington State: A 
Statewide Assessment of Health Status, Health Risks, and Health Care 
Services, December 2007. Available: http://www.doh.wa.gov/hws/
HWS2007.htm.
---------------------------------------------------------------------------
Recommendation: Maintain Current Services
    The fundamental budget principle for Northwest Tribes is that the 
basic healthcare program must be preserved by the President's budget 
request and the Congress. Preserving the IHS base program by funding 
the current level of health services should be a fundamental budget 
principle of the Congress. Otherwise, how can unmet needs ever be 
addressed if the existing program is not maintained? Current services 
estimates' calculate mandatory costs increases necessary to maintain 
the current level of care. These ``mandatories'' are unavoidable and 
include medical and general inflation, Federal and tribal pay act 
increases, population growth, and contract support costs.
    The IHS congressional justification reports that the President's 
budget provides a $115.9 million to support activities identified by 
the tribes as budget priorities including increasing resources for the 
Contract Health Services (CHS) program; funding Contract Support Costs 
(CSC) shortfall; funding for health information technology activities; 
and providing routine facility maintenance. The IHS explains that the 
overall increase is adequate to ``sustain the Indian health system, 
expand access to care, and continue to improve oversight and 
accountability'' despite the insignificant increase. How can you 
sustain the system or expand access to care if you do not fund 
inflation? NPAIHB projections indicate that an additional $287 million 
is needed to maintain the current levels of care.
    Inflation and population growth alone using actual rates of medical 
inflation extrapolated from the Consumer Price Index (CPI) and IHS user 
population growth predict that at least $304 million will be needed to 
maintain current services. Compound this with the fact that nearly half 
of the proposed increase is for staffing and operation of six new 
facilities ($49 million), which will only leave $66 million to cover 
current services. Estimates developed by the IHS during the fiscal year 
2013 budget formulation process and used during tribal consultation to 
develop tribal recommendations on the fiscal year 2013 budget, estimate 
current services at $136.8 million for pay act costs, inflation, and 
population growth. These are IHS estimates and not tribal estimates, 
thus there should be no question about the validity of these 
projections.

              FISCAL YEAR 2013 CURRENT SERVICE REQUIREMENTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                             Increase
       Mandatory Cost To Maintain Current Services            needed
------------------------------------------------------------------------
Contract Health Services Inflation estimated at 5.5               64,112
 percent; and Population Growth.........................
Health Services Account (not including Contract Health           167,058
 Services) inflation....................................
Contract Support Costs (unfunded).......................          99,300
Population Growth (estimated at 1.6 percent of Health             72,722
 Services accounts).....................................
                                                         ---------------
      Total Mandatory Costs.............................         403,192
------------------------------------------------------------------------

    The administration's proposal does not provide any funding 
increases for inflationary costs except for the CHS program. The $54 
million increase for the CHS program is respectable but will fall short 
by $10 million to maintain current services. Aside from this request 
for CHS, there is absolutely no additional funding requested for 
inflation, population growth or civilian and tribal pay cost increases. 
NPAIHB estimates that at least $213.4 million is needed to fund 
inflationary costs and an additional $90.4 million is needed to cover 
population growth. Add to this the accumulated past year's CSC 
shortfall of $99.3 million, means that there are at least $403 million 
in mandatory costs that will have to be absorbed by IHS programs--most 
likely by cutting services to Indian people.
Per Capita Spending Comparisons
    The most significant trend in the financing of Indian health over 
the past 10 years has been the stagnation of the IHS budget. With 
exception of a notable increase of 9.2 percent in fiscal year 2001 and 
last year's 14-percent increase, the IHS budget has not received 
adequate increases to maintain the costs of current services 
(inflation, population growth, and pay act increases). The consequence 
of this is that the IHS budget is diminished and its purchasing power 
has continually been eroded over the years. As an example, in fiscal 
year 2009, we estimated that it would take at least $513 million to 
maintain current services \4\. The final appropriation for the IHS was 
a $235 million increase, falling short by $278 million. This means that 
tribes must absorb unfunded inflation and population growth by cutting 
health services. The IHS Federal Disparity Index (FDI) is often used to 
cite the level of funding for the Indian health system relative to its 
total need. The FDI compares actual healthcare costs for an IHS 
beneficiary to those costs of a beneficiary served in mainstream 
America. The FDI uses actuarial methods that control for age, sex, and 
health status to price health benefits for Indian people using the 
Federal Employee Health Benefits (FEHB) plan, which is then used to 
make per capita health expenditure comparisons. It is estimated by the 
FDI, that the IHS system is funded at less than 60 percent of its total 
need.\5\
---------------------------------------------------------------------------
    \4\ Fiscal Year 2009 IHS Budget Analysis & Recommendations, 
Northwest Portland Area Indian Health Board, March 17, 2008; available: 
www.npaihb.org.
    \5\ Level of Need Workgroup Report, Indian Health Service, 
available: www.ihs.gov.
---------------------------------------------------------------------------
Fiscal Year 2013 Indian Health Services Budget Recommendations
    NPAIHB recognizes that the following recommendations may seem 
unreasonable in the current fiscal environment. However when the 
significant healthcare needs of Indian people are considered, our 
recommendations are realistic. We all recognize that in this difficult 
budget environment, we all must make sacrifices for our country. As the 
historic record on Indians will demonstrate, no one has sacrificed more 
than Native Americans. We hope you will recognize the significant 
healthcare needs of Indian Country by supporting the IHS budget.
  --NPAIHB recommends that the subcommittee restore funding eliminated 
        in the President's request for inflation, population growth and 
        tribal pay costs. Our estimates are based on budget worksheets 
        provided and used by the IHS during fiscal year 2013 National 
        Budget Formulation Meetings. We recommend $13.4 million to 
        cover tribal pay costs; $60 million for inflation, and; $52.4 
        million for population growth.
  --NPAIHB recommends that at least an additional $10 million be 
        provided for the IHS Contract Health Service Program (CHS) to 
        cover inflation and population growth. The CHS program is 
        extremely important for Portland area tribes since we do not 
        have any hospitals and rely on the CHS program for all 
        specialty and inpatient care. Other parts of the IHS system 
        have access to hospitals for specialty and inpatient care. 
        Because of this, the CHS program makes up 34 percent of the 
        Portland area budget and when less than adequate inflation and 
        population growth increases are provided, Portland area tribes 
        are forced to cut health services to absorb these mandatory 
        costs.
  --We recommend that the subcommittee provide an additional $99.3 
        million to fund past years' CSC shortfalls that are owed to 
        tribes under Public Law 93-638. The well-documented 
        achievements of the Indian self-determination policies have 
        consistently improved service delivery, increased service 
        levels, and strengthened tribal governments, institutions, and 
        services for Indian people. Every administration since 1975 has 
        embraced this policy and the Congress has repeatedly affirmed 
        it through extensive amendments to strengthen the Self-
        Determination Act in 1988 and 1994.
  --The Portland area has developed a new innovative approach to 
        constructing health facilities in order to address the health 
        needs of tribes. Portland tribes have conducted a pilot study 
        to examine the feasibility of developing regional referral 
        specialty care centers to improve healthcare access and quality 
        of healthcare. The study concludes that regional referral 
        specialty care centers are feasible, and recommended a 
        demonstration project to validate the concept's viability 
        through the collection of actual data. The pilot study 
        recommended that the demonstration project be located in the 
        Northwest quadrant of the Portland Area. This would serve 
        24,000 users from tribal facilities within 1 hour's drive. We 
        recommend that the subcommittee include $10 million for the 
        Portland Area to develop this demonstration project.
    Thank you for this opportunity to provide our recommendations on 
the fiscal year 2013 IHS budget. I am happy to respond to any questions 
from the subcommittee.
                                 ______
                                 
        Letter From Northwest Portland Area Indian Health Board
                                   Portland, OR, February 22, 2012.
Yvette Roubideaux, M.D., M.P.H.,
Director, Indian Health Service, 801 Thompson Avenue, Suite 440, 
        Rockville, Maryland 20852.
    Dear Dr. Roubideaux: On behalf of the IHS Contract Support Cost 
(CSC) Work Group, I want to thank you for reconvening the Work Group to 
begin the evaluation process concerning the 2007 CSC Policy contained 
in the IHS Manual. As the Tribal Chair of the CSC Work Group, I write 
to follow up on the Work Group's initial recommendations made during 
our January 31-February 2012 Rockville, Maryland meeting.
    You charged the CSC Workgroup with reviewing and evaluating the 
2007 CSC Policy changes, but to also make recommendations on how to 
improve other aspects of the Policy. You also requested that we 
consider technical revisions to clarify definitions, consider deadlines 
and dates that are referenced in the Policy, and engage in a discussion 
about whether tribes remain open to having their data disclosed for 
purposes of reporting CSC requirements and deficiencies. In order to 
address this ambitious agenda, I believe it is important that we 
identify specific follow-up actions needed for the CSC Workgroup to 
complete its work in an efficient manner and to prepare for our next 
meetings.
    As we explained during our exit meeting, the CSC Work Group cannot 
do an assessment of the 2007 CSC Policy until IHS complies with the 
existing Policy by releasing the data which the Policy currently 
requires be released. In substantial part, reviewing this data will 
permit the Work Group to assess how the 2007 changes which you have 
requested us to examine have worked over time. All of the data the CSC 
Work Group requested for fiscal year 2009, fiscal year 2010, and fiscal 
year 2011 is required to be disclosed under IHS Manual, Chapter 6-
3.5(8)(4). We expressly did not request the disclosure of congressional 
reports that are not yet cleared for disclosure. Again, absent 
disclosure of this raw data, the Work Group believes it cannot proceed 
with a full assessment of the 2007 Policy, as charged. I respectfully 
renew our request that this data be released.
    The CSC Workgroup also requests additional information concerning 
the following items:
  --When were the Ch. 6-3.5(B) data reports certified by the IHS Chief 
        Financial Officer for fiscal year 2009, fiscal year 2010 and 
        fiscal year 2011?
  --What specific provisions of the Manual does IHS propose be changed 
        and how does IHS propose they be changed? (A redline of IHS's 
        suggestions would expedite the Work Group's review and work.)
  --What provision of law or regulation has been relied upon by IHS to 
        withhold disclosure of the data reports regarding the 
        expenditure of closed appropriations? As we discussed, we 
        believe these disclosures are not only necessary to comply with 
        the Policy, but necessary to facilitate maximum tribal 
        consultation on issues directly impacting federally recognized 
        tribes.
  --What is the allocation plan for the $74 million increase in 
        contract support cost appropriations enacted for fiscal year 
        2012? (The Manual requires the allocation by March 30, 2012, 
        and the Work Group believes that disclosure of the allocation 
        plan before allocations are made will maximize the President's 
        commitment to tribal consultation.)
  --How were the fiscal year 2010 and fiscal year 2011 CSC 
        appropriations allocated?
    The forgoing information is essential for the CSC Work Group to 
fully and properly review the existing CSC Policy, consistent with the 
Government-to-government relationship and the President's commitment to 
maximum tribal consultation.
    With regard to dates and deadlines, I would note that, while some 
of the dates may initially be confusing, I understand that the dates 
and deadlines were specifically adopted to accommodate the declination 
and rejection deadlines that appear in the Indian Self-Determination 
Act. I also understand that other dates and deadlines were adopted by 
IHS to permit an orderly reporting process and a prompt allocation of 
appropriated funds based upon that data. It would be beneficial to the 
CSC Work Group to have IHS staff go through the Policy, to review the 
dates and logic behind them, and to propose other dates that might 
better achieve these goals consistent with the Act. The Work Group 
intends to do the same.
    Similarly with regard to definitions and terms, efficiency in Work 
Group meetings will best be served if IHS would identify the terms or 
definitions that agency staff would like us to consider revising, again 
using a ``redline'' method. CSC Work Group members should also feel 
free to prepare ``redline'' amendments which they would like the full 
Work Group to consider. All such redline documents should be shared 
with one another prior to our next meeting.
    Finally, I would like to accommodate the request of some CSC Work 
Group members for an orientation to CSC policy. Toward this end, I 
believe it would be most beneficial to arrange a joint Federal-Tribal 
panel that would provide a brief history of the CSC changes that have 
taken place over the years, and a discussion of how the key Policy 
provisions are being implemented. This will allow new Work Group 
members and IHS staff, alike, to see the evolution of the Policy to its 
present form. I understand that the goal of each successive change has 
been to improve equity across tribes while maximizing tribal self-
determination. If so, the more Work Group members and IHS staff 
understand this evolution, the more likely we are to develop new 
recommendations consistent with those goals. I am committed to working 
with you to develop this joint Federal-Tribal presentation for the 
Workgroup.
    I am hopeful that with assistance from IHS staff we can get these 
requests organized and addressed over the next 2 weeks, so that we 
prepare an agenda for our next CSC Work Group meetings. I believe our 
request is consistent with your priorities to strengthen the IHS's 
partnership with tribes and to have the work of IHS be as transparent, 
accountable, fair, and inclusive as possible. Our request is consistent 
with your principles to improve the work of IHS.
    I have directed my technical staff, Jim Roberts, NPAIHB Policy 
Analyst, to work with your office or designee to follow up on the 
details of this letter. You and your staff should feel free to contact 
Mr. Roberts at (503) 228-4185 or by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1278607d7077606661527c62737b7a703c7d60753c">[email&#160;protected]</a>
            Respectfully,
                                        Andrew Joseph, Jr.,
    Chairperson, Colville Tribal Council Member, Tribal Chair, CSC 
                                                         Workgroup.
Enclosures:
    ATNI Resolution
    GPTCHB Resolution

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD

Burns Paiute Tribe
Chehalis Tribe
Coeur d' Alene Tribe
Colville Tribe
Coos, Suislaw & Lower Umpqua Tribe
Coquille Tribe
Cow Creek Tribe
Cowlitz Tribe
Grand Ronde Tribe
Hoh Tribe
Jamestown S'Klallam Tribe
Kalispel Tribe
Klamath Tribe
Kootenai Tribe
Lower Elwha Tribe
Lummi Tribe
Makah Tribe
Muckleshoot Tribe
Nez Perce Tribe
Nisqually Tribe
Nooksack Tribe
NW Band of Shoshone Tribe
Port Gamble S'Klallam Tribe
Puyallup Tribe
Quilecute Tribe
Quinault Tribe
Samish Indian Nation
Sauk-Suiattle Tribe
Shoalwater Bay Tribe
Shoshone-Bannock Tribe
Siletz Tribe
Skokomish Tribe
Snoqualmie Tribe
Spokane Tribe
Squaxin Island Tribe
Stillaguamish Tribe
Suquamish Tribe
Swinomish Tribe
Tulalip Tribe
Umatilla Tribe
Upper Skagit Tribe
Warm Springs Tribe
Yakama Nation
  
                                 ______
                                 
              2012 WINTER CONVENTION, SHELTON, WASHINGTON
                           RESOLUTION #12-09

    ``REQUESTING THE INDIAN HEALTH SERVICES (IHS) DIRECTOR TO DIVULGE 
CONTRACT SUPPORT COST (CSC) DATA PURSUANT TO THE IHS CONTRACT SUPPORT 
COST POLICY; AND SUPPORT FOR THE NORTHWEST PORTLAND AREA INDIAN HEALTH 
BOARD (NPAIHB) FREEDOM OF INFORMATION ACT REQUEST FOR CSC DATA''

                                PREAMBLE

    We, the members of the Affiliated Tribes of Northwest Indians of 
the United States, invoking the divine blessing of the Creator upon our 
efforts and purposes, in order to preserve for ourselves and our 
descendants rights secured under Indian Treaties, Executive Orders, and 
benefits to which we are entitled under the laws and constitution of 
the United States and several States, to enlighten the public toward a 
better understanding of the Indian people, to preserve Indian cultural 
values, and otherwise to promote the welfare of the Indian people, do 
hereby establish and submit the following resolution:
    WHEREAS, the Affiliated Tribes of Northwest Indians (ATNI) are 
representatives of and advocates for national, regional, and specific 
tribal concerns; and
    WHEREAS, ATNI is a regional organization comprised of American 
Indians/Alaska Natives and tribes in the States of Washington, Idaho, 
Oregon, Montana, Nevada, Northern California, and Alaska; and
    WHEREAS, the health, safety, welfare, education, economic and 
employment opportunity, and preservation of cultural and natural 
resources are primary goals and objectives of the ATNI; and
    WHEREAS, on October 11, 2011, the Indian Health Service (IHS) 
Director sent a Dear Tribal Leader Letter initiating Tribal 
consultation on the IHS 2007 Contract Support Cost (CSC) Policy, the 
purpose of the consultation is to review and evaluate policy changes 
made in 2007, and to make recommendations on whether to continue or 
change the IHS CSC Policy; and
    WHEREAS, the 2007 CSC Policy revised the methodology associated 
with CSC funding for new or expanded awards under the Indian Self-
Determination and Education Assistance Act (ISDEAA, Public Law 93-638, 
as amended), at section 6-3.3A(3) and Manual Exhibit 6-3-D; this change 
was temporary and implemented only for fiscal years 2007-2010. The CSC 
Policy further states that:

    ``To ensure responsiveness to the needs of Tribes in administering 
their health programs, and continued support of the IHS's commitment to 
the Federal Government's policy of Indian Self-Determination, the 
change will be monitored and fully evaluated during the fiscal year 
2010 funding period to determine if the change should be made 
permanent.''

All other aspects of the CSC Policy were unchanged; and
    WHEREAS, as part of the Tribal consultation process the IHS 
Director appointed a CSC Workgroup comprised of Tribal leaders or 
designees to act on their behalf who convened their first meeting in 
Rockville, Maryland on January 31-February 1, 2012; and
    WHEREAS, in order for the CSC Workgroup to evaluate the impact of 
the 2007 CSC Policy changes the Workgroup must have CSC data in order 
to assess the impact that the CSC Policy changes have had on the CSC 
shortfall, deficiencies, and to evaluate the impact of the policy 
change on new and expanded programs as well as the impact on current 
self-determination contractors and compactors; and
    WHEREAS, during the CSC Workgroup meeting the IHS Director refused 
to divulge CSC data with the Workgroup, which resulted at an impasse 
between the IHS Director and the Workgroup and resulted in the CSC 
Workgroup not being able to complete its charge to evaluate the 2007 
CSC Policy changes; and
    WHEREAS, the CSC Workgroup acknowledges that prior year's CSC data 
has been regularly disclosed by IHS to Tribal leaders, the public and 
to Indian Tribes at meetings attended by the IHS Director and by 
representatives of the Office and Management and Budget; and
    WHEREAS, the CSC Workgroup contends that there is no basis in law 
for withholding disclosure of the requested CSC data and documents; and
    WHEREAS, absent the CSC data the CSC Workgroup cannot and should 
not evaluate the impact of the 2007 CSC Policy changes, and to do so 
would not be fiscally prudent nor in the best interest of Indian 
Tribes; and
    WHEREAS, if IHS does not complete the evaluation of the 2007 policy 
changes, the Agency will be out of compliance with its CSC Policy; now
    THEREFORE BE IT RESOLVED, that ATNI does hereby request that the 
Office of Management and Budget, the Secretary for the Department of 
Health and Human Services and the IHS Director make available and 
disclose CSC data prepared pursuant to the IHS Contract Support Cost 
Policy at Chapter 6-3.5(B)(4) for fiscal year 2009, fiscal year 2010, 
and fiscal year 2011; and
    BE IT FURTHER RESOLVED, that ATNI does hereby acknowledge and 
support the Freedom of Information Act (FOIA) request made by the 
Northwest Portland Area Indian Health Board for Contract Support Cost 
data for fiscal year 2010, fiscal year 2011, and fiscal year 2012; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
ATNI until it is withdrawn or modified by subsequent resolution.

                             CERTIFICATION

    The foregoing resolution was adopted at the 2012 Winter Convention 
of the Affiliated Tribes of Northwest Indians, held at Little Creek 
Casino Resort, Shelton, Washington on February 13-16, 2012, with a 
quorum present.

                                                Fawn Sharp,
                                                         President.
                                          Norma Jean Louie,
                                                         SECRETARY.
                                 ______
                                 
              GREAT PLAINS TRIBAL CHAIRMAN'S HEALTH BOARD
                           RESOLUTION 2012-02

    WHEREAS, the Great Plains Tribal Chairmen's Health Board (GPTCHB) 
is comprised of the Chairmen/Presidents of seventeen (17) Tribes and 
one (1) Health organization in a four State area including North 
Dakota, South Dakota, Nebraska, and Iowa; and
    WHEREAS, federally recognized Indian Tribes have an absolute right 
to healthcare from the United States Federal Government, based on 
treaty rights, on Congressional Acts, on Federal Court decisions, and 
on the Federal Government's trust responsibility to Indian Tribes;
    WHEREAS, the GPTCHB is primarily responsible for addressing the 
health concerns and needs of the American Indian Tribes in the Aberdeen 
Area; and
    WHEREAS, the Great Plains Tribal Chairman's Association recognizes 
that over 20 percent of the Aberdeen Area IHS budget is currently 
operated by Tribes under self-determination contracts; and
    WHEREAS, tribes cannot operate these contracts properly without 
full reimbursement of indirect costs and other contract support costs; 
and
    WHEREAS, despite substantial increases in fiscal year 2010 and 
fiscal year 2012, IHS has historically failed (and continues to fail) 
to request full funding from Congress and failed (and continues to 
fail) to fully reimburse tribal contract support costs; and
    WHEREAS, services to tribal members suffer when Tribes have to use 
program funds to cover the shortfall in IHS contract support cost 
reimbursements; and
    WHEREAS, the law (25 U.S.C. 450j-1(c)) and the IHS Manual (IHS 
Manual Part 6, Chapter 3.5B) requires that IHS annually track and 
publish all indirect, contract support need and contract support 
shortfall data for every Tribe in the country;
    WHEREAS, in violation of the IHS Manual (IHS Manual Part 6, Chapter 
3.5B), HIS has failed and refused to distribute this data to all Tribes 
for fiscal year 2010, fiscal year 2011 and fiscal year 2012, either 
nationally or on an Area basis (showing data for all Tribes within each 
Area); and
    WHEREAS, due to this failure, Tribes cannot tell how IHS is 
handling and managing tribal contract support cost funds, either from 
Tribe to Tribe or from Area to Area, and also cannot tell how IHS is 
allocating its contract support cost appropriation and whether it is 
doing so in conformity with the law and the IHS Manual; and
    WHEREAS, the law mandates the public disclosure of all contract 
support and related data for every tribal contract, and Tribes 
therefore do not object to this disclosure of financial data regarding 
contracted Federal funds; and
    WHEREAS, IHS's failure to share its data on a timely basis, as 
mandated by the IHS Manual, is unprecedented, is particularly 
inappropriate for an Administration committed to transparency, and has 
contributed to a lack of trust in the Indian Health Service;
    NOW THEREFORE BE IT RESOLVED, that the Great Plains Tribal 
Chairman's Health Board calls upon the Director of IHS to immediately 
release all data specified in IHS Manual Part 6, Chapter 3.5B for 
fiscal year 2010, fiscal year 2011 and fiscal year 2012 for every Tribe 
in the United States, including data showing how IRS calculated the 
distribution of contract support cost funds in fiscal year 2010 and 
fiscal year 2011, and data showing how IHS has calculated the 
distribution of contract support cost funds for fiscal year 2012.
                             certification
    This is to certify that the foregoing Resolution was adopted by the 
GPTCHB Board/Executive Committee by Meeting/Conference Call/Special 
session, February 6, 2012 by a vote of _11_ FOR _0_ OPPOSED _7_ NOT 
VOTING.
    MOTION CARRIED/DENIED.
                                            Rodger Trudell,
                    GPTCHB Chairmen, Chairmen, Santee Sioux Nation.
                                            John Blackhawk,
       GPTCHB Vice-Chairmen, Chairmen, Winnebago Tribe of Nebraska.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation

    The request of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2013 Indian Health Service (IHS) budget is $21.6 million 
for the staffing of our new hospital and ambulatory care center which 
will open this fall. This is $10.9 million in addition to the 
administration's request of only $10.6 million.
    The Norton Sound Health Corporation is the only regional health 
system serving Northwestern Alaska, along the Bering Strait Region. The 
system includes a regional hospital, which we own and operate under an 
Indian Self-Determination and Education Assistance Act (ISDEAA) 
agreement, and 15 village-based clinics \1\.
---------------------------------------------------------------------------
    \1\ We serve the communities of:
      -- Brevig Mission;
      -- Council;
      -- Diomede;
      -- Elim;
      -- Gambell;
      -- Golovin;
      -- King Island;
      -- Koyuk;
      -- Mary's Igloo;
      -- Nome;
      -- St. Michael;
      -- Savoonga;
      -- Shaktoolik;
      -- Shishmaref;
      -- Solomon;
      -- Stebbins;
      -- Teller;
      -- Unalakleet;
      -- Wales; and
      -- White Mountain.
---------------------------------------------------------------------------
    NSHC is in the final stages of completing the construction of a 
replacement hospital and ambulatory care center facility in Nome. The 
construction was funded by the Recovery Act. NSHC worked its way over 
many years to the top of the IHS health facility construction priority 
system and when the Recovery Act was enacted we were in a position to 
be awarded $160 million in construction funds. The IHS and Norton Sound 
Health Corporation have been working together as Government-to-
government partners to construct and furnish the new facility, in part 
under a title V Construction Project Agreement under ISDEAA. 
Construction has proceeded on course and NSHC will open its new 
facility early this fall. Now, IHS has only to fund the expanded 
staffing needs for operation of the replacement hospital.
    The replacement facility is almost three times the size of the 
current Norton Sound Regional Hospital and will allow for increased 
patient visits in the primary and acute care areas, including chronic 
disease prevention and management, and allow us to provide enhanced 
trauma and emergency services. And the presence of a significant number 
of new jobs at the replacement hospital will give an economic boost to 
the Nome area.
    The Administration's Staffing Proposal Would Not Allow Optimal Use 
of the Facility.--The administration's request of funding for only 81 
new positions in fiscal year 2013 for the Norton Sound replacement 
hospital would greatly constrain our ability to effectively utilize 
this new facility. We point out to the subcommittee that the IHS Alaska 
Area office recommended to IHS Headquarters that we need 159 new 
positions in fiscal year 2013, based on the IHS Resources Requirements 
Methodology (RRM), and that is what we are requesting. While NSHC will 
still be able to open in the fall if only 81 new positions are funded, 
the result would be that NSHC could not expand healthcare services, 
which is after all the purpose of the new and larger facility. NSHC 
would be limited to funding only the necessary maintenance, facilities, 
technology, and security positions--few if any new needed healthcare 
provider positions could be filled.
    For instance, NSHC currently has two in-house dentists, while our 
new facility has space for a much needed 12-chair dental operation. The 
unmet dental need in our region is staggerinig, but under the 
administration's proposal we perhaps could add only one dentist. 
Failing to provide adequate dental staffing through a new staffing 
package will in essence result in a failure to fully realize the 
Recovery Act funding spent for the new hospital and its intention to be 
used to provide increased and quality healthcare services in Nome.
    Exacerbating the inadequate funding request is that the IHS 
provides funding for only 85 percent of what it identifies as staffing 
need. Further straining the staffing situation is the fact that we 
received no fiscal year 2012 funds for the costly transition to the new 
facility. Transition to a new and much larger facility requires a great 
deal of planning, training, and coordination. Patients must be 
transported, some equipment moved, and staff must master new mechanical 
and electrical systems, medical equipment and work flow systems. Just 
moving into the new facility will require $2-$3 million in operational 
costs that the Norton Sound Health Corporation cannot divert to 
staffing needs.
    Should NSHC receive only enough fiscal year 2013 funding for 81 new 
positions, it will greatly limit our ability to recruit and hire 
medical professionals; much of the hiring in fiscal year 2013 would of 
necessity be core operational staff, as opposed to additional 
healthcare providers. Even if additional funding is provided for 
staffing in fiscal year 2014, it is nearly impossible to successfully 
recruit medical staff--likely some who will need to move to Nome with 
their family--based on an anticipation of the Congress potentially 
making the money available in a future year. Delaying the funding over 
a 2-year fiscal period would thus prevent the Norton Sound Health 
Corporation from recruiting and filling needed healthcare professionals 
until well into 2015--up to 3 years or more after we open the new 
facility.
    Given the realities of the appropriations process, we greatly need 
the full funding in fiscal year 2013 for 159 new positions at a total 
cost of $21.6 million.
    Village Built Clinics Lease Program.--We also remind the 
subcommittee that Norton Sound Health Corporation filed joint testimony 
with Aleutian Pribilof Islands Association, Bristol Bay Area Health 
Corporation and Maniilaq Association--all co-signers to the Alaska 
Tribal Health Compact--regarding the urgent need for additional fiscal 
year 2013 IHS funding for the Village Built Lease Program. As noted 
above, the Norton Sound Health Corporation healthcare system includes 
15 village-built clinics.
    Thank you for your consideration of our request that adequate 
fiscal year 2013 IHS staffing funding be made available for the Norton 
Sound Health Corporation replacement hospital. We are very excited 
about the possibilities this facility brings for improved healthcare 
for the people of northwestern Alaska. We are happy to provide any 
additional information you may request.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute

    The Nuclear Energy Institute \1\ (NEI) appreciates the opportunity 
to express its concern over the revision or enforcement of certain 
regulations promulgated, and actions taken under certain laws, by the 
Department of the Interior, the Bureau of Land Management (BLM), and 
the Environmental Protection Agency (EPA):
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear powerplant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions, and 
law firms.
---------------------------------------------------------------------------
  --EPA's infeasible requirements and prohibitively restrictive 
        definitions in the proposed rule for existing facilities 
        implementing section 316(b) of the Clean Water Act governing 
        cooling water intake structures;
  --The Department of the Interior's withdrawal of land in northern 
        Arizona from uranium mining activity;
  --BLM's proposal to amend land segregation regulations to allow 
        withdrawal of lands from mining activity when they are included 
        in a pending or future wind or solar energy generation right-
        of-way application, or identified by BLM for potential 
        authorization for that purpose;
  --BLM sage grouse habitat management in 10 Western States, which 
        could unduly restrict uranium mining activity; and
  --EPA Region 6's departure from EPA Guidelines for Reviewing Aquifer 
        Exemption Requests for mining projects and unilaterally 
        establishing its own evaluation standards.
316(b) Regulations Will Increase Consumer Electricity Prices With no 
        Environmental Benefit Unless They Are Made More Flexible To 
        Account for Ecological, Geographic and Engineering Diversity of 
        Existing Industrial Facilities
    EPA has issued a proposed regulation to reduce aquatic life 
mortality at cooling system intake structures for existing industrial 
facilities, including powerplants. The final rule is scheduled to be 
promulgated in July. The proposed regulation treats entrainment (fish 
drawn through the cooling system) and impingement (fish trapped on 
intake screens of these systems) separately. The proposed impingement 
requirements will result in the installation of costly, ineffective 
technologies with no assurance of compliance or environmental benefit. 
The EPA cost-benefit calculations indicate that the proposed rule will 
cost citizens 21 times the benefit they will derive if these changes at 
facilities are implemented. In addition, the Nation's electricity 
sector could face grid reliability challenges if the rule is 
promulgated recommending excessive mitigation technologies that could 
reduce plant efficiency and electrical output.
    Studies of aquatic life population conducted periodically at 
America's powerplants indicate that once-through cooling systems do not 
harm aquatic life populations. This is because the very small number of 
fish lost to the cooling system, when compared to the overall 
population, is readily replaced by reproduction. Any nationwide numeric 
performance standard ignores ecosystem diversity at the 1,152 affected 
sites. For instance, there are 3,153 species of fish in U.S. waters. 
Every water body has a different mix and population of fish species and 
each species differs in susceptibility to impingement and impingement 
mortality, and in behavioral responses to various technologies 
developed to prevent these occurrences.
    If EPA continues to insist upon a nationwide impingement 
requirement, it should be a technology-based standard that would 
accommodate rather than violate site diversity. The regulation should 
offer a variety of pre-approved technologies from which to choose for 
compliance. Also, there should be the opportunity to propose an 
alternative technology if it can achieve significant impingement 
mortality reduction at that site.
    The electricity industry, including companies who own and operate 
nuclear energy plants, continues to encourage EPA to develop cooling 
water intake structure regulations that strike a reasonable balance 
between electricity production and environmental protection. A 
technology-based standard for a nationwide impingement requirement 
would accommodate site bio-diversity. The proposed rule, in its current 
form, does not achieve these results. We ask the subcommittee to 
encourage EPA to adopt a technology-based standard for impingement.
The Department of the Interior's Withdrawal of Land From New Uranium 
        Mining in Northern Arizona Is Unnecessary for Environmental 
        Protection and Removes From Production a Domestic Source of 
        High-Grade Uranium for Energy Security
    DOI has withdrawn from new uranium mining activity 1 million acres 
outside the boundaries of the Grand Canyon National Park, which 
encompasses 1.2 million acres and includes a buffer zone to protect the 
Grand Canyon. There is no current or proposed uranium mining inside 
Grand Canyon National Park.
    The proposed land withdrawal is not justified by information 
contained in DOI's Final Environmental Impact Statement. For instance, 
regarding land disturbance, ``impact to overall soil productivity and 
watershed function would be small because the level of disturbance 
represents a very small fraction of the respective parcel areas.'' In 
terms of water resources, ``impacts would be local and temporary.'' 
Modern in situ mining practices and standards, unlike the mining of 50 
to 60 years ago, have minimal environmental impact. Contrary to 
Secretary Salazar's statement in announcing the land withdrawal on 
January 9, today's environmental laws ensure that ore extraction and 
production at uranium mines have negligible impact on surrounding land, 
water and wildlife.
    Uranium resources in the Arizona Strip are among the highest-grade 
ores in the United States. These uranium resources are higher grade 
than 85 percent of the world's uranium resources, according to DOI's 
Final Environmental Impact Statement. The area represents as much as 
375 million pounds of uranium--more than seven times U.S. annual 
demand. NEI supports legislation introduced in the Senate and the House 
to overturn the DOI decision. NEI encourages the subcommittee to hold 
an oversight hearing on this very important issue.
The Bureau of Land Management's Proposal To Amend Land Segregation 
        Regulations To Allow Withdrawal of Lands From Mining Activity 
        for Wind or Solar Energy Generation Violates the Multiple-Use 
        Mandate of Federal Lands, Penalizing Economic Growth and Job 
        Creation
    The Federal Land Policy and Management Act of 1976 requires BLM to 
manage public lands to accommodate multiple uses and to provide for the 
Nation's mineral needs so that the most benefit will accrue to U.S. 
citizens. Conflicts should be resolved in favor of maximum land use and 
benefit. The BLM proposal violates the multiple-use requirement, being 
overly broad in its outright segregation of lands for renewable energy 
use only. Moreover, the amendment is unnecessary, as conflict 
resolution is possible.
    Mining and all renewable energy projects are not mutually 
exclusive. Wind energy projects and mining operations can be co-located 
and developed simultaneously. Solar projects consisting of fields of 
photovoltaic panels, on the other hand, eliminate all other uses of the 
land, including grazing, recreation, and oil and gas exploration and 
production. Photovoltaic fields also eliminate the mining of minerals, 
many of which are required for renewable energy generation and 
transmission.
    Thus, rather than BLM designating lands solely for solar projects, 
NEI urges the subcommittee to direct BLM to evaluate whether other 
potential uses of Federal land are being prevented and if benefits 
would be lost to the American public during the BLM process of 
determining sole use segregation of land for renewable energy 
production.
The Bureau of Land Management's Sage Grouse Habitat Management in 10 
        Western States May Unduly Restrict Uranium Mining Activity
    BLM has issued two instructional memorandums regarding immediate 
and longer-term conservation actions for sage grouse priority habitat 
(breeding, late brood-rearing, winter concentration areas) and general 
habitat (additional occupied seasonal or year-round areas). Both types 
of habitat are being identified in collaboration with state wildlife 
agencies.
    The affected Western States are California, Colorado, Idaho, 
Montana, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, 
and Wyoming. With about 47 million acres of sage grouse habitat 
involved, BLM's conservation efforts could have a substantial impact on 
uranium mining activity on public lands. Wyoming's guidance for sage 
grouse preservation has been approved by the Fish and Wildlife Service 
and adopted by BLM. For the other States, the interim management 
memorandum guidance instructs mining operators ``to avoid effects on 
sage grouse and its habitat.''
    According to the long-term planning directive memorandum, BLM will 
establish consistent protection measures for the sage grouse and its 
habitat. BLM will incorporate the protection measures into one or more 
alternatives for analysis in the environmental impact statements that 
BLM will use to amend its resource management plans. These plans are 
scheduled for release in 2014. NEI believes there is the potential that 
these plans will require wholesale withdrawal of lands from mining 
activities with no validity examination allowed for ongoing or future 
mining claims.
    NEI recommends close congressional oversight of the BLM process for 
releasing the Sage Grouse Habitat Management plan. In addition, NEI 
asks that the subcommittee direct BLM to adopt a balanced approach to 
sage grouse conservation that is consistent with BLM's statutory 
mandate for multiple uses of public lands and avoid or minimize adverse 
social and economic impacts.
EPA Region 6's Departure From EPA Guidelines for Reviewing Aquifer 
        Exemption Requests Will Have a Prohibitive Effect on Expanding 
        the Domestic Uranium Industry
    EPA guidance is clear regarding evaluation of requests to exempt 
aquifers from drinking water protections so that mining projects can 
proceed:
  --the exempted area does not currently serve as a source of drinking 
        water; and
  --it cannot now, and will not in the future, serve as a source of 
        drinking water because of the presence of minerals or 
        hydrocarbons expected to be commercially producible.
    To demonstrate that a particular area meets these requirements, 
applicants must perform, respectively, a water well survey covering the 
exempted area and a buffer of one-quarter mile from the exempted area's 
boundary, and provide a history of mineral production in the area.
    In the case of the Goliad County, Texas, uranium mining project, 
EPA Region 6 is requiring modeling analysis in addition to a well 
survey and history--a unilateral departure from the established EPA 
guidance. Moreover, the requested modeling is not defined, and Region 6 
says that it will review whatever modeling results are submitted to 
determine if more modeling is needed, creating an open-ended regulatory 
process.
    The new standards unilaterally imposed by Region 6 will jeopardize 
future uranium mining in Texas and limit the potential of one of this 
country's most promising domestic supplies of uranium. Moreover, this 
effect will be compounded if one, or more additional EPA regions, 
unilaterally decides to impose its own evaluation criteria counter to 
established EPA guidance.
    The nuclear industry believes that the result will be a serious 
impediment to expanding the domestic uranium industry and ensuring a 
reliable and secure supply of nuclear powerplant fuel. In addition, the 
EPA Region 6 process introduces uncertainty into well-known guidance. 
The overall result will adversely impact U.S. mining operations and 
unnecessarily restrict domestic job creation.
    NEI urges the subcommittee to direct the agency to review the 
guidelines for reviewing aquifer exemption requests to ensure that 
these guidelines are clear and the EPA regions are not unilaterally 
imposing unfunded mandates on mining companies.
                                 ______
                                 
 Prepared Statement of the Office of the State Engineer, State of New 
                                 Mexico

    I am requesting your support for fiscal year 2013 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The Upper Colorado and San Juan recovery 
programs are highly successful collaborative conservation partnerships 
involving the States of Colorado, New Mexico, Utah and Wyoming, Indian 
tribes, Federal agencies and water, power, and environmental interests. 
They are working to recover the four species of endemic Colorado River 
fish such that they can each be removed from the Federal endangered 
species list. Through these efforts, water use and development has 
continued in our growing western communities in full compliance with 
the Endangered Species Act (ESA), State water and wildlife law, and 
interstate compacts. Implementation of the ESA has been greatly 
streamlined for Federal agencies, tribes and water users. Recognizing 
the need for fiscal responsibility, I must also point out the 
participants would all be spending much more in ESA-related costs in 
the absence of these programs.
    The State of New Mexico requests action by the subcommittee to:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the $81,709,000 item entitled ``Recovery'') for fiscal year 
        2013 to allow the U.S. Fish and Wildlife Service (FWS) Region 6 
        to continue its essential participation in the Upper Colorado 
        River Endangered Fish Recovery Program.
  --Appropriate $200,000 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the $81,709,000 item entitled ``Recovery'') to allow FWS Region 
        2 to continue its essential participation in the San Juan River 
        Basin Recovery Implementation Program during fiscal year 2013.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $43,189,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS's Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.
    On behalf of the State of New Mexico, I thank you for your 
consideration of my request and for the past support and assistance of 
your subcommittee; it has greatly facilitated the ongoing and 
continuing success of these multi-state, multi-agency programs that are 
vital to the recovery of the endangered fish and providing necessary 
water supplies for the growing Intermountain West.
                                 ______
                                 
           Prepared Statement of 1,237 Forest Owners, et al.

    Dear Chairman Reed and Ranking Member Murkowski: Representing the 
more than 10 million U.S. family forest owners, the 1,237 undersigned 
forest owners would like to show our support and gratitude to all our 
State service foresters. In order to ensure these trusted men and women 
continue to help forest owners across the country, we urge Congress to 
maintain funding for the Forest Stewardship Program--a program that 
provides boots-on-the-ground assistance to ensure the health and 
vitality of America's forests for generations to come.
    Families and individuals steward more of America's forests than the 
Federal Government or big companies. With the largest area of forest 
ownership, families and individuals own 35 percent--or 251 million 
acres--of our Nation's forests. Our forests provide clean air, clean 
water, recreation, renewable resources that build our homes and 
communities, and good-paying rural jobs. But we cannot do it alone. 
Every state has a network of reliable and trusted service foresters 
that help us make good forest management decisions. Boots-on-the-ground 
make all the difference.
    As private forest owners, we rely on the U.S. Forest Service Forest 
Stewardship Program, which provides our State foresters with the 
resources they need for outreach, education, and technical assistance. 
We are grateful for the reliable assistance our service foresters 
provide every day. Without this boots-on-ground assistance, forests 
will fall victim to an ever-increasing list of challenges, such as 
insects and disease, development pressures, and growing ownership 
costs.
    The planning assistance made possible by the Forest Stewardship 
Program helps us realize the full potential of our land and provides us 
the peace-of-mind that our forests will be around for our kids and 
grandkids to enjoy. We hope that you will maintain current funding for 
this important program in the fiscal year 2013 appropriations process 
so that families (and our forests) continue to reap these important 
benefits. We are happy to answer any questions you may have or provide 
additional input from the perspective of family forest owners.
    Thank you for your time and consideration of this important 
request.
                                ALABAMA

Russell Miller, Cullman, AL
Don Heath, Birmingham, AL
Jon H. Gould, Birmingham, AL
Robert Amason, Tuscaloosa, AL
Frances Lewis, Aliceville, AL
Rusty Lewis, Aliceville, AL
Katherine RouLaine, Coker, AL
Irvin Eatman, Eutaw, AL
James P. Jeter, Gordo, AL
Jimmy Murphree, Spruce Pine, AL
Daniel Hogue, Sr., Russellville, AL
Edward Staley, Muscle Shoals, AL
William Snoddy, Huntsville, AL
John C. Pirtle, Billingsley, AL
Derek Bryan, Brantley, AL
Paul Hudgins, Greenville, AL
Walter E. Cartwright, Greenville, AL
Bob Roberts, Pike Road, AL
Noah Poe, Prattville, AL
Rrice and Johnnie Nichols, Prattville, AL
Bill Tomlin, Prattville, AL
James Hyland, Montgomery, AL
Don C. East, Lineville, AL
Lamar Dewberry, Lineville, AL
Bruce Williams, Piedmont, AL
Eddye Williams, Piedmont, AL
Leslie Williams, Piedmont, AL
Paul Williams, Piedmont, AL
Roy Reeves, Roanoke, AL
Ted Vignola, Elba, AL
Gail Jones, Andalusia, AL
Joe Bush, Andalusia, AL
Salem Saloom, Brewton, AL
Haden Swift Tirey, Monroeville, AL
Sara N. Bradley, Monroeville, AL
Jimmy Hutto, Opp, AL
Neal Dansby, Moundville, AL
John A. Stephens, Coffeeville, AL
Ben Holifield, Camden, AL
Lehman H. Bass, Jr., Opelika, AL
Sidney D. Beckett, Auburn, AL
Carolyn Graves Stubbs, Waverly, AL
Leroy Sellers, Waverly, AL
Billy Hildreth, Enterprise, AL

                                 ALASKA

Mark Stahl, Talkeetna, AK
Carol D'Angelis, Ketchikan, AK
Lawrence R. Gaffaney, Juneau, AK
Jason Borer, Cordova, AK

                                ARKANSAS

John Sutherland, Pine Bluff, AR
John McAlpine, Monticello, AR
Charles Westmoreland, Ivan, AR
Josh Smith, Magnolia, AR
Mike Bentley, Magnolia, AR
John S. Collins, Stephens, AR
Fred Fallis, De Queen, AR
Danny A. Wilcox, Lewisville, AR
Robert Kyle Martin, Texarkana, AR
Charles Purtle, Prescott, AR
Lynda and Luther Strother, Mill Creek Ranch, Benton, AR
Steven Burgess, Perryville, AR
Laura Shirley, Scotland, AR
Henry Wells, Sheridan, AR
Russ Matson, Little Rock, AR
Audrey Beggs, Little Rock, AR
Conrad Beggs, Little Rock, AR
Bobby D. Johnson, Cherry Valley, AR
Carolyn McBay, Compton, AR
Jim Woodruff, Rogers, AR
Tim White, Russellville, AR
Larry P. Aikman, Bluffton, AR

                                ARIZONA

Bruce Bilbrey, Carefree, AZ
  
                               CALIFORNIA

Paul Moore, Los Angeles, CA
Christopher E. Glancy, Los Angeles, CA
Tiffany Michelle Horn, Los Angeles, CA
Mike Bone, Santa Monica, CA
Eric Grimes, Glendale, CA
Veronica Raymond, Temple City, CA
M. Harlan and Regina F. Horner, Del Mar, CA
Daniel Martin, Lakeside, CA
Liz Sandler, Oceanside, CA
Dave Fitz, San Diego, CA
Margaret D. Potvin, Crestline, CA
Dan and Geri Begley, Running Springs, CA
Joan Moseley, Running Springs, CA
Laura Dyberg, Running Springs, CA
Michelle French, Running Springs, CA
Robert P. Moser, Ventura, CA
Wayne Miller, Orinda, CA
Catherine Moore, Felton, CA
Charles A. Oveland, Saratoga, CA
Jill Butler, Sebastopol, CA
Alice Webb, Sonoma, CA
Steve VanderHorst, Ukiah, CA
Mark D. Collins, Eureka, CA
Wayne D. Rice, Eureka, CA
Dawn Pedersen, Fortuna, CA
Barry Dobosh, Korbel, CA
John and Linda Gaffin, Myers Flat, CA
Frances J. Belden, Redding, CA
James Chapin, Redding, CA
Ron Berryman, McCloud, CA
Betsy McNeil, Oak Run, CA
Dave McNamara, Oak Run, CA
Gary Hendrix, Oak Run, CA
Lois Kaufman, Oak Run, CA
Den Corrin, Shasta, CA
Dennis Bebensee, Shingletown, CA
Gene Goodyear, Weaverville, CA

                                COLORADO

Meg Halford, Castle Rock, CO
Howard Smith, Littleton, CO
Deward Walker, Boulder, CO
Robert J. Clemans, Golden, CO
Kathy and Terry Bedbury, Conifer, CO
Paula Petrites, Conifer, CO
Carolyn Fordham, Evergreen, CO
Chris Payne, Evergreen, CO
Jim and Vicki Norton, Evergreen, CO
Tom Nelson, Evergreen, CO
Carolina Manriquez, Steamboat Springs, CO
Christine and Don Allender, Bellvue, CO
Nicki Rutt, Bellvue, CO
Scott B. Hamilton, Bellvue, CO
Scott Golden, Bellvue, CO
James G. Williams and Patti L. Williams, Estes Park, CO
Steve and Katie Soliday, Estes Park, CO
Rich Harvey, Estes Park, CO
Thomas H. Ebert, Fort Collins, CO
J. Rick Scanlan, Fort Collins, CO
Ray Herrmann, Fort Collins, CO
Oliver and Donna Moore, Loveland, CO
Kristie Millsapps, Brighton, CO
Pat Smith, Greeley, CO
Jim and Carol Thalman, Pagosa Springs, CO
John Janowski, Pagosa Springs, CO
Ron Chacey, Pagosa Springs, CO
Judy Bolton, Durango, CO
Illene Pevec, Paonia, CO
Herman Ball, Lafayette, CO

                              CONNECTICUT

John Hoover, Barkhamsted, CT
Greg Clarke, Coventry, CT
Sidney Organ, Ashford, CT
James H. Poole, III, Willington, CT
Cathie Peitzsch-Gibbs, Oakdale, CT
Charles Potter, Guilford, CT
Catherine Worthley, Higganum, CT
Jack Norris, Milford, CT
Kathleen Wagner, Stamford, CT

                          DISTRICT OF COLUMBIA

William H. Phillips, Jr., PD, Washington, DC
  
                                FLORIDA

Karla Gaskins, Fort White, FL
Charles King, Green Cove Springs, FL
Ray Weinaug, Jr., Hilliard, FL
Charles M. Goodowns, Sr., Starke, FL
Timothy W. Williams, Wellborn, FL
Stephen Lloyd, Daytona Beach, FL
Jeff Doran, Tallahassee, FL
John Alter, Malone, FL
Linda Basford, Marianna, FL
Sharon Driscoll, Pensacola, FL
Paul J. Langford, Pensacola, FL
Dwight O'Neal, Cantonment, FL
Jeff Hester, Century, FL
Russ Weber, Gainesville, FL
Mike Lackey, Deltona, FL
Sabato Daniele, Merritt Island, FL
Barbara C. Glancy, Homestead, FL
Terry A. Glancy, Homestead, FL
William J. Richards, Palmetto Bay, FL
Marcia L. Tedesco Sanborn, Bushnell, FL
Ms. Audrey Lauer, Kissimmee, FL
Linda and Alan Weiland, Chipley, FL
Rebecca Stallard, Boca Raton, FL

                                GEORGIA

Alan E. Pigg, Marietta, GA
Joseph Bryan, Fayetteville, GA
Lawrence T. Lipford, Franklin, GA
Frank H. Barron, Newnan, GA
Margaret D. Pierce, Atlanta, GA
Andy McNeely, Jr., Louisville, GA
Bryan Snow, Lyons, GA
Christy Powell, Statesboro, GA
David A. Kidd, Comer, GA
Guy Dabbs, Madison, GA
Tyler Verdery, Washington, GA
Buford Sanders, Watkinsville, GA
Steve L. Welch, Appling, GA
Tom Mims, Hephzibah, GA
Wanda T. Barrs, Cochran, GA
Chuck Leavell, Dry Branch, GA
Carla Rapp, Forsyth, GA
Tommy Joines, Helena, GA
Colin Maldonado, Milledgeville, GA
Ruth Eilers, Milledgeville, GA
Warren Faircloth, Warner Robins, GA
Lynda G. Beam, Savannah, GA
Lawanna King, Waycross, GA
Edward I. Herbert, Waycross, GA
Jorene Turner, Fitzgerald, GA
Joel Robertson, Lumpkin, GA
James Kent, Richland, GA
Allan Tucker, Iron City, GA
Jan Mazzucco, Winterville, GA

                                  IOWA

Jim Sheets, Ames, IA
Paul Tauke, DeSota, IA
Craig Cable, Indianola, IA
Marilyn Dorland, Osceola, IA
Russell Wilkins, Runnells, IA
Charles E. Semler, MD, Story City, IA
Denny Michel, Story City, IA
John Paule, West Des Moines, IA
Jon Grace, Des Moines, IA
Carl Varley, Clive, IA
Rick Adams, Algona, IA
Wayne Fuhlbrugge, Webster City, IA
Jon and Ann Schneckloth, Charles City, IA
Susan West, Fairbank, IA
Bruce Vosseller, Plainfield, IA
Richard Kaufman, Dubuque, IA
Brian Willhite, Colesburg, IA
Jim and Jody Kerns, Dyersville, IA
Agnes Kenney, Elkader, IA
Jerry Muff, Elkader, IA
Richard B. and Mary E. Hyde, Elkader, IA
Tom Kenney, Elkader, IA
Dean Gotto, Farley, IA
Terry J. Weller, Garnavillo, IA
James Gamerdinger, Guttenberg, IA
Harold J. Krambeer, Saint Olaf, IA
Ace and Judy Hendricks, Decorah, IA
Lora Friest, Decorah, IA
Nancy Bolson, Decorah, IA
Richard Kittelson, Clermont, IA
Jim Farnsworth, McGregor, IA
James R. McShane Lcdr (Ret), Waterville, IA
Shannon Ramsay, Anamosa, IA
Kevin Kelly, Clarence, IA
Paul Millice, Iowa City, IA
Dennis Goemaat, Marion, IA
Larry Wiley, Palo, IA
Max D. Grover, Rowley, IA
Allen J. Wagner, Springville, IA
Larry Rummells, West Branch, IA
Tim Dohrmann, Cedar Rapids, IA
George and Janelle McClain, Cedar Rapids, IA
Levi Ward, Moravia, IA
Carl D. Petersen, Mediapolis, IA
Daryl H. Bohlen, West Burlington, IA
Bob Brown, Yarmouth, IA
Robert and Joyce Saacke, Farmersburg, IA

                                 IDAHO

David B. Reay, Horseshoe Bend, ID
John and Darlene Lillehaug, McCall, ID
Frank Fish, Boise, ID
Erik Sjoquist, Bonners Ferry, ID
Gordon Sanders, Cataldo, ID
Paul Buckland, CF 948, Coeur d'Alene, ID
Steve and Janet Funk, Coeur d'Alene, ID
Donald N. Heikkila, Harrison, ID
Thomas Davis, Hayden Lake, ID
Eric Besaw, Saint Maries, ID
Marianne Besaw, Saint Maries, ID
Steve Cuvala, Saint Maries, ID
Donald Collins, Boise, ID

                                ILLINOIS

Marion Mycynek, Des Plaines, IL
Barbara Gosh, Ingleside, IL
J.M. Tabor, Mount Prospect, IL
Brad Koschak, Spring Grove, IL
George Stone, Wilmette, IL
John and Joanne Oliver, Lake in the Hills, IL
Ted Knorring, Wheaton, IL
John W. Sims, Naperville, IL
M.J. Remec, Riverside, IL
Roger Grimes, Chicago, IL
Paul G. Dennis Jr., Roscoe, IL
Barrie McVey, Vermont, IL
David Tebbe, Breese, IL
Eugene Van Dorn, Carlyle, IL
Rebecca Brummel, Collinsville, IL
Michael W. Jobst, Westfield, IL
Jack Wohlstadter, Havana, IL
Greg and Pat Zak, Springfield, IL
Bryan Keller, Anna, IL

                                INDIANA

Bob Burke, Martinsville, IN
David Applegate, Zionsville, IN
Kurt Pedersen, Indianapolis, IN
Rex A. Brock, Bourbon, IN
Garry D. Weybright, Syracuse, IN
Charles Boebel, North Manchester, IN
Don Bonsett, Walton, IN
Ronald Gasaway, Elizabeth, IN
Fran Squires, New Albany, IN
Frank W. Gottbrath, Pekin, IN
John Seifert, North Vernon, IN
Matthew Sherck, Connersville, IN
Kerry Winter Haver, Bloomfield, IN
Phyll Thomas, Nashville, IN
Robert Woodling, Unionville, IN
Eva McCullough, West Baden Springs, IN
Wesley G. Crawford, Lafayette, IN

                                 KANSAS

Rebecca Shaffer, Louisburg, KS
Ryan Neises, Ottawa, KS
Caroline Kern, Denison, KS
Bob Atchison, Manhattan, KS
Larry G. Rutter, Meriden, KS
John Weilert, Fredonia, KS
Scott A. Sjolander, Scandia, KS

                                KENTUCKY

Carolyn M. Puckett, Franklin, KY
Philip Haag, La Grange, KY
Barry Joyce, Milton, KY
Stephen Perry, Pendleton, KY
Heather B. Singer, Louisville, KY
Kevin Woods, Morehead, KY
Jerry L. Adams, Winchester, KY
Mark Kamber, Lexington, KY
Ann Bowe, Lexington, KY
Robert Bauer, Frankfort, KY
Sarah Douglas Gracey, Frankfort, KY
Jared Calvert, Miracle, KY
Kevin Galloway, Maysville, KY
Roy Boggs, Prestonsburg, KY
Rick Harrell, Owensboro, KY
Matthew Adkins, Monticello, KY
Mark Wiedewitsch, Campbellsville, KY
Melven D. Hack, Caneyville, KY
Belinda Wilkins-Smith, Greensburg, KY

                               LOUISIANA

Eric Gee, Covington, LA
Ginny Nipper, Homer, LA
W. Allen Nipper, Homer, LA
Albert Smoak, Shreveport, LA
Edwin Edgerton, West Monroe, LA
C. McDavid Hughes, West Monroe, LA
Debbie Dodd, Alexandria, LA
C.A. ``Buck'' Vandersteen, Alexandria, LA
Vance and Paula Morris, Pineville, LA

                             MASSACHUSETTS

Alden Bacon, Williamsburg, MA
Justamere Tree Farm, Worthington, MA
Amy Burdick, Pittsfield, MA
Wendy Zunitch, Pittsfield, MA
Sean Connors, Becket, MA
Bill and Chris Pike, Peru, MA
Christine Pike, Peru, MA
Gregory Cox, Charlemont, MA
Al Futterman, Ashby, MA
Brian LeBlanc, Lunenburg, MA
John Robbins, Concord, MA
Joan Cudhea, Middleton, MA
Nancy Delano, Duxbury, MA
Robert Delano, Duxbury, MA

                                MARYLAND

Reg. Townsend, Drayden, MD
William Reed, Drayden, MD
Dawn Balinski, Lusby, MD
Bob Weisman, Nanjemoy, MD
Howard Anderson, Chesapeake Beach, MD
H.R. Wainwright, Highland, MD
Henry R. Wainwright, IV, Highland, MD
Robert H. Lindgren, Gaithersburg, MD
Toby M. Turpin, Silver Spring, MD
Bryan Lightner, Bel Air, MD
Julie Bell Wadsworth, Cockeysville, MD
Joseph F. Friend, Columbia, MD
Ronald Hendricksen, Havre de Grace, MD
Donald C. Outen, Timonium, MD
John and Rosemary Beever, Monkton, MD
Jack Walther, Pylesville, MD
Kimberly A. Lewis, Pylesville, MD
Kermit and Cindy Crosby, Severn, MD
Nedda Pray, Sparks, MD
Connie Hoge, Westminster, MD
Leonard Wrabel, Westminster, MD
Andrew A. Holtan, Cardiff, MD
Steve Parker, Towson, MD
Sheryl Heydt, Baltimore, MD
Gary G. Allen, Annapolis, MD
Juls and Barbara Wood, Cumberland, MD
Dottie Turner, Frostburg, MD
Charles N. Hoffeditz, Ph.D., McHenry, MD
Gregan Crawford, Oakland, MD
David K. Sharretts, Chestertown, MD
Nevin Dawson, Chestertown, MD
Charles R. MacFarland, Adamstown, MD
Matthew Carroll, Boonsboro, MD
Don and Linda Grove, Hagerstown, MD
Judith Niedzielski, Hagerstown, MD
Chester and Jane Wagstaff, New Market, MD
Ron Free, Thurmont, MD
Claude Eans, Walkersville, MD
Larry Arthur, Walkersville, MD
Robert Hess, Marion Station, MD
Dori Murphy, North East, MD
Gabrielle D. Oldham, North East, MD
Donald L. Wolle, Elkton, MD
Margaret Dickerson, Chestertown, MD
Teri Dickerson Batchelor, Chestertown, MD

                                 MAINE

Earlene Chadbourne, Cumberland, ME
John Schwanda, Freeport, ME
Calvin Hamblen, Gorham, ME
Fred M. Mitchell, Lovell, ME
Josiah Pierce, West Baldwin, ME
Anton G. Wagner, Cape Elizabeth, ME
Janet E. Stowell, Bethel, ME
Peter A. Jolicoeur, Greene, ME
Harold Burnett, Winthrop, ME
Kevin T. McCarthy, Winthrop, ME
Carl H. Sanborn, Bangor, ME
David Wardrop, Bangor, ME
Andrew Abello, Edgecomb, ME
Edson R. Small, Jr., Waterville, ME
Greta M. Essency, Farmington, ME

                                MICHIGAN

Dean and Susan Reid, Saint Ignace, MI
Elizabeth Stone, Ann Arbor, MI
Jody G. Scott, Ann Arbor, MI
Alfred R. Glancy, Jr., Grosse Pointe, MI
Ruth Glancy, Grosse Pointe, MI
Michael H. Mansour, Lake Orion, MI
Jim Gregart, Harrisville, MI
Shawna Meyer, Grand Ledge, MI
Debra Huff, Laingsburg, MI
Scott Robbins, Lansing, MI
Joyce Hare, Portage, MI
Judith Brook, Three Rivers, MI
Mary Menold, Arcadia, MI
Jessica Turino, Manton, MI
Karen Serfass, Dafter, MI
Matthew R. Brooks, Sault Sainte Marie, MI
John Van Dyke, Trout Lake, MI
Dennis P. Renken, Escanaba, MI
Gerald Grossman, Newberry, MI
Bruce Maki, Atlantic Mine, MI
Byron R. Sailor, Baraga, MI
James M. Schmierer, Houghton, MI

                               MINNESOTA

Jon P. Bergin, Lake City, MN
Neal W. Chapman, Roseville, MN
Joanne Englund, Saint Paul, MN
Robert Helfinstine, Ramsey, MN
Edward and Janet King, Eden Prairie, MN
Richard Naaktgeboren, Maple Lake, MN
Clement Engen, Minneapolis, MN
Charles R. Hughes, Minneapolis, MN
Ron Reich, Bloomington, MN
Paul Omberg, Esko, MN
Richard Chalupsky, Hibbing, MN
Bruce Barker, Duluth, MN
Valiree Green, Brownsville, MN
Timothy M. Gossman, Chatfield, MN
LaVerne Hofschulte, Elgin, MN
Sarah Greenheck, Wabasha, MN
Natalie Hodapp, Mankato, MN
Ernest Schmitt, Brandon, MN
Thomas Kroll, Long Prairie, MN
Robert Perleberg, Pierz, MN
Steve Donnay, Sauk Centre, MN
Tom Witkowski, Brainerd, MN
Gary Woehler, Crosby, MN
David H. Larsen, Nevis, MN
Richard Magaard, Nevis, MN
John Wallin, Pequot Lakes, MN
John F. Walte, Georgetown, MN
Perry Eide, International Falls, MN
Steve Earley, International Falls, MN

                                MISSOURI

David A. Watson, Chesterfield, MO
Nancy J. Brod, DeSoto, MO
John Heckmann, Glencoe, MO
Wonder Koch, Saint Louis, MO
Steve Lovell, Saint Louis, MO
Rick Merritt, Eolia, MO
Daniel L. Moncheski, Saint Peters, MO
Daniel Joseph Cunningham, La Plata, MO
Larry Lackamp, Bates City, MO
Carl Hepting, Kansas City, MO
Kirk Fine, Gladstone, MO
Martha E. Clark, Helena, MO
Nathaniel R. Forbes, Neosho, MO
Barbara J. Ittner, Noel, MO
Dwight Ittner, Noel, MO
Gary Lyndaker, Gravois Mills, MO
Joe Akers, New Bloomfield, MO
Bill McGuire, Jefferson City, MO
John Fleming, Jefferson City, MO
Shelby G. Jones, Jefferson City, MO
Matt Arndt, Columbia, MO
Jerry Van Sambeek, Columbia, MO
Bo Wendleton, Boonville, MO
Daniel Hatch, Licking, MO
Kevin Poe, Roby, MO
David Emerson, Ava, MO
Elizabeth Josephson, Oldfield, MO
Richard F. and Esther L. Myers, Protem, MO
Jay King, Willard, MO
R. Scott Brundage, Columbia, MO

                              MISSISSIPPI

Justin Dewberry, New Albany, MS
Mark Smith, Oxford, MS
Dennis I. Wright, MD, Tupelo, MS
Chad Robertson, Amory, MS
Margaret Marlin, Fulton, MS
Brendix Glasgow, Tishomingo, MS
Brant Godbold, Grenada, MS
Bryan McCartney, Grenada, MS
E.L. Dabbs, Brandon, MS
Betsy K. Padgett, Lexington, MS
Freddy Upton, Madison, MS
Tate Ervin, Madison, MS
C. Barlow, Raymond, MS
Margaret Munford, Jackson, MS
Tony K. Morgan, Meridian, MS
Harold Anderson, Philadelphia, MS
John E. Green, Hattiesburg, MS
John Meador, Hattiesburg, MS
Daphna Hummer, Columbia, MS
Carl Blackledge, Jr., Laurel, MS
Tommy Cotten, Laurel, MS
Bob Hynson, Laurel, MS
Ruth Cook, Seminary, MS
Henry A. Hudson, Jr., Sumrall, MS
William W. Powell, Gulfport, MS
Kelly Raulerson, Perkinston, MS
Mark Bullock, Bogue Chitto, MS
Travis Stewart, Liberty, MS
Mary Emma Lansing, Magnolia, MS
James D. (David) Hancock, Summit, MS
Patrick Brown, Caledonia, MS
Charles W. Dismukes, Kilmichael, MS
Andrew Self, Starkville, MS
Sarah Self, Starkville, MS
James Henderson, Mississippi State, MS

                                MONTANA

Marion Wambach, Denton, MT
Gary E. Johnson, Missoula, MT
Joe Moran, Drummond, MT
Charles Crouter, Florence, MT
Jim Christensen, Philipsburg, MT
Patricia Young, Philipsburg, MT
Everett J. Young, Plains, MT
Jim Watson, Kalispell, MT
Laurence Schroeder, Bigfork, MT
Paul R. McKenzie, Columbia Falls, MT
Valerie A. Beebe, Kila, MT
Jim Kibler, Troy, MT

                             NORTH CAROLINA

Patrick Callaghan, Lewisville, NC
James M. (Jim) Long, Blanch, NC
Libby Jordan, Candor, NC
G. Boon Chesson, Troy, NC
Paul Dean, Cary, NC
Colby Lambert, Fuquay Varina, NC
David Halley, Holly Springs, NC
Ann M. Daniel, Raleigh, NC
Thomas Keller, Durham, NC
Laurell Malone, Durham, NC
Daniel Reynolds, Farmville, NC
Danny R. Maness, Halifax, NC
Cyndi Williams, Nashville, NC
Alice Ricks, Roanoke Rapids, NC
Benjamin Riddick Ricks, Roanoke Rapids, NC
Allan L. Weller, Washington, NC
Meissa Patrick, Washington, NC
Melissa Berrier, Cherryville, NC
John C. Miller, Charlotte, NC
Dwight Andrews, Charlotte, NC
Tim Jackson, Dunn, NC
Thaddeus N. Banks, Roseboro, NC
Scott Smearman, Wagram, NC
D. Thompson Tew, Wilmington, NC
Jim Durham, Wilmington, NC
Phillip Brock, Holden Beach, NC
Dwight H. Gerding, Hookerton, NC
Vernon J. Daniels, Jr., Merritt, NC
Bryan Hulka, New Bern, NC
Charles and Carole Torpy, Canton, NC
Katrine Frye, Old Fort, NC
Albert Shaw, Clarkton, NC
Albert Coffey, Wake Forest, NC

                              NORTH DAKOTA

Pamela Meier, Mott, ND
Tim Hanson, Fort Ransom, ND
Anne Hill, Amenia, ND
Kevin R. Hartl, Enderlin, ND

                                NEBRASKA

Steve Karloff, Omaha, NE
  
                             NEW HAMPSHIRE

Mark Pitman, Francestown, NH
Jean Ragonese, Fremont, NH
William Downs, Mason, NH
Douglas Foprd, New Ipswich, NH
Donald Jackson, Bradford, NH
John M. Hodsdon, Meredith, NH
Robert E. Hardy, Tilton, NH
Paul and Deb Doscher, Weare, NH
Rita Carroll, Concord, NH
Robert Bradbury, Concord, NH
Tom Natale, Penacook, NH
John Satas, Troy, NH
Todd Carter, Troy, NH
Haven Neal, Berlin, NH
Putnam W. Blodgett, Lyme, NH
Marilyn Bott, East Kingston, NH
Steve and Elaine Pike, Strafford, NH

                               NEW JERSEY

J. Anderson, Maplewood, NJ
Tracy R. Cate, Maplewood, NJ
Joseph M. Lashendock, III, East Rutherford, NJ
Ron Farr, Newfoundland, NJ
Greg Daly, Oak Ridge, NJ
Timothy Slavin, Stockholm, NJ
Elmer Platz, Vernon, NJ
Clifford G. Raisch, Red Bank, NJ
Ken Schrankel, Holmdel, NJ
Theresa Seibert, Branchville, NJ
Julia Hartenfels, Montague, NJ
Phil Taylor, Columbia, NJ
Brian Cowden, Flanders, NJ
Daniel E. and J. Carolyn Kent, III, Newton, NJ
Doug Tavella, Newton, NJ
Cecelia Illing, Port Murray, NJ
Fred Haffner, Port Murray, NJ
Keith Begraft, Sparta, NJ
Ken Taaffe, Lumberton, NJ
Sam and Susan Marquez, Williamstown, NJ
Frank A. Burns, Leeds Point, NJ
John Benton, Chesterfield, NJ
Les Alpaugh, Stockton, NJ
Ronald J. Sheay, Stockton, NJ
Conrad J. Franz, Trenton, NJ
Charles J. Newlon, Trenton, NJ
Scott Hale, Annandale, NJ
The Powers Family, Asbury, NJ
Dennis Galway, Bernardsville, NJ
Jean Blancato, West Milford, NJ
Maria Gsell, Far Hills, NJ
Leah Glucroft, Boonton, NJ
Eric Dornfeld, Long Valley, NJ
Thomas Walsh, Asbury, NJ
Marie L. Cirelli, Lafayette, NJ
Matthew Kathenes, Great Meadows, NJ
Cheri Kathenes, Great Meadows, NJ
Kyle Kathenes, Great Meadows, NJ
Tori Kathenes, Great Meadows, NJ
Michael Quirk, Rockaway, NJ

                               NEW MEXICO

Nina Helms, Cuba, NM
Robert B. Foster, Tijeras, NM
Don Berryman, Cebolla, NM
Joseph Stehling, Ocate, NM

                                 NEVADA

May M. McInnis, Caliente, NV
James Lundy, Glenbrook, NV
Terry Aulston, Sparks, NV
Maxine Weiss, Washoe Valley, NV

                                NEW YORK

Arthur Wagner, Bronx, NY
Michael Patrick Roach, Cortlandt Manor, NY
Steven A. Knapp, Putnam Valley, NY
John Zylstra, Johnson, NY
Jeanette Vuocolo, Brooklyn, NY
Matthew Gross, Howard Beach, NY
Maureen H. Ariola, Holbrook, NY
Jonathan Sferazo, Huntington Station, NY
Gary Kalinkewicz, Galway, NY
Douglas W. Murphy, Stamford, NY
Kathleen Riehl, Schenectady, NY
Elizabeth R. Apgar Triano, Patterson, NY
Barbara Lucas-Wilson, Rhinebeck, NY
Kathrine Rodriguez, Wappingers Falls, NY
Richard J. Cipperly, Queensbury, NY
Russell Lacroix, Greenwich, NY
Kenneth T. Walder, Hadley, NY
Robert Manning, Johnsburg, NY
Raymond M. Scollin, Saranac Lake, NY
Michael Endress, Cortland, NY
Richard Pancoe, Earlville, NY
Don Carbone, Utica, NY
Andrew Willard, Hermon, NY
Sally and Don Chirlin, Norwich, NY
Paul Nowak, Akron, NY
Robert Gorecki, Hamburg, NY
Patrick Marren, Buffalo, NY
Russell L. Gardner, Naples, NY
Stanley Olshefski, Rochester, NY
William Hughey, Hinsdale, NY
Tim Levatich, Brooktondale, NY
Daniel J. Cleveland, Erin, NY

                                  OHIO

Danuta Lange, Swanton, OH
Denise A. Heban, Swanton, OH
Walt Lange, Swanton, OH
Clayton Rico, Zanesville, OH
Ken Scherf, Byesville, OH
Bob Ball, Caldwell, OH
Cassandra Ridenour, Gratiot, OH
Jeff Wilson, McConnelsville, OH
Jeremy Scherf, New Concord, OH
Matthew Micozzi, Port Washington, OH
Tom Cushing, Ohio Tree Farmer, Scio, OH
Leo Deininger, Cleveland, OH
Ruth Skuly, Cleveland, OH
Barry L. Ulrich, Wadsworth, OH
James T. Elze, Salem, OH
Rick Miller, Dover, OH
Robert Hunter, Glenmont, OH
Gordon W. Zemrock, Shreve, OH
Kathleen Myers, North Canton, OH
Don Ruffing, Bellevue, OH
Clarence Roller, Amelia, OH
Roger and Diana Benter, Batavia, OH
Walt Saranen, Hillsboro, OH
Vincent Urbanek, Cincinnati, OH
Michael J. Besonen, Chillicothe, OH
Jerry Grezlik, Beaver, OH
Ann Hamilton, Athens, OH
Janet Sweigart, Ada, OH
Thomas R. Mills, Findlay, OH

                                OKLAHOMA

George Geissler, Norman, OK
Erin Johnson, Oklahoma City, OK
Kurtis Koll, Lawton, OK
Patt Nelson, Tulsa, OK
Page Belcher, Jay, OK
Christina Stallings Roberson, Pryor, OK
Steve Couch, Tahlequah, OK
Jason Whaley, McAlester, OK
Chris Joslin, Antlers, OK
Chris Parrington, Wilburton, OK
Andy James, Broken Bow, OK
Caleb Fields, Broken Bow, OK

                                 OREGON

Ingrid Harper, Beaverton, OR
Margaret Mills, Molalla, OR
Ivan Allen, Saint Helens, OR
Ron Preston, Sandy, OR
Tom Keys, Gresham, OR
Thomas Scoggins, Astoria, OR
Bob and Bonnie Shumaker, Banks, OR
Barbara Brunson, Hillsboro, OR
Craig Alness, Portland, OR
Donald Beaman, Portland, OR
Rainer Hummel, Portland, OR
Rick Zenn, Portland, OR
David Ford, Tigard, OR
Richard W. Courter, ACF, CF, Portland, OR
Jim James, Salem, OR
Mickey Bellman, MSB Consulting Inc., Salem, OR
Dave Schmidt, Albany, OR
Larry Blair, Dallas, OR
Joe Holmberg, Lebanon, OR
Chris Woodward, Lyons, OR
Julie Woodward, Lyons, OR
Clint Bentz, Scio, OR
R. Beers, Eugene, OR
Michael R. Atkinson, Eugene, OR
Larry Strickland, Cottage Grove, OR
Warren and Maureen Weathers, Lowell, OR
Bruno C. Meyer, Medford, OR
Michael S. Meredith, Medford, OR
Donn Comte, Ashland, OR
John Wilda, Klamath Falls, OR
James Edwards, The Dalles, OR

                              PENNSYLVANIA

Fred and Debbie Kovalchuk, Donora, PA
David Schreffler, Everett, PA
John Akers, Everett, PA
Tresa L. McVicker, Davidsville, PA
Mark Patterson, Jackson Center, PA
Georgann Kovacovsky, New Bethlehem, PA
Liz Krug, Erie, PA
Harry Pionke, State College, PA
Susan S. Benedict, State College, PA
Dave Jackson, Pleasant Gap, PA
Mike Whitehill, Howard, PA
Allyson Muth, Pine Grove Mills, PA
Linda L. Finley, Port Matilda, PA
David T. Twining, Carlisle, PA
Bruce W. Kile, Biglerville, PA
John Van Ness, Brogue, PA
Gail Landers, Williamsport, PA
John Kuryloski, Millville, PA
Bobbie J. Knudson, Allentown, PA
Nancy G.W. Baker, Sugar Run, PA
Sean T. Carroll, Bryn Mawr, PA
Barry Berkowitz, Fort Washington, PA
Stewart Keener, Philadelphia, PA
Lloyd R. Casey, West Chester, PA
Bonnie Seitzinger, Shartlesville, PA

                              RHODE ISLAND

Tom Dupree, West Greenwich, RI
Richard K. St. Aubin, Little Compton, RI
Milton Schumacher, North Scituate, RI

                             SOUTH CAROLINA

Dave Hegler, Kershaw, SC
Charles M. Hemingway, Jr., Manning, SC
Thomas W. Sawyer, Monetta, SC
Harry L. Norton, Summerton, SC
Maxine LeRoy, Charleston, SC
Jay Jackson, Moncks Corner, SC
William Howard, Summerville, SC
Ken Stuart, Bennettsville, SC
Leon Grayson, Kingstree, SC
Jim Bland, Pawleys Island, SC
Carolyn Grayson, Andrews, SC
George Kessler, Central, SC
Eric W. Smith, Greenwood, SC
Walt McPhail, Mauldin, SC
Brent Reed, Chester, SC
Russ Carter, Chesterfield, SC

                              SOUTH DAKOTA

Peter Schaefer, Brookings, SD
David and Karen Papcke, Hot Springs, SD
Dianne Miller, Spearfish, SD

                               TENNESSEE

Robert and Laura Qualmaln, Brentwood, TN
Kerry Livengood, Chapel Hill, TN
Linda Hamm, Cunningham, TN
Herb Paugh, Pleasant View, TN
Stephen B. Owen, Benton, TN
Dan Wernick, Kingsport, TN
Russell J. Scott, Harriman, TN
Mark Horne, Huntsville, TN
Steve Roark, Tazewell, TN
Brenda Heindl, Collierville, TN
Cyrus Johnson, Memphis, TN
David Mercker, Jackson, TN
Jeffrey L. Mace, Michie, TN
Sharon Keen, Ramer, TN
John Ross, Savannah, TN
Jeff Thompson, Hilham, TN
Charles Daugherty, Crossville, TN
Stanley B. Leach, Sr., Walling, TN

                                 TEXAS

Hance Burrow, Dallas, TX
Howard Moore, Dallas, TX
James Hugh Jones, Paris, TX
Bill Russell, Carthage, TX
Bob Herrin, Marshall, TX
Jim Thompson, Larue, TX
Ronald C. Holcomb, Larue, TX
Donna Freeman, Palestine, TX
Randolph S. Robinson, Palestine, TX
Rick Kaminski, Trinity, TX
Frank B. Shockley, Lufkin, TX
Dan Spivey, Lufkin, TX
Dr. Donald M. Grosman, Lufkin, TX
Carl Taylor, Alto, TX
Ralph W. Schwausch, Garrison, TX
Richard Dottellis, Jasper, TX
Michael M. Pickard, Nacogdoches, TX
Daisy and Dan Braswell, Colleyville, TX
Pamela T. De La Cruz, Grapevine, TX
Judith Franklin, Waco, TX
Ron Mitchell, Houston, TX
Robert Hinton, Houston, TX
Robert E. and Glenda Myers, Houston, TX
Christine Russler, Houston, TX
Earl and Meredith Touchstone, Houston, TX
Jordan Herrin, Huntsville, TX
Roy L. Brunson, Spring, TX
Walter Harbuck, Pasadena, TX
Michael Stryker, San Antonio, TX
Carl Schattenberg, Austin, TX
Jane Baxter, Trinity, TX

                                VIRGINIA

William Ameen, Manassas, VA
Natalie Pien, Leesburg, VA
Tom Martin, Falls Church, VA
Jennifer Zimmerman, Falls Church, VA
R. Neil Sampson, Alexandria, VA
Mary Alexander, Alexandria, VA
James B. Kuykendall, Spotsylvania, VA
Ann Herren, Winchester, VA
George J. and Rhoda W. Kriz, Winchester, VA
Joseph R. Zimmerman, Winchester, VA
Greg Richard, Star Tannery, VA
David Powell, Charlottesville, VA
John Kauffman, Charlottesville, VA
Anne and Ted Stelter, Orange, VA
Robert S. Wait, Ashland, VA
Paul Howe, Glen Allen, VA
Norwood and Emily Nuckols, Glen Allen, VA
Ann Haley Long, Hanover, VA
Norman L. Long, Hanover, VA
Jesse T. Crawford, III, ACF, RF, King William, VA
Tom Harlan, Midlothian, VA
Edward Sontag, Richmond, VA
Leslie Magalis, Henrico, VA
Bruce Powell, Smithfield, VA
Neil Clark, Suffolk, VA
Keith Alston, Windsor, VA
Michelle Alston, Windsor, VA
Malcolm Convington, Petersburg, VA
Mike T. Jones, Jarratt, VA
Denise Wlodyka, Sedley, VA
Kirby Woolfolk, Crewe, VA
Tom Newbill, Hardy, VA
Donald G. Drake, Buena Vista, VA
Shelby L. Spradlin, Jr., Lynchburg, VA
Jay Phaup, Amherst, VA
Ricky Butler, Appomattox, VA

                                VERMONT

Peter Silberfarb, Norwich, VT
Robert J. Pulaski, Post Mills, VT
Jessica Eaton, Thetford, VT
Margaret Sherlock, Tunbridge, VT
Jen Loyd-Pain, Bennington, VT
John McNerney, New Haven, VT
David Paganelli, Barre, VT
Sam Miller, Waterbury Center, VT
Kathleen Wanner, Chittenden, VT
Trevor Evans, Newport, VT
Alan M. Robertson, Sheffield, VT

                               WASHINGTON

Michael and Tammie Perreault, Olympia, WA
David Townsend, Bellevue, WA
Angela and Jacob Kirkman, Bellevue, WA
Kimbel Gauthier, Fall City, WA
David Keller, Issaquah, WA
Mary Jaeger, Kent, WA
Donald Hanley, Kirkland, WA
Kristiann Schoening, Mercer Island, WA
Jeanne Koruga, Woodinville, WA
Frederick W. Hayes, Seattle, WA
Alex and Harvey Greenberg, Seattle, WA
William Scott, Seattle, WA
Charles Adams, Seattle, WA
Bob Viggers, Seattle, WA
Roger P. Foucher, Seattle, WA
Nancy Storey, Seattle, WA
Julie Nyborg, Des Moines, WA
Ron Nyborg, Des Moines, WA
Jo Ellen Gillmore, Seattle, WA
Karl G. Stout, Anacortes, WA
Shaunna Harris, Arlington, WA
Diane Garmo, Bellingham, WA
William Franklin, Bellingham, WA
Aubrey Stargell, Bellingham, WA
David Hess, Bow, WA
Loren Schmidt, Concrete, WA
Doug McKee, Coupeville, WA
Katie Collins, Freeland, WA
Kenneth Cohen, Langley, WA
Susan Lindsey Cohen, Langley, WA
Merlene Buller, Marblemount, WA
Saxton's Timber Farm & Sanctuary, LLC, Monroe, WA
AL Craney, CF, Mount Vernon, WA
James V. Owens, Mount Vernon, WA
Kathryn Kerby, Snohomish, WA
April Reid, Bremerton, WA
Ryan Sandstrom, Bremerton, WA
Eric and Joan Hendricks, Brinnon, WA
Charles K. McTee, Eatonville, WA
Paul Alvestad, Gig Harbor, WA
Chris and Linda Goodman (Back40 Forest), Gig Harbor, WA
Catherine Wright, Port Angeles, WA
Robert Kavanaugh, Port Angeles, WA
Coy Eshom, Port Orchard, WA
William Wheeler, Quilcene, WA
Patty Vance, Randle, WA
Kenneth Lundemo, Seabeck, WA
Philip and Teri Martin, Sequim, WA
Helen and Drew Daly, Silverdale, WA
Deborah A. Sage, South Prairie, WA
Stephen Ackley, South Prairie, WA
Matthew Miller, Tacoma, WA
Fred L. Wagner, University Place, WA
Scott E. Swanson, Tacoma, WA
Galen M. Wright, Tumwater, WA
Kirk Hanson, Tumwater, WA
Lynette Falkner, Tumwater, WA
Ron Nelson, Tumwater, WA
Jeanette L. Friis, Olympia, WA
John and Sue Yoachim, Olympia, WA
Roy E. Friis, Olympia, WA
Denny Adkisson, Lacey, WA
John B. Sutherland, Lacey, WA
Nels Hanson, Lacey, WA
Brian Thompson, Tumwater, WA
Dan L. and Joanne M. Campbell, Tumwater, WA
Ken and Bonnie Miller, Tumwater, WA
Norma Green, Tumwater, WA
Alab B. Cain, Olympia, WA
Thomas A. Terry, Olympia, WA
Scott Berken, Aberdeen, WA
Bryon Loucks, Centralia, WA
Charles Codddington, Chehalis, WA
Jim and Trish Murphy, Chehalis, WA
Laura Moerke Jones, Chehalis, WA
Steve Webster, Chehalis, WA
Tom and Sherry Fox, Ethel, WA
Sam and Joy Comstock, Grapeview, WA
Elizabeth Perry, Montesano, WA
Howard Wilson, Montesano, WA
John Henrikson, Oakville, WA
Richard Decker, Onalaska, WA
Russell Armitage, Onalaska, WA
Kamiele Anderson, Rochester, WA
Sylvia Russell and Brian Wester, Roy, WA
John F. Gorman, Shelton, WA
Norris A. Petit, South Bend, WA
Steve Stinson, Toledo, WA
Lou Jean Clark, Winlock, WA
Mike Rotschy, Amboy, WA
Anita Gahimer Crow and Dennis Crow, Bingen, WA
Brian Beeson, Camas, WA
John and Judy Straub, Camas, WA
Kevin Howard, Glenwood, WA
B.J. Jones, Goldendale, WA
Dwayne A. Hansen, Goldendale, WA
Judy and Don Thomas, Goldendale, WA
Vic Blandine, Goldendale, WA
Andrew M. Schreiber, Klickitat, WA
Mary Ann Cincotta, La Center, WA
Julie Ikenberry, Lyle, WA
Ted Stubblefield, Ridgefield, WA
Andrew Jacobson, Trout Lake, WA
Deo and Karen Fisher, Trout Lake, WA
Donald Cox, Trout Lake, WA
Mike Daly, Trout Lake, WA
Patricia L. Arnold, Trout Lake, WA
Hank Patton, Underwood, WA
Irene Jonas, Vancouver, WA
Milan Kokta, Washougal, WA
Alec and Judith Maule, White Salmon, WA
Charles R. Gadway, White Salmon, WA
Jesse Calkins, White Salmon, WA
Michael C. Glover, White Salmon, WA
Whitney Miller, White Salmon, WA
Annette Cowan, Yacolt, WA
Douglas P. Bailes, Yacolt, WA
Gary W Brown, Vancouver, WA
Cliff Aaby, Vancouver, WA
Erik Folke, East Wenatchee, WA
Ross and Marianne Frank, Leavenworth, WA
Suzanne Saunders, Leavenworth, WA
Phil and Kris Baker, Tonasket, WA
John and Yolanda Randlett, Cle Elum, WA
John P. (Phil) Hess, Cle Elum, WA
Karen Bailey, Cle Elum, WA
Ronald Miller, Cle Elum, WA
Erin Kreutz, Ellensburg, WA
W.R. ``Bill'' and Marge Fautch, Newman Lake, WA
Steve Zender, Chewelah, WA
Alan and Ruby Walker, Lost Creek Tree Farm, Curlew, WA
Ray and Jo Bunney, Cusick, WA
Vern Guenther, Hunters, WA
Susan Dechant, Kettle Falls, WA
Ed Styskel, Newport, WA
Mark Simpson, Newport, WA
Robert Thornton, Springdale, WA
Neil Felgenhauer, Spokane, WA
Mike Brewer, Spokane, WA
Shirley Hesseltine, Spokane, WA
Guy Gifford, Spokane, WA
Judy Turner, Dayton, WA
Sandra Colleen Duncan, Lyle, WA
Patti Playfair, Chewelah, WA
Nicole Campbell, Goldendale, WA
Roberta M. Easter, Amboy, WA

                               WISCONSIN

Steven Beck, Eden, WI
John and Martha Stoltenberg, Elkhart Lake, WI
John D. Kucksdorf, Random Lake, WI
Ronald R. Ziegler, Burlington, WI
Ronald Rohrmayer, Dousman, WI
Kendra Johncock, Elkhorn, WI
Art Reimer, New Berlin, WI
Randy and Karen Cooper, New Berlin, WI
Richard Thompson, Lake Geneva, WI
Wil LaJoie Family, Waukesha, WI
John Ballogh, Wauwatosa, WI
Timothy Steffen, Wauwatosa, WI
David DeBarge, Milwaukee, WI
Greg Jervis, West Allis, WI
Connie Champnoise, Blue River, WI
Holly Schnitzler, Cambridge, WI
Joe Arington, Cambridge, WI
James Widder, Dodgeville, WI
Ronald Reynolds, Fort Atkinson, WI
Lee Fahrney, Hollandale, WI
Don Gabower, Janesville, WI
Loren Hanson, Janesville, WI
Stanley Nichols, McFarland, WI
Richard Wells, Mazomanie, WI
David Hatz, Merrimac, WI
Steve Parks, Middleton, WI
Penelope Shackelford, Milton, WI
Ron Martin, Milton, WI
Bill Cary, Richland Center, WI
L.E. Stevenson, Richland Center, WI
Russ Reddemann, Spring Green, WI
Craig L. Johanesen, Stoughton, WI
Carol Pollock, Waunakee, WI
Jeffrey Pollock, Waunakee, WI
Amy Wencel, Madison, WI
Tom Donahue, Madison, WI
Brent McCown, Madison, WI
Douglas Duren, Madison, WI
Thomas E. Hamilton, Madison, WI
Dan Amend, Madison, WI
Lucy Gibson, Madison, WI
Michael J. Roy, Madison, WI
David Niehoff, Madison, WI
Jerome Harms, Madison, WI
Craig Hollingsworth, Lancaster, WI
Marvin Pinkowski, Friendship, WI
Jean Winther, Marquette, WI
Gregory Knuteson, Poynette, WI
James P. Morgan, Reedsburg, WI
Jack Rasmussen, Baldwin, WI
Judy Padour, Crivitz, WI
Thomas A. Jacobs, Crivitz, WI
Craig Butler, Fence, WI
Robert Nett, Pulaski, WI
Debbie Boettcher, Seymour, WI
Perry D. Pierre, Seymour, WI
Pam Firgens, Suring, WI
Kathleen and Jon Marsh, Townsend, WI
Mike Bohman, Algoma, WI
Randy Cunningham, Green Bay, WI
Ron Bahr, Wausau, WI
Kelly Meronk, Amherst, WI
Randy Williams, Antigo, WI
Ron Resch, Birnamwood, WI
Larry Eggman, Loyal, WI
Daniel A. Flees, Marshfield, WI
George Sparks, Marshfield, WI
Scott G. Tranbarger, Nekoosa, WI
Charles Pogorelcnik, Ogema, WI
Joseph B. Holman, Plover, WI
James H. Jackson, Stevens Point, WI
Dale Zaug, Tigerton, WI
Dave Jones, Willard, WI
Richard P. Teske, Boulder Junction, WI
Carl Garske, Harshaw, WI
Gary B. Schlosstein, Alma, WI
Tom W. Ebert, Black River Falls, WI
John and Karen Jaeger, Coon Valley, WI
Paul Richardson, Hillsboro, WI
Rich Joiner, Hixton, WI
James Fischer, Taylor, WI
Lester Hoag, Tomah, WI
J. Kevin and Janet Johnson, Eau Claire, WI
Dennis Ferstenou, Chippewa Falls, WI
Steven and Lois Raether, Chippewa Falls, WI
Otto Waldbuesser, Menomonie, WI
Glenn Anderson, New Auburn, WI
Dennis L. Waterman, Cameron, WI
Kim and Neal W Chapman, Frederic, WI
Willard D. Kiefer, Lake Nebagamon, WI
Kent Makela, Maple, WI
Cal Boren, Oshkosh, WI
James Zdanovec, Oshkosh, WI
Steven Foust, Oshkosh, WI
Fred Corsmeier, Appleton, WI
Eugene Berlowski, Berlin, WI
Steven Edwards, Fremont, WI
Nancy M. Livingston, Hancock, WI
Chris Splichal, Hortonville, WI
Merlin C. Becker, Manawa, WI
Gary Schneider, New London, WI
Richard Wickham, Omro, WI
Cherie Hennes, Plainfield, WI
David R. Stoiber, Scandinavia, WI
Donald Mark Lochner, Waupaca, WI
Wayne L. Ziebell, Waupaca, WI
Buzz Vahradian, Wautoma, WI
FieldStone Farms, Ltd., Wautoma, WI
James A. Rivers, Wild Rose, WI
Tina Wickham, Omro, WI
David R. Wilson, Frederic, WI
Don Grassl, Wausau, WI

                             WEST VIRGINIA

Lewis Foe, Arbovale, WV
J.W. Larew, Greenville, WV
Chad Moles, Elkview, WV
Timothy Fink, Tornado, WV
Russ Richardson, Arnoldsburg, WV
Robert Marshall, Kenna, WV
Cinda Francis, Sandyville, WV
Bill Pepper, Charleston, WV
Denis Foley, Hedgesville, WV
Ron Gibson, Ona, WV
David J. Bennett, Parkersburg, WV
Gerald William ``Jerry'' Waybright, Washington, WV
Jim Mitchell, Buckhannon, WV
Simeon Duke Layfield, Buckhannon, WV
Barbara Craft Myers, Valley Head, WV
                                wyoming
John C. Varner, Encampment, WY
Lucy Diggins-Wold, Green River, WY
      
                                 ______
                                 
                  Prepared Statement of OPERA America

    Mr. Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors and its 2,000 organizational and 
individual members. We strongly urge you to support increased 
appropriations of $155 million for the National Endowment for the Arts 
for fiscal year 2013. This testimony and the funding examples described 
below are intended to highlight the importance of Federal investment in 
the arts, so critical to sustaining a vibrant cultural community 
throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. Seventy percent of the opera companies in 
existence today have been established since 1960. The growth of the 
field corresponds to the establishment and growth of the NEA. Over the 
last 20 years, a rich repertoire of American operas has been created by 
composers who communicate the American experience in contemporary 
musical and dramatic terms. The growth in number and quality of 
American operas corresponds directly to the investment of the NEA in 
the New American Works program of the former Opera-Music Theater 
Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools, too, extend the civic reach of opera 
companies as they introduce children to another multi-media art form 
and discover promising young talent.
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2012 Art Works Program:

American OPERA Projects, Inc.
Brooklyn, New York
$10,000
    To support the development and workshop production of Paul's Case 
by composer Gregory Spears and librettist Kathryn Walat. Based on the 
short story by Willa Cather, the 85 minute score featuring seven 
singers and a six-piece chamber orchestration will see two semi-staged 
workshops in Brooklyn and two in Princeton.

Anchorage Opera Company
Anchorage, Alaska
$11,500
    To support Verdi's Macbeth as part of the company's 50th 
anniversary season. Educational outreach, seminars, and public lectures 
highlighting the achievements of the composer will take place in public 
schools and community centers in metropolitan areas and throughout the 
State's south-central region.

Beth Morrison Projects
New York, New York
$10,000
    To support the world premier of Song From the Uproar: The Lives and 
Deaths of Isabelle Eberhardt by composer Missy Mazzoli in collaboration 
with librettist Royce Vavrek and filmmaker Stephen Taylor. Culled from 
the journals of Swiss explorer, Eberhardt, at the turn of the last 
century, the multimedia work explores Eastern and Western cultures, the 
elation of self-discovery, and the mystery of death.

Boston Lyric Opera Company, Inc.
Boston, Massachusetts
$22,500
    To support the adaptation and remounting of the comic opera The 
Inspector by composer John Musto and librettist Mark Campbell, as well 
as outreach activities. Based on the play The Government Inspector by 
Nikolai Gogol, the production will expand the physical and orchestral 
elements, working with the original creative team to make the work 
accessible for larger opera houses.

Central City Opera House Association
Denver, Colorado
$22,500
    To support a new production of The Turn of the Screw by composer 
Benjamin Britten. Based on the Henry James novella, the 20th-century 
English chamber opera will launch a season celebrating the 100th 
anniversary of the composer's birth.

Chateauville Foundation
Great Falls, Virginia
$17,500
    To support the fourth Castleton Festival, which takes place 
annually on a farm in rural Virginia and includes opera performances 
with orchestral accompaniment. The festival's mission to engage young 
artists will be met by the residency program that will allow 40 
advanced voice students to live, study, and perform onsite during the 
festival.

Chicago Opera Theater
Chicago, Illinois
$25,000
    To support Moscow, Cheryomushki by composer Dmitri Shostakovich. 
The production marks the first time a Shostakovich opera will be 
performed in Chicago in 25 years, and it will feature the U.S. premier 
of the re-orchestrated score arranged by Shostakovich scholar, Gerard 
McBurney.

Houston Grand Opera Association, Inc.
Houston, Texas
$20,000
    To support year two of activities from East + West, a 4-year 
program of chamber opera focused on Houston's Asian populations. 
Dedicated to art as a vehicle for cultural diplomacy and community 
building, the second year of the initiative will focus on Iranian and 
Cambodian communities in Houston, exploring subjects such as the 
relationship between first- and second-generation immigrants, 
displacement of war refugees, storytelling traditions, and cultural 
inheritance.

Lyric Opera of Kansas City, Inc.
Kansas City, Missouri
$16,500
    To support Nixon in China by composer John Adams. Coinciding with 
the 40th anniversary of the historic presidential visit, local 
partnerships with the Kemper Museum of Contemporary Art and the 
University of Kansas will engage new audiences.
North Carolina Opera
Raleigh, North Carolina
$10,000
    To support the production of Philip Glass's Les Enfant Terribles. 
The performance aligns with the company's commitment to present an 
annual mainstage production of a contemporary work.

Opera Theatre of Saint Louis
St. Louis, Missouri
$40,000
    To support the U.S. premier of Alice in Wonderland by composer 
Unsuk Chin and librettist David Henry Hwang.

Regents of the University of California at Berkeley
Berkeley, California
$75,000
    To support performances of Einstein on the Beach by composer Philip 
Glass and librettist Robert Wilson. A 2-week residency with the 
composer and librettist and numerous education and community programs 
will bring this significant work to the stage.

San Diego Opera Association
San Diego, California
$42,500
    To support the new opera Moby Dick by composer Jake Heggie and 
librettist Gene Scheer, based on the novel by Herman Melville.

Seattle Opera
Seattle, Washington
$20,000
    To support the new production of Orphee et Eurydice by composer 
Christoph Willibald Gluck. Education events will include preview 
lectures, post-performance Q and A's, and the company's Experience 
Opera program, which allows student to experience in-class 
presentations and dress rehearsals for free.

Tulsa Opera, Inc.
Tulsa, Oklahoma
$16,500
    To support Dead Man Walking by composer Jake Heggie. Due to the 
unique subject matter and its potential appeal to those not familiar 
with the art form, both pre- and post-performance surveys will gauge 
the level of engagement among audience members. Sister Helen Prejean 
will also participate in various lectures and panel discussions prior 
to the production.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40-percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million in the past 2 years, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2013.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

    The Oregon Water Resources Congress (OWRC) was established in 1912 
as a trade association to support member needs to protect water rights 
and encourage conservation and water management Statewide. OWRC 
represents nonpotable agricultural water suppliers in Oregon, primarily 
irrigation districts, as well as water control districts, and other 
special districts and local governments that deliver irrigation water. 
The association represents the entities that operate water management 
systems, including water supply reservoirs, canals, pipelines, and 
hydropower production.
    OWRC is concerned about continued reductions to the U.S. 
Environmental Protection Agency's (EPA) Clean Water State Revolving 
Fund Loan Program (CWSRF) and is requesting that appropriations for 
this program be increased to at least $2 billion in fiscal year 2013. 
The CWSRF is an efficient loan program that addresses critical water 
infrastructure needs while benefitting the environment, local 
communities, and the economy.
    OWRC is also concerned about various efforts by EPA to increase 
regulatory authority over water resources planning and urges the Senate 
to take action and prevent further jurisdictional overreach. EPA's 
actions to increase its jurisdiction are counterproductive to 
collaborative planning and detract from the positive solutions achieved 
through the CWSRF program.
                    fiscal year 2013 appropriations
    We are disappointed that the administration's request of $1.175 
billion for the CWSRF program is a sharp reduction from enacted 2011 
funding, and is still far short of what is needed to address critical 
water infrastructure needs in Oregon and across the Nation. As 
acknowledged in EPA's budget materials, this will lead to ``fewer water 
infrastructure projects,'' and therefore a reduction in improvements to 
water quality. The Oregon Department of Environmental Quality's (DEQ) 
most recent ``Proposed Intended Use Plan Update #2--State Fiscal Year 
2012'', lists 115 projects in need of a total of $273,263,717 in Oregon 
alone.
    Additionally, EPA budget materials indicate that ``a number of 
systems could have access to capital through the administration's 
proposed Infrastructure Bank,'' but this has not happened yet and there 
are numerous dire water infrastructure needs now. OWRC supports the 
creation of an infrastructure bank, but the needs facing communities 
now cannot wait for a new funding mechanism, particularly when the 
CWSRF has worked very efficiently in Oregon. The CWSRF has been an 
extremely valuable tool in Oregon for improving water quality and 
efficiently addressing infrastructure challenges that are otherwise 
cost-prohibitive.
    Six OWRC member districts have successfully received loans from the 
CSWRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers need 
to pipe currently open canals, thereby improving water quality by 
eliminating run-off into the canals and increasing water availability 
for fish and irrigators by eliminating water loss from the canal 
system. These projects not only benefit the environment and the patrons 
served by the water delivery system, but also benefit the economy.
    Four irrigation districts received more than $11 million funding in 
Oregon from the 2009 ARRA funding through the CWSRF for projects which 
created valuable jobs while improving water quality. These four 
projects were essential to DEQ not only meeting but exceeding the 
minimum requirement that 20 percent of the total ARRA funding for the 
CWSRF be used for ``green'' projects. Those districts' applications had 
been on DEQ's list of eligible projects for many years and would 
probably still be on that list had the ARRA funding not been made 
available. We provide that comment not to complain, but to emphasize 
the need for additional funding for this program.
    We acknowledge and support the administration's desire to ``expand 
``green infrastructure'' options and their multiple benefits'' as part 
of EPA's In fact, as mentioned above, irrigation districts and other 
water suppliers in Oregon are on the forefront of ``green 
infrastructure'' through innovative piping projects that provide 
multiple environmental benefits. However, continually reducing the 
amount of funds available for these worthwhile projects is 
counterproductive and has created increased uncertainty for potential 
borrowers about whether adequate funding will be available in future 
years. CWSRF is often an integral part of an overall package of State, 
Federal, and local funding that necessitates a stronger level of 
assurance that loan funds will be available for planned water 
infrastructure projects. Reductions in the CWSRF could lead to loss of 
grant funding and delay or derail beneficial projects that irrigation 
districts have been developing for years.
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. 
However, the CWSRF is a perfect example of the type of program that 
should have funding increased because it creates jobs while benefitting 
the environment, and is an efficient return on taxpayer investment. 
Oregon is facing record levels of unemployment and the CWSRF funded 
projects provide much needed construction and professional services 
jobs. Moreover, as a loan program, it is not a hand-out but a wise 
investment that allows local communities to leverage their limited 
resources and address critical infrastructure needs that would 
otherwise be unmet.
    We respectfully request the appropriation of at least $2 billion 
for EPA's Clean Water State Revolving Loan Fund for fiscal year 2013.
          environmental protection agency regulatory overreach
    OWRC is very concerned about EPA's recent efforts to revise Clean 
Water Act Guidance without appropriate public process or legislative 
oversight. The proposed changes would greatly broaden EPA authority and 
illustrates an apparent desire to dictate watershed planning methods 
for the Nation using a top-down regulatory approach from a desk in 
Washington, DC. This regulatory overreach will lead to uncertainty for 
landowners and water users, increased litigation and destroy 
collaborative efforts (including CWSRF projects) already underway in 
Oregon and across the Nation. OWRC concerns are now being reflected in 
new bi-partisan legislation, H.R. 4965, introduced by several 
distinguished Members of Congress. EPA recently also has been pushing 
Oregon's Department of State Lands (DSL) to assume the Army Corps of 
Engineers 404 program. Based on the controversy and EPA's incorrect 
interpretation of the Clean Water Act, OWRC opposes these efforts.
    Oregon is the model for watershed planning and does not need a new 
Federal agency or executive branch office to continue watershed 
planning. Watershed planning in Oregon formally began in 1995 with the 
development of the Oregon Plan for Salmon Recovery and Watershed 
Enhancement, a statewide strategy developed in response to the Federal 
listing of several fish species. This strategy led to the creation of 
the Oregon Watershed Enhancement Board (OWEB), a State agency and 
policy oversight board that funds and promotes voluntary and 
collaborative efforts that ``help create and maintain healthy 
watersheds and natural habitats that support thriving communities and 
strong economies'' in 1999.
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Planning 
activities are conducted through local watershed councils, volunteer-
driven organizations that work with local, State and Federal agencies, 
economic and environmental interests, agricultural, industrial and 
municipal water users, local landowners, tribes, and other members of 
the community. There are more than 60 individual watershed councils in 
Oregon that are already deeply engaged in watershed planning and 
restoration activities.
    OWRC has written and commented on many of the EPA activities. These 
documents can be found on our Web page. Below are links to these 
documents.
  --http://www.owrc.org/useruploads/files/Federal/
        CWAJurWhitePaper_owrc.pdf
  --http://www.owrc.org/useruploads/files/Federal/
        SustainableWatershedPlanningAct_OWRC%20Letter%20to%20OR%20 
        Delegation.pdf
  --http://www.owrc.org/useruploads/files/Federal/
        OWRC_comments_EPA_DraftStrategic%20Plan_July2010.pdf
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ agency to make targeted loans that address CWA issues but also help 
water quantity and quality while addressing ESA in some instances. This 
voluntary approach creates and promotes cooperation and collaborative 
solutions to water resources challenges.
    Conversely, regulatory overreach destroys cooperation, creates 
mistrust and has a very negative affect on jobs and local economies. 
OWRC applauds the Congress's bi-partisan effort in the House to reel in 
EPA overreach. We encourage the Senate to pass H.R. 872, support H.R. 
4965, and increase oversight of EPA.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

                                REQUEST

    The Oregon Water Resources Congress (OWRC) requests $25 million to 
fully fund the U.S. Fish and Wildlife Service (FWS) Fisheries 
Restoration Irrigation Mitigation Act (FRIMA) program in fiscal year 
2013 as authorized in the Omnibus Public Lands Act Public Law 111-11, 
section 13002. OWRC continues to be deeply disappointed that the 
administration has not requested any funding in the fiscal year 2013 
budget submission for this valuable program. The FRIMA program is an 
important tool for FWS to help achieve its priorities in fish species 
conservation and restoration and fills a void that other FWS programs 
cannot provide.

                                  NEED

    OWRC was established in 1912 as a trade association to support 
member needs to protect water rights and encourage conservation and 
water management statewide. OWRC represents nonpotable agriculture 
water suppliers in Oregon, primarily irrigation districts, as well as 
other special districts and local governments that deliver irrigation 
water. OWRC members operate water management systems, including water 
supply reservoirs, canals, pipelines, and hydropower production.
    There are more than 100 irrigation districts and other special 
districts in Oregon that provide water supplies to more than 1 million 
acres of irrigated cropland in the State. Almost all of these districts 
are affected by either State or Federal Endangered Species Act listings 
of Salmon and Steelhead, Bull Trout or other sensitive, threatened or 
endangered species.
    FRIMA meets a critical need in fishery protection and restoration 
and compliments other FWS programs. Fish passage and fish screens 
installations are a vital component to fishery protection with several 
benefits:
  --Keeps protected fish species out of water canals and delivery 
        systems;
  --Allows fish to be safely bypassed around reservoirs and facility 
        structures; and
  --Eliminates water quality risks to fish species.
    Oregon irrigation districts anticipate no less than $500 million in 
funding will be required to meet current fish passage and fish screen 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program in Oregon, but the primary cost-share for 
fish screen and fish passage projects has been provided by the 
districts and their water users. Project needs include both 
construction of new fish screens and fish passage facilities as well as 
significant upgrades of existing facilities to meet new requirements of 
the NOAA Fisheries Service and FWS.

 BACKGROUND OF FISHERIES RESTORATION IRRIGATION MITIGATION ACT PROGRAM

    FRIMA, enacted November 2000, created a Federal partnership program 
entailing voluntary cost-share fish screen construction for water 
withdrawal projects in Idaho, Oregon, Washington and western Montana. 
FWS is to implement this program through the four States' fishery 
agencies. The funding goes to local governments for construction of 
fish screens and fish passage facilities. Irrigation districts and 
other local governments that divert water for irrigation can access the 
funding directly; individual irrigators can access funding through 
their local Soil and Water Conservation District (SWCD), which are 
local governments affiliated with the Natural Resources Conservation 
Service (NRCS).
    The original legislation in 2000 (Public Law 106-502) was supported 
and requested by the Pacific Northwest Partnership, a coalition of 
local governmental entities in the four Northwest States. As one of the 
members of that coalition, we appreciate your consideration of this 
request. When the Congress reauthorized the program in 2009 in the 
Omnibus Public Lands Act minor clarifying changes were made to the 
legislation while reauthorizing the program for 5 more years at $25 
million a year.

                                FUNDING

    The legislation calls for $25 million annually, to be divided 
equally among the four States from 2001 forward. Agency administrative 
costs cannot exceed 6 percent of the funding. FWS has never requested 
funding for FRIMA in its budgets since passage of the legislation. The 
Congress provided the first funding in 2001 through a write-in of $4 
million to be shared among the four States. The agency did not get the 
program up and running until late 2002, at which time the first moneys 
were distributed.
    In 2000, in its report accompanying the initial authorizing 
legislation for FRIMA, the Congressional Budget Office (CBO) estimated 
outlays of $70 million between 2001 and 2004. The actual appropriation 
was only $8.8 million during that time period and all of the money was 
a write-in. For fiscal year 2005, the Congress provided $2 million for 
the program in the Consolidated Appropriations Act and, $2 million in 
fiscal year 2006. The fiscal year 2007 funding of $1 million was part 
of an appropriation to FWS but was not a separate, designated 
appropriation. Again, all of those appropriations were the result of 
congressional write-ins, not FWS budget requests.
    As you can see, total amount of money that the Congress has written 
in for the program is woefully inadequate for the accomplishments 
anticipated for the program. The administration did not request funding 
for the program for fiscal year 2013, consistent with its past budget 
submittals, despite widespread benefits from the money that the 
Congress has provided.
    OWRC appreciates the funding the Congress has provided for the 
FRIMA program in the past. That funding has begun to address the need 
for fish screens and fish passages to protect sensitive, threatened, 
and endangered fish species in the States in the Northwest, but there 
still continues to be a significant need.

                            PROJECT BENEFITS

    A report by FWS covering program years fiscal year 2002-2012 
provides State-by-State coverage of how the congressional provided 
funding has been used in the program. Funding funneled through FWS to 
State fishery agencies is distributed using an application and approval 
process that is based on a ranking system implemented uniformly among 
the States, including the following factors:
  --fish restoration benefits;
  --cost effectiveness; and
  --feasibility of planned structure.
    The project must provide improved fish passage or fish protection 
at water diversion structures and must benefit fish species native to 
and present in the area, including those listed on State or Federal 
endangered species or conservation lists. The project must use 
applicable State and Federal requirements for project construction and 
operation.
    FRIMA-funded projects will increase the survival of many native 
fish species in a relatively short period of time. Compared to other 
recovery strategies, the risks posed by these activities are low and 
the assurance of success in increasing numbers of fish is high. 
Dislocation of existing social and economic activities is minor. 
Screening and passage can make a very substantial contribution 
utilizing existing implementation mechanisms and methods well accepted 
by landowners and rural communities.

                               COST SHARE

    FRIMA provides for a maximum Federal cost-share of 65 percent. The 
applicant's cost-share is 35 percent plus the ongoing maintenance and 
support of the structure for passage or screening purposes.
    Applicants operate the projects and the State agencies monitor and 
review the projects. This program is headquartered in the Portland, 
Oregon, regional office of FWS. For more information, see the FWS 
Fisheries Resources Web site for the Pacific Region at: http://
www.fws.gov/pacific/Fisheries/FRIMA.

                       OREGON'S PROJECT BENEFITS

    Twenty-six fish screens or fish passage projects in Oregon have 
been funded using funding from FRIMA for part of the project since the 
start of the FRIMA program. These projects have led to:
  --Installation of screens at 17 diversions or irrigation pumps;
  --Removal or modification of 12 fish passage barriers; and
  --Three-hundred sixty-five miles being re-opened to fish passage.
    In addition, the Oregon Department of Fish and Wildlife (ODFW) has 
used some of the FRIMA funding to develop an inventory of need for fish 
screens and passages in the State. Grants have ranged from just under 
$6,000 to $400,000 in size with a local match averaging 64 percent of 
the project costs, well more than the amount required under the Act (35 
percent). In other words, each Federal dollar invested in the FRIMA 
program generates a local investment of just more than $1 for the 
protection of fish species in the Pacific Northwest.
    The following are examples of how Oregon has used some of its FRIMA 
money:
      Santiam Water Control District Project.--Fish screen project on a 
        large 1,050 cubic feet per second (cfs) multipurpose water 
        diversion project on the Santiam River (Willamette Basin) near 
        Stayton, Oregon. Partners are the Santiam Water Control 
        District, ODFW, Marion Soil and Water Conservation District, 
        and the City of Stayton. Approved FRIMA funding of $400,000 
        leverages a $1,200,000 project. Species benefited include 
        winter steelhead, spring Chinook, rainbow trout, and cutthroat 
        trout.
      South Fork Little Butte Creek.--Fish screen and fish passage 
        project on a 65 cfs irrigation water diversion in the Rogue 
        River Basin near Medford, Oregon. Partners are the Medford 
        Irrigation District and ODFW. Approved FRIMA funding is 
        $372,000 and leverages a $580,000 total project cost. Species 
        benefited include listed summer and winter steelhead, coho 
        salmon, and cutthroat trout.
      Running Y (Geary Diversion) Project.--Fish screen project on a 60 
        cfs irrigation water diversion in the upper Klamath Basin near 
        Klamath Falls, Oregon. Partners are the Wocus Drainage 
        District, ODFW, and Jeld-Wen Ranches. Approved FRIMA funding of 
        $44,727 leveraged a total project cost of $149,000. Species 
        benefited included listed red-band trout and short-nosed 
        sucker.
      Lakeshore Gardens Project.--Fish screen project on a 2 cfs 
        irrigation water diversion in the upper Klamath Basin near 
        Klamath Falls, Oregon. Partners are the Lakeshore Gardens 
        Drainage District and ODFW. Approved FRIMA funding is $5,691, 
        leveraging a total project cost of $18,970. Species benefited 
        include red-band trout, short-nosed sucker and Lost River 
        sucker.

                              WHY FUND NOW

    FRIMA should be a priority program of the U.S. Department of the 
Interior as it prepares to meet the court-ordered January 1, 2014, 
deadline for a new Federal Columbia River Power System Biological 
Opinion that provides reasonable and prudent alternatives to mitigate 
impacts to Columbia-Snake river salmon and steelhead. FRIMA funded 
projects funded will help the Bureau of Reclamation, Bonneville Power 
Administration, the U.S. Army Corps of Engineers, and NOAA Fisheries 
meet these requirements.
    Moreover, FRIMA funds projects that are ready to be constructed and 
will provide immediate improved protections for fish and immediate jobs 
for the construction of the projects. Dollar-for-dollar, providing 
screening and fish passage at diversions is one of the most cost-
effective uses of restoration dollars, creating fishery protection at 
low cost, with low risk and significant benefits. While we acknowledge 
the efforts of the U.S. Department of the Interior and its agencies in 
habitation restoration through the Cooperative Landscape Conservation 
Program, this is a longer range program for fish and habitat 
protection. FRIMA projects provide immediate protection for fish and 
fill a large unmet need in the Pacific Northwest for cost-share 
assistance with fish screening and fish passage installations and 
improvements.
    We urge the full authorization funding of $25 million for FRIMA in 
fiscal year 2013 and urge the Congress's oversight in encouraging FWS 
to budget for this successful program in the future.
    Thank you for the opportunity to provide this statement for the 
hearing record.
                                 ______
                                 
               Prepared Statement of the Outdoor Alliance

    The Outdoor Alliance is a coalition of Access Fund, American Canoe 
Association, American Hiking Society, American Whitewater, 
International Mountain Bicycling Association and Winter Wildlands 
Alliance, six national, member-based organizations representing 
millions of Americans who paddle, climb, mountain bike, hike, ski and 
snowshoe on our Nation's public lands, waters and snowscapes.
    The Outdoor Alliance has extensive experience working with Federal 
land managers across the country concerning recreation and conservation 
policies. Adequate funding for the National Park Service, U.S. Forest 
Service, and Bureau of Land Management is required to support public 
access and enjoyment of the cherished public lands and rivers they 
manage. Although Federal land managers are integrating recreation, 
conservation, and restoration programs to more effectively manage 
public lands for Americans, budget cuts to these agencies will mean 
less access to and conservation of our public land. Under-funded and 
under-staffed land managers, when forced to make resource protection 
and visitor use decisions, are much more likely to close or highly 
restrict public access.
    The Outdoor Alliance supports a common sense budget approach that 
adequately funds Department of the Interior and Department of 
Agriculture activities essential to conservation and the provision of 
public recreation access to high quality public lands and waters. Human 
powered and active outdoor recreation supports the $730 billion annual 
outdoor recreation economy and is critical in reconnecting our youth 
and our increasingly diverse citizenry with nature. To achieve these 
goals, we offer the following budget recommendations for fiscal year 
2013.

               DEPARTMENT OF AGRICULTURE--FOREST SERVICE

    The Outdoor Alliance supports the President's fiscal year 2013 
budget request of $4.86 billion for USFS, an increase of $15.5 million 
more than the fiscal year 2012 appropriated level.
    Recreation on national forest lands greatly supports local 
economies and employment. The 2010 National Visitor Use Monitoring 
Report found that spending by recreation visitors in areas near 
national forests totals almost $13 billion annually. Protecting these 
economic benefits requires an adequately funded planning process, an 
effective infrastructure of trails and roads, and protected natural 
landscapes and rivers. Forest Service land management plans (with 
appropriate inventory and monitoring efforts) are critical to respond 
to existing and developing management challenges, and to inform 
intelligent and strategic forest management that allows for responsible 
recreational access. Forest plans must be maintained and revised 
repeatedly to maintain relevancy. Updated data and information is 
critical for present-day planning and management efforts, and to ensure 
that forest planning is integrated effectively. In the last 8 years 
funding for Forest Service planning dropped by more than one-third, and 
we see associated unmet issues and obligations that lead directly to 
restrictions of various Outdoor Alliance activities.
    The President's fiscal year 2013 budget proposes a consolidated 
budget line item to facilitate a consolidated approach to landscape 
management, merging Land Management Planning, and Inventory and 
Monitoring, into a single budget line item called Land Management 
Planning, Assessment, and Monitoring. This proposed consolidated budget 
line item provides the agency flexibility to implement the requirements 
of the new Planning Rule (collaborative science-based approach for 
planning, monitoring, and conducting assessments that considers 
information from and about all lands affected by, or influencing, 
planning unit activities). To maintain a basic planning program that is 
able to respond to today's management challenges, we support the 
President's requested budget of $205 million for Land Management 
Planning, Assessment & Monitoring.
    The Recreation Management, Heritage and Wilderness program oversees 
all recreation on National Forest lands. This program is chronically 
under-funded and understaffed. Outdoor Alliance supports the 
President's allocation of $267 million that will permit the Forest 
Service to begin to prioritize resources and facilities, maintain 
current on-the-ground staff, and continue basic recreation resource 
analyses and planning. Additionally, this funding level will assist in 
leveraging partnerships with the human-powered recreation community, 
who devote many thousands of volunteer hours to conservation and 
stewardship projects on our national forests. Additional funds will 
allow these critical activities to be accomplished in a timelier 
manner.
    The National Forest System serves more than 50 million visitors 
annually who participate in activities that include cross-country 
skiing, hiking, climbing, boating, and mountain biking on more than 
153,000 miles of trails. Nearly all Forest visitors use the trails to 
some extent and the recreation economy depends on quality trail 
experiences, yet the Forest Service struggles with maintenance backlogs 
in the billions of dollars. We believe that $346 million in fiscal year 
13 for Capital Improvements and Maintenance is the basic support needed 
to avoid adding to the massive deferred maintenance backlog, improve 
human powered trail infrastructure, mitigate resource impacts, and 
provide high-quality recreational experiences on Forest Service lands.
    Integrated Resource Restoration (IRR) is a new funding approach 
that merges several different funds into one large restoration funding 
line item. Last year the administration and the Congress agreed on a 
three-region pilot (Regions 1, 3, and 4) to test IRR on the ground. 
However, the President's budget for 2013 proposes skipping the 
assessment phase and adopting IRR wholesale across all Forest Service 
lands in 2013. This would mean no assessment of what worked and what 
did not and is not prudent.
    The Outdoor Alliance does not support the absorption of Legacy 
Roads and Trails funding into IRR in fiscal year 2013. Our national 
forests are interspersed with old roads that receive little or no use 
yet cause serious environmental impacts and pose long-term financial 
threats. Removing old and unused roads and investing in the roads and 
trails used by hikers, climbers, backcountry skiers, mountain 
bicyclists, and boaters is good for recreation, good for the 
environment, creates jobs, and improves water quality benefitting 
downstream users. Since its creation in 2007, the Legacy Roads and 
Trails Remediation Fund has improved more than 12,000 acres of 
watershed, maintained 3,170 miles of trails, improved 10,959 miles of 
authorized roads, and decommissioned 2,970 miles of unauthorized roads. 
The Legacy Roads initiative creates or retains approximately 1,500 jobs 
every year which provide a significant economic stimulus to rural 
America. If the program is merged into the IRR, there is no guarantee 
that any funds would be used for the purposes the Congress intended in 
establishing this program. Outdoor Alliance is concerned that although 
the Congress and the administration agreed to test the concept in a 
three region pilot program last year, there has been no assessment of 
its success and now the program is being rolled out nationwide. We 
believe such an assessment is critical before implementation across the 
board occurs.
    The Outdoor Alliance supports an fiscal year 2013 appropriation of 
$793.1 million for the Integrated Resource Restoration budget line for 
the restoration and management of priority watersheds, with at least 
$75 million of that allocated to continue the important work of the 
Legacy Roads and Trails program.

           DEPARTMENT OF THE INTERIOR--NATIONAL PARK SERVICE

    Our national parks offer opportunities for world-class recreation 
and they serve as iconic locations for Outdoor Alliance activities. 
Enthusiasts travel from all over the world to climb, hike, boat, bike, 
and ski in places like Zion, Rocky Mountain, and the North Cascades 
National Parks. Importantly, our parks also serve as crucial economic 
engines for local economies. While the administration's overall request 
for the Park Service is essentially flat, it proposes cuts to base park 
operations by almost $22 million which will likely eliminate hundreds 
of full-time employees and lead to deteriorating Park resources. If we 
are serious about maintaining our Parks as economic engines for local 
economies it is critical that we maintain funding for base park 
operations. We are hopeful that the Congress will improve on the 
administration's budget request and provide critical funding for base 
park operations.
    The Outdoor Alliance supports the President's proposed fiscal year 
2013 appropriation of $2.3 billion for the Operation of the National 
Park System, including $52 million for National Recreation and 
Preservation. However, the administration's request must be increased 
if $2.3 billion will not at least maintain basic park operations after 
fixed costs have been addressed.
    The Rivers, Trails and Conservation Assistance (RTCA) program helps 
people build parks and trails and preserve open space and river 
corridors in their local communities. The RTCA program produces a 
multiplier effect for local economies. It leverages Federal funding by 
assisting locally-led conservation and outdoor recreation projects 
nationwide to develop important community infrastructure, inspire 
volunteerism and environmental stewardship, and connect Americans to 
close-to-home recreation opportunities. This is especially important 
for kids. Accordingly, the Outdoor Alliance supports an RTCA 
appropriation of at least $10 million for fiscal year 2013 in order for 
this essential capacity-building conservation and recreation program to 
maintain its high level of effectiveness.

         DEPARTMENT OF THE INTERIOR--BUREAU OF LAND MANAGEMENT

    Many Outdoor Alliance members recreate on BLM lands across the 
country, including those in the National Landscape Conservation System. 
Opportunities to recreate on BLM lands--such as rock climbing at 
Colorado's Shelf Road, mountain biking around Moab, Utah, boating New 
Mexico's Rio Chama, backcountry skiing at Gunnison Gorge NCA in 
Colorado--are some of the most sought-after recreation opportunities in 
America. Outdoor Alliance believe that the BLM is uniquely positioned 
to contribute to the success of the America`s Great Outdoors initiative 
and its goals of reconnecting Americans to our exceptional recreation 
resources. Accordingly, we support the President's inclusion of $70.3 
million fiscal year 2013 budget for Recreation Management that will 
help to begin to enable BLM to strengthen its protection and management 
of popular, high quality recreation areas. We also believe that the 
President's call for funding of $35.1 million for National Landscape 
Conservation System programs is necessary to maintain necessary 
staffing, enable adequate planning and resource monitoring to protect 
natural and recreational resources and allow for a quality visitor 
experience.

        DEPARTMENT OF THE INTERIOR AND DEPARTMENT OF AGRICULTURE

    The Land and Water Conservation Fund uses off shore oil and gas 
royalties to address the national need to preserve natural areas and 
provide recreation opportunities. Outdoor Alliance supports the 
President's stated goal of fully funding the Land and Water 
Conservation Fund by 2014 and supports his fiscal year 2013 LWCF 
requests. We also believe that the Congress may have opportunities to 
significantly exceed these figures this year and encourage them to do 
so. In addition, we support the President's suggested funding of the 
Forest Legacy Fund.
    Wild and Scenic Rivers offer Americans some of the best outdoor 
recreation opportunities on Federal lands and is a core component of 
the America's Great Outdoors Initiative. Explicitly funding Wild and 
Scenic River program staff and activities within each agency would 
ensure that agencies have the capacity to protect these rivers and 
provide world-class recreation opportunities.
    We support the administration's proposed $9.3 million for the BLM 
Wild and Scenic River Program, request that a new line item for the 
Forest Service Wild and Scenic Rivers program be funded at $19 million 
out of the Recreation Management, Heritage and Wilderness budget, and 
that the Wild and Scenic Rivers Program line item in the NPS budget be 
funded at no less than $1 million to complement the Park Unit, 
Partnership Rivers, and Special Resource Studies budget lines.
department of commerce: national oceanic and atmospheric administration
    The President's budget has recommended $10.8 million for the 
Fisheries Habitat Restoration program, which is comprised of the 
Community-based Restoration Program that restores coastal and marine 
habitat and the Open Rivers Initiative that removes obsolete dams and 
other stream barriers in coastal watersheds that currently block salmon 
from their native spawning habitat. While these two programs are 
focused on improving fish habitat, they provide direct benefits to 
recreational users of our waterways by enhancing the riverscape we 
enjoy and reconnecting rivers currently blocked by dams that are 
barriers to navigation. We strongly recommend the program receive $19 
million in fiscal year 2013, and that the President's proposal to merge 
the program with the Estuary Restoration Program and the Marine Debris 
Program be rejected.
    Thank you for considering our perspectives.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, and honorable members of the subcommittee, I am W. 
Ron Allen, Chairman of the U.S. Section's Budget Committee on the 
Pacific Salmon Commission (PSC). The U.S. Section prepares an annual 
budget for implementation of the Treaty. The integrated budget details 
program needs and costs for Tribal, Federal, and State agencies 
involved in the Treaty. Under the Bureau of Indian Affairs budget, the 
U.S. Section recommends that the Congress:
  --Fund the tribes' program at a restored funding level of $4,800,000 
        for tribal research projects and participation in the U.S.-
        Canada Pacific Salmon Treaty process, an increase of $500,000 
        more than the President's requested level for 2013. This 
        funding level represents status quo funding plus adjustments to 
        meet increased obligations under the 2009-2018 Pacific Salmon 
        Treaty Agreement. The funding for tribal participation in the 
        U.S./Canada Salmon Treaty is a line item in the BIA's budget 
        under the Rights Protection Implementation, Wildlife and Parks, 
        Other Recurring Programs Area.
    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
recommends that the Congress:
      Provide base funding of $417,000 for USFWS participation in the 
        Treaty process, and provide funding of $315,000 for the Pacific 
        States Marine Fisheries Commission's Regional Mark Center. This 
        funding level represents an increase for the Mark Center to 
        make up for losses from other programs and allow the Mark 
        Center to maintain the same level of service to the U.S. 
        Section.
    This base funding for the U.S. Fish and Wildlife Service will pay 
for the critically important ongoing work. The funding for Pacific 
States Marine Fisheries Commission's Regional Mark Center is utilized 
to meet Treaty requirements concerning data exchange with Canada. These 
program recommendations are integrated with those of the State and 
Federal agencies to avoid duplication of effort and provide for the 
most efficient expenditure of scarce funds.
    A copy of the integrated U.S. Section budget justification has been 
made available to the subcommittee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. Section of the Pacific Salmon Commission is recommending 
an adjustment to the funding for the work carried out by the 24 treaty 
tribes' that participate in the implementation of the Treaty. Programs 
carried out by the tribes are closely coordinated with those of the 
States and Federal agencies. Tribal programs are essential for the 
United States to meet its international obligations. Tribal programs 
have taken on additional management responsibilities due to funding 
issues with State agencies. All participating agencies need to be 
adequately funded to achieve a comprehensive U.S. effort to implement 
the Treaty.
    We are strongly recommending maintaining base funding of $417,000 
for the U.S. Fish and Wildlife Service so the United States can 
maintain the critical database to implement the Treaty. We also 
strongly recommend funding of $315,000 to allow continuation of work 
carried out by the Regional Mark Processing Center. This work, 
maintaining and updating a coastwide computerized information 
management system for salmon harvest and catch effort data as required 
by the Treaty, has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission. The U.S. Fish and Wildlife Service will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver Bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and nontribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. In 2008, the United States and Canada successfully 
concluded lengthy negotiations to improve this management, including 
the adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last through 
2018. The Fraser River sockeye and pink chapter to the Pacific Salmon 
Treaty expired in 2010 and negotiators worked out an interim 
arrangement while Canada's Cohen Commission completes its judicial 
inquiry on the Fraser River sockeye fishery.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work toward the true intent of the 
Treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the Committee for 
the support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section, through the 
Office of the U.S. Section Coordinator to answer any questions you or 
Committee members may have regarding the U.S. Section of the Pacific 
Salmon Commission budget.

      SUMMARY OF TRIBAL AND FISH AND WILDLIFE SERVICE PROGRAMS UNDER THE U.S.-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                   2012 enacted        2013          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------
Department of the Interior:
    Bureau of Indian Affairs, Wildlife and Parks, Rights              $4,120,000      $4,300,000       +$180,000
     Implementation.............................................
    U.S. Fish and Wildlife Service, Anadromous Fisheries........         667,000         732,000         +65,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 18 
years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service (NPS). We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the United States Forest Service (USFS) and for the trails in the 
Bureau of Land Management's (BLM) National Landscape Conservation 
System (NLCS). To continue the progress that you have fostered, the 
Partnership requests that you provide annual operations funding for 
each of the 30 national scenic and historic trails for fiscal year 2013 
through these appropriations:
      National Park Service.--$16.21 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office.
      -- Construction: $380,000 for the Ice Age Trail and $200,000 for 
            the Pacific Crest Trail.
      United States Forest Service.--$9.096 million to administer 6 
        trails and $1.2 million to manage parts of 16 trails 
        administered by the NPS or BLM. $1 million for Iditarod Trail 
        construction.
      Bureau of Land Management.--To coordinate its National Trails 
        System Program: $250,000;
      -- to administer these trails:
        -- Iditarod Trail: $700,000,
        -- the Camino Real de Tierra Adentro Trail: $230,000,
        -- the Old Spanish Trail: $350,000 and
        -- to manage portions of 10 trails administered by NPS or USFS: 
            $4 million;
        -- $3,140,000 for operating five National Historic Trail 
            interpretive centers;
        -- Construction: $300,000 for the Pacific Crest Trail.
    We ask that you appropriate $4.5 million for NPS Challenge Cost 
Share Program and continue to direct one-third ($1.5 million) for 
national scenic and historic trails or create a separate $1.5 million 
National Trails System Challenge Cost Share Program.
    We ask that you add $500,000 to BLM's Challenge Cost Share Program 
and allocate it for the national scenic and historic trails it 
administers or manages.
    We ask that you appropriate from the Land and Water Conservation 
Fund (LWCF) for land acquisition:
  --to USFS:
    --$7.25 million for the Pacific Crest Trail;
    --$1.5 million for the Florida Trail;
    --$2.65 million for the Old Spanish Trail;
    --$3.24 million for the Appalachian Trail;
    --$1.5 million for the Nez Perce Trail;
    --$3 million for the Continental Divide Trail;
    --$45,000 for the Pacific Northwest Trail; and
    --$15,000 for the Arizona Trail; and
  --to BLM:
    --$3.5 million for the Oregon Trail in Oregon;
    --$732,000 for the Pacific Crest Trail in Oregon; and
    --$1 million for the Oregon, California, Mormon Pioneer, and Pony 
            Express Trails in Wyoming; and
  --to NPS:
    --$6.2 million to continue work with the State of Wisconsin for the 
            Ice Age Trail;
    --$2 million for the North Country Trail;
    --$2.5 million for the New England Trail;
    --$1.125 million for the Appalachian Trail;
    --$4 million for the Ala Kahakai Trail; and
    --$450,000 for the Overmountain Victory Trail.
National Park Service
    The $16.21 million we request for NPS operations includes increases 
for some of the trails to continue the progress and new initiatives 
made possible by the additional funding the Congress provided over the 
past 7 years. We support the administration's requested funding for the 
new Star Spangled Banner and Washington-Rochambeau National Historic 
Trails and we request $400,000 for NPS to implement planning and 
administration for the New England National Scenic Trail.
    We request an increase of $626,000 to expand NPS efforts to protect 
cultural landscapes at more than 200 sites along the Santa Fe Trail, to 
develop GIS mapping, and to fund public educational outreach programs 
of the Santa Fe Trail Association. An increase of $780,000 for the 
Trail of Tears will enable NPS to work with the Trail of Tears 
Association to develop a GIS to map the Trail's historical and cultural 
heritage sites to protect them and to develop interpretation of them 
for visitors. We request an increase of $346,000 to $866,000 for the 
Ala Kahakai Trail to enable NPS to work with E Mau Na Ala Hele, the Ala 
Kahakai Trail Association, and other community organizations to care 
for resources on the land and with the University of Hawaii to conduct 
archaeological and cultural landscape studies along this trail.
    We request an increase of $193,000 to $1,708,000 for the 
Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,483,000 we request for the 4,200-mile North Country Trail will 
enable NPS to provide greater support for the regional GIS mapping, 
trail building, trail management, and training of volunteers led by the 
North Country Trail Association. This funding will also enable NPS to 
move the administrative office for the North Country Trail to Michigan 
for more efficient and effective collaboration with the North Country 
Trail Association. The $1,389,000 we request for the Ice Age Trail 
includes a $535,000 increase to build partner and citizen capacity for 
protecting the natural, cultural and recreational resources on the Ice 
Age NST and Ice Age Trail lands as well as to provide NPS with a 
property manager for NPS-owned lands.
    Construction.--We request that you appropriate for trail 
construction projects $380,000 for the Ice Age Trail and $200,000 for 
the Pacific Crest Trail in the national parks crossed by the trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership's member organizations applaud the administration's 
decision to restore these highly effective programs of the NPS, BLM, 
and Fish and Wildlife Service. We request that you fund all of them and 
appropriate $4.5 million in Challenge Cost Share funding to NPS for 
fiscal year 2013 as a wise investment of public money that will 
generate public benefits many times greater than its sum. We ask you to 
continue to direct one-third of the $4.5 million for the national 
scenic and historic trails to continue the steady progress toward 
making these trails fully available for public enjoyment. We suggest, 
as an alternative to the annual allocating of funds from the Regular 
Challenge Cost Share program, that you create a separate National 
Trails System Challenge Cost Share program with $1.5 million funding.
    We support the administration's requested $934,000 for the Connect 
Trails to Parks project to enhance the public's understanding of the 
National Trails System and its relationship to the National Park 
System.
United States Department of Agriculture--United States Forest Service
    As you have done for several years, we ask that you provide 
additional operations funding to USFS for administering 5 national 
scenic trails and 1 national historic trail, and managing parts of 16 
other trails. We ask you to appropriate $9.096 million as a separate 
budgetary item specifically for the Arizona, Continental Divide, 
Florida, Pacific Crest, and Pacific Northwest National Scenic Trails 
and the Nez Perce National Historic Trail within the overall 
appropriation for Capital Improvements and Maintenance for Trails. 
Full-time managers have been assigned for each of these trails by USFS. 
Recognizing the on-the-ground management responsibility USFS has for 
838 miles of the Appalachian Trail, more than 650 miles of the North 
Country Trail, and sections of the Ice Age, Anza, Caminos Real de 
Tierra Adentro and de Tejas, Lewis & Clark, California, Iditarod, 
Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony 
Express, Trail of Tears and Santa Fe Trails, we ask you to appropriate 
$1.2 million specifically for these trails.
    Work continues, supported by funds you provided over the past 10 
years, to close several major gaps in the Florida Trail. In 2011, 
Florida Trail Association (FTA) volunteers maintained 1,143 miles and 
completed eight major construction and restoration projects along the 
Trail. The Partnership's request of $9.096 million more than includes 
$2.5 million to enable USFS and FTA to continue this maintenance, to 
control invasive species, do ecosystem restoration, and otherwise 
manage 4,625 acres of new Florida Trail land.
    The Partnership's request of $9.096 million above also includes $2 
million for the Pacific Crest Trail, $2.2 million for the Continental 
Divide Trail, $1 million for the Pacific Northwest Trail, $826,000 for 
the Nez Perce Trail, and $570,000 for the Arizona Trail. Some of the 
additional funds requested will enable USFS to develop Comprehensive 
Management Plans for the latter three trails. We also request $1 
million of additional funding for construction of sections of the 
Iditarod Trail.
Bureau of Land Management
    While BLM has administrative authority only for the Iditarod, El 
Camino Real de Tierra Adentro, and the Old Spanish National Historic 
Trails, it has on-the-ground management responsibility for 641 miles of 
five scenic trails and 3,115 miles of eight historic trails 
administered by NPS and USFS. BLM recognized the significance of these 
trails by including them in NLCS and since fiscal year 2002 has 
provided funding for each of them. The Partnership applauds these 
decisions of BLM and encourages its staff to budget specific funding 
for each of these trails.
    Although considerably more money is needed to fully administer NLCS 
and protect its resources, we support the administration's request of 
$69.549 million in base funding for the System for fiscal year 2013 and 
ask that you appropriate as new permanent base funding $250,000 for 
National Trails System Program Coordination, $700,000 for the Iditarod 
Trail, $230,000 for El Camino Real de Tierra Adentro Trail, $350,000 
for the Old Spanish Trail, and $4 million for management of the 
portions of the 10 other trails under the care of BLM. For trail 
maintenance we request $300,000 for the Pacific Crest Trail and $50,000 
for the Nez Perce Trail; and request $3,140,000 to operate five 
historic trails interpretive centers.
    We ask you to fund the Bureau's Challenge Cost Share program and to 
add $500,000 directed for projects for the National Trails System as 
you have done for many years with NPS's Challenge Cost Share program.
    To promote greater management transparency and accountability for 
the National Trails and the whole NLCS, we urge you to request 
expenditure and accomplishment reports for each of the NLCS Units for 
fiscal year 2012 and to direct BLM to include unit-level allocations by 
major sub-activities for each of the scenic and historic trails, and 
wild and scenic rivers--as BLM has done for the monuments and 
conservation areas--within a new activity account for NLCS in fiscal 
year 2013. Existing accounts for Wilderness Areas and Wilderness Study 
Areas should also be included in this new NLCS activity account. BLM's 
lack of a unified budget account for National Trails prevents the 
agency from efficiently planning, implementing, reporting, and taking 
advantage of cost-saving and leveraging partnerships and volunteer 
contributions for every activity related to these national resources.
Land and Water Conservation Fund
    The Partnership applauds and supports the administration's 
intention to provide $449.934 million for LWCF. We request that you 
provide at least this amount to keep on a trajectory to achieve annual 
full funding for the LWCF and that you make the specific appropriations 
for national scenic and historic trails detailed at the beginning of 
this statement and below.
    United States Forest Service.--The $7.25 million we request for the 
Pacific Crest Trail will continue to support the acquisition underway 
by USFS Lands Team and NPS National Trail Land Resources Program 
Center, protecting 3 miles of PCT in Washington, 0.5 mile in Oregon, 
and 8 miles (including taking 3.4 miles off of roads) in California. 
The $1.5 million requested for the Florida Trail will continue another 
successful collaboration between these two agencies to protect 30 
tracts and 3.4 miles of the Trail along the Suwanee River. We request 
$2.65 million to protect a section of the Old Spanish Trail in the 
Carson National Forest, $3.240 million to protect sections of the 
Appalachian Trail in the Cherokee, Pisgah and George Washington/
Jefferson National Forests, and $1.5 million to acquire land in Hell's 
Canyon of the Snake River in Oregon to protect sites along the Nez 
Perce Trail.
    Bureau of Land Management.--We request $732,000 for the Cascade 
Siskiyou National Monument that will preserve a section of the Pacific 
Crest Trail in Oregon, $3.5 million to purchase land along the Big 
Sandy River in Oregon for the Oregon Trail, and $1 million to protect 
sections of the Oregon, California, Mormon Pioneer, and Pony Express 
Trails along the Platte River in Wyoming.
    National Park Service.--The National Trails System Act encourages 
States to assist in the conservation of the resources and development 
of the national scenic and historic trails. Since fiscal year 2000 
Wisconsin has matched $13.6 million Federal LWCF funding with $27.7 
million to help protect 67 miles of the Ice Age National Scenic Trail 
by purchasing 51 parcels totaling 7,727 acres. Another 40 parcels are 
under negotiation, appraisal, or option to purchase. The requested $6.2 
million will continue this successful Federal/State/local partnership 
for protecting land for the Ice Age Trail. We request $2 million to 
close gaps in the North Country Trail, $4 million to acquire one parcel 
for the Ala Kahakai Trail, $2.5 million to acquire three parcels for 
the New England Trail, and $1.125 million to acquire parcels in 
Pennsylvania and Vermont for the Appalachian Trail.
    The Partnership strongly supports the new ``National Rivers and 
Trails Initiative'' funding line for fiscal year 2013 as a first step 
to providing consistent annual funding to acquire the land needed to 
complete congressionally authorized trails. We urge you to provide 
considerably more than the $4 million requested by the administration 
since the LWCF funding requests a total more than $15 million.
Private Sector Support for the National Trails System
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grassroots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as the Congress's support for 
the trails has grown. In 2011, the trail organizations fostered 
1,157,493 hours--an increase of 4 percent more than 2010--of documented 
volunteer labor valued at $24,724,054 to help sustain the national 
scenic and historic trails. The organizations also raised private 
sector contributions of $8,740,790 to benefit the trails.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance

    We urge the subcommittee to designate a total of $155 million to 
the National Endowment for the Arts (NEA) for fiscal year 2013. Mr. 
Chairman and distinguished members of the subcommittee, I am grateful 
for this opportunity to submit testimony on behalf of the Performing 
Arts Alliance (PAA) and its member organizations--American Composers 
Forum, Association of Performing Arts Presenters, Chorus America, 
Dance/USA, Fractured Atlas, League of American Orchestras, National 
Alliance for Musical Theatre, National Association of Latino Arts and 
Culture, National Performance Network, New Music USA, OPERA America, 
and Theatre Communications Group. The PAA is a national network of more 
than 27,000 organizational and individual members comprising the 
professional, nonprofit performing arts and presenting fields.
    This testimony is intended to highlight the importance of the 
Federal investment in the arts in order to sustain a vibrant cultural 
community. With strong Federal support, the NEA can widen citizen 
access to the cultural, educational, and economic benefits of the arts, 
and advance creativity and innovation in communities across the United 
States.
    The NEA increases opportunities for the American public to enjoy 
and benefit from the performing arts. Since the establishment of the 
NEA in 1965, access to the performing arts has improved in communities 
large and small across the country. The NEA has helped foster the 
development of the many regional theatres, opera companies, dance 
companies, orchestras, and performing arts centers that Americans now 
enjoy. Despite diminished resources, the NEA awarded more than 2,400 
grants in fiscal year 2011 to nonprofit arts organizations for projects 
that encouraged artistic creativity, provided lifelong learning 
opportunities, and engaged audiences in the finest the arts have to 
offer.
    The NEA contributes to the economic growth and development of 
communities nationwide. The arts are part of a diversified 21st century 
economy. Along with nonprofit arts organizations, creative enterprises 
make significant contributions to State and local economies, generating 
employment and tax revenues and providing goods and services in high 
demand by the public. A strong arts sector is an economic asset that 
stimulates business activity, attracting companies that want to offer 
their employees and clients a creative climate and amenity-rich 
community.

                THE NONPROFIT PERFORMING ARTS COMMUNITY

    The following member profiles of the PAA, which include national 
service organizations representing composers, presenting, chorus, 
dance, musical theatre, Latino arts and culture, new music, opera, 
orchestras, and theatre fields, exemplify the economic, educational, 
and quality of life benefits that performing arts organizations bring 
to communities across the country.

                        AMERICAN COMPOSERS FORUM

    American Composers Forum (Forum), one of the Nation's premier 
composer services organizations, works to make composers, and the music 
they create, a vibrant and integral part of our culture. Forum programs 
reflect the diversity of our world, and they partner with a variety of 
ensembles and organizations including faith communities, rural and 
urban schools, healthcare facilities, Indian reservations, and civic 
organizations. With more than 2,000 members nationwide, the 
organization serves thousands of artists annually through its online 
networks and social media.

                            ARTS PRESENTERS

    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve and include 
organizations such as performing arts centers in major urban cities, 
academic institutions, festivals and fairs as well as the artists, 
artist managers, agents, and local arts agencies. The Association of 
Performing Arts Presenters (APAP) is the national service and advocacy 
organization with more than 1,400 members worldwide, dedicated to 
developing and supporting a robust performing arts presenting field and 
the professionals who work within it. APAP members bring performances 
to more than 2 million audience-goers each week and spend in excess of 
$2.5 billion annually, and the field of presenters serves more than 6 
million audience members every week. The membership includes a range of 
organizations from very small presenting groups (under $50,000 budgets) 
to multi-million dollar budgets and individuals who are artists or 
performing arts professionals, representing a diversity of performing 
arts fields.

                                 CHORUS

    Chorus America's mission is to build a dynamic and inclusive choral 
community so that more people are transformed by the beauty and power 
of choral singing. Chorus America strengthens choral organizations and 
provides their leaders with information, research, leadership 
development, professional training, and advocacy to help them deliver 
the best possible contributions to their communities and to the choral 
art. The more than 2,000 choruses, individuals, businesses, and 
organizations that are members of Chorus America speak with a strong 
and unified voice to increase recognition of choral singing as an 
essential part of society.

                                 DANCE

    More than two-thirds of America's professional dance companies are 
less than 45 years old; as an established art form with national 
identity and presence, dance has burst onto the scene almost entirely 
within living memory. And yet, America can boast some of the greatest 
dance companies of the world and can take credit for birthing two 
indigenous dance styles--tap and modern dance. The key to this 
spectacular achievement was the creation of a national marketplace for 
dance, especially in the 1970s and 1980s. When the NEA instituted its 
Dance Touring Program in the 1970s, great dance became accessible to 
every community in the United States. NEA programs have continued to 
ensure that the best of American dance is for all of the United States 
and a showpiece for the rest of the world. Based on data from almost 
300 nonprofit dance companies from across the United States, Dance/USA, 
the national service organization for not-for-profit professional 
dance, estimates that dance companies employed more than 12,800 people 
in a mix of full-time and part-time positions; paid approximately $316 
million in wages and benefits; earned $178.9 million, or 30 percent of 
their income, from performances; received $235.7 million, or 47 percent 
of their income in contributions; and generated more than $585 million 
in economic activity across the United States.

                            FRACTURED ATLAS

    Fractured Atlas is a nonprofit organization that serves a national 
community of artists and arts organizations. Their programs and 
services facilitate the creation of art by offering vital support to 
the artists who produce it, and they help artists and arts 
organizations function more effectively as businesses by providing 
access to funding, healthcare, education, and more, all in a context 
that honors their individuality and spirit. Their fiscal sponsorship 
program has grown from 6 local groups to more than 2,200 nationally, 
and in 2011 their membership topped 16,000 artists and arts 
organizations, with an expanded audience of more than 140,000 through 
their Open Arts Network.

                            MUSICAL THEATRE

    National Alliance for Musical Theatre (NAMT) is the national 
service organization dedicated exclusively to musical theatre and 
serving some of the leading musical theatre producers in the world. 
Last season, NAMT members collectively staged more than 18,500 
performances attended by more than 11.5 million people, employed more 
than 16,500 people, and provided education programs for more than 1 
million students and teachers. NAMT has presented its Festival of New 
Musicals annually since 1989, bringing together theatre producers and 
writers, with the goal of furthering the development and production of 
new musicals. NAMT's Festival has showcased almost 500 writers and 
almost 300 new musicals.

            NATIONAL ASSOCIATION OF LATINO ARTS AND CULTURE

    Founded in 1989, the National Association of Latino Arts and 
Culture (NALAC) is the Nation's only multidisciplinary Latino arts 
service organization. NALAC provides critical advocacy, funding, 
networking opportunities, and professional development training to 
build the capacity and sustainability of the Latino arts and cultural 
field to sustain artists and arts organizations in every region of the 
country. NALAC's constituency is a multi-ethnic, multigenerational, and 
interdisciplinary community that includes thousands of artists and 
hundreds of not-for-profit Latino arts and cultural organizations in 
the United States.

                      NATIONAL PERFORMANCE NETWORK

    The National Performance Network (NPN) is a group of diverse 
cultural organizers, including artists, working to create meaningful 
partnerships and to provide leadership that enables the practice and 
public experience of the contemporary arts in the United States. As a 
nationwide network, NPN functions as an applied learning community. 
NPN's resources currently support and connect 50-75 performing arts 
organizations, called NPN Partners. The NPN constituency ranges from 
the most grassroots operations to large regional arts centers. NPN 
Partners are ethnically, culturally, and stylistically diverse and 
reflect a cross-section of urban, suburban, and rural communities that 
are generally under-represented.

                             NEW MUSIC USA

    New Music USA's mission is to increase opportunities for composers, 
performers and audiences by fostering the creation, dissemination, and 
enjoyment of new American music, both nationally and internationally. 
New Music USA places special emphasis on broadening the public 
community for the music and musicians whom we serve.

                                 OPERA

    OPERA America members are found in communities all across the 
country--a total of 122 companies in 43 States. In the United States, 
more than one-half of these companies were established after 1970, and 
more than 40 percent were established since 1980, indicating the growth 
of opera throughout North America in the last 40 years. More than 6.7 
million people attended a live performance at one of OPERA America's 
Professional Company Members in the 2009-2010 season, including 
education and outreach programs, and festivals. In 2009-2010, OPERA 
America's Professional Company Members in North America presented 1,298 
mainstage, festival, educational, and other programs. Beyond the opera 
house, opera companies are finding new and exciting ways to bring the 
essence of opera to other local theaters and community centers, 
frequently with new and innovative works that reflect the diverse 
cultures of the cities they serve. Strong partnerships with local 
schools, too, extend the civic reach of opera companies as they 
introduce children to another multi-media art form and discover 
promising young talent.

                               ORCHESTRAS

    Supported by a network of musicians, volunteers, administrators, 
and community leaders, America's symphony, chamber, collegiate, and 
youth orchestras total more than 1,800, existing in every State and 
territory, with annual budgets ranging from less than $10,000 to more 
than $90 million. More than half a million individuals are involved in 
orchestras, including conductors, staff, board members, musicians, and 
volunteers. Orchestra revenue totaled $1.69 billion in 2008-2009, and 
their economic impact exceeds several times that amount as orchestras 
create jobs, engage in commerce with local businesses, and spur local 
expenditures on related goods and services. NEA grants to orchestras 
and the communities they serve support arts education for children and 
adults, expand public access to performances, preserve great classical 
works, and foster the creative endeavors of contemporary classical 
musicians, composers, and conductors. Orchestras now offer nearly 
13,000 education concerts, more than 1,000 community engagement 
concerts, and more than 40 kinds of programs, including pre-school 
programs; in-depth, multi-year community residencies; and long-term 
partnerships with schools, instrumental instruction, educational 
classes for seniors, and programs in libraries and hospitals.

                                THEATRE

    In 1961, nonprofit theatre in America consisted of only 16 theatre 
companies. Today, thanks in large measure to the pivotal role played by 
the NEA since 1965, the nonprofit theatre field consists of more than 
an estimated 1,800 theatres located in major metropolitan centers, 
urban neighborhoods, suburbs, and rural communities. Theatre 
Communications Group (TCG), the national organization for the American 
nonprofit theatre, reports that the estimated 1,807 nonprofit 
professional theatres in the United States employ more than 119,800 
theatre workers--actors, directors, playwrights, designers, 
administrators, and technicians--and constitute a nearly $1.9 billion 
industry. Collectively, these theatres are estimated to have offered 
163,000 performances that attracted 31 million patrons. Based on recent 
surveys of 171 nonprofit theatres, TCG reports that more than 1,100 
outreach and educational programs are in existence today, serving more 
than 2.5 million people. The direct impact of a theatre receiving 
funding from the NEA comes not only in the form of project grants, but 
also in the multiplier effect that NEA grants, through its matching 
funds requirement, have on theatres' abilities to leverage and attract 
other private and public funding.

                               CONCLUSION

    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The NEA is an investment that 
realizes significant returns on the Federal dollars invested, both 
measurable and intangible. We urge you to designate no less than $155 
million to the NEA. Thank you for your consideration of our request.
                                 ______
                                 
     Prepared Statement of the Pennsylvania Fish & Boat Commission

Introduction
    The Pennsylvania Fish and Boat Commission (PFBC) is submitting the 
following statement supporting two complementary programs:
  --the State and Tribal Wildlife Grant (SWG); and
  --Aquatic Nuisance Species (ANS) Plan funding.
    The SWG Program is directed at protecting and recovering native 
species of greatest conservation need, whereas the Aquatic Nuisance 
Species (ANS) Plan funding helps to prevent and reduce aquatic nuisance 
species which pose a serious threat to native flora and fauna.
State and Tribal Wildlife Grants Program
    The Pennsylvania Fish and Boat Commission (PFBC) respectfully urges 
your consideration for continued support of the State and Tribal 
Wildlife Grants (SWG) Program for fiscal year 2013. This appropriation 
to Pennsylvania and other States is crucial for slowing and reversing 
the decline of imperiled species. In the past decade, the SWG Program 
has become an integral component in the Commonwealth's wildlife 
conservation efforts and crucial to implementation of federally 
required State Wildlife Action Plan. State Wildlife Grants are matched 
with non-Federal funds from a variety of State and nongovernmental 
partners, thus allowing even greater work to be conducted. With 
increasing financial stresses on States and their partners, maintaining 
the Federal/non-Federal match rate of 65:35 is an important aspect of 
the program.
    The Congress has had the exceptional foresight to recognize that 
endangered species prevention provides fundamentally efficient use of 
taxpayer dollars, and early intervention is the most-effective 
approach. As a Federal cooperative effort with the States and tribal 
entities, State Wildlife Grants provide preventative care of natural 
resources. This is the core program for preventing the listing of 
endangered species and for the recovery of declining fish and wildlife. 
In Pennsylvania, the Fish and Boat Commission, through SWG-funded 
projects, has gained incredibly valuable information about the 
distribution and abundance of species, for which we previously had 
minimal data. Consequently, we have been able to delist 10 species from 
the State threatened and endangered species list because we found the 
populations of these species to be sufficiently abundant to preclude 
listing as threatened or endangered. These new data have also 
highlighted low abundances of other species toward which we can further 
expect to direct additional efforts to help recover their populations 
to help avoid Federal listing.
    Additionally, the SWG Program has allowed the Commission and our 
partners to implement proactive projects that have benefitted several 
of the Commonwealth's most vulnerable species and habitats. Direct 
habitat restoration, exemplified by the Commission's nationally 
renowned fish passage program, has resulted in the removal of more than 
170 small dams since 2004. This habitat restoration improves water 
quality and opens critical habitat for numerous species of greatest 
conservation need. Further, through our environmental review process, 
funded by SWG, we are able to make prudent and appropriate decisions 
that protect species and their habitats while advancing societal needs. 
Increasing pressures from a variety of stressors and threats make the 
value of this program an essential part of species protection.
    State Wildlife Grants funds are vital for statewide efforts to 
monitor and manage at-risk species populations, manage and restore 
their critical habitats, and prevent further species decline. The 
projects supported by State Wildlife Grants have improved public 
safety, served private landowners, supported small business 
contractors, and provided targeted management attention in every 
congressional district of the Commonwealth. This proactive and 
nonregulatory program, that ensures cost-effective matching funds, 
provides a large return on a relatively small Federal investment.
Aquatic Nuisance Species Plans
    We also respectfully urge your consideration for continued support 
of funding for implementation of State Aquatic Nuisance Species (ANS) 
Plans. ANS in Pennsylvania are of ever-increasing concern to 
Pennsylvania's $3.4 million fishing and boating industry that supports 
nearly 18,000 jobs and generates $120 million in annual State and local 
tax revenues. A few examples with economic and ecological impacts, that 
have either been recorded in Pennsylvania, or are a potential threat 
include; the fish virus viral hemorrhagic septicemia (VHS), zebra and 
quagga mussels, the algal didymo, and fishes such as the round goby, 
Eurasian ruffe and Asian carp--Pennsylvania Sea Grant Aquatic Invasive 
Species: http://seagrant.psu.edu/publications/ais.htm.
    Yet, despite the negative economic and ecological impacts posed by 
these diverse ANS, State funding is inadequate, and most of 
Pennsylvania's Federal funding to address this problem is received 
through the Great Lakes Restoration Initiative (GLRI), which is focused 
on critical needs associated with the Lake Erie area. The ANS Plan 
funding is the primary Federal funding available for use statewide, 
without geographic restriction.
    In Pennsylvania, the ANS Plan funds support Pennsylvania Sea Grant 
initiatives to work with watershed associations, angling groups, 
boating organizations, diving groups, State agencies, and other 
interested parties to conduct programs and develop outreach materials 
to emphasize the steps that can be taken to prevent the spread of ANS. 
This outreach effort is emphasizing both the national Stop Aquatic 
Hitchhikers! campaign message and the Pennsylvania Clean Your Gear 
campaign message. It also supports Pennsylvania's participation in 
regional ANS coordination efforts like the Mid-Atlantic ANS Panel and 
the Great Lakes ANS Panel, because ANS movement is not limited by State 
boundaries.
    ANS Plan funding has been used to support the aquatic nuisance 
(invasive) species workgroup of the Pennsylvania Invasive Species 
Council, help develop a model rapid response plan, conduct early 
detection and monitoring work for certain species, and develop an ANS 
prevention sign for boat ramps that is now used by multiple agencies 
across the Commonwealth.
    Addressing ANS requires a diverse approach with prevention as the 
initial effort. Once established, aquatic nuisance species can wreak 
substantial negative ecological and economic impacts on native flora 
and fauna. Preventative action is crucial to avoiding the cost and 
ecological degradation that accompanies the establishment of these 
aquatic invaders. As part of this prevention effort, education and 
outreach provide the public, and all who may be impacted, with the 
information needed to prevent or slow ANS transmission. Pennsylvania 
Sea Grant has been a vital partner in providing this outreach. Special 
initiatives such as ``clean your gear,'' ANS fact sheets, presentations 
and other outreach efforts provide anglers and boaters with information 
that can help reduce the inadvertent spread of ANS among waterbodies. 
Early Detection and Monitoring can help reduce the establishment and 
spread of ANS by providing an opportunity to control and potentially 
eradicate an ANS before it is firmly established and broadly 
distributed. Research to help repress, and perhaps eliminate, ANS is 
another important facet in this effort to control these undesirable 
species. ANS often demonstrate dramatic growth in abundance and 
distribution after establishment, so measures to control and contain 
the invasion may reduce the resulting outcomes from their occurrence.
    Without the continued State ANS Plan funding, State agencies and 
organizations will not have the necessary tools to leverage other 
monies and resources to continue to implement this important program 
which can have profound ecosystem, public health, and economic impacts. 
In addition to these significant concerns posed by expansion of aquatic 
nuisance species, aquatic nuisance species threaten Pennsylvania's 
diverse native flora and fauna. This ANS plan funding is crucial to 
maintain our natural heritage for future generations.
                                 ______
                                 
               Prepared Statement of PNM Resources, Inc.

    I am requesting your support for fiscal year 2013 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program consistent with the President's recommended 
budget. I request that the subcommittee:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element within 
        the $81,709,000 item entitled ``Recovery'') to the U.S. Fish 
        and Wildlife Service (FWS) to allow FWS to continue its 
        essential participation in the Upper Colorado River Endangered 
        Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Recovery'' funds for the San Juan 
        River Basin Recovery Implementation Program to meet expenses 
        incurred by FWS's Region 2 in managing the San Juan Program's 
        diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $43,189,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS's Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.
    I request the subcommittee's assistance in assuring fiscal year 
2013 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
                                 ______
                                 
               Prepared Statement of Preservation Action

                                REQUEST

    $46.925 million in appropriations (level funding) from the Historic 
Preservation Fund for State Historic Preservation Offices (SHPOs).
    $9.7 million in appropriations from the Historic Preservation Fund 
for Tribal Historic Preservation Offices (THPOs).
    $10 million in appropriations from the Historic Preservation Fund 
for a Historic Preservation Grant Program run through SHPO offices.
    $17.4 million in appropriations (level funding) from the 
Preservation and Recreation Account for National Heritage Areas.

FUNDING FOR THE HISTORIC PRESERVATION FUND AND FOR THE PRESERVATION AND 
 RECREATION ACCOUNT--CORE SOURCES OF FUNDING FOR THE FEDERAL FUNCTIONS 
       OUTLINED IN THE NATIONAL HISTORIC PRESERVATION ACT OF 1966

    Thank you Chairman Reed, Ranking Member Murkowski, and members of 
the subcommittee for the opportunity to submit testimony. We would like 
to respectfully request $66.2 million in appropriations for the 
Historic Preservation Fund (HPF). Recognizing our Nation's economic 
challenges, this number represents a funding level approximately 17 
percent less than fiscal year 2010, and about 18 percent higher than 
the President's request--but still substantially less than 50 percent 
of the $150 million authorized from the HPF each year. We would also 
like to request level funding for National Heritage Areas of $17.4 
million, paid for out of the Preservation and Recreation account.
    Beginning with the HPF, we ask that this funding be allocated at 
$46.925 million for State Historic Preservation Officers (SHPOs), which 
is level with fiscal year 2012 and equal to the President's request, 
$9.7 million for Tribal Historic Preservation Offices (THPOs)--which is 
a slight increase of 10 percent, and $10 million for a fully 
competitive historic preservation grant program administered by the 
SHPOs in consultation with the National Park Service. This would 
restore some degree of programmatic capabilities lost with the 
elimination of funding for Save America's Treasures and Preserve 
America in fiscal year 2011.
    SHPOs carry out a substantial portion of our Federal historic 
preservation program that provides citizens the tools needed to 
revitalize, rehabilitate, and protect the places that give meaning to 
America. They also assure State and local input into the designation of 
the cultural resources that are important to them. Funding for SHPOs, 
leverages investments through local jobs, non-Federal contributions and 
long-term economic development. In 2011, the Rehabilitation Tax Credit, 
administered by SHPOs, leveraged more than $4 billion in private 
investment and created more than 55,000 jobs. SHPOs, as required by the 
National Historic Preservation Act, also review Federal projects for 
their potential impact on historic sites. In 2011, 140,600 projects 
were reviewed. Another vital component administered by the SHPOs, the 
Certified Local Government Grant program, provided small grants and 
assistance to 1,800 communities throughout the Nation.
    THPOs carry out many of the same functions as SHPOs, but on tribal 
lands. While the THPOs are exempt from matching requirements, over the 
life of this program, tribes overmatch the Federal funds by a factor of 
between 5 and 10 to 1. There are currently more than 130 THPOs, 
compared to only 12 in fiscal year 1996 when the program was first 
funded. Unfortunately, the amount of funding annually appropriated to 
the THPO program has not kept pace with this expansion. It is important 
to keep in mind that this expansion is the result of the recognition of 
tribes, not from out of control growth of a program. Thus, the addition 
of new THPOs each year without additional funding actually means 
substantial budget cuts for the tribes recognized by the program. With 
the growing popularity of outdoor recreation, tourism and amateur 
treasure-hunting, under-funding this program jeopardizes the 
irreplaceable cultural artifacts from thousands of years of 
civilization.
    We also respectfully request $10 million for the establishment of a 
fully competitive historic preservation grant program administered by 
SHPOs. Recognizing the difficult economic times we are in, and our 
country's need to better leverage our existing programs, this request 
represents only one-third of the total previously funded through the 
Save America's Treasures and Preserve America programs. In fiscal year 
2011, funding for the Save America's Treasures and Preserve America 
programs--collectively representing slightly more than $30 million was 
completely eliminated, leaving no dedicated Federal funding stream 
solely for the purpose of restoring, rehabilitating and surveying 
historic places of national importance. The justification for this, as 
published in the Interior Budget in Brief document last year, was so 
that the National Park Service could ``focus available resources on 
managing national parks and other primary responsibilities.'' We take 
great exception to this observation.
    The Organic Act of 1916 created the National Park Service in the 
Department of the Interior ``. . . to conserve the scenery and the 
natural and historic objects and the wild life therein . . .'' Since 
1933, the NPS has managed the Historical American Buildings Survey, the 
Federal Government's oldest historic preservation program responsible 
for the creation of more than 556,900 measured drawings, large-format 
photographs, and written histories for more than 38,600 historic 
structures and sites. The National Historic Preservation Act of 1966, 
which forms the basis of our Nation's Federal historic preservation 
program within the Department of the Interior, further expanded the 
role of the NPS in the designation and maintenance of historic 
resources. Coupled with the fact that the NPS is the steward of more 
than 27,000 significant structures, 66,000 archaeological sites and 115 
million objects in museum collections, one could argue that not only is 
historic preservation a core part of the mission of the NPS, it helps 
define it.
    We would be happy to work with a broad group of legislators, 
preservationists, agencies and organizations to define the program to 
meet strict performance metrics--assuring a sensible and balanced 
program for restoring and sustaining our places of national 
significance and a good return on investment.
    We are also seeking level funding ($17.4 million) for National 
Heritage Areas, paid for out of the National Recreation and 
Preservation Account. National Heritage Areas, of which there are 49, 
have been individually designated by the Congress because their 
natural, cultural, historic, and scenic resources are considered 
uniquely representative of the American experience. While the National 
Park Service provides technical assistance and funding, 85 percent of 
the support for National Heritage Areas comes from the impacted regions 
through private, State, and local government sources. The Federal seed 
monies provided have spurred grassroots conservation efforts that are 
self-determining, self-defined and thereby reflective of their 
individual values in a national context.
    Recognizing concern about the sustainability of Heritage Areas, 
recently, legislation has been introduced, which Preservation Action 
supports, that would formally define the program and establish 
performance metrics, and paths to self-sufficiency--so that we can get 
the best return on our national investment. The administration's 
proposed 50-percent reduction in funding for National Heritage Areas, 
so that they can focus resources on park operations and other critical 
partnership programs is disingenuous. In past attempts to cut this 
funding, Interior and the NPS have cited the lack of the program 
legislation that is now on the table--when they know full well of its 
existence--because they helped to draft it. Cutting funding by 50 
percent because the legislation does not exist yet is 
counterproductive--unfairly harming the very program they are 
attempting to better define. Given the economic value of Heritage 
Areas, the number of jobs they produce (estimated at 152,324, paying 
$3.2 billion in wages), and their ability to tie together history, 
place, tourism and environment--we believe they are a good investment 
and support small business.

           THE NATIONAL PARK SERVICE IS MORE THAN JUST PARKS

    Preservation and conservation are intertwined. In implementing the 
National Historic Preservation Act, there was recognition of this fact 
by placing the primary responsibility for both federally owned and non-
federally owned resources of national significance within the 
Department of the Interior, who subsequently assigned responsibilities 
to the National Park Service. Yet there seems to be an ongoing tension 
between natural resources or ``parks'' and their broader 
responsibilities for nonpark based ``partnership programs.'' In the 
administration's budget, we see continued level funding for SHPOs and 
THPOs, no funding replacing the $30 million in project grants 
eliminated by not funding Save America's Treasures and Preserve 
America, a 50-percent cut to National Heritage Areas, a $1.4 million 
reduction in cultural resource stewardship, and reduced funding for 
construction and major maintenance (in the face of an enormous 
maintenance backlog and the fact that only 58.5 percent of our historic 
structures are considered to be in good condition). At the same time 
there is $215 million proposed for natural resource stewardship 
programs (twice the amount of cultural), and a proposed increase of 
$104 million to the Land and Water Conservation Fund--used primarily 
for land acquisition. We should be prepared to increase our investment 
in preserving the very assets we already own as well as new ones.
    Based upon several years of similar trends, this past year, 
Preservation Action convened a Task Force consisting of eleven national 
historic preservation organizations, examined this problem, and 
published a series of findings and recommendations in a report called 
``Aligned for Success, Recommendations to Increase the Effectiveness of 
the Federal Historic Preservation Program.'' Among the Task Force's 
findings are that the current structure of the Federal historic 
preservation program does not ``provide for the levels of leadership, 
public and private partnerships, advocacy, innovation and visibility 
required to realize the transformative vision for historic preservation 
set forth in the 1966 Act.'' The Task Force also found that there 
exists a competition for resources between park-based and nonpark-based 
cultural resources--a finding directly related to the funding choices 
made by the National Park Service.
    To correct the problem, the Task Force recognizes that visibility 
for the historic preservation program is key so that it can get the 
resources needed to fully realize the vision of the National Historic 
Preservation Act. These no-nonsense solutions don't require tremendous 
a lot of funding--attempting to maximize return on investment, and 
better positioning existing resources:
  --Realign the responsibilities for Preservation Partnership Programs 
        within the National Park Service under a Deputy Director for 
        Historic Preservation and Heritage who reports to the Director 
        of the National Park Service.
  --Designate a Senior Policy Officer for Historic Preservation and 
        Heritage in the Department of Interior as a Special Advisor for 
        Heritage to the Secretary of the Interior.
  --Make the Advisory Council on Historic Preservation Chairman a full-
        time position.
  --Designate a senior staff position for historic and cultural 
        resources on the President's Council on Environmental Quality 
        (CEQ).
    We would welcome the opportunity to work with members of this 
Committee to find a way to facilitate these changes, and to provide 
encouragement or instruction to the National Park Service and the 
Department of the Interior to make them happen. The result would be a 
more-effective program, and one better able to sustain itself while at 
the same time focusing on our national heritage.
    Our Nation's cultural resources and natural resources are both 
important. We believe that they should not be an either-or proposition. 
Further, during this time of economic challenge, and widespread 
discussion on investments in infrastructure, we respectfully ask that 
you consider investment in our cultural resources, the preservation of 
our heritage, and the jobs that go along with historic preservation as 
a vital part of the solution.
    Preservation Action is a nonprofit grassroots advocacy organization 
founded in 1974. Our membership is made up organizations and 
individuals throughout the United States who share an ongoing interest 
and concern in our Nation's Federal historic preservation programs.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the fiscal year 2013 appropriations 
for American Indian and Alaskan Native programs. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians. The 
Puyallup Tribe is an independent sovereign nation having historically 
negotiated with several foreign nations including the United States in 
the Medicine Creek Treaty of 1854. This relationship is rooted in 
Article I, Section 8, of the United States Constitution, Federal laws 
and numerous Executive orders. The governing body of the Puyallup Tribe 
of Indians is the Puyallup Tribal Council which upholds the tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,416 Puyallup tribal members and the 25,000 plus 
members from approximately 355 federally recognized tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061-acre 
reservation is a ``checkerboard'' of tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities:
  --Edgewood;
  --Federal Way;
  --Fife;
  --Milton;
  --Puyallup; and
  --Tacoma.
    The following written testimony being submitted to the U.S. Senate 
Appropriations Interior, Environment, and Related Agencies Subcommittee 
documents the Puyallup Tribe's views on the President's fiscal year 
2013 Federal budget. On February 13, 2012, President Obama delivered 
his fiscal year 2013 budget to the Congress. The budget proposal 
focuses on job creation and the beginning steps to reducing the 
Nation's projected deficits. Within the budget, $2.5 billion is 
provided for the Operation of Indian Programs. This represents an 
overall increase of $4.6 million from current levels. For the Indian 
Health Services (IHS), $4.422 billion is provided, an increase of 
$115.9 million more than the fiscal year 2012 enacted level. We 
appreciate the increased funding provided for the operation of Indian 
programs within the Bureau of Indian Affairs (BIA) and IHS. However, 
the years of inadequate funding and the effects of inflation has 
impacted the tribe's ability to fully exercise self-determination and 
self-governance. As negotiations proceed on the fiscal year 2013 budget 
and future appropriations, efforts to insure adequate funding is 
provided for the operation of Indian programs will be paramount. To 
preserve the increased funding levels realized in recent years and 
contained in the proposed fiscal year 2013 budget for BIA and IHS, the 
increases should be viewed by the Congress and the administration as 
new ``base funding'' amounts with annual increases to meet actual need. 
Specific issues and needs are:
Department of the Interior--Bureau of Indian Affairs
    Public Safety and Justice.--The fiscal year 2013 budget request 
includes $353.8 million for BIA Public Safety and Justice. This 
represents a $8.4 million increase more than the fiscal year 2012 
enacted level which is fully supported by the Puyallup Tribe. The $88.1 
million for tribal and BIA detention and corrections funding is of 
great importance to the Puyallup Tribe. Within this amount, $6.3 
million increase is directed to fund operations and O&M costs at newly 
constructed facilities. While this increase is supported by the 
Puyallup Tribe, it is of concern that current and ARRA funded 
facilities will remain understaffed. It is estimated that 373 positions 
are needed to fully staff existing direct service facilities and Public 
Law 93-638 contracted facilities. The Department of Justice funded 13 
tribes for the construction and/or expansion of detention facilities. 
According to the BIA Greenbook, five new or expanded facilities will 
become operational by the end of fiscal year 2013. It is estimated that 
186 additional staff will be needed to operate these facilities. In 
fiscal year 2009, the Puyallup Tribe received a Department of Justice 
ARRA grant, in the amount of $7.9 million to construct a 43 bed adult 
corrections facility. The tribe has mobilized the Project Team, 
addressed all Special Conditions of the Grant Award, completed facility 
environmental documentation, design and established a Groundbreaking 
Ceremony for spring/summer 2012. The Project will be completed and be 
coming online by the end of the third quarter of fiscal year 2013. Over 
the past 2 years the Puyallup Tribe has been working closely with the 
BIA-Office of Justice Services National and Regional staff on 
identifying the future operating and staffing costs associated with the 
Puyallup Tribe's new adult corrections facility. The Puyallup Tribe has 
submitted a Public Law 93-638 contract request to the BIA for 
Operations and Maintenance funding for the new facility, including Pre-
Award, Start-up, Transitional funding, Staffing and O&M funding. We are 
requesting support from the subcommittee on our contract request to the 
BIA for the O&M funding for the Tribe's Adult Corrections facility, 
estimated at $3.1 million annually. Further, the Puyallup Tribe 
requests the subcommittee support to increase funding for BIA 
Detention/Corrections by $32.2 million to reflect actual funding need. 
In addition, we have submitted a Public Law 93-638 contract request to 
the BIA for tribal court funding, including pre-award and start-up 
funding. In fiscal year 2012, the BIA was able to fund only one-third 
of actual need of pre-award and start-up funding requests. We are 
requesting support from the subcommittee on our contract request for 
tribal court funding and to fund pre-award and start-up funding at 100 
percent level of need, approximately an increase of three times the 
fiscal year 2012 base funding.
    Natural Resources Management.--The Puyallup Tribe as stewards for 
land and marine waters in the Usual and Accustomed fish, shellfish and 
wildlife areas has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
tribal membership and the regional communities. Despite our diligent 
program efforts, the fisheries resource is degrading and economic 
losses are incurred by Native and Non-native fishermen and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous, non-anadromous 
fish, shellfish and wildlife resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. For 
fiscal year 2013, $8.660 million is provided for BIA Western Washington 
Fisheries Management, a small increase more than the fiscal year 2012 
enacted level of $8.257. The Puyallup Tribe agrees with the Northwest 
Indian Fisheries Commission (NWIFC) request of $17.146 million for 
Western Washington Fisheries Management. The $8.486 million increase in 
funding would provide new monies for shellfish, groundfish, 
enforcement, habitat, wildlife and other natural resource management 
needs. As the aboriginal owners and guardians of our lands and waters 
it is essential that adequate funding is provided to allow tribes to 
carry out our inherent stewardship of these resources. The Puyallup 
Tribe will continue to secure increased funding for Hatchery Operations 
and Maintenance. The President's fiscal year 2013 budget contains 
$4.838 million for tribal hatcheries, compared to the fiscal year 2012 
budget request of $5.452 million. The Puyallup Tribe supports the NWIFC 
recommendation to fund the Fish Hatchery Maintenance at $5.452 million, 
an increase of $614,000 more than the President's fiscal year 2013 
request. The Timber, Fish and Wildlife (TFW) Supplemental and U.S./
Canada Pacific Salmon Treaty programs has allowed for the expansion of 
tribal participation in the State forest practice rules and regulations 
and participation in inter-tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations, and resource management practices. We request 
subcommittee support to provide funding for the TFW at the President's 
request of $2.777 million and U.S./Canada Pacific Salmon Treaty program 
at $4.8 million, an increase of $436,000 more than the President's 
request of $4.364 million. The Puyallup Wildlife Management program has 
been the lead agency in management activities to benefit the South 
Rainier elk herd since 2004. The South Rainier elk herd is the primary 
stock of elk harvested by the Puyallup Tribe. The tribe has not only 
established more reliable methods for population monitoring, but has 
also been proactive in initiating habitat enhancement projects, 
research and land acquisition to ensure sustainable populations of elk 
for future generations. Funds that are available to the tribe have been 
on a very competitive basis with a limited amount per program via USFWS 
Tribal Wildlife grants and the BIA Unresolved Hunting and Fishing 
Rights grant program. We request subcommittee support to provide base 
funding to the Tribes Wildlife Management Program in the amount of 
$100,000 through the BIA Unresolved Hunting and Fishing Rights program 
in fiscal year 2013 appropriations.
    Education.--The fiscal year 2013 budget requests funding of $795 
million for the Education program, a decrease of $3.8 million from 
current levels. We operate the pre-K to 12 Chief Leschi Schools which 
included a verified 2008-2009 School student enrollment of 910 plus 
students, including ECEAP and FACE programs. With an increasing number 
of pre-kindergarten enrollment, Chief Leschi Schools will exceed design 
capacity in the near future. Additional education facility space will 
be required. Additional, the cost of operation and maintenance of the 
Chief Leschi School facilities continues to increase in the areas of 
supplies, energy and student transportation costs. The tribe will work 
with the Congress and the BIE to increase funding in fiscal year 2012, 
including:
  --Tribal Grant Support Cost for Tribally Operated Schools--$72.3 
        million; Student Transportation--$73 million;
  --School Facilities Accounts--$109.8 million in facilities operations 
        and $76 million in facilities maintenance; and
  --Indian School Equalization Formula--$431 million.
    Operations of Indian Programs and Tribal Priority Allocations.--The 
President's fiscal year 2013 budget is in drastic need for increased 
funding for the BIA Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support ongoing services at the ``local tribal'' level, including; 
natural resources management, child welfare, other education, housing, 
and other tribal government services. These functions have not received 
adequate and consistent funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases TPA has received over the past few years has not been 
adequate to keep pace with inflation. The Puyallup Tribe is requesting 
support from the subcommittee to fund the Operation of Indian Programs 
at the fiscal year 2013 request of $2.5 billion and Tribal Priority 
Allocations at a minimum of $897,436 million, an increase of $6,366 
million of the fiscal year 2012 enacted level. We further request 
support from the subcommittee to increase funding for Indian Child 
Welfare (TPA) by $45 million; increase Urban Indian Child Welfare 
programs by $15 million; and increase BIA Child Welfare Assistance by 
$55 million.
Department of Health and Human Services--Indian Health Service
    The Inadequate funding of IHS is the most substantial impediment to 
the current Indian Health system. The Puyallup Tribe has been operating 
healthcare programs since 1976 through the Indian Self-determination 
Act, Public Law 93-638. The Puyallup Tribal Health Authority (PTHA) 
operates a comprehensive ambulatory care program to the Native American 
population in Pierce County, Washington. The current patient load 
exceeds 9,000, of which approximately 1,700 are tribal members. There 
are no IHS hospitals in the Portland area so all specialties and 
hospital care have been paid for out of our contract care allocation. 
The Contract Care allocation to PTHA has been significantly inadequate 
to meet the actual need since fiscal year 2004 when the Puyallup Tribe 
subsidized Contract Health with a $2.8 million contribution. By fiscal 
year 2012 the tribal subsidy had reached a staggering $6 million. Given 
that the PTHA service population is only comprised of 17 percent 
Puyallup tribal members, tribal budget priorities in fiscal year 2011 
and 2012 has made continued subsidies to the PTHA financially difficult 
for the Puyallup Tribe. The fiscal year 2013 budget requests $5.5 
billion in discretionary budget authority for IHS. This represents a 
$115.9 million increase more than the fiscal year 2012 enacted level. 
For Health Services programs the fiscal year 2013 budget request is 
$3.978 million, an increase of $112 million more than the fiscal year 
2012 enacted level. Included within the increases are funding for 
Contract Support Costs ($476.4 million), Contract Health Services 
($897.5 million), and Alcohol and Substance Abuse funding ($195 
million). The Puyallup Tribe fully supports funding increases for 
existing IHS programs and will work the Congress to continue efforts to 
increase funding for IHS and the critical programs administered by this 
Agency.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation

    ``The Great Spirit bestowed life to all of us . . . including the 
animals, birds, fish, insects, and plants. Our collective Native 
warnings and predictions were ignored in the rush to capitalize and 
exploit the bountiful resources of the land. Countless irreplaceable 
species are preserved now in museums or documents in textbooks. As the 
consequences of unmanaged exploitation and pollution reach irreversible 
proportions, the United States heeded our centuries old appeals for 
environmental protection. We only hope it's not too late and that 
Mother Nature's wounds can still be healed. We will continue to serve 
as the environmental conscience to the Nation and the world.''----
Joseph B. DeLaCruz, President, Quinault Indian Nation, 1972-1993

    In the spirit of these profound words of our former President, I am 
honored to appear before this Committee on behalf of the Quinault 
Indian Nation and provide testimony on our priority requests and 
recommendations on the fiscal year 2013 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS).
Tribal Specific Priority Requests
    $8.714 million a Year for Blueback Restoration (for 2013-2020)--
BIA.
    $4.64 million for Substance Abuse and Comprehensive Drug Strategy 
Plan--BIA and IHS.
    $2.21 million for the McBride Road Maintenance and Emergency 
Reservation Exit--BIA.
Support Local/Regional Requests and Recommendations
    Affiliated Tribes of Northwest Indians.
    Northwest Portland Area Indian Health Board.
    Northwest Indian Fisheries Commission.
Support National and Self-Governance Budget Priorities
            Bureau of Indian Affairs
    Increase of $8.8 million to fully fund Contract Support Costs 
(CSC).
    Increase of $13.7 million to fully fund Fixed Costs/Pay Costs.
    Increase of $89 million for Tribal Priority Allocations.
    Fully fund all provisions of the Tribal Law & Order Act of 2010.
    Office of Self-Governance--Request not to consolidate in other 
division within Indian Affairs.
            Indian Health Service
    Increase of $99.4 million to fully fund Contract Support Costs 
(CSC).
    Increase of $200 million for Contract Health Services (CHS).
    Increase of $40 million for alcohol and substance abuse programs
    Increase of $304 million for Mandatory Costs to maintain current 
services
    Office of Tribal Self-Governance (OTSG)--Increase $5 million to the 
IHS OTSG
               justification for tribal specific requests
$8.714 Million Annually for Blueback Restoration (Annually From 2013-
        2020 = $61 Million)
    The Blueback Restoration Program is designed to halt the current 
habitat loss and deterioration and to repair and restore natural 
habitat forming processes and sockeye production on the Quinault 
floodplain. Conditions that will result from implementation of this 
program will benefit other salmon stocks in the system and will serve 
to protect private property and public infrastructure. The program plan 
calls for formation of public and private coalitions and partnerships 
to implement restoration actions.
    The Quinault River Blueback (Sockeye Salmon) Restoration Program 
will help to restore the natural beauty and productivity of the 
Quinault River Basin to historic levels, thus making it a more 
attractive tourism destination. In addition, the program will provide 
local construction jobs during its implementation phase, and the 
restoration program will result in conditions that will improve and 
sustain commercial and sport fishing on the Quinault River. The program 
will also benefit local residents and businesses by reducing the 
likelihood of flooding and property loss and increasing local economies 
both in the near and long-term future. Implementation of the 
restoration program will help avoid the burdensome and restrictive 
consequences of having the Quinault sockeye listed as threatened or 
endangered under provisions of the Endangered Species Act (ESA).
    This unique and valuable stock of salmon is near collapse due 
mostly to degraded habitats in the upper Quinault River Basin and in 
Lake Quinault. This habitat loss has occurred over the past century due 
to historic timber harvesting, property development, and infrastructure 
construction. Natural processes on the floodplain began unraveling in 
the late 1800s and the deterioration is continuing in the present time.
    This is a long-term project expected to take up to 20 years to 
complete structure placement and enhancement, including the engineering 
and material procurement, with full implementation occurring in the 
decades following as natural processes rebuild the habitat to historic 
conditions. Through successful efforts of this program, it will protect 
and restore the livelihoods of 100 commercial fishermen and 25 sport 
fishing guides in Grays Harbor and Jefferson Counties and the Quinault 
Indian Reservation.
    The program will also contribute partial support for approximately 
20 jobs in the fish processing industry in western Washington, thus 
improve the economic status of the families living in the communities 
within the Quinault Indian Reservation. The program will provide 
employment for 10-30 laborers and equipment operators in Grays Harbor 
and Jefferson counties during the construction phases of individual 
projects. This project will reverse adverse environmental impacts by 
restoring habitats and ecosystems of the Quinault River and Lake 
Quinault while at the same time stabilizing the river channel in 
efforts to protect infrastructure and property loss.
    The construction phase of this plan was implemented in the fall of 
2008 with the construction of 12 engineered log jams. With full funding 
as needed on an annual basis, the basic construction phase of this 
project is expected to be completed at the end of fiscal year 2020. 
Fertilization, data acquisition and monitoring will continue for many 
years.
$4.64 Million for Substance Abuse and Comprehensive Drug Strategy Plan
    The Quinault Indian Nation Substance Abuse and Comprehensive Drug 
Strategy Plan seeks to improve, integrate, and strengthen the overall 
health and services to protect the communities on the reservation from 
the significant risks related to drug production, sale, and use by 
targeting enforcement, outreach, prevention, stabilization, and harm 
reduction services to high risk-populations.
    The Quinault Indian Nation is located along the southwest coast of 
Washington State. We are facing ever-escalating threats of drug 
trafficking, narcotic distribution, gang activity and weapons 
offenses--leading to devastating social, health and environmental 
consequences including damage to the pristine ecosystems. It is 
documented that for every 1 pound of methamphetamine that is produced, 
there are 6 pounds of hazardous waste materials created.
    The regional topography renders us susceptible to drug smuggling 
and production. The Washington section of the U.S.-Canadian border is 
approximately 430 miles in length, a significant portion of which is 
vast, dense forest. The border has 13 official ports of entry (POEs), 
but the rest of the border is largely unpatrolled. Drug smugglers 
exploit the national parks and forests, as well as other forestlands 
and waterways adjacent to the border, to smuggle drugs into Washington. 
Similarly, the clandestine manufacturing of methamphetamine in this 
region is of epidemic proportions.
    To combat this problem, the Quinault Indian Nation Tribal 
legislative body (the Business Committee) formed and funded the 
Quinault Nation Narcotics Enforcement Team (QNNET) in September, 2011. 
Reporting directly to the Attorney General of the Quinault Indian 
Nation, QNNET works to prevent and suppress narcotic trafficking and 
drug use through intensive investigations. QNNET also collaborates and 
communicates with other local law enforcement agencies, the Department 
of Justice, elected officials and the community at large. During the 
first quarter of fiscal year 2012, we have made 48 arrests with 100 
percent convictions and confiscated heroin, meth, prescription drugs, 
weapons and explosives. Cases have been prosecuted in tribal, State, 
and Federal courts.
    The General Accountability Office (GAO) is currently conducting a 
study that will focus on:
  --the scope of border and security issues facing Indian country;
  --what tribes are doing to combat the problems; and
  --the challenges and successes in working with Federal partners.
    The Quinault Indian Nation will make a perfect case study for the 
GAO undertaking and gain National visibility for the collective and 
multi-jurisdictional efforts of law enforcement and behavioral health 
agencies.
    The Quinault Indian Nation's Substance Abuse component to the 
Comprehensive Drug Strategy Plan is part of a broader more 
comprehensive alcohol and drug strategy that recognizes the need to 
plan for the future. Quinault Indian Nation drug prevention and 
education programs are funded at 72 percent less than the national 
average per capita. To provide equivalent substance abuse prevention, 
treatment, and interdiction funding consistent with national levels, 
the Quinault Indian Nation must generate and budget $4,640,000 annually 
through Federal and State grants combined with tribal investment into 
these critical and vital programs. The estimated distribution of this 
annual budget need is:
      Prevention.--$1.8 million annually;
      Treatment.--$1.54 million annually; and
      Interdiction.--$1.3 million annually.
    The Nation has encouraged collaborative relationships among 
Government departments, health authorities, professionals, community 
members and families to create conditions that prevent drug use, treat 
drug users, educate the public, and hold offenders accountable and 
control access to supply while helping ensure safer communities.
    Most importantly, we have actively sought the guidance and wisdom 
of our elders and with the participation of our youth, community, 
churches and school districts we have undertaken a multidisciplinary 
approach and strategy, emphasizing prevention, enforcement, treatment 
and aftercare. Unfortunately, the best plans prove valuable only when 
the funding is available to execute and implement the strategy. We have 
found that at every level and in every discipline, funding to support 
our strategy is appallingly inadequate. We stress the urgent need to 
reclaim our communities to protect our families, our elders and our 
next seven generations from this menacing and deteriorating drug on the 
Quinault Indian Nation Reservation.
$2.21 Million McBride Road Maintenance and Emergency Reservation Exit 
        Route: BIA/Roads Maintenance Program
    The Quinault Reservation is located in Grays Harbor County in the 
village of Taholah, Washington; a rural isolated and economically 
deprived area. The village of Taholah lies in a tsunami danger zone. 
The site of the village is barely above sea level and experts have 
determined that the sea level is rising because of global warming 
patterns. For Taholah, tsunami is a health and safety risk factor that 
we must live with everyday. The Quinault Reservation is interlaced with 
thousands of miles of roads that are left over from large logging 
contracts that ended in about 1980. Most of these roads do not have the 
required right-of-way and do not receive funding for maintenance.
    The village of Taholah is accessible via SR 109 that parallels the 
Pacific Ocean. The McBride Road, a single forest road, is the only 
escapement route available to the 1,000 community members of the 
Quinault Indian Nation living in the village of Taholah. Its state of 
disrepair necessitates that immediate action be taken to bring the road 
up to a Class B gravel road status to be used in cases of emergency. 
The cost for this project is $876,500 to repair 10.75 miles and could 
be accomplished within a 3-month timeframe during dry weather 
conditions. The Project will create four new jobs in right-of-way 
acquisition and road engineering and will impact about 400 jobs of 
timber workers, fishermen, and fishing guides that rely on these roads 
for their livelihood.
    Major portions of this route are at sea level. What is particularly 
important to understand is that the portions of this road above sea 
level are susceptible to mudslides. Three such mudslides have occurred 
in the past 5 years. In a single event, the road blocked access for 3 
days. Medical needs for village people became an issue, while those in 
need of kidney dialysis were particularly affected. Some tribal members 
were able to evacuate the village by using another, longer alternate 
route. Still, this application is unsafe for use by the general public 
because the forests roads are not patrolled, well maintained, have 
limited signage and cell reception.
    Thank you for allowing me to provide this testimony on behalf of 
the Quinault Indian Nation.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries

    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to preserve the Nation's network of 
estuaries by protecting and restoring the lands and waters essential to 
the richness and diversity of coastal life. Restore America's Estuaries 
is a national alliance of 11 community-based organizations that protect 
and restore coastal and estuarine habitat. Our 11 member organizations 
include:
  --American Littoral Society;
  --Chesapeake Bay Foundation;
  --Coalition to Restore Coastal Louisiana;
  --Save the Sound--a program of the Connecticut Fund for the 
        Environment;
  --Conservation Law Foundation;
  --Galveston Bay Foundation;
  --North Carolina Coastal Federation;
  --People For Puget Sound;
  --Save The Bay--San Francisco;
  --Save the Bay--Narragansett Bay; and
  --Tampa Bay Watch.
    Collectively, we have more than 250,000 members nationwide.
    For fiscal year 2013, Restore America's Estuaries supports the 
following coastal programs and funding levels within the Department of 
the Interior and Environmental Protection Agency:
      Fish and Wildlife Service Coastal Program.--$14.87 million; and
      Environmental Protection Agency National Estuary Program.--$35 
        million.

               FISH AND WILDLIFE SERVICE COASTAL PROGRAM

    The Coastal Program is a voluntary, incentive-based program that 
provides technical and financial assistance to coastal communities and 
landowners to protect and restore fish and wildlife habitat on public 
and private lands. The Coastal Program works with other Federal, State, 
local, and nongovernmental partners and private landowners to deliver 
strategic habitat protection and restoration for the benefit of Federal 
trust species.
    Support for the management and stewardship of our coastal 
ecosystems that bridge land and sea has never been more important due 
to the accelerating pace of environmental change now occurring. While 
environmental degradation of estuaries has continued in recent years, 
the Coastal Program has been a key program aimed at on-the-ground 
habitat restoration. Despite the program's relatively small cost--it is 
having a huge impact on-the-ground. A recent estimate by USFWS Coastal 
Program staff show that the program leverages $8 non-Federal dollars 
for every Federal dollar spent--this makes the Coastal Program one of 
the most cost-effective habitat restoration programs within the U.S. 
Fish and Wildlife Service.
    Restore America's Estuaries has enjoyed a collaborative 
relationship, with the Coastal Program for many years. The nature and 
scope of our partnership spans the national and local levels as we work 
with CP headquarters on long-term issues, and locally the program works 
with our member groups through Regional CP staff to conduct on-the-
ground habitat restoration.
    As an example of a true partnership, the Coastal Program recently 
worked with RAE member Save The Bay--San Francisco as well as the San 
Francisco Bay National Wildlife Refuge to restore salt marsh on Bair 
Island. This project is helping to provide critical habitat for a 
variety of species, including the endangered California clapper rail 
and the salt marsh harvest mouse, and a number of birds that traverse 
the area on their journey across the Pacific.
    On the East Coast, the Coastal Program assisted RAE member 
Chesapeake Bay Foundation to choose and prepare a site to plant redhead 
grass near the Magothy River in Maryland. This is a good example of the 
invaluable technical assistance that the Coastal Program is able to 
provide to a nongovernmental organization, which can then better 
restore habitat for numerous migratory bird and interjurisdictional 
fish species.
    In the Gulf, the Coastal Program worked side-by-side with RAE 
member Galveston Bay Foundation to construct geotextile tube offshore 
breakwaters on Snake Island Cove. This effort has led to the protection 
of 200 acres of estuarine marsh from erosion and the creation of a 65-
acre calm shallow water area conducive to seagrass restoration.
    The Coastal Program also is essential in efforts to restore fish 
passage of anadromous fish populations and restore riverine habitat. 
RAE member Conservation Law Foundation worked with the Coastal Program 
and other regional partners to support the removal of dams along the 
Penobscot River as well as install fishways to restore native Atlantic 
salmon.
    Restore America's Estuaries urges your continued support and 
funding for USFWS Coastal Program. This program delivers habitat 
protection and restoration in priority coastal areas on both public and 
private lands through partnerships with other Service programs, Federal 
agencies, State and local agencies, tribal governments and native 
corporations, nongovernmental organizations, universities, 
corporations, and private landowners.
    Further, we believe that the Coastal Program's ability to work with 
coastal communities and landowners on both public and private lands has 
been key to the program's ability to deliver restoration of priority 
coastal habitats, including coral reefs, shorelines, marshes, wetlands, 
uplands, and rivers and streams.

                     USEPA NATIONAL ESTUARY PROGRAM

    The National Estuary Program is a nonregulatory, network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country program. The program 
utilizes a consensus-building process to identify goals, objectives, 
and actions that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each NEP focuses it work within a 
particular place or boundary called a study area which includes the 
estuary, and surrounding watershed.
    Restore America's Estuaries urges your continued support of the NEP 
and ask that you continue to invest directly in the stewardship of our 
Nation's coasts by ensuring that the authorized amount of $35 million 
be provided for the NEP for fiscal year 2013, and that of these funds 
each of the 28 NEPs in the field receive $1 million.

                               CONCLUSION

    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided for these important programs. These programs 
help to accomplish on-the-ground restoration work which results in 
major benefits:
      Jobs.--Coastal habitat restoration creates more than 30 jobs for 
        each $1 million invested. That's more than twice as many jobs 
        as the oil and gas sector and road constructions industries 
        combined.
      Leverage.--USFWS Coastal Program leverages non-Federal dollars at 
        a ratio of 8 to 1. In a time of shrinking resources, these are 
        rates of return we cannot afford to ignore and help to 
        accomplish more on-the-ground conservation.
      Fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
    We appreciate your taking our requests into consideration as you 
move forward in the fiscal year 2013 appropriations process and look 
forward to working with you to ensure the health of our Nation's 
estuaries and coasts.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation

    Chairman Simpson and distinguished members of the subcommittee, my 
name is George L. Thurman, and I am the Principal Chief of the Sac and 
Fox Nation. I thank you for the opportunity to present the Sac and Fox 
Nation's testimony before this esteemed subcommittee. We appreciate 
your dedication to righting the wrongs our people suffered in the past 
and suffer in the present. Thank you for supporting the increases for 
Indian programs. We understand the fiscal constraints of the Country 
and together we can provide a future that has many opportunities for 
self-sufficiency through Self-Governance.
    Sac and Fox Nation Tribal Specific Budget Requests:
  --Add $4.8 million to the Bureau of Indian Affairs Detentions/
        Corrections to fully funded the Sac and Fox Nation Juvenile 
        Detention Center; and
  --Direct the Assistant Secretary--Indian Affairs to continue the 
        Federal corporate charter for Sac and Fox--support tribal 
        economic development.
    National Budget Requests:
      Bureau of Indian Affairs:
        Contract Support Costs.--Fully fund $8.8 million increase 
            included in President's request
        Fixed Costs/Pay Costs.--Fully fund--Provide $13.7 million 
            increase
        Fully fund all provisions of the Tribal Law and Order Act of 
            2010
        Do not consolidate the Office of Self-Governance; must remain 
            stand-alone
      Indian Health Service:
        Contract Support Costs.--$99.4 million more than President's 
            request
        Mandatory Costs.--$304 million increase to maintain current 
            services
        Indian Health Care Improvement Fund.--$45 million increase
        Contract Health Costs.--$200 million increase
        Alcohol and Substance Abuse.--$40 million increase
        Office of Tribal Self-Governance.--$5 million increase
      Support the Requests of the National Indian Health Board
      Support the Requests of the National Congress of American Indians
About the Sac and Fox Nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled tribal members, 2,600 live in Oklahoma. 
We are proud pay tribute to a Sac and Fox descendent and Great Native 
American, Jim Thorpe. One of the most revered Olympic athletes who have 
ever represented the United States; Mr. Thorpe won the pentathlon and 
decathlon in the 1912 Olympics.
Tribal Specific Budget Requests--$4.8 Million for Juvenile Detention 
        Center
    The passage of the tribal Law and Order Act was applauded by the 
Sac and Fox Nation because we saw this as the opportunity for the 
Federal Government to finally fulfill the commitment to the Nation and 
fully fund our Juvenile Detention Center (JDC). In 1994, the Sac and 
Fox Nation Juvenile Detention Center (JDC) opened its doors after years 
of planning and construction made possible by funding from the 
Department of the Interior, Bureau of Indian Affairs. The JDC is the 
first juvenile facility designed for American Indians/Alaska Natives as 
well as the first juvenile facility developed under Public Law 100-472, 
the Self-Governance Demonstration Project. The JDC is a full service, 
24-hour juvenile detention facility that provides basic detention 
services to all residents to insure their health, safety, and welfare 
and provides programs tailored to meet the specific needs of our 
clients. These programs include behavioral management, substance abuse, 
spiritual, cultural, self-esteem, arts and crafts, health and fitness, 
horticulture, nutrition, life skills, counseling, and educational 
programs. The 39 tribes included in the Southern Plains Region will 
support the JDC but due to underfunding and staffing shortages, the JDC 
cannot accommodate the detention needs of the regional tribes.
    In recent appropriations testimony provided by Assistant Secretary 
Larry Echo Hawk, he requested $6.5 million for Detention/Correction and 
an additional 18 FTEs. We take great exception to the this request 
inasmuch as the Department of the Interior/Bureau of Indian Affairs has 
never provided the full funding that was committed for the 
appropriation, planning and construction process of the JDC. The Sac 
and Fox Nation, due to the failure of the full funding commitment by 
Federal officials not being honored, has had to utilize funds that 
could have been used for other social services needs. The Sac and Fox 
Nation is committed to working with the Department of the Interior/
Bureau of Indian Affairs officials in an effort to help them fulfill 
their financial commitment. With the promise of full funding realized, 
the JDC will be ready, willing and able to meet the needs of tribes who 
need our help in guiding their children toward a successful future 
while providing a culturally and spiritually sensitive environment.
    In fiscal year 2004, the Office of the Inspector General issues the 
report, ``Neither Safe nor Secure''--An Assessment of Indian Detention 
Facilities, citing the existence of serious safety, security, and 
maintenance deficiencies at detention centers throughout Indian 
Country. One of the primary recommendations was the need to identify 
and remedy staffing shortages whereby Indian Affairs responded that 
``current facilities still remain understaffed by a total of 373 
positions (74 positions for Indian Affairs direct service programs and 
299 positions for programs operated by tribes under Public Law 93-638 
and Self-Governance compacts).\1\ The Sac and Fox Nation is requesting 
that the Bureau of Indian Affairs recommits to funding for the JDC.
---------------------------------------------------------------------------
    \1\ Fiscal year 2013 U.S. Department of the Interior Budget 
Justifications--Green Book.
---------------------------------------------------------------------------
Tribal Specific Request--Federal Corporate Charter
    Since Federal recognition as an organized tribe, the Sac and Fox 
people have fought to maintain the well-being of our people. The Sac 
and Fox have persevered to maintain our sovereignty through history and 
into the era of Self-Governance despite broken treaties and inadequacy 
of Federal funding.
    Historically the people of the Sac and Fox Nation stood alongside 
many nations to seek and pave paths to new frontiers for all tribes in 
the United States. This is evident in our Supreme Court victory on May 
17, 1993 against the State of Oklahoma with regard to registering 
vehicles and issuing license plates for tribal members.
    Then, once again, the Sac and Fox Nation forged new territory in 
the seeking of Federal Corporate Charter in accordance with the Indian 
Reorganization Act of 1934 and the Oklahoma Indian Welfare Act of 1936. 
In 1987 the Sac and Fox Nation moved this exercise of Self-Governance 
forward with the signing of a Federal Corporate Charter by, then 
Assistant Secretary of Indian Affairs, Ross Swimmer. The key purposes 
of our Charter are to advance the standard of living of the tribe 
through the development of tribal resources, the acquisition of new 
tribal land, the preservation of existing land holdings, the better 
utilization of lands, the development of a credit program for the 
tribe, and the furtherance of economic industrial development within 
the tribal jurisdiction.
    In October 2007, after decades of attempting to place tracts of 
land into trust through the process administered by the Bureau of 
Indian Affairs, the Sac and Fox Nation placed 24 tracts of land into 
trust in accordance with our Federal Corporate Charter. Where trust 
applications had been disapproved in the past by the Bureau of Indian 
Affairs for reasons such as not having an easement despite the fact the 
Sac and Fox Nation owns the adjacent property, the Sac and Fox Nation 
placed these 24 tracts into trust in accordance with the Charter and 
Laws of the Sac and Fox Nation. On November 6, 2007, the Sac and Fox 
Nation issued notice of these actions to the Secretary of the Interior, 
the Southern Plains Regional Director of the Bureau of Indian Affairs, 
Oklahoma State agencies, and each respective County agency. The Sac and 
Fox Nation's peak of accomplishment was hit hard by opposition in a 
letter from the Bureau of Indian Affairs Southern Plains Region dated 
March 7, 2008 stating ``it is a well-established legal precedent, that 
absent the Secretary's approval of such conveyance, trust status is not 
imposed.'' The Sac and Fox Nation holds firm that Secretarial approval 
was granted in the signing of the Federal Corporate Charter. We stand 
strong behind the foresight of the leaders of the Sac and Fox Nation 
that held close the vision of improving the quality of life for our 
people through the economic development provisions of the 1987 Federal 
Corporate Charter.
    The insight of the leaders of the Sac and Fox Nation subsequent to 
those essential to the 1987 Federal Corporate Charter ignited the 
initiative to further extend the resources of the Sac and Fox Nation to 
improve the well-being of its people by the passing of a tribal 
resolution on May 13, 2008 petitioning the Secretary of the Interior to 
approve a second Federal Corporate Charter. Consultation with then 
Assistant Secretary of Indian Affairs, Carl Artman, at the 64th annual 
NCAI Convention and Trade Show held in Denver in November 2007 and in 
an audience granted during a trip to Muskogee, Oklahoma in the spring 
of 2008, led to the signing of a second Federal Corporate Charter on 
May 22, 2008. The significant intentions of the second Federal 
Corporate Charter were to advance the standard of living of the Nation, 
its citizens, other Indians, and other persons associated with the 
Nation, through the acquisition of new Indian land, the preservation 
and expansion of Indian land holdings, the development of natural 
resources, the better utilization of land, the development of credit 
programs for the acquisition, development, and improvement of lands and 
the reduction of fractionated heir ships. In addition the Nation could 
further explore economic and industrial development on Indian lands; 
promote economic self-sufficiency and political self-determination for 
Indian tribes and members of Indian tribes; encourage inter-tribal, 
regional, and international trade and business development in order to 
assist in increasing productivity, improving the standard of living of 
citizens of Indian tribes, and improving the economic self-sufficiency 
of the governing bodies of Indian tribes.
    Although the Sac and Fox Nation has two Federal Corporate Charters 
approved and signed by two former Assistant Secretaries of Indian 
Affairs, opposition has arisen again. The 2008 Federal Corporate 
Charter signed by former Assistant Secretary Carl Artman waits to be 
scrutinized by the Solicitor's office of the Department of the Interior 
in advisement to the National Indian Gaming Commission. A letter 
received from the National Indian Gaming Commission dated February 17, 
2012, states that ``the Office of General Counsel will coordinate with 
the Department of the Interior, Office of the Solicitor on whether the 
Indian lands definition is permissible under IGRA and whether such 
lands are eligible for gaming under IGRA.'' While Interior review was 
neither solicited nor warranted, the historical resistance of the 
Office of the Secretary of the Interior is peaking over the shoulders 
of the National Indian Gaming Commission. The current Assistant 
Secretary of Indian Affairs, Larry Echo Hawk, has diverted questions 
regarding Interior's position with regard to our Federal Corporate 
Charters to standard bureaucratic statements such as ``I cannot answer 
at this time as it is under review by the Office of Solicitor.'' 
Attempts to seek an audience with Assistant Secretary Echo Hawk are 
weighed down with a discouraging screening process while the fate of 
the economy of the Sac and Fox Nation gets lost in redtape. Assistant 
Secretary Echo Hawk's written testimony to the Senate Committee on 
Indian Affairs on the President's fiscal year 2013 budget request for 
Indian Programs in the Department of the Interior states the Department 
of the Interior is seeking an increase for $43.8 million in funding for 
the Strengthening Tribal Nations initiative yet the Department of the 
Interior does not support the Sac and Fox Nation's Federal Charters 
which require no increase in Federal funding and directly address the 
Bureau of Indian Affairs initiatives.
    The Sac and Fox Nation is proud to say we are a Self-Governance 
Tribe. Thank you.
                                 ______
                                 
      Prepared Statement of the Santa Monica Mountains Conservancy

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the National Park 
Service included $2.441 million for the acquisition of land at Santa 
Monica Mountains National Recreation Area. I am pleased that this 
funding was included in the request and urge the Congress to provide 
necessary funds for LWCF for this important project.
    Southern California is 1 of only 5 locations in the world that 
feature the Mediterranean biome (a geographically limited ecosystem). 
Characterized by mild, rainy winters and warm, dry summers, these 
ecoregions are moderated by the windward presence of cold ocean 
currents offshore. The landscapes in these areas are noted for the 
evergreen shrublands, called chaparral in California, which host very 
diverse, but spatially limited, ecosystems of flora and fauna. These 
Mediterranean biomes also present attractive climates for human 
habitation, leaving the ecosystems highly threatened by development. 
Protecting undeveloped lands in these fragile ecological areas has 
become especially urgent in the burgeoning Los Angeles metropolitan 
area.
    The Santa Monica Mountains National Recreation Area was established 
in 1978 to protect land in the mountains northwest of the Los Angeles 
basin. In creating this park, the Congress noted the region's important 
scenic, recreational, and historic resources, as well as the public 
health benefits from protecting lands in the Santa Monica Mountains. In 
addition to National Park Service lands, a number of State-owned lands, 
including Point Mugu, Leo Carrillo, Malibu Creek, and Topanga State 
parks and several State beaches, are located within the boundaries of 
the national recreation area.
    Available for acquisition in fiscal year 2013 is the 6.16-acre 
Ramirez Canyon property, which lies in the Zuma/Trancas Canyons area of 
the park. The Zuma and Trancas Canyons have been inhabited for more 
than 10,000 years. Ancestors of the Chumash Indians gathered food and 
found shelter in the canyons, which were later included in a Spanish 
land grant of 13,330 acres and became Rancho Topanga Malibu Sequit. 
Eventually the Pacific Coast Highway crossed the land, making its 
beauty accessible to travelers. Most of this land is now under National 
Park Service ownership, protecting its multitude of natural and 
historic resources, but a number of inholdings remain unprotected.
    This tract is part of a larger property that benefits from the 
year-round flow of Ramirez Creek, providing important riparian habitat 
shaded by sycamore trees. The tract itself predominantly contains oak 
woodlands habitat, which was identified in the California State 
Wildlife Action Plan as an underprotected ecological community type. 
Oak woodlands within the park support an array of wildlife, including 
native wildflowers, acorn woodpeckers, spotted towhees, valley quail, 
pocket gophers, gray foxes, mule deer, and perhaps even an occasional 
mountain lion. This land has been designated environmentally sensitive 
habitat under the California Coastal Act.
    The property has important linkages with already protected lands, 
including an invaluable trailhead providing access from Kanan Dume Road 
to the National Park Service lands at Zuma/Trancas Canyons. The land 
has been subdivided into developable parcels, and a ready access road 
adds to the development potential of the property. This is a critical 
time for Santa Monica Mountains NRA to acquire the Ramirez Canyon 
property, as delay will only increase the likelihood of residential 
housing adding to habitat fragmentation and environmental degradation.
    The National Park Service at Santa Monica has identified a number 
of additional properties for future acquisition, and it is important 
for the Park Service to continue the acquisition and protection of 
these ecologically, recreationally, and archaeologically important 
scenic lands. The fiscal year 2013 President's budget recommendation of 
$2.441 million through the Land and Water Conservation Fund will permit 
the acquisition of Ramirez Canyon and other important lands in the 
Zuma/Trancas Canyons.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Santa 
Monica Mountains NRA. I want to thank the Chairman and the members of 
the subcommittee for this opportunity to submit testimony on behalf of 
this nationally important protection effort in California, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
               Prepared Statement of the Sawtooth Society

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Forest 
Service (USFS) included an allocation of $500,000 for the Salmon-Selway 
Initiative in Idaho's Sawtooth National Recreation Area. I am pleased 
that this funding was included in the request and urge the Congress to 
provide necessary funds for LWCF to finish this important project.
    Located in central Idaho, the Salmon-Selway Ecosystem, totaling 
almost 4 million acres, is one of the largest and wildest habitats in 
the continental United States. A rugged complex of mountains, rivers, 
and forests, it includes the Selway-Bitterroot and the Frank Church-
River of No Return wilderness areas, five national forests, numerous 
rivers, and the Sawtooth National Recreation Area. The area provides 
unique habitats critical for fish and wildlife including threatened and 
endangered species such as Chinook salmon, steelhead trout, bull trout, 
lynx, and gray wolves. Each year in late summer, salmon and steelhead 
trout return to the high reaches of the Salmon and Clearwater Rivers, 
traveling 900 miles and climbing 7,000 feet from the Pacific Ocean to 
the mountain tributaries of their birth--the highest salmon spawning 
grounds on Earth. An appropriation of $500,000 from the LWCF in fiscal 
year 2013 will complete the work that was initiated in fiscal year 2012 
for the protection of the Rodeo Grounds Ranch. This project is one of 
the largest remaining inholdings in the Sawtooth National Recreation 
Area and helps to conserve the traditional landscape and scenic 
character of the region, protect wildlife habitat, water quality, and 
ensure public access for recreation.
    The 756,000-acre Sawtooth National Recreation Area (SNRA) comprises 
one of the largest and most magnificent national recreation areas in 
the United States. Four mountain ranges:
  --the Sawtooths;
  --Boulders;
  --White Clouds; and
  --Smokies
provide scenic landscapes in every direction, with more than 50 major 
peaks more than 10,000 feet, 300 lakes, and 250 miles of trails. There 
are more than 1,000 high mountain lakes and glacial tarns here, as well 
as the headwaters of four of Idaho's major rivers:
  --the Salmon;
  --South Fork of the Payette;
  --the Boise; and
  --the Big Wood.
    More than 300 species of wildlife inhabit the forests, valleys, and 
rocky peaks of the Sawtooth National Recreation Area including gray 
wolves, mountain goat, pronghorn antelope, mule deer, elk, coyote, red 
fox, and black bear. Birding enthusiasts can encounter a wide range of 
species from Clark's nutcracker, junco and chickadees to the more 
elusive sandhill crane and bald and golden eagles. Furthermore, the 
SNRA's abundance of lakes and rivers play an important role in the 
protection and re-establishment of salmon populations to Idaho's 
waterways.
    The Sawtooth NRA offers some of the finest and most renowned 
outdoor recreation in the world including fishing, white-water sports, 
hiking, backpacking, snowmobiling, mountain biking, and Nordic skiing. 
With 37 developed campgrounds, family camping attracts more 
recreationists to the Sawtooth National Recreation Area than any other 
single activity. The Sawtooth NRA is heaven for those looking for 
scenic drives with three National Scenic Byways--the Sawtooth, Salmon 
River, and Ponderosa Pine scenic byways--converging in Stanley, Idaho, 
the largest settlement in the Sawtooth NRA.
    With a proud ranching tradition stretching back for over a century, 
traditional land uses have long been interwoven with the public values 
here, and stewardship of these natural and recreational assets has been 
outstanding. To protect the historic uses and compatible public 
recreation values of this remarkable landscape, USFS has utilized LWCF 
appropriations dating back to 1972 to acquire conservation easements 
that protect some 17,000 acres of private land within the national 
recreation area.
    Available for acquisition at the Sawtooth NRA in fiscal year 2013 
is a conservation easement on the 157-acre Rodeo Grounds Ranch. Located 
just 5 miles from the historic town of Stanley, the property is a well-
known and prominent component of the viewshed along Idaho Route 21--the 
Ponderosa Pine Scenic Byway--that connects the Sawtooth NRA to Boise. 
With substantial frontage on Valley Creek, a major Salmon River 
tributary, the ranch provides habitat for all four fish species listed 
as threatened or endangered in the Sawtooth NRA:
  --Chinook salmon;
  --sockeye salmon;
  --bull trout; and
  --steelhead.
    USFS has identified Valley Creek as one of the most important 
tributaries in the Upper Salmon River watershed for the recovery of the 
Chinook salmon, especially for rearing and spawning habitat. Protection 
of Rodeo Grounds Ranch will advance fisheries recovery efforts, 
protecting a total of 1.8 miles of Valley Creek and its tributaries and 
approximately 96 acres of related riparian areas.
    The conservation easement on Rodeo Grounds Ranch will allow for 
continued historic use and private ownership of the property, while 
conserving its natural values and recreational access by anglers to 
Valley Creek. This access would likely be lost if the property were to 
be developed, converted from existing use, or fragmented into smaller 
holdings. Moreover, incompatible development of this key Sawtooth 
gateway property would irreparably compromise a scenic landscape that 
draws hundreds of thousands of visitors each year. The easement will 
protect the historic ranch structures and the scenic landscape of the 
valley.
    In fiscal year 2013, an appropriation of $500,000 from the LWCF 
will augment funding provided in fiscal year 2012 to allow the 
completion of this important conservation easement acquisition valued 
at $3 million. Protection of Rodeo Grounds Ranch, a highly visible 
property and longstanding priority for USFS, will protect the fisheries 
and recreational resources of the ranch and help ensure the scenic 
integrity of the Sawtooth NRA.
    In closing, I urge you to provide funding for the LWCF of $450 
million, as proposed in the President's fiscal year 2013 budget, 
including critical funding for the Salmon-Selway Initiative. I want to 
thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in Idaho, and I appreciate your consideration of this 
funding request.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State

    I am Joseph Pavel, Vice Chairman of the Skokomish Tribe of 
Washington State. I would like to thank the subcommittee for the 
opportunity to present testimony on the fiscal year 2013 Interior, 
Environment, and Related Agencies budget.
    Like all governments, the Skokomish Indian Tribe handles a number 
of everyday operational responsibilities as well as continuing the 
necessity of long-term planning activities. Daily the tribe continues 
to strengthen the institutional and executive capacity to effectively 
manage the expansion of new programs. The Skokomish Indian Reservation 
is a rural community located at the base of the Olympic Peninsula with 
a population of more than 1,000 people. The 5,300-acre reservation is a 
fraction of the 2.2-million-acre of the tribe's Treaty area. The 
Skokomish Tribe operates several departments including administration; 
community development; information services; early childhood education 
(includes the Skokomish Head Start program); education; health clinic; 
housing; legal; natural resources; public safety; public works; and 
Tuwaduq Family Services. These departments provide a broad range of 
governmental services to our citizens.

                   BUREAU OF INDIAN AFFAIRS PROGRAMS

    Law Enforcement.--The Skokomish Tribe respectfully requests 
increased funding for our law enforcement programs within the Bureau of 
Indian Affairs.
    The Tribal Council created the Skokomish Department of Public 
Safety in 1995. The department has grown from one untrained officer, to 
six Washington State certified/Washington State equivalency trained or 
BIA certified law enforcement officers. The SPSD provides land and 
water patrol, and emergency services 24/7 in Hood Canal Basin. It 
enforces tribal ordinances, treaty rights, court orders, and State/
Federal statutes. Our officers provide day-to-day law enforcement 
services on the Reservation. They are also responsible for patrolling 
the 2.2 million acres that make up our treaty protected fishing and 
hunting areas. SPSD not only services the Reservation but also roughly 
10,000 neighboring county residents and 15,000 annual tourists.
    Skokomish dispatch is cross linked with Mason County Dispatch. With 
only one scheduled per shift, Public Safety Officers patrol alone and 
respond alone to both misdemeanor and felony calls. Officers are placed 
in danger because back up from other agencies could be delayed in 
responding, if they are available at all. For natural disasters, SPSD 
officers are recognized as 1st Responders for the area. To be fully 
staffed at a baseline minimum for the area and scope of service that 
the Skokomish Department of Public Safety is tasked with, we need a 
total of 18 officers. Thus, we are almost 80 percent less than what is 
needed to safely serve our community. Currently, the tribe contributes 
approximately $200,000 per year to cover the BIA shortfall in funding 
for the tribe's Public Safety Department. This funding comes from fuel 
taxes levied by the tribe. In an effort to efficiently use our limited 
resources, the tribe entered into a memorandum of understanding with 
the Mason County Sheriff's Office to use a provisional officer on an 
as-needed basis. This occurs when one of the four patrol officers is on 
leave or training.
    The tribe constantly looks for ways to efficiently use the funding 
available while improving services. Recently, the tribe worked with the 
BIA Office of Justice Services (OJS), to receive technical assistance. 
The technical assistance came in the form of a monitoring process 
designed to evaluate the compliance of policy, standards, and 
professional practices of the tribe's law enforcement program. The BIA 
evaluator used a Program Monitoring Instrument (PMI) which consists of 
standards that will be reviewed and evaluated to determine if the 
program is in compliance with each specific standard. The department 
has already used the initial recommendations to begin improving in 
areas of training, re-writing the standard operating procedures; and 
instituting community policing strategies. In the end, the tribe will 
be able to document that we meet and/or exceed the standards of the BIA 
for public safety agencies.
    We strongly support the $500,000 request for Conservation Officers. 
These law enforcement professionals serve a vital role in ensuring that 
our fishermen are able to properly exercise their rights to the treaty-
protected resources. The tribe has to cover and manage a large area in 
fisheries related activities. Over the past few years we have 
experienced increased tension between treaty fishermen and non-Indian 
fishermen. While these conflicts have not escalated into serious 
physical harm, we fear without proper law enforcement presences that it 
will.
    Tribal Courts.--Having a fair and qualified judiciary is the 
bedrock of any government's justice system. Skokomish has long 
understood this. In 1963, the Skokomish Tribe was the first tribe in 
the Northwest (and one of the first in the country) to institute a 
tribal court.
    Today, tribal courts handle huge criminal, civil and juvenile 
dockets, which could not be handled by the already over burdened State 
and Federal courts. At the close of 2011, Skokomish had 362 open cases 
compared to 447 open cases at the end of fiscal year 2010. These cases 
range from criminal cases to child welfare cases. With the use of the 
one-time funding award from the BIA in fiscal year 2011, we hired a 
Probation Officer. The Probation Officer has helped satisfy and close 
83 cases and continually meets with probationers. This Probation Office 
has resulted in a great deal of success in clearing criminal cases and 
providing support for our tribal members to exit the criminal justice 
system. We fully utilized this funding until it was exhausted. Although 
we have many needs with our limited resources, the Council approved the 
use of tribal funds for the continuation of the probation program. We 
believe it is beneficial to the members of the tribe to have a 
probation program.
    Thus, we urge the Congress to support Tribal Courts and provide at 
least the $1.1 million that the administration has requested and 
encourage the BIA to fund and support tribal probation officers for 
tribal courts.

                         INDIAN HEALTH SERVICE

    The Skokomish Tribe strongly supports the $4.422 billion budget 
request, an increase of $115.9 million more than the fiscal year 2012 
enacted level. We have a tribally operated Ambulatory Health Center 
located in a geographically challenged area and continue to face 
financial barriers that are not unique to the Skokomish Tribe, but 
unfortunately plague Indian Country as a whole. Our Contract Health 
(CHS) Funds continue to be taxed and we appreciate the proposed 
programmatic increase to CHS of $20 million. We continually ask for CHS 
increases and we do know this need will always be in existence and 
especially with the rising cost of healthcare and the increased serious 
health issues our patients are experiencing such as cancer, diabetes, 
and heart disease. One proposal to address these costs is the NW 
Portland Area Indian Health Board's efforts to develop three regional 
health facilities in the Portland area to send our tribal members to 
for specialty health services not provided in our tribal clinics. This 
would reduce the CHS expenditures currently spent at local specialty 
providers.
    Another way to reduce the burden on CHS is to focus on prevention 
and find innovative ways to make our community healthier. By investing 
in our member's health up front and focusing on prevention up front, we 
hope to offset the rising CHS costs. In this regard, we support adding 
additional funding for the Health Protection and Disease Prevention 
Program. One of the Skokomish Health Center's long-term goals is to 
build a culturally sensitive wellness center to focus on prevention, 
medical and holistic healing programs.
    Due to recent cuts in State Medicaid funding, we have experienced a 
growing strain on our substance abuse treatment resources. We urge 
additional funding to be available for treatment. In this regard, we 
currently do not have a recovery after care facility for our clients 
when they finish treatment. If a client lacks the resources and family 
support, they are left to return to their previous addiction 
environments, which is likely to reduce their chance of success at 
recovery.
    Finally, related to mental health, we have identified a need for a 
youth mental health facility. While there are youth substance abuse 
treatment facilities, there are no facilities available to treat mental 
health issues for youth, who do not have any substance abuse issues. 
This recently hit home as we had a young teenage girl who had no 
substance abuse issues but was in need of in-patient mental health 
services. After exhausting all avenues to find a tribal/IHS mental 
health facility to place this young lady in we were unable to locate 
one. The child is on the east coast and will remain in a non-Tribal/IHS 
institution for lack of a facility available to bring her closer to 
home with her extended family on the Skokomish Reservation. This young 
lady has attempted suicide on several occasions at the facility where 
she is currently located. We urge the Congress to direct the IHS to 
report on its effort to develop a youth behavioral health facility to 
meet the growing mental health needs of our Native youth.

                 TRIBAL HISTORIC PRESERVATION PROGRAMS

    In 1995, the Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history, and sovereignty. As was envisioned by the 
Congress, more tribes qualify for funding every year. Paradoxically, 
the more successful the program becomes, the less each tribe receives 
to maintain professional services, ultimately crippling the programs. 
In fiscal year 2001, there were 27 THPOs with an average award of 
$154,000. Currently there are 132 tribes operating the program, each 
receiving less $51,000. We join the National Congress of American 
Indians and the National Organization of Tribal Historic Preservation 
Officers in supporting the requested $15 million increase in funding 
for this program.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Skokomish Tribe urges the subcommittee to maintain funding for 
key environmental programs, in particular, funding for Puget Sound 
restoration efforts. This funding is critical to the collaborative 
efforts to restore the health of the Puget Sound, and in particular the 
Hood Canal--the Jewel of the Puget Sound. The program is vital to the 
tribe's efforts to manage and protect our treaty protected resources in 
the Hood Canal.

                               CONCLUSION

    The tribe thanks the subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    Good morning Chairman and members of the subcommittee. My name is 
Robert W. Malmsheimer, and I am a professor of forest policy and law at 
the SUNY College of Environmental Science and Forestry. I am here today 
to testify on behalf of the Society of American Foresters (SAF).
    The Society of American Foresters (SAF), with more than 12,000 
forestry professionals across the country in all segments of the 
profession, believes in sound management and stewardship of the 
Nation's public and private forests. Funding for the Department of the 
Interior (DOI) and the USDA Forest Service (USFS), both contained in 
the Interior, Environment, and Related Agencies Appropriations bill, 
are particularly important to maintaining and improving the Nation's 
forests.
    We would like to begin by thanking the administration for 
recognizing the importance of the USFS and forestry components of the 
DOI and maintaining funding at approximately fiscal year 2012 enacted 
levels for USFS and the Bureau of Land Management (BLM). That said, the 
751 million acres of forests in the United States are subject to 
tremendous pressures from wildfires, insects, disease, invasive 
species, changing climates, and more. At the same time, people are 
relying on forests more and more for clean water and air, recreational 
opportunities, hunting, fishing, forest products, and scenic values. 
These pressures and harsh economic times force Federal agencies to look 
for innovative ways to complete more work with limited resources.
    SAF remains deeply concerned about these issues and the overall 
sustainability of the Nation's forests. To that end, SAF urges a focus 
on several key areas that directly impact the range of programs within 
the DOI and USFS budgets. Key areas include:
  --Forest health on public and private forestlands;
  --addressing barriers to active forest management; and
  --SAF budget recommendations.

                             FOREST HEALTH

    As the largest professional society for foresters in the world, SAF 
represents the forest managers of both public and private forests in 
the United States. Across the country, our forests are reaching a 
critical threshold that, if passed, could lead to even further negative 
impacts including:
  --continued closures of established infrastructure;
  --job losses to rural communities;
  --pressure of invasive species;
  --expanded areas of insects and disease;
  --overstocked stands; and
  --increased risk of wildfire.
    Since 1910, the U.S.'s forest area has been relatively stable, with 
a slight increase in the last two decades.\1\ The current volume of 
annual timber growth is 32-percent higher than the volume of annual 
removals. This, in part, has led to the need for restoration on 65 to 
82 million acres of the National Forest System (NFS), as Chief Tidwell 
mentioned in his testimony to the subcommittee on February 17, 2012.\2\ 
In 2012, the USFS is proposing to complete only 4 million acres of 
restoration on NFS lands, yielding 2.6 BBF in forest products.\3\ This 
is not enough to combat our Nation's declining forest health, 
especially in light of the current bark beetle epidemic in the west 
that has led to unprecedented numbers of dead and dying trees. This low 
production level on public lands pressures private forestlands, which 
already provide 91 percent of wood production, to meet demand.\4\
---------------------------------------------------------------------------
    \1\ U.S. Forest Service (USFS). 2007. U.S. Forest Resource Facts 
and Historical Trends. Available online at http://fia.fs.fed.us/
library/brochures/docs/Forest%20Facts%201952-2007%20English%
20rev072411.pdf; last accessed March 2012.
    \2\ Tidwell, T. 2012. Statement of Tom Tidwell, Chief, U.S. Forest 
Service before the Senate Committee on Energy and Natural Resources 
concerning the President's budget request for the U.S. Forest Service 
in fiscal year 2013. March 6, 2010. Available online at http://
www.energy.
senate.gov/public/index.cfm/files/serve?File_id=8f60d724-f8e5-4d57-
9f01-b8a6837d9f5d; last accessed March 2012.
    \3\ U.S. Forest Service (USFS). 2012. Increasing the Pace of 
Restoration and Job Creation on Our National Forests. Available online 
at http://www.fs.fed.us/publications/restoration/restoration.pdf; last 
accessed March 2012.
    \4\ U.S. Forest Service (USFS). 2010. National Report on 
Sustainable Forests--2010. Available online at http://www.fs.fed.us/
research/sustain/2010SustainabilityReport/documents/2010_
SustainabilityReport.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    Constraints on forests and forest management have led to a steady 
decline in the forestry-related job sector. From 2005 to 2010 primary 
(forestry and logging, paper, wood manufacturing, etc.) and secondary 
(residential construction, furniture, etc.) employment have seen a 
combined reduction of 920,507 total jobs. In fact, total U.S. annual 
timber harvests are at their lowest levels since the 1960s. This lack 
of production led to the closure of more than 1,000 mills from 2005 to 
2009, which decreased overall sawmilling capacity by 15 percent, and 
lowered production levels less than 50 percent of capacity at the 
remaining mills.\5\
---------------------------------------------------------------------------
    \5\ Smith, B.W., and Guldin, R.W. 2012. Forest Sector Reeling 
during Economic Downturn. The Forestry Source January, 2012. Available 
online at http://www.nxtbook.com/nxtbooks/saf/forestrysource_201201/
index.php; last accessed March 2012.
---------------------------------------------------------------------------
                  BARRIERS TO ACTIVE FOREST MANAGEMENT

    SAF understands that the economic downturn has impacted forest 
industries. However, in recent decades other factors have developed 
that also negatively affect the forestry profession and create barriers 
to active forest management. One of those barriers is the Equal Access 
to Justice Act (EAJA).
    Last year the House Appropriations Subcommittee included report 
language in its budget recommendation that addressed the complexity and 
conflicts often associated with EAJA. The subcommittee requested 
detailed reports on the disposition of EAJA applications, the amount of 
agency funds paid as the result of the Act, the names of the fee 
recipients and Federal judges involved in EAJA cases, and the hourly 
rates of attorneys and expert witnesses.\6\
---------------------------------------------------------------------------
    \6\ U.S. Congress. 2012. Department of the Interior, Environment, 
and Related Agencies Appropriations Bill 112th Congress First Session 
Report 112-151. Available online at http://www.gpo.gov/fdsys/pkg/CRPT-
112hrpt151/pdf/CRPT-112hrpt151.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    In 2011, Dr. Michael J. Mortimer, Director, College of Natural 
Resources at Virginia Tech University, and I completed a study on EAJA 
that examined concerns raised by interest groups, stakeholders, and 
congressional members. The study, published as a peer-reviewed article 
in the Journal of Forestry, examined EAJA fees paid by USFS in 
litigation from 1999 to 2005. Our results, which analyzed data obtained 
through Freedom of Information Act (FIOA) requests and the analysis of 
public records, documented that Federal agency EAJA fee records 
differed considerably. As Table 1 reflects, there was nearly a $1 
million difference between the data provided in 2006 by the Secretary 
of Agriculture to the U.S. Senate Committee on Energy and Natural 
Resources (SCENR) and the records we obtained from the USFS, and the 
Secretary's response was nearly double the total amount Department of 
Justice (DOJ) records indicate were paid.

 TABLE 1.--COMPARISON OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT
                       PAYMENTS, 1999 TO 2005 \1\
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
United States Forest Service FOIA Information...........      $6,137,583
DOJ FOIA Information....................................       3,526,632
Information provided to SCENR...........................       7,002,530
------------------------------------------------------------------------
\1\ Mortimer, M.J., and R.W. Malmsheimer. 2011. The Equal Access to
  Justice Act and U.S. Forest Service Land Management: Incentives to
  Litigate? Journal of Forestry 109(6): 352-358.

    Given these inconsistencies and the controversy surrounding EAJA 
payments, SAF supports the inclusion of EAJA reporting requirements in 
this year's budget. We believe that doing so will greatly improve the 
transparency of EAJA payments and provide policymakers and stakeholders 
with standardized information that they can use to assess the Act's 
performance.

                       SAF BUDGET RECOMMENDATIONS

    SAF understands that the subcommittee has to make difficult 
decisions when funding Federal agencies. We would like to commend the 
members of the subcommittee for your continued focused efforts on 
forest sustainability. With this in mind, we will not give 
recommendations for all of the programs we support. Instead, we will 
focus on several of our top priorities and ask that the committee 
recognize that our support is not limited to the recommendations that 
follow.
    SAF supports the fiscal year 2012 budget language to increase the 
NFS timber harvest from 2.4 BBF to 3 BBF this fiscal year. While SAF is 
encouraged by USDA Secretary Vilsack's announcement to increase harvest 
levels to 2.6 BBF in fiscal year 2012,\7\ we support increased 
restoration efforts by the administration to restore priority 
watersheds. We look forward to continuing to work with the Congress and 
the administration to see increased restoration work.
---------------------------------------------------------------------------
    \7\ U.S. Forest Service. 2012. U.S. Forest Service highlights 
expansion of restoration of national forests and funding for 
Collaborative Forest Landscape Restoration projects. U.S. Forest 
Service Press Release Feb. 2, 2012. Available online at http://
www.fs.fed.us/news/2012/releases/02/restoration.shtml; last accessed 
March 2012.
---------------------------------------------------------------------------
    USFS Research and Development (R&D) provides for essential research 
on priority areas such as disturbances (including wildfire), watershed 
restoration needs, local level emphasis, and strategic programs. R&D's 
Forest Inventory and Analysis (FIA) program is the backbone of U.S. 
forestry knowledge, providing the only national census of forests 
across all ownerships. Through FIA, USFS (partnering with State 
forestry agencies and the private sector) collects and analyzes forest 
data to assess trends on issues such as forest health and management, 
fragmentation and parcelization, and forest carbon sequestration. FIA 
data also evaluates forest disturbance risks, such as wildfire, insects 
and disease, and spread of invasive species. SAF requests that the 
Congress support FIA at no less than $69 million in fiscal year 2013.
    More than 50 percent of our Nation's forests are privately owned. 
This makes USFS State and Private Forestry (S&PF) allocations, used in 
part to assist in managing these lands, essential to the health of our 
forests. SAF strongly supports S&PF funding including the Forest Health 
Management (FHM) Budget Line Items (BLI) for both Federal and 
cooperative lands. We recommend funding FHM BLI's at fiscal year 2012 
enacted funding levels of $112 million. These dollars are critical for 
monitoring conditions of forest health on Federal and non-Federal 
lands. Funds provide the assistance to prevent and mitigate insect and 
disease outbreaks as well as the spread of invasive species.
    SAF strongly supports the administration's request to permanently 
reauthorize Stewardship Contracting within the USFS budget. The 
Stewardship Contracting authority is a successful tool used by the USFS 
and BLM to accomplish restoration work on multiple restoration projects 
simultaneously using funds provided by projects' timber revenues. It is 
also an important tool to carry out the administration's priority 
Collaborative Forest Landscape Restoration Program. Without this 
authority, these programs would be unable to complete the work outlined 
in collaborative proposals. From 2006 to 2011 approximately 900 
Stewardship contracts, which treated 545,625 acres, were awarded, 
including 208 contracts in 2011.\8\
---------------------------------------------------------------------------
    \8\ Pinchot Institute for Conservation. 2012. The Role of 
Communities in Stewardship Contracting: Fiscal Year 2011 Programmatic 
Monitoring Report to the USDA Forest Service. Available online at 
http://www.fs.fed.us/forestmanagement/stewardship/reports/documents/
2011/FinalFY11USFSMonEvalReport.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    SAF also commends the administration for their request to fully 
fund the Collaborative Forest Landscape Restoration Program (CFLR). 
CFLR encourages collaborative, science-based ecosystem restoration of 
priority forest landscapes.\9\ In 2 years, the projects selected in 
2010 created 2,100 jobs and supplied approximately 2.3 MMBF.\10\ To 
ensure CFLR's continued success, SAF and five other Steering Committee 
members along with approximately 140 members of other organizations, 
participate in the CFLR Coalition to support continued funding at $40 
million.
---------------------------------------------------------------------------
    \9\ U.S. Forest Service. 2012. Collaborative Forest Landscape 
Restoration Program. U.S. Forest Service Website. Accessible online at 
http://www.fs.fed.us/restoration/CFLR/index.shtml; last accessed March 
2012.
    \10\ U.S. Forest Service 2012. Fiscal Year 2013 President's Budget 
Justification. Available online at http://www.fs.fed.us/aboutus/budget/
2013/fy2013-justification.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    Hazardous Fuels funding is a critical component to USFS and DOI 
hazardous fuels reduction efforts. Funds are used to restore forest 
health and resilience and reduce the cost of suppressing wildfires. In 
2011, more than 74,000 wildland fires burned more than 8.7 million 
acres.\11\ These funds are also used to assist the 66,700 communities 
across the country currently at risk of wildland fire. SAF recommends 
maintaining the fiscal year 2012 funding levels of $318 million for the 
USDA Forest Service and $184 million for the Department of the 
Interior.
---------------------------------------------------------------------------
    \11\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, p. 9. Accessible online at http://
www.predictiveservices.nifc.gov/intelligence/2011_statssumm/
intro_summary.pdf; last accessed February 2012.
---------------------------------------------------------------------------
    One of the significant changes to the fiscal year 2013 budget 
proposal includes the merger of seven BLIs into the proposed Integrated 
Resource Restoration (IRR) Line item that was enacted as a pilot 
program in three regions in the fiscal year 2012 budget. SAF recommends 
funding the seven BLIs at fiscal year 2012 levels if the subcommittee 
does not enact IRR nationally.
    I would like to close by discussing the decrease in the BLM's 
Public Domain Program found in the fiscal year 2013 budget 
justification. The proposed $3.5 million is a 41-percent decrease in 
the program. This would reduce the number of employees managing 60 
million acres from 80 employees to approximately 50. SAF recommends 
funding BLM's Public Domain Program at enacted fiscal year 2012 levels.
    On behalf of the Society of American Foresters, I thank you for 
this opportunity.
                                 ______
                                 

             [From the Journal of Forestry, September 2011]

     The Equal Access to Justice Act and U.S. Forest Service Land 
                  Management: Incentives to Litigate?
          (Michael J. Mortimer and Robert W. Malmsheimer \1\)
---------------------------------------------------------------------------
    \1\ Michael J. Mortimer (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3954564b4d50545c4b794f4d175c5d4c">[email&#160;protected]</a>) is director of Graduate 
Programs, Virginia Tech, College of Natural Resources and Environment, 
7054 Haycock Road, Room 411, Falls Church, VA 22043. Robert W. 
Malmsheimer (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8aaafb5b9b4b5abb098bdabbef6bdbcad">[email&#160;protected]</a>) is professor, SUNY College of 
Environmental Science and Forestry, 1 Forestry Drive, Syracuse, NY 
13210.
---------------------------------------------------------------------------
    The Equal Access to Justice Act (EAJA) provides for attorneys fees 
and court costs to be awarded to parties prevailing in litigation 
against U.S. federal agencies. We examined EAJA awards paid by the U.S. 
Forest Service from 1999 to 2005, finding more than $6 million awarded 
to various plaintiffs. Awards were most commonly paid to environmental 
litigants, although all categories of litigant stakeholders made use of 
the law. Although it remains uncertain whether EAJA provides an 
incentive to sue the U.S. Forest Service in any specific instance, 
because litigation against the U.S. Forest Service generally has a low 
probability of success, EAJA one-way fee shifting does alter litigation 
risks among potential plaintiffs. Frequent EAJA claimants often possess 
considerable financial resources calling into question how the purposes 
of the law have evolved in the last 20 years.
    Keywords: national forest, litigation, fees, interest groups, 
courts.
    ``Paying litigants to sue certainly encourages legal action'' 
(Thomas 2000, p. 9). This quote by former chief of the U.S. Forest 
Service, Jack Ward Thomas, expresses concerns that the Equal Access to 
Justice Act (EAJA; codified at 28 U.S.C. Sec. 2412 and 5 U.S.C. 
Sec. 5045) may be an incentive for litigation against the U.S. Forest 
Service and other Federal land-management agencies. The EAJA is a fee-
shifting statute that allows litigants to recover attorney fees and 
other legal expenses (such as court filing fees) from the Federal 
Government when they successfully sue an administrative agency.
    Numerous scholars have described the increasing use of litigation 
as a tool to influence U.S. Forest Service land-management decisions. 
Jones and Taylor (1995) completed the first study, examining cases 
decided between 1971 and 1993. They found that the frequency of U.S. 
Forest Service lawsuits increased during these 20 years and concluded 
that litigation was used as a tool to effect change within the agency. 
Malmsheimer et al. (2004) examined all published Federal Court of 
Appeals cases from 1970 through 2001 in which the U.S. Forest Service 
was a defendant. They found that the number of lawsuits involving the 
agency had increased since 1970 and that ``judicial review of national 
forest management is intensifying'' (Malmsheimer et al. 2004, p. 20). 
In the most recent and thorough examination of U.S. Forest Service 
litigation, Keele et al. (2006) examined the final outcome of all 
cases, both published and unpublished, initiated from 1989 through 2002 
in which the U.S. Forest Service was a defendant, again finding that 
litigation directed against the agency had generally increased. Others 
have confirmed these observations (Mortimer 2002, Broussard and 
Whitaker 2009). For example, the Council on Environmental Quality's 
(2009) records indicate that the U.S. Forest Service is the most common 
Federal agency defendant in National Environmental Policy Act 
litigation. These studies suggest that litigation has become an 
integral aspect of U.S. Forest Service decisionmaking and land 
management: ``The legal environment is as important to national forest 
. . . management as the ecological and economic environments'' 
(Malmsheimer et al. 2004, p. 25). The payment of attorney fees is an 
important component of this legal environment.
    The U.S. legal system operates under what is known as the American 
rule, which provides that each party in a lawsuit must bear its own 
legal expenses (Sisk 1993). This differs from the English rule under 
which the losing party pays the winner's legal costs. Fee-shifting 
statutes in the United States are a relatively rare exception to the 
American rule, providing for the recovery of legal expenses in a manner 
similar to the English rule. Although some criticize the economic 
incentives created by fee-shifting statues and citizen suit provisions 
(Benson 2006, Greve 1990), others believe that subsidizing litigation 
against land-management agencies through the EAJA is a socially 
valuable use of public resources (Nie 2008). In either case, it is 
indisputable that citizen suits are an important aspect of modern 
public natural resource management.
    The EAJA is a one-way fee-shifting statute that specifically allows 
parties who bring successful lawsuits against Federal land-management 
agencies to recover their costs, such as attorney fees and filing 
costs, directly from the agencies' budgets. The EAJA was originally 
intended to:
  --make the Federal justice system more accessible to parties 
        defending themselves against what the Congress perceived as 
        unreasonable Government action;
  --provide an incentive for citizens to contest excessive Government 
        regulation;
  --supply additional compensation for citizens who were injured by 
        Government actions; and
  --deter overreaching regulation by Federal agencies (Hogfoss 1985, 
        Sullivan 1984, Mezey and Olson 1993, Sisk 1993).
    By providing attorney and other fees, the Act removed some of the 
economic obstacles citizens face when contesting Government regulation. 
Table 1 lists EAJA process and eligibility requirements. Although it 
was recognized, at the dawn of environmental public interest 
litigation, that a bevy of institutional obstacles existed preventing 
access to the Federal court system (Large 1972), the EAJA was not 
established with that particular set of litigants in mind. It has, 
however, over the last 20 years evolved to address a broader class of 
litigant stakeholder.

    ----------------------------------------------------------------

Table 1.--The Equal Access to Justice Act fee recovery requirements (28 
            U.S.C. 2412(d)(2)(B) and 5 U.S.C. 504(b)(1)(B))
Process requirements (Plaintiff must meet all)
    Plaintiff must have incurred legal expenses.
    Plaintiff must have prevailed in some aspect of the case.
    Plaintiff must submit an application for a fee award to the court 
within 30 days of the final judgment.
    Plaintiff must allege that the Government's position was not 
``substantially justified.''
Eligibility requirements (Plaintiff must meet one)
    Individuals with a net worth of $2 million or less.
    Businesses with no more than 500 employees and a net worth of $7 
million or less.
    Charitable or other tax-exempt 501(c)(3) organizations with no more 
than 500 employees.
    Agricultural cooperative associations with no more than 500 
employees.
    Other partnerships, corporations, associations, units of local 
government, or organizations with a net worth of not more than $7 
million and no more than 500 employees.

    ----------------------------------------------------------------

    Although little empirical research has been conducted regarding the 
EAJA's impact on land-management agencies, the law's role in 
potentially spurring litigation has been a topic of press and 
congressional investigation and speculation for nearly 10 years. 
Pulitzer Prize winning reporter Knudson's 2001 series in the Sacramento 
Bee entitled ``Environment, Inc.'' presented a high-profile discussion 
of the environmental movement's reliance on litigation and attorney 
fees. In the series, Knudson focused primarily on litigation directed 
against the Fish and Wildlife Service's administration of the 
Endangered Species Act. Knudson (2001) found that during the 1990s, 434 
environmental cases were brought against the Federal Government and the 
Government paid out more than $31.5 million in attorney fees. In 2006, 
Senator Jeff Bingaman (D-NM) requested agency information on the amount 
of EAJA fees paid out by USFS from 1999 through 2005. An editorial on 
USFS litigation in The Missoulian \2\ concluded that the EAJA ``has 
become a self-funding mechanism for environmental groups fundamentally 
opposed to prevailing national forest management direction'' 
(Missoulian 2007). Most recently, a Wyoming attorney and former 
Department of the Interior employee claimed that the Government paid 
environmental law firms more than $1.6 million between 2003 and 2005 
for litigation involving national forests in six USFS regions \3\ 
(Budd-Falen 2009). Despite persistent interest and allegations 
surrounding the EAJA and USFS litigation, no comprehensive empirical 
study and analysis (with the exception of the response to Senator 
Bingaman's request) has systematically examined the issue.
---------------------------------------------------------------------------
    \2\ A newspaper in one of the most litigious National Forest System 
Regions (see Keele et al. 2006).
    \3\ Regions 1-6.
---------------------------------------------------------------------------
    The effects of a particular fee-shifting policy are highly 
dependent on contextual variables. Characteristics of the adversaries, 
the relative value of the fee awards to the parties, and the parties' 
respective views of the strength of their cases make empirical 
examinations inherently challenging (Rowe 1984). This should not be 
surprising, because work to date has noted the complexity and 
uncertainty in predicting the potential effects of fee arrangements on 
litigation behavior as well as the unsettled state of understanding of 
these effects (Kritzer 2002). This study attempts to quantify and 
contribute to an understanding of the role of one-way fee shifting in 
USFS litigation.
Methods
    Since EAJA payment figures are not generally publicly available, we 
used the Freedom of Information Act (FOIA) \4\ to compile EAJA payment 
data from the USFS and the Department of Justice (DOJ). We asked DOJ 
for payment information because it defends the USFS in the Federal 
court system and we believed its EAJA payment records would supplement 
USFS records. Written FOIA requests were made to the USFS on October 3, 
2006 and to the DOJ on October 11, 2006. We received responses from the 
USFS on November 27, 2006 and from the DOJ on April 11, 2007. We 
requested a list of all EAJA fees paid by the USFS from 1990 to 2005, 
including the amount of EAJA fees paid, litigants' names, court 
decision dates, and judicial decision citations. We also requested 
copies of all documents containing any information regarding the 
payment of EAJA fees during this time.
---------------------------------------------------------------------------
    \4\ 5 U.S.C. 552.
---------------------------------------------------------------------------
Results
    USFS and DOJ supplied differing information to our FOIA requests. 
USFS provided records from 1999 through 2005. The DOJ provided USFS-
based EAJA records from 1989 through 2006--including data from 1989 to 
1998 that the USFS was unable to provide. As Table 2 indicates, EAJA 
fee records differ considerably. For example, in 2006 the Secretary of 
Agriculture provided the U.S. Senate Committee on Energy and Natural 
Resources with information about EAJA fees paid by the USFS (Senate 
Hearing 2006). As Table 2 reflects, there is nearly a $1 million 
difference between the data provided in the 2006 by the Secretary and 
the records we obtained from the USFS, and the Secretary's response is 
nearly double the total amount DOJ records indicate were paid. The EAJA 
has no agency recordkeeping or reporting requirements, and the 
inconsistencies we found in the agency's and DOJ's records substantiate 
ongoing congressional concerns that EAJA payments are being 
inadequately tracked by Federal agencies (Western Congressional Caucus 
2009). These concerns have manifested as proposed bipartisan 
legislation in the prior sessions of Congress.\5\
---------------------------------------------------------------------------
    \5\ H.R. 4717, 111th Congress.
---------------------------------------------------------------------------
    DOJ provided EAJA award records for 17 years (1989 through 2006)--
10 more years than USFS. These records indicate that during this time 
the USFS paid more than $6 million in EAJA payments. Focusing on the 
overlapping years (1999 through 2006), the USFS data differed 
considerably from the DOJ records--USFS records indicated it paid an 
additional $2.5 million in this 6-year period (see Table 2).

            TABLE 2.--COMPARISON OF THE U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT FEES, BY YEAR
----------------------------------------------------------------------------------------------------------------
                                                                       EAJA payments              Secretary of
                                                           ------------------------------------    Agriculture
                                                                                                 response to the
                                                                                                   U.S. Senate
                           Year                                U.S. Forest                        Committee on
                                                              Service FOIA      DOJ FOIA data      Energy and
                                                                  data                               Natural
                                                                                                   Resources's
                                                                                                     request
----------------------------------------------------------------------------------------------------------------
1999......................................................          $794,774          $498,406          $814,774
2000......................................................           232,348           240,710           602,698
2001......................................................           999,938           457,535           581,567
2002......................................................           626,741           704,230         1,077,441
2003......................................................           794,414           586,649         1,236,668
2004......................................................         1,412,804           571,676         1,557,804
2005......................................................         1,276,564           467,427         1,131,578
                                                           -----------------------------------------------------
      Total...............................................         6,137,583         3,526,632         7,002,530
----------------------------------------------------------------------------------------------------------------
FOIA, Freedom of Information Act.
 
Source: Data provided by the U.S. Forest Service, DOJ, and Congressional Research Service.

Payments
    USFS records indicated that EAJA fees were awarded in 149 instances 
from 1999 to 2005, resulting in the agency paying more than $6 million 
in fees during this 7-year period (Table 3).\6\ To put these numbers in 
context, between 1982 and 1994 all Federal agencies reported court EAJA 
decisions awarding $29.6 million, with an average award size of $5,250 
(U.S. Government Accountability Office [GAO] 1998). The number of cases 
per year in which the agency paid fees ranged from 9 cases in 2002 to 
29 cases in both 2001 and 2004, with an average annual number of cases 
of 21. Total fee awards per year ranged from $232,348 in 2000 to 
$1,412,804 in 2004, with annual awards averaging $876,798. The average 
award per case during the 7 years was $41,192, although 18 payments 
exceeded $100,000 (Table 4). It is unclear whether average annual fees 
are increasing.
---------------------------------------------------------------------------
    \6\ One case, which resulted in a $75,000 payment, did not list a 
year of payment. We omitted that case from our inventory and subsequent 
analysis.

      TABLE 3.--U.S. FOREST SERVICE'S EQUAL ACCESS TO JUSTICE ACT AWARD PAYMENTS BY YEAR FROM 1999 TO 2005
----------------------------------------------------------------------------------------------------------------
                                                                                     Number of        Average
                              Year                                 EAJA payments  cases/payments      payment
----------------------------------------------------------------------------------------------------------------
1999............................................................        $794,774              21         $37,846
2000............................................................         232,348              12          19,362
2001............................................................         999,938              29          34,481
2002............................................................         626,741               9          69,638
2003............................................................         794,414              23          34,540
2004............................................................       1,412,804              29          48,717
2005............................................................       1,276,564              26          49,099
                                                                 -----------------------------------------------
      Total.....................................................       6,137,583             149          41,192
----------------------------------------------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.


 TABLE 4.--FREQUENCY OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT
                      AWARDS FROM 1999 THROUGH 2005
------------------------------------------------------------------------
                                                             Frequency
                  Award/payment amount                      (number of
                                                             payments)
------------------------------------------------------------------------
Less than $500..........................................               3
$501-1,000..............................................  ..............
$1,001-5,000............................................              28
$5,001-10,000...........................................              16
$10,001-20,000..........................................              21
$20,001-30,000..........................................              20
$30,001-50,000..........................................              23
$50,001-75,000..........................................              14
$75,001-100,000.........................................               6
$100,001-150,000........................................              12
$150,001-200,000........................................               3
$200,001-300,000........................................               3
Over $300,000...........................................  ..............
------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

Payment Location and Recipients
    We used the information from the USFS records to understand where 
the cases supporting EAJA payments were located. These records also 
allowed us to learn the types and names of plaintiffs receiving EAJA 
fees.
    We categorized the responses to our FOIA request by USFS region 
(Figure 1). Payments per region ranged from $114,310 in Region 9 
(Eastern Region) to $1,408,140 in Region 1 (Northern Region; Table 5). 
The number of cases ranged from 4 in Region 9 to 30 in Region 1. It is 
important to note that Region 2 did not provide data for 1999 and 2000 
and that Region 8 did not provide data for 2005. This suggests that our 
results underestimate the number of fees paid and their total amount.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Figure 1.--Boundaries of the U.S. Forest Service regions (map was 
provided courtesy of U.S. Forest Service). Note that there is no Region 
                                   7.


   TABLE 5.--U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT AWARDS BY
                      REGION FROM 1999 THROUGH 2005
------------------------------------------------------------------------
                                                             Number of
               Region \1\                  EAJA payments  cases/payments
------------------------------------------------------------------------
1.......................................      $1,408,140              30
2 \2\...................................         360,776              19
3.......................................         632,908              21
4.......................................         698,645              20
5.......................................         999,239              13
6.......................................         850,584              22
8 \3\...................................         347,943               5
9.......................................         114,310               4
10......................................         406,350               5
WO......................................         318,689              10
                                         -------------------------------
      Total.............................       6,137,584             149
------------------------------------------------------------------------
\1\ There is no Region 7.
\2\ Region 2 did not provide 1999-2000 data.
\3\ Region 8 did not provide 2005 data.
 
WO, Washington Office.
 
Source: Data provided by the U.S. Forest Service.

    USFS records were also used to categorize the litigants receiving 
EAJA fee awards. We organized the fee recipients into five categories:
      Attorney/Law Firm.--Fee recipients who could be easily identified 
        as an attorney or a law firm.\7\
---------------------------------------------------------------------------
    \7\ It is important to note that the fee recipients in the attorney 
category represented clients that can be categorized into one of the 
other categories--all attorneys and law firms represented clients in 
these cases.
---------------------------------------------------------------------------
      Commodity Interests.--Fee recipients involved in commodity 
        production, such as ranching and grazing operations, timber 
        companies, and mining organizations.
      Environmental Organizations.--Fee recipients whose stated 
        organizational goal was to protect some aspect of the 
        environment.
      Individuals.--Fee recipients who were individuals and not readily 
        identifiable as attorneys (but who may include attorneys).
      Other.--Fee recipients, such as Native American tribes, who could 
        not be classified into another category.
    USFA records listed a fee recipient for 120 of the 149 EAJA awards 
the agency reported (Table 6). Eighty-three (69.2 percent) of these 120 
recipients were environmental organizations, and more than two-thirds 
($3.2 million) of EAJA fees were paid to these organizations. The 
agency records did not allow us to determine whom attorneys or law 
firms represented. Thus, the number and percentage of fee recipients in 
the other four categories may vary from the results presented in Table 
6.

 TABLE 6.--NUMBER AND DOLLAR AMOUNT OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT AWARD PAYMENTS FROM 1999
                                     THROUGH 2005, BY TYPE OF FEE RECIPIENT
                           [Percentages may not equal 100 percent because of rounding]
----------------------------------------------------------------------------------------------------------------
                                                                     Number of     Dollar amount
                                                                   Equal Access      of Equal      Percentage of
                      Type of fee recipient                       to Justice Act     Access to     Equal Access
                                                                      awards        Justice Act   to Justice Act
                                                                     received         awards       award dollars
----------------------------------------------------------------------------------------------------------------
Environmental...................................................              83      $3,219,447            69.4
Commodity.......................................................               6         400,932             8.6
Attorney/law firm...............................................               9         308,627             6.7
Individuals (may include attorneys).............................              11         426,124             9.2
Other...........................................................              11         286,286            6.2
----------------------------------------------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

    USFS data allowed us to determine the litigants that repeatedly 
received EAJA awards. All the litigants awarded fees in more than one 
case were environmental groups (Table 7). Nine of these 14 groups are 
listed by Gambino Portuese et al. (2009) in their list of 12 most 
frequent parties opposing USFS in land-management cases from 1989 to 
2005. In fact, The Wilderness Society is the only ``high frequency 
party''--parties Gambino Portuese et al. (2009) found averaged two or 
more cases per year--that was not involved in more than one of the EAJA 
cases. This raises questions, which our data can not conclusively 
answer: do these groups litigate more because their legal costs are 
reimbursed, and/or do they request EAJA fees so often because they 
litigate often? A lack of risk to plaintiffs operating under one-way 
fee shifting, like the EAJA, where the plaintiff bears no possibility 
of having to pay the agency defendant's legal costs can theoretically 
favor litigation, particularly over less expensive conflict settlement 
options (Rowe 1984, Gambino Portuese et al. 2009).

TABLE 7.--ORGANIZATIONS LISTED AS A PLAINTIFF IN MORE THAN ONE LAWSUIT 
  AGAINST THE U.S. FOREST SERVICE THAT RESULTED IN AN EQUAL ACCESS TO 
 JUSTICE ACT PAYMENTS FROM 1999 THROUGH 2006, BY NUMBER OF TIMES LISTED

------------------------------------------------------------------------
                                                             Number of
                                                           times listed
                    Organization name                      as plaintiff
                                                           in EAJA suit
------------------------------------------------------------------------
American Wildlands......................................               6
Center for Biological Diversity.........................               6
Earthjustice............................................               3
Forest Guardians........................................               8
Heartwood (includes Kentucky Heartwood).................               7
Idaho Sporting Congress.................................               8
Kettle Range Conservation Group.........................               4
Klamath Siskiyou Wildlands Center.......................               2
League of Wilderness Defenders..........................               4
Native Ecosystems Council...............................               7
Oregon Natural Resources Council........................               5
Sierra Club/Sierra Club Legal Defense Fund..............              12
Swan View Coalition.....................................               4
The Ecology Center......................................               9
                                                         ---------------
      Total.............................................              85
------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

Discussion
    The challenge in analyzing our results is that we are left with 
perhaps more questions than with which we began. Although we can 
contribute to the empirical understanding of fee shifting and land-
management litigation, we cannot resolve the entirety of questions 
surrounding EAJA with any degree of certainty.
    In terms of what our study can definitively tell us, we know this 
much. We can establish that USFS faces a formidable litigation 
environment and that the number of lawsuits is increasing. We found 
that lawsuits against the agency are accompanied by requests for legal 
fees under the EAJA and that the agency has paid out approximately $6 
million over a 7-year period--although we acknowledge that this dollar 
total is imprecise. This is a relatively small percentage of USFS's 
annual budget,\8\ and that is not surprising because only a small 
percentage of the thousands of projects proposed by USFS are ultimately 
litigated. We also found that the most common USFS EAJA fee recipients, 
environmental groups, are also the organizations that file the most 
lawsuits against the agency (Gambino Portuese et al. 2009). Finally, 
although not homogenous, most of these frequent environmental litigants 
possess substantial financial resources (Table 8).
---------------------------------------------------------------------------
    \8\ For example, the fiscal year 2009 U.S. Forest Service budget 
for the National Forest System was $1.51 billion (USDA 2009).
---------------------------------------------------------------------------
    By using the example of national forest litigation and of the 
litigants from our study, we can also establish that current use of 
EAJA by these plaintiffs diverges from the law's initial purpose on its 
passage nearly 30 years ago. As discussed earlier, the congressional 
intent behind the EAJA appears focused. The overarching theme behind 
the statute's passage was the prevention of ``excessive Government'' 
regulation. The three goals of the EAJA were to ``(1) encourage parties 
that are the subject of unreasonable Federal Government action to seek 
reimbursement for attorney's fees and other costs, (2) restrain 
overzealous regulators, and (3) ensure that the Government pays for the 
costs of refining and formulating public policy'' (GAO 1998, p. 8). 
Bill sponsor Senator Pete V. Domenici stated that the EAJA's purpose 
was ``to redress the balance between the Government acting in its 
discretionary capacity and the individual'' (House Hearing 1980). The 
EAJA was intended to allow plaintiffs access to the legal system to 
challenge excessive regulation by the Federal Government, particularly 
where such regulations caused economic harm to members of the public. 
Although agencies such as the Environmental Protection Agency (EPA) 
typically engage in public regulation, land-management agencies, such 
as USFS, do not. Legal actions directed against land-management 
agencies are rarely brought by individuals or small businesses 
contesting excessive Government regulation. Rather, litigation against 
USFS usually challenges discretionary land-management decisions.\9\ The 
Congress was informed that EAJA could be used in lawsuits contesting 
agency decisions. For example, during EAJA's legislative hearings 
Federal agencies, including the EPA, warned the Congress of the bill's 
potential to encourage excessive interference with agency 
decisionmaking (Mezey and Olson 1993). Whether the Congress disregarded 
or underestimated these concerns is difficult to discern; however, 
recent events, such as the Western Congressional Caucus members' 
(Western Congressional Caucus 2009) and Idaho Senate Delegation's 
(2009) letters to DOJ, indicate that some legislators believe EAJA may 
not be addressing its original purposes. The Congress's intention when 
it enacted EAJA was to address the resource disparity between private 
litigants and the Government--the ultimate ``repeat player'' (see 
Galanter 1974). However, our findings suggest EAJA's legal eligibility 
requirements may not be restricting its use to groups with limited 
financial resources. For example, we found the organizations involved 
in more than one EAJA case collectively reported net assets in 2005 of 
more than $88 million and annual revenues of more than $116 million 
(Table 8).
---------------------------------------------------------------------------
    \9\ For example see Figure 5 of Keele et al. (2006), which 
illustrates the types of management activities most often challenged in 
U.S. Forest Service land-management litigation.
---------------------------------------------------------------------------

 TABLE 8.--DESCRIPTION AND 2005 FINANCIAL SUMMARY OF THE ORGANIZATIONS 
LISTED AS A PLAINTIFF IN MORE THAN ONE LAWSUIT AGAINST THE U.S. FOREST 
 SERVICE, WHICH RESULTED IN EQUAL ACCESS TO JUSTICE ACT AWARD PAYMENTS 
           FROM 1999 THROUGH 2006, BY NUMBER OF TIMES LISTED

------------------------------------------------------------------------
            Organization name               Net assets       Revenues
------------------------------------------------------------------------
American Wildlands......................        $438,600        $521,833
Center for Biological Diversity.........       2,347,991       3,477,044
Earthjustice............................      28,261,755      21,086,300
Forest Guardians........................         511,326         764,626
Heartwood...............................          86,539         159,435
Idaho Sporting Congress.................          31,657          60,428
Kettle Range Conservation Group.........         ( \1\ )         ( \1\ )
Klamath Siskiyou Wildlands Center.......          73,199         350,684
League of Wilderness Defenders..........          16,171          82,996
Native Ecosystems Council...............         ( \2\ )         ( \2\ )
Oregon Natural Resources Council (now          1,181,477       1,214,995
 Oregon Wild) \3\.......................
Sierra Club \4\.........................      54,604,888      85,183,435
Swan View Coalition.....................          84,040          37,891
The Ecology Center......................       1,166,694       3,158,765
                                         -------------------------------
      Total.............................      88,804,337    116,098,442
------------------------------------------------------------------------
\1\ Tax extension filed.
\2\ Information not available on Guidestar.
\3\ Guidestar data from 2004.
\4\ Agency records repeatedly list the Sierra Club as an EAJA fee
  recipient. Because the Sierra Club is ineligible to receive fees as a
  501(c)(4) organization, the court awards were most likely awarded to
  the Sierra Club Legal Defense Fund.
 
Source: Guidestar.org., n.d.

    We can also draw some informed conclusions from both the fee-
shifting literature and from our findings. We recognize immediately 
that the behavior of any particular litigant is highly context specific 
and the effects of fee-shifting legislation such as EAJA are difficult 
to predict. Additionally, the rationale to litigate is multivariate; 
Armstrong (2008), e.g., lists nine plausible reasons why a party would 
choose litigation over alternative dispute resolution. That said, the 
literature is consistent in suggesting that fee shifting reduces the 
risk of choosing litigation for would-be plaintiffs (e.g., Rowe 1984). 
Litigation under the American Rule is an inherently risky conflict 
resolution alternative because failure to prevail can be financially 
costly to the parties. It is even more risky under a fee-shifting 
arrangement, such as the English Rule, wherein the loser pays the 
winners' legal expenses. This risk is shared symmetrically only if both 
parties are potentially liable for prevailing opponent's legal costs--
known as two-way fee shifting--something EAJA does not require. If USFS 
prevails, the losing plaintiffs are not required to pay the 
Government's legal fees and costs associated with defending the action. 
In turn, this may reduce the perceived risk of commencing litigation 
(Rowe 1984). Kagan (2001) suggests that the number of lawsuits brought 
to trial is a function of how plaintiffs perceive the ``stakes'' in 
those lawsuits. That is to say, the likelihood of success and the 
expected value of winning lawsuits are related directly to the number 
of lawsuits. Exposure to unfavorable rulings, the costs of bringing the 
lawsuit, and the threat of having to pay other party's legal costs all 
contribute to the decision to litigate. However, EAJA influences this 
decision process by providing for partial fee shifting.
    Additionally, because lawsuits against USFS are unlikely to succeed 
in general, these suits could subsequently be classified as low-
probability litigation.\10\ It has been noted that ``plaintiffs in . . 
. low-probability litigation . . . are likely to be risk seeking'' 
(Guthrie 2000 p. 187), and more likely to prefer judicial outcomes to 
negotiated settlement options. Partial fee shifting's distortion of 
lawsuit risk presumably encourages both repeat plaintiffs and an 
increasing number of lawsuits. Our EAJA litigation findings--that 
frequent USFS litigators are also frequent EAJA claimants--provide 
evidence of this, although as we have noted several times this 
relationship is not well defined or understood. The potential to avoid 
paying their own fees (and never having to pay their opponent's fees) 
means that EAJA-eligible plaintiffs do not face the same risks as do 
typical defendants under the American Rule (Rowe 1984). Frequent USFS 
plaintiffs as rational, self-interested litigators would likely have 
some sensitivity to the monetary costs of lawsuits (Fein 1984, Greve 
1990, Adler 1996, Barnett and Terrell 2001). The financial risk 
asymmetry created by EAJA would not be lost on such plaintiffs. Other 
factors must be considered as well: Malmsheimer et al. (2004, p. 24) 
hypothesized that groups secure other benefits from litigation ``. . . 
such as publicity and delay of U.S. Forest Service action . . .'' and 
Juni (2002, p. 93-94) likewise noted that ``environmental groups' 
donations may suffer if [they use a nonlitigation] . . . approach [that 
can be] viewed as less `splashy.' '' Alternatively, it has been 
suggested that litigation is actually an effective means to facilitate 
cooperative bargaining and agreements between plaintiffs and agency 
defendants (Coglianese 1996). Regardless of the specific set of 
motivations facing a particular plaintiff--and on which we can only 
ponder--one-way fee shifting under the EAJA decreases the potential 
financial risk associated with national forest litigation.
---------------------------------------------------------------------------
    \10\ During a 20-year period from 1989 to 2009, plaintiffs suing 
the U.S. Forest Service prevailed on the merits in only 19.3 percent of 
the cases (based on an analysis of the database described at Keele et 
al. 2006). Although the effects of any one suit may be extensive, for 
purposes of this article, we generally consider such litigation to have 
a low probability of success.
---------------------------------------------------------------------------
    Finally, there are various questions about which we can only 
speculate. We have previously mentioned the riddle of whether more 
frequent litigants naturally make more frequent EAJA requests for legal 
fees or whether more frequent EAJA awards facilitate more frequent 
litigation. This we cannot answer. Likewise, we cannot address whether 
the EAJA has incentivized any particular lawsuit. Nor can we quantify 
the role that EAJA fees might play in the overall operating budgets of 
potential plaintiffs--thereby framing EAJA's relative potential as an 
incentive--because we do not have access to these organizational 
finances. What little information we do have access to (Internal 
Revenue Service Form 990s) is inconsistent and lacking in detail among 
the various plaintiffs in this study. Likewise, we cannot conclude that 
in the absence of the EAJA the number of lawsuits against the U.S. 
Forest Service would subside. Finally, we cannot make any claims to how 
paying $6 million in legal fees has affected the U.S. Forest Service, 
apart from noting that, generally, the specter of lawsuits does affect 
agency perceptions and behaviors (Mortimer et al. 2011). In keeping 
with what prior scholarship has noted (see Kritzer 2002), there are 
formidable empirical challenges to making concrete claims on the effect 
of fee shifting, and it is no less the case in this instance.
Conclusion
    The increasing use of litigation as a tool to influence Federal 
public land-management agency decisions remains controversial and 
politically charged. Our investigation of EAJA's interaction with the 
U.S. Forest Service suggests several findings important to future 
policy discussions and to understanding the relationships among the 
litigants:
  --The EAJA creates a litigation risk asymmetry that may cause 
        stakeholders dissatisfied with U.S. Forest Service land-
        management decisions to embrace litigation. Enabling this 
        behavior through one-way fee shifting is, of course, a public 
        policy decision, but statutory reform of any perceived 
        inequities or undesirability associated with EAJA and one-way 
        fee shifting would necessarily require plaintiffs to face some 
        ``. . . real prospect of out-of-pocket loss'' (Guthrie 2000, p. 
        211).
  --There remains insufficient evidence to conclude that the EAJA is a 
        driver for any particular plaintiff to challenge any particular 
        U.S. Forest Service project. Decisions to litigate are likely 
        driven by multiple factors and policymakers should realize that 
        EAJA reform might not eliminate or reduce U.S. Forest Service 
        land-management litigation. For example, some organizations' 
        raison d'etre is to initiate ``public interest litigation.'' 
        Even if EAJA were completely repealed, these organizations 
        would likely continue to sue land-management agencies. Also, 
        some national forest management decisions are so offensive to 
        some stakeholders that litigation is probably inevitable. 
        Additionally, as Gambino-Portuese et al. (2009, p. 22, emphasis 
        in original) noted, ``the vast majority of parties (74.4 
        percent) are only involved in one lawsuit. These are groups and 
        individuals whose interest is in a specific U.S. Forest Service 
        project or activity and who use litigation to try to change 
        that particular . . . land management decision.'' It is 
        doubtful that these ``one-timers'' take EAJA's distortion of 
        litigation risk into account when they make litigation 
        decisions. Most importantly, many organizations have found that 
        litigation provides an effective policy forum. It is often a 
        more effective and less costly alternative to the resources 
        required to effect policy changes in administrative and 
        legislative branches or participate in collaborative public 
        land-management efforts.
  --The original intent of the EAJA has drifted with its use in 
        national forest management litigation. In our study, most EAJA 
        payments were made to environmental interest groups with widely 
        varying financial capabilities. We note that many are quite 
        well financed and therefore not the class of plaintiffs for 
        which the law was designed to provide access to the expensive 
        federal litigation system. The increasing capabilities and 
        sophistication of such public interest litigants, their 
        relative financial resources, and the social desirability of an 
        evolution in the usage of the EAJA might be related topics of 
        inquiry for future policy studies of fee shifting and the EAJA.
Literature Cited
    Adler, J.H. 1996. Rent seeking behind the green curtain. Regulation 
4:26-34.
    Armstrong, P.M. 2008. Why we still litigate. Pepp. Disp. Resol. Law 
J. 8(3):379-384.
    Barnett, A.H., and T.D. Terrell. 2001. Economic observations on 
citizen-suit provisions of environmental litigation. Duke Environ. Law 
Policy 12(1):1-38.
    Benson, B.L. 2006. Unnatural bounty: Distorting the incentives of 
major environmental groups. PERC Policy Series (PS-37):29.
    Broussard, S.R., and B.D. Whitaker. 2009. The Magna Charta of 
environmental legislation: A historical look at 30 years of NEPA-Forest 
Service litigation. For. Policy Econ. 11: 148-154.
    Budd-Falen, K. 2009. September 15 Memorandum Re: Environmental 
litigation gravy train. Available online at 
www.westernlegacyalliance.org/images/pdfs/September_15.pdf; last 
accessed Sept. 1, 2010.
    Coglianese, C. 1996. Litigating within relationships: Disputes and 
disturbance in the regulatory process. Law Soc. Rev. 30(4):735-765.
    Council on Environmental Quality (CEQ). 2009. NEPAnet. NEPA 
litigation (online). Available online at www.nepa.gov/nepa/nepanet.htm; 
last accessed July 15, 2009.
    Fein, B. 1984. Citizen suit attorney fee shifting awards: A 
critical examination of Government subsidized litigation. Law Contemp. 
Prob. 47(1):211-232.
    Galanter, M. 1974. Why the ``haves'' come out ahead: Speculations 
on the limits of legal change. Law Soc. Rev. 9:95-160.
    Gambino-Portuese, B., R.W. Malmsheimer, A. Anderson, D.W. Floyd, 
and D.M. Keele. 2009. Litigants' characteristics and outcomes in Forest 
Service land management cases 1989 to 2005. J. For. 107(1):16-22.
    Greve, M.S. 1990. The private enforcement of environmental law. 
Tulane Law Rev. 65:339-394.
    Guidestar.Org. n.d. About us. Available online at 
www.guidestar.org/; last accessed June 18, 2007.
    Guthrie, C. 2000. Framing frivolous litigation: A psychological 
theory. Univ. Chicago Law Rev. 67(1):163-216.
    Hogfoss, R. 1985. The Equal Access to Justice Act and its effect on 
environmental litigation. Environ. Law 15(3):533-563.
    House Hearing. 1980. Hearing before the Subcommittee on Courts, 
Civil Liberties, and the Administration of Justice of the House 
Committee on the Judiciary on S. 265. U.S. House of Representatives, 
96th Cong., 2nd Sess.
    Idaho-Senate-Delegation. 2009. Available online at 
www.westernlegacyalliance.org/images/pdfs/november_9.pdf; last accessed 
Sept. 1, 2010.
    Jones, E.S., and C.P. Taylor. 1995. Litigating agency change: The 
impact of the courts and administrative appeals process on the Forest 
Service. Polit. Stud. J. 23(2):310-336.
    Juni, R.L. 2002. Public access to environmental dispute resolution 
processes: U.S. and U.K. trends towards a common approach. P. 87-103 in 
Environmental dispute resolution: An anthology of practical solutions. 
MacNaughton, A.L., and J.G. Martin (eds.). ABA Publishing, Chicago.
    Kagan, R.A. 2001. Adversarial legalism: The American way of law. 
Harvard University Press, Cambridge. 339 p.
    Keele, D.M., R.W. Malmsheimer, D.W. Floyd, and J.E. Perez. 2006. 
Forest Service land management litigation 1989-2002. J. For. 
104(4):196-202.
    Knudson, T. 2001. Litigation central: A flood of costly lawsuits 
raises questions about motive (third of five parts). Sacramento Bee, 
April 24.
    Krent, H.J. 1993. Fee shifting under the Equal Access to Justice 
Act--A qualified success. Yale Law Policy Rev. 11(2):458-508.
    Kritzer, H.M. 2002. Lawyer fees and lawyer behavior in litigation: 
What does the empirical literature really say? Texas Law Rev. 80(7): 
1943-1983.
    Large, D.W. 1972. Is anybody listening? The problem of access in 
environmental litigation. Wisconsin Law Rev. 62(1):62-113.
    Malmsheimer, R.W., D. Keele, and D.W. Floyd. 2004. National forest 
litigation in the U.S. Courts of Appeals. J. For. 102(2): 20-25.
    Mezey, S.G., and S.M. Olson. 1993. Fee shifting and public policy: 
The Equal Access to Justice Act. Judicature 77(131):13-20.
    Mortimer, M.J. 2002. The delegation of lawmaking authority to the 
U.S. Forest Service: Implications in the struggle for national forest 
management. Admin. Law Rev. 54(3):907-982.
    Mortimer, M.J., M.J. Stern, R.W. Malm-Sheimer, D.J. Blahna, L.K. 
Cerveny, and D.N. Seesholtz. 2011. Environmental and social risks: 
Defensive National Environmental Policy Act in the U.S. Forest Service. 
J. For. 109(1):27-33.
    Nie, M. 2008. The underappreciated role of regulatory enforcement 
in natural resource conservation. Polit. Sci. 41:139-164.
    Rowe, T.D. JR. 1984. Predicting the effect of attorney fee 
shifting. Law Contemp. Probs. 47(1):139-171.
    Senate Hearing. 2006. Hearing before the Committee on Energy and 
Natural Resources on Proposed Fiscal Year 2007 Budget Request for the 
Forest Service. U.S. Senate, 109th Cong., 2nd Sess.
    Sisk, G.C. 1993. A primer on awards of attorney's fees against the 
Federal Government. Arizona State Law J. 25(4):733-800.
    Sullivan, J.J. 1984. The Equal Access to Justice Act in the Federal 
Courts. Columbia Law Rev. 84(4):1089-1117.
    The Missoulian. 2007. Equal access to injustice, more like it. The 
Missoulian, March 19, Opinion page.
    Thomas, J.W. 2000. What now? From a former Chief of the Forest 
Service. P. 10-43 in A vision for the U.S. Forest Service: Goals for 
its next century. Sedjo, R.A. (ed.). Resources for the Future Press, 
Washington, DC.
    USDA. 2009. Fiscal Year 2011 Budget Summary and Annual Performance 
Plan. Available online www.obpa.usda.gov/budsum/FY11budsum.pdf; last 
accessed Jan. 17, 2011.
    U.S. Government Accountability Office (GAO). 1998. Equal Access to 
Justice Act: Its use in selected agencies. GAO/HEHS-98-58R, Washington, 
DC. 28 p.
    Western Congressional Caucus. 2009. Available online at 
www.westernlegacyalliance.org/images/pdfs/
doj_eaja_final_letter_11_3_09.pdf; last accessed June 10, 2010.
                                 ______
                                 
    Prepared Statement of the South Eastern Wildlife & Environment 
                      Education Association, Inc.

    Mr. Chairman and members of the subcommittee, on behalf of the more 
than 1,100 members of the South Eastern Wildlife & Environment 
Education (SEWEE) Association, Friends Group for Cape Romain, EFH ACE 
Basin and Waccamaw National Wildlife Refuges in South Carolina, I would 
like to thank you for your commitment to the National Wildlife Refuge 
System (NWRS) through increased funding over the past few years. We 
realize that in this time of budget cuts, it may be difficult to 
justify increasing the NWRS funding, but once the Refuges start to 
decline it will cost many times more than these small increases to 
return them to a condition that will fulfill their mandates. We 
respectfully request that you consider the following in your 
appropriations:
  --Fund NWRS $495 million in fiscal year 2013, essentially keeping 
        level funding from fiscal year 2012.
  --Fund the Land and Water Conservation Fund (LWCF) at $700 million 
        for fiscal year 2013.
  --Fund Visitor Services for the NWRS at $80 million for fiscal year 
        2013.
  --Support $3.8 million in fiscal year 2013 for Challenge Cost Share 
        (CCS).
    Our partner refuges are located along coastal South Carolina in 
five counties, from Myrtle Beach through Georgetown and Charleston and 
into the nationally acclaimed ACE Basin area. The budget increases in 
the past few years have helped them to increase management, protection, 
and restoration of the Refuges and given them the ability to better 
meet their Comprehensive Conservation Plan (CCP) goals. For example, in 
2010 the Cape Romain Refuge Manager left for another position in 
Florida and in early 2011 the resident biologist was promoted to this 
position. We were so excited to have this happen, as this person has 
worked on this refuge for several years and had a great perspective of 
the needs and challenges. However, with delays in budget approvals, 
they were not able to fill the now vacant position of the biologist 
that year. This was a major problem as Cape Romain has the most active 
Loggerhead Sea Turtle nest protection program in South Carolina, which 
is a major project for the biologist. Our dedicated refuge manager made 
sure this project was able to continue while more than 1,200 nests were 
laid in the refuge that summer. With your support of continued 
Operations and Maintenance funding for fiscal year 2012, Cape Romain 
will now be able to hire a biologist this year as we prepare for a new 
nesting season. This has become even more critical as Hurricane Irene 
had major impacts on the refuge islands last year and new procedures 
will be needed to monitor and protect all the nests laid in the refuge 
this year. All of our refuges operate with very small staffs, so they 
would not be able to handle any staff reductions. They have already 
participated in staffing reviews and reductions and are at their 
minimum level, so we ask that you allow them to keep their current 
levels.
    Another major need in Operations and Maintenance is for dredging of 
the Cape Romain docks and landing at Garris Landing and on Bulls 
Island. Between natural silting action and extreme high tides, the dock 
basins at these sites are almost unusable at low tide. Their boats 
cannot be subjected to potentially ``bottoming'' overnight as the 
repairs would be very expensive. Also, the boat landing has filled in 
as well and is almost inaccessible at low tide. This not only impacts 
the refuge staff, but all the recreational and commercial boaters who 
use this facility. As no one can control the extremes in tides that we 
are experiencing, the only option is to dredge this area to allow it to 
be used by the public and by refuge staff. We appreciate your support 
of the funding levels for fiscal year 2012 and ask that you support the 
continuation of that level for fiscal year 2013 so that projects like 
this can be done before they become more expensive.
    Our partners are also involved in land acquisitions that are funded 
in part by the Land and Water Conservation Fund. These oil and gas 
revenues have allowed Waccamaw NWR to work with The Nature Conservancy 
to protect valuable lands within their boundaries that were offered for 
sale by International Paper as they scaled back their holdings. These 
floodplain areas are now protected for various species and have water 
and land trails for use by the public to explore. Cape Romain NWR is 
working with Francis Marion National Forest and the National Park 
Service to protect lands along the Gullah Geechee National Historic 
Corridor and to protect long-leaf pine habitat from the coast to the 
midlands as part of the America's Great Outdoors project. Funding of 
LWCF at the requested levels will allow this valuable work to continue.
    SEWEE Association has been the Friends Group for Cape Romain NWR 
since 1996 and in 2002 we added EFH ACE Basin NWR and Waccamaw NWR as 
our partners. We have been able to provide Environmental Education to 
more than 100,000 students and teachers through our staff and 
volunteers on these refuges and gain tremendous support for our 
partners through this work. We also have provided interns and 
technicians to the refuges to help with special projects, such as the 
Loggerhead Sea Turtle nest protection; eradication of invasive species; 
water quality monitoring and shorebird surveys. We also were able to 
supply major funding to help with the exhibits of the new Waccamaw 
Environmental Education Center and with upgrades to audio-visual 
equipment at Cape Romain's Sewee Visitor and Environmental Education 
Center. Our association members are passionate about our refuges and 
want to see them have a chance to meet their mission. Therefore we ask 
you to help us through these requests:
  --The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
        that the NWRS needs a budget of at least $900 million annually 
        in operation and maintenance funding in order to properly 
        administer its 150 million acres as mandated in the Refuge 
        Improvement Act. The current budget is far short of the amount 
        actually required to effectively operate and maintain the 
        Refuges. In this time of tightening budgets, we respectfully 
        request that you keep the NWRS budget at the same level as 
        fiscal year 2012 ($495 million) so that the Refuges do not 
        backslide even further in protecting these valuable lands and 
        ecosystems.
  --The Land and Water Conservation Fund was created in 1965 and 
        authorized at $900 million. We ask that you fund the LWCF at 
        $700 million for fiscal year 2013. These funds are used for 
        land acquisition to protect wildlife and their habitats. With 
        the effects of a changing climate, it is more important now 
        than ever to establish key wildlife corridors between protected 
        areas so wildlife can migrate to more suitable habitat as their 
        historic ones changes. These landscape level conservation 
        efforts through conservation easements and land purchases are 
        the best way to protect the diversity of flora and fauna. The 
        price of real estate is low at this time and the $700 million 
        can go much further in protecting habitats than it can in a 
        higher market. When we start to lose species due to lack of 
        food, water, shelter, or space, we are changing the balance of 
        nature. We urge you to fund the LWCF at $700 million for fiscal 
        year 2013. The LWCF is not funded by taxpayer money.
  --The refuges give the American people places to connect with nature 
        and get involved. In 2011 refuge Friends and volunteers 
        contributed 1.5 million hours of work for the refuge system. 
        This is about eight volunteers for every one refuge system 
        employee. These Friends and volunteers do approximately 20 
        percent of all work on refuges for free. Without a refuge 
        system employee to guide them, the volunteers can't perform 
        these valuable free services. We request $80 million for 
        Visitors Services for the NWRS.
  --Please support the Challenge Cost Share (CCS) with $3.8 million in 
        fiscal year 2013. Partners are the key to successful 
        conservation. The Federal Government doesn't need to foot the 
        bill alone. Through programs that leverage Federal dollars 
        (such as the CCS program), partner organizations such as our 
        Refuge Friends groups can get matching dollars from other 
        entities to give the American taxpayers more for their dollars. 
        Projects such as trails, education, boardwalks, and habitat 
        restoration give the American public places to connect with 
        nature and relax.
    In conclusion, the SEWEE Association believes the National Wildlife 
Refuge System can meet its important conservation objectives only with 
strong and consistent funding leveraged by the valuable work of refuge 
staff and volunteers. We again extend our appreciation to the 
subcommittee for its ongoing commitment to our NWRS. We encourage you 
to approve a $495 million for the fiscal year 2013 NWRS operations and 
maintenance budget managed by FWS and to approve $700 million for 
fiscal year 2013 for the LWCF land acquisition budget as well as 
funding refuge Visitor Services at $80 million and the CCS at $3.8 
million.
                                 ______
                                 
 Prepared Statement of the SouthEast Alaska Regional Health Consortium

    My name is Charles Clement and I am the President and CEO of the 
SouthEast Alaska Regional Health Consortium (SEARHC). Chairman Simpson, 
Ranking Member Moran, and members of the subcommittee, it is a pleasure 
to be here and I thank you for the opportunity to testify before this 
Committee.
    I have been involved in the provision of Alaska Native healthcare 
for 15 years. Prior to my employment at SEARHC I worked for the 
Southcentral Foundation in Anchorage, Alaska, as the vice president/
chief operating officer; vice president--operations; director of 
information technology/chief information officer; and special assistant 
to the president. As the new president/CEO of SEARHC, I am amazed at 
the positive impact the consortium has on the health spectrum of Alaska 
Natives.
    SEARHC is an inter-tribal consortium of 18 federally recognized 
tribes situated throughout the southeast panhandle of Alaska. Our 
considerable service area encompasses more than 35,000 square miles, an 
area larger than the State of Maine. With no road system connecting our 
communities, the challenges to deliver robust health services are 
considerable.
    I am proud to say that SEARHC meets these challenge through a 
network of community clinics and through the Mount Edgecumbe Hospital. 
We provide an array of health services that includes medical, dental, 
mental health, physical therapy, radiology, pharmacy, laboratory, 
nutritional, audiology, optometry and respiratory therapy services. In 
addition we provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing.
    We administer more than $42 million in IHS facilities and related 
programs and services and have had more than 115,040 encounters in the 
last fiscal year. These are Federal services which we operate on behalf 
of the Federal Government through a self-governance compact and 
associated funding agreement.
    To carry out IHS programs under this contract requires us to incur 
certain fixed costs, including a number of costs mandated by the 
Federal Government. These costs include substantial annual audit costs, 
insurance costs and an array of administrative costs to operate our 
personnel and financial management systems.
    Only a portion of the contract support costs for the above health 
services are covered in the direct service budget which IHS contracts 
to pay for under our funding agreement. This is because IHS either does 
not incur these costs at all (in the case of audit expenses and 
insurance costs), or because IHS receives resources to carry out these 
functions from other portions of the IHS budget, other divisions of the 
Department of Health and Human Services, or even other departments of 
the Federal Government. Still, these are mandatory fixed costs which 
SEARHC must incur every year, and--for SEARHC--these costs are 
negotiated annually by the DHHS Division of Cost Allocation, Western 
Field Office.
    Decades ago SEARHC was required to accept a contract that did not 
provide for the payment of these contract support costs. Over the 
years, through amendments to the Indian Self-Determination Act, the 
Congress changed the law to require that full contract support costs be 
added to the negotiated budget for our direct services. Thus today, 
both the law, as well as our compact and funding agreement, require 
that contract support costs be added in full.
    IHS, however, has not paid the full amount owed under our contract. 
In fact, it is not clear how much IHS will honor under the contract 
until it is fully performed. Even this year--nearly half way through 
the year--we have no idea what IHS will pay us because IHS has not 
announced how it will distribute this year's contract support cost 
funding, which was an increase of $74 million increase.
    As an example of the impact contract support cost underfunding has 
on SEARHC, last fiscal year SEARHC was underpaid approximately $2.8 
million in fixed contract support costs. SEARHC has no tax base and, 
thus, has no way to make up for the difference other than to use 
resources that would otherwise support the delivery of services. This 
shortfall severely impacted on our ability to fully aid the Alaska 
Native community and our ability to provide the maximum level of care 
to our beneficiaries. Interestingly, in other areas of Government 
contracting, the United States does not fail to pay for its contracted 
for services.
    SEARHC is a member of the National Tribal Contract Support Cost 
Coalition, and we fully endorse the NTCSCC's testimony. Full funding of 
support costs in fiscal year 2013, at $100 million increase more than 
the President's request would impact SEARHC daily operations by 
allowing for our contract support costs to be fully paid and preventing 
the need to use direct service funds to supplement contract support 
costs normally unpaid by IHS.
    It has been almost 8 years to the day since the Supreme Court 
required that the Government honor its self-determination contracts 
with tribal healthcare providers in the landmark case Cherokee Nation 
of Oklahoma v. Leavitt, 543 U.S. 631 (2005). Honoring these contract 
support costs obligations is inimical to SEARHC's ability to provide 
robust health services to our community.
    I thank you for the opportunity to testify before the subcommittee 
and would be happy to answer any questions you have for SEARHC.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation

    Southcentral Foundation (SCF) is a tribal organization that 
compacts with the Secretary of Health and Human Services under title V 
of the Indian Self-Determination Act. Under SCF's compact we carry out 
various Indian Health Service programs across our region. In doing so, 
SCF acts pursuant to tribal authority granted by Cook Inlet Region, 
Inc., an Alaska Native regional corporation designated by the Congress 
as an Indian tribe for purposes of Indian Self-Determination Act 
activities. As my testimony reflects, SCF requests that in fiscal year 
2013 the Congress:
  --fully fund our Mat-Su Clinic joint venture staffing requirements, 
        as required by our joint venture contract agreement with IHS; 
        and
  --fully fund SCF's and all other contract support cost requirements 
        at $572 million, as required by more than 330 self-
        determination contracts with IHS.
    SCF has carried out IHS programs under Self-Determination Act 
agreements for more than 25 years. In accordance with its compact with 
the DHHS, SCF currently provides medical, dental, optometric, 
behavioral health, and substance abuse treatment services to more than 
45,000 Alaska Native and American Indian beneficiaries living within 
the Municipality of Anchorage, the Matanuska-Susitna Borough, and 
nearby villages. SCF also provides services to an additional 13,000 
residents of 55 rural Alaska villages covering an area exceeding 
100,000 square miles and larger than the State of Oregon. To administer 
and deliver these critical healthcare services, SCF employs more than 
1,400 people.
    Today I will focus my remarks on two issues, joint venture funding 
and contract support cost funding.
Joint Venture Funding
    The first issue I need to address concerns our joint venture (JV) 
contract with IHS. Under section 818(e) of the Indian Health Care 
Improvement Act, IHS is authorized to enter into JV contracts under 
which a tribe borrows funds to build a facility to IHS specifications, 
and IHS agrees ``to provide the equipment, supplies, and staffing for 
the operation and maintenance of such health facility.'' The agreements 
are contracts and they are enforceable as such.
    Two years ago SCF and IHS entered into a binding JV contract. SCF 
agreed to construct a new 88,451 square-foot Primary Care Clinic in the 
Mat-Su Valley of Alaska, using borrowed funds from non-IHS sources. In 
return, IHS agreed that it ``shall provide the supplies and staffing 
for the operation and maintenance of the Facility . . . subject to 
appropriations by the Congress.'' Art. VIII.A. See also Art. VIII.G 
(``IHS will staff, operate and Maintain the Facility in accordance with 
Articles XI through XIV of this Agreement.''); Art. XI (``As authorized 
by Section 818(e)(2) of Public Law 94-437 (`subject to the availability 
of appropriations for this joint venture project, commencing on the 
beneficial occupancy date IHS agrees to provide the supplies, and 
staffing necessary for the operation and maintenance of the Facility. 
IHS will request funding from the Congress on the same basis as IHS 
requests funding for any other new Facility.')''
    Our concern arises out of the fact that, while we will receive our 
certificate of beneficial occupancy on July 15, 2012, and thus be 
operational during all of fiscal year 2013 at an IHS-calculated 
staffing cost of $27 million, IHS's budget only requests 50 percent of 
the staffing requirement for the Clinic (or $13.5 million). We are 
gravely concerned over this gap, all the more because the original $27 
million which IHS committed to pay already reflects a 15-percent 
reduction of our total staffing costs. (This is because, as a matter of 
policy, IHS will not staff any new facility at more than 85 percent of 
the facility's staffing requirement.) If IHS does not receive 
additional funds to fully meet its contract commitment to SCF, IHS 
would be forced to reprogram other funds to make up for the difference.
    We are not alone in this situation, and some of the other staffing 
packages which IHS is committed to provide are similarly underbudgeted. 
We calculate that to fund the staffing packages will require $95.2 
million, not the $49.2 million requested. Before IHS requests, and 
before the Congress funds, discretionary increases in other IHS 
accounts, contractually committed staffing packages should be paid in 
full.
Contract Support Cost Funding
    The second problem is the budget's inadequate request for contract 
support cost funding--another contractually required payment to Indian 
Self-Determination Act contractors like SCF. The budget requests a mere 
$5 million increase for fiscal year 2013, despite the fact that IHS's 
former contract support cost expert Ron Demaray projects a $99 million 
shortfall in fiscal year 2013 (calculated at the President's proposed 
budget level). Here, we have developed our own projection because, for 
the first time in some 20 years, the IHS budget justification does not 
include a shortfall projection.
    Contract support cost funding reimburses SCF's fixed costs of 
running its contract with IHS. If IHS fails to reimburse these costs, 
SCF has no choice but to cut positions, which in turn cuts services, 
which in turn cuts down our billings and collections from Medicare, 
Medicaid and private insurers (billings which would otherwise go into 
additional staff and services for our people). The reverse is also 
true. When in fiscal year 2010 congressionally appropriated an historic 
increase in contract support cost funding, SCF opened 97 positions to 
fill multiple healthcare provider teams and support staff.
    Our fixed contract support costs are largely ``indirect costs'' 
that are set by the HHS Division of Cost Allocation. The remainder of 
our contract support costs (about 20 percent) are set directly by IHS. 
These costs include federally mandated audits, and such items as 
liability and property insurance, workers' compensation insurance, and 
payroll and procurement systems. We have to buy insurance. We need to 
make payroll. We have to purchase supplies and services, and we have to 
track property and equipment. All of our costs are independently 
audited every year by Certified Public Accountants, as required by law.
    Last year this subcommittee reiterated the binding nature of these 
contracts and directed IHS and the BIA to fully fund all contract 
support cost requirements. The BIA has done this, but the IHS budget 
justification defies the Committee's direction and insists that these 
contracts are not binding at all. So far as we can tell, no other 
contractors are treated this way. HHS, including IHS, only treats its 
contracts with Indian tribes this way--as optional, discretionary 
agreements that it can choose not to pay. We provide a contracted 
service for a contracted price, but IHS only pays us what it chooses to 
pay.
    This has to stop. In fiscal year 2013 IHS should finally pay its 
contract obligations in full. The contract support cost line-item 
should be fully funded at a minimum $571 million.
    As SCF said last year before this Committee, underfunding contact 
support costs disproportionately balances budgetary constraints on the 
backs of tribal contractors. Worse yet, it punishes the people being 
served by forcing reductions in contracted programs. If the Congress is 
going to cut budgets or limit budget increases, fairness demands that 
such actions occur in portions of the budget that are shouldered 
equally by IHS and the tribes and tribal organizations (like the 
contract health services line).
    Again, SCF respectfully calls upon the Congress to provide at least 
$571 million in contract support cost funding for fiscal year 2013, so 
that the Department can finally honor these contracts in full. 
Remember, every tribe has contracts with IHS to carry out some of the 
agency's healthcare services, and most of those tribes are being 
penalized for taking that initiative. Closing the contract support cost 
gap will eliminate that penalty and directly benefit the vast majority 
of Indian and Alaska Native communities served by IHS.
    On a related note, SCF requests that the Congress direct IHS to 
resume promptly disclosing to tribes all IHS data on contract support 
cost requirements and payments. Up until last year, IHS was doing this 
regularly. Then suddenly IHS stopped--we think because IHS may have 
been embarrassed by errors in its data. Now, IHS claims that releasing 
its data may be opposed by some tribes--even though the release of data 
is mandated by section 106 of the ISDA. IHS also claims that because 
the data is also used in a report to the Congress, releasing the data 
violates OMB clearance procedures, and that there is some kind of 
embargo on data regarding the expenditure of Federal funds (similar to 
the embargo applicable to the development of the President's Annual 
Budget). This is simply not so, and in prior years OMB participated in 
the disclosure of IHS data to the tribes. Contract support cost 
appropriations belong to the tribes, and tribes have a right to know 
what is happening to these funds on a timely basis. Waiting for a 
report to the Congress that includes other information is not helpful, 
since most reports never get to the Congress. The few that do are 
interminably delayed. In fact, the CSC Report Congress just received 
from IHS regarding 2009 data was 2 years late. We ask that the 
Committee add appropriate language to the appropriations Act directing 
IHS to disclose its data promptly.
    Thank you for granting me the opportunity to testify on behalf of 
the Southcentral Foundation and the 58,000 Native American people we 
serve.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe

    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, I am honored to submit our funding priorities and 
recommendations for the fiscal year 2013 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). The fiscal 
year 2013 President's proposed budget presents a renewed opportunity 
for the U.S. Government to live up to the promises made to American 
Indian/Alaska Native (AI/AN) Tribal governments. We want to thank this 
subcommittee for their longstanding support and urge your consideration 
of the following requests:
Tribal Specific Requests
    $1.2 million increase for Northwest Indian Treatment Center (NWITC) 
residential program in IHS.
    $650,000 for law enforcement and public safety; four full-time 
police officers in BIA.
Regional Requests and Recommendations
    The Squaxin Island Tribe is actively involved in the collective 
Northwest Tribal efforts and supports the requests and recommendations 
of:
  --Northwest Portland Area Indian Health Board;
  --Affiliated Tribes of Northwest Indians; and
  --Northwest Indian Fisheries Commission.
Self-Governance and National Requests/Recommendations
            Bureau of Indian Affairs
    +$8.8 million to Fully Fund Contract Support Costs.
    +$30 million Law Enforcement.
    Fully Fund All Provisions of Tribal Law and Order Act of 2010.
    +$13.7 million to fully Fund Fixed Costs/Pay Costs.
    +$89 million Tribal Priority Allocations (10 percent increase more 
than fiscal year 2012 enacted).
    Increase funding to the Office of Self-Governance to fully staff 
the office for the increase of tribes entering Self-Governance and do 
not consolidate this office within Indian Affairs
            Indian Health Service
    +$100 million to Fully Fund Contract Support Costs.
    +$200 million for Contract Health Services.
    +$40 million for Alcohol and Substance Abuse Programs.
    +$304 million for Mandatory Costs to Fully Fund Current Services.
    +Fully Fund the Implementation of the Indian Health Care 
Improvement Act.
    +$5 million for the Indian Health Service Office of Tribal Self-
Governance.
Squaxin Island Tribe Background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and is 
a signatory to the 1854 Medicine Creek Treaty. We were 1 of the first 
30 federally recognized tribes to enter into a Compact of Self-
Governance with the United States. We establish our own priorities and 
budgets for funds previously administered by BIA and IHS.
    Our treaty-designated reservation is approximately 2.2 square miles 
of uninhabited forested land. Because the Island lacks fresh water, the 
tribe has built its community on roughly 26 acres at Kamilche, 
Washington purchased and placed into trust. The tribe also owns 6 acres 
across Pickering Passage from Squaxin Island and a plot of 36 acres on 
Harstine Island, across Peale Passage. The total land area including 
off-reservation trust lands is 1,715.46 acres. In addition, the tribe 
manages roughly 500 acres of Puget Sound tidelands.
    The tribal government and our economic enterprises constitute the 
largest employer in the county with more than 1,250 employees. The 
tribe has a current enrollment of 1,017 and an on-reservation 
population of 426 living in 141 homes. Squaxin has an estimated service 
area population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).
Tribal Specific Requests Justifications
            $1.2 Million Increase for the Northwest Indian Treatment 
                    Center residential program in Indian Health Service
    ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters to 
the Light''--Northwest Indian Treatment Center (NWITC) has not received 
an adequate increase in its base IHS budget since the original 
congressional set-aside in 1993. An increase of $1.2 million would 
restore lost purchasing power and meet the need to add mental health 
and psychiatric components to the treatment program. This increase 
would allow NWITC to continue its effective treatment of Native 
Americans.
    The Squaxin Island Tribe operates the NWITC, which is located in 
Elma, Washington. NWITC is a residential chemical dependency treatment 
facility designed to serve American Indians from tribes located in 
Oregon, Washington, and Idaho who have chronic relapse patterns related 
to unresolved grief and trauma. NWITC is unique in its integration of 
tribal cultural values into a therapeutic environment for co-occurring 
substance abuse and mental health disorders.
    NWITC has nearly 20 years of experience providing residential 
treatment with culturally competent models and is accredited by the 
Commission on Accreditation of Rehabilitation Facilities (CARF), an 
international accrediting organization for behavioral health programs. 
The NWITC is also certified by Washington State Division of Alcohol and 
Substance Abuse (DASA) Division of Behavioral Health and licensed by 
the Department of Health.
    In 2011, NWITC served 212 patients from 28 tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. This is a 10-percent 
increase more than 2010 service levels. Our base allocation in 1994 was 
$850,161. In 2010 it was $994,877. If value equity to the 1994 baseline 
were maintained, the 2010 allocation would have been $1,250,895. 
Despite funding challenges, NWITC has continued to develop and deliver 
innovative, culturally appropriate services to meet increasingly 
complex demands.
    It is critical to increase the NWITC's annual base allocation from 
IHS in order to sustain the current services to the tribes of the 
Northwest. We respectfully request the subcommittee increase the annual 
base allocation for the NWITC by an additional $1.2 million to 
guarantee that patients can be admitted based on need, not State 
funding streams, and that culturally infused, integrated, and 
comprehensive treatment services and recovery support services will be 
maintained.
            $650,000 for Law Enforcement and Public Safety; Four Full-
                    Time Police Officers
    The Squaxin Island Tribal Public Safety and Justice Department is 
dedicated to protecting lives, maintaining peace and ensuring that the 
property and resources of the Squaxin Island Tribe are protected. The 
Department includes a 12-member police force, Tribal court, and 
emergency management center.
    For a number of years, the tribe has requested an increase in 
baseline BIA funding to ensure that the public safety and justice needs 
of our community are fully met. In the intervening years, the tribal 
community and the surrounding area has grown considerably, more than 
challenging our public safety and Justice Department's ability to 
ensure public safety and fulfill our responsibility as managers of our 
natural resources. The need for additional funding is greater now than 
ever before.
    We have enhanced the shellfish habitat and production programs 
which increased the demand on water enforcement to address issues of 
illegal harvesting. Growth in the region's commercial and recreational 
fin and shell fisheries present increasing threats and challenges to 
enforcement of our treaty rights and protection of our natural 
resources. It is vitally important to ensure that natural resources are 
protected.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Currently, the tribe only has funding sufficient for two public 
safety and justice officers to be assigned to natural resources 
protection, although patrols are needed to monitor clam digs, geoduck 
diving and fishing areas during the respective seasons, as well as 
patrol closed areas to prevent poaching or other encroachment. 
Frequently, hunting and fishing seasons overlap, dividing available 
human resources between land and water patrols, though the need for law 
enforcement presence in both habitats are critical to public safety and 
protection of our treaty rights and trust responsibility. Squaxin 
hunters depend on harvesting deer and elk from our hunting areas in the 
foothills of the Cascade Mountains, more than 115 miles southeast of 
the reservation. Our usual and accustomed hunting lands are located 
near Randle and Packwood, Washington, a 2+ hour drive from the 
reservation for both treaty hunters and law enforcement patrols.
    The tribe has been successful in obtaining Department of Justice 
(DOJ) Community Oriented Policing Services (COPS) grant funding for new 
or enhanced programs. However, increased baseline funding is needed to 
meet the ongoing public safety, enforcement and justice needs of the 
tribe. DOJ grant funds can only be used to enhance public safety, 
including domestic violence and crime prevention, not for basic 
operations.
    The Squaxin Island Tribe is seeking long- and short-term 
assistance. In the short term, the tribe needs immediate funding for 
four full-time police officers to achieve full 24/7 water patrol 
coverage. In the long term, BIA funding for law enforcement and public 
safety programs needs to be significantly increased to meet the need 
for expanded protection of our natural resources, particularly water 
patrol. The budget for four officers, equipment, supplies, and training 
is:

------------------------------------------------------------------------
                                  Amount
--------------------------------------------
Salaries....................        $230,170
Fringe......................         100,910
Space costs.................           3,600
Telephone and cellular......           4,000
Noncapital equipment........           6,000
Travel and training.........           4,000
Supplies....................          12,000
Vehicle maintenance.........          40,000
Insurance...................          10,000
                             -----------------
      Subtotal..............         410,688
 
Indirect costs at 44.14.....         179,312
Equipment > $5,000/month....          60,000
                             -------------------------------------------
      Total.................         650,000
------------------------------------------------------------------------

    The Squaxin Island Tribe's Public Safety department would benefit 
greatly by increased short-term funding as well as long-term base 
funding needed to operate a full-fledged water patrol program to 
provide the 24-hour, 7 days week coverage needed to ensure that the 
community, property and resources are being protected effectively.
    The Squaxin Island Tribe envisions a culturally and economically 
strong community of self-governing, resilient people, united by shared 
values and traditions . . . by protecting life and maintaining the 
peace, protecting tribal property and resources, serving in a 
reasonable and prudent manner, and carrying out these responsibilities 
diligently, courteously, and with pride.
    We support all requests and recommendations of the National 
Congress of American Indians and the National Indian Health Board.
    Thank you.
                                 ______
                                 
              Prepared Statement of Sustainable Northwest

    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to provide testimony before the subcommittee on Interior, 
Environment, and Related Agencies on the subcommittee's fiscal year 
2013 funding priorities. On behalf of Sustainable Northwest, I would 
like to take this opportunity to highlight programs, funds and tools 
that are important to the people and communities of the rural West and 
that we believe should receive full congressional funding in fiscal 
year 2013.
    My name is Martin Goebel and I am the President of Sustainable 
Northwest. We are a nonprofit organization that promotes collaborative, 
community-based solutions to natural resource management issues. We 
work in rural communities throughout the West, bringing together 
multiple, often opposing, stakeholders to create and promote solutions 
through a collaborative process.
    Today, I am going to address two agency budgets--the United States 
Department of Agriculture (USDA) United States Forest Service (USFS) 
budget and the Department of the Interior (DOI) Fish and Wildlife 
Service (FWS) budget.
      sustainable northwest's recommendations for fiscal year 2013
    Fully fund the Collaborative Forest Landscape Restoration Program 
at $40 million.
    Enact and fully fund the national Forest Service Integrated 
Resource Restoration line item at $793 million.
    Create permanent authority for the use of stewardship end-result 
contracting to restore our national forests and provide local jobs.
    Invest in programs that support the capacity of community-based 
partners who work directly with the land management agencies, including 
USFS, FWS, and Bureau of Land Management.
    Fully fund the Community Wood to Energy Program at $4.25 million 
and the Woody Biomass Utilization Grant Program at $5 million.
    Fully fund the FWS Partners for Fish and Wildlife Program at $55 
million.
    Allocate $1.6 million from the FWS Fisheries and Aquatic Resource 
Conservation activity area to conservation and planning within the 
Klamath Basin.

 UNITED STATES DEPARTMENT OF AGRICULTURE UNITED STATES FOREST SERVICE 
                        FISCAL YEAR 2013 BUDGET

Collaborative Forest Landscape Restoration Program
    The bipartisan Collaborative Forest Landscape Restoration Program 
(CFLRP) was established in 2009 to encourage the collaborative, 
science-based restoration of priority landscapes. The purposes of this 
program are to:
  --create job stability;
  --achieve a reliable wood supply;
  --restore forest health; and
  --reduce costs of wildfire suppression in overgrown forests.
    CFLRP received $10 million in fiscal year 2010, $25 million in 
fiscal year 2011, and $40 million in fiscal year 2012. The President's 
fiscal year 2013 budget proposal recommends maintaining funding at $40 
million, and Sustainable Northwest respectfully encourages the 
subcommittee to allocate full funding.
    CFLRP has already proven itself to be a highly successful and 
accessible program. Interest in this program is very high, with 
increasing numbers of applicant sites each year. Further, CFLRP 
produces tangible, documented results. In the first year alone, CFLRP 
projects generated and maintained 1,550 jobs; produced 107 million 
board feet of timber; generated $59 million of labor income; removed 
fuel for destructive mega-fires on 90,000 acres near communities; 
reduced mega-fire on an additional 64,000 acres; improved 60,000 acres 
of wildlife habitat; restored 28 miles of fish habitat; and enhanced 
clean water supplies by remediating 163 miles of eroding roads. Since 
then, the program has expanded to include 10 new projects, for a total 
of 20 projects across 13 States, across 7 USFS regions \1\. These 
projects represent an incredible opportunity for advancing public-
private approaches to landscape and watershed restoration.
---------------------------------------------------------------------------
    \1\ People Restoring American's Forests: A Report on the 
Collaborative Forest Landscape Restoration Program, November 2011. 
Available at http://www.fs.fed.us/restoration/CFLR/index.shtml.
---------------------------------------------------------------------------
Integrated Resource Restoration Budget Line Item
    Sustainable Northwest strongly supports the national Integrated 
Resource Restoration (IRR) budget line item (BLI) included within 
administration's fiscal year 2013 budget recommendations. IRR takes a 
broad, multifaceted funding approach to restoration of our national 
forests. The goal of the IRR line item is to increase funding 
efficiency by combining funding for forest management activities 
previously funded under wildlife & fisheries habitat management; forest 
products; vegetation & watershed management; legacy roads and trails, 
and roads; hazardous fuels non-wildland urban interface; and 
rehabilitation and restoration budget line items.
    This BLI was included in USFS's budget as a pilot program in fiscal 
year 2012. It was limited to USFS Regions 1, 3, and 4. The President's 
budget recommends expanding the IRR to a national program covering all 
USFS regions in fiscal year 2013 and fully funding it at $793 million. 
We support this expansion because we believe IRR is an important tool 
in building a forest restoration economy that will create new jobs in 
rural communities. It will better integrate funding and authorities 
related to forest restoration and water quality, while reducing 
administrative costs. This is a forward-thinking approach to budgeting 
within USFS, and we urge you to support this approach by fully funding 
IRR at $793 million in fiscal year 2013.
Permanent Stewardship End-Result Contracting Authority
    Stewardship end-result contracting is one of the best tools 
available for funding stewardship and restoration on our national 
forestlands. It increases the ability of districts and field offices to 
carry out high quality restoration projects by lowering project 
administration costs. It helps achieve land management goals and 
improve the collaborative atmosphere on our national forests. With its 
best value contracting authority, stewardship contracting helps improve 
the quality of work on the ground and increases economic opportunities 
and jobs in communities located near public lands.
    Between fiscal year 1999 and fiscal year 2010, USFS awarded 874 
contract and agreements for restoration treatments on more than 558,020 
acres nationwide. Current legislation authorizes USFS and Bureau of 
Land Management to enter into stewardship end result contracts until 
September 30, 2013. The President's fiscal year 2013 budget assumes 
that the agencies are able to secure permanent stewardship contracting 
authority. We believe stewardship end-result contracting is a necessary 
and important tool to the help our forests and our rural communities 
achieve ecological and economic outcomes. We strongly support permanent 
authorization.
Strengthening Community Capacity for Collaboration and Land Stewardship
    Community capacity is the collective ability and resources rural 
communities have to solve diverse challenges and meet the multiple 
needs of their communities by drawing on human, social, cultural and 
physical capital. By investing in building the collaborative and 
stewardship capacity of rural communities, the Federal Government can 
support collaborative and common ground solutions to improve the 
delivery and effectiveness of Federal budgets; promote small business 
development and job creation; foster ``bottom up'' natural resource 
decisions that include the input of local citizens and governments; and 
save and leverage money by working through local organizations. 
Programs and initiatives of USFS like CFLRP, stewardship contracting, 
the new planning rule and the watershed condition framework all rely on 
effective partnerships between the Federal Government and community 
based locally led organizations. These investments are critical.
    One example of the impact of capacity funds can be seen through the 
work of the Blue Mountain Forest Partners (BMFP), a collaborative 
organization on the Malheur National Forest. With public and private 
grant funds, BMFP is increasing its institutional capacity to become a 
self-governed entity and to serve as a catalyst for forest restoration 
and job creation in Grant County, Oregon. The BMFP has increased 
project size, decreased the amount of time required to reach agreement, 
avoided litigation and appeals over the last 5 years, and have been 
selected to participate in the CFLRP program through a project on the 
Malheur National Forest. For small and emerging organizations such as 
BMFP, capacity programs offer the opportunity to increase skills and 
sophistication necessary to create and maintain capacity for 
collaborative decisionmaking and responsible land stewardship.
Community Wood to Energy Program and Woody Biomass Utilization Grant 
        Program
    The use of woody biomass to generate thermal energy provides a 
tremendous opportunity to reduce our dependency on petroleum, reduce 
carbon emissions by displacing combustion of fossil fuels, support 
ecologically based forest restoration, and promote a distributed energy 
economy which includes rural communities as part of the solution. USFS 
programs such as the Community Wood to Energy Program (CWEP) and Woody 
Biomass Utilization Grant Program (WBUG) provide support for 
development of woody biomass facilities and markets. If funded at the 
President's fiscal year 2013 request of $4.24 million, CWEP will 
provide grant funds to State, tribal, and local governments to develop 
community wood energy plans; acquire community wood energy systems; and 
secure technical assistance for public facilities that use woody 
biomass as the primary fuel. WBUG encourages woody biomass removal 
through restoration activities and use of woody biomass in facilities 
with commercially proven technologies. Sustainable Northwest supports 
the President's request for full funding for CWEP at $4.25 million and 
WBUG at $5 million.

 DEPARTMENT OF THE INTERIOR FISH AND WILDLIFE SERVICE FISCAL YEAR 2013 
                                 BUDGET

Partners for Fish and Wildlife Program
    The Partners for Fish and Wildlife Program (PFW) is one of the 
FWS's critical conservation tools for voluntary, citizen and community-
based fish and wildlife habitat restoration activities on privately 
owned land. PFW serves as a bridge to landowners to develop individual 
partnerships and habitat restoration projects for the benefit of fish 
and wildlife species. In many instances, restoration projects can help 
decrease risks and burdens associated with regulatory activity, as well 
as increase the underlying value of these properties. The approach is 
simple: engage willing partners and landowners, using direct financial 
and technical assistance, to conserve and protect fish and wildlife 
values on their property. Working with more than 44,000 private 
landowners from 1987-2010, PFW has successfully restored and enhanced 
1,026,000 acres of wetlands; 3,235,000 acres of uplands; 9,200 miles of 
stream habitat; and worked with more than 3,000 partnering 
organizations. Sustainable Northwest supports the administration's 
recommendation of $55 million for PFW in fiscal year 2013.
Funding for Conservation in the Klamath Basin
    The Administration's fiscal year 2013 budget recommendation for the 
Fisheries and Aquatic Resource Conservation activity area within the 
FWS includes $1.6 million for conservation, planning, and restoration 
within the Klamath Basin. This funding is essential, as demand on FWS 
in the Klamath is expected to increase dramatically in 2013 and 2014, a 
direct result of ongoing demand on limited water supplies and potential 
efforts to implement the plans outlined in the Klamath Basin 
Restoration Agreement. Klamath Basin funding is needed to restore high-
priority stream habitats and recover listed and native fish species in 
the Klamath system and work cooperatively with stakeholders on natural 
resource management issues. Restoration of the Klamath Basin fisheries 
and habitat is a high priority for Sustainable Northwest, and we ask 
that you ensure support for this important work.
    Thank you very much for this opportunity to testify.
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference

    My name is Jerry Isaac and I am the President of the Tanana Chiefs 
Conference. TCC is a nonprofit inter-tribal consortium of 39 federally 
recognized tribes located in the interior of Alaska. TCC is a Co-Signer 
of the Alaska Tribal Health Compact under title V of the Indian Self 
Determination and Education Assistance Act, Public Law 93-638. TCC 
serves approximately 13,000 Native American people in Fairbanks and our 
rural villages. Our traditional territory and current services area 
occupy a mostly roadless area almost the size of Texas, stretching from 
Fairbanks clear up to the Brooks Range, and over to the Canadian 
border.
    I will be testifying on two matters. First, I will provide an 
overview of the Joint Venture Construction Program and specifically 
address TCC's staffing needs. Second, I will explain the impact 
suffered by TCC and others from the contract support cost shortfall and 
how that shortfall will have the most impact for those entities 
starting to operate replacement or joint venture facilities in fiscal 
year 2013.
    TCC needs the full staffing package amount in fiscal year 2013, as 
agreed to in our Joint Venture Agreement.
    The Joint Venture Construction Program is authorized in section 
818(e) of the Indian Health Care Improvement Act, Public Law 94-437. 
The authorization directed the Secretary of HHS to make arrangements 
with Indian tribes to establish joint venture projects. The program is 
executed through a JVCP agreement--a contract--in which a tribal entity 
borrows non-IHS funds for the construction of a tribally owned 
healthcare facility, and, in exchange, the IHS promises to lease the 
facility, to equip the facility and to staff the facility.
    In the Conference Report which accompanied the Department of the 
Interior, Environment, and Related Agencies Appropriation Act, 2010, 
the conferees explained the importance of the Joint Venture program. 
That program is a unique way of addressing the persistent backlog in 
IHS health facilities construction projects serving American Indians 
and Alaska Natives. The conferees reported, ``The conferees believe 
that the joint venture program provides a cost-effective means to 
address this backlog and to increase access to healthcare services for 
American Indians and Alaska Natives. The conferees are aware that IHS 
is currently reviewing competitive applications from tribes and tribal 
organizations to participate in the 2010 joint venture program and 
encourage the Service to move forward with the process in an 
expeditious manner.''
    IHS has followed the direction of the Congress and/or the 
conference report. In 2010 IHS signed a legally binding Joint Venture 
Construction Agreement with TCC. In the agreement IHS agreed to 
``request funding from the Congress for fiscal year on the same basis 
as IHS requests funding for any other facilities.'' Given that IHS has 
requested full-funding for some projects and less than full for others, 
it appears that IHS has not requested funding on the same basis across 
all facilities.
    TCC is concerned to say the least, at the proposed funding for our 
Joint Venture project. IHS requested less than 27 percent of the 
staffing package for TCC (or around $8 million) even though our 
facility will be open for the entire fiscal year. Alaska is a unique 
place in which the additional costs for recruitment, training and 
program creation are far higher than in the lower 48. TCC will need the 
full $30 million staffing package to be successful this opening year.
    TCC has done everything in our power to see a successful opening in 
fiscal year 2013. TCC has remained in close contact with IHS throughout 
the construction of our projects. We are on budget and ahead of 
schedule. Both Secretary Sebelius and Dr. Roubideaux were able to visit 
with TCC last fall. Since that visit, the date of completion for the 
clinic has moved up. IHS's funding requests were based on last year's 
projected opening dates. But TCC's current beneficial occupancy date 
for our JV clinic is September 2012. TCC's clinic will open much 
earlier than what is reported in the IHS budget justification.
    TCC has never before owned its own primary care medical facility. 
This is because the majority of our current clinic space is leased from 
Banner Health at Fairbanks Memorial Hospital (FMH). Additionally, in 
the past TCC has purchased lab, radiology, housekeeping, laundry, 
groundskeeping, and maintenance services from FMH. These are services 
that TCC will begin self performing in less than 5 months when we move 
into the new clinic. Already we have started the planning process for 
the transition and recruitment of the staff we will need.
    Staff within IHS have written that our Joint Venture partnership 
could be characterized as a model for what can be achieved between 
Tribal Health Organizations and IHS to improve access to healthcare for 
American Indian and Alaska Native people. TCC is well on our way to 
upholding our end of the Joint Venture agreements. We need IHS, and the 
Congress, to hold up the Government's side of the bargain.
    TCC will be fully operational for all of fiscal year 2013. Our 
staffing packages should be provided in the full amounts proportionate 
to our operations. Any reduction from the full staffing amount will 
only result in decreasing our ability to provide services to our 
beneficiaries. Worse yet, it could endanger our ability to service the 
debt we have incurred in constructing the new clinic.
    The contract support cost request by IHS will worsen the national 
CSC shortfall and require further program cuts for Self-Determined 
Tribes, and the burden will fall especially hard on those tribes which 
will operate new facilities in fiscal year 2013.
    Related to the Joint Venture Construction Program is our concern 
with IHS's requested funding for contract support costs. These costs 
are owed to tribes and tribal organizations like TCC performing 
contracts on behalf of the United States pursuant to the Indian Self-
Determination Act. ``Contract support costs'' are the fixed costs which 
we incur and must spend to operate IHS's programs and clinics.
    The Indian Self Determination Act depends upon a contracting 
mechanism to carry out its goal of transferring essential governmental 
functions from Federal agency administration to tribal government 
administration. To carry out that goal and meet contract requirements, 
the Act requires that IHS fully reimburse every tribal contractor for 
the ``contract support costs'' that are necessary to carry out the 
contracted Federal activities. (Cost-reimbursable government contracts 
similarly require reimbursement of ``general and administrative'' 
costs.) Full payment of fixed contract support costs is essential: 
without it, offsetting program reductions must be made, vacancies 
cannot be filled, and services are reduced, all to make up for the 
shortfall. In short, a contract support cost shortfall is equivalent to 
a program cut.
    Funding contract support costs in full permits the restoration of 
Indian country jobs that are cut when shortfalls occur. The fiscal year 
2010 reduction in the contract support cost shortfall produced a 
stunning increase in Indian country jobs. Third-party revenues 
generated from these new positions will eventually more than double the 
number of restored positions, and thereby double the amount of 
healthcare tribal organizations like our's will provide in our 
communities.
    The problem is that for 2013, IHS has requested only a $5 million 
increase. Yet, the current shortfall is already $50 to $60 million, and 
with several new clinics becoming operational, the fiscal year 2013 
shortfall will likely grow to more than $90 million. Against that 
contract requirement, a $5 million increase is obviously inadequate.
    When contract support costs are not paid, we have no choice but to 
take the shortfall in funding out of the programs themselves. Because 
TCC will be creating and expanding programs to operate our JV project, 
our reliance on CSC will also expand. This is also true for tribes 
initiating other new Federal programs as the initial building of a 
program is heavily reliant on contract support.
    A continued increase in shortfalls for contract support costs, in 
addition to the limited funding requested for TCC will end up punishing 
a majority of the Native beneficiaries in Alaska. The Government has a 
legal duty and trust responsibility to provide for the full staffing 
packages and the full contract support costs it has, by contract, 
agreed to pay. We are not asking for a favor; we are only expecting 
that the government will hold up its end of the bargain.
    Members of the subcommittee, thank you for the honor of presenting 
testimony today.
                                 ______
                                 
                 Prepared Statement of Taos, New Mexico

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As the LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Forest 
Service (USFS) included an allocation of $2.656 million for Carson 
National Forest. I am pleased that this funding was included in the 
request and urge the Congress to provide necessary funds for LWCF for 
this important project.
    Some of the finest mountain scenery in the Southwest is found in 
the 1.5-million-acre Carson National Forest. Elevations rise from 6,000 
to 13,161 feet at Wheeler Peak in the Sangre de Cristo Mountains, the 
highest peak in New Mexico. The scenery varies from high desert scrub 
and red soil to spruce and fir-filled mountainsides and wildflower 
meadows. In addition to the various landscapes, there are also many 
recreational opportunities in the forest. The magnificent mountain 
scenery and cool summer temperatures lure visitors to enjoy fishing, 
hunting, camping, and hiking. Winter activities include skiing, 
snowshoeing and snowmobiling. There are 330 miles of trails for hiking, 
horseback riding, mountain biking, and 4-wheel drive exploring. For the 
backcountry enthusiast, there are 86,193 acres of wilderness in the 
forest that have been virtually undisturbed, where travel is restricted 
to foot or horseback.
    There are many species of animals in the Carson National Forest 
including mule deer, elk, antelope, black bear, and bighorn sheep along 
with many species of songbirds and a wonderful display of wildflowers. 
The forest has 400 miles of clean mountain streams and many lakes that 
offer outstanding trout fishing including rainbow, eastern brook, 
German brown and cutthroat trout.
    Available for acquisition as part of the Carson National Forest is 
the 5,087-acre Miranda Canyon property located just 10 miles south of 
Taos. The property is adjacent to the western edge of the national 
forest and ranges in elevation from 7,200 to 10,801 feet. It has 
enormous scenic value, as it forms the southern backdrop to Taos and is 
highly visible as one travels south along Route 68.
    The 5,000-acre Miranda Canyon property contains important watershed 
lands that feed public water supplies for local communities and 
maintain flows of clean, cold water to the nationally significant Rio 
Grande. The highest elevation lands on the property fall within the 
Headwaters Rio Grande de Rancho watershed, which is rated as 
functioning properly under the USFS Watershed Condition Framework. 
Acquisition of this area will prevent conversion for development, 
meeting the Framework goal to protect the best, and will complete the 
agency's ownership of this watershed. The majority of the property at 
lower elevations falls within two other watersheds that are rated as 
functioning at risk. Acquisition will allow the USFS to apply a range 
of restoration actions to move these watersheds up a condition class. 
These watersheds are also significant in that they contain an important 
recharge zone for the underlying aquifer, which provides domestic water 
for the communities of Llano Quemado and Ranchos de Taos.
    The property also has various vegetative types from low elevation 
sagebrush and pinon juniper to high elevation mixed conifer forest 
containing large aspen stands. There are also numerous meadows and 
riparian vegetation that provide excellent habitat for wildlife. The 
landscape has numerous ridges and peaks that provide breathtaking views 
of the Rio Grande Gorge to the west and of Wheeler Peak, the highest 
peak in New Mexico, to the north. Picuris Peak is located on the 
property along a popular hiking route. The property also contains 
historical features such as the Old Spanish Trail, a pack mule trail 
that served as a link between land-locked New Mexico and coastal 
California between 1829 and 1848, after which other routes became more 
popular. Recognizing the national significance of this historic trade 
route, the Congress designated it the Old Spanish National Historic 
Trail in 2002. Other geological features on the property include a 
unique small volcano and 1.7-billion-year-old rock outcrops that rival 
the age of rock found at the bottom of the Grand Canyon.
    Due to the strong opposition of the Taos community to a proposal to 
develop the Miranda Canyon property into 150 lots, the landowner has 
agreed to a multi-phase 3-year conservation sale to the Carson NF. If 
Miranda Canyon had been subdivided and developed, tremendous 
recreational, scenic, and ecological resources would have been 
diminished or lost forever. Even without county subdivision approval, 
the Miranda Canyon property could have been developed into 140-acre 
lots, with potentially adverse impact on the drinking water supply of 
nearby communities. Because the landowner's timing did not allow for a 
long-term purchase agreement, The Trust for Public Land stepped in and 
purchased the property in January 2011. The conveyance of this $10.8 
million tract to the USFS is moving ahead in phases, with Phase I 
receiving an allocation of $3.442 million from LWCF in fiscal year 
2012.
    While this arrangement offers a bit of breathing room for the 
agency to secure the necessary acquisition funding, it is critical that 
the purchase continue to move ahead in fiscal year 2013 with another 
allocation of $2.656 million for Phase II. Only when Miranda Canyon is 
fully conveyed to the Carson National Forest will it be permanently 
protected for the public, ensuring protection of this vital watershed 
and the associated local water quality as well as enhancing 
recreational opportunities such as hunting, camping, hiking, mountain 
biking, and horseback riding.
    In closing, I urge you to provide funding for the LWCF of $450 
million, as proposed in the President's fiscal year 2013 budget, 
including critical funding for the Carson National Forest. I want to 
thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in New Mexico, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
     Prepared Statement of the Tennessee Wildlife Resources Agency

    Members of the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies, my name is Bobby Wilson and I am the 
Chief of Fisheries for the Tennessee Wildlife Resources Agency. I thank 
you for the opportunity to provide testimony for the State of Tennessee 
in support of the continued funding for the Aquatic Nuisance Species 
Plan grant to the States.
    Aquatic nuisance species pose serious problems to the ecology and 
economy in Tennessee. According to the U.S. Fish and Wildlife Service's 
``National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation'', more than 874,000 citizens participated in fishing, 
332,000 hunted, and 2,385,000 participated in wildlife watching 
activities. Tennessee citizen's spent $592 million on fishing, $476 
million on hunting, and slightly more than $1 billion on wildlife 
watching. In addition, the wholesale value of commercial fishing is 
estimated to be $13 million and the value for commercial musseling is 
$1.5 million. Revenues from these natural resource-related activities 
are important to the economy and well-being of the citizens of 
Tennessee. These economic returns can only continue to occur if these 
resources are protected from the invasion of aquatic nuisance species.
    Tennessee is one of the most aquatically bio-diverse States in the 
Nation. Currently there are at least 315 species of fish, 120 species 
of mussels, and 84 species of crayfish in our waters. The State has 
three major river systems (Mississippi, Tennessee, and Cumberland 
Rivers) which contribute to 700,000 acres of impounded reservoirs and 
19,000 miles of streams.
    Some of the more problematic aquatic non-native species in 
Tennessee include zebra mussels, Eurasian water milfoil, and Asian 
carp. Others include several species of aquatic snakes, turtles, frogs, 
crayfish, snails, and salamanders. Together more than 50 species of 
aquatic animals have been identified as invasive to Tennessee.
    To identify the needs for addressing the problems of aquatic 
nuisance species, Tennessee developed a management plan in 2008. This 
plan focused on the prevention of new introductions but also dealt with 
the management and control of existing species that already exist in 
our waters. There are 26 strategies and 67 actions listed in the plan 
to address the concerns which include the development of educational 
materials such as pamphlets, posters, DVD's, and an Aquatic Nuisance 
Species Web site. It also includes hiring an aquatic nuisance species 
coordinator, improving enforcement and regulations that prohibit the 
possession, purchase, and transport of aquatic nuisance species in 
Tennessee.
    During the 3 years that our State has received the Aquatic Nuisance 
Species Federal grant we have accomplished action items identified in 
our management plan: We have monitored our extensive crayfish 
population for the presences of nuisance crayfish; we partnered with 
the Tennessee Aquarium in Chattanooga for the development of an aquatic 
nuisance species display at their facility; we implemented a new live 
bait regulation which will help prevent the introduction of various 
invasive species of fish, amphibians, and crayfish; and developed the 
``Angler's guide to Tennessee Fish'' which includes a section on the 
identification of various aquatic nuisance species of fish and crayfish 
in the guide.
    However we have only touched the surface of a very serious problem. 
Asian carp populations are continuing to expand in the Tennessee and 
Cumberland River systems; zebra mussels have recently been discovered 
in one of our most pristine and heavily visited lakes, Norris 
Reservoir; and various invasive species of aquatic plants are 
constantly showing up in waters where they have not been seen before. 
We must continue to work on these problems as they arise as well as try 
to prevent the introduction of new invasive species before they become 
established and it is too late.
    In speaking on behalf of the Tennessee Wildlife Resources Agency, 
and on behalf of the citizens of Tennessee, I ask that the Senate 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies approve within the budget of the U.S. Fish and Wildlife agency 
the continued funding of Aquatic Nuisance Species State grants.
    The State of Tennessee looks forward to continue working with the 
U.S. Fish and Wildlife Service on this important issue. Again, thank 
you for the opportunity to allow me to provide testimony on behalf of 
the State of Tennessee.
                                 ______
                                 
   Prepared Statement of The American Society for the Prevention of 
                           Cruelty to Animals

    On behalf of our 2.5 million supporters, The American Society for 
the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. Founded in 
1866, ASPCA is the first humane organization established in the 
Americas and serves as the Nation's leading voice for animal welfare. 
ASPCA's mission is to provide effective means for the prevention of 
cruelty to animals throughout the United States, and for that reason we 
request the subcommittee consider the following concerns regarding the 
Bureau of Land Management's (BLM) Wild Horse and Burro Program when 
making fiscal year 2013 appropriations.

                              WILD HORSES

    In the 40 years since BLM was first charged with protecting our 
country's wild horses and burros, Americans have witnessed BLM's Wild 
Horse and Burro Program deteriorate into a continuous cycle of roundups 
and removals with little regard to the preservation-focused mandate 
dictated by The Wild Free-Roaming Horses and Burros Act (the Act). Our 
wild horses and burros are to be revered as historical icons, treated 
humanely, and managed fairly and respectfully on our public lands. We 
appreciate BLM's recognition that there is a great need for reform in 
the Wild Horse and Burro Program. We applaud its effort to incorporate 
the use of on-the-range management methods such as immunocontraception 
and to find alternatives to long-term holding of wild horses. However, 
further and significant reformations must be swiftly incorporated.
Prohibit Bureau of Land Management Funding for Euthanasia or Sale of 
        Wild Horses as Management Methods
    In December 2004, the Congress passed the Consolidated 
Appropriations Act for Fiscal Year 2005 which contained a provision 
that amended the Wild Free-Roaming Horses and Burros Act to allow for 
the sale of certain groups of wild horses and burros. This instant 
transfer of title from the U.S. Government to the individual purchaser 
revokes the animal's status as a protected equine and makes it 
vulnerable to the still-thriving horse slaughter industry. 
Additionally, in 2008 BLM publicly announced that it was considering 
using its statutory authority to destroy old, sick, or unadoptable wild 
horses and burros for the first time by implementing mass euthanasia as 
a population control method. The roar of public opposition that 
followed forced BLM to quickly withdraw the proposal. However, both the 
sale provision and the language allowing for the destruction of wild 
horses and burros remain in the law. ASPCA requests that the 
subcommittee include the following language in the appropriations bill 
that specifically prohibits funding programs or projects that subject 
wild horses and burros to the possibility of slaughter or euthanasia as 
a means of population control: ``Appropriations herein made shall not 
be available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors or for the sale of 
wild horses and burros that results in their destruction for processing 
into commercial products.''
Ensure That Removals Do Not Exceed Adoption Demand
    The majority of BLM's budget is spent caring for wild horses in 
long-term holding facilities. The budget requested for BLM's Wild Horse 
and Burro Program has necessarily increased each fiscal year, as has 
the portion of the budget that funds the care of wild horses in long-
term holding facilities. Unfortunately, instead of letting these wild 
horses remain in their natural habitats as part of their established 
herds, their family structures have been disrupted and they have been 
removed to fenced facilities where taxpayer dollars go for their care. 
There are now as many or more wild horses in holding facilities as in 
the wild. Without substantial change in management techniques, the 
number in holding facilities will only increase and taxpayer dollars 
will be further wasted in ever increasing amounts. ASPCA believes wild 
horses belong in their natural habitats and should not be subject to 
the terror of removals nor the confines of holding facilities without 
hope of return to the range or adoption.
    Adoption rates have varied between 3,000 and 4,000 horses since 
2008. During that same time period, BLM has rounded up and removed 
approximately 7,800 annually, several thousand more than the adoption 
demand, thereby guaranteeing most of those wild animals will be kept in 
taxpayer-funded holding facilities for the remainder of their lives. 
Warehousing horses in holding facilities does nothing to manage the on-
range populations and only delays the inevitable need for more 
preventative management. This cycle must be broken. ASPCA encourages 
BLM to limit the number of horses removed from the range to the number 
matching current adoption demand.
Prioritize On-the-Range Management Over Roundup and Removal
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
the-range management should be preferred over roundup and removal as 
the primary method of wild horse management. There are multiple ways 
BLM can reform its program to favor on-the-range management methods.
    ASPCA realizes that there are situations where population control 
is necessary, and we appreciate BLM's public recognition that fertility 
control methods such as immunocotraception must be a significant part 
of wild horse population management. Porcine Zona Pellucida (PZP), the 
contraceptive vaccine that has been used in managing horse and deer 
populations for decades, was recently registered by the Environmental 
Protection Agency (EPA) and is now commercially available. For the past 
2 years, BLM has capped its goal for vaccinating horses at 2,000 horses 
per year. For PZP to become a serious part of the solution, its use 
must be increased to levels that will significantly impact population 
growth. As part of President Obama's proposed fiscal year 2013 budget 
for BLM, the Wild Horse and Burro Program requested a $2 million 
increase specifically for research and development of population-
control methods. ASPCA recommends that the requested funds go toward 
prioritizing the use of humane, reversible fertility control when it is 
necessary to stem the population growth of wild horse or burro herds.
    In addition to escalating its use of immunocontraception, BLM must 
also reconsider Herd Management Areas (HMAs) that have been zeroed out 
as wild horse and burro habitat and make them available for 
reintroduction. More than 20 million acres of HMAs originally 
designated as wild horse and burro habitat have been zeroed out and 
horses have been removed and placed in holding facilities. This 40-year 
pattern has resulted in American taxpayers paying more each year for 
the cost of privatized care when millions of acres of habitat are 
available. ASPCA recommends that the subcommittee direct BLM to 
reestablish zeroed out HMAs as viable wild horse and burro habitat 
wherever possible.
Require Humane and Transparent Roundup Operations
    Finally, ASPCA requests that, when roundups are necessary, the 
subcommittee charge BLM with establishing humane and transparent 
standards and procedures for those operations. Observers have witnessed 
horses suffering and dying due to brutal roundup practices. Foals have 
been run over such extreme distances that they literally have lost 
their hooves, mares have been driven to the point of physical 
exhaustion, and a burro was physically assaulted with helicopter skids. 
BLM recognizes a need to reform its roundup protocol. ASPCA applauds 
this acknowledgement and asks that the subcommittee encourage BLM to 
expedite its development of standard operating procedures for roundups 
that incorporate animal welfare standards. No roundups for removal or 
any other purposes should occur without procedures in place that will 
ensure these incidents are never repeated. For the public to continue 
to invest in this management program and to allow this agency to have 
any authority over these animals, it is vital that no horses or burros 
are harmed at the hands of BLM agents or contractors. We also urge the 
subcommittee to designate funds for researching, and developing 
protocols that take into consideration the impact of separating family 
groups of wild horses during removals. To allow for more visibility of 
roundup operations, and thus more accountability, we urge the 
subcommittee to designate funds for the installation of video cameras 
on helicopters and at trap and holding sites.
    Thank you for this opportunity to submit testimony. We appreciate 
the steps BLM has already taken to reform the Wild Horse and Burro 
Program, and we look forward to working with the agency on this issue 
in the future. With the help of the subcommittee, the BLM Wild Horse 
and Burro Program can hopefully achieve sustainability and comply with 
the mission of the Wild Free-Roaming Horses and Burros Act: to protect 
and preserve these animals as historic American icons.
                                 ______
                                 
              Prepared Statement of The Conservation Fund

    Chairman Reed, Ranking Member Murkowski, and members of the 
Appropriations Subcommittee on the Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund. The Conservation Fund 
(TCF) supports full funding of the President's budget request of $450 
million in fiscal year 2013 for the Land and Water Conservation Fund 
(which includes the Federal land acquisition programs of the Bureau of 
Land Management, National Park Service, U.S. Fish and Wildlife Service 
(FWS), and U.S. Forest Service (USFS), as well as several important 
State grant programs). Additionally, TCF supports full funding of the 
President's request for the FWS's North American Wetlands Conservation 
Fund ($39.425 million) and USFS's Community Forest and Open Space 
Conservation Program ($4 million). In addition, we want to thank the 
subcommittee for reauthorizing the Federal Land Transaction 
Facilitation Act (FLTFA) in 2010, though it is currently expired and we 
support the fiscal year 2013 President's budget request to reauthorize 
this important program.
    The Conservation Fund (TCF) is a national, nonprofit conservation 
organization dedicated to conserving America's land and water legacy 
for future generations. Established in 1985, TCF works with landowners; 
Federal, State, and local agencies; and other partners to conserve our 
Nation's important lands for people, wildlife and communities. To date, 
TCF has helped our partners to conserve more than 7 million acres. 
These accomplishments are due, in large measure, to the leadership of 
this subcommittee over many years to appropriate funds to Federal 
agencies to acquire lands for future generations.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--landowners drive each of these projects. Many farmers, 
ranchers and forestland owners have significant financial equity in 
their land. By enabling a landowner to sell a conservation easement or 
fee title, the LWCF program provides landowners with funds to stay in 
business, reinvest in businesses, or meet other financial goals.
    Bureau of Land Management--Land Acquisition.--TCF supports the 
fiscal year 2013 President's budget request of $33.575 million for the 
Bureau of Land Management's (BLM) Land Acquisition Program for its 
``core'' and ``collaborative'' lists, and would like to highlight the 
following projects:
    Upper Snake/South Fork Snake River ACEC, Idaho--$1.75 million (#4 
        on core list).--Idaho's Upper Snake/South Fork is visited by 
        more than 300,000 people each year to enjoy world-class fishing 
        and floating, abundant wildlife and one of the most scenic 
        rivers in the West, supporting 350 jobs and generating $12 
        million in income per year. Working in partnership with 
        landowners, this project primarily utilizes conservation 
        easements to protect valuable fish and wildlife habitat and 
        agricultural lands from fragmentation while simultaneously 
        supporting important recreational and tourism opportunities and 
        allowing agricultural lands to remain in production/private 
        ownership.
    Cascade-Siskiyou National Monument, Oregon--$2 million (#6 on core 
        list).--An ``ecological wonder,'' supporting 3,500 species, the 
        54,900-acre CSNM was designated specifically for its 
        extraordinary biological diversity. BLM has worked with private 
        landowners to acquire inholdings within the national monument, 
        but thousands of acres remain in private ownership, closed to 
        public use, and unprotected from development. This project will 
        allow the BLM to purchase high-priority inholdings from 
        timberland owners within Cascade-Siskiyou, complementing BLM's 
        work with past LWCF appropriations.
    National Park Service--Land Acquisition.--TCF supports the fiscal 
year 2013 President's budget proposal of $59.421 million for the 
National Park Service's (NPS) Land Acquisition Program. I would like to 
highlight the following from the NPS's ``core'' list:
    National Rivers and Trails Initiative--$4 million (#2 on core 
        list).--This new initiative would assist in the acquisition of 
        numerous, smaller parcels throughout the National Trails 
        System, creating new recreational opportunities and protecting 
        important natural and cultural resources. This initiative will 
        involve the coordination with other Federal agencies, such as 
        the U.S. Forest Service and Bureau of Land Management that 
        manage lands crossed by trails.
    Civil War Sesquicentennial Units--$5 million (#1 on core list).--
        These funds will allow for the acquisition of land within the 
        NPS's Civil War battlefield parks. According to the NPS, 
        priority needs exist at Fort Donelson National Battlefield, 
        Fredericksburg and Spotsylvania County Battlefields Memorial 
        National Military Park, Kennesaw Mountain National Battlefield 
        Park, Pecos National Historical Park, Richmond National 
        Battlefield Park, and others park units.
  --Petrified Forest National Park--$5 million (#4 on core list).--At 
        the request of the National Park Service, TCF is currently 
        working with several willing landowners to acquire key 
        inholdings within the Park, which feature unique 
        paleontological and archeological resources as well as 
        outstanding scenery, riparian resources and wildlife habitat. 
        The more than 630,000 annual visitors to the Park contribute 
        more than $80 million to the local economy and support more 
        than 600 local jobs.
    Fish and Wildlife Service--Land Acquisition.--TCF supports the 
fiscal year 2013 President's budget proposal of $106.892 million for 
the U.S. Fish and Wildlife Service's (FWS) Land Acquisition Program for 
its ``core'' and ``collaborative'' lists, including:
    Dakota Grasslands, North Dakota and South Dakota--$2.5 Million 
        (Number One on Core List).--To address the accelerating loss of 
        wetland and grassland habit in the Prairie Pothole region--our 
        Nation's ``duck factory''--FWS recently established the Dakota 
        Grassland Conservation Area. LWCF funds will allow willing 
        private landowners to sell conservation easements to the FWS to 
        conserve migratory birds by protecting the region's unique, 
        highly diverse, and endangered ecosystem.
    Neches River National Wildlife Refuge, Texas--$1 Million (#6 on 
        Core List).--In 2006, FWS established the 25,000-acre Neches 
        River NWR to protect habitat for migratory birds of the Central 
        Flyway and bottomland hardwood forests, as well as to provide 
        for compatible wildlife-dependent recreation opportunities. At 
        the request of the FWS, TCF acquired a 6,715-acre tract that 
        features 8 miles of Neches River frontage, dense bottomland 
        hardwood forest, and numerous oxbows and ponds. The FWS has an 
        approved appraisal of the property and TCF has raised 
        significant private funds to provide excellent leverage for the 
        requested Federal funds of $1 million in fiscal year 2013.
    Rocky Mountain Front Conservation Area, Montana--$19.742 Million 
        (Collaborative List).--As part of the Crown of the Continent 
        Collaborative Landscape Planning Project, this project will 
        allow TCF to continue working in close partnership with the 
        FWS, The Nature Conservancy and local ranchers to acquire 
        conservation easements along the Rocky Mountain Front, a 
        spectacular range that runs from just north of Helena to 
        Glacier National Park. This voluntary conservation project will 
        allow local ranchers to expand and strengthen their ranching 
        operations while conserving vital wildlife habitat for grizzly 
        bear and a range of other important species. Tens of millions 
        of private philanthropic dollars are helping to further advance 
        this effort for ranching families and wildlife and leverage 
        Federal funding.
    Okefenokee National Wildlife Refuge, Georgia--$13.636 Million 
        (Collaborative List).--As part of the Longleaf Pine 
        Collaborative Landscape Planning Project, the FWS is seeking 
        funds to acquire timber and recreation rights from a timberland 
        owner on 16,000 acres within the Okefenokee National Wildlife 
        Refuge. In addition, these funds, if appropriated, would enable 
        FWS to acquire 7,000 acre-fee land from TCF. If approved, FWS 
        will be able to restore the site to the native longleaf pine 
        system and to increase the population of the endangered red-
        cockaded woodpecker, a bird of older growth pine stands. 
        Additionally, the lands will provide a critical fire buffer and 
        allow for the long-term adaptive management of the fire-based 
        plant community through the use of prescribed fire.
    United States Forest Service--Land Acquisition.--TCF supports the 
fiscal year 2013 President's budget proposal of $57.934 million for 
USFS's Land Acquisition Program for its ``core'' and ``collaborative'' 
lists. I particularly want to highlight the following:
    North Carolina Threatened Treasures--$1.25 Million (#13 on Core 
        List).--TCF, the Trust for Public Land, Southern Appalachian 
        Highlands Conservancy and Carolina Mountain Land Conservancy 
        and other groups are working with the USFS to conserve critical 
        lands in National Forests in North Carolina. One such project 
        is the 753-acre Backbone Ridge project, which is located near 
        the Blue Ridge Parkway, Grandfather Mountain State Park and 
        surrounded on three sides by the Pisgah National Forest 
        adjoining the Forest for almost 10 miles. The property will 
        provide a gateway for hiking in a network of protected Federal 
        and State lands. USFS is seeking $4.5 million over several 
        years to acquire a portion of the property, while the State of 
        North Carolina seeks to acquire the balance as a State forest.
    Land and Water Conservation Fund State Grant Programs.--In addition 
to these Federal LWCF projects, we wish to highlight the LWCF State 
grant programs and encourage the subcommittee to give consideration to 
fully funding the President's fiscal year 2013 budget request for:
  --FWS's section 6 Cooperative Endangered Species Conservation Fund--
        $60 million;
  --USFS's Forest Legacy Program--$60 million; project highlights 
        include:
    --South Boulder Creek Watershed/Toll, Colorado (#1)--$5 million;
    --East Grand/Orient, Maine (#5)--$1.8 million;
    --Gilchrist State Forest, Oregon (#6)--$3 million;
    --East Fork of French Broad Headwaters/Taylor, North Carolina 
            (#7)--$3 million;
    --Blood Run National Historic Landmark Area, South Dakota (#10)--
            $1.205 million; and
    --Eagle Rock/Michaux State Forest, Pennsylvania (#12)--$1.5 
            million.
    Priority Land Acquisition Programs.--Additionally, TCF encourages 
the Committee to fund:
  --FWS's North American Wetlands Conservation Fund--$39.425 million; 
        and
  --USFS's Community Forest and Open Space Conservation Program--$4 
        million.
    Reprogramming Authority.--We support the fiscal year 2013 
President's budget request to allow the BLM, USFWS, NPS and USFS to re-
allocate past unspent LWCF funds, i.e., ``allocate either greater or 
lesser amounts than those specified under the heading ``Congressionally 
Directed Spending'' accompanying Public Law 111-8 and in the table 
entitled ``Incorporation of Congressionally Requested Projects'' in the 
joint explanatory statement of managers accompanying Public Law 111-88 
within the construction, land acquisition, or capital improvement and 
maintenance accounts when necessary to complete projects based on the 
original project scope or to utilize excess funds available after 
completion of a project on other projects within the same account, in 
consultation with the House and Senate Committees on Appropriations.'' 
The proposed language is necessary to allow the agencies to re-allocate 
funds to needed areas.
    Federal Land Transaction Facilitation Act Reauthorization (S. 714/
H.R. 3365).--The FLTFA program is now expired and we support the fiscal 
year 2013 President's budget request to reauthorize this important 
program that provides conservation funding for the West, at no cost to 
the taxpayer. Through FLTFA's ``land for land'' program, BLM sells land 
identified for disposal to ranchers, farmers, businesses and others to 
consolidate land ownership, create jobs, support economic development 
and increase revenues to counties by putting land on the tax rolls. 
These sales generate funding for BLM, USFS, NPS and USFWS to acquire 
critical inholdings from willing sellers in certain designated areas, 
which often complements LWCF, NAWCA, and other public and private 
funding. The sales provide revenue for Federal agencies to acquire 
high-priority lands with important recreational access for hunting, 
fishing, hiking, boating, other activities, as well as properties with 
historic, scenic and cultural resources. More than 100 groups are 
working together to support the Congress's efforts to reauthorize 
FLTFA.
    We are grateful for the subcommittee's leadership in the fiscal 
year 2013 appropriations process to support the LWCF program. Thank you 
for your consideration of this request.
                                 ______
                                 
 Prepared Statement of The Humane Society of the United States; Humane 
         Society Legislative Fund; and Doris Day Animal League

    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 11 million 
supporters nationwide. We urge the subcommittee to address these 
priority issues in the fiscal year 2013 Department of the Interior 
appropriation.
Rock Creek Park Deer
    The HSUS requests that funds made available in this act give 
preference to nonlethal deer management programs. The National Park 
Service (NPS) recently decided to implement lethal methods for 
controlling the deer population in Rock Creek Park despite the 
availability of nonlethal methods that would have cost significantly 
less taxpayer money and resulted in a more effective long-term solution 
to human-wildlife conflicts in the park and its environs. In future 
decisions regarding deer management we ask that priority be given to 
humane, nonlethal methods.
Large Constrictor Snakes
    The HSUS commends the U.S. Fish and Wildlife Service for listing 
four of nine species of large constrictor snakes as ``injurious,'' 
which will prohibit importation and interstate movement of these 
animals as pets. A recent, comprehensive report by the U.S. Geological 
Survey showed these snakes all pose medium or high risk to our 
environment; none are low risk. Large constrictor snakes have been 
released or escaped into the environment and have colonized Everglades 
National Park and other portions of south Florida and scientists warn 
they may become established in other areas of the country. Releasing 
these animals to fend for themselves can also lead to an inhumane death 
from starvation, dehydration, being struck by cars, or exposure to 
bitterly cold temperatures. The Service must have the resources to 
respond quickly to prevent the spread of these species and 
establishment of new ones.
Environmental Protection Agency
            Endocrine Disruptor Screening Program
    Research focused on molecular screening has the potential to 
revolutionize toxicity testing improving both its efficiency as well as 
the quality of information available for human safety assessment in the 
Endocrine Disruptor Screening Program (EDSP). These ``next generation 
tools'' will speed up the assessments of chemicals in the EDSP and 
reduce, and ultimately, replace animal use. We urge the Committee to 
incorporate the following report language:

    ``The Committee recognizes that EPA is continuing to extend 
existing long-term reproduction studies in birds, fish, and other 
species to two- or multi-generation tests for the Endocrine Disruptor 
Screening Program (EDSP). The Committee is also aware that EPA is 
considering replacing the two-generation mammalian study with an 
extended one-generation test on the basis of an international review of 
rat reproduction studies that shows the lack of utility of a second 
generation. The Committee directs EPA to maximize the efficiency of 
each protocol and minimize unnecessary costs and animal use by 
assessing the utility (including sensitivity, specificity and value of 
information added relative to the assessment of endocrine disruption) 
of each endpoint in the study, including specifically the need to 
produce more than one generation of offspring in the bird, fish and 
amphibian EDSP Tier 2 tests and issue a public report on its findings 
for comment. The Committee also directs EPA to determine what 
information the Agency requires to assess and manage potential risks to 
human health and the environment in regards to endocrine disruption, to 
minimize to eliminate unnecessary endocrine screening and testing, and 
to use existing scientific data in lieu of requiring new data, when 
possible. The Committee understands that EPA is currently working with 
OECD to develop and modify EDSP methods. EPA should work within the 
framework and timing of the OECD Test Guideline work plan to minimize 
duplicative efforts.''
            Science and Technology Account--21st Century Toxicology
    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks. We urge the 
subcommittee to incorporate the following language:

    ``The Committee supports EPA's leadership role in the creation of a 
new paradigm for chemical risk assessment based on the incorporation of 
advanced molecular biological and computational methods in lieu of 
animal toxicity tests. The Committee encourages EPA to continue to 
expand its extramural and intramural support for the use of human 
biology-based experimental and computational approaches in health 
research to further define toxicity and disease pathways and develop 
tools for their integration into evaluation strategies. Extramural and 
intramural funding should be made available for the evaluation of the 
relevance and reliability of Tox21 methods and prediction tools to 
assure readiness and utility for regulatory purposes, including pilot 
studies of pathway-based risk assessments. The Committee requests EPA 
provide a report on associated funding in fiscal year 2013 for such 
activity and a progress report of Tox21 activities in the congressional 
justification request, featuring a 5-year plan for projected budgets 
for the development of Tox21 methods, including prediction models, and 
activities specifically focused on establishing scientific confidence 
in them for regulatory. The Committee also requests EPA prioritize an 
additional (1-3 percent) of its Science and Technology budget from 
within existing funds for such activity.''
Multinational Species Conservation Fund
    The administration's fiscal year 2013 budget requests $9.980 for 
the Multinational Species Conservation Fund (MSCF) program which funds 
African and Asian elephants, rhinos, tigers, great apes like chimps and 
gorillas, and sea turtles. HSUS joins a broad coalition of 
organizations in support of the administration's request while ensuring 
that the sales from the semi-postal stamps benefiting this program 
remain supplementary to annually appropriated levels. We also request 
$13 million for the Wildlife Without Borders and International Wildlife 
Trade programs within the USFWS Office of International Affairs.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses--including 
live capture for trade, captive breeding, and entertainment for public 
display industry--under the guise of conservation for these animals. 
Grants made to projects under the MSCF must be consistent with the 
spirit of the law.
Protection for Walruses
    We urge this subcommittee to appropriate the necessary funds in 
fiscal year 2013 to permit the listing of the Pacific walrus, which has 
been placed on the candidate list for threatened or endangered status 
under the Endangered Species Act. The USFWS recently found that listing 
the Pacific walrus was warranted, due primarily to threats the species 
faces from loss of sea ice in its arctic habitat as a result of climate 
change. Walruses are targeted by native hunters for subsistence; 
hundreds are killed annually, with this number climbing to as many as 
7,000 in some years. In some hunting villages, females and their calves 
are preferentially killed, against the recommendation of the USFWS and 
standard management practice. By waiting to list the Pacific walrus, 
the species' likelihood of survival is in doubt. We encourage this 
subcommittee to direct the USFWS to prioritize the Pacific walrus 
listing by immediately moving forward with the listing process.
Bureau of Land Management--Wild Horse and Burro Program
    The Humane Society of the United States (HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the United States with a long history of working 
collaboratively with the Bureau of Land Management (BLM)--the agency 
mandated to protect America's wild horses and burros--on the 
development of effective and humane management techniques. Wild free-
roaming horses and burros deserve first to be given every chance to 
live out their lives wild and free, as the American public has clearly 
mandated and the Congress has stated. When intervention is required, we 
owe them our best efforts to ensure that any human actions that affect 
their lives--such as gathers, transportation, confinement, and 
adoption--are done in a way to assure their humane treatment.
    Therefore, HSUS strongly supports a significant reduction in the 
number of wild horses and burros gathered and removed from our 
rangelands annually. We believe removing horses from the range without 
implementing any active program for preventative herd growth is 
unsustainable, and simply leads to a continual cycle of roundups and 
removals when more long-term, cost-efficient and humane management 
strategies, such as fertility control, are readily available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. For instance, between 2001 and 2007, 
the BLM removed approximately 74,000 (an average of about 10,600 
animals per year) from the range, but could only place 3,000 horses a 
year, with the rest forced into holding facilities. The annual costs 
associated with caring for one wild horse in a long-term holding 
facility is approximately $500, and the average lifespan of a wild 
horse in captivity is 30 years. Today, there are more than 47,000 wild 
horses and burros in these pens currently. In the most recently 
completed fiscal year (2011), holding costs accounted for $35.7 million 
(or 47 percent) out of a total wild horse and burro budget of $75.8 
million.
    We are encouraged by the BLM's announcement in the spring of 2011 
(referenced in the agency's fiscal year 2012 budget justifications \1\) 
regarding the agency's intent to open ``a new chapter in the management 
of wild horses, burros, and our public lands'' by fast-tracking 
``fundamental reforms'' to its current policies and procedures. 
Specifically, the agency announced that it would strengthen its 
commitment to the use of fertility control by significantly increasing 
the number of mares treated with fertility control--from 500 in 2009, 
to a target of 2,000 in each of the next 2 years. This represents a 
huge step in the right direction.
---------------------------------------------------------------------------
    \1\ Bureau of Land Management 2012 Budget Justifications (Page IV 
66-67) http://www.doi.gov/budget/2012/data/greenbook/
FY2012_BLM_Greenbook.pdf.
---------------------------------------------------------------------------
    The idea of using fertility control to efficiently manage wild 
horses and burros on the range is nothing new, and one that we have 
been actively supporting and involved with for several decades. As 
early as 1982, the National Academy of Sciences (NAS) called on the BLM 
to use immunocontraception to manage wild horse and burro populations, 
finding it an effective technology and part of a pro-active management 
strategy. And in its 1990 report on the BLM's wild horse management 
program, the U.S. Government Accountability Office (GAO) found then 
that keeping excess animals in long-term holding was costly and 
recommended that BLM examine alternatives, such as treating animals 
with reproductive controls and releasing them back on the range.\2\ 
Further, a 2008 paper determined that contraception on-the-range could 
reduce total wild horse and burro management costs by 14 percent, 
saving $6.1 million per year.\3\ Finally, the results of an economic 
model commissioned by The HSUS indicates that by treating wild horses 
and burros with the fertility control vaccine Porcine Zona Pellucida 
(PZP), the BLM could save approximately $204 million over 12 years 
while achieving and maintaining Appropriate Management Levels (AML) on 
wild horse Herd Management Areas (HMA) in the United States.
---------------------------------------------------------------------------
    \2\ GAO, Rangeland Management: Improvements Needed in Federal Wild 
Horse Program, GAO/RCED-90-110 (Washington D.C.: Aug. 20, 1990).
    \3\ Bartholow, J. 2007. Economic benefit of fertility control in 
wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.
---------------------------------------------------------------------------
    However, even with a significant increase in the number of mares 
treated and released back onto the range, by the end of fiscal year 
2012, the BLM plans to remove an additional 15,000 wild horses from our 
public lands. Since there are already more than 47,000 wild horses and 
burros living in Government holding facilities today--and, on average, 
the agency is only able to find homes for approximately 3,000 animals a 
year--by 2013, there could be more than 50,000 animals in captivity. 
That's almost twice the number of wild horses and burros living on our 
public lands today, and as a result, the cost of caring for these 
animals off the range could more than double in a just a few years.
    The BLM must balance the number of animals removed from the range 
annually with the number of animals it can expect to adopt in a given 
year if it hopes to effectively reduce off-the-range management costs. 
For these reasons, we strongly support the BLM's request for a $2 
million budget increase to fund new research on contraception and 
population growth suppression methods. Developing additional methods to 
reduce wild horse population growth will allow the agency to maintain 
healthy herds while reducing the need for costly removal regimes that 
will further flood Government holding facilities with additional 
animals.
    Again, we commend the Secretary and the BLM for taking critical 
steps toward a more sustainable wild horse management program and 
believe the subcommittee's guidance and support for humane and 
sustainable management will further the implementation of a program 
that will be of great benefit not only to our Nation's beloved wild 
horse populations, but also to the American taxpayer.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Nature Conservancy's recommendations for 
fiscal year 2013 appropriations. My name is Christy Plumer and I am the 
Director of Federal Land Programs for the Conservancy. The Nature 
Conservancy is an international, nonprofit conservation organization 
working around the world to protect ecologically important lands and 
waters for nature and people. Our mission is to conserve the lands and 
waters upon which all life depends.
    As we enter the fiscal year 2013 budget cycle and another year of 
this challenging fiscal environment, the Conservancy continues to 
recognize the need for fiscal austerity. The Conservancy also wishes to 
thank this subcommittee for the final fiscal year 2012 Consolidated 
Appropriations Act funding levels for Department of the Interior and 
U.S. Forest Service conservation programs. As this subcommittee begins 
to tackle another difficult budget cycle, the Conservancy stresses our 
concerns that the wildlife and land conservation programs should not 
shoulder a disproportionate share of cuts in this budget. Our budget 
recommendations this year do not exceed the President's budget request 
except for a few instances in which we recommend fiscal year 2012 
funding levels. Moreover, as a science-based and business-oriented 
organization, we believe strongly that the budget levels we support 
represent a prudent investment in our country's future that will reduce 
risks and ultimately save money based on the tangible economic, 
recreation and societal benefits natural resources provide each year to 
the American people. We look forward to working with you, Mr. Chairman, 
and members of the subcommittee, as you address the ongoing needs for 
conservation investments to sustain our Nation's heritage of natural 
resources that are also important to the economic vitality of 
communities across this country.
    Land and Water Conservation Fund.--The Conservancy supports the 
President's fiscal year 2013 budget request of $450 million for the 
Land and Water Conservation Fund (LWCF) with the aim of continuing to 
work toward full funding for the program. The President's America's 
Great Outdoors Initiative is the prominent focus of this annual LWCF 
budget, and includes several top-priority landscape conservation areas 
for the Conservancy including the Rocky Mountain Front/Crown of the 
Continent (Montana/Wyoming/Idaho) and Longleaf Pine Conservation Area 
(Florida/Georgia/South Carolina). This year, the Conservancy is 
specifically supporting 18 biologically rich land acquisition projects 
totaling $94.122 million. Some of our priorities include the continuing 
phased acquisition of the Montana Legacy Project, Florida's northern 
refuges (St. Marks and St. Vincent's), Silvio O. Conte NFWR within a 
four-State integrated landscape, and Francis Marion NF in South 
Carolina. We are also pleased to support the administration's proposals 
for investing in conservation easements on the working ranches of 
Florida's Everglades Headwaters NWR & Conservation Area, Kansas's Flint 
Hills Legacy Conservation Area, North Dakota and South Dakota's Dakota 
Grasslands Conservation Area, and Montana's Rocky Mountain Front 
Conservation Area. All of these projects exemplify landscape-scale 
conservation through the cost effective means of conservation 
easements.
    Forest Legacy.--We support $60 million for this program, and 
specifically three projects--Pascagoula River Conservation Lands, 
Carter Mountain Working Forest Conservation Easement, and Discover 
Woods--totaling $7.41 million. We hope this year to complete the 
acquisition of these important lands that will provide recovery for 
wildlife habitat and rare species, public recreational access for 
hunting and fishing, and outdoor experiences for financially 
disadvantaged children and those with special needs.
    Endangered Species.--The Conservancy enthusiastically supports $60 
million for the Cooperative Endangered Species Conservation Fund 
(CESCF). The Conservancy and its partners have used the Habitat 
Conservation Plan (HCP) and Recovery Land Acquisition Programs to 
conserve key habitat for numerous threatened, endangered and at-risk 
species and, thus, to help avoid conflicts over ESA issues. It has been 
an important catalyst for several local government-led HCPs that 
facilitate urban development and streamline permitting of essential 
transportation and energy infrastructure. In one part of Riverside 
County, California, a single HCP has facilitated development of 
transportation infrastructure that alleviates congestion and creates 
jobs in this rapidly growing area. The plan facilitates development on 
more than 700,000 acres through acquisition of 153,000 acres in new 
conservation lands. We also support continued endangered species 
funding for the Table Rocks Area, Oregon, to protect critical habitat 
for the threatened vernal pool fairy shrimp, and funding for the Upper 
Colorado River Endangered Fish Recovery Program, recovery funds for the 
San Juan River Basin Recovery Implementation Program, and fish hatchery 
needs associated with the recovery plans in this region.
    Climate Change.--Fish, wildlife, and their habitats are and will 
continue to be profoundly impacted by climate change, regardless of our 
successes in reducing greenhouse gas emissions. If we are to get out 
ahead of such change to avoid disastrous losses in critical habitat and 
the species that depend on that habitat, we must develop the place-
based science to make informed, cost-effective management investments. 
The Conservancy appreciates the President's commitment to respond to 
the global climate challenge, and this Committee's sustained leadership 
in supporting cooperative, science-based programs to respond to the 
global climate challenge help ensure resilient land and seascapes. In 
particular, we welcome this Committee's ongoing commitment to both the 
USGS-led Climate Science Centers as well as DOI's Landscape 
Conservation Cooperatives, and efforts to ensure integration and 
coordination of these initiatives with existing efforts such as the 
Joint Ventures and National Fish Habitat Partnerships.
    National Wildlife Refuge System.--The Conservancy supports the 
Cooperative Alliance for Refuge Enhancement Coalition's request of $495 
million for Refuge System O&M. This is the President's request and 
represents the funding necessary to maintain management capabilities 
for the Refuge System in fiscal year 2013. It is an $8.3 million 
increase and takes into account the freeze on Federal salaries.
    United States Geological Survey--Water Resources.--We support 
increased funding levels for the National Streamflow Information 
Program and the Cooperative Water Program, including work on water 
availability studies and work to implement a national water use and 
assessment program. As climate change, drought and population growth 
increase the demands on water resources, it is critical to invest in 
the integration of State and Federal water resource data and to better 
understand water needs of human communities and the environment.
    Bureau of Land Management: Renewable Energy Development, Rapid 
Ecoregional Assessments & Resource Management.--The Conservancy 
supports the administration's recommended funding for DOI's ``New 
Energy Frontier'' which includes $26.8 million for BLM to support 
environmentally sound development of renewable energy sources on public 
lands and offshore. The request supports evaluation of the impacts of 
renewable energy development on wildlife and habitat and effective 
coordination with affected States and tribes to assess energy resources 
and evaluate project proposals. We also support funding for BLM 
completion of Rapid Ecoregional Assessments (REAs), a key information 
tool for the agency to respond to the growing challenges of climate 
change and energy development. We also recommend robust funding for BLM 
resource management and transportation planning activities. These funds 
are needed to complete ongoing planning efforts and to initiate new 
planning efforts in key places, without which the agency cannot make 
informed energy mitigation and siting decisions and take the management 
actions necessary to improve priority wildlife and aquatic habitats, 
ensure water quality, control invasive species and manage off-road 
vehicle use. BLM should also be encouraged to use existing data sets 
when available for REAs and RMPs so that funding can be focused on 
critical data needs instead of creating duplicitous data sets.
    Collaborative Forest Landscape Restoration.--We appreciate the 
Committee's support for Collaborative Forest Landscape Restoration and 
demonstration of collaboratively developed forest restoration plans at 
a large scale. We recommend fiscal year 2012 funding be sustained for 
Collaborative Forest Landscape Restoration with $40 million to restore 
large forest landscapes, provide jobs that sustain rural economies, 
reduce the risk of damaging wildfire, address invasive species, improve 
wildlife habitat and decommission unused, damaging roads. We are 
monitoring many CFLR projects closely and are very encouraged by 
progress to date. We also recommend reauthorization of stewardship 
contracting, a vital tool for forest landscape restoration.
    Wildland Fire Management.--We appreciate the subcommittee's ongoing 
support for the Hazardous Fuels Reduction, that removes overgrown brush 
and trees through a variety of methods, leaving the forest in a more 
natural condition that is resilient to wildfires. It is essential to 
keep at least level funding for this program. Funding reductions will 
result in greater, more damaging wildfires and larger Federal and State 
outlays for emergency wildfire suppression, with more damage to life, 
property, and natural resources. We note that fuels reduction also 
creates jobs: for every $1 million invested, approximately 16 full-time 
equivalent jobs are created or maintained, along with more than 
$500,000 in wages and more than $2 million in overall economic 
activity.
    We urge you to repeat your instructions in the fiscal year 2012 
conference report regarding allocation of hazardous fuels funding. 
Community protection is a vital goal of the hazardous fuels program and 
strategic treatment of natural wildland areas that supply water, wood, 
recreation, and wildlife habitat protects communities and the resources 
citizens are also essential. We note that the President's budget for 
fiscal year 2013 has a disturbing focus on protecting structures at the 
expense of wildland natural areas. Significant progress to protect 
communities and natural areas has been achieved since 2001 with a 
roughly equal allocation of funding between the wildland urban 
interface and wildlands. Shifting too much funding away from wildlands 
will forestall treatments in strategic forest locations where 
treatments may prevent mega-fires, and will allow fuels to regrow on 
acres already treated that need maintenance with controlled burns.
    We recommend $317 million for Hazardous Fuels Reduction in the USFS 
budget, with $76 million for wildland and $241 million for wildland 
urban interface, and $183 million for Hazardous Fuels Reduction in the 
Department of the Interior budget, with at least 25 percent allocated 
for treatment of wildlands necessary to achieve the conservation 
missions of the Fish and Wildlife Service, National Park Service and 
Bureau of Land Management.
    Integrated Resource Restoration.--We appreciate the Committee's 
work to create an Integrated Resource Restoration (IRR) pilot in the 
Consolidated Appropriations Act of 2012, allowing Forest Service 
regions (Northern, Intermountain, and Southwestern) to test the 
integrated budget approach. The Nature Conservancy has actively 
followed implementation of the pilot in the three regions and expects 
an increase in restoration outcomes to result. The Conservancy thinks 
it is premature to take this pilot national, so we support continuation 
of the pilot for a second year. Important lessons will be learned from 
the pilot and this information is necessary if full implementation of 
IRR is to succeed.
    Watershed Protection, Cooperative State Fire Assistance and 
Landscape-Scale Restoration.--Forest health problems and fire 
management are most effectively and efficiently addressed at large 
scales. The Nature Conservancy recommends support for watershed 
restoration and leveraging State funding to address wildfire risks and 
begin cooperative Landscape Scale Restoration. Our recommendations 
include funding at the fiscal year 2012 enacted levels for Legacy Road 
and Trail Remediation, with $45 million for the National Forest System, 
$86 million for State Fire Assistance and $18 million for the new 
Landscape Scale Restoration program, to coordinate cost-effective 
investment in fuels treatments.
    Forest Health Management. America's forests are threatened by a 
growing number of non-native pests and diseases. The Conservancy asks 
the subcommittee to maintain funding at the fiscal year 2012 enacted 
level, which totals $112 million. This funding is necessary to address 
effectively the most economically and ecologically damaging pests, 
including the Asian Longhorned Beetle, Emerald Ash Borer, Hemlock 
Woolly Adelgid, Sudden Oak Death, thousand-canker disease of walnut, 
and the goldspotted oak borer.
    United States Forest Service Research Program.--We support the 
President's request for the USFS research program to maintain funding 
of research to improve detection and control methods for the Emerald 
Ash Borer, Hemlock Woolly Adelgid, goldspotted oak borer, thousand 
cankers disease, and other non-native forest pests and diseases.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's support for robust funding for this important 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats. We also support the administration's request to maintain the 
current program match requirement of 65:35 to help fiscally impacted 
States.
    Migratory Bird, Joint Ventures and Fish Habitat Partnership 
Programs.--The subcommittee has consistently provided vitally important 
investments for a number of migratory bird programs. Such investments 
are essential to reverse declines in bird populations through direct 
conservation action, monitoring and science. We urge the subcommittee 
to fund the President's request for such established and successful 
programs as NAWCA and the Joint Ventures, and the Migratory Bird 
Management Program. We support the President's request for the FWS 
Coastal Program and Partners for Fish and Wildlife Program and request 
strong funding this year for the National Fish Habitat Initiative, 
particularly in light of the recent Memorandum of Understanding 
announced between the Secretaries of the Interior, Commerce and 
Agriculture in support of the Initiative.
    International Programs.--There are large unmet needs for 
international conservation. When well-managed, international 
conservation contributes much to human welfare in the developing 
countries and globally. Recognizing the current fiscal situation 
requires a measure of austerity, we support the President's fiscal year 
2013 request for the FWS's Multinational Species Conservation Funds, 
the international wildlife trade programs, and Wildlife Without 
Borders. These programs have already been cut and are currently less 
than the fiscal year 2010 enacted levels; further cuts would be very 
damaging. We also support a line item and funding for USFS's 
International Programs at its fiscal year 2012 enacted level of $8 
million.
    United States Geological Survey--Water Resources.--We support 
increased funding levels for the National Streamflow Information 
Program and the Cooperative Water Program, including work on water 
availability studies and work to implement a national water use and 
assessment program. As climate change, drought and population growth 
increase the demands on water resources, it is critical to invest in 
the integration of State and Federal water resource data and to better 
understand water needs of human communities and the environment.
    Environmental Protection Agency.--TNC acknowledges that reductions 
in EPA's budget are necessary to support national deficit reduction. We 
believe that the overall President's budget request of $8.34 billion 
for EPA, which represents a $105 million decrease from the fiscal year 
2012 enacted amount, is appropriate. However, the Congress should 
remain mindful of the relatively small size of EPA's discretionary 
budget as it considers where additional budget cuts should occur 
Governmentwide. The Congress should avoid disproportionate cuts to 
EPA's ecosystem-oriented water programs because those programs have 
such wide-reaching and beneficial impacts throughout the country. 
Unlike established point source pollutant control programs, these 
landscape-scale programs support a more forward-looking conservation 
approach that can enhance ecosystem value (and therefore economic 
value) over time. Examples of such value-adding activities include 
coastal restoration, watershed protection, wetland mitigation, climate 
adaptation, protection from invasive plants and animals, and non-point 
source nutrient management.
    Furthermore, TNC recommends that the Congress require EPA to give 
greater emphasis to innovative approaches that promote ecosystem 
protection and restoration over after-the-fact remediation. We continue 
to support the allocation of sufficient funds for innovative strategic 
planning programs like the Healthy Watersheds Initiative, which 
embraces a whole-system planning approach to water resource management. 
This program should be endorsed as a means to enable Federal and State 
programs to protect and restore freshwater habitats at large scale 
through more bang-for-the-buck actions. The same holds true for major 
grant programs such as the Clean Water State Revolving Fund and the 
section 319 Non-Point Source grant program. These vital accounts should 
be sufficiently funded to enable cash-strapped States and localities to 
take actions to protect priority aquatic ecosystems. At the same time, 
the Congress should require EPA to promote the allocation of SRF and 
319 funds for projects that support the development of green 
infrastructure and sustainable conservation practices, because of the 
long-term environmental and economic value they provide.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2013 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group

    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 499 not-for-profit member theatres across the country 
and the 31 million audience members that the theatre community serves. 
We urge you to support funding at $155 million for the National 
Endowment for the Arts (NEA) for fiscal year 2013.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $166.2 billion annually in economic activity, support 5.7 
million jobs and return $12.6 billion in Federal income taxes. Art 
museums, exhibits, and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning, and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
    Here are some recent examples of NEA grants and their impact:
From the National Endowment for the Arts' Access to Artistic Excellence 
        Program
    Located in southern Vermont, Weston Playhouse was the recipient of 
an NEA grant in the category of Artistic Excellence in Musical Theatre 
for $45,000. This grant supported the world premiere production of 
Saint-Ex, a new musical by composer Jenny Giering and author Sean 
Barry, directed by Kent Nicholson. Inspired by the life of author and 
aviator Antoine de Saint-Exupery (The Little Prince), Saint-Ex provides 
an impassioned and deeply moving portrait of a man whose work is 
cherished by millions across the globe, but whose astonishing life 
remains little known. Saint-Ex began performances on August 28 at the 
Weston Playhouse. Interrupted just 3 days into the run when Tropical 
Storm Irene ripped through Weston, flooding countless homes and 
businesses, the lower level of the Weston Playhouse sustained extensive 
damage after being submerged in 8 feet of water. Response to these 
devastating events was overwhelming, with company and community members 
coming out to help with the cleanup. Recovering from this natural 
disaster, a restaged version of Saint-Ex opened just 5 days after the 
flood and served as a platform for community catharsis with every 
subsequent performance receiving an emotional standing ovation. Saint-
Ex ran for 2 weeks with 12 total performances, 2,013 adults and 
students in attendance and 27 artists in addition to 39 Weston 
Playhouse staff members participating in the project.
From the National Endowment for the Arts' Art Works Program
    CENTERSTAGE in Baltimore, Maryland, received $55,000 to support the 
presentation of Gleam, an adaptation by Bonnie Lee Moss Rattner of Zora 
Neale Hurston's novel Their Eyes Were Watching God directed by Marion 
McClinton. This novel is considered one of the jewels of the Harlem 
Renaissance by one of America's literary giants.
    Milwaukee Repertory Theater received $20,000 to support a musical 
production of Next to Normal, composed by Tom Kitt, with libretto and 
lyrics by Brian Yorkey, and directed by artistic director Mark Clements 
with accompanying community and student educational programming. The 
award-winning contemporary musical portrays a family grappling with 
depression and mental illness.
    Perseverance Theatre, in Douglas, Alaska, received $20,000 to 
support a production of A Raisin in the Sun by Lorraine Hansberry. A 
seminal work in the development of African American theatre, as well as 
a study of the issues of race relations, the play portrays an African 
American family living in Chicago's South Side during the 1940s and 
examines the American dream of children striving to rise above their 
parents' accomplishments.
From the National Endowment for the Arts' Challenge America Program
    Tennessee Women's Theater Project in Nashville, Tennessee received 
$10,000 to support the creation and tour of a new play by Regina Taylor 
examining the experience of breast cancer from the African American 
perspective. Partners will include the Tennessee Breast Cancer 
Coalition.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support a funding level of $155 million for fiscal year 
2013 for the NEA, to maintain citizen access to the cultural, 
educational and economic benefits of the arts, and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of Government, business, foundation, and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $146 million in the fiscal year 2012 budget; however, it has 
never recovered from a 40-percent budget cut in fiscal year 1996 and 
its programs are still under-funded. We urge the subcommittee to fund 
the NEA at a level of $155 million to preserve the important cultural 
programs reaching Americans across the country.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, USFS included an 
allocation of $1 million for the Ophir Valley project in the 
Uncompahgre National Forest. I am pleased that this funding was 
included in the request and urge the Congress to provide necessary 
funds for LWCF for this important project.
    Located in the heart of southwestern Colorado's San Juan Mountains, 
the Ophir Valley project area in the Uncompahgre National Forest is one 
of the San Juans' hidden gems. A short detour of only a mile off of 
Highway 145--part of the nationally acclaimed 236-mile San Juan Skyway 
Scenic Byway--brings visitors into a compact valley ringed by 13,000-
foot peaks and serrated ridge lines.
    Against a backdrop of unsurpassed alpine scenery, the Ophir Valley 
offers an abundance of recreational opportunities for residents and 
visitors. Hiking, camping, mountain biking, cross-country skiing, four-
wheeling, and fishing are all popular pastimes. In addition, the valley 
supports habitat for the Canada lynx, a federally listed threatened 
species, and provides important habitat for the endangered Uncompahgre 
fritillary butterfly and other sensitive species. It also contains the 
headwaters of Howard Fork, a key tributary to the San Miguel River, 
which The Nature Conservancy has called ``one of the last naturally 
functioning rivers in the West.'' The San Miguel sustains a globally 
rare narrowleaf cottonwood-Colorado blue spruce/black twinberry plant 
community.
    While much of the Ophir Valley is in public ownership, the region's 
mining heritage also created hundreds of privately owned patented 
mining claims scattered across the landscape like matchsticks. These 
private inholdings once were vital to sustaining 19th century efforts 
to find and extract mineral wealth. Now, however, at a time when hard 
rock mining in southwestern Colorado appears increasingly less viable 
economically, many former mining districts, such as Ophir, are seeing 
these private inholdings develop into sites for second homes. As a 
result, more and more of the Ophir Valley's subalpine and alpine 
environments are at risk of being developed, potentially creating 
significant management issues for the United States Forest service 
(USFS), fragmenting wildlife habitat, and spoiling the scenic splendor 
and recreational opportunities so important to residents and visitors.
    Currently, USFS has the opportunity to acquire all of the remaining 
acres out of a total 1,145 acres of patented mining claims that had 
been under one ownership in the Ophir Valley. Prior to this acquisition 
effort, these claims represented approximately 90 percent of the 
valley's privately owned inholdings. Federal appropriations provided in 
previous years have allowed USFS to begin acquiring these mining 
claims. Funding in fiscal year 2012 will allow the agency to begin the 
purchase of the final 101 acres. This project resolves many land use 
and access conflicts that stem from the development of private 
inholdings within public lands, while promoting effective land 
management practices by USFS. In particular, the ongoing acquisition 
protects critical habitat, maintains high-quality recreational 
opportunities on public lands, protects water quality, and helps 
maintain the quality of life of the region's residents.
    This protection effort is a natural extension of the successful Red 
Mountain project, located just to the north and east of the Ophir 
Valley along a different portion of the San Juan Skyway. It will also 
complement other land protection and recreation enhancement efforts 
along and adjacent to the San Juan Skyway, 1 of only 27 All-American 
Roads in the National Scenic Byway program. In recent years, for 
example, Great Outdoors Colorado Trust Fund has pledged $5.7 million 
for land protection in the area. In fiscal year 2013, an allocation of 
$2.5 million from LWCF is needed to help the Forest Service to complete 
the protection of these critical inholdings. It is my hope that USFS 
will be able to identify funds in addition to the budgeted amount in 
order to finish the Ophir Valley project this year.
    In closing, I urge you to provide funding for LWCF of $450 million, 
as proposed in the President's fiscal year 2013 budget, including 
critical funding for Ophir Valley. I want to thank the Chairman and the 
members of the subcommittee for this opportunity to testify on behalf 
of this nationally important protection effort in Colorado, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
  Prepared Statement of the Tlingit and Haida Indian Tribes of Alaska

    Greetings from Alaska! My name is Edward K. Thomas. I am the 
elected President of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska (Tlingit Haida), a federally recognized Indian 
tribe of 28,000 tribal citizens. I am honored to provide this testimony 
on the very important matter of the fiscal year 2013 Federal 
appropriations legislation. I commend the Congress, and especially this 
subcommittee, for holding this hearing and giving me, and other tribal 
leaders, an opportunity to provide you our perspective on the fiscal 
year 2013 Federal budgets on Native American programs. One of the most 
important legal principles in defining the relationship between the 
Federal Government and the Indian and Alaska Native Tribes is that of 
the fiduciary responsibility the United States has to tribal 
governments. This hearing is very important in strengthening the 
Federal Government's Trust relationship to tribal governments.

   FUNDING NOT BASED ON NEEDS, WHICH ARE MUCH GREATER IN RURAL AREAS

    I have been involved in managing Federal programs since 1976 and 
find that the method of formulating Federal budgets for the benefit of 
needy Native Americans is deficient and ineffective. Each year Federal 
budgets are put together mostly based upon the previous year's funding; 
totally disregarding the level of unmet needs in Indian Country. This 
becomes a much bigger problem when it becomes necessary to reduce total 
Federal funding.
    Our Nation's poverty level is at the highest level since 1993. 22 
million or 1 in every 6 Americans lives in poverty; 22 percent of all 
American children live in poverty. The poverty levels are much higher 
in rural tribal communities. In rural Alaska, higher energy costs have 
compounded an already depressed economy in rural Alaska. The cost of 
living in certain parts of rural Alaska is nearly twice that of the 
average cost of living elsewhere in the United States. Electricity 
costs are often 4 to 5 times higher. Over the past decade, funding for 
Native American programs has not even kept pace with national inflation 
rates let alone the dramatic inflationary costs in rural Alaska.

NON-BUREAU OF INDIAN AFFAIRS AGENCIES HAVE RECEIVED FUNDING PRIORITY IN 
                          INTERIOR DEPARTMENT

    Between fiscal year 2004 and 2012, the Bureau of Indian Affairs 
(BIA) budget grew 8 percent. Over that same period of time, funding for 
non-BIA programs grew at a much greater rate:
  --Fish and Wildlife by 30 percent;
  --Park Services by 27 percent;
  --Geodetic Surveys by 18 percent; and
  --Bureau of Land Management by 13 percent.
    It makes sense that funding to needy tribal communities could be 
increased if these non-BIA agencies were reduced to the 2004 funding 
levels plus 8 percent.
    The single biggest factor that financially undermines Tribal Self-
Determination and Self-Governance is the Federal practice of 
underfunding or putting caps on indirect costs or Contract Support Cost 
(CSC). For the period between 2006 through 2009, the CSC shortfalls and 
underfunding have cost my tribe a total of $2,651,088; or an average of 
$662,772 per year. While our people are grateful for the programs 
designed to help our needy tribal citizens, we simply cannot afford to 
continue to pay this amount of money to manage these important 
contracts. My tribal government provided $84,689,247 (an average of 
$21,172,300 per year) in contractual services to our needy tribal 
citizens over that period of time. Simply put, the difference between 
the way indirect costs are calculated and the way they are paid by the 
United States creates an ever-tightening chokehold on my tribe's 
ability to administer programs. If we follow the law and spend the 
administrative costs we are required to spend, Federal law provides us 
less and less money to meet these federally required expenditures. The 
more we spend, the less we get. The less we spend, the less we get. 
Both the Congress and the Federal agencies have caused this crisis. 
Together we can solve it.
    tlingit haida tribal trust funds pay for federal responsibility
    Federal law specifically states that a tribe who contracts for the 
management of a Federal contract is entitled to the same administrative 
support as the Federal Government itself would have were it to retain 
the management of that contract. Appropriations legislation that 
underfunds contract support costs violates this provision of Federal 
law and severely undermines the concept of tribal self-determination.
    Tlingit Haida diligently tries to abide by Federal laws that set 
our indirect cost rates and to live within other Federal appropriations 
laws that provide us much less than the Federal Government's own audits 
say we should collect from each agency to manage contracts for them. We 
were forced to pull the $2,651,088 shortfall in contract support costs 
over the past 4 years out of our modest Trust Fund earnings in order to 
meet the costs we were stuck with by the United States. We cannot 
continue to afford to pay for these Federal responsibility costs going 
into the future. There are no gaming tribes in Alaska; the economy in 
rural Alaska is weak to nonexistent; and unemployment rates in some of 
our villages often exceed 50 percent.
    Our Tribal Trust Fund is what remains of a judgment fund provided 
to us in exchange for land taken by the United States from our tribe. 
Our Tlingit Haida tribal government has a fiduciary responsibility to 
preserve the principal of this Tribal Trust Fund for future generations 
and the earnings of this fund that are so critical to maintaining 
essential governmental functions for our tribe. It is not the purpose 
of our Tribal Trust Fund to use the interest earned to make up for 
shortfall created by the United States. The choice we face each and 
every year is to either shutdown all of the vital services we provide 
our membership, shut our offices, layoff employees, and pay for early 
termination of contracts, or dip deeper and deeper into our Tribal 
Trust Fund earnings to maintain operations. We have chosen to continue 
but we need your help in order for us to continue in providing 
essential services to our needy tribal citizens.
    In addition to the diversion and diminishment of our Tribal Trust 
Fund earnings, the shortfall in BIA contract support funding has been 
felt throughout Tlingit Haida. As an immediate result of this shortfall 
which the CSC caps place on so many programs our tribe is eligible to 
apply for, we have had to abstain from applying for some very important 
federally funded programs that could be of tremendous help to mitigate 
the serious economic challenges facing our tribal communities. While 
businesses, other governments and government agencies saw benefit from 
the American Recovery and Reinvestment Act (ARRA), Tlingit Haida had to 
abstain from fully participating in available programs because of the 
15-percent cap of administrative costs placed on those programs. We did 
accept one $1.5 million award for childcare assistance to supplement 
our ``welfare to work'' initiatives but this cost Tlingit Haida 
$330,000 of our own money, again, depleting our meager Tribal Trust 
Fund, to manage that federally funded program.

               INDIRECT COSTS ARE FIXED-COST REQUIREMENTS

    If indirect costs were not primarily ``fixed'' costs, the recurring 
problem of a shortfall in BIA contract support cost funding would, 
perhaps, be survivable. But most of our actual indirect costs are 
``fixed''. For example, typically the most cost-effective way to 
acquire facility space or equipment is through a long-term lease with 
locked-in costs. Similarly, package deals for telephone and some forms 
of transportation offer significant cost savings over time. And 
obviously, the salary and benefit costs of accounting, administrative, 
and management staff must be treated as ``fixed'' or else we cannot 
hire or keep employees. When Federal agencies do not send us 100 
percent of the funds required by our federally set indirect cost rate, 
we have a shortfall associated with our operation of BIA programs and 
something has to give.
    We refer to tribal indirect cost funding as a ``requirement''--not 
a ``need''. They are requirements because they are derived from audits 
conducted by the National Business Center (NBC) on behalf of the 
Federal Government who sets rates that are used uniformly by all 
Federal agencies with whom Tlingit Haida manages a contract or grant. 
The rates use actual expenditures from prior years to project costs in 
the future year. Once our federally established indirect cost rate is 
set, Federal law requires that our tribe apply that Federal rate 
uniformly to all the programs we administer. In other words, Federal 
law requires us to spend money on administrative costs, but will not 
let us charge all of that spending to the Federal grants and contracts.
    Another problem is that the Single Audit Act requires a tribal 
contractor's cognizant agency (e.g., Department of the Interior) to 
audit the indirect costs of the tribal contractor and establish an 
indirect cost rate that must be applied to all programs the tribal 
contractor administers. If that rate is 25 percent, and a program like 
Head Start caps administrative cost recovery from its funding at 15 
percent, the law requires the tribal contractor to pay the difference 
from non-Federal funds or through a rate increase the following year 
that will obtain a higher recovery from BIA's contract support cost 
fund in future years.
    Let me be clear. We would spiral into complete financial disaster 
as a tribe if we chose to not spend at the budgeted amounts. Failing to 
pay certain fixed costs would actually increase our costs (breaking 
leases, terminating employees, breaching contracts). Deferring certain 
costs to the following year aggravates the hardship of the shortfalls 
that cripple that year. The Public Law 93-638 language which supposedly 
protects tribal contractors against theoretical under-recovery does 
work with respect to BIA funds, but historical underfunding of CSC has 
caused our tribe very serious difficulties in dealing with shortfalls 
in non-BIA programs for which we must, by law, use the same indirect 
cost rate. If in year one we don't spend uniformly on all programs, BIA 
and non-BIA alike, this will increase the approved rate for the 
following year because the amounts not collected from the agencies are 
available to add on to the CSC for the subsequent year. Higher indirect 
cost rates are no answer, given the uncertainty of future funding 
levels. Tlingit Haida, in our efforts to keep our CSC indirect cost 
rates lower has chosen not to carry all of those costs forward and so 
has had to pay the shortfalls out of non-Federal sources. But Tlingit 
Haida, and many other tribes, have very few non-Federal sources of 
funding. For these reasons, I ask your consideration of including the 
following bill language in the fiscal year 2013 Interior, Environment, 
and Related Agencies appropriations law. It would provide flexibility 
to Tlingit Haida and other tribes caught by a crushing, unfunded 
Federal mandate.

              PROPOSED NEW FISCAL YEAR 2013 BILL LANGUAGE

    ``Notwithstanding any other provision of law, including any 
otherwise applicable administrative cost limitations, any Federal funds 
made available under this or any other appropriations act for fiscal 
year 2013 to an Indian tribe may, at the option of the Indian tribe, be 
applied to pay for up to 100 percent of the approved indirect costs 
associated with the administration by the Indian tribe of those funds, 
provided that such costs are calculated in conformity with the 
federally-determined indirect cost rate agreement of that Indian tribe 
and the relevant OMB circulars.''

                   INTENT AND EFFECT OF BILL LANGUAGE

    The proposed amendment is intended to apply a tribal contractor's 
uniform indirect cost rate established under the Single Audit Act to 
recover costs required by that uniform indirect cost rate from each 
federally funded award or agreement without regard to any otherwise 
applicable administrative cost cap limitations otherwise governing 
those awards or agreements.
    The proposed amendment would expand existing authority to permit a 
tribal contractor an additional tribal option--it would provide tribal 
authority to use any federally funded award to meet up to all of a 
tribe's approved indirect costs that are calculated in conformity with 
its federally established indirect cost rate agreement and the relevant 
OMB circulars without regard to any otherwise applicable administrative 
cost cap limitations. This would not require any increase in overall 
Federal funding. The funding level of each award would not be affected. 
It would simply extend flexibility to a tribal contractor to apply its 
federally awarded funds to meet federally required administrative 
costs. This would be a huge benefit to tribal contractors, like Tlingit 
Haida, who are providing services in high-cost areas with few or no 
financial resources other than Federal awards and grants.

                               CONCLUSION

    I very much understand the serious financial challenges facing the 
Federal Government. It is vitally important that there be a balanced 
approach in addressing Federal budget deficits. Balancing our Nation's 
budget on the backs of the programs serving the needy will not work. I 
thank you for the opportunity to share my views with you. I wish you 
well in your deliberations and I trust you will make the right 
decisions on the issues of grave concern to our people.
    Gunalcheesh! Howa! Thank you!
                                 ______
                                 
            Prepared Statement of The Trust for Public Land

    On behalf of The Trust for Public Land, thank you for the 
opportunity to submit testimony in support of programs under your 
jurisdiction for the fiscal year 2013 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in the Congress have shown 
for Federal conservation programs during these challenging fiscal 
times. We recognize that the subcommittee will again face enormous 
challenges in meeting the broad range of priority needs in the 
Interior, Environment, and Related Agencies bill this year. But we 
believe the American people support continued investments in 
conservation, even during a time of economic challenge. Most recently, 
on ``Super Tuesday'' in March, voters in communities in Florida, 
Georgia and Ohio approved conservation funding measures, putting 2012's 
passage rate at 100 percent--4 for 4 so far.
    These ballot initiatives reflect the very essence of conservation 
in the 21st century:
  --collaborative;
  --leveraged;
  --partnership-based; and
  --locally supported.
    Federal funding is an absolutely critical part of the conservation 
toolbox and provides manifold benefits to the American people. Given 
the limited public conservation funding at all levels of government, 
TPL works to leverage Federal conservation dollars, bringing to bear 
private philanthropic support as well as State and local funding to 
forge workable solutions to complex conservation funding challenges.
    We are especially grateful for your recognition during the fiscal 
year 2012 process that funding for programs like the Land and Water 
Conservation Fund (LWCF) is a worthwhile investment. TPL respectfully 
requests that you continue this commitment by supporting the 
President's budget request for fiscal year 2013 for LWCF of $450 
million. This amount includes $270 million for Federal land purchases, 
$60 million for grants to States for parks and outdoor recreation, 
including a new competitive grant component for city parks, $60 million 
for the Forest Legacy Program and $60 million for the Cooperative 
Endangered Species program. Continued investment in this suite of LWCF 
programs is essential and TPL is ready to work with the subcommittee to 
ensure that dollars invested are well spent on our most urgent needs. 
We urge you to also support the President's budget requests for the 
North American Wetlands Conservation Act and the Community Forest 
Program.

                    LAND AND WATER CONSERVATION FUND

    For almost 50 years LWCF has been the cornerstone that sustains our 
Federal public lands heritage and remains today a compelling and 
urgently needed program. When the Congress created LWCF in 1964, it 
sought to ensure that land conservation would receive funds every year 
by dedicating certain revenues. For most of its history, the major 
source of LWCF funds has been revenues from offshore oil and gas 
development in Federal waters. LWCF activities neither require nor are 
designed to receive taxpayer dollars. This arrangement is built on the 
principle that the revenues generated from energy development and 
natural resource depletion should be used for the protection of other 
natural resources such as parks, open space, and wildlife habitat for 
the benefit of current and future generations of Americans. TPL 
believes that this principle remains a sound one and that the American 
public supports using this very small percentage of OCS receipts--which 
annually average more than $6 billion--as a conservation offset.
    Federal Land Acquisitions.--Every year tens of millions of 
Americans, as well as international visitors to our country, visit our 
public lands. Federal funding of land acquisition ensures that the 
public can access lands for these recreational and educational 
purposes. If accessible properties are instead sold for development or 
subdivision, there is no guarantee that the public will be able to 
enjoy the nearby public lands. Purchase can also enhance the quality of 
recreational experiences, encouraging greater public participation and 
use, and in some cases resolve public land management issues and 
achieve cost savings. There is a clear economic impact from these 
activities. A 2006 Federal interagency study determined that 87.5 
million people annually spend $122.3 billion on fishing, hunting and 
wildlife watching alone. These activities and others have significant 
ripple effects. The Outdoor Industry Foundation estimates that active 
outdoor recreation contributes $730 billion annually to the U.S. 
economy, supports nearly 6.5 million jobs across the United States, 
generates $49 billion in annual national tax revenue, and produces $289 
billion annually in retail sales and services across the country.
    Among the recreation destinations whose economic and natural 
resource values might be significantly compromised without sufficient 
LWCF funding in fiscal year 2013 are Virgin Islands National Park where 
TPL is working to finally connect the two sections of the national park 
along the shores of Maho Bay, the Sawtooth National Recreation Area in 
Idaho, where a conservation easement will protect the lands along the 
river are scenic vista at the gateway to the NRA, the California 
Coastal National Monument, where a property will connect visitors to 2 
miles of the Pacific coast, and along the Pacific Crest Trail in 
Washington State.
    Incompatible development within established Federal units is a 
continuing concern for the public and for public land managers, and we 
have found that private landowners of inholdings and edgeholdings are 
open to and quite often seek a conservation solution. Faced with 
uncertainty about the availability of Federal land acquisition dollars, 
however, many landowners find that they cannot afford to wait on a win-
win outcome. Adequate and timely acquisition of inholdings through the 
LWCF is critical to efforts to protect the Nation's public lands 
heritage when these time-sensitive acquisition opportunities arise. 
Often the window for a conservation outcome is narrow, and the 
availability of LWCF funds ensures that landowners can sell their 
properties in a timely manner. For instance, important conservation 
properties are available for a limited time at Kennesaw Mountain 
National Battlefield Park in Georgia, at the new Middle Rio Grande 
National Wildlife Refuge in New Mexico and at Red Cliffs National 
Conservation Area in Utah. Funding for Kennesaw Mountain--a national 
battlefield that is under severe development threat--is particularly 
important given the ongoing commemoration of the Sesquicentennial of 
the Civil War. In addition, a number of partially completed projects at 
Virgin Islands NP, Sawtooth NRA, and the Carson, Uncompahgre and 
Superior National Forests await further funding to be completed and are 
included in the fiscal year 2013 President's budget request. Recent 
funding levels for LWCF have been insufficient to allow agencies to 
complete these projects in a timely fashion and we urge your support 
for funding levels in fiscal year 2013 that address these needs.
    We also urge the subcommittee to consider fully the urgent need for 
funding for Civil War Sesquicentennial units, national trails and 
recreational/hunting/fishing access projects as proposed in the fiscal 
year 2013 President's budget for the National Park Service, Bureau of 
Land Management, and U.S. Forest Service, respectively. TPL has pending 
projects eligible under each of these categories and stand ready to 
provide information to the subcommittee to support these categorical 
line item requests.
    As the subcommittee evaluates the myriad programmatic needs and 
measures for making programs more efficient for the fiscal year 2013 
Interior, Environment, and Related Agencies bill, we look forward to 
working with you and your staff to ensure that funds are spent wisely 
on strategic and urgent conservation priorities.
    National Park Service Land and Water Conservation Fund Grants.--
Since 1965, the stateside program has provided 41,000 grants to States 
and local communities for park protection and development of recreation 
facilities. This program reaches deep into communities across our 
Nation, supporting citizen-led efforts to conserve places of local 
importance. Stateside funds were an essential part of land protection 
in Maine's famed 100-Mile Wilderness, the northernmost and wildest 
stretch of the Appalachian Trail. Most recently, TPL worked with the 
State of Tennessee to add 1,388 acres to the popular Cumberland Trail, 
extending it by 19 miles, using State LWCF grant funding. To meet needs 
such as these as they continue to arise in all 50 States and in U.S. 
territories, we urge you to fund this program at $60 million.
    Competitive Grants.--Within the $60 million requested for State 
LWCF grants in the President's budget for fiscal year 2013, the 
administration has proposed a new competitive grant program to invest 
in community parks and greenways, landscapes, and recreational 
riverways. This effort will particularly help cities and urbanized 
counties increase the availability of parks and green spaces for 
residents of our more populated areas, many of whom lack access to 
safe, close-to-home recreational sites. This proposed targeting of LWCF 
funds to areas most in need of new parks will help address the health 
threats many Americans--especially children--are now facing due to lack 
of access to parks. TPL is the Nation's only national land conservation 
organization working to create parks in cities across the Nation, and 
we strongly support this competitive grant program as laid out in the 
Department of the Interior's fiscal year 2013 budget proposal. With our 
extensive experience creating parks for people nationwide, we see this 
type of program as meeting a critical need in the places where most 
people live and recreate. There is currently no Federal program that 
addresses park needs for cities, metropolitan areas and urbanized 
counties. The NPS LWCF grants program--funded competitively rather than 
by formula--could assist TPL's work in places like San Francisco and 
Los Angeles in California; Portland, Maine; Chattanooga, Tennessee; and 
New Orleans, Louisiana.

               U.S. FOREST SERVICE FOREST LEGACY PROGRAM

    The Forest Legacy Program provides extraordinary assistance to 
States and localities seeking to preserve important working forests. 
Since its inception in 1990, the Forest Legacy Program has protected 
more than 2 million acres of forestland together with more than $630 
million in non-Federal matching funds. For fiscal year 2013, the 
President's budget recommends projects that provide multiple public 
benefits that derive from forests--clean water, wildlife protection, 
climate change adaptation and mitigation, public access to recreation, 
economic development and sustainable forestry. The Forest Legacy 
Program has been very effective over its short history, leveraging a 
dollar for dollar match to Federal funds, well more than is required 
under the program. TPL urges your continued support for sustained 
investment in this strategic conservation program. Included in the 
fiscal year 2013 budget are three projects where TPL is working in 
partnership with the States of Idaho, Vermont and Wisconsin to protect 
recreation access for snowmobilers and hikers, ensure jobs in the 
woods, buffer important Federal and State conservation areas, and 
provide strategic land conservation that fits a larger goal.

      FISH AND WILDLIFE SERVICE--LAND CONSERVATION GRANT PROGRAMS

    We are grateful for the subcommittee's historic support for Fish 
and Wildlife Service grant programs, including the Cooperative 
Endangered Species Conservation Fund--which leverages State and private 
funds and has protected threatened and endangered species habitat 
across the Nation. Through the most recent grant cycle, for example, 
TPL, in partnership with the State of Washington, secured a $3.5 
million grant that helped protect 2,700 acres of pristine habitat along 
the Methow River in Okanogan County. This habitat is considered 
critical spawning habitat for the endangered Pacific salmon, but 
benefits many other protected species as well, like Canada lynx, gray 
wolves, and bull trout. The Methow Watershed project leveraged $4.27 
million in non-Federal funding, which is more than double the non-
Federal match required under the program. We also urge your support for 
program funding at the President's budget level of $60 million in 
fiscal year 2013. The North American Wetlands Conservation Act (NAWCA) 
provides much-needed matching grants to carry out wetlands 
conservation, restoration and enhancement projects. We urge the 
subcommittee to provide the President's budget request of $39.4 
million.

         UNITED STATES FOREST SERVICE COMMUNITY FOREST PROGRAM

    Last but not least, we urge your continued support for the 
Community Forest Program (CFP), which received appropriations in fiscal 
years 2010, 2011, and 2012 and now has its first-ever grant 
solicitation underway. This program will provide a complement to 
existing conservation programs by helping local communities and tribes 
identify, purchase, and manage important forestlands that are 
threatened with development. These locally led efforts can be tailored 
to the needs of each community, from timber revenue for local budgets 
to recreation access and outdoor education. Every Federal dollar from 
CFP will be evenly matched by funding from State, local, and private 
sources. We believe the response to the first grant round will be 
substantial and that this program will generate significant interest 
from local entities concerned about the future of their close-to-home 
forests. TPL is working right now to create new community forests in 
California, Montana and Vermont, and we hope that the Community Forest 
Program funds will contribute to these efforts. Given the strong 
interest in community forests from coast to coast, we urge you to 
include the President's budget level for CFP of $4 million in the 
fiscal year 2013 bill.
    Thank you again for the opportunity to submit public testimony. The 
programs highlighted in my testimony are critical to the future of 
conservation at the local, State and Federal levels, reflect the 
continued demand on the part of the American people for access to 
outdoor recreation, help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2013 Interior, Environment, and Related 
Agencies bill. Thank you for help and support, and for your 
consideration of our requests.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2013 budget for the Department of the 
Interior, Environment, and Related Agencies. The Wildlife Society was 
founded in 1937 and is a nonprofit scientific and educational 
association representing more than 11,000 professional wildlife 
biologists and managers, dedicated to excellence in wildlife 
stewardship through science and education. Our mission is to represent 
and serve the professional community of scientists, managers, 
educators, technicians, planners, and others who work actively to 
study, manage, and conserve wildlife and its habitats worldwide.
Fish and Wildlife Service
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
comprehensive wildlife conservation strategies, known as State Wildlife 
Action Plans, which detail conservation actions needed on the ground in 
every State to keep common species common. Funding assistance for these 
State wildlife agencies is one of the highest-priority needs for 
wildlife in order to prevent further declines in at-risk wildlife 
populations in every State. These grants also provide key funding to 
federally recognized tribal governments for wildlife management and 
conservation. We recommend the Congress appropriate $70 million for 
State and Tribal Wildlife Grants in fiscal year 2013. We also ask that 
the Congress support continuation of a reduction in the non-Federal 
match requirement from 50 to 35 percent, relieving some of the onus of 
providing adequate matching funding from severely cashed-strapped 
States.
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 22 wildlife, sporting, conservation, and scientific 
organizations representing more than 14 million members and supporters. 
A comprehensive analysis by CARE determined the National Wildlife 
Refuge System (NWRS) needs $900 million in annual operations funding to 
properly administer its nearly 150 million acres, educational programs, 
habitat restoration projects, and much more. Many years of stagnant 
budgets have increased the Operations and Maintenance backlog; refuge 
visitors often show up to find visitor centers closed, hiking trails in 
disrepair, and habitat restoration programs eliminated. Invasive plant 
species are taking over on refuges, requiring $25 million per year to 
treat just one-third of its acreage, and illegal activities such as 
poaching are on the rise, requiring an additional 209 officers ($31.4 
million) to meet law enforcement needs. We recommend that the Congress 
provide $495 million in fiscal year 2013 for the operations and 
maintenance of the NWRS. Additionally, The Wildlife Society supports 
the increase of $3 million for NWRS's Inventory and Monitoring program, 
which is needed to provide the Service with the necessary information 
to guide effective use of funds.
    The North American Wetlands Conservation Act is a cooperative, 
nonregulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We recommend a small increase more than 
the fiscal year 2012 funding level of $35.5 million, to bring the 
funding to $40 million in fiscal year 2013.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the United States, 
Latin America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. The Wildlife Society recommends 
the Congress fund the Neotropical Migratory Bird Conservation Act at 
$6.5 million in fiscal year 2013.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program. Endangered species 
recovery efforts can ultimately lead to delisting, resulting in 
significant benefits to species through State management efforts. 
Currently, all subactivities within the program are understaffed while 
the costs for management of listed species continue to rapidly 
escalate. We recommend the Congress match the President's request for 
the Endangered Species Program and provide $179.7 million in funding in 
fiscal year 2013.
    The voluntary Partners for Fish and Wildlife Program provides 
financial and technical assistance to landowners to restore degraded 
habitat on their property. With more than two-thirds of our Nation's 
lands held as private property, and up to 90 percent of some habitats 
lost, private lands play a key role in preserving our ecosystem. We 
urge the Congress to provide $60 million in support of the Partners for 
Fish and Wildlife Program in order to allow landowners to help 
contribute to land and wildlife preservation.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask the Congress to 
support FWS in protecting our economy, our environment, and our 
national security by providing a necessary $13.054 million in support 
of FWS International Affairs.
Bureau of Land Management
    Bureau of Land Management (BLM) lands support more than 3,000 
species of wildlife, more than 300 federally proposed or listed 
species, and more than 1,300 sensitive plant species. Historically, the 
Wildlife and Fisheries Management (WFM) and the Threatened and 
Endangered Species Management (TESM) programs have been forced to pay 
for the compliance activities of BLM's energy, grazing, and other 
nonwildlife related programs, eroding both their ability to conduct 
proactive conservation activities and their efforts to recover listed 
species. Given the significant underfunding of the BLM's wildlife 
programs, combined with the tremendous expansion of energy development 
across the BLM landscape, we recommend the Congress appropriate $55 
million for BLM Wildlife Management. This will allow BLM to maintain 
and restore wildlife and habitat by monitoring habitat conditions, 
conducting inventories of wildlife resources, and developing 
cooperative management plans. We support the proposed increase of $15 
million for sage grouse conservation efforts; this kind of broad-scale, 
landscape-based conservation is exactly what is needed to manage and 
conserve sage grouse across their range.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow BLM to meet its responsibilities 
in endangered species recovery plans. BLM's March 2001 report to the 
Congress called for a doubling of the Threatened and Endangered Species 
budget to $48 million and an additional 70 staff positions over 5 
years. This goal has yet to be met. In light of this, we strongly 
encourage the Congress to increase overall funding for BLM's endangered 
species program to $33 million in fiscal year 2013.
    The Wildlife Society appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. The President has requested an increase of $2 million for 
research and development on contraception and population control. The 
Wildlife Society is concerned about BLM's emphasis on fertility 
control. Given that horses and burros have been maintained above the 
Appropriate Management Level for many years, we believe that additional 
funding should be requested to correct the habitat damage that has 
occurred due to overpopulation of these animals. The requested $77.068 
million should be provided to BLM if they continue removing excess 
horses from the range at a reasonable rate and focus additional 
resources on habitat restoration.
U.S. Geological Survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by the U.S. Geological Survey (USGS) is necessary for 
understanding the complex environmental issues facing our Nation today. 
This science will play an essential role in the decisionmaking 
processes of natural resource managers as we adapt to climate change, 
and it will help protect our water supply and conserve endangered 
species. More investment is needed to strengthen USGS partnerships, 
improve monitoring, produce high-quality geospatial data, and deliver 
the best science to address critical environmental and societal 
challenges. The Wildlife Society supports funding of at least $1.2 
billion for USGS in fiscal year 2013.
    The Ecosystems Program of USGS contains programmatic resources for 
fisheries, wildlife, environments, invasive species and the Cooperative 
Fish and Wildlife Research Unit. The Ecosystems unit is a new 
department within USGS resulting from the recent reorganization that 
strives to maximize research and support for comprehensive biological 
and ecosystem based needs. The Wildlife Society supports the 
President's request of $177.85 million for USGS's Ecosystems Department 
in fiscal year 2013. Within Ecosystems, we support the request of $49.4 
million for the Wildlife Program. Additionally, we appreciate the 
requested addition of $1 million to support research and surveillance 
of White Nose Syndrome and of $2.2 million for research on hydraulic 
fracturing and its effects on land use, terrestrial wildlife, and 
habitats.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are 
managed under the Ecosystems Department and conduct research on 
renewable natural resource questions, participate in the education of 
graduate students, provide technical assistance and consultation on 
natural resource issues, and provide continuing education for natural 
resource professionals. In fiscal year 2001, the Congress fully funded 
the CFWRUs, allowing unit productivity to rise to record levels. Since 
then, budgetary shortfalls have caused an erosion of available funds, 
resulting in a current staffing vacancy of nearly one-quarter of the 
professional workforce. In order to fill current vacancies, restore 
seriously eroded operational funds for each CFWRU, and enhance national 
program coordination, the fiscal year 2013 budget for the CFWRUs should 
be increased to $22 million. This would restore necessary capacity in 
the CFWRU program and allow it to meet the nation's research and 
training needs.
    The Wildlife Society appreciates the fiscal year 2011 funding of 
$25.5 million for the National Climate Change and Wildlife Science 
Center. This center plays a pivotal role in addressing the impacts of 
climate change on fish and wildlife by providing essential scientific 
support. In order for this role to be fully realized, The Wildlife 
Society recommends that the Congress fund the National Climate Change 
and Wildlife Science Center at the requested $26.2 million in fiscal 
year 2013.
United States Forest Service
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered, and another 3,250 at-risk species. 
In fiscal year 2011, the USFS combined several programs and budgets, 
including Vegetation and Watershed Management, Wildlife and Fisheries 
Habitat Management, and Forest Products into a single Integrated 
Resource Restoration activity budget. We are concerned with this merger 
because it makes accountability to stakeholders and the Congress more 
difficult. However, with these reservations noted, we urge the Congress 
to support the request of $793 million for the Integrated Resource 
Restoration program in fiscal year 2013.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge the Congress to provide $300 million in fiscal 
year 2013 for Forest and Rangelands to support this high-quality 
research.
    Thank you for considering the recommendations of wildlife 
professionals.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR), a consortium of 77 research universities that manages the 
National Center for Atmospheric Research, I submit this written 
testimony regarding the fiscal year 2013 appropriations for the 
Department of the Interior's (DOI) climate science programs, for the 
record of the Senate Committee on Appropriations, Subcommittee on the 
Interior, Environment, and Related Agencies. The U.S. Geological 
Survey's (USGS) and U.S. Fish and Wildlife Service's (FWS) climate 
science, adaptation, and education programs contribute a distinct and 
important component to the country's efforts to better understand, 
predict, and respond to the impacts of climate variability on human and 
natural systems. These programs are perhaps the most important in the 
entire Federal Government for helping scientists understand the 
relationship between climate variability and our Nation's abundant 
natural resources and treasures. I urge the subcommittee to fully fund 
the fiscal year 2013 budget request of $1.102 billion for USGS, 
including $67.7 million for Climate Variability, which funds the 
Nation's eight regional Climate Science Centers. I similarly urge the 
subcommittee to fully fund the $1.5 billion budget request for FWS, 
including $33.1 million for Cooperative Landscape Conservation and 
Adaptive Science, which funds the Nation's network of Landscape 
Conservation Cooperatives.
    The Federal leaders in natural resources science, USGS and FWS are 
making major contributions to science and data integration on the 
impacts that climate variability is having and may have in the future 
on natural resources, including wildlife, ecosystems, and landscapes. 
These agencies are building the knowledge, capacity, and networks to 
work with and guide hunters, farmers, natural resource managers, Indian 
tribes, and resource-dependent businesses toward more sustainable, 
productive, and resilient management practices. In particular, the 
establishment of eight regional Climate Science Centers over the last 
few years to directly support a national network of Landscape 
Conservation Cooperatives will provide the scientific basis for future 
adaptive land and water management decisions. By building on the body 
of basic research conducted by the atmospheric research community and 
linking it to managed environments and social systems, the DOI's 
climate science and adaptation programs have been set up to maximize 
and leverage the value of the entire national scientific enterprise.
    The USGS's efforts in this field were stepped up with the 
establishment of a National Climate Change and Wildlife Science Center 
in 2008 and came to fruition with the recent completion of a national 
network of 8 Climate Science Centers and 22 Landscape Conservation 
Cooperatives. Through these regionally integrated research and 
stakeholder hubs, the DOI is now engaged in first-tier research 
focusing on impacts such as wildlife migration patterns, wildfire risk, 
precipitation levels and drought, coastal erosion, and invasive 
species, spearheading how environmental and climate science can be more 
effective and practical, and thus useful, on the ground. These programs 
will bring critical regional information to local and regional resource 
managers and decision makers in order to help them manage cities and 
towns, tribes, farms, waterways, and public lands.
    The eight Climate Science Centers, managed by the USGS, are carried 
by university consortia within the region to better serve the specific 
needs of their area as well as the country. They will advance 
interdisciplinary science in an end-to-end environment by coordinating 
research among themselves and optimizing investments across the 
regional network, and they will collaborate with national laboratories 
to conduct research and develop computer models that can better predict 
large regional impacts of climate variability on natural resources. The 
nationwide network serves the Alaska, Pacific Islands, Northwest, 
Southwest, North Central, South Central, Northeast, and Southeast 
regions. Landscape Conservation Cooperatives, managed by the FWS, 
engage with other Federal agencies, States, tribes, and local partners, 
to develop timely products and craft strategies that are based on the 
science and can be easily translated into adaptive, practical 
management solutions.
    In order to ensure the strength and sustainability of these 
programs, I hope you will support the fiscal year 2013 budget request 
of $1.102 billion for USGS, including $67.7 million for Climate 
Variability, and $1.5 billion for FWS, including $33.1 million for 
Cooperative Landscape Conservation and Adaptive Science. Thank you in 
advance for your support of the DOI's efforts to contribute to and 
disseminate knowledge that will enable stakeholders to protect and more 
efficiently manage their land and our Nation's natural resources and 
treasures.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition appreciates the opportunity to provide testimony 
about the President's budget request for the United States Geological 
Survey (USGS) for fiscal year 2013. The USGS Coalition urges the 
Congress to appropriate at least $1.2 billion for the USGS in fiscal 
year 2013.
    The USGS is uniquely positioned to address many of the Nation's 
greatest challenges. The USGS plays a crucial role in assessing water 
quality and quantity; reducing risks from earthquakes, tsunamis, 
floods, landslides, wildfires, and other natural hazards; providing 
emergency responders with geospatial data to improve homeland security; 
assessing mineral and energy resources (including rare earth elements 
and unconventional natural gas resources); and providing the science 
needed to manage our natural resources and combat invasive species that 
can threaten natural and managed environmental systems and public 
health.
    The USGS Coalition is an alliance of more than 70 organizations 
united by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.

                   ESSENTIAL SERVICES FOR THE NATION

    Established by the Congress as a branch of the Department of the 
Interior in 1879, the U.S. Geological Survey has a truly national 
mission that extends beyond the boundaries of the Nation's public lands 
to positively impact the lives of all Americans. USGS plays a crucial 
role in protecting the public from natural hazards, assessing water 
quality and quantity, providing geospatial data, and conducting the 
science necessary to manage our Nation's living, mineral, and energy 
resources. Through its offices across the country, USGS works with 
partners to provide high-quality research and data to policymakers, 
emergency responders, natural resource managers, civil and 
environmental engineers, educators, and the public. A few examples of 
USGS's valuable work are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decision makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, USGS has collected streamflow data at more than 21,000 
sites, water-level data at more than 1 million wells, and chemical data 
at more than 338,000 surface-water and groundwater sites. This 
information is needed to effectively manage freshwaters--both above and 
below the land surface--for domestic, public, agricultural, commercial, 
industrial, recreational, and ecological purposes.
    The USGS plays a pivotal role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analyses are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions. Data from the USGS network of stream gages enable the 
National Weather Service to issue flood warnings. The bureau and its 
Federal partners monitor seasonal wildfires and provide maps of current 
fire locations and the potential spread of fires. USGS research on 
ecosystem structure informs fire risk forecasts.
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil and 
mitigate climate change. The USGS is the sole Federal source of 
information on mineral potential, production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. USGS science is also used to control 
invasive species and wildlife diseases that can cause billions of 
dollars in economic losses. The Survey also provides critical 
information for resource managers as they develop adaptive management 
strategies for restoration and long-term use of the Nation's natural 
resources in the face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.

                           FUNDING SHORTFALL

    Over the years, the Congress has worked in a bipartisan fashion to 
restore damaging budget cuts proposed by administrations from both 
parties. These efforts have paid dividends and helped the USGS continue 
to provide answers to the challenging questions facing decision-makers 
across the country.
    The President's fiscal year 2013 budget request for the USGS is 
$1.1 billion. The budget request contains $49.5 million in program 
reductions in valuable, longstanding programs that offset increases in 
other areas. The proposed budget cuts would have significant negative 
impacts on core scientific capabilities of the USGS.
    Proposed budget cuts in the fiscal year 2013 USGS budget request 
include:
  --$6.5 million for Water Resources Research Act Program;
  --$6 million for National Water Quality Assessment Methods 
        Development and Monitoring;
  --$5 million for Cooperative Water Program Interpretive Studies;
  --$5 million for Mineral Resources;
  --$3.3 million for Hydrologic Networks and Analysis Information 
        Management and Delivery; and
  --$2 million for Toxic Substances Hydrology Methods Development and 
        Assessments.
    We urge the Congress to support the budget request plus work to 
restore these and other detrimental cuts. An appropriation of $1.2 
billion would provide the USGS with approximately $50 million that 
could shore up critical research programs, enhance new research 
efforts, and fully fund ``fixed costs'' and ``operational 
efficiencies.''
    Notably, the proposed budget requests $10.8 million for fixed 
costs. Although we applaud the agency for including these expenses in 
the budget request, we are not certain that this request will fully 
cover these expenses. Moreover, we are concerned about $4.4 million in 
proposed operations and maintenance ``efficiencies.'' According to USGS 
budget documents: ``The proposed reduction will degrade the condition 
and performance of the USGS real property portfolio . . . . In turn, 
the USGS expects to see an increase in the frequency with which 
equipment and facility components will need more costly emergency 
repairs and replacements, as well as a shortening of the overall 
lifecycle of our real property assets.''
    The budget request does not propose transferring responsibilities 
for Landsat satellites from NASA to USGS. We appreciate congressional 
efforts last year to ensure that the USGS would not assume budget 
authority for the Landsat satellites. Such a move would have likely 
compromised core USGS science programs as the costs of the satellites 
rose significantly in future years.

                               CONCLUSION

    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. The USGS Coalition requests that the Congress appropriate at 
least $1.2 billion for the USGS in fiscal year 2013, a level that will 
support critical USGS programs that improve the Nation's environment, 
health, safety, quality of life, and future economic growth.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of our request.
                                 ______
                                 
      Prepared Statement of the Washington County Commission, Utah

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
President's budget for this year recommended $450 million for LWCF.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the Bureau of Land 
Management included an allocation of $4 million for Red Cliffs NCA. I 
am pleased that this funding was included in the request and urge the 
Congress to provide necessary funds for LWCF for this important 
project.
    The Washington County Commission approved a resolution on February 
7, 2012 expressing its strong support of acquisitions by BLM of private 
in-holdings in the Red Cliffs NCA and the appropriation of Federal LWCF 
funds for these acquisitions. This resolution was passed by unanimous 
approval of the County Commissioners, and states:

    ``WHEREAS, the Washington County Habitat Conservation Plan (HCP) 
was implemented in 1995 to reconcile conflicts between desert tortoise 
conservation and economic development; and
    ``WHEREAS, the HCP established the Red Cliffs Desert Reserve 
(Reserve) to maintain the long-term viability of desert tortoises 
within the Upper Virgin River Recovery Unit; and
    ``WHEREAS, in return, Washington County (County) was granted an 
incidental take permit under Section 10(a) of the Endangered Species 
Act to allow development of tortoise habitat outside the Reserve, 
thereby providing for the ability for the County to meet demands for 
anticipated population growth and economic growth through land 
development; and
    ``WHEREAS, HCP signatories and cooperators include Washington 
County, the Utah Department of Natural Resources, the U.S. Fish and 
Wildlife Service, the Bureau of Land Management (BLM), and local 
municipalities; and
    ``WHEREAS, an objective of the HCP is to acquire remaining private 
in-holdings within the boundaries of the Reserve for protection of 
desert tortoise habitat; and
    ``WHEREAS, the United States Congress passed the Omnibus Public 
Land Management Act of 2009 which established the Red Cliffs National 
Conservation Area (NCA) to be managed by BLM and which had boundaries 
corresponding to the Reserve boundaries; and
    ``WHEREAS, several of the landowners who own private lands within 
the NCA are willing sellers of their land to the BLM and the Federal 
acquisition of these specific lands is an important objective of the 
HCP; and
    ``WHEREAS, the BLM is seeking Federal funds through the Land and 
Water Conservation Fund to acquire these private lands starting with 
the fiscal year 2013 and future years.
    ``NOW, THEREFORE, at a regular meeting of the legislative body of 
Washington County, Utah, duly called, noticed, and held on the 7th day 
of February 2012, upon motion duly made and seconded, it is 
unanimously:
    ``RESOLVED that the Washington County Commission strongly supports 
the acquisitions of private in-holdings in the Red Cliffs National 
Conservation Area from willing sellers by the Bureau of Land Management 
and the appropriation of Federal funds for such acquisitions.''

    In fiscal year 2013, an allocation of $4 million from the Land and 
Water Conservation Fund, as requested in the President's budget for the 
Bureau of Land Management, is needed to begin these key acquisitions at 
Red Cliffs NCA.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Red Cliffs 
National Conservation Area. I want to thank the Chairman and the 
members of the subcommittee for this opportunity to testify on behalf 
of this nationally important protection effort in Utah, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
   Prepared Statement of the Washington Wildlife Recreation Coalition

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior, Environment, and Related Agencies appropriations bill. The 
Washington Wildlife and Recreation Coalition is a nonprofit citizens 
group founded in a historic bipartisan effort by former Governors Dan 
Evans and Mike Lowry. Our members consist of a diverse group of more 
than 250 organizations representing conservation, business, recreation, 
hunting, fishing, farming, and community interests.
    Our members come together for the same reason people and businesses 
chose to locate in Washington State:
  --our close-to-home parks;
  --outdoor recreation opportunities; and
  --wildlife habitat.
    Mount Rainier is one of our State's great symbols and has been 
protected as a national park since 1899. Across Puget Sound, a major 
water and economic resource of its own, lie the jagged outlines of the 
Olympic Mountains, and beyond them the only temperate rainforest in the 
world and the rich seashore of the Olympic Peninsula. The Cascades 
stretch from the Canadian border to the Columbia River Gorge, protected 
in four national forests and accessible via the Pacific Crest National 
Scenic Trail. From the Methow Valley to Turnbull Wildlife Refuge, 
eastern Washington holds exceptional habitats protected for a diversity 
of species and accessible for hunters and anglers. The LWCF has helped 
to protect these iconic places since 1965.
    Consequently, I join conservation leaders, hunters, anglers, 
business owners, and communities across the Nation in urging you to 
support funding for LWCF. This year, the administration's budget 
request includes funding for four high-priority, ready-to-go, willing-
seller projects across Washington State's national parks, wildlife 
refuges, forests and other public land. It also makes investments in 
stateside LWCF grants for local parks and trails, ball fields and boat 
launches, and for protecting our working timber and range lands.
    Our parks, forests, refuges, and trails are generators for 
Washington's economy. The Outdoor Industry Foundation (OIF) estimates 
that outdoor recreation throughout the State contributes $11.7 billion 
annually to Washington's economy. This activity supports 115,000 jobs 
and produces $8.5 billion annually in retail sales and services--3.5 
percent of the gross State product. OIF found that 44 percent of 
Washingtonians view wildlife, 39 percent use trails, 36 percent camp, 
and 32 percent ride bicycles for recreational purposes.
    In addition to fueling these economic engines for Washington's 
communities, LWCF improves the management of the public lands in our 
State. These measures make for better recreational experiences on the 
land, sustain habitats for wildlife, and ensure quality water supplies. 
They also reduce costs in fighting fires, controlling invasive species, 
and maintaining property boundaries. LWCF accomplishes these management 
improvements largely because most of the funds go toward the 
acquisition of inholdings, private lands bordered on two, three, or 
four sides by existing public lands.
    Washington has two excellent examples of LWCF purchases reducing 
costs and improving public land experiences. First, in 2004, the 
Congress passed a law to expand the boundaries at the northwestern 
entrance of Mount Rainier National Park. For many years flooding would 
wipe away parts of the Carbon River Road and make the trailheads, 
campsites, and other visitor facilities inaccessible. The expansion and 
subsequent purchase of land via LWCF funding has allowed the National 
Park Service to begin the process of moving facilities to higher 
ground, removing the future costs and burdens from frequent floods. 
Second, in the central Cascades, much of the land ownership pattern 
resembles a checkerboard. Public lands are interspersed with private 
lands. For many years LWCF funds have been used by USFS to acquire 
priority checkerboard properties that increase recreational access, 
improve segments of the Pacific Crest Trail, and safeguard consolidated 
blocks of prime mountain and forest wildlife habitat and river 
watersheds that supply population centers like Seattle and Tacoma.
    I understand this subcommittee and the Congress face severe 
constraints in this tight fiscal climate. However, forward-looking 
investment in LWCF will permanently pay dividends to the American 
people and to our great natural and historical heritage. LWCF is paid 
for using a very small percentage of offshore oil and gas drilling 
receipts, not taxpayer dollars. The Congress made a commitment to the 
American public that a small portion of revenues from offshore drilling 
paid by oil companies should go to conservation and outdoor recreation 
programs. Yet nearly every year, the majority of LWCF funds are 
diverted to other unintended purposes--more than $17 billion over the 
history of the program.
    I therefore respectfully ask that you support the administration's 
fiscal year 2013 recommendation of $450 million for the LWCF program. 
At one-half the authorized funding level for the program, this 
represents a measured proposal that spreads limited resources wisely 
across urgent and diverse LWCF priorities and programmatic goals. At 
this level, LWCF would fund four projects at a Fish and Wildlife 
Service refuge, National Park Service unit, a USFS site and working 
forest lands in Washington State:
Fish and Wildlife Service
            Nisqually National Wildlife Refuge: $1 Million
    These funds would be used to acquire lands at the Black River Unit 
and along the Nisqually River delta into Puget Sound in order to 
consolidate holdings, preserve wintering habitat for migratory birds, 
and protect wetlands habitat for fisheries.
National Park Service
            Mount Rainier National Park: $1 Million
    These funds would be used to complete acquisition of smaller 
properties in the Carbon River expansion area, protecting old growth 
forests along the Carbon River and important habitat for populations of 
anadromous fish, including salmon.
United States Forest Service
            Pacific Crest National Scenic Trail: $618,000
    The multistate request for the trail includes checkerboard parcels 
in the central Cascades that would improve trail stewardship and access 
and protect the trail corridor and view shed. Available for acquisition 
in fiscal year 2013 are two parcels along the PCT:
  --Pyramid Peak and Missing Link within the Wenatchee; and
  --Mount Baker-Snoqualmie national forests.
            Pysht Coastal Forest: $3 Million
    This Forest Legacy Program request would be used to fund a 
conservation easement on working forestland along the Strait of Juan de 
Fuca.
    We support these requests for LWCF funds to acquire critical tracts 
in the parks, refuges, and forests of Washington.
    Mr. Chairman and members of the subcommittee, I thank you for your 
dedication and service, on behalf of our organization's members and 
also on behalf of my family. I can think of no greater legacy for my 
two sons than the protection of our recreation lands, clean waters and 
wildlife heritage. I appreciate your consideration of these funding 
requests.
                                 ______
                                 
            Prepared Statement of Whitetails Unlimited, Inc.

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Forest Legacy Program (FLP) in the fiscal year 2013 Interior, 
Environment, and Related Agencies appropriations bill. The President's 
budget for this year recommended $60 million for FLP. The FLP works 
with landowners, the States, and other partners to protect critical 
forestlands with important economic, recreation, water quality, and 
habitat resources through conservation easement and fee acquisitions. 
The program has protected more than 2 million acres in 43 States and 
territories, consistently with a 50-percent non-Federal cost share, 
double the required 25-percent cost share. For several years this 
important conservation program has been funded under the umbrella of 
the Land and Water Conservation Fund (LWCF), which as a whole received 
$450 million in the budget request.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial public benefits 
including promoting healthier lifestyles through recreation, protecting 
drinking water and watersheds, improving wildfire management, and 
assisting wildlife and fisheries adaptation. LWCF investments also 
support jobs, tourism and economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the Forest 
Legacy Program will permanently pay dividends to the American people 
and to our great natural, historical and recreation heritage. As LWCF 
is funded from Outer Continental Shelf (OCS) revenues, not taxpayer 
dollars, these funds should go to their intended and authorized use as 
a conservation offset to the energy development of our offshore oil and 
gas resources.
    As part of the FLP request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $3 million for the Central Sands 
Pines project in Wisconsin. I am pleased that this funding was included 
in the request and urge the Congress to provide necessary funds for FLP 
for this important project.
    Wisconsin's Central Sands region was the setting for world-renowned 
naturalist Aldo Leopold's ``A Sand County Almanac'', published in 1949. 
This classic work stands with Thoreau's Walden and Rachel Carson's 
Silent Spring as the inspiration for generations of conservationists to 
protect our Nation's treasured places. Today, there is an opportunity 
to heed Leopold's call for a ``land ethic'' by preserving this historic 
landscape.
    The Central Sands region was shaped tens of thousands of years ago 
during the last great ice age, known as the Wisconsin Glaciation. 
Today, this 2-million-acre region is located in the bed of the extinct 
Glacial Lake Wisconsin, which left behind a legacy of sandy soils, 
extensive wetlands, and oak and pine forests. The sandy soils cover 
bedrock, and serve as an aquifer for 80 lakes and hundreds of miles of 
headwater streams and wetlands. The area's remarkable hydrological 
system largely occurs underground. The aquifer collects precipitation 
as groundwater, and filters it before conveying it to the Wisconsin 
River and other surface waters. Watershed protection is a major concern 
in the Central Sands region due to relatively high levels of 
groundwater pollution.
    In fiscal year 2013, there is an opportunity to preserve key 
parcels in the Central Sands region that will protect the groundwater 
supply, secure critical endangered species habitat, maintain working 
forests, and preserve public recreational access. The Central Sands 
Pines Forest Legacy project in Adams County is the critical component 
of a larger 9,000-acre plan to fund a conservation easement over 
privately owned timberland. The project will ensure that the acreage 
remains in productive use under private ownership. While much of 
northern Wisconsin remains forested, more than 70 percent of the 
southern part of the State has been cut over and converted to other 
uses. The Central Sands Pines Forest Legacy tract is among the few 
remaining large blocs available for timbering. It currently provides 
pulp for paper production as well as construction lumber and telephone 
poles. This project will support the State's $22 billion forestry 
products industry, which employs more than 50,000 people.
    The Central Sands Pines Forest Legacy project will also protect the 
groundwater recharge zone from pollution. Approximately 700 acres of 
the property consist of wetlands which are important for water 
filtration. A fresh groundwater supply is crucial for crop irrigation 
in the Wisconsin River basin. Irrigated land has increased rapidly over 
the past 50 years, covering 175,000 acres in the Central Sands region. 
Protecting this acreage will allow farmers to continue to pump clean, 
fresh groundwater for irrigating crops.
    Whitetails Unlimited believes the acquisition of this perpetual 
easement is in line with the spirit of our mission statement. Beyond 
protecting critical wildlife habitat, this perpetual easement will 
offer the general public numerous outdoor recreational opportunities. 
In particular, the property offers sportsmen and women prime hunting 
opportunities for white-tailed deer, turkey, and grouse. As Aldo 
Leopold once wrote, ``There are two kinds of hunting: ordinary hunting 
and ruffed-grouse hunting. There are two places to hunt grouse: 
ordinary places and Adams County.'' Whitetails Unlimited commends the 
Forest Legacy Program for promoting the environmental sustainability of 
this property for future generations.
    Forest Legacy funding will also benefit threatened and endangered 
species. The area's mixed oak-pine forests, barrens and peatlands 
provide the habitat needed by the endangered Kirtland's warbler, Karner 
blue butterfly, and whooping crane. The federally listed endangered 
Kirtland's warbler was discovered on this property in 2007. Wisconsin, 
Michigan, and Ontario, Canada have the only documented nesting pairs of 
Kirtland's warbler in the world, and this property contains the highest 
concentration of the species in the entire State.
    The President's budget for fiscal year 2013 requests $3 million 
from the Forest Legacy Program for 5,722 acres of the Wisconsin Central 
Sands Pines project. The State of Wisconsin will provide a match of at 
least $1 million to complete the easement purchase. Securing these 
funds will ensure that the property remains in productive use under 
private ownership. Residents will continue to enjoy recreational 
opportunities, endangered species habitat will be preserved, and local 
groundwater will be protected from pollution.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Forest 
Legacy Program and the Central Sands Pines project. I want to thank the 
Chairman and the members of the subcommittee for this opportunity to 
testify on behalf of this nationally important protection effort in 
Wisconsin, and I appreciate your consideration of this funding request.
                                 ______
                                 
  Prepared Statement of the Wisconsin Department of Natural Resources
Background
    One of the most significant threats to biodiversity in the Nation's 
coastal and estuarine habitats as well as Wisconsin's inland navigable 
waters is the introduction of nonindigenous aquatic nuisance species 
(ANS) into the ecosystem. The introduction of ANS through intentional 
or accidental means establishes a stress on ecosystems that can result 
in the decline of native species population, serve as an impediment to 
species recovery and pose a long-term economic and ecological threat to 
the health of the area. The control and management of these ANS in such 
areas as the Mississippi River Basin Drainage, Great Lakes, Everglades, 
and San Francisco Bay/Inland Delta costs the economy and taxpayers 
billions of dollars annually.
    The Wisconsin Department of Natural Resources (WDNR) commends the 
Congress and the Federal Government's recognition of this problem and 
efforts to address it through enactment of the Non-indigenous Aquatic 
Nuisance Prevention and Control Act (NANPCA) of 1990 (Public Law 101-
646) and the National Invasive Species Act (NISA) of 1996 (Public Law 
104-332). The establishment of the Aquatic Nuisance Species Task Force 
(ANSTF) makes use of a coordinating body to improve efforts to 
administer the Government's responsibilities as carried out by the 
National Oceanic and Atmospheric Administration, U.S. Fish and Wildlife 
Service (USFWS), U.S. Coast Guard, U.S. Environmental Protection 
Agency, U.S. Army Corps of Engineers, and other Federal agencies.
    In 2003, Wisconsin developed an Aquatic Nuisance Species Strategic 
Plan to combat aquatic nuisance species and to prevent their 
introduction into State waters. Wisconsin's actions supplement the 
national activity and are indicative of an ongoing need for resources 
and action to reduce the threat and minimize the impacts of ANS on U.S. 
waters.
State/Interstate Aquatic Nuisance Species Management Plan
    The NANPCA (as amended by NISA) recognized that States are integral 
partners in the battle against ANS by authorizing the State/Interstate 
Aquatic Nuisance Species Management Plan (SIANSMP) grant program. 
Managed by the U.S. Fish and Wildlife Service, the program provides 
annual funding to States, Tribes, and Regional organizations to support 
the implementation of State and interstate ANS management plans that 
have been approved by the ANSTF. The SIANSMPs identify feasible, cost-
effective measures to be undertaken by the States and cooperating 
entities to manage ANS infestations in an environmentally sound manner. 
This funding has helped Wisconsin establish an ANS program with 
mechanisms for prevention, early detection and rapid response, 
containment, and control. Wisconsin's efforts link together with other 
State's ANS Plans and Federal efforts to form an effective national ANS 
partnerships to eliminate or reduce the environmental, economic, public 
health, and human safety risks associated with ANS.
    Section 1301(c) of NANPCA authorized a total of $4 million for the 
SIANSMP grant program; however, that amount has never been fully 
appropriated. Funding was gradually increased from $68,000 for the 
first approved State Management Plan in 1994, to its current level of 
$1,075,000 beginning in 2004. Over the years, the number of plans 
approved far outpaced the capacity of the SIANSMP funding. In fiscal 
year 2011, Wisconsin received $29,800 to implement its statewide plan 
from the Service.
President's Fiscal Year 2013 Budget
    Wisconsin developed an ANSTF approved management plan and ANS 
programs in accordance with congressional authorizations in NANPCA and 
NISA. The SIANSMP grant program remains a high priority to Wisconsin 
and is critical for our implementation of a successful ANS prevention 
and control program. Funding for the SIANSMPs has remained stable since 
2004 at only 25 percent of the authorized level; however total requests 
to support the 36 approved State/Interstate ANS Management Plans that 
applied for funding in fiscal year 2011 exceeded $9 million. The States 
have consistently demonstrated a need for increased appropriations to 
implement ANS prevention and control priorities, yet the President's 
fiscal year 2013 budget eliminates the SIANSMP grant program for 
implementation of ANSTF-approved plans. The WDNR urges the Congress to 
restore fiscal year 2013 appropriations of $1,075,000, and to provide 
additional fiscal year 2013 appropriations to fully fund that SIANSMP 
grant program at $4 million as authorized by NANPCA and NISA.
    Wisconsin appreciates the opportunity to provide comments on such a 
critical national issue and looks forward to our continued partnership 
with the Federal agencies that are as committed to preventing, 
containing and controlling ANS as we are.
    Note.--Information provided in this document was pulled from 
existing documents including:
  --2011-2012 Policy Positions for the Jurisdiction of the Environment 
        Committee, National Conference of State Legislatures, http://
        www.ncsl.org/state-Federal-committees.aspx?tabs=855,23,667.
  --State/Interstate Aquatic Nuisance Species Management Plans 2010 
        (1st in a Series of 3). U.S. Fish and Wildlife Service. April 
        2012.
  --Accomplishments of the State/Interstate Aquatic Nuisance Species 
        Management Plans A Summary of State Efforts in the Battle 
        Against ANS (2nd in a Series of 3). U.S. Fish and Wildlife 
        Service. February 2012. The Evolution of the State/Interstate 
        Aquatic Nuisance Species Management Plan Grant Program (third 
        in a series of three). U.S. Fish and Wildlife Service. April 
        2012.
                                 ______
                                 
                  Prepared Statement of the Zuni Tribe

Background
    Pre Public Law 93-638, Indian Self Determination and Education 
Assistance Act, the Zuni Tribe, Pueblo of Zuni, acting on a commitment 
for success, contracted with the Bureau of Indian Affairs (BIA) to 
perform functions previously carried out by the Federal Government. 
Namely these functions/programs are:
  --Housing improvement;
  --Law enforcement;
  --Tribal courts;
  --Higher education scholarship; and
  --Road maintenance and social services/welfare assistance.
    Performance of these functions by the Tribe was authorized under 
the authorities of the 1934 Indian Reorganization Act with the promise 
of self-determination to operate programs fitting tribal needs. 
However, since the 1970's the Zuni Tribe has experienced drastic fund 
reductions in these contracted and other programs still administered/
operated by the BIA.
    The Zuni Tribe understands the United States' fiscal difficulties 
and challenges at this time and acknowledges the administration is 
focused in reducing the deficit, however, the Zuni Tribe is requesting 
the administration keeps its promise to the Indian country by 
protecting and increasing funding provided under the BIA Tribal 
Priority Allocations (TPA) process in fiscal year 2013. Protecting and 
increasing TPA for the Zuni Tribe will assist in effectively 
administering programs which would otherwise be performed by the 
Federal Government. Not only will the tribe carry out programs 
effectively which affects their respective community, it will also 
continue to be partners in a mutual commitment to strengthen not only 
the tribal and national economy, however, it will have a major impact 
on the health and social well-being of the community as a whole. This 
effort has a ripple effect on generation of jobs, and improvement of 
economies.
    The Zuni Tribes request under the Department of the Interior (DOI), 
BIA fiscal year 2013 President's budget request a total of $9,474,000 
to administer core programs under the TPA categories operated by the 
BIA and under the authorities of Public Law 93-635. The following are 
the amounts specifically identifying programs and their respective 
amounts.
    Tribal Government-Road Maintenance Bureau of Indian Affairs 
Operated.--This program requires a minimum level of $992,000 to carry 
out the program responsibilities. This funding level will get closer to 
the 2009-2010 target units under a Level of Services rating of 2 or 
better for the Zuni Indian Reservation. The Road Maintenance program 
supports 411.2 miles of Indian Reservation Roads in a remote 
reservation, approximately 150 miles from a metropolitan area of 
Albuquerque, New Mexico.
    A 2009 assessment of paved routes in the Zuni community shows that 
at a minimum 4 miles of pavement overlay, and 20 miles of pavement 
surface treatment of major traveled routes with high average daily 
traveled counts. Providing funds for improvement of the Zuni 
Reservation roads will reduce the potential liability of tort claims 
from the traveling public in Zuni. Improvements to the above identified 
miles of roads do not include maintenance of unpaved roads, including 
school bus routes, ingress and egress to homes for medical service 
vehicles such as ambulances, transportation services for patients who 
are on dialysis and need medical care, etc.
    If funds are not provided at a bare minimal level the Zuni Tribal 
Road Maintenance program will continue to incur annual increases of at 
least 4 percent of deferred maintenance backlog on reservation roads 
and bridges. Since fiscal year 2007, this program has been grossly 
underfunded and range in funding for the past several years in the 
amount of $246,642 to a high of $274,116 in fiscal year 2007.
    Human Services--Social Services and Indian Child Welfare Act--
Tribal Priority Allocations Public Law 93-638 Tribal Contract.--A 
minimum level funding for the Tribal Social Services program in the 
amount of $260,000 is needed to maintain programs at a current level. A 
minimum level of $95,000 is needed for the Indian Child Welfare Act 
program. These two programs are critical to assist the social-economic 
programs of the community. Program personnel works with various 
agencies in and outside the community which includes child care places, 
foster home placements and domestic violence with the tribal and 
outside courts-judicial systems, the Zuni Tribal Police Department, 
etc. Once again this program has not been adequately funded for a 
number of years.
    Human Services--Welfare Assistance--Tribal Priority Allocations 
Public Law 93-638 Tribal Contract.--A minimum level of $75,000 is 
required to operate this program at a ``bare minimum'' level. With the 
isolation of the Zuni Reservation and lack of employment and other full 
service programs, these funds are needed to deal with socio-economic 
issues/problems of the community.
    Public Safety and Justice--Community Fire Protection--Tribal 
Priority Allocations Public Law 93-638 Tribal Contract.--A minimum of 
$150,000 is required to operate this program. Minimum funds requested 
will allowed the program to maintain three tribal employees on staff 
and provide operation expenses that services the community which 
includes a hospital operation, high school, junior high school, two 
elementary schools, a community college, BIA agency and tribal 
infrastructure, two parochial schools and other community facilities.
    Public Safety and Justice Tribal Courts--Tribal Priority 
Allocations Public Law 93-638 Tribal Contract.--A minimum of $580,000 
is needed to operate the Zuni Tribal Court. This level of funding will 
allow the tribal court of access training needs and filling positions 
that will assist in handling an increasing number of criminal, civil, 
juvenile, and child welfare cases which are referred to the tribal 
court for resolution. The number of cases the tribal court handles 
range from a low of 4,144 adult cases to a high of 7,000 cases. The 
children's court also ranges in a low of 455 to a high of 566 cases.
    Natural Resources--Bureau of Indian Affairs Operated.--Minimum 
level of funds required is $392,000 to fulfill the BIA trust 
responsibilities as it relates to natural resources. Funding for this 
critical program continues to increase which the need increases. 
Critical functions need to be continually addressed. These functions at 
least include:
  --Range and agriculture management;
  --Safety of dam;
  --National Environmental Protection Act compliance requirements; and
  --Public Law 93-638 contract administration and administration of the 
        Zuni Tribal grazing permits and leases by encoding, updating, 
        and maintaining range permits and grazing lease data into 
        TAAMS.
    Natural Resources--Fish and Wildlife Management--Tribal Priority 
Allocations Public Law 93-638 Tribal Contract.--A minimum of $111,000 
is required to operate the Zuni Fish and Wildlife program. This program 
manages activities associated with cultural and academic biological 
wildlife management. It also works with the other Federal and State 
agencies including the States of New Mexico, Arizona, and other 
customer base clientele from the private sector.
    Natural Resources--Forestry and Fire Management--Bureau of Indian 
Affairs Operated.--This program requires a minimum funding level of 
$189,000 to maintain program operations and maintain a one FTE.
    Trust Services--Real Estate Services--Tribal Priority Allocations 
Public Law 93-638 Tribal Contract.--This program requires a minimum 
level of funding in the amount of $198,000 to carry out program 
responsibilities associated with trial trust and individual allotments, 
tribal fee lands and tribal land assignments for the purpose of:
  --Leasing and permitting;
  --acquiring and disposal of lands and promotion of development of 
        mineral resources and renewable energy resources;
  --maintenance of existing contractual agreement and assurance in 
        recording of all encumbrances in the Tribal Trust Assets 
        Accounting Management System and Land Titles and Records 
        Office.
    The Program is responsible for land base protection of 537,055.55 
acres of land. (Included in the level of fund request is Probate and 
Rights Protection along with the Real Estate Services.)
    The program also promotes and encourages consolidation of 
fractionate interests of trust allotments by providing estate planning 
holding outreach efforts to provide information on the American Indian 
Probate Reform Act.
    Executive Direction and Administration--Bureau of Indian Affairs 
Operated.--A minimum of $192,000 is required for the Executive 
Direction and $160,000 is needed for the Administrative Services 
operations at the Zuni Agency. These two program operations provide 
critical functions which assist the Zuni Tribe in maintaining and 
managing oversight of BIA operated and tribal contract programs. These 
crucial program operations have been grossly underfunded for a number 
of years to adequately fulfill trust responsibilities to the Zuni 
Tribe.
    Law Enforcement--Zuni Police Department--Public Law 93-638 Tribal 
Contract.--A minimum funding level of $2.9 million is required to 
maintain law and order on the Zuni Reservation, which include the 
immediate community and the surrounding reservation lands. Over several 
years the tribal law enforcement program has not received adequate 
funding for the size of reservation lands and the growing population 
they are responsible for serving and protecting There has been an 
increase in violent crime, gang activities, methamphetamine and other 
drug uses, not to mention violence in the schools.
    Other unfunded mandates such as the Adam Walsh Act and the 
enactment of the Federal Tribal Law and Order Act, Sex Offender 
registry and other like requirement compliances requirements also 
requires that funds be provided to meet these mandates.
    The Zuni tribal wage scale grossly lags behind other agencies' wage 
scales to maintain law enforcement officers in Zuni. Additional funds 
are also required to maintain a stable trained staff with proper 
equitable compensation. It is critical the Department and BIA consider 
full funding for this critical program.
    Detention Center Public Law 93-638 Contract Program.--A minimum of 
$1.5 million is required to operate the Zuni Tribal detention center. 
Additional personnel with equitable funding are required to maintain 
the detention center operations. The Zuni Detention center is a 24-hour 
7-days a week operation. Like other organizational programs, the Zuni 
Tribe needs to bring the wage scale to a comparable level with other 
agencies to maintain/retain qualified trained personnel. This is a 
crucial operations that is not only associated with stress-related 
duties, but requires commitment and dedication of a workforce.
    Detention Facilities Operations and Maintenance--Public Law 93-638 
Contract Programs.--These two programs have traditionally been funding 
on a formula, square foot basis which does not provide adequate funds 
to operate and maintain infrastructure. Serious considerations need to 
be made to adequately fund operation and maintenance programs of 
facilities. A minimum of $150,000 is needed for the operations portion 
of the facility and a minimum of $30,000 is needed for the maintenance 
of the facility.
    Education and Adult Vocational Training Program.--$1 million is 
requested for the Education Tribal Scholarship program and $500,000 is 
requested for the Adult Vocational Training Program. These two programs 
have been part of the ``477'' program which is not part of the TPA 
program considerations. However, these two programs are critical and 
are abridge to ensuring viable future for the Zuni Community. These two 
programs will provide scholarship funding assistance to students 
pursuing college degrees and vocational type training to acquire 
marketable skills should they seek employment off the Zuni Reservation.
    The Zuni Tribe also requests that funds for be maintained/increased 
for the Indian Guaranteed Loan program to assist the Zuni Tribe in 
pursing economic development ventures.
    In addition, funds should be provided to fully support contract 
support cost for tribes administering programs under the authorities of 
Public Law 93-638. These programs have been traditionally administered 
by the Federal Government; however, when tribal governments take on 
responsibilities for program administration/operations, their 
budgetary/financial needs are not adequately addressed.
    As stated the Zuni Tribe is aware of the national economic 
conditions, however, in order for the Zuni Tribe to foster self-
determination, including, self-governance, we request you seriously 
consider the Zuni Tribe's funding request.
    The Zuni Tribe extends our appreciation for the opportunity to 
present our funding needs.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Abbey, Hon. Robert V., Director, Bureau of Land Management, 
  Department of the Interior.....................................    77
    Prepared Statement of........................................    82
    Questions Submitted to.......................................   116
    Summary Statement of.........................................    81
African Wildlife Foundation, Prepared Statement of the...........   240
Ala Kahakai Trail Association, Prepared Statement of the.........   243
Alaska Native Tribal Health Consortium, Prepared Statement of the   244
Aleutian Pribilof Islands Association, Prepared Statement of the.   245
Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Questions Submitted by.......................................    68
    Statement of.................................................     7
American:
    Association of Museums, Prepared Statement of the............   248
    Bird Conservancy, Prepared Statements of the...............250, 252
    Fisheries Society, Prepared Statement of the.................   254
    Forest:
        And Paper Association, Prepared Statement of.............   252
        Foundation, Prepared Statement of the....................   255
    Forests, Prepared Statement of...............................   237
    Geosciences Institute, Prepared Statement of the.............   257
    Indian Higher Education Consortium, Prepared Statement of the   260
    Institute of Biological Sciences, Prepared Statement of the..   263
    Lung Association, Prepared Statement of the..................   265
    Society:
        For Microbiology, Prepared Statement of the..............   268
        Of:
            Agronomy, Prepared Statement of the..................   271
            Landscape Architects, Prepared Statement of the......   272
    Veterinary Medical Association, Prepared Statement of........   240
Americans for the Arts, Prepared Statement of....................   235
Animal Welfare Institute, Prepared Statement of the..............   273
Arctic Slope Native Association, Prepared Statement of the.......   276
    Limited, Prepared Statement of the...........................   275
Assiniboine and Sioux Tribes of the Fort Peck Reservation, 
  Prepared Statement of the......................................   277
Association of:
    American State Geologists, Prepared Statement of the.........   280
    Art Museum Directors, Prepared Statement of the..............   282
    Fish & Wildlife Agencies, Prepared Statements of...........252, 254
    Public and Land-Grant Universities, Prepared Statement of the   284
    State Drinking Water Administrators, Prepared Statement of 
      the........................................................   286
    Zoos & Aquariums, Prepared Statements of...................240, 254
Audubon, Prepared Statement of...................................   252

Bat Conservation International, Prepared Statements of.........252, 289
Beaudreau, Hon. Tommy P., Director, Bureau of Ocean Energy 
  Management, Department of the Interior.........................    86
    Prepared Statement of........................................    87
    Questions Submitted to.......................................   119
Bennett, Barbara J., Chief Financial Officer, Environmental 
  Protection Agency..............................................   175
Bernalillo Board of County Commissioners, Prepared Statement of 
  the............................................................   292
Blunt, Senator Roy, U.S. Senator From Missouri, Prepared 
  Statements of................................................128, 193
Bonobo Conservation Initiative, Prepared Statement of............   240
Born Free USA, Prepared Statement of.............................   240
Bristol Bay Area Health Corporation, Prepared Statement of.......   245

Cherokee Nation, Prepared Statement of the.......................   295
Chickasaw Nation of Oklahoma, Prepared Statement of the..........   276
Children's Environmental Health Network, Prepared Statement of 
  the............................................................   298
Choctaw Nation of Oklahoma, Prepared Statements of the........276,  305
Chugach Regional Resources Commission, Prepared Statement of.....   294
Citizen Potawatomi Nation, Prepared Statement of the.............   276
City Parks Alliance, Prepared Statement of.......................   272
Civil War Trust, Prepared Statement of the.......................   308
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by...................................................    74
Collins, Senator Susan, U.S. Senator From Maine, Statement of....     5
Colorado River:
    Basin Salinity Control Forum, Prepared Statement of the......   310
    Board of California, Prepared Statement of the...............   311
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   313
Cook Inlet Tribal Council, Prepared Statement of the.............   301
Cooperative Alliance for Refuge Enhancement, Prepared Statement 
  of the.........................................................   304
Crop Science Society of America, Prepared Statement of...........   271

Dance/USA, Prepared Statement of.................................   316
Defenders of Wildlife, Prepared Statement of.....................   318
Doris Day Animal League, Prepared Statement of...................   559
Dzilth-Na-O-Dith-Hle Community Grant School, Navajo Nation, 
  Prepared Statement of the......................................   321

Environmental Investigation Agency, Prepared Statement of........   252

Fauna & Flora International, Prepared Statement of...............   240
Federal Forest Resource Coalition, Prepared Statement of the.....   323
Federation of State Humanities Councils, Prepared Statement of 
  the............................................................   326
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by..............................55, 116, 170, 216
Fond du Lac Band of Lake Superior Chippewa, Prepared Statement of 
  the............................................................   329
Friends of:
    Balcones Canyonlands National Wildlife Refuge, Prepared 
      Statement of...............................................   331
    Rachel Carson NWR, Prepared Statement of.....................   333
    The:
        Florida Panther Refuge, Inc., Prepared Statement of the..   334
        National Wildlife Refuges of Rhode Island, Prepared 
          Statement of the.......................................   334
        Potomac River Refuges, Prepared Statement of the.........   335
        Refuge Headwaters, Prepared Statement of.................   338
        Tampa Bay National Wildlife Refuges, Inc., Prepared 
          Statement of the.......................................   341
    Virgin Islands National Park, Prepared Statement of..........   342
    Wertheim National Wildlife Refuge, Prepared Statement of.....   344
Fuller Park Community Development Corporation, Prepared Statement 
  of.............................................................   252

Geological Society of America, Prepared Statement of the.........   345
Great Lakes Indian Fish and Wildlife Commission, Prepared 
  Statement of the...............................................   347
Green Mountain Club, Prepared Statement of the...................   350

Hardwood Federation, Prepared Statement of.......................   252
Hayes, David J., Deputy Secretary, Office of the Secretary, 
  Department of the Interior.....................................     1
Haze, Pamela K., Deputy Assistant Secretary for Budget, Finance, 
  Performance, and Acquisition, Office of the Secretary, 
  Department of the Interior.....................................     1
Hoeven, Senator John, U.S. Senator From North Dakota, Questions 
  Submitted by...................................................   233
Humane Society:
    International, Prepared Statement of.........................   240
    Legislative Fund.............................................   559

Illinois Lake Management Association, Prepared Statement of the..   352
Independent Tribal Courts Review Team, Prepared Statement of the.   353
International:
    Crane Foundation, Prepared Statement of......................   240
    Elephant Foundation, Prepared Statement of...................   240
    Fund for Animal Welfare, Prepared Statement of...............   240
    Mountain Bicycling Association, Prepared Statement of........   272
    Rhino Foundation, Prepared Statement of......................   240
Interstate Mining Compact Commission, Prepared Statement of the..   355
Izaak Walton League of America, Prepared Statement of the........   364

Jackson, Lisa P., Administrator, Environmental Protection Agency.   175
    Prepared Statement of........................................   181
    Summary Statement of.........................................   179
Jamestown S'Klallam Tribe, Washington State, Prepared Statement 
  of the.........................................................   367
Jane Goodall Institute, Prepared Statement of the................   240
Johnson, Senator Tim, U.S. Senator From South Dakota:
    Questions Submitted by.......................................    64
    Statement of.................................................   129

Kern County Valley Floor Habitat Conservation Plan Industry and 
  Government Coalition, Prepared Statement of the................   369
Klamath Bird Observatory, Prepared Statement of..................   252
Kodiak Area Native Association, Prepared Statements of the.....276, 371

Lac du Flambeau Band of Lake Superior Chippewa Indians, Prepared 
  Statement of the...............................................   372
Land and Water Conservation Fund Coalition, Prepared Statement of 
  the............................................................   374
Landrieu, Senator Mary L., U.S. Senator From Louisiana, Questions 
  Submitted by...................................66, 118, 119, 121, 222
League of American:
    Bicyclists, Prepared Statement of............................   272
    Orchestras, Prepared Statement of the........................   377
Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by........................................62, 171, 173, 216
Little River Band of Ottawa Indians, Prepared Statement of the...   379
Lummi Nation, Prepared Statement of the..........................   381

Maine's Department of Inland Fisheries and Wildlife, Prepared 
  Statement of...................................................   387
Malheur Wildlife Associates, Prepared Statement of...............   385
Maniilaq Association, Prepared Statement of......................   245
Marine Conservation Biology Institute, Prepared Statement of the.   390
Merritt Island Wildlife Association, Prepared Statement of the...   391
Metropolitan Water District of Southern California, Prepared 
  Statement of the...............................................   394
Mississippi Interstate Cooperative Resource Association, Prepared 
  Statement of the...............................................   395
Moat Creek Managing Agency, Prepared Statement of the............   397
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by.....................................172, 223
    Statements of.......................................3, 79, 127, 177

National:
    Association of:
        Abandoned Mine Land Programs, Prepared Statement of the..   398
        Clean Air Agencies, Prepared Statement of the............   405
        Forest Service Retirees, Prepared Statement of the.......   408
        State:
            Energy Officials, Prepared Statement of the..........   411
            Foresters, Prepared Statement of the.................   412
    Audubon Society, Prepared Statement of.......................   254
    Conference of State Historic Preservation Officers, Prepared 
      Statement of the...........................................   420
    Congress of American Indians, Prepared Statement of the......   415
    Cooperators' Coalition, Prepared Statement of the............   418
    Federation of Federal Employees Local 1957, Prepared 
      Statement of the...........................................   422
    Fish and Wildlife Foundation, Prepared Statement of the......   426
    Ground Water Association, Prepared Statement of the..........   428
    Humanities Alliance, Prepared Statement of the...............   430
    Institutes for Water Resources, Prepared Statement of the....   432
    Parks Conservation Association, Prepared Statement of the....   434
    Recreation and Park Association, Prepared Statement of the...   437
    Tribal:
        Contract Support Cost Coalition, Prepared Statement of 
          the....................................................   440
        Environmental Council, Prepared Statement of the.........   446
    Trust for Historic Preservation, Prepared Statement of the...   449
    Wildlife:
        Federation, Prepared Statement of the....................   452
        Refuge Association, Prepared Statement of the............   455
Natural Science Collections Alliance, Prepared Statement of the..   458
Nelson, Senator Ben, U.S. Senator From Nebraska, Questions 
  Submitted by...................................................    65
Nevada Department of Wildlife, Prepared Statement of the.........   459
Nez Perce:
    Tribal Executive Committee, Prepared Statement of the........   460
    Tribe, Prepared Statement of the.............................   276
North American Banding Council, Prepared Statement of............   252
Northwest:
    Indian Fisheries Commission, Prepared Statement of the.......   463
    Portland Area Indian Health Board:
        Letter From..............................................   468
        Prepared Statement of the................................   465
Norton Sound Health Corporation, Prepared Statements of the....245, 472
Nuclear Energy Institute, Prepared Statement of the..............   474

Office of the State Engineer, State of New Mexico, Prepared 
  Statement of the...............................................   476
1,237 Forest Owners, et al., Prepared Statement of...............   477
OPERA America, Prepared Statement of.............................   488
Oregon Water Resources Congress, Prepared Statements of the....491, 493
Outdoor Alliance, Prepared Statement of the......................   495

Pacific Salmon Commission, Prepared Statement of the.............   498
Partnership for the National Trails System, Prepared Statement of 
  the............................................................   500
Pennsylvania Fish & Boat Commission, Prepared Statement of the...   506
Performing Arts Alliance, Prepared Statement of the..............   503
PGA of America, Prepared Statement of............................   272
PNM Resources, Inc., Prepared Statement of.......................   508
Point Reyes Bird Observatory, Prepared Statement of..............   252
Port Gamble S'Klallam Tribe, Prepared Statement of the...........   276
Preservation Action, Prepared Statement of.......................   508
Puyallup Tribe of Indians, Prepared Statement of the.............   511

Quinault Indian Nation, Prepared Statement of the................   514

Rare Species Fund, Prepared Statement of.........................   240
Reed, Senator Jack, U.S. Senator From Rhode Island:
    Opening Statements of...............................1, 77, 125, 175
    Questions Submitted by.................................54, 164, 213
Restore America's Estuaries, Prepared Statement of...............   516
Ringling Bros. and Barnum & Bailey Center for Elephant 
  Conservation, Prepared Statement of............................   240

Sac and Fox Nation, Prepared Statement of the....................   518
Safari Club International, Prepared Statement of.................   240
Salazar, Hon. Ken, Secretary, Office of the Secretary, Department 
  of the Interior................................................     1
    Prepared Statement of........................................    10
    Summary Statement of.........................................     8
Santa Monica Mountains Conservancy, Prepared Statement of the....   521
Sawtooth Society, Prepared Statement of the......................   522
Sea Turtle Conservancy, Prepared Statement of....................   240
Sierra Club, Prepared Statement of...............................   252
Skokomish Tribe of Washington State, Prepared Statement of the...   524
Society of American Foresters, Prepared Statement of the.........   526
Soil Science Society of America, Prepared Statement of...........   271
South Eastern Wildlife & Environment Education Association, Inc., 
  Prepared Statement of the......................................   540
Southcentral Foundation, Prepared Statements of the............276, 543
SouthEast Alaska Regional Health Consortium, Prepared Statements 
  of the.......................................................276, 542
Spear, Susan, Acting Director, Strategic Planning Budget and 
  Accountability, United States Forest Service, United States 
  Department of Agriculture......................................   125
    Questions Submitted to.......................................   173
Squaxin Island Tribe, Prepared Statement of the..................   545
St. Croix Chippewa Indians of Wisconsin, Prepared Statement of 
  the............................................................   276
Sustainable Northwest, Prepared Statement of.....................   548

Tanana Chiefs Conference, Prepared Statements of the...........276, 550
Taos, New Mexico, Prepared Statement of..........................   552
Teddy Roosevelt Conservation Partnership, Prepared Statement of..   254
Tennessee Wildlife Resources Agency, Prepared Statement of the...   554
Tester, Senator Jon, U.S. Senator From Montana:
    Questions Submitted by.......................................   218
    Statements of............................................6, 80, 129
The:
    American Society for the Prevention of Cruelty to Animals, 
      Prepared Statement of......................................   555
    Conservation Fund, Prepared Statement of.....................   556
    Dian Fossey Gorilla Fund International, Prepared Statement of   240
    Equal Access to Justice Act and U.S. Forest Service Land 
      Management: Incentives to Litigate?........................   529
    Humane Society of the United States, Prepared Statements of240, 559
    Nature Conservancy, Prepared Statements of.......240, 252, 254, 562
    Trust for Public Land, Prepared Statements of..............272, 571
    University of Montana, Prepared Statement of.................   252
    Wildlife Society, Prepared Statements of...................254, 574
    Xerces Society for Invertebrate Conservation, Prepared 
      Statement of...............................................   252
Theatre Communications Group, Prepared Statement of the..........   566
Tidwell, Tom, Chief, United States Forest Service, United States 
  Department of Agriculture......................................   125
    Prepared Statement of........................................   132
    Questions Submitted to.......................................   164
    Summary Statement of.........................................   130
Tlingit and Haida Indian Tribes of Alaska, Prepared Statement of 
  the............................................................   568
Town of Ophir, Colorado, Prepared Statement of the...............   567

Union of Concerned Scientists, Prepared Statement of.............   252
United Steelworkers, Prepared Statement of.......................   252
University Corporation for Atmospheric Research, Prepared 
  Statement of 
  the............................................................   577
USGS Coalition, Prepared Statement of the........................   578

Washington:
    County Commission, Utah, Prepared Statement of the...........   580
    Wildlife Recreation Coalition, Prepared Statement of the.....   581
Watson, Hon. James, Director, Bureau of Safety and Environmental 
  Enforcement, Department of the Interior........................    91
    Prepared Statement of........................................    92
    Questions Submitted to.......................................   121
Whitetails Unlimited, Inc., Prepared Statement of................   582
Wild Salmon Center, Prepared Statement of........................   252
Wildlife:
    Conservation Society, Prepared Statements of...............240, 252
    Management Institute, Prepared Statement of..................   254
Wisconsin Department of Natural Resources, Prepared Statement of 
  the............................................................   584
World Wildlife Fund, Prepared Statements of....................240, 252

Zuni Tribe, Prepared Statement of the............................   585


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

                                                                   Page

Additional Committee Questions...................................   163
Airtanker:
    Contracting..................................................   146
    Delivery Studies.............................................   146
    Long-Term Strategy...........................................   141
    Modernization.........................................128, 131, 140
America's Great Outdoors Initiative..............................   131
Budget Context...................................................   132
Categorical Exclusion Impacts....................................   127
Collaborative Forest Landscape Forest Restoration Projects.......   157
Communities Theme................................................   135
Economic Impacts.................................................   144
Facilities and Roads Maintenance Priorities......................   137
Fire:
    Season 2012..................................................   140
    Theme........................................................   137
Firefighting:
    Asset Confidence.............................................   147
    Capacity.....................................................   152
    Helicopters................................................146, 152
    With Helicopters.............................................   154
Fiscal Year 2013 Budget Request..................................   126
    And Priorities...............................................   133
Forest:
    Health Management:
        Co-op....................................................   165
        Federal..................................................   165
    Resources Information and Analysis...........................   165
    Roads........................................................   158
Fuels Reduction Priorities.......................................   138
Gaining Efficiencies and Cost Control Measures...................   139
Hazardous Fuels..................................................   156
Helicopter Positioning...........................................   153
H.R. 1581.................................................129, 147, 163
Impacted Projects................................................   143
Increasing Efficiencies..........................................   131
Integrated Resource Restoration...........................128, 130, 142
    Direction....................................................   142
Land:
    Acquisition..................................................   169
    Rehabilitation...............................................   155
Landscape Scale:
    Conservation Prioritites.....................................   135
    Restoration..................................................   157
        Priorities...............................................   133
Modular Airborne Firefighting System.............................   141
National Forest System...........................................   126
Planning:
    Monitoring, and Analysis Priorities..........................   134
    Rule.........................................................   160
Predecisional Objection Process..................................   144
Preparedness Priorities..........................................   138
Program Consolidation............................................   157
Recreation and Trails Priorities.................................   136
Region 1.........................................................   148
Research Priorities..............................................   134
Restoration Theme................................................   133
Secure Rural Schools Program.....................................   159
Sequoia ForestKeeper vs. Tidwell...............................127, 143
State:
    And Private Forestry.......................................126, 164
    Fire Assistance..............................................   165
Station Fire.....................................................   154
Stewardship Contracting..........................................   161
Suppression Priorities...........................................   138
Urban and Community Forestry.....................................   157
Volunteer Fire Assistance........................................   165
Wildland Fire:
    Management............................................126, 130, 166
    Policy.......................................................   154

                       DEPARTMENT OF THE INTERIOR

                       Bureau of Land Management

Abandoned Mine Lands and Hardrock Mining Reform Proposals........    85
Additional Committee Questions...................................   116
Bureau of Land Management:
    Office of Surface Management Merger..........................   112
    Solar Supplemental Draft Programmatic Environmental Impact 
      Statement..................................................   118
Department of Defense Land.......................................   117
Fiscal Year 2013 Budget Overview.................................    83
Geothermal Development...........................................   115
Hydraulic Fracturing......................................103, 106, 110
Legacy Wells.....................................................    99
Meeting Our Nation's Needs.......................................    82
National Environmental Policy Act Reviews........................   116
Oil and Gas Production..........................................97, 100
Onshore:
    Inspection Fees............................................102, 111
    Oil and Gas:
        Leasing..................................................   101
        Production...............................................   104
    Renewable Energy Leases......................................   114
    Royalty Rates................................................   104
Priority Permitting..............................................   117
Promoting American Energy Production at Home.....................    83
Reductions and Efficiencies......................................    85
Royalty Rates....................................................   103
Well:
    Closure......................................................   108
    Integrity Inspections........................................   101
West Mojave Solar Energy Zone....................................   116

                   Bureau of Ocean Energy Management

Additional Committee Questions...................................   119
Key Priorities and Accomplishments...............................    88
Offshore:
    Lease Auctions...............................................   108
    Leasing......................................................   102
    Wind:
        Energy...................................................    95
        Inspection...............................................   109
The Fiscal Year 2013 Budget Request..............................    90

             Bureau of Safety and Environmental Enforcement

Additional Committee Questions...................................   121
Environmental Enforcement........................................    94
Fiscal Year 2013 Budget Request Specifics........................    94
Inspection:
    And Compliance Program.......................................    94
    Fees.........................................................    96
Outer Continental Shelf Inspection Personnel.....................   105
Permitting.......................................................    93
Recruitment of Key Positions.....................................    93
Regulatory Change................................................    93

                        Office of the Secretary

Additional Committee Questions...................................    54
America's Great Outdoors Initiative..............................    29
Automated Standard Application for Payments Program..............    33
Blackstone River Valley..........................................    26
Bureau of Land Management Solar Supplemental Draft Programmatic 
  Environmental Impact Statement.................................    58
Cadiz............................................................    55
Central Valley Project...........................................    58
Coastal Impact Assistance Program................................    40
Contract Support Costs...........................................    27
Cuts and Efficiencies............................................     9
Delivering Sustainable Growth Through Water......................    15
Encouraging Economic Development in Indian Country and Honoring 
  Trust Responsibilities.........................................    15
Energy........................................................... 9, 37
Federal Interagency Council on Outdoor Recreation--Background....    73
Fee to Trust Process and Applications............................    61
Fiscal Year 2013 Budget..........................................     8
Fish Hatcheries..................................................    36
477 Program......................................................    27
Gaming...........................................................    56
Geological Surveying of Afghanistan..............................    52
Government Reorganization........................................    53
Grazing Administrative Fee.......................................    50
Growing the Economy Outdoors.....................................    12
Gulf States Funding..............................................    44
Hunting and Fishing Access.......................................    34
Hydraulic Fracturing.........................................28, 34, 46
Indian:
    Country......................................................    10
    School Equalization Program..................................    30
Interior's Budget in Context.....................................    16
Joint Curatorial Collection Facility.............................    36
Land and Water Conservation Fund.............................29, 38, 49
Major Changes in the Fiscal Year 2013 Request....................    18
Mandatory Proposals..............................................    21
National:
    Park Service--Maintenance Backlog--Background................    72
    Wildlife Refuge Fund.........................................    51
North Woods National Park Proposal...............................    32
Offsetting Collections and Fees..................................    24
Offshore:
    Development..................................................    35
    Inspection Fees..............................................48, 50
    Wind.....................................................25, 31, 54
Oil and Gas......................................................    44
    Lease Revenues--Background...................................    71
    Production...................................................     9
    Revenues.....................................................41, 48
Onshore:
    Inspection Fees..............................................    48
    Royalty Rate.................................................    51
Powering America's Economy.......................................    12
Private Lands Permitting.........................................    55
Renewable Energy.................................................     9
Rural Water......................................................    30
San Luis Rey Water Settlement....................................    60
School Construction..............................................    33
Silvio O. Conte National Wildlife Refuge Land Acquisition........    39
Spurring Growth and Innovation Through Science...................    14
Stream Buffer Zone Rule..........................................    45
Streamgages......................................................    40
Tourism..........................................................    10
U.S.:
    Fish and Wildlife Service--Background........................68, 69
    Geological Survey--Disaster Preparedness--Background.........    70
White Nose Syndrome--Background..................................    71
Wild Horses......................................................    67
Yurok Funding....................................................    59

                    ENVIRONMENTAL PROTECTION AGENCY

Additional Committee Questions...................................   212
Ambient Testing..................................................   205
Aviation Fuel....................................................   212
Beaches Protection Categorical Grants............................   213
Bristol Bay Watershed............................................   185
Camelina Biodiesel and the Renewable Fuels Standard..............   218
Changing the Formula for Allocating Section 105 Funds............   213
Chemical Safety..................................................   217
Clark Fork Clean Up Site.........................................   221
Clean Water Act..................................................   196
CO<INF>2</INF> Emissions.........................................   210
Design for the Environment Program...............................   222
DeSoto County....................................................   201
Diesel Emissions Reduction Act...................................   214
Emission Control Area............................................   204
Enhanced Oil Recovery............................................   219
Environmental Education Program..................................   201
Farm Fuel Tanks..................................................   192
Fort Berthold Reservation........................................   233
Fuel Harmonization...............................................   194
Great Lakes Restoration Initiative...............................   215
Healy Clean Coal Plant...........................................   211
Hydraulic Fracturing......................................191, 197, 206
    Study......................................................199, 203
Information Technology Equipment--Executive Order 13514..........   232
Integrated Risk Information System...............................   223
Libby, Montana Superfund Site....................................   221
Mercury in Ambient Air...........................................   216
Narragansett Bay.................................................   183
New Rules and Regulations........................................   190
Oil Spill Response and Tribes....................................   220
Perchlorate......................................................   216
Permitting Guidance--Diesel Fuel And Hydraulic Fracturing........   234
PM<INF>2.5</INF>.................................................   211
Portland Cement Association......................................   196
Regional Haze Regulations........................................   227
State:
    And Local Air Quality:
        Grants...................................................   184
        Management Grants........................................   213
    Revolving Funds..............................................   182
Transitioning Particulate Monitoring Funding From Section 103 to 
  Section 105 Authority..........................................   213
Wastewater Operations--Underground Pipe Infrastructure...........   223

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
